                        C
                   INSPE TOR GEN
              AL                E
           CI




                                           RA
       E
     SP




                                               L
                                               M
    TRO




                                           RA
          LE
     UB




                                      OG

               DA                          R
                    S S E T R E LI E F P




SIGTARP                                            Office of the Special Inspector General
                                                   for the Troubled Asset Relief Program
Advancing Economic Stability Through Transparency, Coordinated Oversight, and Robust Enforcement



                                                                    Quarterly Report to Congress
                                                                                October 29, 2013
MISSION
SIGTARP’s mission is to advance economic stability by promoting the
efficiency and effectiveness of TARP management, through transparency,
through coordinated oversight, and through robust enforcement against
those, whether inside or outside of Government, who waste, steal or abuse
TARP funds.
	


STATUTORY AUTHORITY
SIGTARP was established by Section 121 of the Emergency Economic
Stabilization Act of 2008 (“EESA”), as amended by the Special Inspector
General for the Troubled Asset Relief Program Act of 2009 (“SIGTARP Act”).
Under EESA and the SIGTARP Act, the Special Inspector General has the
duty, among other things, to conduct, supervise and coordinate audits and
investigations of any actions taken under the Troubled Asset Relief Program
(“TARP”) or as deemed appropriate by the Special Inspector General. In
carrying out those duties, SIGTARP has the authority set forth in Section 6 of
the Inspector General Act of 1978, including the power to issue subpoenas.




Office of the Special Inspector General
for the Troubled Asset Relief Program
General Telephone: 202.622.1419
Hotline: 877.SIG.2009
SIGTARP@treasury.gov
www.SIGTARP.gov
                                                                                                                                        C
                                                                                                                                   INSPE TOR GEN
                                                                                                                              AL                E
                                                                                                                         CI




                                                                                                                                                          RA
                                                                                                                     E
                                                                                                                   SP




                                                                                                                                                              L
Message from the Special Inspector General




                                                                                                                                                              M
                                                                                                                   TRO




                                                                                                                                                          RA
                                                                                                                         LE




                                                                                                                    UB




                                                                                                                                                     OG
                                                                                                                              DA                          R
                                                                                                                                   S S E T R E LI E F P



Congress authorized the Office of the Special Inspector General for the Troubled Asset Relief Program
(“SIGTARP”) to investigate, search, seize, and arrest in criminal investigations related to the Troubled Asset Relief
Program (“TARP”). The financial system has stabilized, but the toxic corporate culture that led up to the crisis and
TARP has not sufficiently changed. At the core of the crisis was a pervasive culture at institutions of rampant risk-
taking and greed combined with significant unchecked power. SIGTARP has uncovered, stopped, and investigated
TARP-related crimes that serve as an important lesson to be learned from the crisis: that toxic corporate cultures
can serve as a breeding ground for criminal activity. SIGTARP will continue to change corrupt culture the way we
do it best, by removing those who corrupt culture, through arrests, convictions, and jail time.

There must be real consequences for breaking the law, and that is why SIGTARP’s mission is so critical. Today 65
individuals have been sentenced to prison for crimes investigated by SIGTARP and its law enforcement partners,
112 individuals have been convicted and await sentencing, 154 individuals have been criminally charged and face
trial, and 60 have been banned from their industries. Many of these were senior officers at their companies.

This report summarizes notable SIGTARP investigations that illustrate how tone at the top can breed a criminally
corrupt culture. SIGTARP’s investigation resulted in convictions against 4 bank officers at TARP-applicant Bank of
the Commonwealth and 6 co-conspirators for crimes to hide past-due loans and the bank’s near-failure condition.
Six have been sentenced to prison including the Vice President (sentenced to 17 years) and President of a subsidiary
(sentenced to 8 years). The CEO and another officer await sentencing. SIGTARP uncovered an alleged 6-year
criminal enterprise at failed Premier Bank that led to an indictment against its Chairman and 3 officers/directors.
More than $6 million in TARP money was lost when Premier failed. SIGTARP found that officers at failed United
Commercial Bank (“UCB”) allegedly engaged in fraudulent accounting tricks to conceal the bank’s condition
resulting in criminal charges against three officers. All of UCB’s $298 million in TARP funds are lost. SIGTARP’s
investigation resulted in prison sentences of 12, 7, and 3 years for three senior officers of failed TARP-applicant
FirstCity Bank for fraudulently tricking the loan committee into approving millions in loans to buyers of the CEO’s
property, and for siphoning millions. SIGTARP’s investigation of failed TARP-applicant Appalachian Community
Bank resulted in a 5-year prison sentence for the Vice President for criminal self-dealing and concealing bad loans.
SIGTARP’s investigation into TARP-applicant First Community Bank led to the CEO being sentenced to 2 years in
prison for criminally covering up bad loans. SIGTARP’s investigation of Mainstreet Bank resulted in a guilty plea by
the CEO for lying to SIGTARP about his use of TARP funds to purchase a vacation condo days after receiving the
funds.

We also examine the Hardest Hit Fund, which has only spent 22% of funds available for homeowners. Despite
SIGTARP’s recommendation, Treasury has never set a goal of how many homeowners it will help with HHF and
instead has allowed the states to decrease significantly the number of homeowners they anticipate helping. I hope
you find this report useful and would be happy to talk to you further about SIGTARP’s important mission.

                                                 Respectfully yours,




                                                 CHRISTY L. ROMERO
                                                 Special Inspector General
CONTENTS
Executive Summary	                                                          3
  Notable recent SIGTARP investigations 	                                   6
  Company change in culture	                                               12

Section 1
THE OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR THE
TROUBLED ASSET RELIEF PROGRAM	                                             15
  SIGTARP Creation and Statutory Authority	                                17
  SIGTARP Oversight Activities	                                            17
  The SIGTARP Organization	                                                48

Section 2
TARP OVERVIEW	                                                             51
  TARP Funds Update	                                                       53
  Financial Overview of TARP	                                              57
  Housing Support Programs	                                                67
  Financial Institution Support Programs	                                 102
  Asset Support Programs	                                                 161
  Automotive Industry Support Programs	                                   179

Section 3
TREASURY APPROVED LARGE DECREASES IN THE ESTIMATED NUMBER
OF HOMEOWNERS TO BE HELPED BY STATES THROUGH TARP’S HHF
PROGRAM	189
  Introduction	191
  States Have Spent 22% of TARP Funds Available for HHF on Assistance
  for Struggling Homeowners 	                                              192
  Treasury has Never Set a Goal of How Many Homeowners It Will Help
  with HHF or Required that States Set a Goal, Instead Approving Most
  States’ Significant Reductions of Estimates of the Number of Homeowners
  to be Helped	                                                            195
  Treasury Has Rejected All of SIGTARP’s 2012 Recommendations for HHF	 197
  The Majority of States Have Significantly Reduced Their Estimates of How
  Many Homeowners They Will Help Through HHF	                              198

Section 4
TARP OPERATIONS AND ADMINISTRATION	                                      257
  TARP Administrative and Program Operating Expenditures	                259
  Financial Agents	                                                      260

Section 5
SIGTARP RECOMMENDATIONS	                                              271
  Recommendations Regarding the Appointing of Directors to the Boards
  of CPP Banks	                                                       273
  Additional Recommendations Regarding Homeowners Redefaulting on
  Modified Mortgages Under HAMP	                                      276
  Recommendations Regarding Not Counting SBLF Funds as TARP
  “Repayments”	281

  Endnotes	305
APPENDICES
A.	 Glossary	336
B.	 Acronyms and Abbreviations	                                         340
C.	 Reporting Requirements	                                             343
D.	 Transaction Detail	                                                 347
E.	 Debt Agreements, Equity Agreements, and Dividend/Interest Payments	 485
F.	 HAMP Modification Statistics	                                       489
G.	 Cross-Reference of Report to the Inspector General Act of 1978	     490
H.	 Public Announcements of Audits	                                     491
I.	 Key Oversight Reports and Testimony	                                492
J.	 Correspondence	494
K.	 Peer Review Results	                                                510
L.	 Organizational Chart 	                                              511
EXECUTIVE SUMMARY
4   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                                      QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   5




The financial system has stabilized in part due to five years of the TARP bailout,
but the toxic corporate culture that led up to the financial crisis and TARP has
not sufficiently changed. At the core of the financial crisis was a pervasive culture
at financial institutions throughout the country of rampant risk-taking and greed
combined with significant and unchecked power. SIGTARP has uncovered,
stopped, and investigated crime related to TARP in the banking, housing, and
securities industries. The crimes we have detected serve as an important lesson
to be learned from the financial crisis: that toxic corporate cultures can serve as a
breeding ground for criminal activity.
    At SIGTARP, we have arrested and continue to arrest bankers who cultivated
a culture of reckless arrogance, believing they were untouchable even as they
broke the law. Profit chasing and aggressive expansion led to risky gambles on
lower quality loans that violated a bank’s internal policies and industry rules that
CEOs were telling employees to follow while also directing actions which they
knew violated the policies and rules. Culture will always be less about what is said
and more about what behavior is allowed, encouraged, even rewarded. SIGTARP
found that some bankers lied, plain and simple. They crossed a line, the line
between legally disclosing losses when their risky gambling went south, and illegally
hiding bad loans and declining bank health through criminal accounting tricks.
Some had been fraudulently masking the bank’s true condition even before the
financial crisis, but during the crisis, shrinking capital and increasing delinquent
loans left fraudulent bankers with nowhere to hide. They sought TARP bailout
dollars to have taxpayers fill in the holes on their fraud-riddled books. Others began
their criminal accounting tricks to hide that the bank was near failure only after
taxpayers invested TARP funds in what was supposed to be a “healthy” bank, but
was instead one saddled with hidden, delinquent high-risk loans and insufficient
reserves to cover losses. Some bankers cultivated a culture of self dealing,
criminally concealing that the bank was funding their luxury lifestyles, believing
they were entitled to the finest money could buy, even while they curtailed lending
and foreclosed on struggling homeowners.
    There must be real consequences for breaking the law, and that is why
SIGTARP’s mission is so critical. Regulators can change the rules of the road, but
some executives will try to shape their cultures around loopholes, workarounds,
or even criminal deception. Today 65 individuals have been sentenced to prison
for their crimes investigated by SIGTARP and its law enforcement partners, 112
individuals have been convicted and await sentencing, 154 individuals have been
criminally charged and face trial on those charges, and 60 individuals have been
banned from their industries.i Many of these defendants were at the highest levels
of banks or companies that applied for or received TARP bailout money. They
were trusted to exercise good judgment and make sound decisions. However, they
abused that trust. Many times they abused that trust for their own personal benefit.
For some, a change in culture only happens when the corrupt person is removed
by a law enforcement agency such as SIGTARP. Sometimes even an arrest by

iC
  riminal charges are not evidence of guilt. A defendant is presumed innocent until proven guilty.
6   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                           SIGTARP and subsequent conviction will not be enough to remove the sense of
                                           entitlement of a corrupt senior officer. For example, in a motion he drafted himself
                                           from prison, where he is serving his 30-year sentence for his $2.9 billion mortgage
                                           fraud scheme that SIGTARP uncovered, former Taylor, Bean and Whitaker
                                           Chairman Lee Farkas asked the court to allow him to keep his 1954 Cadillac,
                                           which was seized as a fruit of his crime, stating that it “is an irreplaceable, unique
                                           asset. Fewer than 700 were ever produced, a handful remain, and virtually none
                                           in the condition of this asset. It is impossible to replace. The proceeds that the
                                           Government may eventually get will never be able to replace this asset.”
                                               SIGTARP’s investigations stand as reminders that toxic corporate cultures can
                                           serve as a breeding ground for crime. Our investigations should serve as warning
                                           bells for companies before their culture develops into crime. The tone comes
                                           from the top. SIGTARP has uncovered CEOs leading and actively engaged in
                                           the fraud, enlisting subordinates to carry out their schemes. These CEOs may
                                           convince themselves that their actions are not criminally motivated, and are only
                                           intended to save the bank in tough economic times. However, we have found in
                                           our investigations that there is a slippery slope where a culture of crime starts to
                                           trickle down and then permeates their institutions. An ineffective or complacent
                                           board of directors failing to oversee management properly can add to the toxicity
                                           in the culture by enabling bank officers to engage in crime unchecked. These
                                           boards are often in complete shock when the bank’s true financial state is revealed,
                                           often when it is too late at the closing of the bank. Sometimes, directors actively
                                           participate in the crime. SIGTARP has identified and stopped crime in institutions
                                           with toxic cultures turned criminal. We will continue to bring justice and
                                           accountability to those who looked to, or involved, TARP in their crimes.




                                           NOTABLE RECENT SIGTARP INVESTIGATIONS
                                           Bank of the Commonwealth
                                           For 30 years the Bank of the Commonwealth operated as a community bank in
                                           Virginia, but that changed in 2006, when the bank began an aggressive expansion
                                           led by CEO and Chairman of the Board Edward Woodard to become a billion
                                           dollar bank in three years. SIGTARP’s investigation with its law enforcement
                                           partners uncovered that senior officers of the bank then began a culture of free-
                                           flowing high-risk lending to a few favored borrowers, circumventing internal
                                           policies and industry standards such as reviewing the cash flow of the borrower’s
                                           business or asking for adequate collateral. Bank officials issued $40 million in
                                           loans to two developers, Eric Menden and George Hranowskyj, knowing that
                                           the money was not used for construction, writing the word “fun” on checks, with
                                           bank employees joking that it was the “bank of Eric and George.” Instead of using
                                           these loans for construction or development as stated in the loan applications,
                                           the favored borrowers (like Eric and George) lived the high life, buying expensive
                                           antique and collector cars, homes, vacation homes, and rental properties. Bank
                                                                                QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   7




officials did not visit the properties to see if any bank-financed construction was
actually completed. If they had, they would have seen empty half-built shells
throughout Virginia.
    The bank’s risky lending culture set up a situation where the fate of the
bank was tied to the fate of these few favored borrowers, but the bank had not
adequately reserved to absorb losses on these loans, and then losses soared.
Lawyers for bank officials argued at trial that when the crisis hit, in an effort to save
the bank, bank officials responded by trying to help in “creative” ways to “shore
up difficult borrowers.” The convictions of these bank officials confirmed what
SIGTARP’s investigation revealed—that bank officers were not acting creatively but
rather criminally in conspiracy with the favored borrowers.
    Our investigation with our law enforcement partners revealed a culture of
deceit and corruption at the bank as senior officers conjured criminal scheme after
scheme with the favored borrowers to hide from banking regulators who examined
the bank and its application for TARP bailout funds that the favored borrower
loans were past-due and that as a result, the bank was about to fail. We uncovered
bank officers who falsified bank records to make bad loans look good, paying
past-due balances using money designated for other purposes—overdrawn bank
accounts to the tune of hundreds of thousands of dollars, new loans purportedly
for new projects, and construction loans with little to no completed construction.
We investigated how senior bank officials directed the favored borrowers to buy
foreclosed property off the bank’s books in rigged auctions, bidding up the price,
while disguising that the bank funded the purchase (adding more loans that
would ultimately default). One co-conspirator testified at trial that his relationship
with the bank was “you scratch my back, I will scratch yours.” We found that
bank officials removed more than 1,000 bad loans from the past-due report that
was presented to the board each month and back-dated documents. The bank
officials defrauded customers, shareholders, and Federal regulators, and turned to
taxpayers in an attempt to get TARP funds to cover up the massive holes caused by
fraudulent loans.
    The culture at the bank also involved personal greed, with bank officers
lining their own pockets on top of their big salaries, company cars, and generous
expense accounts. Senior bank officers approved bank loans to officers and
directors, without board approval or charging customary fees, including loans to
CEO Woodard to purchase two condos that did not require a single payment,
and $2 million in loans to the CEO’s son, Troy Brandon Woodard, who was a vice
president of a bank subsidiary, so that he could try his hand for the first time in
speculating in real estate. Brandon Woodard enjoyed a $100,000 spending spree on
home renovations fraudulently billed to the bank, and when he could not sell his
condo, Menden and Hranowskyj “bought it” using bank funds. Vice President and
Commercial Loan Officer Stephen Fields, who was engaged in much of the fraud
despite being a former federal bank examiner, accepted kickbacks in kitchen and
bathroom renovations from Menden and Hranowskyj.
    What started out as an aggressive culture of high-risk loans at Bank of
Commonwealth morphed into a corrupt culture where crime took root and
8   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                           became rampant, driving the bank into the ground. Four bank officers and six
                                           co-conspirators including the favored borrowers have been convicted of the
                                           crimes investigated by SIGTARP and its law enforcement partners; six have
                                           been sentenced to prison, with CEO Woodard and loan officer Jeremy Churchill
                                           awaiting their sentence and two co-conspirators have been sentenced to probation.
                                           Stephen Fields was sentenced to 17 years in prison followed by 5 years of
                                           supervised release; Brandon Woodard was sentenced to 8 years in prison followed
                                           by 5 years of supervised release. The six convicted co-conspirators including
                                           Menden and Hranowskyj were sentenced to prison for as long as 14 years.

                                           Premier Bank
                                           SIGTARP’s investigation with its law enforcement partners uncovered an alleged
                                           bank fraud conspiracy that led to an indictment on July 30, 2013, by a Cook
                                           County Grand Jury in Illinois against Zulfikar Esmail, the chairman of Premier
                                           Bank in Wilmette, Illinois; his wife Shamim Esmail, who was the executive vice
                                           president and general counsel; Robert McCarty, an attorney and director; and
                                           director William Brannin, for their participation until the bank’s failure in 2012 in
                                           an alleged six year scheme to defraud the bank and hide its poor financial condition
                                           from state regulators.ii The scheme allegedly was ongoing when Premier sought
                                           and received more than $6 million in TARP funds, which was lost when the bank
                                           failed.
                                               The indictment alleges that Zulfikar Esmail headed a criminal enterprise in
                                           which the others participated. All defendants are awaiting trial but should the
                                           allegations be substantiated, the allegations of misuse by Esmail and the other
                                           officers and directors laid out in the indictment depict a culture of corruption and
                                           greed that put personal enrichment over the interests of the financial institution
                                           and the community. Esmail, his wife who served as the general counsel, and the
                                           two bank directors allegedly conspired to hide the true financial condition of the
                                           bank by manipulating past-due loans through various schemes to make them
                                           appear current and using deceptive financial records to obtain TARP funds. The
                                           criminal conduct alleged in the indictment describes numerous acts of fraudulent
                                           conduct including using Premier Bank for personal profit at the expense of the
                                           bank and federal taxpayers. Esmail allegedly solicited bribes, including that
                                           Esmail’s children be given ownership interests, in exchange for lending to several
                                           grocery stores in Illinois. Esmail allegedly falsified contractor invoices to use bank
                                           funds to pay for renovations to Esmail’s home and rental properties including the
                                           construction of an underground tunnel at his home. By late 2008, the charges
                                           allege that the bank was nearing failure and applied for and received the first of two
                                           payments from Treasury in connection with the bank’s application for TARP funds
                                           in order to further the criminal scheme.




                                           ii Criminal charges are not evidence of guilt. A defendant is presumed innocent until proven guilty.
                                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   9




United Commercial Bank
Since the 1970s, United Commercial Bank (“UCB”) was a commercial bank
headquartered in San Francisco, California. Starting around 1998, UCB developed
a plan to grow its assets to more than $10 billion, in part to meet foreign criteria
to purchase a bank in China. UCB began to expand rapidly, nearly doubling its
loan portfolio from $4.4 billion to more than $8 billion between 2004 and 2007.
In 2007, it expanded its business and branches in the United States, Taiwan,
and China. Beginning in 2008, the bank had increasing past-due loans, and in
September 2008, the bank looked to TARP, receiving $298 million in TARP funds.
    SIGTARP’s investigation with its law enforcement partners uncovered a culture
of excessive risk and circumvented internal controls. According to allegations in
Federal indictments, beginning in September 2008, UCB executives, along with
others, sought to hide UCB’s losses and deteriorating financial condition from
Treasury, investors, depositors, regulators, and the bank’s independent auditor.iii
SIGTARP’s investigation with its law enforcement partners uncovered that bank
officers allegedly engaged in fraudulent accounting tricks to conceal the true
financial condition of the bank, and to delay and avoid publicly reporting the bank’s
impaired loans and true loan losses. Our investigation detected that bank officers
allegedly concealed that loan collateral and repossessed assets had declined in
value, fraudulently understated the risk of certain loans, and fraudulently delayed
downgrading the risk ratings of certain loans. We uncovered that bank officers
allegedly falsified the bank’s books and records so that they falsely described the
value of the bank’s loan collateral and repossessed assets, and omitted material
information on the likelihood that certain loans would be repaid and that bank
officials caused the bank to issue materially false and misleading public statements
and reports regarding its financial condition. Our investigation revealed that bank
officials allegedly lied to and misled the bank’s outside auditor. In November 2009,
UCB failed—the first TARP bank to fail—resulting in a complete loss of taxpayers’
$298 million TARP investment.
    SIGTARP’s investigation resulted in criminal charges against Ebrahim
Shabudin, the bank’s chief credit officer and chief operation officer, Thomas Yu,
a senior vice president and manager of credit risk and portfolio management,
and Lauren Tran, a vice president and the manager of credit policy at the bank.
The SEC filed civil charges against CEO Thomas Wu, Shabudin, Yu, and CFO
Craig On.

FirstCity Bank
Georgia-based FirstCity Bank pursued a rapid growth strategy driven largely by
loans to real estate developers, with the bank’s assets growing nearly 80% between
December 2005 and 2008. SIGTARP’s investigation with its law enforcement
partners revealed that the bank’s culture was one of deception, greed, self-dealing,
and abuse of power. CEO, Chairman, and President Mark Conner and senior
loan officer Clayton Coe tricked FirstCity’s loan committee into approving several

iii Criminal charges are not evidence of guilt. A defendant is presumed innocent until proven guilty.
10   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            multi-million dollar real estate loans to borrowers who, unbeknownst to the loan
                                            committee, were actually buying property owned by Conner or his co-conspirators.
                                            Conner siphoned off millions of dollars from fraudulent commercial real estate
                                            loans, ultimately driving FirstCity to failure. Despite his fiduciary duties as
                                            president, CEO, and chairman, for years, Conner went to great lengths to lie to
                                            bank regulators, cheat the bank, and steal millions of dollars.
                                                 To help fund FirstCity’s aggressive loan growth, Conner engineered loan
                                            participation deals with other banks to make larger loans, drawing other banks into
                                            his bad deals. Conner and his co-conspirators caused at least 10 other federally
                                            insured banks to invest in (participate in) fraudulent loans based on fraudulent
                                            misrepresentations, shifting all or part of the risk of default to the other banks.
                                            Some of these banks later failed.
                                                 Conner himself pocketed $7 million. In 2008, when FirstCity was hit by
                                            significant losses due to fraud and poor risk decisions, Conner attempted
                                            unsuccessfully to get a $6 million TARP bailout to cover his tracks. In an effort
                                            to make FirstCity’s financial position look much better than it really was, Conner
                                            and his co-conspirators tried to unload bad loans and foreclosed homes to straw
                                            purchasers, with the bank loaning them the money for the purchases. Even after
                                            the bank’s failure, Conner’s deceit continued. Knowing he was under investigation
                                            by SIGTARP, Conner left the country and filed for personal bankruptcy, testifying
                                            under oath that he was “down to less than nothing.” In truth, Conner controlled
                                            more than $4.5 million in offshore cash and investments that he tried to hide.
                                                 As a result of SIGTARP’s investigation, Conner was sentenced to 12 years
                                            in prison for his crimes, followed by 5 years of supervised release; Clayton Coe
                                            was sentenced to 7 years 3 months behind bars followed by 5 years of supervised
                                            release. The bank’s lawyer, Robert Maloney, was sentenced to 3 years 3 months in
                                            prison for bank fraud based on his disguising the transactions and funneling bank
                                            funds to Conner or to keep other bank loans current. All three were banned for
                                            life from working in the banking industry. SIGTARP found a storage unit rented in
                                            Maloney’s name containing artwork and furniture owned by Conner worth more
                                            than $89,000, including 19th Century European oil paintings, bronze sculptures,
                                            antique furniture, and a pair of gilt bronze candelabra worth $8,000. SIGTARP
                                            seized the contents of the storage unit.

                                            Appalachian Community Bank
                                            TARP-applicant Appalachian Community Bank was forced to close its doors on
                                            March 19, 2010, in large part because of high level executives that used the bank
                                            as their own personal piggy bank, committing numerous frauds that contributed
                                            to the bank’s failure. The culture at the bank was one of greedy endeavors by
                                            bank officers to hide bad loans and enrich themselves. Starting in 2006, the bank
                                            aggressively expanded operations and opened new branches increasing total loans
                                            (heavily concentrated in construction and development loans) from $457 million
                                            in 2005 to $812 million in 2008. The FDIC Inspector General found that as the
                                            bank grew larger and more risky, management continued to run it like a smaller,
                                                                                                       QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   11




less complex institution. Bank officials had shoddy underwriting, making loans that
violated loan-to-value limits and without current appraisals.
    SIGTARP, together with its law enforcement partners, uncovered extensive
criminal fraud by senior bank officials that started in 2007, well before the bank
applied for TARP. In its aggressive expansion, senior bank officials created a culture
of insider self-dealing using their positions in the bank to perpetuate their frauds
and unjustly enrich themselves. SIGTARP uncovered that bank officials caused the
bank to make loans to a straw borrower, disguising from the bank’s loan committee
that the money actually went to the bank officials to purchase land they would
immediately flip at a higher price. Our investigation disclosed that to further this
fraud, bank officials wire-transferred funds to purchase real estate, which caused
a bank account the officials controlled to be overdrawn by millions of dollars, but
the bank officials never recorded it in the bank’s records. Bank officials’ authority to
execute the transfers was never questioned by the board. Additionally, bank officials
used shell corporations to purchase two Florida condominiums financed by the
bank. Approximately two months later, bank officials refinanced their mortgages
and pocketed more than $875,000 that they used for personal purposes.
    Subsequently, when the market took a downturn, the bank faced ever increasing
losses that they could not cover. Having already turned a culture of risky lending
to criminal self-dealing, bank officials added to their criminal culture. SIGTARP’s
investigation uncovered that in order to prevent the FDIC from discovering the
growing past due loans on Appalachian’s books, bank officials arranged a number
of sham real estate transactions, with the intent to make it appear as if a co-
conspirator had purchased 11 properties from the bank’s foreclosure inventory
and was making regular monthly payments on the new mortgages. Bank officials
used shell companies they controlled called GPH Investments (“God Please Help”)
and PHL Investments (“Please Help Lord”) to hide past-due loans and a growing
inventory of foreclosed property by directing the bank to finance sales of the
properties to the GPH Investments and PHL Investments.
    Former bank vice president Adam Teague was sentenced to 5 years in prison.
Former vice president William Beamon has been charged with bank fraud in an
alleged scheme to divert funds from the bank related to foreclosed property held by
the bank.iv

First Community Bank
Louisiana-based First Community Bank had a culture that gave carte blanche
authority to its CEO and President Reginald Harper. The bank board trusted
Harper completely and even increased CEO Harper’s authority, on Harper’s
request, to make decisions on new loans of up to half a million dollars. CEO
Harper abused the board’s trust. Harper provided more than $2 million in loans to
subdivision developer Troy Fouquet and made sure that the loans were in different
quantities and in different names using Fouquet-controlled companies, so that
Harper could sign off on the loans himself without board approval. Prior to the
iv Criminal charges are not evidence of guilt. A defendant is presumed innocent until proven guilty.
12   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            financial crisis, Fouquet could not find buyers for homes he built to repay the
                                            loans.
                                                SIGTARP’s investigation revealed that CEO Harper turned a culture of
                                            unchecked CEO power into one of fraud to hide the fact that Fouquet’s loans
                                            were going bad. SIGTARP’s investigation uncovered that Harper devised various
                                            cover-up schemes to hide the bad loans from bank records that he used to apply for
                                            TARP, which would have filled in the hole caused by Fouquet’s bad loans. Treasury
                                            approved the TARP application but it was later withdrawn by the bank’s board who
                                            was unaware of the holes on the book’s records caused by the fraud. We found
                                            that Harper accepted checks from Fouquet that he knew would bounce and held
                                            the checks in limbo in the bank’s “cash items” bucket and falsified bank records to
                                            reflect the payment as having been made. We found that Harper and Fouquet used
                                            straw borrowers to take out new loans from the bank, the proceeds of which were
                                            used to pay Fouquet’s past-due loans. The judge who sentenced Harper to 2 years
                                            in prison followed by 3 years supervised release and sentenced Fouquet to 1½ years
                                            in prison followed by 3 years supervised release told Harper that this was not a one-
                                            time lapse in judgment or mistake, but a cover-up for years. At their sentencing,
                                            a director told the court how Harper had violated their trust. The losses from the
                                            fraud contributed to the bank being taken over by another bank.

                                            Mainstreet Bank (Calvert Financial)
                                            The culture at Missouri-based Mainstreet Bank is best evidenced by the bank’s use
                                            of the TARP money that its parent company Calvert Financial Corporation received
                                            and downstreamed to Mainstreet Bank. This was a bank where the tone certainly
                                            came from the top. The top was Darryl Woods, who was the chairman and CFO of
                                            Mainstreet Bank and the chairman, president and majority shareholder of Calvert.
                                            It was Woods who looked to TARP, signing the TARP application and TARP
                                            documents. SIGTARP’s investigation revealed that at the time Woods applied for
                                            TARP he had already been negotiating to buy a Florida waterfront condo. Within
                                            days of receiving the TARP funds, Woods directed the bank to spend more than
                                            a third of the funds to purchase the condo for his and other executives’ vacations.
                                            Our investigation revealed that eight days after the bank used TARP funds to buy
                                            the condo, Woods lied in response to a SIGTARP survey to the bank asking for a
                                            description on how it used TARP funds by omitting that TARP funds were used to
                                            purchase the vacation condo, which had taken place just days before. As a result of
                                            SIGTARP’s investigation with its law enforcement partners, Woods pled guilty to
                                            making the false statement to SIGTARP. He awaits sentencing. In addition, he will
                                            be banned from banking.




                                            COMPANY CHANGE IN CULTURE
                                            Law enforcement is but one effective method to change a corrupt culture at an
                                            institution, but by the time we are investigating, it is often too late to change
                                            culture. To fully address the corporate culture that led to TARP, companies must
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   13




change from within. They must adopt a culture of vigilance, with strong board
and management oversight—one that curbs risk and greed to the point where
the company can absorb its own losses without coming to taxpayers hat in hand
again. Companies must not only commit to following policies and rules, CEOs
and other senior officials must themselves be the example in following policies
and rules, and must recognize and reward employees that adhere to company
policies and industry rules and demonstrate accountability and integrity. And if
companies are honest with themselves, they may just admit that a good starting
point to change culture is executive pay. Excessive executive pay is far too routine
in spite of corporate scandals and continued losses. One immediate change in
culture that companies can make is to change to risk-based compensation that
discourages reckless risk-taking and ties personal success to the long-term success
of the company. Through changes in compensation and rewarding compliance with
rules and internal policies, the best change in corporate culture that companies can
make post-crisis is to focus on personal accountability. Although our jurisdiction is
narrow, we at SIGTARP will continue to change corrupt culture and bring personal
accountability the way we do it best, by removing those who corrupt culture,
through arrests, convictions, jail time, and industry bans.
14   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
              THE OFFICE OF THE SPECIAL
SECT IO N 1   INSPECTOR GENERAL FOR THE
              TROUBLED ASSET RELIEF PROGRAM
16   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                                                 QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   17




SIGTARP CREATION AND STATUTORY AUTHORITY
The Office of the Special Inspector General for the Troubled Asset Relief
Program (“SIGTARP”) was created by Section 121 of the Emergency Economic
Stabilization Act of 2008 (“EESA”) as amended by the Special Inspector General
for the Troubled Asset Relief Program Act of 2009 (“SIGTARP Act”). Under EESA
and the SIGTARP Act, SIGTARP has the responsibility, among other things, to
conduct, supervise, and coordinate audits and investigations of the purchase,
management, and sale of assets under the Troubled Asset Relief Program (“TARP”)
or as deemed appropriate by the Special Inspector General. SIGTARP is required
to report quarterly to Congress to describe SIGTARP’s activities and to provide
certain information about TARP over that preceding quarter. EESA gives SIGTARP
the authorities listed in Section 6 of the Inspector General Act of 1978, including
the power to obtain documents and other information from Federal agencies and
to subpoena reports, documents, and other information from persons or entities
outside the Government.
    Under the authorizing provisions of EESA, SIGTARP is to carry out its duties
until the Government has sold or transferred all assets and terminated all insurance
contracts acquired under TARP. In other words, SIGTARP will remain “on watch”
as long as TARP assets remain outstanding.




SIGTARP OVERSIGHT ACTIVITIES
SIGTARP continues to fulfill its oversight role on multiple parallel tracks:
investigating allegations of fraud, waste, and abuse related to TARP; conducting
oversight over various aspects of TARP and TARP-related programs and activities
through 22 published audits and evaluations, and 128 recommendations as of
September 30, 2013, and promoting transparency in TARP and the Government’s
response to the financial crisis as it relates to TARP.

SIGTARP Investigations Activity
SIGTARP is a white-collar law enforcement agency. As of September 30, 2013,
SIGTARP had more than 150 ongoing criminal and civil investigations, many in
partnership with other agencies in order to leverage resources. SIGTARP takes its
law enforcement mandate seriously, working hard to deliver the accountability the
American people demand and deserve. SIGTARP’s investigations have delivered
substantial results, including:

•	 criminal chargesi against 154 individuals, including 98 senior officers (CEOs,
   owners, founders, or senior executives) of their organizations
•	 criminal convictions of 112 defendants
•	 prison sentences for 65 defendants (others are awaiting sentencing)

iC
  riminal charges are not evidence of guilt. A defendant is presumed innocent until and unless proven guilty.
18              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     FIGURE 1.1                                        •	 civil cases and other actions against 63 individuals (including 49 senior officers)
                                                          and 51 entities (in some instances an individual will face both criminal and civil
     CRIMINAL CHARGES FROM
     SIGTARP INVESTIGATIONS                               charges)
     RESULTING IN PRISON                               •	 orders temporarily suspending or permanently banning 60 individuals from
     SENTENCES                                            working in the banking or financial industry, working as a contractor with the
        3%                                                Federal Government, or working as a licensed attorney
                                                       •	 orders of restitution and forfeiture and civil judgments and other orders
      4%
                   14%                                    entered for $4.68 billion. This includes restitution orders entered for $4.2
                                                          billion, forfeiture orders entered for $233.1 million, and civil judgments and
                              26%
           11%                                            other orders entered for $288 million. Although the ultimate recovery of
             9%                                           these amounts is not known, SIGTARP has already assisted in the recovery
                  14%    19%                              of $185.6 million. These orders happen only after conviction and sentencing
                                                          or civil resolution and many SIGTARP cases have not yet reached that stage;
                                                          accordingly, any recoveries that may come in these cases would serve to increase
        Conspiracy to Commit Fraud                        the $185.6 million
        Bank Fraud                                     •	 savings of $553 million in TARP funds that SIGTARP prevented from going to
        Wire and Mail Fraud                               the now-failed Colonial Bank
        False Statements and Entries

        State Charges (Conspiracy to collect               SIGTARP’s investigations concern a wide range of possible wrong-doing,
        upfront fees/commit grand theft)
                                                       and result in charges including: bank fraud, conspiracy to commit fraud or to
        Loan Fraud                                     defraud the United States, wire fraud, mail fraud, making false statements to the
        Alteration of records                          Government (including to SIGTARP agents), securities fraud, money laundering,
        Other                                          and bankruptcy fraud, among others.ii
                                                           Figure 1.1 represents a breakdown of criminal charges from SIGTARP
                                                       investigations resulting in prison sentences. Although the majority of SIGTARP’s
                                                       investigative activity remains confidential, over the past quarter there have been
                                                       significant public developments in several SIGTARP investigations, described
                                                       below.

                                                       TARP-Related Investigations Activity Since the July 2013 Quarterly
                                                       Report

                                                       Two Bank Executives and Virginia Developer Sentenced to Federal Prison for
                                                       Roles in Massive Bank Fraud Scheme – Bank of the Commonwealth
                                                       In September and October 2013, three of four defendants were sentenced to
                                                       Federal prison after a jury convicted all four of fraud charges relating to their roles
                                                       in a $41 million bank fraud scheme that masked non-performing assets at Bank
                                                       of the Commonwealth (“BOC”) and contributed to the failure of BOC in 2011.
                                                       The fourth defendant, Edward J. Woodard, the bank’s former chief executive
                                                       officer, president, and chairman of the board, is scheduled to be sentenced on
                                                       November 6, 2013. On September 16, 2013, Stephen G. Fields, former executive
                                                       vice president and senior commercial loan officer, was sentenced to 204 months
                                                       in Federal prison, followed by five years of supervised release. He was also ordered

                                                       ii T
                                                           he prosecutors partnered with SIGTARP ultimately decide which criminal charges to bring resulting from SIGTARP’s investigations.
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   19




to forfeit $61.6 million and to pay $332 million in restitution, jointly with the
other co-defendants. On September 30, 2013, Troy Brandon Woodard, the son of
Edward J. Woodard and the former vice president and mortgage loan specialist at a
subsidiary of BOC, was sentenced to 96 months in Federal prison followed by five
years of supervised release. He was also ordered to pay $2.4 million in restitution
and forfeit $4.3 million as part of the joint restitution and forfeiture orders. On
September 18, 2013, Dwight A. Etheridge, a favored BOC borrower who owned
and operated a residential and commercial development company, was sentenced
to 50 months in Federal prison, followed by five years of supervised release.
Etheridge was also ordered to pay $5 million as part of the joint restitution order.
Previously, on July 22, 2013, Thomas E. Arney, who pled guilty in the case, was
sentenced to 27 months in Federal prison, followed by three years of supervised
release. He was also ordered to pay $2 million in restitution as part of the joint
restitution order and to forfeit $7.5 million and a substantial amount of personal
property and real estate.
    BOC was a community bank headquartered in Norfolk, Virginia, that failed
in September 2011. It was the eighth largest bank failure in the country that year
and the largest bank failure in Virginia since 2008. The Federal Deposit Insurance
Corporation (“FDIC”) estimates that BOC’s failure will cost the deposit insurance
fund more than $268 million. In November 2008, BOC sought $28 million in
TARP funds. Subsequently, BOC’s Federal banking regulator asked the bank to
withdraw the TARP application, which BOC did.
    From 2005 to 2009, BOC more than doubled its assets, largely through
brokered deposits, a financial tool that allows investors to pool their money and
receive higher rates of returns. Because of the high volatility of these deposits, an
institution must remain well-capitalized to accept and renew brokered deposits.
BOC funded and administered many loans during this period without following
industry standards or the bank’s own internal controls, and by 2008, the volume
of the bank’s troubled loans and foreclosed real estate soared. From 2008 to
2011, BOC executives used various methods to fraudulently mask the bank’s true
financial condition out of fear that the bank’s declining health would negatively
impact investor and customer confidence and affect the bank’s ability to accept and
renew brokered deposits.
    To fraudulently hide BOC’s troubled assets, the bank insiders overdrew demand
deposit accounts to make loan payments, extended new loans or additional
principal on existing loans to cover payment shortfalls, changed the terms of loan
agreements to make loans appear current, and used funds from related entities
(sometimes without authorization from the borrower) to make loan payments.
In addition, the BOC executives hid millions of dollars of non-performing loans
from the bank’s board of directors. The BOC executives also provided preferential
treatment to troubled borrowers, including Etheridge and others, to purchase
defaulted property. The borrowers were already having difficulty making payments
on their existing loans and the financing allowed the borrowers to convert these
non-earning assets into earning assets. In some instances, these new loans
exceeded the purchase price of the property, which resulted in the borrowers
20   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            obtaining cash at closing that they used to make payments on their other loans
                                            at the bank and for their own personal purposes. In addition, BOC executives
                                            caused the bank to fund loans to troubled borrowers to purchase or attempt to
                                            purchase properties owned by Edward Woodard and Troy Brandon Woodard. BOC
                                            subsequently charged off $9 million of these loans as a loss. In addition, Edward
                                            Woodard and Troy Brandon Woodard caused BOC to pay fraudulent invoices
                                            for construction costs for a bank branch when the true costs were incurred for
                                            renovations to Troy Brandon Woodard’s personal residence.
                                                Also convicted in the case was Jeremy C. Churchill, a BOC vice president
                                            and commercial loan officer, who pled guilty to conspiracy to commit bank fraud.
                                            Churchill admitted that he submitted loan requests to BOC to provide more than
                                            $1 million to companies owned by Etheridge. BOC subsequently fully charged
                                            off these $1 million in loans as a loss. Churchill also admitted to requesting that
                                            BOC provide a $4.1 million loan to Etheridge’s company to be used to purchase
                                            an incomplete condominium project in Virginia Beach from the owners who were
                                            delinquent on their loan at the bank. Churchill admitted that he and Fields used
                                            approximately half the loan proceeds to pay down the underlying loan on the
                                            property. Churchill faces a maximum penalty of five years in prison when he is
                                            sentenced on November 1, 2013. Also, in July 2013, Recardo S. Lewis, a former
                                            vice president of Etheridge’s construction company, was sentenced to six months
                                            home detention and five years of probation for his role in the fraud scheme. Lewis
                                            was also ordered to pay $855,962 in restitution as well as $2 million in forfeiture,
                                            as part of the restitution and forfeiture orders issued. Lewis previously pled guilty
                                            to conspiracy to defraud BOC by submitting fraudulent draws on the incomplete
                                            condominium project in Virginia Beach.
                                                Also, in September 2012 and October 2012, business partners Eric H.Menden
                                            and George P. Hranowskyj, respectively, were sentenced to prison for their roles
                                            in the bank fraud scheme. Menden was sentenced to 11.5 years in Federal prison
                                            followed by three years of supervised release. Hranowskyj was sentenced to 14
                                            years in Federal prison followed by three years of supervised release. Menden and
                                            Hranowskyj were ordered to pay $32.8 million in restitution and to forfeit $43.5
                                            million as part of the joint restitution and forfeiture orders. On January 25, 2012,
                                            Natallia Green, a former employee of Menden and Hranowskyj, was sentenced to
                                            five years’ probation and was ordered to pay $106,519 in restitution after pleading
                                            guilty to making a false statement to BOC in a loan application. On August 10,
                                            2011, Maria Pukhova, another former employee of Menden and Hranowskyj, was
                                            charged with making a false statement on a loan application to BOC in April 2010.
                                            Pukhova’s case is pending.
                                                This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            Eastern District of Virginia, the Federal Bureau of Investigation (“FBI”), Internal
                                            Revenue Service Criminal Investigation (“IRS-CI”), the Securities and Exchange
                                            Commission (“SEC”), the Federal Deposit Insurance Corporation Office of
                                            Inspector General (“FDIC OIG”) and the Office of the Inspector General-Board of
                                            Governors of the Federal Reserve System (“FRB OIG”).
                                                                               QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   21




Chairman and Senior Executives of TARP Recipient Bank Charged in Criminal
Fraud Scheme – Premier Bank
On August 6, 2013, four former members of the board of directors and senior
executives of TARP recipient Premier Bank (“Premier”) in Wilmette, Illinois, were
charged in Cook County, Illinois, with operating an alleged long-running criminal
scheme that caused the failure of the bank. Premier failed on March 23, 2012. As a
result of the scheme, the charges also allege that Treasury was defrauded of nearly
$6.8 million in TARP funds. All four defendants were arrested on July 10, 2013, by
SIGTARP agents and its law enforcement partners.
    Zulfikar Esmail, former chairman of the board of directors; his wife, Shamim
Esmail, former executive vice president and general counsel; Robert McCarty, an
attorney and former member of the board; and William Brannin, former member
of the board, were all charged for their alleged roles in the scheme. All four
defendants are charged with financial institution fraud, continuing a financial
crimes enterprise, conspiracy to commit a financial crime and theft by deception.
In addition to those crimes, Zulfikar Esmail is also charged with organizer of a
financial crimes enterprise and commercial bribery of a financial institution.
    According to the indictment, the defendants allegedly hid the bank’s rapidly
declining financial condition from regulators beginning in 2006 until its failure in
2012 by repeatedly submitting allegedly materially false financial reports. By late
2008, the charges allege that the bank was nearing failure and applied for and
received the first of two payments from Treasury in connection with the bank’s
application for TARP funds in order to further the criminal scheme. To cover up
the true condition of the bank, purportedly money from third parties was used to
make payments on several loans that were past due, including payments from a
limited liability corporation owned in part by the Esmails’ children. It is also alleged
that Zulfikar Esmail solicited and demanded bribes from local businesspeople
and demanded ownership stakes for his children in customers’ businesses in
exchange for loans and lines of credit. It is also alleged that Zulfikar Esmail ordered
construction and improvement work done on his home and rental properties that
he owned and that the contractor prepare invoices that fraudulently showed the
work was done at the bank in order to bill the bank for the work. The estimated
cost to the FDIC as a result of the bank’s failure is $64.1 million.
    This case is being investigated by SIGTARP, the Office of the Attorney General
for the State of Illinois, and the FDIC OIG.

TARP Recipient Bank of America Liable for Defrauding the United States – Bank
of America, Countrywide, and Rebecca Mairone
On October 23, 2013, after a four-week trial and one day of deliberation, a Federal
jury in Manhattan found Bank of America Corporation and its predecessors,
Countrywide Financial Corporation and Countrywide Home Loans, Inc.
(collectively, “Bank of America”) liable for defrauding the United States, namely
the Federal National Mortgage Association (“Fannie Mae”) and the Federal Home
Loan Mortgage Corporation (“Freddie Mac”), by selling thousands of defective
loans to them.
22   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                The jury also found Rebecca Mairone, a former senior executive from
                                            Countrywide, liable for defrauding the United States in connection with her role in
                                            the fraudulent scheme. Civil penalty amounts will be determined by the court at a
                                            later date.
                                                Fannie Mae and Freddie Mac are government sponsored entities (“GSEs”)
                                            that were chartered by Congress to provide liquidity and stability to the U.S.
                                            housing and mortgage markets. To fulfill their mission, the GSEs purchase single-
                                            family residential mortgages from lenders and pool them into mortgage-backed
                                            securities (which they subsequently sell to investors) or hold the mortgages in their
                                            investment portfolios. To ensure that they purchase investment quality mortgages,
                                            the GSEs rely on representations and warranties by the lenders that the loans sold
                                            to the GSEs comply with certain underwriting standards.
                                                In a civil fraud lawsuit filed by the U.S. Attorney for the Southern District of
                                            New York against Bank of America and Mairone, the complaint alleged that the
                                            defendants caused U.S. taxpayers losses through the sale of toxic mortgage loans to
                                            Fannie Mae and Freddie Mac. The complaint sought civil penalties and damages of
                                            more than $1 billion.
                                                For many years Countrywide, on its own and as part of Bank of America,
                                            was the largest provider of residential mortgage loans to the GSEs. In 2007,
                                            Countrywide allegedly created a new loan origination program called the “High
                                            Speed Swim Lane” or “Hustle” to increase the speed at which it originated and sold
                                            loans to the GSEs. Around this same time, mortgage default rates were increasing
                                            throughout the country and, in response, the GSEs began to tighten their loan
                                            purchasing requirements to reduce risk. Under the Hustle, Countrywide executives
                                            eliminated certain internal quality control processes and fraud prevention measures
                                            that had been in place to ensure that its loans were sound. Countrywide executives
                                            ignored repeated warnings that the quality of loans originated under the Hustle
                                            would suffer. As a result of the Hustle program, Bank of America funneled loans
                                            to the GSEs while misrepresenting to the GSEs that the loans were investment-
                                            quality loans that complied with GSE underwriting requirements. After the Hustle
                                            loans defaulted, Bank of America refused to repurchase Hustle loans or reimburse
                                            the GSEs for losses incurred on those loans, even where the GSEs identified loans
                                            containing material defects or fraudulent misrepresentations.
                                                Bank of America received a total of $45 billion, in three infusions, in TARP
                                            funds in 2008 and 2009. Bank of America repaid the $45 billion TARP investment
                                            in full on December 9, 2009.
                                                The case was investigated by SIGTARP, the Commercial Litigation Branch of
                                            the U.S. Department of Justice’s Civil Division, the U.S. Attorney’s Office for the
                                            Southern District of New York, and the Federal Housing Finance Agency Office of
                                            Inspector General.

                                            Bank Chairman Admits TARP Funds Used to Purchase Luxury Vacation Property
                                            – Darryl Layne Woods
                                            On August 26, 2013, Darryl Layne Woods, the former chairman, president,
                                            and majority shareholder of Calvert Financial Corporation (“Calvert”), the bank
                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                23




holding company for Mainstreet Bank (“Mainstreet”), pled guilty in Federal court             FIGURE 1.2
in Jefferson City, Missouri, to misleading Federal investigators about his use of
TARP funds. Woods also served as the chairman and chief financial officer of
Mainstreet. As part of his plea agreement, Woods also agreed to a ban from any
future involvement in any banking activities, including but not limited to serving
as an officer, director, employee, or affiliated party of any financial institution or
agency. At sentencing, Woods faces up to one year in Federal prison, a fine of up to
$100,000, and restitution.
    In January 2009, Calvert received $1,037,000 through the TARP Capital
Purchase Program. Woods admitted that on February 2, 2009, he used $381,487
                                                                                             Photo of Florida building in which senior executive
of the TARP funds received by Calvert to purchase a luxury seaside condominium               of TARP bank Calvert Financial purchased luxury
in Ft. Myers, Florida. In February 2009, as part of its oversight function, SIGTARP          condominium.
sent letters to various financial institutions seeking specific information as to
how TARP funds were used by each institution. As president of Calvert, Woods
responded to SIGTARP’s Use of Funds Survey in a letter dated February 10,
2009, and did not disclose the purchase of the condominium. As part of his plea
agreement, Woods admitted that, in his letter to SIGTARP, he failed to disclose
that a significant portion of the TARP funds had been used to purchase a luxury
property, a material misrepresentation relating to the true use of the TARP funds.
Figure 1.2 shows the building in which Woods purchased the condominium.
    This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
Western District of Missouri, the FBI, and FRB OIG.

Former Bank Senior Officer and TARP Bank Settle with the SEC Over Fraud
Action – Anchor Bancorp Wisconsin
On August 14, 2013, Anchor BanCorp Wisconsin, Inc. (“Anchor”), and its former
chief financial officer, Dale C. Ringgenberg, agreed to a settlement with the SEC
on charges that Anchor and Ringgenberg intentionally or recklessly made material
misstatements in Anchor’s quarterly report for the period ending on June 30, 2009,
which was required to be filed with the SEC. Anchor received $110 million in
TARP funds in October 2008.
    The SEC’s complaint filed in Federal court in the District of Columbia alleged
that Ringgenberg took, or failed to take, actions to keep from having to correct
earnings that Anchor had already released to its shareholders. Ringgenberg
manipulated an estimate to offset an accounting adjustment required by Anchor’s
external auditors. He also refused or failed to properly account for real estate
appraisals and related information that was available after the quarter closed but
before Anchor filed its quarterly report. As part of the settlement, Ringgenberg is
barred from serving as an officer or director of a public company for five years and
will pay a civil penalty of $75,000. The settlement is subject to the approval of the
court.
    Treasury has realized a loss of $104 million of its $110 million TARP principal
investment in Anchor and has recouped the remaining $6 million pursuant to a
“pre-packaged” Chapter 11 bankruptcy reorganization that Anchor entered on
August 13, 2013, and completed on September 27, 2013.
24   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                              This case was investigated by SIGTARP, SEC, the U.S. Attorney’s for the
                                            Western District of Wisconsin, and the FBI.

                                            California Attorney Sentenced to Seven Years in Federal Prison for Obstructing
                                            Investigation into $22 Million Ponzi Scheme – David Tamman
                                            On September 23, 2013, David Tamman, a lawyer who was a partner at the Nixon
                                            Peabody law firm, was sentenced to seven years in Federal prison followed by three
                                            years of supervised release and was ordered to pay a $2,500 fine for his role in
                                            obstructing two separate investigations into a fraudulent $22 million Ponzi scheme.
                                            Tamman was also suspended from practicing law by the state bar of California and
                                            has been banned from appearing before the SEC.
                                                 On November 13, 2012, after a two-week criminal trial in Federal court in Los
                                            Angeles, California, Tamman was convicted of 10 counts relating to his role in the
                                            Ponzi scheme perpetrated by his client, New Point Financial Services, Inc., (“New
                                            Point”) and its owner, John Farahi. Tamman was convicted of conspiring with
                                            Farahi to obstruct the SEC’s investigation into Farahi’s illegal Ponzi scheme by (i)
                                            altering, creating, and backdating documents to make it falsely appear to the SEC
                                            that Farahi and New Point had made all the necessary disclosures to investors and
                                            that Farahi had properly transferred investor funds to his personal accounts and
                                            (ii) aiding and abetting Farahi in providing misleading and evasive testimony under
                                            oath to the SEC. Tamman also was convicted of being an accessory after the fact
                                            to Farahi’s mail and securities fraud crimes. At Tamman’s sentencing hearing, the
                                            court found that Tamman additionally altered documents that caused the National
                                            Association of Securities Dealers (now known as FINRA) to close an investigation,
                                            lied to federal investigators, gave false testimony at trial, and lied to a probation
                                            officer who was preparing a pre-sentence report after he was found guilty.
                                                 As previously reported, Farahi, a former investment fund manager and radio
                                            personality, was sentenced on March 18, 2013, to 120 months in Federal prison
                                            followed by three years of supervised release for his role in the $20 million
                                            fraudulent Ponzi scheme that he perpetrated through his investment firm New
                                            Point. Farahi was also ordered to pay more than $22 million in restitution to
                                            victims. Farahi previously pled guilty on June 4, 2012, to running the Ponzi
                                            scheme through New Point from 2005 through 2009. Farahi admitted to bilking
                                            investors by falsely promising to purchase corporate bonds backed by TARP. Farahi
                                            also admitted that he used investor money to support his lavish lifestyle, to make
                                            payments to previous New Point investors in order to continue the Ponzi scheme,
                                            and to finance and cover trading losses on speculative options trades. Facing
                                            massive trading losses at the end of 2008, Farahi borrowed millions of dollars from
                                            TARP recipients Bank of America and U.S. Bank (and other banks) by providing
                                            false financial information to these banks.
                                                 This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            Central District of California, and the FBI.
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   25




Over $17 Million Seized From Estate of Former CEO of TARP Bank – One Bank &
Trust
On July 12, 2013, $17.9 million in life insurance benefits, several bank accounts,
and five vehicles were seized in connection with a SIGTARP civil forfeiture
investigation of Layton Stuart, the former CEO of One Bank & Trust of Little
Rock, Arkansas (“One Bank”). Layton Stuart was the former owner of One
Financial Corporation (“One Financial”), the holding company for One Bank. In
October 2008, One Financial applied for $10 million in TARP funds. The request
was later amended and increased to $17.3 million. In June 2009, One Financial
received the requested $17.3 million in TARP funds. In September 2012, Stuart
was officially terminated from functioning in any capacity at One Bank by its board
of directors as a result of an order by the Office of the Comptroller of the Currency
(“OCC”). Layton Stuart passed away on March 26, 2013.
    The civil forfeiture complaint filed in Federal court in Little Rock, Arkansas,
seeks the forfeiture of the proceeds of financial transactions in connection with
a bank fraud and money laundering scheme allegedly committed by Stuart and
others. The alleged scheme began in 2008 and ran until 2012 when Stuart
was terminated as chief executive officer of One Bank. The complaint alleges
that Stuart diverted almost $2 million of the TARP money for his personal
use. Specifically, more than $1 million in TARP funds went to pay Federal and
state taxes owed by Stuart. Stuart allegedly ensured the transactions would go
undetected by disguising the payments as associated with a bank account known as
the “Interdepartmental Account.” The remaining money was diverted into another
bank account allegedly controlled by Stuart. The complaint was filed against the
property, alleging that the assets were traceable as proceeds from the bank fraud
and money laundering scheme.
    This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
Eastern District of Arkansas, the FBI, IRS-CI, and OCC.

Car Dealership Owner Pleads Guilty to Defrauding Bank – Tariq Khan
On September 3, 2013, Tariq Khan pled guilty to bank fraud in Federal court in
Chicago, Illinois, for defrauding Old Second National Bank (“Old Second”). Old
Second Bancorp, Inc., the parent company of Old Second, received $73 million in
TARP funds in January 2009.
    Khan, the owner of Urban Motors Corporation (“Urban Motors”), a car and
motorcycle dealership, secured a line of credit through Old Second. The proceeds
of the line of credit were to be used to purchase used vehicles for resale. The
proceeds from the sale of each vehicle were then to be applied against the loan
balance. Additionally, Urban Motors was to provide the bank with the titles of the
vehicles it acquired for resale. Urban Motors agreed to update this information
as necessary and provide the bank with certain financial reports that would be
accurate. Old Second relied on these reports when making decisions regarding the
line of credit.
    Khan admitted that from December 2008 through November 2009, he failed to
notify Old Second that Urban Motors sold specific vehicles, failed to pay the loan
26   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            amounts corresponding to those vehicles, and caused reports to be prepared that
                                            contained misrepresentations about the status of those vehicles. Khan also failed to
                                            provide Old Second with the titles of certain vehicles so that Urban Motors could
                                            sell those vehicles without notifying the bank of the sales. These actions allowed
                                            Urban Motors to avoid paying off the principal balance of the specific vehicle sold
                                            as well as to keep the proceeds from the sales. As a result of the scheme, Khan
                                            obtained $357,268 without applying those funds against the amount owed on the
                                            line of credit. Khan also admitted that he made misrepresentations to bank auditors
                                            about the status of particular vehicles so that the bank would continue to permit
                                            Urban Motors to access its line of credit.
                                                At sentencing on December 20, 2013, Khan faces up to 30 years in Federal
                                            prison, a fine of up to $1 million, and restitution. As a result of his plea, Khan is
                                            prohibited from participating in the affairs of any financial institution insured by
                                            the National Credit Union Share Insurance Fund or the FDIC for 10 years.
                                                This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            Northern District of Illinois, and the FBI.

                                            Missouri Businessman Sentenced to Federal Prison for Role in $2.8 Million Bank
                                            Fraud Scheme Against Two TARP Banks – Clint E. Dukes
                                            On August 29, 2013, Clint E. Dukes was sentenced in Federal court in Kansas
                                            City, Missouri, for his role in a bank fraud scheme that caused three banks,
                                            including two TARP-recipient banks, to lose more than $2 million. Clint Dukes
                                            was sentenced to 24 months in Federal prison followed by five years of supervised
                                            release, and ordered to pay $2.1 million in restitution to the victim banks U.S.
                                            Bank, Equity Bank (formerly First Community Bank), and First Central Bank. U.S.
                                            Bancorp of Minneapolis, the parent company of U.S. Bank, received $6.6 million
                                            in TARP funds and has since repaid the funds. First Community Bancshares, Inc.,
                                            the parent company of First Community Bank, received $14.8 million in TARP
                                            funds that remains outstanding. Brandi Dukes, the former wife of Clint Dukes,
                                            was sentenced to five years of probation and ordered to pay $14,181 in restitution
                                            jointly with Clint Dukes to Equity Bank.
                                                As previously reported, in November and December 2012, Clint Dukes and
                                            Brandi Dukes, respectively, pled guilty for their roles in the bank fraud scheme.
                                            Clint Dukes was convicted of bank fraud and Brandi Dukes was convicted of
                                            misprision of felony. Clint Dukes, owner of Dukes Auto Repair, admitted to
                                            creating false invoices and contracts from the state of Missouri in order to obtain
                                            approximately $3 million in loans from U.S. Bank, First Community Bank, and
                                            First Central Bank from 2004 to 2011. Brandi Dukes worked as the bookkeeper
                                            for his auto repair shop. Brandi Dukes admitted to concealing her then-husband’s
                                            fraud by submitting a fraudulent disbursement request and authorization to First
                                            Community Bank. Through his fraudulent scheme, Clint Dukes caused losses
                                            totaling more than $2 million at U.S. Bank, First Community Bank, and First
                                            Central Bank.
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   27




  This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
Western District of Missouri, the FBI, and the Higginsville, Missouri, Police
Department.

Perpetrator of Mortgage Lending Scheme Pleads Guilty to $5.3 Million Fraud –
Steven Pitchersky
On September 23, 2013, Steven Pitchersky pled guilty in Federal court in
Philadelphia, Pennsylvania, to wire fraud for his role in a fraudulent mortgage
lending scheme that caused TARP recipient Ally Bank, previously known as GMAC
Bank, to lose approximately $5.3 million. At sentencing on December 19, 2013,
Pitchersky faces up to 20 years in Federal prison and a $250,000 fine. Pitchersky
also agreed to pay $3.6 million in restitution.
    Pitchersky, who operated Nationwide Mortgage Concepts (“NMC”) admitted
to running a fraudulent mortgage lending scheme through NMC. NMC was
a mortgage lender licensed in more than 40 states to originate and refinance
mortgages. NMC participated in several Federal housing programs sponsored by
the United States Department of Veterans Affairs (“VA”) and Federal Housing
Administration (“FHA”), and was authorized to originate VA and FHA mortgages.
In November 2009, Pitchersky obtained a $10 million line of credit from Ally. From
August 2009 through January 2011, NMC used Ally’s line of credit to refinance
mortgages, including mortgages held by TARP recipient banks Bank of America
and Wells Fargo. As part of the agreement to provide the line of credit, Ally retained
a security interest in the mortgage loans until the loans were repaid. In most cases,
Ally also purchased the NMC refinanced mortgages. In his application for the
line of credit from Ally, Pitchersky falsely stated that he already had a $10 million
line of credit with an independent company called MPL; however, MPL was run
by Pitchersky. Ally approved the $10 million line of credit to Pitchersky. Also, Ally
funds provided to NMC were required to go through a third-party settlement agent
that would then disburse the funds for each NMC loan financed by Ally. As part
of the fraud scheme, Pitchersky used a company that he created called Hanover
Settlement, Inc. (“Hanover”) to be the settlement agent in Ally transactions.
Pitchersky admitted that he repeatedly concealed from Ally his affiliation and
ownership of Hanover. Pitchersky also admitted that, from December 2010 to
January 2011, he instructed Hanover to forward to NMC at least $5.3 million it
received from Ally and instead used those funds for other purposes.
    This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
Eastern District of Pennsylvania, the FBI, and the Department of Veterans Affairs
Office of Inspector General.

Former 12-Year Federal Fugitive Sentenced to Federal Prison in Massive
Nationwide Foreclosure Scam – Glen Alan Ward
On August 5, 2013, Glen Alan Ward, a former Los Angeles resident who fled
to Canada and was a Federal fugitive for 12 years, was sentenced to 11 years in
Federal prison followed by three years of supervised release, and ordered to pay
28   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            approximately $60,000 in restitution for his prominent role in a nearly 15-year
                                            foreclosure fraud scheme in California.
                                                As previously reported, Ward pled guilty to bankruptcy fraud and aggravated
                                            identity theft on April 8, 2013. Ward solicited and recruited homeowners whose
                                            properties were in danger of imminent foreclosure, including foreclosures by TARP
                                            banks, promising to delay the foreclosures for a $700 fee. Ward’s actions victimized
                                            more than 800 struggling homeowners, stole the identities of unsuspecting victims
                                            involved in bankruptcy proceedings, and exploited bankruptcy laws to defraud
                                            lenders, which included numerous TARP banks, including Bank of America and
                                            U.S. Bank.
                                                In order to impede these foreclosure sales, Ward stole identities of unsuspecting
                                            debtors who recently filed bankruptcy. He then directed his paying clients to grant
                                            an interest in their distressed home to one of those debtors, and subsequently
                                            directed the homeowner’s lender to stop the impending foreclosure sale due
                                            to the bankruptcy. The fraudulent scheme perpetrated by Ward and his co-
                                            conspirators delayed the foreclosure sales of hundreds of distressed properties
                                            by using bankruptcies filed in 26 judicial districts. As part of the scheme, Ward
                                            admitted collecting more than $1.2 million from his clients who paid for his illegal
                                            foreclosure-delay service, all of which he agreed to forfeit.
                                                Ward also admitted that he worked with Frederic Alan Gladle to perpetrate the
                                            foreclosure-rescue fraud. As previously reported, Gladle was charged with and pled
                                            guilty to the fraud scheme. On May 3, 2012, Gladle was sentenced to 61 months
                                            in Federal prison and ordered to pay $214,259 in restitution and to forfeit $87,901.
                                                This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            Central District of California, the U.S. Attorney’s Office for the Northern District
                                            of California, the FBI, and the U.S. Trustee’s Office.

                                            Three Charged in Foreclosure Rescue Scam – KATN Trust
                                            On September 11, 2013, a superseding indictment was returned against Alan
                                            David Tikal, his wife Tamara Teresa Tikal, and Ray Jan Kornfeld for their roles in
                                            a fraudulent mortgage rescue operation. Tamara Tikal and Kornfeld were arrested
                                            by SIGTARP agents and its law enforcement partners on September 12, 2013. It
                                            is alleged that Tamara Tikal and Kornfeld continued the scheme after Alan Tikal’s
                                            initial arrest in September 2012.
                                                According to the superseding indictment, from January 2010 through August
                                            20, 2013, the defendants conspired to deceive distressed homeowners throughout
                                            California and in other states. Alan David Tikal allegedly falsely told distressed
                                            homeowners that he was a “registered private banker” who could reduce their
                                            outstanding home loans by 75% and that he had a tremendous success rate.
                                            Through an entity named KATN Trust (allegedly short for “Kicking Ass, Taking
                                            Names”), distressed homeowners were promised that, for a significant upfront
                                            fee, the homeowners’ existing home loan would be replaced with a new loan
                                            in an amount equal to only 25% of the original loan principal. Homeowners
                                            allegedly were also instructed to send all payments on the new “loan” to Tikal or
                                            to a designated recipient and to ignore any demands for payment by the original
                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   29




lenders. In 2011, Alan Tikal filed bankruptcy and allegedly listed the properties of
many of his client victims as his personal property, and the financial institutions
that extended those mortgage loans as his creditors. The bankruptcy filing initiated
an automatic stay of any pending foreclosure actions, and thus, enabled the
Tikals, Kornfeld, and his co-conspirators to allege that the mortgage relief program
worked, to attract new distressed homeowners and to encourage the distressed
homeowners to continue making payments to KATN. Because of the bankruptcy
filing, and in spite of Alan Tikal’s arrest in September 2012, the indictment alleges
that many homeowners continued to make “loan” payments to KATN. The Tikals,
Kornfeld, and their co-conspirators allegedly never made any payments to financial
institutions on behalf of homeowners in satisfaction of their pre-existing mortgages
and never extended loans to any homeowners. This resulted in many victims
losing their homes to foreclosure. It is alleged that more than 1,000 victimized
homeowners paid in excess of $3.3 million to KATN and these funds were
transferred to accounts controlled by the Tikals.
     Alan Tikal is scheduled to go on trial on February 3, 2014. If convicted, he faces
up to 30 years in prison. Trial dates have not yet been scheduled for Tamara Tikal
or Kornfeld.
     This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
Eastern District of California, the California Attorney General’s Office, IRS-CI,
the California Department of Justice, and the Stanislaus County District Attorney’s
Office.

Four Sentenced to Prison for Running HAMP Mortgage Modification Scam –
CFSA Home Solutions
On July 29, 2013, Justin D. Koelle, Jacob J. Cunningham, John D. Silva, and
Dominic A. Nolan were sentenced for their roles in operating a mortgage
modification scheme that defrauded hundreds of victims. Koelle was sentenced to
nine months in prison, followed by five years of probation. Cunningham and Silva
were each sentenced to eight months in prison, followed by five years of probation,
and jointly paid $40,000 in restitution. Nolan was sentenced to six months in
prison, followed by five years of probation. Additional restitution for all four
defendants will be determined at a later court hearing. All defendants were also
prohibited from engaging in loan modification or loan consulting practices for the
duration of their sentences.
    Koelle, Cunningham, Silva, and Nolan pled guilty in May 2013 to charges that
stemmed from their roles in the fraud scheme. Also, in June 2012, co-defendant
Andrew M. Phalen was sentenced to one year in prison followed by five years of
probation for his role in the fraud scheme. All five defendants were arrested in
March 2012 and charged with multiple felony counts of violating California state
law, including conspiracy to charge illegal upfront fees for mortgage modifications,
conspiracy to commit forgery, grand theft by false pretenses, theft from an elder,
and money laundering.
    Between January 2009 and March 2012, the defendants enticed homeowners
to participate in a fraudulent loan modification program by making numerous false
30   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            misrepresentations to homeowners through advertisements, websites, promotional
                                            letters, and direct conversations. The misrepresentations included: (i) Treasury’s
                                            HAMP program would apply to homeowners’ circumstances; (ii) the defendants
                                            had a 100% success rate in obtaining mortgage modifications for homeowners; and
                                            (iii) that homeowners would be refunded their paid fees if the defendants could not
                                            modify a homeowner’s loan. The defendants never submitted any loan applications
                                            to banks on behalf of any of the homeowners who paid this fee. To evade detection
                                            by law enforcement, the defendants changed the names, phone numbers, and
                                            addresses of the sham companies they operated, including CSFA Home Solutions,
                                            Mortgage Solution Specialists, Inc., CS & Associates, and National Mortgage
                                            Relief Center.
                                                 The case was investigated by SIGTARP, Orange County, California, District
                                            Attorney’s Office, U.S. Secret Service, Huntington Beach Police Department,
                                            California Department of Real Estate, Orange County Probation Department,
                                            Orange County Sheriff’s Department, Costa Mesa Police Department, Irvine
                                            Police Department, and Santa Ana Police Department.

                                            Perpetrators in Nationwide Foreclosure Rescue Scam Sentenced to Federal
                                            Prison – Home Advocate Trustees
                                            On September 13, 2013, Mark S. Farhood and Jason S. Sant were sentenced to
                                            Federal prison for their roles in operating a nationwide online foreclosure rescue
                                            scam that went by various names, including Home Advocate Trustees (“HAT”) and
                                            Walk Away Today, and used various websites, including walkawaytoday.org and
                                            seefastusa.com, to deceive hundreds of vulnerable, distressed homeowners into
                                            surrendering their properties to the company. Farhood was sentenced to 11 years
                                            in prison, followed by three years of supervised release. Sant was sentenced to six
                                            years in prison, followed by two years of supervised release. Farhood and Sant were
                                            both barred from working in the real estate industry as part of their supervised
                                            release. Farhood was ordered to forfeit his interest in real property located in
                                            Costa Rica as well as his interest in several Peruvian businesses. The defendants
                                            were ordered to forfeit approximately $2 million in fraud proceeds as well as their
                                            interests in several bank accounts, silver coins and bars, and other assets.
                                                Farhood and Sant each pled guilty in May 2013 to conspiracy to commit
                                            wire fraud, wire fraud, and bank fraud in Federal court in Alexandria, Virginia.
                                            Farhood and Sant, co-owners and operators of HAT, admitted that they and
                                            their co-conspirators used their website walkawaytoday.org and other websites
                                            to fraudulently represent to hundreds of distressed homeowners that they could
                                            walk away from their homes and their mortgages without negative effect to their
                                            credit by selling their homes to HAT for a nominal fee. Farhood and Sant further
                                            admitted that, in order to obtain possession of the distressed homes, they executed
                                            quitclaim deeds in favor of HAT and sent the distressed homeowners fraudulent
                                            closing documents. The homeowners then stopped paying their mortgages and
                                            left their homes in the mistaken belief that they had sold their homes to HAT.
                                            Once HAT took possession of the homes, Farhood and Sant admitted to leasing
                                            the properties and collecting all rent and security deposit payments for their own
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   31




personal use. When lenders began foreclosure proceedings on the distressed
properties, Farhood and Sant delayed the foreclosure process by submitting to the
lenders fraudulent HAMP applications. Through these misrepresentations, HAT
fraudulently obtained more than $2.8 million.
    This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
Eastern District of Virginia, and the FBI.

California Attorneys Sentenced in Loan Modification Scam – Flahive Law
Corporation
On September 12, 2013, Gregory Flahive was sentenced to one year in county
jail and three years of probation in connection with his conviction on 10 counts
of state grand theft charges. The convictions stem from his participation in a
fraudulent loan modification scheme perpetrated through the law firm he shared
with his former wife, Cynthia Flahive, Flahive Law Corporation (“FLC”). Gregory
Flahive was also suspended from the practice of law for three years by the State Bar
of California in connection with the conviction.
     On July 10, 2013, Cynthia Flahive was sentenced to three years’ probation on a
misdemeanor conspiracy conviction for her participation in the fraud scheme. She
also was ordered to perform 240 hours of community service and to pay restitution
of $8,965. As part of her plea agreement, Cynthia Flahive agreed not to engage in,
offer, or advertise any residential loan modification services. Also, Cynthia Flahive
served a 60-day bar suspension while on a two-year bar probation.
     As previously reported, on May 16, 2012, Michael Kent Johnson, the former
managing attorney for FLC, entered a plea of no contest to misdemeanor
conspiracy for his participation in the FLC fraud scheme. Johnson is required
to serve three years of probation and 200 hours of community service, to pay
restitution of $10,560, and to not participate in loan modification services.
     From January 2009 to December 2010, FLC promoted its loan modification
services to homeowners through advertisements, including a television infomercial.
FLC falsely represented that experienced lawyers would negotiate with banks
on behalf of homeowners seeking modifications, including under HAMP,
misrepresented that FLC’s law firm status would give them extra leverage when
negotiating with such banks, and overstated FLC’s rate of success in obtaining
loan modifications on behalf of homeowners. FLC allegedly collected up-front fees
of up to $2,500 from homeowners for loan modification services that were never
performed.
     The case is being investigated by SIGTARP, the California Attorney General,
Folsom Police Department, Rancho Cordova Police Department, and El Dorado
Sheriff’s Department.

California Man Pleads Guilty in Foreclosure-Rescue Scam – Walter Bruce Harrell
On August 2, 2013, Walter Bruce Harrell pled guilty in Federal court in San
Francisco, California, to bankruptcy fraud and making false statements in
bankruptcy proceedings. At sentencing on November 13, 2013, Harrell faces up to
five years in Federal prison, a fine of up to $250,000, and restitution.
32   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                Harrell admitted that from March 2011 through January 2013, he perpetrated
                                            a scheme to prevent lenders, including TARP-recipient banks, from lawfully
                                            foreclosing on properties. Harrell admitted to soliciting homeowners whose
                                            properties were facing foreclosure and promising to postpone the foreclosure in
                                            exchange for a monthly fee. After the fees were paid, Harrell admitted that he
                                            directly or indirectly had the property owners transfer a fractional interest in their
                                            distressed property to individuals paid by Harrell to voluntarily file for bankruptcy.
                                            As required by law, these bankruptcy filings automatically halted the foreclosure
                                            sales until the lenders sought relief from the stay or until the bankruptcy case was
                                            dismissed. In circumstances where the bankruptcy court allowed a foreclosure to
                                            proceed, Harrell admitted that he paid an individual to file bankruptcy petitions in
                                            which he could execute the scheme to defraud creditors who were attempting to
                                            lawfully foreclose on numerous properties. In doing so, he delayed and obstructed
                                            foreclosure sales by creditors, including TARP banks, through improper use of the
                                            Federal bankruptcy process.
                                                This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            Northern District of California, and the FBI.

                                            Executive at Debt Collection Agency Sentenced for Bribing Bank Official –
                                            Oxford Collection Agency
                                            On September 9, 2013, Patrick Pinto, a former vice president at Oxford Collection
                                            Agency, Inc. (“Oxford”), was sentenced to two years of probation accompanied by
                                            six months of home confinement, and a $10,000 fine for his role in a scheme to
                                            defraud business clients as well as Webster Bank, a TARP recipient bank. Pinto
                                            previously pled guilty in June 2013 in Federal court in Bridgeport, Connecticut, to
                                            conspiracy to commit bank bribery. Patrick Pinto admitted that, from August 2008
                                            through October 2010, he and other Oxford executives engaged in a multi-year
                                            scheme to defraud its lender, TARP recipient Webster Bank, as well as its investors,
                                            clients and commercial debtors from which Oxford collected. As part of the
                                            scheme, Patrick Pinto and other Oxford executives made monthly cash payments to
                                            continue receiving debt collection business from TARP recipient U.S. Bank.
                                                As previously reported, in February 2013, Wilbur Tate III was arrested by
                                            SIGTARP agents and its law enforcement partners and charged with taking
                                            bribes from Oxford executives while he was an assistant vice president at TARP-
                                            recipient U.S. Bank. Tate’s case is pending. In January 2013, Richard Pinto, the
                                            now-deceased former chairman of Oxford, was sentenced to 60 months in Federal
                                            prison followed by five years of supervised release and was ordered to pay $12.3
                                            million in restitution. Richard and his son, Peter Pinto, each pled guilty to using
                                            Oxford to perpetrate the multi-million dollar fraud scheme. Peter Pinto served as
                                            Oxford’s chief executive officer. In December 2012, three more former Oxford
                                            senior executives were charged and pled guilty for their roles in the scheme:
                                            Randall Silver, chief financial officer; Charles Harris, executive vice president;
                                            and Carlos Novelli, chief operations officer. At sentencing, Peter Pinto faces a
                                            maximum of 35 years in prison and a fine up to $20 million; Silver faces up to 25
                                                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   33




years in prison and a $500,000 fine; and Harris and Novelli each face up to five
years in prison and a $250,000 fine.
    From January 2007 through March 2011, Oxford had agreements with
business clients to collect debts from debtors, to report such collections to the
clients, and to remit the collected payments back to the clients. The clients would
pay Oxford a portion of the monies collected by Oxford as a fee. As assistant vice
president at U.S. Bank, Tate was responsible for outsourcing debt collection
accounts to collection agencies, including Oxford. Silver, Harris, and Novelli
admitted to conspiring with Richard Pinto and Peter Pinto to execute a fraud
scheme in which they (i) collected funds from debtors on behalf of clients but
did not remit those funds to the clients and (ii) created false documents and used
other deceptive means to cover up their failure to remit collected funds to clients
and their improper use of the funds. Richard Pinto and Peter Pinto also admitted
to causing Oxford to secure a line of credit from TARP recipient Webster Bank
without disclosing to the bank that Oxford was defrauding its clients and had
significant outstanding payroll taxes. Silver also helped Richard Pinto and Peter
Pinto defraud Webster Bank by inducing the bank to increase the line of credit to
$6 million by withholding Oxford’s true financial condition and submitting falsified
financial records to the bank. Richard Pinto, Peter Pinto, and Silver also admitted
to laundering funds from the line of credit by providing those funds to clients
to maintain the clients’ business, which continued the scheme. The fraudulent
scheme led victims to lose more than $12 million.
    The case is being investigated by SIGTARP, the U.S. Attorney’s Office for
the District of Connecticut, the U.S. Attorney’s Office for the Northern District
of Georgia, IRS-CI, the FBI, and the Connecticut Securities, Commodities and
Investor Fraud Task Force.

Sentences Resulting from TARP-Related Crimes
Of the 112 defendants convicted as a result of a SIGTARP investigation, 65
defendants have already been sentenced to prison for TARP-related crimes, 12
were sentenced to probation, and the remainder await sentencing.
    The consequences for TARP-related crime are severe. The average prison
sentence imposed by courts for TARP-related crime investigated by SIGTARP is
67 months, which is nearly double the national average length of prison sentences
involving white collar fraud of 35 months.iii Thirteen defendants investigated by
SIGTARP were sentenced to 10 years or more in Federal prison, including Lee
Farkas, former chairman of mortgage company Taylor, Bean and Whitaker, who
is serving a 30-year prison sentence. Many of the criminal schemes uncovered by
SIGTARP had been ongoing for years, involve millions of dollars, and complicated
conspiracies with multiple co-conspirators. On average, as a result of SIGTARP
investigations, criminals convicted of crimes related to TARP’s banking programs
have been sentenced to serve 70 months in prison. Criminals convicted for
mortgage modification fraud schemes or other mortgage fraud investigated by

iii See the U.S. Sentencing Commission’s 2012 Sourcebook of Federal Sentencing Statistics for additional information.
34                 SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                             SIGTARP were sentenced to serve an average of 42 months in prison. Criminals
                                                                             investigated by SIGTARP and convicted of investment schemes such as Ponzi
                                                                             schemes and sales of fake TARP-backed securities were sentenced to serve an
                                                                             average of 108 months in prison. Figure 1.3 shows the people sentenced to prison,
                                                                             the sentences they received, and their affiliations.
     FIGURE 1.3




      Lee Bentley Farkas             Stephen Fields               David McMaster               Mark Anthony McBride         Delroy Davy                  George Hranowskyj              Mark A. Conner
      360 months                     204 months                   188 months                   170 months                   168 months                   168 months                     144 months
      3 years supervised release     5 years supervised release   5 years supervised release   5 years supervised release   5 years supervised release   3 years supervised release     5 years supervised release
      Chairman                       Executive Vice President     Vice President               Omni National Bank           Omni National Bank           Owner/Operator                 President
      Taylor, Bean & Whitaker        Bank of the Commonwealth     American Mortgage                                                                      345 Granby, LLC                FirstCity Bank
                                                                  Specialists Inc.




      Eric Menden                    Robert Egan                  Mark Farhood                 Glen Alan Ward               John Farahi                  Gordon Grigg                   Scott Powers
      138 months                     132 months                   132 months                   132 months                   120 months                   120 months                     96 months
      3 years supervised release     3 years supervised release   3 years supervised release   3 years supervised release   3 years supervised release   3 years supervised release     5 years supervised release
      Owner/Operator                 President                    Owner                        Partner                      Investment Fund Manager      Financial Advisor and Owner    CEO
      345 Granby, LLC                Mount Vernon Money Center    Home Advocate Trustees       Timelender                   and Operator                 ProTrust Management, Inc.      American Mortgage
                                                                                                                            New Point Financial                                         Specialists Inc.
                                                                                                                            Services, Inc.




      Robin Bruhjell Brass           Catherine Kissick            Troy Brandon Woodard         Howard Shmuckler             Clayton A. Coe               David Tamman                   Lori Macakanja
      96 months                      96 months                    96 months                    90 months                    87 months                    84 months                      72 months
      3 years supervised release     3 years supervised release   5 years supervised release   3 years supervised release   5 years supervised release   3 years supervised release     3 years supervised release
      Owner/Operator                 Senior Vice President        Vice President               Owner/Operator               Vice President               Attorney                       Housing Counselor
      BBR Group, LLC                 Colonial Bank                Bank of the Commonwealth     The Shmuckler Group, LLC     Senior Commercial Loan       Nixon Peabody LLP              Home Front, Inc.
                                                                  Subsidiary                                                Officer                                                     (a HUD-approved company)
                                                                                                                            FirstCity Bank




      Jerry J. Williams              Desiree Brown                Jason Sant                   Adam Teague                  Francesco Mileto             Glenn Steven Rosofsky          Frederic Gladle
      72 months                      72 months                    72 months                    70 months                    65 months                    [deceased]                     61 months
      3 years supervised release     3 years supervised release   2 years supervised release   5 years supervised release   5 years supervised release   63 months                      3 years supervised release
      President, CEO, and Chairman   Treasurer                    Co-owner                     Vice President                                            3 years supervised release     Operator
      Orion Bank                     Taylor, Bean & Whitaker      Home Advocate Trustees       Appalachian Community Bank                                Owner                          Timelender
                                                                                                                                                         Federal Housing Modification
                                                                                                                                                         Department
                                                                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                                        35




William Cody                    Delton de Armas                 Jeffrey Levine                Bernard McGarry              Richard Pinto [deceased]       Dwight Etheridge             Julius Blackwelder
60 months                       60 months                       60 months                     60 months                    60 months                      50 months                    46 months
5 years supervised release      3 years supervised release      5 years supervised release    3 years supervised release   5 years supervised release     5 years supervised release   3 years supervised release
Owner/Operator                  CFO                             Executive Vice President      Chief Operatiing Officer     Chairman                       President                    Manager
C&C Holdings, LLC               Taylor, Bean & Whitaker         Omni National Bank            Mount Vernon Money Center    Oxford Collection Agency       Tivest Development &         Friends Investment Group
                                                                                                                                                          Construction, LLC




Paul Allen                      Brent Merriell                  Robert E. Maloney, Jr.        Cheri Fu                     Roger Jones                    Raymond Bowman               Thomas Hebble
40 months                       39 months                       39 months                     36 months                    33 months                      30 months                    30 months
2 years supervised release      5 years supervised release      3 years supervised release    5 years supervised release   3 years supervised release     2 years supervised release   3 years supervised release
CEO                                                             In-house Counsel              Owner/President              Federal Housing Modification   President                    Executive Vice President
Taylor, Bean & Whitaker                                         FirstCity Bank                Galleria USA                 Department                     Taylor, Bean & Whitaker      Orion Bank




Michael Trap                    Tommy Arney                     Clint Dukes                   Angel Guerzon                Reginald Harper                Thomas Fu                    Karim Lawrence
30 months                       27 months                       24 months                     24 months                    24 months                      21 months                    21 months
3 years supervised release      3 years supervised release      5 years supervised release    3 years supervised release   3 years supervised release     5 years supervised release   5 years supervised release
Owner                           Owner                           Owner                         Senior Vice President        President and CEO              Owner/CFO                    Loan Officer
Federal Housing Modification    Residential Development         Dukes Auto Collision Repair   Orion Bank                   First Community Bank           Galleria USA, Inc.           Omni National Bank
Department                      Company




Ziad Nabil Mohammed             Troy A. Fouquet                 Gregory Flahive               Lynn Nunes                   Carlos Peralta                 Andrew M. Phalen             Sara Beth Bushore
Al Saffar                       18 months                       12 months                     12 months                    12 months                      12 months                    Rosengrant
21 months                       3 years supervised release      3 years probation             5 years supervised release   3 years supervised release     5 years probation            12 months
3 years supervised release      Owner                           Owner/Attorney                Owner                        Park Avenue Bank               Operator                     3 years supervised release
Operator                        Team Management, LLC            Flahive Law Corporation       Network Funding                                             CSFA Home Solutions          Operator
Compliance Audit                TRISA, LLC                                                                                                                                             Compliance Audit
Solutions, Inc.                                                                                                                                                                        Solutions, Inc.




Justin D. Koelle                Jacob J. Cunningham             John D. Silva                 Daniel Al Saffar             Dominic A. Nolan               Teresa Kelly                 Sean Ragland
9 months                        8 months                        8 months                      6 months                     6 months                       3 months                     3 months
5 years probation               5 years probation               5 years probation             3 years supervised release   5 years probation              3 years supervised release   3 years supervised release
CEO                             CEO                             Senior Official               Sales Representative         Owner                          Operations Supervisor        Senior Financial Analyst
CSFA Home Solutions             CSFA Home Solutions             CSFA Home Solutions           Compliance Audit             CSFA Home Solutions            Colonial Bank                Taylor, Bean & Whitaker
                                                                                              Solutions, Inc.




Mark W. Shoemaker               Michael Bradley Bowen
1 day                           1 day
(with credit for time served)   (with credit for time served)
5 years supervised release      5 years supervised release
36   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Location of TARP-Related Crimes
                                            SIGTARP has found, investigated, and supported the prosecution of TARP-related
                                            crime throughout the nation. Our investigations have led to criminal charges
                                            by prosecutors against 154 defendants (112 of whom have been convicted as
                                            of September 30, 2013, while others await trial).iv Many of these defendants
                                            committed their alleged crimes against victims in multiple states. These defendants
                                            were charged in courts in 18 states and the District of Columbia. SIGTARP
                                            investigations have identified victims in 44 states and the District of Columbia.
                                            Figure 1.4 shows locations of victims in cases SIGTARP has investigated. Figure
                                            1.5 shows locations of U.S. Attorney’s Offices and state prosecutorial offices where
                                            criminal charges were filed as a result of SIGTARP investigations.v

                                            FIGURE 1.4

                                            SIGTARP INVESTIGATIONS HAVE IDENTIFIED VICTIMS IN 44 STATES AND
                                            WASHINGTON DC
                                             AK




                                             HI

                                                States with victims:
                                             AL, AR, AZ, CA, CO, CT, DC, DE, FL, GA,
                                             HI, IA, ID, IL, IN, KS, KY, LA, MA, MD,
                                             ME, MI, MN, MO, MS, NC, NE, NH, NJ,
                                             NM, NV, NY, OH, OR, PA, RI, SC, TN, TX,
                                             UT, VA, WA, WI, WV, WY




                                            iv Criminal charges are not evidence of guilt. A defendant is presumed innocent until and unless proven guilty.

                                            v The prosecutors partnered with SIGTARP ultimately decide the venue in which to bring criminal charges resulting from SIGTARP’s
                                             investigations.
                                                                                                               QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   37




FIGURE 1.5

LOCATIONS WHERE CRIMINAL CHARGES WERE FILED AS A RESULT OF
SIGTARP INVESTIGATIONS



                                            Fargo
                                                                                                                 Concord
                                                                                                                   Boston
                                                                                      Buffalo      Brooklyn
                                                                                                 New York       New Haven
                                                                                                              Newark
 Sacramento                                                              Chicago                           Philadelphia
                                                                                              Wilmington
                                                                                District of Columbia    Upper Marlboro
    San Francisco                                                                                     Alexandria
                                                                      Springfield
                                                         Kansas City
                                                                                                          Norfolk
                                                              Jefferson City
        Las Vegas
                                                                               Nashville
Los Angeles
               Riverside
              San Diego                                                               Atlanta
                                                                                        Macon


                                                                                       Tallahassee
                                                                       New Orleans
                                                                                                Tampa




Los Angeles, California           Atlanta, Georgia                              Concord, New Hampshire
Central District of California    Northern District of Georgia                  District of New Hampshire
Sacramento, California            Springfield, Illinois                         Newark, New Jersey
Eastern District of California    Central District of Illinois                  District of New Jersey
Sacramento, California            Chicago, Illinois                             Las Vegas, Nevada
Superior Court of California      Northern District of Illinois                 District of Nevada
San Francisco, California         Chicago, Illinois                             Brooklyn, New York
Northern District of California   Circuit Court of Cook County, Illinois        Eastern District of New York
San Diego, California             New Orleans, Louisiana                        Buffalo, New York
Southern District of California   Eastern District of Louisiana                 Western District of New York
New Haven, Connecticut            Boston, Massachusetts                         New York, New York
District of Connecticut           District of Massachusetts                     Southern District of New York
Wilmington, Delaware              Upper Marlboro, Maryland                      Philadelphia, Pennsylvania
District of Delaware              Prince George’s District Court                Eastern District of Pennsylvania
Tampa, Florida                    Kansas City, Missouri                         Nashville, Tennessee
Middle District of Florida        Western District of Missouri                  Middle District of Tennessee
Tallahassee, Florida              Jefferson City, Missouri                      Alexandria, Virginia
Northern District of Florida      Western District of Missouri                  Eastern District of Virginia
Macon, Georgia                    Fargo, North Dakota                           Washington, DC
Middle District of Georgia        District of North Dakota                      District of Columbia



Restitution and Forfeiture from TARP-Related Crimes
As of September 30, 2013, investigations conducted by SIGTARP have resulted
in more than $4.68 billion in court orders for the return of money to victims
or the Government. These orders happen only after conviction and sentencing
or civil resolution and many SIGTARP cases have not yet reached that stage;
therefore, any additional court orders would serve to increase this amount. Orders
of restitution and forfeiture to victims and the Government of numerous assets
as well as seized assets pending final order include more than 65 vehicles, more
than 35 properties (including businesses and waterfront homes), more than 30
bank accounts (including a bank account located in the Cayman Islands), bags of
38   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            silver, U.S. currency, antique and collector coins (including gold, silver, and copper
                                            coins), artwork, and antique furniture, Civil War memorabilia, NetSpend Visa and
                                            CashPass MasterCard debit cards, Western Union money orders with the “Pay To”
                                            line blank, and the entry of money judgments by courts against more than
                                            20 defendants.
                                                Of the more than 65 vehicles ordered to be forfeited (including automobiles, a
                                            tractor, water craft, recreational and commercial vehicles) several are antique and
                                            expensive cars, including a 1969 Shelby Mustang, a 1932 Ford Model A, a 1954
                                            Cadillac Eldorado convertible, a 1963 Rolls Royce, and a 1965 Shelby Cobra.
                                                Some examples of assets seized by the Government in SIGTARP investigations
                                            are included in Figure 1.6.

                                            FIGURE 1.6




                                            2005 Hummer H2. Estimated value in 2013:        2010 Mercedes-Benz GLK 350 4Matic.
                                            $24,000. (Source Kelley Blue Book)              Estimated value in 2013: $29,000. (Source
                                                                                            Kelley Blue Book)




                                            1958 Mercedes-Benz Cabriolet 220. Estimated     Property located in Norfolk, Virginia. (Photo
                                            value in 2013: $185,000. (Source Hagerty.com)   courtesy of Bill Tiernan, The Virginian-Pilot)
                                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   39




                                                   19th century English painting of
                                                   “Royal Family,” oil on canvas.
                                                   Estimated appraised value:
                                                   $6,000.




Property located in Chesapeake, Virginia. (Photo   French-style gilt, bronze, and green malachite
courtesy of Bill Tiernan, The Virginian-Pilot)     columnar 16-light torchères with bronze
                                                   candelabra arms. Estimated appraised value:
                                                   $8,000.




2005 Scout Dorado. (Sold for $1,800)               Cash seized from safe, $158,000.




Alabama property ordered forfeited.                Kubota tractor.
40   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            TARP-Related Prohibitions from Working in Banking and Financial
                                            Services, as a Government Contractor, or as a Licensed Attorney
                                            SIGTARP investigations not only have led to lengthy prison terms, restitution
                                            and forfeiture orders and civil judgments for TARP-related offenses, but also
                                            have resulted in senior executives being suspended or permanently banned from
                                            working in banking and financial services, as a Government contractor, or as
                                            a licensed attorney. As of September 30, 2013, SIGTARP investigations have
                                            resulted in orders temporarily suspending or permanently banning 60 individuals
                                            from working in the banking or financial industry, working as a contractor with
                                            the Federal Government, or working as a licensed attorney. Many of these people
                                            were at the highest levels of companies that applied for or received a TARP bailout.
                                            They were trusted to exercise good judgment and make sound decisions. However,
                                            they abused that trust, many times for personal benefit. The suspensions and bans
                                            remove these senior executives from the banking and financial industries in which
                                            many practiced for years. A violation of the removal, in some instances, could
                                            be a basis for further prosecution. These high-level executives, some of whom
                                            were chief executive officers, chief financial officers, or licensed attorneys, have
                                            been sanctioned in a variety of ways, many by more than one authority: (i) by a
                                            sentencing court as part of the terms of supervised release after a prison term has
                                            been served; (ii) by the executive branch of the Federal government as a bar from
                                            engaging in a Government contract; (iii) by a Federal banking regulator, which has
                                            the authority to ban an individual from working in the banking industry; (iv) by the
                                            Securities and Exchange Commission(“SEC”), which has the authority to issue
                                            certain bans relating to working in the securities industry; (v) by a Federal court
                                            in enforcing a Federal Trade Commission (“FTC”) request to order a ban against
                                            advertising, marketing, promoting, or selling mortgage assistance or mortgage relief;
                                            and (vi) by a state bar association, which has the authority to suspend or disbar a
                                            licensed attorney.
                                                Of the 60 individuals, 35 were heads or owners of companies, including those
                                            who were chairmen, chief executive officers, and presidents of financial institu-
                                            tions. Most of the remaining 25 individuals were chief financial officers, senior vice
                                            presidents, chief operating officers, chief credit officers, licensed attorneys, and
                                            other senior executives. In the $2.9 billion fraud that led to the failures of Taylor,
                                            Bean and Whitaker Mortgage Corporation (“TBW”) and Colonial Bank, the chair-
                                            man and chief executive officer of TBW, Lee Bentley Farkas, not only was sent to
                                            Federal prison for 30 years, but also was barred from contracting with the Federal
                                            Government and is prohibited by the court from working in the financial or real
                                            estate industries while he is on supervised release subsequent to his release from
                                            Federal prison. TBW’s chief executive officer, Paul Allen, was temporarily barred
                                            from working with the Federal Government, in addition to receiving a 40-month
                                            prison sentence.
                                                The Federal Deposit Insurance Corporation (“FDIC”) issued lifetime bans
                                            against former president, CEO, and chairman Mark Conner of failed TARP-
                                            applicant FirstCity Bank, Stockton, Georgia, and former president and CEO
                                            Reginald Harper of failed TARP-applicant First Community Bank, Hammond,
                                                                                 QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   41




Louisiana, for engaging in unsafe and unsound banking practices and breaching
their fiduciary duty. The FDIC bans prohibit these former CEOs from participat-
ing in the conduct of the affairs not only of the banks where they were senior
officials but also of any bank in the future. The bans were issued in addition to
them receiving a 12-year prison term and two-year prison term, respectively. Jerry
Williams, former president, CEO, and chairman of failed TARP-applicant Orion
Bank, Naples, Florida, is barred from working in the banking industry or acting
as an investment advisor while he is on supervised release after his release from
his six-year prison term. New Point Financial CEO John Farahi, who engaged in a
Ponzi scheme that caused losses of $7 million to investors, including TARP-funded
banks, was not only sentenced to a 10-year prison term but also has been barred
from working for or being affiliated with any financial institution insured by the
FDIC while on supervised release and was separately banned by the SEC from any
broker/dealer association. SIGTARP investigations in the civil arena have also led to
FTC actions against seven senior executives engaged in two mortgage modification
fraud schemes. Senior executives at Residential Relief Foundation and Freedom
Companies Lending have been permanently banned from advertising, marketing,
promoting, or selling mortgage assistance products or services.
    SIGTARP investigations have also led to professional bans or suspensions of six
chief financial officers, chief operating officers, and chief credit officers of financial
institutions. As part of the terms of his supervised release following his five-year
prison sentence, TBW’s chief financial officer, Delton de Armas, is prohibited from
engaging in any aspect of the banking business, mortgage or real estate industry,
or finance for three years. Clayton Coe, FirstCity Bank’s chief financial officer, not
only was sentenced to 87 months in Federal prison but also was banned for life
from banking by the FDIC for engaging in unsafe and unsound banking practices
and breaching his fiduciary duty. Adam Teague, former chief credit officer of failed
TARP applicant Appalachian Community Bank, Ellijay, Georgia, was also banned
for life from banking by the FDIC for engaging in unsafe and unsound banking
practices and breaching his fiduciary duty, in addition to serving a 70-month prison
sentence.
    Nine attorneys have been investigated and brought to justice by SIGTARP
and its law enforcement partners. Robert Maloney, in-house counsel for First City
Bank, not only was sentenced to a 39-month prison term but also was ordered by
the FDIC to be banned from working in the banking industry and was disbarred
by the Georgia state bar. David Tamman, outside counsel for New Point Financial
of California, who was sentenced to 84 months in Federal prison for his role in
obstructing the Government’s investigation of New Point, was ordered banned
from appearing before the SEC and also had his law license suspended by the
California state bar association. Co-defendants Greg Flahive, Cynthia Flahive, and
Michael Kent Johnson of the Flahive Law Corporation not only were convicted of
conducting a mortgage modification fraud scheme but also were suspended by the
California bar association from practicing law. SIGTARP civil investigations have
also led to three attorney suspensions by the state of California: Sean Rutledge
of the United Law Group, John Michael Harrison of H.A.M.P. Resources, and
42   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Warren W. Quann of Second Chance Negotiations. Howard Shmuckler, convicted
                                            in 2012 both in state court in Maryland and in Federal court in Virginia for
                                            conducting a fraudulent mortgage rescue scheme while he was the owner and
                                            CEO of the Shmuckler Group, had also held himself out as a practicing attorney.
                                            But Shmuckler, having been previously convicted of bankruptcy fraud, had been
                                            disbarred by the District of Columbia bar association. In addition to his criminal
                                            convictions, Shmuckler is prohibited from practicing law without a valid law
                                            license in Maryland and is barred by the State of Maryland Department of Labor,
                                            Licensing and Regulation from providing credit services or foreclosure consultative
                                            services.

                                            SIGTARP Audit Activity
                                            SIGTARP has initiated 30 audits and six evaluations since its inception. As of
                                            September 30, 2013, SIGTARP has issued 22 reports on audits and evaluations.
                                            Among the ongoing audits and evaluations in process are reviews of: (i) Treasury’s
                                            decision to waive Internal Revenue Code Section 382 for Treasury’s sales of
                                            securities in TARP institutions; (ii) Treasury’s and the state housing finance
                                            agencies’ implementation and execution of the Hardest Hit Fund; and (iii) the
                                            Special Master’s 2013 executive compensation determinations at General Motors
                                            Company and Ally Financial Inc.

                                            Recent Audits/Evaluations Released

                                            Treasury’s Role in the Decision for GM to Provide Pension Payments to Delphi
                                            Employees
                                            On August 15, 2013, SIGTARP released an audit report, “Treasury’s Role in the
                                            Decision for GM to Provide Pension Payments to Delphi Employees,” which
                                            reviewed the decisions and actions involving the restructuring of General Motors
                                            Corporation (“GM”) during the auto bailout. Treasury’s injection of TARP funds in
                                            GM and Chrysler Group LLC (“Chrysler”) was the only bailout with a President’s
                                            Designee overseeing the companies’ restructurings – the Presidential Task Force
                                            on the Auto Industry (“Auto Task Force”). The Auto Task Force delegated the
                                            responsibility for GM’s restructuring to four primary officials who were part of an
                                            Auto Team led by Steven Rattner. GM’s bankruptcy would be one of the largest and
                                            fastest bankruptcies in our nation’s history. A new company, “New GM,” emerged
                                            from GM’s bankruptcy in July 2009, with Treasury owning 61% of its common
                                            stock. New GM purchased substantially all of GM’s assets while leaving behind
                                            many of its liabilities. One of the liabilities that New GM agreed to honor related to
                                            the pensions of certain former GM employees paid an hourly wage and represented
                                            by certain unions, and who had worked in GM’s automobile parts division that was
                                            spun off into Delphi Corporation (“Delphi”). The four Treasury Auto Team officials
                                            made it clear to SIGTARP that the decisions made and Treasury’s role related to
                                            Delphi pensions had to be viewed in the broader context of GM’s restructuring.
                                                The existence of Treasury’s Auto Team and the role these Treasury officials
                                            played sharply contrasted with the role played by Treasury officials under other
                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   43




TARP programs. The four Treasury Auto Team officials played a direct role in GM’s
decisions and operations up to and through GM’s bankruptcy. As GM’s only lender
and later GM’s largest investor, Treasury’s Auto Team had significant leverage
and influence on GM’s decisions leading up to and through the bankruptcy, first
exerted by replacing GM’s then-chief executive officer (“CEO”) Rick Wagoner
with Treasury’s choice, Fritz Henderson. According to Mr. Henderson, this sent
a message to GM executives and was an early indicator that Treasury, as the
main investor in GM, would have significant influence over GM’s decisions and
operations. After Treasury rejected GM’s restructuring plan, GM developed a new
plan with significant influence and leverage from the Auto Team. One GM official
said, “Ultimately it was that GM is not in control. And GM is totally dependent.”
    Although the Auto Team’s role was supposed to be advisory for matters not
requiring Treasury’s consent under the TARP loan agreement, in practice, it was
more than advisory. The TARP loan agreement gave Treasury the explicit right to
approve transactions over $100 million and new pension obligations, but the Auto
Team’s influence went far beyond that right. SIGTARP found that the Auto Team
used their leverage as GM’s largest lender to influence GM to make decisions in
areas that did not require Treasury’s consent, in line with Treasury’s preferences.
Auto Team officials told SIGTARP that they “had to carefully manage GM,” that
“we, the Government, were ultimately holding the purse strings” and “GM realized
that there was no other available source of money.” When an Auto Team official
was asked by SIGTARP how they conveyed their preference, given that ultimately
GM could do its own thing, the official said, “Well they could, but then they
couldn’t exist. I mean, as I said, as the lender we had a fair amount of leverage.”
    Driven by broader concerns about the auto industry, Treasury’s Auto Team
directed GM’s restructuring toward bankruptcy, first through replacing the CEO
who opposed bankruptcy, second by “highly” suggesting to GM that they felt “pretty
strongly” that a “Section 363” bankruptcy was the best approach. Third, although
CEO Henderson hoped to avoid bankruptcy through a bond exchange, the Auto
Team, who opposed the exchange, communicated to GM their preference for 90%
bondholder participation, a “very high” level of acceptance making bankruptcy
more likely. When the exchange failed, Treasury agreed to fund GM’s bankruptcy.
    Treasury’s Auto Team created a condition on funding GM’s bankruptcy that
would serve as pressure on GM and would drive pre-bankruptcy negotiations
and decisions. Treasury conditioned giving GM $30.1 billion in TARP funds on a
“quick-rinse bankruptcy” that would end in 40 days because Auto Team officials
thought that was the best way to save the automobile industry, concerned that
GM could not survive a lengthy bankruptcy and GM’s failure would have broader
systemic consequences. Neither Treasury nor GM believed that the company could
survive a lengthy bankruptcy; however, GM thought that the 40-day timeline was
not realistic, with its lawyer telling the Auto Team that it was “impossibly aggres-
sive. It’s never been done.” Treasury had leverage to set a timeframe that did not
seem realistic to GM, and had never been done before. If GM’s bankruptcy was not
completed in time, GM risked losing its only source of financing and its purchaser
in bankruptcy.
44   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 Treasury’s influence over GM deepened after Treasury decided to fund GM’s
                                            bankruptcy and become the majority owner of New GM. With their leverage as
                                            the purchaser of GM’s assets in bankruptcy, Treasury’s Auto Team had significant
                                            influence on GM to make specific decisions that were in keeping with Treasury’s
                                            preferences. One Auto Team official called Treasury’s leverage “considerable”
                                            because the alternative was “catastrophic,” adding that he meant liquidation. GM’s
                                            then-chief financial officer (“CFO”) Ray Young told SIGTARP, “We put forward
                                            recommendations, but at the end of the day, the purchaser [Treasury] makes the
                                            final decision.” An Auto Team official stated, “it is my understanding that as the
                                            buyer, we get to determine which assets are, you know, assets we would buy and
                                            which liabilities” we would take on. Treasury used its significant financial leverage
                                            to get GM to reach agreement with the two stakeholders that Treasury believed
                                            could hold up GM’s bankruptcy – the bondholders and the International Union,
                                            United Automobile, Aerospace, and Agricultural Implement Workers of America
                                            (“UAW”).
                                                 Treasury’s requirement in the December 2008 TARP loan agreement that
                                            GM reach a new deal with the UAW, Treasury’s conditioning TARP funds on a
                                            40-day quick-rinse bankruptcy, and UAW’s leverage to stall the bankruptcy or strike
                                            pressured GM on “getting the deal done” with the UAW and resulted in New GM
                                            taking on the liability to top up the pensions of UAW’s members who had worked
                                            at Delphi at the time of its 1999 spinoff from GM, increasing their pension benefit
                                            payments to their full benefit level. The Auto Team made it clear to GM that they
                                            wanted an agreement with the UAW prior to bankruptcy (which had to be before a
                                            June 1, 2009, bond payment due date) and the Auto Team actively negotiated and
                                            made the overall deal. The UAW understood that GM could not walk away from
                                            the May 18-19 negotiations and had to reach an agreement to be able to survive,
                                            and those same facts put pressure on GM. GM only had a couple of weeks to come
                                            to agreement with the UAW, and if they did not come to agreement, GM risked
                                            the UAW objecting to and prolonging the bankruptcy beyond 40 days, which GM
                                            believed would lead to liquidation. The UAW came to the negotiations with a “hit
                                            list” of priority items including the top-up. The top-ups were never discussed in the
                                            negotiations.
                                                 The Auto Team’s role in the decision to top up the pensions of Delphi’s UAW
                                            workers was not advisory. Consistent with the Auto Team’s practice, it would
                                            have been Treasury’s decision as the buyer to assume or reject the top-up liability.
                                            Although the top-up was previously a separate written agreement, the top-up was
                                            now included as one of the obligations in the overall new collective bargaining
                                            agreement with the UAW, which was included in the Master Sale and Purchase
                                            Agreement selling assets to New GM. GM could not decide on its own to agree
                                            to the new collective bargaining agreement that included the top-up because
                                            Treasury’s consent was required under the TARP loan agreement and Treasury was
                                            the purchaser in bankruptcy. The decision that New GM would honor the top-up
                                            was a joint decision by Treasury and GM with Treasury deciding to approve the
                                            UAW collective bargaining agreement with the top-up.
                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   45




    Even though the top-up was never discussed in the negotiations with the UAW,
it became a foregone conclusion that it would be included in the new UAW agree-
ment. Auto Team leader Rattner told SIGTARP that GM had the option of honor-
ing or not honoring the top-up, but GM needed UAW workers and UAW’s consent
was necessary for the bankruptcy. Auto Team leader Rattner and another Auto
Team official told SIGTARP that, because the UAW included it on their list, it was
clear that the UAW expected the top-up to be part of the overall deal. Treasury had
the power to object to New GM taking on the top-up obligation as part of the larger
UAW agreement, but had no desire to blow up the larger deal. Although the Auto
Team was concerned about the threat of a strike, they were also concerned with the
UAW prolonging the bankruptcy, calling not having an agreement like “shooting
yourself in the head.” Auto Team leader Rattner told SIGTARP that getting more
on pensions “was a game of chicken we didn’t want to play. We were under incred-
ible time pressure,” adding “it was not a ridiculous request, and one that we could
have honored and needed to honor.” CEO Henderson told SIGTARP that the pres-
sure to finish the negotiations resulted in no negotiation of the top-up, “the focus
was on getting the deal done,” and that if the top-up was not assumed, “it would
have been ‘mission impossible.’”
    Treasury’s Auto Team and GM did not agree to top up the pensions of other
former GM employees at Delphi, which did not have active employees at GM,
and therefore had no leverage to hold up GM’s bankruptcy. This included Delphi
employees who were paid a salary and employees who were paid an hourly wage
who were members of the International Union of Electronic, Electrical, Salaried,
Machine and Furniture Workers (“IUE”) and the United Steelworkers of America
(“USW”). Although in GM’s bankruptcy New GM did not assume the other top-up
agreements with Delphi IUE and USW employees because those unions did not
have leverage, subsequently New GM agreed to top up the smaller unions because
of the leverage those unions had to prolong Delphi’s bankruptcy or strike, which
GM believed would significantly impact its ability to survive.
    GM did not fail and the broader systemic consequences of a GM failure that
Treasury feared were avoided. There are two important lessons to be learned from
the role that Treasury played.
    First, the Auto Team’s deep involvement and significant influence on GM’s
decisions leading up to and through GM’s bankruptcy led to expectations that
Treasury would not act as a private investor, but as the Government. The Pension
Benefit Guaranty Corporation (“PBGC”), a Government-backed insurer of pen-
sions, had an expectation that decisions on what obligations GM would take on
related to the Delphi pensions would proceed differently than what might have
normally occurred, and could potentially have saved PBGC billions of dollars with
Treasury involved. Also contributing to this expectation was the fact that the Auto
Team negotiated with PBGC on behalf of GM related to what GM would pay on
the pensions. Delphi and its workers, who had been former GM employees, also
had the expectation that the Government would ensure that GM treat the pensions
of all former GM employees at Delphi the same out of fairness. Also contributing
to this expectation was the fact that TARP funds were being used, and that GM
46   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            had taken the position with Delphi (and PBGC) that taking on additional pension
                                            obligations violated the TARP loan agreement and required Treasury’s consent. A
                                            PBGC document stated that Delphi believed GM may be looking to the “car czar”
                                            to mandate that GM assume Delphi pensions as part of GM’s use of TARP funds.
                                            One former Delphi salaried employee told SIGTARP that Treasury “cannot throw
                                            off the mantle of Government and make themselves into a commercial enterprise”
                                            and “it is wrong of our Government to take funds from everyone and give it to the
                                            few.” However, Auto Team officials attempted to view top-ups as a private investor
                                            with one Auto Team official telling SIGTARP that the Government could not make
                                            everyone whole, saying, “I don’t think that anybody thinks bankruptcy is fair.”
                                                Treasury’s Auto Team did not always act as a private investor and at times
                                            acted as the Government to prevent GM from failing, concerned about financial
                                            stability in the auto industry. Although the Auto Team tried to view issues through
                                            a “commercially reasonable” lens like a private investor, they often did not act
                                            as a private investor, nor should they have. Without policies or procedures to
                                            define commercial reasonableness, Treasury used commercial reasonableness as
                                            a justification for all of its actions, even when those actions were based on other
                                            concerns. For example, Treasury decided not to move GM’s headquarters to
                                            save costs out of concerns over the impact on the city of Detroit. Treasury made
                                            other decisions based on broader concerns about the interconnectedness of the
                                            auto industry. No private investor holds the responsibility Treasury has to protect
                                            taxpayers and to promote financial stability in the economy. Treasury made the
                                            TARP injections in GM when no other private investor would lend or invest the
                                            money that GM needed, according to GM’s then CFO. Concerned about too much
                                            debt on GM’s balance sheet, Treasury funded GM’s bankruptcy and converted what
                                            would be higher priority TARP debt to a lower priority equity ownership in New
                                            GM and, according to GM, paid more than GM’s “Enterprise Value.” Treasury’s
                                            Auto Team took these actions based on concerns of the consequences of a GM
                                            failure on other companies in the American automotive industry, concerns not held
                                            by private investors. Even though the Auto Team tried to act as a private investor,
                                            they had considerations that no private investor would ever have had, blurring the
                                            lines between Treasury’s role as the investor and as the Government.
                                                Second, the additional leverage Treasury gave to certain stakeholders, such
                                            as the UAW, contributed to criticism of the disparate treatment between Delphi
                                            salaried and union employees. One Auto Team official told SIGTARP that the
                                            strength of the negotiating parties was dictated by the leverage they held, but
                                            SIGTARP found that additional leverage was given by Treasury. The Auto Team
                                            established a hierarchy of importance of stakeholders and issues that Auto Team
                                            officials believed had to be completed prior to GM’s bankruptcy filing to ensure a
                                            successful quick-rinse bankruptcy that would be completed in 40 days. Treasury
                                            did not view the non-UAW Delphi hourly employees or the Delphi salaried
                                            employees as having leverage because they did not have current employees at GM
                                            and therefore could not hold up GM’s bankruptcy.
                                                Two liabilities that the Auto Team had already decided to assume in bankruptcy
                                            were new agreements with the UAW and bondholders. The UAW had leverage
                                                                                    QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013            47




because it knew and understood from Treasury that it was committed to reorganize
GM and not let GM fail. Treasury’s 40-day bankruptcy condition gave the UAW
and bondholders additional leverage to threaten to hold up GM’s bankruptcy. They
may have been able to obtain more concessions than in a traditional bankruptcy
where the issues may be litigated. An Auto Team official told SIGTARP, “We had
to negotiate a deal that the UAW and bondholders would accept.” With Treasury’s
dictate of a 40-day bankruptcy and no indication that Treasury would extend that
timeframe, GM officials were under pressure, believing they had to reach agree-
ments with the bondholders and UAW prior to bankruptcy or risk losing Treasury’s
funding and liquidating.
    It is very difficult for Treasury to act as only a private investor and still fulfill its
greater governmental responsibilities. Treasury entered the TARP investments as
the Government, and must continue to act as the Government the whole time it
holds these investments, protecting taxpayers’ investment and fulfilling Treasury’s
responsibility to promote financial stability in the economy. An important lesson
Government officials should learn from the Government’s unprecedented TARP
intervention into private companies is that the actions and decisions taken must
represent the overarching responsibilities the Government owes to the American
public.

SIGTARP Hotline
One of SIGTARP’s primary investigative priorities is to operate the SIGTARP
Hotline and provide a simple, accessible way for the American public to report
concerns, allegations, information, and evidence of violations of criminal and
civil laws in connection with TARP. The SIGTARP Hotline has received and
analyzed more than 33,052 Hotline contacts. These contacts run the gamut                             SIGTARP’s Consumer Fraud Alert and
                                                                                                     its Armed Services Mortgage Fraud Alert
from expressions of concern over the economy to serious allegations of fraud
                                                                                                     are reproduced inside the back cover of
involving TARP, and a number of SIGTARP’s investigations were generated in
                                                                                                     this report.
connection with Hotline tips. The SIGTARP Hotline can receive information
anonymously. SIGTARP honors all applicable whistleblower protections and will
provide confidentiality to the fullest extent possible. SIGTARP urges anyone aware
of fraud, waste, or abuse involving TARP programs or funds, whether it involves
the Federal Government, state and local entities, private firms, or individuals, to
contact its representatives at 877-SIG-2009 or www.sigtarp.gov.

Communications with Congress
One of the primary functions of SIGTARP is to ensure that members of Congress
remain adequately and promptly informed of developments in TARP initiatives
and of SIGTARP’s oversight activities. To fulfill that role, the Special Inspector
General and her staff meet regularly with and brief members of Congress and
Congressional staff.

•	 On September 11, 2013, the Special Inspector General, Christy Romero,
   testified on SIGTARP’s August 15, 2013, audit entitled “Treasury’s Role in the
48   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                               Decision for GM to Provide Pension Payments to Delphi Employees” before
                                               the U.S. House Oversight and Government Reform Government Operations
                                               Subcommittee.
                                            •	 On July 22, 2013, SIGTARP’s Deputy Special Inspector General, Peggy Ellen,
                                               and Deputy Special Inspector General for Reporting, Mia Levine, presented
                                               briefings open to all House and Senate staff on SIGTARP’s July 24, 2013,
                                               Quarterly Report.

                                                Copies of written Congressional testimony are posted at www.sigtarp.gov/pages/
                                            testimony.aspx.




                                            THE SIGTARP ORGANIZATION
                                            SIGTARP leverages the resources of other agencies, and, where appropriate and
                                            cost-effective, obtains services through SIGTARP’s authority to contract.

                                            Staffing and Infrastructure
                                            SIGTARP’s headquarters are in Washington, DC, with regional offices in New
                                            York City, Los Angeles, San Francisco, and Atlanta. As of September 30, 2013,
                                            SIGTARP had 169 employees, plus one detailee from the Federal Housing
                                            Finance Agency Office of Inspector General. The SIGTARP organization chart
                                            as of September 30, 2013, can be found in Appendix L, “Organizational Chart.”
                                            SIGTARP posts all of its reports, testimony, audits, and contracts on its website,
                                            www.sigtarp.gov.
                                                From its inception through September 30, 2012, SIGTARP’s website has had
                                            more than 61.1 million web “hits,” and there have been more than 5.4 million
                                            downloads of SIGTARP’s quarterly reports. The site was redesigned in May 2012.
                                            From May 10, 2012, through September 30, 2013, there have been 165,748 page
                                            views.vi From July 1, 2012, through September 30, 2013, there have been 11,297
                                            downloads of SIGTARP’s quarterly reports.vii

                                            Budget
                                            Figure 1.7 provides a detailed breakdown of SIGTARP’s fiscal year 2013 budget,
                                            which reflects a total operating budget of $41.1 million. The Consolidated and
                                            Further Continuing Appropriations Act, 2013 (P.L. 113-6) provided $41.7 million
                                            in annual appropriations. The operating budget included $39.6 million in annual

                                            vi In October 2009, Treasury started to encounter challenges with its web analytics tracking system and as a result, migrated to a new
                                              system in January 2010. SIGTARP has calculated the total number of website “hits” reported herein based on three sets of numbers:

                                              • Numbers reported to SIGTARP as of September 30, 2009
                                              • Archived numbers provided by Treasury for the period of October through December 2009
                                              • Numbers generated from Treasury’s new system for the period of January 2010 through September 2012

                                              Starting April 1, 2012, another tracking system has been introduced that tracks a different metric, “page views,” which are different
                                              than “hits” from the previous system. Moving forward, page views will be the primary metric to gauge use of the website.

                                            vii Measurement of quarterly report downloads from SIGTARP’s redesigned website did not begin until July 1, 2012.
                                                                                     QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   49




appropriations and portions of SIGTARP’s initial funding that have not yet been
spent.
   Figure 1.8 provides a detailed breakdown of SIGTARP’s fiscal year 2014
budget, which reflects a total operating plan of $45.3 million. This would include
$34.9 million in requested annual appropriations and portions of SIGTARP’s initial
funding.

FIGURE 1.7                                      FIGURE 1.8

SIGTARP FY 2013                                 SIGTARP FY 2014
OPERATING BUDGET                                OPERATING PLAN
($ MILLIONS, PERCENTAGE OF $41.1 MILLION)       ($ MILLIONS, PERCENTAGE OF $45.3 MILLION)


                                                              Other Services
        Other Services                                              $1.6, 4%
              $1.6, 4%
                                                  Advisory Services
Advisory Services                                             $3.2
            $3.4
                                                                       7%
                    8%
                                                Interagency
 Interagency                         Salaries                    20%
                                                Agreements                           Salaries
 Agreements     20%          66%     and              $9.3                     67%   and
        $8.2
                                     $27.0                                           $30.2
                                                        Travel
             Travel                                  $1.0, 2%
          $0.9, 2%
50   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
SECT IO N 2   TARP OVERVIEW
52   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013            53




This section summarizes how the U.S. Department of the Treasury (“Treasury”) has
managed the Troubled Asset Relief Program (“TARP”). This section also reviews
TARP’s overall finances and provides updates on established TARP component
programs.




TARP FUNDS UPDATE
Initial authorization for TARP funding came through the Emergency Economic
Stabilization Act of 2008 (“EESA”), which was signed into law on October 3,
2008.1 EESA appropriated $700 billion to “restore liquidity and stability to the
financial system of the United States.”2 On December 9, 2009, the Secretary of the
Treasury (“Treasury Secretary”) exercised the powers granted him under Section
120(b) of EESA and extended TARP through October 3, 2010.3 In accordance
with Section 106(e) of EESA, Treasury may expend TARP funds after October 3,
2010, as long as it does so pursuant to obligations entered into before that date.4
     The Dodd-Frank Wall Street Reform and Consumer Protection Act (“Dodd-
Frank Act”), which became law (Public Law 111-203) on July 21, 2010, amended
the timing and amount of TARP funding.5 The upper limit of the Treasury
Secretary’s authority to purchase and guarantee assets under TARP was reduced to
$475 billion from the original $700 billion.
     Treasury’s investment authority under TARP expired on October 3, 2010. This
means that Treasury could not make new obligations after that date. However,                 Obligations: Definite commitments
dollars that have already been obligated to existing programs may still be expended.         that create a legal liability for the
As of October 3, 2010, Treasury had obligated $474.8 billion to 13 announced                 Government to pay funds.
programs. Subsequent to the expiration of Treasury’s investment authority, Treasury
has deobligated funds, reducing obligations to $456.6 billion as of September,               Deobligations: An agency’s cancellation
30, 2013.6 Of that amount, $421.2 billion had been spent.7 Taxpayers are owed                or downward adjustment of previously
$53.4 billion as of September 30, 2013. According to Treasury, as of September               incurred obligations.
30, 2013, it had $30.7 billion in write-offs, realized losses, or amounts currently
not collectible because of pending bankruptcies or receiverships, leaving $22.7
billion in TARP funds outstanding.8 Treasury’s write-offs and realized losses are
money that taxpayers will never get back. Treasury generally expects the amounts
currently not collectible will also be lost.9 These amounts do not include $9.5
billion in TARP funds spent on housing support programs, which are designed as
a Government subsidy, with no repayments to taxpayers expected.10 In the quarter
ended September 30, 2013, funds that were obligated but unspent remained
available to be spent on only TARP’s housing support programs. According to
Treasury, in the quarter ended September 30, 2013, $0.9 billion of TARP funds
were spent on housing programs, leaving $29 billion obligated and available to be
spent.11
     Table 2.1 provides a breakdown of program obligations, changes in obligations,
expenditures, principal repaid, principal refinanced, amounts still owed to taxpayers
under TARP, and obligations available to be spent as of September 30, 2013.
Table 2.1 lists 10 TARP sub-programs, instead of all 13, because it excludes the
 54                  SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                                  Capital Assistance Program (“CAP”), which was never funded, and summarizes
                                                                                  three programs under “Automotive Industry Support Programs.” Table 2.2 details
                                                                                  write-offs, realized losses, and amounts currently not collectible in TARP as of
                                                                                  September 30, 2013.
TABLE 2.1
 OBLIGATIONS, EXPENDITURES, PRINCIPAL REPAID, PRINCIPAL REFINANCED, AMOUNTS STILL OWED TO TAXPAYERS, AND
 OBLIGATIONS AVAILABLE TO BE SPENT ($ BILLIONS)
                                             Obligation                                                                                                    Principal              Still Owed to
                                            After Dodd-                    Current                                                Principal              Refinanced                 Taxpayers                    Available
                                                  Frank                  Obligation              Expenditure                        Repaid                into SBLF                under TARP                 to Be Spent
 Program                                (As of 10/3/2010)          (As of 9/30/2013)          (As of 9/30/2013)           (As of 9/30/2013)          (As of 9/30/2013)        (As of 9/30/2013)      a
                                                                                                                                                                                                          (As of 9/30/2013)

 Housing Support
                                                    $45.6                      $38.5c                       $9.5                         NA                      $0.0                          NA                      $29.0
 Programsb
 Capital Purchase
                                                    204.9                      204.9                      204.9                    $195.7d                         2.2                       $7.0                          0.0
 Program
 Community
 Development Capital                                    0.6                        0.6                        0.2                        0.1                       0.0                         0.5                         0.0
 Initiativee
 Systemically Significant
                                                      69.8                       67.8f                      67.8                       54.4                        0.0                       13.5                          0.0
 Failing Institutions
 Targeted Investment
                                                      40.0                       40.0                       40.0                       40.0                        0.0                         0.0                         0.0
 Program
 Asset Guarantee
                                                        5.0                        5.0                        0.0                        0.0                       0.0                         0.0                         0.0
 Program
 Term Asset-Backed
                                                        4.3                        0.1g                       0.1                        0.1                       0.0                         0.0                         0.0
 Securities Loan Facility
 Public-Private
                                                      22.4                       19.6                       18.6                       18.6h                       0.0                         0.0                         0.0i
 Investment Program
 Unlocking Credit for
                                                        0.4                        0.4                        0.4                        0.4                       0.0                         0.0                         0.0
 Small Businesses
 Automotive Industry
                                                      81.8j                      79.7k                      79.7                       47.2                        0.0                       32.5                          0.0
 Support Programs
 Total                                            $474.8                    $456.6                     $421.2l                    $356.1                         $2.2                      $53.4                      $29.0
 Notes: Numbers may not total due to rounding. NA=Not applicable.
 a
         Amount taxpayers still owed includes amounts disbursed and still outstanding, plus $30.7 billion in write-offs, realized losses, and investments currently not collectible because of pending bankruptcies or
          receiverships. It does not include $9.5 billion in TARP dollars spent on housing programs. These programs are designed as Government subsidies, with no repayments to taxpayers expected.
 b
             Housing support programs were designed as a Government subsidy, with no repayment to taxpayers expected.
 c
          On March 29, 2013, Treasury deobligated $7.1 billion of the $8.1 billion that was originally allocated to the FHA Short Refinance Program.
 d
            Includes $363.3 million in non-cash conversions from CPP to CDCI, which is not included in the total of $356.1 billion in TARP principal repaid because it is still owed to TARP from CDCI. Does not include $2.2
             billion refinanced from CPP into the Small Business Lending Fund.
 e
           CDCI obligation amount of $570.1 million. There are no remaining dollars to be spent on CDCI. Of the total obligation, $363.3 million was related to CPP conversions for which no additional CDCI cash was
            expended; this is not counted as an expenditure, but it is counted as money still owed to taxpayers. Another $100.7 million was expended for new CDCI expenditures for previous CPP participants. Of the total
            obligation, only $106 million went to non-CPP institutions.
 f
      Treasury deobligated $2 billion of an equity facility for AIG that was never drawn down.
 g
              On June 28, 2012, Treasury deobligated $2.9 billion in TALF funding, reducing the total obligation to $1.4 billion. On January 23, 2013, Treasury deobligated $1.3 billion, reducing the total obligation to $0.1
               billion.
 h
        On April 10, 2012, Treasury changed its reporting methodology to reclassify as repayments of capital to the Government $958 million in receipts previously categorized as PPIP equity distributions. That $958
         million is included in this repayment total.
 i
   PPIP funds are no longer available to be spent because the three-year investment period ended during the quarter ended December 31, 2012. Total obligation of $22.4 billion and expenditure of $18.6 billion for
    PPIP includes $356.3 million of the initial obligation to The TCW Group, Inc. (“TCW”) that was funded. TCW subsequently repaid the funds that were invested in its PPIF. Current obligation of $19.6 billion results
    because Oaktree, BlackRock, AG GECC, Invesco and AllianceBernstein did not draw down all the committed equity and debt. The undrawn debt was deobligated, but the undrawn equity was not as of September
    30, 2013, except for Invesco.
 j
    Includes $80.7 billion for Automotive Industry Financing Program, $0.6 billion for Auto Warranty Commitment Program, and $0.4 billion for Auto Supplier Support Program.
 k
       Treasury deobligated $2.1 billion of a Chrysler credit facility that was never drawn down.
 l
     The $5 billion reduction in exposure under AGP is not included in the expenditure total because this amount was not an actual cash outlay.

 Sources: Treasury, Transactions Report, 9/30/2013; Treasury, Daily TARP Update, 10/1/2013; Treasury, response to SIGTARP data call, 10/3/2013.
                                                                                                                               QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                            55



TABLE 2.2
 TREASURY’S STATEMENT OF REALIZED LOSSES, WRITE-OFFS, AND AMOUNTS CURRENTLY NOT COLLECTIBLE IN
 TARP, AS OF 9/30/2013 ($ MILLIONS)
 TARP                                                                   TARP          Realized Loss
 Program         Institution                                      Investment           or Write-Offa                       Date       Description
 Realized Losses
                                                                                                                                      Sold 98,461 shares and equity stake in the UAW
 Autos           Chrysler                                               $1,888                   $1,328           4/30/2010
                                                                                                                                      Retiree trust for $560,000,000
                                                                                                                                      Sold 358,546,795 common shares at a loss in
                                                                                                   3,771        11/18/2010
                                                                                                                                      Initial Public Offering (IPO)
                                                                                                                                      Sold 53,782,019 common shares at a loss in
                                                                                                      566       11/26/2010
                                                                                                                                      IPO overallotment
                                                                                                                                      Sold 200,000,000 common shares to GM at a
                                                                                                   3,203        12/19/2012
                                                                                                                                      loss
 Autos           GM   b
                                                                        49,500
                                                                                                                1/18/2013 –           Sold 58,392,078 common shares at a loss in
                                                                                                      903
                                                                                                                 4/17/2013            first pre-arranged trading plan
                                                                                                                                      Sold 30,000,000 common shares at a loss in
                                                                                                      273         6/12/2013
                                                                                                                                      public offering
                                                                                                                  5/6/2013 – Sold 110,336,510 common shares at a loss in
                                                                                                      979
                                                                                                                  9/13/2013 second pre-arranged trading plan
 CDCI            Premier Bancorp, Inc.c                                          7                        7       1/29/2013           Liquidation of failed bank
 CPP             161 CPP Banks                                            3,281                    1,266                              Sales, exchanges, and failed banks
                                                                                                   1,918          5/24/2011
                                                                                                   1,984          3/13/2012
                                                                                                   1,621          5/10/2012
 SSFI            AIGd                                                   67,835                                                        Sale of common stock at a loss
                                                                                                   1,621            8/8/2012
                                                                                                   4,636          9/14/2012
                                                                                                   1,705        12/14/2012
 Total Realized Losses                                                                        $25,781
 Write-Offs
                                                                                                                                      Accepted $1.9 billion as full repayment for the
 Autos           Chrysler                                               $3,500                   $1,600           7/23/2009
                                                                                                                                      debt of $3.5 billion
 CPP             CIT Group Inc.                                           2,330                    2,330        12/10/2009            Bankruptcy
 CPP             Pacific Coast National Bancorp                                  4                        4       2/11/2010           Bankruptcy
 CPP             South Financial Group, Inc.          e
                                                                             347                      217         9/30/2010           Sale of preferred stock at a loss
 CPP             TIB Financial Corp       e
                                                                               37                       25        9/30/2010           Sale of preferred stock at a loss
 Total Write-Offs                                                                               $4,176
 Currently Not Collectiblef
 CPP             24 CPP banks in bankruptcy or receivership                                        $770                               Bankruptcy or receivership in process
 Total of Realized Losses, Write-Offs, and Amounts
                                                                                              $30,727
 Currently Not Collectible
 Notes: Numbers may not total due to rounding.
 a
     Treasury changed its reporting methodology in calculating realized losses, effective June 30, 2012. Disposition expenses are no longer included in calculating realized losses.
 b
         Since the company remains in TARP, a final determination of realized loss incurred on Treasury’s investment cannot be calculated until the investments have been fully divested. About $470
          million in GM share losses during the second quarter came from Treasury’s pre-arranged stock trading plan, which ends on September 13, 2013.
 c
      On January 29, 2013, Treasury received $79,900 representing the total amount of distribution paid to creditors as a result of the liquidation of Premier Bancorp, Inc.
 d
        Treasury has sold a total of 1.66 billion AIG common shares at a weighted average price of $31.18 per share, consisting of 1,092,169,866 TARP shares and 562,868,096 non-TARP shares
         based upon the Treasury’s pro-rata holding of those shares. The non-TARP shares are those received from the trust created by the Federal Reserve Bank of New York for the benefit of the
         Treasury. Receipts for non-TARP common stock totaled $17.55 billion and are not included in TARP collections. The realized loss reflects the price at which Treasury sold common shares in
         AIG and TARP’s cost basis of $43.53 per common share.
 e
       According to Treasury, in the time since these transactions were classified as write-offs, Treasury has changed its practices and now classifies sales of preferred stock at a loss as realized
        losses.
 f
   Included as investments currently not collectible are 24 CPP banks, or their subsidiary banks, with total CPP investments of $770.7 million, that are currently in the process of bankruptcy or
    receivership, and while Treasury has not yet realized the losses, it expects that all of its investments in the banks will be lost.

 Sources: Treasury, Transactions Report, 9/30/2013; Treasury, Section 105(a) Report, 10/10/2013; Treasury Press Release, “Treasury Announces Agreement to Exit Remaining Stake in
 Chrysler Group LLC,” 6/2/2011, www.treasury.gov/press-center/press-releases/Pages/tg1199.aspx, accessed 10/1/2013; Treasury, response to SIGTARP data call, 10/3/2013; Treasury,
 Daily TARP Update, 6/3/2013, 6/13/2013, and 10/1/2013.
56   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Cost Estimates
                                            Several Government agencies are responsible under EESA for generating cost
                                            estimates for TARP, including the Congressional Budget Office (“CBO”), the
                                            Office of Management and Budget (“OMB”), and Treasury, whose estimated costs
                                            are audited each year by the Government Accountability Office (“GAO”). Cost
                                            estimates have decreased from CBO’s March 2009 cost estimate of a $356 billion
                                            loss and OMB’s August 2009 cost estimate of a $341 billion loss.12
                                                 On May 23, 2013, CBO issued a TARP cost estimate based on its evaluation
                                            of data as of April 17, 2013. CBO estimated the ultimate cost of TARP would be
                                            $21 billion, down $3 billion from its estimate of $24 billion in October 2012.13
                                            According to CBO, the decrease stemmed primarily from an increase in the market
                                            value of the Government’s investment in General Motors shares and sales of a
                                            portion of those investments at prices that were higher than the market price at the
                                            time of CBO’s last report. CBO still estimates that TARP’s largest loss will come
                                            from automotive assistance programs. CBO estimated that only $16 billion of
                                            obligated funds for housing will be spent.
                                                 On April 10, 2013, OMB issued the Administration’s fiscal year 2014 budget,
                                            which included a TARP lifetime cost estimate of $47.5 billion, based largely on
                                            figures from December 31, 2012.14 This was a decrease from its estimate of $63.5
                                            billion based on May 31, 2012, data.15 According to OMB, this decrease “was due
                                            in large part [to] improved market conditions and significant progress winding
                                            down TARP investments over the past year, most notably the higher valuations
                                            of AIG common stock and realized sale proceeds, and higher valuation of GM
                                            common stock.”16 Additionally, this estimate assumes $37.6 billion of funds
                                            obligated to housing support programs will be spent, versus earlier estimates that
                                            $45.6 billion would be spent. The estimate also assumes that PPIP will make a
                                            profit of $1.8 billion and that CPP will make a profit of $7.7 billion, including
                                            principal repayments and revenue from dividends, warrants, interest, and fees.
                                                 On November 9, 2012, Treasury issued its September 30, 2012, fiscal year
                                            audited agency financial statements for TARP, which contained a cost estimate
                                            of $59.7 billion.17 This estimate is a decrease from Treasury’s estimate of a $70.2
                                            billion loss as of September 30, 2011. According to Treasury, “These costs fluctuate
                                            in large part due to changes in the market prices of common stock for AIG and
                                            General Motors and the estimated value of the Ally Financial stock.”18 According
                                            to Treasury, the largest losses from TARP are expected to come from housing
                                            programs and from assistance to AIG and the automotive industry.19
                                                 The most recent TARP program cost estimates from each agency are listed in
                                            Table 2.3.
                                                                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013              57




TABLE 2.3
 COST (GAIN) OF TARP PROGRAMS                               ($ BILLIONS)

                                                                                                         Treasury Estimate,
                                                                                                       TARP Audited Agency
 Program Name                                   CBO Estimate                  OMB Estimate              Financial Statement
     Report issued:                                5/23/2013                     4/10/2013                          11/10/2012
     Data as of:                                   4/17/2013                    12/31/2012                           9/30/2012
 Housing Support Programs                                      $16                         $37.6                               $45.6
 Capital Purchase Program                                      (17)                          (7.7)                             (14.9)
 Systemically Significant
 Failing Institutions                                            15                          18.1                                15.3
 Targeted Investment Program
 and Asset Guarantee Program                                     (8)                         (7.4)                               (7.9)
 Term Asset-Backed Securities
 Loan Facility                                                     0                         (0.5)                               (0.5)
 Public-Private Investment
 Program                                                         (2)                         (1.8)                               (2.4)
 Automotive Industry Support
                                                                 17                             23                               24.3
 Programsa
 Otherb                                                            *                              *                                   *
 Total                                                        $21   c
                                                                                          $61.5                               $59.7d
 Interest on Reestimatese                                                                  (13.9)                                      
 Adjusted Total                                                                          $47.5d                                        
 Notes: Numbers may not total due to rounding.
 a
   Includes AIFP, ASSP, and AWCP.
 b
     Consists of CDCI and UCSB, both of which are estimated between a cost of $500 million and a gain of $500 million.
 c
   The estimate is before administrative costs and interest effects.
 d
    The estimate includes interest on reestimates but excludes administrative costs.
 e
   Cumulative interest on reestimates is an adjustment for interest effects on changes in TARP subsidy costs from original subsidy
    estimates; such amounts are a component of the deficit impacts of TARP programs but are not a direct programmatic cost.
                                                                                                                                             Common Stock: Equity ownership
                                                                                                                                             entitling an individual to share in
 Sources: OMB Estimate — OMB, “Analytical Perspectives, Budget of the United States Government, Fiscal Year 2014,” 4/10/2013,
 www.whitehouse.gov/sites/default/files/omb/budget/fy2014/assets/econ_analyses.pdf, accessed 10/1/2013; CBO Estimate                         corporate earnings and voting rights.
 — CBO, “Report on the Troubled Asset Relief Program — March 2012,” 3/28/2012, www.cbo.gov/sites/default/files/cbofiles/
 attachments/03-28-2012TARP.pdf, accessed 10/1/2013; Treasury Estimate — Treasury, “Office of Financial Stability–Troubled Asset
 Relief Program Agency Financial Report Fiscal Year 2011,” 11/10/2011, www.treasury.gov/initiatives/financial-stability/briefing-
 room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, accessed 10/1/2013.                                                        Preferred Stock: Equity ownership that
                                                                                                                                             usually pays a fixed dividend before
                                                                                                                                             distributions for common stock owners
                                                                                                                                             but only after payments due to debt
FINANCIAL OVERVIEW OF TARP                                                                                                                   holders. It typically confers no voting
                                                                                                                                             rights. Preferred stock also has priority
As of September 30, 2013, 212 institutions remain in TARP: 108 banks with                                                                    over common stock in the distribution
remaining CPP principal investments; 31 CPP banks for which Treasury now holds                                                               of assets when a bankrupt company is
only warrants to purchase stock; 71 banks and credit unions in CDCI; and GM                                                                  liquidated.
and Ally Financial.20 Treasury does not consider the 31 CPP institutions in which
it holds only warrants to be in TARP, however Treasury applies all proceeds from                                                             Senior Subordinated Debentures:
the sale of warrants in these banks to recovery amounts in TARP’s CPP program.21                                                             Debt instrument ranking below senior
Treasury (and therefore the taxpayer) remains a shareholder in companies that have                                                           debt but above equity with regard to
not repaid the Government. Treasury’s equity ownership is largely in two forms —                                                             investors’ claims on company assets
common and preferred stock — although it also has received debt in the form of                                                               or earnings.
senior subordinated debentures.
58               SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




 FIGURE 2.1                                                         According to Treasury, as of September 30, 2013, 254 TARP recipients
 CURRENT TARP EXPENDITURES,                                    (including 242 banks and credit unions, two auto companies, nine PPIP managers,
 REPAYMENTS, AND AMOUNT                                        and AIG) had paid back all of their principal or repurchased shares, although
 OWED ($ BILLIONS)                                             Chrysler and AIG did so at a loss to Treasury. Another 137 CPP banks refinanced
$500                                                           into the Small Business Lending Fund (“SBLF”). In addition, 13 TARP recipients
                                                               (including 11 banks and credit unions, GM, and Ally Financial) had partially repaid
 400       $421.2                                              their principal or repurchased their shares but remained in TARP.22 According
 300                       $356.1                              to Treasury, as of September 30, 2013, 193 banks and credit unions have exited
                                                               CPP or CDCI with less than a full repayment, including institutions whose shares
 200                                                           have been sold for less than par value (22), or at a loss at auction (143), and
 100
                                                               institutions that are in various stages of bankruptcy or receivership (28).23 Eight
                                                               banks have been sold at a profit at auction.24 Four CPP banks merged with other
                                              $53.4
     0                                                         CPP banks.25 According to Treasury, $356.1 billion in principal has been repaid.26
         TARP            TARP              Amount
         Expenditures    Repaymentsa       Owedb               Additionally, 137 banks refinanced into SBLF, a non-TARP Government program,
                                                               for $2.2 billion. Taxpayers are still owed $53.4 billion under TARP as of September
                                                               30, 2013. According to Treasury, it has incurred $4.2 billion in write-offs, $25.8
 Notes: As of 9/30/2013. Numbers may not total due
 to rounding.                                                  billion in realized losses, which it will never get back. Additionally, Treasury
 a
   Repayments include $195.7 billion for CPP, $40 billion
   for TIP, $47.2 billion for Auto Programs, $18.6 billion     reported $770.7 million in amounts currently not collectible because of pending
   for PPIP, $54.4 billion for SSFI, and $0.4 billion for
   UCSB. The $195.7 billion for CPP repayments includes
                                                               bankruptcies or receiverships as of September 30, 2013, money it generally expects
   $363.3 million in non-cash conversion from CPP to           will be lost.27 That leaves $22.7 billion in TARP funds outstanding (not including
   CDCI, which is not included in the $356.1 billion in TARP
   repayments because it is still owed to TARP from CDCI.      $9.5 billion in TARP funds spent as a subsidy for TARP housing programs).28
   Additionally, $2.2 billion was refinanced into SBLF.
 b
   Amount taxpayers still owed includes amounts                Figure 2.1 provides a snapshot of the cumulative expenditures, repayments, and
   disbursed and still outstanding, plus $30.7 billion in
   write-offs, realized losses, and investments currently      amount owed as of September 30, 2013. Taxpayers also are entitled to dividend
   not collectible because of pending bankruptcies or
   receiverships. It does not include $9.5 billion in TARP
                                                               payments, interest, and warrants for taking on the risk of TARP investments.
   dollars spent on housing programs. These programs           According to Treasury, as of September 30, 2013, Treasury had collected $46.9
   are designed as Government subsidies, with no
   repayment to taxpayers expected.                            billion in interest, dividends, and other income, including $9.4 billion in proceeds
 Sources: Treasury, Transactions Report, 9/30/2013;            from the sale of warrants and stock received as a result of exercised warrants.29
 Treasury, Daily TARP Update, 10/1/2013.
                                                                    As of September 30, 2013, obligated funds totaling $29 billion were still
                                                               available to be drawn down under TARP’s housing support programs.30
                                                                    Some TARP programs are scheduled to last as late as 2021. Table 2.4 provides
                                                               details of those exit dates.

                                                               TABLE 2.4
                                                                TARP PROGRAM SCHEDULE
                                                                TARP Program                                 Scheduled Program Dates
                                                                Term Asset-Backed Securities Loan Facility   2015 maturity of last loan
                                                                Home Affordable Modification Program         2021 to pay incentives on modifications
                                                                Hardest Hit Fund                             2017 for states to use TARP funds
                                                                FHA Short Refinance Program                  2020 for TARP-funded letter of credit


                                                                    Other TARP programs have no scheduled ending date; TARP money will
                                                               remain invested until recipients pay Treasury back or until Treasury is able to sell
                                                               its investments in the companies. Table 2.5 provides details on the status of the
                                                               remaining Treasury investments under those programs.
                                                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   59




TABLE 2.5

 TARP INVESTMENTS IN FINANCIAL INSTITUTIONS, AS OF 9/30/2013
 TARP Program                                                    Remaining Treasury Investment
                                                                 Preferred stock in 108 banks; warrants for stock
 Capital Purchase Program
                                                                 in an additional 31 banks
 Community Development Capital Initiative                        Preferred stock in 71 banks/credit unions
                                                                 7.3% stake in GM
 Automotive Industry Financing Program
                                                                 74% stake in Ally
 Notes: Treasury’s GM stake as of 9/26/2013.

 Sources: Treasury, Transactions Report, 9/30/2013; Treasury, response to SIGTARP data call, 10/3/2013.



Housing Support Programs
The stated purpose of TARP’s housing support programs is to help homeowners
and financial institutions that hold troubled housing-related assets. Although
Treasury originally committed to use $50 billion in TARP funds for these programs,
it subsequently obligated only $45.6 billion, then in March 2013, reduced its
obligation to $38.5 billion.31 As of September 30, 2013, $9.5 billion (25% of
obligated funds) has been expended.32 However, some of these expended funds
have been used for administrative expenses by the state Housing Finance Agencies
participating in the Hardest Hit Fund program or remain with them as cash on
hand.

•	 Making Home Affordable (“MHA”) Program — According to Treasury, this
   umbrella program for Treasury’s foreclosure mitigation efforts is intended to
   “help bring relief to responsible homeowners struggling to make their mortgage
   payments, while preventing neighborhoods and communities from suffering
   the negative spillover effects of foreclosure, such as lower housing prices,
   increased crime, and higher taxes.”33 MHA, for which Treasury has obligated
   $29.9 billion of TARP funds, consists of the Home Affordable Modification
   Program (“HAMP”), which includes HAMP Tier 1 and HAMP Tier 2, which
   both modify first-lien mortgages to reduce payments; the Federal Housing
   Administration (“FHA”) HAMP loan modification option for FHA-insured
   mortgages (“Treasury/FHA-HAMP”); the U.S. Department of Agriculture Office
   of Rural Development (“RD”) HAMP (“RD-HAMP”); the Home Affordable
   Foreclosure Alternatives (“HAFA”) program; and the Second Lien Modification
   Program (“2MP”).34 HAMP in turn encompasses various initiatives in addition
   to the modification of first-lien mortgages, including Home Price Decline
   Protection (“HPDP”), the Principal Reduction Alternative (“PRA”), and the
   Home Affordable Unemployment Program (“UP”).35 Additionally, the overall
   MHA obligation of $29.9 billion includes $2.7 billion to support the Treasury/
   FHA Second-Lien Program (“FHA2LP”), which complements the FHA
   Short Refinance program (discussed later) and is intended to support the
   extinguishment of second-lien loans.36
       As of September 30, 2013, MHA had expended $6.5 billion of TARP money
   (22% of $29.9 billion).37 Of that amount, $5.4 billion was expended on HAMP,
60             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                         $672.6 million on HAFA, and $453 million on 2MP.38 As of September 30,
                                                         2013, there were 456,542 active Tier 1 and 20,826 active Tier 2 permanent
                                                         first-lien modifications under the TARP-funded portion of HAMP, an increase
                                                         of 10,215 Tier 1 and 11,338 Tier 2 active permanent modifications over the
                                                         past quarter.39 For more information, including participation numbers for each
                                                         of the MHA programs and subprograms, see the “Housing Support Programs”
                                                         discussion in this section.
                                                      •	 Housing Finance Agency (“HFA”) Hardest Hit Fund (“HHF”) — The stated
                                                         purpose of this program is to provide TARP funding for “innovative measures
                                                         to help families in the states that have been hit the hardest by the aftermath
                                                         of the housing bubble.”40 Treasury obligated $7.6 billion for this program.41 As
                                                         of September 30, 2013, $2.9 billion had been drawn down by the states from
                                                         HHF.42 However, as of June 30, 2013, the latest data available, only $1.7 billion
                                                         had been spent assisting 126,858 homeowners, with the remaining $308.5
                                                         million funds used for administrative expenses and $719.7 million as unspent
                                                         cash-on-hand.43 For more information, see the “Housing Support Programs”
                                                         discussion in this section and Section 3 of this report.44
                                                      •	 FHA Short Refinance Program — Treasury has provided a TARP-funded
                                                         letter of credit for up to $1 billion in loss protection on refinanced first liens.45
                                                         As of September 30, 2013, there have been 3,552 refinancings under the
                                                         FHA Short Refinance program, an increase of 416 refinancings during the
                                                         past quarter.46 For more information, see the “Housing Support Programs”
                                                         discussion in this section.

                                                      Financial Institution Support Programs
                                                      Treasury primarily invested capital directly into financial institutions including
     Systemically Significant Institutions:           banks, bank holding companies, and, if deemed by Treasury critical to the financial
     Term referring to any financial                  system, some systemically significant institutions.47
     institution whose failure would impose
     significant losses on creditors and              •	 Capital Purchase Program (“CPP”) — Under CPP, Treasury directly
     counterparties, call into question the              purchased preferred stock or subordinated debentures in qualifying financial
     financial strength of similar institutions,         institutions.48 CPP was intended to provide funds to “stabilize and strengthen
     disrupt financial markets, raise                    the U.S. financial system by increasing the capital base of an array of healthy,
     borrowing costs for households and                  viable institutions, enabling them [to] lend to consumers and business[es].”49
     businesses, and reduce household                    Treasury invested $204.9 billion in 707 institutions through CPP, which closed
     wealth.                                             to new funding on December 29, 2009.50 As of September 30, 2013, 139
                                                         of those institutions remained in TARP; in 31 of them, Treasury holds only
                                                         warrants to purchase stock. Treasury does not consider these 31 institutions to
                                                         be in TARP, however Treasury applies all proceeds from the sale of warrants in
                                                         these banks to recovery amounts in TARP’s CPP program. As of September 30,
                                                         2013, 108 of the 139 institutions had outstanding CPP principal investments.51
                                                         Of the 707 banks that received CPP investments, 599 banks no longer have
                                                         outstanding principal investments in CPP. Nearly a quarter of the 707 banks,
                                                         or 165, refinanced into other Government programs — 28 of them into TARP’s
                                                         CDCI and 137 into SBLF, a non-TARP program.52 Only 230 of the banks, or
                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013               61




   33% of the original 707, fully repaid CPP otherwise.53 Of the other banks that
   have exited CPP, four CPP banks merged with other CPP banks, Treasury sold
   its investments in 22 banks for less than par and its investments in 151 banks
   at auction (143 of those investments sold at a loss), and 27 institutions or their
   subsidiary banks failed, meaning Treasury lost its entire investment in those
   banks.54 As of September 30, 2013, taxpayers were still owed $7 billion related
   to CPP. According to Treasury, it had write-offs, realized losses, and investments
   not currently collectible as a result of bankruptcy of $4.6 billion in the program,
   leaving $2.4 billion in TARP funds outstanding.55 Included as not currently
   collectible as a result of bankruptcy are 24 CPP banks, or their subsidiary banks,
   with total CPP investments of $770.7 million, that are currently in the process
   of bankruptcy. While Treasury has not yet realized the loss, it expects that all
   of its investments in the banks will be lost.56 According to Treasury, $195.7
   billion of the CPP principal (or 96%) had been repaid as of September 30,
   2013. The repayment amount includes $363.3 million in preferred stock that
   was converted from CPP investments into CDCI and therefore still represents
   outstanding obligations to TARP. Additionally, $2.2 billion was refinanced in
   2011 into SBLF, a non-TARP Government program.57
        Treasury continues to manage its portfolio of CPP investments, including,
   for certain struggling institutions, converting its preferred equity ownership into
   a more junior form of equity ownership, often at a discount to par value (which
   may result in a loss) in an attempt to preserve some value that might be lost if
   these institutions were to fail. As of September 30, 2013, Treasury has held 20
   sets of auctions to sell all of its preferred stock investments in 151 banks and
   part of its investment in an additional bank, selling all but eight investments at a
   discounted price resulting in a loss to Treasury.58 For more information, see the
   “Capital Purchase Program” discussion in this section.
•	 Community Development Capital Initiative (“CDCI”) — Under CDCI,
   Treasury used TARP money to buy preferred stock in or subordinated debt from
                                                                                               Community Development Financial
   Community Development Financial Institutions (“CDFIs”). Treasury intended
                                                                                               Institutions (“CDFIs”): Financial
   for CDCI to “improve access to credit for small businesses in the country’s
                                                                                               institutions eligible for Treasury funding
   hardest-hit communities.”59 Under CDCI, TARP made capital investments
                                                                                               to serve urban and rural low-income
   in the preferred stock or subordinated debt of eligible banks, bank holding
                                                                                               communities through the CDFI Fund.
   companies, thrifts, and credit unions.60 Eighty-four institutions received $570.1
                                                                                               CDFIs were created in 1994 by the
   million in funding under CDCI.61 However, 28 of these institutions converted
                                                                                               Riegle Community Development and
   their existing CPP investment into CDCI ($363.3 million of the $570.1
                                                                                               Regulatory Improvement Act.
   million) and 10 of those that converted received combined additional funding
   of $100.7 million under CDCI.62 Only $106 million of CDCI money went to
   institutions that were not already TARP recipients. As of September 30, 2013,
   71 institutions remained in CDCI.63 As of September 30, 2013, three remaining
   CDCI institutions had unpaid dividend or interest payments.64 For more
   information, see the “Community Development Capital Initiative” discussion in
   this section.
•	 Systemically Significant Failing Institutions (“SSFI”) Program — SSFI
   enabled Treasury to invest in systemically significant institutions to prevent
62            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                        them from failing.65 Only one firm received SSFI assistance: American
                                                        International Group, Inc. (“AIG”). The Government’s rescue of AIG involved
                                                        several different funding facilities provided by the Federal Reserve Bank of New
                                                        York (“FRBNY”) and Treasury, with various changes to the transactions over
                                                        time. Combined, Treasury and FRBNY committed $182 billion to bail out AIG,
                                                        of which $161 billion was disbursed.66
                                                             There were two TARP investments in AIG. On November 25, 2008,
                                                        Treasury bought $40 billion of AIG’s preferred stock, the proceeds of which
                                                        were used to repay a portion of AIG’s debt to FRBNY. Then, on April 17, 2009,
                                                        Treasury obligated approximately $29.8 billion that AIG could draw down as
                                                        needed.67
                                                             On January 14, 2011, AIG executed a Recapitalization Plan under which
                                                        AIG fully repaid FRBNY’s revolving credit facility, AIG purchased the remainder
                                                        of FRBNY’s preferred equity interests in two AIG subsidiaries (which it then
                                                        transferred to Treasury), AIG drew down $20.3 billion in TARP funds, and
                                                        Treasury converted its preferred stock holdings into an approximately 92.1%
                                                        common equity ownership stake in AIG.68
                                                             Through payments in February and March 2011, AIG fully repaid the
                                                        Government’s preferred interests in the American Life Insurance Company
     Special Purpose Vehicle (“SPV”):                   (“ALICO”) special purpose vehicle (“SPV”), as well as its preferred interests in
     A legal entity, often off-balance-                 the American International Assurance Co., Ltd. (“AIA”) SPV. From May 2011
     sheet, that holds transferred assets               through December 2012, Treasury sold all 1.66 billion shares of AIG’s common
     presumptively beyond the reach of the              stock that it controlled, which at one point was 92% of AIG’s common stock.
     entities providing the assets, and that            Treasury’s investment in AIG ended on March 1, 2013, when Treasury sold
     is legally isolated from its sponsor or            its remaining investment, 2.7 million warrants for the right to purchase AIG
     parent company.                                    common shares.69 AIG bought the warrants from the Government for $25.2
                                                        million, or about $9.35 per share.70
                                                             As of September 30, 2013, as reflected on Treasury’s books and records,
                                                        taxpayers had recouped $54.4 billion of the $67.8 billion in TARP funds and
                                                        had realized losses from an accounting standpoint of $13.5 billion on Treasury’s
                                                        sale of AIG stock.71 Due to the January 2011 restructuring of the FRBNY and
                                                        Treasury investments, Treasury held common stock from the TARP and FRBNY
                                                        assistance, and, according to Treasury, the Government overall has made a $4.1
                                                        billion gain on the stock sales, and $956 million has been paid in dividends and
                                                        other income.72
                                                             On July 9, 2013, the Financial Stability Oversight Council (“FSOC”)
                                                        announced that it had designated AIG as a systemically important nonbank
                                                        financial company under Dodd-Frank, thereby subjecting AIG to consolidated
                                                        supervision by the Board of Governors of the Federal Reserve System (“Federal
                                                        Reserve”) and to enhanced prudential standards.73
                                                             For more information, see the “Systemically Significant Failing Institutions
                                                        Program” discussion in this section.
                                                     •	 Targeted Investment Program (“TIP”) — Through TIP, Treasury invested in
                                                        financial institutions it deemed critical to the financial system.74 There were two
                                                        expenditures under this program, totaling $40 billion — the purchases of $20
                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013               63




   billion each of senior preferred stock in Citigroup Inc. (“Citigroup”) and Bank
   of America Corp. (“Bank of America”).75 Treasury also accepted common stock
   warrants from each, as required by EESA. Both banks fully repaid Treasury
   for its TIP investments.76 Treasury auctioned its Bank of America warrants on           Senior Preferred Stock: Shares that
   March 3, 2010, and auctioned its Citigroup warrants on January 25, 2011.77 For          give the stockholder priority dividend
   more information on these transactions, see the “Targeted Investment Program            and liquidation claims over junior
   and Asset Guarantee Program” discussion in this section.                                preferred and common stockholders.
•	 Asset Guarantee Program (“AGP”) — AGP was designed to provide
   insurance-like protection for a select pool of mortgage-related or similar assets       Illiquid Assets: Assets that cannot be
   held by participants whose portfolios of distressed or illiquid assets threatened       quickly converted to cash.
   market confidence.78 Treasury, the Federal Deposit Insurance Corporation
   (“FDIC”), and the Federal Reserve offered certain loss protections in connection        Trust Preferred Securities (“TRUPS”):
   with $301 billion in troubled Citigroup assets.79 In exchange for providing             Securities that have both equity and
   the loss protection, Treasury received $4 billion of preferred stock that was           debt characteristics, created by
   later converted to trust preferred securities (“TRUPS”), and FDIC received              establishing a trust and issuing debt
   $3 billion.80 On December 23, 2009, in connection with Citigroup’s TIP                  to it.
   repayment, Citigroup and the Government terminated the AGP agreement and
   the Government suffered no loss. On December 28, 2012, FDIC transferred
   $800 million of Citigroup TRUPS to Treasury, as a result of Citigroup’s
   participation in FDIC’s Temporary Liquidity Guarantee Program having closed
   without a loss.81 Treasury converted the TRUPS it received from FDIC into
   Citigroup subordinated notes and subsequently sold them for $894 million.82
   For more information, see the “Targeted Investment Program and Asset
   Guarantee Program” discussion in this section.

Asset Support Programs
The stated purpose of these programs was to support the liquidity and market value
of assets owned by financial institutions to free capital so that these firms could
extend more credit to support the economy. These assets included various classes
of asset-backed securities (“ABS”) and several types of loans.                             Asset-Backed Securities (“ABS”): Bonds
                                                                                           backed by a portfolio of consumer
•	 Term Asset-Backed Securities Loan Facility (“TALF”) — TALF was                          or corporate loans (e.g., credit card,
   originally designed to increase credit availability for consumers and small             auto, or small-business loans). Financial
   businesses through a $200 billion Federal Reserve loan program. TALF provided           companies typically issue ABS backed
   investors with non-recourse loans secured by certain types of ABS, including            by existing loans in order to fund new
   credit card receivables, auto loans, equipment loans, student loans, floor              loans for their customers.
   plan loans, insurance-premium finance loans, loans guaranteed by the Small
   Business Administration (“SBA”), residential mortgage servicing advances, and           Commercial Mortgage-Backed
   commercial mortgage-backed securities (“CMBS”).83 TALF closed to new loans              Securities (“CMBS”): Bonds backed by
   in June 2010.84 TALF ultimately provided $71.1 billion in Federal Reserve               one or more mortgages on commercial
   financing—$59 billion with non-mortgage related ABS as collateral and $12.1             real estate (e.g., office buildings, rental
   billion with CMBS as collateral.85 Of that amount, $100.7 million remained              apartments, hotels).
   outstanding as of September 30, 2013.86 As of early 2013, the TALF program
   collected fees totaling more than the amount of loans still outstanding.87 As of
64             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                         September 30, 2013, there had been no surrender of collateral related to these
                                                         loans.88 For more information, see the “TALF” discussion in this section.
                                                      •	 Public-Private Investment Program (“PPIP”) — PPIP’s goal was to restart
     Legacy Securities: Real estate-related              credit markets by using a combination of private equity, matching Government
     securities originally issued before                 equity, and Government debt to purchase legacy securities, i.e., CMBS and
     2009 that remained on the balance                   non-agency residential mortgage-backed securities (“non-agency RMBS”).89
     sheets of financial institutions because            Under the program, nine Public-Private Investment Funds (“PPIFs”) managed
     of pricing difficulties that resulted from          by private asset managers invested in non-agency RMBS and CMBS. Treasury
     market disruption.                                  originally obligated $22.4 billion in TARP funds to the program and reduced
                                                         the amount over time to $19.6 billion as of September 30, 2013. Together, all
     Non-Agency Residential Mortgage-                    nine PPIFs drew down $18.6 billion in debt and equity financing from Treasury
     Backed Securities (“non-agency                      funding out of the total obligation, and repaid all of it.90 As of September 30,
     RMBS”): Financial instrument backed                 2013, the entire PPIP portfolio had been liquidated, and three PPIP funds
     by a group of residential real estate               were legally dissolved while the other five were in various stages of winding
     mortgages (i.e., home mortgages for                 down operations.91 For more information, see the “Public-Private Investment
     residences with up to four dwelling                 Program” discussion in this section.
     units) not guaranteed or owned by                •	 Unlocking Credit for Small Businesses (“UCSB”)/Small Business
     a Government-sponsored enterprise                   Administration (“SBA”) Loan Support Initiative — In March 2009, Treasury
     (“GSE”) or a Government agency.                     officials announced that Treasury would buy up to $15 billion in securities
                                                         backed by SBA loans under UCSB.92 Treasury obligated a total of $400 million
                                                         for UCSB and made purchases of $368.1 million in 31 securities under the
                                                         program. Treasury sold the last of its UCSB securities on January 24, 2012,
                                                         ending the program with a net investment gain of about $9 million.93 For more
                                                         information, see the “Unlocking Credit for Small Businesses/Small Business
                                                         Administration Loan Support” discussion in this section.

                                                      Automotive Industry Financing Program (“AIFP”)
                                                      TARP’s automotive industry support through AIFP aimed to “prevent a significant
                                                      disruption of the American automotive industry, which would pose a systemic
                                                      risk to financial market stability and have a negative effect on the economy of the
                                                      United States.”94 As of September 30, 2013, General Motors Company (“GM”)
                                                      and Ally Financial Inc. (“Ally Financial”), formerly GMAC Inc., remain in TARP.
                                                      Taxpayers are still owed $32.5 billion. This includes about $15 billion for the TARP
                                                      investment in GM and $14.6 billion for the TARP investment in Ally Financial, for
                                                      which Treasury holds common stock in GM and common stock and mandatorily
                                                      convertible preferred shares (“MCP”) in Ally Financial. This amount also includes
                                                      a $2.9 billion loss taxpayers suffered on the principal TARP investment in Chrysler.
                                                      Chrysler Financial fully repaid its TARP investment.95
                                                          Through AIFP, Treasury made emergency loans to Chrysler Holding LLC
                                                      (“Chrysler”), Chrysler Financial Services Americas LLC (“Chrysler Financial”), and
                                                      GM. Additionally, Treasury bought senior preferred stock from Ally Financial and
                                                      assisted Chrysler and GM during their bankruptcy restructurings. As of September
                                                      30, 2013, $79.7 billion had been disbursed through AIFP and its subprograms,
                                                      and Treasury had received $47.2 billion in principal repayments, preferred stock
                                                      redemption proceeds, and stock sale proceeds. As of September 30, 2013, Treasury
                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   65




had received approximately $35.2 billion related to its GM investment, $2.5 billion
related to its Ally Financial/GMAC investment, $8 billion related to its Chrysler
investment, and $1.5 billion related to its Chrysler Financial investment.96 As of
September 30, 2013, Treasury had also received approximately $5.5 billion in
dividends and interest under AIFP and its two subprograms, ASSP and AWCP.97
     In return for a total of $49.5 billion in loans to GM, Treasury received $6.7
billion in debt in GM (which was subsequently repaid), in addition to $2.1 billion
in preferred stock and a 61% common equity stake.98 Through a series of stock
sales, Treasury has divested its preferred stock and most of its common stock,
reducing its stake to 7.3%.99 Because the common stock sales have all taken place
below Treasury’s break-even price, Treasury has so far booked a loss of $9.7 billion
on the sales.100
     Treasury invested a total of $17.2 billion in Ally Financial, and $14.6 billion
of that is still outstanding. On December 30, 2010, Treasury’s investment was
restructured to provide for a 74% common equity stake, $2.7 billion in TRUPS
(including amounts received in warrants that were immediately converted into
additional securities), and $5.9 billion in mandatorily convertible preferred
shares.101 Treasury sold the $2.7 billion in TRUPS on March 2, 2011, resulting in
a $2.5 billion principal repayment to Treasury.102 On May 14, 2012, Ally Financial
announced that its mortgage subsidiary, Residential Capital, LLC (ResCap), and
certain of its subsidiaries, filed for bankruptcy. On June 26, 2013, a bankruptcy
court approved Ally Financial’s proposed $2.1 billion settlement with ResCap.103
     Treasury provided approximately $12.5 billion in loan commitments to Chrysler,
of which $2.1 billion was never drawn down.104 On July 21, 2011, Treasury sold to
Fiat for $500 million Treasury’s remaining equity ownership interest in Chrysler.105
Treasury also sold to Fiat for $60 million Treasury’s rights to receive proceeds under
an agreement with the United Auto Workers (“UAW”) retiree trust pertaining to the
trust’s shares in Chrysler on a fully diluted basis.106 Treasury’s books reflect a $2.9
billion loss to taxpayers on their principal investment in Chrysler.107
     Treasury provided a $1.5 billion loan to Chrysler Financial, which was fully
repaid with interest in July 2009.108
     For more information, see the “Automotive Industry Support Programs”
discussion in this section.
     AIFP also included two subprograms:

•	 Auto Supplier Support Program (“ASSP”) — According to Treasury, this
   program was intended to provide auto suppliers “with the confidence they need
   to continue shipping their parts and the support they need to help access loans
   to pay their employees and continue their operations.”109 Under the program,
   which ended in April 2010, Treasury made loans for GM ($290 million) and
   Chrysler ($123.1 million) that were fully repaid with $115.9 million in interest,
   fees and other income.110 For more information, see the “Auto Supplier Support
   Program” discussion in this section.
•	 Auto Warranty Commitment Program (“AWCP”) — This program was
   designed to bolster consumer confidence by guaranteeing Chrysler and GM
66   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                               vehicle warranties during the companies’ restructuring through bankruptcy. It
                                               ended in July 2009 after Chrysler fully repaid its AWCP loan of $280.1 million
                                               with interest and GM repaid just the principal — $360.6 million — of its
                                               loan.111 For more information, see the “Auto Warranty Commitment Program”
                                               discussion in this section.
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013              67




HOUSING SUPPORT PROGRAMS
On February 18, 2009, the Administration announced a foreclosure prevention
plan that became the Making Home Affordable (“MHA”) program, an umbrella                     Government-Sponsored Enterprises
program for the Administration’s homeowner assistance and foreclosure prevention             (“GSEs”): Private corporations created
efforts.112 MHA initially consisted of the Home Affordable Modification Program              and chartered by the Government to
(“HAMP”), a Treasury program that uses TARP funds to provide incentives for                  reduce borrowing costs and provide
mortgage servicers to modify eligible first-lien mortgages, and two initiatives at           liquidity in the market, the liabilities
the Government-sponsored enterprises (“GSEs”) that use non-TARP funds.113                    of which are not officially considered
HAMP was originally intended “to help as many as three to four million financially           direct taxpayer obligations. On
struggling homeowners avoid foreclosure by modifying loans to a level that is                September 7, 2008, the two largest
affordable for borrowers now and sustainable over the long term.”114 On June 1,              GSEs, the Federal National Mortgage
2012, HAMP expanded the pool of homeowners potentially eligible to be assisted               Association (“Fannie Mae”) and
through the launch of HAMP Tier 2; however, Treasury has not estimated the                   the Federal Home Loan Mortgage
number of homeowners that HAMP Tier 2 is intended to assist.115 On June 13,                  Corporation (“Freddie Mac”), were
2013, Treasury generally extended MHA programs for an additional two years,                  placed into Federal conservatorship.
from December 31, 2013, to December 31, 2015.116                                             They are currently being financially
    Treasury over time expanded MHA to include sub-programs. Treasury also                   supported by the Government.
allocated TARP funds to support two additional housing support efforts: TARP
funding for 19 state housing finance agencies, called the Housing Finance                    Loan Servicers: Companies that
Agency Hardest Hit Fund (“Hardest Hit Fund” or “HHF”) and a Federal Housing                  perform administrative tasks on
Administration (“FHA”) refinancing program. The HHF program is scheduled                     monthly mortgage payments until the
to expire on December 31, 2017. The FHA refinancing program is currently                     loan is repaid. These tasks include
scheduled to expire on December 31, 2014.117                                                 billing, tracking, and collecting monthly
    Not all housing support programs are funded, or completely funded, by TARP.              payments; maintaining records of
Of the originally anticipated $75 billion cost for MHA, $50 billion was to be                payments and balances; allocating
funded by TARP, with the remainder funded by the GSEs.118 Although Treasury                  and distributing payment collections
originally committed to use $50 billion in TARP funds for these programs,                    to investors in accordance with
it subsequently obligated only $45.6 billion, and in March 2013, reduced its                 each mortgage loan’s governing
obligation to $38.5 billion, which includes $29.9 billion for MHA incentive                  documentation; following up
payments, $7.6 billion for the Hardest Hit Fund, and $1 billion for FHA Short                on delinquencies; and initiating
Refinance.119                                                                                foreclosures.
    Under EESA and the SIGTARP Act, SIGTARP is required to report quarterly to
Congress to provide certain information about TARP over that preceding quarter.              Investors: Owners of mortgage loans
    Housing support programs include the following initiatives:                              or bonds backed by mortgage loans
                                                                                             who receive interest and principal
•	 Home Affordable Modification Program (“HAMP” or “HAMP Tier 1”)                            payments from monthly mortgage
   — HAMP is intended to use incentive payments to encourage loan servicers                  payments. Servicers manage the
   (“servicers”) and investors to modify eligible first-lien mortgages so that the           cash flow from borrowers’ monthly
   monthly payments of homeowners who are currently in default or generally at               payments and distribute them to
   imminent risk of default will be reduced to affordable and sustainable levels.120         investors according to Pooling and
   Incentive payments for modifications to loans owned or guaranteed by the                  Servicing Agreements (“PSAs”).
   GSEs are paid by the GSEs, not TARP.121 As of September 30, 2013, there were
68            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                        888,394 active permanent HAMP Tier 1 modifications, 456,542 of which were
                                                        under TARP, with the remainder under the GSE portion of the program.122
                                                        While HAMP generally refers to the first-lien mortgage modification program, it
                                                        also includes the following subprograms:
                                                             o	 Home Price Decline Protection (“HPDP”) — HPDP is intended to
                                                                  encourage additional investor participation and HAMP modifications
                                                                  in areas with recent price declines by providing TARP-funded
                                                                  incentives to offset potential losses in home values.123 As of September
                                                                  30, 2013, there were 210,505 (Tier 1 and Tier 2) loan modifications
                                                                  under HPDP.124
                                                             o	 Principal Reduction Alternative (“PRA”) — PRA is intended to
                                                                  encourage the use of principal reduction in modifications for eligible
                                                                  borrowers whose homes are worth significantly less than the remaining
                                                                  outstanding balances of their first-lien mortgage loans. It provides
                                                                  TARP-funded incentives to offset a portion of the principal reduction
                                                                  provided by the investor.125 As of September 30, 2013, there were
                                                                  104,771 (Tier 1 and Tier 2) active permanent modifications through
                                                                  PRA.126
                                                             o	 Home Affordable Unemployment Program (“UP”) — UP is
                                                                  intended to offer assistance to unemployed homeowners through
                                                                  temporary forbearance of all or a portion of their payments.127 As of
                                                                  August 31, 2013, which according to Treasury is the most recent data
                                                                  available, 5,739 borrowers were actively participating in UP.128
                                                     •	 Home Affordable Modification Program Tier 2 (“HAMP Tier 2”) — HAMP
                                                        Tier 2 is an expansion of HAMP to permit HAMP modifications on non-owner-
                                                        occupied “rental” properties, and to allow borrowers with a wider range of debt-
     Short Sale: Sale of a home for less                to-income ratios to receive modifications.129 As of September 30, 2013, 21,522
     than the unpaid mortgage balance.                  HAMP Tier 2 modifications had become permanent, of which 20,826 remained
     A borrower sells the home and the                  active.130 Of Tier 2 modifications started, 3,537 were previously HAMP Tier 1
     investor accepts the proceeds as full              permanent modifications.
     or partial satisfaction of the unpaid           •	 Home Affordable Foreclosure Alternatives (“HAFA”) — HAFA is intended
     mortgage balance, thus avoiding the                to provide incentives to servicers, investors, and borrowers to pursue short sales
     foreclosure process.                               and deeds-in-lieu of foreclosure for borrowers in cases in which the borrower
                                                        is unable or unwilling to enter or sustain a modification. Under this program,
     Deed-in-Lieu of Foreclosure: Instead               the servicer releases the lien against the property and the investor waives all
     of going through foreclosure, the                  rights to seek a deficiency judgment against a borrower who uses a short sale
     borrower voluntarily surrenders the                or deed-in-lieu when the property is worth less than the outstanding amount of
     deed to the home to the investor, as               the mortgage.131 As of September 30, 2013, the latest data provided by Treasury,
     satisfaction of the unpaid mortgage                there were 135,112 short sales or deeds-in-lieu under HAFA.132
     balance.                                        •	 Second-Lien Modification Program (“2MP”) — 2MP is intended to modify
                                                        second-lien mortgages when a corresponding first lien is modified under
                                                        HAMP by a participating servicer.133 As of September 30, 2013, 16 servicers are
                                                        participating in 2MP.134 These servicers represent approximately 55 – 60% of the
                                                        second-lien servicing market.135 As of September 30, 2013, there were 76,935
                                                        active permanently modified second liens in 2MP.136
                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013          69




•	 Agency-Insured Programs — These programs are similar in structure
   to HAMP, but apply to eligible first-lien mortgages insured by FHA or
   guaranteed by the Department of Agriculture’s Office of Rural Development
   (“RD”) and the Department of Veterans Affairs (“VA”).137 Treasury provides
   TARP-funded incentives to encourage modifications under the FHA and RD
   modification programs. As of September 30, 2013, there were 77 RD-HAMP
   active permanent modifications and 14,895 FHA-HAMP active permanent
   modifications.138
•	 Treasury/FHA Second-Lien Program (“FHA2LP”) — In FHA2LP, Treasury
   uses TARP funds to provide incentives to servicers and investors who agree to
   principal reduction or extinguishment of second liens associated with an FHA
   refinance.139 As of September 30, 2013, no second liens had been partially
   written down or extinguished under the program.140
•	 Housing Finance Agency Hardest Hit Fund (“HHF”) — A TARP-funded
   program, HHF is intended to fund foreclosure prevention programs run by state
   housing finance agencies in states hit hardest by the decrease in home prices
   and in states with high unemployment rates. Eighteen states and Washington,
   DC, received approval for aid through the program.141 As of June 30, 2013, the
   latest data available, 126,858 borrowers had received assistance under HHF.142
                                                                                           Underwater Mortgage: Mortgage loan
•	 FHA Short Refinance Program — This program, which is partially supported
                                                                                           on which a homeowner owes more
   by TARP funds, is intended to provide borrowers who are current on their
                                                                                           than the home is worth, typically as
   mortgage an opportunity to refinance existing underwater mortgage loans that
                                                                                           a result of a decline in the home’s
   are not currently insured by FHA into FHA-insured mortgages with lower
                                                                                           value. Underwater mortgages also are
   principal balances. Treasury has provided a TARP-funded letter of credit for
                                                                                           referred to as having negative equity.
   up to $1 billion in loss coverage on these newly originated FHA loans.143 As
   of September 30, 2013, 3,552 loans had been refinanced under FHA Short
   Refinance.144

Status of TARP Funds Obligated to Housing Support
Programs
Treasury initially obligated $45.6 billion to housing support programs, which was
reduced to $38.5 billion, of which $9.5 billion, or 25%, has been expended as
of September 30, 2013.145 Of that, $0.9 billion was expended in the quarter
ended September 30, 2013. However, some of the expended funds remain as cash
on hand or paid for administrative expenses at state housing finance agencies
(“HFAs”) participating in the Hardest Hit Fund program. Treasury has capped the
aggregate amount available to pay servicer, borrower, and investor incentives under
MHA programs at $29.9 billion, of which $6.5 billion (22%), has been spent as of
September 30, 2013.146 Treasury allocated $7.6 billion to the Hardest Hit Fund. As
of September 30, 2013, of the $7.6 billion in TARP funds available for HHF, states
had drawn down $2.9 billion.147 As of June 30, 2013, states had spent $1.7 billion
(22%) of those funds to assist 126,858 homeowners, spent $308.5 million (4%)
70   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            for administrative expenses, and held $719.7 million (9%) as unspent cash-on-
                                            hand.148,i,ii Treasury originally allocated $8.1 billion for FHA Short Refinance, but
                                            deobligated $7.1 billion in March 2013.149 Of the $1 billion currently allocated for
                                            FHA Short Refinance, $58.9 million has been spent, which includes $50 million
                                            held in a pre-funded reserve account to pay future claims, $8.9 million spent on
                                            administrative expenses, and $47,840 spent on one refinanced mortgage that later
                                            defaulted.150
                                                Table 2.6 shows the breakdown in expenditures and estimated funding
                                            allocations for these housing support programs. Figure 2.2 also shows these
                                            expenditures, as a percentage of allocations.

                                            TABLE 2.6
                                             TARP ALLOCATIONS AND EXPENDITURES BY HOUSING SUPPORT PROGRAMS,
                                             AS OF 9/30/2013 ($ BILLIONS)
                                                                                                                        ALLOCATIONS                            EXPENDITURES
                                                                                           MHA
                                                  HAMP    a


                                                       First Lien Modification                                          $19.1                                     $4.6
                                                       PRA Modification                                                     2.0                                     0.4
                                                       HPDP                                                                 1.6                                     0.3
                                                       UP                                                                     —   b
                                                                                                                                                                     —
                                                                                 HAMP Total                             $22.7                                    $5.4
                                                       HAFA                                                                    4.2                                     0.7
                                                       2MP                                                                     0.1                                     0.5
                                                       Treasury FHA-HAMP                                                       0.2                                        —c
                                                       RD-HAMP                                                                    —d                                      —
                                                       FHA2LP                                                                  2.7                                        —
                                                                                   MHA Total                                          $29.9                                    $6.5
                                                        HHF (Drawdown by States)e                                                      $7.6                                    $2.9
                                                                  FHA Short Refinance                                                  $1.0 f
                                                                                                                                                                               $0.1
                                                                                           Total                                      $38.5                                    $9.5
                                             Notes: Numbers may not total due to rounding. According to Treasury, these numbers are “approximate.”
                                             a
                                                Includes HAMP Tier 1 and HAMP Tier 2.
                                             b
                                                  Treasury does not allocate TARP funds to UP.
                                             c
                                                Treasury has expended $0.03 billion for the Treasury FHA-HAMP program.
                                             d
                                                 Treasury has allocated $0.02 billion to the RD-HAMP program. As of September 30, 2013, $63,833 has been expended for RD-
                                                  HAMP.
                                             e
                                                Not all of the funds drawn down by states have been used to assist homeowners. As of June 30, 2013, HFAs had drawn down
                                                 approximately $2.7 billion, and, according to the latest data available, only $1.65 billion (22%) of TARP funds allocated for HHF have
                                                 gone to help 126,858 homeowners.
                                             f
                                               This amount includes up to $25 million in fees Treasury will incur for the availability and usage of the $1 billion letter of credit.

                                             Sources: Treasury, responses to SIGTARP data call, 10/3/2013 and 10/9/2013; Treasury, Transactions Report-Housing Programs,
                                             9/27/2013; Treasury, Daily TARP Update, 10/1/2013.



                                            i According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                               HHF programs that are anticipated to be disbursed over the duration of their participation; HFAs [states] vary as to when and how
                                               they capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                               assistance, cash-on-hand, or undrawn funds.
                                            ii States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
                                                cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                made.
                                                                                                                    QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   71




FIGURE 2.2
                        TARP HOUSING SUPPORT FUNDS ALLOCATED AND SPENT,
                        AS OF 9/30/2013 ($ BILLIONS)
              HAMP                                                                                                 24% spent
        $22.7 billion                                                                                              ($5.4 billion)

   Hardest Hit Fund                                        38% spenta
        $7.6 billion                                       ($2.9 billion)

              HAFA                            16% spent
         $4.2 billion                         ($0.7 billion)
                                                                                                     Funds Allocated
            FHA2LP                                                                                   Funds Spent
                                      None spent
         $2.7 billion

FHA Short Refinance            6% spent
          $1 billion           ($0.1 billion)

Treasury FHA–HAMP           17% spent
         $0.2 billion       ($0.03 billion)

                        0                  $5                    $10             $15                 $20                 $25
                                          billion               billion         billion             billion             billion

                        Notes: Numbers may not total due to rounding. HAMP includes HAMP Tier 1, HAMP Tier 2, HPDP, and PRA.
                        a
                          In this figure, Hardest Hit Funds “spent” represents the amount of funds states had drawn down as of
                          September 30, 2013. Treasury requires states to return any HHF funds drawn down but unspent after
                          December 31, 2017. According to Treasury, committed program funds are funds committed to
                          homeowners who have been approved to participate in HHF programs that are anticipated to be disbursed
                          over the duration of their participation; states vary as to when and how they capture and report
                          funds as committed. HHF funds committed for homeowner assistance are recorded variously as
                          homeowner assistance, cash-on-hand, or undrawn funds.

                        Sources: Treasury, responses to SIGTARP data call, 10/3/2013, 10/7/2013, 10/9/2013, and 10/17/2013.


    As of September 30, 2013, Treasury had active agreements with 91 servicers.151
That compares with 145 servicers that had agreed to participate in MHA as
of October 3, 2010.152 According to Treasury, of the $29.9 billion obligated to
participating servicers under their Servicer Participation Agreements (“SPAs”),
as of September 30, 2013, only $6.5 billion (22%) has been spent, broken down
as follows: $5.4 billion had been spent on completing permanent modifications
of first liens, including PRA and HPDP, (477,368 of which remain active); $453
million under 2MP; and $672.6 million on incentives for short sales or deeds-
in-lieu of foreclosure under HAFA.153 Of the combined amount of incentive
payments, according to Treasury, approximately $3.2 billion went to pay investor
or lender incentives, $2 billion went to pay servicer incentives, and $1.3 billion
went to pay borrower incentives.154 As of September 30, 2013, of the $7.6 billion
in TARP funds available for HHF, states had drawn down $2.9 billion.155 As of
June 30, 2013, states had drawn down $2.7 billion and, according to the latest
data available, had spent $1.7 billion (22%) of those funds to assist 126,858
homeowners, spent $308.5 million (4%) for administrative expenses, and held
$719.7 million (9%) as unspent cash-on-hand.156 The remaining $1 billion has
been obligated under FHA Short Refinance to purchase a letter of credit to provide
up to $1 billion in first loss coverage and to pay $25 million in fees for the letter of
credit.157 According to Treasury, it has paid only one claim for one default on the
72   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            3,552 loans refinanced under the program. However, Treasury has pre-funded a
                                            reserve account with $50 million to pay future claims and spent $8.9 million on
                                            administrative expenses.158 The breakdown of TARP-funded expenditures related to
                                            housing support programs (not including the GSE-funded portion of HAMP) are
                                            shown in Table 2.7.
                                                                                                                      QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   73




TABLE 2.7
 BREAKDOWN OF TARP EXPENDITURES, AS OF 9/30/2013                                                ($ MILLIONS)
 MHA                                                                             TARP Expenditures
     HAMP
          HAMP First Lien Modification Incentives
             Servicer Incentive Payment                                            $638.8
             Servicer Current Borrower Incentive Payment                             $16.7
             Annual Servicer Incentive Payment                                     $986.5
             Investor Current Borrower Incentive Payment                             $64.8
             Investor Monthly Reduction Cost Share                               $1,944.0
             Annual Borrower Incentive Payment                                     $935.9
             Tier 2 Incentive Payments                                               $24.0
          HAMP First Lien Modification Incentives Total                                    $4,610.7
          PRA                                                                                 $405.1
          HPDP                                                                                $335.8
          UP                                                                                          $—a
          HAMP Program Incentives Total                                                                  $5,351.6
     HAFA Incentives
        Servicer Incentive Payment                                                                   $194.5
        Investor Reimbursement                                                                       $133.0
        Borrower Relocation                                                                          $345.1
    HAFA Incentives Total                                                                                  $672.6
    Second-Lien Modification Program Incentives
        2MP Servicer Incentive Payment                                                                 $57.6
        2MP Annual Servicer Incentive Payment                                                          $23.8
        2MP Annual Borrower Incentive Payment                                                          $22.0
        2MP Investor Cost Share                                                                      $131.3
        2MP Investor Incentive                                                                       $218.4
    Second-Lien Modification Program Incentives Total                                                      $453.0
    Treasury/FHA-HAMP Incentives
        Annual Servicer Incentive Payment                                                              $17.5
        Annual Borrower Incentive Payment                                                              $16.0
    Treasury/FHA-HAMP Incentives Total                                                                       $33.5
    RD-HAMP                                                                                                        $—b
    FHA2LP                                                                                                         $—
 MHA Incentives Total                                                                                            $6,510.8
 HHF Disbursements (Drawdowns by State HFAs)                                                                     $2,911.8
 FHA Short Refinance (Loss-Coverage)                                                                                 $58.9
 Total Expenditures                                                                                              $9,481.6
 Notes: Numbers may not total due to rounding.
 a
   TARP funds are not used to support the UP program, which provides forbearance of a portion of the homeowner’s mortgage
    payment.
 b
    RD-HAMP expenditures equal $63,833 as of September 30, 2013.

 Source: Treasury, responses to SIGTARP data calls, 10/3/2013, 10/7/2013, 10/9/2013, and 10/17/2013.
74           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                        HAMP
                                                        According to Treasury, HAMP was intended “to help as many as three to four
                                                        million financially struggling homeowners avoid foreclosure by modifying loans to
                                                        a level that is affordable for borrowers now and sustainable over the long term.”159
                                                        Although HAMP contains several subprograms, the term “HAMP” is most often
                                                        used to refer to the HAMP First-Lien Modification Program, described below.

                                                        HAMP First-Lien Modification Program
                                                        The HAMP First-Lien Modification Program, which went into effect on April
                                                        6, 2009, modifies the terms of first-lien mortgages to provide borrowers with
     Trial Modification: Under HAMP, a                  lower monthly payments. A HAMP modification consists of two phases: a trial
     period of at least three months in                 modification that was originally designed to last three months, followed by a
     which a borrower is given a chance                 permanent modification. Treasury continues to pay incentives for five years.160 In
     to establish that he or she can make               designing HAMP, the Administration envisioned a “shared partnership” between
     lower monthly mortgage payments and                the Government and investors to bring distressed borrowers’ first lien monthly
     qualify for a permanent modification.              payments down to an “affordable and sustainable” level.161 The program description
                                                        immediately below refers only to the original HAMP program, which after the
                                                        launch of HAMP Tier 2 has been renamed “HAMP Tier 1.”

                                                        HAMP Tier 1 Modification Statistics
                                                        As of September 30, 2013, a total of 888,394 mortgages were in active permanent
                                                        modifications under both TARP (non-GSE) and GSE HAMP. Some 44,876 were
                                                        in active trial modifications. As of September 30, 2013, for borrowers receiving
                                                        permanent modifications, 95.9% received an interest rate reduction, 63.2%
                                                        received a term extension, 33.5% received principal forbearance, and 15.3%
                                                        received principal forgiveness.162 HAMP modification activity, broken out by TARP
                                                        and GSE loans, is shown in Table 2.8. For more detail on redefaulted modifications
                                                        over the life of HAMP, see Table 2.9 and Figure 2.3. For more detail on HAMP
                                                        modification activity, broken out by TARP and GSE loans, see Table F.1 in
                                                        Appendix F.
                                     TABLE 2.8
                                      CUMULATIVE HAMP TIER 1 MODIFICATION ACTIVITY BY TARP/GSE, AS OF 9/30/2013
                                                                                                              Trials
                                                       Trials          Trials              Trials      Converted to         Permanents          Permanents          Permanents
                                                     Started       Cancelled              Active        Permanent           Redefaulted            Paid Off             Active
                                      TARP       1,025,588            351,129            28,888               645,571            184,023                 5,006            456,542
                                      GSE        1,045,524            427,994            15,988               601,542            153,831               15,859             431,852
                                      Total     2,071,112            779,123            44,876            1,247,113             337,854               20,865             888,394
                                      Sources: Treasury, responses to SIGTARP data calls, 10/21/2013 and 10/23/2013; Fannie Mae, response to SIGTARP data call, 10/21/2013.
                                                                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                75




Homeowners Who Have Redefaulted on HAMP Permanent                                                                                             For more on homeowners who have
Modifications or Are at Risk of Redefaultingiii                                                                                               redefaulted on HAMP permanent
As of September 30, 2013, HAMP has helped more than 888,000 homeowners                                                                        mortgages or are at risk of defaulting, see
                                                                                                                                              SIGTARP’s July 2013 Quarterly Report,
avoid foreclosure through permanent mortgage modifications, but 337,854
                                                                                                                                              pages 161-184.
homeowners (or 27%) fell three months behind in payments and, thus, redefaulted
out of the program–often into a less advantageous private sector modification
or even worse, into foreclosure.163 This percentage (cumulative redefault rate)
includes all homeowners who received HAMP modifications since the start of the                                                               Cumulative Redefault Rate: The
program. As of September 30, 2013, taxpayers lost over $972 million in TARP                                                                  total number of HAMP permanent
funds paid to servicers and investors as incentives for 184,023 homeowners                                                                   modifications that have redefaulted
who received TARP (non-GSE) HAMP permanent modifications and later                                                                           (as of a specific date) divided by the
redefaulted.164 Also, as of August 31, 2013, the latest data available, 92,361                                                               total number of HAMP permanent
(more than 10% of active HAMP permanent modifications) had missed one to                                                                     modifications started (as of the same
two monthly mortgage payments and, thus, are at risk of redefaulting out of the                                                              specific date).
program.165
    The longer a homeowner remains in HAMP, the more likely he or she is
to redefault out of the program, with homeowners redefaulting on the oldest
HAMP permanent modifications at a rate of 48.3%.iv As of August 31, 2013, the
latest data provided by Treasury, redefault rates of HAMP permanent mortgage
modifications that had been started in each year, since 2009, continued to increase
as the modifications age. Nearly half of all homeowners who received a HAMP
permanent modification received it in 2009 and 2010.166 As of August 31, 2013,
the latest data provided by Treasury, homeowners who received HAMP permanent
modifications in 2009 redefaulted at rates ranging from 42.8% to 48.3%.167 As of
August 31, 2013, the latest data provided by Treasury, homeowners who received
HAMP permanent modifications in 2010 redefaulted at rates ranging from 32.6%
to 40.5%.168
    Homeowners who redefaulted fell out of the HAMP program, and their HAMP
permanent modification was not sustainable. Once again, they risked losing
their homes and some may have lost their homes. Treasury reported that of the
homeowners with redefaulted loans reported by the eight largest servicers, as of
August 31, 2013, the latest data available, 32% of homeowners who redefaulted
received an alternative modification, usually a private sector modification, 22%
of homeowners moved into the foreclosure process, and 13% of homeowners lost
their home via a short sale or deed-in-lieu of foreclosure.169
    Since HAMP’s inception in 2009, the cumulative redefault rate for
homeowners who received permanent modifications has risen each year—from 1%
at the end of 2009 to 27% in the first nine months of 2013.170 Table 2.9 provides
detail on the annual and cumulative number and percentage of homeowners who
received HAMP permanent modifications and have redefaulted over the life of
HAMP. Figure 2.3 provides detail on the status (active and redefaulted) over time
of homeowners’ HAMP permanent modifications by the year they originated.


iii In this section, “HAMP” refers to the original HAMP First-Lien Modification Program, which Treasury later named HAMP Tier 1.
iv T
    reasury’s calculation of redefault rates may exclude some modifications due to missing or invalid data.
76   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                        TABLE 2.9
                                         HAMP PERMANENT MODIFICATION REDEFAULT ACTIVITY, AS OF 9/30/2013
                                                                                Permanents Started                           Permanents Redefaulted
                                                                                                                                                      Redefault Rate
                                                                                  Annual       Cumulative              Annual      Cumulative            Cumulative
                                                           2009                   23,633             23,633                129                129                     1%
                                                           2010                  243,262           266,895             29,015            29,144                      11%
                                                           2011                  185,254           452,149             59,080            88,224                      20%
                                         TARP
                                                           2012                  114,745           566,894             58,860           147,084                      26%
                                                           2013                   78,677           645,571             36,939           184,023                      29%
                                                           Total                645,571                             184,023
                                                           2009                   43,305             43,305                339                339                     1%
                                                           2010                  269,450           312,755             27,730            28,069                       9%
                                                           2011                  168,423           481,178             51,287            79,356                      16%
                                         GSE
                                                           2012                   87,280           568,458             49,229           128,585                      23%
                                                           2013                   33,084           601,542             25,246           153,831                      26%
                                                           Total                601,542                             153,831
                                                           2009                   66,938             66,938                468                468                     1%
                                                           2010                  512,712           579,650             56,745            57,213                      10%
                                                           2011                  353,677           933,327           110,367            167,580                      18%
                                         Total
                                                           2012                  202,025         1,135,352           108,089            275,669                      24%
                                                           2013                  111,761         1,247,113             62,185           337,854                      27%
                                                           Total             1,247,113                              337,854
                                         Notes: Data is as of December 31, 2009; December 31, 2010; December 31, 2012; and September 30, 2013.

                                         Sources: Treasury, responses to SIGTARP data calls, 1/21/2011, 1/20/2012, 1/22/2013, 2/28/2013, 7/19/2013, 10/21/2013, and
                                         10/23/2013; Fannie Mae, response to SIGTARP data call 10/21/2013; SIGTARP Quarterly Report to Congress, 1/30/2010; SIGTARP
                                         Quarterly Report to Congress, 1/26/2011; SIGTARP Quarterly Report to Congress, 1/26/2012; SIGTARP Quarterly Report to Congress,
                                         1/30/2013.
                                                                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   77




FIGURE 2.3

ACTIVE AND REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY YEAR OF
MODIFICATION, STATUS AS OF 12/30/2009 – 9/30/2013
600,000



500,000



400,000



300,000



200,000



100,000



     0
            As of 12/31/2009       As of 12/31/2010        As of 12/31/2011         As of 12/31/2012              As of 9/30/2013

          Modification Year       2009        2010        2011       2012        2013
          Redefaulted
          Active

          Notes: According to Treasury and Fannie Mae, reporting by HAMP permanent modification effective date did not exist until
          January 2011. Modifications shown as active or redefaulted as of 12/31/2010 include modifications started in 2009, 2010,
          and early 2011. Because of reporting schedules, some of the HAMP permanent modification activity reported in any year may
          include some modifications with effective dates in the following year. Data excludes all HAMP permanent modifications started
          but paid off (20,865 HAMP permanent modifications had been paid off as of 9/30/2013).

          Source: Treasury and Fannie Mae, responses to SIGTARP data calls, 10/21/2013 and 10/22/2013.
78   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Servicer Redefault Rates
                                            As of September 30, 2013, of 967,328 homeowners’ HAMP permanent
                                            modifications currently serviced by the eight largest servicers, 261,804, or
                                            27%, subsequently redefaulted, and three servicers account for nearly 60% of
                                            these homeowners’ permanent HAMP modifications redefaulted: Ocwen Loan
                                            Servicing, LLC, with 69,853 homeowners’ permanent modifications redefaulted;
                                            JPMorgan Chase Bank, NA, with 42,457 homeowners’ permanent modifications
                                            redefaulted; and Wells Fargo Bank, N.A., with 41,023 homeowners’ permanent
                                            modifications redefaulted.171 Of the eight largest servicers participating in HAMP,
                                            the four servicers with the highest percentage of homeowners’ permanent HAMP
                                            modifications made that later redefaulted were Select Portfolio Servicing, Inc.
                                            with 43% of homeowners’ permanent modifications redefaulted; Ocwen Loan
                                            Servicing, LLC, and Bank of America, N.A., each with 31% of homeowners’
                                            permanent modifications redefaulted; and Nationstar Mortgage LLC, with 25%
                                            of homeowners’ permanent modifications redefaulted, as compared with the
                                            average for the eight of 27%.172 Table 2.10 provides data on homeowners’ HAMP
                                            permanent modifications by servicers participating in HAMP and currently
                                            servicing the modifications listed.

                                            TABLE 2.10
                                             HOMEOWNERS’ HAMP PERMANENT MODIFICATIONS AND REDEFAULTS, BY
                                             SERVICER, AS OF 9/30/2013
                                                                                                                                                             Percentage
                                                                                                                               Permanent                   of Permanent
                                                                                                 Permanent                   Modifications                 Modifications
                                                                                                Modifications                 Redefaulted                   Redefaulted
                                             Ocwen Loan Servicing, LLC                                  223,971                       69,853                                31%
                                             JPMorgan Chase Bank, NA                                    190,143                       42,457                                22%
                                             Wells Fargo Bank, N.A.                                     176,391                       41,023                                23%
                                             Bank of America, N.A.                                      112,120                       34,814                                31%
                                             Nationstar Mortgage LLC                                    117,644                       29,719                                25%
                                             Select Portfolio Servicing, Inc.                             49,777                      21,626                                43%
                                             CitiMortgage Inc.                                            69,423                      15,550                                22%
                                             OneWest Bank                                                 27,859                        6,762                               24%
                                             Other                                                      279,785                       76,050                                27%
                                             TOTAL                                                  1,247,113                      337,854                                  27%
                                             Notes: HAMP include only HAMP Tier 1 modifications, including those that received assistance under the Home Price Decline
                                             Protection (“HPDP”) and Principal Reduction Alternative (“PRA”) programs. Includes both TARP and GSE modifications. Includes
                                             modifications listed by the current servicer of the loan.

                                             Sources: Treasury, responses to SIGTARP data calls, 10/21/2013 and 10/22/2013; Fannie Mae, responses to SIGTARP data calls,
                                             10/21/2013 and 10/22/2013.
                                                                                                                                QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   79




Redefaults: Impact on Taxpayers Funding TARP
Taxpayers have lost over $972 million in TARP funds paid to servicers and
investors as incentives for 184,023 homeowners’ non-GSE, HAMP (Tier 1)
permanent mortgage modifications that redefaulted.173 As of September 30, 2013,
Treasury has distributed $5.3 billion in TARP funds for 645,571 homeowners’
HAMP permanent modifications.174 According to Treasury, $2.7 billion of that
was designated for investor incentives, $1.6 billion for servicer incentives, and
$935.9 million for homeowner incentives.175 (Homeowner incentives are paid to
servicers that, in turn, apply the payment to a homeowner’s mortgage). According
to Treasury, 18% of those funds were paid for incentives on homeowners’ HAMP
permanent modifications that later redefaulted.176
    More than half of TARP funds that Treasury spent for HAMP permanent
modifications that redefaulted were for mortgages currently serviced by three
servicers, Ocwen Loan Servicing, LLC, J.P. Morgan Chase Bank, NA, and Wells
Fargo Bank, N.A. (listed in Table 2.11).177,v Almost all (91%) of TARP funds
Treasury spent for HAMP permanent modifications that redefaulted were for
mortgages currently serviced by 10 servicers (listed in Table 2.11).178 Table 2.11
shows payments for homeowners’ HAMP permanent modifications (active,
redefaulted, and paid off mortgages) that are currently within servicers’ portfolios.




v Total incentive payments by the current status of the permanent modification (active, redefaulted, or paid off) is broken out in the table
   by the current servicer of the loan. The incentive payment totals may not tie to the actual amount paid to the servicer as servicing
   transfers are not taken into account when the current servicer on the loan is used.
80   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




               TABLE 2.11

                TARP INCENTIVE PAYMENTS ON HOMEOWNERS’ HAMP PERMANENT MODIFICATIONS CURRENTLY
                WITHIN SERVICERS’ PORTFOLIOS, AS OF 9/30/2013
                                                                                              TARP                      TARP                                        Percentage of Total
                                                           TARP Incentive                 Incentive                 Incentive                 Total TARP                TARP Incentive
                                                            Payments for              Payments for              Payments for                    Incentive                Payments for
                                                             Permanents                Permanents                Permanents                Payments for                    Permanents
                Servicer Name                                      Active              Redefaulted                   Paid Off             Permanents All                   Redefaulted 
                Ocwen Loan Servicing,
                                                             $896,593,158             $241,042,834                 $5,758,799            $1,143,394,791                                    21%
                LLC

                JPMorgan Chase Bank, NA                       765,909,616               125,724,135                  4,459,562                896,093,313                                  14%

                Wells Fargo Bank, N.A.                        688,228,237               121,405,773                  5,025,653                814,659,663                                  15%

                Select Portfolio Servicing,
                                                              262,557,325               115,098,695                  3,602,860                381,258,880                                  30%
                Inc.

                Bank of America, N.A.                         532,476,505               100,733,294                  3,558,014                636,767,813                                  16%

                Nationstar Mortgage LLC                       280,592,697                 54,174,363                 1,286,948                336,054,008                                  16%

                GMAC Mortgage, LLC                            153,437,476                 41,031,229                 2,469,350                196,938,055                                  21%
                OneWest Bank                                  237,966,500                 37,385,305                    684,134               276,035,938                                  14%
                CitiMortgage Inc                              222,467,769                 33,326,645                 2,457,953                258,252,367                                  13%
                Carrington Mortgage
                                                                38,078,834                16,185,990                    329,952                 54,594,777                                 30%
                Services, LLC.
                Other                                         235,133,067                 86,059,487                 8,031,828                329,224,382                                  26%
                Total                                     4,313,441,183               972,167,750                 37,665,053              5,323,273,987                                   18%
                Notes: Total incentive payments by the current status of the permanent modification (active, redefaulted, or paid off) is broken out in the table by the current servicer of the
                loan. The incentive payment totals may not tie to the actual amount paid to the servicer as servicing transfers are not taken into account when the current servicer on the loan
                is used. Totals shown here exclude payments and/or drafts performed for modifications that are not currently Permanent Modifications. Totals shown here include payments
                under the Home Price Decline Protection (“HPDP”) and Principal Reduction Alternative (“PRA”) programs tied to these loans.

                Sources: Treasury, responses to SIGTARP data calls, 10/7/2013 and 10/9/2013.
                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   81




Redefaults: Impact on States
Homeowners are redefaulting throughout the nation. While the cumulative
number of homeowners’ HAMP permanent modifications in certain states may not
be high, some states with a relatively small number of modifications have redefault
rates of 30% or more.179 For example, only 4,768 homeowners from Mississippi
received HAMP permanent modifications, but these homeowners have redefaulted
at a rate of 36%. Meanwhile, some states with the highest number of homeowners
who have redefaulted have the lowest redefault rates. For example, California,
which has the most homeowners in permanent modifications, has the highest
number of homeowners who redefaulted on HAMP permanent modifications,
62,660, but has one of the lowest redefault rates, 21%. (Only Guam, Puerto Rico,
and the Virgin Islands have lower rates.) Florida, Illinois, and Arizona have the next
highest number of homeowners who redefaulted, at 41,881, 19,762, and 15,262,
respectively. After Mississippi, in Tennessee, Louisiana, Alabama, and Delaware,
homeowners have redefaulted at a rate of 34%. Tables 2.12-2.18 and Figure 2.4
show regional and state breakdowns of the number of homeowners with HAMP
permanent modifications, the number of homeowners with active permanent
modifications, the number who have redefaulted on modifications, and the
redefault rates.
82   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            TABLE 2.12
                                             REDEFAULTED HOMEOWNERS’ HAMP PERMANENT MODIFICATIONS, BY
                                             REGION, CUMULATIVE AS OF 9/30/2013
                                                                                    Permanent                         Active                Redefaulted
                                                                                   Modifications               Modifications               Modifications           Redefault Rate
                                             West                                          344,678                   265,638                         74,389                    22%
                                             Mountain West/Plains                               68,799                   47,563                      19,475                    28%
                                             Southwest/South Central                       102,610                       68,969                      31,284                    30%
                                             Midwest                                       195,348                   133,042                         58,656                    30%
                                             Mid-Atlantic/Northeast                        271,652                   189,841                         77,496                    29%
                                             Southeast                                     264,026                   183,341                         76,554                    29%
                                             Total                                     1,247,113                    888,394                      337,854                       27%
                                             Notes: Includes GSE and non-GSE modifications. Of all permanent modifications, 20,865 loans have been paid off.

                                             Source: Treasury, response to SIGTARP data call, 10/23/2013.


                                            FIGURE 2.4
                                            REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY REGION, CUMULATIVE
                                            AS OF 9/30/2013

                                                 AK
                                                                                      MOUNTAIN WEST/
                                                                                          PLAINS
                                                                                          19,475                                      MIDWEST                           MID-ATLANTIC/
                                                                         WA                                                            58,656                            NORTHEAST
                                                                                                                                                             VT    ME
                                                                                           MT         ND                                                                   77,496
                                                                    OR                                              MN                                                 NH
                                                                                                                               WI                           NY
                                                 WEST                            ID                      SD                                                             MA
                                                                                                                                       MI
                                                74,389
                                                                                           WY
                                                                                                                     IA                                               CT RI
                                                                                                                                            OH         PA            NJ
                                                                                                         NE
                                                                           NV                                                   IL    IN                            DE
                                                                   CA                 UT                                                             WV VA        MD
                                                                                                CO                   MO
                                                                                                              KS                           KY                    DC
                                                           HI                                                                                         NC
                                                                                                                                      TN
                                                                                  AZ                           OK        AR                           SC
                                                                                                NM
                                                  GU                                                                                MS AL       GA           SOUTHEAST
                                                                                                          TX              LA                                   76,554

                                                                                                                                                      FL           PR    VI
                                                                                  SOUTHWEST/
                                                                                 SOUTH CENTRAL
                                                                                     31,284

                                                             WEST                                                              MIDWEST
                                                             MOUNTAIN WEST/PLAINS                                              MID-ATLANTIC/NORTHEAST
                                                             SOUTHWEST/SOUTH CENTRAL                                           SOUTHEAST
                                                                                                      QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013              83




West
TABLE 2.13
 REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY STATE, CUMULATIVE AS OF 9/30/2013
                                                                    Permanent                        Active                Redefaulted
                                                                   Modifications              Modifications               Modifications           Redefault Rate
                                           WA         AK                        597                         398                         166                 28%
                                                      CA                  299,238                     232,828                      62,660                   21%
            AK
                                      OR              GU                          10                           7                           2                20%
                                                      HI                      4,617                      3,471                       1,039                  23%
                                                      OR                    13,817                     10,013                        3,501                  25%
                                                      WA                    26,399                     18,921                        7,021                  27%
                  GU
                                      CA              Total              344,678                     265,638                       74,389                  22%
                                                      Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.

                       HI                             Source: Treasury, response to SIGTARP data call, 10/23/2013.



       WEST                                >27%
       Percentage of Redefaults            25-27%
       on HAMP Permanent                   <25%
       Modifications


Mountain West/Plains
TABLE 2.14
 REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY STATE, CUMULATIVE AS OF 9/30/2013
                                                                    Permanent                        Active                Redefaulted
                                                                   Modifications              Modifications               Modifications           Redefault Rate

                            MT                        CO                    16,879                     12,470                        3,892                  23%
                                       ND
                                                      ID                      4,689                      3,295                       1,268                  27%
             ID                        SD             KS                      3,125                      2,038                          989                 32%
                             WY
                                                      MT                      1,396                      1,011                          320                 23%
                                           NE
       NV                                             ND                        196                         130                           49                25%
                  UT
                                 CO                   NE                      1,807                      1,135                          587                 32%
                                                KS
                                                      NV                    28,783                     19,060                        9,308                  32%
                                                      SD                        467                         292                         144                 31%
     MOUNTAIN WEST/                          >27%
                                             25-27%
     PLAINS                                  <25%
                                                      UT                    10,854                       7,730                       2,755                  25%
     Percentage of Redefaults on
     HAMP Permanent Modifications
                                                      WY                        603                         402                         163                 27%
                                                      Total                68,799                      47,563                      19,475                  28%
                                                      Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.

                                                      Source: Treasury, response to SIGTARP data call, 10/23/2013.
84   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     Southwest/South Central
     TABLE 2.15
       REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY STATE, CUMULATIVE AS OF 9/30/2013
                                                                              Permanent                        Active                Redefaulted
                                                                             Modifications              Modifications               Modifications           Redefault Rate

            AZ                               OK                 AR                      2,869                      1,821                          940                 33%
                      NM                                  AR
                                                                AZ                    49,962                     33,657                      15,262                   31%
                                                          LA    LA                      7,577                      4,822                       2,591                  34%
                                        TX
                                                                NM                      4,236                      2,999                       1,134                  27%
                                                                OK                      3,129                      2,003                       1,022                  33%
                                                                TX                    34,837                     23,667                      10,335                   30%
             SOUTHWEST/                                >27%     Total              102,610                       68,969                      31,284                  30%
                                                       25-27%
             SOUTH CENTRAL                             <25%     Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.
             Percentage of Redefaults
             on HAMP Permanent                                  Source: Treasury, response to SIGTARP data call, 10/23/2013.
             Modifications



     Midwest
     TABLE 2.16
       REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY STATE, CUMULATIVE AS OF 9/30/2013
                                                                              Permanent                        Active                Redefaulted
                                                                             Modifications              Modifications               Modifications           Redefault Rate
                                                                IA                      3,196                      2,001                       1,070                  33%
                    MN
                              WI                                IL                    66,169                     45,661                      19,762                   30%
                                             MI                 IN                    12,159                       8,065                       3,814                  31%
                      IA
                                                                KY                      4,842                      3,138                       1,568                  32%
                                   IL   IN        OH
                                                                MI                    36,801                     25,802                      10,151                   28%
                         MO
                                              KY                MN                    19,880                     13,614                        5,844                  29%
                                                                MO                    13,118                       8,459                       4,347                  33%
              MIDWEST                              >27%
                                                                OH                    26,756                     18,184                        8,074                  30%
              Percentage of Redefaults             25-27%
              on HAMP Permanent                    <25%         WI                    12,427                       8,118                       4,026                  32%
              Modifications
                                                                Total              195,348                     133,042                       58,656                  30%
                                                                Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.

                                                                Source: Treasury, response to SIGTARP data call, 10/23/2013.
                                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013              85




Mid-Atlantic/Northeast
TABLE 2.17
 REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY STATE, CUMULATIVE AS OF 9/30/2013
                                                                      Permanent                        Active                Redefaulted
                                                                     Modifications              Modifications               Modifications           Redefault Rate
                             VT    ME                   CT                    16,597                     11,391                        4,989                  30%

                                        NH              DC                      2,138                      1,525                          562                 26%
                        NY               MA             DE                      3,992                      2,582                       1,355                  34%
                                              RI
                                   CT
                   PA             NJ                    MA                    29,991                     21,076                        8,381                  28%
                                 DE                     MD                    40,118                     27,771                      11,722                   29%
             WV VA
             WV                MD
                              DC                        ME                      3,699                      2,417                       1,195                  32%
                                                        NH                      5,767                      3,850                       1,777                  31%
                                                        NJ                    42,536                     28,514                      13,461                   32%
       MID-ATLANTIC/                      >27%
                                          25-27%        NY                    61,438                     45,637                      15,083                   25%
       NORTHEAST                          <25%
       Percentage of                                    PA                    27,469                     18,076                        8,856                  32%
       Redefaults on HAMP
       Permanent Modifications                          RI                      6,182                      4,233                       1,871                  30%
                                                        VA                    28,872                     20,864                        7,385                  26%
                                                        VT                      1,113                         769                         304                 27%
                                                        WV                      1,740                      1,136                          555                 32%
                                                        Total              271,652                     189,841                       77,496                  29%
                                                        Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.

                                                        Source: Treasury, response to SIGTARP data call, 10/23/2013.



Southeast
TABLE 2.18
 REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY STATE, CUMULATIVE AS OF 9/30/2013
                                                                      Permanent                        Active                Redefaulted
                                                                     Modifications              Modifications               Modifications           Redefault Rate
                                  NC
             TN                                         AL                      7,548                      4,778                       2,576                  34%
                              SC
                                                        FL                  152,755                     108,892                      41,881                   27%
        MS    AL        GA
                                              PR        GA                    46,097                     31,551                      13,879                   30%
                                                        MS                      4,768                      2,933                       1,735                  36%
                                                   VI
                                  FL                    NC                    23,478                     15,605                        7,351                  31%
                                                        PR                      3,911                      3,146                          694                 18%
                                                        SC                    11,954                       7,900                       3,786                  32%
       SOUTHEAST                         >27%
       Percentage of                     25-27%         TN                    13,509                       8,530                       4,652                  34%
       Redefaults on HAMP                <25%
       Permanent Modifications                          VI                            6                          6                           0                 0%
                                                        Total              264,026                     183,341                       76,554                  29%
                                                        Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.

                                                        Source: Treasury, response to SIGTARP data call, 10/23/2013.
86            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     Starting a HAMP Tier 1 Modification
                                                     Borrowers may request participation in HAMP.180 Borrowers who have missed two
                                                     or more payments must be solicited for participation by their servicers.181 Before
                                                     offering the borrower a trial modification, also known as a trial period plan (“TPP”),
                                                     the servicer must verify the accuracy of the borrower’s income and other eligibility
                                                     criteria. In order to verify the borrower’s eligibility for a modification under the
                                                     program, borrowers must submit the following documents as part of an “initial
                                                     package.”182

                                                     •	 an MHA “request for mortgage assistance” (“RMA”) form, which provides the
                                                        servicer with the borrower’s financial information, including the cause of the
                                                        borrower’s hardship;
                                                     •	 signed and completed requests for Federal tax return transcripts or the most
                                                        recent Federal income tax return, including all schedules and forms;
                                                     •	 income verification documentation, such as recent pay stubs or evidence of
                                                        other sources of income; and
                                                     •	 Dodd-Frank certification (either as part of the RMA form or as a standalone
                                                        document) that the borrower has not been convicted in the past 10 years of any
                                                        of the following in connection with a mortgage or real estate transaction: felony
                                                        larceny, theft, fraud, or forgery; money laundering, or tax evasion.

     For more information on the RMA                      In order for a loan to be eligible for a HAMP modification, the borrower’s initial
     form and what constitutes hardship,             package, consisting of the four documents described above, must be submitted by
     see SIGTARP’s April 2011 Quarterly              the borrower on or before December 31, 2015. Additionally, in order to be eligible
     Report, page 62.                                for incentive payments, the permanent modification must be effective on or before
                                                     September, 2016.183
     For more information on the Verification             Participating servicers verify monthly gross income for the borrower and the
     Policy, see SIGTARP’s April 2011                borrower’s household, as well as other eligibility criteria.184 Then, in the case of
     Quarterly Report, page 63.
                                                     HAMP Tier 1, the servicer follows the “waterfall” of modification steps prescribed
                                                     by HAMP guidelines to calculate the reduction in the borrower’s monthly mortgage
     For more about the HAMP NPV test,
                                                     payment needed to achieve a 31% debt-to-income (“DTI”) ratio, that is, a payment
     see the June 18, 2012, SIGTARP audit
     report “The NPV Test’s Impact on                equal to 31% of his or her monthly gross income.185
     HAMP.”                                               In the first step, the servicer capitalizes any unpaid interest and fees (i.e., adds
                                                     them to the outstanding principal balance). Second, the servicer reduces the
                                                     interest rate in incremental steps to as low as 2%. If the 31% DTI ratio threshold
                                                     still has not been reached, in the third step the servicer extends the term of the
                                                     mortgage to a maximum of 40 years from the modification date. If these steps are
                                                     still insufficient to reach the 31% threshold, the servicer may forbear principal
                                                     (defer its due date), subject to certain limits.186 The forbearance amount is not
                                                     interest bearing and results in a lump-sum payment due upon the earliest of the
                                                     sale date of the property, the payoff date of the interest-bearing mortgage balance,
                                                     or the maturity date of the mortgage.187
                                                          Servicers are not required to forgive principal under HAMP. However, servicers
                                                     may forgive principal in order to lower the borrower’s monthly payment to achieve
                                                                                 QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013           87




the HAMP Tier 1 DTI ratio goal of 31% on a stand-alone basis, at any point in the
HAMP waterfall described above, or as part of PRA.188
    After completing these modification calculations, all loans that meet HAMP
eligibility criteria and are either deemed generally to be in imminent default or
delinquent by two or more payments must be evaluated using a standardized net
                                                                                                 Net Present Value (“NPV”) Test:
present value (“NPV”) test that compares the NPV result for a modification to
                                                                                                 Compares the money generated by
the NPV result for no modification.189 The NPV test compares the expected cash
                                                                                                 modifying the terms of the mortgage
flow from a modified loan with the expected cash flow from the same loan with
                                                                                                 with the amount an investor can
no modifications to determine which option will be more valuable to the mortgage
                                                                                                 reasonably expect to recover in a
investor. A positive NPV test result indicates that a modified loan is more valuable
                                                                                                 foreclosure sale.
to the investor than the existing loan. In that case, under HAMP rules, the servicer
must offer the borrower a mortgage modification. If the test generates a negative
                                                                                                 Loan-to-Value (“LTV”) Ratio: Lending
result, modification is optional.190 Servicers cannot refuse to evaluate a borrower
                                                                                                 risk assessment ratio that mortgage
for a modification simply because the outstanding loan currently has a low loan-to-
                                                                                                 lenders examine before approving a
value (“LTV”) ratio, meaning the borrower owes less than the value of the home.
                                                                                                 mortgage; calculated by dividing the
The lower the LTV ratio is, the higher the probability that a foreclosure will be
                                                                                                 outstanding amount of the loan by
more profitable to an investor than a modification.
                                                                                                 the value of the collateral backing the
    Since September 1, 2011, most of the largest mortgage servicers participating
                                                                                                 loan. Loans with high LTV ratios are
in MHA have been required to assign a single point of contact to borrowers
                                                                                                 generally seen as higher risk because
potentially eligible for evaluation under HAMP, HAFA, or UP.191 The single point of
                                                                                                 the borrower has less of an equity
contact has the primary responsibility for communicating with the borrower about
                                                                                                 stake in the property.
options to avoid foreclosure, his/her status in the process, coordination of receipt of
documents, and coordination with other servicer personnel to promote compliance
with MHA timelines and requirements throughout the entire delinquency,
imminent default resolution process, or foreclosure.192

How HAMP Tier 1 First-Lien Modifications Work
Treasury originally intended that HAMP trial modifications would last three
months. Historically, many trial modifications have lasted longer. According to
Treasury, as of September 30, 2013, of a combined total of 44,876 active trials
under both GSE and TARP (non-GSE) HAMP, 8,310 (19%) had lasted more than
six months.193
    Borrowers in trial modifications may qualify for conversion to a permanent
modification as long as they make the required modified payments on time and
provide proper documentation, including a signed modification agreement.194 The
terms of permanent modifications under HAMP Tier 1 remain fixed for at least five
years.195 After five years, the loan’s interest rate can increase if the modified interest
rate had been reduced below the 30-year conforming fixed interest rate on the date
of the initial modification. The interest rate can rise incrementally by up to 1%
per year until it reaches that rate.196 Otherwise, the modified interest rate remains
permanent.
    If the borrower misses a payment during the trial or is denied a permanent
modification for any other reason, the borrower is, in effect, left with the original
terms of the mortgage. The borrower is responsible for the difference between
the original mortgage payment amount and the reduced trial payments that were
88            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     made during the trial. In addition, the borrower may be liable for late fees that were
                                                     generated during the trial. In other words, a borrower can be assessed late fees
                                                     for failing to make the original pre-modification scheduled payments during the
                                                     trial period, even though under the trial modification the borrower is not required
                                                     to make these payments. Late fees are waived only for borrowers who receive a
                                                     permanent modification.197

                                                     What Happens When a HAMP Modification Is Denied: Servicer Obligations and
                                                     Borrower Rights
                                                     Treasury has issued guidance governing both the obligations of servicers and the
                                                     rights of borrowers in connection with the denial of loan modification requests.
                                                     Borrowers must receive a Non-Approval Notice if they are rejected for a HAMP
                                                     modification. A borrower who is not approved for HAMP Tier 1 is automatically
                                                     considered for HAMP Tier 2. If the servicer offers the borrower a HAMP Tier 2
                                                     trial, no Non-Approval Notice would be issued on the HAMP Tier 1. The Non-
                                                     Approval Notice is sent only if the HAMP Tier 2 is not offered. Borrowers can
                                                     request reconsideration or re-evaluation if they believe one or more NPV analysis
                                                     inputs is incorrect or if they experience a change in circumstance. Servicers are
                                                     obligated to have written procedures and personnel in place to respond to borrower
                                                     inquiries and disputes that constitute “escalated cases” in a timely manner.198
                                                         Treasury’s web-based NPV calculator at www.CheckMyNPV.com can be
     For more information on HAMP                    used by borrowers prior to applying for a HAMP modification or after a denial
     servicer obligations and borrower rights,       of a HAMP modification. Borrowers can enter the NPV input values listed in
     see SIGTARP’s April 2011 Quarterly              the HAMP Non-Approval Notice received from their servicer, or substitute with
     Report, pages 67-76.                            estimated NPV input values, to compare the estimated outcome provided by
                                                     CheckMyNPV.com against that on the Non-Approval Notice.

                                                     Modification Incentives
                                                     For new HAMP trials on or after October 1, 2011, Treasury changed the one-
                                                     time flat $1,000 incentive payment to a sliding scale based on the length of time
                                                     the loan was delinquent as of the effective date of the TPP. For loans less than or
                                                     equal to 120 days delinquent, servicers receive $1,600.199 For loans 121-210 days
                                                     delinquent, servicers receive $1,200. For loans more than 210 days delinquent,
                                                     servicers receive only $400. Starting on March 1, 2014, incentive payments for
                                                     servicers are scheduled to increase by $400.200 For borrowers whose monthly
                                                     mortgage payment was reduced through HAMP by 6% or more, servicers also
                                                     receive incentive payments of up to $1,000 annually for three years if the borrower
                                                     remains in good standing (defined as less than three full monthly payments
                                                     delinquent).201
                                                         For HAMP Tier 1, borrowers whose monthly mortgage payment is reduced
                                                     through HAMP by 6% or more and who make monthly payments on time earn
                                                     an annual principal reduction of up to $1,000.202 The principal reduction accrues
                                                     monthly and is payable for each of the first five years as long as the borrower
                                                     remains in good standing.203 Under both HAMP Tier 1 and HAMP Tier 2, the
                                                                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                     89




investor is entitled to five years of incentives that make up part of the difference
between the borrower’s new monthly payment and the old one.
    As of September 30, 2013, of the $29.9 billion in TARP funds allocated to
the 91 servicers participating in MHA, approximately 91% was allocated to the 10
largest servicers.204 Table 2.19 shows incentive payments made to these servicers.

TABLE 2.19
 TARP INCENTIVE PAYMENTS BY 10 LARGEST SERVICERS, AS OF 9/30/2013
                                                                                         Incentive                      Incentive                    Incentive
                                                                                        Payments                       Payments                     Payments                 Total Incentive
                                                    SPA Cap Limit                    to Borrowers                    to Investors                 to Servicers                    Payments
 Ocwen Loan Servicing, LLCa                       $5,672,546,645                   $239,349,683                   $664,196,794                  $398,119,873                $1,301,666,351
 JPMorgan Chase Bank, NAb                           3,558,389,503                    269,623,325                    646,850,846                   374,958,315                 1,291,432,486
 Bank of America, N.A.        c
                                                    7,448,199,983                    280,879,949                    583,912,298                   359,596,274                 1,224,388,520
 Wells Fargo Bank, N.A.        d
                                                    5,092,409,516                    204,892,075                    501,229,808                   307,604,066                 1,013,725,949
 CitiMortgage Inc                                      946,956,828                     63,897,793                   206,298,351                   103,663,748                   373,859,892
 OneWest Bank                                       1,836,129,467                      56,326,072                   188,473,660                     81,586,508                  326,386,240
 Select Portfolio Servicing, Inc.                   1,246,322,584                      66,958,390                   131,806,834                     95,027,270                  293,792,494
 Nationstar Mortgage LLC           e
                                                    1,011,891,244                      51,172,340                   116,512,760                     79,500,475                  247,185,575
 Saxon Mortgage Services Inc                           100,807,086                     19,655,075                    41,738,413                     39,413,598                  100,807,086
 U.S. Bank National Association                        181,168,009                     11,293,758                    27,770,081                     20,423,591                    59,487,430
 Total                                        $27,094,820,864                  $1,264,048,460                $3,108,789,845                $1,859,893,718                 $6,232,732,023
 Notes: On July 1, 2012, Saxon Mortgage Services, Inc. ceased servicing operations by selling its mortgage servicing rights and transferring the subservicing relationships to third-party
 servicers. The remaining SPA Cap Limit stated above represents the amount previously paid to Saxon Mortgage Services, Inc. prior to ceasing servicing operations.
 a
   Ocwen Loan Servicing includes the former Litton Loan Servicing, LLC, GMAC Mortgage, LLC, and Homeward Residential.
 b
   JPMorgan Chase includes EMC Mortgage Corporation.
 c
   Bank of America includes the former Countrywide Home Loans Servicing, BAC Home Loans Servicing LP, Home Loan Services, and Wilshire Credit Corporation.
 d
   Wells Fargo includes Wachovia Bank, NA and Wachovia Mortgage, FSB.
 e
   Nationstar includes MorEquity, Inc and the former Aurora Loan Services LLC.

 Source: Treasury, Transactions Report-Housing Programs, 9/27/2013.
90   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            MHA Outreach and Borrower Intake Project
                                            On February 14, 2013, Treasury entered into an agreement with the
                                            Neighborhood Reinvestment Corporation, also called NeighborWorks America
                                            (“NeighborWorks”), to launch a nationwide MHA initiative with housing
                                            counselors “in an effort to increase the number of homeowners that successfully
                                            request assistance under MHA.”205 NeighborWorks is a Congressionally chartered
                                            corporation that through a national network of non-profit organizations administers
                                            housing programs, including housing counseling.206 The initiative, called the
                                            MHA Outreach and Borrower Intake Project, will pay $450 to housing counseling
                                            agencies for each homeowner they worked with to submit complete applications
                                            for HAMP to servicers.207 Treasury allocated $18.3 million in TARP funds for the
                                            project.208 As of September 30, 2013, housing counselors have initiated HAMP
                                            application work for 2,647 homeowners, of whom 758 have had their completed
                                            applications submitted to an MHA servicer and accepted by that MHA servicer,
                                            whether or not the borrower eventually receives a mortgage modification.209
                                            According to Treasury, housing counseling agencies are due $341,000 for those
                                            accepted applications.210 NeighborWorks has, as of September 30, 2013, requested
                                            $3.3 million in total funds, mostly for outreach, oversight, and administration, as
                                            well as for the counseling agency payments.211

                                            HAMP Tier 2
                                            Effective June 1, 2012, HAMP Tier 2 expanded HAMP.212 As in HAMP Tier 1,
                                            HAMP Tier 2 permits HAMP modifications on mortgages of owner-occupied
                                            properties, but unlike HAMP Tier 1, HAMP Tier 2 also permits HAMP
                                            modifications on mortgages of non-owner-occupied “rental” properties that are
                                            tenant-occupied or vacant.213 Under the original HAMP (now HAMP Tier 1),
                                            mortgage modifications for “rental” properties had been expressly excluded; HAMP
                                            Tier 2 also allows borrowers with a wider range of debt-to-income situations to
                                            receive modifications.214 Treasury’s stated policy objectives for HAMP Tier 2
                                            are that it “will provide critical relief to both renters and those who rent their
                                            homes, while further stabilizing communities from the blight of vacant and
                                            foreclosed properties.”215 A borrower may have up to five loans with HAMP Tier 2
                                            modifications, as well as a single HAMP Tier 1 modification on the mortgage for
                                            his or her primary residence.216 If a borrower loses “good standing” on a HAMP
                                            Tier 1 modification and it has either been at least one year since the effective date
                                            of that modification or there has been a “change in circumstance,” he or she is
                                            eligible for a HAMP Tier 2 remodification.217 Approximately 3,537 of HAMP Tier 2
                                            modifications started were previously HAMP Tier 1 permanent modifications.218
                                                According to Treasury, as of September 30, 2013, a total of 62 of the 91
                                            servicers with active MHA servicer agreements had fully implemented HAMP Tier
                                            2.219 The remaining 29 of those servicers will not implement HAMP Tier 2 because
                                            they are in the process of terminating their servicer participation agreement, they
                                            have gone out of business, their servicer participation agreement was signed to
                                            participate only in FHA-HAMP, RD-HAMP, or FHA-2LP, or they are winding
                                            down their non-GSE servicing operations.220 All 10 of the largest servicers have
                                                                                                  QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013       91




reported that they had implemented HAMP Tier 2.221 According to Treasury, as                                       For SIGTARP’s recommendations for
of September 30, 2013, it had paid $24 million in incentives in connection with                                    the improvement of HAMP Tier 2,
21,522 HAMP Tier 2 permanent modifications, 20,826 of which remain active.222                                      see SIGTARP’s April 2012 Quarterly
    According to Treasury, as of September 30, 2013, of the 38,018 HAMP Tier                                       Report, pages 185-189.
2 trial mortgage modifications started, 35,263 (93%), were for owner-occupied
properties; 2,415 (6%), were for tenant-occupied properties, and 340 (1%) were for
vacant properties.223 Of owner-occupied properties that received a HAMP Tier 2
trial modification, 14,032 trial modifications (40%) were active and 19,769 (56%)
were converted to permanent modifications, of which 19,129 (97%) were active.224
Of owner-occupied properties that received a HAMP Tier 2 trial modification,
1,462 (4%) were cancelled, and of those that received a permanent modification,
601 (3%) redefaulted.225 Nearly all (94%) tenant-occupied properties that received
either a trial or permanent HAMP Tier 2 mortgage modification have remained
active, as of September 30, 2013.226 Of vacant properties that received a HAMP
Tier 2 trial modification, 119 (35%) were in active trial modifications, 192 (56%)
were in active permanent modifications, and 22 (6%) had their trial modifications
cancelled.227 HAMP Tier 2 mortgage modification activity and property occupancy
status is shown in Table 2.20.228

TABLE 2.20
 HAMP TIER 2 FIRST LIEN MODIFICATION ACTIVITY AND OCCUPANCY STATUS, AS OF
 9/30/2013
                                                                         Trials
                            Trials         Trials          Trials Converted to     Permanent    Permanent    Permanent
 Property Type            Started      Cancelled          Active   Permanent      Redefaulted     Paid Off       Active
 Owner Occupied           35,263             1,462       14,032         19,769           601           39        19,129
 Tenant Occupied            2,415                93             768      1,554            46            3         1,505
 Vacant                        340               22             119        199             7            0           192
 Total                    38,018            1,577       14,919         21,522            654           42       20,826
 Source: Treasury, response to SIGTARP data call, 10/21/2013.
92   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            HAMP Tier 2 Eligibility
                                            HAMP Tier 2 expands the eligibility criteria related to a borrower’s debt-to-income
                                            ratio and also allows modifications on loans secured by “rental” properties. Owner-
                                            occupied loans that are ineligible for a HAMP Tier 1 modification due to excessive
                                            forbearance or negative NPV are also eligible for Tier 2. Vacant rental properties
                                            are permitted in the program, as are those occupied by legal dependents, parents,
                                            or grandparents, even if no rent is charged. The program is not, however, according
                                            to Treasury, intended for vacation homes, second homes, or properties that are
                                            rented only seasonally. Additionally, loans on rental properties must be at least two
                                            payments delinquent – those in imminent default are not eligible.229
                                                However, Treasury does not require that the property be rented. Treasury
                                            requires only that a borrower certify intent to rent the property to a tenant on a
                                            year-round basis for at least five years, or make “reasonable efforts” to do so; and
                                            does not intend to use the property as a second residence for at least five years.230
                                            According to Treasury, servicers are not typically required to obtain third-party
                                            verifications of the borrower’s rental property certification when evaluating a
                                            borrower for HAMP.231
                                                To be considered for HAMP Tier 2, borrowers must satisfy several basic HAMP
                                            requirements: the loan origination date must be on or before January 1, 2009;
                                            the borrower must have a documented hardship; the property must conform to
                                            the MHA definition of a “single-family residence” (1-4 dwelling units, including
                                            condominiums, co-ops, and manufactured housing); the property must not be
                                            condemned; and the loan must fall within HAMP’s unpaid principal balance
                                            limitations.232 If a borrower satisfies these requirements, and in addition, the
                                            loan has never been previously modified under HAMP (except for the exceptions
                                            discussed above), the servicer is required to solicit the borrower for HAMP Tier 2.
                                            In certain other cases, the borrower may still be eligible for HAMP Tier 2, but the
                                            servicer is not required to solicit the borrower.233

                                            How HAMP Tier 2 Modifications Work
                                            As with HAMP Tier 1, HAMP Tier 2 evaluates borrowers using an NPV test that
                                            considers the value of the loan to the investor before and after a modification.
                                            Owner-occupant borrowers are evaluated for both HAMP Tier 1 and Tier 2 in a
                                            single process. If a borrower is eligible for both modifications, he or she will receive
                                            a HAMP Tier 1 modification.234
                                                As discussed above, HAMP Tier 1 modifications are structured using a waterfall
                                            of incremental steps that may stop as soon as the 31% post-modification DTI ratio
                                            target is reached. In HAMP Tier 2, the proposed permanent modification must
                                            meet two affordability requirements: (1) a post-modification DTI ratio of not less
                                            than 25% or greater than 42% and (2) a reduction of the monthly principal and
                                            interest payment by at least 10%. The post-modification DTI ratio range increased
                                            in February 2013 to not less than 10% or greater than 55%. If the borrower was
                                            previously in a HAMP Tier 1 modification (either trial or permanent), then the new
                                            payment must be at least 10% below the previously modified payment. Because
                                                                               QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   93




HAMP Tier 2 does not target a specific DTI ratio, the HAMP Tier 2 waterfall is not
a series of incremental steps, but a consistent set of actions that are applied to the
loan. After these actions are applied, if the result of the NPV test is positive and the
modification also achieves the DTI and payment reduction goals, the servicer must
offer the borrower a HAMP Tier 2 modification. If the result of the HAMP Tier 2
NPV test is negative, modification is optional.235
     As in the HAMP Tier 1 waterfall, the first step in structuring a HAMP Tier 2
modification is to capitalize any unpaid interest and fees. The second step changes
the interest rate to the “Tier 2 rate,” which is the current Freddie Mac Primary
Mortgage Market Survey rate plus a 0.5% risk adjustment. The third step extends
the term of the loan by up to 40 years from the modification effective date. Finally,
if the loan’s pre-modification mark-to-market LTV ratio is greater than 115%, the
servicer forbears principal in an amount equal to the lesser of (1) an amount that
would create a post-modification LTV ratio of 115%, or (2) an amount equal to
30% of the post-modification principal balance. Unlike HAMP Tier 1, there is no
excessive forbearance limit in HAMP Tier 2. The HAMP Tier 2 guidelines also
include several exceptions to this waterfall to allow for investor restrictions on
certain types of modifications.236
     The HAMP Tier 2 NPV model also evaluates the loan using an “alternative
modification waterfall” in addition to the one described here. This waterfall uses
principal reduction instead of forbearance. However, as in HAMP Tier 1, principal
reduction is optional. Servicers may also reduce principal on HAMP Tier 2
modifications using PRA.237
     HAMP Tier 2 incentives are the same as those for HAMP Tier 1, with some
exceptions, notably that HAMP Tier 2 modifications do not pay annual borrower or
servicer incentives.238

Home Price Decline Protection (“HPDP”)
HPDP provides investors with incentives for modifications of loans on properties
located in areas where home prices have recently declined and where investors are
concerned that price declines may persist. HPDP incentive payments are linked
to the rate of recent home price decline in a local housing market, as well as the
unpaid principal balance and mark-to-market LTV ratio of the mortgage loan.239
     HPDP is intended to address the fears of investors who may withhold their
consent to loan modifications because of potential future declines in the value of
the homes that secure the mortgages, should the modification fail and the loan go
into foreclosure.240
     Under HPDP, Treasury has published a standard formula, based on the
principal balance of the mortgage, the recent decline in area home prices during
the six months before the start of the HAMP modification, and the LTV ratio, that
will determine the size of the incentive payment.241 The HPDP incentive payments
accrue monthly over a 24-month period and are paid annually on the first and
second anniversaries of the initial HAMP trial period. Accruals are discontinued
if the borrower loses good standing under HAMP because he or she is delinquent
by three mortgage payments. As of September 30, 2013, according to Treasury,
94   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            approximately $335.8 million in TARP funds had been paid for incentives on
                                            210,505 (Tier 1 and Tier 2) loan modifications under HPDP.242

                                            Principal Reduction Alternative (“PRA”)
                                            PRA is intended to encourage principal reduction in HAMP loan modifications for
                                            underwater borrowers by providing mortgage investors with incentive payments
                                            in exchange for lowering the borrower’s principal balance. PRA is an alternative
                                            method to the standard HAMP modification waterfall for structuring a HAMP
                                            modification. Although servicers are required to evaluate every non-GSE HAMP-
                                            eligible borrower with an LTV of 115% or greater for PRA, whether to actually offer
                                            principal reduction or not is up to the servicer.243
                                                Because the GSEs, Fannie Mae and Freddie Mac, have refused to participate in
                                            PRA, the program applies only to loans modified under TARP-funded HAMP.244
                                                As of September 30, 2013, there were 104,771 active permanent modifications
                                            in PRA.245 According to Treasury, 85% of borrowers who received PRA
                                            modifications were seriously delinquent on their mortgages at the start of the trial
                                            modification.246
                                                As of September 30, 2013, PRA borrowers had a pre-modification median LTV
                                            ratio of 152%.247 After modification, however, PRA borrowers lowered their LTVs
                                            to a median ratio of 115%. As of September 30, 2013, the latest data provided by
                                            Treasury, PRA modifications reduced principal balances by a median amount of
                                            $72,686 or 32%, thereby lowering the LTV ratio.248
                                                As of September 30, 2013, servicers had started 150,532 PRA trial
                                            modifications, of which 14,626 were still active trials, 124,093 had converted to
                                            permanent modifications, and 11,813 (or 8%) were subsequently cancelled or
                                            disqualified from the program.249 Of the PRA trials that converted to permanent
                                            modifications, 104,771 were still active as of September 30, 2013, and 18,807 (or
                                            15%) redefaulted.250

                                            Who Is Eligible
                                            Borrowers who meet all HAMP eligibility requirements and who owe more than
                                            115% of their home’s market value (LTV >115%) are eligible for PRA.251 The
                                            principal balance used in this LTV calculation includes any amounts that would
                                            be capitalized under a HAMP modification.252 Eligible borrowers are evaluated by
                                            running NPV tests. There are standard and alternative NPV tests for HAMP Tier
                                            1 and HAMP Tier 2. If the standard waterfall produces a positive NPV result, the
                                            servicer must offer a HAMP modification (with or without principal reduction).
                                            If the PRA waterfall using principal reduction produces a positive NPV result,
                                            the servicer may, but is not required to, offer a modification using principal
                                            reduction.253

                                            How PRA Works
                                            For HAMP Tier 1, the PRA waterfall uses principal forbearance (which later
                                            becomes principal reduction) prior to interest rate reduction as the second step
                                            in structuring the modification. Under PRA, the servicer determines the modified
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                              95




mortgage payment by first capitalizing unpaid interest and fees as in a standard
HAMP modification. After capitalization, the servicer reduces the loan balance
through principal forbearance until either a DTI ratio of 31% or an LTV ratio of
115% is achieved. No interest will be collected on the forborne amount. If an LTV
ratio of 105% to 115% is achieved first, the servicer then applies the remaining
HAMP waterfall steps (interest rate reduction, term extension, forbearance) until
the 31% DTI ratio is reached. If the principal balance has been reduced by more
than 5%, the servicer is allowed additional flexibility in implementing the remaining
waterfall steps. Principal reduction is not immediate; it is earned over three years.
On each of the first three anniversaries of the modification, one-third of the
PRA forborne principal is forgiven. Therefore, after three years the borrower’s
principal balance is permanently reduced by the amount that was placed in PRA
forbearance.254

Who Gets Paid                                                                                 TABLE 2.21
For PRA trials effective on or after March 1, 2012, the mortgage investors earn                PRA INCENTIVES TO INVESTORS PER
an incentive of $0.18 to $0.63 per dollar of principal reduced, depending on                   DOLLAR OF FIRST LIEN PRINCIPAL
delinquency status of the loan and the level to which the outstanding LTV ratio was            REDUCED
reduced.255 For loans that are more than six months delinquent, investors receive              Mark-to-Market
                                                                                                                          105%          115%
                                                                                               Loan-to-Value
only $0.18 per dollar of principal reduction, regardless of LTV.256 The incentive              Ratio (“LTV”)
                                                                                                                          to            to          > 140%
schedule in Table 2.21 applies only to loans that have been six months delinquent                                         115%          140%
                                                                                               Rangea
or less within the previous year.                                                              Incentive
    Under certain conditions an investor may enter into an agreement with the                  Amounts                     $0.63        $0.45         $0.30
borrower to share any future increase in the value of the property.257                         Notes: This incentive structure applies to loans less than or
                                                                                               equal to six months past due. For loans that were more than
    According to Treasury, as of September 30, 2013, Treasury had paid a total of              six months delinquent within the previous year, investors
                                                                                               receive $0.18 per dollar of principal reduced in compensation,
$405.1 million in PRA incentives.258                                                           regardless of the LTV ratio. These incentives are effective for
                                                                                               trials beginning on or after 3/1/2012.
                                                                                               a
                                                                                                 The mark-to-market LTV is based on the pre-modified principal
Home Affordable Unemployment Program (“UP”)                                                    balance of the first-lien mortgage plus capitalized interest and
                                                                                               fees divided by the market value of the property.
UP, which was announced on March 26, 2010, provides temporary assistance to
                                                                                               Source: Treasury, “Supplemental Directive 12-01: Making
unemployed borrowers.259 Under the program, unemployed borrowers who meet                      Home Affordable Program – Principal Reduction Alternative and
                                                                                               Second Lien Modification Program Investor Incentives Update,”
certain qualifications can receive forbearance for a portion of their mortgage                 2/16/2012, www.hmpadmin.com/portal/news/docs/2012/
                                                                                               hampupdate021612.pdf, accessed 10/1/2013.
payments. Originally, the forbearance period was a minimum of three months,
unless the borrower found work during this time. However, on July 7, 2011, after a
SIGTARP recommendation to extend the term, Treasury announced that it would
increase the minimum UP forbearance period from three months to 12 months. As
of August 31, 2013, which according to Treasury is the latest data available, 5,739
borrowers were actively participating in UP.260

Who Is Eligible
Borrowers who are approved to receive unemployment benefits and who also
request assistance under HAMP must be evaluated by servicers for an UP
forbearance plan and, if eligible, offered one. As of June 1, 2012, a servicer may
consider a borrower for UP whose loan is secured by a vacant or tenant-occupied
property and still must consider owner-occupied properties. The servicer must
consider a borrower for UP regardless of the borrower’s monthly mortgage payment
96            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     ratio and regardless of whether the borrower had a payment default on a HAMP
                                                     trial plan or lost good standing under a permanent HAMP modification. Servicers
                                                     are not required to offer an UP forbearance plan to borrowers who are more than
                                                     12 months delinquent at the time of the UP request.261 Alternatively, the servicers
                                                     may evaluate unemployed borrowers for HAMP and offer a HAMP trial period plan
                                                     instead of an UP forbearance plan if, in the servicer’s business judgment, HAMP is
                                                     the better loss mitigation option. If an unemployed borrower is offered a trial period
                                                     plan but requests UP forbearance instead, the servicer may then offer UP, but is
                                                     not required to do so.262
                                                         Eligible borrowers may request a HAMP trial period plan after the UP
                                                     forbearance plan is completed. If an unemployed borrower in bankruptcy
                                                     proceedings requests consideration for HAMP, the servicer must first evaluate the
                                                     borrower for UP, subject to any required bankruptcy court approvals.263 A borrower
                                                     who has been determined to be ineligible for HAMP may request assessment for
     For more information on additional UP           an UP forbearance plan if he or she meets all the eligibility criteria.264 If a borrower
     eligibility criteria, see SIGTARP’s April       who is eligible for UP declines an offer for an UP forbearance plan, the servicer is
     2011 Quarterly Report, pages 80-81.             not required to offer the borrower a modification under HAMP or 2MP while the
                                                     borrower remains eligible for an UP forbearance plan.265

                                                     How UP Works
                                                     For qualifying homeowners, the mortgage payments during the forbearance
                                                     period are lowered to no more than 31% of monthly gross income, which includes
                                                     unemployment benefits.266 If the borrower regains employment, but because of
                                                     reduced income still has a hardship, the borrower must be considered for HAMP.
                                                     If the borrower is eligible, any payments missed prior to and during the period of
                                                     the UP forbearance plan are capitalized as part of the normal HAMP modification
                                                     process.267 If the UP forbearance period expires and the borrower is ineligible for
                                                     HAMP, the borrower may be eligible for MHA foreclosure alternatives, such as
                                                     HAFA.268

                                                     Home Affordable Foreclosure Alternatives (“HAFA”)
                                                     HAFA provides $4.2 billion in incentives to servicers, borrowers, and subordinate
                                                     lien holders to encourage a short sale or deed-in-lieu of foreclosure as an
                                                     alternative to foreclosure.269 Under HAFA, the servicer forfeits the ability to pursue
     Deficiency Judgment: Court order                a deficiency judgment against a borrower when the proceeds from the short sale
     authorizing a lender to collect all or          or deed-in-lieu are less than the outstanding amount on the mortgage.270 HAFA
     part of an unpaid and outstanding debt          incentives include a $3,000 relocation incentive payment to borrowers or tenants,
     resulting from the borrower’s default           a $1,500 incentive payment to servicers, and incentive payments to subordinate
     on the mortgage note securing a debt.           mortgage lien holders of up to $2,000 in exchange for a release of the lien and the
     A deficiency judgment is rendered               borrower’s liability.271 The program was announced on November 30, 2009.272
     after the foreclosed or repossessed                 Treasury allows each servicer participating in HAFA to determine its own
     property is sold when the proceeds are          policies for borrower eligibility and many other aspects of how it operates the
     insufficient to repay the full mortgage         program, but requires the servicers to post criteria and program rules on their
     debt.                                           websites. According to Treasury, as of September 30, 2013, all but three have
                                                     complied with this requirement.273 Servicers must notify eligible borrowers in
                                                                                QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013             97




writing about the availability of the HAFA program and allow the borrower a
minimum of 14 calendar days to apply.274 Servicers are not required by Treasury to
verify a borrower’s financial information or determine whether the borrower’s total
monthly payment exceeds 31% of his or her monthly gross income.275
    Effective March 9, 2012, Treasury no longer required properties in HAFA to
be occupied, allowing vacant properties to enter the program. However, relocation
incentives will be paid only on occupied properties.276
    As of September 30, 2013, approximately $672.6 million from TARP had
been paid to investors, borrowers, and servicers under HAFA.277 As of August 31,
2013, the latest data provided by Treasury, 135,112 short sales or deeds-in-lieu of
foreclosure transfers were completed under HAFA.278 As of August 31, 2013, the
latest data provided by Treasury, Treasury reported that the eight largest servicers
alone had completed 312,478 short sales and deeds-in-lieu outside HAMP for
borrowers whose HAMP trial modifications had failed, borrowers who had chosen                    For more information about relocation
not to participate, or were ineligible for the program.279 The greater volume                    incentives and borrower requirements
of activity outside HAFA may be explained, in part, by the fees and deficiency                   related to primary residences in HAFA,
judgments that servicers are able to collect from the borrower in non-HAFA                       see SIGTARP’s January 2012 Quarterly
transactions, which are not available within HAFA.                                               Report, pages 70-71.


Second-Lien Modification Program (“2MP”)
According to Treasury, 2MP, which was announced on August 13, 2009, is
designed to provide modifications to the loans of borrowers with second mortgages
of at least $5,000 with monthly payments of at least $100 that are serviced by
a participating 2MP servicer, or full extinguishment of second mortgages below
those thresholds. When a borrower’s first lien is modified under HAMP and the
servicer of the second lien is a 2MP participant, that servicer must offer to modify
or may extinguish the borrower’s second lien. Treasury pays the servicer a lump
sum for full extinguishment of the second-lien principal or in exchange for a partial
extinguishment (principal reduction) and modification of the remainder of the
second lien.280 Second-lien servicers are not required to verify any of the borrower’s
financial information and do not perform a separate NPV analysis.281
    There is no minimum principal balance for a full extinguishment of a second
lien under 2MP. For a second-lien modification under 2MP, the servicer first
capitalizes any accrued interest and servicing advances, then reduces the interest
rate to 1% to 2% for the first five years. After the five-year period, the rate increases
to match the rate on the HAMP-modified first lien. When modifying the second                     Servicing Advances: If borrowers’
lien, the servicer must, at a minimum, extend the term to match the term of the                  payments are not made promptly
first lien, but can also extend the term up to a maximum of 40 years. To the extent              and in full, servicers are contractually
that there is forbearance or principal reduction for the modified first lien, the                obligated to advance the required
second-lien holder must forbear or forgive at least the same percentage on the                   monthly payment amount in full to the
second lien.282                                                                                  investor. Once a borrower becomes
    According to Treasury, as of September 30, 2013, 136,678 HAMP                                current or the property is sold or
modifications had second liens that were eligible for 2MP.283 As of September                    acquired through foreclosure, the
30, 2013, there were 76,935 active permanent modifications of second                             servicer is repaid all advanced funds.
98                 SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




TABLE 2.22                                                         liens.284 New 2MP modifications sharply peaked in March 2011 and have been
 2MP COMPENSATION PER DOLLAR OF                                    generally declining since then. Most of the activity under the program has been
 SECOND-LIEN PRINCIPAL REDUCED                                     modifications to the terms of the second liens. As of September 30, 2013, median
 (FOR 2MP MODIFICATIONS WITH                                       principal reduction was $9,940 for partial extinguishments of second liens and
 AN EFFECTIVE DATE ON OR AFTER
 6/1/2012)
                                                                   $61,045 for full extinguishments of second liens.285 According to Treasury, as of
                                                                   September 30, 2013, approximately $431 million in TARP funds had been paid
 Combined Loan-                           115%
 to-Value (“CLTV”)          < 115%        to           > 140%      to servicers and investors under 2MP.286 As of September 30, 2013, there were
 Ratio Rangea                             140%                     160,620 second-lien full and partial extinguishments and modifications under
 Incentive                                                         2MP.287
 Amounts                      $0.42       $0.30         $0.20          The servicer receives a $500 incentive payment upon modification of a second
 Notes: This incentive structure applies to loans less than or
 equal to six months past due. For loans that were more than
                                                                   lien and is eligible for further incentives if certain conditions are met. The borrower
 six months delinquent within the previous year, investors         is eligible for an annual principal reduction payment of up to $250 per year for
 receive $0.12 per dollar of principal reduced in compensation,
 regardless of the CLTV ratio.                                     up to five years.288 Investors receive modification incentive payments equal to an
 a
   Combined Loan-to-Value is the ratio of the sum of the
    outstanding principal balance of the HAMP-modified first       annualized amount of 1.6% of the unmodified principal balance, paid on a monthly
    lien and the outstanding principal balance of the unmodified
    second lien divided by the property value determined in        basis for up to five years.289 In addition, investors also receive incentives for fully
    connection with the permanent HAMP modification.
                                                                   or partially extinguishing the second lien on 2MP modifications. The current
 Source: Treasury, “Supplemental Directive 12-03: Making Home      incentive schedule for loans six months delinquent or less is shown in Table 2.22.
 Affordable Program – Handbook Mapping for MHA Extension
 and Expansion and Administrative Clarifications on Tier 2,”       For loans that have been more than six months delinquent within the previous 12
 4/17/2012, www.hmpadmin.com//portal/programs/docs/
 hamp_servicer/sd1203.pdf, accessed 10/1/2013.                     months, investors are paid $0.12 for each dollar of principal reduced.290

                                                                   Agency-Insured Loan Programs (FHA-HAMP, RD-HAMP, and
                                                                   VA-HAMP)
                                                                   Some mortgage loans insured or guaranteed by the Federal Housing Administration
                                                                   (“FHA”), Department of Veterans Affairs (“VA”), or the U.S. Department of
                                                                   Agriculture Rural Development (“RD”) are eligible for modification under
                                                                   programs similar to HAMP Tier 1 that reduce borrowers’ monthly mortgage
                                                                   payments to 31% of their monthly gross income. Borrowers are eligible to receive
                                                                   a maximum $1,000 annual incentive for five years and servicers are eligible to
                                                                   receive a maximum $1,000 annual incentive from Treasury for three years on
                                                                   mortgages in which the monthly payment was reduced by at least 6%.291 As of
                                                                   September 30, 2013, according to Treasury, approximately $33.5 million in TARP
                                                                   funds had been paid to servicers and borrowers in connection with FHA-HAMP
                                                                   modifications.292 According to Treasury, only $63,833 of TARP funds has been
                                                                   spent on the modifications under RD-HAMP.293 As of September 30, 2013, there
                                                                   were 14,895 active permanent Treasury/FHA-HAMP modifications and 77 active
                                                                   permanent modifications under RD-HAMP.294 Treasury does not provide incentive
                                                                   compensation related to VA-HAMP.295

                                                                   Treasury/FHA Second-Lien Program (“FHA2LP”)
                                                                   FHA2LP, which was launched on September 27, 2010, provides incentives for
                                                                   partial or full extinguishment of non-GSE second liens of at least $2,500 originated
                                                                   on or before January 1, 2009, associated with an FHA refinance.296 Borrowers
                                                                   must also meet the eligibility requirements of FHA Short Refinance. According to
                                                                   Treasury, as of September 30, 2013, it had not made any incentive payments under
                                                                               QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013            99




FHA2LP, and no second liens had been partially written down or extinguished.297
                                                                                                For more information concerning
TARP has allocated $2.7 billion for incentive payments to (1) investors ranging
                                                                                                FHA2LP eligibility, see SIGTARP’s April
from $0.10 to $0.21 based on the LTV of pre-existing second-lien balances that are
                                                                                                2011 Quarterly Report, pages 85-87.
partially or fully extinguished under FHA2LP, or they may negotiate with the first-
lien holder for a portion of the new loan, and (2) servicers, in the amount of $500
for each second-lien mortgage in the program.298

Housing Finance Agency Hardest Hit Fund (“HHF”)
On February 19, 2010, the Administration announced a housing support program
known as the Hardest Hit Fund. Under HHF, TARP dollars would fund “innovative
measures” developed by 19 state housing finance agencies and approved by
Treasury to help families in housing markets hit the hardest by the housing crisis.299
The first round of HHF allocated $1.5 billion of the amount initially allocated for
MHA initiatives. According to Treasury, these funds were designated for five states             See Section 3 of this report for
where the average home price had decreased more than 20% from its peak. The                     additional information on HHF.
five states were Arizona, California, Florida, Michigan, and Nevada.300 Plans to use
these funds were approved by Treasury on June 23, 2010.301
     On March 29, 2010, Treasury expanded HHF to include five additional states
and increased the program’s potential funding by $600 million, bringing total
funding to $2.1 billion. The additional $600 million was designated for North
Carolina, Ohio, Oregon, Rhode Island, and South Carolina. Treasury indicated that
these states were selected because of their high concentrations of people living in
economically distressed areas, defined as counties in which the unemployment rate
exceeded 12%, on average, in 2009.302 Plans to use these funds were approved by
Treasury on August 3, 2010.303
     On August 11, 2010, Treasury pledged a third round of HHF funding of $2
billion to states with unemployment rates at or above the national average.304
The states designated to receive funding were Alabama, California, Florida,
Georgia, Illinois, Indiana, Kentucky, Michigan, Mississippi, Nevada, New Jersey,
North Carolina, Ohio, Oregon, Rhode Island, South Carolina, Tennessee, and
Washington, DC.305 Treasury approved third round proposals on September 23,
2010.306 On September 29, 2010, a fourth round of HHF funding of an additional
$3.5 billion was made available to existing HHF participants.307
     Treasury allocated the $7.6 billion in TARP funds to 18 states and the District
of Columbia and has over time approved HHF programs in several categories:308

•	   Unemployment assistance, including past-due payment assistance
•	   Mortgage modification, including principal reduction assistance
•	   Second-lien reduction assistance
•	   Transition assistance, including short sale and deed-in-lieu of foreclosure
•	   Demolition

   Each state reports program results (i.e., number of applications approved or
denied and assistance provided) on a quarterly basis on its own state website.
Treasury indicated that states can reallocate funds between programs and modify
100            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      existing programs as needed, with Treasury approval, until December 31, 2017.
                                                      According to Treasury, between June 30, 2013 and September 30, 2013, 10 states
                                                      have reallocated funds, modified or eliminated existing programs, or established
                                                      new HHF programs with Treasury approval, increasing the total number of HHF
                                                      programs in 18 states and Washington, DC, as of September 30, 2013, to 66, up
                                                      from 63 programs as of June 30, 2013.309
                                                           As of September 30, 2013, of the $7.6 billion in TARP funds available for HHF,
                                                      states had drawn down $2.9 billion.310 As of June 30, 2013, states had spent $1.7
                                                      billion (22%) of available funds to assist 126,858 individual homeowners, spent
                                                      $308.5 million (4%) for administrative expenses, and held $719.7 million (9%) as
                                                      unspent cash-on-hand.311,vi,vii
                                                           According to Treasury, in the quarter from March 31, 2013 to June 30,
                                                      2013, HHF had spent $333.2 million to help 16,984 homeowners.312 Each state
                                                      estimates the number of borrowers to be helped in its programs. Treasury allows
                                                      the states to change this estimate, which was as high as 546,562 in the aggregate
                                                      in March 2011.313 The aggregate of these estimates has decreased in the last two
                                                      years. This is true even from last quarter. As of March 31, 2013, the 19 states
                                                      collectively estimated helping as many as 374,795 homeowners over the life of the
                                                      program. By June 30, 2013, the collective estimate had decreased by approximately
                                                      7,505 homeowners, or 2%, bringing to as many as 367,290 the estimated number
                                                      of homeowners to be helped over the life of the program.314
                                                           As of June 30, 2013, 86.9% of the HHF assistance received by homeowners
                                                      was for unemployment assistance, including past-due payment assistance. The
      For more information on HHF, see                remaining assistance can be broken down to 12.5% for mortgage modification,
      SIGTARP’s April 12, 2012, audit report,         including principal reduction assistance, 0.4% for second-lien reduction assistance,
      “Factors Affecting Implementation of the        and 0.2% for transition assistance.315 States had not spent any funds on demolition
      Hardest Hit Fund Program.”                      programs as of June 30, 2013.316

                                                      FHA Short Refinance Program
                                                      On March 26, 2010, Treasury and HUD announced the FHA Short Refinance
                                                      program, which gives borrowers the option of refinancing an underwater, non-
                                                      FHA-insured mortgage into an FHA-insured mortgage at 97.75% of the home’s
                                                      value. At that time, Treasury had allocated $8.1 billion to the program, but in
                                                      March 2013, because of what it characterized as low participation rates, Treasury
                                                      reduced TARP funds allocated for the FHA Short Refinance program to $1 billion
                                                      to provide loss protection to FHA through a letter of credit, plus up to $25 million
                                                      in fees for the letter of credit.317 FHA Short Refinance is voluntary for servicers.
                                                      Therefore, not all underwater borrowers who qualify may be able to participate
                                                      in the program.318 As of September 30, 2013, according to Treasury, 3,552 loans

                                                      vi According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                                          HHF programs that are anticipated to be disbursed over the duration of their participation; HFAs [states] vary as to when and how
                                                          they capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                                          assistance, cash-on-hand, or undrawn funds.
                                                      vii States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                           assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
                                                           cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                           made.
                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013         101




had been refinanced under the program.319 As of September 30, 2013, Treasury
has paid $47,840 on one claim for one default under the program. According to
Treasury, only one FHA Short Refinance loan has defaulted; however, it is possible
that more loans have defaulted but FHA has not yet evaluated the claims.320
Treasury has deposited $50 million into a reserve account for future claims.321 It
has also spent approximately $8.9 million on administrative expenses associated
with the letter of credit.322

Who Is Eligible
To be eligible for FHA Short Refinance, a homeowner must be current on the
existing first-lien mortgage or have made three successful trial period payments; be           For more information concerning
in a negative equity position; occupy the home as a primary residence; qualify for             FHA Short Refinance eligibility, see
the new loan under standard FHA underwriting and credit score requirements; and                SIGTARP’s April 2011 Quarterly
have an existing loan that is not insured by FHA.323 According to the Department               Report, pages 85-87.
of Housing and Urban Development (“HUD”), it evaluates the credit risk of the
loans.324

How FHA Short Refinance Works
Servicers must first determine the current value of the home using a third-party
appraisal by a HUD-approved appraiser. The borrower is then reviewed for credit
risk and, if necessary, referred for a review to confirm that the borrower’s total
monthly mortgage payments on all liens after the refinance is not greater than
31% of the borrower’s monthly gross income and the borrower’s total household
debt is not greater than 50%.325 Next, the lien holders must forgive principal that is
more than 115% of the value of the home. In addition, the original first-lien lender
must forgive at least 10% of the unpaid principal balance of the first-lien loan,
in exchange for a cash payment for 97.75% of the current home value from the
proceeds of the refinance. The lender may maintain a subordinate second lien for
up to 17.25% of that value (for a total balance of 115% of the home’s value).326
    If a borrower defaults, the letter of credit purchased by Treasury compensates
the investor for a first percentage of losses, up to specified amounts.327 For
mortgages originated between October 1, 2012, and May 31, 2013, the letter of
credit would cover approximately 4.38-18.85% of the unpaid principal balance at
default.328 FHA is responsible for the remaining losses on each mortgage. Funds
may be paid from the FHA Short Refinance letter of credit until the earlier of
either (1) the time that the $1 billion letter of credit is exhausted, or (2) 10 years
from the issuance of the letter of credit (October 2020), at which point FHA will
bear all of the remaining losses.329 Treasury’s letter of credit ended on June 1, 2013.
This leaves FHA solely responsible for covering any losses for mortgages originated
on or after June 1, 2013, through September 30, 2014. According to Treasury,
Treasury and FHA are in discussions about Treasury’s letter of credit covering
losses from September 30, 2014, through December 30, 2014.330
102            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      FINANCIAL INSTITUTION SUPPORT PROGRAMS
                                                      Treasury created six TARP programs through which it made capital investments
                                                      or asset guarantees in exchange for equity in participating financial institutions.
                                                      Three of the programs, the Capital Purchase Program (“CPP”), the Community
                                                      Development Capital Initiative (“CDCI”), and the Capital Assistance Program
                                                      (“CAP”), were open to all qualifying financial institutions. The other three, the
                                                      Systemically Significant Failing Institutions (“SSFI”) program, the Targeted
                                                      Investment Program (“TIP”), and the Asset Guarantee Program (“AGP”), were
      Mandatorily Convertible Preferred               available on a case-by-case basis to institutions that needed assistance beyond that
      Stock (“MCP”): A type of preferred              available through CPP. With the expiration of TARP funding authorization, no new
      share (ownership in a company that              investments can be made through these six programs.
      generally entitles the owner of the                 According to Treasury, to help improve the capital structure of some struggling
      shares to collect dividend payments)            TARP recipients, Treasury has agreed to modify its investment in certain cases by
      that can be converted to common                 converting the preferred stock it originally received into other forms of equity, such
      stock under certain parameters at the           as common stock or mandatorily convertible preferred stock (“MCP”).331
      discretion of the company – and must
      be converted to common stock by a               Capital Purchase Program
      certain time.                                   Treasury’s stated goal for CPP was to invest in “healthy, viable institutions” as a
                                                      way to promote financial stability, maintain confidence in the financial system, and
      Subordinated Debentures: Form of                enable lenders to meet the nation’s credit needs.332 CPP was a voluntary program
      debt security that ranks below other            open by application to qualifying financial institutions, including U.S.-controlled
      loans or securities with regard to              banks, savings associations, and certain bank and savings and loan holding
      claims on assets or earnings.                   companies.333
                                                          Under CPP, Treasury used TARP funds predominantly to purchase preferred
                                                      equity interests in the financial institutions. The institutions issued Treasury
                                                      senior preferred shares that pay a 5% annual dividend for the first five years and
                                                      a 9% annual dividend thereafter. Sixty-one, or 56%, of the banks with remaining
      For discussion of SIGTARP’s                     principal investments in CPP as of September 30, 2013, will experience the rate
      recommendations on TARP exit paths              hike to 9% between November 2013 and February 2014; the remaining banks will
      for community banks, see SIGTARP’s              see their rates increase by the end of 2014.334 In addition to the senior preferred
      October 2011 Quarterly Report, pages            shares, publicly traded institutions issued Treasury warrants to purchase common
      167-169.                                        stock with an aggregate market price equal to 15% of the senior preferred share
                                                      investment.335 Privately held institutions issued Treasury warrants to purchase
      For discussion of SIGTARP’s
                                                      additional senior preferred stock worth 5% of Treasury’s initial preferred stock
      recommendations issued on October 9,
                                                      investment.336 In total, Treasury invested $204.9 billion of TARP funds in 707
      2012, regarding CPP preferred stock
      auctions, see SIGTARP’s October 2012
                                                      institutions through CPP.337 According to Treasury, through CPP, in total Treasury
      Quarterly Report, pages 180-183.                purchased $204.9 billion in preferred stock and subordinated debentures from 707
                                                      institutions in 48 states, the District of Columbia, and Puerto Rico.

                                                      Status of Funds
                                                      As of September 30, 2013, 139 of those 707 institutions remained in CPP; in 31 of
                                                      them, Treasury holds only warrants to purchase stock. Treasury does not consider
                                                      these 31 institutions to be in TARP, however Treasury applies all proceeds from
                                                      the sale of warrants in these banks to recovery amounts in TARP’s CPP program.
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                           103




As of September 30, 2013, 108 of the 139 institutions had outstanding principal
investments. Taxpayers were still owed $7 billion.338 According to Treasury, it had
write-offs, realized losses, and investments currently not collectible as a result
of bankruptcy of $4.6 billion in the program, leaving $2.4 billion in TARP funds
outstanding. Included as investments currently not collectible are those in 24 CPP
banks, or their subsidiary banks, with total CPP investments of $770.7 million that
are in the process of bankruptcy. While Treasury has not yet realized those losses,
it expects that all of its investments in the banks will be lost.339 As of September
30, 2013, $195.7 billion of the CPP principal (or 96%) had been repaid.340 The
repayment tally includes $363.3 million in preferred stock that was converted
from CPP investments into CDCI and therefore still represents outstanding
obligations to TARP. Additionally, $2.2 billion was refinanced in 2011 into SBLF,
a non-TARP Government program.341 As of September 30, 2013, Treasury had
received approximately $12 billion in interest and dividends from CPP recipients.
Treasury also had received $7.9 billion through the sale of CPP warrants that were
                                                                                              FIGURE 2.5
obtained from TARP recipients.342 For a complete list of CPP share repurchases,
see Appendix D: “Transaction Detail.”                                                         STATUS OF CPP RECIPIENTS,
    Of the 707 banks that received CPP investments, 599 banks no longer have                  AS OF 9/30/2013
outstanding principal investments in CPP. Nearly a quarter of the 707 banks, or                                       1%
165, refinanced into other government programs — 28 of them into TARP’s CDCI
and 137 into the Small Business Lending Fund (“SBLF”), a non-TARP program.343                              20%
                                                                                               1%                           33%
Only 230 of the 707 banks, or 33%, fully repaid CPP principal otherwise.344 Of the             4%
other banks that no longer have outstanding principal investments, four CPP banks              3%
merged with other CPP banks; Treasury sold its investments in 22 banks for less                4%
                                                                                                                         15%
                                                                                                             19%
than par and sold at auction its investments in 151 banks and part of its investment
in an additional bank (all but eight of these investments sold at a loss); and 27
                                                                                                  Fully Repaid Principal (230)
institutions or their subsidiary banks failed, meaning Treasury has lost or expects to            Remaining Principal Investment in CPP (108)
lose its entire investment in those banks.345 Figure 2.5 shows the status of the 707              Refinanced into SBLF (137)
CPP recipients as of September 30, 2013.                                                          Refinanced into CDCI (28)
    Although the 10 largest investments accounted for $142.6 billion of the                       Sold for less than par (22)
                                                                                                  Failed/subsidiary failed (27)
program, CPP made many smaller investments: 311 of the 707 recipients received
                                                                                                  Merged (4)
less than $10 million.346 None of the banks that received investments greater                     Auction: Sold at loss (143)
than $1 billion remain in CPP. All but two of the recipients with remaining                       Auction: Sold at profit (8)
principal investments have outstanding investments of less than $100 million,                 Note: 31 banks repaid CPP principal but remain in TARP
with more than half of the banks with remaining principal investments, or 60%,                with Treasury holding only warrants.

having outstanding investments of less than $10 million.347 Table 2.23 shows the              Source: Treasury, response to SIGTARP data call,
                                                                                              10/7/2013.
distribution of investments by amount.
104   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             TABLE 2.23
                                              CPP INVESTMENT SIZE BY INSTITUTION, AS OF 9/30/2013
                                                                                                                                           Principal                Outstanding
                                                                                                                             
                                                                                                                                        Investmenta                   Principalb
                                              $10 billion or more                                                                                       6                           0
                                              $1 billion to $10 billion                                                                               19                            0
                                              $100 million to $1 billion                                                                              57                            2
                                              $10 million to $100 million                                                                           314                           41
                                              Less than $10 million                                                                                 311                           65
                                              Total                                                                                                 707                         108
                                              Notes: Data based on the institutions’ total CPP investments. There are more than 30 institutions that have received multiple
                                              transactions through CPP.
                                              a
                                                These numbers are based on total Treasury CPP investment since 10/28/2008.
                                              b
                                                Amount does not include those investments that have already been repaid, sold to a third party at a discount, merged out of the
                                                 CPP portfolio, exchanged their CPP investments for an investment under CDCI, or are related to institutions that filed for bankruptcy
                                                 protection or had a subsidiary bank fail. Figures are based on total investments outstanding. Included in those figures are the six
                                                 banks that were converted to common shares at a discount. The outstanding amount represented is the original par value of the
                                                 investment. Amount does not include the 137 banks that refinanced under SBLF. Amount does not include 31 institutions that have
                                                 repaid their CPP principal but still have warrants outstanding.

                                              Source: Treasury, response to SIGTARP data call, 10/3/2013.


                                                 As of September 30, 2013, of the 108 banks with remaining principal
                                             investments in CPP, 28 were in the Southeast region, 21 were in the Midwest
                                             region, 20 were in the Mid-Atlantic/Northeast region, 16 were in the Southwest/
                                             South Central region, 12 were in the West region, and 11 were in the Mountain
                                             West/Plains region. The Southeast region and the Mid-Atlantic/Northeast region
                                             had the largest total remaining CPP investments; $1.5 billion and $297.5 million,
                                             respectively. These regions were followed in remaining CPP investments by the
                                             Midwest region ($190.7 million), the Southwest/South Central region ($189
                                             million), the Mountain West/Plains region ($122.8 million), and the West region
                                             ($83 million). Table 2.24 and Figure 2.6 show the geographical distribution of the
                                             banks that remain in CPP as of September 30, 2013, by region. Tables 2.25–2.30
                                             show the distribution by state.
                                                                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   105




TABLE 2.24
 BANKS WITH CPP PRINCIPAL REMAINING, BY REGION, AS OF 9/30/2013
                                                                                           Number of Banks
                                    Banks with                       Principal                   with Missed            Value of Missed
                                    Remaining                      Investment              Dividend/Interest           Dividend/Interest
                                     Principal                      Remaining                     Payments                    Payments
 West                                              12             $83,032,000                                    10           $12,136,421
 Mountain West/Plains                              11             122,830,000                                      6            9,840,248
 Southwest/South Central                           16             189,001,000                                    12            22,188,144
 Midwest                                           21             190,662,788                                    14            32,740,535
 Mid-Atlantic/Northeast                            20             297,486,000                                    13            28,851,214
 Southeast                                         28        1,489,217,602                                       20            34,483,618
 Total                                        108       $2,372,229,390                                           75         $140,240,180



FIGURE 2.6
AMOUNT OF CPP PRINCIPAL INVESTMENT REMAINING, BY REGION,
AS OF 9/30/2013

    AK
                                    MOUNTAIN WEST/
                                        PLAINS
                                     $123 MILLION                                     MIDWEST                       MID-ATLANTIC/
                        WA                                                          $191 MILLION                     NORTHEAST
                                         MT                                                                   VT ME $297 MILLION
                                                        ND
                   OR                                              MN                                                 NH
                                                                               WI                           NY
   WEST                        ID                       SD                                                             MA
                                                                                       MI
$83 MILLION
                                         WY
                                                                     IA                                              CT RI
                                                                                            OH         PA           NJ
                                                        NE
                          NV                                                    IL    IN                          DE
                   CA               UT                                                               WV VA
                                              CO                     MO                                          MD
                                                             KS                            KY
                                                                                                      NC
                                                                                      TN
           HI                  AZ                             OK        AR                            SC
                                              NM
                                                                                    MS AL       GA           SOUTHEAST
                                                         TX               LA                                 $1.5 BILLION

                                                                                                      FL                 PR
                                SOUTHWEST/
                               SOUTH CENTRAL
                                $189 MILLION

                WEST                                                           MIDWEST
                MOUNTAIN WEST/PLAINS                                           MID-ATLANTIC/NORTHEAST
                SOUTHWEST/SOUTH CENTRAL                                        SOUTHEAST
106   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




        West
        TABLE 2.25
         BANKS WITH CPP PRINCIPAL REMAINING, BY STATE, AS OF 9/30/2013
                                                                                                     Number of Banks
                                                                       Banks with        Principal         with Missed  Value of Missed
                                               WA                      Remaining       Investment    Dividend/Interest Dividend/Interest
                                                                        Principal       Remaining           Payments          Payments
                 AK
                                          OR                   AK              0               $0                   0                $0
                                                               CA             11      79,816,000                   10        12,136,421
                                                               HI              0                0                   0                 0
                                                               OR              1        3,216,000                   0                 0
                                          CA                   WA              0                0                   0                 0
                                                               Total          12     $83,032,000                   10      $12,136,421
                           HI

              WEST                        >$100 million
              Principal investment        $21-$100 million
              remaining in CPP banks      $1-$20 million
                                          $0




        Mountain West/Plains
        TABLE 2.26
         BANKS WITH CPP PRINCIPAL REMAINING, BY STATE, AS OF 9/30/2013
                                                                                                     Number of Banks
                                                                       Banks with        Principal         with Missed  Value of Missed
                                                                       Remaining       Investment    Dividend/Interest Dividend/Interest
                                MT             ND                       Principal       Remaining           Payments          Payments
                                                               CO              2     $15,715,000                    1          $706,035
                     ID                        SD
                                 WY                            ID              3      41,900,000                    2         3,342,213

                                               NE              KS              3      39,350,000                    2         5,427,850
               NV
                          UT                                   MT              0                0                   0                 0
                                     CO
                                                    KS         ND              1      20,093,000                    0                 0
                                                               NE              0                0                   0                 0
          MOUNTAIN WEST/                    >$100 million      NV              1        2,672,000                   1           364,150
                                            $21-$100 million
          PLAINS                            $1-$20 million     SD              0                0                   0                 0
          Principal investment
                                            $0
          remaining in CPP banks                               UT              0                0                   0                 0
                                                               WY              1        3,100,000                   0                 0
                                                               Total          11    $122,830,000                    6       $9,840,248
                                                                                         QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   107




Southwest/South Central
TABLE 2.27
 BANKS WITH CPP PRINCIPAL REMAINING, BY STATE, AS OF 9/30/2013
                                                                                                  Number of Banks
                                                                    Banks with        Principal         with Missed  Value of Missed
                                                                    Remaining       Investment    Dividend/Interest Dividend/Interest
     AZ                                 OK                           Principal       Remaining           Payments          Payments
                  NM                             AR
                                                            AR              5     $62,724,000                    4        $5,917,042
                                                 LA         AZ              2        6,440,000                   1           489,720
                                   TX
                                                            LA              1        2,400,000                   1           163,500
                                                            NM              1        1,579,000                   0                 0
                                                            OK              1      30,000,000                    1         4,905,000
   SOUTHWEST/                            >$100 million      TX              6      80,840,000                    5        10,712,882
                                         $21-$100 million
   SOUTH CENTRAL                         $1-$20 million     Total          16    $189,001,000                   12      $22,188,144
   Principal investment                  $0
   remaining in CPP banks




Midwest
TABLE 2.28
 BANKS WITH CPP PRINCIPAL REMAINING, BY STATE, AS OF 9/30/2013
                                                                                                  Number of Banks
                                                                    Banks with        Principal         with Missed  Value of Missed
                                                                    Remaining       Investment    Dividend/Interest Dividend/Interest
          MN                                                         Principal       Remaining           Payments          Payments
                    WI                                      IA              0               $0                   0                $0
                               MI
             IA                                             IL              7      88,251,000                    4        14,284,858

                         IL   IN    OH                      IN              0                0                   0                 0
               MO                                           KY              4      47,935,788                    3         5,516,385
                                   KY
                                                            MI              1        6,785,000                   1         1,272,188
                                                            MN              4      30,682,000                    3         3,779,418
     MIDWEST                        >$100 million
     Principal investment           $21-$100 million        MO              4      11,909,000                    2         6,984,348
     remaining in CPP               $1-$20 million
     banks                          $0                      OH              0                0                   0                 0
                                                            WI              1        5,100,000                   1           903,338
                                                            Total          21    $190,662,788                   14      $32,740,535
108   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




        Mid-Atlantic/Northeast
        TABLE 2.29
         BANKS WITH CPP PRINCIPAL REMAINING, BY STATE, AS OF 9/30/2013
                                                                                                            Number of Banks
                                                                            Banks with          Principal         with Missed  Value of Missed
                                    VT    ME                                Remaining         Investment    Dividend/Interest Dividend/Interest
                                                                             Principal         Remaining           Payments          Payments
                                               NH                   CT              0                 $0                   0                $0
                               NY               MA
                                                     RI             DE              0                  0                   0                 0
                                            CT
                          PA                NJ                      MA              2        17,063,000                    1         2,714,175
                                          DE
                  WV VA                  MD                         MD              6        62,043,000                    6        10,313,890
                  WV
                                                                    ME              0                  0                   0                 0
                                                                    NH              0                  0                   0                 0
             MID-ATLANTIC/                       >$100 million      NJ              2        15,415,000                    2         2,084,723
                                                 $21-$100 million
             NORTHEAST                           $1-$20 million     NY              0                  0                   0                 0
             Principal investment                $0
             remaining in CPP banks                                 PA              2        42,942,000                    1         6,461,488
                                                                    RI              1          1,065,000                   0                 0
                                                                    VA              7       158,958,000                    3         7,276,938
                                                                    VT              0                  0                   0                 0
                                                                    WV              0                  0                   0                 0
                                                                    Total          20     $297,486,000                    13      $28,851,214




        Southeast
        TABLE 2.30
         BANKS WITH CPP PRINCIPAL REMAINING, BY STATE, AS OF 9/30/2013
                                                                                                            Number of Banks
                                                                            Banks with          Principal         with Missed  Value of Missed
                                         NC                                 Remaining         Investment    Dividend/Interest Dividend/Interest
                     TN
                                     SC                                      Principal         Remaining           Payments          Payments

               MS              GA                                   AL              2        $4,466,000                    2          $495,610
                      AL
                                                     PR             FL              5        74,307,000                    5        14,171,013
                                                                    GA              4        29,402,000                    4         5,265,595
                                         FL
                                                                    MS              2          7,443,320                   0                 0
                                                                    NC              6       129,655,000                    3         4,909,575
              SOUTHEAST                        >$100 million
                                                                    PR              2      1,173,972,282                   0                 0
              Principal investment             $21-$100 million
              remaining in CPP                 $1-20 million        SC              5        48,602,000                    5         7,215,825
              banks                            $0
                                                                    TN              2        21,370,000                    1         2,426,000
                                                                    Total          28    $1,489,217,602                   20      $34,483,618
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                                   109




Program Administration                                                                      TABLE 2.31
Although Treasury’s investment authority for CPP has ended, Treasury still has               MISSED DIVIDEND/INTEREST
significant responsibilities for managing the existing CPP portfolio, including the          PAYMENTS BY INSTITUTIONS,
following:                                                                                   9/30/2009 TO 9/30/2013
                                                                                             ($ MILLIONS)

                                                                                                                                           Value of
•	 collecting dividends and interest payments on outstanding investments                     Quarter               Number of                Unpaid
•	 monitoring the performance of outstanding investments                                     End                   Institutions          Amountsa,b,c
•	 disposing of warrants as investments are repaid                                           9/30/2009                           38                $75.7
•	 selling or restructuring Treasury’s investments in some troubled financial                12/31/2009                          43                137.4
   institutions                                                                              3/31/2010                           67                182.0
•	 selecting observers for recipients that have missed five quarterly dividend               6/30/2010       d
                                                                                                                               109                 209.7
   payments                                                                                  9/30/2010                         137                 211.3
•	 potentially selecting directors for recipients that have missed six or more
                                                                                             12/31/2010                        155                 276.4
   quarterly dividend payments
                                                                                             3/31/2011                         173                 277.3
                                                                                             6/30/2011                         188                 320.8
Dividends and Interest
As of September 30, 2013, Treasury had received $12 billion in dividends on                  9/30/2011                         193                 356.9

its CPP investments.348 However, as of that date, missed dividend and interest               12/31/2011                        197                 377.0
payments by 184 institutions, including banks with missed payments that no                   3/31/2012                         200                 416.0
longer have outstanding CPP principal investments, totaled approximately $501.8              6/30/2012                         203                 455.0
million, an increase from last quarter’s $494.9 million in missed payments from              9/30/2012                         199                 480.1
188 institutions. Approximately $29.3 million of the unpaid amounts are non-                 12/31/2012                        195                 506.2
cumulative, meaning that the institution has no legal obligation to pay Treasury             3/31/2013                         192                 529.0
unless the institution declares a dividend.349
                                                                                             6/30/2013                         188                 494.9
    More than two-thirds, or 75 of the 108 banks that had remaining CPP principal
                                                                                             9/30/2013                         184                 501.8
investments as of September 30, 2013, were not current on their dividend and
                                                                                             Notes:
interest payments to Treasury.350 The 75 banks were behind by as many as 19                  a
                                                                                               Includes unpaid cumulative dividends, non-cumulative
                                                                                                dividends, and Subchapter S interest payments but
payments and in total were overdue in payments to Treasury of $140.2 million.351                does not include interest accrued on unpaid cumulative
                                                                                                dividends.
As of September 30, 2013, 74 of the 108 banks with remaining principal                       b
                                                                                                  Excludes institutions that missed payments but (i) had
investments were overdue by at least three payments, including 68 banks that                       fully caught up on missed payments at the end of the
                                                                                                   quarter reported in column 1 or (ii) had repaid their
were overdue by at least six payments.352 Of the banks with remaining principal                    investment amounts.
                                                                                             c
                                                                                                Includes institutions that missed payments and (i)
investments that are not current on payments, 59 have unpaid dividend and                        entered into a recapitalization or restructuring with
                                                                                                 Treasury, (ii) for which Treasury sold the CPP investment
interest payments that are cumulative, and 16 have unpaid dividend payments that                 to a third party or otherwise disposed of the investment
                                                                                                 to facilitate the sale of the institution to a third party
are non-cumulative.                                                                              without receiving full repayment of unpaid dividends,
    Table 2.31 shows the number of institutions and total unpaid amount of                       (iii) filed for bankruptcy relief, or (iv) had a subsidiary
                                                                                                 bank fail.
dividend and interest payments by quarter from September 30, 2009, to September              d
                                                                                                 Includes four institutions and their missed payments
                                                                                                  not reported in Treasury’s Capital Purchase Program
30, 2013. Tables 2.25–2.30 show the distribution of missed payments and value of                  Missed Dividends and Interest Payments Report as of
                                                                                                  6/30/2010 but reported in Treasury’s Dividends and
those payments by state.                                                                          Interest Report as of the same date. The four institutions
                                                                                                  are CIT, Pacific Coast National Bancorp, UCBH Holdings,
                                                                                                  Inc., and Midwest Banc Holdings, Inc.
Treasury’s Policy on Missed Dividend and Interest Payments                                   Sources: Treasury, Dividends and Interest Report,
According to Treasury, it “evaluates its CPP investments on an ongoing basis with            10/10/2013; Treasury, responses to SIGTARP data
                                                                                             calls, 10/7/2009, 1/12/2010, 4/8/2010, 6/30/2010,
the help of outside advisors, including external asset managers. The external asset          10/11/2011,1/5/2012, 4/5/2012, 7/10/2012,
                                                                                             10/10/2012, 1/10/2013, 4/4/2013, 7/5/2013,
managers provide a valuation for each CPP investment” that results in Treasury               10/7/2013; SIGTARP Quarterly Report to Congress,
                                                                                             1/30/2010, 4/20/2010, 7/21/2010, and 10/26/2010.
assigning the institution a credit score.353 For those that have unfavorable credit
scores, including any institution that has missed more than three dividend (or
110            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      interest) payments, Treasury has stated that the “asset manager dedicates more
                                                      resources to monitoring the institution and may talk to the institution on a more
                                                      frequent basis.”354
                                                          Under the terms of the preferred shares or subordinated debentures held by
                                                      Treasury as a result of its CPP investments, in certain circumstances, such as when
                                                      a participant misses six dividend (or interest) payments, Treasury has the right to
                                                      appoint up to two additional members to the institution’s board of directors.355
                                                      These directors will not represent Treasury, but rather will have the same fiduciary
                                                      duties to shareholders as all other directors. They will be compensated by the
                                                      institution in a manner similar to other directors.356
                                                           According to Treasury officials, in light of their recently announced strategy
                                                      to exit their CPP investments, Treasury is no longer pursuing efforts to exercise
                                                      its contractual rights to put directors on the board of CPP institutions that have
      On September 30, 2013, SIGTARP                  missed six or more dividend payments.357 Treasury has decided not to pursue its
      made three recommendations regarding            contractual rights even though as of September 30, 2013, of the 108 institutions
      appointments of directors to the boards         with remaining principal investments, 68 CPP institutions have missed at least six
      of CPP and CDCI banks, which are                payments.358 As of September 30, 2013, Treasury had made director appointments
      discussed in Section 5 of this report.          to the boards of directors of 15 CPP banks, as noted in Table 2.32.359 Treasury has
                                                      not made a director appointment since December 14, 2012.360
                                                          For institutions that miss five or more dividend (or interest) payments,
                                                      Treasury has stated that it would seek consent from such institutions to send
                                                      observers to the institutions’ board meetings.361 As of September 30, 2013, of the
                                                      108 CPP banks with remaining principal investments, 70 had missed at least
                                                      five payments.362 According to Treasury, the observers would be selected from its
                                                      Office of Financial Stability (“OFS”) and assigned to “gain a better understanding
                                                      of the institution’s condition and challenges and to observe how the board is
                                                      addressing the situation.”363 Their participation would be “limited to inquiring
                                                      about distributed materials, presentations, and actions proposed or taken during
                                                      the meetings, as well as addressing any questions concerning” their role.364 The
                                                      findings of the observers are taken into account when Treasury evaluates whether
                                                      to appoint individuals to an institution’s board of directors.365 As of September 30,
                                                      2013, Treasury had assigned observers to 28 current CPP recipients, as noted in
                                                      Table 2.33.366
                                                          Twelve banks have rejected Treasury’s requests to send an observer to the
                                                      institutions’ board meetings.367 The banks had initial CPP investments of as much
                                                      as $27 million, have missed as many as 19 quarterly dividend payments to Treasury,
                                                      and have been overdue in dividend payments by as much as $4.1 million.368 Four of
                                                      these banks have since been sold at a loss to Treasury at auction.369 Seven of these
                                                      banks have remaining CPP principal investments, five of which continue to have
                                                      missed payments.370 At 19 missed dividend payments, Saigon National Bank of
                                                      Westminster, California, has more missed payments than any TARP bank.371 Table
                                                      2.32 lists the banks that rejected Treasury observers.
                                                                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                                        111




TABLE 2.32
 CPP BANKS THAT REJECTED TREASURY OBSERVERS
                                                                     CPP Principal                  Number of                 Value of Missed              Date of Treasury                            Date
 Institution                                                           Investment             Missed Payments                       Payments                        Request                     of Rejection
 Intermountain Community Bancorp                                       $27,000,000                                  —a                           $—                 3/11/2011                     4/12/2011
 Community Bankers Trust Corporation                                     17,680,000                                 —   b
                                                                                                                                                   —              10/18/2011                    11/23/2011
 White River Bancshares Company                                          16,800,000                                 11                 2,517,900                    3/28/2012                     4/27/2012
 Timberland Bancorp, Inc.          c
                                                                         16,641,000                                 —   d
                                                                                                                                                   —                6/27/2011                     8/18/2011
 Alliance Financial Services Inc.c                                       12,000,000                                12e                 3,020,400                    3/10/2011                       5/6/2011
 Central Virginia Bankshares, Inc.            f
                                                                         11,385,000                                 15                 2,134,688                      3/9/2011                    5/18/2012
 Commonwealth Business Bank               c
                                                                           7,701,000                               10  g
                                                                                                                                       1,049,250                    8/13/2010                     9/20/2010
 Pacific International Bancorph                                            6,500,000                                —i                             —                9/23/2010                   11/17/2010
 Rising Sun Bancorp                                                        5,983,000                                16                 1,304,240                    12/3/2010                     2/28/2011
 Omega Capital Corp.c                                                      2,816,000                                15j                   575,588                   12/3/2010                     1/13/2011
 Citizens Bank & Trust Company                                             2,400,000                                  5                   163,500                   9/23/2010                   11/17/2010
 Saigon National Bank                                                      1,549,000                                19                    391,898                   8/13/2010                     9/20/2010
 Notes: Numbers may not total due to rounding.
 a
       Bank later became current in accrued and unpaid dividends after missing the initial scheduled payment date(s). Prior to repayment, Intermountain Community Bancorp had 12 missed payments totaling
        $4.1 million.
 b
           Bank later became current in accrued and unpaid dividends after missing the initial scheduled payment date(s). Prior to repayment, Community Bankers had seven missed payments totaling $1.5 million.
 c
        Bank was sold at a loss at auction.
 d
          Bank later became current in accrued and unpaid dividends after missing the initial scheduled payment date(s). Prior to repayment, Timberland had eight missed payments totaling $1.7 million.
 e
         Alliance Financial Services Inc. was sold at a loss at auction and its missed payments to Treasury were not repaid.
 f
     Bank accepted and then declined Treasury’s request to have a Treasury observer attend board of directors meetings.
 g
            Commonwealth Business Bank was sold at a loss at auction and its missed payments to Treasury were not repaid.
 h
      Bank has exited the Capital Purchase Program.
 i
   Bank later became current in accrued and unpaid dividends after missing the initial scheduled payment date(s). Prior to repayment, Pacific International Bancorp had 10 missed payments totaling $0.8
    million.
 j
    Omega Capital Corp. was sold at a loss at auction and its missed payments to Treasury were not repaid.

 Source: Treasury, Dividends and Interest Report, 10/10/2013.
112   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 SIGTARP and Treasury do not use the same methodology to report unpaid
                                             dividend and interest payments. For example, Treasury generally excludes
                                             institutions from its “non-current” reporting: (i) that have completed a
                                             recapitalization, restructuring, or exchange with Treasury (though Treasury does
                                             report such institutions as non-current during the pendency of negotiations); (ii)
                                             for which Treasury sold the CPP investment to a third party, or otherwise disposed
                                             of the investment to facilitate the sale of the institution to a third party; (iii) that
                                             filed for bankruptcy relief; or (iv) that had a subsidiary bank fail.372 SIGTARP
                                             generally includes such activity in Table 2.33 under “Value of Unpaid Amounts”
                                             with the value set as of the date of the bankruptcy, restructuring, or other event
                                             that relieves the institution of the legal obligation to continue to make dividend
                                             and interest payments. If a completed transaction resulted in payment to Treasury
                                             for all unpaid dividends and interest, SIGTARP does not include the institution’s
                                             obligations under unpaid amounts. As of September 30, 2013, for all CPP banks,
                                             including those that were missing payments when they exited, 94 banks had missed
                                             at least 10 dividend (or interest) payments and 142 banks had missed five dividend
                                             (or interest) payments totaling $414.2 million.373 Table 2.33 lists CPP recipients
                                             that had unpaid dividend (or interest) payments as of September 30, 2013. For
                                             a complete list of CPP recipients and institutions making dividend or interest
                                             payments, see Appendix D: “Transaction Detail.”
                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013             113




TABLE 2.33
 CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 9/30/2013
                                                                        Observers
                                                            Number       Assigned
                                          Dividend or      of Missed   to Board of       Value of Missed         Value of Unpaid
 Company                                  Payment Type     Payments     Directors1            Payments2              Amounts2,3,4
 Saigon National Bank                     Non-Cumulative         19                             $391,898                $391,898
 Blue Valley Ban Corp                     Cumulative             18            n               4,893,750               4,893,750
 Lone Star Bank                           Non-Cumulative         18            ✓                 757,757                    757,757
 OneUnited Bank                           Non-Cumulative         18            ✓               2,714,175               2,714,175
 United American Bank                     Non-Cumulative         18                            2,127,090               2,127,090
 Centrue Financial Corporation            Cumulative             17            n               6,941,950               6,941,950
 Grand Mountain Bancshares, Inc.          Cumulative             17            ✓                 706,035                    706,035
 Idaho Bancorp                            Cumulative             17            ✓               1,598,213               1,598,213
 Pacific City Financial Corporation       Cumulative             17                            3,752,325               3,752,325
 Royal Bancshares of Pennsylvania, Inc.   Cumulative             17            n               6,461,488               6,461,488
 Georgia Primary Bank                     Non-Cumulative         17            ✓               1,051,850               1,051,850
 Premier Service Bank                     Non-Cumulative         17            ✓                 923,472                    923,472
 Citizens Commerce Bancshares, Inc.       Cumulative             16                            1,373,400               1,373,400
 Northern States Financial Corporation    Cumulative             16            n               3,442,200               3,442,200
 Rising Sun Bancorp                       Cumulative             16                            1,304,240               1,304,240
 Syringa Bancorp                          Cumulative             16            ✓               1,744,000               1,744,000
 Cecil Bancorp, Inc.                      Cumulative             15            ✓               2,167,500               2,167,500
 Central Virginia Bankshares, Inc.        Cumulative             15                            2,134,688               2,134,688
 City National Bancshares Corporation     Cumulative             15                            1,769,813               1,769,813
 Monarch Community Bancorp, Inc.          Cumulative             15                            1,272,188               1,272,188
 U.S. Century Bank                        Non-Cumulative         15            ✓              10,267,050              10,267,050
 Bridgeview Bancorp, Inc.                 Cumulative             14            n               7,248,500               7,248,500
 Madison Financial Corporation            Cumulative             14                              642,985                    642,985
 Patapsco Bancorp, Inc.                   Cumulative             14                            1,144,500               1,144,500
 Prairie Star Bancshares, Inc.            Cumulative             14                              534,100                    534,100
 TCB Holding Company                      Cumulative             14            ✓               2,237,655               2,237,655
 Goldwater Bank, N.A.**                   Non-Cumulative         14                              489,720                    489,720
 Midtown Bank & Trust Company    **
                                          Non-Cumulative         14                              996,065                    996,065
 1st FS Corporation                       Cumulative             13            ✓               2,659,963               2,659,963
 Capital Commerce Bancorp, Inc.           Cumulative             13                              903,338                    903,338
 Harbor Bankshares Corporation   **
                                          Cumulative             13                            1,275,000               1,105,000
 Market Bancorporation, Inc.              Cumulative             13                              364,878                    364,878
 Pinnacle Bank Holding Company            Cumulative             13                              777,270                    777,270
 Provident Community Bancshares, Inc.     Cumulative             13                            1,505,725               1,505,725
 Western Community Bancshares, Inc.       Cumulative             13                            1,291,388               1,291,388
 CalWest Bancorp                          Cumulative             12                              761,310                    761,310
                                                                                                            Continued on next page
114            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 9/30/2013                             (CONTINUED)

                                                                                        Observers
                                                                            Number       Assigned
                                               Dividend or                 of Missed   to Board of          Value of Missed         Value of Unpaid
      Company                                  Payment Type                Payments     Directors1               Payments2              Amounts2,3,4
      CSRA Bank Corp.                          Cumulative                        12                                $392,400                $392,400
      First United Corporation                 Cumulative                        12            ✓                   4,500,000              4,500,000
      Liberty Shares, Inc.                     Cumulative                        12            ✓                   2,825,280              2,825,280
      Private Bancorporation, Inc.             Cumulative                        12                                1,300,260              1,300,260
      Regent Bancorp, Inc**                    Cumulative                        12                                1,632,030              1,632,030
      Spirit BankCorp, Inc.                    Cumulative                        12            ✓                   4,905,000              4,905,000
      Tidelands Bancshares, Inc                Cumulative                        12            ✓                   2,167,200              2,167,200
      Marine Bank & Trust Company              Non-Cumulative                    12                                 490,500                 490,500
      Pacific Commerce Bank**                  Non-Cumulative                    12                                 695,771                 640,454
      Great River Holding Company    *,**
                                               Interest                          12                                2,114,280              2,114,280
      Bank of the Carolinas Corporation        Cumulative                        11            ✓                   1,812,113              1,812,113
      Eastern Virginia Bankshares, Inc.        Cumulative                        11            ✓                   3,300,000              3,300,000
      Greer Bancshares Incorporated            Cumulative                        11                                1,497,788              1,497,788
      HCSB Financial Corporation               Cumulative                        11            ✓                   1,773,063              1,773,063
      Highlands Independent Bancshares,
                                               Cumulative                        11                                1,004,163              1,004,163
      Inc.
      Patriot Bancshares, Inc.                 Cumulative                        11            ✓                   3,902,470              3,902,470
      Reliance Bancshares, Inc.                Cumulative                        11                                5,995,000              5,995,000
      White River Bancshares Company           Cumulative                        11                                2,517,900              2,517,900
      AB&T Financial Corporation               Cumulative                        10                                 437,500                 437,500
      Atlantic Bancshares, Inc.                Cumulative                        10                                 272,050                 272,050
      BCB Holding Company, Inc.                Cumulative                        10                                 232,375                 232,375
      Central Bancorp, Inc.                    Cumulative                        10            ✓                   3,065,625              3,065,625
      Community First, Inc.                    Cumulative                        10            ✓                   2,426,000              2,426,000
      Village Bank and Trust Financial Corp.   Cumulative                        10            ✓                   1,842,250              1,842,250
      Bank of George                           Non-Cumulative                    10                                 364,150                 364,150
      Valley Community Bank                    Non-Cumulative                    10                                 749,375                 749,375
      Suburban Illinois Bancorp, Inc.*,**      Interest                          10            ✓                   3,146,250              3,146,250
      Allied First Bancorp, Inc.               Cumulative                         9                                 447,908                 447,908
      NCAL Bancorp                             Cumulative                         9            ✓                   1,226,250              1,226,250
      RCB Financial Corporation                Cumulative                         9                                1,055,520              1,055,520
      Porter Bancorp, Inc.                     Cumulative                         8            ✓                   3,500,000              3,500,000
      SouthFirst Bancshares, Inc.              Cumulative                         7                                 263,235                 263,235
      US Metro Bank  **
                                               Non-Cumulative                     7                                 272,860                 272,860
      Severn Bancorp, Inc.                     Cumulative                         6                                1,754,475              1,754,475
      OneFinancial Corporation*,**             Interest                           6                                2,105,997              2,105,997
                                                                                                                               Continued on next page
                                                                                         QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                115




CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 9/30/2013                                  (CONTINUED)

                                                                                       Observers
                                                                           Number       Assigned
                                                         Dividend or      of Missed   to Board of          Value of Missed          Value of Unpaid
Company                                                  Payment Type     Payments     Directors1               Payments2               Amounts2,3,4
Farmers & Merchants Bancshares,
                                                         Cumulative              5                                 $899,250                $749,375
Inc.**
Citizens Bank & Trust Company                            Non-Cumulative          5                                  163,500                 163,500
IA Bancorp, Inc.**                                       Cumulative              4                                  393,638                 314,910
Maryland Financial Bank                                  Non-Cumulative          4                                   92,650                  92,650
Calvert Financial Corporation                            Cumulative              3                                   42,398                  42,398
Chambers Bancshares, Inc.             *,**
                                                         Interest                3                                 1,247,000              1,247,000
Riverside Bancshares, Inc.*,**                           Interest                2                                   46,145                  46,145
Exchanges, Sales,
Recapitalizations, and Failed
Banks with Missing Payments
Anchor BanCorp Wisconsin, Inc.****                       Cumulative             17            n                   23,604,167             23,604,167
First Banks, Inc.*****
                                                         Cumulative             17            n                   64,543,063             64,543,063
Omega Capital Corp.*****                                 Cumulative             15                                  575,588                 575,588
Rogers Bancshares, Inc.        ****
                                                         Cumulative             15            n                    5,109,375              5,109,375
Pathway Bancorp*****                                     Cumulative             15                                  761,588                 761,588
Dickinson Financial Corporation II              *****
                                                         Cumulative             14                                27,859,720             27,859,720
FC Holdings, Inc.   *****
                                                         Cumulative             14                                 4,013,730              4,013,730
Ridgestone Financial Services, Inc.*****                 Cumulative             14                                 2,079,175              2,079,175
Intervest Bancshares Corporation                 *****
                                                         Cumulative             14            n                    4,375,000              4,375,000
Fidelity Federal Bancorp*****                            Cumulative             14                                 1,229,924              1,229,924
Premierwest Bancorp         *****
                                                         Cumulative             14            n                    7,245,000              7,245,000
First Southwest Bancorporation,
                                                         Cumulative             13                                  974,188                 974,188
Inc.*****
Tennessee Valley Financial Holdings,
                                                         Cumulative             13                                  531,375                 531,375
Inc.*****
First Sound Bank*****                                    Non-Cumulative         13                                 1,202,500              1,202,500
Stonebridge Financial Corp.           *****
                                                         Cumulative             12            ✓                    1,794,180              1,794,180
Premier Financial Corp*,**,*****                         Interest               12                                 1,597,857              1,597,857
Citizens Bancshares Co. (MO)****                         Cumulative             12            n                    4,086,000              4,086,000
Northwest Bancorporation, Inc.                *****
                                                         Cumulative             12                                 1,716,750              1,716,750
Plumas Bancorp*****                                      Cumulative             12            ✓                    1,792,350              1,792,350
Gold Canyon Bank     ****
                                                         Non-Cumulative         12                                  254,010                 254,010
Santa Clara Valley Bank, N.A.*****                       Non-Cumulative         12                                  474,150                 474,150
Alliance Financial Services, Inc.             *,*****
                                                         Interest               12                                 3,020,400              3,020,400
First Trust Corporation*,*****                           Interest               12            n                    4,522,611              4,522,611
The Queensborough Company                    *****
                                                         Cumulative             11                                 1,798,500              1,798,500
Boscobel Bancorp, Inc*,*****                             Interest               11                                 1,288,716              1,288,716
                                                                                                                               Continued on next page
116            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 9/30/2013                             (CONTINUED)

                                                                                        Observers
                                                                            Number       Assigned
                                                          Dividend or      of Missed   to Board of          Value of Missed          Value of Unpaid
      Company                                             Payment Type     Payments     Directors1               Payments2               Amounts2,3,4
      Investors Financial Corporation of
                                                          Interest               11                                 $922,900                $922,900
      Pettis County, Inc.*
      Florida Bank Group, Inc.*****                       Cumulative             11                                 3,068,203              3,068,203
      First Financial Service Corporation*****            Cumulative             10                                 2,500,000              2,500,000
      Old Second Bancorp, Inc.         *****
                                                          Cumulative             10            n                    9,125,000              9,125,000
      Security State Bank Holding-
                                                          Interest               10                                 2,931,481              2,254,985
      Company*,**,*****
      Commonwealth Business Bank*****                     Non-Cumulative         10                                 1,049,250              1,049,250
      Gregg Bancshares, Inc.      ****
                                                          Cumulative              9                                  101,115                 101,115
      Metropolitan Bank Group, Inc. / NC
                                                          Cumulative              9                                12,716,368              9,511,543
      Bancorp, Inc.***
      National Bancshares, Inc.*****                      Cumulative              9                                 3,024,383              3,024,383
      SouthCrest Financial Group, Inc.            *****
                                                          Cumulative              9                                 1,581,863              1,581,863
      Citizens Bancorp****                                Cumulative              9                                 1,275,300              1,275,300
      Community Pride Bank
                                                          Interest                9                                  803,286                 803,286
      Corporation*,**,*****
      Premier Bank Holding Company****                    Cumulative              9                                 1,164,938              1,164,938
      Central Federal Corporation*****                    Cumulative              8                                  722,500                 722,500
      CoastalSouth Bancshares, Inc.            *****
                                                          Cumulative              8                                 1,687,900              1,687,900
      HMN Financial, Inc. *****
                                                          Cumulative              8                                 2,600,000              2,600,000
      One Georgia Bank****                                Non-Cumulative          8                                  605,328                 605,328
      Independent Bank Corporation             ***
                                                          Cumulative              8                                14,193,996              6,164,420
      First Intercontinental Bank*****                    Non-Cumulative          8                                  697,400                 697,400
      Coloeast Bankshares, Inc.        *****
                                                          Cumulative              8                                 1,090,000              1,090,000
      Cascade Financial Corporation*****                  Cumulative              7                                 3,409,875              3,409,875
      Integra Bank Corporation       ****
                                                          Cumulative              7                                 7,313,775              7,313,775
      Princeton National Bancorp, Inc.****                Cumulative              7                                 2,194,763              2,194,763
      Brogan Bankshares, Inc.      *
                                                          Interest                7                                  352,380                 352,380
      Central Pacific Financial Corp.          ***,9
                                                          Cumulative              6                                10,125,000                      —
      Coastal Banking Company, Inc.*****                  Cumulative              6                                  995,000                 995,000
      First Reliance Bancshares, Inc.*****                Cumulative              6                                 1,254,720              1,254,720
      FNB United Corp.***                                 Cumulative              6                                 3,862,500                      —
      FPB Bancorp, Inc. (FL)   ****
                                                          Cumulative              6                                  435,000                 435,000
      Indiana Bank Corp.****                              Cumulative              6                                  107,310                 107,310
      Naples Bancorp, Inc.   *****
                                                          Cumulative              6                                  327,000                 327,000
      First Place Financial Corp.                         Cumulative              6                                 5,469,525              5,469,525
      Worthington Financial Holdings, Inc.*****           Cumulative              6                                  222,360                 222,360
                                                                                                                                Continued on next page
                                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                117




CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 9/30/2013                                    (CONTINUED)

                                                                                         Observers
                                                                             Number       Assigned
                                                           Dividend or      of Missed   to Board of          Value of Missed          Value of Unpaid
Company                                                    Payment Type     Payments     Directors1               Payments2               Amounts2,3,4
Fort Lee Federal Savings Bank****                          Non-Cumulative          6                                 $106,275                $106,275
Alarion Financial Services, Inc.*****                      Cumulative              6                                  532,560                 532,560
Community Financial Shares, Inc.              ***
                                                           Cumulative              5                                  759,820                 759,820
Delmar Bancorp*****                                        Cumulative              5                                  613,125                 613,125
First BanCorp (PR)  ***
                                                           Cumulative              5            ✓                   42,681,526                      —
First Federal Bancshares of Arkansas,
                                                           Cumulative              5                                 1,031,250              1,031,250
Inc.*****
Flagstar Bancorp, Inc.*****                                Cumulative              5                                16,666,063             16,666,063
Midwest Banc Holdings, Inc.         5
                                                           Cumulative              5                                 4,239,200              4,239,200
Pacific Capital Bancorp***,9                               Cumulative              5                                13,547,550                      —
GulfSouth Private Bank      ****
                                                           Non-Cumulative          5                                  494,063                 494,063
Northwest Commercial Bank              ****
                                                           Non-Cumulative          5                                  135,750                 135,750
CB Holding Corp.****                                       Cumulative              4                                  224,240                 224,240
Colony Bankcorp, Inc.      *****
                                                           Cumulative              4                                 1,400,000              1,400,000
First Community Bank Corporation of
                                                           Cumulative              4                                  534,250                 534,250
America*****
Green Bankshares, Inc.*****                                Cumulative              4                                 3,613,900              3,613,900
Hampton Roads Bankshares, Inc.                ***,9
                                                           Cumulative              4                                 4,017,350              4,017,350
Pierce County Bancorp****                                  Cumulative              4                                  370,600                 370,600
Santa Lucia Bancorp       *****
                                                           Cumulative              4                                  200,000                 200,000
Sterling Financial Corporation (WA)***,9                   Cumulative              4                                18,937,500             18,937,500
TIB Financial Corp***** ,7                                 Cumulative              4                                 1,850,000              1,850,000
Community Bank of the Bay          6
                                                           Non-Cumulative          4                                   72,549                  72,549
The Bank of Currituck*****                                 Non-Cumulative          4                                  219,140                 219,140
The Connecticut Bank and Trust
                                                           Non-Cumulative          4                                  246,673                 246,673
Company*****
Plato Holdings Inc.*,*****                                 Interest                4                                  207,266                 207,266
Virginia Company Bank*****                                 Non-Cumulative          3                                  185,903                 185,903
Blue River Bancshares, Inc.        ****
                                                           Cumulative              3                                  204,375                 204,375
Community West Bancshares*****                             Cumulative              3                                  585,000                 585,000
Legacy Bancorp, Inc.      ****
                                                           Cumulative              3                                  206,175                 206,175
Sonoma Valley Bancorp****                                  Cumulative              3                                  353,715                 353,715
Superior Bancorp Inc.      ****
                                                           Cumulative              3                                 2,587,500              2,587,500
Tennessee Commerce Bancorp, Inc.                    ****
                                                           Cumulative              3                                 1,125,000              1,125,000
The South Financial Group, Inc.***** ,7                    Cumulative              3                                13,012,500             13,012,500
Treaty Oak Bancorp, Inc.*****                              Cumulative              3                                  133,553                 133,553
Bank of Commerce*****                                      Non-Cumulative          3                                  122,625                 122,625
                                                                                                                                 Continued on next page
118                 SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 9/30/2013                                                                       (CONTINUED)

                                                                                                                             Observers
                                                                                                          Number              Assigned
                                                              Dividend or                                of Missed          to Board of                   Value of Missed                      Value of Unpaid
      Company                                                 Payment Type                               Payments            Directors1                        Payments2                           Amounts2,3,4
      Carolina Trust Bank*****                                Non-Cumulative                                          3                                             $150,000                            $150,000
      Commerce National Bank                                  Non-Cumulative                                          3                                              150,000                              150,000
      Cadence Financial Corporation             *****
                                                              Cumulative                                              2                                              550,000                              550,000
      First Alliance Bancshares, Inc.*****                    Cumulative                                              2                                                93,245                               93,245
      Pacific Coast National Bancorp            ****
                                                              Cumulative                                              2                                              112,270                              112,270
      The Baraboo Bancorporation, Inc.*****                   Cumulative                                              2                                              565,390                              565,390
      Colonial American Bank          *****
                                                              Non-Cumulative                                          2                                                15,655                               15,655
      Fresno First Bank       ***
                                                              Non-Cumulative                                          2                                                33,357                               33,357
      FBHC Holding Company*,*****                             Interest                                                2                                              123,127                              123,127
      Gateway Bancshares, Inc.                                Cumulative                                              2                                              163,500                              163,500
      CIT Group Inc.****,8                                    Cumulative                                              2                                          29,125,000                          29,125,000
      UCBH Holdings, Inc.****                                 Cumulative                                              1                                            3,734,213                           3,734,213
      Exchange Bank*****                                      Non-Cumulative                                          1                                              585,875                              585,875
      Tifton Banking Company           ****
                                                              Non-Cumulative                                          1                                                51,775                               51,775
      Total                                                                                                                                                $580,549,829                         $501,849,757
      Notes: Numbers may not total due to rounding. Approximately $29.3 million of the $501.8 million in unpaid CPP dividend/interest payments are non-cumulative and Treasury has no legal right to missed
      dividends that are non-cumulative.

      * Missed interest payments occur when a Subchapter S recipient fails to pay Treasury interest on a subordinated debenture in a timely manner.
      ** Partial payments made after the due date.
      *** Completed an exchange with Treasury. For an exchange of mandatorily convertible preferred stock or trust preferred securities, dividend payments normally continue to accrue. For an exchange of
      mandatorily preferred stock for common stock, no additional preferred dividend payments will accrue.
      **** Filed for bankruptcy or subsidiary bank failed. For completed bankruptcy proceedings, Treasury’s investment was extinguished and no additional dividend payments will accrue. For bank failures,
      Treasury may elect to file claims with bank receivers to collect current and/or future unpaid dividends.
      ***** Treasury sold or is selling its CPP investment to the institution or a third party. No additional preferred dividend payments will accrue after a sale, absent an agreement to the contrary.

      n   Treasury has appointed one or more directors to the Board of Directors.
      ✓   Treasury has assigned an observer to the Board of Directors.

      1
        F or First BanCorp and Pacific Capital Bancorp, Treasury had a contractual right to assign an observer to the board of directors. For the remainder, Treasury obtained consent from the institution to assign
         an observer to the board of directors.
      2
         Includes unpaid cumulative dividends, non-cumulative dividends, and Subchapter S interest payments but does not include interest accrued on unpaid cumulative dividends.
      3
          Excludes institutions that missed payments but (i) have fully caught-up or exchanged new securities for missed payments, or (ii) have repaid their investment amounts and exited the Capital Purchase
        Program.
      4
           Includes institutions that missed payments and (i) completed an exchange with Treasury for new securities, (ii) purchased their CPP investment from Treasury, or saw a third party purchase its CPP
            investment from Treasury, or (iii) are in, or have completed bankruptcy proceedings or its subsidiary bank failed.
      5
            For Midwest Banc Holdings, Inc., the number of missed payments is the number last reported from SIGTARP Quarterly Report to Congress 4/20/2010, prior to bankruptcy filing; missed payment
             amounts are from Treasury’s response to SIGTARP data call, 10/13/2010.
      6
             Treasury reported four missed payments by Community Bank of the Bay before it was allowed to transfer from CPP to CDCI. Upon transfer, Treasury reset the number of missed payments to zero.
      7
              For South Financial Group, Inc. and TIB Financial Corp, the number of missed payments and unpaid amounts reflect figures Treasury reported prior to the sale.
      8
               For CIT Group Inc., the number of missed payments is from the number last reported from SIGTARP Quarterly Report to Congress 1/30/2010, shortly after the bankruptcy filing; missed payment
                amounts are from Treasury’s response to SIGTARP data call, 10/13/2010.
      9
                Completed exchanges:
                 - The exchange between Treasury and Hampton Roads, and the exchange between Treasury and Sterling Financial did not account for unpaid dividends. The number of missed payments and unpaid
                 amounts reflect the figures Treasury reported prior to the exchange.
                 - The exchange between Treasury and Central Pacific Financial Corp., and the exchange between Treasury and Pacific Capital Bancorp did account for unpaid dividends, thereby eliminating any unpaid
                 amounts. The number of missed payments reflects the amount Treasury reported prior to the exchange.

      Sources: Treasury, Dividends and Interest Report, 10/10/2013; Treasury, responses to SIGTARP data calls, 1/7/2011, 4/6/2011, 7/8/2011, 10/11/2011, 1/10/2012, 4/5/2012, 7/10/2012,
      10/4/2012, 1/10/2013, 4/4/2013, 7/5/2013, 10/7/2013.
                                                                               QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   119




CPP Recipients: Bankrupt or with Failed Subsidiary Banks
Despite Treasury’s stated goal of limiting CPP investments to “healthy, viable
institutions,” as of September 30, 2013, 27 CPP participants had gone bankrupt
or had a subsidiary bank fail, as indicated in Table 2.34.374 As of September 30,
2013, 24 of those banks, with total CPP investments of $770.7 million, were in the
process of bankruptcy, and while Treasury has not yet realized the loss, it expects
that all of its investments in the banks will be lost.375

Bankruptcy of Rogers Bancshares, Inc.
On January 30, 2009, Treasury invested $25 million in Rogers Bancshares, Inc.,
Little Rock, Arkansas, (“Rogers”) through CPP in return for preferred stock and
warrants.376 On July 5, 2013, Rogers filed for Chapter 11 bankruptcy protection
in the United States Bankruptcy Court, Eastern District of Arkansas.377 According
to Treasury, while it will continue to monitor the matter while the bankruptcy is
open, it expects that there are not sufficient funds in the estate to repay Treasury’s
investment.378

Bankruptcy of Anchor Bancorp Wisconsin, Inc.
On January 30, 2009, Treasury invested $110 million in Anchor Bancorp
Wisconsin, Inc., Madison, Wisconsin, (“Anchor”) through CPP in return for
preferred stock and warrants.379 On August 12, 2013, Anchor filed for Chapter 11
bankruptcy protection in the United States Bankruptcy Court, Western District
of Wisconsin.380 On September 27, 2013, when the company’s restructuring plan
became effective, Treasury’s preferred stock was converted to 60 million shares of
common stock and its warrants were cancelled.381 On the same day, Treasury sold
this common stock for $6 million, resulting in a loss to Treasury of $104 million.382
120   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




            TABLE 2.34
             CPP RECIPIENTS: BANKRUPT OR WITH FAILED SUBSIDIARY BANKS, AS OF 9/30/2013                               ($ MILLIONS)

                                                      Initial
                                                   Invested       Investment                         Bankruptcy/
             Company                                Amount              Date              Status     Failure Datea           Subsidiary Bank
                                                                                       Bankruptcy
                                                                                     proceedings
                                                                               completed with no
                                                                                                                                     CIT Bank,
             CIT Group Inc., New York, NY          $2,330.0     12/31/2008      recovery of Trea-      11/1/2009
                                                                                                                             Salt Lake City, UT
                                                                               sury’s investment;
                                                                                 subsidiary bank
                                                                                  remains active
                                                                                  In bankruptcy;
             UCBH Holdings Inc.,                                                                                      United Commercial Bank,
                                                      298.7     11/14/2008       subsidiary bank       11/6/2009
             San Francisco, CA                                                                                               San Francisco, CA
                                                                                           failed
                                                                                       Bankruptcy
                                                                                     proceedings
                                                                               completed with no
             Pacific Coast National Bancorp,                                                                             Pacific Coast National
                                                         4.1      1/16/2009     recovery of Trea-     11/13/2009
             San Clemente, CA                                                                                          Bank, San Clemente, CA
                                                                               sury’s investment;
                                                                                 subsidiary bank
                                                                                            failed
                                                                                  In bankruptcy;                       Midwest Bank and Trust
             Midwest Banc Holdings, Inc.,
                                                      89.4b       12/5/2008      subsidiary bank       5/14/2010                   Company,
             Melrose Park, IL
                                                                                           failed                           Elmwood Park, IL
             Sonoma Valley Bancorp,                                              Subsidiary bank                          Sonoma Valley Bank,
                                                         8.7      2/20/2009                            8/20/2010
             Sonoma, CA                                                                    failed                               Sonoma, CA
             Pierce County Bancorp,                                              Subsidiary bank                      Pierce Commercial Bank,
                                                         6.8      1/23/2009                            11/5/2010
             Tacoma, WA                                                                    failed                                Tacoma, WA
             Tifton Banking Company,
                                                         3.8      4/17/2009                Failed     11/12/2010                              N/A
             Tifton, GA
             Legacy Bancorp, Inc.,                                               Subsidiary bank                                 Legacy Bank,
                                                         5.5      1/30/2009                            3/11/2011
             Milwaukee, WI                                                                 failed                                Milwaukee, WI
             Superior Bancorp, Inc.,                                             Subsidiary bank                                Superior Bank,
                                                       69.0       12/5/2008                            4/15/2011
             Birmingham, AL                                                                failed                              Birmingham, AL
             Integra Bank Corporation,                                           Subsidiary bank                                    Integra Bank,
                                                       83.6       2/27/2009                            7/29/2011
             Evansville, IN                                                                failed                                   Evansville, IN
             One Georgia Bank, Atlanta, GA               5.5       5/8/2009                Failed      7/15/2011                              N/A
                                                                                 Subsidiary bank                           First Peoples Bank,
             FPB Bancorp, Port Saint Lucie, FL           5.8      12/5/2008                            7/15/2011
                                                                                           failed                          Port Saint Lucie, FL
                                                                                                                              Citizens Bank of
                                                                                 Subsidiary bank
             Citizens Bancorp, Nevada City, CA         10.4     12/23/2008                             9/23/2011           Northern California,
                                                                                           failed
                                                                                                                              Nevada City, CA
                                                                                 Subsidiary bank
             CB Holding Corp., Aledo, IL                 4.1      5/29/2009                           10/14/2011        Country Bank, Aledo, IL
                                                                                           failed
             Tennessee Commerce Bancorp,                                         Subsidiary bank                         Tennessee Commerce
                                                       30.0     12/19/2008                             1/27/2012
             Inc., Franklin, TN                                                            failed                            Bank, Franklin, TN
             Blue River Bancshares, Inc.,                                        Subsidiary bank                                      SCB Bank,
                                                         5.0       3/6/2009                            2/10/2012
             Shelbyville, IN                                                               failed                                   Shelbyville, IN
                                                                                                                       Continued on next page
                                                                                                                      QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013              121




 CPP RECIPIENTS: BANKRUPT OR WITH FAILED SUBSIDIARY BANKS, AS OF 9/30/2013                                                                    ($ MILLIONS) (CONTINUED)

                                                        Initial
                                                     Invested          Investment                                        Bankruptcy/
 Company                                              Amount                 Date                         Status         Failure Datea                   Subsidiary Bank
 Fort Lee Federal Savings Bank                             $1.3        5/22/2009                           Failed            4/20/2012                                     N/A
                                                                                              Subsidiary bank                                     Glasgow Savings Bank,
 Gregg Bancshares, Inc.                                      0.9       2/13/2009                                             7/13/2012
                                                                                                        failed                                             Glasgow, MO
 Premier Bank Holding Company                                9.5       3/20/2009                 In bankruptcy               8/14/2012                                     N/A
 GulfSouth Private Bank                                      7.5       9/25/2009                           Failed          10/19/2012                                      N/A
 Investors Financial Corporation of                                                                                                                              Excel Bank,
                                                             4.0         5/8/2009                          Failed          10/19/2012
 Pettis County, Inc.                                                                                                                                             Sedalia, MO
                                                                                                                                                First Place Bank, Warren,
 First Place Financial Corporation                         72.9        3/13/2009                 In bankruptcy             10/29/2012
                                                                                                                                                                      OH
                                                                                              Subsidiary bank                                       Citizens First National
 Princeton National Bancorp                                25.1        1/23/2009                                             11/2/2012
                                                                                                        failed                                         Bank, Princeton, IL
 Gold Canyon Bank                                            1.6       6/26/2009                           Failed             4/5/2013                                     N/A
 Indiana Bank Corp.                                          1.3       4/24/2009                 In bankruptcy                4/9/2013                                     N/A
 Rogers Bancshares, Inc.                                   25.0        1/30/2009                 In bankruptcy                7/5/2013                                     N/A
                                                                                                 Filed for and
 Anchor BanCorp Wisconsin Inc.                           110.0         1/30/2009            exited bankruptcy                8/12/2013                                     N/A
                                                                                                   protectionc
 Total                                               $3,219.5                                                                                                                  
 Notes: Numbers may not total due to rounding.
 a
   Date is the earlier of the bankruptcy filing by holding company or the failure of subsidiary bank.
 b
    The amount of Treasury’s investment prior to bankruptcy was $89,874,000. On 3/8/2010, Treasury exchanged its $84,784,000 of preferred stock in Midwest Banc Holdings, Inc.
     (MBHI) for $89,388,000 of MCP, which is equivalent to the initial investment amount of $84,784,000, plus $4,604,000 of capitalized previously accrued and unpaid dividends.
 c
    Treasury recouped $6 million of its investment once the company’s plan of reorganization became effective.

 Source: Treasury, Transactions Report, 9/30/2013.




Realized Losses, Write-offs, and Currently Not Collectible CPP
Investments
When a CPP investment is sold at a loss, or an institution that Treasury invested in
finalizes bankruptcy, Treasury records the loss as a realized loss or a write-off. For
these recorded losses, Treasury has no expectation of regaining any portion of the
lost investment. When a CPP bank or its subsidiary bank fails or enters bankruptcy,
Treasury does not record that loss until the matter is resolved. However, Treasury
generally expects that all of its investment in the bank will be lost.383 As of Sep-
tember 2013, Treasury began reporting investments currently not collectible as
a result of bankruptcy or receivership together with realized losses and write-offs;
previously, it had reported those as investments still outstanding. According to
Treasury, as of September 30, 2013, Treasury had realized losses, write-offs, and
investments currently not collectible as a result of bankruptcy of $4.6 billion on its
CPP investments. This total includes $403.2 million in realized losses this quarter.
Also included is $770.7 million in 24 banks that Treasury classified this quarter
as currently not collectible as a result of bankruptcy. Table 2.35 shows all realized
losses, write-offs, and investments currently not collectible as a result of bankrupt-
cy recorded by Treasury on CPP investments through September 30, 2013.
122   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                        TABLE 2.35
                         REALIZED LOSSES, WRITE-OFFS, AND CURRENTLY NOT COLLECTIBLE IN CPP, AS OF 9/30/2013
                         ($ MILLIONS)

                                                                        TARP
                         Institution                              Investment   Loss          Date   Description
                         Realized losses
                         The Bank of Currituck                           $4     $2     12/3/2010 Sale of preferred stock at a loss
                         Treaty Oak Bancorp, Inc.                         3      3     2/15/2011 Sale of preferred stock at a loss
                         Cadence Financial Corporation                   44      6      3/4/2011 Sale of preferred stock at a loss
                                                                                                    Sale of subordinated
                         FBHC Holding Company                             3      2      3/9/2011
                                                                                                    debentures at a loss
                         First Federal Bancshares of
                                                                         17     11      5/3/2011 Sale of preferred stock at a loss
                         Arkansas, Inc.
                         First Community Bank Corporation of
                                                                         11      3     5/31/2011 Sale of preferred stock at a loss
                         America
                         Cascade Financial Corporation                   39     23     6/30/2011 Sale of preferred stock at a loss
                         Green Bankshares, Inc.                          72      4      9/7/2011 Sale of preferred stock at a loss
                         Santa Lucia Bancorp                              4      1    10/21/2011    Sale of preferred stock at a loss
                         Banner Corporation/Banner Bank                 124     14      4/3/2012 Sale of preferred stock at a loss 
                         First Financial Holdings Inc.                   65      8      4/3/2012 Sale of preferred stock at a loss 
                         MainSource Financial Group, Inc.                57      4      4/3/2012 Sale of preferred stock at a loss
                         Seacoast Banking Corporation of
                                                                         50      9      4/3/2012 Sale of preferred stock at a loss
                         Florida
                         Wilshire Bancorp, Inc.                          62      4      4/3/2012 Sale of preferred stock at a loss
                         WSFS Financial Corporation                      53      4      4/3/2012 Sale of preferred stock at a loss
                         Central Pacific Financial Corp.                135     62      4/4/2012    Sale of common stock at a loss
                         Ameris Bancorp                                  52      4     6/19/2012 Sale of preferred stock at a loss
                         Farmers Capital Corporation                     30      8     6/19/2012 Sale of preferred stock at a loss
                         First Capital Bancorp, Inc.                     11      1     6/19/2012 Sale of preferred stock at a loss
                         First Defiance Financial Corp.                  37      1     6/19/2012 Sale of preferred stock at a loss
                         LNB Bancorp, Inc.                               25      3     6/19/2012 Sale of preferred stock at a loss
                         Taylor Capital Group, Inc.                     105     11     6/19/2012    Sale of preferred stock at a loss
                         United Bancorp, Inc.                            21      4     6/19/2012 Sale of preferred stock at a loss
                         Fidelity Southern Corporation                   48      5      7/3/2012 Sale of preferred stock at a loss
                         First Citizens Banc Corp                        21      2      7/3/2012 Sale of preferred stock at a loss
                         Firstbank Corporation                           33      2      7/3/2012 Sale of preferred stock at a loss
                         Metrocorp Bancshares, Inc.                      45      1      7/3/2012 Sale of preferred stock at a loss
                         Peoples Bancorp Of North Carolina,
                                                                         25      2      7/3/2012 Sale of preferred stock at a loss
                         Inc.
                         Pulaski Financial Corp.                         33      4      7/3/2012 Sale of preferred stock at a loss
                         Southern First Bancshares, Inc.                 17      2      7/3/2012 Sale of preferred stock at a loss
                         Naples Bancorp, Inc.                             4      3     7/12/2012 Sale of preferred stock at a loss
                                                                                                            Continued on next page
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   123




REALIZED LOSSES, WRITE-OFFS, AND CURRENTLY NOT COLLECTIBLE IN CPP, AS OF 9/30/2013
($ MILLIONS) (CONTINUED)

                                                 TARP
Institution                                Investment   Loss          Date   Description
Realized losses
Commonwealth Bancshares, Inc.                    $20     $5      8/9/2012    Sale of preferred stock at a loss
Diamond Bancorp, Inc.                             20      6      8/9/2012 Sale of preferred stock at a loss
Fidelity Financial Corporation                    36      4      8/9/2012 Sale of preferred stock at a loss
Market Street Bancshares, Inc.                    20      2      8/9/2012 Sale of preferred stock at a loss
CBS Banc-Corp.                                    24      2     8/10/2012 Sale of preferred stock at a loss
Marquette National Corporation                    36     10     8/10/2012 Sale of preferred stock at a loss
Park Bancorporation, Inc.                         23      6     8/10/2012 Sale of preferred stock at a loss
Premier Financial Bancorp, Inc.                    7      2     8/10/2012 Sale of preferred stock at a loss
Trinity Capital Corporation                       36      9     8/10/2012 Sale of preferred stock at a loss
Exchange Bank                                     43      5     8/13/2012 Sale of preferred stock at a loss
Millennium Bancorp, Inc.                           7      4     8/14/2012 Sale of preferred stock at a loss
Sterling Financial Corporation                   303    188     8/20/2012    Sale of preferred stock at a loss
BNC Bancorp                                       31      2     8/29/2012 Sale of preferred stock at a loss
First Community Corporation                       11     0.2    8/29/2012 Sale of preferred stock at a loss
First National Corporation                        14      2     8/29/2012 Sale of preferred stock at a loss
Mackinac Financial Corporation                    11     0.5    8/29/2012 Sale of preferred stock at a loss
Yadkin Valley Financial Corporation               13      5     9/18/2012 Sale of preferred stock at a loss
Alpine Banks Of Colorado                          70     13     9/20/2012 Sale of preferred stock at a loss
F & M Financial Corporation (NC)                  17      1     9/20/2012 Sale of preferred stock at a loss
F&M Financial Corporation (TN)                    17      4     9/21/2012 Sale of preferred stock at a loss
First Community Financial Partners, Inc.          22      8     9/21/2012 Sale of preferred stock at a loss
Central Federal Corporation                        7      4     9/26/2012 Sale of preferred stock at a loss
Congaree Bancshares, Inc.                          3     0.6   10/31/2012 Sale of preferred stock at a loss
Metro City Bank                                    8     0.8   10/31/2012 Sale of preferred stock at a loss
Blue Ridge Bancshares, Inc.                       12      3    10/31/2012 Sale of preferred stock at a loss
Germantown Capital Corporation                     5     0.4   10/31/2012    Sale of preferred stock at a loss
First Gothenburg Bancshares, Inc.                  8     0.7   10/31/2012 Sale of preferred stock at a loss
Blackhawk Bancorp, Inc.                           10     0.9   10/31/2012 Sale of preferred stock at a loss
Centerbank                                         2     0.4   10/31/2012 Sale of preferred stock at a loss
The Little Bank, Incorporated                      8     0.1   10/31/2012 Sale of preferred stock at a loss
Oak Ridge Financial Services, Inc.                 8     0.6   10/31/2012 Sale of preferred stock at a loss
Peoples Bancshares Of TN, Inc.                     4      1    10/31/2012 Sale of preferred stock at a loss
Hometown Bankshares Corporation                   10     0.8   10/31/2012    Sale of preferred stock at a loss
Western Illinois Bancshares, Inc.                 11     0.7    11/9/2012 Sale of preferred stock at a loss
                                                                                     Continued on next page
124   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                         REALIZED LOSSES, WRITE-OFFS, AND CURRENTLY NOT COLLECTIBLE IN CPP, AS OF 9/30/2013
                         ($ MILLIONS) (CONTINUED)

                                                                        TARP
                         Institution                              Investment   Loss          Date   Description
                         Realized losses
                         Capital Pacific Bancorp                         $4    $0.2    11/9/2012 Sale of preferred stock at a loss
                         Three Shores Bancorporation, Inc.                6     0.6    11/9/2012 Sale of preferred stock at a loss
                         Regional Bankshares, Inc.                        2     0.1    11/9/2012 Sale of preferred stock at a loss
                         Timberland Bancorp, Inc.                        17      2     11/9/2012 Sale of preferred stock at a loss
                         First Freedom Bancshares, Inc.                   9     0.7    11/9/2012 Sale of preferred stock at a loss
                         Bankgreenville Financial Corporation             1     0.1    11/9/2012 Sale of preferred stock at a loss
                                                                                                    Sale of subordinated
                         F&C Bancorp. Inc.                                3     0.1   11/13/2012
                                                                                                    debentures at a loss
                                                                                                    Sale of subordinated
                         Farmers Enterprises, Inc.                       12     0.4   11/13/2012
                                                                                                    debentures at a loss
                         Franklin Bancorp, Inc.                           5      2    11/13/2012    Sale of preferred stock at a loss
                         Sound Banking Company                            3     0.2   11/13/2012    Sale of preferred stock at a loss
                         Parke Bancorp, Inc.                             16      5    11/29/2012    Sale of preferred stock at a loss
                         Country Bank Shares, Inc.                        8     0.6   11/29/2012    Sale of preferred stock at a loss
                         Clover Community Bankshares, Inc.                3     0.4   11/29/2012 Sale of preferred stock at a loss
                         CBB Bancorp                                      4     0.3   11/29/2012 Sale of preferred stock at a loss
                         Alaska Pacific Bancshares, Inc.                  5     0.5   11/29/2012 Sale of preferred stock at a loss
                         Trisummit Bank                                   7      2    11/29/2012    Sale of preferred stock at a loss
                         Layton Park Financial Group, Inc.                3     0.6   11/29/2012    Sale of preferred stock at a loss
                         Community Bancshares of Mississippi,
                         Inc. (Community Holding Company of               1     0.1   11/30/2012 Sale of preferred stock at a loss
                         Florida, Inc.)
                         FFW Corporation                                  7     0.7   11/30/2012 Sale of preferred stock at a loss
                         Hometown Bancshares, Inc.                        2     0.1   11/30/2012 Sale of preferred stock at a loss
                         Bank Of Commerce                                 3     0.5   11/30/2012 Sale of preferred stock at a loss
                         Corning Savings And Loan Association            0.6    0.1   11/30/2012    Sale of preferred stock at a loss
                         Carolina Trust Bank                              4     0.6   11/30/2012    Sale of preferred stock at a loss
                         Community Business Bank                          4     0.3   11/30/2012 Sale of preferred stock at a loss
                         KS Bancorp, Inc                                  4     0.7   11/30/2012 Sale of preferred stock at a loss
                         Pacific Capital Bancorp                        195     15    11/30/2012    Sale of common stock at a loss
                         Community West Bancshares                       16      4    12/11/2012    Sale of preferred stock at a loss
                         Presidio Bank                                   11      2    12/11/2012 Sale of preferred stock at a loss
                         The Baraboo Bancorporation, Inc.                21      7    12/11/2012    Sale of preferred stock at a loss
                         Security Bancshares Of Pulaski County,
                                                                          2     0.7   12/11/2012    Sale of preferred stock at a loss
                         Inc.
                         Central Community Corporation                   22      2    12/11/2012    Sale of preferred stock at a loss
                                                                                                            Continued on next page
                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   125




REALIZED LOSSES, WRITE-OFFS, AND CURRENTLY NOT COLLECTIBLE IN CPP, AS OF 9/30/2013
($ MILLIONS) (CONTINUED)

                                               TARP
Institution                              Investment   Loss          Date   Description
Realized losses
                                                                           Sale of subordinated
Manhattan Bancshares, Inc.                      $3    $0.1   12/11/2012
                                                                           debentures at a loss
First Advantage Bancshares, Inc.                 1     0.1   12/11/2012 Sale of preferred stock at a loss
Community Investors Bancorp, Inc.                3     0.1   12/20/2012 Sale of preferred stock at a loss
First Business Bank, National
                                                 4     0.4   12/20/2012 Sale of preferred stock at a loss
Association
Bank Financial Services, Inc.                    1     0.1   12/20/2012 Sale of preferred stock at a loss
                                                                           Sale of subordinated
Century Financial Services Corporation          10     0.2   12/20/2012
                                                                           debentures at a loss
Hyperion Bank                                    2     0.5   12/21/2012 Sale of preferred stock at a loss
First Independence Corporation                   3     0.9   12/21/2012 Sale of preferred stock at a loss
First Alliance Bancshares, Inc.                  3      1    12/21/2012 Sale of preferred stock at a loss
Community Financial Shares, Inc.                 7      4    12/21/2012    Sale of preferred stock at a loss
Alliance Financial Services, Inc.               12      3      2/7/2013 Sale of preferred stock at a loss
                                                                           Sale of subordinated
Biscayne Bancshares, Inc.                        6     0.2     2/8/2013
                                                                           debentures at a loss
Citizens Bancshares Co.                         25     12      2/8/2013 Sale of preferred stock at a loss
Colony Bankcorp, Inc.                           28      6      2/8/2013 Sale of preferred stock at a loss
Delmar Bancorp                                   9      3      2/8/2013 Sale of preferred stock at a loss
Dickinson Financial Corporation II             146     65      2/8/2013    Sale of preferred stock at a loss
F & M Bancshares, Inc.                           4     0.5     2/8/2013 Sale of preferred stock at a loss
First Priority Financial Corp.                   5      1      2/8/2013 Sale of preferred stock at a loss
HMN Financial, Inc.                             26      7      2/8/2013 Sale of preferred stock at a loss
Waukesha Bankshares, Inc.                        6     0.4     2/8/2013 Sale of preferred stock at a loss
FC Holdings, Inc.                               21      2     2/20/2013 Sale of preferred stock at a loss
First Sound Bank                                 7      4     2/20/2013 Sale of preferred stock at a loss
                                                                           Sale of subordinated
First Trust Corporation                         18      4     2/20/2013
                                                                           debentures at a loss
National Bancshares, Inc.                       25      6     2/20/2013 Sale of preferred stock at a loss
Ridgestone Financial Services, Inc.             11      2     2/20/2013 Sale of preferred stock at a loss
Carolina Bank Holdings, Inc.                    16      1     2/21/2013 Sale of preferred stock at a loss
Santa Clara Valley Bank, N.A.                    3     0.4     3/8/2013 Sale of preferred stock at a loss
Coastal Banking Company, Inc.                   10     0.4    3/11/2013 Sale of preferred stock at a loss
CoastalSouth Bancshares, Inc.                   16      3     3/11/2013 Sale of preferred stock at a loss
First Reliance Bancshares, Inc.                 15      5     3/11/2013 Sale of preferred stock at a loss
Southcrest Financial Group, Inc.                13      1     3/11/2013 Sale of preferred stock at a loss
                                                                                   Continued on next page
126   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                         REALIZED LOSSES, WRITE-OFFS, AND CURRENTLY NOT COLLECTIBLE IN CPP, AS OF 9/30/2013
                         ($ MILLIONS) (CONTINUED)

                                                                        TARP
                         Institution                              Investment   Loss         Date   Description
                         Realized losses
                         The Queensborough Company                      $12    $0.3   3/11/2013 Sale of preferred stock at a loss
                         Old Second Bancorp, Inc.                        73     47    3/27/2013 Sale of preferred stock at a loss
                         Stonebridge Financial Corp.                     11      9    3/27/2013 Sale of preferred stock at a loss
                         Alliance Bancshares, Inc.                        3     0.1   3/28/2013 Sale of preferred stock at a loss
                                                                                                   Sale of subordinated
                         Amfirst Financial Services, Inc                  5     0.2   3/28/2013
                                                                                                   debentures at a loss
                         First Southwest Bancorporation, Inc.             6     0.5   3/28/2013 Sale of preferred stock at a loss
                         Flagstar Bancorp, Inc.                         267     24    3/28/2013    Sale of preferred stock at a loss
                         United Community Banks, Inc.                   180      7    3/28/2013    Sale of preferred stock at a loss
                                                                                                Exchange of preferred stock at
                         First Security Group, Inc.                      33     18    4/11/2013
                                                                                                a loss
                         BancStar, Inc.                                   9     0.1   4/26/2013 Sale of preferred stock at a loss
                         NewBridge Bancorp                               52      1    4/29/2013 Sale of preferred stock at a loss
                         First Financial Service Corporation             20      9    4/29/2013 Sale of preferred stock at a loss
                         Guaranty Federal Bancshares, Inc.               17     0.4   4/29/2013 Sale of preferred stock at a loss
                         Intervest Bancshares Corporation                25      1    6/24/2013 Sale of preferred stock at a loss
                         First Western Financial, Inc.                   20      3    6/24/2013 Sale of preferred stock at a loss
                         Worthington Financial Holdings, Inc.             3     0.4   6/24/2013 Sale of preferred stock at a loss
                         Farmers & Merchants Financial
                                                                         0.4    0.1   6/24/2013 Sale of preferred stock at a loss
                         Corporation
                         Metropolitan Bank Group, Inc.                   82     49    6/28/2013 Sale of preferred stock at a loss
                         Alarion Financial Services, Inc.                 7     0.1   7/22/2013 Sale of preferred stock at a loss
                         Anchor Bancorp Wisconsin, Inc.                 110    104    9/27/2013    Sale of common stock at a loss
                         Centrue Financial Corporation                   33     17    9/25/2013 Sale of preferred stock at a loss
                         Coloeast Bankshares, Inc.                       10      1    7/22/2013 Sale of preferred stock at a loss
                         Commonwealth Business Bank                      20     0.4   7/17/2013 Sale of preferred stock at a loss
                         Crosstown Holding Company                       11     0.2   7/22/2013 Sale of preferred stock at a loss
                         Desoto County Bank                               3     0.5   9/25/2013 Sale of preferred stock at a loss
                         First Bancorp (PR)                             400     72    9/13/2013    Sale of common stock at a loss
                         First Banks, Inc.                              295    190    9/25/2013    Sale of preferred stock at a loss
                         First Intercontinental Bank                      6      3    8/12/2013 Sale of preferred stock at a loss
                         Florida Bank Group, Inc.                        20     12    8/14/2013 Sale of preferred stock at a loss
                         Mountain Valley Bancshares, Inc.                 3      —    7/22/2013 Sale of preferred stock at a loss
                         RCB Financial Corporation                        9     0.8   9/25/2013 Sale of preferred stock at a loss
                         Severn Bancorp, Inc.                            23      —    9/25/2013 Sale of preferred stock at a loss
                                                                                                           Continued on next page
                                                                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   127




REALIZED LOSSES, WRITE-OFFS, AND CURRENTLY NOT COLLECTIBLE IN CPP, AS OF 9/30/2013
($ MILLIONS) (CONTINUED)

                                                                 TARP
Institution                                                Investment                      Loss                   Date      Description
Realized losses
Universal Bancorp                                                     $10                  $0.5          8/12/2013 Sale of preferred stock at a loss
Virginia Company Bank                                                     5                     2        8/12/2013 Sale of preferred stock at a loss
Total CPP Realized Losses                                                              $1,263                                                                         
Write-Offs
CIT Group Inc.                                                    $2,330               $2,330          12/10/2009 Bankruptcy
Pacific Coast National Bancorp                                            4                     4        2/11/2010          Bankruptcy
South Financial Group, Inc.         a
                                                                      347                   217          9/30/2010          Sale of preferred stock at a loss
TIB Financial Corpa                                                     37                    25         9/30/2010          Sale of preferred stock at a loss
Total CPP Write-Offs                                                                   $2,576                                
Currently Not Collectibleb
UCBH Holdings Inc.                                                   $299                 $299           11/6/2009          Bankruptcy
Midwest Banc Holdings, Inc.                                             85                    85         5/14/2010 Bankruptcy
Sonoma Valley Bancorp                                                     9                     9        8/20/2010 Bankruptcy
Pierce County Bancorp                                                     7                     7        11/5/2010 Bankruptcy
Tifton Banking Company                                                    4                     4      11/12/2010 Bankruptcy
Legacy Bancorp, Inc.                                                      6                     6        3/11/2011          Bankruptcy
Superior Bancorp Inc.                                                   69                    69         4/15/2011 Bankruptcy
FPB Bancorp, Inc.                                                         6                     6        7/15/2011 Bankruptcy
One Georgia Bank                                                          6                     6        7/15/2011 Bankruptcy
Integra Bank Corporation                                                84                    84         7/29/2011 Bankruptcy
Citizens Bancorp                                                        10                    10         9/23/2011 Bankruptcy
CB Holding Corp.                                                          4                     4      10/14/2011 Bankruptcy
Tennessee Commerce Bancorp, Inc.                                        30                    30         1/27/2012          Bankruptcy
Blue River Bancshares, Inc.                                               5                     5        2/10/2012 Bankruptcy
Fort Lee Federal Savings Bank, FSB                                        1                     1        4/20/2012 Bankruptcy
Gregg Bancshares, Inc.                                                    1                     1        7/13/2012 Bankruptcy
Total CPP Currently Not Collectible                                                       $771                               
Total of CPP Realized Losses,
Write-Offs, and Currently Not                                                          $4,612                                
Collectible                                                                
Notes: Numbers may not total due to rounding.
a
  In the time since these transactions were classified as write-offs, Treasury has changed its practices and now classifies sales of preferred stock at a loss as
   realized losses.
b
   As of September 2013, Treasury no longer counts investments currently not collectible as result of bankruptcy as “outstanding.”

Sources: Treasury, Transactions Report, 9/30/2013; Treasury, response to SIGTARP data call, 10/3/2013.
128            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      Restructurings, Recapitalizations, Exchanges, and Sales of CPP
                                                      Investments
                                                      Certain CPP institutions continue to experience high losses and financial
                                                      difficulties, resulting in inadequate capital or liquidity. To avoid insolvency or
                                                      improve the quality of their capital, these institutions may ask Treasury to convert
                                                      its CPP preferred shares into a more junior form of equity or to accept a lower
                                                      valuation, resulting in Treasury taking a discount or loss. If a CPP institution
                                                      is undercapitalized and/or in danger of becoming insolvent, it may propose to
                                                      Treasury a restructuring (or recapitalization) plan to avoid failure (or to attract
      Undercapitalized: Condition in which a          private capital) and to “attempt to preserve value” for Treasury’s investment.384
      financial institution does not meet its         Treasury may also sell its investment in a troubled institution to a third party at
      regulator’s requirements for sufficient         a discount in order to facilitate that party’s acquisition of a troubled institution.
      capital to operate under a defined level        According to Treasury, although it may incur partial losses on its investment in the
      of adverse conditions.                          course of these transactions, such an outcome may be deemed necessary to avoid
                                                      the total loss of Treasury’s investment that would occur if the institution failed.385
      Due Diligence: Appropriate level of                 Under these circumstances, the CPP participant asks Treasury for a formal
      attention or care a reasonable person           review of its proposal. The proposal details the institution’s recapitalization plan
      should take before entering into an             and may estimate how much capital the institution plans to raise from private
      agreement or a transaction with                 investors and whether Treasury and other preferred shareholders will convert
      another party. In finance, it often refers      their preferred stock to common stock. The proposal may also involve a proposed
      to the process of conducting an audit           discount on the conversion to common stock, although Treasury would not realize
      or review of the institution before             any loss until it disposes of the stock.386 In other words, Treasury would not know
      initiating a transaction.                       whether a loss will occur, or the extent of such a loss, until it sells the common
                                                      stock it receives as part of such an exchange. According to Treasury, when it
                                                      receives such a request, it asks one of the external asset managers that it has
                                                      hired to analyze the proposal and perform due diligence on the institution.387 The
                                                      external asset manager interviews the institution’s managers, gathers non-public
                                                      information, and conducts loan-loss estimates and capital structure analysis.
                                                      The manager submits its evaluation to Treasury, which then decides whether to
                                                      restructure its CPP investment.388
                                                          Table 2.36 shows all restructurings, recapitalizations, exchanges, and sales of
                                                      CPP investments through September 30, 2013.

                                                      Recent Exchanges and Sales
                                                      Central Virginia Bankshares, Inc.
                                                      On January 9, 2009, Treasury invested $20 million in C&F Financial Corporation,
                                                      West Point, Virginia, (“C&F”) through CPP, which C&F repaid at par as it exited
                                                      TARP on April 11, 2012.389 On January 30, 2009, Treasury invested $11.4 million
                                                      in Central Virginia Bankshares, Inc., Powhatan, Virginia, (“Central Virginia
                                                      Bankshares”) through CPP in return for preferred stock and warrants.390 On
                                                      July 17, 2013, Treasury entered into a securities purchase agreement with C&F
                                                      and Central Virginia Bankshares, pursuant to which Treasury agreed to sell its
                                                      investment in Central Virginia Bankshares at a discount.391 On October 1, 2013,
                                                      after the close of this quarter, Treasury completed the sale of its investment in
                                                                                  QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                129




Central Virginia Bankshares to C&F for $3.4 million, resulting in an $8 million loss
to Treasury.392

Florida Bank Group, Inc.
On July 24, 2009, Treasury invested $20.5 million in Florida Bank Group, Inc.,
Tampa, Florida, (“Florida Bank”) through CPP in return for preferred stock and
warrants.393 On August 14, 2013, Treasury sold its investment back to Florida
Bank, pursuant to the terms of an agreement entered into between Treasury and
Florida Bank on February 12, 2013, for $8 million.394 The sale resulted in a loss to
Treasury of $12.5 million.395

Broadway Financial Corporation
On November 14, 2008, Treasury invested $9 million and on December 4, 2009,
Treasury invested an additional $6 million in Broadway Financial Corporation,
Los Angeles, California, (“Broadway”) through CPP in return for preferred
stock and warrants.396 On August 22, 2013, Treasury exchanged its preferred
stock investment in Broadway for 10,146 shares of common stock equivalent in
Broadway, which represented a 50% discount on its preferred stock combined
with full value for Broadway’s outstanding $2.6 million in unpaid dividends.397
The common stock equivalent will be converted to common stock following a
shareholder vote.398
TABLE 2.36
 TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 9/30/2013                               ($ MILLIONS)

                                      Investment       Original     Combined
 Company                                    Date   Investments    Investments                                            Investment Status
 Citigroup Inc.                       10/28/2008      $2,500.0                              Exchanged for common stock/warrants and sold
 Provident Bankshares                 11/14/2008         151.5
                                                                                     Provident preferred stock exchanged for new M&T Bank
 M&T Bank Corporation                 12/23/2008         600.0      $1,081.5a   Corporation preferred stock; Wilmington Trust preferred stock
                                                                                                   redeemed by M&T Bank Corporation; Sold
 Wilmington Trust Corporation         12/12/2008         330.0
 Popular, Inc.                         12/5/2008         935.0                                       Exchanged for trust preferred securities
 First BanCorp                          1/6/2009         400.0                         Exchanged for mandatorily convertible preferred stock
 South Financial Group, Inc.           12/5/2008         347.0                                                                           Sold
 Sterling Financial Corporation        12/5/2008         303.0                                           Exchanged for common stock, Sold
 Whitney Holding Corporation          12/19/2008         300.0                                                                           Sold
 First Banks, Inc.                    12/31/2008         295.4                                                                Sold at auction
 Flagstar Bancorp Inc.                 1/30/2009         267.0                                                         Sold at loss in auction
 Pacific Capital Bancorp              11/21/2008         195.0                                                 Exchanged for common stock
 United Community Banks, Inc.          12/5/2008         180.0                                                         Sold at loss in auction
 Dickinson Financial Corporation II    1/16/2009         146.0                                                         Sold at loss in auction
 Central Pacific Financial Corp.        1/9/2009         135.0                                                 Exchanged for common stock
 Banner Corporation                   11/21/2008         124.0                                                         Sold at loss in auction
                                                                                                                     Continued on next page
130         SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 9/30/2013                               ($ MILLIONS) (CONTINUED)

                                            Investment       Original     Combined
      Company                                     Date   Investments    Investments                                            Investment Status
      BBCN Bancorp, Inc.                    11/21/2008         $67.0                                     Exchanged for a like amount of securities
                                                                            $122.0d
      Center Financial Corporation          12/12/2008          55.0                                                        of BBCN Bancorp, Inc.

      First Merchants                        2/20/2009         116.0                   Exchanged for trust preferred securities and preferred stock
      Taylor Capital Group                  11/21/2008         104.8                                                         Sold at loss in auction
      Metropolitan Bank Group Inc.           6/26/2009          71.5                       Exchanged for new preferred stock in Metropolitan Bank
                                                                              81.9b 
      NC Bancorp, Inc.                       6/26/2009           6.9                                             Group, Inc. and later sold at loss

      Hampton Roads Bankshares              12/31/2008          80.3                                                 Exchanged for common stock
      Old Second Bancorp, Inc.               1/16/2009          73.0                                                         Sold at loss in auction
      Green Bankshares                      12/23/2008          72.3                                                                           Sold
      Independent Bank Corporation          12/12/2008          72.0                        Exchanged for mandatorily convertible preferred stock
      Alpine Banks of Colorado               3/27/2009          70.0                                                         Sold at loss in auction
      Superior Bancorp, Inc.c                12/5/2008          69.0                                       Exchanged for trust preferred securities
      First Financial Holdings Inc.          12/5/2008          65.0                                                         Sold at loss in auction
      Wilshire Bancorp, Inc.                12/12/2008          62.2                                                         Sold at loss in auction
                                                                                                                Exchanged for common stock and
      Standard Bancshares Inc.               4/24/2009          60.0               
                                                                                                                  securities purchase agreements
      MainSource Financial Group, Inc.       1/16/2009          57.0                                                         Sold at loss in auction
      WSFS Financial Corporation             1/23/2009          52.6                                                         Sold at loss in auction
      NewBridge Bancorp                     12/12/2008          52.4                                                         Sold at loss in auction
      Ameris Bancorp                        11/21/2008          52.0                                                         Sold at loss in auction
      Seacoast Banking Corporation of
                                            12/19/2008          50.0                                                         Sold at loss in auction
      Florida
      Fidelity Southern Corporation         12/19/2008          48.2                                                         Sold at loss in auction
      MetroCorp Bancshares, Inc.             1/16/2009          45.0                                                         Sold at loss in auction
      Cadence Financial Corporation           1/9/2009          44.0                                                         Sold at loss in auction
      Exchange Bank                         12/19/2008          43.0                                                         Sold at loss in auction
      Crescent Financial Bancshares, Inc.     1/9/2009          24.9                                     Exchanged for a like amount of securities
                                                                              42.8e
      ECB Bancorp, Inc.                      1/16/2009          17.9                                        of Crescent Financial Bancshares, Inc.

      PremierWest Bancorp                    2/13/2009          41.4                                                                           Sold
      Capital Bank Corporation              12/12/2008          41.3                                                                           Sold
      Reliance Bancshares, Inc.              2/13/2009          40.0                                                                Sold at auction
      Cascade Financial Corporation         11/21/2008          39.0                                                         Sold at loss in auction
      TIB Financial Corp.                    12/5/2008          37.0                                                                           Sold
      First Defiance Financial Corp.         12/5/2008          37.0                                                         Sold at loss in auction
      Fidelity Financial Corporation        12/19/2008          36.3                                                         Sold at loss in auction
      Marquette National Corporation        12/19/2008          35.5                                                         Sold at loss in auction
      Trinity Capital Corporation            3/27/2009          35.5                                                         Sold at loss in auction
      Firstbank Corporation                  1/30/2009          33.0                                                         Sold at loss in auction
      First Security Group, Inc.              1/9/2009          33.0                                                                           Sold
      Pulaski Financial Corp                 1/16/2009          32.5                                                         Sold at loss in auction
      BNC Bancorp                            12/5/2008          31.3                                                         Sold at loss in auction
      Farmers Capital Bank Corporation        1/9/2009          30.0                                                         Sold at loss in auction
                                                                                                                           Continued on next page
                                                                                QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013            131




TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 9/30/2013                          ($ MILLIONS) (CONTINUED)

                                      Investment       Original     Combined
Company                                     Date   Investments    Investments                                      Investment Status
Colony Bankcorp, Inc.                   1/9/2009         $28.0                                                   Sold at loss in auction
HMN Financial, Inc                    12/23/2008          26.0                                                   Sold at loss in auction
LNB Bancorp Inc.                      12/12/2008          25.2                                                   Sold at loss in auction
Peoples Bancorp of North Carolina,
                                      12/23/2008          25.1                                                   Sold at loss in auction
Inc.
Citizens Bancshares Co.                5/29/2009          25.0                                                   Sold at loss in auction
Intervest Bancshares Corporation      12/23/2008          25.0                                                   Sold at loss in auction
National Bancshares, Inc.              2/27/2009          24.7                                                   Sold at loss in auction
CBS Banc-Corp                          3/27/2009          24.3                                                   Sold at loss in auction
Severn Bancorp, Inc.                  11/21/2008          23.4                                                          Sold at auction
First Citizens Banc Corp               1/23/2009          23.2                                                   Sold at loss in auction
Park Bancorporation, Inc.               3/6/2009          23.2                                                   Sold at loss in auction
Premier Financial Bancorp, Inc.        10/2/2009          22.3                                                   Sold at loss in auction
Central Community Corporation          2/20/2009          22.0                                                   Sold at loss in auction
First Community Financial Partners,
                                      12/11/2009          22.0                                                   Sold at loss in auction
Inc.
FC Holdings, Inc.                      6/26/2009          21.0                                                   Sold at loss in auction
The Baraboo Bancorporation, Inc.       1/16/2009          20.7                                                   Sold at loss in auction
United Bancorp, Inc.                   1/16/2009          20.6                                                   Sold at loss in auction
Florida Bank Group, Inc.               7/24/2009          20.5                                                                      Sold
Diamond Bancorp, Inc.                  5/22/2009          20.4                                                   Sold at loss in auction
Commonwealth Bancshares, Inc.          5/22/2009          20.4                                                   Sold at loss in auction
First Western Financial, Inc.           2/6/2009          20.4                                                   Sold at loss in auction
Market Street Bancshares, Inc.         5/15/2009          20.3                                                   Sold at loss in auction
First Financial Service Corporation     1/9/2009          20.0                                                   Sold at loss in auction
First Trust Corporation                 6/5/2009          18.0                                                   Sold at loss in auction
Southern First Bancshares, Inc.        2/27/2009          17.3                                                   Sold at loss in auction
F&M Financial Corporation (TN)         2/13/2009          17.2                                                   Sold at loss in auction
F & M Financial Corporation (NC)        2/6/2009          17.0                                                   Sold at loss in auction
Guaranty Federal Bancshares, Inc.      1/30/2009          17.0                                                   Sold at loss in auction
Timberland Bancorp Inc.               12/23/2008          16.6                                                   Sold at loss in auction
First Federal Bankshares of
                                        3/6/2009          16.5                                                                      Sold
Arkansas, Inc.
Parke Bancorp Inc.                     1/30/2009          16.3                                                   Sold at loss in auction
Carolina Bank Holdings, Inc.            1/9/2009          16.0                                                   Sold at loss in auction
CoastalSouth Bancshares, Inc.          8/28/2009          16.0                                                   Sold at loss in auction
Community West Bancshares             12/19/2008          15.6                                                   Sold at loss in auction
First Reliance Bancshares, Inc          3/6/2009          15.3                                                   Sold at loss in auction
Broadway Financial Corporation        11/14/2008          15.0                                           Exchanged for common stock
First Community Bancshares, Inc        5/15/2009          14.8                                                                      Sold
First National Corporation             3/13/2009          13.9                                                   Sold at loss in auction
Yadkin Valley Financial Corporation    7/24/2009          13.3                                                   Sold at loss in auction
SouthCrest Financial Group, Inc.       7/17/2009          12.9                                                                         
                                                                                                               Continued on next page
132         SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 9/30/2013   ($ MILLIONS) (CONTINUED)

                                            Investment       Original     Combined
      Company                                     Date   Investments    Investments               Investment Status
      Alliance Financial Services Inc.       6/26/2009         $12.0                           Sold at loss in auction
      Farmers Enterprises, Inc.              6/19/2009          12.0                           Sold at loss in auction
      The Queensborough Company               1/9/2009          12.0                           Sold at loss in auction
      Plumas Bancorp                         1/30/2009          11.9                                  Sold at auction
      First Community Corporation           11/21/2008          11.4                           Sold at loss in auction
      Western Illinois Bancshares, Inc.     12/23/2008          11.4                           Sold at loss in auction
      First Capital Bancorp, Inc.             4/3/2009          11.0                           Sold at loss in auction
      Mackinac Financial Corporation         4/24/2009          11.0                           Sold at loss in auction
      Ridgestone Financial Services, Inc.    2/27/2009          11.0                           Sold at loss in auction
      First Community Bank Corporation
                                            12/23/2008          11.0                                               Sold
      of America
      Stonebridge Financial Corp.            1/23/2009          11.0                           Sold at loss in auction
      Security State Bank Holding
                                              5/1/2009          10.8                                  Sold at auction
      Company
      Presidio Bank                         11/20/2009          10.8                           Sold at loss in auction
      Crosstown Holding Company              1/23/2009          10.7                                  Sold at auction
      Northwest Bancorporation, Inc.         2/13/2009          10.5                                  Sold at auction
      Blackhawk Bancorp, Inc.                3/13/2009          10.0                           Sold at loss in auction
      Century Financial Services
                                             6/19/2009          10.0                           Sold at loss in auction
      Corporation
      ColoEast Bankshares, Inc.              2/13/2009          10.0                                  Sold at auction
      HomeTown Bankshares Corporation        9/18/2009          10.0                           Sold at loss in auction
      Coastal Banking Company, Inc.          12/5/2008          10.0                           Sold at loss in auction
      Universal Bancorp                      5/22/2009           9.9                                  Sold at auction
      Delmar Bancorp                         12/4/2009           9.0                           Sold at loss in auction
      RCB Financial Corporation              6/19/2009           8.9                                  Sold at auction
      First Freedom Bancshares, Inc.        12/22/2009           8.7                           Sold at loss in auction
      BancStar, Inc.                          4/3/2009           8.6                           Sold at loss in auction
      First Western Financial, Inc.           2/6/2009           8.6                           Sold at loss in auction
      Commonwealth Business Bank             1/23/2009           7.7                                  Sold at auction
      Metro City Bank                        1/30/2009           7.7                           Sold at loss in auction
      Oak Ridge Financial Services, Inc.     1/30/2009           7.7                           Sold at loss in auction
      First Gothenburg Bancshares, Inc.      2/27/2009           7.6                           Sold at loss in auction
      Country Bank Shares, Inc.              1/30/2009           7.5                           Sold at loss in auction
      The Little Bank, Incorporated         12/23/2009           7.5                           Sold at loss in auction
      First Sound Bank                      12/23/2008           7.4                                               Sold
      FFW Corporation                       12/19/2008           7.3                           Sold at loss in auction
      Millennium Bancorp, Inc.                4/3/2009           7.3                                               Sold
      Central Federal Corporation            12/5/2008           7.2                                               Sold
      Community Financial Shares, Inc.       5/15/2009           7.0                                               Sold
      TriSummit Bank                          4/3/2009           7.0                           Sold at loss in auction
      Fidelity Federal Bancorp              11/13/2009           6.7                                  Sold at auction
      Alarion Financial Services, Inc.       1/23/2009           6.5                                  Sold at auction
                                                                                              Continued on next page
                                                                                 QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013              133




TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 9/30/2013                            ($ MILLIONS) (CONTINUED)

                                       Investment       Original     Combined
Company                                      Date   Investments    Investments                                        Investment Status
First Intercontinental Bank             3/13/2009          $6.4                                                            Sold at auction
Biscayne Bancshares, Inc.               6/19/2009           6.4                                                     Sold at loss in auction
Premier Financial Bancorp, Inc.         5/22/2009           6.3                                                            Sold at auction
Three Shores Bancorporation, Inc.       1/23/2009           5.7                                                     Sold at loss in auction
Boscobel Bancorp Inc.                   5/15/2009           5.6                                                            Sold at auction
Waukesha Bankshares, Inc.               6/26/2009           5.6                                                     Sold at loss in auction
First Southwest Bancorporation, Inc.     3/6/2009           5.5                                                     Sold at loss in auction
Franklin Bancorp, Inc.                  5/22/2009           5.1                                                     Sold at loss in auction
AmFirst Financial Services, Inc.        8/21/2009           5.0                                                     Sold at loss in auction
Germantown Capital Corporation           3/6/2009           5.0                                                     Sold at loss in auction
Alaska Pacific Bancshares Inc.           2/6/2009           4.8                                                     Sold at loss in auction
First Priority Financial Corp.         12/18/2009           4.6                                                     Sold at loss in auction
Virginia Company Bank                   6/12/2009           4.7                                                            Sold at auction
Community Pride Bank Corporation       11/13/2009           4.4                                                            Sold at auction
CBB Bancorp                            12/20/2009           4.4                                                     Sold at loss in auction
Pinnacle Bank Holding Company, Inc.      3/6/2009           4.4                                                     Sold at loss in auction
Bank of Southern California, N.A.       4/10/2009           4.2                                                     Sold at loss in auction
Bank of Currituck                        2/6/2009           4.0                                                                       Sold
Carolina Trust Bank                      2/6/2009           4.0                                                     Sold at loss in auction
Santa Lucia Bancorp                    12/19/2008           4.0                                                                       Sold
Capital Pacific Bancorp                12/23/2008           4.0                                                     Sold at loss in auction
Community Business Bank                 2/27/2009           4.0                                                     Sold at loss in auction
KS Bancorp Inc.                         8/21/2009           4.0                                                     Sold at loss in auction
Naples Bancorp, Inc.                    3/27/2009           4.0                                                                       Sold
Peoples of Bancshares of TN, Inc.       3/20/2009           3.9                                                     Sold at loss in auction
Pathway Bancorp                         3/27/2009           3.7                                                            Sold at auction
F & M Bancshares, Inc.                  11/6/2009           3.5                                                     Sold at loss in auction
First Alliance Bancshares, Inc.         6/26/2009           3.4                                                     Sold at loss in auction
Congaree Bancshares, Inc.                1/9/2009           3.3                                                     Sold at loss in auction
Mountain Valley Bancshares, Inc.        9/25/2009           3.3                                                            Sold at auction
Treaty Oak Bancorp, Inc.                1/16/2009           3.3                                                                       Sold
First Independence Corporation          8/28/2009           3.2                                                     Sold at loss in auction
Sound Banking Co.                        1/9/2009           3.1                                                     Sold at loss in auction
Alliance Bancshares, Inc.               6/26/2009           3.0                                                     Sold at loss in auction
Bank of Commerce                        1/16/2009           3.0                                                     Sold at loss in auction
Clover Community Bankshares, Inc.       3/27/2009           3.0                                                     Sold at loss in auction
F & C Bancorp. Inc.                     5/22/2009           3.0                                                     Sold at loss in auction
FBHC Holding Company                   12/29/2009           3.0                                                                       Sold
Fidelity Resources Company              6/26/2009           3.0                           Exchanged for preferred stock in Veritex Holding
Layton Park Financial Group, Inc.      12/18/2009           3.0                                                     Sold at loss in auction
Tennessee Valley Financial Holdings,
                                       12/23/2008           3.0                                                            Sold at auction
Inc.
                                                                                                                  Continued on next page
134           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 9/30/2013                                                                                   ($ MILLIONS) (CONTINUED)

                                                             Investment              Original           Combined
      Company                                                      Date          Investments          Investments                                                                     Investment Status
      Berkshire Bancorp                                      6/12/2009                      $2.9                                         Exchanged for preferred stock in Customers Bancorp
      Santa Clara Valley Bank, N.A.                          2/13/2009                        2.9                                                                                  Sold at loss in auction
      Omega Capital Corp.                                    4/17/2009                        2.8                                                                                            Sold at auction
      Worthington Financial Holdings, Inc.                   5/15/2009                        2.7                                                                                  Sold at loss in auction
      Community Investors Bancorp, Inc.                     12/23/2008                        2.6                                                                                  Sold at loss in auction
      Manhattan Bancshares, Inc.                             6/19/2009                        2.6                                                                                  Sold at loss in auction
      Plato Holdings Inc.                                    7/17/2009                        2.5                                                                                  Sold at loss in auction
      Brogan Bankshares, Inc.                                5/15/2009                        2.4                                                                                            Sold at auction
      CenterBank                                               5/1/2009                       2.3                                                                                  Sold at loss in auction
      Security Bancshares of Pulaski
                                                             2/13/2009                        2.2                                                                                  Sold at loss in auction
      County, Inc.
      Hometown Bancshares, Inc.                              2/13/2009                        1.9                                                                                  Sold at loss in auction
      Hyperion Bank                                            2/6/2009                       1.6                                                                                  Sold at loss in auction
      Regional Bankshares Inc.                               2/13/2009                        1.5                                                                                  Sold at loss in auction
      Desoto County Bank                                     2/13/2009                        1.2                                                                                            Sold at auction
      First Advantage Bancshares, Inc.                       5/22/2009                        1.2                                                                                  Sold at loss in auction
      Community Bancshares of MS                               2/6/2009                       1.1                                                                                  Sold at loss in auction
      BankGreenville Financial Corp.                         2/13/2009                        1.0                                                                                  Sold at loss in auction
      Bank Financial Services, Inc.                          8/14/2009                        1.0                                                                                  Sold at loss in auction
      Corning Savings and Loan
                                                             2/13/2009                        0.6                                                                                  Sold at loss in auction
      Association
      Farmers & Merchants Financial
                                                             3/20/2009                        0.4                                                                                  Sold at loss in auction
      Corporation
      Notes: Numbers may be affected due to rounding.
      a
        M&T Bank Corporation (“M&T”) has redeemed the entirety of the preferred shares issued by Wilmington Trust Corporation plus accrued dividends. In addition, M&T has also repaid Treasury’s original
         $600 million investment. On August 21, 2012, Treasury sold all of its remaining investment in M&T at par.
      b
            The new investment amount of $81.9 million includes the original investment amount in Metropolitan Bank Group, Inc. of $71.5 million plus the original investment amount in NC Bank Group, Inc. of
             $6.9 million plus unpaid dividends of $3.5 million.
      c
         The subsidiary bank of Superior Bancorp, Inc. failed on April 15, 2011. All of Treasury’s TARP investment in Superior Bancorp is expected to be lost.
      d
           The new investment amount of $122 million includes the original investment amount in BBCN Bancorp, Inc. (formerly Nara Bancorp, Inc.) of $67 million and the original investment of Center Financial
            Corporation of $55 million.
      e
          The new investment amount of $42.8 million includes the original investment amount in Crescent Financial Bancshares, Inc. (formerly Crescent Financial Corporation) of $24.9 million and the original
           investment of ECB Bancorp, Inc. of $17.9 million.

      Source: Treasury, Transactions Report, 9/30/2013.
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013         135




Treasury’s Sale of TARP Preferred Stock Investments at Auction
Overview of CPP Preferred Stock Auctions
From March 2012 through September 30, 2013, Treasury has held 20 sets of
auctions in which it has sold all of its preferred stock investments in 151 CPP
banks and part of its investment in an additional bank.399 For publicly traded banks,
Treasury auctioned the shares through a placement agent and the shares were
available for purchase by the general public. For private banks, Treasury auctioned
the shares directly and the auctions were accessible only to qualified purchasers.
The preferred stock for all but eight of the banks sold at a discounted price and
resulted in losses to Treasury.400 In the 20 auction sets, the range of discount on
the investments was 1% to 83%.401 Treasury lost a total of $703.8 million in the
auctions.402 More than a quarter of the banks, 40, bought back some of their shares
at the discounted price.403 In three sets of auctions this quarter, Treasury sold
all of its TARP preferred investment in 17 banks and part of its investment in an
additional bank.404 The three auctions this quarter accrued losses to Treasury of
$216.9 million, including the largest dollar loss on a specific bank in the history of
these auctions; Treasury lost $190.7 million in the auctioning of First Banks, Inc.405
    When Treasury sells all of its preferred shares of a CPP bank, it forfeits the
right to collect missed dividends and interest payments from the bank. Of the                 On October 9, 2012, SIGTARP made
152 banks in which Treasury sold its stock through this auction process, 48 were              three recommendations regarding
overdue on payments to Treasury.406 The $189.8 million owed to Treasury for                   CPP preferred stock auctions, which
missed payments by these 48 banks will never be recovered.407                                 are discussed in detail in SIGTARP’s
    Table 2.37 shows details for the auctions of preferred stock in CPP banks                 October 2012 Quarterly Report, pages
through September 30, 2013.                                                                   180-183.
136              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




  TABLE 2.37
      INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 9/30/2013
                                                                                                                    Percentage
                                                                                                                      of Shares
                                                                               Net                      Discount   Repurchased           Missed
      Institution                          Auction Date    Investment     Proceeds     Auction Loss   Percentage   by Institution     Dividends
      Stonebridge Financial Corp.            3/15/2013    $10,973,000    $1,879,145     $9,093,855          83%                     $1,794,180
      Centrue Financial Corporation    a
                                             9/25/2013     32,668,000     8,211,450     17,054,550          68%                      6,941,950
      First Banks, Inc.                      8/12/2013    295,400,000   104,749,295    190,650,705          65%                     68,422,025
      Old Second Bancorp, Inc.b               3/1/2013     73,000,000    25,547,320     47,452,680          65%                      9,125,000
      First Priority Financial Corp.         1/29/2013      9,175,000     4,012,094      5,162,906          56%                 
      First Intercontinental Bank            8/12/2013      6,398,000     3,222,113      3,175,887          50%                        697,400
      Citizens Bancshares Co.                1/29/2013     24,990,000    12,679,301     12,310,699          49%                      4,086,000
      First Financial Service
                                             4/29/2013     20,000,000    10,733,778      9,266,222          46%                      2,500,000
      Corporation
      Dickinson Financial Corporation II     1/29/2013    146,053,000    79,903,245     66,149,755          45%                     27,859,720
      Delmar Bancorp                         1/29/2013      9,000,000     5,453,900      3,546,100          39%                        613,125
      Virginia Company Bank                  8/12/2013      4,700,000     2,843,974      1,856,026          39%                        185,903
      Franklin Bancorp, Inc.                 11/9/2012      5,097,000     3,191,614      1,905,386          37%
      Hyperion Bank                        12/20/2012       1,552,000        983,800       568,200          37%
      First Community Financial
                                             9/12/2012     22,000,000    14,211,450      7,788,550          35%
      Partners, Inc.c
      The Baraboo Bancorporation,
                                           12/11/2012      20,749,000    13,399,227      7,349,773          35%                        565,390
      Inc.
      First Reliance Bancshares, Inc.         3/1/2013     15,349,000    10,327,021      5,021,979          33%                      1,254,720
      Security Bancshares of Pulaski
                                           12/11/2012       2,152,000     1,475,592        676,408          31%
      County, Inc.
      First Alliance Bancshares, Inc.      12/20/2012       3,422,000     2,370,742      1,051,258          31%                          93,245
      Marquette National Corporation         7/27/2012     35,500,000    25,313,186     10,186,814          29%             31%
      Parke Bancorp, Inc.                  11/30/2012      16,288,000    11,595,735      4,692,265          29%
      First Independence Corporation       12/20/2012       3,223,000     2,286,675        936,325          29%
      HMN Financial, Inc.                    1/29/2013     26,000,000    18,571,410      7,428,590          29%                      2,600,000
      Farmers Capital Bank
                                             6/13/2012     30,000,000    21,594,229      8,405,771          28%
      Corporation
      Park Bancorporation, Inc.              7/27/2012     23,200,000    16,772,382      6,427,618          28%             30%
      Diamond Bancorp, Inc.                  7/27/2012     20,445,000    14,780,662      5,664,338          28%
      Community West Bancshares            12/11/2012      15,600,000    11,181,456      4,418,544          28%                        585,000
      Commonwealth Bancshares, Inc.          7/27/2012     20,400,000    15,147,000      5,253,000          26%             26%
      Trinity Capital Corporation            7/27/2012     35,539,000    26,396,503      9,142,497          26%
      TriSummit Bank                       11/30/2012       7,002,000     5,198,984      1,803,016          26%
      Alliance Financial Services, Inc.      1/29/2013     12,000,000     8,912,495      3,087,505          26%                      3,020,400
      National Bancshares, Inc.               2/7/2013     24,664,000    18,318,148      6,345,852          26%                      3,024,383
                                                                                                                          Continued on next page
                                                                                QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013             137




INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 9/30/2013 (CONTINUED)
                                                                                                            Percentage
                                                                                                              of Shares
                                                                        Net                     Discount   Repurchased            Missed
Institution                         Auction Date    Investment     Proceeds    Auction Loss   Percentage   by Institution      Dividends
Blue Ridge Bancshares, Inc.         10/31/2012     $12,000,000    $8,969,400    $3,030,600           25%
Peoples Bancshares of TN, Inc.      10/31/2012       3,900,000     2,919,500       980,500           25%
First Trust Corporation                2/7/2013     17,969,000    13,612,558     4,356,442           24%                
Colony Bankcorp, Inc.                 1/29/2013     28,000,000    21,680,089     6,319,911           23%                     $1,400,000
F&M Financial Corporation (TN)        9/12/2012     17,243,000    13,443,074     3,799,926           22%
Layton Park Financial Group, Inc.   11/30/2012       3,000,000     2,345,930       654,070           22%
CoastalSouth Bancshares, Inc.          3/1/2013     16,015,000    12,606,191     3,408,809           21%                      1,687,900
Seacoast Banking Corporation
                                      3/28/2012     50,000,000    40,404,700     9,595,300           19%
of Florida
United Bancorp, Inc.                  6/13/2012     20,600,000    16,750,221     3,849,780           19%
Alpine Banks of Colorado              9/12/2012     70,000,000    56,430,297    13,569,703           19%
CenterBank                          10/31/2012       2,250,000     1,831,250       418,750           19%
Ridgestone Financial Services,
                                       2/7/2013     10,900,000     8,876,677     2,023,323           19%                      2,079,175
Inc.
Congaree Bancshares Inc.            10/31/2012       3,285,000     2,685,979       599,021           18%            35%
Corning Savings and Loan
                                    11/30/2012        638,000       523,680        114,320           18%
Association
KS Bancorp, Inc.                    11/30/2012       4,000,000     3,283,000       717,000           18%
DeSoto County Bank                    9/25/2013      2,681,000     2,196,896       484,104           18%            79%                 
Bank of Commerce                    11/30/2012       3,000,000     2,477,000       523,000           17%                          122,625
First Western Financial, Inc.d        7/27/2012     20,440,000    17,022,298     3,417,702           17%
Carolina Trust Bank                 11/30/2012       4,000,000     3,362,000       638,000           16%                          150,000
Presidio Bank                       12/11/2012      10,800,000     9,058,369     1,741,631           16%
Santa Clara Valley Bank, N.A.          3/1/2013      2,900,000     2,440,379       459,621           16%                          474,150
Timberland Bancorp, Inc.              11/9/2012     16,641,000    14,209,334     2,431,666           15%
Worthington Financial Holdings,
                                      6/24/2013      2,720,000     2,318,851       401,149           15%                          222,360
Inc.
First Financial Holdings Inc.         3/28/2012     65,000,000    55,926,478     9,073,522           14%
Clover Community Bankshares,
                                    11/30/2012       3,000,000     2,593,700       406,300           14%
Inc.
Banner Corporation                    3/28/2012    124,000,000   108,071,915    15,928,085           13%
LNB Bancorp Inc.                      6/13/2012     25,223,000    21,863,750     3,359,251           13%
Pulaski Financial Corp                6/27/2012     32,538,000    28,460,338     4,077,662           13%
Exchange Bank                         7/27/2012     43,000,000    37,259,393     5,740,608           13%            47%
First National Corporation            8/23/2012     13,900,000    12,082,749     1,817,251           13%
Taylor Capital Group                  6/13/2012    104,823,000    92,254,460    12,568,540           12%
Fidelity Financial Corporation        7/27/2012     36,282,000    32,013,328     4,268,672           12%            58%
                                                                                                                   Continued on next page
138             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 9/30/2013 (CONTINUED)
                                                                                                                    Percentage
                                                                                                                      of Shares
                                                                                 Net                    Discount   Repurchased           Missed
      Institution                        Auction Date    Investment         Proceeds   Auction Loss   Percentage   by Institution     Dividends
      Yadkin Valley Financial
                                           9/12/2012    $49,312,000   $43,486,820       $5,825,180          12%
      Corporatione
      Three Shores Bancorporation,
                                           11/9/2012      5,677,000     4,992,788          684,212          12%
      Inc.
      Alaska Pacific Bancshares, Inc.    11/30/2012       4,781,000     4,217,568          563,432          12%
      FC Holdings, Inc.                     2/7/2013     21,042,000    18,685,927        2,356,073          11%                     $4,013,730
      Fidelity Southern Corporation        6/27/2012     48,200,000    42,757,786        5,442,214          11%
      Southern First Bancshares, Inc.      6/27/2012     17,299,000    15,403,722        1,895,278          11%               6%
      First Citizens Banc Corp             6/27/2012     23,184,000    20,689,633        2,494,367          11%
      Market Street Bancshares, Inc.       7/27/2012     20,300,000    18,069,213        2,230,787          11%             89%
      Premier Financial Bancorp, Inc.      7/27/2012     22,252,000    19,849,222        2,402,778          11%             46%
      Metro City Bank                    10/31/2012       7,700,000     6,861,462          838,538          11%             15%
      BankGreenville Financial
                                           11/9/2012      1,000,000          891,000       109,000          11%
      Corporation
      FFW Corporation                    11/30/2012       7,289,000     6,515,426          773,574          11%
      First Advantage Bancshares, Inc.   12/11/2012       1,177,000     1,046,621          130,379          11%
      First Southwest Bancorporation,
                                           3/15/2013      5,500,000     4,900,609          599,391          11%                        974,188
      Inc.
      ColoEast Bankshares, Inc.            7/22/2013     10,000,000     8,947,125        1,052,875          11%                      1,090,000
      SouthCrest Financial Group, Inc.      3/1/2013     12,900,000    11,587,256        1,312,744          10%                      1,581,863
      WSFS Financial Corporation           3/28/2012     52,625,000    47,435,299        5,189,701          10%
      CBS Banc-Corp.                       7/27/2012     24,300,000    21,776,396        2,523,604          10%             95%
      First Gothenburg Banschares,
                                         10/31/2012       7,570,000     6,822,136          747,864          10%
      Inc.
      Blackhawk Bancorp Inc.             10/31/2012      10,000,000     9,009,000          991,000          10%
      Bank Financial Services, Inc.      12/20/2012       1,004,000          907,937        96,063          10%
      Flagstar Bancorp, Inc.               3/15/2013    266,657,000   240,627,277       26,029,723          10%                     16,666,063
      First Capital Bancorp, Inc.          6/13/2012     10,958,000     9,931,327        1,026,673           9%             50%
      BNC Bancorp                          8/23/2012     31,260,000    28,365,685        2,894,315           9%
      Germantown Capital Corporation,
                                         10/31/2012       4,967,000     4,495,616          471,384           9%             25%
      Inc.
      Oak Ridge Financial Services,
                                         10/31/2012       7,700,000     7,024,595          675,405           9%
      Inc.
      HomeTown Bankshares
                                         10/31/2012      10,000,000     9,093,150          906,850           9%
      Corporation
      First Freedom Bancshares, Inc.       11/9/2012      8,700,000     7,945,492          754,508           9%             69%
      Sound Banking Company                11/9/2012      3,070,000     2,804,089          265,911           9%
      RCB Financial Corporation            9/25/2013      8,900,000     8,073,279          826,721           9%                      1,055,520
                                                                                                                          Continued on next page
                                                                                QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013             139




INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 9/30/2013 (CONTINUED)
                                                                                                            Percentage
                                                                                                              of Shares
                                                                        Net                     Discount   Repurchased            Missed
Institution                         Auction Date    Investment     Proceeds    Auction Loss   Percentage   by Institution      Dividends
Country Bank Shares, Inc.           11/30/2012      $7,525,000    $6,838,126      $686,874            9%
Bank of Southern California, N.A.   12/20/2012       4,243,000     3,850,150       392,850            9%            30%
Farmers & Merchants Financial
                                      6/24/2013       442,000       400,425         41,575            9%                                
Corporation
Waukesha Bankshares, Inc.             1/29/2013      5,625,000     5,161,674       463,326            8%                
MainSource Financial Group, Inc.      3/28/2012     57,000,000    52,277,171     4,722,829            8%            37%
Ameris Bancorp                        6/13/2012     52,000,000    47,665,332     4,334,668            8%
Peoples Bancorp of North
                                      6/27/2012     25,054,000    23,033,635     2,020,365            8%            50%
Carolina, Inc.
Regional Bankshares, Inc.             11/9/2012      1,500,000     1,373,625       126,375            8%            47%
CBB Bancorp                         11/30/2012       4,397,000     4,066,752       330,248            8%            35%
Central Community Corporation       12/11/2012      22,000,000    20,172,636     1,827,364            8%
Carolina Bank Holdings, Inc.           2/7/2013     16,000,000    14,811,984     1,188,016            7%                
Wilshire Bancorp, Inc.                3/28/2012     62,158,000    57,766,994     4,391,006            7%            97%
Firstbank Corporation                 6/27/2012     33,000,000    30,587,530     2,412,470            7%            48%
Capital Pacific Bancorp               11/9/2012      4,000,000     3,715,906       284,094            7%
Western Illinois Bancshares, Inc.     11/9/2012     11,422,000    10,616,305       805,695            7%            89%
Community Bancshares of
                                    11/30/2012       1,050,000      977,750         72,250            7%            52%
Mississippi, Inc.
Community Business Bank             11/30/2012       3,976,000     3,692,560       283,440            7%
Hometown Bancshares, Inc.           11/30/2012       1,900,000     1,766,510       133,490            7%            39%
F & M Bancshares, Inc.                1/29/2013      8,144,000     7,598,963       545,037            7%                
Commonwealth Business Bank            7/22/2013      7,701,000     7,250,414       450,586            6%           100%      $1,049,250
Mackinac Financial Corporation        8/23/2012     11,000,000    10,380,905       619,095            6%
F & M Financial Corporation (NC)      9/12/2012     17,000,000    15,988,500     1,011,500            6%            84%
Universal Bancorp                     8/12/2013      9,900,000     9,312,028       587,972            6%                                
Community Investors Bancorp,
                                    12/20/2012       2,600,000     2,445,000       155,000            6%            54%
Inc.
Coastal Banking Company, Inc.          3/1/2013      9,950,000     9,408,213       541,787            5%                          746,250
First Defiance Financial Corp.        6/13/2012     37,000,000    35,084,144     1,915,856            5%            45%
F&C Bancorp, Inc.                     11/9/2012      2,993,000     2,840,903       152,097            5%
Farmers Enterprises, Inc.             11/9/2012     12,000,000    11,439,252       560,748            5%            99%
Alliance Bancshares, Inc.             3/15/2013      2,986,000     2,831,437       154,563            5%                
AmFirst Financial Services, Inc.      3/15/2013      5,000,000     4,752,000       248,000            5%                
United Community Banks, Inc.          3/15/2013    180,000,000   171,517,500     8,482,500            5%                
Biscayne Bancshares, Inc.            1/29/2013       6,400,000     6,170,630       229,370            4%            53%
                                                                                                                   Continued on next page
140                 SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 9/30/2013 (CONTINUED)
                                                                                                                                                                                  Percentage
                                                                                                                                                                                    of Shares
                                                                                                                Net                                          Discount            Repurchased                      Missed
      Institution                                       Auction Date              Investment               Proceeds               Auction Loss             Percentage            by Institution                Dividends
      Guaranty Federal Bancshares,
                                                           4/29/2013           $12,000,000             $11,493,900                      $506,100                         4%                                            
      Inc.f
      Intervest Bancshares Corporation                     6/24/2013             25,000,000             24,007,500                        992,500                        4%                    25% 
      Crosstown Holding Company                            7/22/2013             10,650,000             10,356,564                        293,436                        3%                                            
      NewBridge Bancorp                                    4/29/2013             52,372,000             50,837,239                     1,534,761                         3%                                            
      BancStar, Inc.                                       4/29/2013               8,600,000              8,366,452                       233,548                        3%                    12%                     
      The Queensborough Company                              3/1/2013            12,000,000             11,605,572                        394,428                        3%                                 $1,798,500
      MetroCorp Bancshares, Inc.                           6/27/2012             45,000,000             43,490,360                     1,509,640                         3%                    97%
      First Community Corporation                          8/23/2012             11,350,000             10,987,794                        362,206                        3%                    33%
      The Little Bank, Incorporated                      10/31/2012                7,500,000              7,285,410                       214,590                        3%                    63%
      Manhattan Bancshares, Inc.                         12/11/2012                2,639,000              2,560,541                        78,459                        3%                    96%
      Alarion Financial Services, Inc.                     7/22/2013               6,514,000              6,338,584                       175,416                        3%                                      532,560
      Mountain Valley Bancshares, Inc.                     7/22/2013               3,300,000              3,242,000                        58,000                        2%                    91%                     
      Century Financial Services
                                                         12/20/2012              10,000,000               9,751,500                       248,500                        2%
      Corporation
      Premier Financial Corp.                              7/22/2013               6,349,000              6,270,436                        78,564                        1%                    60%            1,597,857
      Omega Capital Corp.                                  7/22/2013               2,816,000              2,791,000                        25,000                        1%                                      575,588
      Plato Holdings Inc.                                  4/29/2013               2,500,000              2,478,750                        21,250                        1%                                      207,266
      Fidelity Federal Bancorp                             7/22/2013               6,657,000              6,586,509                        70,491                        1%                                   1,229,924
      Community Pride Bank
                                                           8/12/2013               4,400,000              4,351,151                        48,849                        1%                                      803,286
      Corporation
      Severn Bancorp, Inc.                                 9/25/2013             23,393,000             23,367,268                         25,732                        0%                                   1,754,475
      Reliance Bancshares, Inc.                            9/25/2013             40,000,000             40,196,000                      (196,000)                        0%                                   5,995,000
      Tennessee Valley Financial
                                                           4/29/2013               3,000,000              3,041,330                       (41,330)                     (1%)                                      531,375
      Holdings, Inc
      Northwest Bancorporation, Inc.                         3/1/2013            10,500,000             10,728,783                      (228,783)                      (2%)                                   1,716,750
      Brogan Bankshares, Inc.                              4/29/2013               2,400,000              2,495,024                       (95,024)                     (4%)                                      352,380
      Plumas Bancorp                                       4/29/2013             11,949,000             12,907,297                      (958,297)                      (8%)                    58%            1,792,350
      Boscobel Bancorp, Inc.                                 3/1/2013              5,586,000              6,116,943                     (530,943)                    (10%)                                    1,288,716
      Security State Bank Holding
                                                           6/24/2013             10,750,000             12,409,261                   (1,659,261)                     (15%)                                    2,254,985
      Company
      Pathway Bancorp                                      6/24/2013               3,727,000              4,324,446                     (597,446)                    (16%)                                       761,588
      Total Auction Losses                                                                                                     $703,800,353
      Total Missed Dividends                                                                                                                                                                           $189,847,115
      Notes: Numbers may not total due to rounding.
      a
         Treasury did not sell all of its shares in Centrue Financial Corporation in this auction. The bank remains in TARP and Treasury records its remaining investment as $7,402,000.
      b
             Treasury sold 70,028 of its shares in Old Second in the 3/1/2013 auction and the remaining 2,972 shares in the 3/15/2013 auction.
      c
          Treasury additionally sold 1,100 shares of its Series C stock in First Community Financial Partners, Inc. in this auction, but its largest investment in the bank was sold in the auction that closed on
           9/12/2012, and the data for the disposition of its investment is listed under the 9/12/2012 auction in this table.
      d
            Treasury sold 8,000 of its shares in First Western Financial, Inc. on 7/27/2012 and the remaining 12,440 in the 6/24/2013 auction.
      e
           This institution was auctioned separately from the other set that closed on the same date because it is a publicly traded company.
      f
        The original investment in Guaranty Federal Bancshares, Inc. was $17 million. The bank had previously paid down $5 million, leaving a $12 million investment remaining.

      Sources: Treasury, Transactions Report, 9/30/2013; SNL Financial LLC data.
                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013             141




CPP Banks Refinancing into CDCI and SBLF                                                       For a discussion of SIGTARP’s August
On October 21, 2009, the Administration announced the Community                                20, 2013, recommendation to Treasury
Development Capital Initiative (“CDCI”) as another TARP-funded program.408                     regarding the inclusion of SBLF funds
                                                                                               as TARP repayments, see Section 5 of
Under CDCI, TARP made $570.1 million in investments in 84 eligible banks and
                                                                                               this report.
credit unions.409 Qualifying CPP banks applied for the new TARP program, and 28
banks were accepted. The 28 banks refinanced $355.7 million in CPP investments
                                                                                               For information on TARP banks that
into CDCI.410 For more information on CDCI, see “Community Development                         refinanced into SBLF, see SIGTARP’s
Capital Initiative” in this section.                                                           April 9, 2013, audit report, “Banks that
     On September 27, 2010, the President signed into law the Small Business Jobs              Used the Small Business Lending Fund
Act of 2010 (“Jobs Act”), which created the non-TARP program SBLF for Treasury                 to Exit TARP.”
to make up to $30 billion in capital investments in institutions with less than $10
billion in total assets.411 According to Treasury, it received a total of 935 SBLF             For a detailed list of CPP banks that
applications, of which 320 were TARP recipients under CPP (315) or CDCI (5).412                refinanced into SBLF, see SIGTARP’s
Treasury accepted 137 CPP participants into SBLF with financing of $2.7 billion.               October 2012 Quarterly Report, pages
The 137 banks in turn refinanced $2.2 billion of Treasury’s TARP preferred stock               88-92.
with the SBLF investments.413 None of the CDCI recipients were approved for
                                                                                               For a discussion of the impact of TARP
participation.
                                                                                               and SBLF on community banks, see
                                                                                               SIGTARP’s April 2012 Quarterly report,
Warrant Disposition                                                                            pages 145-167.
As required by EESA, Treasury received warrants when it invested in troubled
assets from financial institutions, with an exception for certain small institutions.          For more information on warrant
With respect to financial institutions with publicly traded securities, these warrants         disposition, see SIGTARP’s audit report
gave Treasury the right, but not the obligation, to purchase a certain number of               of May 10, 2010, “Assessing Treasury’s
shares of common stock at a predetermined price.414 Because the warrants rise in               Process to Sell Warrants Received from
value as a company’s share price rises, they permit Treasury (and the taxpayer) to             TARP Recipients.”
benefit from a firm’s potential recovery.415
    For publicly traded institutions, the warrants received by Treasury under CPP
allowed Treasury to purchase additional shares of common stock in a number
equal to 15% of the value of the original CPP investment at a specified exercise
                                                                                               Exercise Price: Preset price at which
price.416 Treasury’s warrants constitute assets with a fair market value that
                                                                                               a warrant holder may purchase each
Treasury estimates using relevant market quotes, financial models, and/or third-
                                                                                               share. For warrants in publicly traded
party valuations.417 As of September 30, 2013, Treasury had not exercised any
                                                                                               institutions issued through CPP, this
of these warrants.418 For privately held institutions, Treasury received warrants
                                                                                               was based on the average stock price
to purchase additional preferred stock or debt in an amount equal to 5% of the
                                                                                               during the 20 days before the date
CPP investment. Treasury exercised these warrants immediately.419 Unsold and
                                                                                               that Treasury granted preliminary CPP
unexercised warrants expire 10 years from the date of the CPP investment.420 As of
                                                                                               participation approval.
September 30, 2013, Treasury had received $7.9 billion through the sale of CPP
warrants obtained by TARP recipients.421

Repurchase of Warrants by Financial Institutions
Upon repaying its CPP investment, a recipient may seek to negotiate with
Treasury to buy back its warrants. As of September 30, 2013, 156 publicly traded
institutions had bought back $3.8 billion worth of warrants, of which $8.6 million
was purchased this quarter. As of that same date, 252 privately held institutions,
the warrants of which had been immediately exercised, bought back the resulting
142   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             additional preferred shares for a total of $153.6 million, of which $36.5 million was
                                             bought back this quarter.422 Table 2.38 lists publicly traded institutions that repaid
                                             TARP and repurchased warrants in the quarter ended September 30, 2013. Table
                                             2.39 lists privately held institutions that had done so in the same quarter.423

                                             TABLE 2.38
                                              CPP WARRANT SALES AND REPURCHASES (PUBLIC) FOR THE QUARTER
                                              ENDING 9/30/2013
                                                                                                                                      Number of                  Amount of
                                                                                                                                       Warrants                 Repurchase
                                              Repurchase Date             Company                                                   Repurchased               ($Thousands)
                                              8/30/2013                   First M&F Corporation                                             513,113            $4,089,510.6
                                              8/28/2013                   Unity Bancorp, Inc.                                               764,778             2,707,314.0
                                              8/7/2013                    Heritage Oaks Bancorp                                             611,650             1,575,000.0
                                                                          Avidbank Holdings, Inc (Formerly
                                              8/28/2013                                                                                       81,670               190,781.1
                                                                          Peninsula Bank Holding Co.)
                                              7/31/2013                   Security Federal Corporation                                      137,966                  50,000.0
                                              8/30/2013                   Independent Bank Corporation                                      346,154                            0.0
                                              9/27/2013                   Anchor Bancorp Wisconsin, Inc.                                 7,399,103                             0.0
                                              Total                                                                                     9,854,434            $8,612,605.7
                                              Notes: Numbers may not total due to rounding. This table represents warrants for common stock issued to Treasury by publicly
                                              traded TARP recipients. Treasury may hold one warrant for millions of underlying shares rather than millions of warrants of an
                                              individual financial institution.

                                              Sources: Treasury, Transactions Report, 9/30/2013; Treasury, responses to SIGTARP data calls, 1/4/2011, 1/7/2011,
                                              4/6/2011, 7/8/2011, 10/7/2011, 10/11/2011, 1/11/2012, 4/5/2012, 7/9/2012, 10/12/2012, 4/12/2013, 7/11/2013, and
                                              10/10/2013.
                                                                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   143




TABLE 2.39
 CPP WARRANT SALES AND REPURCHASES (PRIVATE) FOR THE QUARTER
 ENDING 9/30/2013
                                                                                             Number of                 Amount of
                                                                                              Warrants                Repurchase
 Repurchase Date              Company                                                      Repurchased              ($Thousands)
 8/12/2013                    First Banks, Inc.                                               14,770,000                  $14,770.0
                              New York Private Bank & Trust Corp. /
7/24/2013                                                                                     13,364,000                    13,364.0
                              Emigrant Bank
9/25/2013                     Reliance Bancshares, Inc.                                         2,000,000                    2,000.0
8/14/2013                     Florida Bank Group, Inc.                                          1,024,000                    1,024.0
9/18/2013                     PeoplesSouth Bancshares, Inc.                                       616,000                       616.0
                              Crosstown Holding Company/21st
7/22/2013                                                                                         533,000                       533.0
                              Century Bank
8/12/2013                     Universal Bancorp/Bloomfield State Bank                             495,000                       495.0
7/17/2013                     Commonwealth Business Bank                                          385,000                       385.0
8/30/2013                     BNB Financial Services Corporation                                  375,000                       375.0
7/22/2013                     Alarion Financial Services, Inc.                                    326,000                       326.0
8/12/2013                     First Intercontinental Bank                                         320,000                       320.0
7/22/2013                     Premier Financial Corpa                                             317,000                       317.0
9/30/2013                     Randolph Bank & Trust Company                                       311,000                       311.0
                              RCB Financial Corporation (River City
9/25/2013                                                                                         268,000                       268.0
                              Bank)
7/22/2013                     Fidelity Federal Bancorp                                            200,000                       200.0
                              Todd Bancshares, Inc. / United Southern
9/25/2013                                                                                         200,000                       200.0
                              Bank
7/22/2013                     Mountain Valley Bancshares, Inc.                                    165,000                       165.0
8/28/2013                     Hometown Bancorp of Alabama, Inc.                                   163,000                       163.0
8/12/2013                     Virginia Company Bank                                               143,000                       143.0
7/22/2013                     Omega Capital Corp./Front Range Bank                                141,000                       141.0
8/12/2013                     Community Pride Bank Corporationa                                   132,000                       132.0
9/25/2013                     Ojai Community Bank                                                 104,000                       104.0
7/10/2013                     Vision Bank - Texas                                                   75,000                        75.0
9/25/2013                     DeSoto County Bank                                                    59,000                        59.0
7/22/2013                     ColoEast Bankshares, Inc.                                             50,000                        50.0
Total                                                                                       36,536,000                   $36,536.0
 Notes: Numbers may not total due to rounding. This table represents the preferred shares held by Treasury as a result of the exercise
 of warrants issued by non-publicly traded TARP recipients. These warrants were exercised immediately upon the transaction date.
 Treasury may hold one warrant for millions of underlying shares rather than millions of warrants of an individual financial institution.
 a
   S-Corporation Institution: issued subordinated debt instead of preferred stock.

 Sources: Treasury, Transactions Report, 9/30/2013; Treasury, response to SIGTARP data call, 10/10/2013.
144   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Treasury Warrant Auctions
                                             If Treasury and the repaying institution cannot agree upon the price for the
                                             institution to repurchase its warrants, Treasury may conduct a public or private
                                             offering to auction the warrants.424 As of September 30, 2013, the combined
                                             proceeds from Treasury’s public and private warrant auctions totaled $5.5 billion.425

                                             Public Warrant Auctions
                                             In November 2009, Treasury began selling warrants via public auctions.426
                                             Through September 30, 2013, Treasury had held 26 public auctions for warrants it
                                             received under CPP, TIP, and AGP, raising a total of approximately $5.4 billion.427
                                             Treasury did not conduct any public warrant auctions this quarter.428 Final closing
                                             information for all public warrant auctions is shown in Table 2.40.
                                                                                                                     QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                             145

TABLE 2.40
 PUBLIC TREASURY WARRANT AUCTIONS, AS OF 9/30/2013
                                                                                                        Number of            Minimum                Selling      Proceeds to Treasury
 Auction Date                   Company                                                            Warrants Offered          Bid Price               Price                ($ Millions)
                                Bank of America A Auction (TIP)a                                          150,375,940             $7.00              $8.35                        $1,255.6
 3/3/2010
                                Bank of America B Auction (CPP)             a
                                                                                                          121,792,790               1.50               2.55                           310.6

 12/10/2009                     JPMorgan Chase                                                             88,401,697               8.00             10.75                            950.3

 5/20/2010                      Wells Fargo and Company                                                   110,261,688               6.50               7.70                           849.0
 9/21/2010                      Hartford Financial Service Group, Inc.                                     52,093,973             10.50              13.70                            713.7
 4/29/2010                      PNC Financial Services Group, Inc.                                         16,885,192             15.00              19.20                            324.2
                                Citigroup A Auction (TIP & AGP)         a
                                                                                                          255,033,142               0.60               1.01                           257.6
 1/25/2011
                                Citigroup B Auction (CPP)a                                                210,084,034               0.15               0.26                             54.6
 9/16/2010                      Lincoln National Corporation                                               13,049,451             13.50              16.60                            216.6
 5/6/2010                       Comerica Inc.                                                              11,479,592             15.00              16.00                            183.7
 12/3/2009                      Capital One                                                                12,657,960               7.50             11.75                            148.7
 11/29/2012                     M&T Bank Corporation                                                         1,218,522            23.50                1.35                             32.3
 2/8/2011                       Wintrust Financial Corporation                                               1,643,295            13.50              15.80                              26.0
 6/2/2011                       Webster Financial Corporation                                                3,282,276              5.50               6.30                             20.4
                                SunTrust A Auctionb                                                          6,008,902              2.00               2.70                             16.2
 9/22/2011
                                SunTrust B Auctionb                                                        11,891,280               1.05               1.20                             14.2
 3/9/2010                       Washington Federal, Inc.                                                     1,707,456              5.00               5.00                             15.6
 3/10/2010                      Signature Bank                                                                  595,829           16.00              19.00                              11.3
 12/15/2009                     TCF Financial                                                                3,199,988              1.50               3.00                               9.6
 12/5/2012                      Zions Bancorporation                                                         5,789,909            23.50              26.50                                7.8
 3/11/2010                      Texas Capital Bancshares, Inc.                                                  758,086             6.50               6.50                               6.7
 2/1/2011                       Boston Private Financial Holdings, Inc.                                      2,887,500              1.40               2.20                               6.4
 5/18/2010                      Valley National Bancorp                                                      2,532,542              1.70               2.20                               5.6
 11/30/2011                     Associated Banc-Corpc                                                        3,983,308              0.50               0.90                               3.6
 6/2/2010                       First Financial Bancorp                                                         465,117             4.00               6.70                               3.1
 6/9/2010                       Sterling Bancshares Inc.                                                     2,615,557              0.85               1.15                               3.0
 Total                                                                                               1,090,695,026                                                               $5,446.4
 Notes: Numbers may not total due to rounding.
 a
   Treasury held two auctions each for the sale of Bank of America and Citigroup warrants.
 b
   Treasury held two auctions for SunTrust’s two CPP investments dated 11/14/2008 (B auction) and 12/31/2008 (A auction).
 c
   According to Treasury, the auction grossed $3.6 million and netted $3.4 million.

 Sources: The PNC Financial Services Group, Inc., “Final Prospectus Supplement,” 4/29/2010, www.sec.gov/Archives/edgar/data/713676/000119312510101032/d424b5.htm, accessed
 10/1/2013; Valley National Bancorp, “Final Prospectus Supplement,” 5/18/2010, www.sec.gov/Archives/edgar/data/714310/000119312510123896/d424b5.htm, accessed 10/1/2013; Comerica
 Incorporated, “Final Prospectus Supplement,” 5/6/2010, www.sec.gov/Archives/edgar/data/28412/000119312510112107/d424b5.htm, accessed 10/1/2013; Wells Fargo and Company, “Definitive
 Prospectus Supplement,” 5/20/2010, www.sec.gov/Archives/edgar/data/72971/000119312510126208/d424b5.htm, accessed 10/1/2013; First Financial Bancorp, “Prospectus Supplement,”
 6/2/2010, www.sec.gov/Archives/edgar/data/708955/000114420410031630/v187278_424b5.htm, accessed 10/1/2013; Sterling Bancshares, Inc., “Prospectus Supplement,” 6/9/2010,
 www.sec.gov/Archives/edgar/data/891098/000119312510136584/dfwp.htm, accessed 10/1/2013; Signature Bank, “Prospectus Supplement,” 3/10/2010, files.shareholder.com/downloads/
 SBNY/1456015611x0x358381/E87182B5-A552-43DD-9499-8B56F79AEFD0/8-K__Reg_FD_Offering_Circular.pdf, accessed 10/1/2013; Texas Capital Bancshares, Inc., “Prospectus Supplement,”
 3/11/2010, www.sec.gov/Archives/edgar/data/1077428/000095012310023800/d71405ae424b5.htm, accessed 10/1/2013; Bank of America, “Form 8-K,” 3/3/2010, www.sec.gov/Archives/edgar/
 data/70858/000119312510051260/d8k.htm, accessed 10/1/2013; Bank of America, “Prospectus Supplement,” 3/1/2010, www.sec.gov/Archives/edgar/data/70858/000119312510045775/
 d424b2.htm, accessed 10/1/2013; Washington Federal, Inc., “Prospectus Supplement,” 3/9/2010, www.sec.gov/Archives/edgar/data/936528/000119312510052062/d424b5.htm, accessed
 10/1/2013; TCF Financial, “Prospectus Supplement,” 12/16/2009, www.sec.gov/Archives/edgar/data/814184/000104746909010786/a2195869z424b5.htm, accessed 10/1/2013; JPMorgan
 Chase, “Prospectus Supplement,” 12/11/2009, www.sec.gov/Archives/edgar/data/19617/000119312509251466/d424b5.htm, accessed 10/1/2013; Capital One Financial, “Prospectus Supplement,”
 12/3/2009, www.sec.gov/Archives/edgar/data/927628/000119312509247252/d424b5.htm, accessed 10/1/2013; Treasury, Transactions Report, 9/30/2013; Hartford Financial Services Group,
 Prospectus Supplement to Prospectus filed with the SEC 8/4/2010, www.sec.gov/Archives/edgar/data/874766/000095012310087985/y86606b5e424b5.htm, accessed 10/1/2013; Treasury,
 “Treasury Announces Pricing of Public Offering to Purchase Common Stock of The Hartford Financial Services Group, Inc.,” 9/22/2010, www.treasury.gov/press-center/press-releases/Pages/tg865.
 aspx, accessed 10/1/2013; Lincoln National Corporation, Prospectus Supplement to Prospectus filed with SEC 3/10/2009, www.sec.gov/Archives/edgar/data/59558/000119312510211941/
 d424b5.htm, accessed 10/1/2013; Lincoln National Corporation, 8-K, 9/22/2010, www.sec.gov/Archives/edgar/data/59558/000119312510214540/d8k.htm, accessed 10/1/2013; Treasury,
 Section 105(a) Report, 1/31/2011; Treasury, “Treasury Announces Public Offerings of Warrants to Purchase Common Stock of Citigroup Inc.,” 1/24/2011, www.treasury.gov/press-center/press-
 releases/Pages/tg1033.aspx, accessed 10/1/2013; Citigroup, Prospectus, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed
 10/1/2013; Citigroup, Prospectus, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed 10/1/2013; Boston Private Financial Holdings,
 Inc., Prospectus, 1/28/2011, www.sec.gov/Archives/edgar/data/821127/000119312511021392/d424b5.htm, accessed 10/1/2013; Boston Private Financial Holdings, Inc. 8-K, 2/7/2011, www.
 sec.gov/Archives/edgar/data/821127/000144530511000189/tarpwarrant020711.htm, accessed 10/1/2013; Wintrust Financial Corporation, Prospectus, 2/8/2011, www.sec.gov/Archives/edgar/
 data/1015328/000095012311011007/c62806b5e424b5.htm, accessed 10/1/2013; Treasury, Section 105(a) Report, 1/31/2011; Treasury, “Treasury Announces Public Offerings of Warrants to
 Purchase Common Stock of Citigroup Inc.,” 1/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1033.aspx, accessed 10/1/2013; Treasury, Citigroup Preliminary Prospectus – CPP
 Warrants, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004666/y89178b7e424b7.htm, accessed 10/1/2013; Citigroup, Preliminary Prospectus – TIP & AGP Warrants,
 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed 10/1/2013; Treasury, responses to SIGTARP data call, 4/6/2011, 7/14/2011,
 10/5/2011, 10/11/2011, and 1/11/2012; Treasury Press Release, “Treasury Department Announces Public Offerings of Warrants to Purchase Common Stock of SunTrust Banks, Inc.,” 9/21/2011,
 www.treasury.gov/press-center/press-releases/Pages/tg1300.aspx, accessed 10/1/2013; “Treasury Department Announces Public Offering of Warrants to Purchase Common Stock of Associated
 Banc-Corp,” 11/29/2011, www.treasury.gov/press-center/press-releases/Pages/tg1372.aspx, accessed 10/1/2013; Treasury, “Treasury Department Announces Public Offering of Warrant to Purchase
 Common Stock of M&T Bank Corporation,” 12/10/2012, www.treasury.gov/press-center/press-releases/Pages/tg1793.aspx, accessed 10/1/2013; Treasury, “Treasury Department Announces Public
 Offering of Warrants to Purchase Common Stock of Zions Bancorporation,” 11/28/2012, www.treasury.gov/press-center/press-releases/Pages/tg1782.aspx, accessed 10/1/2013.
146            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      Private Warrant Auctions
      Qualified Institutional Buyers (“QIB”):         On November 17, 2011, Treasury conducted a private auction to sell the warrants
      Institutions that under U.S. securities         of 17 CPP institutions for $12.7 million.429 On June 6, 2013, it conducted a second
      law are permitted to buy securities             private auction to sell the warrants of 16 banks for $13.9 million.430 Details from
      that are exempt from registration               both auctions are listed in Table 2.41. Treasury stated that private auctions were
      under investor protection laws and              necessary because the warrants did not meet the listing requirements for the major
      to resell those securities to other             exchanges, it would be more cost-effective for these smaller institutions, and that
      QIBs. Generally these institutions own          grouping the warrants of several institutions in a single auction would raise investor
      and invest at least $100 million in             interest in the warrants.431 The warrants were not registered under the Securities
      securities, or are registered broker-           Act of 1933 (the “Act”). As a result, Treasury stated that the warrants were offered
      dealers that own or invest at least $10         only in private transactions to “(1) ‘qualified institutional buyers’ as defined in
      million in securities.                          Rule 144A under the Act, (2) the issuer, and (3) a limited number of ‘accredited
                                                      investors’ affiliated with the issuer.”432
      Accredited Investors: Individuals or
      institutions that by law are considered
      financially sophisticated enough so
      that they can invest in ventures that
      are exempt from investor protection
      laws. Under U.S. securities laws, these
      include many financial companies,
      pension plans, wealthy individuals,
      and top executives or directors of the
      issuing companies.
                                                                                                                     QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   147




TABLE 2.41
 PRIVATE TREASURY WARRANT AUCTIONS AS OF 9/30/2013
                                                                                   Number of                   Proceeds to
 Date                       Company                                           Warrants Offered                    Treasury
 11/17/2011                 Eagle Bancorp, Inc.                                            385,434               $2,794,422
 11/17/2011                 Horizon Bancorp                                                212,188                1,750,551
 11/17/2011                 Bank of Marin Bancorp                                          154,908                1,703,984
 11/17/2011                 First Bancorp (of North Carolina)                              616,308                   924,462
 11/17/2011                 Westamerica Bancorporation                                     246,698                   878,256
 11/17/2011                 Lakeland Financial Corp                                        198,269                   877,557
 11/17/2011                 F.N.B. Corporation                                             651,042                   690,100
 11/17/2011                 Encore Bancshares                                              364,026                   637,071
 11/17/2011                 LCNB Corporation                                               217,063                   602,557
 11/17/2011                 Western Alliance Bancorporation                                787,107                   415,000
 11/17/2011                 First Merchants Corporation                                    991,453                   367,500
 11/17/2011                 1st Constitution Bancorp                                       231,782                   326,576
 11/17/2011                 Middleburg Financial Corporation                               104,101                   301,001
 11/17/2011                 MidSouth Bancorp, Inc.                                         104,384                   206,557
 11/17/2011                 CoBiz Financial Inc.                                           895,968                   143,677
 11/17/2011                 First Busey Corporation                                        573,833                     63,677
 11/17/2011                 First Community Bancshares, Inc.                                88,273                     30,600
 6/6/2013                   Banner Corporation                                             243,998                   134,201
 6/6/2013                   Carolina Trust Bank                                             86,957                     19,132
 6/6/2013                   Central Pacific Financial Corp.                                  79,288                  751,888
 6/6/2013                   Colony Bankcorp, Inc.                                          500,000                   810,000
 6/6/2013                   Community West Bancshares                                      521,158                   698,351
 6/6/2013                   Flagstar Bancorp, Inc.                                         645,138                     12,905
 6/6/2013                   Heritage Commerce Corp                                         462,963                   140,000
                            International Bancshares
 6/6/2013                                                                               1,326,238                 4,018,511
                            Corporation
 6/6/2013                   Mainsource Financial Group, Inc.                               571,906                1,512,177
 6/6/2013                   Metrocorp Bancshares, Inc.                                     771,429                2,087,368
 6/6/2013                   Old Second Bancorp, Inc.                                       815,339                   106,891
 6/6/2013                   Parke Bancorp, Inc.                                            438,906                1,650,288
 6/6/2013                   S&T Bancorp, Inc.                                              517,012                   527,361
 6/6/2013                   Timberland Bancorp, Inc.                                       370,899                1,301,856
 6/6/2013                   United Community Banks, Inc.                                   219,908                       6,677
 6/6/2013                   Yadkin Financial Corporation                                    91,178                     55,677
 6/6/2013                   Yadkin Financial Corporation                                   128,663                     20,000
 Total                                                                               14,534,529              $26,566,831
 Sources: “Treasury Announces Completion of Private Auction to Sell Warrant Positions,” 11/18/2011, www.treasury.gov/press-
 center/press-releases/Pages/tg1365.aspx, accessed 10/1/2013; “Treasury Completes Auction to Sell Warrants Positions,”
 6/6/2013, www.treasury.gov/press-center/press-releases/Pages/jl1972.aspx, accessed 10/1/2013.
148             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                       Community Development Capital Initiative
                                                       The Administration announced the Community Development Capital Initiative
                                                       (“CDCI”) on October 21, 2009. According to Treasury, the program was intended
      Community Development Financial
                                                       to help small businesses obtain credit.433 Under CDCI, TARP made $570.1
      Institutions (“CDFIs”): Financial
                                                       million in investments in the preferred stock or subordinated debt of 84 eligible
      institutions eligible for Treasury funding
                                                       banks, bank holding companies, thrifts, and credit unions certified as Community
      to serve urban and rural low-income
                                                       Development Financial Institutions (“CDFIs”) by Treasury. According to Treasury,
      communities through the CDFI Fund.
                                                       these lower-cost capital investments were intended to strengthen the capital base
      CDFIs were created in 1994 by the
                                                       of CDFIs and enable them to make more loans in low and moderate-income
      Riegle Community Development and
                                                       communities.434 CDCI was open to certified, qualifying CDFIs or financial
      Regulatory Improvement Act.
                                                       institutions that applied for CDFI status by April 30, 2010.435
                                                           According to Treasury, CPP-participating CDFIs that were in good standing
                                                       could exchange their CPP investments for CDCI investments.436 CDCI closed to
                                                       new investments on September 30, 2010.437
                                                           Treasury invested $570.1 million in 84 institutions under the program — 36
                                                       banks or bank holding companies and 48 credit unions.438 Of the 36 investments
                                                       in banks and bank holding companies, 28 were conversions from CPP (represent-
                                                       ing $363.3 million of the total $570.1 million); the remaining eight were not CPP
                                                       participants. Treasury provided an additional $100.7 million in CDCI funds to 10
                                                       of the banks converting CPP investments. Only $106 million of the total CDCI
                                                       funds went to institutions that were not in CPP.

                                                       Status of Funds
                                                       As of September 30, 2013, 71 institutions remained in CDCI. Twelve institutions,
                                                       including two this quarter, have fully repaid Treasury and have exited CDCI. One
                                                       institution has partially repaid and remains in the program. Premier Bancorp, Inc.,
                                                       Wilmette, Illinois, previously had its subsidiary bank fail and thus almost all of
                                                       Treasury’s $6.8 million investment was lost, with $79,900 being paid to Treasury as
                                                       a result of the liquidation of the institution.439
                                                            As of September 30, 2013, taxpayers were still owed $481.5 million related to
                                                       CDCI.440 According to Treasury, it had realized losses of $6.7 million in the pro-
                                                       gram that will never be recovered, leaving $474.8 million outstanding.441 According
                                                       to Treasury, $88.6 million of the CDCI principal (or 16%) had been repaid as of
                                                       September 30, 2013.442 As of September 30, 2013, Treasury had received approxi-
                                                       mately $33.2 million in dividends and interest from CDCI recipients.443 Table 2.42
                                                       lists the current status of all CDCI investments as of September 30, 2013.
                                                                       QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   149




TABLE 2.42
 CDCI INVESTMENT SUMMARY, AS OF 9/30/2013
                                              Amount      Additional         Total CDCI
 Institution                                from CPP     Investment         Investment
Institutions Remaining in CDCI
BancPlus Corporation                      $50,400,000   $30,514,000        $80,914,000
Community Bancshares of
                                           54,600,000                       54,600,000
Mississippi, Inc.
Southern Bancorp, Inc.                     11,000,000    22,800,000         33,800,000
Security Federal Corporation               18,000,000     4,000,000         22,000,000
Carver Bancorp, Inc                        18,980,000                       18,980,000
Security Capital Corporation               17,910,000                       17,910,000
The First Bancshares, Inc.                  5,000,000    12,123,000         17,123,000
First American International Corp.         17,000,000                       17,000,000
State Capital Corporation                  15,750,000                       15,750,000
Guaranty Capital Corporation               14,000,000                       14,000,000
Citizens Bancshares Corporation             7,462,000     4,379,000         11,841,000
M&F Bancorp, Inc.                          11,735,000                       11,735,000
Liberty Financial Services, Inc.            5,645,000     5,689,000         11,334,000
Mission Valley Bancorp                      5,500,000     4,836,000         10,336,000
United Bancorporation of Alabama, Inc.     10,300,000                       10,300,000
IBC Bancorp, Inc.                           4,205,000     3,881,000          8,086,000
Fairfax County Federal Credit Union                                          8,044,000
The Magnolia State Corporation                                               7,922,000
First Eagle Bancshares, Inc.                7,875,000                        7,875,000
Carter Federal Credit Union*                                                 6,300,000
First Vernon Bancshares, Inc.               6,245,000                        6,245,000
IBW Financial Corporation                   6,000,000                        6,000,000
CFBanc Corporation                                                           5,781,000
American Bancorp of Illinois, Inc.                                           5,457,000
BankAsiana                                                                   5,250,000
Lafayette Bancorp, Inc.                     4,551,000                        4,551,000
Hope Federal Credit Union                                                    4,520,000
Community Bank of the Bay                   1,747,000     2,313,000          4,060,000
Bainbridge Bancshares, Inc.                                                  3,372,000
Border Federal Credit Union                                                  3,260,000
Kilmichael Bancorp, Inc.                                                     3,154,000
PGB Holdings, Inc.                          3,000,000                        3,000,000
Santa Cruz Community Credit Union                                            2,828,000
Cooperative Center Federal Credit Union                                      2,799,000
                                                                  Continued on next page
150   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                     CDCI INVESTMENT SUMMARY, AS OF 9/30/2013            (CONTINUED)

                                                                                    Amount              Additional         Total CDCI
                                     Institution                                  from CPP             Investment         Investment
                                     Institutions Remaining in CDCI
                                     Tri-State Bank of Memphis                   $2,795,000                               $2,795,000
                                     Community First Guam Federal
                                                                                                                           2,650,000
                                     Credit Union
                                     Shreveport Federal Credit Union                                                       2,646,000
                                     Pyramid Federal Credit Union                                                          2,500,000
                                     Alternatives Federal Credit Union                                                     2,234,000
                                     Virginia Community Capital, Inc.                                                      1,915,000
                                     Southern Chautauqua Federal Credit Union                                              1,709,000
                                     Tongass Federal Credit Union                                                          1,600,000
                                     D.C. Federal Credit Union                                                             1,522,000
                                     Vigo County Federal Credit Union                                                      1,229,000
                                     Southside Credit Union                                                                1,100,000
                                     Opportunities Credit Union                                                            1,091,000
                                     Butte Federal Credit Union                                                            1,000,000
                                     First Legacy Community Credit Union                                                   1,000,000
                                     Lower East Side People’s Federal
                                                                                                                             898,000
                                     Credit Union
                                     Independent Employers Group Federal
                                                                                                                             698,000
                                     Credit Union
                                     Bethex Federal Credit Union                                                             502,000
                                     Community Plus Federal Credit Union                                                     450,000
                                     Liberty County Teachers Federal
                                                                                                                             435,000
                                     Credit Union
                                     Tulane-Loyola Federal Credit Union                                                      424,000
                                     Northeast Community Federal
                                                                                                                             350,000
                                     Credit Union
                                     North Side Community Federal
                                                                                                                             325,000
                                     Credit Union
                                     Genesee Co-op Federal Credit Union                                                      300,000
                                     Brooklyn Cooperative Federal Credit Union                                               300,000
                                     Union Settlement Federal Credit Union                                                   295,000
                                     Neighborhood Trust Federal Credit Union                                                 283,000
                                     Prince Kuhio Federal Credit Union                                                       273,000
                                     Phenix Pride Federal Credit Union                                                       153,000
                                     Buffalo Cooperative Federal Credit Union                                                145,000
                                     Hill District Federal Credit Union                                                      100,000
                                     Episcopal Community Federal
                                                                                                                             100,000
                                     Credit Union
                                                                                                                Continued on next page
                                                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   151




CDCI INVESTMENT SUMMARY, AS OF 9/30/2013                                      (CONTINUED)

                                                                          Amount             Additional         Total CDCI
Institution                                                             from CPP            Investment         Investment
Institutions Remaining in CDCI
Thurston Union of Low-Income People
                                                                                                                  $75,000
(TULIP) Cooperative Credit Union
Renaissance Community Development
                                                                                                                   31,000
Credit Union
Faith Based Federal Credit Union                                                                                   30,000
Fidelis Federal Credit Union                                                                                       14,000
Union Baptist Church Federal Credit Union                                                                          10,000
East End Baptist Tabernacle Federal
                                                                                                                    7,000
Credit Union
Total                                                           $299,700,000          $90,535,000          $477,316,000
Institutions Fully Repaid                                                                                                
First M&F Corporation                                                $30,000,000                             $30,000,000
University Financial Corp, Inc.                                       11,926,000       $10,189,000             22,115,000
PSB Financial Corporation                                              9,734,000                                9,734,000
Freedom First Federal Credit Union                                                                              9,278,000
First Choice Bank                                                      5,146,000                                5,146,000
Bancorp of Okolona, Inc.                                                                                        3,297,000
Atlantic City Federal Credit Union                                                                              2,500,000
Gateway Community Federal Credit Union                                                                          1,657,000
Brewery Credit Union                                                                                            1,096,000
UNO Federal Credit Union                                                                                          743,000
Greater Kinston Credit Union                                                                                      350,000
UNITEHERE Federal Credit Union (Workers
                                                                                                                   57,000
United Federal Credit Union)
Total                                                                $56,806,000      $10,189,000           $85,973,000
Bankrupt or with Failed Subsidiary Banks                                                                                 
Premier Bancorp, Inc.                                                 $6,784,000                               $6,784,000
Total                                                                 $6,784,000                              $6,784,000
Overall Total                                                   $363,290,000         $100,724,000          $570,073,000
Notes: Numbers may not total due to rounding.

* Institution has made a partial payment on Treasury’s investment.

Source: Treasury, Transactions Report, 9/30/2013.
152            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      On September 30, 2013, SIGTARP                  Missed Dividends
      made a recommendation regarding the             As of September 30, 2013, three institutions still in CDCI had unpaid dividend
      appointment of directors of the boards          or interest payments to Treasury totaling $513,775.444 As a result of a bankrupt
      of CDCI banks, which is discussed in
                                                      institution that exited CDCI without remitting its interest payments, the total value
      Section 5 of this report.
                                                      of all missed payments equals $830,399. Treasury has the right to appoint two
                                                      directors to the board of directors of institutions that have missed eight dividends
                                                      and interest payments, whether consecutive or nonconsecutive.445 As of September
                                                      30, 2013, Treasury had not appointed directors to the board of any CDCI
                                                      institution.446 Table 2.43 lists CDCI institutions that are not current on dividend or
                                                      interest payments.
                                                      TABLE 2.43
                                                       CDCI-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF
                                                       9/30/2013
                                                                                                   Dividend or                Number of Missed   Value of Missed
                                                       Institution                                 Payment Type                      Payments          Payments
                                                       First Vernon Bancshares, Inc.               Cumulative                              11          $343,475
                                                       PGB Holdings, Inc.                          Cumulative                              10           150,000
                                                       Premier Bancorp, Inc.*                      Interest                                 6           316,624
                                                       Community Bank of the Bay                   Non-Cumulative                           1            20,300
                                                       Total                                                                                          $830,399
                                                       Notes: Numbers may not total due to rounding.

                                                       * On 3/23/2012, the subsidiary bank of Premier Bancorp, Inc. failed.

      Risk-Weighted Assets: Risk-based                 Source: Treasury, Dividends and Interest Report, 10/10/2013.

      measure of total assets held by
      a financial institution. Assets are             Terms for Senior Securities and Dividends
      assigned broad risk categories. The             An eligible bank, bank holding company, or thrift could apply to receive capital in
      amount in each risk category is then            an amount up to 5% of its risk-weighted assets. A credit union (which is a member-
      multiplied by a risk factor associated          owned, nonprofit financial institution with a capital and governance structure
      with that category. The sum of the              different from that of for-profit banks) could apply for Government funding of
      resulting weighted values from each of          up to 3.5% of its total assets — roughly equivalent to the 5% of risk-weighted
      the risk categories is the bank’s total         assets for banks.447 Participating credit unions and Subchapter S corporations
      risk-weighted assets.                           (“S corporations”) issued subordinated debt to Treasury in lieu of the preferred
                                                      stock issued by other CDFI participants.448 Many CDFI investments have an
      Subchapter S Corporations (“S                   initial dividend rate of 2%, which increases to 9% after eight years. Participating
      corporations”): Corporate form that             S corporations pay an initial rate of 3.1%, which increases to 13.8% after eight
      passes corporate income, losses,                years.449 A CDFI participating in CPP had the opportunity to request to convert
      deductions, and credit through to               those shares into CDCI shares, thereby reducing the annual dividend rate it pays
      shareholders for Federal tax purposes.          the Government from 5% to as low as 2%.450 According to Treasury, CDFIs were
      Shareholders of S corporations report           not required to issue warrants because of the de minimis exception in EESA, which
      the flow-through of income and losses           grants Treasury the authority to waive the warrant requirement for qualifying
      on their personal tax returns and are           institutions in which Treasury invested $100 million or less.
      taxed at their individual income tax                If during the application process a CDFI’s primary regulator deemed it to be un-
      rates.                                          dercapitalized or to have “quality of capital issues,” the CDFI had the opportunity
                                                      to raise private capital to achieve adequate capital levels. Treasury would match the
                                                                                 QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   153




private capital raised on a dollar-for-dollar basis, up to a total of 5% of the financial
institution’s risk-weighted assets. In such cases, private investors had to agree to
assume any losses before Treasury.451
154            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      Systemically Significant Failing Institutions Program
                                                      According to Treasury, the Systemically Significant Failing Institutions (“SSFI”)
                                                      program was established to “provide stability and prevent disruptions to financial
                                                      markets from the failure of a systemically significant institution.”452 Through
                                                      SSFI, between November 2008 and April 2009, Treasury invested $67.8 billion
                                                      in TARP funds in American International Group, Inc. (“AIG”), the program’s sole
                                                      participant.453 AIG also received bailout funding from the Federal Reserve Bank of
                                                      New York (“FRBNY”). Combined, Treasury and FRBNY committed $182 billion to
                                                      bail out AIG, of which $161 billion was disbursed.454
                                                          AIG has repaid the amounts owed to both Treasury and FRBNY. Treasury’s
                                                      investment in AIG ended on March 1, 2013, with the sale of its AIG stock
                                                      warrants.455
                                                          In July 2013, the Financial Stability Oversight Council (“FSOC”) designated
                                                      AIG as a systemically important nonbank financial company under Dodd-Frank,
                                                      thereby subjecting AIG to enhanced prudential standards and to consolidated
                                                      supervision by the Board of Governors of the Federal Reserve System (“Federal
                                                      Reserve”).456 According to FSOC, “Because of AIG’s size and interconnectedness,
                                                      certain characteristics of its liabilities and products, the potential effects of a rapid
                                                      liquidation of its assets, potential challenges with resolvability, as well as other
                                                      factors … material financial distress at AIG could cause an impairment of financial
                                                      intermediation or of financial market functioning that would be sufficiently severe
      For more on SIGTARP’s September                 to inflict significant damage on the broader economy.”457 Under Dodd-Frank,
      2012 recommendation to Treasury and             enhanced prudential standards will require AIG to, among other things: (i) meet
      the Federal Reserve regarding AIG’s             enhanced liquidity and capital standards; (ii) undergo and report periodic stress
      designation as a systemically important
                                                      tests; (iii) adopt enhanced risk-management processes; and (iv) submit a “living
      financial institution, see SIGTARP’s July
                                                      will” resolution plan to be used in the event AIG faces material financial distress or
      2013 Quarterly Report, pages 201-203.
                                                      fails.458
                                                          Prior to the TARP bailout, AIG received bailout funding from FRBNY, which
                                                      eventually committed $35 billion in loans in a revolving credit facility; another
      Special Purpose Vehicle (“SPV”):                $52.5 billion in loans to create two special purpose vehicles (“SPV”), Maiden
      A legal entity, often off-balance-              Lane II and Maiden Lane III, to take mortgage-backed securities and credit
      sheet, that holds transferred assets            default swaps off AIG’s books; and a $25 billion investment for which FRBNY
      presumptively beyond the reach of the           acquired preferred interests in two other SPVs that housed certain AIG insurance
      entities providing the assets, and that         businesses.459 In January 2011, FRBNY and Treasury restructured their agreements
      is legally isolated from its sponsor or         with AIG to use additional TARP funds and AIG funds to pay off amounts owed
      parent company.                                 to FRBNY and transfer FRBNY’s common stock and its interests in the insurance-
                                                      related SPVs to Treasury.
                                                          According to Treasury, in addition to recovering the full AIG bailout amount,
                                                      taxpayers have received $22.7 billion in dividends, interest, gains, and other
      For more information on AIG and how
      the company changed while under                 income.460 This included payment to FRBNY of the full amount owed on the
      TARP, see SIGTARP’s July 2012                   revolving credit facility loan, plus interest and fees of $6.8 billion; full repayment
      Quarterly Report, pages 151-167.                of the loans to Maiden Lane II and Maiden Lane III, plus $8.2 billion in gains
                                                      from securities cash flows and sales and $1.3 billion in interest; and full payment
                                                      of the $25 billion owed on the insurance-business SPVs, plus interest and fees
                                                      of $1.4 billion.461 Treasury’s books and records reflect only the shares of AIG that
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013             155




Treasury received in TARP, reflecting that taxpayers have recouped $54.4 billion
of the $67.8 billion in TARP funds spent and realized losses on the sale of TARP
shares from an accounting standpoint of $13.5 billion.462 However, in the January
2011 restructuring of FRBNY and Treasury investments, TARP funds were used to
pay off AIG’s amounts owed to FRBNY and in return Treasury received FRBNY’s
stock in AIG. According to Treasury, when those shares are combined with TARP
shares in AIG, Treasury has made a $4.1 billion gain on the sale of the common
shares and AIG has paid $956 million in dividends, interest, and other income on
Treasury’s preferred shares.463
    The Government’s rescue of AIG involved several different funding facilities
provided by FRBNY and Treasury, with various changes to the transactions over
time. The rescue of AIG was initially led by FRBNY and the Federal Reserve.
With the passage of EESA on October 3, 2008, Treasury, through SSFI, took on a
greater role in AIG’s bailout as the Government expanded and later restructured its
aid.
    The amount and types of Treasury’s outstanding AIG investments changed
over time as a result of the execution of AIG’s January 2011 Recapitalization Plan,
preferred equity interest repayments, and Treasury’s sale of common stock which
are described below.                                                                          Revolving Credit Facility: Line of
                                                                                              credit for which borrowers pay a
FRBNY Revolving Credit Facility                                                               commitment fee, allowing them to
In September 2008, FRBNY extended an initial $85 billion revolving credit                     repeatedly draw down funds up to a
facility to AIG, which was secured by AIG’s assets, in an effort to stabilize the             guaranteed maximum amount. The
company. In return, AIG committed 79.8% of its voting equity to a trust for the               amount of available credit decreases
sole benefit of the United States Treasury (the “AIG Trust”).464 While the $85                and increases as funds are borrowed
billion revolving credit facility addressed the company’s severe liquidity shortage           and then repaid.
resulting from collateral calls related to the company’s credit default swap (“CDS”)
business and securities lending activities, because the entire facility was drawn             Credit Default Swap (“CDS”): A contract
upon, AIG’s leverage ratios increased significantly. The rapid deterioration in AIG’s         where the seller receives payments
CDS and securities lending businesses, combined with this increased leverage,                 from the buyer in return for agreeing to
resulted in downward pressure on its credit rating.465 Federal officials feared that          pay the buyer when a particular credit
future downgrades in AIG’s credit rating could have “catastrophic” effects on the             event occurs, such as when the credit
company, forcing it into bankruptcy.466 FRBNY and Treasury determined that                    rating on a bond is downgraded or a
this possibility posed a threat to the nation’s financial system and decided that             loan goes into default. The buyer does
additional transactions were necessary to modify the revolving credit facility.467            not need to own the asset covered by
                                                                                              the contract, meaning the swap can
Restructurings of AIG Assistance                                                              serve essentially as a bet against the
In November 2008 and March 2009, FRBNY and Treasury took several actions to                   underlying bond or loan.
stabilize AIG’s operations.468
                                                                                              Cumulative Preferred Stock: Stock
•	 Initial TARP Investment: On November 25, 2008, Treasury purchased $40                      requiring a defined dividend payment. If
   billion in AIG preferred shares under TARP, the proceeds of which went directly            the company does not pay the dividend
   to FRBNY to pay down a portion of the outstanding balance of the existing                  on schedule, it still owes the missed
   revolving credit facility. In return, Treasury received AIG Series D cumulative            dividend to the stock’s owner.
   preferred stock and warrants to purchase AIG common stock.469 After that
156            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                         payment, the total amount available to AIG under FRBNY’s revolving credit
      Collateralized Debt Obligation (“CDO”):            facility was reduced from $85 billion to $60 billion.
      A security that entitles the purchaser          •	 Creation of Maiden Lane II & III: Also in November 2008, FRBNY created
      to some part of the cash flows from a              Maiden Lane II, an SPV, to take significant mortgage-backed securities off
      portfolio of assets such as mortgage-              AIG’s books. FRBNY lent $19.5 billion (out of $22.5 billion committed) to
      backed securities, bonds, loans, or                Maiden Lane II to fund the purchase of residential mortgage-backed securities
      other CDOs.                                        (“RMBS”) that were contained in several of AIG’s U.S.-regulated insurance
                                                         subsidiaries’ portfolios. Finally, also in November 2008, FRBNY created Maiden
      Non-Cumulative Preferred Stock:                    Lane III, another SPV, to which FRBNY lent $24.3 billion (out of $30 billion
      Preferred stock with a defined                     committed) to buy from AIG’s counterparties some of the collateralized debt
      dividend, without the obligation to pay            obligations (“CDOs”) underlying the CDS contracts written by AIG.
      missed dividends.                               •	 Second TARP Investment: On March 2, 2009, Treasury and FRBNY
                                                         announced a restructuring of Government assistance to AIG that, according
      Equity Capital Facility: Commitment                to Treasury, was designed to strengthen the company’s capital position.470 In
      to invest equity capital in a firm                 that restructuring, AIG and Treasury signed an agreement on April 17, 2009,
      under certain future conditions. An                under which Treasury exchanged the Series D cumulative preferred stock,
      equity facility when drawn down is                 which required AIG to make quarterly dividend and interest payments, for
      an investment that increases the                   $41.6 billion (including $1.6 billion in missed dividend payments) of less
      provider’s ownership stake in the                  valuable Series E non-cumulative preferred stock, which required dividend and
      company. The investor may be able to               interest payments if AIG’s board of directors declared a dividend. Additionally,
      recover the amount invested by selling             on April 17, 2009, Treasury committed to fund an equity capital facility under
      its ownership stake to other investors             which AIG could draw down up to $29.8 billion in exchange for Series F
      at a later date.                                   non-cumulative preferred stock (that had similar terms to the Series E) and
                                                         additional warrants, of which AIG drew down $27.8 billion.471
                                                      •	 Creation of Additional Special Purpose Vehicles and Sale of Assets Under
                                                         SPVs: The restructuring measures announced in March 2009 also included
                                                         an authorization for FRBNY to acquire up to $26 billion of preferred equity
      For a more detailed description of the             interests in two SPVs, AIA Aurora LLC (“AIA SPV”) and ALICO Holdings LLC
      disposition of Treasury’s interest in              (“ALICO SPV”). The creation of the SPVs also facilitated the independence
      the SPVs, see SIGTARP’s April 2012                 of these two subsidiaries in anticipation of a sale or initial public offering
      Quarterly Report, pages 112-113.                   (“IPO”).472 In 2009 and 2010, AIG sold the assets of these SPVs, and later paid
                                                         back Treasury and FRBNY.473

                                                      AIG Recapitalization Plan
                                                      On January 14, 2011, AIG executed its Recapitalization Plan with the Government,
                                                      which extinguished FRBNY’s revolving credit facility, retired FRBNY’s remaining
                                                      interests in the SPVs, and transferred those interests to Treasury, increasing
                                                      Treasury’s TARP investment in AIG. AIG repaid $20.7 billion owed to FRBNY’s
                                                      revolving credit facility with proceeds from the AIA IPO and ALICO sale. AIG
                                                      drew down $20.3 billion in TARP funds under a Series F equity capital facility
                                                      to purchase certain of FRBNY’s interests in the ALICO SPV and AIA SPV and
                                                      transferred those interests to Treasury. AIG exchanged all prior outstanding
                                                      preferred shares held by the Government and issued new common stock to
                                                      Treasury representing a 92.1% interest in AIG. Treasury also created a new $2
                                                      billion Series G equity capital facility, which was never drawn down.474
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013           157




    For the period November 25, 2008, to January 14, 2011, AIG had failed to pay              For a more detailed description of
a total of $7.9 billion in dividend payments.475 After the Recapitalization Plan was          the AIG Recapitalization Plan, see
executed, AIG no longer had an obligation to pay dividends.                                   SIGTARP’s January 2011 Quarterly
                                                                                              Report, pages 135-139.
Treasury’s Equity Ownership Interest in AIG
As part of the Recapitalization Plan, AIG extinguished all prior outstanding
preferred shares held by the Government, comprising $41.6 billion of Series E
preferred shares and $7.5 billion drawn from the Series F equity capital facility.
In exchange, it issued 1.655 billion shares of common stock (which included 563
million Series C shares held by the AIG Trust for the benefit of the U.S. Treasury),
representing 92.1% of the common stock of AIG.476 The AIG Trust was then
terminated. AIG issued 10-year warrants to its existing non-Government common
shareholders to purchase up to a cumulative total of 75 million shares of common
stock at a strike price of $45 per share.477
    In a series of six offerings from May 2011 through December 2012, Treasury
sold its 1.655 billion shares of AIG’s common stock at an average price of $31.18
per share, for a total of $51.6 billion.478 The last of those sales took place on
December 14, 2012, when Treasury sold its remaining 234 million shares for
$32.50 per share.479 As reflected on Treasury’s TARP books and records, taxpayers
have recouped $54.4 billion of the $67.8 billion in TARP funds invested in AIG
and realized losses from an accounting standpoint of $13.5 billion on Treasury’s
sale of AIG stock.480 The shares sold included AIG common stock that Treasury
obtained from FRBNY after the January 2011 restructuring of the FRBNY and
Treasury investments. According to Treasury, the Government overall made a
$4.1 billion gain on the common stock sales, and $956 million has been paid in
dividends, interest, and other income.481 This does not include payments made to
FRBNY prior to the restructuring measures completed in January 2011.
    On March 1, 2013, Treasury sold its remaining investment in AIG, which
consisted of 2.7 million warrants that would have provided Treasury the right to
purchase AIG common stock at an exercise price of $50 per share.482 AIG bought                For more information on Treasury’s
the warrants for $25.2 million, or about $9.35 per share. The same day the                    sales of AIG common shares and AIG’s
transaction was completed, AIG’s closing stock price was $37.85 per share on the              buybacks of shares, see SIGTARP’s July
New York Stock Exchange.483                                                                   2013 Quarterly Report, page 131.


FRBNY’s Sales of Maiden Lane II Securities
In February 2012, FRBNY completed the sale of all securities in the Maiden
Lane II portfolio.484 According to FRBNY, its management of the Maiden Lane
II portfolio resulted in full repayment of its $19.5 billion loan to Maiden Lane II,
generating a net gain of approximately $2.3 billion, plus $580 million in accrued             For a more detailed description of the
interest on the loan.485 According to FRBNY, as of September 30, 2013, a cash                 Maiden Lane II securities sales, see
balance of about $64 million remained in Maiden Lane II to pay for final expenses             SIGTARP’s October 2012 Quarterly
of winding down the portfolio.486                                                             Report, pages 128-129.
158            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      FRBNY’s Sales of Maiden Lane III Securities
                                                      In August 2012, FRBNY completed the sale of all securities in the Maiden Lane III
                                                      portfolio. According to FRBNY, its management of the Maiden Lane III portfolio
                                                      resulted in full repayment of its $24.3 billion loan to Maiden Lane III, generating a
                                                      net gain of approximately $5.9 billion, plus $737 million in accrued interest on the
                                                      loan.487 According to FRBNY, as of September 30, 2013, a cash balance of about
                                                      $22 million remained in Maiden Lane III to pay for final expenses of winding down
                                                      the portfolio.488
                                                          According to auction details released by FRBNY on November 23, 2012, AIG
      For a more detailed description of the          received $5.6 billion as repayment of its equity contribution to Maiden Lane III,
      Maiden Lane III securities sales, see           including interest.489 After FRBNY’s loan to Maiden Lane III and AIG’s equity
      SIGTARP’s October 2012 Quarterly                interest were repaid with interest, FRBNY and AIG split remaining auction
      Report, pages 129-130.                          proceeds, with FRBNY receiving $5.9 billion and AIG receiving $2.9 billion.490
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013              159




Targeted Investment Program
Treasury invested a total of $40 billion in two financial institutions, Citigroup
Inc. (“Citigroup”) and Bank of America Corp. (“Bank of America”), through the
Targeted Investment Program (“TIP”). Treasury invested $20 billion in Citigroup
on December 31, 2008, and $20 billion in Bank of America on January 16, 2009,
in return for preferred shares paying quarterly dividends at an annual rate of 8%
and warrants from each institution.491 According to Treasury, TIP’s goal was to
“strengthen the economy and protect American jobs, savings, and retirement
security [where] the loss of confidence in a financial institution could result in
significant market disruptions that threaten the financial strength of similarly
situated financial institutions.”492 Both banks repaid TIP in December 2009.493 On
March 3, 2010, Treasury auctioned the Bank of America warrants it received under
TIP for $1.24 billion.494 On January 25, 2011, Treasury auctioned the Citigroup
warrants it had received under TIP for $190.4 million.495

Asset Guarantee Program
Under the Asset Guarantee Program (“AGP”), Treasury, the Federal Deposit
Insurance Corporation (“FDIC”), the Federal Reserve, and Citigroup agreed to
                                                                                             Trust Preferred Securities (“TRUPS”):
provide loss protection on a pool of Citigroup assets valued at approximately $301
                                                                                             Securities that have both equity
billion. In return, as a premium, the Government received warrants to purchase
                                                                                             and debt characteristics created by
Citigroup common stock and $7 billion in preferred stock. The preferred stock was
                                                                                             establishing a trust and issuing debt
subsequently exchanged for trust preferred securities (“TRUPS”).496
                                                                                             to it.
     Treasury received $4 billion of the TRUPS and FDIC received $3 billion.497
Although Treasury’s asset guarantee was not a direct cash investment, it exposed
taxpayers to a potential TARP loss of $5 billion. On December 23, 2009, in con-
nection with Citigroup’s TIP repayment, Citigroup and Treasury terminated the                For a discussion of the basis of the
AGP agreement. Although at the time of termination the asset pool suffered a                 decision to provide Federal assistance to
$10.2 billion loss, this number was below the agreed-upon deductible and the                 Citigroup, see SIGTARP’s audit report,
Government suffered no loss.498                                                              “Extraordinary Financial Assistance
     At that time, Treasury agreed to cancel $1.8 billion of the TRUPS issued by             Provided to Citigroup, Inc.,” dated
                                                                                             January 13, 2011.
Citigroup, reducing the premium it received from $4 billion to $2.2 billion, in
exchange for the early termination of the loss protection. FDIC retained all of its
$3 billion in securities.499 Pursuant to that termination agreement, on December
28, 2012, FDIC transferred $800 million of those securities to Treasury because
Citigroup’s participation in FDIC’s Temporary Liquidity Guarantee Program closed
without a loss.500 On February 4, 2013, Treasury exchanged the $800 million of
securities it received from FDIC into Citigroup subordinated notes, which it then
sold for $894 million.501
     Separately, on September 29, 2010, Treasury entered into an agreement with
Citigroup to exchange the remaining $2.2 billion in Citigroup TRUPS that it then
held under AGP for new TRUPS. Because the interest rate necessary to receive par
value was below the interest rate paid by Citigroup to Treasury, Citigroup increased
the principal amount of the securities sold by Treasury by an additional $12 mil-
lion, thereby enabling Treasury to receive an additional $12 million in proceeds
from the $2.2 billion sale of the Citigroup TRUPS, which occurred on September
160   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             30, 2010.502 On January 25, 2011, Treasury auctioned the Citigroup warrants it
                                             had received under AGP for $67.2 million.503 In addition to recovering the full
                                             bailout amount, taxpayers have received $13.4 billion over the course of Citigroup’s
                                             participation in AGP, TIP, and CPP, including dividends, other income, and war-
                                             rant sales.504
                                                 Bank of America announced a similar asset guarantee agreement with respect
                                             to approximately $118 billion in Bank of America assets, but the final agreement
                                             was never executed. Bank of America paid $425 million to the Government as a
                                             termination fee.505 Of this $425 million, $276 million was paid to Treasury, $92
                                             million was paid to FDIC, and $57 million was paid to the Federal Reserve.506
                                                                                 QUARTERLY REPORT TO CONGRESS I JULY 25, 2012             161




ASSET SUPPORT PROGRAMS
Three TARP programs have focused on supporting markets for specific asset
classes: the Term Asset-Backed Securities Loan Facility (“TALF”), the Public-
Private Investment Program (“PPIP”), and the Unlocking Credit for Small                       Non-Recourse Loan: Secured loan
Businesses (“UCSB”) program.                                                                  in which the borrower is relieved of
    TALF was designed to support asset-backed securities (“ABS”) transactions                 the obligation to repay the loan upon
by providing eligible borrowers $71.1 billion in non-recourse loans through the               surrendering the collateral.
Federal Reserve Bank of New York (“FRBNY”) to purchase non-mortgage-backed
ABS and commercial mortgage-backed securities (“CMBS”). Treasury initially                    Collateral: Asset pledged by a
obligated $4.3 billion in TARP funds to purchase and manage loan collateral from              borrower to a lender until a loan is
any TALF loans that defaulted.507 As of September 30, 2013, all TARP funding                  repaid. Generally, if the borrower
for TALF has now been either deobligated or repaid.508 Of the $71.1 billion in                defaults on the loan, the lender gains
TALF loans, none have defaulted and $100.7 million remains outstanding as of                  ownership of the pledged asset and
September 30, 2013.509                                                                        may sell it to satisfy the debt. In TALF,
    PPIP used a combination of private equity and Government equity and debt                  the ABS or CMBS purchased with
through TARP to facilitate purchases of legacy mortgage-backed securities (“MBS”)             the TALF loan is the collateral that is
held by financial institutions. In July 2009, Treasury announced the selection                posted with FRBNY.
of nine Public-Private Investment Fund (“PPIF”) managers. Treasury originally
obligated $22.4 billion in TARP funds to the program, then reduced the obligation
over time when several PPIFs did not use the full amounts available to them. One
PPIP manager, The TCW Group Inc. (“TCW”), withdrew soon after the program
began. A total of $18.6 billion in TARP funding was drawn down and fully repaid
by PPIP fund managers.510 As of September 30, 2013, the entire PPIP portfolio
had been liquidated, and three PPIP funds were legally dissolved while the other
five were in various stages of winding down operations.511
    Through the UCSB loan support initiative, Treasury purchased $368.1 million
in 31 SBA 7(a) securities, which are securitized small-business loans.512 According
to Treasury, on January 24, 2012, Treasury sold its remaining securities and ended
the program with a total investment gain of about $9 million for all the securities,
including sale proceeds and payments of principal, interest, and debt.513

TALF
TALF, which was announced in November 2008, issued loans collateralized by
eligible ABS.514 According to FRBNY, TALF was “designed to increase credit
availability and support economic activity by facilitating renewed issuance of
consumer and business ABS.”515 TALF is divided into two parts:516

•	 a lending program, TALF, in which FRBNY originated and managed non-
   recourse loans to eligible borrowers using eligible ABS and CMBS as collateral.
   TALF’s lending program closed in 2010.
•	 an asset disposition facility, TALF LLC, that purchased the collateral from
   FRBNY if borrowers chose to surrender it and walk away from their loans or if
   the collateral is seized in the event of default.
162            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                           The asset disposition facility, TALF LLC, is managed by FRBNY and remains
                                                      in operation until final TALF loans mature on March 30, 2015.517 TALF loans are
                                                      non-recourse (unless the borrower has made any misrepresentations or breaches
                                                      warranties or covenants), which means that FRBNY cannot hold the borrower
                                                      liable for any losses beyond the surrender of collateral for the TALF loan.518
      For a discussion of the credit rating
                                                           TALF LLC’s funding originates from a fee charged to FRBNY for the
      agency industry and an analysis of the          commitment to purchase any collateral surrendered by the borrowers. This fee
      impact of NRSROs on TARP and the                is derived from the principal balance of each outstanding TALF program loan.519
      overall financial market, see SIGTARP’s         As of September 30, 2013, $100.7 million in TALF loans was outstanding.520
      October 2009 Quarterly Report, pages            According to FRBNY, no TALF borrowers have surrendered collateral in lieu of
      113–148.                                        repayment and consequently no collateral has been purchased by TALF LLC since
                                                      its inception.521

                                                      Lending Program
                                                      TALF’s lending program made secured loans to eligible borrowers.522 The loans
                                                      were issued with terms of three or five years and were available for non-mortgage-
                                                      backed ABS, newly issued CMBS, and legacy CMBS.523 The final maturity date of
                                                      loans in the TALF portfolio is March 30, 2015.524
      Nationally Recognized Statistical Rating            To qualify as TALF collateral, the non-mortgage-backed ABS had to have
      Organization (“NRSRO”): Credit rating           underlying loans for automobile, student, credit card, or equipment debt; insurance
      agency registered with the SEC. Credit          premium finance; SBA-guaranteed small business loans; or receivables for
      rating agencies provide their opinion           residential mortgage servicing advances (“servicing advance receivables”). Collateral
      of the creditworthiness of companies            was also required to hold the highest investment grade credit ratings from at least
      and the financial obligations issued            two nationally recognized statistical rating organizations (“NRSROs”).525
      by companies. The ratings distinguish               To qualify as TALF collateral, newly issued CMBS and legacy CMBS had to
      between investment grade and non–               have been issued by an institution other than a Government-sponsored enterprise
      investment grade equity and debt                (“GSE”) or an agency or instrumentality of the U.S. Government, offer principal
      obligations.                                    and interest payments, not be junior to other securities with claims on the same
                                                      pool of loans, and possess the highest long-term investment grade credit rating
      TALF Agent: Financial institution that          from at least two rating agencies.526 Newly issued CMBS had to be issued on or
      is party to the TALF Master Loan                after January 1, 2009, while legacy CMBS were issued before that date.527
      and Security Agreement and that
      occasionally acts as an agent for the           Loan Terms
      borrower. TALF agents include primary           TALF participants were required to use a TALF agent to apply for a TALF loan.528
      and nonprimary broker-dealers.                  After the collateral (the particular asset-backed security financed by the TALF loan)
                                                      was deemed eligible by FRBNY, the collateral was assigned a haircut. A haircut,
      Haircut: Difference between the value           which represents the amount of money put up by the borrower (the borrower’s
      of the collateral and the value of the          “skin in the game”), was required for each TALF loan.529 Haircuts for non-
      loan (the loan value is less than the           mortgage-backed ABS varied based on the riskiness and maturity of the collateral,
      collateral value).                              and generally ranged between 5% and 16% for non-mortgage-backed ABS with
                                                      average lives of five years or less.530 The haircut for legacy and newly issued CMBS
      “Skin in the Game”: Equity stake in an          was generally 15% but rose above that amount if the average life of the CMBS was
      investment; down payment; the amount            greater than five years.531
      an investor can lose.                               FRBNY lent each borrower the amount of the market price of the pledged
                                                      collateral minus the haircut, subject to certain limitations.532 The borrower
                                                                                                                          QUARTERLY REPORT TO CONGRESS I JULY 25, 2012         163




delivered the collateral to the custodian bank, which collected payments generated
by the collateral and distributed them to FRBNY (representing the borrower’s                                                           Custodian Bank: Bank holding the
payment of interest on the TALF loan).533 Any excess payments from the collateral                                                      collateral and managing accounts for
above the interest due and payable to FRBNY on the loan go to the TALF                                                                 FRBNY; for TALF the custodian is Bank
borrower.534                                                                                                                           of New York Mellon.


TALF Loans
TALF provided a total of $71.1 billion in loans through FRBNY. Treasury initially
obligated $4.3 billion in TARP funds to purchase and manage loan collateral from
any TALF loans that defaulted.535 On January 15, 2013, Treasury and FRBNY said
the TARP-funded credit protection was no longer needed because lending fees
collected by TALF had exceeded the amount of loans still outstanding.536 As of
September 30, 2013, all TARP funding for TALF has now been either deobligated
or repaid.537
    TALF provided $59 billion of loans to purchase non-mortgage-backed ABS
during the lending phase of the program, which ended on March 11, 2010. As of
September 30, 2013, $49.8 million was outstanding, all in student loans.538 Table
2.44 lists all TALF loans collateralized by non-mortgage-backed ABS, by ABS
sector.

TABLE 2.44
 TALF LOANS BACKED BY ABS (NON-MORTGAGE-BACKED COLLATERAL)
 ($ BILLIONS)

 ABS Sector
 Auto Loans                                                                                                             $12.8
 Credit Card Receivables                                                                                                  26.3
 Equipment Loans                                                                                                           1.6
 Floor Plan Loans                                                                                                          3.9
 Premium Finance                                                                                                           2.0
 Servicing Advance Receivables                                                                                             1.3
 Small-Business Loans                                                                                                      2.2
 Student Loans                                                                                                             8.9
 Total                                                                                                                 $59.0
 Notes: Numbers may not total due to rounding. Data as of 9/30/2013.

 Sources: FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.
 html, accessed 10/1/2013; FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/
 markets/TALF_recent_operations.html, accessed 10/1/2013.



    TALF provided $12.1 billion of loans to purchase CMBS during the lending
phase of the program, which ended on June 28, 2010. Approximately 99% of the
loan amount was used to purchase legacy CMBS, with 1% newly issued CMBS.539
As of September 30, 2013, $50.9 million was outstanding.540 Table 2.45 includes
all TALF CMBS loans.
164            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      TABLE 2.45
                                                       TALF LOANS BACKED BY CMBS                         ($ BILLIONS)

                                                       Type of Collateral Assets
                                                       Newly Issued CMBS                                                                                                     $0.1
                                                       Legacy CMBS                                                                                                           12.0
                                                       Total                                                                                                               $12.1
                                                       Notes: Numbers may not total due to rounding. Data as of 9/30/2013.

                                                       Sources: FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.
                                                       html, accessed 10/1/2013; FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/
                                                       CMBS_recent_operations.html, accessed 10/1/2013.



                                                          TALF loans were issued with terms of three years or five years. The final
                                                      maturity date of the last of the five-year loans is March 30, 2015.541 The
                                                      outstanding TALF loans consist of $50.9 million in loans collateralized by CMBS
                                                      and $49.8 million in loans collateralized by student loans. As of September 30,
                                                      2013, all of the TALF loans have more than a year remaining until maturity.542
                                                          The Federal Reserve posted on its website detailed information on the 177
                                                      TALF borrowers, including the identities of the borrowers, the amounts and rates
                                                      of the loans, and details about the collateral.543
                                                          As of September 30, 2013, $71 billion in TALF loans had been repaid.
                                                      According to FRBNY, the outstanding collateral on the remaining $100.7 million in
                                                      TALF loans was performing as expected.544

                                                      Asset Disposition Facility
                                                      When FRBNY created TALF LLC, TARP loaned the facility $100 million.545
                                                      As of September 30, 2013, the $100 million was repaid in full along with $13
                                                      million in interest, according to Treasury.546 During the remaining two years of the
                                                      program, any interest, fees, and gains collected above the remaining principal on
                                                      outstanding TALF loans will be shared by Treasury (90%) and FRBNY (10%).547 As
                                                      of September 30, 2013, Treasury had received $570.1 million in additional gains
                                                      and FRBNY had received $63.3 million.548

                                                      Current Status
                                                      As of September 30, 2013, TALF LLC had assets of $112 million, which consisted
                                                      of interest and other income and fees earned from permitted investments.549 From
                                                      its February 4, 2009, formation through September 30, 2013, TALF LLC had
      Excess Spread: Funds left over
                                                      spent approximately $2.9 million on administration.550
      after required payments and other
                                                          When TALF closed for new loans in June 2010, FRBNY’s responsibilities under
      contractual obligations have been met.
                                                      the program shifted primarily to portfolio management, which includes maintain-
      In TALF it is the difference between
                                                      ing documentation, overseeing the custodian that is responsible for holding ABS
      the periodic amount of interest paid
                                                      collateral, calculating and collecting principal and interest on TALF loans, disburs-
      out by the collateral and the amount
                                                      ing excess spread to TALF borrowers in accordance with the governing documents,
      of interest charged by FRBNY on the
                                                      monitoring the TALF portfolio, collecting and managing collateral assets if a bor-
      nonrecourse loan provided to the
                                                      rower defaults or surrenders the collateral in lieu of repayment, and paying TALF
      borrower to purchase the collateral.
                                                      LLC interest that borrowers pay FRBNY on TALF loans, in excess of FRBNY’s cost
                                                      of funding.551
                                                                                QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013               165




Public-Private Investment Program
According to Treasury, the purpose of the Public-Private Investment Program                      Legacy Securities: Real estate-related
(“PPIP”) was to purchase legacy securities from banks, insurance companies,                      securities originally issued before
mutual funds, pension funds, and other eligible financial institutions as defined                2009 that remained on the balance
in EESA, through Public-Private Investment Funds (“PPIFs”).552 PPIFs were                        sheets of financial institutions because
partnerships, formed specifically for this program, that invested in mortgage-backed             of pricing difficulties that resulted from
securities using equity capital from private-sector investors combined with TARP                 market disruption.
equity and debt. A private-sector fund management firm oversaw each PPIF on
behalf of investors. According to Treasury, the aim of PPIP was to “restart the                  Equity: Investment that represents an
market for legacy securities, allowing banks and other financial institutions to free            ownership interest in a business.
up capital and stimulate the extension of new credit.”553
    Treasury selected nine fund management firms to establish PPIFs. One PPIP                    Debt: Investment in a business that
manager, TCW, subsequently withdrew. As of September 30, 2013, the entire PPIP                   is required to be paid back to the
portfolio had been liquidated, and three PPIP funds were legally dissolved while                 investor, usually with interest.
the other five were in various stages of winding down operations. Private investors
and Treasury co-invested in the PPIFs to purchase legacy securities from financial
institutions. The fund managers raised private-sector capital. Treasury matched the              For more information on the selection of
private-sector equity dollar-for-dollar and provided debt financing in the amount of             PPIP managers, see SIGTARP’s October
the total combined equity. Each PPIP manager was also required to invest at least                7, 2010, audit report entitled “Selecting
$20 million of its own money in the PPIF.554 Each PPIF was approximately 75%                     Fund Managers for the Legacy
TARP funded. PPIP was initially designed as an eight-year program giving PPIP                    Securities Public-Private Investment
managers until 2017 to sell the assets in their portfolio, allowing for a two-year               Program.”
extension under certain circumstances.555
                                                                                                 For more information on the withdrawal
    Under the program, Treasury, the PPIP managers, and the private investors
                                                                                                 of TCW as a PPIP manager, see
shared PPIF profits and losses on a pro rata basis based on their limited partnership
                                                                                                 SIGTARP’s January 2010 Quarterly
interests. Treasury also received warrants in each PPIF that gave Treasury the                   Report, page 88.
right to receive an extra portion of the fund’s final profits that would otherwise be
distributed to the private investors.556
    The PPIP portfolio consisted of eligible securities and cash assets. The
securities eligible for purchase by PPIFs (“eligible assets”) were non-agency
residential mortgage-backed securities (“non-agency RMBS”) and commercial
mortgage-backed securities (“CMBS”) that also met the following criteria: issued
before January 1, 2009 (legacy); rated when issued AAA or equivalent by two or
more credit rating agencies designated as nationally recognized statistical rating
organizations (“NRSROs”); secured directly by actual mortgages, leases, or other


 Pro Rata: Refers to dividing something      Limited Partnership: Partnership in which       Non-Agency Residential Mortgage-
 among a group of participants according     there is at least one partner whose             Backed Securities (“non-agency RMBS”):
 to the proportionate share that each        liability is limited to the amount invested     Financial instrument backed by a group
 participant holds as a part of the whole.   (limited partner) and at least one partner      of residential real estate mortgages (i.e.,
                                             whose liability extends beyond monetary         home mortgages for residences with up
                                             investment (general partner).                   to four dwelling units) not guaranteed
                                                                                             or owned by a Government-sponsored
                                                                                             enterprise (“GSE”), or a Government
                                                                                             agency.
166   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             assets, not other securities (other than certain swap positions, as determined by
                                             Treasury); and located primarily in the United States (the loans and other assets
                                             that secure the non-agency RMBS and CMBS); and purchased from financial
                                             institutions eligible for TARP participation.557

                                             PPIP Process
                                             Funds chosen to participate in PPIP raised private capital, matched up to a
                                             preset maximum by Treasury. Additionally, each PPIF could borrow from TARP
                                             an amount up to 100% of the total private and Government equity investment.
                                             Treasury, which provided about 75% of the program’s equity and debt financing,
                                             also received warrants from each PPIF so that it could benefit further from funds
                                             that turned a profit. The PPIP managers were required to provide monthly portfolio
                                             reports to Treasury and other investors.558
                                                 To obtain obligated funds, PPIP managers sent a notice to Treasury and the
                                             private investors requesting a “draw down” of portions of obligated contributions in
                                             order to purchase specific investments or to pay certain expenses and debts of the
                                             partnerships.559

                                             PPIF Purchasing Power
                                             During the capital-raising period, the eight PPIP fund managers raised $7.4 billion
                                             of private-sector equity capital, which Treasury matched with a dollar-for-dollar
                                             obligation, for a total of $14.7 billion in equity capital. Treasury also obligated
                                             $14.7 billion of debt financing, resulting in $29.4 billion of PPIF purchasing
                                             power. PPIF fund-raising was completed in December 2009. After the capital-
                                             raising stage, Treasury obligated a total of $22.4 billion in a combination of
                                             matching equity funds and debt financing for PPIP, which included funds for
                                             TCW, which subsequently withdrew from the program. Table 2.46 shows equity
                                             and debt committed by Treasury for the eight PPIFs that actively participated in
                                             the program.
                                                                                                                         QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   167




TABLE 2.46
 PUBLIC-PRIVATE INVESTMENT PROGRAM COMMITTED PURCHASING POWER                                                                   ($ BILLIONS)

                                                                                                                          Total
                                                 Private-Sector              Treasury              Treasury         Purchasing           Purchasing
 Manager                                                 Equity                Equity                  Debt             Powera           Power Used
 AG GECC PPIF Master Fund, L.P.                                 $1.2               $1.2                  $2.5                 $5.0                  90%
 AllianceBernstein Legacy
                                                                  1.2                1.2                   2.3                  4.6                 92%
 Securities Master Fund, L.P.
 BlackRock PPIF, L.P.                                             0.7                0.7                   1.4                  2.8                 76%
 Invesco Legacy Securities Master
                                                                  0.9                0.9                   1.7                  3.4                 68%
 Fund, L.P.
 Marathon Legacy Securities
 Public-Private Investment                                        0.5                0.5                   0.9                  1.9                100%
 Partnership, L.P.
 Oaktree PPIP Fund, L.P.                                          1.2                1.2                   2.3                  4.6                 48%
 RLJ Western Asset Public/Private
                                                                  0.6                0.6                   1.2                  2.5                100%
 Master Fund, L.P.
 Wellington Management Legacy
                                                                  1.1                1.1                   2.3                  4.6                100%
 Securities PPIF Master Fund, LP
 Totals for Fundsb                                             $7.4                $7.4               $14.7                 $29.4                   83%
 Notes: Numbers may not total due to rounding. All PPIP fund managers have liquidated their portfolios. Five funds were winding down operations and had
 not been legally dissolved as of September 30, 2013: AllianceBernstein, AG GECC, BlackRock, Marathon, and Oaktree.
 a
   Table shows the total amount of purchasing power committed and available to each PPIF during its investment period.
 b
   TCW raised $156 million in private-sector equity capital, which was matched by Treasury. Treasury also provided $200 million of debt. TCW repaid the
    total amount committed by Treasury in early 2010. This is not included in the total purchasing power.

 Sources: Treasury, Transactions Report, 9/30/2013; Treasury, Transactions Report, 3/31/2011; Treasury, response to SIGTARP data call, 10/7/2013.


   The program gave each PPIP manager up to three years (the “PPIF investment
period”) from closing its first private-sector equity contribution to draw upon the
TARP funds obligated for the PPIF and buy legacy securities on behalf of private
and Government investors.560 During that investment period, the program sought
to maintain “predominantly a long-term buy and hold strategy.”561 The investment
periods for all PPIFs expired in 2012.562
   Subsequently, fund managers had up to five years ending in 2017 to manage
and sell off the fund’s investment portfolio and return proceeds to taxpayers and
investors, with the ability to extend that period under certain circumstances.563

Amounts Drawn Down
The eight PPIP managers drew down a total of approximately $24.4 billion to buy
legacy securities during their investment periods, spending $6.1 billion in private-
sector equity capital and $18.3 billion in TARP equity and debt funding.564 The
last fund’s investment period ended in December 2012.565 Treasury also disbursed
$356.3 million to TCW, which TCW fully repaid in early 2010 when it withdrew
from the program.566
    As a group, the funds drew down and spent about 83% of the total money
available to them to invest in legacy real estate-backed securities.567 All unused
TARP debt financing has been deobligated by Treasury.568 Unused TARP equity
financing is deobligated when each fund is legally dissolved.
168   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             PPIP Fund Repayments and Liquidations
                                             Throughout the program, PPIP managers were required to make TARP payments
                                             to Treasury for debt principal, debt interest, and equity capital. Under the program,
                                             the PPIP funds also shared profits from the investments with Treasury. All PPIFs
                                             have fully repaid their TARP debt and equity financing.569 The nine PPIFs together
                                             had repaid $12.4 billion in TARP debt and $6.3 billion in TARP equity, including
                                             payments by TCW, as of September 30, 2013.
                                                 The PPIP managers wound down their portfolios as follows:

                                             •	 In June 2013, Oaktree liquidated its remaining PPIP investments.570 According
                                                to Treasury, Oaktree fully repaid Treasury’s equity investment of $555.9 million
                                                and Treasury debt of $1.1 billion, with interest. As of September 30, 2013,
                                                Oaktree’s PPIF still had approximately $1.5 million in cash to pay for wind-
                                                down expenses.571
                                             •	 In June 2013, Marathon liquidated its remaining PPIP investments.572
                                                According to Treasury, Marathon fully repaid Treasury’s equity investment
                                                of $474.6 million and Treasury debt of $949 million, with interest. As of
                                                September 30, 2013, Marathon’s PPIF still had approximately $11.9 million in
                                                cash to pay for wind-down expenses.573
                                             •	 In May 2013, AG GECC liquidated its remaining PPIP investments.574
                                                According to Treasury, AG GECC fully repaid Treasury’s equity investment of
                                                $1.1 billion and Treasury debt of $2.2 billion, with interest. As of September 30,
                                                2013, AG GECC’s PPIF still had approximately $4.1 million in cash to pay for
                                                wind-down expenses.575
                                             •	 In February 2013, Wellington liquidated its remaining PPIP investments.576
                                                According to Treasury, Wellington fully repaid Treasury’s equity investment of
                                                $1.1 billion and Treasury debt of $2.3 billion, with interest. On July 25, 2013,
                                                Wellington filed a formal certificate with the state of Delaware declaring that its
                                                PPIF had been dissolved.577
                                             •	 In November 2012, BlackRock liquidated its remaining PPIP investments.578
                                                According to Treasury, BlackRock fully repaid Treasury’s equity investment
                                                of $528.2 million and Treasury debt of $1.1 billion, with interest.579 As of
                                                September 30, 2013, BlackRock’s PPIF still had approximately $3.2 million in
                                                cash to pay for wind-down expenses.580
                                             •	 In September 2012, AllianceBernstein liquidated its remaining PPIP
                                                investments.581 According to Treasury, AllianceBernstein fully repaid Treasury’s
                                                equity investment of $1.1 billion and its Treasury debt of $2.1 billion, with
                                                interest.582 As of September 30, 2013, AllianceBernstein’s PPIF had no cash
                                                remaining but had not yet been formally dissolved, according to Treasury.583
                                             •	 In October 2012, RLJ Western liquidated its remaining PPIP investments.584
                                                According to Treasury, RLJ Western fully repaid Treasury’s equity investment of
                                                $620.6 million and Treasury debt of $1.2 billion, with interest.585 On December
                                                31, 2012, RLJ Western filed a formal certificate with the state of Delaware
                                                declaring that its PPIF had been dissolved.586
                                                                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   169




•	 Invesco was the first of the PPIP funds to sell its portfolio, liquidating it in
   March 2012.587 According to Treasury, Invesco fully repaid Treasury’s equity
   investment of $581 million and Treasury debt of $1.2 billion, with interest.588
   On October 3, 2012, Invesco filed a formal certificate with the state of
   Delaware declaring that its PPIF had been dissolved.589

    In addition to repaying Treasury’s $18.6 billion capital investments, PPIP
managers paid a total of $3.5 billion in gross income payments and capital gains
to the Government through September 30, 2013, as well as $86.7 million in
warrant proceeds.590 Table 2.47 shows each fund’s payments to Treasury through
September 30, 2013.
TABLE 2.47
 PPIP MANAGERS’ PAYMENTS TO TREASURY, AS OF 9/30/2013                                                         ($ MILLIONS)

                                                                                                                                   Gross
                                                                                                                                 Income
                                                                      Debt                 Debt              Equity           Payments               Equity
                                                                  Principal             Interest            Capital          and Capital            Warrant
 Manager                                                         Payments             Payments           Paymentsa                 Gains          Paymentsb
 AG GECC PPIF Master Fund, L.P.                                      $2,235                    $66             $1,117                 $776                  $19
 AllianceBernstein Legacy Securities
                                                                       2,128                     58              1,064                  481                   12
 Master Fund, L.P.
 BlackRock PPIF, L.P.                                                  1,053                     34                528                  393                   10
 Invesco Legacy Securities Master Fund,
                                                                       1,162                     18                581                  139                     3
 L.P.
 Marathon Legacy Securities Public-Private
                                                                          949                    28                475                  358                     9
 Investment Partnership, L.P.
 Oaktree PPIP Fund, L.P.                                               1,111                     17                556                  232                     6
 RLJ Western Asset Public/Private Master
                                                                       1,241                     37                621                  421                   11
 Fund, L.P.
 UST/TCW Senior Mortgage Securities
                                                                          200                   0.3                156                    20                 0.5
 Fund, L.P.
 Wellington Management Legacy Securities
                                                                       2,299                     61              1,149                  651                   16
 PPIF Master Fund, LP
 Totals for All Funds                                              $12,378                  $320              $6,247               $3,471                   $87
 Notes: Numbers may not total due to rounding. All PPIP fund managers have liquidated their portfolios. Five funds were winding down operations and had not
 been legally dissolved as of September 30, 2013: AllianceBernstein, AG GECC, BlackRock, Marathon, and Oaktree.
 a
   In April 2012, Treasury reclassified about $1 billion in combined payments from five PPIFs as equity capital payments instead of equity distributions.
 b
   Treasury received equity warrants from the PPIFs, which give Treasury the right to receive a percentage of any profits that would otherwise be distributed to
    the private partners in excess of their contributed capital.

 Sources: Treasury, Transactions Report, 9/30/2013; Treasury, response to SIGTARP data call, 10/7/2013; Treasury, Dividends and Interest Report,
 10/10/2013.
170   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Securities Purchased by PPIFs
                                             According to their agreements with Treasury, PPIP managers invested in both
                                             RMBS and CMBS, except for Oaktree, which invested only in CMBS.591 Figure
                                             2.7 shows the collective value of securities held by all PPIFs at the end of each
                                             calendar quarter from the beginning of the funds’ investment period, until all
                                             securities were sold in the quarter ended June 30, 2013, broken down by RMBS
                                             and CMBS.

                                             FIGURE 2.7

                                             INVESTMENTS BY PPIP FUNDS, 2009–2013 ($ BILLIONS)
                                             25



                                             20



                                             15



                                             10



                                              5



                                              0
                                                  Q409 Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213


                                                     Commercial Mortgage-Backed Securities Investments
                                                     Residential Mortgage-Backed Securities Investments

                                                  Notes: Numbers may not total due to rounding.

                                                  Sources: Treasury, PPIP Quarterly Reports, December 2009, March 2010, June 2010, September 2010, December 2010,
                                                  March 2011, June 2011, September 2011, December 2011, March 2012, June 2012, September 2012, December 2012,
                                                  March 2013, and June 2013.


                                                 PPIF investments were classified by underlying asset type. All non-agency
                                             RMBS investments were considered residential because the underlying assets were
                                             mortgages for residences with up to four dwelling units. For CMBS, the assets were
                                             commercial real estate mortgages: office, retail, multi-family, hotel, industrial (such
                                             as warehouses), mobile home parks, mixed-use (combination of commercial and/
                                             or residential uses), and self-storage. Over the course of the program, the portfolio
                                             held large concentrations of office and retail. Figure 2.8 breaks down CMBS
                                             investment distribution by sector from December 31, 2009 through June 30, 2013.
                                                                                                                      QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   171




FIGURE 2.8

AGGREGATE CMBS SECTOR HOLDINGS BY MARKET VALUE, 2009–2013 ($ BILLIONS)

 6


 5


 4


 3


 2


 1


 0
     Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

        Office                  Multifamily             Lodging/Hotel
        Retail                  Industrial              Other

     Notes: Numbers affected by rounding. Calculated based on monthly data supplied by the PPIF managers.

     * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
       the best information available. Estimates do not have a material effect on the presentations in this report.

     Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.



   Non-agency RMBS and CMBS were classified by the degree of estimated
default risk (sometimes referred to as “quality”). In general, the highest-quality
rankings went to mortgages with the strictest requirements regarding borrower
credit, completeness of documentation, and underwriting standards. Treasury
characterized the investment-quality levels of risk for the types of mortgage loans
that support non-agency RMBS as follows:592

•	 Prime — mortgage loan made to a borrower with good credit that generally met
   the lender’s strictest underwriting criteria.
•	 Alt-A — mortgage loan made to a borrower with good credit but with limited
   documentation or other characteristics that do not meet the standards for prime
   loans.
•	 Subprime — mortgage loan made to a borrower with a poor credit rating.
•	 Option Adjustable Rate Mortgage (“Option ARM”) — mortgage loan that
   gave the borrower choices about how much interest and principal to pay each
   month, which could result in an increasing loan principal balance over time.
•	 Other (RMBS) — RMBS that did not meet the definitions for prime, Alt-A,
   subprime, or option ARM but met the definition of “eligible assets” above.

   Treasury characterized CMBS according to the bond’s degree of “credit
enhancement,” i.e., the percentage of the underlying mortgage pool by balance that
must be written down before the bond had any losses.593
172   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             •	 Super Senior — most senior originally rated AAA bonds in a CMBS
                                                securitization with the highest level of credit enhancement.
                                             •	 AM (Mezzanine) — mezzanine-level originally rated AAA bond. Creditors
                                                receive interest and principal payments after super senior creditors but before
                                                junior creditors.594
                                             •	 AJ (Junior) — the most junior bond in a CMBS securitization with a AAA rating
                                                at issuance.
                                             •	 Other (CMBS) — CMBS that did not meet the definitions for super senior,
                                                AM, or AJ but met the definition of “eligible assets” above.

                                                Figure 2.9 and Figure 2.10 show the distribution of non-agency RMBS and
                                             CMBS investments held in PPIP by respective risk levels from December 31,
                                             2009, through June 30, 2013, by market value, as reported by PPIP managers.

                                             FIGURE 2.9

                                             AGGREGATE RMBS QUALITY BY MARKET VALUE, 2009–2013 ($ BILLIONS)

                                             20

                                             18

                                             16

                                             14

                                             12
                                             10

                                              8

                                              6

                                              4

                                              2

                                              0
                                                  Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

                                                     Prime                   Subprime                      Other – RMBS
                                                     Alt-A                   Option Arm

                                                  Notes: Numbers affected by rounding. Calculated based on monthly data supplied by the PPIF managers.

                                                  * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
                                                    the best information available. Estimates do not have a material effect on the presentations in this report.

                                                  Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.
                                                                                                                     QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   173




FIGURE 2.10

AGGREGATE CMBS QUALITY BY MARKET VALUE, 2009–2013 ($ BILLIONS)

 6

 5


 4


 3


 2


 1


 0
     Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

        Super Senior            AM          AJ         Other – CMBS


     Notes: Numbers affected by rounding. Calculated based on monthly data supplied by the PPIF managers.

     * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
       the best information available. Estimates do not have a material effect on the presentations in this report.

     Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.


   Figure 2.11 and 2.12 show the distribution of non-agency RMBS and CMBS
investments held in PPIP by respective risk levels from December 31, 2009,
through June 30, 2013, as a percentage of market value, as reported by PPIP
managers.
174   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             FIGURE 2.11

                                             AGGREGATE RMBS QUALITY AS A PERCENTAGE OF MARKET VALUE, 2009–2013

                                             100%



                                              80%



                                              60%



                                              40%



                                              20%



                                               0%
                                                    Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

                                                       Prime                   Subprime                      Other – RMBS
                                                       Alt-A                   Option Arm

                                                    Notes: Numbers affected by rounding. Calculated based on monthly data supplied by the PPIF managers.

                                                    * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
                                                      the best information available. Estimates do not have a material effect on the presentations in this report.

                                                    Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.



                                             FIGURE 2.12

                                             AGGREGATE CMBS QUALITY AS A PERCENTAGE OF MARKET VALUE, 2009–2013

                                             100%



                                              80%



                                              60%



                                              40%


                                              20%



                                               0%
                                                    Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

                                                       Super Senior            AJ
                                                       AM                      Other – CMBS

                                                    Notes: Numbers affected by rounding. Calculated based on monthly data supplied by the PPIF managers.

                                                    * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
                                                      the best information available. Estimates do not have a material effect on the presentations in this report.

                                                    Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.
                                                                                                                       QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   175




    Non-agency RMBS and CMBS can be classified geographically, according to
the states where the underlying mortgages are held. Figure 2.13 and 2.14 show the
states with the greatest representation in the underlying non-agency RMBS and
CMBS investments in PPIFs, as reported by PPIP managers from December 30,
2009 through June 30, 2013.

FIGURE 2.13

AGGREGATE RMBS GEOGRAPHIC DISTRIBUTION BY MARKET VALUE, 2009–2013
($ BILLIONS)
20

18

16

14

12
10

 8

 6

 4

 2

 0
     Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

        California              New York                       Other
        Florida                 Virginia/New Jersey

     Notes: Numbers affected by rounding. Calculated based on monthly data supplied by the PPIF managers. Virginia ranked fourth
     from Q4 2009 – Q2 2012 and was replaced by New Jersey from Q3 2012 forward.

     * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
       the best information available. Estimates do not have a material effect on the presentations in this report.

     Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.
176   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             FIGURE 2.14

                                             AGGREGATE CMBS GEOGRAPHIC DISTRIBUTION BY MARKET VALUE, 2009–2013
                                             ($ BILLIONS)

                                              6


                                              5


                                              4


                                              3


                                              2


                                              1


                                              0
                                                  Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

                                                     California              Texas                    Other
                                                     New York                Florida

                                                  Notes: Numbers affected by rounding. Calculated based on monthly data supplied by the PPIF managers.

                                                  * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
                                                    the best information available. Estimates do not have a material effect on the presentations in this report.

                                                  Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.



                                                Non-agency RMBS and CMBS can be classified by the delinquency of the
                                             underlying mortgages. Figure 2.15 and 2.16 show the distribution of non-agency
                                             RMBS and CMBS investments held in PPIP by delinquency levels, as reported by
                                             PPIP managers from December 30, 2009, through June 30, 2013.
                                                                                                                      QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   177




FIGURE 2.15

AGGREGATE AVERAGE RMBS DELINQUENCIES BY MARKET VALUE, 2009–2013
($ BILLIONS)
20

18

16

14

12
10

 8

 6

 4

 2

 0
     Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

        Current                 30-59 Days                    60+ Days


     Notes: Numbers affected by rounding. Calculated based on monthly data supplied by the PPIF managers.

     * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
       the best information available. Estimates do not have a material effect on the presentations in this report.

     Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.



FIGURE 2.16

AGGREGATE AVERAGE CMBS DELINQUENCIES BY MARKET VALUE, 2009–2013
($ BILLIONS)

 6


 5


 4


 3


 2


 1


 0
     Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

        Current                 30-59 Days                    60+ Days


     Notes: Numbers affected by rounding. Calculated based on monthly data supplied by the PPIF managers.

     * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
       the best information available. Estimates do not have a material effect on the presentations in this report.

     Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.
178            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      Unlocking Credit for Small Businesses (“UCSB”)/Small
      7(a) Loan Program: SBA loan program
                                                      Business Administration (“SBA”) Loan Support Initiative
      guaranteeing a percentage of loans for
                                                      On March 16, 2009, Treasury announced the Unlocking Credit for Small
      small businesses that cannot otherwise
                                                      Businesses (“UCSB”) program, which according to Treasury was designed to
      obtain conventional loans at reasonable
                                                      encourage banks to increase lending to small businesses. Through UCSB, Treasury
      terms.
                                                      purchased $368.1 million in securities backed by pools of loans from the Small
                                                      Business Administration’s (“SBA”) 7(a) Loan Program.595
      Pool Assemblers: Firms authorized
                                                          Treasury signed contracts with two pool assemblers, Coastal Securities, Inc.
      to create and market pools of SBA-
                                                      (“Coastal Securities”), and Shay Financial Services, Inc. (“Shay Financial”), on
      guaranteed loans.
                                                      March 2, 2010, and August 27, 2010, respectively.596 Under the governing agree-
                                                      ment, EARNEST Partners, on behalf of Treasury, purchased SBA pool certificates
      SBA Pool Certificates: Ownership
                                                      from Coastal Securities and Shay Financial without confirming to the counterpar-
      interest in a bond backed by SBA-
                                                      ties that Treasury was the buyer.597 From March 19, 2010, to September 28, 2010,
      guaranteed loans.
                                                      Treasury purchased 31 floating-rate 7(a) securities from Coastal Securities and
                                                      Shay Financial for a total of approximately $368.1 million.598
                                                          In a series of sales from June 2011 through January 2012, Treasury sold all its
      For more information on SBA 7(a) Loan           SBA 7(a) securities, for total proceeds of $334.9 million, ending the program.599
      Program mechanics and TARP support              According to Treasury, over the life of the program Treasury also had received
      for the program, see SIGTARP’s April
                                                      $29 million and $13.3 million in amortizing principal and interest payments,
      2010 Quarterly Report, pages 105-106.
                                                      respectively.600
      For a full listing of the SBA 7(a)
      securities Treasury purchased through
      UCSB, including investment amounts,
      sales proceeds, and other proceeds
      received by Treasury, see SIGTARP’s
      April 2012 Quarterly Report, page 134.
                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013          179




AUTOMOTIVE INDUSTRY SUPPORT PROGRAMS
During the financial crisis, Treasury, through TARP, launched three automotive
industry support programs: the Automotive Industry Financing Program (“AIFP”),
the Auto Supplier Support Program (“ASSP”), and the Auto Warranty Commitment
Program (“AWCP”). According to Treasury, these programs were established “to
prevent the collapse of the U.S. auto industry, which would have posed a significant
risk to financial market stability, threatened the overall economy, and resulted in
the loss of one million U.S. jobs.”601 As of September 30, 2013, General Motors
Company (“GM”) and GMAC Inc., now Ally Financial Inc. (“Ally Financial”),
remain in TARP, owing $15 billion and $14.6 billion, respectively, to taxpayers.602
     Treasury owned 101.3 million GM shares, or 7.3% of GM’s common stock
outstanding as of September 26, 2013, the most recent date for which it has dis-
closed share ownership.603 As of September 30, 2013, Treasury owned 74% of Ally
Financial’s common stock and $5.9 billion of its mandatorily convertible preferred
shares (“MCP”).604 Taxpayers have lost $9.7 billion on the TARP investment in               For more information on GMAC/Ally
GM as of September 30, 2013, from selling GM common stock at prices below the               Financial, see “Taxpayers Continue to
Government’s cost basis, according to Treasury.605 Taxpayers also lost $2.9 billion         Own 74% of GMAC (Rebranded as
                                                                                            Ally Financial Inc.) from the TARP
on Treasury’s investment in Chrysler LLC, which exited TARP in 2011. A fourth
                                                                                            Bailouts,” in SIGTARP’s January 2013
company, Chrysler Financial Services Americas LLC (“Chrysler Financial”), repaid
                                                                                            Quarterly Report, pages 147-164.
all its TARP money in 2009. ASSP was terminated in April 2010 and AWCP was
terminated in July 2009.
     Treasury initially obligated approximately $84.8 billion in TARP funds through
the three auto assistance programs to GM, Ally Financial, Chrysler, and Chrysler
Financial.606 Ultimately, Treasury spent $79.7 billion in TARP funds on the auto
bailout after $2.1 billion in loan commitments to Chrysler were never drawn down,
and all available funding for the ASSP program was not used.607 As of September
30, 2013, taxpayers are owed $32.5 billion, of which $12.6 billion in losses
have been realized or written off and will never be repaid, leaving $19.9 billion
outstanding.
     Treasury’s investments in AIFP and the two related programs and the
companies’ principal repayments are summarized in Table 2.48.
180   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             TABLE 2.48
                                              TARP AUTOMOTIVE PROGRAM INVESTMENTS AND PRINCIPAL REPAYMENTS,
                                              AS OF 9/30/2013 ($ BILLIONS)
                                                                                                                     Ally
                                                                                             General            Financial                               Chrysler
                                                                                             Motorsa                Inc.b          Chryslerc            Financial                 Total
                                              Automotive Industry
                                                                                                                                                                                         
                                              Financing Program
                                                 Treasury Investment                             $49.5               $17.2               $10.5                 $1.5              $78.6
                                                 Principal Repaid                                  34.5                  2.5                 7.6                 1.5               46.1
                                              Auto Supplier Support
                                                                                                                                                                                         
                                              Program
                                                 Treasury Investment                                 0.3                                     0.1                                       0.4
                                                 Principal Repaid                                    0.3                                     0.1                                       0.4
                                              Auto Warranty
                                                                                                                                                                                         
                                              Commitment Program
                                                 Treasury Investment                                 0.4                                     0.3                                       0.6
                                                 Principal Repaid                                    0.4                                     0.3                                       0.6
                                              Total Treasury Investment                         $50.2               $17.2               $10.9                 $1.5              $79.7
                                              Total Principal Repaid                            $35.2                 $2.5                $8.0                $1.5              $47.2
                                              Still Owed to Taxpayers                           $15.0               $14.6                 $2.9                $0.0              $32.5
                                              Realized Loss on
                                                                                                ($9.7)                                  ($2.9)                       
                                              Investment
                                              Notes: Numbers may not total due to rounding.
                                              a
                                                Principal repaid includes a series of debt payments totaling $159 million recovered from GM bankruptcy.
                                              b
                                                  Investment includes an $884 million loan to GM, which it invested in GMAC in January 2009.
                                              c
                                                 Principal repaid includes $560 million Fiat paid in July 2011 for Treasury’s remaining equity stake in Chrysler and for Treasury’s
                                                  rights under an agreement with the UAW retirement trust related to Chrysler shares.

                                              Sources: Treasury, Transactions Report, 9/30/2013; Treasury, response to SIGTARP data call, 10/3/2013; Treasury, Daily TARP
                                              Update, 10/1/2013.



                                             Automotive Industry Financing Program
                                             AIFP, the largest of the three auto bailout programs, has not expended any
                                             TARP funds for the automotive industry since December 30, 2009.608 Of AIFP-
                                             related loan principal repayments and share sale proceeds, as of September
                                             30, 2013, Treasury has received approximately $34.5 billion related to its GM
                                             investment, $2.5 billion related to its Ally Financial/GMAC investment, $7.6
                                             billion related to its Chrysler investment, and $1.5 billion related to its Chrysler
                                             Financial investment.609 In addition to principal repayments, Treasury has received
                                             approximately $5.5 billion in dividends and interest as of September 30, 2013.610

                                             GM
                                             GM is still in TARP and taxpayers are owed $15 billion for the investment in GM.
                                             In return for its investment, Treasury held 101.3 million shares or 7.3% of GM’s
                                             common stock as of September 26, 2013, the most recent date for which it has
                                             disclosed share ownership.611 Treasury provided approximately $49.5 billion to
                                             GM through AIFP, the largest of the automotive rescue programs. Of that amount,
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013     181




$19.4 billion was provided before bankruptcy and $30.1 billion was provided as
financing during bankruptcy. During bankruptcy proceedings, Treasury’s loans were
converted into common or preferred stock in GM or debt assumed by GM. As a
result of GM’s bankruptcy, Treasury’s investment was converted to a 61% common
equity stake in GM, $2.1 billion in preferred stock in GM, and a $7.1 billion loan
to GM ($6.7 billion through AIFP and $360.6 million through AWCP). As part
of a credit agreement with Treasury, $16.4 billion in TARP funds were placed
in an escrow account that GM could access only with Treasury’s permission.612
Treasury also holds an administrative claim in the company’s bankruptcy with an
outstanding principal amount of approximately $826.9 million. However, according
to Treasury, it does not expect to recover any significant additional proceeds from
this claim.613

Debt Repayments
As of September 30, 2013, GM had made approximately $756.7 million in
dividend and interest payments to Treasury under AIFP.614 GM repaid the $6.7
billion loan provided through AIFP with interest, using a portion of the escrow
account that had been funded with TARP funds. What remained in escrow was
released to GM with the final debt payment by GM.615

Sales of GM Stock
In November and December 2010, GM successfully completed an initial public
offering (“IPO”) in which GM’s shareholders sold 549.7 million shares of common
stock and 100 million shares of Series B mandatorily convertible preferred shares
(“MCP”) for total gross proceeds of $23.1 billion.616 As part of the IPO priced at
$33 per share, Treasury sold 412.3 million common shares for $13.5 billion in net
proceeds (after taking into account underwriting fees associated with the IPO),
reducing its number of common shares to 500.1 million and its ownership in GM
from 61% to 33%.617 On December 15, 2010, GM repurchased Treasury’s Series A                  For more on the results of GM’s
preferred stock (83.9 million shares) for total proceeds of $2.1 billion and a capital        November 2010 IPO, see SIGTARP’s
gain to Treasury of approximately $41.9 million.618 On January 13, 2011, Treasury’s           January 2011 Quarterly Report,
ownership in GM was diluted from 33% to 32% as a result of GM contributing 61                 page 163.
million of its common shares to fund GM’s hourly and salaried pension plans.619
    Since then, Treasury has continued to sell GM stock, both directly to GM and
in the public markets. On December 21, 2012, Treasury sold 200 million common
shares to GM at $27.50 per share, for total proceeds of $5.5 billion.620 According to
Treasury, the stock sale was the first step in a plan to fully exit its GM investment
by early 2014.621 As part of the transaction, Treasury agreed, among other things, to
waive previously required reports from GM on its liquidity and budget and to drop
a ban on GM owning private aircraft for its executives’ use.622 GM said it would
take a charge of approximately $400 million for the share buyback.623 On January
18, 2013, Treasury announced the initiation of the first of several pre-arranged
written trading plans in conjunction with the divestment of its remaining shares.624
Under the first trading plan, which expired April 17, 2013, Treasury sold 58.4
million shares at an average price of $28.05 per share, for total proceeds of $1.6
182               SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                          billion.625 On May 6, 2013, Treasury announced a second pre-arranged written
                                                                          trading plan that ended on September 13, 2013.626 Under that plan, Treasury sold
                                                                          110.3 million shares at an average price of $34.65 per share, for total proceeds of
                                                                          $3.8 billion.627 On September 26, 2013, Treasury announced that it had begun a
                                                                          third pre-arranged trading plan, which it expects to end on or around December
                                                                          20, 2013.628 In addition to the trading plans, on June 6, 2013, Treasury sold 30
                                                                          million shares of common stock at $34.41 per share in a public equity offering that
                                                                          raised $1 billion.629 As of September 26, 2013, at the commencement of the third
                                                                          trading plan, Treasury held 101.3 million shares, or 7.3% of GM’s common stock
                                                                          outstanding.630
                                                                               Taxpayers have realized losses from an accounting standpoint of $9.7 billion on
                                                                          all GM common shares sold from November 2010 through September 13, 2013,
                                                                          the end of the second pre-arranged trading plan, according to Treasury.631 The
                                                                          losses are due to Treasury’s sales of GM common shares at prices below its cost
                                                                          basis of $43.52 per share. Table 2.49 summarizes Treasury’s sales of GM stock.
      TABLE 2.49
       TREASURY’S SALES OF GM COMMON SHARES
                                                                                          Share                 Proceeds                Realized Loss                # Shares                Remaining
       Date                    Description                    # Shares Sold               Price               ($ Millions)                ($ Millions)              Remaining              Equity Owned
                               During GM’s bankruptcy, Treasury received an equity stake in GM with a
      July 2009                                                                                                                                                   912,394,068                         60.8%
                               cost basis of $43.52 per common share.
                               Initial Public
      11/18/2010                                                358,546,795              $32.75                    $11,743                        $3,771          553,847,273                         36.9%
                               Offering (IPO)
      11/26/2010               IPO Overallotment                  53,782,019             $32.75                       1,761                            566        500,065,254                         32.0%
                               GM buyback of
      12/21/2012                                                200,000,000              $27.50                       5,500                         3,203         300,065,254                         22.0%
                               shares
      1/18/2013 –
                               1st trading plan                   58,392,078             $28.05a                      1,638                            903        241,673,176                         17.7%
      4/11/2013
                               Public equity
      6/12/2013                                                   30,000,000             $34.41b                      1,032                            273       189,194,989c                         13.8%
                               offering
      5/6/2013 –
                               2nd trading plan                 110,336,510              $34.65                       3,823                            979        101,336,666                           7.3%
      9/13/2013
      Total                                                    811,057,402                                        $25,497                         $9,695
       Notes: Numbers may not total due to rounding. “NA” means data not available. In most instances, dates reflect when Treasury received proceeds.
       a
         Weighted average price of shares sold. Treasury’s January 18, 2013, trading plan gave Citigroup and JPMorgan the discretion to sell up to 58,392,078 shares of common stock during a three-month
          period ending on April 17, 2013. Sales were completed on April 11, 2013.
       b
          Weighted average price of shares sold. Treasury’s May 6, 2013, trading plan gave Citigroup and JPMorgan the discretion to sell up to 142,814,136 shares of common stock during the period ending on
           September 13, 2013.
       c
          General Motors Company prospectus, 6/6/2013.

       Sources: Treasury, Transactions Report, 9/30/2013; Treasury, response to SIGTARP data call, 10/3/2013.
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013           183




     Treasury owned 101.3 million common shares of GM stock as of September
26, 2013, a total that did not change from the completion of the second trading
plan on September 13, 2013.632 In order to recoup its total investment in GM,
Treasury will need to recover an additional $15 billion in proceeds from future
stock sales.633 This translates to an average of $147.95 per share on its remaining
common shares in GM at that point in time, not taking into account dividend
and interest payments received from GM.634 The break-even price — $147.95
per share — is calculated by dividing the $15 billion (the amount that remained
outstanding to Treasury as of September 30, 2013) by the 101.3 million remaining
common shares owned by Treasury on that date. If the $756.7 million in dividends
and interest received by Treasury as of September 30, 2013, is included in this
computation, then Treasury will need to recover $14.2 billion in proceeds, which
translates into a break-even price of $140.48 per share, not taking into account
other fees or costs associated with selling the shares.
      Other GM shareholders that participated in the 2009 auto bailout have also
announced recent sales. On September 10, 2013, the governments of Canada and
of Ontario sold a block of 30 million shares of General Motors common stock they
had purchased as part of GM’s bailout. Following the sale, the governments will
still hold 110 million shares of GM.635 Separately, on September 23, 2013, GM
announced it would buy back about $3.2 billion (120 million shares) of preferred
stock from the United Auto Workers (“UAW”) Retiree Medical Benefits Trust.636
The UAW trust also sold 20 million shares of its GM common stock in conjunction
with the June 6, 2013, Treasury public offering.637

Ally Financial, formerly known as GMAC
Ally Financial is still in TARP and taxpayers are owed $14.6 billion for the TARP
investment in it. In return for its investment, as of September 30, 2013, Treasury
holds approximately 74% of Ally Financial’s common stock and $5.9 billion worth
of mandatorily convertible preferred shares (“MCP). As of September 30, 2013,                 For a discussion of the history and
Ally Financial had made one principal payment of $2.5 billion to Treasury since               financial condition of Ally Financial,
receiving bailout assistance almost five years ago. The company also has paid a               see SIGTARP’s January 2013 Quarterly
                                                                                              Report, pages 147-164.
total of $3.5 billion in quarterly dividends to Treasury through September 30,
2013, as required by the terms of the preferred stock that Ally Financial issued to
Treasury.638
     Ally Financial received $17.2 billion in three separate injections of TARP funds.
On December 29, 2008, Treasury purchased $5 billion in senior preferred equity
from GMAC and received an additional $250 million in preferred shares through
warrants that Treasury exercised immediately at a cost of $2,500.639 In January
2009, Treasury loaned GM $884 million to invest in GMAC.640 In May 2009,
Treasury exchanged this $884 million debt for a 35% common equity ownership in
GMAC.641 On May 21, 2009, Treasury made an additional investment in GMAC
when it purchased $7.5 billion of MCP and received warrants that Treasury im-
mediately exercised for an additional $375 million in MCP at an additional cost of
approximately $75,000.642 On December 30, 2009, Treasury invested another $3.8
billion in GMAC, and Treasury received $2.5 billion in trust preferred securities
184               SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                 (“TRUPS”) and $1.3 billion in MCP. Treasury also received warrants, which were
                                                                 immediately exercised, to purchase an additional $127 million in TRUPS and
                                                                 $62.5 million in MCP at an additional cost of approximately $1,270 and $12,500,
                                                                 respectively.643 Additionally, Treasury converted $3 billion of its MCP into GMAC
                                                                 common stock, increasing its common equity ownership from 35% to 56%.644 On
                                                                 May 10, 2010, GMAC changed its name to Ally Financial Inc.645
                                                                     On December 30, 2010, Treasury announced the conversion of $5.5 billion
                                                                 of its MCP in Ally Financial to common equity, increasing Treasury’s ownership
Figure 2.17                                                      stake in Ally Financial’s common equity from 56% to 74%.646 On March 7, 2011,
                                                                 Treasury sold its $2.7 billion in TRUPS in Ally Financial in a public offering, result-
OWNERSHIP IN ALLY FINANCIAL/GMAC
                                                                 ing in a $2.5 billion principal repayment to Treasury.647 As of September 30, 2013,
                                                                 no other principal repayments have been made.
               GM Trust
 Third-Party
                                                                     As a result of its conversion of MCP to common stock in Ally Financial, and
 Investors              10%                                      for as long as Treasury maintains common equity ownership at or above 70.8%,
                  8%
                                                                 Treasury can appoint six of the 11 directors on Ally Financial’s board.648 Treasury
 Cerberus 9%                                     United States
                                                 Department
                                                                 completed the initial round of appointments to its six new board seats in August
                                        74%
                                                 of the          2012, and since then has replaced two of those appointees.649
                                                 Treasury
                                                                     The conversion of $5.5 billion of Treasury’s MCP diluted the shares of other
                                                                 existing shareholders in Ally Financial. Following the conversion, the private equity
                                                                 firm Cerberus Capital Management, L.P. (“Cerberus”) held 8.7%, third-party inves-
                                                                 tors collectively held 7.6%, an independently managed trust owned by GM held
Notes: Ownership as of September 30, 2013. Numbers
may be affected by rounding.                                     5.9%, and GM directly held a 4% stake in Ally Financial’s common equity.650 GM’s
Source: Ally Financial, Inc., Amendment No. 8 to Form S-1,       interests have since been consolidated in the trust. Figure 2.17 shows the break-
www.sec.gov/Archives/edgar/data/40729/
000119312513285728/d388008ds1a.htm, accessed
                                                                 down of common equity ownership in Ally Financial as of September 30, 2013.
10/7/2013.

                                                                 Ally Financial Announces Stock Sale and Plan to Repurchase Securities from
                                                                 Treasury
                                                                 On August 20, 2013, Ally Financial announced two transactions that it said would
                                                                 reduce Treasury’s stake in the company.651 In one transaction, Ally Financial said
                                                                 it had agreed to a private placement of 166,667 shares of its common stock for an
                                                                 aggregate purchase price of $1 billion. In the other transaction, Ally Financial said
                                                                 it had agreed to repurchase from Treasury all of its MCP and also to terminate
                                                                 Treasury’s existing share adjustment right associated with those shares.652 Ally said
                                                                 it will pay Treasury $5.2 billion to repurchase $5.938 billion par value of MCP,
                                                                 plus a payment of $725 million to terminate the share adjustment right.653 The
                                                                 transactions, which are scheduled to close by November 30, 2013, are subject to
                                                                 conditions including the Federal Reserve not objecting to Ally Financial’s capital
                                                                 plan.654
                                                                     According to Treasury, under new agreements associated with these transac-
                                                                 tions, Treasury would have the right to designate a majority of the Ally Financial
                                                                 Board of Directors as long as its ownership stake exceeds 50%.655

                                                                 Proposed Ally Financial IPO
                                                                 On March 31, 2011, Ally Financial filed a Form S-1 Registration statement for
                                                                 an IPO with the Securities and Exchange Commission (“SEC”).656 The document
                                                                                 QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   185




includes a prospectus relating to the issuance of Ally Financial common stock.657
The prospectus also outlines certain aspects of Ally Financial’s business operations
and risks facing the company.658
    Ally Financial stated that the proposed IPO would consist of “common stock
to be sold by the U.S. Department of the Treasury.”659 Ally Financial has disclosed
additional details about its proposed IPO in several amended Form S-1 Registration
statements filed over time with the SEC, the most recent on July 9, 2013.660

Ally Financial Subsidiary Files for Chapter 11 Bankruptcy Relief
On May 14, 2012, Ally Financial announced that its mortgage subsidiary,
Residential Capital, LLC, and certain of its subsidiaries (“ResCap”) filed for
bankruptcy court relief under Chapter 11 of the U.S. Bankruptcy Code, and that
it was exploring strategic alternatives for its international operations.661 As a result
of the Chapter 11 filing, Ally Financial said that it deconsolidated ResCap from
its financial statements and wrote down its equity interest in ResCap to zero.662
On June 26, 2013, the U.S. Bankruptcy Court approved Ally Financial’s proposed
settlement to pay $2.1 billion to the ResCap estate for release from certain
mortgage claims and liabilities.663 As part of the settlement, ResCap on June 13,
2013, fully repaid Ally Financial’s secured claim for $1.13 billion owed under
existing credit facilities.664 Ally Financial recorded a charge of about $1.6 billion
in the second quarter of 2013 related to the settlement, and said it would make
its settlement payment to the ResCap estate in the fourth quarter of 2013 on the
effective date of the reorganization plan, pending court approval.665

Ally Financial Agrees to Sell International, Other Assets
On November 21, 2012, Ally Financial announced it had reached agreements
to sell its remaining international assets over time for $9.2 billion in proceeds.
According to Ally Financial, that included the sale of most of its operations in
Europe and Latin America to GM Financial Company, Inc. (“GM Financial”), and
a 40% stake in a joint venture in China. From this, Ally Financial received $2.6
billion in total proceeds.666 In June, 2013, Ally Financial said it completed the sale
of its business in France, and on October 1, 2013, it said it completed the sale of
its Brazil operations to GM Financial for $611 million.667 Ally Financial also has
said it expects the sale of a joint venture stake in China to close later in 2013 or
2014.668 In addition, it sold its Canadian auto finance operation to Royal Bank
of Canada for $4.1 billion and its Mexican insurance business to ACE Group
for $865 million, in sales completed on February 1, 2013, and May 2, 2013,
respectively.669 Additionally, Ally Financial’s subsidiary, Ally Bank, announced in
March 2013 that it agreed to sell its entire agency mortgage servicing rights to
Ocwen Financial and Quicken Loans.670 Both sales were completed on April 17,
2013, according to Ally Bank, which said it received a combined $850 million
in proceeds from the transactions.671 Table 2.50 summarizes Ally Financial’s
international and domestic asset sales in 2013.
186   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             TABLE 2.50
                                              ALLY FINANCIAL - 2013 ASSET SALES                               ($ MILLIONS)

                                                                      Sale Proceeds                       Buyer      Sale Closed
                                              Ally Credit
                                                                                                 Royal Bank of
                                              Canada,                             $4,100                                    2/1/13
                                                                                                       Canada
                                              ResMor Trust
                                              Ally Bank                                                    Walter
                                              wholesale                                N/A            Investment          2/28/13
                                              mortgage unit                                          Management
                                              Units in Latin
                                              America,                            $2,600             GM Financial          4/2/13a
                                              Europe, China
                                              Ally Bank                                                 Ocwen
                                              mortgage                               $850            Financial,           4/17/13
                                              servicing                                         Quicken Loans
                                              ABA Seguros
                                                                                     $865             ACE Group             5/2/13
                                              Insurance
                                              Brazilian
                                                                                     $611            GM Financial         10/1/13
                                              operations
                                              Total
                                                                                 $9,026                                               
                                              Proceeds:
                                              Notes:
                                              a
                                                The closing on 4/2/2013 did not include China assets, which are expected to close
                                                 later in 2013/2014.

                                              Sources: Ally Financial SEC filings, press releases.



                                             Chrysler
                                             Chrysler is no longer in TARP and taxpayers suffered a $2.9 billion loss on
                                             the TARP investment in Chrysler. Through October 3, 2010, Treasury made
                                             approximately $12.5 billion available to Chrysler directly through AIFP in three
                                             stages: $4 billion before bankruptcy to CGI Holding LLC, which was the parent
                                             of Chrysler and Chrysler Financial; $1.9 billion in financing to Chrysler during
                                             bankruptcy; and $6.6 billion to Chrysler afterwards.672 In exchange, Treasury
                                             received 10% of the common equity in Chrysler.
                                                 On April 30, 2010, following the bankruptcy court’s approval of the plan
                                             of liquidation for Chrysler, the $1.9 billion loan was extinguished without
                                             repayment. In return, Treasury retained the right to recover proceeds from the
                                             sale of assets that were collateral for the loan from the liquidation of Chrysler
                                             assets.673 According to Treasury, it is unlikely to fully recover its initial investment
                                             of approximately $1.9 billion related to the loan.674 As of September 30, 2013,
                                             Treasury had recovered approximately $57.4 million from asset sales during
                                             bankruptcy.675 Of the $4 billion lent to Chrysler’s parent company, CGI Holding
                                             LLC, before bankruptcy, $500 million of the debt was assumed by Chrysler while
                                             the remaining $3.5 billion was held by CGI Holding LLC.676 Under the terms
                                             of this loan agreement, as amended on July 23, 2009, Treasury was entitled to
                                             the greater of approximately $1.4 billion or 40% of any proceeds that Chrysler
                                             Financial paid to its parent company, CGI Holding LLC, after certain other
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   187




distributions were made.677 On May 14, 2010, Treasury accepted $1.9 billion in full
satisfaction of its $3.5 billion loan to CGI Holding LLC.678
    On May 24, 2011, Chrysler used the proceeds from a series of refinancing
transactions and an equity call option exercised by Fiat North America LLC (“Fiat”)
to repay the loans from Treasury and the Canadian government.679 The repaid loans
were made up of $6.6 billion in post-bankruptcy financing (of which $2.1 billion
was never drawn down), and the $500 million in debt assumed by Chrysler.680
Treasury terminated Chrysler’s ability to draw the remaining $2.1 billion TARP
loan.681
    Over time, Fiat increased its ownership of Chrysler. On July 21, 2011, Treasury
sold to Fiat for $500 million Treasury’s remaining equity ownership interest in
Chrysler. Treasury also sold to Fiat for $60 million Treasury’s rights to receive pro-
ceeds under an agreement with the United Auto Workers retiree trust pertaining to
the trust’s shares in Chrysler.682
    As of July 21, 2011, the Chrysler entities had made approximately $1.2 billion
in interest payments to Treasury under AIFP.683

Chrysler Financial
Chrysler Financial is no longer in TARP, having fully repaid the TARP investment.
In January 2009, Treasury loaned Chrysler Financial $1.5 billion under AIFP to
support Chrysler Financial’s retail lending. On July 14, 2009, Chrysler Financial
fully repaid the loan in addition to approximately $7.4 million in interest
payments.684 In connection with the $3.5 billion pre-bankruptcy loan remaining
with CGI Holding LLC, the parent company of Chrysler (the bankrupt entity)
and Chrysler Financial, Treasury was entitled to the greater of approximately $1.4
billion or 40% of any proceeds that Chrysler Financial paid to its parent company,
CGI Holding LLC, after certain other distributions were made.685 On May 14,
2010, Treasury accepted $1.9 billion in full satisfaction of its $3.5 billion loan
to CGI Holding LLC, thereby relinquishing any interest in or claim on Chrysler
Financial.686 Seven months later, on December 21, 2010, TD Bank Group
announced that it had agreed to purchase Chrysler Financial from Cerberus, the
owner of CGI Holding LLC, for approximately $6.3 billion.687 TD Bank Group
completed its acquisition of Chrysler Financial on April 1, 2011, and has rebranded
Chrysler Financial under the TD Auto Finance brand.688

Auto Supplier Support Program (“ASSP”)
On March 19, 2009, Treasury announced a commitment of $5 billion to
ASSP to “help stabilize the automotive supply base and restore credit flows in a
critical sector of the American economy.”689 Because of concerns about the auto
manufacturers’ ability to pay their invoices, suppliers had not been able to borrow
from banks by using their receivables as collateral. ASSP enabled automotive parts
suppliers to access Government-backed protection for money owed to them for the
products they shipped to manufacturers. Under the program, Treasury made loans
for GM ($290 million) and Chrysler ($123.1 million) that were fully repaid in April
2010.690
188   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Auto Warranty Commitment Program (“AWCP”)
                                             AWCP was designed to bolster consumer confidence by guaranteeing Chrysler
                                             and GM vehicle warranties during the companies’ restructuring in bankruptcy.691
                                             Treasury obligated $640.8 million to this program — $360.6 million for GM
                                             and $280.1 million for Chrysler.692 On July 10, 2009, the companies fully repaid
                                             Treasury upon their exit from bankruptcy.693
              TREASURY APPROVED LARGE
              DECREASES IN THE ESTIMATED NUMBER
SECT IO N 3   OF HOMEOWNERS TO BE HELPED BY
              STATES THROUGH TARP’S HHF PROGRAM
190   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                                                                  QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   191




INTRODUCTIONi
More than three years ago, in February 2010, in an attempt to help families in
places hurt the most by the housing crisis, the Administration launched the TARP-
funded Housing Finance Agency Innovation Fund for the Hardest Hit Housing
Markets (“Hardest Hit Fund” or “HHF”).694 The Administration announced that
TARP funds would be used for “innovative measures to help families in the states
that have been hit the hardest by the aftermath of the housing bubble.”695 This
TARP-funded housing support program was to be developed and administered by
state housing finance agencies (“HFAs”) with Treasury’s approval and oversight.696,ii
Treasury allocated $7.6 billion in TARP funds for the HHF program and, through
four rounds of funding in 2010, obligated these TARP funds to 18 states and
the District of Columbia (“states”) – those states that Treasury deemed to have
significant home price declines and high unemployment rates.697
    Treasury approved each of the 19 states’ initial program proposals and approves
any proposed changes to programs.698 These proposals include estimates of the
number of homeowners to be helped through each program (some states have
more than one program).699 However, as SIGTARP reported in its April 12, 2012,
audit “Factors Affecting Implementation of the Hardest Hit Fund Program,” “This
number has limited usefulness because states can, and have, changed estimates,
creating a shifting baseline that makes it difficult to measure performance
against expectations. The states’ estimated number of homeowners to be assisted
by HHF has steadily decreased over the last year.” For that reason, in the April
2012 audit, SIGTARP recommended that Treasury: (1) set meaningful and
measurable performance goals for the Hardest Hit Fund program including, at a
minimum, the number of homeowners Treasury estimates will be helped by the
program, and measure the program’s progress against those goals; and (2) instruct
state housing finance agencies in the Hardest Hit Fund to set meaningful and
measurable overarching and interim performance goals with appropriate metrics to
measure progress for their individual state programs. Treasury rejected SIGTARP’s
recommendations. As a result, the baseline has shifted such that Treasury has
allowed the states to significantly decrease the number of homeowners that they
anticipate will get help from TARP-funded HHF.700 In other words, rather than fix
the problem that SIGTARP warned Treasury about in its audit, Treasury allowed
the problem to get worse. Rather than following SIGTARP’s recommendations,
which were designed to make Treasury and states set goals and work hard to
achieve those goals, Treasury is refusing to hold itself or the states accountable to
any goal of the number of homeowners to be assisted in HHF, and the result has
been that the program is reaching far fewer homeowners than the states expected
in 2011.

iS
  IGTARP is issuing this report under the Emergency Economic Stabilization Act. It is not an audit or evaluation under the Inspector
  General Act of 1978 as amended.
ii Participating HFAs in HHF are from: Alabama, Arizona, California, Florida, Georgia, Illinois, Indiana, Kentucky, Michigan, Mississippi,
 Nevada, New Jersey, North Carolina, Ohio, Oregon, Rhode Island, South Carolina, Tennessee, and Washington, DC. As of June 30,
 2013, there were 63 active HHF programs run by the 19 state HFAs. According to Treasury, Illinois and Rhode Island are no longer
 accepting applications for assistance from homeowners because they determined that their allocated HHF funds would be spent on
 homeowners who already have been approved for HHF assistance.
192           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                         At the peak estimate, made in the first few months of 2011, the states
                                                     collectively estimated that they would help as many as 546,562 homeowners with
                                                     HHF.701 Since then, with Treasury’s approval, states have changed their programs
                                                     (including reducing the estimated number of homeowners to be helped), cancelled
                                                     programs, and started new programs.702 The states now estimate helping 33%
                                                     fewer homeowners than they estimated in 2011. As of June 30, 2013, the states
                                                     estimated helping as many as 367,290 homeowners with HHF, which is 179,272
                                                     fewer homeowners than the states estimated helping with HHF in 2011.703
                                                         Importantly, the states collectively estimate that HHF will help 367,290
                                                     homeowners but fail to take into account that when states report program
                                                     participation numbers, homeowners may be double counted when they receive
                                                     assistance from multiple HHF programs offered in their state (14 states have
                                                     more than one program). For example, a homeowner may have lost his job, missed
                                                     three months of mortgage payments, and then sought help from his state. This
                                                     homeowner might be qualified to receive assistance from two HHF programs
                                                     offered by his state, one that could help him make up missed mortgage payments,
                                                     and a second that could help him pay his future mortgage payments while he seeks
                                                     new employment. Treasury requires states to estimate the number of people who
                                                     will participate in each of their programs, and then report the number who actually
                                                     participate in each program.704 It also requires them to report the total number
                                                     of individual homeowners assisted, which is lower than the reported program
                                                     participation numbers when homeowners have participated in more than one
                                                     program offered by their state.705
                                                         As of June 30, 2013, the latest data available, in aggregate, after nearly
      For more information on HHF,
                                                     three and a half years, states had spent 22% ($1.7 billion) of the $7.6 billion in
      see SIGTARP’s April 12, 2012,
      audit report, “Factors Affecting               TARP funds that Treasury allocated for the HHF program to provide assistance
      Implementation of the Hardest Hit              to 146,356 program participants (which translates to 126,858 individual
      Fund Program.”                                 homeowners), or 27% of the number of homeowners the states anticipated helping
                                                     with HHF in 2011.706,iii




                                                     STATES HAVE SPENT 22% OF TARP FUNDS
                                                     AVAILABLE FOR HHF ON ASSISTANCE FOR
                                                     STRUGGLING HOMEOWNERS
                                                     Of the $7.6 billion in TARP funds available for HHF, states collectively had drawn
                                                     down $2.7 billion (35%) as of June 30, 2013.707 However, not all of that has been
                                                     spent on direct assistance to homeowners. States have spent $1.7 billion (22%
                                                     of the $7.6 billion) to assist 126,858 individual homeowners. States have spent
                                                     the rest of the funds on administrative expenses or hold the money as cash-on-
                                                     hand. States have spent $308.5 million (4%) on administrative expenses; and held
                                                     iii According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
                                                          programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
                                                          and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
                                                          cash-on-hand, or undrawn funds.
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   193




$719.7 million (9%) as unspent cash-on-hand, as of June 30, 2013, the latest data
available.708 There remains $4.9 billion (65%) in undrawn funds available for HHF,
as of June 30, 2013.709 Treasury allows states to reallocate funds between programs
and modify existing programs as needed, with Treasury approval, until December
31, 2017.710 After this date, states must return unused funds to Treasury.711
    As of June 30, 2013, 86.9% of the HHF assistance received by homeowners
was for unemployment assistance, including past-due payment assistance.712 As
SIGTARP found in its April 2012 audit, these were the only types of assistance
for which the Government-sponsored enterprises (“GSE”s) previously directed
servicers to participate. The remaining assistance can be broken down to 12.5% for
mortgage modification, including principal reduction assistance, 0.4% for second-
lien reduction assistance, and 0.2% for transition assistance.713 States had not spent
any funds on demolition programs as of June 30, 2013.714
    Figure 3.1 shows state uses of TARP funds obligated for HHF by percent, as of
June 30, 2013, the most recent figures available.
    ￼
194   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                FIGURE 3.1

                STATE USES OF $7.6 BILLION OF TARP FUNDS AVAILABLE
                FOR HHF, BY PERCENT, AS OF 6/30/2013

                Alabama
                $162.5 million
                allocated
                Arizona
                $267.8 million
                allocated
                California
                $1,975.3 million
                allocated
                Florida
                $1,057.8 million
                allocated
                Georgia
                $339.3 million
                allocated
                Illinois
                $445.6 million
                allocated
                Indiana
                $221.7 million
                allocated
                Kentucky
                $148.9 million
                allocated
                Michigan
                $498.6 million
                allocated
                Mississippi
                $101.9 million
                allocated
                Nevada
                $194.0 million
                allocated
                New Jersey
                $300.5 million
                allocated
                North Carolina
                $482.8 million
                allocated
                Ohio
                $570.4 million
                allocated
                Oregon
                $220.0 million
                allocated
                Rhode Island
                $79.4 million
                allocated
                South Carolina
                $295.4 million
                allocated
                Tennessee
                $217.3 million
                allocated
                Washington D.C.
                $20.7 million
                allocated
                TOTAL
                $7.6 billion


                                   0%                      20%                       40%                      60%                       80%                      100%

                                        Homeowner Assistance                            Cash-on-Hand
                                        Administrative Expenses                         Undrawn Funds

                                   Notes: According to Treasury, committed program funds are funds committed to homeowners who have been approved to
                                   participate in HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when
                                   and how they capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously
                                   as homeowner assistance, cash-on-hand, or undrawn funds. States do not publish cash-on-hand in their quarterly performance
                                   reports; cash-on-hand is the amount drawn less homeowner assistance and administrative expenses; states may also hold
                                   additional cash generated from interest earned on HHF cash balances, cash repayments of assistance from lien satisfaction
                                   recoveries, or borrower remittances received less borrower partial payments made. State spending figures as of June 30,
                                   2013, are the most recent available; Treasury has separately published September 30, 2013, figures for amounts drawn down;
                                   as of September 30, 2013, states have drawn down $2.9 billion.

                                   Sources: Treasury, Transactions Report-Housing Programs, 6/27/2013; Treasury, responses to SIGTARP data calls,
                                   7/5/2013, 10/7/2013, and 10/17/2013; Treasury, HFA Aggregate Quarterly Report Q2 2013, no date; Arizona (Home)
                                   Foreclosure Prevention Funding Corporation, Hardest Hit Fund Reporting, Quarterly Performance Report Q2 2013, no date;
                                   GHFA Affordable Housing Inc., HomeSafe Georgia, US Treasury Reports, Quarterly Performance Report Q2 2013, no date.
                                                                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   195




TREASURY HAS NEVER SET A GOAL OF HOW
MANY HOMEOWNERS IT WILL HELP WITH HHF
OR REQUIRED THAT STATES SET A GOAL,
INSTEAD APPROVING MOST STATES’ SIGNIFICANT
REDUCTIONS OF ESTIMATES OF THE NUMBER OF
HOMEOWNERS TO BE HELPED
Treasury has never set a goal of how many homeowners Treasury will help with
HHF, rejecting SIGTARP’s recommendation that Treasury set such a goal.
Treasury has also not required states participating in HHF to set a goal of how
many homeowners they will help with HHF, rejecting SIGTARP’s recommendation
that Treasury require that each state set such a goal. Instead, Treasury required
states to estimate the number of homeowners who will participate in each of its
programs.715 However, as SIGTARP reported in its April 2012 audit, “this number
has limited usefulness.” With Treasury’s approval, states can modify programs,
cancel programs, introduce new programs, and change the estimate of how many
homeowners will participate in each of their programs, creating a shifting baseline
that makes it difficult to measure performance against expectations.716 Most states
have made many changes to programs and the estimated number of homeowners
to be helped. Fourteen HHF states have reduced their estimates, most of them
significantly, of how many homeowners they will help using TARP’s HHF
program.717 In the beginning of 2011, states collectively estimated that they would
help 546,562 homeowners with HHF. As of June 30, 2013, the states estimated
helping 367,290 homeowners with HHF, which is 179,172 fewer homeowners
than the states estimated helping with HHF in 2011.
    As of June 30, 2013, the states reported that 146,356 homeowners participated
in HHF programs.718 However, because homeowners may participate in more than
one program, the reported program participation numbers are higher than the
total number of individual homeowners assisted. According to Treasury, 126,858
individual homeowners participated in HHF programs.719
    Figure 3.2 shows, in the aggregate, the number of homeowners estimated
to participate in HHF programs (estimated program participation), the reported
number of homeowners who participated in one or more programs (program
participation), and the total number of individual homeowners assisted, as of June
30, 2013.iv
    ￼




iv Program participation and homeowners assisted data does not take into account the status of the mortgage (i.e., active, delinquent, in
  foreclosure, foreclosed, or sold) of homeowners who received TARP-funded HHF assistance.
196   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             FIGURE 3.2

                                             STATE ESTIMATED PROGRAM PARTICIPATION, PROGRAM PARTICIPATION, AND
                                             INDIVIDUAL HOMEOWNERS ASSISTED IN ALL HHF PROGRAMS, AS OF 6/30/2013

                                              600,000
                                                                                                                                Peak estimate: 546,562
                                                                                                                                6/30/2013 estimate: 367,290
                                                                                                                                6/30/2013 program participation: 146,356
                                              500,000                                                                           Homeowners assisted: 126,858




                                              400,000



                                              300,000



                                              200,000



                                              100,000



                                                   0
                                                         Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                                                           State Estimated Program Participation                Homeowners Assisted
                                                           Program Participation

                                                        Notes: Estimated includes highest estimate of a range. Program participation numbers may have double-counted
                                                        individual homeowners who received assistance from more than one program in states that have more than one
                                                        program. For its “Blight Elimination Program” (Demolition), Michigan neither estimated the number of homeowners it
                                                        would serve nor reported the number of homeowners this program has served.

                                                        Sources: States provide estimates for program participation and report program participation and homeowners
                                                        assisted numbers. Treasury, Transactions Report-Housing Programs, 6/27/2013; Treasury, response to SIGTARP data
                                                        call, 7/5/2013; Treasury, HFA Aggregate Quarterly Report Q2 2013, no date; Treasury, responses to SIGTARP data
                                                        calls, 10/3/2013 and 10/7/2013.
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   197




TREASURY HAS REJECTED ALL OF SIGTARP’S
2012 RECOMMENDATIONS FOR HHF
In April 2012, SIGTARP issued an audit report, “Factors Affecting Implementation
of the Hardest Hit Fund Program.”720 SIGTARP reviewed Treasury’s administration
of the HHF program and issued five recommendations to Treasury:

1.	 Treasury should set meaningful and measurable performance goals for
    the Hardest Hit Fund program including, at a minimum, the number of
    homeowners Treasury estimates will be helped by the program, and measure the
    program’s progress against those goals.
2.	 Treasury should instruct state housing finance agencies in the Hardest Hit Fund
    to set meaningful and measurable overarching and interim performance goals
    with appropriate metrics to measure progress for their individual state programs.
3.	 Treasury should set milestones at which the state housing finance agencies in
    the Hardest Hit Fund must review the progress of individual state programs and
    make program adjustments from this review.
4.	 Treasury should publish on its website and in the Housing Scorecard on a
    quarterly basis the total number of homeowners assisted, funds drawn down
    by states, and dollars expended for assistance to homeowners, assistance
    committed to homeowners, and cash on hand, aggregated by all state Hardest
    Hit Fund programs.
5.	 Treasury should develop an action plan for the Hardest Hit Fund that includes
    steps to increase the numbers of homeowners assisted and to gain industry
    support for Treasury-approved HHF programs. Treasury should set interim
    metrics for how many homeowners it intends to assist in a Treasury-defined
    time period in each particular program (such as principal reduction, second-
    lien reduction, or reinstatement). If Treasury cannot achieve the desired level
    of homeowners assisted in any one program area in the defined time period,
    Treasury should put the funds to better use toward programs that are reaching
    homeowners.

    Treasury has rejected SIGTARP’s important recommendations. Treasury’s
failure to set meaningful goals and metrics to identify program successes and
failures results in a lack of accountability on both the part of Treasury and the
19 HHF states. Treasury’s failure to implement these recommendations harms
oversight, reducing Treasury’s ability to identify and assess weaknesses in a timely
manner and bring prompter corrective changes.
    It is important that Treasury fulfill its role as steward over TARP programs,
make determinations of which programs are successful and which programs are
not working and ensure that HHF funds are reaching homeowners. This may
include putting the funds toward programs that are more successful at reaching
homeowners. Treasury approved the states’ HHF programs and estimates, and
Treasury should take steps to ensure that states meet these estimates, rather than
decrease the estimates, lowering the bar for successful performance. It is also
198           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     unacceptable to delegate all of this responsibility to the states. Treasury should
                                                     create its own goals for HHF, including the number of homeowners it estimates
                                                     helping with HHF.
                                                        Treasury should fully implement SIGTARP’s recommendations, and by not
                                                     doing so, Treasury has allowed the states to decrease the number of homeowners
                                                     that HHF expects to help.




                                                     THE MAJORITY OF STATES HAVE SIGNIFICANTLY
                                                     REDUCED THEIR ESTIMATES OF HOW MANY
                                                     HOMEOWNERS THEY WILL HELP THROUGH HHF
      For more on SIGTARP’s 2012                     Of the 19 states participating in HHF, over time 14 have reduced their estimates
      recommendations, see:                          from their peak estimates of how many homeowners will participate in HHF,
      • SIGTARP’s audit report, “Factors
                                                     most of them significantly. Four states have not reduced their estimates: Georgia,
         Affecting Implementation of the
         Hardest Hit Fund Program,” April            Mississippi, New Jersey, and North Carolina. One state, Oregon, increased its
         12, 2012.                                   estimate. However, these five states represented only 12% of the peak collective
      • SIGTARP Quarterly Report, July              estimate during the first few months of 2011, and only 18% of the collective
         2012, pages 183-185.                        estimate as of June 30, 2013.
                                                         Collectively, as of June 30, 2013, the states have spent $1.7 billion on direct
                                                     assistance to homeowners, or 22% of the $7.6 billion in TARP funds obligated to
                                                     HHF.721,v Of the 19 HHF states, Rhode Island has spent the highest percentage,
                                                     56%, of its obligated funds on homeowner assistance. Indiana has spent the lowest
                                                     percentage, 8%. In addition to Indiana, seven other states have spent less than
                                                     22% of their obligated funds on assistance to homeowners: Alabama, Arizona,
                                                     California, Florida, Georgia, Michigan, and Mississippi. For each of the states, the
                                                     following pages review estimates of program participation and reported numbers
                                                     of homeowners who have been assisted, as well as expenditures compared with
                                                     obligated funds.
                                                         According to Treasury, two states that received TARP funds for HHF, Illinois
                                                     and Rhode Island, have stopped accepting new applications from struggling
                                                     homeowners seeking help from their HHF programs.722,vi Rhode Island stopped
                                                     accepting applications after January 31, 2013.723 Illinois stopped accepting
                                                     applications after September 30, 2013.724




                                                     v According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
                                                       programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
                                                       and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
                                                       cash-on-hand, or undrawn funds.
                                                     vi According to Treasury, Illinois and Rhode Island are no longer accepting applications for assistance from homeowners because they
                                                         determined that their allocated HHF funds would be spent on homeowners who already have been approved for HHF assistance.
                                                                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   199




Alabama has spent 13% of available HHF funds to help
homeowners
Even though Treasury obligated $162,521,345 of HHF funds to Alabama, Alabama
is not getting a significant amount of these funds out the door to help homeowners
with HHF.725 As of June 30, 2013, the state had drawn down $28 million (17%)
of those funds.726 As of June 30, 2013, the state had three HHF programs and
had spent $20.9 million (13% of its obligated funds) to help 2,741 individual
homeowners.727,vii The remaining $5 million (3%) was spent on administrative
expenses, and $2 million (1%) is held as cash-on-hand.728,viii
    At the end of 2010, Alabama estimated that it would help as many as 13,500
homeowners with HHF but, as of June 30, 2013, reduced that peak estimate by
57%, to 5,800.
    At the end of 2010, Alabama estimated that it would provide HHF
unemployment assistance to 13,500 homeowners. As of June 30, 2013, Alabama
lowered that peak estimate to 3,100 homeowners and has helped 2,741
homeowners with HHF unemployment assistance.
    In 2013, Alabama introduced two additional HHF programs: one to modify
mortgages for an estimated 1,200 homeowners, and one to provide HHF
transition assistance to an estimated 1,500 homeowners. As of June 30, 2013, no
homeowners had been helped by Alabama under these new HHF programs.
    Figure 3.3 shows, in aggregate, the number of homeowners estimated to
participate in Alabama’s programs (estimated program participation), the reported
number of homeowners who participated in one or more programs (program
participation), and the total number of individual homeowners assisted, as of
June 30, 2013. Figure 3.4 shows Alabama’s HHF expenditures compared with its
obligated funds, as of June 30, 2013. Figure 3.5 shows the number of homeowners
estimated to participate in each of Alabama’s programs (estimated program
participation) and the reported number of homeowners who participated in each of
Alabama’s programs (program participation), as of June 30, 2013.




vii A
     ccording to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
    programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
    and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
    cash-on-hand, or undrawn funds.
viii S
      tates do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
     assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
     cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
     made.
200                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 3.3                                                                                      FIGURE 3.4

      ALABAMA ESTIMATED PROGRAM PARTICIPATION, PROGRAM                                                ALABAMA USES OF $162.5 MILLION OF TARP FUNDS
      PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED,                                              AVAILABLE FOR HHF, CUMULATIVE, AS OF 6/30/2013
      IN ALL HHF PROGRAMS, AS OF 6/30/2013                                                            ($ MILLIONS)

      15,000                                                                                            $175

                                                    Peak estimate: 13,500
                                                    6/30/2013 estimate: 5,800                            150
      12,000                                        6/30/2013 program participation: 2,741
                                                    Homeowners assisted: 2,741
                                                                                                         125


       9,000
                                                                                                         100

                                                                                                                    Available: $162.5 Million
                                                                                                          75        Drawn, as of 6/30/2013: $28 Million
       6,000


                                                                                                          50

       3,000
                                                                                                          25


          0                                                                                                0
                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13


                  State Estimated Program Participation                 Homeowners Assisted                       Undrawn HHF Funds                      Cash-on-Hand and Administrative Expenses
                  Program Participation                                                                           Homeowner Assistance                       Administrative Expenses

               Notes: Estimated includes highest estimate of a range.                                          Notes: Alabama spending figures as of June 30, 2013, are the most recent available.
                                                                                                               Treasury has separately published September 30, 2013, figures for amounts drawn down;
               Sources: States provide estimates for program participation and report program                  as of September 30, 2013, Alabama had drawn down $34 million. Treasury did not require
               participation and homeowners assisted numbers. Alabama Housing Finance Authority,               states to report administrative expenses until the third quarter of 2012. According to
               Proposal, 8/31/2010; Treasury and Alabama Housing Finance Authority, Commitment to              Treasury, committed program funds are funds committed to homeowners who have been
               Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; Alabama               approved to participate in HHF programs that are anticipated to be disbursed over the
               Housing Finance Authority, first through seventh Amendment[s] to Agreement[s],                  duration of their participation; states vary as to when and how they capture and report funds
               9/29/2010, 12/16/2010, 1/26/2011, 3/31/2011, 5/25/2011, 6/28/2012, and                          as committed. HHF funds committed for homeowner assistance are recorded variously as
               3/8/2013; Alabama Housing Finance Authority, Treasury Reports, Quarterly Performance            homeowner assistance, cash-on-hand, or undrawn funds. States do not publish cash-on-hand
               Reports Q1 2011 - Q2 2013, no date.                                                             in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                                                                               assistance and administrative expenses; states may also hold additional cash generated
                                                                                                               from interest earned on HHF cash balances, cash repayments of assistance from lien
                                                                                                               satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                                                                               made.

                                                                                                               Sources: Treasury, press release 8/11/2010; Treasury, TARP Transactions Report,
                                                                                                               9/29/2010; Treasury, responses to SIGTARP data calls, 12/23/2010, 3/28/2011,
                                                                                                               6/29/2011, 10/5/2011, 1/5/2012, 4/5/2012, 7/5/2012, 10/4/2012, 11/6/2012,
                                                                                                               1/1/2013, 4/4/2013, 7/5/2013, 10/3/2013, and 10/17/2013; Treasury, HFA Aggregate
                                                                                                               Quarterly Report Q2 2013, no date; Treasury, Transaction Report-Housing Programs,
                                                                                                               6/27/2013; Alabama Housing Finance Authority, Treasury Reports, Quarterly Performance
                                                                                                               Reports Q1 2011 - Q2 2013, no date.
                                                                                                                       QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                                   201




FIGURE 3.5

 ALABAMA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
 PROGRAM, AS OF 6/30/2013

      HARDEST HIT FOR ALABAMA'S UNEMPLOYED                                                               SHORT SALE ASSISTANCE PROGRAM
      HOMEOWNERS (UNEMPLOYMENT)                                                                          (TRANSITION)
       15,000                                        Peak estimate: 13,500                                2,000                                   Peak estimate: 1,500
                                                     6/30/13 estimate: 3,100                                                                      6/30/13 estimate: 1,500
       12,000
                                                     6/30/13 program participation: 2,741                 1,500                                   6/30/13 program participation: 0
        9,000
                                                                                                           1,000
         6,000

         3,000
                                                                                                            500

             0                                                                                                 0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13               Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                      State Estimated Program Participation             Program Participation                           State Estimated Program Participation             Program Participation




      LOAN MODIFICATION ASSISTANCE PROGRAM
      (MODIFICATION)
        2,000                                   Peak estimate: 1,200
                                                6/30/13 estimate: 1,200
        1,500                                   6/30/13 program participation: 0
        1,000

          500

            0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                      State Estimated Program Participation             Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

 Sources: States provide estimates for program participation and report program participation numbers. Alabama Housing Finance Authority, Proposal, 8/31/2010; Treasury and Alabama Housing
 Finance Authority, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; Alabama Housing Finance Authority, first through seventh Amendment[s] to Agreement[s],
 9/29/2010, 12/16/2010, 1/26/2011, 3/31/2011, 5/25/2011, 6/28/2012, and 3/8/2013; Alabama Housing Finance Authority, Treasury Reports, Quarterly Performance Reports Q1 2011 - Q2
 2013, no date.
202   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Arizona has spent 11% of available HHF funds to help
                                             homeowners
                                             Even though Treasury obligated $267,766,006 of HHF funds to Arizona, Arizona
                                             is not getting a significant amount of these funds out the door to help homeowners
                                             with HHF.729 As of June 30, 2013, the state had drawn down $91.8 million (34%)
                                             of those funds.730 As of June 30, 2013, the state had four HHF programs and
                                             had spent $30.3 million (11% of its obligated funds) to help 1,916 individual
                                             homeowners.731,ix The remaining $9.6 million (4%) was spent on administrative
                                             expenses, and $51.9 million (19%) is held as cash-on-hand.732,x
                                                 At the end of 2010, Arizona estimated that it would help as many as 11,959
                                             homeowners with HHF but, as of June 30, 2013, had reduced that peak estimate
                                             by 46%, to 6,507.
                                                 At the end of 2010, Arizona estimated that it would modify mortgages with
                                             HHF principal reduction assistance for as many as 7,227 homeowners. As of
                                             June 30, 2013, Arizona had reduced that peak estimate to modify mortgages with
                                             HHF principal reduction assistance for 1,849 homeowners and had modified 313
                                             homeowners’ mortgages.
                                                 In mid-2010, Arizona estimated that it would provide HHF second-lien
                                             reduction assistance to 1,875 homeowners. As of June 30, 2013, Arizona lowered
                                             that peak estimate to 180 homeowners and provided 59 homeowners with HHF
                                             second-lien reduction assistance.
                                                 In mid-2010, Arizona estimated that it would provide HHF unemployment
                                             assistance to 1,428 homeowners, but as of June 30, 2013, Arizona had increased
                                             that estimate to a peak estimate of 4,140, and has helped 1,564 homeowners with
                                             HHF unemployment assistance.
                                                 In mid-2011, Arizona estimated that it would provide HHF transition assistance
                                             to 1,200 homeowners. As of June 30, 2013, Arizona lowered that peak estimate to
                                             338 homeowners and provided 59 homeowners with HHF transition assistance.
                                                 Figure 3.6 shows, in aggregate, the number of homeowners estimated to
                                             participate in Arizona’s programs (estimated program participation), the reported
                                             number of homeowners who participated in one or more programs (program
                                             participation), and the total number of individual homeowners assisted, as of
                                             June 30, 2013. Because homeowners may participate in more than one program,
                                             the reported program participation numbers are higher than the total number of
                                             individual homeowners assisted. Figure 3.7 shows Arizona’s HHF expenditures
                                             compared with its obligated funds, as of June 30, 2013. Figure 3.8 shows the
                                             number of homeowners estimated to participate in each of Arizona’s programs
                                             (estimated program participation) and the reported number of homeowners who
                                             participated in each of Arizona’s programs (program participation), as of June 30,
                                             2013.
                                             ix According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
                                                 programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
                                                 and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
                                                 cash-on-hand, or undrawn funds.
                                             x States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
                                                cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                made.
                                                                                                                 QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                                         203




FIGURE 3.6                                                                                      FIGURE 3.7

ARIZONA ESTIMATED PROGRAM PARTICIPATION, PROGRAM                                                ARIZONA USES OF $267.8 MILLION OF TARP FUNDS
PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED,                                              AVAILABLE FOR HHF, CUMULATIVE, AS OF 6/30/2013
IN ALL HHF PROGRAMS, AS OF 6/30/2013                                                            ($ MILLIONS)


12,000                                                                                            $300



10,000                                                                                             250



 8,000                                                                                             200
                                                                                                             Available: $267.8 Million
                                                                                                             Drawn, as of 6/30/2013: $91.8 Million

 6,000                                                                                             150


                    Peak estimate: 11,959
 4,000              6/30/2013 estimate: 6,507                                                      100
                    6/30/2013 program participation: 1,995
                    Homeowners assisted: 1,916

 2,000                                                                                              50



    0                                                                                                0
          Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13


            State Estimated Program Participation             Homeowners Assisted                           Undrawn HHF Funds                      Cash-on-Hand and Administrative Expenses
            Program Participation                                                                           Homeowner Assistance                       Administrative Expenses

         Notes: Estimated includes highest estimate of a range. Program participation numbers            Notes: Arizona spending figures as of June 30, 2013, are the most recent available.
         may have double-counted individual homeowners who received assistance from more                 Treasury has separately published September 30, 2013, figures for amounts drawn down;
         than one program in states that have more than one program.                                     as of September 30, 2013, Arizona had drawn down $91.8 million. Treasury did not require
                                                                                                         states to report administrative expenses until the third quarter of 2012. According to
         Sources: States provide estimates for program participation and report program                  Treasury, committed program funds are funds committed to homeowners who have been
         participation and homeowners assisted numbers. Arizona (Home) Foreclosure Prevention            approved to participate in HHF programs that are anticipated to be disbursed over the
         Funding Corporation, Proposal, no date; Treasury and Arizona (Home) Foreclosure                 duration of their participation; states vary as to when and how they capture and report funds
         Prevention Funding Corporation, Commitment to Purchase Financial Instrument and HFA             as committed. HHF funds committed for homeowner assistance are recorded variously as
         Participation Agreement, 6/23/2010; Arizona (Home) Foreclosure Prevention Funding               homeowner assistance, cash-on-hand, or undrawn funds. States do not publish cash-on-hand
         Corporation, first through eleventh Amendment[s] to Agreement[s], 9/23/2010,                    in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
         9/29/2010, 12/16/2010, 1/26/2011, 3/31/2011, 5/25/2011, 8/31/2011,                              assistance and administrative expenses; states may also hold additional cash generated
         3/29/2012, 7/17/2012, 8/24/2012, 6/6/2013; Arizona (Home) Foreclosure                           from interest earned on HHF cash balances, cash repayments of assistance from lien
         Prevention Funding Corporation, Hardest Hit Fund Reporting (quarterly performance               satisfaction recoveries, or borrower remittances received less borrower partial payments
         reports), Quarterly Performance Reports Q3 2010 - Q2 2013, no date; Treasury,                   made.
         responses to SIGTARP data calls, 10/3/2013 and 10/7/2013.
                                                                                                         Sources: Treasury, press releases, 3/5/2010 and 8/11/2010; Treasury, TARP
                                                                                                         Transactions Report, 9/29/2010; Treasury, responses to SIGTARP data calls,
                                                                                                         12/23/2010, 3/28/2011, 6/29/2011, 10/5/2011, 1/5/2012, 4/5/2012, 7/5/2012,
                                                                                                         10/4/2012, 11/6/2012, 1/1/2013, 4/4/2013, 7/5/2013, 10/3/2013, and
                                                                                                         10/17/2013; Treasury, HFA Aggregate Quarterly Report Q2 2013, no date; Treasury,
                                                                                                         Transaction Report-Housing Programs, 6/27/2013; Arizona (Home) Foreclosure Prevention
                                                                                                         Funding Corporation, Hardest Hit Fund Reporting (quarterly performance reports), Quarterly
                                                                                                         Performance Reports Q3 2010 - Q2 2013, no date.
204              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 3.8

       ARIZONA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
       PROGRAM, AS OF 6/30/2013

            PRINCIPAL REDUCTION ASSISTANCE                                                                     SECOND MORTGAGE ASSISTANCE COMPONENT
            (MODIFICATION)                                                                                     (SECOND-LIEN REDUCTION)
                                                             Peak estimate: 7,227
                                                             6/30/13 estimate: 1,849
             10,000                                                                                               2,000
                                                             6/30/13 program participation: 313
               8,000
                                                                                                                  1,500
               6,000
                                                                                                                  1,000     Peak estimate: 1,875
               4,000                                                                                                        6/30/13 estimate: 180
                                                                                                                   500      6/30/13 program participation: 59
               2,000

                  0                                                                                                   0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                            State Estimated Program Participation             Program Participation                             State Estimated Program Participation            Program Participation




            UNEMPLOYMENT/UNDEREMPLOYMENT MORTGAGE                                                              SHORT SALE ASSISTANCE COMPONENT
            ASSISTANCE COMPONENT (UNEMPLOYMENT)                                                                (TRANSITION)
                                                           Peak estimate: 4,140
               6,000
                                                           6/30/13 estimate: 4,140                                2,000                                            Peak estimate: 1,200
               5,000                                       6/30/13 program participation: 1,564                                                                    6/30/13 estimate: 338
                                                                                                                 1,500                                             6/30/13 program participation: 59
               4,000
               3,000                                                                                              1,000
               2,000
                                                                                                                   500
               1,000
                  0                                                                                                   0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                            State Estimated Program Participation             Program Participation                             State Estimated Program Participation            Program Participation



       Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

       Sources: States provide estimates for program participation and report program participation numbers. Arizona (Home) Foreclosure Prevention Funding Corporation, Proposal, no date; Treasury and
       Arizona (Home) Foreclosure Prevention Funding Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; Arizona (Home) Foreclosure Prevention Funding
       Corporation, first through eleventh Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 1/26/2011, 3/31/2011, 5/25/2011, 8/31/2011, 3/29/2012, 7/17/2012, 8/24/2012,
       6/6/2013; Arizona (Home) Foreclosure Prevention Funding Corporation, Hardest Hit Fund Reporting (quarterly performance reports), Quarterly Performance Reports Q3 2010 - Q2 2013, no date;
       Treasury, responses to SIGTARP data calls, 10/3/2013 and 10/7/2013.
                                                                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   205




California has spent 19% of available HHF funds to help
homeowners
Even though Treasury obligated $1,975,334,096 of HHF funds to California,
California is not getting a significant amount of these funds out the door to
help homeowners with HHF.733 As of June 30, 2013, the state had drawn down
$717.5 million (36%) of those funds.734 As of June 30, 2013, the state had seven
HHF programs and had spent $381.6 (19% of its obligated funds) to help 26,242
individual homeowners.735,xi The remaining $57.8 million (3%) was spent on
administrative expenses, and $278 million (14%) is held as cash-on-hand.736,xii
     At the end of 2010, California estimated that it would help as many as 101,337
homeowners with HHF but, as of June 30, 2013, had reduced that peak estimate
by 30%, to 70,914.
     At the end of 2010, California estimated that it would provide HHF
unemployment assistance to as many as 60,531 homeowners. As of June 30, 2013,
California had lowered that peak estimate to 52,021 homeowners and has helped
21,522 homeowners with HHF unemployment assistance.
     In mid-2010, California estimated that it would provide HHF past-due payment
assistance to 17,293 homeowners. As of June 30, 2013, California lowered
that peak estimate to 8,830 homeowners and provided HHF past-due payment
assistance to 3,695 homeowners.
     California has two HHF programs to modify homeowners’ mortgages with HHF
principal reduction assistance: for one California estimated, at the end of 2010,
that it would modify mortgages for 25,135 homeowners; and for the other, in mid-
2011, California estimated that it would modify mortgages for 166 homeowners.
As of June 30, 2013, California lowered the peak estimate for its first program to
8,976 homeowners and had modified mortgages for 1,708 homeowners; California
had not modified any mortgages with HHF principal reduction for homeowners
under its second program.
     As of June 30, 2013, California estimated that it would provide HHF second-
lien, principal reduction assistance to as many as 370 homeowners and helped 25
homeowners.
     California has two HHF programs to provide HHF transition assistance to
homeowners: for one, in mid-2010, California estimated that it would provide
HHF transition assistance to 6,471 homeowners; and for the other, in mid-
2011, California estimated that it would provide HHF transition assistance to 91
homeowners. As of June 30, 2013, California lowered its peak estimate for the first
program to 460 and provided 309 homeowners with HHF transition assistance;
California had not provided any homeowners with HHF transition assistance under
its second program.
     Figure 3.9 shows, in aggregate, the number of homeowners estimated to
xi According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
    programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
    and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
    cash-on-hand, or undrawn funds.
xii S
     tates do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
    assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
    cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
    made.
206   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             participate in California’s programs (estimated program participation), the reported
                                             number of homeowners who participated in one or more programs (program
                                             participation), and the total number of individual homeowners assisted, as of
                                             June 30, 2013. Because homeowners may participate in more than one program,
                                             the reported program participation numbers are higher than the total number of
                                             individual homeowners assisted. Figure 3.10 shows California’s HHF expenditures
                                             compared with its obligated funds, as of June 30, 2013. Figure 3.11 shows the
                                             number of homeowners estimated to participate in each of California’s programs
                                             (estimated program participation) and the reported number of homeowners who
                                             participated in each of California’s programs (program participation), as of
                                             June 30, 2013.
                                                                                                                 QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                                         207




FIGURE 3.9                                                                                      FIGURE 3.10

CALIFORNIA ESTIMATED PROGRAM PARTICIPATION,                                                     CALIFORNIA USES OF $1,975.3 MILLION OF TARP FUNDS
PROGRAM PARTICIPATION, AND INDIVIDUAL HOMEOWNERS                                                AVAILABLE FOR HHF, CUMULATIVE, AS OF 6/30/2013
ASSISTED, IN ALL HHF PROGRAMS, AS OF 6/30/2013                                                  ($ MILLIONS)


120,000                                                                                         $2,000



100,000

                                                                                                 1,500
                                                                                                             Available: $1,975.3 Million
 80,000                                                                                                      Drawn, as of 6/30/2013: $717.5 Million



 60,000                                                                                          1,000


                        Peak estimate: 101,337
 40,000                 6/30/2013 estimate: 70,914
                        6/30/2013 program participation: 27,259
                        Homeowners assisted: 26,242                                                500

 20,000



     0                                                                                               0
          Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13


            State Estimated Program Participation            Homeowners Assisted                            Undrawn HHF Funds                      Cash-on-Hand and Administrative Expenses
            Program Participation                                                                           Homeowner Assistance                       Administrative Expenses

      Notes: Estimated includes highest estimate of a range. Program participation numbers               Notes: California spending figures as of June 30, 2013, are the most recent available.
      may have double-counted individual homeowners who received assistance from more                    Treasury has separately published September 30, 2013, figures for amounts drawn down;
      than one program in states that have more than one program.                                        as of September 30, 2013, California had drawn down $717.5 million. Treasury did not
                                                                                                         require states to report administrative expenses until the third quarter of 2012. According
      Sources: States provide estimates for program participation and report program                     to Treasury, committed program funds are funds committed to homeowners who have been
      participation and homeowners assisted numbers. CalHFA Mortgage Assistance                          approved to participate in HHF programs that are anticipated to be disbursed over the
      Corporation, Proposal, no date; Treasury and CalHFA Mortgage Assistance Corporation,               duration of their participation; states vary as to when and how they capture and report funds
      Commitment to Purchase Financial Instrument and HFA Participation Agreement,                       as committed. HHF funds committed for homeowner assistance are recorded variously as
      6/23/2010; CalHFA Mortgage Assistance Corporation, first through eleventh                          homeowner assistance, cash-on-hand, or undrawn funds. States do not publish cash-on-hand
      Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011,                         in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
      8/3/2011, 10/28/2011, 5/3/2012, 7/17/2012, 12/14/2012, 6/6/2013, and                               assistance and administrative expenses; states may also hold additional cash generated
      9/20/2013; CalHFA Mortgage Assistance Corporation, “Keep Your Home California,                     from interest earned on HHF cash balances, cash repayments of assistance from lien
      Reports & Statistics, Quarterly Reports, Quarterly Performance Reports Q4 2010 - Q2                satisfaction recoveries, or borrower remittances received less borrower partial payments
      2013, no date.                                                                                     made.

                                                                                                         Sources: Treasury, press releases, 3/5/2010 and 8/11/2010; Treasury, TARP
                                                                                                         Transactions Report, 9/29/2010; Treasury, responses to SIGTARP data calls,
                                                                                                         12/23/2010, 3/28/2011, 6/29/2011, 10/5/2011, 1/5/2012, 4/5/2012, 7/5/2012,
                                                                                                         10/4/2012, 11/6/2012, 1/1/2013, 4/4/2013, 7/5/2013, 10/3/2013, and
                                                                                                         10/17/2013; Treasury, HFA Aggregate Quarterly Report Q2 2013, no date; Treasury,
                                                                                                         Transaction Report-Housing Programs, 6/27/2013; CalHFA Mortgage Assistance
                                                                                                         Corporation, “Keep Your Home California, Reports & Statistics, Quarterly Reports, Quarterly
                                                                                                         Performance Reports Q4 2010 - Q2 2013, no date.
208              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      FIGURE 3.11

       CALIFORNIA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
       PROGRAM, AS OF 6/30/2013

            UNEMPLOYMENT MORTGAGE ASSISTANCE PROGRAM                                                           MORTGAGE REINSTATEMENT ASSISTANCE PROGRAM
            (UNEMPLOYMENT)                                                                                     (PAST-DUE PAYMENT)
                                                          Peak estimate: 60,531
             100,000                                      6/30/13 estimate: 52,021                              25,000                                        Peak estimate: 17,293
                                                          6/30/13 program participation: 21,522                                                               6/30/13 estimate: 8,830
              80,000                                                                                            20,000                                        6/30/13 program participation: 3,695
              60,000                                                                                            15,000

              40,000                                                                                            10,000

              20,000                                                                                              5,000

                   0                                                                                                  0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                            State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation




            PRINCIPAL REDUCTION PROGRAM (MODIFICATION)                                                         TRANSITION ASSISTANCE PROGRAM
                                                                                                               (TRANSITION)
                                                           Peak estimate: 25,135                                                                                Peak estimate: 6,471
             50,000                                                                                             10,000                                          6/30/13 estimate: 460
                                                           6/30/13 estimate: 8,976
             40,000                                        6/30/13 program participation: 1,708                  8,000
                                                                                                                                                                6/30/13 program participation: 309

             30,000                                                                                               6,000

             20,000                                                                                               4,000

             10,000                                                                                               2,000

                   0                                                                                                  0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                            State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation




            COMMUNITY SECOND MORTGAGE PRINCIPAL                                                                LOS ANGELES HOUSING DEPARTMENT PRINCIPAL
            REDUCTION PROGRAM (SECOND-LIEN REDUCTION)                                                          REDUCTION PROGRAM (MODIFICATION)

                500                                                                                                200

                375                                                                                                150

                250                                                                                                100       Peak estimate: 166
                          Peak estimate: 370
                                                                                                                             6/30/13 estimate: 166
                          6/30/13 estimate: 370
                125                                                                                                 50       6/30/13 program participation: 0
                          6/30/13 program participation: 25
                   0                                                                                                  0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                            State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation




            NEIGHBORWORKS SACRAMENTO SHORT SALE
            GATEWAY PROGRAM (TRANSITION)

                200                                             Peak estimate: 91
                                                                6/30/13 estimate: 91
                150                                             6/30/13 program participation: 0

                100

                 50

                   0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                            State Estimated Program Participation             Program Participation



       Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

       Sources: States provide estimates for program participation and report program participation numbers. CalHFA Mortgage Assistance Corporation, Proposal, no date; Treasury and CalHFA Mortgage
       Assistance Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; CalHFA Mortgage Assistance Corporation, first through eleventh Amendment[s]
       to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 8/3/2011, 10/28/2011, 5/3/2012, 7/17/2012, 12/14/2012, 6/6/2013, and 9/20/2013; CalHFA Mortgage Assistance
       Corporation, “Keep Your Home California, Reports & Statistics, Quarterly Reports, Quarterly Performance Reports Q4 2010 - Q2 2013, no date; Treasury, response to SIGTARP data call, 10/3/2013.
                                                                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   209




Florida has spent 13% of available HHF funds to help
homeowners
Even though Treasury obligated $1,057,839,136 of HHF funds to Florida, Florida
is not getting a significant amount of these funds out the door to help homeowners
with HHF.737 As of June 30, 2013, the state had drawn down $231.3 million (22%)
of those funds.738 As of June 30, 2013, the state had three HHF programs and
had spent $132.9 million (13% of its obligated funds) to help 9,745 individual
homeowners.739,xiii The remaining $27.6 million (3%) was spent on administrative
expenses, and $70.7 million (7%) is held as cash-on-hand.740,xiv
    At the start of 2011, Florida estimated that it would help as many as 106,000
homeowners with HHF but, as of June 30, 2013, had reduced that peak estimate
by 14%, to 91,500.
    At the start of 2011, Florida estimated that it would provide HHF
unemployment assistance to 53,000 homeowners. As of June 30, 2013, Florida
lowered that peak estimate to 45,000 homeowners and has helped 8,760
homeowners with HHF unemployment assistance.
    At the start of 2011, Florida estimated that it would provide HHF past-due
payment assistance to 53,000 homeowners. As of June 30, 2013, Florida lowered
that peak estimate to 45,000 homeowners and provided HHF past-due payment
assistance to 7,334 homeowners.
    In mid-2013, Florida introduced a new program to modify mortgages for an
estimated 1,500 homeowners. As of June 30, 2013, no homeowners had been
helped under this new HHF program.
    Figure 3.12 shows, in aggregate, the number of homeowners estimated to
participate in Florida’s programs (estimated program participation), the reported
number of homeowners who participated in one or more programs (program
participation), and the total number of individual homeowners assisted, as of
June 30, 2013. Because homeowners may participate in more than one program,
the reported program participation numbers are higher than the total number of
individual homeowners assisted. Figure 3.13 shows Florida’s HHF expenditures
compared with its obligated funds, as of June 30, 2013. Figure 3.14 shows the
number of homeowners estimated to participate in each of Florida’s programs
(estimated program participation) and the reported number of homeowners who
participated in each of Florida’s programs (program participation), as of June 30,
2013.




xiii A
      ccording to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
     programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
     and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
     cash-on-hand, or undrawn funds.
xiv States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
     assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
     cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
     made.
210                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 3.12                                                                                     FIGURE 3.13

      FLORIDA ESTIMATED PROGRAM PARTICIPATION, PROGRAM                                                FLORIDA USES OF $1,057.8 MILLION OF TARP FUNDS
      PARTICIPATION, AND INDIVIDUAL HOMEOWNERS                                                        AVAILABLE FOR HHF, CUMULATIVE, AS OF 6/30/2013
      ASSISTED, IN ALL HHF PROGRAMS, AS OF 6/30/2013                                                  ($ MILLIONS)


      120,000                                                                                         $1,200



      100,000                                                                                          1,000



       80,000                                                                                            800


                                                 Peak estimate: 106,000
       60,000                                    6/30/2013 estimate: 91,500                              600
                                                 6/30/2013 program participation: 16,094                           Available: $1,057.8 Million
                                                 Homeowners assisted: 9,745                                        Drawn, as of 6/30/2013: $231.3 Million

       40,000                                                                                            400



       20,000                                                                                            200



           0                                                                                               0
                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13


                  State Estimated Program Participation            Homeowners Assisted                            Undrawn HHF Funds                      Cash-on-Hand and Administrative Expenses
                  Program Participation                                                                           Homeowner Assistance                       Administrative Expenses

            Notes: Estimated includes highest estimate of a range. Program participation numbers               Notes: Florida spending figures as of June 30, 2013, are the most recent available.
            may have double-counted individual homeowners who received assistance from more                    Treasury has separately published September 30, 2013, figures for amounts drawn down;
            than one program in states that have more than one program.                                        as of September 30, 2013, Florida had drawn down $271.3 million. Treasury did not
                                                                                                               require states to report administrative expenses until the third quarter of 2012. According
            Sources: States provide estimates for program participation and report program                     to Treasury, committed program funds are funds committed to homeowners who have been
            participation and homeowners assisted numbers. Florida Housing Finance Corporation,                approved to participate in HHF programs that are anticipated to be disbursed over the
            Proposal, no date; Treasury and Florida Housing Finance Corporation, Commitment to                 duration of their participation; states vary as to when and how they capture and report funds
            Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; Florida                  as committed. HHF funds committed for homeowner assistance are recorded variously as
            Housing Finance Corporation, first through eighth Amendment[s] to Agreement[s],                    homeowner assistance, cash-on-hand, or undrawn funds. States do not publish cash-on-hand
            9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 5/30/2012, 9/28/2012,                                 in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
            5/25/2013, and 9/20/2013; Florida Housing Finance Corporation, Florida Hardest Hit                 assistance and administrative expenses; states may also hold additional cash generated
            Fund (HHF) Information, Quarterly Reports, Quarterly Performance Reports Q3 2010 - Q2              from interest earned on HHF cash balances, cash repayments of assistance from lien
            2013, no date; Treasury, response to SIGTARP data call, 10/3/2013.                                 satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                                                                               made.

                                                                                                               Sources: Treasury, press releases, 3/5/2010 and 8/11/2010; Treasury, TARP
                                                                                                               Transactions Report, 9/29/2010; Treasury, responses to SIGTARP data calls,
                                                                                                               12/23/2010, 3/28/2011, 6/29/2011, 10/5/2011, 1/5/2012, 4/5/2012, 7/5/2012,
                                                                                                               10/4/2012, 11/6/2012, 1/1/2013, 4/4/2013, 7/5/2013, 10/3/2013, and
                                                                                                               10/17/2013; Treasury, HFA Aggregate Quarterly Report Q2 2013, no date; Treasury,
                                                                                                               Transaction Report-Housing Programs, 6/27/2013; Florida Housing Finance Corporation,
                                                                                                               Florida Hardest Hit Fund (HHF) Information, Quarterly Reports, Quarterly Performance
                                                                                                               Reports Q3 2010 - Q2 2013, no date.
                                                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                                   211




FIGURE 3.14

 FLORIDA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
 PROGRAM, AS OF 6/30/2013

      UNEMPLOYMENT MORTGAGE ASSISTANCE PROGRAM                                                           MORTGAGE LOAN REINSTATEMENT PROGRAM
      (UNEMPLOYMENT)                                                                                     (PAST-DUE PAYMENT)
       100,000                                       Peak estimate: 53,000                               100,000
                                                                                                                                                        Peak estimate: 53,000
        80,000
                                                     6/30/13 estimate: 45,000                              80,000                                       6/30/13 estimate: 45,000
                                                     6/30/13 program participation: 8,760                                                               6/30/13 program participation: 7,334
        60,000                                                                                             60,000

        40,000                                                                                             40,000

        20,000                                                                                             20,000

             0                                                                                                  0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                      State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation




      MODIFICATION ENABLING PILOT PROGRAM
      (MODIFICATION)
         2,000

        1,500                                         Peak estimate: 1,500
                                                      6/30/13 estimate: 1,500
         1,000                                        6/30/13 program participation: 0

          500

            0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                      State Estimated Program Participation             Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

 Sources: States provide estimates for program participation and report program participation numbers. Florida Housing Finance Corporation, Proposal, no date; Treasury and Florida Housing Finance
 Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; Florida Housing Finance Corporation, first through eighth Amendment[s] to Agreement[s],
 9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 5/30/2012, 9/28/2012, 5/25/2013, and 9/20/2013; Florida Housing Finance Corporation, Florida Hardest Hit Fund (HHF) Information, Quarterly
 Reports, Quarterly Performance Reports Q3 2010 - Q2 2013, no date; Treasury, response to SIGTARP data call, 10/3/2013.
212   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Georgia has spent 13% of available HHF funds to help
                                             homeowners
                                             Even though Treasury obligated $339,255,819 of HHF funds to Georgia, Georgia
                                             is not getting a significant amount of these funds out the door to help homeowners
                                             with HHF.741 As of June 30, 2013, the state had drawn down $77.5 million
                                             (23%) of those funds.742 As of June 30, 2013, the state had one HHF program
                                             and had spent $42.9 million (13% of its obligated funds) to help 3,552 individual
                                             homeowners.743,xv The remaining $11 million (3%) was spent on administrative
                                             expenses, and $23.7 million (7%) is held as cash-on-hand.744,xvi
                                                 Since the end of 2010, Georgia estimated that it would provide HHF
                                             unemployment assistance to as many as 18,300 homeowners and had helped 3,552
                                             homeowners with HHF unemployment assistance, as of June 30, 2013.
                                                 Figure 3.15 shows the number of homeowners estimated to participate in
                                             Georgia’s program and the number of homeowners who have been assisted, as of
                                             June 30, 2013. Figure 3.16 shows Georgia’s HHF expenditures compared with its
                                             obligated funds, as of June 30, 2013.




                                             xv According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
                                                 programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
                                                 and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
                                                 cash-on-hand, or undrawn funds.
                                             xvi States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                  assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
                                                  cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                  made.
                                                                                                                   QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                                         213




FIGURE 3.15                                                                                       FIGURE 3.16

GEORGIA’S MORTGAGE PAYMENT ASSISTANCE PROGRAM                                                     GEORGIA USES OF $339.3 MILLION OF TARP FUNDS
(UNEMPLOYMENT) ESTIMATED PROGRAM PARTICIPATION                                                    AVAILABLE FOR HHF, CUMULATIVE, AS OF 6/30/2013
AND HOMEOWNERS ASSISTED, AS OF 6/30/2013                                                          ($ MILLIONS)


20,000                                                                                              $350


                                                                                                     300

15,000
                                                                                                     250



                                             Peak estimate: 18,300                                   200
10,000                                       6/30/2013 estimate: 18,300
                                             6/30/2013 program participation: 3,552                            Available: $339.3 Million
                                             Homeowners assisted: 3,552                              150       Drawn, as of 6/30/2013: $77.5 Million


                                                                                                     100
 5,000

                                                                                                      50


    0                                                                                                  0
          Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13               Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13


            State Estimated Program Participation                 Homeowners Assisted                         Undrawn HHF Funds                      Cash-on-Hand and Administrative Expenses
                                                                                                              Homeowner Assistance                       Administrative Expenses

         Notes: Estimated includes highest estimate of a range.                                            Notes: Georgia spending figures as of June 30, 2013, are the most recent available.
                                                                                                           Treasury has separately published September 30, 2013, figures for amounts drawn down;
         Sources: States provide estimates for program participation and homeowners assisted               as of September 30, 2013, Georgia had drawn down $77.5 million. Treasury did not
         numbers. GHFA Affordable Housing Inc., Proposal, no date; Treasury and GHFA                       require states to report administrative expenses until the third quarter of 2012. According
         Affordable Housing Inc., Commitment to Purchase Financial Instrument and HFA                      to Treasury, committed program funds are funds committed to homeowners who have been
         Participation Agreement, 9/23/2010; GHFA Affordable Housing Inc., first through fourth            approved to participate in HHF programs that are anticipated to be disbursed over the
         Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 6/28/2011,                        duration of their participation; states vary as to when and how they capture and report funds
         and 5/3/2012; GHFA Affordable Housing Inc., HomeSafe Georgia, US Treasury Reports,                as committed. HHF funds committed for homeowner assistance are recorded variously as
         Quarterly Performance Reports Q4 2010 - Q2 2013, no date.                                         homeowner assistance, cash-on-hand, or undrawn funds. States do not publish cash-on-hand
                                                                                                           in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                                                                           assistance and administrative expenses; states may also hold additional cash generated
                                                                                                           from interest earned on HHF cash balances, cash repayments of assistance from lien
                                                                                                           satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                                                                           made.

                                                                                                           Sources: Treasury, press release, 8/11/2010; Treasury, TARP Transactions Report,
                                                                                                           9/29/2010; Treasury, responses to SIGTARP data calls, 12/23/2010, 3/28/2011,
                                                                                                           6/29/2011, 10/5/2011, 1/5/2012, 4/5/2012, 7/5/2012, 10/4/2012, 11/6/2012,
                                                                                                           1/1/2013, 4/4/2013, 7/5/2013, 10/3/2013, and 10/17/2013; Treasury, HFA Aggregate
                                                                                                           Quarterly Report Q2 2013, no date; Treasury, Transaction Report-Housing Programs,
                                                                                                           6/27/2013; GHFA Affordable Housing Inc., HomeSafe Georgia, US Treasury Reports,
                                                                                                           Quarterly Performance Reports Q4 2010 - Q2 2013, no date.
214   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Illinois has spent 32% of available HHF funds to help
                                             homeowners
                                             Even though Treasury obligated $445,603,557 of HHF funds to Illinois, Illinois is
                                             not getting a significant amount of these funds out the door to help homeowners
                                             with HHF.745 As of June 30, 2013, the state had drawn down $210 million (47%)
                                             of those funds.746 As of June 30, 2013, the state had three HHF programs and
                                             had spent $144.7 million (32% of its obligated funds) to help 8,838 individual
                                             homeowners.747,xvii The remaining $19.8 million (4%) was spent on administrative
                                             expenses, and $45.5 million (10%) is held as cash-on-hand.748,xviii Illinois stopped
                                             accepting new applications from struggling homeowners seeking help from their
                                             HHF programs submitted after September 30, 2013.749,xix
                                                 In mid-2011, Illinois estimated that it would help as many as 29,000
                                             homeowners with HHF but, as of June 30, 2013, reduced that peak estimate by
                                             50%, to 14,500.
                                                 At the end of 2010, Illinois estimated that it would provide HHF
                                             unemployment assistance to 27,000 homeowners. As of June 30, 2013, Illinois
                                             lowered that peak estimate to 12,000 homeowners and has helped 8,542
                                             homeowners with HHF unemployment assistance.
                                                 Illinois has two HHF programs to modify homeowners’ mortgages: for
                                             one Illinois estimated, in mid-2011, that it would modify mortgages for 2,000
                                             homeowners; and for the other Illinois estimated, in mid-2012, that it would
                                             modify mortgages for 500 homeowners. As of June 30, 2013, Illinois’s first program
                                             modified mortgages for 209 homeowners, and its second program modified
                                             mortgages for 90 homeowners.
                                                 Figure 3.17 shows, in aggregate, the number of homeowners estimated to
                                             participate in Illinois’s programs (estimated program participation), the reported
                                             number of homeowners who participated in one or more programs (program
                                             participation), and the total number of individual homeowners assisted, as of
                                             June 30, 2013. Because homeowners may participate in more than one program,
                                             the reported program participation numbers are higher than the total number of
                                             individual homeowners assisted. Figure 3.18 shows Illinois’s HHF expenditures
                                             compared with its obligated funds, as of June 30, 2013. Figure 3.19 shows the
                                             number of homeowners estimated to participate in each of Illinois’s programs
                                             (estimated program participation) and the reported number of homeowners who
                                             participated in each of Illinois’s programs (program participation), as of June 30,
                                             2013.




                                             xvii According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                                   HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
                                                   capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                                   assistance, cash-on-hand, or undrawn funds.
                                             xviii States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                    assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash
                                                    balances, cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial
                                                    payments made.
                                             xix According to Treasury, Illinois is no longer accepting applications for assistance from homeowners because it determined that its
                                                  allocated HHF funds would be spent on homeowners who already have been approved for HHF assistance.
                                                                                                                   QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                                         215




FIGURE 3.17                                                                                       FIGURE 3.18

ILLINOIS ESTIMATED PROGRAM PARTICIPATION, PROGRAM                                                 ILLINOIS USES OF $445.6 MILLION OF TARP FUNDS
PARTICIPATION, AND INDIVIDUAL HOMEOWNERS                                                          AVAILABLE FOR HHF, CUMULATIVE, AS OF 6/30/2013
ASSISTED, IN ALL HHF PROGRAMS, AS OF 6/30/2013                                                    ($ MILLIONS)


30,000                                                                                              $500



25,000
                                                                                                     400


20,000
                                                                                                     300

15,000
                                                                                                               Available: $445.6 Million
                                                                                                               Drawn, as of 6/30/2013: $210 Million
                                Peak estimate: 29,000                                                200
10,000                          6/30/2013 estimate: 14,500
                                6/30/2013 program participation: 8,841
                                Homeowners assisted: 8,838
                                                                                                     100
 5,000



    0                                                                                                  0
          Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13               Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13


            State Estimated Program Participation             Homeowners Assisted                             Undrawn HHF Funds                      Cash-on-Hand and Administrative Expenses
            Program Participation                                                                             Homeowner Assistance                       Administrative Expenses

         Notes: Estimated includes highest estimate of a range. Program participation numbers              Notes: Illinois spending figures as of June 30, 2013, are the most recent available. Treasury
         may have double-counted individual homeowners who received assistance from more                   has separately published September 30, 2013, figures for amounts drawn down; as of
         than one program in states that have more than one program.                                       September 30, 2013, Illinois had drawn down $260 million. Treasury did not require states
                                                                                                           to report administrative expenses until the third quarter of 2012. According to Treasury,
         Sources: States provide estimates for program participation and report program                    committed program funds are funds committed to homeowners who have been approved to
         participation and homeowners assisted numbers. Illinois Housing Development Authority,            participate in HHF programs that are anticipated to be disbursed over the duration of their
         Proposal, no date; Treasury and Illinois Housing Development Authority, Commitment to             participation; states vary as to when and how they capture and report funds as committed.
         Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; Illinois                HHF funds committed for homeowner assistance are recorded variously as homeowner
         Housing Development Authority, first through ninth Amendment[s] to Agreement[s],                  assistance, cash-on-hand, or undrawn funds. States do not publish cash-on-hand in their
         9/29/2010, 12/16/2010, 5/11/2011, 8/3/2011, 1/25/2012, 8/2/2012,                                  quarterly performance reports; cash-on-hand is the amount drawn less homeowner
         9/28/2012, 3/8/2012, and 8/9/2013; Illinois Housing Development Authority, Illinois               assistance and administrative expenses; states may also hold additional cash generated
         Hardest Hit Program, Reporting, Quarterly Performance Reports Q1 2011 - Q2 2013,                  from interest earned on HHF cash balances, cash repayments of assistance from lien
         no date.                                                                                          satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                                                                           made.

                                                                                                           Sources: Treasury, press release, 8/11/2010; Treasury, TARP Transactions Report,
                                                                                                           9/29/2010; Treasury, responses to SIGTARP data calls, 12/23/2010, 3/28/2011,
                                                                                                           6/29/2011, 10/5/2011, 1/5/2012, 4/5/2012, 7/5/2012, 10/4/2012, 11/6/2012,
                                                                                                           1/1/2013, 4/4/2013, 7/5/2013, 10/3/2013, and 10/17/2013; Treasury, HFA Aggregate
                                                                                                           Quarterly Report Q2 2013, no date; Treasury, Transaction Report-Housing Programs,
                                                                                                           6/27/2013; Illinois Housing Development Authority, Illinois Hardest Hit Program, Reporting,
                                                                                                           Quarterly Performance Reports Q1 2011 - Q2 2013, no date.
216              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 3.19

       ILLINOIS ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
       PROGRAM, AS OF 6/30/2013

            HARDEST HIT FUND HOMEOWNER EMERGENCY                                                               MORTGAGE RESOLUTION FUND PROGRAM
            LOAN PROGRAM (UNEMPLOYMENT)                                                                        (MODIFICATION)

             50,000                                        Peak estimate: 27,000                                  2,000
                                                           6/30/13 estimate: 12,000
             40,000                                        6/30/13 program participation: 8,542                  1,500
                                                                                                                                                                Peak estimate: 2,000
             30,000
                                                                                                                  1,000                                         6/30/13 estimate: 2,000
             20,000                                                                                                                                             6/30/13 program participation: 209
                                                                                                                   500
             10,000

                   0                                                                                                  0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                            State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation




            HOME PRESERVATION PROGRAM (MODIFICATION)


                500

                375
                                      Peak estimate: 500
                250
                                      6/30/13 estimate: 500
                                      6/30/13 program participation: 90
                125

                   0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                            State Estimated Program Participation             Program Participation



       Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

       Sources: States provide estimates for program participation and report program participation numbers. Illinois Housing Development Authority, Proposal, no date; Treasury and Illinois Housing
       Development Authority, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; Illinois Housing Development Authority, first through ninth Amendment[s] to
       Agreement[s], 9/29/2010, 12/16/2010, 5/11/2011, 8/3/2011, 1/25/2012, 8/2/2012, 9/28/2012, 3/8/2012, and 8/9/2013; Illinois Housing Development Authority, Illinois Hardest Hit Program,
       Reporting, Quarterly Performance Reports Q1 2011 - Q2 2013, no date.
                                                                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   217




Indiana has spent 8% of available HHF funds to help
homeowners
Even though Treasury obligated $221,694,139 of HHF funds to Indiana, Indiana
is not getting a significant amount of these funds out the door to help homeowners
with HHF.750 As of June 30, 2013, the state had drawn down $66.3 million
(30%) of those funds.751 As of June 30, 2013, the state had three HHF programs
and had spent $18.8 million (8% of its obligated funds) to help 1,859 individual
homeowners.752,xx The remaining $8.2 million (4%) was spent on administrative
expenses, and $39.4 million (18%) is held as cash-on-hand.753,xxi
    At the start of 2011, Indiana estimated helping as many as 16,257 homeowners
with HHF but, as of June 30, 2013, reduced that peak estimate by 38%, to 10,150.
    At the start of 2011, Indiana estimated that it would provide HHF
unemployment assistance to as many as 16,257 homeowners. As of June 30, 2013,
Indiana lowered that peak estimate to 8,000 homeowners and has helped 1,859
homeowners with HHF unemployment assistance.
    Indiana introduced two additional HHF programs in 2013: for one Indiana
estimated that it would modify mortgages for 2,000 homeowners; and for the
other Indiana estimated that it would provide HHF transition assistance to 150
homeowners. As of June 30, 2013, no homeowners had been assisted under these
two HHF programs.
    Figure 3.20 shows, in aggregate, the number of homeowners estimated to
participate in Indiana’s programs (estimated program participation), the reported
number of homeowners who participated in one or more programs (program
participation), and the total number of individual homeowners assisted, as of
June 30, 2013. Figure 3.21 shows Indiana’s HHF expenditures compared with
its obligated funds, as of June 30, 2013. Figure 3.22 shows the number of
homeowners estimated to participate in each of Indiana’s programs (estimated
program participation) and the reported number of homeowners who participated
in each of Indiana’s programs (program participation), as of June 30, 2013.




xx According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
    programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
    and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
    cash-on-hand, or undrawn funds.
xxi States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
     assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
     cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
     made.
218                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 3.20                                                                                     FIGURE 3.21

      INDIANA ESTIMATED PROGRAM PARTICIPATION, PROGRAM                                                INDIANA USES OF $221.7 MILLION OF TARP FUNDS
      PARTICIPATION, AND INDIVIDUAL HOMEOWNERS                                                        AVAILABLE FOR HHF, CUMULATIVE, AS OF 6/30/2013
      ASSISTED, IN ALL HHF PROGRAMS, AS OF 6/30/2013                                                  ($ MILLIONS)


      20,000                                                                                            $250

                                                          Peak estimate: 16,257
                                                          6/30/2013 estimate: 10,150
                                                          6/30/2013 program participation: 1,859
                                                          Homeowners assisted: 1,859                     200
      15,000



                                                                                                         150

      10,000
                                                                                                                   Available: $221.7 Million
                                                                                                                   Drawn, as of 6/30/2013: $66.3 Million
                                                                                                         100



       5,000
                                                                                                          50




          0                                                                                                0
                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13


                  State Estimated Program Participation                 Homeowners Assisted                       Undrawn HHF Funds                      Cash-on-Hand and Administrative Expenses
                  Program Participation                                                                           Homeowner Assistance                       Administrative Expenses

               Notes: Estimated includes highest estimate of a range.                                          Notes: Indiana spending figures as of June 30, 2013, are the most recent available.
                                                                                                               Treasury has separately published September 30, 2013, figures for amounts drawn down;
               Sources: States provide estimates for program participation and report program                  as of September 30, 2013, Indiana had drawn down $66.3 million. Treasury did not require
               participation and homeowners assisted numbers. Indiana Housing and Community                    states to report administrative expenses until the third quarter of 2012. According to
               Development Authority, Proposal, 9/1/2010 and (amended) 2/14/2011; Treasury and                 Treasury, committed program funds are funds committed to homeowners who have been
               Indiana Housing and Community Development Authority, Commitment to Purchase                     approved to participate in HHF programs that are anticipated to be disbursed over the
               Financial Instrument and HFA Participation Agreement, 9/23/2010; Indiana Housing and            duration of their participation; states vary as to when and how they capture and report funds
               Community Development Authority, first through seventh Amendment[s] to Agreement[s],            as committed. HHF funds committed for homeowner assistance are recorded variously as
               9/23/2010, 9/29/2010, 3/9/2011, 9/28/2011, 1/25/2012, 7/17/2012,                                homeowner assistance, cash-on-hand, or undrawn funds. States do not publish cash-on-hand
               9/28/2012, and 3/8/2013; Indiana Housing and Community Development Authority,                   in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
               Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury, Quarterly                   assistance and administrative expenses; states may also hold additional cash generated
               Performance Reports Q2 2011 - Q2 2013, no date.                                                 from interest earned on HHF cash balances, cash repayments of assistance from lien
                                                                                                               satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                                                                               made.

                                                                                                               Sources: Treasury, press release, 8/11/2010; Treasury, TARP Transactions Report,
                                                                                                               9/29/2010; Treasury, responses to SIGTARP data calls, 12/23/2010, 3/28/2011,
                                                                                                               6/29/2011, 10/5/2011, 1/5/2012, 4/5/2012, 7/5/2012, 10/4/2012, 11/6/2012,
                                                                                                               1/1/2013, 4/4/2013, 7/5/2013, 10/3/2013, and 10/17/2013; Treasury, HFA Aggregate
                                                                                                               Quarterly Report Q2 2013, no date; Treasury, Transaction Report-Housing Programs,
                                                                                                               6/27/2013; Indiana Housing and Community Development Authority, Indiana’s Hardest Hit
                                                                                                               Fund, Quarterly Reports to the U.S. Treasury, Quarterly Performance Reports Q2 2011 - Q2
                                                                                                               2013, no date.
                                                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                                   219




FIGURE 3.22

 INDIANA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
 PROGRAM, AS OF 6/30/2013

      HARDEST HIT FUND UNEMPLOYMENT BRIDGE                                                               HARDEST HIT FUND RECAST/MODIFICATION
      PROGRAM (UNEMPLOYMENT)                                                                             PROGRAM (MODIFICATION)
       25,000                                         Peak estimate: 16,257                                 2,000

       20,000                                         6/30/13 estimate: 8,000
                                                      6/30/13 program participation: 1,859                  1,500
                                                                                                                                               Peak estimate: 2,000
       15,000                                                                                                                                  6/30/13 estimate: 2,000
                                                                                                            1,000
       10,000                                                                                                                                  6/30/13 program participation: 0
                                                                                                             500
         5,000

            0                                                                                                   0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                      State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation




      HARDEST HIT FUND TRANSITION ASSISTANCE
      PROGRAM (TRANSITION)
          200

          150
                                            Peak estimate: 150
                                            6/30/13 estimate: 150
          100
                                            6/30/13 program participation: 0
           50

            0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                      State Estimated Program Participation             Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

 Sources: States provide estimates for program participation and report program participation numbers. Indiana Housing and Community Development Authority, Proposal, 9/1/2010 and (amended)
 2/14/2011; Treasury and Indiana Housing and Community Development Authority, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; Indiana Housing and
 Community Development Authority, first through seventh Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 3/9/2011, 9/28/2011, 1/25/2012, 7/17/2012, 9/28/2012, and 3/8/2013;
 Indiana Housing and Community Development Authority, Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury, Quarterly Performance Reports Q2 2011 - Q2 2013, no date.
220   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Kentucky has spent 28% of available HHF funds to help
                                             homeowners
                                             Even though Treasury obligated $148,901,875 of HHF funds to Kentucky,
                                             Kentucky is not getting a significant amount of these funds out the door to help
                                             homeowners with HHF.754 As of June 30, 2013, the state had drawn down $64
                                             million (43%) of those funds.755 As of June 30, 2013, the state had one HHF
                                             program and had spent $41.4 million (28% of its obligated funds) to help 4,036
                                             individual homeowners.756,xxii The remaining $7.6 million (5%) was spent on
                                             administrative expenses, and $15 million (10%) is held as cash-on-hand.757,xxiii
                                                 At the end of 2010, Kentucky estimated that it would provide HHF
                                             unemployment assistance to as many as 15,000 homeowners but, as of June 30,
                                             2013, reduced that peak estimate by 60%, to 5,960. As of June 30, 2013, Kentucky
                                             had helped 4,036 homeowners with HHF unemployment assistance.
                                                 Figure 3.23 shows the number of homeowners estimated to participate in
                                             Kentucky’s program and the number of homeowners who have been assisted, as of
                                             June 30, 2013. Figure 3.24 shows Kentucky’s HHF expenditures compared with its
                                             obligated funds, as of June 30, 2013.




                                             xxii According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                                   HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
                                                   capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                                   assistance, cash-on-hand, or undrawn funds.
                                             xxiii States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                    assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash
                                                    balances, cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial
                                                    payments made.
                                                                                                                  QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                                         221




FIGURE 3.23                                                                                      FIGURE 3.24

KENTUCKY’S UNEMPLOYMENT BRIDGE PROGRAM                                                           KENTUCKY USES OF $148.9 MILLION OF TARP FUNDS
(UNEMPLOYMENT) ESTIMATED PROGRAM PARTICIPATION                                                   AVAILABLE FOR HHF, CUMULATIVE, AS OF 6/30/2013
AND HOMEOWNERS ASSISTED, AS OF 6/30/2013                                                         ($ MILLIONS)


15,000                                                                                             $150




12,000                                                                                              120




 9,000                                                                                               90

                                Peak estimate: 15,000
                                                                                                              Available: $148.9 Million
                                6/30/2013 estimate: 5,960
                                                                                                              Drawn, as of 6/30/2013: $64 Million
 6,000                          6/30/2013 program participation: 4,036                               60
                                Homeowners assisted: 4,036



 3,000                                                                                               30




    0                                                                                                 0
          Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13              Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13


            State Estimated Program Participation                 Homeowners Assisted                        Undrawn HHF Funds                      Cash-on-Hand and Administrative Expenses
                                                                                                             Homeowner Assistance                       Administrative Expenses

         Notes: Estimated includes highest estimate of a range.                                           Notes: Kentucky spending figures as of June 30, 2013, are the most recent available.
                                                                                                          Treasury has separately published September 30, 2013, figures for amounts drawn down;
         Sources: States provide estimates for program participation and homeowners assisted              as of September 30, 2013, Kentucky had drawn down $64 million. Treasury did not require
         numbers. Kentucky Housing Corporation, Proposal, 8/31/2010; Treasury and Kentucky                states to report administrative expenses until the third quarter of 2012. According to
         Housing Corporation, Commitment to Purchase Financial Instrument and HFA                         Treasury, committed program funds are funds committed to homeowners who have been
         Participation Agreement, 9/23/2010; Kentucky Housing Corporation, first through sixth            approved to participate in HHF programs that are anticipated to be disbursed over the
         Amendment[s] to Agreement[s], 9/29/2010, 12/16/2010, 3/31/2011, 9/28/2011,                       duration of their participation; states vary as to when and how they capture and report funds
         3/3/2012, and 12/14/2012; Kentucky Housing Corporation, American Recovery and                    as committed. HHF funds committed for homeowner assistance are recorded variously as
         Reinvestment Act and Troubled Asset Relief Program, Kentucky Unemployment Bridge                 homeowner assistance, cash-on-hand, or undrawn funds. States do not publish cash-on-hand
         Program, Quarterly Performance Reports Q4 2010 - Q2 2013, no date.                               in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                                                                          assistance and administrative expenses; states may also hold additional cash generated
                                                                                                          from interest earned on HHF cash balances, cash repayments of assistance from lien
                                                                                                          satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                                                                          made.

                                                                                                          Sources: Treasury, press release, 8/11/2010; Treasury, TARP Transactions Report,
                                                                                                          9/29/2010; Treasury, responses to SIGTARP data calls, 12/23/2010, 3/28/2011,
                                                                                                          6/29/2011, 10/5/2011, 1/5/2012, 4/5/2012, 7/5/2012, 10/4/2012, 11/6/2012,
                                                                                                          1/1/2013, 4/4/2013, 7/5/2013, 10/3/2013, and 10/17/2013; Treasury, HFA Aggregate
                                                                                                          Quarterly Report Q2 2013, no date; Treasury, Transaction Report-Housing Programs,
                                                                                                          6/27/2013; Kentucky Housing Corporation, American Recovery and Reinvestment Act and
                                                                                                          Troubled Asset Relief Program, Kentucky Unemployment Bridge Program, Quarterly
                                                                                                          Performance Reports Q4 2010 - Q2 2013, no date.
222   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Michigan has spent 17% of available HHF funds to help
                                             homeowners
                                             Even though Treasury obligated $498,605,738 of HHF funds to Michigan,
                                             Michigan is not getting a significant amount of these funds out the door to help
                                             homeowners with HHF.758 As of June 30, 2013, the state had drawn down $109.8
                                             million (22%) of those funds.759 As of June 30, 2013, the state had five HHF
                                             programs and had spent $86 million (17% of its obligated funds) to help 12,706
                                             individual homeowners.760,xxiv The remaining $14 million (3%) was spent on
                                             administrative expenses, and $9.9 million (2%) is held as cash-on-hand.761,xxv
                                                 At the end of 2010, Michigan estimated that it would help as many as 49,422
                                             homeowners with HHF, but, as of June 30, 2013, had reduced that peak estimate
                                             by 77%, to 11,477.
                                                 Michigan has two HHF programs to modify homeowners’ mortgages: for one
                                             Michigan estimated, in mid-2010, that it would modify mortgages with HHF
                                             principal reduction assistance for 3,044 homeowners; and for the other, in mid-
                                             2012, Michigan estimated that it would modify mortgages for 825 homeowners. As
                                             of June 30, 2013, Michigan lowered the peak estimate for its first program to 300
                                             homeowners and had modified mortgages with HHF principal reduction assistance
                                             for 281 homeowners, and Michigan lowered the peak estimate for its second pro-
                                             gram to 295 homeowners and had modified mortgages for 39 homeowners.
                                                 At the end of 2010, Michigan estimated that it would provide HHF past-due
                                             payment assistance to 21,760 homeowners. As of June 30, 2013, Michigan had
                                             lowered that peak estimate to 6,600 homeowners and provided HHF past-due
                                             payment assistance to 7,096 homeowners.
                                                 At the end of 2010, Michigan estimated that it would provide HHF
                                             unemployment assistance to as many as 24,618 homeowners. As of June 30, 2013,
                                             Michigan had lowered that peak estimate to 4,282 homeowners and has helped
                                             5,290 homeowners with HHF unemployment assistance.
                                                 In 2013, Michigan introduced a new HHF program to demolish vacant
                                             properties with HHF funds but did not estimate the number of homeowners the
                                             HHF program would help or report the number of homeowners that it has helped.
                                                 Figure 3.25 shows, in aggregate, the number of homeowners estimated to
                                             participate in Michigan’s programs (estimated program participation), the reported
                                             number of homeowners who participated in one or more programs (program
                                             participation), and the total number of individual homeowners assisted, as of
                                             June 30, 2013. Figure 3.26 shows Michigan’s HHF expenditures compared
                                             with its obligated funds, as of June 30, 2013. Figure 3.27 shows the number of
                                             homeowners estimated to participate in each of Michigan’s programs (estimated
                                             program participation) and the reported number of homeowners who participated
                                             in each of Michigan’s programs (program participation), as of June 30, 2013.

                                             xxiv According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                                   HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
                                                   capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                                   assistance, cash-on-hand, or undrawn funds.
                                             xxv States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                  assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
                                                  cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                  made.
                                                                                                                 QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                                         223




FIGURE 3.25                                                                                     FIGURE 3.26

MICHIGAN ESTIMATED PROGRAM PARTICIPATION,                                                       MICHIGAN USES OF $498.6 MILLION OF TARP FUNDS
PROGRAM PARTICIPATION, AND INDIVIDUAL HOMEOWNERS                                                AVAILABLE FOR HHF, CUMULATIVE, AS OF 6/30/2013
ASSISTED, IN ALL HHF PROGRAMS, AS OF 6/30/2013                                                  ($ MILLIONS)


50,000                                                                                            $500




40,000                                                                                             400




30,000                                                                                             300


                                                                                                             Available: $498.6 Million
                                                                                                             Drawn, as of 6/30/2013: $109.8 Million
20,000                                                                                             200

                   Peak estimate: 49,422
                   6/30/2013 estimate: 11,477
10,000             6/30/2013 program participation: 12,706                                         100
                   Homeowners assisted: 12,706



    0                                                                                                0
          Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13


            State Estimated Program Participation             Homeowners Assisted                           Undrawn HHF Funds                      Cash-on-Hand and Administrative Expenses
            Program Participation                                                                           Homeowner Assistance                       Administrative Expenses

         Notes: Estimated includes highest estimate of a range. For its “Blight Elimination              Notes: Michigan spending figures as of June 30, 2013, are the most recent available.
         Program” (Demolition), Michigan neither estimated the number of homeowners it would             Treasury has separately published September 30, 2013, figures for amounts drawn down;
         serve nor reported the number of homeowners this program has served.                            as of September 30, 2013, Michigan had drawn down $146.2 million. Treasury did not
                                                                                                         require states to report administrative expenses until the third quarter of 2012. According
         Sources: States provide estimates for program participation and report program                  to Treasury, committed program funds are funds committed to homeowners who have been
         participation and homeowners assisted numbers. Michigan Homeowner Assistance                    approved to participate in HHF programs that are anticipated to be disbursed over the
         Nonprofit Housing Corporation, Proposal, 10/15/2010; Treasury and Michigan                      duration of their participation; states vary as to when and how they capture and report funds
         Homeowner Assistance Nonprofit Housing Corporation, Commitment to Purchase                      as committed. HHF funds committed for homeowner assistance are recorded variously as
         Financial Instrument and HFA Participation Agreement, 6/23/2010; Michigan Homeowner             homeowner assistance, cash-on-hand, or undrawn funds. States do not publish cash-on-hand
         Assistance Nonprofit Housing Corporation, first through seventh Amendment[s] to                 in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
         Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 8/3/2011, 6/28/2012,                            assistance and administrative expenses; states may also hold additional cash generated
         11/15/2012, and 6/6/2012; Michigan Homeowner Assistance Nonprofit Housing                       from interest earned on HHF cash balances, cash repayments of assistance from lien
         Corporation, Hardest Hit U.S. Treasury Reports, Quarterly Performance Reports Q3                satisfaction recoveries, or borrower remittances received less borrower partial payments
         2010 - Q2 2013, no date; Treasury, response to SIGTARP data call, 10/7/2013.                    made.

                                                                                                         Sources: Treasury, press releases, 3/5/2010 and 8/11/2010; Treasury, TARP
                                                                                                         Transactions Report, 9/29/2010; Treasury, responses to SIGTARP data calls,
                                                                                                         12/23/2010, 3/28/2011, 6/29/2011, 10/5/2011, 1/5/2012, 4/5/2012, 7/5/2012,
                                                                                                         10/4/2012, 11/6/2012, 1/1/2013, 4/4/2013, 7/5/2013, 10/3/2013, and
                                                                                                         10/17/2013; Treasury, HFA Aggregate Quarterly Report Q2 2013, no date; Treasury,
                                                                                                         Transaction Report-Housing Programs, 6/27/2013; Michigan Homeowner Assistance
                                                                                                         Nonprofit Housing Corporation, Hardest Hit U.S. Treasury Reports, Quarterly Performance
                                                                                                         Reports Q3 2010 - Q2 2013, no date.
224              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 3.27

       MICHIGAN ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
       PROGRAM, AS OF 6/30/2013

            PRINCIPAL CURTAILMENT PROGRAM (MODIFICATION)                                                         LOAN RESCUE PROGRAM (PAST-DUE PAYMENT)
                                                              Peak estimate: 3,044                                                                               Peak estimate: 21,760
               6,000                                                                                              25,000
                                                              6/30/13 estimate: 300                                                                              6/30/13 estimate: 6,600
               5,000                                          6/30/13 program participation: 281                  20,000                                         6/30/13 program participation: 7,096
               4,000
                                                                                                                  15,000
               3,000
                                                                                                                  10,000
               2,000
               1,000                                                                                                5,000

                   0                                                                                                    0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                  Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                            State Estimated Program Participation             Program Participation                              State Estimated Program Participation             Program Participation




            UNEMPLOYMENT MORTGAGE SUBSIDY PROGRAM                                                                MODIFICATION PLAN PROGRAM (MODIFICATION)
            (UNEMPLOYMENT)
                                                                                                                                   Peak estimate: 825
             25,000                                                                                                 1,000
                                                                                                                                   6/30/13 estimate: 295
             20,000                                                                                                                6/30/13 program participation: 39
                                                                                                                     750
             15,000
                            Peak estimate: 24,618                                                                    500
             10,000
                            6/30/13 estimate: 4,282
                            6/30/13 program participation: 5,290                                                     250
               5,000

                   0                                                                                                    0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                  Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                            State Estimated Program Participation             Program Participation                              State Estimated Program Participation             Program Participation




            BLIGHT ELIMINATION PROGRAM (DEMOLITION)

                200

                150                 Peak estimate: 0
                                    6/30/13 estimate: 0
                100
                                    6/30/13 program participation: 0
                 50

                   0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                            State Estimated Program Participation             Program Participation



       Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range. For its “Blight Elimination Program” (Demolition), Michigan neither estimated the
       number of homeowners it would serve nor reported the number of homeowners this program has served.

       Sources: States provide estimates for program participation and report program participation numbers. Michigan Homeowner Assistance Nonprofit Housing Corporation, Proposal, 10/15/2010;
       Treasury and Michigan Homeowner Assistance Nonprofit Housing Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; Michigan Homeowner
       Assistance Nonprofit Housing Corporation, first through seventh Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 8/3/2011, 6/28/2012, 11/15/2012, and 6/6/2012; Michigan
       Homeowner Assistance Nonprofit Housing Corporation, Hardest Hit U.S. Treasury Reports, Quarterly Performance Reports Q3 2010 - Q2 2013, no date; Treasury, response to SIGTARP data call,
       10/7/2013.
                                                                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   225




Mississippi has spent 16% of available HHF funds to help
homeowners
Even though Treasury obligated $101,888,323 of HHF funds to Mississippi,
Mississippi is not getting a significant amount of these funds out the door to
help homeowners with HHF.762 As of June 30, 2013, the state had drawn down
$28.3 million (28%) of those funds.763 As of June 30, 2013, the state had one
HHF program and had spent $16.5 million (16% of its obligated funds) to help
1,516 individual homeowners.764,xxvi The remaining $4.8 million (5%) was spent on
administrative expenses, and $7 million (7%) is held as cash-on-hand.765,xxvii
    Since the end of 2010, Mississippi estimated that it would provide HHF
unemployment assistance to as many as 3,800 homeowners and had helped 1,516
homeowners with HHF unemployment assistance, as of June 30, 2013.
    Figure 3.28 shows the number of homeowners estimated to participate in
Mississippi’s program and the number of homeowners who have been assisted, as
of June 30, 2013. Figure 3.29 shows Mississippi’s HHF expenditures compared
with its obligated funds, as of June 30, 2013.




xxvi According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
      HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
      capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
      assistance, cash-on-hand, or undrawn funds.
xxvii S
       tates do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
      assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash
      balances, cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial
      payments made.
226                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 3.28                                                                                     FIGURE 3.29

      MISSISSIPPI’S HOME SAVER PROGRAM (UNEMPLOYMENT)                                                 MISSISSIPPI USES OF $101.9 MILLION OF TARP FUNDS
      ESTIMATED PROGRAM PARTICIPATION AND HOMEOWNERS                                                  AVAILABLE FOR HHF, CUMULATIVE, AS OF 6/30/2013
      ASSISTED, AS OF 6/30/2013                                                                       ($ MILLIONS)


       4,000                                                                                            $120


       3,500
                                                                                                         100

       3,000

                                                                                                          80
       2,500


       2,000                          Peak estimate: 3,800                                                60
                                                                                                                   Available: $101.9 Million
                                      6/30/2013 estimate: 3,800
                                      6/30/2013 program participation: 1,516                                       Drawn, as of 6/30/2013: $28.3 Million
       1,500                          Homeowners assisted: 1,516
                                                                                                          40

       1,000

                                                                                                          20
        500


          0                                                                                                0
                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13


                  State Estimated Program Participation                 Homeowners Assisted                       Undrawn HHF Funds                      Cash-on-Hand and Administrative Expenses
                                                                                                                  Homeowner Assistance                       Administrative Expenses

               Notes: Estimated includes highest estimate of a range.                                          Notes: Mississippi spending figures as of June 30, 2013, are the most recent available.
                                                                                                               Treasury has separately published September 30, 2013, figures for amounts drawn down;
               Sources: States provide estimates for program participation and homeowners assisted             as of September 30, 2013, Mississippi had drawn down $28.3 million. Treasury did not
               numbers. Mississippi Home Corporation, Proposal, 9/1/2010; Treasury and Mississippi             require states to report administrative expenses until the third quarter of 2012. According
               Home Corporation, Commitment to Purchase Financial Instrument and HFA Participation             to Treasury, committed program funds are funds committed to homeowners who have been
               Agreement, 9/23/2010; Mississippi Home Corporation, first through seventh                       approved to participate in HHF programs that are anticipated to be disbursed over the
               Amendment[s] to Agreement[s], 9/29/2010, 12/16/2010, 12/8/2011, 9/28/2011,                      duration of their participation; states vary as to when and how they capture and report funds
               1/25/2012, 9/28/2012, 4/25/2013, and 9/20/2013; Mississippi Home Corporation,                   as committed. HHF funds committed for homeowner assistance are recorded variously as
               Financial Disclosures, Hardest Hit Fund, HFA Performance Data Report[s], Quarterly              homeowner assistance, cash-on-hand, or undrawn funds. States do not publish cash-on-hand
               Performance Reports Q4 2010 - Q2 2013, no date.                                                 in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                                                                               assistance and administrative expenses; states may also hold additional cash generated
                                                                                                               from interest earned on HHF cash balances, cash repayments of assistance from lien
                                                                                                               satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                                                                               made.

                                                                                                               Sources: Treasury, press release, 8/11/2010; Treasury, TARP Transactions Report,
                                                                                                               9/29/2010; Treasury, responses to SIGTARP data calls, 12/23/2010, 3/28/2011,
                                                                                                               6/29/2011, 10/5/2011, 1/5/2012, 4/5/2012, 7/5/2012, 10/4/2012, 11/6/2012,
                                                                                                               1/1/2013, 4/4/2013, 7/5/2013, 10/3/2013, and 10/17/2013; Treasury, HFA Aggregate
                                                                                                               Quarterly Report Q2 2013, no date; Treasury, Transaction Report-Housing Programs,
                                                                                                               6/27/2013; Mississippi Home Corporation, Financial Disclosures, Hardest Hit Fund, HFA
                                                                                                               Performance Data Report[s], Quarterly Performance Reports Q4 2010 - Q2 2013, no date.
                                                                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   227




Nevada has spent 36% of available HHF funds to help
homeowners
Even though Treasury obligated $194,026,240 of HHF funds to Nevada, Nevada
is not getting a significant amount of these funds out the door to help homeowners
with HHF.766 As of June 30, 2013, the state had drawn down $98.8 million (51%)
of those funds.767 As of June 30, 2013, the state had five HHF programs and
had spent $69.9 million (36% of its obligated funds) to help 4,316 individual
homeowners.768,xxviii The remaining $9.1 million (5%) was spent on administrative
expenses, and $19.8 million (10%) is held as cash-on-hand.769,xxix
    In mid-2011, Nevada estimated that it would help as many as 23,556
homeowners with HHF but, as of June 30, 2013, reduced that peak estimate by
67%, to 7,766.
    In mid-2011, Nevada estimated that it would modify mortgages with HHF
principal reduction assistance for 3,016 homeowners. As of June 30, 2013, Nevada
lowered that peak estimate to 2,354 homeowners and had modified mortgages for
1,120 homeowners with HHF principal reduction assistance.
    At the end of 2010, Nevada estimated that it would provide HHF second-lien
reduction assistance to 2,200 homeowners. As of June 30, 2013, Nevada lowered
that peak estimate to 500 homeowners and provided 348 homeowners with HHF
second-lien reduction assistance.
    In mid-2010, Nevada estimated that it would provide HHF transition assistance
to 1,713 homeowners. As of June 30, 2013, Nevada lowered that peak estimate to
200 homeowners and provided 101 homeowners with HHF transition assistance.
    Nevada has two HHF programs to provide HHF unemployment assistance to
homeowners: for one Nevada estimated, at the end of 2010, that it would provide
16,969 homeowners with HHF unemployment assistance; and for the other
Nevada estimated, at the start of 2012, that it would provide 416 homeowners
with HHF unemployment assistance. As of June 30, 2013, Nevada lowered the
peak estimate for its first program to 4,545 homeowners and has helped 2,688
homeowners with HHF unemployment assistance, and it also lowered the peak
estimate for its second program to 167 and has helped 209 homeowners with HHF
unemployment assistance.
    Figure 3.30 shows, in aggregate, the number of homeowners estimated to
participate in Nevada’s programs (estimated program participation), the reported
number of homeowners who participated in one or more programs (program
participation), and the total number of individual homeowners assisted, as of
June 30, 2013. Because homeowners may participate in more than one program,
the reported program participation numbers are higher than the total number of
individual homeowners assisted. Figure 3.31 shows Nevada’s HHF expenditures

xxviii A
        ccording to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
       HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
       capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
       assistance, cash-on-hand, or undrawn funds.
xxix States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
      assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash
      balances, cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial
      payments made.
228   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             compared with its obligated funds, as of June 30, 2013. Figure 3.32 show the
                                             number of homeowners estimated to participate in each of Nevada’s programs
                                             (estimated program participation) and the reported number of homeowners who
                                             participated in each of Nevada’s programs (program participation), as of June 30,
                                             2013.
                                                                                                                QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                                          229




FIGURE 3.30                                                                                     FIGURE 3.31

NEVADA ESTIMATED PROGRAM PARTICIPATION,                                                         NEVADA USES OF $194 MILLION OF TARP FUNDS
PROGRAM PARTICIPATION, AND INDIVIDUAL HOMEOWNERS                                                AVAILABLE FOR HHF, CUMULATIVE, AS OF 6/30/2013
ASSISTED, IN ALL HHF PROGRAMS, AS OF 6/30/2013                                                  ($ MILLIONS)


25,000                                                                                            $200




20,000
                                                                                                   150       Available: $194 Million
                                                                                                             Drawn, as of 6/30/2013: $98.8 Million

15,000

                                                                                                   100

10,000

                          Peak estimate: 23,556
                          6/30/2013 estimate: 7,766                                                 50
 5,000                    6/30/2013 program participation: 4,466
                          Homeowners assisted: 4,316



    0                                                                                                0
          Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13


            State Estimated Program Participation             Homeowners Assisted                           Undrawn HHF Funds                      Cash-on-Hand and Administrative Expenses
            Program Participation                                                                           Homeowner Assistance                       Administrative Expenses

         Notes: Estimated includes highest estimate of a range. Program participation numbers            Notes: Nevada spending figures as of June 30, 2013, are the most recent available.
         may have double-counted individual homeowners who received assistance from more                 Treasury has separately published September 30, 2013, figures for amounts drawn down;
         than one program in states that have more than one program.                                     as of September 30, 2013, Nevada had drawn down $98.8 million. Treasury did not require
                                                                                                         states to report administrative expenses until the third quarter of 2012. According to
         Sources: States provide estimates for program participation and report program                  Treasury, committed program funds are funds committed to homeowners who have been
         participation and homeowners assisted numbers. Nevada Affordable Housing Assistance             approved to participate in HHF programs that are anticipated to be disbursed over the
         Corporation, Proposal, 6/14/2010; Treasury and Nevada Affordable Housing Assistance             duration of their participation; states vary as to when and how they capture and report funds
         Corporation, Commitment to Purchase Financial Instrument and HFA Participation                  as committed. HHF funds committed for homeowner assistance are recorded variously as
         Agreement, 6/23/2010; Nevada Affordable Housing Assistance Corporation, first                   homeowner assistance, cash-on-hand, or undrawn funds. States do not publish cash-on-hand
         through eleventh Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010,                            in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
         12/16/2010, 4/5/2011, 5/25/2011, 10/28/2011, 12/8/2011, 2/28/2012,                              assistance and administrative expenses; states may also hold additional cash generated
         6/28/2012, 9/28/2012, and 8/28/2013; Nevada Affordable Housing Assistance                       from interest earned on HHF cash balances, cash repayments of assistance from lien
         Corporation, Nevada Hardest Hit Fund, US Treasury Reports, Quarterly Performance                satisfaction recoveries, or borrower remittances received less borrower partial payments
         Reports Q1 2011 - Q2 2013, no date.                                                             made.

                                                                                                         Sources: Treasury, press releases, 3/5/2010 and 8/11/2010; Treasury, TARP
                                                                                                         Transactions Report, 9/29/2010; Treasury, responses to SIGTARP data calls,
                                                                                                         12/23/2010, 3/28/2011, 6/29/2011, 10/5/2011, 1/5/2012, 4/5/2012, 7/5/2012,
                                                                                                         10/4/2012, 11/6/2012, 1/1/2013, 4/4/2013, 7/5/2013, 10/3/2013, and
                                                                                                         10/17/2013; Treasury, HFA Aggregate Quarterly Report Q2 2013, no date; Treasury,
                                                                                                         Transaction Report-Housing Programs, 6/27/2013; Nevada Affordable Housing Assistance
                                                                                                         Corporation, Nevada Hardest Hit Fund, US Treasury Reports, Quarterly Performance
                                                                                                         Reports Q1 2011 - Q2 2013, no date.
230              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 3.32

       NEVADA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
       PROGRAM, AS OF 6/30/2013

            PRINCIPAL REDUCTION PROGRAM (MODIFICATION)                                                         SECOND MORTGAGE REDUCTION PLAN
                                                                                                               (SECOND-LIEN REDUCTION)
                                                           Peak estimate: 3,016
               6,000                                       6/30/13 estimate: 2,354                                6,000                                          Peak estimate: 2,200
               5,000                                       6/30/13 program participation: 1,120                   5,000                                          6/30/13 estimate: 500
               4,000                                                                                              4,000
                                                                                                                                                                 6/30/13 program participation: 348

               3,000                                                                                              3,000
               2,000                                                                                              2,000
               1,000                                                                                              1,000
                  0                                                                                                   0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                            State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation




            SHORT-SALE ACCELERATION PROGRAM                                                                    MORTGAGE ASSISTANCE PROGRAM
            (TRANSITION)                                                                                       (UNEMPLOYMENT)
               2,000                                                                                            25,000                                          Peak estimate: 16,969
                                                                                                                20,000
                                                                                                                                                                6/30/13 estimate: 4,545
               1,500                                                                                                                                            6/30/13 program participation: 2,688
                                                                                                                15,000
               1,000
                                 Peak estimate: 1,713                                                           10,000
                                 6/30/13 estimate: 200
                500
                                 6/30/13 program participation: 101                                               5,000

                  0                                                                                                   0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                            State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation




            MORTGAGE ASSISTANCE PROGRAM ALTERNATIVE
            (UNEMPLOYMENT)
                500

                375

                250
                                Peak estimate: 416
                                6/30/13 estimate: 167
                125             6/30/13 program participation: 209

                  0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                            State Estimated Program Participation             Program Participation



       Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

       Sources: States provide estimates for program participation and report program participation numbers. Nevada Affordable Housing Assistance Corporation, Proposal, 6/14/2010; Treasury and Nevada
       Affordable Housing Assistance Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; Nevada Affordable Housing Assistance Corporation, first
       through eleventh Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 4/5/2011, 5/25/2011, 10/28/2011, 12/8/2011, 2/28/2012, 6/28/2012, 9/28/2012, and 8/28/2013;
       Nevada Affordable Housing Assistance Corporation, Nevada Hardest Hit Fund, US Treasury Reports, Quarterly Performance Reports Q1 2011 - Q2 2013, no date.
                                                                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   231




New Jersey has spent 24% of available HHF funds to help
homeowners
Even though Treasury obligated $300,548,144 of HHF funds to New Jersey,
New Jersey is not getting a significant amount of these funds out the door to
help homeowners with HHF.770 As of June 30, 2013, the state had drawn down
$133.5 million (44%) of those funds.771 As of June 30, 2013, the state had one
HHF program and had spent $72.2 million (24% of its obligated funds) to help
3,621 individual homeowners.772,xxx The remaining $13.6 million (5%) was spent on
administrative expenses, and $47.7 million (16%) is held as cash-on-hand.773,xxxi
    Since the end of 2010, New Jersey has estimated that it would provide HHF
unemployment assistance to as many as 6,900 homeowners and had helped 3,621
homeowners with HHF unemployment assistance, as of June 30, 2013.
    Figure 3.33 shows the number of homeowners estimated to participate in New
Jersey’s program and the number of homeowners who have been assisted, as of
June 30, 2013. Figure 3.34 shows New Jersey’s HHF expenditures compared with
its obligated funds, as of June 30, 2013.




xxx According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
     HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
     capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
     assistance, cash-on-hand, or undrawn funds.
xxxi States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
      assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash
      balances, cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial
      payments made.
232                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 3.33                                                                                       FIGURE 3.34

      NEW JERSEY’S HOMEKEEPER PROGRAM (UNEMPLOYMENT)                                                    NEW JERSEY USES OF $300.5 MILLION OF TARP FUNDS
      ESTIMATED PROGRAM PARTICIPATION AND HOMEOWNERS                                                    AVAILABLE FOR HHF, CUMULATIVE, AS OF 6/30/2013
      ASSISTED, AS OF 6/30/2013                                                                         ($ MILLIONS)


       8,000                                                                                              $350


       7,000                                                                                               300

       6,000
                                                                                                           250

       5,000                                   Peak estimate: 6,900
                                               6/30/2013 estimate: 6,900                                   200
                                               6/30/2013 program participation: 3,621
       4,000
                                               Homeowners assisted: 3,621                                            Available: $300.5 Million
                                                                                                           150       Drawn, as of 6/30/2013: $133.5 Million
       3,000

                                                                                                           100
       2,000


       1,000                                                                                                50


          0                                                                                                  0
                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13               Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13


                  State Estimated Program Participation                 Homeowners Assisted                         Undrawn HHF Funds                      Cash-on-Hand and Administrative Expenses
                                                                                                                    Homeowner Assistance                       Administrative Expenses

               Notes: Estimated includes highest estimate of a range.                                            Notes: New Jersey spending figures as of June 30, 2013, are the most recent available.
                                                                                                                 Treasury has separately published September 30, 2013, figures for amounts drawn down;
               Sources: States provide estimates for program participation and homeowners assisted               as of September 30, 2013, New Jersey had drawn down $133.5 million. Treasury did not
               numbers. New Jersey Housing and Mortgage Finance Agency, Proposal, 9/1/2010;                      require states to report administrative expenses until the third quarter of 2012. According
               Treasury and New Jersey Housing and Mortgage Finance Agency, Commitment to                        to Treasury, committed program funds are funds committed to homeowners who have been
               Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; New Jersey              approved to participate in HHF programs that are anticipated to be disbursed over the
               Housing and Mortgage Finance Agency, first through fifth Amendment[s] to Agreement[s],            duration of their participation; states vary as to when and how they capture and report funds
               9/29/2010, 12/16/2010, 8/31/2011, 1/25/2012, and 8/24/2012; New Jersey                            as committed. HHF funds committed for homeowner assistance are recorded variously as
               Housing and Mortgage Finance Agency, The New Jersey HomeKeeper Program, About                     homeowner assistance, cash-on-hand, or undrawn funds. States do not publish cash-on-hand
               the Program, Performance Reports, Quarterly Performance Reports Q3 2011 - Q2 2013,                in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
               no date.                                                                                          assistance and administrative expenses; states may also hold additional cash generated
                                                                                                                 from interest earned on HHF cash balances, cash repayments of assistance from lien
                                                                                                                 satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                                                                                 made.

                                                                                                                 Sources: Treasury, press release, 8/11/2010; Treasury, TARP Transactions Report,
                                                                                                                 9/29/2010; Treasury, responses to SIGTARP data calls, 12/23/2010, 3/28/2011,
                                                                                                                 6/29/2011, 10/5/2011, 1/5/2012, 4/5/2012, 7/5/2012, 10/4/2012, 11/6/2012,
                                                                                                                 1/1/2013, 4/4/2013, 7/5/2013, 10/3/2013, and 10/17/2013; Treasury, HFA Aggregate
                                                                                                                 Quarterly Report Q2 2013, no date; Treasury, Transaction Report-Housing Programs,
                                                                                                                 6/27/2013; New Jersey Housing and Mortgage Finance Agency, The New Jersey
                                                                                                                 HomeKeeper Program, About the Program, Performance Reports, Quarterly Performance
                                                                                                                 Reports Q3 2011 - Q2 2013, no date.
                                                                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   233




North Carolina has spent 35% of available HHF funds to help
homeowners
Even though Treasury obligated $482,781,786 of HHF funds to North Carolina,
North Carolina is not getting a significant amount of these funds out the door to
help homeowners with HHF.774 As of June 30, 2013, the state had drawn down
$222.4 million (46%) of those funds.775 As of June 30, 2013, the state had four
HHF programs and had spent $168.2 million (35% of its obligated funds) to help
12,537 individual homeowners.776,xxxii The remaining $34.6 million (7%) was spent
on administrative expenses, and $19.6 million (4%) is held as cash-on-hand.777,xxxiii
    In mid-2011 and as of June 30, 2013, North Carolina estimated that it would
help as many as 22,290 homeowners with HHF.
    North Carolina has two HHF programs that would provide HHF
unemployment assistance to homeowners: for one North Carolina estimated, in
mid-2010 and as of June 30, 2013, that it would provide 5,750 homeowners with
HHF unemployment assistance; and for the other North Carolina estimated, in
mid-2011 and as of June 30, 2013, that it would provide 14,100 homeowners with
HHF unemployment assistance. As of June 30, 2013, North Carolina provided
unemployment assistance to 3,946 homeowners through its first program and to
8,575 homeowners through its second program.
    In mid-2011 and as of June 30, 2013, North Carolina estimated that it would
provide HHF second-lien reduction assistance to as many as 2,000 homeowners.
As of June 30, 2013, North Carolina provided 70 homeowners with HHF second-
lien reduction assistance.
    In mid-2010 and as of June 30, 2013, North Carolina estimated that it would
modify mortgages for 440 homeowners but, as of June 30, 2013, had not modified
mortgages for any homeowners.
    Figure 3.35 shows, in aggregate, the number of homeowners estimated to
participate in North Carolina’s programs (estimated program participation), the
reported number of homeowners who participated in one or more programs
(program participation), and the total number of individual homeowners assisted,
as of June 30, 2013. Because homeowners may participate in more than one
program, the reported program participation numbers are higher than the total
number of individual homeowners assisted. Figure 3.36 shows North Carolina’s
HHF expenditures compared with its obligated funds, as of June 30, 2013. Figure
3.37 shows the number of homeowners estimated to participate in each of North
Carolina’s programs (estimated program participation) and the reported number
of homeowners who participated in each of North Carolina’s programs (program
participation), as of June 30, 2013.


xxxii According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
       HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
       capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
       assistance, cash-on-hand, or undrawn funds.
xxxiii States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
        assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash
        balances, cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial
        payments made.
234                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 3.35                                                                                      FIGURE 3.36

      NORTH CAROLINA ESTIMATED PROGRAM PARTICIPATION,                                                  NORTH CAROLINA USES OF $482.8 MILLION OF TARP
      PROGRAM PARTICIPATION, AND INDIVIDUAL HOMEOWNERS                                                 FUNDS AVAILABLE FOR HHF, CUMULATIVE, AS OF
      ASSISTED, IN ALL HHF PROGRAMS, AS OF 6/30/2013                                                   6/30/2013 ($ MILLIONS)

      25,000                                                                                            $500




      20,000                                                                                             400


                                           Peak estimate: 22,290
                                           6/30/2013 estimate: 22,290                                              Available: $482.8 Million
      15,000                               6/30/2013 program participation: 12,591                       300
                                                                                                                   Drawn, as of 6/30/2013: $222.4 Million
                                           Homeowners assisted: 12,537



      10,000                                                                                             200




       5,000                                                                                             100




          0                                                                                                0
                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13


                  State Estimated Program Participation             Homeowners Assisted                           Undrawn HHF Funds                     Cash-on-Hand and Administrative Expenses
                  Program Participation                                                                           Homeowner Assistance                      Administrative Expenses

               Notes: Estimated includes highest estimate of a range. Program participation numbers            Notes: North Carolina spending figures as of June 30, 2013, are the most recent available.
               may have double-counted individual homeowners who received assistance from more                 Treasury has separately published September 30, 2013, figures for amounts drawn down;
               than one program in states that have more than one program.                                     as of September 30, 2013, North Carolina had drawn down $270.5 million. Treasury did
                                                                                                               not require states to report administrative expenses until the third quarter of 2012.
               Sources: States provide estimates for program participation and report program                  According to Treasury, committed program funds are funds committed to homeowners who
               participation and homeowners assisted numbers. North Carolina Housing Finance                   have been approved to participate in HHF programs that are anticipated to be disbursed
               Agency, Proposal, 7/23/2010; Treasury and North Carolina Housing Finance Agency,                over the duration of their participation; states vary as to when and how they capture and
               Commitment to Purchase Financial Instrument and HFA Participation Agreement,                    report funds as committed. HHF funds committed for homeowner assistance are recorded
               8/23/2010; North Carolina Housing Finance Agency, first through sixth Amendment[s] to           variously as homeowner assistance, cash-on-hand, or undrawn funds. States do not publish
               Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 5/25/2011, 1/25/2012,                           cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less
               8/9/2013; North Carolina Housing Finance Agency, Hardest Hit Fund & Performance                 homeowner assistance and administrative expenses; states may also hold additional cash
               Reporting, Quarterly Performance Reports Q3 2010 - Q2 2013, no date; Treasury,                  generated from interest earned on HHF cash balances, cash repayments of assistance from
               response to SIGTARP data call, 10/7/2013.                                                       lien satisfaction recoveries, or borrower remittances received less borrower partial
                                                                                                               payments made.

                                                                                                               Sources: Treasury, press releases, 3/29/2010 and 8/11/2010; Treasury, TARP
                                                                                                               Transactions Report, 9/29/2010; Treasury, responses to SIGTARP data calls,
                                                                                                               12/23/2010, 3/28/2011, 6/29/2011, 10/5/2011, 1/5/2012, 4/5/2012, 7/5/2012,
                                                                                                               10/4/2012, 11/6/2012, 1/1/2013, 4/4/2013, 7/5/2013, 10/3/2013, and
                                                                                                               10/17/2013; Treasury, HFA Aggregate Quarterly Report Q2 2013, no date; Treasury,
                                                                                                               Transaction Report-Housing Programs, 6/27/2013; North Carolina Housing Finance
                                                                                                               Agency, Hardest Hit Fund & Performance Reporting, Quarterly Performance Reports Q3
                                                                                                               2010 - Q2 2013, no date.
                                                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                                   235




FIGURE 3.37

 NORTH CAROLINA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION,
 BY PROGRAM, AS OF 6/30/2013

      MORTGAGE PAYMENT PROGRAM-1                                                                         MORTGAGE PAYMENT PROGRAM-2
      (UNEMPLOYMENT)                                                                                     (UNEMPLOYMENT)
         6,000                                                                                            15,000
         5,000                                                                                            12,000
                                                                                                                                          Peak estimate: 14,100
         4,000
                                                                                                           9,000                          6/30/13 estimate: 14,100
         3,000                                                                                                                            6/30/13 program participation: 8,575
                                                                                                            6,000
         2,000                                            Peak estimate: 5,750
         1,000                                            6/30/13 estimate: 5,750                           3,000
                                                          6/30/13 program participation: 3,946
             0                                                                                                 0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                      State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation




      SECOND MORTGAGE REFINANCE PROGRAM                                                                  PERMANENT LOAN MODIFICATION PROGRAM
      (SECOND-LIEN REDUCTION)                                                                            (MODIFICATION)
         2,000                                                                                               500

        1,500                                                                                                375

         1,000                                          Peak estimate: 2,000                                 250                                             Peak estimate: 440
                                                        6/30/13 estimate: 2,000                                                                              6/30/13 estimate: 440
          500                                           6/30/13 program participation: 70                    125                                             6/30/13 program participation: 0

             0                                                                                                 0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                      State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

 Sources: States provide estimates for program participation and report program participation numbers. North Carolina Housing Finance Agency, Proposal, 7/23/2010; Treasury and North Carolina
 Housing Finance Agency, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 8/23/2010; North Carolina Housing Finance Agency, first through sixth Amendment[s] to
 Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 5/25/2011, 1/25/2012, 8/9/2013; North Carolina Housing Finance Agency, Hardest Hit Fund & Performance Reporting, Quarterly Performance
 Reports Q3 2010 - Q2 2013, no date; Treasury, response to SIGTARP data call, 10/7/2013.
236   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Ohio has spent 25% of available HHF funds to help
                                             homeowners
                                             Even though Treasury obligated $570,395,099 of HHF funds to Ohio, Ohio is not
                                             getting a significant amount of these funds out the door to help homeowners with
                                             HHF.778 As of June 30, 2013, the state had drawn down $208.1 million (36%) of
                                             those funds.779 As of June 30, 2013, the state had seven active HHF programs and
                                             had spent $144.5 million (25% of its obligated funds) to help 11,546 individual
                                             homeowners.780,xxxiv The remaining $27 million (5%) was spent on administrative
                                             expenses, and $36.6 million (6%) is held as cash-on-hand.781,xxxv
                                                  At the end of 2010, Ohio estimated that it would help as many as 63,485
                                             homeowners with HHF but, as of June 30, 2013, reduced that peak estimate by
                                             40%, to 38,215.
                                                  At the end of 2011, Ohio estimated that it would provide HHF past-due
                                             payment assistance to 21,000 homeowners. As of June 30, 2013, Ohio lowered
                                             that peak estimate to 18,022 homeowners and provided HHF past-due payment
                                             assistance to 10,031 homeowners.
                                                  At the end of 2010, Ohio estimated that it would provide HHF unemployment
                                             assistance to as many as 31,900 homeowners. As of June 30, 2013, Ohio lowered
                                             that peak estimate to 10,510 homeowners and has helped 7,392 homeowners with
                                             HHF unemployment assistance.
                                                  Ohio has four HHF programs that would modify homeowners’ mortgages. For
                                             its first HHF modification program, Ohio estimated, at the end of 2012, that it
                                             would modify mortgages for 6,400 homeowners but, as of June 30, 2013, lowered
                                             that peak estimate to 5,746 homeowners and had modified mortgages for 116
                                             homeowners. For its second HHF modification program, Ohio estimated, in mid-
                                             2010, that it would modify mortgages for 2,350 homeowners but, as of June 30,
                                             2013, lowered that peak estimate to 955 homeowners and had modified mortgages
                                             for 370 homeowners. For its third HHF modification program, Ohio estimated,
                                             at the end of 2012, that it would modify mortgages for 3,100 homeowners but,
                                             as of June 30, 2013, lowered that peak estimate to 1,982 homeowners and
                                             had modified mortgages for 79 homeowners. For its fourth HHF modification
                                             program, Ohio estimated, at the start of 2013, that it would modify mortgages for
                                             900 homeowners but, as of June 30, 2013, had not modified mortgages for any
                                             homeowners.
                                                  Ohio had two HHF programs to provide HHF transition assistance to
                                             homeowners: for one Ohio estimated, at the end of 2010, that it would provide
                                             HHF transition assistance to 4,900 homeowners; and for the other Ohio
                                             estimated, at the end of 2010, that it would provide HHF transition assistance to
                                             6,500 homeowners. As of June 30, 2013, Ohio lowered the peak estimate for its

                                             xxxiv According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                                    HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
                                                    capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                                    assistance, cash-on-hand, or undrawn funds.
                                             xxxv States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                   assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash
                                                   balances, cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial
                                                   payments made.
                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   237




first program to 100 homeowners and has provided 21 homeowners with HHF
transition assistance, and Ohio reduced the peak estimate for its second program to
zero and had not provided HHF transition assistance to any homeowners.
    Figure 3.38 shows, in aggregate, the number of homeowners estimated to
participate in Ohio’s programs (estimated program participation), the reported
number of homeowners who participated in one or more programs (program
participation), and the total number of individual homeowners assisted, as of
June 30, 2013. Because homeowners may participate in more than one program,
the reported program participation numbers are higher than the total number of
individual homeowners assisted. Figure 3.39 shows Ohio’s HHF expenditures
compared with its obligated funds, as of June 30, 2013. Figure 3.40 shows the
number of homeowners estimated to participate in each of Ohio’s programs
(estimated program participation) and the reported number of homeowners
who participated in each of Ohio’s programs (program participation), as of
June 30, 2013.
238                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 3.38                                                                                     FIGURE 3.39

      OHIO ESTIMATED PROGRAM PARTICIPATION, PROGRAM                                                   OHIO USES OF $570.4 MILLION OF TARP FUNDS AVAILABLE
      PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED,                                              FOR HHF, CUMULATIVE, AS OF 6/30/2013 ($ MILLIONS)
      IN ALL HHF PROGRAMS, AS OF 6/30/2013

      80,000                                                                                           $600


      70,000
                                                                                                        500

      60,000                                                                                                      Available: $570.4 Million
                                                                                                                  Drawn, as of 6/30/2013: $208.1 Million
                                                                                                        400
      50,000


      40,000                                                                                            300
                                      Peak estimate: 63,485
                                      6/30/2013 estimate: 38,215
      30,000                          6/30/2013 program participation: 18,009
                                      Homeowners assisted: 11,546                                       200

      20,000

                                                                                                        100
      10,000


          0                                                                                               0
                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13


                  State Estimated Program Participation             Homeowners Assisted                          Undrawn HHF Funds                      Cash-on-Hand and Administrative Expenses
                  Program Participation                                                                          Homeowner Assistance                       Administrative Expenses

               Notes: Estimated includes highest estimate of a range. Program participation numbers           Notes: Ohio spending figures as of June 30, 2013, are the most recent available. Treasury
               may have double-counted individual homeowners who received assistance from more                has separately published September 30, 2013, figures for amounts drawn down; as of
               than one program in states that have more than one program.                                    September 30, 2013, Ohio had drawn down $239.1 million. Treasury did not require states
                                                                                                              to report administrative expenses until the third quarter of 2012. Ohio program expense
               Sources: States provide estimates for program participation and report program                 totals for Q1 2013 through Q2 2013 are correct. However, previous quarters include up to
               participation and homeowners assisted numbers. Ohio Homeowner Assistance LLC,                  $3.3 million in partial payments made by homeowners incorrectly credited as program
               Proposal [revised], 4/11/2011; Treasury and Ohio Homeowner Assistance LLC,                     assistance. According to Treasury, committed program funds are funds committed to
               Commitment to Purchase Financial Instrument and HFA Participation Agreement,                   homeowners who have been approved to participate in HHF programs that are anticipated
               9/23/2010; Ohio Homeowner Assistance LLC, first through eighth Amendment[s] to                 to be disbursed over the duration of their participation; states vary as to when and how they
               Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 12/8/2011,                          capture and report funds as committed. HHF funds committed for homeowner assistance
               12/14/2012, 3/22/2013, and 8/28/2013; Ohio Homeowner Assistance LLC, Save the                  are recorded variously as homeowner assistance, cash-on-hand, or undrawn funds. States
               Dream Ohio: Quarterly Reports, Quarterly Performance Reports Q4 2010 - Q2 2013, no             do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the
               date; Treasury, response to SIGTARP data call, 10/7/2013.                                      amount drawn less homeowner assistance and administrative expenses; states may also
                                                                                                              hold additional cash generated from interest earned on HHF cash balances, cash
                                                                                                              repayments of assistance from lien satisfaction recoveries, or borrower remittances
                                                                                                              received less borrower partial payments made.

                                                                                                              Sources: Treasury, press releases, 3/29/2010 and 8/11/2010; Treasury, TARP
                                                                                                              Transactions Report, 9/29/2010; Treasury, responses to SIGTARP data calls,
                                                                                                              12/23/2010, 3/28/2011, 6/29/2011, 10/5/2011, 1/5/2012, 4/5/2012, 7/5/2012,
                                                                                                              10/4/2012, 11/6/2012, 1/1/2013, 4/4/2013, 7/5/2013, 9/16/2013, 9/19/2013,
                                                                                                              10/3/2013, and 10/17/2013; Treasury, HFA Aggregate Quarterly Report Q2 2013, no
                                                                                                              date; Treasury, Transaction Report-Housing Programs, 6/27/2013; Ohio Homeowner
                                                                                                              Assistance LLC, Save the Dream Ohio: Quarterly Reports, Quarterly Performance Reports
                                                                                                              Q4 2010 - Q2 2013, no date.
                                                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                                   239



FIGURE 3.40

 OHIO ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
 PROGRAM, AS OF 6/30/2013

      RESCUE PAYMENT ASSISTANCE PROGRAM                                                                  MORTGAGE PAYMENT ASSISTANCE PROGRAM
      (PAST-DUE PAYMENT)  Peak estimate: 21,000                                                          (UNEMPLOYMENT)
                                                    6/30/13 estimate: 18,022                                                                            Peak estimate: 31,900
       25,000                                       6/30/13 program participation: 10,031                 50,000                                        6/30/13 estimate: 10,510
       20,000                                                                                             40,000                                        6/30/13 program participation: 7,392

       15,000                                                                                             30,000

       10,000                                                                                             20,000

         5,000                                                                                            10,000

            0                                                                                                   0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                      State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation




      MODIFICATION WITH CONTRIBUTION ASSISTANCE                                                          LIEN ELIMINATION ASSISTANCE (MODIFICATION)
      PROGRAM (MODIFICATION)
                                                                                                                                                        Peak estimate: 2,350
        7,500                                                                                               6,000                                       6/30/13 estimate: 955
         6,000                                                                                              5,000                                       6/30/13 program participation: 370
                                                                                                            4,000
        4,500
                     Peak estimate: 6,400                                                                   3,000
         3,000       6/30/13 estimate: 5,746                                                                2,000
        1,500        6/30/13 program participation: 116
                                                                                                            1,000
            0                                                                                                   0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                      State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation




      TRANSITION ASSISTANCE PROGRAM                                                                      HOMEOWNERSHIP RETENTION ASSISTANCE
      (TRANSITION)                                                                                       (MODIFICATION)
                                                     Peak estimate: 4,900                                                                               Peak estimate: 3,100
         6,000                                       6/30/13 estimate: 100                                  6,000                                       6/30/13 estimate: 1,982
         5,000                                       6/30/13 program participation: 21                      5,000                                       6/30/13 program participation: 79
         4,000                                                                                              4,000
         3,000                                                                                              3,000
         2,000                                                                                              2,000
         1,000                                                                                              1,000
            0                                                                                                   0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                      State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation




      HOMEOWNER STABILIZATION ASSISTANCE                                                                 SHORT REFINANCE PROGRAM
      PROGRAM (MODIFICATION)                                                                             (TRANSITION)
                                                           Peak estimate: 900                                                                                Peak estimate: 6,500
         6,000                                             6/30/13 estimate: 900                          10,000                                             6/30/13 estimate: 0
         5,000                                             6/30/13 program participation: 0                8,000                                             6/30/13 program participation: 0
         4,000
                                                                                                            6,000
         3,000
                                                                                                            4,000
         2,000
         1,000                                                                                              2,000

            0                                                                                                   0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                      State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

 Sources: States provide estimates for program participation and report program participation numbers. Ohio Homeowner Assistance LLC, Proposal, 8/3/2010; Treasury and Ohio Homeowner
 Assistance LLC, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; Ohio Homeowner Assistance LLC, first through eighth Amendment[s] to Agreement[s],
 9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 12/8/2011, 12/14/2012, 3/22/2013, and 8/28/2013; Ohio Homeowner Assistance LLC, Save the Dream Ohio: Quarterly Reports, Quarterly
 Performance Reports Q4 2010 - Q2 2013, no date; Treasury, response to SIGTARP data call, 10/7/2013.
240   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Oregon has spent 48% of available HHF funds to help
                                             homeowners
                                             Treasury obligated $220,042,786 of HHF funds to Oregon.782 As of June 30, 2013,
                                             the state had drawn down $155 million (70%) of those funds.783 As of June 30,
                                             2013, the state had six HHF programs and had spent $105.4 million (48% of its
                                             obligated funds) to help 8,579 individual homeowners.784,xxxvi The remaining $25.8
                                             million (12%) was spent on administrative expenses, and $23.8 million (11%) is
                                             held as cash-on-hand.785,xxxvii
                                                 As of mid-2010, Oregon estimated that it would help as many as 9,400
                                             homeowners with HHF but, as of June 30, 2013, had increased that estimate to
                                             15,280.
                                                 Oregon has three HHF programs to modify homeowners’ mortgages. For its first
                                             HHF modification program, Oregon estimated, at the end of 2010, that it would
                                             modify mortgages for 2,600 homeowners but, as of June 30, 2013, Oregon had
                                             unfolded its first program, which had not modified mortgages for any homeowners.
                                             For its second HHF modification program, Oregon estimated, at the start of 2011,
                                             that it would modify mortgages for 330 homeowners and, as of June 30, 2013,
                                             had modified mortgages for 79 homeowners. For its third HHF modification
                                             program, Oregon estimated, at the start of 2013, that it would modify mortgages
                                             for 50 homeowners but, as of June 30, 2013, it had not modified mortgages for any
                                             homeowners.
                                                 As of June 30, 2013, Oregon estimated that it would provide HHF unemploy-
                                             ment assistance to 11,000 homeowners and has helped 8,186 homeowners with
                                             HHF unemployment assistance.
                                                 At the end of 2011, Oregon estimated that it would provide HHF past-due
                                             payment assistance to 4,000 homeowners. As of June 30, 2013, Oregon lowered
                                             that peak estimate to 3,900 homeowners and provided HHF past-due payment
                                             assistance to 2,495 homeowners.
                                                 At the end of 2010, Oregon estimated that it would provide HHF transition
                                             assistance to 2,515 homeowners. As of June 30, 2013, Oregon unfunded this
                                             program, which had not provided HHF transition assistance to any homeowners.
                                                 Figure 3.41 shows, in aggregate, the number of homeowners estimated to
                                             participate in Oregon’s programs (estimated program participation), the reported
                                             number of homeowners who participated in one or more programs (program
                                             participation), and the total number of individual homeowners assisted, as of
                                             June 30, 2013. Because homeowners may participate in more than one program,
                                             the reported program participation numbers are higher than the total number of
                                             individual homeowners assisted. Figure 3.42 shows Oregon’s HHF expenditures
                                             compared with its obligated funds, as of June 30, 2013. Figure 3.43 shows the
                                             number of homeowners estimated to participate in each of Oregon’s programs
                                             xxxvi According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                                    HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
                                                    capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                                    assistance, cash-on-hand, or undrawn funds.
                                             xxxvii States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                     assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash
                                                     balances, cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial
                                                     payments made.
                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   241




(estimated program participation) and the reported number of homeowners who
participated in each of Oregon’s programs (program participation), as of June 30,
2013.
242                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 3.41                                                                                     FIGURE 3.42

      OREGON ESTIMATED PROGRAM PARTICIPATION, PROGRAM                                                 OREGON USES OF $220 MILLION OF TARP FUNDS
      PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED,                                              AVAILABLE FOR HHF, CUMULATIVE, AS OF 6/30/2013
      IN ALL HHF PROGRAMS, AS OF 6/30/2013                                                            ($ MILLIONS)


      20,000                                                                                            $250
                        Peak estimate: 15,280
                        6/30/2013 estimate: 15,280
                        6/30/2013 program participation: 10,760
                        Homeowners assisted: 8,579                                                       200
      15,000
                                                                                                                   Available: $220 Million
                                                                                                                   Drawn, as of 6/30/2013: $155 Million
                                                                                                         150

      10,000

                                                                                                         100



       5,000
                                                                                                          50




          0                                                                                                0
                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13


                  State Estimated Program Participation             Homeowners Assisted                           Undrawn HHF Funds                      Cash-on-Hand and Administrative Expenses
                  Program Participation                                                                           Homeowner Assistance                       Administrative Expenses

               Notes: Estimated includes highest estimate of a range. Program participation numbers            Notes: Oregon spending figures as of June 30, 2013, are the most recent available.
               may have double-counted individual homeowners who received assistance from more                 Treasury has separately published September 30, 2013, figures for amounts drawn down;
               than one program in states that have more than one program.                                     as of September 30, 2013, Oregon had drawn down $155 million. Treasury did not require
                                                                                                               states to report administrative expenses until the third quarter of 2012. According to
               Sources: States provide estimates for program participation and report program                  Treasury, committed program funds are funds committed to homeowners who have been
               participation and homeowners assisted numbers. Oregon Affordable Housing Assistance             approved to participate in HHF programs that are anticipated to be disbursed over the
               Corporation, Proposal, no date; Treasury and Oregon Affordable Housing Assistance               duration of their participation; states vary as to when and how they capture and report funds
               Corporation, Commitment to Purchase Financial Instrument and HFA Participation                  as committed. HHF funds committed for homeowner assistance are recorded variously as
               Agreement, 8/3/2010; Oregon Affordable Housing Assistance Corporation, first through            homeowner assistance, cash-on-hand, or undrawn funds. States do not publish cash-on-hand
               thirteenth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010,                      in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
               3/31/2011, 5/25/2011, 9/28/2011, 12/8/2011, 3/29/2012, 7/17/2012,                               assistance and administrative expenses; states may also hold additional cash generated
               2/6/2013, 4/25/2013, 6/6/2013, and 8/28/2013; Oregon Affordable Housing                         from interest earned on HHF cash balances, cash repayments of assistance from lien
               Assistance Corporation, Oregon Homeownership Stabilization Initiative, Reporting,               satisfaction recoveries, or borrower remittances received less borrower partial payments
               Quarterly Performance Reports Q2 2011 - Q2 2013, no date.                                       made.

                                                                                                               Sources: Treasury, press releases, 3/29/2010 and 8/11/2010; Treasury, TARP
                                                                                                               Transactions Report, 9/29/2010; Treasury, responses to SIGTARP data calls,
                                                                                                               12/23/2010, 3/28/2011, 6/29/2011, 10/5/2011, 1/5/2012, 4/5/2012, 7/5/2012,
                                                                                                               10/4/2012, 11/6/2012, 1/1/2013, 4/4/2013, 7/5/2013, 10/3/2013, and
                                                                                                               10/17/2013; Treasury, HFA Aggregate Quarterly Report Q2 2013, no date; Treasury,
                                                                                                               Transaction Report-Housing Programs, 6/27/2013; Oregon Affordable Housing Assistance
                                                                                                               Corporation, Oregon Homeownership Stabilization Initiative, Reporting, Quarterly
                                                                                                               Performance Reports Q2 2011 - Q2 2013, no date.
                                                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                                   243




FIGURE 3.43

 OREGON ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
 PROGRAM, AS OF 6/30/2013

      LOAN MODIFICATION ASSISTANCE PROGRAM                                                               MORTGAGE PAYMENT ASSISTANCE PROGRAM
      (MODIFICATION)                                                                                     (UNEMPLOYMENT)
                                                                                                                                                 Peak estimate: 11,000
         6,000                                            Peak estimate: 2,600                            15,000
                                                                                                                                                 6/30/13 estimate: 11,000
         5,000                                            6/30/13 estimate: 0
                                                                                                          12,000                                 6/30/13 program participation: 8,186
                                                          6/30/13 program participation: 0
         4,000
                                                                                                           9,000
         3,000
                                                                                                            6,000
         2,000
         1,000                                                                                              3,000

            0                                                                                                   0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                      State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation




      LOAN PRESERVATION ASSISTANCE PROGRAM                                                               TRANSITION ASSISTANCE PROGRAM
      (PAST-DUE PAYMENT)                                                                                 (TRANSITION)
                                                  Peak estimate: 4,000
         6,000                                    6/30/13 estimate: 3,900                                   6,000                                             Peak estimate: 2,515
         5,000                                    6/30/13 program participation: 2,495                      5,000                                             6/30/13 estimate: 0
                                                                                                                                                              6/30/13 program participation: 0
         4,000                                                                                              4,000
         3,000                                                                                              3,000
         2,000                                                                                              2,000
         1,000                                                                                              1,000
            0                                                                                                   0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                      State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation




      LOAN REFINANCE ASSISTANCE PROGRAM                                                                  REBUILDING AMERICAN HOMEOWNERSHIP
      (MODIFICATION)                                                                                     ASSISTANCE PILOT PROJECT (MODIFICATION)
                                                         Peak estimate: 330
          500
                                                         6/30/13 estimate: 330                               200                                              Peak estimate: 50
                                                         6/30/13 program participation: 79                                                                    6/30/13 estimate: 50
          375                                                                                                150                                              6/30/13 program participation: 0

          250                                                                                                100

          125                                                                                                 50

            0                                                                                                   0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                      State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

 Sources: States provide estimates for program participation and report program participation numbers. Oregon Affordable Housing Assistance Corporation, Proposal, no date; Treasury and Oregon
 Affordable Housing Assistance Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 8/3/2010; Oregon Affordable Housing Assistance Corporation, first through
 thirteenth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 5/25/2011, 9/28/2011, 12/8/2011, 3/29/2012, 7/17/2012, 2/6/2013, 4/25/2013, 6/6/2013, and
 8/28/2013; Oregon Affordable Housing Assistance Corporation, Oregon Homeownership Stabilization Initiative, Reporting, Quarterly Performance Reports Q2 2011 - Q2 2013, no date.
244   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Rhode Island has spent 56% of available HHF funds to help
                                             homeowners
                                             Treasury obligated $79,351,573 of HHF funds to Rhode Island.786 As of June 30,
                                             2013, the state had drawn down $54.5 million (69%) of those funds.787 As of June
                                             30, 2013, the state had five HHF programs and had spent $44.7 million (56% of
                                             its obligated funds) to help 2,968 individual homeowners.788,xxxviii The remaining $7
                                             million (9%) was spent on administrative expenses, and $2.8 million (4%) is held
                                             as cash-on-hand.789,xxxix According to Treasury, Rhode Island stopped accepting new
                                             applications from struggling homeowners seeking help from their HHF programs
                                             submitted after January 31, 2013.790,xl
                                                 At the end of 2010, Rhode Island estimated that it would help as many as
                                             13,125 homeowners with HHF but, as of June 30, 2013, reduced that peak
                                             estimate by 75%, to 3,331.
                                                 Rhode Island has two HHF programs to modify homeowners’ mortgages: for
                                             one Rhode Island estimated, at the end of 2010, that it would modify mortgages
                                             for 3,500 homeowners; and for the other Rhode Island estimated, in mid-2011,
                                             that it would modify mortgages with HHF principal reduction assistance for
                                             100 homeowners. As of June 30, 2013, Rhode Island lowered the peak estimate
                                             for its first program to 520 homeowners and has modified mortgages for 424
                                             homeowners; and lowered the peak estimate for its second program to 45
                                             homeowners and had modified mortgages with HHF principal reduction assistance
                                             for 18 homeowners.
                                                 At the end of 2010, Rhode Island estimated that it would provide HHF past-
                                             due payment assistance to 2,750 homeowners. As of June 30, 2013, Rhode Island
                                             lowered that peak estimate to 642 homeowners and provided HHF past-due
                                             payment assistance to 633 homeowners.
                                                 At the end of 2010, Rhode Island estimated that it would provide HHF
                                             transition assistance to 875 homeowners. As of June 30, 2013, Rhode Island
                                             lowered that peak estimate to 66 homeowners and provided 64 homeowners with
                                             HHF transition assistance.
                                                 As of June 30, 2013, Rhode Island estimated that it would provide HHF
                                             unemployment assistance to as many as 6,000 homeowners. As of June 30, 2013,
                                             Rhode Island lowered that peak estimate to 2,058 homeowners and has helped
                                             2,058 homeowners with HHF unemployment assistance.
                                                 Figure 3.44 shows, in aggregate, the number of homeowners estimated to
                                             participate in Rhode Island’s programs (estimated program participation), the
                                             reported number of homeowners who participated in one or more programs
                                             (program participation), and the total number of individual homeowners assisted,

                                             xxxviii According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                                      HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
                                                      capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                                      assistance, cash-on-hand, or undrawn funds.
                                             xxxix States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                    assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash
                                                    balances, cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial
                                                    payments made.
                                             xl	According to Treasury, Rhode Island is no longer accepting applications for assistance from homeowners because it determined
                                                    that its allocated HHF funds would be spent on homeowners who already have been approved for HHF assistance.
                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   245




as of June 30, 2013. Because homeowners may participate in more than one
program, the reported program participation numbers are higher than the total
number of individual homeowners assisted. Figure 3.45 shows Rhode Island’s
HHF expenditures compared with its obligated funds, as of June 30, 2013. Figure
3.46 shows the number of homeowners estimated to participate in each of Rhode
Island’s programs (estimated program participation) and the reported number
of homeowners who participated in each of Rhode Island’s programs (program
participation), as of June 30, 2013.
246                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 3.44                                                                                     FIGURE 3.45

      RHODE ISLAND ESTIMATED PROGRAM PARTICIPATION,                                                   RHODE ISLAND USES OF $79.4 MILLION OF TARP FUNDS
      PROGRAM PARTICIPATION, AND INDIVIDUAL HOMEOWNERS                                                AVAILABLE FOR HHF, CUMULATIVE, AS OF 6/30/2013
      ASSISTED, IN ALL HHF PROGRAMS, AS OF 6/30/2013                                                  ($ MILLIONS)


      15,000                                                                                             $80

                                                      Peak estimate: 13,125
                                                                                                          70
                                                      6/30/2013 estimate: 3,331
      12,000                                          6/30/2013 program participation: 3,197
                                                      Homeowners assisted: 2,968                          60
                                                                                                                   Available: $79.4 Million
                                                                                                                   Drawn, as of 6/30/2013: $54.5 Million
                                                                                                          50
       9,000

                                                                                                          40

       6,000
                                                                                                          30


                                                                                                          20
       3,000

                                                                                                          10


          0                                                                                                0
                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13


                  State Estimated Program Participation             Homeowners Assisted                           Undrawn HHF Funds                      Cash-on-Hand and Administrative Expenses
                  Program Participation                                                                           Homeowner Assistance                       Administrative Expenses

               Notes: Estimated includes highest estimate of a range. Program participation numbers            Notes: Rhode Island spending figures as of June 30, 2013, are the most recent available.
               may have double-counted individual homeowners who received assistance from more                 Treasury has separately published September 30, 2013, figures for amounts drawn down;
               than one program in states that have more than one program.                                     as of September 30, 2013, Rhode Island had drawn down $66.5 million. Treasury did not
                                                                                                               require states to report administrative expenses until the third quarter of 2012. According
               Sources: States provide estimates for program participation and report program                  to Treasury, committed program funds are funds committed to homeowners who have been
               participation and homeowners assisted numbers. Rhode Island Housing and Mortgage                approved to participate in HHF programs that are anticipated to be disbursed over the
               Finance Corporation, Proposal, 5/27/2010 and (amended) 7/22/2010; Treasury and                  duration of their participation; states vary as to when and how they capture and report funds
               Rhode Island Housing and Mortgage Finance Corporation, Commitment to Purchase                   as committed. HHF funds committed for homeowner assistance are recorded variously as
               Financial Instrument and HFA Participation Agreement, 8/3/2010; Rhode Island Housing            homeowner assistance, cash-on-hand, or undrawn funds. States do not publish cash-on-hand
               and Mortgage Finance Corporation, first through eighth Amendment[s] to Agreement[s],            in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
               9/23/2010, 9/29/2010, 12/16/2010, 5/25/2011, 1/25/2012, 3/29/2012,                              assistance and administrative expenses; states may also hold additional cash generated
               12/14/2012, and 7/17/2013; Rhode Island Housing and Mortgage Finance Corporation,               from interest earned on HHF cash balances, cash repayments of assistance from lien
               Hardest Hit Fund – Rhode Island, About HHFRI, Reports, Quarterly Performance Reports            satisfaction recoveries, or borrower remittances received less borrower partial payments
               Q4 2010 - Q2 2013, no date; Treasury, response to SIGTARP data call, 10/7/2013.                 made.

                                                                                                               Sources: Treasury, press releases, 3/29/2010 and 8/11/2010; Treasury, TARP
                                                                                                               Transactions Report, 9/29/2010; Treasury, responses to SIGTARP data calls,
                                                                                                               12/23/2010, 3/28/2011, 6/29/2011, 10/5/2011, 1/5/2012, 4/5/2012, 7/5/2012,
                                                                                                               10/4/2012, 11/6/2012, 1/1/2013, 4/4/2013, 7/5/2013, 10/3/2013, and
                                                                                                               10/17/2013; Treasury, HFA Aggregate Quarterly Report Q2 2013, no date; Treasury,
                                                                                                               Transaction Report-Housing Programs, 6/27/2013; Rhode Island Housing and Mortgage
                                                                                                               Finance Corporation, Hardest Hit Fund – Rhode Island, About HHFRI, Reports, Quarterly
                                                                                                               Performance Reports Q4 2010 - Q2 2013, no date.
                                                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                                  247




FIGURE 3.46

 RHODE ISLAND ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
 PROGRAM, AS OF 6/30/2013

      LOAN MODIFICATION ASSISTANCE PROGRAM                                                               TEMPORARY AND IMMEDIATE HOMEOWNER
      (MODIFICATION)                                                                                     ASSISTANCE (PAST-DUE PAYMENT)
        3,500                                                                                             3,000
        3,000                                         Peak estimate: 3,500                                                                                Peak estimate: 2,750
                                                                                                          2,500
        2,500                                         6/30/13 estimate: 520                                                                               6/30/13 estimate: 642
                                                      6/30/13 program participation: 424                  2,000                                           6/30/13 program participation: 633
        2,000
        1,500                                                                                             1,500
        1,000                                                                                             1,000
         500                                                                                                500
            0                                                                                                  0
                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                     State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation




      MOVING FORWARD ASSISTANCE (TRANSITION)                                                             MORTGAGE PAYMENT ASSISTANCE –
                                                          Peak estimate: 875
                                                                                                         UNEMPLOYMENT (UNEMPLOYMENT)
        1,000                                             6/30/13 estimate: 66                             6000
                                                          6/30/13 program participation: 64                                                            Peak estimate: 6,000
                                                                                                           5000                                        6/30/13 estimate: 2,058
         750
                                                                                                           4000                                        6/30/13 program participation: 2,058
         500                                                                                               3000
                                                                                                           2000
         250
                                                                                                           1000
            0                                                                                                 0
                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                     State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation




      PRINCIPAL REDUCTION PROGRAM (MODIFICATION)

         200                                              Peak estimate: 100
                                                          6/30/13 estimate: 45
         150
                                                          6/30/13 program participation: 18
         100

          50

            0
                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                     State Estimated Program Participation             Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

 Sources: States provide estimates for program participation and report program participation numbers. Rhode Island Housing and Mortgage Finance Corporation, Proposal, 5/27/2010 and (amended)
 7/22/2010; Treasury and Rhode Island Housing and Mortgage Finance Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 8/3/2010; Rhode Island Housing
 and Mortgage Finance Corporation, first through eighth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 5/25/2011, 1/25/2012, 3/29/2012, 12/14/2012, and 7/17/2013;
 Rhode Island Housing and Mortgage Finance Corporation, Hardest Hit Fund – Rhode Island, About HHFRI, Reports, Quarterly Performance Reports Q4 2010 - Q2 2013, no date; Treasury, response to
 SIGTARP data call, 10/7/2013.
248   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             South Carolina has spent 23% of available HHF funds to help
                                             homeowners
                                             Even though Treasury obligated $295,431,547 of HHF funds to South Carolina,
                                             South Carolina is not getting a significant amount of these funds out the door to
                                             help homeowners with HHF.791 As of June 30, 2013, the state had drawn down
                                             $90 million (30%) of those funds.792 As of June 30, 2013, the state had four active
                                             HHF programs and had spent $69.3 million (23% of its obligated funds) to help
                                             5,635 individual homeowners.793,xli The remaining $14.3 million (5%) was spent on
                                             administrative expenses, and $6.5 million (2%) is held as cash-on-hand.794,xlii
                                                 At the end of 2010, South Carolina estimated that it would help as many
                                             as 34,100 homeowners with HHF but, as of June 30, 2013, reduced that peak
                                             estimate by 34%, to 22,400.
                                                 In mid-2011, South Carolina estimated that it would provide HHF
                                             unemployment assistance to as many as 14,000 homeowners. As of June 30, 2013,
                                             South Carolina lowered that peak estimate to 6,000 homeowners and has helped
                                             3,084 homeowners with HHF unemployment assistance.
                                                 At the end of 2010, South Carolina estimated that it would provide HHF
                                             past-due payment assistance to 11,000 homeowners. As of June 30, 2013, South
                                             Carolina lowered that peak estimate to 10,000 homeowners and provided HHF
                                             past-due payment assistance to 5,437 homeowners.
                                                 At the end of 2012 and as June 30, 2013, South Carolina estimated that it
                                             would modify 6,000 homeowners’ mortgages but, as of June 30, 2013, had not
                                             modified mortgages for any homeowners.
                                                 At the end of 2010, South Carolina estimated that it would provide HHF
                                             transition assistance to 6,000 homeowners. As of June 30, 2013, South Carolina
                                             lowered that peak estimate to 400 homeowners and provided 87 homeowners with
                                             HHF transition assistance.
                                                 In mid-2010, South Carolina estimated that it would provide HHF second-lien
                                             reduction assistance to as many as 2,600 homeowners but, as of June 30, 2013,
                                             had ended the program and not provided HHF second-lien reduction assistance to
                                             any homeowners.
                                                 Figure 3.47 shows, in aggregate, the number of homeowners estimated to
                                             participate in South Carolina’s programs (estimated program participation), the
                                             reported number of homeowners who participated in one or more programs
                                             (program participation), and the total number of individual homeowners assisted,
                                             as of June 30, 2013. Because homeowners may participate in more than one
                                             program, the reported program participation numbers are higher than the total
                                             number of individual homeowners assisted. Figure 3.48 shows South Carolina’s
                                             HHF expenditures compared with its obligated funds, as of June 30, 2013. Figure

                                             xli According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
                                                  programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
                                                  and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
                                                  cash-on-hand, or undrawn funds.
                                             xlii States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                   assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
                                                   cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                   made.
                                                                       QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   249




3.49 shows the number of homeowners estimated to participate in each of South
Carolina’s programs (estimated program participation) and the reported number
of homeowners who participated in each of South Carolina’s programs (program
participation), as of June 30, 2013.
250                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 3.47                                                                                      FIGURE 3.48

      SOUTH CAROLINA ESTIMATED PROGRAM PARTICIPATION,                                                  SOUTH CAROLINA USES OF $295.4 MILLION OF TARP
      PROGRAM PARTICIPATION, AND INDIVIDUAL HOMEOWNERS                                                 FUNDS AVAILABLE FOR HHF, CUMULATIVE, AS OF
      ASSISTED, IN ALL HHF PROGRAMS, AS OF 6/30/2013                                                   6/30/2013 ($ MILLIONS)

      35,000                                                                                            $300


      30,000
                                                                                                         250


      25,000                                                                                                       Available: $295.4 Million
                                                                                                         200       Drawn, as of 6/30/2013: $90 Million

      20,000

                                                      Peak estimate: 34,100                              150
      15,000                                          6/30/2013 estimate: 22,400
                                                      6/30/2013 program participation: 8,608
                                                      Homeowners assisted: 5,635
                                                                                                         100
      10,000


                                                                                                          50
       5,000


          0                                                                                                0
                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13


                  State Estimated Program Participation             Homeowners Assisted                           Undrawn HHF Funds                      Cash-on-Hand and Administrative Expenses
                  Program Participation                                                                           Homeowner Assistance                       Administrative Expenses

               Notes: Estimated includes highest estimate of a range. Program participation numbers            Notes: South Carolina spending figures as of June 30, 2013, are the most recent available.
               may have double-counted individual homeowners who received assistance from more                 Treasury has separately published September 30, 2013, figures for amounts drawn down;
               than one program in states that have more than one program.                                     as of September 30, 2013, South Carolina had drawn down $100 million. Treasury did not
                                                                                                               require states to report administrative expenses until the third quarter of 2012. According
               Sources: States provide estimates for program participation and report program                  to Treasury, committed program funds are funds committed to homeowners who have been
               participation and homeowners assisted numbers. SC Housing Corp., Proposal,                      approved to participate in HHF programs that are anticipated to be disbursed over the
               6/1/2010; Treasury and SC Housing Corp., Commitment to Purchase Financial                       duration of their participation; states vary as to when and how they capture and report funds
               Instrument and HFA Participation Agreement, 8/3/2010; SC Housing Corp., first through           as committed. HHF funds committed for homeowner assistance are recorded variously as
               fifth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010,                           homeowner assistance, cash-on-hand, or undrawn funds. States do not publish cash-on-hand
               8/31/2011, and 11/15/2012; SC Housing Corp., SC HELP, Reports, Quarterly                        in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
               Performance Reports Q1 2011 - Q2 2013, no date.                                                 assistance and administrative expenses; states may also hold additional cash generated
                                                                                                               from interest earned on HHF cash balances, cash repayments of assistance from lien
                                                                                                               satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                                                                               made.

                                                                                                               Sources: Treasury, press releases, 3/29/2010 and 8/11/2010; Treasury, TARP
                                                                                                               Transactions Report, 9/29/2010; Treasury, responses to SIGTARP data calls,
                                                                                                               12/23/2010, 3/28/2011, 6/29/2011, 10/5/2011, 1/5/2012, 4/5/2012, 7/5/2012,
                                                                                                               10/4/2012, 11/6/2012, 1/1/2013, 4/4/2013, 7/5/2013, 10/3/2013, and
                                                                                                               10/17/2013; Treasury, HFA Aggregate Quarterly Report Q2 2013, no date; Treasury,
                                                                                                               Transaction Report-Housing Programs, 6/27/2013; SC Housing Corp., SC HELP, Reports,
                                                                                                               Quarterly Performance Reports Q1 2011 - Q2 2013, no date.
                                                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                                   251




FIGURE 3.49

 SOUTH CAROLINA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION,
 BY PROGRAM, AS OF 6/30/2013

      MONTHLY PAYMENT ASSISTANCE PROGRAM                                                                 DIRECT LOAN ASSISTANCE PROGRAM
      (UNEMPLOYMENT)                                                                                     (PAST-DUE PAYMENT)
                                                                                                                                                        Peak estimate: 11,000
       15,000                                                                                             15,000                                        6/30/13 estimate: 10,000
       12,000                                                                                             12,000                                        6/30/13 program participation: 5,437

         9,000                                                                                             9,000
                                      Peak estimate: 14,000
         6,000                        6/30/13 estimate: 6,000                                               6,000
                                      6/30/13 program participation: 3,084
         3,000                                                                                              3,000

             0                                                                                                  0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                      State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation




      HAMP ASSISTANCE PROGRAM                                                                            PROPERTY DISPOSITION ASSISTANCE PROGRAM
      (MODIFICATION)                                                                                     (TRANSITION)
                                                                                                                                                            Peak estimate: 6,000
         6,000                       Peak estimate: 6,000                                                   6,000
                                                                                                                                                            6/30/13 estimate: 400
         5,000                       6/30/13 estimate: 6,000                                                5,000                                           6/30/13 program participation: 87
                                     6/30/13 program participation: 0
         4,000                                                                                              4,000
         3,000                                                                                              3,000
         2,000                                                                                              2,000
         1,000                                                                                              1,000
             0                                                                                                  0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                      State Estimated Program Participation             Program Participation                            State Estimated Program Participation             Program Participation




      SECOND MORTGAGE ASSISTANCE PROGRAM
      (SECOND-LIEN REDUCTION)
         6,000                                            Peak estimate: 2,600
         5,000                                            6/30/13 estimate: 0
                                                          6/30/13 program participation: 0
         4,000
         3,000
         2,000
         1,000
             0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13

                      State Estimated Program Participation             Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

 Sources: States provide estimates for program participation and report program participation numbers. SC Housing Corp., Proposal, 6/1/2010; Treasury and SC Housing Corp., Commitment to
 Purchase Financial Instrument and HFA Participation Agreement, 8/3/2010; SC Housing Corp, first through fifth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 8/31/2011, and
 11/15/2012; SC Housing Corp., SC HELP, Reports, Quarterly Performance Reports Q1 2011 - Q2 2013, no date.
252   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Tennessee has spent 23% of available HHF funds to help
                                             homeowners
                                             Even though Treasury obligated $217,315,593 of HHF funds to Tennessee,
                                             Tennessee is not getting a significant amount of these funds out the door to help
                                             homeowners with HHF.795 As of June 30, 2013, the state had drawn down $77.3
                                             million (36%) of those funds.796 As of June 30, 2013, the state had one HHF
                                             program and had spent $50.3 million (23% of its obligated funds) to help 3,968
                                             individual homeowners.797,xliii The remaining $9.4 million (4%) was spent on
                                             administrative expenses, and $17.5 (8%) is held as cash-on-hand.798,xliv
                                                 At the end of 2011, Tennessee estimated that it would provide HHF
                                             unemployment assistance to as many as 13,500 homeowners with HHF but, as of
                                             June 30, 2013, reduced that peak estimate by 16%, to 11,300. As of June 30, 2013,
                                             Tennessee had provided HHF unemployment assistance to 3,968 homeowners.
                                                 Figure 3.50 shows the number of homeowners estimated to participate in
                                             Tennessee’s program and the number of homeowners who have been assisted, as of
                                             June 30, 2013. Figure 3.51 shows Tennessee’s HHF expenditures compared with
                                             its obligated funds, as of June 30, 2013.




                                             xliii According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                                    HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
                                                    capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                                    assistance, cash-on-hand, or undrawn funds.
                                             xliv States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                    assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
                                                    cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                    made.
                                                                                                                 QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                                         253




FIGURE 3.50                                                                                     FIGURE 3.51

TENNESSEE’S HARDEST HIT FUND PROGRAM                                                            TENNESSEE USES OF $217.3 MILLION OF TARP FUNDS
(UNEMPLOYMENT) ESTIMATED PROGRAM PARTICIPATION                                                  AVAILABLE FOR HHF, CUMULATIVE, AS OF 6/30/2013
AND HOMEOWNERS ASSISTED, AS OF 6/30/2013                                                        ($ MILLIONS)


15,000                                                                                            $250




12,000                                                                                             200




 9,000                                   Peak estimate: 13,500                                     150
                                         6/30/2013 estimate: 11,300
                                         6/30/2013 program participation: 3,968
                                         Homeowners assisted: 3,968                                          Available: $217.3 Million
                                                                                                             Drawn, as of 6/30/2013: $77.3 Million
 6,000                                                                                             100




 3,000                                                                                              50




    0                                                                                                0
          Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13


            State Estimated Program Participation                 Homeowners Assisted                       Undrawn HHF Funds                      Cash-on-Hand and Administrative Expenses
                                                                                                            Homeowner Assistance                       Administrative Expenses

         Notes: Estimated includes highest estimate of a range.                                          Notes: Tennessee spending figures as of June 30, 2013, are the most recent available.
                                                                                                         Treasury has separately published September 30, 2013, figures for amounts drawn down;
         Sources: States provide estimates for program participation and homeowners assisted             as of September 30, 2013, Tennessee had drawn down $77.3 million. Treasury did not
         numbers. Tennessee Housing Development Agency, Proposal, 9/1/2010; Treasury and                 require states to report administrative expenses until the third quarter of 2012. According
         Tennessee Housing Development Agency, Commitment to Purchase Financial Instrument               to Treasury, committed program funds are funds committed to homeowners who have been
         and HFA Participation Agreement, 9/23/2010; Tennessee Housing Development Agency,               approved to participate in HHF programs that are anticipated to be disbursed over the
         first through seventh Amendment[s] to Agreement[s], 9/29/2010, 12/16/2010,                      duration of their participation; states vary as to when and how they capture and report funds
         5/25/2011, 9/28/2011, 12/8/2011, 5/3/2012, and 11/15/2012; Tennessee Housing                    as committed. HHF funds committed for homeowner assistance are recorded variously as
         Development Agency, Keep My Tennessee Home, Reports, Quarterly Performance                      homeowner assistance, cash-on-hand, or undrawn funds. States do not publish cash-on-hand
         Reports Q1 2011 - Q2 2013, no date.                                                             in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                                                                         assistance and administrative expenses; states may also hold additional cash generated
                                                                                                         from interest earned on HHF cash balances, cash repayments of assistance from lien
                                                                                                         satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                                                                         made.

                                                                                                         Sources: Treasury, press release, 8/11/2010; Treasury, TARP Transactions Report,
                                                                                                         9/29/2010; Treasury, responses to SIGTARP data calls, 12/23/2010, 3/28/2011,
                                                                                                         6/29/2011, 10/5/2011, 1/5/2012, 4/5/2012, 7/5/2012, 10/4/2012, 11/6/2012,
                                                                                                         1/1/2013, 4/4/2013, 7/5/2013, 10/3/2013, and 10/17/2013; Treasury, HFA Aggregate
                                                                                                         Quarterly Report Q2 2013, no date; Treasury, Transaction Report-Housing Programs,
                                                                                                         6/27/2013; Tennessee Housing Development Agency, Keep My Tennessee Home, Reports,
                                                                                                         Quarterly Performance Reports Q1 2011 - Q2 2013, no date.
254   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Washington, DC has spent 46% of available HHF funds to
                                             help homeowners
                                             Treasury obligated $20,697,198 of HHF funds to Washington, DC.799 As of June
                                             30, 2013, Washington, DC had drawn down $14.1 million (68%) of those funds.800
                                             As of June 30, 2013, Washington, DC had one HHF program and had spent $9.5
                                             million (46% of its obligated funds) to help 537 individual homeowners.801,xlv The
                                             remaining $2.3 million (11%) was spent on administrative expenses and $2.4
                                             million (12%) is held as cash-on-hand.802,xlvi
                                                 At the end of 2010, Washington, DC estimated that it would provide HHF
                                             unemployment assistance to as many as 1,000 homeowners with HHF but, as
                                             of June 30, 2013, reduced that peak estimate by 10%, to 900. As of June 30,
                                             2013, Washington, DC had provided HHF unemployment assistance to 537
                                             homeowners.
                                                 Figure 3.52 shows the number of homeowners estimated to participate in
                                             Washington, DC’s program and the number of homeowners who have been
                                             assisted, as of June 30, 2013. Figure 3.53 shows Washington, DC’s HHF
                                             expenditures compared with its obligated funds, as of June 30, 2013.




                                             xlv According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
                                                  programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
                                                  and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
                                                  cash-on-hand, or undrawn funds.
                                             xlvi States do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                   assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
                                                   cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                   made.
                                                                                                                 QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                                         255




FIGURE 3.52                                                                                     FIGURE 3.53

WASHINGTON, DC’S HOMESAVER PROGRAM                                                              WASHINGTON, DC USES OF $20.7 MILLION OF TARP FUNDS
(UNEMPLOYMENT) ESTIMATED PROGRAM PARTICIPATION                                                  AVAILABLE FOR HHF, CUMULATIVE, AS OF 6/30/2013
AND HOMEOWNERS ASSISTED, AS OF 6/30/2013                                                        ($ MILLIONS)


 1,000                                                                                             $25




  800                                                                                               20




  600                              Peak estimate: 1,000                                             15
                                   6/30/2013 estimate: 900
                                   6/30/2013 program participation: 537
                                   Homeowners assisted: 537                                                  Available: $20.7 Million
                                                                                                             Drawn, as of 6/30/2013: $14.1 Million
  400                                                                                               10




  200                                                                                                5




    0                                                                                                0
          Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13


            State Estimated Program Participation                 Homeowners Assisted                       Undrawn HHF Funds                      Cash-on-Hand and Administrative Expenses
                                                                                                            Homeowner Assistance                       Administrative Expenses

         Notes: Estimated includes highest estimate of a range.                                          Notes: Washington, DC spending figures as of June 30, 2013, are the most recent
                                                                                                         available. Treasury has separately published September 30, 2013, figures for amounts
         Sources: States provide estimates for program participation and homeowners assisted             drawn down; as of September 30, 2013, Washington, DC had drawn down $14.1 million.
         numbers. District of Columbia Housing Finance Agency, Proposal, 9/1/2010; Treasury              Treasury did not require states to report administrative expenses until the third quarter of
         and District of Columbia Housing Finance Agency, Commitment to Purchase Financial               2012. According to Treasury, committed program funds are funds committed to
         Instrument and HFA Participation Agreement, 9/23/2010; District of Columbia Housing             homeowners who have been approved to participate in HHF programs that are anticipated
         Finance Agency, first through eighth Amendment[s] to Agreement[s], 9/29/2010,                   to be disbursed over the duration of their participation; states vary as to when and how they
         12/16/2010, 3/31/2011, 5/25/2011, 10/28/2011, 3/29/2012, 12/14/2012, and                        capture and report funds as committed. HHF funds committed for homeowner assistance
         9/20/2012; District of Columbia Housing Finance Agency, HomeSaver – A Foreclosure               are recorded variously as homeowner assistance, cash-on-hand, or undrawn funds. States
         Prevention Program, Quarterly Performance Reports Q1 2011 - Q2 2013, no date.                   do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the
                                                                                                         amount drawn less homeowner assistance and administrative expenses; states may also
                                                                                                         hold additional cash generated from interest earned on HHF cash balances, cash
                                                                                                         repayments of assistance from lien satisfaction recoveries, or borrower remittances
                                                                                                         received less borrower partial payments made.

                                                                                                         Sources: Treasury, press release, 8/11/2010; Treasury, TARP Transactions Report,
                                                                                                         9/29/2010; Treasury, responses to SIGTARP data calls, 12/23/2010, 3/28/2011,
                                                                                                         6/29/2011, 10/5/2011, 1/5/2012, 4/5/2012, 7/5/2012, 10/4/2012, 11/6/2012,
                                                                                                         1/1/2013, 4/4/2013, 7/5/2013, 10/3/2013, and 10/17/2013; Treasury, HFA Aggregate
                                                                                                         Quarterly Report Q2 2013, no date; Treasury, Transaction Report-Housing Programs,
                                                                                                         6/27/2013; District of Columbia Housing Finance Agency, HomeSaver – A Foreclosure
                                                                                                         Prevention Program, Quarterly Performance Reports Q1 2011 - Q2 2013, no date.
256   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
SECT IO N 4
              TARP OPERATIONS AND
              ADMINISTRATION
258   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   259




Under the Emergency Economic Stabilization Act of 2008 (“EESA”), Congress
authorized the Secretary of the Treasury (“Treasury Secretary”) to create the
operational and administrative mechanisms to carry out the Troubled Asset Relief
Program (“TARP”). EESA established the Office of Financial Stability (“OFS”)
within the U.S. Department of the Treasury (“Treasury”). OFS is responsible for
administering TARP.803 Treasury has authority to establish program vehicles, issue
regulations, directly hire or appoint employees, enter into contracts, and designate
financial institutions as financial agents of the Government.804 In addition to using
permanent and interim staff, OFS relies on contractors and financial agents for
legal services, investment consulting, accounting, and other key services.




TARP ADMINISTRATIVE AND PROGRAM OPERATING
EXPENDITURES
As of September 30, 2013, Treasury has obligated $372.9 million for TARP
administrative costs and $1 billion in programmatic operating expenditures for
a total of $1.4 billion since the beginning of TARP. Of that, $269.5 million has
been obligated in the year since September 30, 2012. According to Treasury, as of
September 30, 2013, it had spent $337.7 million on TARP administrative costs and
$951.1 million on programmatic operating expenditures, for a total of $1.3 billion
since the beginning of TARP. Of that, $248.1 million has been spent in the year
since September 30, 2012.805
    Much of the work on TARP is performed by private vendors rather than
Government employees. Treasury reported that as of September 30, 2013, it em-
ploys 47 career civil servants, 69 term appointees, and 24 reimbursable detailees,
for a total of 140 full-time employees.806 Between TARP’s inception in 2008 and
September 30, 2013, Treasury had retained 153 private vendors — 20 financial
agents and 133 contractors — to help administer TARP.807 According to Treasury,
as of September 30, 2013, 62 private vendors were active — 12 financial agents
and 50 contractors, some with multiple contracts.808 The number of private-sector
staffers who provide services under these agreements dwarfs the number of people
working for OFS. According to Fannie Mae and Freddie Mac, as of June 30,
2013, together they had about 710 people dedicated to working on their TARP
contracts.809 According to Treasury, as of June 30, 2013, or September 30, 2013
— the latest numbers available vary due to reporting cycles — at least another 340
people were working on other active OFS contracts, including financial agent and
legal services contracts, for a total of 1,050 private-sector employees working on
TARP.810
    Table 4.1 provides a summary of the expenditures and obligations for TARP
administrative and programmatic operating costs through September 30, 2013.
The administrative costs are categorized as “personnel services” and “non-personnel
services.” Table 4.2 provides a summary of OFS service contracts, which include
260   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             costs to hire financial agents and contractors, and obligations through September
                                             30, 2013, excluding costs and obligations related to personnel services, travel, and
                                             transportation.

                                             TABLE 4.1
                                              TARP ADMINISTRATIVE AND PROGRAMMATIC OBLIGATIONS AND
                                              EXPENDITURES
                                                                                                              Obligations for Period Expenditures for Period
                                              Budget Object Class Title                                         Ending 9/30/2013         Ending 9/30/2013
                                              Administrative                                                                                                                        
                                                  Personnel Services                                                                                                                
                                                      Personnel Compensation & Benefits                                   $120,765,753                          $120,700,959
                                                  Total Personnel Services                                              $120,765,753                           $120,700,959
                                                                                                                                                                                    
                                                  Non-Personnel Services                                                                                                            
                                                      Travel & Transportation of Persons                                      $2,355,654                            $2,340,078
                                                      Transportation of Things                                                      11,960                                 11,960
                                                      Rents, Communications, Utilities &
                                                                                                                                  786,273                                711,510
                                                      Misc. Charges
                                                      Printing & Reproduction                                                            402                                   402
                                                      Other Services                                                        246,865,999                           212,080,097
                                                      Supplies & Materials                                                     1,828,680                              1,624,495
                                                      Equipment                                                                   253,286                                243,907
                                                      Land & Structures                                                                    —                                      —
                                                      Insurance Claims & Indemnities                                                       —                                      —
                                                      Dividends and Interest                                                             634                                   634
                                                  Total Non-Personnel Services                                          $252,102,888                           $217,013,083
                                              Total Administrative                                                      $372,868,641                           $337,714,041
                                              Programmatic                                                           $1,015,981,777                            $951,088,650
                                              Total Administrative and Programmatic                                  $1,388,850,418                         $1,288,802,691
                                              Notes: Numbers may not total due to rounding. The cost associated with “Other Services” under TARP Administrative Expenditures
                                              and Obligations are composed of administrative services including financial, administrative, IT, and legal (non-programmatic) support.
                                              Amounts are cumulative since the beginning of TARP.

                                              Source: Treasury, responses to SIGTARP data call, 10/10/2013 and 10/16/2013.




                                             FINANCIAL AGENTS
                                             EESA requires SIGTARP to provide biographical information for each person or
                                             entity hired to manage assets acquired through TARP.811 Treasury hired no new
                                             financial agents in the quarter ended September 30, 2013.812
                                                                                      QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013              261




TABLE 4.2
 OFS SERVICE CONTRACTS
                                                                                    Type of
 Date         Vendor                           Purpose                              Transaction         Obligated Value        Expended Value
              Simpson Thacher & Bartlett MNP   Legal services for the
 10/10/2008                                                                         Contract                  $931,090                $931,090
              LLP                              implementation of TARP
 10/11/2008   Ennis Knupp & Associates Inc.1   Investment and Advisory Services     Contract                 2,635,827               2,635,827
              The Bank of New York Mellon
 10/14/2008                                    Custodian                            FAA Listing             54,627,204              54,265,824
              Corporation
 10/16/2008   PricewaterhouseCoopers, LLP      Internal control services            Contract                34,980,857              33,505,992
                                               For process mapping consultant       Interagency
 10/17/2008   Turner Consulting Group, Inc.2                                                                      9,000                      —
                                               services                             Agreement
 10/18/2008   Ernst & Young LLP                Accounting Services                  Contract                14,550,519              13,640,626
                                               Legal services for the Capital
 10/29/2008   Hughes Hubbard & Reed LLP                                             Contract                 3,060,921               2,835,357
                                               Purchase Program
                                               Legal services for the Capital
 10/29/2008   Squire Sanders & Dempsey LLP                                          Contract                 2,687,999               2,687,999
                                               Purchase Program
 10/31/2008   Lindholm & Associates, Inc.      Human resources services             Contract                   614,963                  614,963
              Sonnenschein Nath & Rosenthal    Legal services related to auto
 11/7/2008                                                                          Contract                 2,702,441               2,702,441
              LLP4                             industry loans
                                                                                    Interagency
 11/9/2008    Internal Revenue Service         Detailees                                                        97,239                   97,239
                                                                                    Agreement
                                                                                    Interagency
 11/17/2008   Internal Revenue Service         CSC Systems & Solutions LLC2                                       8,095                   8,095
                                                                                    Agreement
              Department of the Treasury —                                          Interagency
 11/25/2008                                    Administrative Support                                       16,512,820              16,131,121
              Departmental Offices                                                  Agreement
              Trade and Tax Bureau —           IAA — TTB Development, Mgmt &        Interagency
 12/3/2008                                                                                                      67,489                   67,489
              Treasury                         Operation of SharePoint              Agreement
                                                                                    Interagency
 12/5/2008    Washington Post3                 Subscription                                                        395                       —
                                                                                    Agreement
              Sonnenschein Nath & Rosenthal    Legal services for the purchase of
 12/10/2008                                                                         Contract                   102,769                  102,769
              LLP4                             asset-backed securities
                                               Admin action to correct system
 12/10/2008   Thacher Proffitt & Wood4                                              Contract                         —                       —
                                               issue
                                                                                    Interagency
 12/15/2008   Office of Thrift Supervision     Detailees                                                       225,547                  164,823
                                                                                    Agreement
              Department of Housing and                                             Interagency
 12/16/2008                                    Detailees                                                             —                       —
              Urban Development                                                     Agreement
                                                                                    Interagency
 12/22/2008   Office of Thrift Supervision     Detailees                                                             —                       —
                                                                                    Agreement
              Cushman and Wakefield of
 12/24/2008                                    Painting Services for TARP Offices   Contract                      8,841                   8,841
              VA Inc.
                                                                                                                          Continued on next page
262          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      OFS SERVICE CONTRACTS           (CONTINUED)

                                                                                           Type of
      Date         Vendor                             Purpose                              Transaction   Obligated Value        Expended Value
                   Securities and Exchange                                                 Interagency
      1/6/2009                                        Detailees                                                 $30,416                 $30,416
                   Commission                                                              Agreement
      1/7/2009     Colonial Parking Inc.              Lease of parking spaces              Contract             347,634                 244,017
                   Cadwalader Wickersham & Taft
      1/27/2009                                       Bankruptcy Legal Services            Contract             409,955                 409,955
                   LLP
                   Whitaker Brothers Bus Machines
      1/27/2009                                       Office Machines                      Contract               3,213                    3,213
                   Inc.
                   Office of the Comptroller of the                                        Interagency
      1/30/2009                                       Detailees                                                 501,118                 501,118
                   Currency                                                                Agreement
                                                      IAA — GAO required by P.L. 110-
                                                                                           Interagency
      2/2/2009     Government Accountability Office   343 to conduct certain activities                       7,459,049               7,459,049
                                                                                           Agreement
                                                      related to TARP IAA
                                                                                           Interagency
      2/3/2009     Internal Revenue Service2          Detailees                                                 242,499                 242,499
                                                                                           Agreement
                                                      Temporary Services for Document
      2/9/2009     Pat Taylor & Associates, Inc.      Production, FOIA assistance, and     Contract             692,108                 692,108
                                                      Program Support
                                                      Initiate Interim Legal Services in
      2/12/2009    Locke Lord Bissell & Liddell LLP   support of Treasury Investments      Contract             272,225                 272,225
                                                      under EESA
                                                      Homeownership Preservation           Financial
      2/18/2009    Fannie Mae                                                                               403,961,037             395,516,902
                                                      Program                              Agent
                                                      Homeownership Preservation           Financial
      2/18/2009    Freddie Mac                                                                              284,926,162             270,456,430
                                                      Program                              Agent
                                                                                           Interagency
      2/20/2009    Financial Clerk U.S. Senate        Congressional Oversight Panel                           3,394,348               3,394,348
                                                                                           Agreement
                                                                                           Interagency
      2/20/2009    Office of Thrift Supervision       Detailees                                                 203,390                 189,533
                                                                                           Agreement
                   Simpson Thacher & Bartlett MNP
      2/20/2009                                       Capital Assistance Program (I)       Contract           1,530,023               1,530,023
                   LLP
                                                      Capital Assistance Program (II)
      2/20/2009    Venable LLP                                                             Contract           1,394,724               1,394,724
                                                      Legal Services
                   Securities and Exchange                                                 Interagency
      2/26/2009                                       Detailees                                                  18,531                  18,531
                   Commission                                                              Agreement
                   Pension Benefit Guaranty                                                Interagency
      2/27/2009                                       Rothschild, Inc.                                        7,750,000               7,750,000
                   Corporation                                                             Agreement
                   The Boston Consulting Group        Management Consulting relating to
      3/6/2009                                                                             Contract             866,169                 866,169
                   Inc.                               the Auto industry
                                                      Small Business Assistance            Financial
      3/16/2009    Earnest Partners                                                                           2,947,780               2,947,780
                                                      Program                              Agent
                                                      SBA Initiative Legal Services —
      3/30/2009    Bingham McCutchen LLP5             Contract Novated from TOFS-          Contract             273,006                 143,893
                                                      09-D-0005 with McKee Nelson
                   Cadwalader Wickersham & Taft
      3/30/2009                                       Auto Investment Legal Services       Contract          17,392,800              17,392,800
                   LLP
      3/30/2009    Haynes and Boone, LLP              Auto Investment Legal Services       Contract             345,746                 345,746
                                                                                                                           Continued on next page
                                                                                      QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013              263




OFS SERVICE CONTRACTS            (CONTINUED)

                                                                                    Type of
Date        Vendor                             Purpose                              Transaction         Obligated Value        Expended Value
                                               SBA Initiative Legal Services
                                               — Contract Novated to TOFS-
3/30/2009   McKee Nelson LLP5                                                       Contract                  $149,349                $126,631
                                               10-D-0001 with Bingham
                                               McCutchen LLP
            Sonnenschein Nath & Rosenthal
3/30/2009                                      Auto Investment Legal Services       Contract                 1,834,193               1,834,193
            LLP4
                                               Credit Reform Modeling and
3/31/2009   FI Consulting Inc.                                                      Contract                 4,865,419               3,830,691
                                               Analysis
                                                                                    Interagency
4/3/2009    American Furniture Rentals Inc.3   Furniture Rental 1801                                            35,190                   25,812
                                                                                    Agreement
            The Boston Consulting Group        Management Consulting relating to
4/3/2009                                                                            Contract                 3,975,195               3,974,923
            Inc.                               the Auto industry
                                                                                    Interagency
4/17/2009   Bureau of Engraving and Printing   Detailee for PTR Support                                         45,822                   45,822
                                                                                    Agreement
4/17/2009   Herman Miller Inc.                 Aeron Chairs                         Contract                    53,799                   53,799
                                                                                    Financial
4/21/2009   AllianceBernstein LP               Asset Management Services                                    48,666,459              47,341,511
                                                                                    Agent
                                                                                    Financial
4/21/2009   FSI Group, LLC                     Asset Management Services                                    26,834,515              26,515,862
                                                                                    Agent
            Piedmont Investment Advisors,                                           Financial
4/21/2009                                      Asset Management Services                                    12,727,955              12,536,844
            LLC                                                                     Agent
                                                                                    Interagency
4/30/2009   State Department                   Detailees                                                             —                       —
                                                                                    Agreement
                                                                                    Interagency
5/5/2009    Federal Reserve Board              Detailees                                                        48,422                   48,422
                                                                                    Agreement
            Department of the Treasury —       “Making Home Affordable” Logo        Interagency
5/13/2009                                                                                                          325                      325
            U.S. Mint                          search                               Agreement
                                               Executive Search and recruiting
5/14/2009   Knowledgebank Inc.2                Services — Chief Homeownership       Contract                   124,340                  124,340
                                               Officer
                                               Freedom of Information Act (FOIA)
                                               Analysts to support the Disclosure
5/15/2009   Phacil Inc.                                                             Contract                    90,304                   90,304
                                               Services, Privacy and Treasury
                                               Records
            Securities and Exchange                                                 Interagency
5/20/2009                                      Detailees                                                       430,000                  430,000
            Commission                                                              Agreement
                                                                                    Interagency
5/22/2009   Department of Justice — ATF        Detailees                                                       243,778                  243,772
                                                                                    Agreement
                                               Legal services for work under
5/26/2009   Anderson, McCoy & Orta             Treasury’s Public-Private            Contract                 2,287,423               2,287,423
                                               Investment Funds (PPIF) program
                                               Legal services for work under
            Simpson Thacher & Bartlett MNP
5/26/2009                                      Treasury’s Public-Private            Contract                 7,849,101               3,526,529
            LLP
                                               Investment Funds (PPIF) program
                                                                                    Interagency
6/9/2009    Gartner, Inc.                      Financial Management Services                                    89,436                   89,436
                                                                                    Agreement
                                               Federal Consulting Group             Interagency
6/29/2009   Department of the Interior                                                                          49,000                   49,000
                                               (Foresee)                            Agreement
                                                                                                                          Continued on next page
264          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      OFS SERVICE CONTRACTS             (CONTINUED)

                                                                                         Type of
      Date         Vendor                             Purpose                            Transaction     Obligated Value        Expended Value
      7/8/2009     Judicial Watch   6
                                                      Litigation Settlement              Other Listing           $1,500                  $1,500
                                                      Executive search services for
      7/17/2009    Korn/Ferry International           the OFS Chief Investment Officer   Contract                74,023                  74,023
                                                      position
                   Cadwalader Wickersham & Taft
      7/30/2009                                       Restructuring Legal Services       Contract             1,278,696               1,278,696
                   LLP
      7/30/2009    Debevoise & Plimpton LLP           Restructuring Legal Services       Contract                 1,650                    1,650
                   Fox, Hefter, Swibel, Levin &
      7/30/2009                                       Restructuring Legal Services       Contract                26,493                  26,493
                   Carol, LLP
                                                                                         Interagency
      8/10/2009    Department of Justice              Detailees                                                  63,109                  63,109
                                                                                         Agreement
                   National Aeronautics and Space                                        Interagency
      8/10/2009                                       Detailees                                                 140,889                 140,889
                   Administration (NASA)                                                 Agreement
                                                      Executive Compensation Data
      8/18/2009    Mercer (US) Inc.                                                      Contract                 3,000                    3,000
                                                      Subscription
                                                                                         Interagency
      8/25/2009    Department of Justice              Detailees                                                  63,248                  63,248
                                                                                         Agreement
      9/2/2009     Knowledge Mosaic Inc.              SEC filings subscription service   Contract                 5,000                    5,000
                                                      Executive Compensation Data
      9/10/2009    Equilar, Inc.                                                         Contract                59,990                  59,990
                                                      Subscription
      9/11/2009    PricewaterhouseCoopers, LLP        PPIP compliance                    Contract             3,647,526               3,559,089
                                                                                         Interagency
      9/18/2009    Treasury Franchise Fund — BPD      Administrative Support                                    436,054                 436,054
                                                                                         Agreement
      9/28/2009    Judicial Watch6                    Litigation Settlement              Other Listing            2,146                    2,146
                                                                                         Interagency
      9/30/2009    Immixtechnology Inc.3              EnCase eDiscovery ProSuite                                210,184                       —
                                                                                         Agreement
                                                                                         Interagency
      9/30/2009    Immixtechnology Inc.3              Guidance Inc.                                             108,000                       —
                                                                                         Agreement
      9/30/2009    NNA INC.                           Administrative Support             Contract                 8,220                    8,220
                                                      SNL Unlimited, a web-based
      9/30/2009    SNL Financial LC                                                      Contract               460,000                 460,000
                                                      financial analytics service
                   Department of the Treasury —                                          Interagency
      11/9/2009                                       Administrative Support                                 18,239,373              17,772,584
                   Departmental Offices                                                  Agreement
                                                                                         Interagency
      12/16/2009   Internal Revenue Service           Detailees                                                      —                        —
                                                                                         Agreement
                                                                                         Financial
      12/22/2009   Avondale Investments, LLC          Asset Management Services                                 772,657                 772,657
                                                                                         Agent
                                                                                         Financial
      12/22/2009   Bell Rock Capital, LLC             Asset Management Services                               2,633,111               2,565,797
                                                                                         Agent
                                                      Document Production services and
      12/22/2009   Hughes Hubbard & Reed LLP                                             Contract             1,653,289                 869,755
                                                      Litigation Support
                                                                                         Financial
      12/22/2009   KBW Asset Management, Inc.         Asset Management Services                               4,937,433               4,937,433
                                                                                         Agent
                                                                                         Financial
      12/22/2009   Lombardia Capital Partners, LLC    Asset Management Services                               3,217,866               3,217,866
                                                                                         Agent
                   Paradigm Asset Management                                             Financial
      12/22/2009                                      Asset Management Services                               4,057,671               3,925,272
                   Co., LLC                                                              Agent
                                                                                                                           Continued on next page
                                                                                      QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013              265




OFS SERVICE CONTRACTS            (CONTINUED)

                                                                                    Type of
Date         Vendor                             Purpose                             Transaction         Obligated Value        Expended Value
             Raymond James (f/k/a Howe                                              Financial
12/22/2009                                      Asset Management Services                                     $485,371              $3,388,319
             Barnes Hoefer & Arnett, Inc.)                                          Agent
             Howe Barnes Hoefer & Arnett,
12/23/2009                                      Asset Management Services           FAA Listing              3,124,094               3,124,094
             Inc.
                                                IAA — GAO required by P.L.110-
                                                                                    Interagency
1/14/2010    Government Accountability Office   343 to conduct certain activities                            7,304,722               7,304,722
                                                                                    Agreement
                                                related to TARP
             Association of Government
1/15/2010                                       CEAR Program Application            Contract                      5,000                   5,000
             Accountants
                                                                                    Interagency
2/16/2010    Internal Revenue Service           Detailees                                                       52,742                   52,742
                                                                                    Agreement
                                                FNMA IR2 assessment — OFS
2/16/2010    The MITRE Corporation              task order on Treasury MITRE        Contract                   730,192                  730,192
                                                Contract
                                                                                    Interagency
2/18/2010    Treasury Franchise Fund — BPD      Administrative Support                                       1,221,140               1,221,140
                                                                                    Agreement
3/8/2010     Qualx Corporation                  FOIA Support Services               Contract                   549,528                  549,528
             Department of the Treasury —                                           Interagency
3/12/2010                                       Administrative Support                                         671,731                  671,731
             Departmental Offices                                                   Agreement
                                                                                    Interagency
3/22/2010    Gartner, Inc.                      Financial Management Services                                   73,750                   73,750
                                                                                    Agreement
             Federal Maritime Commission                                            Interagency
3/26/2010                                       Detailees                                                      158,600                  158,600
             (FMC)                                                                  Agreement
             Morgan Stanley & Co.                                                   Financial
3/29/2010                                       Disposition Agent Services                                  16,685,290              16,685,290
             Incorporated                                                           Agent
                                                                                    Interagency
4/2/2010     Financial Clerk U.S. Senate        Congressional Oversight Panel                                4,797,556               4,797,556
                                                                                    Agreement
4/8/2010     Squire Sanders & Dempsey LLP       Housing Legal Services              Contract                 1,229,350                  918,224
4/12/2010    Hewitt EnnisKnupp, Inc.1           Investment Consulting Services      Contract                 5,468,948               4,317,919
                                                Data and Document Management
4/22/2010    Digital Management Inc.                                                Contract                         —                       —
                                                Consulting Services
                                                Data and Document Management
4/22/2010    MicroLink LLC                                                          Contract                15,284,135              13,751,560
                                                Consulting Services
                                                Data and Document Management
4/23/2010    RDA Corporation                                                        Contract                 7,531,683               6,992,221
                                                Consulting Services
                                                                                    Interagency
5/4/2010     Internal Revenue Service           Training — Bulux CON 120                                          1,320                   1,320
                                                                                    Agreement
                                                                                    Financial
5/17/2010    Lazard Fréres & Co. LLC            Transaction Structuring Services                            14,222,312              14,222,312
                                                                                    Agent
             Reed Elsevier Inc (dba             Accurint subscription service for
6/24/2010                                                                           Contract                      8,208                   8,208
             LexisNexis)                        one year — 4 users
                                                Financial Institution Management
             The George Washington
6/30/2010                                       & Modeling — Training course        Contract                      5,000                   5,000
             University
                                                (J.Talley)
                                                Program Compliance Support
7/21/2010    Navigant Consulting Inc.                                               Contract                 3,774,673                  730,244
                                                Services
                                                Program Compliance Support
7/21/2010    Regis & Associates PC                                                  Contract                 1,933,557                  980,405
                                                Services
                                                                                                                          Continued on next page
266          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      OFS SERVICE CONTRACTS            (CONTINUED)

                                                                                          Type of
      Date         Vendor                            Purpose                              Transaction   Obligated Value        Expended Value
                                                     Program Compliance Support
      7/22/2010    Ernst & Young LLP                                                      Contract          $9,221,312              $4,896,796
                                                     Services
                                                     Program Compliance Support
      7/22/2010    PricewaterhouseCoopers, LLP                                            Contract                  —                        —
                                                     Services
      7/22/2010    Schiff Hardin LLP                 Housing Legal Services               Contract              97,526                  97,526
      7/27/2010    West Publishing Corporation       Subscription Service for 4 users     Contract               6,664                    6,664
                                                     Omnibus procurement for legal
      8/6/2010     Alston & Bird LLP                                                      Contract           1,357,061                 232,482
                                                     services
                   Cadwalader Wickersham & Taft      Omnibus procurement for legal
      8/6/2010                                                                            Contract           7,406,866               3,435,669
                   LLP                               services
                   Fox, Hefter, Swibel, Levin &      Omnibus procurement for legal
      8/6/2010                                                                            Contract             227,415                 150,412
                   Carol, LLP                        services
                                                     Omnibus procurement for legal
      8/6/2010     Haynes and Boone, LLP                                                  Contract                  —                        —
                                                     services
                                                     Omnibus procurement for legal
      8/6/2010     Hughes Hubbard & Reed LLP                                              Contract           2,741,512               1,250,803
                                                     services
                                                     Omnibus procurement for legal
      8/6/2010     Love & Long LLP                                                        Contract                  —                        —
                                                     services
                                                     Omnibus procurement for legal
      8/6/2010     Orrick Herrington Sutcliffe LLP                                        Contract                  —                        —
                                                     services
                   Paul, Weiss, Rifkind, Wharton &   Omnibus procurement for legal
      8/6/2010                                                                            Contract           9,567,075               6,046,081
                   Garrison LLP                      services
                                                     Omnibus procurement for legal
      8/6/2010     Perkins Coie LLP                                                       Contract                  —                        —
                                                     services
                                                     Omnibus procurement for legal
      8/6/2010     Seyfarth Shaw LLP                                                      Contract                  —                        —
                                                     services
                   Shulman, Rogers, Gandal, Pordy    Omnibus procurement for legal
      8/6/2010                                                                            Contract             367,641                 213,447
                   & Ecker, PA                       services
                   Sullivan Cove Reign Enterprises   Omnibus procurement for legal
      8/6/2010                                                                            Contract                  —                        —
                   JV                                services
                                                     Omnibus procurement for legal
      8/6/2010     Venable LLP                                                            Contract             498,290                    1,150
                                                     services
      8/12/2010    Knowledge Mosaic Inc.             SEC filings subscription service     Contract               5,000                    5,000
                   Department of Housing and                                              Interagency
      8/30/2010                                      Detailees                                                  29,915                  29,915
                   Urban Development                                                      Agreement
                                                     One-year subscription (3 users) to
                                                     the CQ Today Breaking News &
      9/1/2010     CQ-Roll Call Inc.                 Schedules, CQ Congressional &        Contract               7,500                    7,500
                                                     Financial Transcripts, CQ Custom
                                                     Email Alerts
                                                     SBA 7(a) Security Purchase
      9/17/2010    Bingham McCutchen LLP5                                                 Contract              11,177                  11,177
                                                     Program
                                                     Program Operations Support
                                                     Services to include project
      9/27/2010    Davis Audrey Robinette            management, scanning and             Contract           4,006,627               3,283,503
                                                     document management and
                                                     correspondence
                                                                                                                          Continued on next page
                                                                                       QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013              267




OFS SERVICE CONTRACTS            (CONTINUED)

                                                                                     Type of
Date         Vendor                             Purpose                              Transaction         Obligated Value        Expended Value
                                                GSA Task Order for procurement
                                                books — FAR, T&M, Government
9/30/2010    CCH Incorporated                                                        Contract                    $2,430                  $2,430
                                                Contracts Reference, World Class
                                                Contracting
                                                                                     Interagency
10/1/2010    Financial Clerk U.S. Senate        Congressional Oversight Panel                                 5,200,000               2,777,752
                                                                                     Agreement
10/8/2010    Management Concepts Inc.           Training Course — CON 217            Contract                      1,025                   1,025
10/8/2010    Management Concepts Inc.           Training Course — CON 216            Contract                      1,025                   1,025
10/8/2010    Management Concepts Inc.           Training Course — CON 218            Contract                      2,214                   2,214
10/8/2010    Management Concepts Inc.           Training Course — 11107705           Contract                       995                      995
10/8/2010    Management Concepts Inc.           Training Course — Analytic Boot      Contract                      1,500                   1,500
10/8/2010    Management Concepts Inc.           Training Course — CON 218            Contract                      2,214                   2,214
10/8/2010    Management Concepts Inc.           Training Course — CON 217            Contract                      1,025                   1,025
10/8/2010    Management Concepts Inc.           Training Course — CON 218            Contract                      2,214                   2,214
             Hispanic Association of Colleges
10/14/2010                                      Detailees                            Contract                    12,975                  12,975
             & Universities
                                                IAA — GAO required by P.L. 110-
                                                                                     Interagency
10/26/2010   Government Accountability Office   343 to conduct certain activities                             5,600,000               3,738,195
                                                                                     Agreement
                                                related to TARP
                                                FNMA IR2 assessment — OFS
                                                task order on Treasury MITRE
11/8/2010    The MITRE Corporation              Contract for cost and data           Contract                 2,288,166               1,850,677
                                                validation services related to
                                                HAMP FA
                                                Structuring and Disposition          Financial
11/18/2010   Greenhill & Co., Inc.                                                                            6,139,167               6,139,167
                                                Services                             Agent
                                                Acquisition Support Services —
12/2/2010    Addx Corporation                   PSD TARP (action is an order         Contract                 1,311,314               1,299,002
                                                against BPA)
             Reed Elsevier Inc. (dba            Accurint subscription services one
12/29/2010                                                                           Contract                       684                      684
             LexisNexis)                        user
                                                                                     Interagency
1/5/2011     Canon U.S.A. Inc.                  Administrative Support                                           12,937                  12,013
                                                                                     Agreement
                                                Structuring and Disposition          Financial
1/18/2011    Perella Weinberg Partners & Co.                                                                  5,542,473               5,542,473
                                                Services                             Agent
                                                                                     Interagency
1/24/2011    Treasury Franchise Fund — BPD      Administrative Support                                        1,090,860               1,090,860
                                                                                     Agreement
             Association of Government
1/26/2011                                       CEAR Program Application             Contract                      5,000                   5,000
             Accountants
                                                Mentor Program Training (call
2/24/2011    ESI International Inc.                                                  Contract                    20,758                  20,758
                                                against IRS BPA)
             Department of the Treasury —                                            Interagency
2/28/2011                                       Administrative Support                                       13,523,880              13,001,815
             Departmental Offices                                                    Agreement
                                                Executive Compensation Data
3/3/2011     Equilar, Inc.                                                           Contract                    59,995                  59,995
                                                Subscription
                                                Executive Compensation Data
3/10/2011    Mercer (US) Inc.                                                        Contract                      7,425                   3,600
                                                Subscription
                                                                                                                           Continued on next page
268          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      OFS SERVICE CONTRACTS              (CONTINUED)

                                                                                           Type of
      Date         Vendor                              Purpose                             Transaction   Obligated Value        Expended Value
      3/22/2011    Harrison Scott Publications Inc.    Subscription Service                Contract              $5,894                  $5,894
                                                                                           Interagency
      3/28/2011    Fox News Network LLC7               Litigation Settlement                                    121,000                 121,000
                                                                                           Agreement
                   Federal Reserve Bank of New                                             Interagency
      4/20/2011                                        Oversight Services                                     1,300,000               1,004,063
                   York (FRBNY) HR                                                         Agreement
      4/26/2011    PricewaterhouseCoopers, LLP         Financial Services Omnibus          Contract           5,810,662               3,833,611
      4/27/2011    ASR Analytics LLC                   Financial Services Omnibus          Contract           2,645,423               1,610,203
      4/27/2011    Ernst & Young LLP                   Financial Services Omnibus          Contract           1,584,282                 598,039
      4/27/2011    FI Consulting, Inc.                 Financial Services Omnibus          Contract           2,812,304               2,565,946
      4/27/2011    Lani Eko & Company CPAs LLC         Financial Services Omnibus          Contract              50,000                       —
      4/27/2011    MorganFranklin Corporation          Financial Services Omnibus          Contract             619,375                 306,768
      4/27/2011    Oculus Group, Inc.                  Financial Services Omnibus          Contract           3,643,643               1,897,527
      4/28/2011    Booz Allen Hamilton, Inc.           Financial Services Omnibus          Contract              50,000                       —
      4/28/2011    KPMG LLP                            Financial Services Omnibus          Contract              50,000                       —
                   Office of Personnel Management
                                                                                           Interagency
      4/28/2011    (OPM) — Western Management          Leadership Training                                       21,300                       —
                                                                                           Agreement
                   Development Center
                   Reed Elsevier Inc (dba              Accurint subscriptions by
      5/31/2011                                                                            Contract              10,433                  10,262
                   LexisNexis)                         LexisNexis for 5 users
                                                       Five (5) user subscriptions to
      5/31/2011    West Publishing Corporation         CLEAR by West Government            Contract               7,515                    7,515
                                                       Solutions
                                                       One year subscription to the
                                                       CQ Today Breaking News &
      6/9/2011     CQ-Roll Call Inc.                   Schedules, CQ Congressional &       Contract               7,753                    7,753
                                                       Financial Transcripts, CQ Custom
                                                       Email Alerts
                                                       Anti-Fraud Protection and
      6/17/2011    Winvale Group LLC                                                       Contract             711,698                 632,686
                                                       Monitoring Subscription Services
                   Department of the Treasury —                                            Interagency
      6/24/2011                                        Administrative Support                                   660,601                 660,601
                   Departmental Offices                                                    Agreement
                   Internal Revenue Service —                                              Interagency
      7/28/2011                                        Detailee                                                  84,234                  84,234
                   Procurement                                                             Agreement
                                                                                           Interagency
      9/9/2011     Financial Management Service        FMS — NAFEO                                               22,755                  22,755
                                                                                           Agreement
                                                       MHA Felony Certification
      9/12/2011    ADC LTD NM                                                              Contract             447,799                 339,489
                                                       Background Checks (BPA)
                   ABMI — All Business Machines,       4 Level 4 Security Shredders and
      9/15/2011                                                                            Contract               4,392                    4,392
                   Inc                                 Supplies
                                                       National Business Center, Federal   Interagency
      9/29/2011    Department of the Interior                                                                    51,000                  51,000
                                                       Consulting Group                    Agreement
                                                       Renewing TD010-F-249 SEC filings
      9/29/2011    Knowledge Mosaic Inc.                                                   Contract               4,200                    4,200
                                                       Subscription Service
                                                                                           Interagency
      10/4/2011    Internal Revenue Service            Detailees                                                168,578                  84,289
                                                                                           Agreement
                   ABMI — All Business Machines,       4 Level 4 Security Shredders and
      10/20/2011                                                                           Contract               4,827                    4,827
                   Inc.                                Supplies
                                                                                                                           Continued on next page
                                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013              269




OFS SERVICE CONTRACTS             (CONTINUED)

                                                                                        Type of
Date         Vendor                               Purpose                               Transaction         Obligated Value        Expended Value
11/3/2011    Judicial Watch   6
                                                  Litigation Settlement                 Other Listing                 $850                    $850
11/18/2011   Qualx Corporation                    FOIA Support Services                 Contract                    68,006                   68,006
                                                                                        Financial
11/29/2011   Houlihan Lokey, Inc.                 Transaction Structuring Services                               9,650,000               8,786,290
                                                                                        Agent
                                                  Pre-Program and Discovery
12/20/2011   The Allison Group LLC                                                      Contract                    19,065                   19,065
                                                  Process Team Building
                                                                                        Interagency
12/30/2011   Department of the Treasury           Administrative Support                                           901,433                  899,268
                                                                                        Agreement
             Department of the Treasury —                                               Interagency
12/30/2011                                        Administrative Support                                        15,098,746              10,127,276
             Departmental Offices                                                       Agreement
                                                  IAA — GAO required by P.L. 110-
                                                                                        Interagency
1/4/2012     Government Accountability Office     343 to conduct certain activities                              2,500,000               2,475,937
                                                                                        Agreement
                                                  related to TARP IAA
             Office of Personnel Management       Office of Personnel Management
                                                                                        Interagency
1/5/2012     (OPM) — Western Management           (OPM) — Western Management                                        31,088                       —
                                                                                        Agreement
             Development Center                   Development Center
                                                  ABS/MBS Data Subscription
2/2/2012     Moody’s Analytics Inc.                                                     Contract                 2,769,000               2,407,125
                                                  Services
                                                  Structuring and Disposition           Financial
2/7/2012     Greenhill & Co., LLC                                                                                1,855,000               1,680,000
                                                  Services                              Agent
2/14/2012    Association of Govt Accountants      CEAR Program Application              Contract                      5,000                   5,000
2/27/2012    Diversified Search LLC               CPP Board Placement Services          Contract                   346,112                  296,112
3/6/2012     Integrated Federal Solutions, Inc.   TARP Acquisition Support (BPA)        Contract                 1,949,620               1,356,638
                                                  National Business Center, Federal     Interagency
3/14/2012    Department of Interior                                                                                 57,500                   26,000
                                                  Consulting Group                      Agreement
             Department of the Treasury —                                               Interagency
3/30/2012                                         Administrative Support                                         1,137,451                  950,816
             Departmental Offices WCF                                                   Agreement
3/30/2012    E-Launch Multimedia, Inc.            Subscription Service                  Contract                         —                       —
                                                  Maintenance Agreement for Canon
4/2/2012     Cartridge Technology, Inc.                                                 Contract                    15,692                   10,461
                                                  ImageRunner
                                                  Executive Compensation Data
5/10/2012    Equilar Inc.                                                               Contract                    44,995                   44,995
                                                  Subscription
                                                                                        Interagency
6/12/2012    Department of Justice                Detailees                                                      1,737,884                  252,702
                                                                                        Agreement
6/15/2012    Qualx Corporation                    FOIA Support Services                 Contract                   104,112                   96,089
                                                  Subscription for Anti Fraud Unit to
6/30/2012    West Publishing Corporation                                                Contract                      8,660                   8,660
                                                  Perform Background Research
7/26/2012    Knowledge Mosaic Inc.                SEC filings subscription service      Contract                      4,750                   4,750
                                                                                        Interagency
8/1/2012     Internal Revenue Service             Training                                                            4,303                   4,303
                                                                                        Agreement
                                                  Subscription to Commercial
8/3/2012     Harrison Scott Publications Inc.                                           Contract                      3,897                   3,897
                                                  Mortgage Alert Online Service
                                                  Administrative Resource Center        Interagency
9/19/2012    Treasury Franchise Fund — BPD                                                                         826,803                  826,803
                                                  (ARC)                                 Agreement
                                                  Data Subscription Services for
9/28/2012    SNL Financial LC                     Financial, Regulatory, and Market     Contract                   180,000                  180,000
                                                  Data and Services
                                                                                                                              Continued on next page
270               SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      OFS SERVICE CONTRACTS                        (CONTINUED)

                                                                                                                             Type of
      Date                 Vendor                                          Purpose                                           Transaction                    Obligated Value                  Expended Value
                                                                                                                             Interagency
      11/19/2012           Government Accountability Office                Oversight services                                                                     $2,400,000                        $2,270,330
                                                                                                                             Agreement
                           Association of Government
      12/13/2012                                                           CEAR Program Application                          Contract                                      5,000                             5,000
                           Accountants
                           Department of the Treasury —                                                                      Interagency
      12/19/2012                                                           Administrative Support                                                                 12,884,112                        10,278,730
                           Departmental Offices                                                                              Agreement
                                                                                                                             Financial
      1/1/2013             Lazard Fréres & Co. LLC                         Asset Management Services                                                                2,250,000                         2,250,000
                                                                                                                             Agent
                                                                                                                             Financial
      1/1/2013             Lazard Fréres & Co. LLC                         Legal Advisory                                                                           4,500,000                         3,375,000
                                                                                                                             Agent
      2/13/2013            Mercer (US) Inc.                                Personnel detail                                  Contract                                      4,050                                  —
      2/14/2013            Neighborhood Investment Corp                    Foreclosure Prevention under MHA                  Contract                             18,262,000                          3,561,329
                           Department of the Treasury —                                                                      Interagency
      3/4/2013                                                             Administrative Support                                                                   1,331,732                                     —
                           Departmental Offices WCF                                                                          Agreement
                           Department of Housing and                                                                         Interagency
      3/7/2013                                                             Research and Analysis Services                                                              499,348                           499,348
                           Urban Development                                                                                 Agreement
      3/26/2013            Bloomberg Finance L.P.                          Administrative Support                            Contract                                      5,400                             5,400
                                                                                                                             Interagency
      3/28/2013            Treasury Acquisition Institute                  Legal Advisory                                                                                21,000                                   —
                                                                                                                             Agreement
                                                                                                                             Interagency
      5/1/2013             Internal Revenue Service                        Legal Services                                                                                88,854                            88,854
                                                                                                                             Agreement
      5/10/2013            Equilar Inc.                                    Administrative Support                            Contract                                    45,995                            45,995
      6/13/2013            West Publishing Corporation                     Administrative Support                            Contract                                      8,131                             8,131
      8/1/2013             Evolution Management Inc.                       Outplacement Services for OFS                     Contract                                    26,670                                   —
      8/20/2013            Knowledge Mosaic Inc                            SEC Filings subscription service                  Contract                                      4,500                             4,500
                                                                                                                             Interagency
      8/27/2013            Bureau of Public Debt — ARC                     Administrative Support                                                                               —                                 —
                                                                                                                             Agreement
                                                                                                                             Interagency
      8/28/2013            Bureau of Public Debt — ARC                     Administrative Support                                                                   3,575,805                                     —
                                                                                                                             Agreement
                                                                                                                             Interagency
      9/25/2013            Treasury Franchise Fund — BPD                   Administrative Support                                                                        46,832                                   —
                                                                                                                             Agreement
                                                                           Financial Data Subscription
      9/26/2013            SNL Financial                                   Services — Information                            Contract                                  200,000                                    —
                                                                           Technology
      Total                                                                                                                                               $1,289,366,918                    $1,188,330,603
      Notes: Numbers may not total due to rounding. Table 4.2 includes all vendor contracts administered under Federal Acquisition Regulations, interagency agreements, and financial agency agreements
      entered into in support of OFS since the beginning of the program. The table does not include salary, benefits, travel, and other non-contract related expenses. For some contracts, $0 is obligated if no task
      orders have been awarded and so those contracts are not reflected in this table.
      1
        EnnisKnupp Contract TOFS-10-D-0004, was novated to Hewitt EnnisKnupp (TOFS-10-D-0004).
      2
        Awarded by other agencies on behalf of OFS and are not administered by PSD.
      3
        Awarded by other branches within the PSD pursuant to a common Treasury service level and subject to a reimbursable agreement with OFS.
      4
        Thacher Proffitt & Wood, Contract TOS09-014B, was novated to Sonnenschein Nath & Rosenthal (TOS09-014C).
      5
        McKee Nelson Contract, TOFS-09-D-0005, was novated to Bingham McCutchen.
      6
        Judicial Watch is a payment in response to a litigation claim. No contract or agreement was issued to Judicial Watch.
      7
        Fox News Network LLC is a payment in response to a litigation claim. No contract or agreement was issued to Fox News Network LLC.

      Source: Treasury, response to SIGTARP data call, 10/18/2013.
S ECT I O N 5   SIGTARP RECOMMENDATIONS
272   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   273




One of the critical responsibilities of the Office of the Special Inspector General
for the Troubled Asset Relief Program (“SIGTARP”) is to provide recommendations
to the U.S. Department of the Treasury (“Treasury”) and other Federal agencies
related to the Troubled Asset Relief Program (“TARP”) to facilitate transparency
and effective oversight and to prevent fraud, waste, and abuse. SIGTARP has
made 128 recommendations in its quarterly reports to Congress and its audit
reports. This section discusses developments with respect to SIGTARP’s prior
recommendations, including recommendations made since SIGTARP’s Quarterly
Report to Congress dated July 24, 2013 (the “July 2013 Quarterly Report”), and, in
the table at the end of this section, summarizes SIGTARP’s recommendations from
past quarters and notes the extent of implementation.




RECOMMENDATIONS REGARDING THE
APPOINTING OF DIRECTORS TO THE BOARDS OF
CPP BANKS
Treasury’s responsibility did not end on the day it injected TARP funds into banks
participating in TARP’s Capital Purchase Program (“CPP”). Indeed, one of the
stated purposes of CPP is “to enable lenders to meet the credit needs of our
nation and local communities.” Treasury’s injection of TARP funding in these
smaller banks was less about preventing the collapse of the financial system, and
more about ensuring that local communities have access to loans. Then-Treasury
Assistant Secretary for Financial Stability Neel Kashkari remarked on December
5, 2008, that, “we firmly believe that healthy banks of all sizes should use this
program to continue making credit available in their communities.” Despite TARP,
many of these banks continue to suffer from the financial crisis and are having
difficulty lending to their customers or repaying taxpayers’ TARP funds.
    Treasury has many tools available to protect taxpayers’ investments in all TARP
recipients, and ensure their contribution was not wasted or in vain. Among those
tools, Treasury established a contractual right to nominate directors to boards of
TARP recipients who miss required dividends payments, including in TARP’s bank
programs: CPP and the Community Development Capital Initiative (“CDCI”).
SIGTARP is concerned that Treasury has not effectively exercised that right.
SIGTARP raised this concern over two years ago, in an October 11, 2011, letter
to then-Treasury Secretary Timothy F. Geithner, stressing: “Treasury should also
aggressively exercise its TARP contractual rights to appoint a board member for
banks that miss six or more TARP dividends or interest payments.”
    However, despite the value of Treasury-selected directors at TARP banks that
have missed multiple TARP dividends, Treasury has rarely exercised its right to
appoint directors and appears to be abandoning its efforts to enforce that right.
Treasury has only appointed directors at 15 CPP banks, even though there have
been at least 132 banks that had missed six or more dividend payments throughout
the history of TARP, not including those banks that had missed six dividends and
274   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             then caught up. As of June 30, 2013, even though 85 of the 142 CPP banks with
                                             remaining principal investments had missed at least six payments, only eight of
                                             those institutions had a Treasury-appointed director. Moreover, Treasury has not
                                             appointed a director at a CPP bank since December 2012, despite its ability to
                                             do so.
                                                 TARP’s purpose for ensuring that local communities have access to loans from
                                             community banks in TARP must continue to be fulfilled while the bank remains
                                             in TARP, and Treasury-appointed directors can assist in ensuring that this purpose
                                             is met. Moreover, Treasury informed SIGTARP that some TARP recipients keep
                                             Treasury-appointed directors on boards even after Treasury sells its TARP shares
                                             because of their knowledge, experience, and valuable contribution. As former
                                             Treasury official David Miller testified to Congress, these directors “provide an
                                             independent voice.” Along with independence, Treasury searches for qualified
                                             candidates who have the ability to provide effective oversight and who can “make
                                             a contribution” to the board and institution. The need for an independent and
                                             effective board member who is looking out for all shareholders’ rights, including
                                             taxpayers, continues to this day for remaining CPP banks that struggle with
                                             challenges to their condition, health or their existing board. If these challenges did
                                             not exist, these banks would have likely already repaid TARP. TARP community
                                             banks face these types of challenges even though Treasury may be contemplating
                                             selling the TARP investment at a loss. Additionally, qualified Treasury-appointed
                                             directors could provide effective governance at TARP banks, including after
                                             Treasury sells its interest, further ensuring that the taxpayers’ investment was not in
                                             vain. For example, a Treasury-appointed director’s experience and expertise could
                                             also help detect any potential mismanagement or even fraud. Treasury is giving up
                                             the value directors could provide if it does not enforce this right.
                                                 Treasury has stated that its decision to appoint directors will be based on
                                             “Treasury’s evaluation of the condition and health of the institution and the
                                             functioning of its board of directors, including the information provided by the
                                             [Treasury] observers.” To help it do so, Treasury often first requests permission
                                             to send Treasury officials to observe certain CPP institutions once they miss five
                                             dividend (or interest) payments, a “proactive step” which according to Treasury’s
                                             Fact Sheet, “will help Treasury determine where the appointment of directors
                                             would be most effective.” According to Treasury, these observers are assigned to
                                             “gain a better understanding of the institution’s condition and challenges and
                                             to observe how the board is addressing the situation.” In addition, if Treasury is
                                             continuing to send observers to these board meetings, it clearly recognizes the
                                             benefits of attending the meetings. However, these Treasury officials have no voting
                                             rights or ability to impact the board’s decisions.
                                                 Despite the current and ongoing value these independent directors could
                                             provide, Treasury officials recently told SIGTARP that Treasury currently has no
                                             intention of appointing directors to banks that remain in TARP’s CPP, instead
                                             focusing on auctioning its interests in the remaining CPP banks. It’s unclear why
                                             Treasury believes that the appointment of directors and its selloff of its investments
                                             in TARP’s CPP program, which could take some time and are typically at a loss,
                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   275




are mutually exclusive. Treasury does not need to focus solely on selling off its
investments in struggling banks in TARP. Even while it continues to pursue that
path, Treasury could simultaneously appoint directors who could protect taxpayers’
investment and ensure that TARP’s purpose of injecting funds in community banks
to ensure that communities have access to loans continues to be met while the
banks remain in TARP. Treasury should not give up this valuable tool just because
over the next year or so, it has plans to sell its interests in TARP’s CPP banks.
    After making such an important investment in community banks for nearly five
years, Treasury must not turn its back on TARP banks still struggling to lend to
communities. Based on our concerns that Treasury is not enforcing its contractual
right to appoint directors to the boards of TARP banks or under CDCI, on
September 30, 2013, SIGTARP made the following recommendations:

To protect the investment taxpayers made through TARP in community banks
and to ensure that these banks continue to lend in their communities which is
a goal of TARP’s Capital Purchase Program, Treasury should enforce its right
to appoint directors for CPP institutions that have failed to pay six or more
quarterly TARP dividend or interest payments.

In enforcing its right to appoint directors to the board of CPP institutions
that have failed to pay six or more quarterly dividend or interest payments,
Treasury should prioritize appointing directors to the board of those CPP
institutions that meet one or more of the following criteria: (1) rejected
Treasury’s request to send officials to observe board meetings; (2) have failed
to pay a large number of TARP dividend payments or that owe the largest
amount of delinquent TARP dividends; or (3) is currently subject to an order
from their Federal banking regulator, particularly orders related to the health
or condition of the bank or its board of directors. In addition, Treasury should
use information learned from Treasury officials that have observed the bank’s
board meetings to assist in prioritizing its determination of banks to which
Treasury should appoint directors.
    To determine how to prioritize director appointments, Treasury should use
the valuable information it already has gathered or could gather. For instance,
as of June 30, 2013, 12 CPP institutions that received taxpayer support rejected
Treasury’s request to allow a Treasury official to observe board meetings, stating
excuses including a plan and desire to pay dividends soon and a fear Treasury
would leak confidential information. Treasury still had principal TARP investments
in nine of those institutions as of June 30, 2013. Most of the banks that rejected
observers were seriously overdue in dividend payments to Treasury having not
paid TARP dividends for years. Most of the banks had not paid 10 to 18 dividend
payments to Treasury. It is appalling and alarming, and should be unacceptable to
Treasury, that banks that needed a taxpayer-funded rescue that were not paying
TARP dividends for years would reject a Treasury representative from observing
board meetings. Treasury’s ability to oversee the condition, health and functioning
of the boards of those banks is diminished if it cannot send officials to observe
276   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             the board meetings. However, when Treasury’s requests were denied, Treasury
                                             retreated from its position that these banks needed extra scrutiny rather than
                                             assuring the banks that Treasury would not leak confidential information. Treasury
                                             should prioritize appointing directors at those institutions.
                                                 Treasury can also prioritize appointing directors at TARP banks that are subject
                                             to a regulatory order, particularly orders that focus on the condition or health of the
                                             bank or its board of directors. Typically these orders are publicly available. Treasury
                                             can also prioritize appointing directors at banks that have the largest number or
                                             largest amount of missed TARP dividends. In addition, Treasury can prioritize
                                             appointing directors based on information learned from the Treasury officials that
                                             have been overseeing boards and collecting information since 2010.

                                             To protect the investment taxpayers made in TARP and to ensure that
                                             institutions continue to lend in low and moderate income communities which
                                             is the goal of TARP’s Community Development Capital Initiative, Treasury
                                             should enforce its right to appoint directors to CDCI institutions that have
                                             failed to pay eight or more TARP quarterly dividend (or interest) payments.
                                                 In CDCI, although at least two institutions have failed to pay more than eight
                                             quarterly payments, Treasury has not appointed directors to the boards of those
                                             institutions. As of June 30, 2013, 73 institutions remained in the CDCI program.
                                             Moreover, Treasury is not selling its investments in the CDCI program. Accordingly,
                                             Treasury should continue to support struggling CDCI recipients, including by
                                             enforcing its right to appoint directors.




                                             ADDITIONAL RECOMMENDATIONS REGARDING
                                             HOMEOWNERS REDEFAULTING ON MODIFIED
                                             MORTGAGES UNDER HAMP
                                             Since the inception of HAMP, in order to improve transparency as well as the
                                             effectiveness and efficiency of the program, SIGTARP has made a series of
                                             recommendations to Treasury regarding TARP’s signature housing program,
                                             HAMP. These recommendations address SIGTARP’s concerns about the process
                                             by which a homeowner gets into HAMP, the treatment of the homeowner while
                                             in HAMP, and the long-term sustainability of homeowners’ HAMP permanent
                                             mortgage modifications. In April 2013, SIGTARP expressed our concerns to
                                             Treasury that the number of homeowners who have redefaulted on HAMP
                                             permanent mortgage modifications is increasing at an alarming rate, leaving
                                             those homeowners more at risk of foreclosure. This trend is contrary to Treasury’s
                                             goal in creating HAMP to “help as many as 3 to 4 million financially struggling
                                             homeowners avoid foreclosure by modifying loans to a level that is affordable
                                             for borrowers now and sustainable over the long term.” Accordingly, on April 1,
                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   277




2013, SIGTARP made various recommendations urging Treasury to curb HAMP
redefaults to keep homeowners safe from losing their homes.
    It is a positive sign that following SIGTARP’s April 2013 recommendations
that Treasury initially expressed its commitment to assessing and reducing
redefault rates as much as possible, including by conducting research on the
causes of redefaults. Following that, however, on July 22, 2013, Treasury posted
a blog: “Understanding HAMP Re-default Rates,” explaining that “mortgage
modification programs include an inherent risk of homeowner default, given the
difficult situations homeowners face when they seek assistance (like job loss).”
Treasury stated that a challenge of HAMP’s design was “giving as many struggling
homeowners as possible the chance to keep their home while recognizing that not
all will succeed.” But, despite Treasury’s understanding that redefaults would be
likely, as SIGTARP indicated in April 2013, Treasury still does not understand well
the reason the permanent modifications in HAMP actually failed. Instead, Treasury
merely noted that “homeowners in HAMP consistently exhibit lower delinquency
and re-default rates than those in private industry modifications.”
     As a result, on September 3, 2013, SIGTARP made three additional
recommendations related to HAMP to encourage Treasury to uncover and address
the root causes of HAMP redefaults:

To ensure that homeowners in HAMP get sustainable relief from foreclosure,
Treasury should research and analyze whether and to what extent the conduct
of HAMP mortgage servicers may contribute to homeowners redefaulting
on HAMP permanent mortgage modifications. To provide transparency and
accountability, Treasury should publish its conclusions and determinations.
    Treasury should better understand the factors impacting homeowners’
ability to remain in HAMP, particularly if it involves factors where Treasury can
exercise control and oversight. To do so, Treasury should include, as part of its
research and analysis, the conduct of mortgage servicers participating in HAMP.
Given that Treasury does not know the causes and contributing factors that lead
homeowners to redefault on their HAMP permanent modification, Treasury
cannot know whether conduct by any of the mortgage servicers who administer
HAMP, particularly the 10 largest servicers, may be contributing to homeowners
redefaulting on HAMP permanent modifications. As SIGTARP and others have
reported on multiple occasions, HAMP is a program that has been plagued with
servicer misconduct. Moreover, SIGTARP provided Treasury with specific ideas
with regard to research and analysis related to the conduct of mortgage servicers
participating in HAMP, ranging from additional servicer reporting requirements
to direct outreach to homeowners who redefaulted, as to how it could conduct
thorough research and analysis to bring accountability to servicers that may be
contributing to this growing problem and could identify areas where Treasury can
implement oversight.
    In response to SIGTARP’s additional September 2013 recommendations on
HAMP redefaults, Treasury stated that it agrees with SIGTARP’s broad points.
Treasury indicated that it will monitor servicer performance with respect to
278   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             income calculation, publish the results, and exercise the appropriate remedies as
                                             necessary.
                                                 However, Treasury seems unwilling to fully implement this recommendation
                                             by conducting additional research because, according to Treasury, SIGTARP’s
                                             recommendation did not derive from an audit and because SIGTARP has
                                             apparently not identified specific types of servicer behavior that contribute to
                                             redefaults. It is Treasury’s responsibility to conduct meaningful oversight of its own
                                             program and of those that are participating in it. Therefore, Treasury’s research and
                                             analysis is what is needed to determine whether and to what extent the conduct of
                                             HAMP mortgage servicers may contribute to homeowners redefaulting on HAMP
                                             permanent mortgage modifications. Treasury clearly has the resources and ability
                                             to conduct its own research. In fact, as Treasury’s response to SIGTARP suggests,
                                             it has already begun and is continuing to conduct research concerning the causes
                                             of HAMP redefaults relating to the implementation of SIGTARP’s April 2013
                                             recommendation. As with the early recommendation, this recommendation relating
                                             to redefaults of permanent HAMP loan modifications was not a direct outcome
                                             of an audit. Treasury, with no caveat, has begun to address those earlier concerns
                                             raised by SIGTARP, particularly, Treasury responded to SIGTARP’s September
                                             2013 recommendations explaining that it is proceeding with plans to conduct a
                                             survey of borrowers who have redefaulted, the results of which will help Treasury
                                             better understand the causes of redefault.
                                                 SIGTARP will continue to monitor Treasury’s progress in addressing and
                                             implementing this important recommendation.

                                             Treasury should establish an achievable benchmark for a redefault rate
                                             on HAMP permanent mortgage modifications that represents acceptable
                                             program performance and publicly report against that benchmark.
                                                 In March 2010, SIGTARP issued an audit “Factors Affecting Implementation
                                             of the Home Affordable Modification Program,” in which SIGTARP reported that
                                             one of the factors that could impede HAMP’s long-term success is the impact of
                                             redefaults. As part of the March 2010 audit, SIGTARP recommended that Treasury
                                             develop a performance metric for the rates of how many homeowners fall out of
                                             the program at the trial stage prior to permanent modification, and redefault rates
                                             for permanent HAMP modifications. Treasury has not implemented SIGTARP’s
                                             important 2010 recommendation.
                                                 Treasury initially had predicted that four out of every ten (40%) HAMP
                                             modifications (trial and permanent) would fail. More than three years after
                                             SIGTARP’s 2010 recommendation, Treasury has still not identified benchmarks
                                             or set goals and performance measures for each metric, particularly relating to
                                             redefaults of HAMP permanent modifications. During that time, more than half
                                             (54%) of homeowners’ HAMP modifications (trial or permanent) failed, and over
                                             a quarter (26%) of homeowners who received a HAMP permanent modification
                                             have fallen out of the program. Had Treasury measured and reported on HAMP
                                             modification performance, at least, against its initial prediction – that 40% of
                                             HAMP modifications would fail homeowners, the public would have been made
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   279




aware that homeowners had modifications (trial and permanent) that were failing
at a rate exceeding 40 percent, and Treasury could have interceded to improve
performance and lower the redefault rate.

Treasury should publicly assess and report quarterly on the status of the ten
largest HAMP servicers in meeting Treasury’s benchmark for an acceptable
homeowner redefault rate on HAMP permanent mortgage modifications,
indicate why any servicer fell short of the benchmark, require the servicer to
make changes to reduce the number of homeowners who redefault in HAMP,
and use enforcement remedies including withholding, permanently reducing,
or clawing back incentive payments for any servicer that fails to comply in a
timely manner.
    A clear and transparent benchmark would also make it clear to servicers
where they need to improve, and allow Treasury, homeowners, and the public
to evaluate a servicer’s performance. Treasury should include in its quarterly
assessment of the top 10 servicers, ratings of each individual servicer’s performance
on homeowners who have redefaulted measured against the benchmark that
SIGTARP recommends Treasury establish. A meaningful benchmark for program
performance on redefaults is essential to provide transparent standards of
acceptable performance, greatly improve accountability, allow for more effective
oversight, and encourage servicers to improve their performance.
    It is important to bring accountability and transparency to HAMP by regularly
reporting on actual performance as measured against a clear and transparent
benchmark and assessing why there may be a shortfall either because of servicer
conduct or because of changes in their portfolios. Measuring actual performance
against a known quantifiable standard is essential to gauging the true success of a
servicer. It is also a necessary tool to bring accountability should servicers not be
doing all that can be done to reach what Treasury determines to be the expected
and achievable goal. Without such determinations, programmatic flaws may remain
undetected or servicers may choose to maintain the status quo. Treasury should
require any servicer falling short of the redefault benchmark to make changes nec-
essary to reduce the number of homeowners who redefault out of HAMP. Treasury
must take all necessary steps to encourage maximum performance by servicers to
improve the overall performance of HAMP and increase the likelihood that the
redefault rate for permanent loan modifications does not continue to climb.
    Measuring performance against a known standard and determining whether
servicer conduct has contributed to redefaults also allows Treasury to use available
enforcement remedies. Just as SIGTARP recommended in the past, Treasury
should use all available financial remedies to force servicer compliance through
withholding, permanently reducing, or clawing back incentive payments.
    As Treasury extended the HAMP application period for two years until
December 31, 2015, it is crucial that Treasury fully and expeditiously implement all
of SIGTARP’s recommendations addressing TARP’s housing programs to maximize
TARP assistance to homeowners and to prevent taxpayers’ dollars that funded
HAMP from going to waste, as Congress intended.
280   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 Treasury still has the opportunity to establish a meaningful benchmark and goal
                                             for homeowners who redefault. Upon doing so, Treasury could take appropriate
                                             steps to make changes to the program to reduce redefaults and ensure that HAMP
                                             helps struggling homeowners avoid foreclosure in a way that is sustainable over
                                             the long term, including by publicly assessing and reporting on the status of the 10
                                             largest HAMP servicers in meeting Treasury’s benchmark.
                                                 Treasury responded to SIGTARP’s recommendation, agreeing that establishing
                                             appropriate benchmarks and publishing servicer performance against those
                                             benchmarks is important. However, Treasury seems unwilling to specifically
                                             implement this important measure, reasoning that the lack of an industry-wide
                                             metric prevents it from doing so. First, the absence of any industry metric to
                                             measure servicer impact on redefault does not prevent Treasury from implementing
                                             SIGTARP’s recommendation. In fact, SIGTARP’s recommendation actually called
                                             on Treasury to establish an achievable benchmark for a redefault rate on HAMP
                                             permanent mortgage modifications. As Treasury has been managing HAMP for
                                             nearly five years now and is familiar with servicers’ participation in the program,
                                             it surely has gained some valuable expertise and knowledge that could be useful
                                             in developing this benchmark. Second, Treasury’s argument appears contrary to
                                             Treasury’s July blog post in which Treasury compared HAMP redefaults to the
                                             redefault rate of private sector mortgage modifications, suggesting that could
                                             serve as a valid benchmark for HAMP permanent modification redefault rates.
                                             Treasury also suggests that it cannot establish a benchmark without SIGTARP’s
                                             guidance. Again, it is up to Treasury to set performance standards for its own
                                             program and measure the participants’ performance in Treasury’s program against
                                             a benchmark that Treasury believes is achievable and sustainable. Treasury clearly
                                             has the expertise and resources to do so. In fact, Treasury’s response to this
                                             recommendation demonstrates that Treasury is already assessing performance
                                             against the redefault rate for private sector mortgage modifications and if this is the
                                             benchmark, Treasury should state it as such or develop a benchmark, as SIGTARP
                                             recommended.
                                                 Because Treasury has not yet established a benchmark on HAMP permanent
                                             modification redefault rates, it has not yet implemented this recommendation.
                                             SIGTARP continues to monitor Treasury’s efforts in reducing HAMP redefault
                                             rates and looks forward to Treasury assessing and reporting on servicers’ progress
                                             toward meeting a Treasury-established benchmark.
                                                 Moreover, SIGTARP does not believe that Treasury’s Servicer Assesment reports
                                             adequately address SIGTARP’s concerns. SIGTARP was fully aware of what steps
                                             Treasury has taken to date to address these issues, and if they had been sufficient,
                                             SIGTARP would not have made these recommendations. Regardless, it is a positive
                                             sign that Treasury recognizes the importance of a benchmark and Treasury should
                                             take the further step to establish one for its program against which performance
                                             can be measured and assessed. SIGTARP encourages Treasury to use its expertise
                                             and resources to fully implement these two important recommendations.
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013   281




RECOMMENDATIONS REGARDING NOT COUNTING
SBLF FUNDS AS TARP “REPAYMENTS”
Throughout 2011, 137 banks exited TARP by refinancing Treasury’s TARP
investment into a separate taxpayer-funded investment under Treasury’s Small
Business Lending Fund (“SBLF”). Those TARP banks in SBLF did not use their
money to repay the $2.1 billion in TARP funds, but instead used taxpayer money
to refinance. As a result, Treasury did not recover the funds by selling its TARP
investment in these banks to third parties. In 2011, Senator Charles E. Grassley
expressed concerns about these TARP funds, asking then-Treasury Secretary
Geithner to ensure that TARP funds received through banks refinancing into SBLF
“not be counted as funds ‘repaid’ to the Government.” Senator Grassley added, “To
claim that TARP funds are being ‘repaid’ by government-lent SBLF funds would
be an egregious example of budget gimmickry….” In response, Secretary Geithner
promised, “We will also break out and report separately any TARP investments
repaid using SBLF funds.”
    However, despite Treasury’s assurance, SIGTARP remains concerned that
Treasury counts the $2.1 billion in SBLF funds as TARP funds repaid or recovered.
Doing so inaccurately implies that these funds are no longer owed. SIGTARP
issued a report on April 9, 2013, entitled “Banks that Used the Small Business
Lending Fund to Exit TARP” (the “SBLF Report”) in which we reported, “when
discussing in press releases and blog posts how much Treasury has received in
TARP repayments, Treasury includes the more than $2 billion of SBLF funds that
banks used to repay TARP.” It is confusing for Treasury to imply that the SBLF
funding used to exit TARP has been fully recovered or repaid to taxpayers, when
the funds were merely refinanced into another taxpayer-funded program. Other
TARP repayments or recoveries reflect actual repayments by TARP recipients or
proceeds from Treasury’s sale of the TARP investment to a non-Government third
party investor.
    The only change that Treasury has recently made on this issue is to begin
adding an explanation to its CPP press releases, blog posts, and Treasury’s
Transaction Report. For example, Treasury’s May 29, 2013, press release on CPP
warrant sales stated:

      Taxpayers have already earned a significant profit from TARP’s bank
      programs. Through the CPP, Treasury has recovered $271 billion
      to date through repayments, dividends, interest, and other income
      — compared to the $245 billion initially invested. Approximately
      $2 billion of the repayments were refinanced under the Small
      Business Lending Fund. Congress created the SBLF outside of TARP
      and required Treasury to let CPP institutions repay TARP funds by
      borrowing under that program. (emphasis added)

   Treasury’s explanation that some “repayments” came from SBLF does not
remedy the concerns Senator Grassley and SIGTARP raised.
282   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 Treasury should not count the $2.1 billion in TARP repayment/recovery
                                             totals or call these funds “repayments” or “recoveries.” Treasury owes taxpayers
                                             fundamental, clear and accurate transparency and reporting on monies actually
                                             repaid. Although Treasury could easily decrease the amount of TARP funds repaid/
                                             recovered by $2.1 billion in its reporting, it still has not done so. In addition,
                                             Treasury can note in its Transaction Report and in other statements discussing the
                                             amount of disbursed CPP funds that the funds are no longer outstanding under
                                             TARP because they were refinanced, rather than calling them “repayments” or
                                             “recoveries.” This is also a necessary change to bring full transparency and accuracy
                                             to Treasury’s reporting on TARP.
                                                 Accordingly, SIGTARP made the following recommendation in an August 20,
                                             2013 letter to Treasury:

                                             In order to prevent confusion, promote transparency, and present taxpayers
                                             who funded TARP with clear and accurate reporting, when Treasury discusses
                                             the amount of TARP funds (or CPP funds) recovered or repaid, Treasury
                                             should not count the $2.1 billion in TARP investments that Treasury
                                             refinanced into the Small Business Lending Fund, which is outside of TARP.
                                                  Treasury responded agreeing with the goals of SIGTARP’s recommendation,
                                             stressing that it is in the public interest to make clear the amount of TARP
                                             investments that were repaid with SBLF funds.
                                                  As Treasury’s also noted, “Congress specifically directed that SBLF not be a part
                                             of TARP, and thus SBLF and TARP accounts are kept separate.”
                                                  However, Treasury has not agreed to implement SIGTARP’s recommendation.
                                             First, although Treasury claims to have taken steps to achieve the goals of the
                                             recommendation, SIGTARP does not believe those steps are adequate. If they
                                             were, SIGTARP’s recommendation would not have been necessary. Second,
                                             Treasury claims that it is actually prohibited from providing this additional
                                             transparency because it is required to count SBLF refinancings as “repayments”
                                             in its financial statements. Despite Treasury’s acknowledgement that adequate
                                             transparency is necessary, Treasury does not, however, explain what prevents
                                             Treasury from being wholly transparent in its various representations to the
                                             public. But Treasury does not limit itself to talking about these payments to
                                             its financial statements, and Treasury should be more transparent about the
                                             costs to taxpayers in its other statements, including in its CPP press releases,
                                             blog posts, and Treasury's Transaction Report, as SIGTARP explained. In fact,
                                             Treasury even describes these refinances in various ways in those instances, often
                                             referring to those amounts as being “recovered” rather than solely labeling them as
                                             “repayments” or amounts “repaid.”
                                                  Treasury can still implement SIGTARP’s recommendation by not counting the
                                             $2.1 billion in TARP investments that Treasury refinanced into the Small Business
                                             Lending Fund, which is outside of TARP, when Treasury discusses the amount
                                             of TARP funds (or CPP funds) recovered or repaid. SIGTARP looks forward to
                                             Treasury providing this additional transparency it agrees is important.
SIGTARP RECOMMENDATIONS TABLE
                                                                                             Partially                    Not
         Recommendation                                                  Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
1    *   Treasury should include language in the automobile industry
         transaction term sheet acknowledging SIGTARP’s oversight
                                                                               X
         role and expressly giving SIGTARP access to relevant
         documents and personnel.
2    *   Treasury should include language in new TARP agreements                                                                             Although Treasury has made
         to facilitate compliance and oversight. Specifically, SIGTARP                                                                       substantial efforts to comply with
         recommends that each program participant should (1)                                                                                 this recommendation in many of its
         acknowledge explicitly the jurisdiction and authority of                                                                            agreements, there have been exceptions,
         SIGTARP and other oversight bodies, as relevant, to oversee                                                                         including in its agreements with servicers
         compliance of the conditions contained in the agreement                                                                             in MHA.
         in question, (2) establish internal controls with respect to                            X
         that condition, (3) report periodically to the Compliance
         department of the Office of Financial Stability (“OFS-
         Compliance”) regarding the implementation of those controls
         and its compliance with the condition, and (4) provide a
         signed certification from an appropriate senior official to
         OFS-Compliance that such report is accurate.
3    *   All existing TARP agreements, as well as those governing
         new transactions, should be posted on the Treasury website            X
         as soon as possible.
4    *   Treasury should require all TARP recipients to report on the
                                                                               X
         actual use of TARP funds.
5    *   Treasury quickly determines its going-forward valuation
                                                                               X
         methodology.
6    *   Treasury begins to develop an overall investment strategy to
         address its portfolio of stocks and decide whether it intends         X
         to exercise warrants of common stock.
7    *   In formulating the structure of TALF, Treasury should                                                                               The Federal Reserve adopted
         consider requiring, before committing TARP funds to the                                                                             mechanisms that address this
         program, that certain minimum underwriting standards and/                                                                           recommendation.
                                                                               X
         or other fraud prevention mechanisms be put in place with
         respect to the ABS and/or the assets underlying the ABS
         used for collateral.
8    *   Agreements with TALF participants should include an
         acknowledgment that: (1) they are subject to the oversight
         of OFS-Compliance and SIGTARP, (2) with respect to any
         condition imposed as part of TALF, that the party on which
                                                                                                                           X
         the condition is imposed is required to establish internal
         controls with respect to each condition, report periodically
         on such compliance, and provide a certification with respect
         to such compliance.
9    *   Treasury should give careful consideration before agreeing                                                                          This recommendation was implemented
                                                                                                                                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013




         to the expansion of TALF to include MBS without a full review                                                                       with respect to CMBS, and the Federal
                                                                               X
         of risks that may be involved and without considering certain                                                                       Reserve did not expand TALF to RMBS.
         minimum fraud protections.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
                                                                                                                                                                                          283
                                                                                                                                                                                         284
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
         Recommendation                                                   Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
10   *   Treasury should oppose any expansion of TALF to legacy                                                                              This recommendation was implemented
         MBS without significant modifications to the program to                                                                             with respect to CMBS, and the Federal
                                                                               X
         ensure a full assessment of risks associated with such an                                                                           Reserve did not expand TALF to RMBS.
         expansion.
11       Treasury should formalize its valuation strategy and begin                                                                          Treasury has formalized its valuation
         providing values of the TARP investments to the public.               X                                                             strategy and regularly publishes its
                                                                                                                                             estimates.
12   *   Treasury and the Federal Reserve should provide to                                                                                  On December 1, 2010, the Federal
         SIGTARP, for public disclosure, the identity of the borrowers                                                                       Reserve publicly disclosed the identities
         who surrender collateral in TALF.                                                                                                   of all TALF borrowers and that there had
                                                                                                                                      X      been no surrender of collateral. SIGTARP
                                                                                                                                             will continue to monitor disclosures if a
                                                                                                                                             collateral surrender takes place.


13   *   In TALF, Treasury should dispense with rating agency                                                                                The Federal Reserve announced that
         determinations and require a security-by-security screening                                                                         RMBS were ineligible for TALF loans,
         for each legacy RMBS. Treasury should refuse to participate                                                                         rendering this recommendation moot.
         if the program is not designed so that RMBS, whether new
         or legacy, will be rejected as collateral if the loans backing                                                               X
         particular RMBS do not meet certain baseline underwriting
                                                                                                                                                                                         SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




         criteria or are in categories that have been proven to be
         riddled with fraud, including certain undocumented subprime
         residential mortgages.
14   *   In TALF, Treasury should require significantly higher haircuts                                                                      This recommendation was implemented
         for all MBS, with particularly high haircuts for legacy RMBS,         X                                                             with respect to CMBS, and the Federal
         or other equally effective mitigation efforts.                                                                                      Reserve did not expand TALF to RMBS.
15   *   Treasury should require additional anti-fraud and credit                                                                            The Federal Reserve adopted
         protection provisions, specific to all MBS, before                                                                                  mechanisms that address this
         participating in an expanded TALF, including minimum                  X                                                             recommendation with respect to CMBS,
         underwriting standards and other fraud prevention                                                                                   and did not expand TALF to RMBS.
         measures.
16   *   Treasury should design a robust compliance protocol with
         complete access rights to all TALF transaction participants                                                       X
         for itself, SIGTARP, and other relevant oversight bodies.
17   *   Treasury should not allow Legacy Securities PPIFs to invest
         in TALF unless significant mitigating measures are included           X
         to address these dangers.
18   *   All TALF modeling and decisions, whether on haircuts or any
         other credit or fraud loss mechanisms, should account for
         potential losses to Government interests broadly, including           X
         TARP funds, and not just potential losses to the Federal
         Reserve.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                             Partially                    Not
         Recommendation                                                    Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
19   *   Treasury should address the confusion and uncertainty on
         executive compensation by immediately issuing the required             X
         regulations.
20   *   Treasury should significantly increase the staffing levels of                                                                       According to Treasury, OFS-Compliance
         OFS-Compliance and ensure the timely development and                                                                                has increased its staffing level and has
         implementation of an integrated risk management and                                     X                                           contracted with four private firms to
         compliance program.                                                                                                                 provide additional assistance to OFS-
                                                                                                                                             Compliance.
21   *   Treasury should require CAP participants to (1) establish an                                                                        Treasury closed the program with no
         internal control to monitor their actual use of TARP funds, (2)                                                                     investments having been made, rendering
         provide periodic reporting on their actual use of TARP funds,                                                                       this recommendation moot.
         (3) certify to OFS-Compliance, under the penalty of criminal
         sanction, that the report is accurate, that the same criteria
                                                                                                                                      X
         of internal controls and regular certified reports should be
         applied to all conditions imposed on CAP participants, and
         (4) acknowledge explicitly the jurisdiction and authority of
         SIGTARP and other oversight bodies, as appropriate, to
         oversee conditions contained in the agreement.
22   *   Treasury should impose strict conflict-of-interest rules upon                                                                       Treasury has adopted some significant
         PPIF managers across all programs that specifically address                                                                         conflict-of-interest rules related to this
         whether and to what extent the managers can (1) invest                                                                              recommendation, but has failed to
         PPIF funds in legacy assets that they hold or manage on                                 X                                           impose other significant safeguards.
         behalf of themselves or their clients or (2) conduct PPIF
         transactions with entities in which they have invested on
         behalf of themselves or others.
23   *   Treasury should require that all PPIF fund managers (1)                                                                             Treasury’s agreements with PPIF
         have stringent investor-screening procedures, including                                                                             managers include investor-screening
         comprehensive “Know Your Customer” requirements at least                                                                            procedures such as “Know Your
         as rigorous as that of a commercial bank or retail brokerage                                                                        Customer” requirements. Treasury
         operation to prevent money laundering and the participation                                                                         has agreed that it will have access to
         of actors prone to abusing the system, and (2) be required                              X                                           any information in a fund manager’s
         to provide Treasury with the identities of all the beneficial                                                                       possession relating to beneficial owners.
         owners of the private interests in the fund so that Treasury                                                                        However, Treasury did not impose an
         can do appropriate diligence to ensure that investors in the                                                                        affirmative requirement that managers
         funds are legitimate.                                                                                                               obtain and maintain beneficial owner
                                                                                                                                             information.
24   *   Treasury should require PPIP managers to provide most
         favored nation clauses to PPIF equity stakeholders, to
                                                                                X
         acknowledge that they owe Treasury a fiduciary duty, and to
         adopt a robust ethics policy and compliance apparatus.
25       Treasury should require servicers in MHA to submit third-                                                                           Treasury has decided to adopt this
         party verified evidence that the applicant is residing in the                                                                       important SIGTARP recommendation.
                                                                                                             X
         subject property before funding a mortgage modification.                                                                            SIGTARP will monitor Treasury’s
                                                                                                                                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013




                                                                                                                                             implementation of the recommendation.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                            Continued on next page
                                                                                                                                                                                          285
                                                                                                                                                                                           286
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                             Partially                    Not
         Recommendation                                                  Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
26   *   In MHA, Treasury should require a closing-like procedure                                                                            Treasury rejected SIGTARP’s
         be conducted that would include (1) a closing warning                                                                               recommendation for a closing-like
         sheet that would warn the applicant of the consequences                                                                             procedure. However, since this
         of fraud; (2) the notarized signature and thumbprint of each                                                                        recommendation was issued, Treasury
         participant; (3) mandatory collection, copying, and retention                                                                       has taken several actions to prevent
         of copies of identification documents of all participants in                                                                        fraud on the part of either MHA servicers
         the transaction; (4) verbal and written warnings regarding                              X                                           or applicants.
         hidden fees and payments so that applicants are made fully
         aware of them; (5) the benefits to which they are entitled
         under the program (to prevent a corrupt servicer from
         collecting payments from the Government and not passing
         the full amount of the subsidies to the homeowners); and (6)
         the fact that no fee should be charged for the modification.
27   *   Additional anti-fraud protections should be adopted in MHA                                                                          Treasury has taken steps to implement
         to verify the identity of the participants in the transaction                                                                       policies and conduct compliance reviews
         and to address the potential for servicers to steal from                                                                            to address this recommendation.
         individuals receiving Government subsidies without applying                                                                         However, it remains unclear if Treasury
         them for the benefit of the homeowner.                                                                                              has an appropriate method to ensure the
                                                                                                 X
                                                                                                                                             irregularities identified in the compliance
                                                                                                                                             reviews are resolved.
28   *   In MHA, Treasury should require the servicer to compare                                                                             Treasury has rejected SIGTARP’s
                                                                                                                                                                                           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




         the income reported on a mortgage modification application                                                                          recommendation and does not require
         with the income reported on the original loan applications.                                                       X                 income reported on the modification
                                                                                                                                             application to be compared to income
                                                                                                                                             reported on the original loan application.
29   *   In MHA, Treasury should require that verifiable, third-party
         information be obtained to confirm an applicant’s income              X
         before any modification payments are made.
30   *   In MHA, Treasury should defer payment of the $1,000                                                                                 Rather than deferring payment of the
         incentive to the servicer until after the homeowner has                                                                             incentive until after the homeowner has
         verifiably made a minimum number of payments under the                                                                              verifiably made a minimum number of
         mortgage modification program.                                                                                                      payments on its permanent modification,
                                                                                                                           X
                                                                                                                                             Treasury will pay the incentive after the
                                                                                                                                             servicer represents that the homeowner
                                                                                                                                             has made three payments during the trial
                                                                                                                                             period.
31   *   In MHA, Treasury should proactively educate homeowners
         about the nature of the program, warn them about
                                                                               X
         modification rescue fraudsters, and publicize that no fee is
         necessary to participate in the program.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                             Partially                    Not
         Recommendation                                                    Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
32   *   In MHA, Treasury should require its agents to keep track of                                                                         While Treasury’s program administrator,
         the names and identifying information for each participant in                                                                       Fannie Mae, has developed a HAMP
         each mortgage modification transaction and to maintain a                                                                            system of record that maintains
         database of such information.                                                                                                       servicers’ names, investor group
                                                                                                                                             (private, portfolio, GSE), and
                                                                                                 X                                           participating borrowers’ personally
                                                                                                                                             identifiable information, such as names
                                                                                                                                             and addresses, the database is not
                                                                                                                                             constructed to maintain other information
                                                                                                                                             that may assist in detecting insiders who
                                                                                                                                             are committing large-scale fraud.
33   *   Treasury should require the imposition of strict information                                                                        Treasury has refused to adopt this
         barriers or “walls” between the PPIF managers making                                                                                significant anti-fraud measure designed
         investment decisions on behalf of the PPIF and those                                                              X                 to prevent conflicts of interest. This
         employees of the fund management company who manage                                                                                 represents a material deficiency in the
         non-PPIF funds.                                                                                                                     program.
34   *   Treasury should periodically disclose PPIF trading activity                                                                         Treasury has committed to publish
         and require PPIF managers to disclose to SIGTARP, within                                                                            on a quarterly basis certain high-level
         seven days of the close of the quarter, all trading activity,                                                                       information about aggregated purchases
         holdings, and valuations so that SIGTARP may disclose                                                                               by the PPIFs, but not within seven days of
         such information, subject to reasonable protections, in its                                                       X                 the close of the quarter. Treasury has not
         quarterly reports.                                                                                                                  committed to providing full transparency
                                                                                                                                             to show where public dollars are invested
                                                                                                                                             by requiring periodic disclosure of every
                                                                                                                                             trade in the PPIFs.
35       Treasury should define appropriate metrics and an                                                                                   Treasury has stated that it has developed
         evaluation system should be put in place to monitor the                                                                             risk and performance metrics. However,
         effectiveness of the PPIF managers, both to ensure they                                                                             more than four years into the program,
         are fulfilling the terms of their agreements and to measure                             X                                           it is still not clear how Treasury will
         performance.                                                                                                                        use these metrics to evaluate the PPIP
                                                                                                                                             managers and take appropriate action as
                                                                                                                                             recommended by SIGTARP.
36   *   The conditions that give Treasury “cause” to remove a                                                                               Treasury has refused to adopt this
         PPIF manager should be expanded to include a manager’s                                                                              recommendation, relying solely on
         performance below a certain standard benchmark, or if                                                                               Treasury’s right to end the investment
         Treasury concludes that the manager has materially violated                                                       X                 period after 12 months. That timeframe
         compliance or ethical rules.                                                                                                        has already expired. Treasury’s failure to
                                                                                                                                             adopt this recommendation potentially
                                                                                                                                             puts significant Government funds at risk.
37   *   Treasury should require PPIF managers to disclose to
         Treasury, as part of the Watch List process, not only
                                                                                X
         information about holdings in eligible assets but also
         holdings in related assets or exposures to related liabilities.
                                                                                                                                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013




Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
                                                                                                                                                                                          287
                                                                                                                                                                                           288
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
         Recommendation                                                   Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
38       Treasury should require PPIF managers to obtain and                                                                                 Treasury has agreed that it can have
         maintain information about the beneficial ownership of all of                                                                       access to any information in a fund
         the private equity interests, and Treasury should have the                                                                          manager’s possession relating to
         unilateral ability to prohibit participation of private equity                                                                      beneficial owners. However, Treasury is
         investors.                                                                                                                          not making an affirmative requirement
                                                                                                                           X                 that managers obtain and maintain
                                                                                                                                             beneficial owner information. Treasury will
                                                                                                                                             not adopt the recommendation to give
                                                                                                                                             itself unilateral ability to deny access to
                                                                                                                                             or remove an investor, stating that such a
                                                                                                                                             right would deter participation.
39   *   Treasury and FRBNY should (1) examine Moody’s assertions                                                                            Treasury and the Federal Reserve have
         that some credit rating agencies are using lower standards                                                                          discussed concerns about potential
         to give a potential TALF security the necessary AAA rating                                                                          overrating or rating shopping with the
         and (2) develop mechanisms to ensure that acceptance of               X                                                             rating agencies, and have agreed to
         collateral in TALF is not unduly influenced by the improper                                                                         continue to develop and enhance risk
         incentives to overrate that exist among the credit agencies.                                                                        management tools and processes, where
                                                                                                                                             appropriate.
40   *   Treasury should more explicitly document the vote of each
         Investment Committee member for all decisions related to              X
         the investment of TARP funds.
                                                                                                                                                                                           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




41   *   Treasury should improve existing control systems to
         document the occurrence and nature of external phone calls
         and in-person meetings about actual and potential recipients          X
         of funding under the CPP and other similar TARP-assistance
         programs to which they may be part of the decision making.
42   *   The Secretary of the Treasury should direct the Special
         Master to work with FRBNY officials in understanding AIG
         compensation programs and retention challenges before
                                                                               X
         developing future compensation decisions that may affect
         both institutions’ ability to get repaid by AIG for Federal
         assistance provided.
43   *   Treasury should establish policies to guide any similar                                                                             Treasury stated that it does not
         future decisions to take a substantial ownership position in                                                                        anticipate taking a substantial percentage
         financial institutions that would require an advance review                                                                  X      ownership position in any other financial
         so that Treasury can be reasonably aware of the obligations                                                                         institution pursuant to EESA.
         and challenges facing such institutions.
44   *   Treasury should establish policies to guide decision making                                                                         Treasury has agreed to work closely with
         in determining whether it is appropriate to defer to another                                                                        other Federal agencies that are involved
                                                                                                 X
         agency when making TARP programming decisions where                                                                                 in TARP.
         more than one Federal agency is involved.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
         Recommendation                                                  Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
45       Treasury should rectify the confusion that its own                                                                                  Despite SIGTARP’s repeated highlighting
         statements have caused for HAMP by prominently disclosing                                                                           of this essential transparency and
         its goals and estimates (updated over time, as necessary)                                                                           effectiveness measure, Treasury has
                                                                                                                           X
         of how many homeowners the program will help through                                                                                refused to disclose clear and relevant
         permanent modifications and report monthly on its progress                                                                          goals and estimates for the program.
         toward meeting that goal.
46       Treasury should develop other performance metrics                                                                                   Although Treasury has increased its
         and publicly report against them to measure over time                                                                               reporting of servicer performance, it
         the implementation and success of HAMP. For example,                                                                                has not identified goals for each metric
         Treasury could set goals and publicly report against those                                                                          and measured performance against
         goals for servicer processing times, modifications as a                                 X                                           those goals. Treasury has not set an
         proportion of a servicer’s loans in default, modifications                                                                          acceptable metric for redefaults.
         as a proportion of foreclosures generally, rates of how
         many borrowers fall out of the program prior to permanent
         modification, and re-default rates.
47       Treasury should undertake a sustained public service
         campaign as soon as possible, both to reach additional
         borrowers who could benefit from the program and to arm
                                                                               X
         the public with complete, accurate information — this will
         help to avoid confusion and delay, and prevent fraud and
         abuse.
48       Treasury should reconsider its position that allows servicers
         to substitute alternative forms of income verification based                                                      X
         on subjective determinations by the servicer.
49       Treasury should re-examine HAMP’s structure to ensure that                                                                          Treasury has adopted some programs to
         it is adequately minimizing the risk of re-default stemming                                                                         assist underwater mortgages to address
         from non-mortgage debt, second liens, partial interest rate                             X                                           concerns of negative equity but has not
         resets after the five-year modifications end, and from many                                                                         addressed other factors contained in this
         borrowers being underwater.                                                                                                         recommendation.
50       Treasury should institute careful screening before putting
         additional capital through CDCI into an institution with
         insufficient capital to ensure that the TARP matching funds
         are not flowing into an institution that is on the verge of           X
         failure.
51       Treasury should develop a robust procedure to audit and
         verify the bona fides of any purported capital raise in CDCI
                                                                               X
         and to establish adequate controls to verify the source,
         amount and closing of all claimed private investments.
52       Treasury should revise CDCI terms to clarify that Treasury
         inspection and copy rights continue until the entire CDCI
         investment is terminated. Additionally, consistent with
         recommendations made in connection with other TARP                    X
         programs, the terms should be revised to provide expressly
                                                                                                                                                                                         QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013




         that SIGTARP shall have access to the CDFI’s records equal
         to that of Treasury.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
                                                                                                                                                                                         289
                                                                                                                                                                                            290
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                             Partially                    Not
         Recommendation                                                    Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
53       Treasury should consider more frequent surveys of a CDCI
         participant’s use of TARP funds than annually as currently
                                                                                                                           X
         contemplated. Quarterly surveys would more effectively
         emphasize the purpose of CDCI.
54       Treasury should ensure that more detail is captured by                                                                              Treasury has indicated that it has
         the Warrant Committee meeting minutes. At a minimum,                                                                                implemented this recommendation.
         the minutes should include the members’ qualitative                                                                                 Although the detail of the minutes has
                                                                                X
         considerations regarding the reasons bids were accepted or                                                                          improved, Treasury is still not identifying
         rejected within fair market value ranges.                                                                                           how each member of the committee
                                                                                                                                             casts his or her vote.
55       Treasury should document in detail the substance of                                                                                 Treasury has agreed to document the
         all communications with recipients concerning warrant                                                                               dates, participants, and subject line of
                                                                                                                           X
         repurchases.                                                                                                                        calls. It has refused to document the
                                                                                                                                             substance of such conversations.
56   *   Treasury should develop and follow guidelines and internal                                                                          Treasury has adopted procedures
         controls concerning how warrant repurchase negotiations                                                                             designed to address this
         will be pursued, including the degree and nature of                                                                                 recommendation, including a policy to
         information to be shared with repurchasing institutions                                                                             discuss only warrant valuation inputs and
         concerning Treasury’s valuation of the warrants.                                                                                    methodologies prior to receiving a bid,
                                                                                                                                             generally to limit discussion to valuation
                                                                                                                                                                                            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                                                 X                                           ranges after receiving approval from
                                                                                                                                             the Warrant Committee, and to note
                                                                                                                                             the provision of any added information
                                                                                                                                             in the Committee minutes. However,
                                                                                                                                             Treasury believes that its existing internal
                                                                                                                                             controls are sufficient to ensure adequate
                                                                                                                                             consistency in the negotiation process.
57   *   Treasury should promptly take steps to verify TARP                                                                                  Although Treasury largely continues
         participants’ conformance to their obligations, not only by                                                                         to rely on self-reporting, stating that
         ensuring that they have adequate compliance procedures                                                                              it only plans to conduct testing where
         but also by independently testing participants’ compliance.                                                                         they have particular concerns as to a
                                                                                                 X                                           TARP recipient’s compliance procedures
                                                                                                                                             or testing results, it has conducted
                                                                                                                                             independent testing of compliance
                                                                                                                                             obligations during some compliance
                                                                                                                                             reviews.
58   *   Treasury should develop guidelines that apply consistently                                                                          Treasury states that it has developed
         across TARP participants for when a violation is sufficiently                                                                       guidance and provided that guidance to
         material to merit reporting, or in the alternative require that                                                                     the exceptional assistance participants
         all violations be reported.                                                                                                         that were remaining in TARP as of
                                                                                                 X                                           June 30, 2011. Treasury has not
                                                                                                                                             addressed other factors contained in this
                                                                                                                                             recommendation, citing its belief that
                                                                                                                                             materiality should be subject to a fact
                                                                                                                                             and circumstances review.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
         Recommendation                                                   Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
59       For each HAMP-related program and subprogram, Treasury                                                                              Treasury has provided anticipated costs,
         should publish the anticipated costs and expected                                                                                   but not expected participation.
         participation in each and that, after each program is                                   X
         launched, it report monthly as to the program’s performance
         against these expectations.
60   *   Treasury should re-evaluate the voluntary nature of its                                                                             Treasury plans to maintain the voluntary
         principal reduction program and, irrespective of whether it                                                                         nature of the program, providing an
         is discretionary or mandatory, consider changes to better                                                                           explanation that on its face seems
                                                                                                                                      X
         maximize its effectiveness, ensure to the greatest extent                                                                           unpersuasive to SIGTARP. SIGTARP will
         possible the consistent treatment of similarly situated                                                                             continue to monitor performance.
         borrowers, and address potential conflict of interest issues.
61       Treasury should adopt a uniform appraisal process across
         all HAMP and HAMP-related short-sale and principal                                                                X
         reduction programs consistent with FHA’s procedures.
62   *   Treasury should reconsider the length of the minimum term                                                                           For more than a year, Treasury refused to
         of HAMP’s unemployment forbearance program.                                                                                         adopt this recommendation, even though
                                                                                                                                             average U.S. terms of unemployment
                                                                                                                                             were lengthening. However, in July 2011,
                                                                               X                                                             the Administration announced a policy
                                                                                                                                             change, and Treasury has extended the
                                                                                                                                             minimum term of the unemployment
                                                                                                                                             program from three months to 12
                                                                                                                                             months, effective October 1, 2011.
63       Treasury should launch a broad-based information
         campaign, including public service announcements in target
         markets that focus on warnings about potential fraud, and             X
         include conspicuous fraud warnings whenever it makes
         broad public announcements about the HAMP program.
64       When Treasury considers whether to accept an existing CPP
         participant into SBLF, because conditions for many of the
         relevant institutions have changed dramatically since they
         were approved for CPP, Treasury and the bank regulators               X
         should conduct a new analysis of whether the applying
         institution is sufficiently healthy and viable to warrant
         participation in SBLF.
65       When Treasury conducts the new analysis of an institution’s                                                                         Treasury refused to adopt this
         health and viability, the existing CPP preferred shares should                                                                      recommendation, citing its belief that
         not be counted as part of the institution’s capital base.                                                                           current CPP participants may be unfairly
                                                                                                                                             disadvantaged in their SBLF applications
                                                                                                                                             if their existing CPP investments are
                                                                                                                           X
                                                                                                                                             not counted as part of their capital
                                                                                                                                             base, and that SBLF “already provides
                                                                                                                                             substantial hurdles that CPP recipients
                                                                                                                                                                                         QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013




                                                                                                                                             must overcome” that don’t apply to other
                                                                                                                                             applicants.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
                                                                                                                                                                                         291
                                                                                                                                                                                          292
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
         Recommendation                                                    Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
66       Treasury should take steps to prevent institutions that are                                                                         Treasury refused to adopt this
         refinancing into the SBLF from CPP from securing windfall                                                                           recommendation, suggesting that
         dividend reductions without any relevant increase in lending.                                                                       its adoption would subvert the will
                                                                                                                                             of Congress and that SIGTARP’s
                                                                                                                           X
                                                                                                                                             recommendation “may not be helpful”
                                                                                                                                             because “it is unclear that using this
                                                                                                                                             statutorily mandated baseline will lead to
                                                                                                                                             anomalies.”
67   *   Treasury, as part of its due diligence concerning any
         proposed restructuring, recapitalization, or sale of its CPP
         investment to a third party, should provide to SIGTARP the             X
         identity of the CPP institution and the details of the proposed
         transaction.
68   *   When a CPP participant refinances into SBLF and seeks
         additional taxpayer funds, Treasury should provide to
                                                                                X
         SIGTARP the identity of the institution and details of the
         proposed additional SBLF investment.
69   *   OFS should adopt the legal fee bill submission standards                                                                            Treasury told SIGTARP that OFS has
         contained in the FDIC’s Outside Counsel Deskbook, or                                                                                created new guidance using the FDIC’s
         establish similarly detailed requirements for how law                                                                               Outside Counsel Deskbook and other
                                                                                X
                                                                                                                                                                                          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




         firms should prepare legal fee bills and describe specific                                                                          resources.
         work performed in the bills, and which costs and fees are
         allowable and unallowable.
70   *   OFS should include in its open legal service contracts                                                                              Treasury told SIGTARP that OFS has
         detailed requirements for law firms on the preparation and                                                                          distributed its new guidance to all
         submission of legal fee bills, or separately provide the                                                                            law firms currently under contract to
         instructions to law firms and modify its open contracts,                                                                            OFS. Treasury further stated that OFS
                                                                                                             X
         making application of the instructions mandatory.                                                                                   will work with Treasury’s Procurement
                                                                                                                                             Services Division to begin modifying
                                                                                                                                             base contracts for OFS legal services to
                                                                                                                                             include those standards as well.
71   *   OFS should adopt the legal fee bill review standards                                                                                Treasury told SIGTARP that OFS has held
         and procedures contained in the FDIC’s Outside Counsel                                                                              training on its newly adopted guidance
         Deskbook, or establish similarly specific instructions and                                                                          prescribing how legal fee bills should
         guidance for OFS COTRs to use when reviewing legal fee                                                                              be prepared with OFS COTRs and other
         bills, and incorporate those instructions and guidance into                                                                         staff involved in the review of legal fee
         OFS written policies.                                                                                                               bills, and that the OFS COTRs will begin
                                                                                X
                                                                                                                                             reviewing invoices in accordance with
                                                                                                                                             its new guidance for periods starting
                                                                                                                                             with March 2011. OFS also stated that
                                                                                                                                             it incorporated relevant portions of its
                                                                                                                                             training on the new legal fee bill review
                                                                                                                                             standards into written procedures.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
SIGTARP RECOMMENDATIONS TABLE                  (CONTINUED)

                                                                                             Partially                    Not
         Recommendation                                                  Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
72   *   OFS should review previously paid legal fee bills to                                                                                Although Treasury previously agreed
         identify unreasonable or unallowable charges, and seek                                                                              to implement this recommendation,
         reimbursement for those charges, as appropriate.                                                                                    Treasury only reviewed the legal fee bills
                                                                                                                                             for one of the five law firms that SIGTARP
                                                                                                                           X                 had already described as unreasonable.
                                                                                                                                             Treasury refuses to seek any
                                                                                                                                             reimbursement for those charges. See
                                                                                                                                             also Recommendation 81 concerning this
                                                                                                                                             issue.
73   *   Treasury should establish detailed guidance and internal                                                                            Treasury made important changes to
         controls governing how the MHA Servicer Compliance                                                                                  its servicer assessments by including
         Assessment will be conducted and how each compliance                                                                                metrics for the ratings, including several
         area will be weighted.                                                                                                              quantitative metrics. However, qualitative
                                                                                                 X                                           metrics to assess the servicer’s internal
                                                                                                                                             controls in the three ratings categories
                                                                                                                                             remain, and guidelines or criteria for
                                                                                                                                             rating the effectiveness of internal
                                                                                                                                             controls are still necessary.
74   *   Treasury should ensure that more detail is captured by                                                                              Minutes of recent MHA Compliance
         the MHA Compliance Committee meeting minutes. At a                                                                                  Committee meetings contain brief
         minimum, the minutes should include MHA-C’s proposed                                                                                explanations of servicer assessment
         rating for each servicer, the committee members’ qualitative                                                                        rating decisions. However, these
         and quantitative considerations regarding each servicer’s                                                                           minutes do not explain the Committee’s
         ratings, the votes of each committee member, the final                                  X                                           deliberations in detail, do not indicate
         rating for each servicer, justification for any difference in                                                                       how members voted beyond a tally of
         that rating with MHA-C’s proposed rating, and any follow-                                                                           the votes, and do not discuss follow-up
         up including escalation to Treasury’s Office of General                                                                             actions or escalation.
         Counsel or the Assistant Secretary and the outcomes of that
         escalation.
75   *   Treasury should require that MHA servicer communications                                                                            Treasury has refused to adopt this
         with homeowners relating to changes in the status or                                                                                recommendation, saying it already
         terms of a homeowner’s modification application, trial or                                                                           requires a loan servicer to communicate
         permanent modification, HAFA agreement, or any other                                                                                in writing with a borrower an average
         significant change affecting the homeowner’s participation in                                                                       of 10 times. However, most written
                                                                                                                           X
         the MHA program, be in writing.                                                                                                     requirements apply to a HAMP
                                                                                                                                             application and Treasury’s response fails
                                                                                                                                             to address homeowners who receive
                                                                                                                                             miscommunication from servicers on
                                                                                                                                             important milestones or changes.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
                                                                                                                                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013
                                                                                                                                                                                          293
                                                                                                                                                                                        294
SIGTARP RECOMMENDATIONS TABLE                     (CONTINUED)

                                                                                             Partially                    Not
         Recommendation                                                     Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
76   *   Treasury should establish benchmarks and goals for                                                                                  Treasury told SIGTARP that it already
         acceptable program performance for all MHA servicers,                                                                               established benchmarks in this area,
         including the length of time it takes for trial modifications to                                                                    including that trial periods should last
         be converted into permanent modifications, the conversion                                                                           three to four months, and escalated
         rate for trial modifications into permanent modifications,                                                                          cases should be resolved in 30 days. If
         the length of time it takes to resolve escalated homeowner                                                        X                 these are the benchmarks for acceptable
         complaints, and the percentage of required modification                                                                             performance, many servicers have
         status reports that are missing.                                                                                                    missed the mark. Also, Treasury has yet
                                                                                                                                             to establish a benchmark for conversion
                                                                                                                                             rates from trial modifications to
                                                                                                                                             permanent modifications.
77   *   Treasury should publicly assess the top 10 MHA servicers’                                                                           Treasury has rejected this
         program performance against acceptable performance                                                                                  recommendation, saying only that it
         benchmarks in the areas of: the length of time it takes                                                                             would “continue to develop and improve
         for trial modifications to be converted into permanent                                                                              the process where appropriate.”
         modifications, the conversion rate for trial modifications                                                        X
         into permanent modifications, the length of time it takes
         to resolve escalated homeowner complaints, and the
         percentage of required modification status reports that are
         missing.
78   *   Treasury must ensure that all servicers participating in MHA                                                                        Treasury has rejected this important
                                                                                                                                                                                        SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




         comply with program requirements by vigorously enforcing                                                                            recommendation, stating that it believes
         the terms of the servicer participation agreements, including                                                                       that the remedies enacted have been
         using all financial remedies such as withholding, permanently                                                                       appropriate and that appropriate
                                                                                                                           X
         reducing, and clawing back incentives for servicers who                                                                             transparency exists.
         fail to perform at an acceptable level. Treasury should be
         transparent and make public all remedial actions taken
         against any servicer.
79       Treasury should specifically determine the allowability of                                                                          Treasury neither agreed nor disagreed
         $7,980,215 in questioned, unsupported legal fees and                                                                                with the recommendation.
         expenses paid to the following law firms: Simpson Thacher
         & Bartlett LLP ($5,791,724); Cadwalader Wickersham &                                                              X
         Taft LLP ($1,983,685); Locke Lord Bissell & Liddell LLP
         ($146,867); and Bingham McCutchen LLP (novated from
         McKee Nelson LLP, $57,939).
80       The Treasury contracting officer should disallow and seek                                                                           Treasury neither agreed nor disagreed
         recovery from Simpson Thacher & Bartlett LLP for $91,482                                                                            with the recommendation.
         in questioned, ineligible fees and expenses paid that were
         not allowed under the OFS contract. Specifically, those are
                                                                                                                           X
         $68,936 for labor hours billed at rates in excess of the
         allowable maximums set in contract TOFS-09-0001, task
         order 1, and $22,546 in other direct costs not allowed
         under contract TOFS-09-007, task order 1.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
         Recommendation                                                    Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
81       Treasury should promptly review all previously paid legal fee                                                                       Treasury only reviewed the legal fee
         bills from all law firms with which it has a closed or open                                                                         bills for one of the five law firms that
         contract to identify unreasonable or unallowable charges                                                          X                 SIGTARP had already described as
         and seek reimbursement for those charges, as appropriate.                                                                           unreasonable. Treasury refuses to seek
                                                                                                                                             any reimbursements for those charges.
82       Treasury should require in any future solicitation for legal                                                                        Treasury neither agreed nor disagreed
         services multiple rate categories within the various partner,                                                                       with the recommendation.
         counsel, and associate labor categories. The additional                                                           X
         labor rate categories should be based on the number of
         years the attorneys have practiced law.
83       Treasury should pre-approve specified labor categories and                                                                          Treasury neither agreed nor disagreed
         rates of all contracted legal staff before they are allowed to                                                    X                 with the recommendation.
         work on and charge time to OFS projects.
84   *   Treasury, in consultation with Federal banking regulators,                                                                          Treasury responded that it continues
         should develop a clear TARP exit path to ensure that                                                                                its efforts to wind down CPP through
         as many community banks as possible repay the TARP                                                                                  repayments, restructuring, and sales.
         investment and prepare to deal with the banks that cannot.                                                                          Treasury has not addressed the criteria
                                                                                                             X
         Treasury should develop criteria pertaining to restructurings,                                                                      for these divestment strategies or
         exchanges, and sales of its TARP investments (including any                                                                         consulted with regulators.
         discount of the TARP investment, the treatment of unpaid
         TARP dividend and interest payments, and warrants).
85   *   Treasury should assess whether it should renegotiate the                                                                            Treasury rejected this recommendation
         terms of its Capital Purchase Program contracts for those                                                                           without ever addressing why.
         community banks that will not be able to exit TARP prior                                                          X
         to the dividend rate increase in order to help preserve the
         value of taxpayers’ investments.
86       Treasury should protect borrower personally identifiable                                                                            Treasury has said it will adopt this
         information (“PII”) and other sensitive borrower information                                                                        recommendation in part. Treasury did
         compiled for the Hardest Hit Fund (“HHF”) by: (1) requiring                                                                         not agree to review each HFA’s policies
         that within 90 days, all Housing Finance Agencies (and                                                                              and procedures to determine if they
         their contractors) (“HFAs”) participating in HHF develop                                                                            are effective. Also, Treasury did not
         and implement effective policies and procedures to ensure                                                                           require notification within 24 hours or
         protection against unauthorized access, use, and disposition                                                                        notification to SIGTARP. SIGTARP will
         of PII and other sensitive borrower information; (2) Treasury                                                                       monitor Treasury’s efforts to implement
         reviewing each HFA’s policies and procedures to determine                                                                           the recommendation.
         if they are effective, and taking such action as is required to                                     X
         ensure effectiveness; (3) requiring that all parties granted
         access to borrower information should be made aware
         of restrictions on copying and disclosing this information;
         (4) requiring annual certification by HFAs to Treasury that
         they are in compliance with all applicable laws, policies
         and procedures pertaining to borrower information; and (5)
         requiring that HFAs promptly notify Treasury and SIGTARP
         within 24 hours, when a breach of security has occurred
                                                                                                                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013




         involving borrower information.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
                                                                                                                                                                                        295
                                                                                                                                                                                           296
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
         Recommendation                                                    Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
87   *   To ensure that the Office of the Special Master consistently                                                                        OSM began memorializing in its records
         grants exceptions to the $500,000 cash salary cap, the                                                                              justifications for exceptions. However,
         Office of the Special Master should substantiate each                                                                               SIGTARP found in its review of the 2012
         exception requested and whether the requests demonstrate                                                                            determinations that those records do not
                                                                                                                           X
         or fail to demonstrate “good cause.”                                                                                                substantiate each exception requested
                                                                                                                                             and whether the request for an exception
                                                                                                                                             demonstrates or fails to demonstrate
                                                                                                                                             “good cause.”
88   *   The Office of the Special Master should better document
         its use of market data in its calculations. At a minimum, the
         Office of the Special Master should prospectively document
         which companies and employees are used as comparisons
                                                                                X
         in its analysis of the 50th percentile of the market, and
         it should also maintain records and data so that the
         relationship between its determinations and benchmarks are
         clearly understood.
89   *   The Office of the Special Master should develop more                                                                                Treasury has not agreed to implement
         robust policies, procedures, or guidelines to help ensure                                                                           this important recommendation.
         that its pay determination process and its decisions are
         evenhanded. These measures will improve transparency
                                                                                                                           X
         and help the Office of the Special Master consistently apply
                                                                                                                                                                                           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




         the Interim Final Rule principles of “appropriate allocation,”
         “performance-based compensation,” and “comparable
         structures and payments.”
90       In order to allow for effective compliance and enforcement                                                                          Treasury responded to this
         in HAMP Tier 2, Treasury should require that the borrower                                                                           recommendation by requiring that
         prove that the property has been rented and is occupied                                                                             borrowers certify that they intend to rent
         by a tenant at the time the borrower applies for a loan                                                                             the property for at least five years and
         modification, as opposed to requiring only a certification                                                                          that they will make reasonable efforts
         that the borrower intends to rent the property. As part of                                                                          to rent. This does not go far enough.
         the Request for Mortgage Assistance (“RMA”) application                                                                             Requiring only a self-certification, under
         for HAMP Tier 2, the borrower should provide the servicer                                                                           penalty of perjury, without a strong
         with a signed lease and third-party verified evidence of                                                          X                 compliance and enforcement regime to
         occupancy in the form of documents showing that a renter                                                                            ensure that the intent is carried out and
         lives at the property address, such as a utility bill, driver’s                                                                     the property is actually rented, leaves the
         license, or proof of renter’s insurance. In the case of                                                                             program vulnerable to risks that TARP
         multiple-unit properties under one mortgage Treasury should                                                                         funds will pay investors for modifications
         require that the borrower provide the servicer with evidence                                                                        for mortgages on vacation homes
         that at least one unit is occupied by a tenant as part of the                                                                       that are not rented, and may delay, as
         RMA.                                                                                                                                opposed to prevent, foreclosures and
                                                                                                                                             increase HAMP redefault rates.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
         Recommendation                                                   Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
91       To continue to allow for effective compliance and                                                                                   Treasury rejected this recommendation,
         enforcement in HAMP Tier 2 after the trial modification has                                                                         stating that eligibility is not retested
         started, Treasury should require that, prior to conversion                                                                          prior to conversion. This does not go far
         of a trial modification to a permanent modification, the                                                                            enough. Requiring only a self-certification,
         borrower certify under penalty of perjury that none of the                                                                          without a strong compliance and
         occupancy circumstances stated in the RMA have changed.                                                                             enforcement regime to ensure that the
                                                                                                                                             intent is carried out and the property
                                                                                                                           X
                                                                                                                                             is actually rented, leaves the program
                                                                                                                                             vulnerable to risks that TARP funds
                                                                                                                                             will pay investors for modifications for
                                                                                                                                             mortgages on vacation homes that are
                                                                                                                                             not rented, and may delay, as opposed to
                                                                                                                                             prevent, foreclosures and increase HAMP
                                                                                                                                             redefault rates.
92       To prevent a property that has received a HAMP Tier 2                                                                               Treasury told SIGTARP that implementing
         modification from remaining vacant for an extended period                                                                           this recommendation would create
         of time after a lease expires or a tenant vacates,                                                                                  significant additional procedures and
         (a) Treasury should require that borrowers immediately notify                                                                       documentation requirements. With no
         their servicer if the property has remained vacant for more                                                                         compliance regime to determine that a
         than three months.                                                                                                                  renter is in place, the program remains
                                                                                                                                             vulnerable to TARP funds being paid to
         (b) Treasury should require servicers to provide monthly                                                                            modify mortgages that do not fit within
         reports to Treasury of any properties that have remained                                                          X                 the intended expansion of the program.
         vacant for more than three months.
         (c) Treasury should bar payment of TARP-funded incentives
         to any participant for a loan modification on a property that
         has been reported vacant for more than three months, until
         such time as the property has been re-occupied by a tenant
         and the borrower has provided third-party verification of
         occupancy.
93       In order to protect against the possibility that the extension                                                                      Treasury has not implemented this
         and expansion of HAMP will lead to an increase in mortgage                                                                          recommendation. It is important that
         modification fraud,                                                                                                                 Treasury educate as many homeowners
         (a) Treasury should require that servicers provide the                                                                              as possible with accurate information
         SIGTARP/CFPB/Treasury Joint Task Force Consumer Fraud                                                                               about HAMP in an effort to prevent
         Alert to all HAMP-eligible borrowers as part of their monthly                                                                       mortgage modification fraud.
         mortgage statement until the expiration of the application
                                                                                                                           X
         period for HAMP Tier 1 and 2.
         (b) Treasury should undertake a sustained public service
         campaign as soon as possible both to reach additional
         borrowers who could potentially be helped by HAMP Tier 2
         and to arm the public with complete, accurate information
         about the program to avoid confusion and delay, and to
         prevent fraud and abuse.
                                                                                                                                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013




Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
                                                                                                                                                                                            297
                                                                                                                                                                                           298
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                             Partially                    Not
         Recommendation                                                    Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
94       Given the expected increase in the volume of HAMP                                                                                   Treasury has not implemented this
         applications due to the implementation of HAMP Tier 2,                                                                              recommendation. Treasury has not held
         Treasury should convene a summit of key stakeholders to                                                                             a summit of all key stakeholders to
                                                                                                                           X
         discuss program implementation and servicer ramp-up and                                                                             make the program roll-out efficient and
         performance requirements so that the program roll-out is                                                                            effective.
         efficient and effective.
95       To ensure servicer compliance with HAMP Tier 2 guidelines                                                                           Treasury said that it will include metrics
         and assess servicer performance,                                                                                                    in the future. SIGTARP will continue to
                                                                                                                                             monitor Treasury’s implementation of this
         (a) Treasury should include additional criteria in its servicer
                                                                                                                                             recommendation.
         compliance assessments that measure compliance with the
         program guidelines and requirements of HAMP Tier 2.
                                                                                                              X                        
         (b) Treasury should develop and publish separate metrics
         related to HAMP Tier 2 in the compliance results and
         program results sections of the quarterly Making Home
         Affordable (“MHA”) servicer assessments of the Top 10 MHA
         servicers.
96       To allow for assessment of the progress and success                                                                                 Treasury has rejected this
         of HAMP Tier 2, Treasury should set meaningful and                                                                                  recommendation. Treasury’s refusal to
         measurable goals, including at a minimum the number of                                                                              provide meaningful and measurable goals
         borrowers Treasury estimates will be helped by HAMP Tier                                                          X                 leaves it vulnerable to accusations that it
                                                                                                                                                                                           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




         2. Treasury should unambiguously and prominently disclose                                                                           is trying to avoid accountability.
         its goals and report monthly on its progress in meeting
         these goals.
97       Treasury should set meaningful and measurable                                                                                       Treasury has not implemented this
         performance goals for the Hardest Hit Fund program                                                                                  recommendation. It is important that
         including, at a minimum, the number of homeowners                                                                                   Treasury sets meaningful goals and
         Treasury estimates will be helped by the program, and                                                             X                 metrics to identify program successes
         measure the program’s progress against those goals.                                                                                 and set-backs, in order to change the
                                                                                                                                             program as necessary, and to provide
                                                                                                                                             transparency and accountability.
98       Treasury should instruct state housing finance agencies                                                                             Treasury issued letters to five housing
         in the Hardest Hit Fund to set meaningful and measurable                                                                            finance agencies requiring those states
         overarching and interim performance goals with appropriate                                                                          to provide an action plan with measurable
         metrics to measure progress for their individual state                                                                              interim and overall goals, including
         programs.                                                                                                                           benchmarks, to improve the level of
                                                                                                                                             homeowner assistance under the HHF
                                                                                                 X
                                                                                                                                             program. Treasury should fully adopt
                                                                                                                                             SIGTARP’s recommendation with the
                                                                                                                                             remaining 14 housing finance agencies in
                                                                                                                                             the HHF program. SIGTARP will continue
                                                                                                                                             to monitor implementation of this
                                                                                                                                             recommendation.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
SIGTARP RECOMMENDATIONS TABLE                  (CONTINUED)

                                                                                             Partially                    Not
         Recommendation                                                  Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
99       Treasury should set milestones at which the state housing                                                                           Treasury issued letters to five housing
         finance agencies in the Hardest Hit Fund must review the                                                                            finance agencies requiring those states
         progress of individual state programs and make program                                                                              to provide an action plan with measurable
         adjustments from this review.                                                                                                       interim and overall goals, including
                                                                                                                                             benchmarks, to improve the level of
                                                                                                                                             homeowner assistance under the HHF
                                                                                                 X
                                                                                                                                             program. Treasury should fully adopt
                                                                                                                                             SIGTARP’s recommendation with the
                                                                                                                                             remaining 14 housing finance agencies in
                                                                                                                                             the HHF program. SIGTARP will continue
                                                                                                                                             to monitor implementation of this
                                                                                                                                             recommendation.
100      Treasury should publish on its website and in the Housing                                                                           Treasury has only partially implemented
         Scorecard on a quarterly basis the total number of                                                                                  this recommendation. Treasury recently
         homeowners assisted, funds drawn down by states, and                                                                                started publishing some aggregated
         dollars expended for assistance to homeowners, assistance                                                                           data on its website. However, Treasury
                                                                                                 X
         committed to homeowners, and cash on hand, aggregated                                                                               does not publish all of the data SIGTARP
         by all state Hardest Hit Fund programs.                                                                                             recommended nor does Treasury publish
                                                                                                                                             any data at all concerning the Hardest Hit
                                                                                                                                             Fund in the Housing Scorecard.
101      Treasury should develop an action plan for the Hardest                                                                              Treasury has rejected this
         Hit Fund that includes steps to increase the numbers of                                                                             recommendation. It is important that
         homeowners assisted and to gain industry support for                                                                                Treasury change the status quo and fulfill
         Treasury-approved HHF programs. Treasury should set                                                                                 its role as steward over TARP programs,
         interim metrics for how many homeowners it intends to                                                                               make determinations of which programs
         assist in a Treasury-defined time period in each particular                                                                         are successful and which programs
         program (such as principal reduction, second lien reduction,                                                      X                 are not working, and ensure that HHF
         or reinstatement). If Treasury cannot achieve the desired                                                                           funds are reaching homeowners. This
         level of homeowners assisted in any one program area in                                                                             may include putting the funds toward
         the defined time period, Treasury should put the funds to                                                                           programs that are more successful at
         better use toward programs that are reaching homeowners.                                                                            reaching homeowners. It is unacceptable
                                                                                                                                             to delegate all of this responsibility to the
                                                                                                                                             states.
102      Treasury should stop allowing servicers to add a risk                                                                               Treasury has not implemented this
         premium to Freddie Mac’s discount rate in HAMP’s net                                                                                recommendation. The addition of a
         present value test.                                                                                                                 risk premium reduces the number
                                                                                                                                             of otherwise qualified homeowners
                                                                                                                           X
                                                                                                                                             Treasury helps through HAMP. Treasury
                                                                                                                                             should implement this recommendation
                                                                                                                                             to increase assistance to struggling
                                                                                                                                             homeowners.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                            Continued on next page
                                                                                                                                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013
                                                                                                                                                                                             299
                                                                                                                                                                                          300
SIGTARP RECOMMENDATIONS TABLE                  (CONTINUED)

                                                                                             Partially                    Not
         Recommendation                                                  Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
103      Treasury should ensure that servicers use accurate                                                                                  Treasury has not implemented this
         information when evaluating net present value test results                                                                          recommendation. Servicer errors using
         for homeowners applying to HAMP and should ensure that                                                                              NPV inputs and the lack of properly
         servicers maintain documentation of all net present value                                                                           maintained records on NPV inputs have
                                                                                                                           X
         test inputs. To the extent that a servicer does not follow                                                                          diminished compliance and placed the
         Treasury’s guidelines on input accuracy and documentation                                                                           protection of homeowner’s rights to
         maintenance, Treasury should permanently withhold                                                                                   challenge servicer error at risk.
         incentives from that servicer.
104      Treasury should require servicers to improve their                                                                                  Treasury has not implemented this
         communication with homeowners regarding denial of a                                                                                 recommendation. Servicers’ failure to
         HAMP modification so that homeowners can move forward                                                                               communicate denial in a timely manner
         with other foreclosure alternatives in a timely and fully                                                                           can have serious consequences because
                                                                                                                           X
         informed manner. To the extent that a servicer does not                                                                             a delay may prevent homeowners from
         follow Treasury’s guidelines on these communications,                                                                               finding other foreclosure alternatives
         Treasury should permanently withhold incentives from that                                                                           sooner.
         servicer.
105      Treasury should ensure that more detail is captured by the                                                                          Treasury has not implemented this
         Making Home Affordable Compliance Committee meeting                                                                                 recommendation. SIGTARP found a lack
         minutes regarding the substance of discussions related to                                                                           of detail in Treasury’s meeting minutes
         compliance efforts on servicers in HAMP. Treasury should                                                                            and because Treasury failed to document
                                                                                                                           X
         make sure that minutes clearly outline the specific problems                                                                        its oversight, SIGTARP was unable to
                                                                                                                                                                                          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




         encountered by servicers, remedial options discussed, and                                                                           verify Treasury’s role in the oversight of
         any requisite actions taken to remedy the situation.                                                                                servicers or its compliance agent Freddie
                                                                                                                                             Mac.
106      In order to protect taxpayers who funded TARP against any                                                                           Neither Treasury nor the Federal
         future threat that might result from LIBOR manipulation,                                                                            Reserve has agreed to implement this
         Treasury and the Federal Reserve should immediately                                                                                 recommendation despite Treasury telling
         change any ongoing TARP programs including, without                                                                                 SIGTARP that it “share[s SIGTARP’s]
         limitation, PPIP and TALF, to cease reliance on LIBOR.                                                                              concerns about the integrity” of LIBOR,
                                                                                                                           X
                                                                                                                                             and the Federal Reserve telling SIGTARP
                                                                                                                                             that it agreed that “recent information
                                                                                                                                             regarding the way the LIBOR has been
                                                                                                                                             calculated has created some uncertainty
                                                                                                                                             about the reliability of the rate.”
107      In order to protect taxpayers who invested TARP funds                                                                               On July 8, 2013, the Financial Stability
         into AIG to the fullest extent possible, Treasury and the                                                                           Oversight Council unanimously voted to
         Federal Reserve should recommend to the Financial Stability                                                                         designate AIG as systemically important.
                                                                               X
         Oversight Council that AIG be designated as a systemically
         important financial institution so that it receives the
         strongest level of Federal regulation.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
         Recommendation                                                    Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
108      In order to fulfill Treasury’s responsibility to wind down its                                                                      Treasury has not agreed to implement
         TARP Capital Purchase Program investments in a way that                                                                             this important recommendation.
         protects taxpayer interests, before allowing a TARP bank
         to purchase Treasury’s TARP shares at a discount to the
         TARP investment (for example as the successful bidder
         at auction), Treasury should undertake an analysis, in                                                            X
         consultation with Federal banking regulators, to determine
         that allowing the bank to redeem its TARP shares at a
         discount to the TARP investment outweighs the risk that the
         bank will not repay the full TARP investment. Treasury should
         document that analysis and consultation.
109      In order to fulfill Treasury’s responsibility to wind down its                                                                      Treasury has not agreed to implement
         TARP investments in a way that promotes financial stability                                                                         this important recommendation.
         and preserves the strength of our nation’s community
         banks, Treasury should undertake an analysis in consultation
         with Federal banking regulators that ensures that it is exiting
         its Capital Purchase Program investments in a way that
         satisfies the goals of CPP, which are to promote financial
         stability, maintain confidence in the financial system and                                                        X
         enable lending. This financial stability analysis of a bank’s
         exit from TARP should determine at a minimum: (1) that the
         bank will remain healthy and viable in the event of an auction
         of Treasury’s preferred shares; and (2) that the bank’s exit
         from TARP does not have a negative impact on the banking
         industry at a community, state, regional, and national level.
         Treasury should document that analysis and consultation.
110      Treasury should better document its decision whether or not                                                                         Treasury has not agreed to implement
         to auction its preferred shares in a TARP bank to adequately                                                                        this important recommendation, but
         reflect the considerations made for each bank and detailed                                                                          is reviewing its practices in light of
                                                                                                                           X
         rationale.                                                                                                                          SIGTARP’s recommendations. SIGTARP
                                                                                                                                             will monitor Treasury’s efforts to
                                                                                                                                             implement this recommendation.
111 *    Each year, Treasury should reevaluate total compensation                                                                            Treasury has not agreed to implement
         for those employees at TARP exceptional assistance                                                                                  this important recommendation.
                                                                                                                           X
         companies remaining in the Top 25 from the prior year,
         including determining whether to reduce total compensation.
112 *    To ensure that Treasury effectively applies guidelines aimed                                                                        Treasury has not agreed to implement
         at curbing excessive pay and reducing risk taking, Treasury                                                                         this important recommendation.
                                                                                                                           X
         should develop policies, procedures, and criteria for
         approving pay in excess of Treasury guidelines.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
                                                                                                                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013
                                                                                                                                                                                        301
                                                                                                                                                                                          302
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
         Recommendation                                                  Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
113 *    Treasury should independently analyze whether good cause                                                                            Treasury has not agreed to implement
         exists to award a Top 25 employee a pay raise or a cash                                                                             this important recommendation.
         salary over $500,000. To ensure that the Office of the
         Special Master has sufficient time to conduct this analysis,                                                      X
         Treasury should allow OSM to work on setting Top 25 pay
         prior to OSM’s receiving the company pay proposals, which
         starts the 60-day timeline.
114 *    To be consistent with Treasury’s Interim Final Rule that the                                                                        Treasury made some progress
         portion of performance-based compensation compared                                                                                  in implementing this important
         to total compensation should be greater for positions that                                                                          recommendation by including long-term
         exercise higher levels of responsibility, Treasury should                                                                           restricted stock in the 2013 Treasury-
         return to using long-term restricted stock for employees,                                           X                               approved pay packages. It is important
         particularly senior employees such as CEOs.                                                                                         that Treasury continue to address this
                                                                                                                                             recommendation by using long-term
                                                                                                                                             restricted stock in pay packages going
                                                                                                                                             forward.
115      Treasury should conduct in-depth research and analysis to                                                                           Treasury has agreed to implement this
         determine the causes of redefaults of HAMP permanent                                                                                important recommendation. Treasury
         mortgage modifications and the characteristics of loans                                                                             told SIGTARP that it is in the process of
         or the homeowner that may be more at risk for redefault.                                                                            conducting the recommended research.
         Treasury should require servicers to submit any additional                                                                          SIGTARP will monitor Treasury’s efforts to
                                                                                                                                                                                          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                                                             X
         information that Treasury needs to conduct this research                                                                            implement the recommendation.
         and analysis. Treasury should make the results of this
         analysis public and issue findings based on this analysis,
         so that others can examine, build on, and learn from this
         research.
116      As a result of the findings of Treasury’s research and                                                                              Treasury has agreed to consider this
         analysis into the causes of HAMP redefaults, and                                                                                    important recommendation, based on
         characteristics of redefaults, Treasury should modify                                                                        X      the results of research it is conducting.
         aspects of HAMP and the other TARP housing programs in                                                                              SIGTARP will monitor Treasury’s efforts to
         ways to reduce the number of redefaults.                                                                                            implement the recommendation.
117      Treasury should require servicers to develop and use                                                                                Treasury has agreed to implement
         an “early warning system” to identify and reach out to                                                                              this important recommendation and
         homeowners that may be at risk of redefaulting on a                                                                                 is considering taking further action.
                                                                                                                           X
         HAMP mortgage modification, including providing or                                                                                  SIGTARP will monitor Treasury’s efforts to
         recommending counseling and other assistance and                                                                                    implement the recommendation.
         directing them to other TARP housing programs.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                     (CONTINUED)

                                                                                             Partially                    Not
         Recommendation                                                     Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
118      In the letter Treasury already requires servicers to send to                                                                        Treasury has agreed to implement
         homeowners who have redefaulted on a HAMP modification                                                                              this important recommendation and
         about possible options to foreclosure, Treasury should                                                                              is considering taking further action.
         require the servicers to include other available alternative                                                                        SIGTARP will monitor Treasury’s efforts to
         assistance options under TARP such as the Hardest Hit                                                                               implement the recommendation.
                                                                                                                           X
         Fund and HAMP Tier 2, so that homeowners can move
         forward with other alternatives, if appropriate, in a timely
         and fully informed manner. To the extent that a servicer
         does not follow Treasury’s rules in this area, Treasury should
         permanently withhold incentives from that servicer.
119      Treasury and the Federal banking regulators should                                                                                  Treasury has not agreed to implement
         improve coordination when collaborating on current and                                                                              this important recommendation.
         future initiatives by (1) defining the roles of all participants
         at the outset of collaborative efforts by creating precise
         and directed governing documents (i.e., charters) that
         clearly address the responsibilities of each entity; and (2)                                                      X
         jointly documenting processes and procedures, including
         flowcharts, risk management tools, and reporting systems
         to ensure that objectives are met. Each participant should
         sign off to demonstrate their understanding of, and
         agreement with, these procedures.
120      To increase small-business lending by former TARP banks                                                                             Treasury has not agreed to implement
         participating in SBLF, Treasury should work with the banks                                                                          this important recommendation.
                                                                                                                           X
         to establish new, achievable plans to increase lending going
         forward.
121      To preserve the amount of capital former TARP banks                                                                                 Treasury has not agreed to implement
         participating in SBLF have to lend, the primary Federal                                                                             this important recommendation.
         banking regulators (the Federal Reserve, FDIC, or OCC)
                                                                                                                           X
         should not approve dividend distributions to common
         shareholders of former TARP banks that have not effectively
         increased small-business lending while in SBLF.
122      In order to prevent confusion, promote transparency, and                                                                            See discussion in this section
         present taxpayers who funded TARP with clear and accurate
         reporting, when Treasury discusses the amount of TARP
         funds (or CPP funds) recovered or repaid, Treasury should
         not count the $2.1 billion in TARP investments that Treasury
         refinanced into the Small Business Lending Fund, which is
         outside of TARP.
123      To ensure that homeowners in HAMP get sustainable relief                                                                            See discussion in this section
         from foreclosure, Treasury should research and analyze
         whether and to what extent the conduct of HAMP mortgage
         servicers may contribute to homeowners redefaulting
         on HAMP permanent mortgage modifications.To provide
         transparency and accountability, Treasury should publish its
                                                                                                                                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013




         conclusions and determinations.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
                                                                                                                                                                                          303
                                                                                                                                                                             304
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                            Partially                    Not
         Recommendation                                                     Implemented   Implemented   In Process   Implemented   TBD/NA   Comments
124      Treasury should establish an achievable benchmark for a                                                                            See discussion in this section
         redefault rate on HAMP permanent mortgage modifications
         that represents acceptable program performance and
         publicly report against that benchmark.
125      Treasury should publicly assess and report quarterly on                                                                            See discussion in this section
         the status of the ten largest HAMP servicers in meeting
         Treasury’s benchmark for an acceptable homeowner
         redefault rate on HAMP permanent mortgage modifications,
         indicate why any servicer fell short of the benchmark,
         require the servicer to make changes to reduce the
         number of homeowners who redefault in HAMP, and use
         enforcement remedies including withholding, permanently
         reducing, or clawing back incentive payments for any
         servicer that fails to comply in a timely manner.
126      To protect the investment taxpayers made through TARP in                                                                           See discussion in this section
         community banks and to ensure that these banks continue
         to lend in their communities which is a goal of TARP’s Capital
         Purchase Program, Treasury should enforce its right to
         appoint directors for CPP institutions that have failed to pay
         six or more quarterly TARP dividend or interest payments.
                                                                                                                                                                             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




127      In enforcing its right to appoint directors to the board                                                                           See discussion in this section
         of CPP institutions that have failed to pay six or more
         quarterly dividend or interest payments, Treasury should
         prioritize appointing directors to the board of those CPP
         institutions that meet one or more of the following criteria:
         (1) rejected Treasury’s request to send officials to observe
         board meetings; (2) have failed to pay a large number of
         TARP dividend payments or that owe the largest amount
         of delinquent TARP dividends; or (3) is currently subject to
         an order from their Federal banking regulator, particularly
         orders related to the health or condition of the bank or
         its board of directors. In addition, Treasury should use
         information learned from Treasury officials that have
         observed the bank’s board meetings to assist in prioritizing
         its determination of banks to which Treasury should appoint
         directors.
128      To protect the investment taxpayers made in TARP and to                                                                            See discussion in this section
         ensure that institutions continue to lend in low and moderate
         income communities which is the goal of TARP’s Community
         Development Capital Initiative, Treasury should enforce its
         right to appoint directors to CDCI institutions that have failed
         to pay eight or more TARP quarterly dividend (or interest)
         payments.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.
               ENDNOTES
                                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                  305


1.	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 1.
2.	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, pp. 2,16.
3.	    Treasury Press Release, “Treasury Department Releases Text of Letter from Secretary Geithner to Hill Leadership on Administration’s Exit
       Strategy for TARP,” 12/9/2009, www.treasury.gov/press-center/press-releases/Pages/tg433.aspx, accessed 10/1/2013.
4.	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 9.
5.	    Dodd-Frank Wall Street Reform and Consumer Protection Act, P.L. 111-203, 7/21/2010, pp. 1, 759.
6.	    Treasury, Daily TARP Update, 10/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
       10.01.2013.pdf, accessed 10/1/2013.
7.	    Treasury, Section 105(a) Report, 10/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202013%20
       Monthly%20Report%20to%20Congress.pdf, accessed 10/11/2013.
8.	    Treasury, response to SIGTARP data call, 10/3/2013; Treasury, Daily TARP Update, 10/1/2013, www.treasury.gov/initiatives/financial-stability/
       reports/Documents/Daily%20TARP%20Update%20-%2010.01.2013.pdf, accessed 10/1/2013.
9.	    Treasury, replies to SIGTARP data calls, various.
10.	   Treasury, Daily TARP Update, 10/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
       10.01.2013.pdf, accessed 10/1/2013.
11.	   Treasury, Daily TARP Update, 10/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
       10.01.2013.pdf, accessed 10/1/2013.
12.	   CBO, “Director’s Blog: Troubled Asset Relief Program,” 4/17/2009, www.cbo.gov/publication/24884, accessed 10/1/2013; OMB, “Analytical
       Perspectives: Budget of the U.S. Government – Fiscal Year 2011,” 2/1/2010, www.gpoaccess.gov/usbudget/fy11/pdf/spec.pdf, accessed
       10/1/2013.
13.	   CBO, “Report on the Troubled Asset Relief Program—May 2013,” www.cbo.gov/sites/default/files/cbofiles/attachments/44256_TARP.pdf,
       accessed 10/1/2013.
14.	   OMB, “Analytical Perspectives, Budget of the United States Government, Fiscal Year 2014,” 4/10/2013, www.whitehouse.gov/sites/default/files/
       omb/budget/fy2014/assets/econ_analyses.pdf, accessed 10/1/2013.
15.	   OMB, “OMB Report Under the Emergency Economic Stabilization Act, Section 202,” 8/31/2012, www.whitehouse.gov/sites/default/files/omb/
       reports/tarp_report_august_2012.pdf, accessed 10/1/2013.
16.	   OMB, “Analytical Perspectives, Budget of the United States Government, Fiscal Year 2014,” 4/10/2013, www.whitehouse.gov/sites/default/files/
       omb/budget/fy2014/assets/econ_analyses.pdf, accessed 10/1/2013.
17.	   Treasury, “Office of Financial Stability – Troubled Asset Relief Program Agency Financial Report Fiscal Year 2012,”11/8/2012, www.treasury.gov/
       initiatives/financial-stability/reports/Documents/2012_OFS_AFR_Final_11-9-12.pdf, accessed 10/1/2013.
18.	   Treasury, “Office of Financial Stability – Troubled Asset Relief Program Agency Financial Report Fiscal Year 2012,”11/8/2012, www.treasury.gov/
       initiatives/financial-stability/reports/Documents/2012_OFS_AFR_Final_11-9-12.pdf, accessed 10/1/2013.
19.	   Treasury, “Office of Financial Stability – Troubled Asset Relief Program Agency Financial Report Fiscal Year 2012,”11/8/2012, www.treasury.gov/
       initiatives/financial-stability/reports/Documents/2012_OFS_AFR_Final_11-9-12.pdf, accessed 10/1/2013.
20.	   Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
       Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013; Treasury, response to SIGTARP data call, 10/3/2013.
21.	   Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
       Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
22.	   Treasury, Section 105(a) Report, 10/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202013%20
       Monthly%20Report%20to%20Congress.pdf, accessed 10/11/2013; Treasury, response to SIGTARP data call, 10/3/2013.
23.	   Treasury, response to SIGTARP data call, 10/7/2013.
24.	   Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
       Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013; Treasury, response to SIGTARP data call, 10/9/2013.
25.	   Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
       Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
26.	   Treasury, Section 105(a) Report, 10/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202013%20
       Monthly%20Report%20to%20Congress.pdf, accessed 10/11/2013.
27.	   Treasury, replies to SIGTARP data calls, various.
28.	   Treasury, response to SIGTARP data call, 10/3/2013.
29.	   Treasury, Section 105(a) Report, 10/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202013%20
       Monthly%20Report%20to%20Congress.pdf, accessed 10/11/2013.
30.	   Treasury, response to SIGTARP data call, 10/3/2013.
31.	   Treasury, response to SIGTARP data call, 10/3/2013.
32.	   Treasury, response to SIGTARP data call, 10/3/2013.
33.	   Treasury Press Release, “Relief for Responsible Homeowners One Step Closer Under New Treasury Guidelines,” 3/4/2009, www.treasury.gov/
       press-center/press-releases/Pages/tg48.aspx, accessed 10/1/2013.
34.	   Treasury,“Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
       briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 10/1/2013.
35.	   Treasury, “Home Affordable Modification Program — Programs,” no date, www.hmpadmin.com/portal/programs/index.jsp, accessed 10/1/2013;
       Treasury, “Principal Reduction Alternative (PRA),” no date, www.makinghomeaffordable.gov/programs/lower-payments/Pages/pra.aspx, accessed
       10/1/2013; Treasury, “Treasury Announces Home Price Decline Protection Incentives,” 7/31/2009, www.hmpadmin.com/portal/news/docs/2009/
       hpdprelease073109.pdf, accessed 10/1/2013.
36.	   Treasury, response to SIGTARP data call, 10/3/2013.
37.	   Treasury, response to SIGTARP data call, 10/3/2013.
38.	   Treasury, response to SIGTARP data call, 10/3/2013.
306            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      39.	   Treasury, responses to SIGTARP data calls, 10/21/2013 and 10/23/2013.
      40.	   The White House, “President Obama Announces Help for Hardest Hit Housing Markets,” 2/19/2010, www.whitehouse.gov/the-press-office/
             president-obama-announces-help-hardest-hit-housing-markets, accessed 10/1/2013.
      41.	   Treasury, response to SIGTARP data call, 10/3/2013.
      42.	   Treasury, response to SIGTARP data call, 10/3/2013.
      43.	   Treasury, response to SIGTARP data call, 10/3/2013.
      44.	   Treasury, response to SIGTARP data call 10/9/2013.
      45.	   Treasury, briefing to SIGTARP and other Federal agency staff, 3/8/2013; Treasury, “AMENDMENT NO.1 TO FACILITY PURCHASE
             AGREEMENT,” 3/4/2013, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/mha/Documents_Contracts_Agreements/
             Citi%20Amendment%201%20to%20Facility%20Purchase%20Agreement.pdf, accessed 10/1/2013.
      46.	   Treasury, response to SIGTARP data call, 10/9/2013.
      47.	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 3.
      48.	   Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/
             cpp/Pages/capitalpurchaseprogram.aspx, accessed 10/1/2013.
      49.	   Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
             programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 10/1/2013.
      50.	   Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
             Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      51.	   Treasury, response to SIGTARP data call, 10/3/2013.
      52.	   Treasury, response to SIGTARP data call, 10/3/2013; Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/
             reports/Documents/10-02-13%20Transactions%20Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      53.	   Treasury, response to SIGTARP data call, 10/7/2013; Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/
             reports/Documents/10-02-13%20Transactions%20Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      54.	   Treasury, response to SIGTARP data call, 10/7/2013; Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/
             reports/Documents/10-02-13%20Transactions%20Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      55.	   Treasury, Section 105(a) Report, 10/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202013%20
             Monthly%20Report%20to%20Congress.pdf, accessed 10/11/2013; Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/
             financial-stability/reports/Documents/10-02-13%20Transactions%20Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      56.	   Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
             Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013; Treasury, response to SIGTARP data call, 10/3/2013.
      57.	   Treasury, Section 105(a) Report, 10/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202013%20
             Monthly%20Report%20to%20Congress.pdf, accessed 10/11/2013; Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/
             financial-stability/reports/Documents/10-02-13%20Transactions%20Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013;
             Treasury, response to SIGTARP data call, 10/3/2013.
      58.	   Treasury, response to SIGTARP data call, 10/7/2013.
      59.	   Treasury, response to SIGTARP draft report, 10/8/2010.
      60.	   Treasury, “Community Development Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-
             investment-programs/cdci/Pages/Overview.aspx, accessed 10/1/2013.
      61.	   Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
             Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      62.	   Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
             Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      63.	   Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
             Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      64.	   Treasury, Dividends and Interest Report, 10/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Sept%202013%20
             Dividends%20Interest%20Report.pdf, accessed 10/11/2013.
      65.	   Treasury, “Programs,” 5/7/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/AIG/Pages/default.aspx, accessed
             10/1/2013.
      66.	   Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
             9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 10/1/2013.
      67.	   Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
             Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      68.	   AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 10/1/2013; Treasury Press
             Release, “Treasury Department Statement on AIG’s Transaction Agreement,” 12/8/2010, www.treasury.gov/press-center/press-releases/Pages/
             tg996.aspx, accessed 10/1/2013.
      69.	   Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
             Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      70.	   Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
             Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013; AIG Press Release, “AIG Repurchases Warrants from U.S. Treasury,”
             3/1/2013, www.sec.gov/Archives/edgar/data/5272/000119312513086875/d495224dex991.htm, accessed 10/1/2013.
      71.	   Treasury, Daily TARP Update, 10/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
             10.01.2013.pdf, accessed 10/1/2013.
      72.	   Treasury, Daily TARP Update, 10/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
             10.01.2013.pdf, accessed 10/1/2013.
                                                                                      QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                307


73.	  Treasury Press Release, “Financial Stability Oversight Council Makes First Nonbank Financial Company Designations to Address Potential
      Threats to Financial Stability,” 7/9/2013, www.treasury.gov/press-center/press-releases/Pages/jl2004.aspx, accessed 10/1/2013.
74.	 Treasury, “Agency Financial Report: Fiscal Year 2009,” 12/10/2009, www.treasury.gov/about/organizational-structure/offices/Mgt/Documents/
      OFS%20AFR%2009_24.pdf, accessed 10/1/2013.
75.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
76.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
77.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
78.	 Treasury, “Agency Financial Report: Fiscal Year 2009,” 12/10/2009, www.treasury.gov/about/organizational-structure/offices/Mgt/Documents/
      OFS%20AFR%2009_24.pdf, accessed 10/1/2013.
79.	 Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,” 1/16/2009, www.treasury.gov/press-
      center/press-releases/Pages/hp1358.aspx, accessed 10/1/2013.
80.	 U.S. Senate, “Report Pursuant to Section 129 of the Emergency Economic Stabilization Act of 2008: Authorization to Provide Residual
      Financing to Citigroup, Inc. For a Designated Asset Pool,” 11/23/2008, www.banking.senate.gov/public/_files/Sec129ReportCitigroupDec12008.
      pdf, accessed 10/1/2013.
81.	 Treasury, “Treasury Prices Sale of Citigroup Subordinated Notes for Proceeds of $894 Million, Providing an Additional Profit for Taxpayers on
      TARP Citigroup Investment,” 2/5/2013, www.treasury.gov/press-center/press-releases/Pages/tg1841.aspx, accessed 10/1/2013.
82.	 Treasury, “Treasury Prices Sale of Citigroup Subordinated Notes for Proceeds of $894 Million, Providing an Additional Profit for Taxpayers on
      TARP Citigroup Investment,” 2/5/2013, www.treasury.gov/press-center/press-releases/Pages/tg1841.aspx, accessed 10/1/2013.
83.	 Federal Reserve Press Release, untitled, 11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 10/1/2013.
84.	 FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed
      10/1/2013.
85.	 FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.html, accessed
      10/1/2013; FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS, Recent Operations,” no date, www.newyorkfed.org/markets/
      TALF_recent_operations.html, accessed 10/1/2013; FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.
      org/markets/cmbs_operations.html, accessed 10/1/2013; FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS, Recent Operations,” no
      date, www.newyorkfed.org/markets/CMBS_recent_operations.html, accessed 10/1/2013; FRBNY, response to SIGTARP data call, 10/4/2013.
86.	 FRBNY, response to SIGTARP data call, 10/4/2013.
87.	 Treasury Press Release, “Treasury Announces Full Repayment with Interest for Investment Through TALF Financial Crisis Response Program
      Designed to Unlock Credit for Consumers, Businesses,” 1/15/2013, www.treasury.gov/press-center/press-releases/Pages/tg1821.aspx, accessed
      10/1/2013.
88.	 FRBNY, response to SIGTARP data call, 10/4/2013.
89.	 Treasury Press Release, “Treasury Department Releases Details on Public Private Partnership Investment Program,” 3/23/2009, www.treasury.
      gov/press-center/press-releases/Pages/tg65.aspx, accessed 10/1/2013.
90.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013; Treasury, response to SIGTARP data call, 10/7/2013.
91.	 Treasury, response to SIGTARP data call, 10/7/2013.
92.	 Treasury Press Release, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treasury.gov/press-center/press-releases/Pages/
      tg58.aspx, accessed 10/1/2013.
93.	 Treasury Press Release, “Treasury Completes Wind Down of TARP Small Business Program, Realizes $8 Million Gain for Taxpayers,”1/25/2012,
      www.treasury.gov/press-center/press-releases/Pages/tg1398.aspx, accessed 10/1/2013.
94.	 Treasury, “Guidelines for Automotive Industry Financing Program,” no date, www.treasury.gov/initiatives/financial-stability/programs/Other%20
      Programs/aifp/Documents_Contracts_Agreements/AIFP_guidelines.pdf, accessed 10/1/2013.
95.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013; Treasury, Daily TARP Update, 10/1/2013, www.treasury.gov/
      initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%2010.01.2013.pdf, accessed 10/1/2013.
96.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
97.	 Treasury, Dividends and Interest Report, 10/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Sept%202013%20
      Dividends%20Interest%20Report.pdf, accessed 10/10/2013; Treasury, Daily TARP Update, 10/1/2013, www.treasury.gov/initiatives/financial-
      stability/reports/Documents/Daily%20TARP%20Update%20-%2010.01.2013.pdf, accessed 10/1/2013.
98.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
99.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
100.	 Treasury, response to SIGTARP data call, 10/3/2013.
101.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013; Treasury, response to SIGTARP data call, 10/3/2013.
102.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013; Treasury, response to SIGTARP data call, 10/3/2013.
308             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      103.	 Ally Financial Press Release, “Ally Financial Announces Key Strategic Actions to Strengthen Company and Accelerate Ability to Repay U.S.
            Treasury,” 5/14/2012, media.ally.com/index.php?s=43&item=543, accessed 10/1/2013; In Re Residential Capital, LLC, Case No. 12-12020,
            U.S. Bankruptcy Court for the Southern District of New York, Order Granting Debtors’ Motion for an Order Under Bankruptcy Code Sections
            105(A) and 363(B) Authorizing the Debtors to Enter into a Plan Support Agreement with Ally Financial Inc., the Creditors’ Committee, and
            Certain Consenting Claimants, 6/26/2013, www.rescaprmbssettlement.com/docs/4098.pdf, accessed 10/1/2013.
      104.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013; Treasury, response to SIGTARP data call, 10/3/2013.
      105.	 Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” 7/21/2011, www.treasury.gov/press-center/press-releases/Pages/
            tg1253.aspx, accessed 10/1/2013.
      106.	 Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” 7/21/2011, www.treasury.gov/press-center/press-releases/Pages/
            tg1253.aspx, accessed 10/1/2013.
      107.	 Treasury, Section 105(a) Report, 10/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202013%20
            Monthly%20Report%20to%20Congress.pdf, accessed 10/11/2013.
      108.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013; Treasury, response to SIGTARP data call, 10/3/2013.
      109.	 Treasury, “Auto Supplier Support Program: Stabilizing the Auto Industry at a Time of Crisis,” no date, www.treasury.gov/initiatives/financial-
            stability/programs/Other%20Programs/aifp/Documents/supplier_support_program_3_18.pdf, accessed 10/1/2013.
      110.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013; Treasury, response to SIGTARP data call, 10/7/2013.
      111.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013; Treasury, response to SIGTARP data call, 10/3/2013.
      112.	 Obama, Barack, “Remarks by the President on the Home Mortgage Crisis,” 2/18/2009, www.whitehouse.gov/the_press_office/Remarks-by-the-
            President-on-the-mortgage-crisis/, accessed 10/1/2013.
      113.	 Treasury Press Release, “Homeowner Affordability and Stability Plan: Executive Summary,” 2/18/2009, www.treasury.gov/press-center/press-
            releases/Pages/tg33.aspx, accessed 10/1/2013.
      114.	 Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 8/20/2010.
      115.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      116.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      117.	 Treasury, response to SIGTARP data call, 6/25/2013.
      118.	 Congressional Budget Office, “Report on the Troubled Asset Relief Program,” 3/2010, www.cbo.gov/sites/default/files/cbofiles/ftpdocs/112xx/
            doc11227/03-17-tarp.pdf, accessed 10/1/2013.
      119.	 Treasury, Daily TARP Update, 10/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
            10.01.2013.pdf, accessed 10/1/2013; Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/
            reports/Documents/Housing%20Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 10/2/2013.
      120.	 Treasury, “Home Affordable Modification Program: Overview,” undated, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 10/1/2013.
      121.	 Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
            briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 10/1/2013.
      122.	 Treasury, responses to SIGTARP data calls, 10/21/2013 and 10/23/2013; Fannie Mae, response to SIGTARP data call, 10/21/2013.
      123.	 Treasury, “Secretaries Geithner, Donovan Announce New Details of Making Home Affordable Program, Highlight Implementation Progress,”
            5/14/2009, www.treasury.gov/press-center/press-releases/Pages/tg131.aspx, accessed 10/1/2013.
      124.	 Treasury, response to SIGTARP data call, 10/9/2013.
      125.	 Fannie Mae, response to SIGTARP vetting draft, 10/6/2010.
      126.	 Treasury, response to SIGTARP data call, 10/23/2013.
      127.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      128.	 Treasury, response to SIGTARP data call, 10/23/2013.
      129.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      130.	 Treasury, response to SIGTARP data call, 10/23/2013.
      131.	 Treasury, “Home Affordable Foreclosure Alternatives Program: Overview,” no date, www.hmpadmin.com/portal/programs/foreclosure_
            alternatives.jsp, accessed 10/1/2013.
      132.	 Treasury, response to SIGTARP data call, 10/23/2013.
      133.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      134.	 Treasury, response to SIGTARP data call, 10/9/2013.
      135.	 Treasury, response to SIGTARP data call, 10/23/2013.
      136.	 Treasury, response to SIGTARP data call, 10/23/2013.
      137.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013; Department of Veterans Affairs, “Revised VA Making Home
            Affordable Program, Circular 26-10-6,” 7/5/2012, www.benefits.va.gov/HOMELOANS/circulars/26_10_6_change1.pdf, accessed 10/1/2013.
      138.	 Treasury, response to SIGTARP data call, 10/23/2013.
      139.	 Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
            briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 10/1/2013.
      140.	 Treasury, response to SIGTARP data call, 10/9/2013.
                                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                  309


141.	 Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
      briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 10/1/2013.
142.	 Treasury, response to SIGTARP data call, 10/3/2013.
143.	 Treasury, briefing to SIGTARP and other Federal agency staff, 3/8/2013; Treasury, “AMENDMENT NO.1 TO FACILITY PURCHASE
      AGREEMENT,” 3/4/2013, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/mha/Documents_Contracts_Agreements/
      Citi%20Amendment%201%20to%20Facility%20Purchase%20Agreement.pdf, accessed 10/1/2013.
144.	 Treasury, response to SIGTARP data call, 10/9/2013.
145.	 Treasury, Daily TARP Update, 10/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
      10.01.2013.pdf, accessed 10/1/2013.
146.	 Treasury, Daily TARP Update, 10/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
      10.01.2013.pdf, accessed 10/1/2013; Treasury, response to SIGTARP data call, 10/3/2013.
147.	 Treasury, response to SIGTARP data call, 10/3/2013; Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/
      financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 10/2/2013.
148.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/1/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date,
      www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Quarterly%20Report%20Q22013%20
      revised%2009.12.13.pdf, accessed 10/1/2013; Treasury, responses to SIGTARP data calls, 7/5/2013, 10/7/2013, and 10/17/2013; Arizona
      (Home) Foreclosure Prevention funding Corporation, “Hardest Hit Fund Reporting, Hardest Hit Fund – 2nd Quarter 2013, no date, www.
      azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed 9/30/2013.
149.	 Treasury, Daily TARP Update, 10/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
      10.01.2013.pdf, accessed 10/1/2013; Treasury, Daily TARP Update, 4/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/
      Daily%20TARP%20Update%20-%2004%2001%202013.pdf, accessed 10/1/2013; Treasury, briefing to SIGTARP and other Federal agency
      staff, 3/8/2013; Treasury, “AMENDMENT NO.1 TO FACILITY PURCHASE AGREEMENT,” 3/4/2013, www.treasury.gov/initiatives/financial-
      stability/TARP-Programs/housing/mha/Documents_Contracts_Agreements/Citi%20Amendment%201%20to%20Facility%20Purchase%20
      Agreement.pdf, accessed 10/1/2013.
150.	 Treasury, response to SIGTARP data call, 10/9/2013.
151.	 Treasury, response to SIGTARP data call, 10/3/2013.
152.	 SIGTARP, “Quarterly Report to Congress,” 10/26/2010, www.sigtarp.gov/Quarterly%20Reports/October2010_Quarterly_Report_to_Congress.
      pdf, accessed 10/1/2013; Treasury, response to SIGTARP data call, 10/3/2013.
153.	 Treasury, responses to SIGTARP data calls, 10/3/2013 and 10/9/2013.
154.	 Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 10/2/2013; Treasury, response to SIGTARP data call, 10/9/2013.
155.	 Treasury, response to SIGTARP data call, 10/3/2013; Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/
      financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 10/2/2013.
156.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/1/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date,
      www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Quarterly%20Report%20Q22013%20
      revised%2009.12.13.pdf, accessed 10/1/2013; Treasury, responses to SIGTARP data calls, 7/5/2013, 10/7/2013, and 10/17/2013; Arizona
      (Home) Foreclosure Prevention funding Corporation, “Hardest Hit Fund Reporting, Hardest Hit Fund – 2nd Quarter 2013, no date, www.
      azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed 9/30/2013.
157.	 Treasury, briefing to SIGTARP and other Federal agency staff, 3/8/2013; Treasury, “AMENDMENT NO.1 TO FACILITY PURCHASE
      AGREEMENT,” 3/4/2013, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/mha/Documents_Contracts_Agreements/
      Citi%20Amendment%201%20to%20Facility%20Purchase%20Agreement.pdf, accessed 10/1/2013.
158.	 Treasury, responses to SIGTARP data calls, 10/3/2013 and 10/9/2013.
159.	 Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 8/20/2010.
160.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
161.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
162.	 Treasury, response to SIGTARP data call, 10/22/2013.
163.	 Treasury, responses to SIGTARP data calls, 10/23/2013; Fannie Mae, response to SIGTARP data call, 10/21/2013; OCC, “Mortgage Metrics
      Report, Second Quarter 2013,” 9/26/2013, www.occ.gov/publications/publications-by-type/other-publications-reports/mortgage-metrics-2013/
      mortgage-metrics-q2-2013.pdf, accessed 10/8/2013; In its “Mortgage Metrics Report, Second Quarter 2013,” OCC compared a snapshot of
      HAMP permanent modifications and private modifications, from the second quarter of 2011 through the first quarter of 2013, between three
      and 15 months after the modifications became effective, and 60 or more days late on payments.
164.	 Treasury, responses to SIGTARP data calls, 10/7/2013, 10/21/2013, and 10/23/2013.
165.	 SIGTARP analysis of Treasury HAMP data; Treasury, response to SIGTARP data call, 10/1/2013.
166.	 Treasury, responses to SIGTARP data calls, 4/19/2013, 5/23/2013, 7/19/2013, 10/21/2013, and 10/23/2013; Fannie Mae, responses to
      SIGTARP data calls, 4/19/2013, 5/2212013, 10/21/2013, and 10/23/2013.
167.	 Treasury, “HAMP Redefault Tables 1-16-September 2013,” accessed 10/23/2013.
168.	 Treasury, “HAMP Redefault Tables 1-16-September 2013,” accessed 10/23/2013.
169.	 Treasury, “Making Home Affordable, Program Performance Report Through August 2013,” 10/11/2013, www.treasury.gov/initiatives/financial-
      stability/reports/Documents/August%202013%20MHA%20Report%20Final.pdf, accessed 10/18/2013.
170.	 Treasury, responses to SIGTARP data calls, 1/21/2011, 1/20/2012, 1/22/2013, 2/28/2013, 4/19/2013, 5/23/2013, 10/21/2013, and 10/23/2013;
      Fannie Mae, responses to SIGTARP data calls, 4/19/2013, 5/22/2013, and 10/21/2013.
310            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      171.	 Treasury, responses to SIGTARP data calls, 10/21/2013 and 10/22/2013; Fannie Mae, responses to SIGTARP data calls, 10/21/2013 and
            10/22/2013.
      172.	 Treasury, responses to SIGTARP data calls, 10/21/2013 and 10/22/2013; Fannie Mae, responses to SIGTARP data calls, 10/21/2013 and
            10/22/2013.
      173.	 Treasury, responses to SIGTARP data calls, 10/7/2013, 10/21/2013, and 10/23/2013; Fannie Mae, response to SIGTARP data call, 10/21/2013.
      174.	 Treasury, responses to SIGTARP data calls, 10/7/2013, 10/21/2013, and 10/23/2013; Fannie Mae, response to SIGTARP data call, 10/21/2013.
      175.	 Treasury, response to SIGTARP data call, 10/9/2013.
      176.	 Treasury, response to SIGTARP data call, 10/7/2013.
      177.	 Treasury, responses to SIGTARP data calls, 10/7/2013 and 10/9/2013.
      178.	 Treasury, response to SIGTARP data call, 10/7/2013.
      179.	 Treasury, response to SIGTARP data call, 10/23/2013.
      180.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      181.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      182.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      183.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      184.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      185.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      186.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      187.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      188.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      189.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      190.	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/Audit%20Reports/
            Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 10/1/2013.
      191.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      192.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      193.	 Treasury, response to SIGTARP data call, 10/23/2013; Fannie Mae, response to SIGTARP data call, 10/21/2013.
      194.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      195.	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/Audit%20Reports/
            Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 10/1/2013.
      196.	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/Audit%20Reports/
            Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 10/1/2013.
      197.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      198.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      199.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      200.	 Treasury, “Supplemental Directive 13-08, Making Home Affordable Program – Borrower Post-Modification Counseling and Servicer Incentives,”
            9/30/2013, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1308.pdf, accessed 10/10/2013.
      201.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      202.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      203.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      204.	 Treasury, response to SIGTARP data call, 10/3/2013; Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/financial-
            stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 10/2/2013.
      205.	 Treasury, “MEMORANDUM OF AGREEMENT Between the U.S. Department of the Treasury and NeighborWorks America,” 2/14/2013,
            www.treasury.gov/initiatives/financial-stability/Documents/NeighborWorks%20America%20Memorandum%20of%20Agreement.pdf, accessed
            10/1/2013.
      206.	 Treasury, “MEMORANDUM OF AGREEMENT Between the U.S. Department of the Treasury and NeighborWorks America,” 2/14/2013,
            www.treasury.gov/initiatives/financial-stability/Documents/NeighborWorks%20America%20Memorandum%20of%20Agreement.pdf, accessed
            10/1/2013.
                                                                                     QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013             311


207.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.
      hmpadmin.com/portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013; NeighborWorks, “Making Home
      Affordable Outreach and Intake Project Funding Announcement, Revised,” 3/7/2013, www.nw.org/network/foreclosure/documents/
      MHAOutreachandIntakeProjectFundingAnnouncementRevised3713.pdf, accessed 10/1/2013; NeighborWorks, “Making Home Affordable
      Outreach and Intake Project Eligible Applicant Briefing for NeighborWorks Organizations,” 3/6/2013.
208.	 Treasury, “MEMORANDUM OF AGREEMENT Between the U.S. Department of the Treasury and NeighborWorks America,” 2/14/2013,
      www.treasury.gov/initiatives/financial-stability/Documents/NeighborWorks%20America%20Memorandum%20of%20Agreement.pdf, accessed
      10/1/2013.
209.	 Treasury, response to SIGTARP data call, 10/8/2013.
210.	 Treasury, response to SIGTARP data call, 10/8/2013.
211.	 Treasury, response to SIGTARP data call, 10/8/2013.
212.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
213.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
214.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
215.	 Treasury, “Expanding our efforts to help more homeowners and strengthen hard-hit communities,” 1/27/2012, www.treasury.gov/connect/blog/
      Pages/Expanding-our-efforts-to-help-more-homeowners-and-strengthen-hard-hit-communities.aspx, accessed 10/1/2013.
216.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
217.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
218.	 Treasury, response to SIGTARP data call, 10/21/2013.
219.	 Treasury, response to SIGTARP data call, 10/3/2013.
220.	 Treasury, response to SIGTARP data call, 10/3/2013.
221.	 Treasury, response to SIGTARP data call, 11/2/2012.
222.	 Treasury, responses to SIGTARP data call, 10/9/2013 and 10/21/2013.
223.	 Treasury, response to SIGTARP data call, 10/21/2013.
224.	 Treasury, response to SIGTARP data call, 10/21/2013.
225.	 Treasury, response to SIGTARP data call, 10/21/2013.
226.	 Treasury, response to SIGTARP data call, 10/21/2013.
227.	 Treasury, response to SIGTARP data call, 10/21/2013.
228.	 Treasury, response to SIGTARP data call, 10/21/2013.
229.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
230.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013
231.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
232.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
233.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
234.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
235.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
236.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
237.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
238.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
239.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
240.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
241.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
242.	 Treasury, response to SIGTARP data call, 10/9/2013.
243.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
244.	 Treasury, “HAMP: Modification of Loans with Principal Reduction Alternative,” no date, www.hmpadmin.com/portal/programs/docs/hamp_
      servicer/praoverviewnongse.pdf, accessed 10/1/2013.
312             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      245.	   Treasury, response to SIGTARP data call, 10/23/2013.
      246.	   Treasury, response to SIGTARP data call, 10/23/2013.
      247.	   Treasury, response to SIGTARP data call, 10/23/2013.
      248.	   Treasury, response to SIGTARP data call, 10/23/2013.
      249.	   Treasury, response to SIGTARP data call, 10/23/2013.
      250.	   Treasury, response to SIGTARP data call, 10/23/2013.
      251.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      252.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      253.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      254.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      255.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      256.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      257.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      258.	   Treasury, response to SIGTARP data call, 10/9/2013.
      259.	   Treasury Press Release, “Housing Program Enhancements Offer Additional Options for Struggling Homeowners,” 3/26/2010, www.treasury.gov/
              press-center/press-releases/Pages/tg614.aspx, accessed 10/1/2013.
      260.	   Treasury, response to SIGTARP data call, 10/23/2013.
      261.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      262.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      263.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      264.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      265.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      266.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      267.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      268.	   Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 3/26/2010,www.makinghomeaffordable.gov/
              programs/Documents/HAMP%20Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 10/1/2013.
      269.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      270.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      271.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      272.	   Treasury, “HAMP Update — New Program Offers Borrowers Foreclosure Alternatives,” 11/30/2009, www.hmpadmin.com/portal/news/
              docs/2009/hampupdate113009.pdf, accessed 10/1/2013.
      273.	   Treasury, response to SIGTARP data call, 10/3/2013.
      274.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      275.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      276.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      277.	   Treasury, response to SIGTARP data call, 10/9/2013.
      278.	   Treasury, response to SIGTARP data call, 10/23/2013.
      279.	   Treasury, response to SIGTARP data call, 10/17/2013.
      280.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      281.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      282.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
      283.	   Treasury, response to SIGTARP data call, 10/23/2013.
      284.	   Treasury, response to SIGTARP data call, 10/23/2013.
                                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                 313


285.	   Treasury, response to SIGTARP data call, 10/9/2013.
286.	   Treasury, response to SIGTARP data call, 10/9/2013.
287.	   Treasury, response to SIGTARP data call, 10/23/2013.
288.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
289.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
290.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
291.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
292.	   Treasury, response to SIGTARP data call, 10/9/2013.
293.	   Treasury, response to SIGTARP data call, 10/9/2013.
294.	   Treasury, response to SIGTARP data call, 10/23/2013.
295.	   Department of Veterans Affairs, “Revised VA Making Home Affordable Program, Circular 26-10-6,” 5/24/2010, www.benefits.va.gov/
        HOMELOANS/circulars/26_10_6.pdf, accessed 10/1/2013.
296.	   HUD, “Mortgagee Letter 2010-23,” 8/6/2010, www.hud.gov/offices/adm/hudclips/letters/mortgagee/files/10-23ml.pdf, accessed 10/1/2013;
        Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
297.	   Treasury, response to SIGTARP data call, 10/9/2013.
298.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 10/4/2013.
299.	   Treasury, “Housing Finance Agency Innovation Fund for the Hardest Hit Housing Markets,” 2/2010, www.treasury.gov/initiatives/financial-
        stability/TARP-Programs/housing/Documents/HFA%20Proposal%20Guidelines%20-%201st%20Rd.pdf, accessed 10/1/2013.
300.	   Treasury, “Obama Administration Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,”
        6/23/2010, www.treasury.gov/press-center/press-releases/Pages/tg757.aspx, accessed 10/1/2013.
301.	   Treasury, “Obama Administration Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,”
        6/23/2010, www.treasury.gov/press-center/press-releases/Pages/tg757.aspx, accessed 10/1/2013.
302.	   Treasury, “Administration Announces Second Round of Assistance for Hardest-Hit Housing Markets,” 3/29/2010, www.treasury.gov/press-
        center/press-releases/Pages/tg618.aspx, accessed 10/1/2013.
303.	   National Council of State Housing Agencies, “Hardest Hit Foreclosure Initiative,” no date, www.ncsha.org/advocacy-issues/hardest-hit-
        foreclosure-initiative, accessed 10/1/2013.
304.	   HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling
        with Unemployment,” 8/11/2010, portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176, accessed
        10/1/2013.
305.	   HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure Prevention Programs to Help Homeowners Struggling
        With Unemployment,” 8/11/2010, portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176, accessed
        10/1/2013.
306.	   Treasury, Transactions Report-Housing Programs, 12/27/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2012.27.2012.pdf, accessed 10/1/2013.
307.	   Treasury, “TARP: Two Year Retrospective,” 10/5/2010, pp. 76, 98, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_
        reports/Documents/TARP%20Two%20Year%20Retrospective_10%2005%2010_transmittal%20letter.pdf, accessed 10/1/2013.
308.	   Treasury, response to SIGTARP data call, 10/3/2013; Treasury, “Hardest Hit Fund, Archived Program Information, Participation Agreements,
        Amendments, and Initial Program Guidelines,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/
        Archival-information.aspx, accessed 10/1/2013; SIGTARP analysis of HFA participation agreements and amendments.
309.	   Treasury, response to SIGTARP data call, 10/3/2013.
310.	   Treasury, response to SIGTARP data call, 10/3/2013; Treasury, Transactions Report-Housing Programs, 9/27/2013, www.treasury.gov/initiatives/
        financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2009.27.2013.pdf, accessed 10/2/2013.
311.	   Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/1/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date,
        www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Quarterly%20Report%20Q22013%20
        revised%2009.12.13.pdf, accessed 10/1/2013; Treasury, response to SIGTARP data call, 7/5/2013.
312.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/3/2013.
313.	   SIGTARP, “Quarterly Report to Congress,” 7/28/2011; Treasury, response to SIGTARP data call, 10/9/2013.
314.	   SIGTARP analysis of HFA quarterly performance reports; Treasury, response to SIGTARP data call, 10/3/2013.
315.	   Treasury, response to SIGTARP data call, 10/3/2013.
316.	   Treasury, response to SIGTARP data call, 10/10/2013.
317.	   Treasury, briefing to SIGTARP and other Federal agency staff, 3/8/2013; Treasury, “AMENDMENT NO.1 TO FACILITY PURCHASE
        AGREEMENT,” 3/4/2013, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/mha/Documents_Contracts_Agreements/
        Citi%20Amendment%201%20to%20Facility%20Purchase%20Agreement.pdf, accessed 10/1/2013.
318.	   Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/25/2010, www.makinghomeaffordable.gov/news/
        latest/Documents/FHA_Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 10/1/2013.
319.	   Treasury, response to SIGTARP data call, 10/9/2013.
320.	   Treasury, response to SIGTARP data call, 10/9/2013.
321.	   Treasury, response to SIGTARP data call, 10/9/2013.
322.	   Treasury, response to SIGTARP data call, 10/9/2013.
314            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      323.	 HUD, “Mortgagee Letter 2010-23,” 8/6/2010, www.hud.gov/offices/adm/hudclips/letters/mortgagee/files/10-23ml.pdf, accessed 10/1/2013;
            HUD, response to SIGTARP draft, 1/10/2011.
      324.	 HUD, response to SIGTARP vetting draft, 1/19/2011.
      325.	 HUD, response to SIGTARP draft report, 1/10/2011.
      326.	 HUD, “Mortgagee Letter 2010-23: FHA Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hud.gov/offices/adm/hudclips/
            letters/mortgagee/files/10-23ml.pdf, accessed 10/1/2013.
      327.	 HUD, “Mortgagee Letter 2010-23: FHA Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hud.gov/offices/adm/hudclips/
            letters/mortgagee/files/10-23ml.pdf, accessed 10/1/2013; HUD, response to SIGTARP draft report, 3/31/2011.
      328.	 Treasury, responses to SIGTARP data calls, 7/10/2013 and 10/3/2013.
      329.	 Treasury, response to SIGTARP data call, 1/11/2013; Treasury, briefing to SIGTARP and other Federal agency staff, 3/8/2013.
      330.	 Treasury, responses to SIGTARP data calls, 6/25/2013 and 7/10/2013.
      331.	 Treasury conference call, 3/19/2009.
      332.	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
            programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 7/13/2012.
      333.	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
            programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 7/13/2012.
      334.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      335.	 Treasury, Security Purchase Agreement Standard Terms, 4/21/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-
            programs/cpp/Documents/spa.pdf, accessed 10/1/2013.
      336.	 Treasury, “TARP Capital Purchase Program (Non-Public QFIs, excluding S Corps and Mutual Organizations),” 7/22/2012, www.treasury.
            gov/initiatives/financial-stability/programs/investment-programs/cpp/Documents/Term%20Sheet%20-%20Private%20C%20Corporations.pdf,
            accessed 10/1/2013.
      337.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      338.	 Treasury, response to SIGTARP data call, 10/7/2013.
      339.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013; Treasury, response to SIGTARP data call, 10/7/2013.
      340.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      341.	 Treasury, Section 105(a) Report, 10/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202013%20
            Monthly%20Report%20to%20Congress.pdf, accessed 10/15/2013; Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/
            financial-stability/reports/Documents/10-02-13%20Transactions%20Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013;
            Treasury, response to SIGTARP data call, 10/7/2013.
      342.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      343.	 Treasury, response to SIGTARP data call, 10/3/2013; Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/
            reports/Documents/10-02-13%20Transactions%20Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      344.	 Treasury, response to SIGTARP data call, 10/7/2013; Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/
            reports/Documents/10-02-13%20Transactions%20Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      345.	 Treasury, response to SIGTARP data call, 10/7/2013; Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/
            reports/Documents/10-02-13%20Transactions%20Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      346.	 Treasury, response to SIGTARP data call, 10/3/2013.
      347.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      348.	 Treasury, Dividends and Interest Report, 10/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Sept%202013%20
            Dividends%20Interest%20Report.pdf, accessed 10/10/2013.
      349.	 Treasury, response to SIGTARP data call 10/7/2013; Treasury, Dividends and Interest Report, 10/10/2013, www.treasury.gov/initiatives/financial-
            stability/reports/Documents/Sept%202013%20Dividends%20Interest%20Report.pdf, accessed 10/10/2013.
      350.	 Treasury, Dividends and Interest Report, 10/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Sept%202013%20
            Dividends%20Interest%20Report.pdf, accessed 10/10/2013.
      351.	 Treasury, Dividends and Interest Report, 10/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Sept%202013%20
            Dividends%20Interest%20Report.pdf, accessed 10/10/2013.
      352.	 Treasury, Dividends and Interest Report, 10/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Sept%202013%20
            Dividends%20Interest%20Report.pdf, accessed 10/10/2013.
      353.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 10/1/2013.
      354.	 Treasury, response to SIGTARP data call, 10/3/2013; OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,”
            no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20
            Observer%20Fact%20Sheet.pdf, accessed 10/1/2013.
      355.	 Treasury, response to SIGTARP data call 10/3/2013; OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,”
            no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20
            Observer%20Fact%20Sheet.pdf, accessed 10/1/2013.
      356.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed
            10/1/2013.
                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013               315


357.	 Treasury meeting with SIGTARP staff, 9/19/2013.
358.	 Treasury, Dividends and Interest Report, 10/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Sept%202013%20
      Dividends%20Interest%20Report.pdf, accessed 10/10/2013.
359.	 Treasury, response to SIGTARP data call, 10/3/2013.
360.	 Treasury, response to SIGTARP data call, 10/3/2013.
361.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed
      10/1/2013.
362.	 Treasury, Dividends and Interest Report, 10/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Sept%202013%20
      Dividends%20Interest%20Report.pdf, accessed 10/10/2013.
363.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed
      10/1/2013.
364.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed
      10/1/2013.
365.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed
      10/1/2013.
366.	 Treasury, response to SIGTARP data call, 10/7/2013.
367.	 Treasury, Dividends and Interest Report, 10/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Sept%202013%20
      Dividends%20Interest%20Report.pdf, accessed 10/10/2013.
368.	 Treasury, Dividends and Interest Report, 10/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Sept%202013%20
      Dividends%20Interest%20Report.pdf, accessed 10/10/2013.
369.	 Treasury, Dividends and Interest Report, 10/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Sept%202013%20
      Dividends%20Interest%20Report.pdf, accessed 10/10/2013.
370.	 Treasury, Dividends and Interest Report, 10/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Sept%202013%20
      Dividends%20Interest%20Report.pdf, accessed 10/10/2013.
371.	 Treasury, Dividends and Interest Report, 10/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Sept%202013%20
      Dividends%20Interest%20Report.pdf, accessed 10/10/2013.
372.	 Treasury, Dividends and Interest Report, 10/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Sept%202013%20
      Dividends%20Interest%20Report.pdf, accessed 10/10/2013.
373.	 Treasury, Dividends and Interest Report, 10/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Sept%202013%20
      Dividends%20Interest%20Report.pdf, accessed 10/10/2013.
374.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
375.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013; Treasury, response to SIGTARP data call, 10/3/2013.
376.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
377.	 United States Bankruptcy Court, Eastern District of Arkansas, “Rogers Bancshares, Inc.: Voluntary Petition, Chapter 11,” filed 7/5/2013, Case
      no. 4:13-bk-13838, ecf.areb.uscourts.gov/doc1/026115886193, accessed 10/9/2013.
378.	 Treasury, response to SIGTARP data call, 10/21/2013.
379.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
380.	 United States Bankruptcy Court, Western District of Wisconsin, “Anchor BanCorp Wisconsin, Inc.: Voluntary Petition, Chapter 11,” filed
      8/12/2013, Case no. 3-13-14003-rdm, ecf.wiwb.uscourts.gov/doc1/20416484033, accessed 10/9/2013.
381.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
382.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
383.	 Treasury, responses to SIGTARP data calls, various.
384.	 Treasury conference call, 3/19/2010; Treasury, response to SIGTARP data call, 10/7/2013.
385.	 Treasury conference call, 3/19/2010.
386.	 Treasury, response to SIGTARP draft report, 1/14/2012.
387.	 Treasury conference call, 3/19/2010.
388.	 Treasury conference call, 3/19/2010.
389.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/18/2013.
390.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/18/2013.
391.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/18/2013.
392.	 Treasury, response to SIGTARP data call, 10/17/2013.
393.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
316            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      394.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      395.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      396.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      397.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      398.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      399.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      400.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      401.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      402.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      403.	 SNL Financial LLC data.
      404.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      405.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      406.	 Treasury, Dividends and Interest Report, 10/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Sept%202013%20
            Dividends%20Interest%20Report.pdf, accessed 10/10/2013.
      407.	 Treasury, Dividends and Interest Report, 10/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Sept%202013%20
            Dividends%20Interest%20Report.pdf, accessed 10/10/2013.
      408.	 White House Press Release, “Remarks by the President on Small Business Initiatives,” 10/21/2009, www.whitehouse.gov/the-press-office/
            remarks-president-small-business-initiatives-landover-md, accessed 10/1/2013.
      409.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      410.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      411.	 Small Business Jobs Act, P.L. 111-240, 9/27/2010, p. 2.
      412.	 Treasury, response to SIGTARP data call, 10/5/2011.
      413.	 Treasury, response to SIGTARP data call, 10/5/2011.
      414.	 Treasury, “Glossary,” no date, www.treasury.gov/initiatives/financial-stability/glossary/Pages/default.aspx, accessed 10/1/2013.
      415.	 Treasury, Warrant Disposition Report, 8/25/2011, www.treasury.gov/initiatives/financial-stability/reports/Documents/TARP%20Warrants%20
            Report%20Aug2011.pdf, accessed 10/1/2013.
      416.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
            press-center/press-releases/Pages/200962612255225533.aspx, accessed 10/1/2013.
      417.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
            press-center/press-releases/Pages/200962612255225533.aspx, accessed 10/1/2013.
      418.	 Treasury, response to SIGTARP data call, 10/10/2013.
      419.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
            press-center/press-releases/Pages/200962612255225533.aspx, accessed 10/1/2013.
      420.	 Treasury, Warrant Disposition Report, 8/25/2011, www.treasury.gov/initiatives/financial-stability/reports/Documents/TARP%20Warrants%20
            Report%20Aug2011.pdf, accessed 10/1/2013; Treasury, response to SIGTARP data call, 10/10/2013.
      421.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      422.	 Treasury, response to SIGTARP data call, 10/10/2013.
      423.	 Treasury, response to SIGTARP data call, 10/10/2013.
      424.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
            press-center/press-releases/Pages/200962612255225533.aspx, accessed 10/1/2013.
      425.	 Treasury, response to SIGTARP data call, 10/10/2013.
      426.	 Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 11/19/2009 (updated 4/12/2010),
            www.treasury.gov/press-center/press-releases/Pages/tg415.aspx, accessed 10/1/2013.
      427.	 Treasury, response to SIGTARP data call, 10/10/2013; Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/
            reports/Documents/10-02-13%20Transactions%20Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      428.	 Treasury, response to SIGTARP data call, 10/10/2013.
      429.	 Treasury, “Treasury Announces Completion of Private Auction to Sell Warrant Positions,” 11/18/2011, www.treasury.gov/press-center/press-
            releases/Pages/tg1365.aspx, accessed 10/1/2013.
      430.	 Treasury, “Treasury Completes Auction to Sell Warrant Positions,” 6/6/2013, www.treasury.gov/press-center/press-releases/Pages/jl1972.aspx,
            accessed 10/1/2013.
      431.	 Treasury conference call, 11/10/2011.
      432.	 Treasury, “Treasury Announces Completion of Private Auction to Sell Warrant Positions,” 11/18/2011, www.treasury.gov/press-center/press-
            releases/Pages/tg1365.aspx, accessed 10/1/2013.
                                                                                         QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                 317


433.	 White House Press Release, “Remarks by the President on Small Business Initiatives,” 10/21/2009, www.whitehouse.gov/the-press-office/
      remarks-president-small-business-initiatives-landover-md, accessed 10/1/2013.
434.	 Treasury, “Frequently Asked Questions,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-investment-programs/
      cdci/Pages/faqs.aspx, accessed 10/1/2013; Treasury, Section 105(a) Report, 3/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-
      room/reports/105/Documents105/Monthly%20Report_February2010.pdf, accessed10/1/2013; Treasury Press Release, “Treasury Announces
      Special Financial Stabilization Initiative Investments of $570 Million in Community Development Financial Institutions in Underserved Areas,”
      9/30/2010, www.treasury.gov/press-center/press-releases/Pages/tg885.aspx, accessed 10/1/2013.
435.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%20
      2010%20105(a)%20report_final.pdf, accessed 10/1/2013.
436.	 Treasury, “Community Development Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-
      investment-programs/cdci/Pages/default.aspx, accessed 10/1/2013.
437.	 Treasury Press Release, “Treasury Announces Special Financial Stabilization Initiative Investments of $570 Million in 84 Community
      Development Financial Institutions in Underserved Areas,” 9/30/2010, www.cdfifund.gov/docs/2010/tarp/FINAL%20CDCI-TARP%20
      Release%209-30-10.pdf, accessed 10/1/2013.
438.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
439.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
440.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
441.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
442.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
443.	 Treasury, Dividends and Interest Report, 10/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Sept%202013%20
      Dividends%20Interest%20Report.pdf, accessed 10/10/2013.
444.	 Treasury, Dividends and Interest Report, 10/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Sept%202013%20
      Dividends%20Interest%20Report.pdf, accessed 10/10/2013.
445.	 Treasury, “Summary of Terms of CDCI Senior Preferred Terms,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-
      investment-programs/cdci/Documents/CDCI20Bank-Thrift20Term20Sheet20042610.pdf, accessed 10/1/2013.
446.	 Treasury, response to SIGTARP data call, 10/7/2013.
447.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
      Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 10/1/2013.
448.	 Treasury, “Application Guidelines for TARP Community Development Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/
      programs/investment-programs/cdci/Documents/Bank20Thrift20CDCI20Application20Updated20Form.pdf, accessed 10/1/2013.
449.	 Treasury, “Community Development Capital Initiative CDFI Credit Unions Senior Securities - Term Sheet,” no date, www.treasury.gov/
      initiatives/financial-stability/programs/investment-programs/cdci/Documents/CDCI20Credit20Union20Term20Sheet20042610.pdf, accessed
      10/1/2013; Treasury, “Community Development Capital Initiative CDFI Subchapter S Corporation Senior Securities - Term Sheet,” no date,
      www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cdci/Documents/CDCI20S20Corp20Term20Sheet.pdf, accessed
      10/1/2013.
450.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
      Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 10/1/2013.
451.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
      Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 10/1/2013.
452.	 Department of Treasury Budget in Brief FY 2010, no date, p. 72, www.treasury.gov/about/budget-performance/budget-in-brief/Documents/
      FY2010BIB-Complete.pdf, accessed 10/1/2013.
453.	 Treasury, response to SIGTARP data call, 1/8/2010.
454.	 Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
      9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 10/1/2013; Treasury, Daily TARP Update, 10/1/2013, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%2010.01.2013.pdf, accessed 10/2/2013.
455.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
456.	 Treasury Press Release, “Financial Stability Oversight Council Makes First Nonbank Financial Company Designations to Address Potential
      Threats to Financial Stability,” 7/9/2013, www.treasury.gov/press-center/press-releases/Pages/jl2004.aspx, accessed 10/1/2013.
457.	 Financial Stability Oversight Council, “Basis of the Financial Stability Oversight Council’s Final Determination Regarding American
      International Group, Inc.,” 7/8/2013, www.treasury.gov/initiatives/fsoc/designations/Documents/Basis%20of%20Final%20Determination%20
      Regarding%20American%20International%20Group,%20Inc.pdf, accessed 10/1/2013.
458.	 Dodd-Frank Wall Street Reform and Consumer Protection Act, P.L. 111-203, 7/21/2010.
459.	 Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
      9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 10/1/2013.
460.	 Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
      9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 10/1/2013.
461.	 Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
      9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 10/1/2013; FRBNY, “Summary of Maiden Lane II LLC Waterfall
      Allocation,” 5/29/2012, www.newyorkfed.org/markets/maidenlane/xls/MLIItransactiondata.xls, accessed 10/1/2013; FRBNY, “Summary of
      Maiden Lane III LLC Waterfall Allocation,” 11/23/2012, www.newyorkfed.org/markets/maidenlane/xls/MLIIItransactiondata.xls, accessed
      10/2/2013.
318            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      462.	 Treasury, Daily TARP Update, 10/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
            10.01.2013.pdf, accessed 10/2/2013.
      463.	 Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
            9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 10/1/2013; FRBNY, “Summary of Maiden Lane II LLC Waterfall
            Allocation,” 5/29/2012, www.newyorkfed.org/markets/maidenlane/xls/MLIItransactiondata.xls, accessed 10/1/2013; FRBNY, “Summary of
            Maiden Lane III LLC Waterfall Allocation,” 11/23/2012, www.newyorkfed.org/markets/maidenlane/xls/MLIIItransactiondata.xls, accessed
            10/1/2013.
      464.	 FRBNY, “CREDIT AGREEMENT dated as of September 22, 2008, between AMERICAN INTERNATIONAL GROUP, INC., as Borrower and
            FEDERAL RESERVE BANK OF NEW YORK, as Lender,” 9/22/2008, www.newyorkfed.org/aboutthefed/aig/pdf/original_credit_agreement.
            pdf, accessed 10/1/2013; AIG, 10-K, 2/26/2010, www.sec.gov/Archives/edgar/data/5272/000104746910001465/a2196553z10-k.htm, accessed
            10/1/2013.
      465.	 SIGTARP Audit Report, “Factors Affecting Payments to AIG Counterparties,” 11/17/2009, www.sigtarp.gov/Audit%20Reports/Factors_Affecting_
            Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 10/1/2013.
      466.	 SIGTARP Audit Report, “Factors Affecting Payments to AIG’s Counterparties,” 11/17/2009, www.sigtarp.gov/Audit%20Reports/Factors_
            Affecting_Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 10/1/2013.
      467.	 SIGTARP Audit Report, “Factors Affecting Payments to AIG’s Counterparties,” 11/17/2009, www.sigtarp.gov/Audit%20Reports/Factors_
            Affecting_Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 10/1/2013.
      468.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 10/1/2013.
      469.	 Treasury, Section 105(a) Report, 12/5/2008, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/TARPfirst-
            105report.pdf, accessed 10/1/2013.
      470.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 10/1/2013.
      471.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013; Treasury, “Securities Exchange Agreement,” 4/17/2009, www.
            treasury.gov/initiatives/financial-stability/programs/Other%20Programs/AIG/Documents/Series.E.Securities.Exchange.Agreement.pdf, accessed
            10/1/2013; Treasury, “Securities Purchase Agreement,” 4/17/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/
            AIG/Documents/Series.F.Securities.Purchase.Agreement.pdf, accessed 10/1/2013.
      472.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 10/1/2013.
      473.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 10/1/2013; Treasury Press Release,
            “With $6.9 Billion Repayment Today from AIG, 70 Percent of TARP Disbursements Now Recovered,” 3/8/2011, www.treasury.gov/press-center/
            press-releases/Pages/tg1096.aspx, accessed 10/1/2013; AIG, 8-K 3/1/2011, www.sec.gov/Archives/edgar/data/5272/000095012311021398/
            y90008ae8vk.htm, accessed 10/1/2013.
      474.	 AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 10/1/2013.
      475.	 Treasury, response to SIGTARP data call, 4/4/2013.
      476.	 AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 10/1/2013; AIG, 8-K,
            12/8/2010, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 10/1/2013; AIG, 10-Q, 11/5/2010, www.
            sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed 10/1/2013.
      477.	 AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 10/1/2013.
      478.	 Treasury Press Release, “Treasury Receives Payment From Its Final Sale of AIG Common Stock, Bringing Positive Return on Overall AIG
            Commitment to $22.7 Billion,” 12/14/2012, www.treasury.gov/press-center/press-releases/Pages/tg1805.aspx, accessed 10/1/2013.
      479.	 Treasury Press Release, “Treasury Receives Payment From Its Final Sale of AIG Common Stock, Bringing Positive Return on Overall AIG
            Commitment to $22.7 Billion,” 12/14/2012, www.treasury.gov/press-center/press-releases/Pages/tg1805.aspx, accessed 10/1/2013.
      480.	 Treasury, Daily TARP Update, 10/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
            10.01.2013.pdf, accessed 10/2/2013.
      481.	 Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
            9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 10/1/2013.
      482.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf accessed 10/2/2013.
      483.	 AIG, Stock Information, www.aig.com/Stock-Information_3171_438015.html, accessed 10/1/2013.
      484.	 FRBNY, “New York Fed Sells Remainder of Maiden Lane II LLC Securities; Approximately $2.8 Billion Net Gain Generated for U.S. Public
            From the Portfolio,” 2/28/2012, www.newyorkfed.org/newsevents/news/markets/2012/an120228.html, accessed 10/1/2013.
      485.	 FRBNY, “New York Fed Sells Remainder of Maiden Lane II LLC Securities; Approximately $2.8 Billion Net Gain Generated for U.S. Public
            From the Portfolio,” 2/28/2012, www.newyorkfed.org/newsevents/news/markets/2012/an120228.html, accessed 10/1/2013.
      486.	 Federal Reserve, “H.4.1 Factors Affecting Reserve Balances,” 10/3/2013, www.federalreserve.gov/releases/h41/, accessed 10/4/2013.
      487.	 FRBNY, “New York Fed Sells Remainder of Maiden Lane III LLC Securities; Marks End of AIG-Related Assistance; Approximately $6.6 Billion
            Net Gain Generated for U.S. Public from the Portfolio,” 8/23/2012, www.newyorkfed.org/newsevents/news/markets/2012/an120823.html,
            accessed 10/1/2013.
      488.	 Federal Reserve, “H.4.1 Factors Affecting Reserve Balances,” 10/3/2013, www.federalreserve.gov/releases/h41/, accessed 10/4/2013.
      489.	 Federal Reserve, Quarterly Report on Balance Sheet Developments, March 2013, www.federalreserve.gov/monetarypolicy/bsd-overview-201303.
            htm, accessed 10/1/2013.
      490.	 Federal Reserve, Quarterly Report on Balance Sheet Developments, March 2013, www.federalreserve.gov/monetarypolicy/bsd-overview-201303.
            htm, accessed 10/1/2013.
      491.	 Treasury, “Securities Purchase Agreement,” 12/29/2008, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/tip/
            Documents_Contracts_Agreements/Citigroup_12312008.pdf, accessed 10/1/2013; Treasury, “Securities Purchase Agreement,” 1/15/2009, www.
            treasury.gov/initiatives/financial-stability/programs/investment-programs/tip/Documents_Contracts_Agreements/BAC%20III%20Binder.pdf,
            accessed 10/1/2013.
      492.	 Treasury, “Guidelines for Targeted Investment Program,” 1/2/2009, www.treasury.gov/press-center/press-releases/Pages/hp1338.aspx, accessed
            10/1/2013.
                                                                                       QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                319


493.	 Treasury, Section 105(a) Report, 1/11/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
      December%20105(a)_final_1-11-10.pdf, accessed 10/1/2013.
494.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
495.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
496.	 Treasury, “Exchange Agreement,” 6/9/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/Documents/
      Citigroup%20Exchange%20Agreement.pdf, accessed 10/1/2013; Citigroup, 424(b)(7), 1/24/2011, www.sec.gov/Archives/edgar/
      data/831001/000095012311004665/y89177b7e424b7.htm, accessed 10/1/2013.
497.	 Citigroup, 8-K, 1/16/2009, www.sec.gov/Archives/edgar/data/831001/000095010309000098/dp12291_8k.htm, accessed 10/1/2013.
498.	 SIGTARP, “Extraordinary Financial Assistance Provided to Citigroup, Inc.,” 1/13/2011, www.sigtarp.gov/Audit%20Reports/Extraordinary%20
      Financial%20Assistance%20Provided%20to%20Citigroup,%20Inc.pdf, accessed 10/1/2013.
499.	 Treasury, “Citigroup Termination Agreement,” 12/23/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/
      Documents/Citi%20AGP%20Termination%20Agreement%20-%20Fully%20Executed%20Version.pdf, accessed 10/1/2013.
500.	 Treasury, “Treasury Prices Sale of Citigroup Subordinated Notes for Proceeds of $894 Million, Providing an Additional Profit for Taxpayers on
      TARP Citigroup Investment,” 2/5/2013, www.treasury.gov/press-center/press-releases/Pages/tg1841.aspx, accessed 10/1/2013.
501.	 Treasury, “Treasury Prices Sale of Citigroup Subordinated Notes for Proceeds of $894 Million, Providing an Additional Profit for Taxpayers on
      TARP Citigroup Investment,” 2/5/2013, www.treasury.gov/press-center/press-releases/Pages/tg1841.aspx, accessed 10/1/2013.
502.	 SIGTARP, “Extraordinary Financial Assistance Provided to Citigroup, Inc.,” 1/13/2011, www.sigtarp.gov/Audit%20Reports/Extraordinary%20
      Financial%20Assistance%20Provided%20to%20Citigroup,%20Inc.pdf, accessed 10/1/2013.
503.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
504.	 Treasury, Section 105(a) Report, 1/11/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
      December%20105(a)_final_1-11-10.pdf, accessed 10/1/2013; Treasury, “Treasury Prices Sale of Citigroup Subordinated Notes for Proceeds
      of $894 Million, Providing an Additional Profit for Taxpayers on TARP Citigroup Investment,” 2/5/2013, www.treasury.gov/press-center/press-
      releases/Pages/tg1841.aspx, accessed 10/1/2013.
505.	 Bank of America, 8-K, 9/22/2009, www.sec.gov/Archives/edgar/data/70858/000119312509195594/d8k.htm, accessed 10/1/2013.
506.	 Bank of America, “Termination Agreement,” 9/21/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/
      Documents/BofA%20-%20Termination%20Agreement%20-%20executed.pdf, accessed 10/1/2013.
507.	 Federal Reserve Press Release, 6/28/2012, www.federalreserve.gov/newsevents/press/monetary/20120628a.htm, accessed 10/1/2013.
508.	 Treasury, Daily TARP Update, 10/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
      10.01.2013.pdf, accessed 10/2/2013.
509.	 FRBNY, response to SIGTARP data call, 10/4/2013.
510.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
511.	 Treasury, response to SIGTARP data call, 10/7/2013, PPIP fund managers’ monthly reports for May 2013 submitted to Treasury and SIGTARP,
      6/17/2013; PPIP fund managers’ monthly reports for June 2013 submitted to Treasury and SIGTARP, 10/4/2013.
512.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
513.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
514.	 Federal Reserve Press Release, “Federal Reserve announces the creation of the Term Asset-Backed Securities Loan Facility (TALF),”
      11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 10/1/2013.
515.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 7/21/2010, www.newyorkfed.org/markets/talf_faq.html,
      accessed 10/1/2013.
516.	 Federal Reserve, “Lending Facilities to Support Overall Market Liquidity,” March 2010, www.federalreserve.gov/monetarypolicy/clbs_
      lendingfacilities_201003.htm, accessed 10/1/2013.
517.	 FRBNY, response to SIGTARP draft report, 7/9/2010.
518.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 10/1/2013.
519.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 7/21/2010, www.newyorkfed.org/markets/talf_faq.html,
      accessed 10/1/2013.
520.	 FRBNY, response to SIGTARP data call, 10/4/2013.
521.	 FRBNY, response to SIGTARP data call, 10/4/2013.
522.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
      html, accessed 10/1/2013.
523.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 10/1/2013.
524.	 FRBNY, response to SIGTARP data call, 10/4/2013.
525.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
      html, accessed 10/1/2013.
526.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
      html, accessed 10/1/2013.
527.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
      html, accessed 10/1/2013.
528.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 10/1/2013.
320            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      529.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
            html, accessed 10/1/2013; Federal Reserve, “Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet”,
            December 2009, www.federalreserve.gov/monetarypolicy/files/monthlyclbsreport200912.pdf, accessed 10/1/2013.
      530.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 10/1/2013.
      531.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 10/1/2013.
      532.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 10/1/2013.
      533.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 10/1/2013.
      534.	 FRBNY, response to SIGTARP draft report, 7/9/2010.
      535.	 Federal Reserve Press Release, 6/28/2012, www.federalreserve.gov/newsevents/press/monetary/20120628a.htm, accessed 10/1/2013.
      536.	 Federal Reserve, ”Quarterly Report on Federal Reserve Balance Sheet Developments”, March 2013, www.federalreserve.gov/monetarypolicy/
            files/quarterly_balance_sheet_developments_report_201303.pdf, accessed 10/9/2013.
      537.	 Treasury, Daily TARP Update, 10/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
            10.01.2013.pdf, accessed 10/2/2013.
      538.	 FRBNY, response to SIGTARP data call, 10/4/2013.
      539.	 FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed
            10/1/2013; FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/CMBS_recent_operations.
            html, accessed 10/1/2013.
      540.	 FRBNY, response to SIGTARP data call, 10/4/2013.
      541.	 FRBNY, response to SIGTARP data call, 10/4/2013.
      542.	 FRBNY, response to SIGTARP data call, 10/4/2013.
      543.	 Federal Reserve, “Term Asset-Backed Securities Loan Facility (TALF),” 12/1/2010, www.federalreserve.gov/newsevents/reform_talf.htm,
            accessed 10/1/2013.
      544.	 FRBNY, response to SIGTARP data call, 10/4/2013.
      545.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      546.	 Treasury Press Release, “Treasury Announces Full Repayment with Interest for Investment Through TALF Financial Crisis Response Program
            Designed to Unlock Credit for Consumers, Businesses,” 1/15/2013, www.treasury.gov/press-center/press-releases/Pages/tg1821.aspx, accessed
            10/1/2013.
      547.	 Treasury, “Security and Intercreditor Agreement dated as of March 3, 2009, among TALF LLC, as Borrower, FRBNY, as Senior Lender, United
            States Department of the Treasury, as Subordinated Lender, FRBNY, as Controlling Party, and the Bank of New York Mellon, as Collateral
            Agent,” 3/3/2009, www.treasury.gov/initiatives/financial-stability/TARP-Programs/credit-market-programs/talf/Documents/SPV-Sec-Agt.pdf,
            accessed 10/1/2013.
      548.	 FRBNY, response to SIGTARP data call, 10/4/2013; Treasury, response to SIGTARP data call, 10/3/2013.
      549.	 Federal Reserve, “H.4.1 Factors Affecting Reserve Balances,” 10/3/2013, www.federalreserve.gov/releases/h41/, accessed 10/4/2013; FRBNY,
            response to SIGTARP data call, 10/4/2013.
      550.	 FRBNY, response to SIGTARP data call, 10/4/2013.
      551.	 FRBNY, response to SIGTARP data call, 10/4/2013.
      552.	 Treasury, “Public-Private Investment Program,” 3/23/2009, www.treasury.gov/press-center/press-releases/Documents/ppip_whitepaper_032309.
            pdf, accessed 10/1/2013.
      553.	 Treasury Press Release, “Treasury Department Provides Updated Guidance,” 4/6/2009, www.treasury.gov/press-center/press-releases/Pages/tg82.
            aspx, accessed 10/1/2013.
      554.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP), Additional Frequently Asked Questions,” 7/8/2009,
            www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 10/1/2013.
      555.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
            Market%20Programs/ppip/s-ppip/Documents/AG%20GECC%20Complete%20LPA%20(redacted).pdf, accessed 10/1/2013.
      556.	 Treasury, “Public-Private Investment Program,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/credit-market-programs/
            ppip/Pages/purpose-and-overview.aspx, accessed 10/1/2013.
      557.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP) Additional Frequently Asked Questions,” 7/8/2009,
            www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 10/1/2013.
      558.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP), Additional Frequently Asked Questions,” 7/8/2009,
            www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 10/1/2013; Treasury, “Amended and Restated
            Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/s-ppip/
            Documents/AG%20GECC%20Complete%20LPA%20(redacted).pdf, accessed 10/1/2013.
      559.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
            Market%20Programs/ppip/s-ppip/Documents/AG%20GECC%20Complete%20LPA%20(redacted).pdf, accessed 10/1/2013.
      560.	 Treasury, “Legacy Securities Program,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/credit-market-programs/ppip/
            Pages/Program-Status.aspx, accessed 10/1/2013.
      561.	 Treasury, “Legacy Securities Public-Private Program (Legacy Securities PPIP) Additional Frequently Asked Questions,” 7/8/2009, www.treasury.
            gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 10/1/2013.
      562.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      563.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
            Market%20Programs/ppip/s-ppip/Documents/AG%20GECC%20Complete%20LPA%20%28redacted%29.pdf, accessed 10/1/2013.
                                                                                       QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                321


564.	 Treasury, response to SIGTARP data call, 10/7/2013.
565.	 Treasury, response to SIGTARP data call, 10/7/2013.
566.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
567.	 Treasury, response to SIGTARP data call, 10/7/2013.
568.	 Treasury, response to SIGTARP data call, 10/7/2013.
569.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
570.	 PPIP fund managers’ reports for June 2013 submitted to Treasury and SIGTARP, 7/15/2013.
571.	 Treasury, response to SIGTARP data call, 10/7/2013.
572.	 PPIP fund managers’ reports for June 2013 submitted to Treasury and SIGTARP, 7/15/2013.
573.	 Treasury, response to SIGTARP data call, 10/7/2013.
574.	 PPIP fund managers’ monthly reports for May 2013 submitted to Treasury and SIGTARP, 6/17/2013.
575.	 Treasury, response to SIGTARP data call, 10/7/2013.
576.	 PPIP fund managers’ monthly reports for February 2013 submitted to Treasury and SIGTARP, 3/15/2013.
577.	 Delaware Secretary of State, Division of Corporations, Certificate of Cancellation of Certificate of Limited Partnership of Wellington
      Management Legacy Securities PPIF (Offshore), L.P., 7/25/2013, Authentication No. 0616264, File No. 4709656.
578.	 BlackRock press release, “BlackRock Liquidates Public-Private Investment Partnership at a 23.5% Internal Rate of Return to Treasury,”
      12/5/2012, finance.yahoo.com/news/blackrock-liquidates-public-private-investment-194500728.html, accessed 10/1/2013; BlackRock PPIP
      monthly report for November 2012 submitted to Treasury and SIGTARP, 12/14/2012.
579.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
580.	 Treasury, response to SIGTARP data call, 10/7/2013.
581.	 AllianceBernstein L.P. Press Release, “AllianceBernstein Liquidates Public-Private Investment Partnership at an 18.7% Internal Rate of
      Return for Treasury,” 10/9/2012, www.alliancebernstein.com/abcom/Our_Firm/Investor_Media/news/releases.htm, accessed 10/1/2013;
      AllianceBernstein PPIP monthly report for September 2012, submitted to Treasury and SIGTARP, 10/15/2012.
582.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
583.	 Treasury, response to SIGTARP data call, 10/7/2013.
584.	 RLJ Western press release, “RLJ Western Asset Management Liquidates Public Private Investment Partnership at a 23.9% Internal Rate of
      Return for Treasury,” 11/20/2012, www.prnewswire.com/news-releases/rlj-western-asset-management-liquidates-public-private-investment-
      partnership-at-a-239-internal-rate-of-return-for-treasury-180138341.html#, accessed 10/1/2013; RLJ Western PPIP monthly report for
      November 2012, submitted to Treasury and SIGTARP, 11/15/2012.
585.	 Delaware Secretary of State, Division of Corporations, Certificate of Cancellation of Certificate of Limited Partnership of RLJ Western Asset
      Public/Private Master Fund, L.P., 12/31/2012, Authentication No. 0107881, File No. 4735099.
586.	 Delaware Secretary of State, Division of Corporations, Certificate of Cancellation of Certificate of Limited Partnership of RLJ Western Asset
      Public/Private Master Fund, L.P., 12/31/2012, Authentication No. 0107881, File No. 4735099.
587.	 Invesco Press Release, “Public-Private Investment Partnership Liquidates, 18.3% Internal Rate of Return to Treasury,” 4/3/2012, www.invesco.
      com/site/global/pdf/invest/media/press_releases/2012_04_03.pdf, accessed 10/1/2013; Invesco PPIP monthly report for March 2012, submitted
      to Treasury and SIGTARP, 4/16/2012.
588.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
589.	 Delaware Secretary of State, Division of Corporations, Certificate of Cancellation of Certificate of Limited Partnership of Invesco Legacy
      Securities Master Fund, L.P., 10/3/2012, Authentication No. 9893096, File No. 4722688.
590.	 Treasury, response to SIGTARP data call, 10/7/2013.
591.	 Treasury, “Public-Private Investment Program,” no date, www.treasury.gov/press-center/press-releases/Documents/ppip_whitepaper_032309.pdf,
      accessed 10/1/2013.
592.	 Treasury, “Legacy Securities Public-Private Investment Program, Program Update — Quarter Ended September 30, 2012,” 10/17/2012, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/External%20Report%20-%2009-12%20vFinal.pdf, accessed 10/1/2013.
593.	 Treasury, “Legacy Securities Public-Private Investment Program, Program Update — Quarter Ended September 30, 2012,” 10/17/2012, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/External%20Report%20-%2009-12%20vFinal.pdf, accessed 10/1/2013.
594.	 Congressional Oversight Panel, “August Oversight Report, The Continued Risk of Troubled Assets,” 8/11/2009, www.gpo.gov/fdsys/pkg/CPRT-
      111JPRT51601/pdf/CPRT-111JPRT51601.pdf, accessed 10/1/2013.
595.	 Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treasury.gov/press- center/press-releases/Pages/tg58.aspx,
      accessed 10/1/2013; SBA, “Q&A for Small Business Owners,” no date, www.sbaonline.sba.gov/idc/groups/public/documents/sba_homepage/
      recovery_act_faqs.pdf, accessed 10/1/2013.
596.	 Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed 3/2/2010,
      www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Documents/Master%20Purchase%20Agreement%20
      (Execution%20Version).pdf, accessed 10/1/2013; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities
      Issued by SBA Pool Assemblers,” signed 8/27/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Small-
      Business/Documents_Contracts_Agreements/Executed%20Copy%20of%20Shay%20Financial%20Services,%20Inc.%20MPA%20(73485877_2).
      pdf, accessed 10/1/2013.
322            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      597.	 Treasury Press Release, “Treasury Announces Sale of Six SBA 7(a) Securities,” 6/8/2011, www.treasury.gov/press-center/press-releases/Pages/
            tg1203.aspx, accessed 10/1/2013; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA
            Pool Assemblers,” signed 3/2/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Documents/Master%20
            Purchase%20Agreement%20(Execution%20Version).pdf, accessed 10/1/2013; Treasury, “Master Purchase Agreement for SBA Pooled
            Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed 8/27/2010, www.treasury.gov/initiatives/financial-stability/programs/
            investment-programs/cbli/Small-Business/Documents_Contracts_Agreements/Executed%20Copy%20of%20Shay%20Financial%20Services,%20
            Inc.%20MPA%20(73485877_2).pdf, accessed 10/1/2013.
      598.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      599.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      600.	 Treasury, Dividends and Interest Report, 10/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Sept%202013%20
            Dividends%20Interest%20Report.pdf, accessed 10/10/2013.
      601.	 Treasury, Auto Industry, no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/automotive-programs/pages/default.aspx,
            accessed 10/1/2013.
      602.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      603.	 Treasury Press Release, “Treasury Announces Plan to Sell Additional General Motors Common Stock,” 9/26/2013, www.treasury.gov/press-
            center/press-releases/Pages/jl2173.aspx, accessed 10/1/2013; Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-
            stability/reports/Documents/10-02-13%20Transactions%20Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      604.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      605.	 Treasury, Daily TARP Update, 10/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
            10.01.2013.pdf, accessed 10/1/2013; Treasury, response to SIGTARP data call, 10/3/2013.
      606.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      607.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013; Treasury, “Office of Financial Stability: Agency Financial Report
            - Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2010%20
            OFS%20AFR%20Nov%2015.pdf, accessed 10/1/2013.
      608.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      609.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      610.	 Treasury, Dividends and Interest Report, 10/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Sept%202013%20
            Dividends%20Interest%20Report.pdf, accessed 10/10/2013.
      611.	 Treasury Press Release, “Treasury Announces Plan to Sell Additional General Motors Common Stock,” 9/26/2013, www.treasury.gov/press-
            center/press-releases/Pages/jl2173.aspx, accessed 10/1/2013; Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-
            stability/reports/Documents/10-02-13%20Transactions%20Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      612.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 10/1/2013.
      613.	 Treasury, Office of Financial Stability – Troubled Asset Relief Program, Agency Financial Report – Fiscal Year 2011, 11/30/2011, www.treasury.
            gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, accessed 10/1/2013; Treasury,
            Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20Report%20
            as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      614.	 Treasury, Dividends and Interest Report, 10/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Sept%202013%20
            Dividends%20Interest%20Report.pdf, accessed 10/10/2013.
      615.	 General Motors, 10-Q, 8/16/2010, www.sec.gov/Archives/edgar/data/1467858/000119312510189968/d10q.htm, accessed 10/1/2013.
      616.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 10/1/2013.
      617.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 10/1/2013; Treasury
            Press Release, “Taxpayers Receive Additional $1.8 Billion in Proceeds from GM IPO: Exercise of Over-allotment Option Brings Total Taxpayer
            Proceeds from GM IPO to $13.5 Billion,” 12/2/2010, www.treasury.gov/press-center/press-releases/Pages/tg992.aspx, accessed 10/1/2013; GM
            Press Release, “General Motors Company Prices Public Offering of Common and Preferred Stock,” 11/17/2010, media.gm.com/content/media/
            be/de/opel/news.detail.html/content/Pages/news/be/de/2010/OPEL/1117_pricing_eu.html, accessed 10/1/2013.
      618.	 Treasury Press Release, “General Motors Repays Taxpayers $2.1 Billion, Completing Repurchase of Treasury Preferred Stock,” 12/15/2010,
            www.treasury.gov/press-center/press-releases/Pages/tg1006.aspx, accessed 10/1/2013.
      619.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 10/1/2013.
      620.	 Treasury Press Release, “Treasury Announces Intent to Fully Exit GM Investment Within the Next 12-15 Months,” 12/19/2012, www.treasury.
            gov/press-center/press-releases/Pages/tg1810.aspx, accessed 10/1/2013.
      621.	 Treasury Press Release, “Treasury Commences Plan to Sell General Motors Common Stock,” 1/18/2013, www.treasury.gov/press-center/press-
            releases/Pages/tg1826.aspx, accessed 10/1/2013; Treasury Press Release, “Treasury Announces Intent to Fully Exit GM Investment Within the
            Next 12-15 Months,” 12/19/2012, www.treasury.gov/press-center/press-releases/Pages/tg1810.aspx, accessed 10/1/2013; Treasury, Transactions
            Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20Report%20as%20of%20
            9-30-13_INVESTMENT.pdf, accessed 10/2/2013.
                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                 323


622.	 General Motors Company Form 8-K, 12/20/2012, www.sec.gov/Archives/edgar/data/1467858/000146785812000082/form8-kusttreasurystock.
      htm, accessed 10/1/2013; Treasury, Stockholders Agreement, 10/15/2009, www.treasury.gov/initiatives/financial-stability/TARP-Programs/
      automotive-programs/Documents/GM%20Corporate%20Docs.pdf, accessed 10/1/2013; Treasury, Second Amended and Restated Secured Credit
      Agreement, 8/12/2009, www.treasury.gov/initiatives/financial-stability/TARP-Programs/automotive-programs/Documents/General%20Motors%20
      Company%20Loan%20Documents%20%20(post-July%2010,%202009).pdf, accessed 10/1/2013.
623.	 General Motors Press Release, “GM to Buy Back Stock from U.S. Treasury Department,” 12/19/2012, media.gm.com/media/us/en/gm/news.
      detail.html/content/Pages/news/us/en/2012/Dec/1219_gm-ust-stock.html, accessed 10/1/2013.
624.	 Treasury Press Release, “Treasury Commences Plan to Sell General Motors Common Stock,” 1/18/2013, www.treasury.gov/press-center/press-
      releases/Pages/tg1826.aspx, accessed 10/1/2013.
625.	 Treasury, response to SIGTARP data call, 10/3/2013. Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/
      reports/Documents/10-02-13%20Transactions%20Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
626.	 Treasury Press Release, “Treasury Announces Next Step in Plan to Sell General Motors Common Stock,” 5/6/2013, www.treasury.gov/press-
      center/press-releases/Pages/jl1926.aspx, accessed 10/1/2013; Treasury, response to SIGTARP data call, 10/3/2013.
627.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
628.	 Treasury Press Release, “Treasury Announces Plan to Sell Additional General Motors Common Stock,” 9/26/2013, www.treasury.gov/press-
      center/press-releases/Pages/jl2173.aspx, accessed 10/1/2013, Treasury, response to SIGTARP data call, 10/3/2013.
629.	 Treasury Press Release, “Taxpayers to Receive $1.03 Billion from Sale of GM Common Stock,” 6/6/2013, www.treasury.gov/press-center/press-
      releases/Pages/jl1976.aspx, accessed 10/1/2013.
630.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013; Treasury Press Release, “Treasury Announces Plan to Sell Additional
      General Motors Common Stock,” 9/26/2013, www.treasury.gov/press-center/press-releases/Pages/jl2173.aspx, accessed 10/1/2013; Treasury,
      response to SIGTARP data call, 10/3/2013.
631.	 Treasury, Section 105(a) Report, 10/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202013%20
      Monthly%20Report%20to%20Congress.pdf, accessed 10/10/2013.
632.	 Treasury, response to SIGTARP data call, 10/3/2013.
633.	 Treasury Press Release, “Treasury Announces Plan to Sell Additional General Motors Common Stock,” 9/26/2013, www.treasury.gov/press-
      center/press-releases/Pages/jl2173.aspx, accessed 10/1/2013, Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-
      stability/reports/Documents/10-02-13%20Transactions%20Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
634.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
635.	 Canadian Department of Finance Press Release, “Government Sells Additional Shares of General Motors,” 9/10/2013, www.fin.gc.ca/n13/13-
      115-eng.asp, accessed 10/1/2013.
636.	 GM Press Release, “General Motors Announces Refinancing Transactions,” media.gm.com/content/media/us/en/gm/news.detail.html/content/
      Pages/news/us/en/2013/Sep/0923-VEBA.html, accessed 10/1/2013.
637.	 Treasury Press Release, “Taxpayers to Receive $1.03 Billion from Sale of GM Common Stock,” 6/6/2013, www.treasury.gov/press-center/press-
      releases/Pages/jl1976.aspx, accessed 10/1/2013.
638.	 Treasury, Dividends and Interest Report, 10/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Sept%202013%20
      Dividends%20Interest%20Report.pdf, accessed 10/10/2013.
639.	 Ally Financial, 10-K, 2/27/2009, www.sec.gov/Archives/edgar/data/40729/000119312509039567/d10k.htm#toc11086_9, accessed 10/1/2013.
640.	 Treasury, Section 105(a) Report, 6/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
      2010%20105(a)%20Report_final.pdf, accessed 10/1/2013.
641.	 Treasury, Section 105(a) Report, 6/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
      2010%20105(a)%20Report_final.pdf, accessed 10/1/2013.
642.	 Ally Financial, 8-K, 5/22/2009, www.sec.gov/Archives/edgar/data/40729/000119312509117131/d8k.htm, accessed 10/1/2013; Treasury, Section
      105(a) Report, 6/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%202010%20105(a)%20
      Report_final.pdf, accessed 10/1/2013.
643.	 Ally Financial, 8-K, 1/5/2010, www.sec.gov/Archives/edgar/data/40729/000119312510001221/d8k.htm, accessed 10/1/2013.
644.	 Treasury, Section 105(a) Report, 6/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
      2010%20105(a)%20Report_final.pdf, accessed 10/1/2013.
645.	 Ally Financial, 8-K, 5/3/2010, www.sec.gov/Archives/edgar/data/40729/000114420410025354/v183596_8-k.htm, accessed 10/1/2013.
646.	 Treasury Press Release, “Treasury Converts Nearly Half of Its Ally Preferred Shares to Common Stock,” 12/30/2010, www.treasury.gov/press-
      center/press-releases/Pages/tg1014.aspx, accessed 10/1/2013.
647.	 Treasury Press Release, “Treasury Announces Public Offering of Ally Financial Inc. TruPs,” 3/1/2011, www.treasury.gov/press-center/press-
      releases/Pages/tg1081.aspx, accessed 10/1/2013.
648.	 Ally Financial, 8-K, 12/30/2010, www.sec.gov/Archives/edgar/data/40729/000119312510291571/d8k.htm, accessed 10/1/2013; Ally Financial,
      Amended and Restated Governance Agreement, 5/21/2009, www.sec.gov/Archives/edgar/data/40729/000119312509117131/dex102.htm,
      accessed 10/1/2013.
649.	 Ally Financial, 10-K, 3/1/2013, www.sec.gov/Archives/edgar/data/40729/000004072913000005/gjm2012123110k.htm, accessed 10/1/2013;
      Ally Financial, 8-K, 4/25/2013, www.sec.gov/Archives/edgar/data/40729/000114420413023802/v342461_8k.htm, accessed 10/1/2013; Ally
      Financial, 8-K, 5/31/2013, www.sec.gov/Archives/edgar/data/40729/000114420413032503/v346690_8-k.htm, accessed 10/1/2013.
650.	 Ally Financial, Form S-1 Registration Statement, 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.htm, accessed
      10/1/2013.
651.	 Ally Financial Press Release, “Ally Announces Private Placement of Common Stock and Plan to Repurchase Securities from U.S. Treasury,”
      8/20/2013, media.ally.com/2013-08-20-Ally-Announces-Private-Placement-of-Common-Stock-and-Plan-to-Repurchase-Securities-from-U-S-
      Treasury, accessed 10/1/2013.
324            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      652.	 Ally Financial Press Release,” Ally Announces Private Placement of Common Stock and Plan to Repurchase Securities from U.S. Treasury,”
            8/20/2013, media.ally.com/2013-08-20-Ally-Announces-Private-Placement-of-Common-Stock-and-Plan-to-Repurchase-Securities-from-U-S-
            Treasury, accessed 10/1/2013.
      653.	 Ally Financial Press Release, “Ally Announces Private Placement of Common Stock and Plan to Repurchase Securities from U.S. Treasury,”
            8/20/2013, media.ally.com/2013-08-20-Ally-Announces-Private-Placement-of-Common-Stock-and-Plan-to-Repurchase-Securities-from-U-S-
            Treasury, accessed 10/1/2013.
      654.	 Ally Financial Press Release, “Ally Announces Private Placement of Common Stock and Plan to Repurchase Securities from U.S. Treasury,”
            8/20/2013, media.ally.com/2013-08-20-Ally-Announces-Private-Placement-of-Common-Stock-and-Plan-to-Repurchase-Securities-from-U-S-
            Treasury, accessed 10/1/2013.
      655.	 Treasury, response to SIGTARP data call, 10/3/13.
      656.	 Ally Financial Press Release, “Ally Financial Files Registration Statement with the Securities and Exchange Commission for a Proposed Initial
            Public Offering,” 3/31/2011, media.ally.com/index.php?s=43&item=453, accessed 10/1/2013.
      657.	 Ally Financial, Form S-1 Registration Statement, 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.htm, accessed
            10/1/2013.
      658.	 Ally Financial, Form S-1 Registration Statement, 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.htm, accessed
            10/1/2013.
      659.	 Ally Financial Press Release, “Ally Financial Files Registration Statement with the Securities and Exchange Commission for a Proposed Initial
            Public Offering,” 3/31/2011, media.ally.com/index.php?s=43&item=453, accessed 10/1/2013.
      660.	 Ally Financial, Amendment No. 1 to Form S-1 Registration Statement, 5/17/2011, edgar.brand.edgar-online.com/EFX_dll/EDGARpro.dl
            l?FetchFilingHTML1?ID=7940925&SessionID=u1r1FjMCVRNlLm7, accessed 10/1/2013; Ally Financial, Amendment No. 2 to Form
            S-1 Registration Statement, 6/3/2011, edgar.brand.edgar-online.com/EFX_dll/EDGARpro.dll?FetchFilingHTML1?ID=7978010&Session
            ID=yWV1FqvBONn9GA7, accessed 10/1/2013; Ally Financial, Amendment No. 3 to Form S-1 Registration Statement, 6/28/2011, www.
            sec.gov/Archives/edgar/data/40729/000119312511175943/ds1a.htm, accessed 10/1/2013; Ally Financial, Amendment No. 4 to Form S-1
            Registration Statement, 8/18/2011, www.sec.gov/Archives/edgar/data/40729/000119312511226269/ds1a.htm, accessed 10/1/2013; Ally
            Financial, Amendment No. 5 to Form S-1 Registration Statement, 12/2/2011, www.sec.gov/Archives/edgar/data/40729/000119312511328749/
            d167661ds1a.htm, accessed 10/1/2013; Ally Financial, Amendment No. 6 to Form S-1 Registration Statement, 4/12/2012, www.sec.gov/
            Archives/edgar/data/40729/000119312512159940/d167661ds1a.htm, accessed 10/1/2013; Ally Financial, Amendment No. 7 to Form S-1
            Registration Statement, 10/5/2012, www.sec.gov/Archives/edgar/data/40729/000119312512416511/d388008ds1a.htm, accessed 10/1/2013; Ally
            Financial, Amendment No. 8 to Form S-1 Registration Statement, 7/9/2013, www.sec.gov/Archives/edgar/data/40729/000119312513285728/
            d388008ds1a.htm, accessed 10/1/2013.
      661.	 Ally Financial Press Release, “Ally Financial Announces Key Strategic Actions to Strengthen Company and Accelerate Ability to Repay U.S.
            Treasury,” 5/14/2012, media.ally.com/index.php?s=43&item=543, accessed 10/1/2013.
      662.	 Ally Financial Press Release, “Ally Financial Announces Key Strategic Actions to Strengthen Company and Accelerate Ability to Repay U.S.
            Treasury,” 5/14/2012, media.ally.com/index.php?s=43&item=543, accessed 10/1/2013; Ally Financial, 10-Q, 8/3/2012, www.sec.gov/Archives/
            edgar/data/40729/000004072912000020/gjm2012063010q.htm, accessed 10/1/2013.
      663.	 In Re Residential Capital, LLC, Case No. 12-12020, U.S. Bankruptcy Court for the Southern District of New York, Order Granting Debtors’
            Motion for an Order Under Bankruptcy Code Sections 105(A) and 363(B) Authorizing the Debtors to Enter into a Plan Support Agreement with
            Ally Financial Inc., the Creditors’ Committee, and Certain Consenting Claimants, 6/26/2013, accessed 10/1/2013, www.rescaprmbssettlement.
            com/docs/4098.pdf.
      664.	 Ally Financial Press Release, “Ally Financial Marks Next Step in Implementing the Comprehensive ResCap Settlement,” 5/23/2013, media.ally.
            com/2013-05-23-Ally-Financial-Marks-Next-Step-in-Implementing-the-Comprehensive-ResCap-Settlement, accessed 10/1/2013.
      665.	 Ally Financial Press Release, “Ally Financial Reports Preliminary Second Quarter 2013 Financial Results,” 7/31/2013, media.ally.com/2013-07-
            31-Ally-Financial-Reports-Preliminary-Second-Quarter-2013-Financial-Results, accessed 10/1/2013.
      666.	 Ally Financial Press Release, “Ally Financial Completes Sale of Majority of European and Latin American Operations,” 4/2/2013, media.ally.
            com/2013-04-02-Ally-Financial-Completes-Sale-of-Majority-of-European-and-Latin-American-Operations, accessed 10/1/2013.
      667.	 Ally Financial Press Release, “Ally Financial Completes Sale Of Operations In Brazil,” 10/2/2013, media.ally.com/2013-10-01-Ally-Financial-
            Completes-Sale-of-Operations-in-Brazil, accessed 10/2/2013.
      668.	 Ally Financial Press Release, “Ally Financial Reports Preliminary Second Quarter 2013 Financial Results,” 7/31/2013, media.ally.com/2013-07-
            31-Ally-Financial-Reports-Preliminary-Second-Quarter-2013-Financial-Results, accessed 10/1/2013.
      669.	 Ally Financial Press Release, “Ally Financial Completes Sale of Canadian Operations,” 2/1/2013, media.ally.com/index.
            php?s=20295&item=122599, accessed 10/1/2013; Ally Financial Press Release, “Ally Financial Completes Sale of Mexican Insurance
            Business,” 5/2/2013, media.ally.com/2013-05-02-Ally-Financial-Completes-Sale-of-Mexican-Insurance-Business, accessed 10/1/2013.
      670.	 Ally Financial Press Release, “Ally Bank Reaches Agreement to Sell Remaining Mortgage Servicing Rights,” 3/21/2013, media.ally.com/2013-03-
            21-Ally-Bank-Reaches-Agreement-to-Sell-Remaining-Mortgage-Servicing-Rights, accessed 10/1/2013.
      671.	 Ally Financial Press Release, “Ally Bank Completes Sales of Mortgage Servicing Rights,” 4/17/2013, media.ally.com/2013-04-17-Ally-Bank-
            Completes-Sales-of-Mortgage-Servicing-Rights, accessed 10/1/2013.
      672.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      673.	 Treasury, Section 105(a) Report, 6/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
            2010%20105(a)%20Report_final.pdf, accessed 10/1/2013.
      674.	 Treasury Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1189.
            aspx, accessed 10/1/2013.
      675.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
      676.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
            Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
                                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                  325


677.	 Congressional Oversight Panel, “January Oversight Report: An Update on TARP Support for the Domestic Auto Industry,” 1/13/2011,
      www.gpo.gov/fdsys/pkg/CHRG-112shrg63381/pdf/CHRG-112shrg63381.pdf, accessed 10/1/2013; Treasury, Treasury, Transactions Report,
      9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20Report%20as%20of%209-30-13_
      INVESTMENT.pdf, accessed 10/2/2013.
678.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
679.	 Chrysler Press Release, “Chrysler Group LLC Completes Refinancing and Repays U.S. and Canadian Government Loans in Full,” 5/24/2011,
      media.chrysler.com/newsrelease.do;jsessionid=4FB3EE642102E222D6CEAC20ADF7C090?&id=10922&mid=1, accessed 10/1/2013; Treasury
      Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1189.aspx,
      accessed 10/1/2013.
680.	 Treasury Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1189.
      aspx, accessed 10/1/2013.
681.	 Treasury Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1189.
      aspx, accessed 10/1/2013.
682.	 Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” 7/21/2011, www.treasury.gov/press-center/press-releases/Pages/
      tg1253.aspx, accessed 10/1/2013.
683.	 Treasury, Dividends and Interest Report, 10/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Sept%202013%20
      Dividends%20Interest%20Report.pdf, accessed 10/10/2013.
684.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013; Treasury, Dividends and Interest Report, 10/10/2013, www.treasury.
      gov/initiatives/financial-stability/reports/Documents/Sept%202013%20Dividends%20Interest%20Report.pdf, accessed 10/10/2013.
685.	 Amendment Number Four to Loan and Security Agreement dated as of January 2, 2009 between CGI Holding LLC and the United States
      Department of the Treasury, 7/23/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/aifp/Documents_
      Contracts_Agreements/Chrysler%20LSA%20as%20of%2005-26-10.pdf, accessed 10/1/2013; Treasury, Treasury, Transactions Report,
      9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20Report%20as%20of%209-30-13_
      INVESTMENT.pdf, accessed 10/2/2013.
686.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
687.	 TD Bank Press Release, “TD Bank Group to acquire Chrysler Financial,” 12/21/2010, mediaroom.tdbank.com/index.
      php?s=30379&item=94198, accessed 10/1/2013.
688.	 TD Auto Finance LLC, 8-K, 4/5/2011, www.sec.gov/Archives/edgar/data/1337471/000095012311032930/y90599e8vk.htm, accessed 10/1/2013;
      Banking Business Review, “TD Bank closes acquisition of Chrysler Financial,” 4/1/2010, retailbanking.banking-business-review.com/news/td-
      bank-closes-acquisition-of-chrysler-financial-040411, accessed 10/1/2013.
689.	 Treasury Press Release, “Treasury Announces Auto Supplier Support Programs,” 3/19/2009, www.treasury.gov/press-center/press-releases/Pages/
      tg64.aspx, accessed 10/1/2013.
690.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013; Treasury, Section 105(a) Report, 6/10/2010, www.treasury.gov/
      initiatives/financial-stability/briefing-room/reports/105/Documents105/May%202010%20105(a)%20Report_final.pdf, accessed 10/1/2013.
691.	 Treasury, Office of Financial Stability: Agency Financial Report - Fiscal Year 2010, 11/15/2010, www.treasury.gov/initiatives/financial-stability/
      briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 10/1/2013.
692.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
693.	 Treasury, Transactions Report, 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20Transactions%20
      Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013.
694.	 The White House, “Help for the Hardest Hit Housing Markets,” 2/19/2010, www.whitehouse.gov/the-press-office/help-hardest-hit-housing-
      markets, accessed 10/15/2013; Treasury, “White House: Help for the Hardest Hit Housing Markets,” 2/19/2010, www.makinghomeaffordable.
      gov/about-mha/latest-news/Pages/pr_02192010.aspx, accessed 10/15/2013.
695.	 The White House, “Help for the Hardest Hit Housing Markets,” 2/19/2010, www.whitehouse.gov/the-press-office/help-hardest-hit-housing-
      markets, accessed 10/15/2013; Treasury, “White House: Help for the Hardest Hit Housing Markets,” 2/19/2010, www.makinghomeaffordable.
      gov/about-mha/latest-news/Pages/pr_02192010.aspx, accessed 10/15/2013.
326            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      696.	 Treasury, responses to SIGTARP data calls, 10/7/2013 and 10/17/2013; The White House, “Help for the Hardest Hit Housing Markets,”
            2/19/2010, www.whitehouse.gov/the-press-office/help-hardest-hit-housing-markets, accessed 10/15/2013; www.treasury.gov/initiatives/
            financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/15/2013; Treasury, “White House: Help for
            the Hardest Hit Housing Markets,” 2/19/2010, www.makinghomeaffordable.gov/about-mha/latest-news/Pages/pr_02192010.aspx, accessed
            10/15/2013; Treasury, “Hardest Hit Fund Program Guidelines Round 1,” 2/19/2010, www.treasury.gov/initiatives/financial-stability/TARP-
            Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/15/2013; Treasury, “Update on HFA Hardest-Hit Fund,” 3/5/2010, www.
            makinghomeaffordable.gov/about-mha/latest-news/Pages/pr_03052010.aspx, accessed 10/15/2013; Treasury, “HFA Hardest-Hit Fund Frequently
            Asked Questions,” 3/5/3010, www.makinghomeaffordable.gov/programs/Documents/HFA%20FAQ%20--%20030510%20FINAL%20(Clean).pdf,
            accessed 10/15/2013; Treasury, “Administration Announces Second Round of Assistance for Hardest-Hit Housing Markets,” 3/29/2010, www.
            treasury.gov/press-center/press-releases/Pages/tg618.aspx, accessed 10/15/2013; Treasury, “Hardest Hit Fund Program Guidelines Round 2,”
            3/29/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/15/2013;
            Treasury, “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling
            with Unemployment,” 8/11/2010, www.treasury.gov/press-center/press-releases/Pages/tg1042.aspx, accessed 10/15/2013; Treasury, “Hardest Hit
            Fund Program Guidelines Round 3,” 8/11/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20
            Proposal%20Guidelines%20Third%20Funding%20FINAL.pdf, accessed 10/15/2013; Treasury, “Obama Administration Approves State Plans
            for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,” 6/23/2010, www.treasury.gov/press-center/press-releases/Pages/
            tg757.aspx, accessed 10/15/2013; Treasury, “Obama Administration Approves State Plans For $600 million of ‘Hardest Hit Fund’ Foreclosure
            Prevention Assistance,” 8/4/2010, www.treasury.gov/press-center/press-releases/Pages/tg813.aspx, accessed 10/15/2013; Treasury, Transactions
            Report, 9/29/2010, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-1-10%20Transactions%20Report%20as%20of%20
            9-29-10.pdf, accessed 10/15/2013; Treasury, “HFA Hardest-Hit Fund Program Summary,” 11/3/2010, www.ncsha.org/system/files/resources/
            Treas_Overview_11.03.10.pdf, accessed 10/15/2013.
      697.	 Treasury, “HFA Hardest-Hit Fund Frequently Asked Questions,” 3/5/3010, www.makinghomeaffordable.gov/programs/Documents/HFA%20
            FAQ%20--%20030510%20FINAL%20(Clean).pdf, accessed 10/15/2013; Treasury, “Administration Announces Second Round of Assistance
            for Hardest-Hit Housing Markets,” 3/29/2010, www.treasury.gov/press-center/press-releases/Pages/tg618.aspx, accessed 10/15/2013; Treasury,
            “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling with
            Unemployment,” 8/11/2010, www.treasury.gov/press-center/press-releases/Pages/tg1042.aspx, accessed 10/15/2013; Treasury, Transactions
            Report, 9/29/2010, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-1-10%20Transactions%20Report%20as%20of%209-29-
            10.pdf, accessed 10/15/2013.
      698.	 Treasury, “Hardest Hit Fund Program Guidelines Round 1,” 2/19/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/
            housing/hhf/Pages/Archival-information.aspx, accessed 10/15/2013; Treasury, “Update on HFA Hardest-Hit Fund,” 3/5/2010, www.
            makinghomeaffordable.gov/about-mha/latest-news/Pages/pr_03052010.aspx, accessed 10/15/2013; Treasury, “Hardest Hit Fund Program
            Guidelines Round 2,” 3/29/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx,
            accessed 10/15/2013; Treasury, “Hardest Hit Fund Program Guidelines Round 3,” 8/11/2010, www.treasury.gov/initiatives/financial-stability/
            TARP-Programs/housing/Documents/HFA%20Proposal%20Guidelines%20Third%20Funding%20FINAL.pdf, accessed 10/15/2013; Treasury,
            “Obama Administration Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,” 6/23/2010, www.
            treasury.gov/press-center/press-releases/Pages/tg757.aspx, accessed 10/15/2013; Treasury, “Obama Administration Approves State Plans For
            $600 million of ‘Hardest Hit Fund’ Foreclosure Prevention Assistance,” 8/4/2010, www.treasury.gov/press-center/press-releases/Pages/tg813.
            aspx, accessed 10/15/2013; Treasury, “HFA Hardest-Hit Fund Program Summary,” 11/3/2010, www.ncsha.org/system/files/resources/Treas_
            Overview_11.03.10.pdf, accessed 10/15/2013.
      699.	 Treasury, “Hardest Hit Fund Program Guidelines Round 1,” 2/19/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/
            housing/hhf/Pages/Archival-information.aspx, accessed 10/15/2013; Treasury, “Update on HFA Hardest-Hit Fund,” 3/5/2010, www.
            makinghomeaffordable.gov/about-mha/latest-news/Pages/pr_03052010.aspx, accessed 10/15/2013; Treasury, “Hardest Hit Fund Program
            Guidelines Round 2,” 3/29/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx,
            accessed 10/15/2013; Treasury, “Hardest Hit Fund Program Guidelines Round 3,” 8/11/2010, www.treasury.gov/initiatives/financial-stability/
            TARP-Programs/housing/Documents/HFA%20Proposal%20Guidelines%20Third%20Funding%20FINAL.pdf, accessed 10/15/2013; Treasury,
            “Obama Administration Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,” 6/23/2010,
            www.treasury.gov/press-center/press-releases/Pages/tg757.aspx, accessed 10/15/2013; Treasury, “Obama Administration Approves State Plans
            For $600 million of ‘Hardest Hit Fund’ Foreclosure Prevention Assistance,” 8/4/2010, www.treasury.gov/press-center/press-releases/Pages/
            tg813.aspx, accessed 10/15/2013; Treasury, “HFA Hardest-Hit Fund Program Summary,” 11/3/2010, www.ncsha.org/system/files/resources/
            Treas_Overview_11.03.10.pdf, accessed 10/15/2013; Treasury, “Hardest Hit Fund, Archived Program Information, Participation Agreements,
            Amendments, and Initial Program Guidelines,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/
            Archival-information.aspx, accessed 10/15/2013; SIGTARP analysis of HFA participation agreements and amendments.
      700.	 Treasury, “Hardest Hit Fund Program Guidelines Round 1,” 2/19/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
            hhf/Pages/Archival-information.aspx, accessed 10/15/2013; Treasury, “Hardest Hit Fund Program Guidelines Round 2,” 3/29/2010, www.
            treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/15/2013; Treasury, “Hardest
            Hit Fund Program Guidelines Round 3,” 8/11/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/
            HFA%20Proposal%20Guidelines%20Third%20Funding%20FINAL.pdf, accessed 10/15/2013; Treasury, “Hardest Hit Fund, Archived Program
            Information, Participation Agreements, Amendments, and Initial Program Guidelines,” no date, www.treasury.gov/initiatives/financial-stability/
            TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/15/2013; SIGTARP analysis of HFA participation agreements and
            amendments.
      701.	 Treasury, “Hardest Hit Fund, Archived Program Information, Participation Agreements and Initial Program Guidelines,” no date, www.treasury.
            gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/15/2013; SIGTARP analysis of HFA
            participation agreements and amendments.
      702.	 Treasury, “Hardest Hit Fund, Archived Program Information, Participation Agreements and Initial Program Guidelines,” no date, www.treasury.
            gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/16/2013; SIGTARP analysis of HFA
            participation agreements and amendments.
                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013                 327


703.	 Treasury, “Hardest Hit Fund, Archived Program Information, Participation Agreements and Initial Program Guidelines,” no date, www.treasury.
      gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/16/2013; SIGTARP analysis of HFA
      participation agreements and amendments.
704.	 Treasury, “Hardest Hit Fund Program Guidelines Round 1,” 2/19/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
      hhf/Pages/Archival-information.aspx, accessed 10/16/2013; Treasury, “Hardest Hit Fund Program Guidelines Round 2,” 3/29/2010, www.
      treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/16/2013; Treasury, “Hardest
      Hit Fund Program Guidelines Round 3,” 8/11/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/
      HFA%20Proposal%20Guidelines%20Third%20Funding%20FINAL.pdf, accessed 10/16/2013; Treasury, “Hardest Hit Fund, Archived Program
      Information, Aggregate Program Data and Agreements (Proposals, Participation Agreements, and Amendments),” no date, www.treasury.gov/
      initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/16/2013; Alabama Housing Finance
      Authority, “Hardest Hit Alabama, Treasury Reports,” no date, www.hardesthitalabama.com/resources/treasury_reporting.aspx, accessed
      10/16/2013; Arizona (Home) Foreclosure Prevention Funding Corporation, “Hardest Hit Fund Reporting (quarterly performance reports),”
      no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed 10/16/2013; CalHFA Mortgage Assistance Corporation, “Keep Your
      Home California, Reports & Statistics, Quarterly Reports,” no date, keepyourhomecalifornia.org/quarterly-reports/, accessed 10/16/2013;
      Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF) Information, Quarterly Reports” no date, apps.floridahousing.org/
      StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed 10/16/2013; GHFA Affordable Housing Inc., “HomeSafe Georgia, US
      Treasury Reports,” no date, www.dca.state.ga.us/housing/homeownership/programs/treasuryReports.asp, accessed 10/16/2013; Illinois Housing
      Development Authority, “Illinois Hardest Hit Program, Reporting,” no date, www.illinoishardesthit.org/spv-7.aspx, accessed 10/16/2013;
      Indiana Housing and Community Development Authority, “Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury,” no date,
      www.877gethope.org/reports/, accessed 10/16/2013; Kentucky Housing Corporation, “American Recovery and Reinvestment Act and Troubled
      Asset Relief Program, Kentucky Unemployment Bridge Program [quarterly reports],” no date, www.kyhousing.org/page.aspx?id=3165, accessed
      10/16/2013; Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest Hit U.S. Treasury Reports,” no date, www.michigan.
      gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 10/16/2013; Mississippi Home Corporation, “Financial Disclosures,
      Hardest Hit Fund, HFA Performance Data Report[s],” no date, www.mshomecorp.com/about%20mhc/disclosures.htm, accessed 10/16/2013;
      Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund, US Treasury Reports,” no date, nevadahardesthitfund.nv.gov/,
      accessed 10/16/2013; New Jersey Housing and Mortgage Finance Agency, “The New Jersey HomeKeeper Program, About the Program,
      Performance Reports,” no date, www.njhomekeeper.com/spv-55.aspx, accessed 10/16/2013; North Carolina Housing Finance Agency, “Hardest
      Hit Fund™ & Performance Reporting, …Quarterly Reports,” no date, www.ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed
      10/16/2013; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly Reports,” ohiohome.org/savethedream/quarterlyreports.aspx,
      accessed 10/16/2013; Oregon Affordable Housing Assistance Corporation, “Oregon Homeownership Stabilization Initiative, Reporting,” no
      date, www.oregonhomeownerhelp.org/en/reporting, accessed 10/16/2013; Rhode Island Housing and Mortgage Finance Corporation, “Hardest
      Hit Fund – Rhode Island, About HHFRI, REPORTS,” no date, www.hhfri.org/HHFRI_Dynamic_Content.aspx?id=10737418256&ekmense
      l=c580fa7b_10737418238_10737418240_btnlink, accessed 10/16/2013; SC Housing Corp, “SC HELP, Reports,” no date, www.schelp.gov/
      Resources/Reports.aspx, accessed 10/16/2013; Tennessee Housing Development Agency, “Keep My Tennessee Home, Reports,” no date, www.
      keepmytnhome.org/news-and-reports/, accessed 10/16/2013; District of Columbia Housing Finance Agency, “HomeSaver – A Foreclosure
      Prevention Program[quarterly performance reports],” www.dchfa.org/DCHFAHome/Homebuyers/ForeclosurePrevention/QuarterlyReports/
      tabid/219/Default.aspx, accessed 10/16/2013; SIGTARP analysis of HFA quarterly performance reports.
705.	 Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
      Documents/HFA%20Aggregate%20Quarterly%20Report%20Q22013%20revised%2009.12.13.pdf, accessed 10/16/2013; Alabama Housing
      Finance Authority, “Hardest Hit Alabama, Treasury Reports,” no date, www.hardesthitalabama.com/resources/treasury_reporting.aspx, accessed
      10/16/2013; Arizona (Home) Foreclosure Prevention Funding Corporation, “Hardest Hit Fund Reporting (quarterly performance reports,”
      no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed 10/16/2013; CalHFA Mortgage Assistance Corporation, “Keep Your
      Home California, Reports & Statistics, Quarterly Reports,” no date, keepyourhomecalifornia.org/quarterly-reports/, accessed 10/16/2013;
      Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF) Information, Quarterly Reports,” no date, apps.floridahousing.org/
      StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed 10/16/2013; GHFA Affordable Housing Inc., “HomeSafe Georgia, US
      Treasury Reports,” no date, www.dca.state.ga.us/housing/homeownership/programs/treasuryReports.asp, accessed 10/16/2013; Illinois Housing
      Development Authority, “Illinois Hardest Hit Program, Reporting,” no date, www.illinoishardesthit.org/spv-7.aspx, accessed 10/16/2013;
      Indiana Housing and Community Development Authority, “Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury,” no date,
      www.877gethope.org/reports/, accessed 10/16/2013; Kentucky Housing Corporation, “American Recovery and Reinvestment Act and Troubled
      Asset Relief Program, Kentucky Unemployment Bridge Program [quarterly reports],” no date, www.kyhousing.org/page.aspx?id=3165, accessed
      10/16/2013; Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest Hit U.S. Treasury Reports,” no date, www.michigan.
      gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 10/16/2013; Mississippi Home Corporation, “Financial Disclosures,
      Hardest Hit Fund, HFA Performance Data Report[s],” no date, www.mshomecorp.com/about%20mhc/disclosures.htm, accessed 10/16/2013;
      Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund, US Treasury Reports,” no date, nevadahardesthitfund.nv.gov/,
      accessed 10/16/2013; New Jersey Housing and Mortgage Finance Agency, “The New Jersey HomeKeeper Program, About the Program,
      Performance Reports,” no date, www.njhomekeeper.com/spv-55.aspx, accessed 10/16/2013; North Carolina Housing Finance Agency, “Hardest
      Hit Fund™ & Performance Reporting, …Quarterly Reports,” no date, www.ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed
      10/16/2013; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly Reports,” ohiohome.org/savethedream/quarterlyreports.aspx,
      accessed 10/16/2013; Oregon Affordable Housing Assistance Corporation, “Oregon Homeownership Stabilization Initiative, Reporting,” no
      date, www.oregonhomeownerhelp.org/en/reporting, accessed 10/16/2013; Rhode Island Housing and Mortgage Finance Corporation, “Hardest
      Hit Fund – Rhode Island, About HHFRI, REPORTS,” no date, www.hhfri.org/HHFRI_Dynamic_Content.aspx?id=10737418256&ekmense
      l=c580fa7b_10737418238_10737418240_btnlink, accessed 10/16/2013; SC Housing Corp, “SC HELP, Reports,” no date, www.schelp.gov/
      Resources/Reports.aspx, accessed 10/16/2013; Tennessee Housing Development Agency, “Keep My Tennessee Home, Reports,” no date, www.
      keepmytnhome.org/news-and-reports/, accessed 10/16/2013; District of Columbia Housing Finance Agency, “HomeSaver – A Foreclosure
      Prevention Program[quarterly performance reports],” www.dchfa.org/DCHFAHome/Homebuyers/ForeclosurePrevention/QuarterlyReports/
      tabid/219/Default.aspx, accessed 10/16/2013; SIGTARP analysis of HFA quarterly performance reports.
328            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      706.	 Treasury, response to SIGTARP data call, 10/17/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/
            initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Quarterly%20Report%20Q22013%20revised%20
            09.12.13.pdf, accessed 10/16/2013; Alabama Housing Finance Authority, “Hardest Hit Alabama, Treasury Reports,” no date, www.
            hardesthitalabama.com/resources/treasury_reporting.aspx, accessed 10/16/2013; Arizona (Home) Foreclosure Prevention Funding Corporation,
            “Hardest Hit Fund Reporting (quarterly performance reports,” no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed
            10/16/2013; CalHFA Mortgage Assistance Corporation, “Keep Your Home California, Reports & Statistics, Quarterly Reports,” no date,
            keepyourhomecalifornia.org/quarterly-reports/, accessed 10/16/2013; Florida Housing Finance Corporation, “Florida Hardest Hit Fund
            (HHF) Information, Quarterly Reports,” no date, apps.floridahousing.org/StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed
            10/16/2013; GHFA Affordable Housing Inc., “HomeSafe Georgia, US Treasury Reports,” no date, www.dca.state.ga.us/housing/homeownership/
            programs/treasuryReports.asp, accessed 10/16/2013; Illinois Housing Development Authority, “Illinois Hardest Hit Program, Reporting,”
            no date, www.illinoishardesthit.org/spv-7.aspx, accessed 10/16/2013; Indiana Housing and Community Development Authority, “Indiana’s
            Hardest Hit Fund, Quarterly Reports to the U.S. Treasury,” no date, www.877gethope.org/reports/, accessed 10/16/2013; Kentucky Housing
            Corporation, “American Recovery and Reinvestment Act and Troubled Asset Relief Program, Kentucky Unemployment Bridge Program
            [quarterly reports],” no date, www.kyhousing.org/page.aspx?id=3165, accessed 10/16/2013; Michigan Homeowner Assistance Nonprofit Housing
            Corporation, “Hardest Hit U.S. Treasury Reports,” no date, www.michigan.gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html,
            accessed 10/16/2013; Mississippi Home Corporation, “Financial Disclosures, Hardest Hit Fund, HFA Performance Data Report[s],” no date,
            www.mshomecorp.com/about%20mhc/disclosures.htm, accessed 10/16/2013; Nevada Affordable Housing Assistance Corporation, “Nevada
            Hardest Hit Fund, US Treasury Reports,” no date, nevadahardesthitfund.nv.gov/, accessed 10/16/2013; New Jersey Housing and Mortgage
            Finance Agency, “The New Jersey HomeKeeper Program, About the Program, Performance Reports,” no date, www.njhomekeeper.com/spv-55.
            aspx, accessed 10/16/2013; North Carolina Housing Finance Agency, “Hardest Hit Fund™ & Performance Reporting, …Quarterly Reports,”
            no date, www.ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed 10/16/2013; Ohio Homeowner Assistance LLC, “Save the Dream
            Ohio: Quarterly Reports,” ohiohome.org/savethedream/quarterlyreports.aspx, accessed 10/16/2013; Oregon Affordable Housing Assistance
            Corporation, “Oregon Homeownership Stabilization Initiative, Reporting,” no date, www.oregonhomeownerhelp.org/en/reporting, accessed
            10/16/2013; Rhode Island Housing and Mortgage Finance Corporation, “Hardest Hit Fund – Rhode Island, About HHFRI, REPORTS,” no
            date, www.hhfri.org/HHFRI_Dynamic_Content.aspx?id=10737418256&ekmensel=c580fa7b_10737418238_10737418240_btnlink, accessed
            10/16/2013; SC Housing Corp, “SC HELP, Reports,” no date, www.schelp.gov/Resources/Reports.aspx, accessed 10/16/2013; Tennessee
            Housing Development Agency, “Keep My Tennessee Home, Reports,” no date, www.keepmytnhome.org/news-and-reports/, accessed 10/16/2013;
            District of Columbia Housing Finance Agency, “HomeSaver – A Foreclosure Prevention Program[quarterly performance reports],” www.dchfa.
            org/DCHFAHome/Homebuyers/ForeclosurePrevention/QuarterlyReports/tabid/219/Default.aspx, accessed 10/16/2013; SIGTARP analysis of
            HFA quarterly performance reports.
      707.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
      708.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date,
            www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Quarterly%20Report%20Q22013%20
            revised%2009.12.13.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
      709.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
      710.	 Treasury, “Hardest Hit Fund Program Guidelines Round 1,” 2/19/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
            hhf/Pages/Archival-information.aspx, accessed 10/16/2013; Treasury, “Hardest Hit Fund Program Guidelines Round 2,” 3/29/2010, www.
            treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/16/2013; Treasury, “Hardest
            Hit Fund Program Guidelines Round 3,” 8/11/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/
            HFA%20Proposal%20Guidelines%20Third%20Funding%20FINAL.pdf, accessed 10/16/2013.
      711.	 Treasury, “Hardest Hit Fund Program Guidelines Round 3,” 8/11/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/
            housing/Documents/HFA%20Proposal%20Guidelines%20Third%20Funding%20FINAL.pdf, accessed 10/16/2013; Treasury, “Hardest Hit
            Fund, Archived Program Information, Participation Agreements and Amendments,” no date, www.treasury.gov/initiatives/financial-stability/
            TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/16/2013; SIGTARP analysis of HFA participation agreements and
            amendments.
      712.	 Treasury, response to SIGTARP data call, 10/3/2013.
      713.	 Treasury, response to SIGTARP data call, 10/3/2013.
      714.	 Treasury, response to SIGTARP data call, 10/10/2013.
      715.	 Treasury, “Hardest Hit Fund Program Guidelines Round 1,” 2/19/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
            hhf/Pages/Archival-information.aspx, accessed 10/16/2013; Treasury, “Hardest Hit Fund Program Guidelines Round 2,” 3/29/2010, www.
            treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/16/2013; Treasury, “Hardest
            Hit Fund Program Guidelines Round 3,” 8/11/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/
            HFA%20Proposal%20Guidelines%20Third%20Funding%20FINAL.pdf, accessed 10/16/2013; Treasury, “Hardest Hit Fund, Archived Program
            Information, Participation Agreements and Amendments,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/
            Pages/Archival-information.aspx, accessed 10/16/2013; SIGTARP analysis of HFA participation agreements and amendments.
      716.	 Treasury, “Hardest Hit Fund Program Guidelines Round 3,” 8/11/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/
            housing/Documents/HFA%20Proposal%20Guidelines%20Third%20Funding%20FINAL.pdf, accessed 10/16/2013; Treasury, “Hardest Hit
            Fund, Archived Program Information, Participation Agreements and Amendments,” no date, www.treasury.gov/initiatives/financial-stability/
            TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/16/2013; SIGTARP analysis of HFA participation agreements and
            amendments.
      717.	 Treasury, “Hardest Hit Fund, Archived Program Information, Participation Agreements and Amendments,” no date, www.treasury.gov/initiatives/
            financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/16/2013; SIGTARP analysis of HFA participation
            agreements and amendments.
                                                                                     QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013               329


718.	 Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
      Documents/HFA%20Aggregate%20Quarterly%20Report%20Q22013%20revised%2009.12.13.pdf, accessed 10/16/2013; Alabama Housing
      Finance Authority, “Hardest Hit Alabama, Treasury Reports,” no date, www.hardesthitalabama.com/resources/treasury_reporting.aspx, accessed
      10/16/2013; Arizona (Home) Foreclosure Prevention Funding Corporation, “Hardest Hit Fund Reporting (quarterly performance reports,”
      no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed 10/16/2013; CalHFA Mortgage Assistance Corporation, “Keep Your
      Home California, Reports & Statistics, Quarterly Reports,” no date, keepyourhomecalifornia.org/quarterly-reports/, accessed 10/16/2013;
      Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF) Information, Quarterly Reports,” no date, apps.floridahousing.org/
      StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed 10/16/2013; GHFA Affordable Housing Inc., “HomeSafe Georgia, US
      Treasury Reports,” no date, www.dca.state.ga.us/housing/homeownership/programs/treasuryReports.asp, accessed 10/16/2013; Illinois Housing
      Development Authority, “Illinois Hardest Hit Program, Reporting,” no date, www.illinoishardesthit.org/spv-7.aspx, accessed 10/16/2013;
      Indiana Housing and Community Development Authority, “Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury,” no date,
      www.877gethope.org/reports/, accessed 10/16/2013; Kentucky Housing Corporation, “American Recovery and Reinvestment Act and Troubled
      Asset Relief Program, Kentucky Unemployment Bridge Program [quarterly reports],” no date, www.kyhousing.org/page.aspx?id=3165, accessed
      10/16/2013; Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest Hit U.S. Treasury Reports,” no date, www.michigan.
      gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 10/16/2013; Mississippi Home Corporation, “Financial Disclosures,
      Hardest Hit Fund, HFA Performance Data Report[s],” no date, www.mshomecorp.com/about%20mhc/disclosures.htm, accessed 10/16/2013;
      Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund, US Treasury Reports,” no date, nevadahardesthitfund.nv.gov/,
      accessed 10/16/2013; New Jersey Housing and Mortgage Finance Agency, “The New Jersey HomeKeeper Program, About the Program,
      Performance Reports,” no date, www.njhomekeeper.com/spv-55.aspx, accessed 10/16/2013; North Carolina Housing Finance Agency, “Hardest
      Hit Fund™ & Performance Reporting, …Quarterly Reports,” no date, www.ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed
      10/16/2013; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly Reports,” ohiohome.org/savethedream/quarterlyreports.aspx,
      accessed 10/16/2013; Oregon Affordable Housing Assistance Corporation, “Oregon Homeownership Stabilization Initiative, Reporting,” no
      date, www.oregonhomeownerhelp.org/en/reporting, accessed 10/16/2013; Rhode Island Housing and Mortgage Finance Corporation, “Hardest
      Hit Fund – Rhode Island, About HHFRI, REPORTS,” no date, www.hhfri.org/HHFRI_Dynamic_Content.aspx?id=10737418256&ekmense
      l=c580fa7b_10737418238_10737418240_btnlink, accessed 10/16/2013; SC Housing Corp, “SC HELP, Reports,” no date, www.schelp.gov/
      Resources/Reports.aspx, accessed 10/16/2013; Tennessee Housing Development Agency, “Keep My Tennessee Home, Reports,” no date, www.
      keepmytnhome.org/news-and-reports/, accessed 10/16/2013; District of Columbia Housing Finance Agency, “HomeSaver – A Foreclosure
      Prevention Program[quarterly performance reports],” www.dchfa.org/DCHFAHome/Homebuyers/ForeclosurePrevention/QuarterlyReports/
      tabid/219/Default.aspx, accessed 10/16/2013; SIGTARP analysis of HFA quarterly performance reports.
719.	 Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
      Documents/HFA%20Aggregate%20Quarterly%20Report%20Q22013%20revised%2009.12.13.pdf, accessed 10/16/2013; Alabama Housing
      Finance Authority, “Hardest Hit Alabama, Treasury Reports,” no date, www.hardesthitalabama.com/resources/treasury_reporting.aspx, accessed
      10/16/2013; Arizona (Home) Foreclosure Prevention Funding Corporation, “Hardest Hit Fund Reporting (quarterly performance reports,”
      no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed 10/16/2013; CalHFA Mortgage Assistance Corporation, “Keep Your
      Home California, Reports & Statistics, Quarterly Reports,” no date, keepyourhomecalifornia.org/quarterly-reports/, accessed 10/16/2013;
      Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF) Information, Quarterly Reports,” no date, apps.floridahousing.org/
      StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed 10/16/2013; GHFA Affordable Housing Inc., “HomeSafe Georgia, US
      Treasury Reports,” no date, www.dca.state.ga.us/housing/homeownership/programs/treasuryReports.asp, accessed 10/16/2013; Illinois Housing
      Development Authority, “Illinois Hardest Hit Program, Reporting,” no date, www.illinoishardesthit.org/spv-7.aspx, accessed 10/16/2013;
      Indiana Housing and Community Development Authority, “Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury,” no date,
      www.877gethope.org/reports/, accessed 10/16/2013; Kentucky Housing Corporation, “American Recovery and Reinvestment Act and Troubled
      Asset Relief Program, Kentucky Unemployment Bridge Program [quarterly reports],” no date, www.kyhousing.org/page.aspx?id=3165, accessed
      10/16/2013; Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest Hit U.S. Treasury Reports,” no date, www.michigan.
      gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 10/16/2013; Mississippi Home Corporation, “Financial Disclosures,
      Hardest Hit Fund, HFA Performance Data Report[s],” no date, www.mshomecorp.com/about%20mhc/disclosures.htm, accessed 10/16/2013;
      Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund, US Treasury Reports,” no date, nevadahardesthitfund.nv.gov/,
      accessed 10/16/2013; New Jersey Housing and Mortgage Finance Agency, “The New Jersey HomeKeeper Program, About the Program,
      Performance Reports,” no date, www.njhomekeeper.com/spv-55.aspx, accessed 10/16/2013; North Carolina Housing Finance Agency, “Hardest
      Hit Fund™ & Performance Reporting, …Quarterly Reports,” no date, www.ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed
      10/16/2013; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly Reports,” ohiohome.org/savethedream/quarterlyreports.aspx,
      accessed 10/16/2013; Oregon Affordable Housing Assistance Corporation, “Oregon Homeownership Stabilization Initiative, Reporting,” no
      date, www.oregonhomeownerhelp.org/en/reporting, accessed 10/16/2013; Rhode Island Housing and Mortgage Finance Corporation, “Hardest
      Hit Fund – Rhode Island, About HHFRI, REPORTS,” no date, www.hhfri.org/HHFRI_Dynamic_Content.aspx?id=10737418256&ekmense
      l=c580fa7b_10737418238_10737418240_btnlink, accessed 10/16/2013; SC Housing Corp, “SC HELP, Reports,” no date, www.schelp.gov/
      Resources/Reports.aspx, accessed 10/16/2013; Tennessee Housing Development Agency, “Keep My Tennessee Home, Reports,” no date, www.
      keepmytnhome.org/news-and-reports/, accessed 10/16/2013; District of Columbia Housing Finance Agency, “HomeSaver – A Foreclosure
      Prevention Program[quarterly performance reports],” www.dchfa.org/DCHFAHome/Homebuyers/ForeclosurePrevention/QuarterlyReports/
      tabid/219/Default.aspx, accessed 10/16/2013; SIGTARP analysis of HFA quarterly performance reports.
720.	 SIGTARP, “Factors Affecting Implementation of the Hardest Hit Fund Program,” 4/12/2012, www.sigtarp.gov/Audit%20Reports/SIGTARP_
      HHF_Audit.pdf, accessed 10/16/2013.
721.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date,
      www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Quarterly%20Report%20Q22013%20
      revised%2009.12.13.pdf, accessed 10/16/2013; Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013.
330            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      722.	 Treasury, responses to SIGTARP data calls, 10/7/2013 and 10/17/2013; Rhode Island Housing and Mortgage Finance Corporation, “HHFRI
            News,” no date, www.hhfri.org/, accessed 10/3/2013; Illinois Housing Development Authority, “Welcome to the Illinois Hardest Hit Program,”
            no date, www.illinoishardesthit.org/, accessed 10/3/2013.
      723.	 Treasury, response to SIGTARP data call, 10/7/2013; Rhode Island Housing and Mortgage Finance Corporation, “HHFRI News,” no date, www.
            hhfri.org/, accessed 10/3/2013.
      724.	 Treasury, response to SIGTARP data call, 10/7/2013; Illinois Housing Development Authority, “Welcome to the Illinois Hardest Hit Program,”
            no date, www.illinoishardesthit.org/, accessed 10/3/2013.
      725.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
      726.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
      727.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed
            10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.
            gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 10/16/2013; Alabama Housing Finance
            Authority, “Hardest Hit Alabama, Treasury Reports, 2013, 2nd Quarter,” no date, www.hardesthitalabama.com/resources/treasury_reporting.
            aspx, accessed 10/16/2013; SIGTARP analysis of Alabama Housing Finance Authority quarterly performance report.
      728.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury,
            “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-
            Documents.aspx, accessed 10/16/2013; Alabama Housing Finance Authority, “Hardest Hit Alabama, Treasury Reports, 2013, 2nd Quarter,” no
            date, www.hardesthitalabama.com/resources/treasury_reporting.aspx, accessed 10/16/2013; SIGTARP analysis of Alabama Housing Finance
            Authority HFA quarterly performance report.
      729.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
      730.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
      731.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed
            10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.
            gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 10/16/2013; Arizona (Home) Foreclosure
            Prevention Funding Corporation, “Hardest Hit Fund Reporting, Hardest Hit Fund-2nd Quarter 2013,” no date, www.azhousing.gov/ShowPage.
            aspx?ID=405&CID=11, accessed 10/16/2013; SIGTARP analysis of Arizona (Home) Foreclosure Prevention Funding Corporation quarterly
            performance report.
      732.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, responses to SIGTARP data calls, 7/5/2013 and
            10/7/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/
            housing/Pages/Program-Documents.aspx, accessed 10/16/2013; Arizona (Home) Foreclosure Prevention Funding Corporation, “Hardest Hit
            Fund Reporting, Hardest Hit Fund-2nd Quarter 2013,” no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed 10/16/2013;
            SIGTARP analysis of Arizona (Home) Foreclosure Prevention Funding Corporation quarterly performance report.
      733.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
      734.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
      735.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed
            10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.
            gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 10/16/2013; CalHFA Mortgage Assistance
            Corporation, “Keep Your Home California, Reports & Statistics, Quarterly Reports, 2013, Second Quarter (Period ending 6/30/13),” no date,
            keepyourhomecalifornia.org/quarterly-reports/, accessed 10/16/2013; SIGTARP analysis of CalHFA Mortgage Assistance Corporation quarterly
            performance report.
      736.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury,
            “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-
            Documents.aspx, accessed 10/16/2013; CalHFA Mortgage Assistance Corporation, “Keep Your Home California, Reports & Statistics, Quarterly
            Reports, 2013, Second Quarter (Period ending 6/30/13),” no date, keepyourhomecalifornia.org/quarterly-reports/, accessed 10/16/2013;
            SIGTARP analysis of CalHFA Mortgage Assistance Corporation quarterly performance report.
      737.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
      738.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
                                                                                      QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013               331


739.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed
      10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.
      treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 10/16/2013; Florida Housing
      Finance Corporation, “Florida Hardest Hit Fund (HHF) Information, Quarterly Reports, HHF QTR Report ending 6/30/13,” no date, apps.
      floridahousing.org/StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed 10/16/2013; SIGTARP analysis of Florida Housing
      Finance Corporation quarterly performance report.
740.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury,
      “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-
      Documents.aspx, accessed 10/16/2013; Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF) Information, Quarterly
      Reports, HHF QTR Report ending 6/30/13,” no date, apps.floridahousing.org/StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277,
      accessed 10/16/2013; SIGTARP analysis of Florida Housing Finance Corporation quarterly performance report.
741.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
742.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
743.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed
      10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.
      treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 10/16/2013; GHFA Affordable
      Housing Inc., “HomeSafe Georgia, US Treasury Reports, June 2013 Report,” no date, www.dca.state.ga.us/housing/homeownership/programs/
      treasuryReports.asp, accessed 10/16/2013; SIGTARP analysis of GHFA Affordable Housing Inc. quarterly performance report.
744.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury,
      “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-
      Documents.aspx, accessed 10/16/2013; GHFA Affordable Housing Inc., “HomeSafe Georgia, US Treasury Reports, June 2013 Report,” no
      date, www.dca.state.ga.us/housing/homeownership/programs/treasuryReports.asp, accessed 10/16/2013; SIGTARP analysis of GHFA Affordable
      Housing Inc. quarterly performance report.
745.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
746.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
747.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed
      10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.
      gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 10/16/2013; Illinois Housing Development
      Authority, “Illinois Hardest Hit Program, Reporting, Illinois HHF Second Quarter Performance Report 2013,” no date, www.illinoishardesthit.
      org/spv-7.aspx, accessed 10/16/2013; SIGTARP analysis of Illinois Housing Development Authority quarterly performance report.
748.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury,
      “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-
      Documents.aspx, accessed 10/16/2013; Illinois Housing Development Authority, “Illinois Hardest Hit Program, Reporting, Illinois HHF Second
      Quarter Performance Report 2013,” no date, www.illinoishardesthit.org/spv-7.aspx, accessed 10/16/2013; SIGTARP analysis of Illinois Housing
      Development Authority quarterly performance report.
749.	 Treasury, responses to SIGTARP data calls, 10/7/2013 and 10/17/2013; Illinois Housing Development Authority, “Welcome to the Illinois
      Hardest Hit Program,” no date, www.illinoishardesthit.org/, accessed 10/3/2013.
750.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
751.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
752.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed
      10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.
      gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 10/16/2013; Indiana Housing and
      Community Development Authority, “Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury, Indiana’s Hardest Hit Fund Quarterly
      Report (Q2) 2013 as submitted to Treasury August 28, 2013,” no date, www.877gethope.org/reports/, accessed 10/16/2013; SIGTARP analysis
      of Indiana Housing and Community Development Authority quarterly performance report.
753.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury,
      “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-
      Documents.aspx, accessed 10/16/2013; Indiana Housing and Community Development Authority, “Indiana’s Hardest Hit Fund, Quarterly
      Reports to the U.S. Treasury, Indiana’s Hardest Hit Fund Quarterly Report (Q2) 2013 as submitted to Treasury August 28, 2013,” no date,
      www.877gethope.org/reports/, accessed 10/16/2013; SIGTARP analysis of Indiana Housing and Community Development Authority quarterly
      performance report.
332            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      754.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
      755.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
      756.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed
            10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.
            treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 10/16/2013; Kentucky Housing
            Corporation, “American Recovery and Reinvestment Act and Troubled Asset Relief Program, Kentucky Unemployment Bridge Program,
            Unemployment Bridge Program 2nd Quarter 2013 Report,” no date, www.kyhousing.org/page.aspx?id=3165, accessed 10/16/2013; SIGTARP
            analysis of Kentucky Housing Corporation quarterly performance report.
      757.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury,
            “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-
            Documents.aspx, accessed 10/16/2013; Kentucky Housing Corporation, “American Recovery and Reinvestment Act and Troubled Asset Relief
            Program, Kentucky Unemployment Bridge Program, Unemployment Bridge Program 2nd Quarter 2013 Report,” no date, www.kyhousing.org/
            page.aspx?id=3165, accessed 10/16/2013; SIGTARP analysis of Kentucky Housing Corporation quarterly performance report.
      758.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
      759.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
      760.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed
            10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.
            gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 10/16/2013; Michigan Homeowner
            Assistance Nonprofit Housing Corporation, “Hardest Hit U.S. Treasury Reports, Quarter End 06/30/2013,” no date, www.michigan.gov/
            mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 10/16/2013; SIGTARP analysis of Michigan Homeowner Assistance
            Nonprofit Housing Corporation quarterly performance report.
      761.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury,
            “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-
            Documents.aspx, accessed 10/16/2013; Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest Hit U.S. Treasury Reports,
            Quarter End 06/30/2013,” no date, www.michigan.gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 10/16/2013;
            SIGTARP analysis of Michigan Homeowner Assistance Nonprofit Housing Corporation quarterly performance report.
      762.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
      763.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
      764.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed
            10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.
            gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 10/16/2013; Mississippi Home Corporation,
            “Financial Disclosures, Hardest Hit Fund, HFA Performance Data Report, 2nd Quarter 2013,” no date, www.mshomecorp.com/about%20mhc/
            disclosures.htm, accessed 10/16/2013; SIGTARP analysis of Mississippi Home Corporation quarterly performance report.
      765.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury,
            “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-
            Documents.aspx, accessed 10/16/2013; Mississippi Home Corporation, “Financial Disclosures, Hardest Hit Fund, HFA Performance Data
            Report, 2nd Quarter 2013,” no date, www.mshomecorp.com/about%20mhc/disclosures.htm, accessed 10/16/2013; SIGTARP analysis of
            Mississippi Home Corporation quarterly performance report.
      766.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
      767.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
      768.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed
            10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.
            gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 10/16/2013; Nevada Affordable Housing
            Assistance Corporation, “Nevada Hardest Hit Fund, US Treasury Reports, 2Qtr. 2013,” no date, nevadahardesthitfund.nv.gov/, accessed
            10/16/2013; SIGTARP analysis of Nevada Affordable Housing Assistance Corporation quarterly performance report.
      769.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury,
            “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-
            Documents.aspx, accessed 10/16/2013; Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund, US Treasury Reports,
            2Qtr. 2013,” no date, nevadahardesthitfund.nv.gov/, accessed 10/16/2013; SIGTARP analysis of Nevada Affordable Housing Assistance
            Corporation quarterly performance report.
                                                                                     QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013              333


770.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
771.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
772.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed
      10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.
      gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 10/16/2013; New Jersey Housing and
      Mortgage Finance Agency, “The New Jersey HomeKeeper Program, About the Program, Performance Reports, New Jersey Second Quarter
      2013 Performance Report,” no date, www.njhomekeeper.com/spv-55.aspx, accessed 10/16/2013; SIGTARP analysis of New Jersey Housing and
      Mortgage Finance Agency quarterly performance report.
773.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury,
      “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-
      Documents.aspx, accessed 10/16/2013; New Jersey Housing and Mortgage Finance Agency, “The New Jersey HomeKeeper Program, About the
      Program, Performance Reports, New Jersey Second Quarter 2013 Performance Report,” no date, www.njhomekeeper.com/spv-55.aspx, accessed
      10/16/2013; SIGTARP analysis of New Jersey Housing and Mortgage Finance Agency quarterly performance report.
774.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
775.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
776.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed
      10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.
      treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 10/16/2013; North Carolina
      Housing Finance Agency, “Hardest Hit Fund™ & Performance Reporting, …Quarterly Reports, Quarter 2 – April – June 2013,” no date, www.
      ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed 10/16/2013; SIGTARP analysis of North Carolina Housing Finance Agency
      quarterly performance report.
777.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury,
      “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-
      Documents.aspx, accessed 10/16/2013; North Carolina Housing Finance Agency, “Hardest Hit Fund™ & Performance Reporting, …Quarterly
      Reports, Quarter 2 – April – June 2013,” no date, www.ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed 10/16/2013; SIGTARP
      analysis of North Carolina Housing Finance Agency quarterly performance report.
778.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
779.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
780.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed
      10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.
      gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 10/16/2013; Ohio Homeowner Assistance
      LLC, “Save the Dream Ohio: Quarterly Reports, Second Quarter 2013 Report” ohiohome.org/savethedream/quarterlyreports.aspx, accessed
      10/16/2013; SIGTARP analysis of Ohio Homeowner Assistance LLC quarterly performance report.
781.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury,
      “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-
      Documents.aspx, accessed 10/16/2013; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly Reports, Second Quarter 2013
      Report” ohiohome.org/savethedream/quarterlyreports.aspx, accessed 10/16/2013; SIGTARP analysis of Ohio Homeowner Assistance LLC
      quarterly performance report.
782.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
783.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
784.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed
      10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.
      gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 10/16/2013; Oregon Affordable Housing
      Assistance Corporation, “Oregon Homeownership Stabilization Initiative, Reporting, OHSI Quarter 2 2013 Report (April - June 2013),”
      no date, www.oregonhomeownerhelp.org/en/reporting, accessed 10/16/2013; SIGTARP analysis of Oregon Affordable Housing Assistance
      Corporation quarterly performance report.
334            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      785.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury,
            “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-
            Documents.aspx, accessed 10/16/2013; Oregon Affordable Housing Assistance Corporation, “Oregon Homeownership Stabilization Initiative,
            Reporting, OHSI Quarter 2 2013 Report (April – June 2013),” no date, www.oregonhomeownerhelp.org/en/reporting, accessed 10/16/2013;
            SIGTARP analysis of Oregon Affordable Housing Assistance Corporation quarterly performance report.
      786.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
      787.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
      788.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed
            10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.
            gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 10/16/2013; Rhode Island Housing and
            Mortgage Finance Corporation, “Hardest Hit Fund – Rhode Island, About HHFRI, REPORTS, Q2 2013,” no date, www.hhfri.org/HHFRI_
            Dynamic_Content.aspx?id=10737418256&ekmensel=c580fa7b_10737418238_10737418240_btnlink, accessed 10/16/2013; SIGTARP analysis
            of Rhode Island Housing and Mortgage Finance Corporation quarterly performance report.
      789.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury,
            “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/
            Program-Documents.aspx, accessed 10/16/2013; Rhode Island Housing and Mortgage Finance Corporation, “Hardest Hit Fund – Rhode
            Island, About HHFRI, REPORTS, Q2 2013,” no date, www.hhfri.org/HHFRI_Dynamic_Content.aspx?id=10737418256&ekmensel=c58
            0fa7b_10737418238_10737418240_btnlink, accessed 10/16/2013; SIGTARP analysis of Rhode Island Housing and Mortgage Finance
            Corporation quarterly performance report.
      790.	 Treasury, responses to SIGTARP data calls, 7/5/2013, 10/7/2013, and 10/17/2013; Rhode Island Housing and Mortgage Finance Corporation,
            “HHFRI News,” no date, www.hhfri.org, accessed 10/3/2013.
      791.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
      792.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
      793.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed
            10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.
            gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 10/16/2013; SC Housing Corp, “SC HELP,
            Reports, Quarter ending June 30, 2013,” no date, www.schelp.gov/Resources/Reports.aspx, accessed 10/16/2013; SIGTARP analysis of SC
            Housing Corp quarterly performance report.
      794.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury,
            “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-
            Documents.aspx, accessed 10/16/2013; SC Housing Corp, “SC HELP, Reports, Quarter ending June 30, 2013,” no date, www.schelp.gov/
            Resources/Reports.aspx, accessed 10/16/2013; SIGTARP analysis of SC Housing Corp quarterly performance report.
      795.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
      796.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
      797.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed
            10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.
            treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 10/16/2013; Tennessee Housing
            Development Agency, “Keep My Tennessee Home, Reports, Second Quarter 2013 Report,” no date, www.keepmytnhome.org/news-and-reports/,
            accessed 10/16/2013; SIGTARP analysis of Tennessee Housing Development Agency quarterly performance report.
      798.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury,
            “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-
            Documents.aspx, accessed 10/16/2013; Tennessee Housing Development Agency, “Keep My Tennessee Home, Reports, Second Quarter 2013
            Report,” no date, www.keepmytnhome.org/news-and-reports/, accessed 10/16/2013; SIGTARP analysis of Tennessee Housing Development
            Agency quarterly performance report.
      799.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013.
      800.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013.
                                                                                     QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2013              335


801.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/27/2013, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed
      10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury, “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.
      gov/initiatives/financial-stability/TARP-Programs/housing/Pages/Program-Documents.aspx, accessed 10/16/2013; District of Columbia Housing
      Finance Agency, “HomeSaver – A Foreclosure Prevention Program[quarterly performance reports], DCHFA HomeSaver Program – June 2013
      Quarterly Report,” www.dchfa.org/DCHFAHome/Homebuyers/ForeclosurePrevention/QuarterlyReports/tabid/219/Default.aspx, accessed
      10/16/2013; SIGTARP analysis of District of Columbia Housing Finance Agency quarterly performance report.
802.	 Treasury, Transactions Report-Housing Programs, 6/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2006.27.2013.pdf, accessed 10/16/2013; Treasury, response to SIGTARP data call, 7/5/2013; Treasury,
      “HFA Aggregate Quarterly Report Q2 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/
      Program-Documents.aspx, accessed 10/16/2013; District of Columbia Housing Finance Agency, “HomeSaver – A Foreclosure Prevention
      Program[quarterly performance reports], DCHFA HomeSaver Program – June 2013 Quarterly Report,” www.dchfa.org/DCHFAHome/
      Homebuyers/ForeclosurePrevention/QuarterlyReports/tabid/219/Default.aspx, accessed 10/16/2013; SIGTARP analysis of District of Columbia
      Housing Finance Agency quarterly performance report.
803.	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
804.	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
805.	 Treasury, response to SIGTARP data call, 10/16/2013.
806.	 Treasury, response to SIGTARP data call, 10/3/2013.
807.	 Treasury, response to SIGTARP data call, 10/7/2013.
808.	 Treasury, response to SIGTARP data call, 10/7/2013.
809.	 Fannie Mae, response to SIGTARP data call, 10/3/2103; Freddie Mac, response to SIGTARP data call, 10/3/2013.
810.	 Treasury, response to SIGTARP data call, 10/16/2013.
811.	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
812.	 Treasury, response to SIGTARP data call, 10/3/2013.
336           APPENDIX A I GLOSSARY I OCTOBER 29, 2013




      GLOSSARY
      This appendix provides a glossary of terms that are used in the context of this report.

      7(a) Loan Program: SBA loan program guaranteeing                   Credit Default Swap (“CDS”): A contract where the seller
      a percentage of loans for small businesses that cannot             receives payments from the buyer in return for agreeing to
      otherwise obtain conventional loans at reasonable terms.           pay the buyer when a particular credit event occurs, such
                                                                         as when the credit rating on a bond is downgraded or a
      Accredited Investors: Individuals or institutions that
                                                                         loan goes into default. The buyer does not need to own the
      by law are considered financially sophisticated enough
                                                                         asset covered by the contract, meaning the swap can serve
      so that they can invest in ventures that are exempt from
                                                                         essentially as a bet against the underlying bond or loan.
      investor protection laws. Under U.S. securities laws, these
      include many financial companies, pension plans, wealthy           Cumulative Preferred Stock: Stock requiring a defined
      individuals, and top executives or directors of the issuing        dividend payment. If the company does not pay the dividend
      companies.                                                         on schedule, it still owes the missed dividend to the stock’s
                                                                         owner.
      Asset-Backed Securities (“ABS”): Bonds backed by a
      portfolio of consumer or corporate loans (e.g., credit card,       Cumulative Redefault Rate: The total number of HAMP
      auto, or small-business loans). Financial companies typically      permanent modifications that have redefaulted (as of
      issue ABS backed by existing loans in order to fund new loans      a specific date) divided by the total number of HAMP
      for their customers.                                               permanent modifications started (as of the same specific
                                                                         date).
      Collateral: Asset pledged by a borrower to a lender until a
      loan is repaid. Generally, if the borrower defaults on the loan,   Custodian Bank: Bank holding the collateral and managing
      the lender gains ownership of the pledged asset and may sell       accounts for FRBNY; for TALF the custodian is Bank of New
      it to satisfy the debt. In TALF, the ABS or CMBS purchased         York Mellon.
      with the TALF loan is the collateral that is posted with
                                                                         Debt: Investment in a business that is required to be paid
      FRBNY.
                                                                         back to the investor, usually with interest.
      Collateralized Debt Obligation (“CDO”): A security that
                                                                         Deed-in-Lieu of Foreclosure: Instead of going through
      entitles the purchaser to some part of the cash flows from a
                                                                         foreclosure, the borrower voluntarily surrenders the deed
      portfolio of assets such as mortgage-backed securities, bonds,
                                                                         to the home to the investor as satisfaction of the unpaid
      loans, or other CDOs.
                                                                         mortgage balance.
      Commercial Mortgage-Backed Securities (“CMBS”):
                                                                         Deficiency Judgment: Court order authorizing a lender to
      Bonds backed by one or more mortgages on commercial real
                                                                         collect all or part of an unpaid and outstanding debt resulting
      estate (e.g., office buildings, rental apartments, hotels).
                                                                         from the borrower’s default on the mortgage note securing a
      Common Stock: Equity ownership entitling an individual to          debt. A deficiency judgment is rendered after the foreclosed
      share in corporate earnings and voting rights.                     or repossessed property is sold when the proceeds are
                                                                         insufficient to repay the full mortgage debt.
      Community Development Financial Institutions
      (“CDFIs”): Financial institutions eligible for Treasury            Deobligations: An agency’s cancellation or downward
      funding to serve urban and rural low-income communities            adjustment of previously incurred obligations.
      through the CDFI Fund. CDFIs were created in 1994
                                                                         Due Diligence: Appropriate level of attention or care a
      by the Riegle Community Development and Regulatory
                                                                         reasonable person should take before entering into an
      Improvement Act.
                                                                         agreement or a transaction with another party. In finance, it
                                                                         often refers to the process of conducting an audit or review of
                                                                         the institution before initiating a transaction.
                                                                         Equity: Investment that represents an ownership interest in
                                                                         a business.
                                                                                        GLOSSARY I APPENDIX A I OCTOBER 29, 2013     337




Equity Capital Facility: Commitment to invest equity                (limited partner) and at least one partner whose liability
capital in a firm under certain future conditions. An equity        extends beyond monetary investment (general partner).
facility when drawn down is an investment that increases
                                                                    Loan Servicers: Companies that perform administrative
the provider’s ownership stake in the company. The investor
                                                                    tasks on monthly mortgage payments until the loan is
may be able to recover the amount invested by selling its
                                                                    repaid. These tasks include billing, tracking, and collecting
ownership stake to other investors at a later date.
                                                                    monthly payments; maintaining records of payments and
Excess Spread: Funds left over after required payments and          balances; allocating and distributing payment collections to
other contractual obligations have been met. In TALF it is          investors in accordance with each mortgage loan’s governing
the difference between the periodic amount of interest paid         documentation; following up on delinquencies; and initiating
out by the collateral and the amount of interest charged by         foreclosures.
FRBNY on the nonrecourse loan provided to the borrower to
                                                                    Loan-to-Value (“LTV”) Ratio: Lending risk assessment ratio
purchase the collateral.
                                                                    that mortgage lenders examine before approving a mortgage;
Exercise Price: Preset price at which a warrant holder              calculated by dividing the outstanding amount of the loan
may purchase each share. For warrants in publicly traded            by the value of the collateral backing the loan. Loans with
institutions issued through CPP, this was based on the              high LTV ratios are generally seen as higher risk because the
average stock price during the 20 days before the date that         borrower has less of an equity stake in the property.
Treasury granted preliminary CPP participation approval.
                                                                    Mandatorily Convertible Preferred Stock (“MCP”): A type
Government-Sponsored Enterprises (“GSEs”): Private                  of preferred share (ownership in a company that generally
corporations created and chartered by the Government to             entitles the owner of the shares to collect dividend payments)
reduce borrowing costs and provide liquidity in the market,         that can be converted to common stock under certain
the liabilities of which are not officially considered direct       parameters at the discretion of the company — and must be
taxpayer obligations. On September 7, 2008, the two largest         converted to common stock by a certain time.
GSEs, the Federal National Mortgage Association (“Fannie
                                                                    Nationally Recognized Statistical Rating Organization
Mae”) and the Federal Home Loan Mortgage Corporation
                                                                    (“NRSRO”): Credit rating agency registered with the
(“Freddie Mac”), were placed into Federal conservatorship.
                                                                    SEC. Credit rating agencies provide their opinion of the
They are currently being financially supported by the
                                                                    creditworthiness of companies and the financial obligations
Government.
                                                                    issued by companies. The ratings distinguish between
Haircut: Difference between the value of the collateral and         investment grade and non-investment grade equity and debt
the value of the loan (the loan value is less than the collateral   obligations.
value).
                                                                    Net Present Value (“NPV”) Test: Compares the money
Illiquid Assets: Assets that cannot be quickly converted to         generated by modifying the terms of the mortgage with the
cash.                                                               amount an investor can reasonably expect to recover in a
                                                                    foreclosure sale.
Investors: Owners of mortgage loans or bonds backed by
mortgage loans who receive interest and principal payments          Non-Agency Residential Mortgage-Backed Securities
from monthly mortgage payments. Servicers manage the cash           (“non-agency RMBS”): Financial instrument backed by
flow from borrowers’ monthly payments and distribute them           a group of residential real estate mortgages (i.e., home
to investors according to Pooling and Servicing Agreements          mortgages for residences with up to four dwelling units) not
(“PSAs”).                                                           guaranteed or owned by a Government-sponsored enterprise
                                                                    (“GSE”) or a Government Agency.
Legacy Securities: Real estate-related securities originally
issued before 2009 that remained on the balance sheets              Non-Cumulative Preferred Stock: Preferred stock with
of financial institutions because of pricing difficulties that      a defined dividend, without the obligation to pay missed
resulted from market disruption.                                    dividends.
Limited Partnership: Partnership in which there is at least
one partner whose liability is limited to the amount invested
338           APPENDIX A I GLOSSARY I OCTOBER 29, 2013




      Non-Recourse Loan: Secured loan in which the borrower is           Servicing Advances: If borrowers’ payments are not made
      relieved of the obligation to repay the loan upon surrendering     promptly and in full, servicers are contractually obligated to
      the collateral.                                                    advance the required monthly payment amount in full to the
                                                                         investor. Once a borrower becomes current or the property is
      Obligations: Definite commitments that create a legal
                                                                         sold or acquired through foreclosure, the servicer is repaid all
      liability for the Government to pay funds.
                                                                         advanced funds.
      Pool Assemblers: Firms authorized to create and market
                                                                         Short Sale: Sale of a home for less than the unpaid mortgage
      pools of SBA-guaranteed loans.
                                                                         balance. A borrower sells the home and the investor accepts
      Preferred Stock: Equity ownership that usually pays a fixed        the proceeds as full or partial satisfaction of the unpaid
      dividend before distributions for common stock owners but          mortgage balance, thus avoiding the foreclosure process.
      only after payments due to debt holders. It typically confers
                                                                         Skin in the Game: Equity stake in an investment; down
      no voting rights. Preferred stock also has priority over
                                                                         payment; the amount an investor can lose.
      common stock in the distribution of assets when a bankrupt
      company is liquidated.                                             Special Purpose Vehicle (“SPV”): A legal entity, often off-
                                                                         balance-sheet, that holds transferred assets presumptively
      Pro Rata: Refers to dividing something among a group of
                                                                         beyond the reach of the entities providing the assets, and that
      participants according to the proportionate share that each
                                                                         is legally isolated from its sponsor or parent company.
      participant holds as a part of the whole.
                                                                         Subchapter S Corporations (“S corporations”): Corporate
      Qualified Institutional Buyers (“QIB”): Institutions that
                                                                         form that passes corporate income, losses, deductions, and
      under U.S. securities law are permitted to buy securities that
                                                                         credit through to shareholders for Federal tax purposes.
      are exempt from registration under investor protection laws
                                                                         Shareholders of S corporations report the flow-through of
      and to resell those securities to other QIBs. Generally these
                                                                         income and losses on their personal tax returns and are taxed
      institutions own and invest at least $100 million in securities,
                                                                         at their individual income tax rates.
      or are registered broker-dealers that own or invest at least $10
      million in securities.                                             Subordinated Debentures: Form of debt security that ranks
                                                                         below other loans or securities with regard to claims on assets
      Revolving Credit Facility: Line of credit for which borrowers
                                                                         or earnings.
      pay a commitment fee, allowing them to repeatedly draw
      down funds up to a guaranteed maximum amount. The                  Systemically Significant Institutions: Term referring to any
      amount of available credit decreases and increases as funds        financial institution whose failure would impose significant
      are borrowed and then repaid.                                      losses on creditors and counterparties, call into question the
                                                                         financial strength of similar institutions, disrupt financial
      Risk-Weighted Assets: Risk-based measure of total assets
                                                                         markets, raise borrowing costs for households and businesses,
      held by a financial institution. Assets are assigned broad
                                                                         and reduce household wealth.
      risk categories. The amount in each risk category is then
      multiplied by a risk factor associated with that category. The     TALF Agent: Financial institution that is party to the TALF
      sum of the resulting weighted values from each of the risk         Master Loan and Security Agreement and that occasionally
      categories is the bank’s total risk-weighted assets.               acts as an agent for the borrower. TALF agents include
                                                                         primary and nonprimary broker-dealers.
      SBA Pool Certificates: Ownership interest in a bond backed
      by SBA-guaranteed loans.                                           Trial Modification: Under HAMP, a period of at least three
                                                                         months in which a borrower is given a chance to establish
      Senior Preferred Stock: Shares that give the stockholder
                                                                         that he or she can make lower monthly mortgage payments
      priority dividend and liquidation claims over junior preferred
                                                                         and qualify for a permanent modification.
      and common stockholders.
                                                                         Trust Preferred Securities (“TRUPS”): Securities that have
      Senior Subordinated Debentures: Debt instrument ranking
                                                                         both equity and debt characteristics, created by establishing a
      below senior debt but above equity with regard to investors’
                                                                         trust and issuing debt to it.
      claims on company assets or earnings.
                                                                                                 GLOSSARY I APPENDIX A I OCTOBER 29, 2013                               339




Undercapitalized: Condition in which a financial institution      Sources:
                                                                  Board of Governors of the Federal Reserve System, “Bank Holding Companies,” no date, www.
does not meet its regulator’s requirements for sufficient         fedpartnership.gov/bank-life-cycle/manage-transition/bank-holding-companies.cfm, accessed
capital to operate under a defined level of adverse conditions.   10/1/2013.
                                                                  Federal Reserve Board, Federal Reserve Banks Operating Circular No. 8: Collateral, www.frbservices.
Underwater Mortgage: Mortgage loan on which a                     org/files/regulations/pdf/operating_circular_8.pdf, accessed 10/1/2013.

homeowner owes more than the home is worth, typically as a        FCIC, glossary, no date, www.fcic.gov/resource/glossary, accessed 10/1/2013.
                                                                  FDIC, “Credit Card Securitization Manual,” no date, www.fdic.gov/regulations/examinations/credit_
result of a decline in the home’s value. Underwater mortgages     card_securitization/glossary.html, accessed 10/1/2013.
also are referred to as having negative equity.                   FDIC, “FDIC Law, Regulations, Related Acts,” no date, www.fdic.gov/regulations/laws/
                                                                  rules/2000-4600.html, accessed 10/1/2013.
                                                                  FRBNY, “TALF FAQ’s,” 7/21/2010, www.newyorkfed.org/markets/talf_faq.html, accessed
                                                                  10/1/2013.
                                                                  SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,”
                                                                  3/25/2010, www.sigtarp.gov/Audit%20Reports/Factors_Affecting_Implementation_of_the_Home_
                                                                  Affordable_Modification_Program.pdf, accessed 10/1/2013.
                                                                  GAO, “Principles of Federal Appropriations Law, Third Edition, Volume II,” 1/2004, www.gao.gov/
                                                                  special.pubs/d06382sp.pdf, p. 7-3, accessed 10/1/2013.
                                                                  GAO, “Troubled Asset Relief Program Treasury Needs to Strengthen Its Decision-Making Process
                                                                  on the Term Asset-Backed Securities Loan Facility,” 2/2010, www.gao.gov/new.items/d1025.
                                                                  pdf, accessed 10/1/2013; GAO, “Troubled Asset Relief Program: Third Quarter 2010 Update of
                                                                  Government Assistance Provided to AIG and Description of Recent Execution of Recapitalization
                                                                  Plan,” 1/20/2011, www.gao.gov/new.items/d1146.pdf, accessed 10/1/2013.
                                                                  IRS, “Glossary of Offshore Terms,” no date, www.irs.gov/Businesses/Small-Businesses-&-Self-
                                                                  Employed/Abusive-Offshore-Tax-Avoidance-Schemes-Glossary-of-Offshore-Terms, accessed
                                                                  10/1/2013.
                                                                  Making Home Affordable base NPV model documentation v5.01, updated 10/1/2012. www.
                                                                  hmpadmin.com/portal/programs/docs/hamp_servicer/npvmodeldocumentationv501.pdf, pp. 23-24,
                                                                  accessed 10/1/2013.
                                                                  SBA, “Notice of Changes to SBA Secondary Market Program,” 9/21/2004, archive.sba.gov/idc/
                                                                  groups/public/documents/sba_program_office/bank_notice_of_changes.htm, accessed 10/1/2013.
                                                                  SEC, “NRSRO,” no date, www.sec.gov/answers/nrsro.htm, accessed 10/1/2013.
                                                                  Treasury, “Decoder,” www.treasury.gov/initiatives/financial-stability/Pages/Glossary.aspx, accessed
                                                                  10/1/2013.
                                                                  Treasury, “Fact Sheet: Unlocking Credit for Small Businesses,” 3/16/2009, www.treasury.gov/press-
                                                                  center/press-releases/Pages/tg58.aspx, accessed 10/1/2013.
                                                                  Treasury, “Special Master Feinberg Testimony before the House Committee on Oversight and
                                                                  Government Reform,” 10/28/2009, www.treasury.gov/press-center/press-releases/Pages/tg334.
                                                                  aspx, accessed 10/1/2013.
                                                                  Treasury, “Supplemental Directive 10-14: Making Home Affordable Program - Principal Reduction
                                                                  Alternative Update,” 10/15/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
                                                                  sd1014.pdf, accessed 10/1/2013.
                                                                  Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.
                                                                  treasury.gov/press-center/press-releases/Pages/tg165.aspx, accessed 10/1/2013.
                                                                  U.S. Census Bureau, “Residential Finance Survey, Glossary Of RFS Terms And Definitions,” no date,
                                                                  www.census.gov/hhes/www/rfs/glossary.html#l, accessed 10/18/2013.
                                                                  U.S. Department of Housing and Urban Development, “Glossary,” no date, www.hud.gov/offices/hsg/
                                                                  sfh/buying/glossary.cfm, accessed 10/1/2013.
340            APPENDIX B I ACRONYMS AND ABBREVIATIONS I OCTOBER 29, 2013




 ACRONYMS AND ABBREVIATIONS

                  2MP     Second Lien Modification Program                              Citigroup    Citigroup Inc.
                   ABS    asset-backed securities                                           CLTV Combined Loan-to-Value
              the “Act” Securities Act of 1933                                             CMBS      commercial mortgage-backed securities
                   AGP Asset Guarantee Program                                 Coastal Securities Coastal Securities, Inc.
                    AIA   American International Insurance Co., Ltd.                         CPP Capital Purchase Program
               AIA SPV    AIA Aurora LLC                                                             The Department of Education Office of Inspector
                                                                                          DE OIG
                                                                                                     General
                  AIFP    Automotive Industry Financing Program
                                                                                           Delphi    Delphi Corporation
                   AIG    American International Group, Inc.
                                                                                                     Dodd-Frank Wall Street Reform and Consumer
             AIG Trust    AIG Credit Facility Trust                              Dodd-Frank Act
                                                                                                     Protection Act
                 ALICO    American Life Insurance Company
                                                                                              DTI    debt-to-income
            ALICO SPV     ALICO Holdings LLC
                                                                                            EESA     Emergency Economic Stabilization Act of 2008
  Ally, Ally Financial    Ally Financial Inc.
                                                                                  Eligible Assets securities eligible for purchase by PPIFs
                  AMS     American Mortgage Specialists
                                                                                     Fannie Mae Federal National Mortgage Association
                Anchor Anchor BanCorp Wisconsin, Inc.
                                                                                              FBI    Federal Bureau of Investigation
                 ASSP Auto Supplier Support Program
                                                                                             FDIC    Federal Deposit Insurance Corporation
      Auto Task Force     Presidential Task Force on the Auto Industry
                                                                                                     Federal Deposit Insurance Corporation Office of
                                                                                        FDIC OIG
                 AWCP     Auto Warranty Commitment Program                                           Inspector General
      Bank of America Bank of America Corporation                               Federal Reserve      Federal Reserve System
                  BNC     BNC National Bank                                     Federal Reserve
                                                                                                Federal Reserve Board Office of Inspector General
                                                                                            OIG
                  BOC     Bank of the Commonwealth
                                                                                             FHA     Federal Housing Administration
             Broadway Broadway Financial Corporation
                                                                                         FHA2LP Treasury/FHA Second-Lien Program
                   C&F    C&F Financial Corporation
                                                                                              Fiat   Fiat North America LLC
               Calvert    Calvert Financial Corporation
                                                                                             FLC Flahive Law Corporation
                   CAP Capital Assistance Program
                                                                                    Florida Bank     Florida Bank Group, Inc.
                  CBO     Congressional Budget Office
                                                                                                     Office of Inspector General-Board of Governors of
                  CDCI    Community Development Capital Initiative                       FRB OIG
                                                                                                     the Federal Reserve System
                  CDFI    Community Development Financial Institution
                                                                                          FRBNY      Federal Reserve Bank of New York
                 CDOs     collateralized debt obligations
                                                                                    Freddie Mac Federal Home Loan Mortgage Corporation
                   CDS    credit default swap
                                                                                            FSOC     Financial Stability Oversight Council or the Council
       Central Virginia
                        Central Virginia Bankshares, Inc.                                    FTC Federal Trade Commission
          Bankshares
                                                                                             GAO Government Accountability Office
                   CEO    chief executive officer
                                                                                              GM     General Motors Company
             Cerberus Cerberus Capital Management, L.P.
                                                                                    GM Financial     General Motors Financial Company, Inc.
                   CFO    chief financial officer
                                                                                God Please Help GPH Investments
              Chrysler Chrysler Holding LLC
                                                                                             GSE Government-sponsored enterprise
  Chrysler Financial      Chrysler Financial Services Americas LLC
                                                                                            HAFA Home Affordable Foreclosure Alternatives program
                          Council of the Inspectors General on Integrity and
                 CIGIE
                          Efficiency                                                       HAMP      Home Affordable Modification Program
                                                                            ACRONYMS AND ABBREVIATIONS I APPENDIX B I OCTOBER 29, 2013              341




    HAMP Tier 2    Home Affordable Modification Program Tier 2                       Premier Premier Bank
        Hanover    Hanover Settlement, Inc.                                              PSA    Pooling and Servicing Agreements
            HAT    Home Advocate Trustees                                                 QIB   Qualified Institutional Buyers
            HFA    Housing Finance Agency                                                       U.S. Department of Agriculture’s Office of Rural
                                                                                           RD
                                                                                                Development
            HHF    Hardest Hit Fund
                                                                                   RD-HAMP      HAMP
 HHF or Hardest
                   Housing Finance Agency Hardest Hit Fund
       Hit Fund                                                                       ResCap Residential Capital, LLC
          HPDP     Home Price Decline Protection                                         RMA    request for mortgage assistance
            HUD    Department of Housing and Urban Development                         RMBS     residential mortgage-backed securities
            IPO    initial public offering                                            Rogers    Rogers Bancshares, Inc.
                   Internal Revenue Service Criminal Investigation                              Railroad Retirement Board Office of Inspector
          IRS-CI                                                                     RRB OIG
                   Division                                                                     General
                   International Union of Electronic, Electrical,             S corporations subchapter S corporations
             IUE
                   Salaried, Machine and Furniture Workers
                                                                                         SBA    Small Business Administration
            LTV    loan-to-value
                                                                                        SBLF    Small Business Lending Fund
           M&T     M&T Bank Corporation
                                                                                                “Banks that Used the Small Business Lending Fund
                                                                                SBLF Report
      Mainstreet Mainstreet Bank                                                                to Exit TARP”
           MBS     mortgage-backed securities                                            SEC    Securities and Exchange Commission
           MCP     mandatorily convertible preferred shares                         servicers loan servicers
           MHA     Making Home Affordable program                          servicing advance receivables for residential mortgage servicing
                                                                                  receivables advances
                   Neighborhood Reinvestment Corporation and
 NeighborWorks
                   NeighborWorks America                                      Shay Financial    Shay Financial Services, Inc.
      New Point New Point Financial Services, Inc.                                              Office of the Special Inspector General for the
                                                                                     SIGTARP
                                                                                                Troubled Asset Relief Program
           NMC     Nationwide Mortgage Concepts
                                                                                                Special Inspector General for the Troubled Asset
    Non-Agency     Non-Agency Residential Mortgage-Backed                       SIGTARP Act
                                                                                                Relief Program Act of 2009
         RMBS      Securities
                                                                              Small Business
            NPV    net present value                                                            Jobs Act of 2010
                                                                                    Jobs Act
         NRSRO     nationally recognized statistical rating organization
                                                                                          SPA Servicer Participation Agreements
           OCC     Office of the Comptroller of the Currency
                                                                                         SPV    special purpose vehicle
            OFS    Office of Financial Stability
                                                                                         SSFI   Systemically Significant Failing Institutions program
     Old Second    Old Second National Bank
                                                                                         TALF   Term Asset-Backed Securities Loan Facility
           OMB     Office of Management and Budget
                                                                                        TARP    Troubled Asset Relief Program
      One Bank     One Bank & Trust
                                                                                         TBW    Taylor, Bean, and Whitaker
   One Financial   One Financial Corp
                                                                                         TCW The TCW Group, Inc.
    Option ARM     Option Adjustable Rate Mortgage
                                                                                          TIP Targeted Investment Program
         Oxford    Oxford Collection Agency, Inc.
                                                                                          TPP trial period plan
          PBGC     Pension Benefit Guaranty Corporation
                                                                                    Treasury U.S. Department of the Treasury
             PII   personally identifiable information
                                                                                                U.S. Department of Treasury Office of Inspector
                                                                                Treasury OIG
Please Help Lord   PHL Investments                                                              General
           PPIF    Public-Private Investment Fund                                   Treasury
                                                                                             Secretary of the Treasury
                                                                                   Secretary
           PPIP    Public-Private Investment Program
                                                                              Treasury/FHA-     HAMP Loan Modification Option for FHA-insured
            PRA    Principal Reduction Alternative
                                                                                      HAMP      Mortgages
342      APPENDIX B I ACRONYMS AND ABBREVIATIONS I OCTOBER 29, 2013




            TRUPS trust preferred securities
              UAW United Auto Workers
             UCSB Unlocking Credit for Small Businesses
                UP Home Affordable Unemployment Program
      Urban Motors Urban Motors Corporation
               UCB United Commecial Bank
              USW United Steelworkers of America
                VA Department of Veterans Affairs
                                                                                         REPORTING REQUIREMENTS I APPENDIX C I OCTOBER 29, 2013           343




REPORTING REQUIREMENTS
This appendix provides Treasury’s responses to data call questions regarding the reporting requirements of the Special
Inspector General for the Troubled Asset Relief Program outlined in EESA Section 121, as well as a cross-reference to related
data presented in this report and prior reports. Italic style indicates narrative taken verbatim from source documents.

#     EESA        EESA Reporting       Treasury Response to SIGTARP Data Call                                                          SIGTARP Report
      Section     Requirement                                                                                                          Section
1     Section     A description of     Treasury’s authority to make new financial commitments under TARP ended on October 3,           Section 2: “TARP
      121(c)(A)   the categories of    2010.                                                                                           Overview”
                  troubled assets      Accordingly, the Secretary of the Treasury has not purchased or otherwise procured any
                  purchased or                                                                                                         Appendix D:
                                       troubled assets under TARP since that date.
                  otherwise procured                                                                                                   “Transaction
                  by the Treasury      Below are program descriptions from Treasury’s website, www.treasury.gov/initiatives/           Detail”
                  Secretary.           financial-stability/Pages/default.aspx, as of 7/11/2013 or as otherwise noted:
                                       CPP: The Capital Purchase Program (CPP) was launched to stabilize the financial system
                                       by providing capital to viable financial institutions of all sizes throughout the nation.
                                       Without a viable banking system, lending to businesses and consumers could have frozen
                                       and the financial crisis might have spiraled further out of control.
                                       AIG (otherwise known as Systemically Significant Failing Institutions (“SSFI”): At the height
                                       of the financial crisis in September 2008, American International Group (AIG) was on
                                       the brink of failure. At the time, AIG was the largest provider of conventional insurance
                                       in the world. Millions depended on it for their life savings and it had a huge presence
                                       in many critical financial markets, including municipal bonds. AIG’s failure would have
                                       been devastating to global financial markets and the stability of the broader economy.
                                       Therefore, the Federal Reserve and Treasury acted to prevent AIG’s disorderly failure.a
                                       AGP: Under the Asset Guarantee Program (AGP), the government supported institutions
                                       whose failure would have caused serious harm to the financial system and the broader
                                       economy. It involved supporting the value of certain assets held by qualifying financial
                                       institutions by agreeing to absorb a portion of losses on those assets. AGP was
                                       conducted jointly by Treasury, the Federal Reserve, and the FDIC and was used in
                                       conjunction with other forms of exceptional assistance. … Two institutions received
                                       assistance under the AGP - Bank of America and Citigroup.
                                       TIP: The Targeted Investment Program (TIP) was created to help stabilize institutions
                                       considered systemically significant, to prevent broader disruption of financial markets.
                                       Under the TIP, Treasury purchased $20 billion in preferred stock from two institutions,
                                       Citigroup Inc. and Bank of America.
                                       TALF: The Term Asset-Backed Securities Loan Facility (TALF) is a joint program with the
                                       Federal Reserve. The program was launched in March 2009 with the aim of helping to
                                       restart the asset-backed securitization (ABS) markets that provide credit to consumers
                                       and small businesses. … Under this program, the Federal Reserve Bank of New York
                                       made non-recourse loans to buyers of AAA-rated asset-backed securities to help stimulate
                                       consumer and business lending. Treasury used TARP funds to provide credit support for
                                       these loans.
                                       PPIP: On March 23, 2009, Treasury announced the Legacy Securities Public-Private
                                       Investment Program (PPIP), which was designed to support market functioning and
                                       facilitate price discovery in the markets for legacy Commercial Mortgage-Backed
                                       Securities (CMBS) and non-agency Residential Mortgage-Backed Securities (RMBS).
                                       CDCI: Treasury created the Community Development Capital Initiative (CDCI) on February
                                       3, 2010 to help viable certified Community Development Financial Institutions (CDFIs)
                                       and the communities they serve cope with effects of the financial crisis. Under this
                                       program, CDFI banks, thrifts, and credit unions received investments of capital. Eighty-four
                                       institutions received investments totaling approximately $570 million.
344       APPENDIX C I REPORTING REQUIREMENTS I OCTOBER 29, 2013




      #   EESA        EESA Reporting          Treasury Response to SIGTARP Data Call                                                        SIGTARP Report
          Section     Requirement                                                                                                           Section
                                              SBLF: Established by the Small Business Jobs Act of 2010 (the Act), the Small Business
                                              Lending Fund (SBLF) is a dedicated fund designed to provide capital to qualified
                                              community banks and community development loan funds (CDLFs) in order to encourage
                                              small business lending. The purpose of the SBLF is to encourage Main Street banks and
                                              small businesses to work together, help create jobs, and promote economic growth in
                                              communities across the nation.
                                              SBA 7(a) Securities Purchase Program (formerly known as UCSB): Treasury launched the
                                              SBA 7(a) Securities Purchase Program to help unlock credit for small businesses. Under
                                              this program, Treasury purchased securities backed by the government guaranteed
                                              portion of SBA 7(a) small business loans and provided additional liquidity to the market in
                                              order to increase overall small business lending.
                                              AIFP: The Automotive Industry Financing Program (AIFP) was launched in December
                                              2008 to prevent the uncontrolled liquidation of Chrysler and General Motors (GM) and the
                                              collapse of the U.S. auto industry.
                                              ASSP: [The Automotive Supplier Support Program was created to] ensure that auto
                                              suppliers received compensation for their services and products, regardless of the
                                              condition of the auto companies that purchase their products.b
                                              AWCP: Treasury provided loans to protect warranties on new vehicles purchased from GM
                                              and Chrysler during their restructuring periods.b
                                              HAMP (a program under MHA): The Home Affordable Modification Program’s goal is to
                                              offer homeowners who are at risk of foreclosure reduced monthly mortgage payments
                                              that are affordable and sustainable over the long-term. HAMP was designed to help
                                              families who are struggling to remain in their homes and show: documented financial
                                              hardship and an ability to make their monthly mortgage payments after a modification.
                                              HAMP is a voluntary program that supports servicers’ efforts to modify mortgages,
                                              while protecting taxpayers’ interests. To protect taxpayers, MHA housing initiatives have
                                              pay-for-success incentives. This means that funds are spent only when transactions are
                                              completed and only as long as those contracts remain in place. Therefore, funds will be
                                              disbursed over many years.
      2   Section     A listing of the        Treasury’s authority to make new financial commitments under TARP ended on October 3,         Appendix D:
          121(c)(B)   troubled assets         2010.                                                                                         “Transaction
                      purchased in each       Information on all transactions as well as additional information about these programs and
                                                                                                                                            Detail”
                      such category           related purchases is available in TARP Transactions Reports and Monthly 105(a) Reports
                      described under         to Congress posted at www.treasury.gov/initiatives/financial-stability/reports/Pages/
                      Section 121(c)(A).      default.aspx.
      3   Section     An explanation          Treasury’s authority to make new financial commitments under TARP ended on October 3,         Section 2: “TARP
          121(c)(C)   of the reasons          2010.                                                                                         Overview”
                      the Treasury
                      Secretary deemed                                                                                                      Appendix C:
                      it necessary to                                                                                                       “Reporting
                      purchase each such                                                                                                    Requirements”
                      troubled asset.                                                                                                       of prior SIGTARP
                                                                                                                                            Quarterly Reports
                                                                                                                                            to Congress
      4   Section     A listing of each       Treasury’s authority to make new financial commitments under TARP ended on October 3,         Appendix D:
          121(c)(D)   financial institution   2010.                                                                                         “Transaction
                      from which such                                                                                                       Detail”
                      troubled assets         Information on all transactions as well as additional information about these programs and
                      were purchased.         related purchases is available in TARP Transactions Reports and Monthly 105(a) Reports
                                              to Congress posted at www.treasury.gov/initiatives/financial-stability/reports/Pages/
                                              default.aspx.
                                                                                                                 REPORTING REQUIREMENTS I APPENDIX C I OCTOBER 29, 2013                            345




#       EESA               EESA Reporting                 Treasury Response to SIGTARP Data Call                                                                         SIGTARP Report
        Section            Requirement                                                                                                                                   Section
5       Section            A listing of                   There have been no new PPIP fund managers hired between June 30, 2013 and                                      Section 2:
        121(c)(E)          and detailed                   September 30, 2013.                                                                                            “Public-Private
                           biographical                                                                                                                                  Investment
                           information on each                                                                                                                           Program”
                           person or entity
                           hired to manage                                                                                                                               Appendix C:
                           such troubled                                                                                                                                 “Reporting
                           assets.                                                                                                                                       Requirements”
                                                                                                                                                                         of prior SIGTARP
                                                                                                                                                                         Quarterly Reports
                                                                                                                                                                         to Congress
6       Section            A current estimate             Treasury published its most recent valuation of TARP investments on 10/10/2013, in                             Table C.1;
        121(c)(F)          of the total amount            its September 2013 Monthly Report to Congress, which will be available on Treasury’s                           Section 2:
                           of troubled assets             public website at the following link: www.treasury.gov/initiatives/financial-stability/reports/                “TARP Overview”
                           purchased pursuant             Pages/Monthly-Report-to-Congress.aspx.
                           to any program                                                                                                                                Appendix D:
                           established under                                                                                                                             “Transaction
                           Section 101, the                                                                                                                              Detail”
                           amount of troubled
                           assets on the books
                           of Treasury, the
                           amount of troubled
                           assets sold, and
                           the profit and loss
                           incurred on each
                           sale or disposition
                           of each such
                           troubled assets.
7       Section            A listing of the               Treasury’s authority to make new financial commitments under TARP ended on October 3,                          Section 2:
        121(c)(G)          insurance contracts            2010. As such, Treasury cannot issue any new insurance contracts after this date.                              “TARP Overview”
                           issued under
                           Section 102.                                                                                                                                  Section 2:
                                                                                                                                                                         “Targeted
                                                                                                                                                                         Investment
                                                                                                                                                                         Program and
                                                                                                                                                                         Asset Guarantee
                                                                                                                                                                         Program”
8       Section            A detailed                     Treasury’s authority to make new financial commitments under TARP ended on October 3,                          Table C.1;
        121(f)             statement of                   2010.
                           all purchases,                                                                                                                                Section 2:
                                                          Treasury provides information about TARP obligations, expenditures, and revenues in
                           obligations,                                                                                                                                  “TARP Overview”
                                                          TARP Transactions Reports available on Treasury’s public website at www.treasury.gov/
                           expenditures,
                                                          initiatives/financial-stability/Pages/default.aspx.
                           and revenues                                                                                                                                  Section 4:
                           associated with                Information on obligations and expenditures is also available in the Daily TARP Update                         “TARP
                           any program                    reports available on Treasury’s public website at: www.treasury.gov/initiatives/financial-                     Operations and
                           established by the             stability/reports/Pages/Daily-TARP-Reports.aspx, accessed 10/2/2013.                                           Administration”
                           Secretary of the
                           Treasury under                                                                                                                                Appendix D:
                           Sections 101 and                                                                                                                              “Transaction
                           102.                                                                                                                                          Detail”
Notes:
a
  Otherwise known as Systemically Significant Failing Institutions (“SSFI”).
b
  Description is as of 7/11/2013.

Sources: Program Descriptions: Treasury, “TARP Programs,” www.treasury.gov/initiatives/financial-stability/TARP-Programs/Pages/default.aspx#, accessed 10/1/2013; ASSP: “Treasury Announces Auto
Suppliers Support Program,” 3/19/2009, www.treasury.gov/press-center/press-releases/Pages/tg64.aspx, accessed 10/1/2013; AWCP: “Obama Administration’s New Warrantee Commitment Program,”
no date, www.whitehouse.gov/assets/documents/Warrantee_Commitment_Program.pdf, accessed 10/1/2013; TALF: Federal Reserve, “Term Asset-Backed Securities Loan Facility (TALF) Frequently
Asked Questions,” 3/3/2009, www.federalreserve.gov/newsevents/press/monetary/monetary20090303a2.pdf, accessed 10/1/2013; SBLF: Small Business Lending Act, P.L. 111-240, 9/27/2010,
www.gpo.gov/fdsys/pkg/PLAW-111publ240/html/PLAW-111publ240.htm, accessed 10/1/2013; MHA “Making Home Affordable Updated Detailed Description Update,” 11/23/2012, www.treasury.gov/
initiatives/financial-stability/TARP-Programs/housing/mha/Pages/default.aspx, accessed 10/1/2013.
346            APPENDIX C I REPORTING REQUIREMENTS I OCTOBER 29, 2013




      TABLE C.1
       TOTAL AMOUNT OF TROUBLED ASSETS PURCHASED AND HELD ON TREASURY’S BOOKS                                                                                      ($ BILLIONS)
       (NUMBERS IN PARENTHESES REPRESENT REPAYMENTS AND REDUCTIONS IN EXPOSURE)

                                                                                                                        Obligations
                                                                                                                        After Dodd-                     Current
                                                                                                                              Frank                  Obligations
                                                                                                                              (As of                      (As of                                        On Treasury’s
                                                                                        Total Funding                  10/3/2010)                   9/30/2013)                       Expended                 Booksa
       Housing Support Programs                                                                  $70.6b                          $45.6                       $38.5c                           $9.5                    $—d
                                                                                                 204.9
       Capital Purchase Program (“CPP”)                                                                                          204.9                       204.9                          204.9                     7.0
                                                                                                (195.7)e
                                                                                                     0.6
       Community Development Capital Initiative (“CDCI”)                                                                             0.6                         0.6f                           0.2                   0.5
                                                                                                    (0.1)
                                                                                                   69.8
       Systemically Significant Failing Institutions (“SSFI”)                                                                      69.8                        67.8h                          67.8                   13.5
                                                                                                  (56.4)g
                                                                                                   40.0
       Targeted Investment Program (“TIP”)                                                                                         40.0                        40.0                           40.0                    0.0
                                                                                                  (40.0)
                                                                                                 301.0
       Asset Guarantee Program (“AGP”)                                                                                               5.0                         5.0                            0.0                   0.0
                                                                                                (301.0)
                                                                                                  71.1
       Term Asset-Backed Securities Loan Facility (“TALF”)                                                                           4.3                         0.1                            0.1                   0.0
                                                                                                   (0.1)i
                                                                                                   29.8
       Public-Private Investment Program (“PPIP”)                                                                                  22.4                        19.6                           18.6                    0.0k
                                                                                                  (18.6)j
                                                                                                     0.4l
       Unlocking Credit for Small Businesses (“UCSB”)                                                                                0.4                         0.4                            0.4                   0.0
                                                                                                    (0.4)
                                                                                                   81.8n
       Automotive Industry Support Programs (“AIFP”)m                                                                              81.8                        79.7                           79.7                   32.5
                                                                                                  (49.3)
       Total                                                                                  $868.9                           $474.8                      $456.6                       $421.2o                   $53.4
       Notes: Numbers may not total due to rounding.
       a
             “On Treasury’s Books” includes amounts disbursed and still outstanding, plus write-offs, realized losses, and investments currently not collectible because of pending bankruptcies or receiverships,
              totaling $30.7 billion. It does not include $9.5 billion in TARP dollars spent on housing programs. These programs are designed as Government subsidies, with no repayments to taxpayers expected.
       b
               Program was initially announced as a $75 billion initiative funded through TARP. Treasury reduced the commitment from $50 billion to an obligation of $45.6 billion; therefore, including the $25 billion
                estimated to be spent by the GSE’s, the total program amount is $70.6 billion.
       c
              On March 29, 2013, Treasury deobligated $7.1 billion of the $8.1 billion that was originally allocated to the FHA Short Refinance Program.
       d
               Housing support programs were designed as a Government subsidy, with no repayment to taxpayers expected.
       e
              Includes $363.3 million in non-cash conversions from CPP to CDCI, which is not included in the total of $356.1 billion in TARP principal repaid because it is still owed to TARP from CDCI. Does not include
               $2.2 billion refinanced from CPP into the Small Business Lending Fund.
       f
           CDCI obligation amount of $570.1 million. There are no remaining dollars to be spent on CDCI. Of the total obligation, $363.3 million was related to CPP conversions for which no additional CDCI cash
            was expended; this is not counted as an expenditure, but it is counted as money still owed to taxpayers. Another $100.7 million was expended for new CDCI expenditures for previous CPP participants.
            Of the total obligation, only $106 million went to non-CPP institutions.
       g
                The $56.4 billion in reduced exposure and repayments for SSFI includes the cancellation of the series G capital facility. Does not include AIG investment proceeds from the sale of AIG stock that Treasury
                 received from the AIG credit facility trust in the January 2011 recapitalization.
       h
             Treasury deobligated $2 billion of an equity facility for AIG that was never drawn down.
       i
         On June 28, 2012, Treasury deobligated $2.9 billion in TALF funding, reducing the total obligation to $1.4 billion. On January 23, 2013, Treasury deobligated $1.3 billion, reducing the total obligation to
          $0.1 billion.
       j
          On April 10, 2012, Treasury changed its reporting methodology to reclassify as repayments of capital to the Government $958 million in receipts previously categorized as PPIP equity distributions. That
           $958 million is included in this repayment total.
       k
            PPIP funds are no longer available to be spent because the three-year investment period ended during the quarter ended December 31, 2012. Total obligation of $22.4 billion and expenditure of $18.6
             billion for PPIP includes $356.3 million of the initial obligation to The TCW Group, Inc. (“TCW”) that was funded. TCW subsequently repaid the funds that were invested in its PPIF. Current obligation of
             $19.6 billion results because Oaktree, BlackRock, AG GECC, Invesco and AllianceBernstein did not draw down all the committed equity and debt. The undrawn debt was deobligated, but the undrawn
             equity was not as of September 30, 2013, except for Invesco.
       l
           Treasury reduced commitment from $15 billion to an obligation of $400 million.
       m
                 Includes $80.7 billion for Automotive Industry Financing Program, $0.6 billion for Auto Warranty Commitment Program, and $0.4 billion for Auto Supplier Support Program.
       n
             Treasury deobligated $2.1 billion of a Chrysler credit facility that was never drawn down.
       o
                The $5 billion reduction in exposure under AGP is not included in the expenditure total because this amount was not an actual cash outlay.

       Sources: Repayments data: Treasury, Transactions Report, 9/30/2013; Treasury, Daily TARP Update, 10/1/2013.
           TRANSACTION DETAIL
TABLE D.1
 CPP TRANSACTIONS DETAIL, AS OF 9/30/2013
                                                                                                                                                         Number     Average Price                                                Stock Price       Current
Transaction                    Investment                              Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividends/Interest
Date        Institution        Description1     Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4   Warrant Sales    9/30/135       Warrants      Paid to Treasury
12/23/2008                                                                                                                                     $0.00
           1st Constitution    Preferred                             Redeemed, in
10/27/2010 Bancorp,            Stock w/            $12,000,000.00     full; warrants            $12,000,000.00                                            12,000       $1,000.00                                                   $10.58                        $1,106,666.67
           Cranbury, NJ11      Warrants                             not outstanding
11/22/2011                                                                                                                                                                                                        $326,576.00
2/13/2009 1st Enterprise                            $4,400,000.00                                                                              $0.00
                               Preferred                           Redeemed, in
           Bank, Los
12/11/2009                     Stock w/                             full; warrants                                                                                                                                                 $19.50                        $1,128,156.44
           Angeles,
             8,14,18,44        Warrants             $6,000,000.00 not outstanding
9/1/2011 CA                                                                                     $10,400,000.00                                            10,400       $1,000.00                                  $220,000.00
                                                                    Full investment
           1st FS             Preferred
                                                                      outstanding;
11/14/2008 Corporation,       Stock w/             $16,369,000.00                                                                     $16,369,000.00                                                                                                             $1,229,948.97
                                                                           warrants
           Hendersonville, NC Warrants
                                                                        outstanding
1/23/2009                                                                                                                                      $0.00
           1st Source       Preferred                                Redeemed, in
12/29/2010 Corporation,     Stock w/              $111,000,000.00     full; warrants           $111,000,000.00                                           111,000       $1,000.00                                                   $26.92                      $10,730,000.00
           South Bend, IN11 Warrants                                not outstanding
3/9/2011                                                                                                                                                                                                         $3,750,000.00
3/13/2009 1st United           Preferred                                                                                                       $0.00
                                                                     Redeemed, in
           Bancorp, Inc.,      Stock w/
                                                   $10,000,000.00     full; warrants                                                                                                                                               $7.33                          $370,902.67
11/18/2009 Boca   Raton,       Exercised                                                        $10,000,000.00                                            10,000       $1,000.00                                  $500,000.00
                                                                    not outstanding
           FL11,8,14           Warrants
                                                                    Full investment
          AB&T Financial       Preferred
                                                                      outstanding;
1/23/2009 Corporation,         Stock w/             $3,500,000.00                                                                      $3,500,000.00                                                                               $0.56                          $360,694.44
                                                                           warrants
          Gastonia, NC         Warrants
                                                                        outstanding
1/30/2009                     Preferred                                                                                                        $0.00
                                                                     Redeemed, in
          Adbanc, Inc,        Stock w/
                      44,8,14                      $12,720,000.00     full; warrants                                                                                                                                                                             $1,715,769.00
7/21/2011 Ogallala, NE        Exercised                                                         $12,720,000.00                                            12,720       $1,000.00                                  $636,000.00
                                                                    not outstanding
                              Warrants
1/23/2009                                                                                                                                      $0.00
                               Preferred
7/19/2013 Alarion Financial                                             Sold, in full;             $877,729.70                                               893         $982.90         ($15,270.30)
                               Stock w/
          Services, Inc.,                           $6,514,000.00      warrants not                                                                                                                                                                               $998,056.89
7/22/2013 Ocala, FL8,14        Exercised                                                         $5,524,880.90                                             5,621         $982.90         ($96,119.10)             $337,363.35
                                                                        outstanding
                               Warrants
9/12/2013                                                                                                            ($64,026.11)
2/6/2009                                                                                                                                       $0.00
11/28/2012                                                                                         $208,870.74                                               234         $892.60         ($25,129.26)
           Alaska Pacific    Preferred                                  Sold, in full;
11/29/2012 Bancshares, Inc., Stock w/               $4,781,000.00          warrants              $4,058,697.67                                             4,547         $892.60       ($488,302.33)                               $12.00                         $913,405.00
           Juneau, AK        Warrants                                   outstanding
1/11/2013                                                                                                            ($42,675.67)
3/26/2013                                                                                                             ($7,324.33)
6/26/2009                                                                                                                                      $0.00
                            Preferred
3/27/2013 Alliance                                                      Sold, in full;                                                                                                                             $94,153.69
                            Stock w/
          Bancshares, Inc.,                         $2,986,000.00      warrants not                                                                                                                                                                               $611,060.00
3/28/2013 Dalton, GA        Exercised                                                            $2,856,437.46                                             2,986         $956.60       ($129,562.54)               $44,746.31
                                                                        outstanding
                            Warrants
4/9/2013                                                                                                             ($25,000.00)
12/19/2008                                                                                                                                     $0.00
          Alliance Financial Preferred                             Redeemed, in
5/13/2009 Corporation,       Stock w/              $26,918,000.00   full; warrants              $26,918,000.00                                            26,918       $1,000.00                                                                                  $538,360.25
          Syracuse, NY11 Warrants                                 not outstanding
6/17/2009                                                                                                                                                                                                         $900,000.00
6/26/2009                                                                                                                                      $0.00
                                 Subordinated
2/6/2013     Alliance Financial                                         Sold, in full;           $3,375,945.00                                          4,500,000          $0.75     ($1,124,055.00)
                                 Debentures
             Services Inc.,                        $12,000,000.00      warrants not                                                                                                                                                                               $388,741.80
2/7/2013                         w/ Exercised                                                    $5,626,575.00                                          7,500,000          $0.75     ($1,873,425.00)              $504,900.00
             Saint Paul, MN15,14                                        outstanding
                                 Warrants
3/26/2013                                                                                                            ($90,025.20)
                               Preferred                          Full investment
          Allied First
                               Stock w/                             outstanding;
4/24/2009 Bancorp, Inc.,                            $3,652,000.00                                                                      $3,652,000.00                                                                               $0.50                          $409,753.25
                               Exercised                                 warrants
          Oswego, IL8
                               Warrants                               outstanding
3/27/2009                                                                                                                                      $0.00
                                                                                                                                                                                                                                                                                  TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




9/18/2012 Alpine Banks         Preferred                                                           $280,115.76                                               344         $814.30         ($63,884.24)
                                                                        Sold, in full;
          of Colorado,         Stock w/
9/19/2012                                          $70,000,000.00      warrants not              $6,559,920.24                                             8,056         $814.30     ($1,496,079.76)                                                           $13,407,114.25
          Glenwood             Exercised
                     8,14                                               outstanding
9/20/2012 Springs, CO          Warrants                                                         $50,160,264.00                                            61,600         $814.30    ($11,439,736.00)             $3,291,750.00
11/16/2012                                                                                                          ($570,003.00)
                                                                                                                                                                                                                                                         Continued on next page
                                                                                                                                                                                                                                                                                  347
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                   (CONTINUED)                                                                                                                                                                            348
                                                                                                                                                       Number     Average Price                                                  Stock Price       Current
Transaction                   Investment                            Investment          Capital Repayment /                      Remaining Capital    of Shares       of Shares   (Realized Loss) /                                 as of      Outstanding   Dividends/Interest
Date        Institution       Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4     Warrant Sales    9/30/135       Warrants      Paid to Treasury
1/30/2009                     Preferred                                                                                                     $0.00
          AMB Financial                                           Redeemed, in
                              Stock w/
          Corp., Munster,                        $3,674,000.00     full; warrants                                                                                                                                                  $8.00                          $529,576.45
9/22/2011 IN45,8,14           Exercised                                                       $3,674,000.00                                               3,674      $1,000.00                                    $184,000.00
                                                                 not outstanding
                              Warrants
3/6/2009  AmeriBank        Preferred                                                                                                        $0.00
                                                                  Redeemed, in
          Holding Company, Stock w/
                                                 $2,492,000.00     full; warrants                                                                                                                                                                                 $343,021.33
9/15/2011 Collinsville,    Exercised                                                          $2,492,000.00                                              2,492       $1,000.00                                    $125,000.00
                                                                 not outstanding
          OK44,8,14        Warrants

1/9/2009                                                                                                                                    $0.00
          American Express Preferred                              Redeemed, in
6/17/2009 Company, New     Stock w/          $3,388,890,000.00     full; warrants         $3,388,890,000.00                                           3,388,890      $1,000.00                                                     $75.52                      $74,367,308.33
          York, NY11       Warrants                              not outstanding
7/29/2009                                                                                                                                                                                                      $340,000,000.00
5/29/2009                   Preferred                                                                                                       $0.00
          American Premier                                        Redeemed, in
                            Stock w/
          Bancorp, Arcadia,                      $1,800,000.00     full; warrants                                                                                                                                                                                 $162,682.49
1/26/2011 CA11,8,14         Exercised                                                         $1,800,000.00                                              1,800       $1,000.00                                     $90,000.00
                                                                 not outstanding
                            Warrants
1/9/2009  American State      Preferred                                                                                                     $0.00
                                                                  Redeemed, in
          Bancshares,         Stock w/
                                                 $6,000,000.00     full; warrants                                                                                                                                                                                 $920,141.67
11/2/2011 Inc., Great Bend,   Exercised                                                       $6,000,000.00                                              6,000       $1,000.00                                    $300,000.00
                                                                 not outstanding
          KS11,8,14           Warrants
11/21/2008                                                                                                                                  $0.00
                             Preferred                               Sold, in full;
             Ameris Bancorp,
6/19/2012                    Stock w/           $52,000,000.00      warrants not             $48,391,200.00      ($725,868.00)                          52,000         $930.60      ($3,608,800.00)                                $18.38                        $9,302,107.00
             Moultrie, GA
                             Warrants                                outstanding
8/22/2012                                                                                                                                                                                                        $2,670,000.00
                                                                                                                                                                                                                                                                                  APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




12/19/2008                                                                                                                                  $0.00
          AmeriServ           Preferred                           Redeemed, in
8/11/2011 Financial, Inc,     Stock w/          $21,000,000.00     full; warrants            $21,000,000.00                                             21,000       $1,000.00                                                     $3.15                         $2,776,666.66
          Johnstown, PA45     Warrants                           not outstanding
11/2/2011                                                                                                                                                                                                         $825,000.00
8/21/2009                                                                                                                                   $0.00
3/26/2013                    Subordinated                                                       $359,040.00                                            374,000           $0.96         ($14,960.00)
          AmFirst Financial                                          Sold, in full;
                             Debentures
3/27/2013 Services, Inc.,                        $5,000,000.00      warrants not              $2,112,000.00                                           2,200,000          $0.96         ($88,000.00)                                                              $1,511,380.00
                       15,14 w/ Exercised
          McCook, NE                                                 outstanding
3/28/2013                    Warrants                                                         $2,328,960.00                                           2,426,000          $0.96         ($97,040.00)               $259,875.00
4/9/2013                                                                                                          ($48,000.00)
1/30/2009 Anchor BanCorp Preferred                                        Exited                                                            $0.00
          Wisconsin Inc., Stock w/             $110,000,000.00      bankruptcy/                                                                                                                                                    $17.29
9/27/2013 Madison, WI94   Warrants                                  receivership              $6,000,000.00                                          60,000,000          $0.10    ($104,000,000.00)

1/30/2009                                                                                                                                   $0.00
          Annapolis           Preferred                           Redeemed, in
4/18/2012 Bancorp, Inc.       Stock w/           $8,152,000.00     full; warrants             $4,076,000.00                                               4,076      $1,000.00
          Annapolis11,90      Warrants                              outstanding
3/6/2013                                                                                      $4,076,000.00                                               4,076      $1,000.00
11/21/2008                                                                                                                                  $0.00
4/6/2011  Associated       Preferred                              Redeemed, in              $262,500,000.00                                            262,500       $1,000.00
          Banc-Corp, Green Stock w/            $525,000,000.00     full; warrants                                                                                                                                                  $15.49                      $68,104,166.67
9/14/2011 Bay, WI11        Warrants                              not outstanding            $262,500,000.00                                            262,500       $1,000.00
12/6/2011                                                                                                                                                                                                        $3,435,005.65
                             Preferred                         Full investment
           Atlantic
                             Stock w/                            outstanding;
12/29/2009 Bancshares, Inc.,                     $2,000,000.00                                                                      $2,000,000.00                                                                                  $2.20                          $122,724.78
                             Exercised                                warrants
           Bluffton, SC8,17
                             Warrants                              outstanding
2/27/2009                      Preferred                                                                                                    $0.00
          Avenue Financial                                        Redeemed, in
                               Stock w/
          Holdings, Inc.,                        $7,400,000.00     full; warrants                                                                                                                                                                                $1,028,415.33
9/15/2011 Nashville, TN44,8,14 Exercised                         not outstanding              $7,400,000.00                                               7,400      $1,000.00                                    $370,000.00
                               Warrants
1/30/2009 Avidbank                                                                                                                          $0.00
                              Preferred                           Redeemed, in
          Holdings, Inc./
7/31/2013                     Stock w/           $6,000,000.00     full; warrants             $6,000,000.00                                               6,000      $1,000.00                                                                                   $1,372,276.00
          Peninsula Bank
                      11      Warrants                           not outstanding
8/28/2013 Holding Co.                                                                                                                                                                                             $190,781.12
3/13/2009                  Preferred                                                                                                        $0.00
          BancIndependent,                                        Redeemed, in
                           Stock w/
          Inc., Sheffield,                      $21,100,000.00     full; warrants                                                                                                                                                                                $2,686,411.03
7/14/2011 AL 8,44          Exercised                                                         $21,100,000.00                                             21,100       $1,000.00                                   $1,055,000.00
                                                                 not outstanding
                           Warrants

7/10/2009 Bancorp             Preferred                                                                                                     $0.00
                                                                  Redeemed, in
          Financial, Inc.,    Stock w/
                                                $13,669,000.00     full; warrants                                                                                                                                                                                $1,516,736.93
8/18/2011 Oak   Brook,        Exercised                                                      $13,669,000.00                                             13,669       $1,000.00                                    $410,000.00
                                                                 not outstanding
          IL8,17,44           Warrants
                                                                                                                                                                                                                                                         Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                      (CONTINUED)
                                                                                                                                                        Number     Average Price                                                  Stock Price       Current
Transaction                     Investment                             Investment          Capital Repayment /                     Remaining Capital   of Shares       of Shares   (Realized Loss) /                                 as of      Outstanding   Dividends/Interest
Date        Institution         Description1   Investment Amount          Status*        Disposition / Auction2,4   Auction Fee3            Amount     Disposed        Disposed           (Write-off)   Gain4     Warrant Sales    9/30/135       Warrants      Paid to Treasury
12/19/2008                                                                                                                                    $0.00
             Bancorp Rhode      Preferred                            Redeemed, in
8/5/2009     Island, Inc.,      Stock w/           $30,000,000.00     full; warrants            $30,000,000.00                                           30,000       $1,000.00                                                                                    $941,666.66
             Providence, RI11   Warrants                            not outstanding
9/30/2009                                                                                                                                                                                                         $1,400,000.00
2/20/2009 BancPlus              Preferred                                                                                                     $0.00
                                                                     Redeemed, in
          Corporation,          Stock w/
                                                   $48,000,000.00     full; warrants                                                                                                                                                                              $4,207,399.33
9/29/2010 Ridgeland,            Exercised                                                       $48,000,000.00                                           48,000       $1,000.00                                   $2,400,000.00
                                                                    not outstanding
          MS11,8,14             Warrants
4/3/2009                                                                                                                                      $0.00
                                Preferred
4/26/2013 BancStar, Inc.,                                               Sold, in full;               $98,267.00                                             100         $982.70          ($1,733.00)
                                Stock w/
                     8,14                           $8,600,000.00      warrants not                                                                                                                                                                               $1,908,670.00
4/29/2013 Festus, MO            Exercised                                                        $8,352,695.00                                            8,500         $982.70       ($147,305.00)                $426,338.55
                                                                        outstanding
                                Warrants
5/31/2013                                                                                                           ($84,509.62)
12/19/2008                                                                                                                                    $0.00
          BancTrust          Preferred                               Redeemed, in
          Financial Group, Stock w/                $50,000,000.00     full; warrants                                                                                                                                                               730,994      $10,436,156.00
2/15/2013 Inc., Mobile, AL83 Warrants                               not outstanding             $50,000,000.00                                           50,000       $1,000.00                                      $15,000.00

8/14/2009                                                                                                                                     $0.00
12/19/2012 Bank Financial       Preferred                                                          $451,600.92                                              486         $929.20         ($34,399.08)
                                                                        Sold, in full;
           Services, Inc.,      Stock w/
12/20/2012                                          $1,004,000.00      warrants not                $481,335.96                                              518         $929.20         ($36,664.04)                $23,500.00                                     $183,244.00
           Eden Prairie,        Exercised
              8,14                                                      outstanding
1/11/2013 MN                    Warrants                                                                             ($9,329.37)
3/26/2013                                                                                                           ($15,670.63)
10/28/2008                                     $15,000,000,000.00                                                                             $0.00
1/9/2009  Bank of America Preferred                                Redeemed, in
          Corporation,        Stock w/                              full; warrants                                                                                                                                                  $13.80                    $1,293,750,000.00
12/9/2009 Charlotte, NC6,7,11 Warrants         $10,000,000,000.00 not outstanding           $25,000,000,000.00                                         1,000,000     $25,000.00
3/9/2010                                                                                                                                                                                                        $305,913,040.28
1/16/2009                    Preferred                                                                                                        $0.00
           Bank of                                                      Sold, in full;
                             Stock w/
11/30/2012 Commerce,                                $3,000,000.00      warrants not              $2,502,000.00                                            3,000         $834.00       ($498,000.00)                $100,100.00                                     $510,473.00
                             Exercised
           Charlotte, NC8,14                                            outstanding
1/11/2013                    Warrants                                                                               ($25,000.00)
11/14/2008 Bank of                                                                                                                            $0.00
                                Preferred                            Redeemed, in
           Commerce
9/27/2011                       Stock w/           $17,000,000.00     full; warrants            $17,000,000.00                                           17,000       $1,000.00                                                     $3.45                         $2,439,027.78
           Holdings,
                      44        Warrants                            not outstanding
10/26/2011 Redding, CA                                                                                                                                                                                             $125,000.00
                                Preferred                           Full investment
             Bank of George,    Stock w/                              outstanding;
3/13/2009                                           $2,672,000.00                                                                     $2,672,000.00                                                                                                                $279,991.00
             Las Vegas, NV8     Exercised                                  warrants
                                Warrants                                outstanding
12/5/2008                                                                                                                                     $0.00
           Bank of Marin   Preferred                                 Redeemed, in
3/31/2009 Bancorp, Novato, Stock w/                $28,000,000.00     full; warrants            $28,000,000.00                                           28,000       $1,000.00                                                     $41.55                         $451,111.11
           CA11            Warrants                                 not outstanding
11/23/2011                                                                                                                                                                                                        $1,703,984.00
10/28/2008                                                                                                                                    $0.00
           Bank of New York Preferred                                Redeemed, in
6/17/2009 Mellon, New York, Stock w/            $3,000,000,000.00     full; warrants         $3,000,000,000.00                                         3,000,000      $1,000.00                                                     $30.19                      $95,416,667.00
           NY11             Warrants                                not outstanding
8/5/2009                                                                                                                                                                                                        $136,000,000.00
             Bank of the                                            Full investment
                                Preferred
             Carolinas                                                outstanding;
4/17/2009                       Stock w/           $13,179,000.00                                                                    $13,179,000.00                                                                                 $0.77          475,204        $1,039,677.00
             Corporation,                                                  warrants
                                Warrants
             Mocksville, NC                                             outstanding
12/12/2008                                                                                                                                    $0.00
           Bank of the         Preferred                             Redeemed, in
11/4/2009 Ozarks, Inc., Little Stock w/            $75,000,000.00     full; warrants            $75,000,000.00                                           75,000       $1,000.00                                                     $47.94                        $3,354,166.67
           Rock, AR11          Warrants                             not outstanding
11/24/2009                                                                                                                                                                                                        $2,650,000.00
             Bankers’ Bank      Preferred                           Full investment
             of the West        Stock w/                              outstanding;
1/30/2009                                          $12,639,000.00                                                                    $12,639,000.00                                                                                                               $3,253,651.00
             Bancorp, Inc.,     Exercised                                  warrants
             Denver, CO8        Warrants                                outstanding
                                                                                                                                                                                                                                                                                   TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




1/23/2009                      Preferred                                                                                                      $0.00
             BankFirst Capital                                       Redeemed, in
                               Stock w/
             Corporation,                          $15,500,000.00     full; warrants                                                                                                                                                                              $2,217,469.25
9/8/2011                       Exercised                                                        $15,500,000.00                                           15,500       $1,000.00                                    $775,000.00
             Macon, MS44,8,14                                       not outstanding
                               Warrants
                                                                                                                                                                                                                                                          Continued on next page
                                                                                                                                                                                                                                                                                   349
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                      (CONTINUED)                                                                                                                                                                            350
                                                                                                                                                           Number     Average Price                                                 Stock Price       Current
Transaction                      Investment                            Investment          Capital Repayment /                        Remaining Capital   of Shares       of Shares   (Realized Loss) /                                as of      Outstanding   Dividends/Interest
Date        Institution          Description1   Investment Amount         Status*        Disposition / Auction2,4     Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4    Warrant Sales    9/30/135       Warrants      Paid to Treasury
2/13/2009                                                                                                                                        $0.00
                             Preferred
11/9/2012 BankGreenville, Stock w/                                      Sold, in full;             $900,000.00                                               1,000         $900.00       ($100,000.00)                $21,880.50
                        8,14                        $1,000,000.00      warrants not                                                                                                                                                                                  $203,773.00
1/11/2013 Greenville, SC     Exercised                                                                                  ($9,000.00)
                                                                        outstanding
                             Warrants
3/26/2013                                                                                                              ($16,000.00)
11/21/2008                                                                                                                                       $0.00
             Banner              Preferred                              Sold, in full;
4/3/2012     Corporation,        Stock w/         $124,000,000.00      warrants not            $109,717,680.00      ($1,645,765.20)                        124,000         $884.80    ($14,282,320.00)                                $38.16                      $20,873,746.67
             Walla Walla, WA     Warrants                               outstanding
6/12/2013                                                                                                                                                                                                            $134,201.00
2/6/2009  Banner County          Preferred                                                                                                       $0.00
                                                                     Redeemed, in
          Ban Corporation,       Stock w/
                                                      $795,000.00     full; warrants                                                                                                                                                                                 $107,411.42
7/28/2011 Harrisburg,            Exercised                                                         $795,000.00                                                 795       $1,000.00                                    $40,000.00
                                                                    not outstanding
          NE44,8,14              Warrants
1/16/2009                                                                                                                                        $0.00
          Bar Harbor      Preferred                                  Redeemed, in
2/24/2010 Bankshares, Bar Stock w/                 $18,751,000.00     full; warrants            $18,751,000.00                                              18,751       $1,000.00                                                    $36.79                        $1,036,514.11
          Harbor, ME12,16 Warrants                                  not outstanding
7/28/2010                                                                                                                                                                                                            $250,000.00
11/14/2008                                                                                                                                       $0.00
           BB&T Corp.,           Preferred                           Redeemed, in
6/17/2009 Winston-Salem,         Stock w/       $3,133,640,000.00     full; warrants         $3,133,640,000.00                                             3,133.64   $1,000,000.00                                                   $33.75                      $92,703,516.67
           NC11                  Warrants                           not outstanding
7/22/2009                                                                                                                                                                                                          $67,010,401.86
                                 Preferred                          Full investment
             BCB Holding
                                                                                                                                                                                                                                                                                     APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                                 Stock w/                             outstanding;
4/3/2009     Company, Inc.,                         $1,706,000.00                                                                        $1,706,000.00                                                                                                               $173,507.50
                                 Exercised                                 warrants
             Theodore, AL8
                                 Warrants                               outstanding
12/23/2008                                                                                                                                       $0.00
           BCSB Bancorp,         Preferred                           Redeemed, in
1/26/2011 Inc., Baltimore,       Stock w/          $10,800,000.00     full; warrants            $10,800,000.00                                              10,800       $1,000.00                                                    $24.40                        $1,129,500.00
           MD11                  Warrants                           not outstanding
4/19/2013                                                                                                                                                                                                           $1,442,000.00
1/30/2009                                                                                                                                        $0.00
7/6/2011                                                                                         $1,500,000.00                                               1,500       $1,000.00
                           Preferred
10/19/2011 Beach Business Stock w/                                 Redeemed, in                  $1,500,000.00                                               1,500       $1,000.00
           Bank, Manhattan                          $6,000,000.00   full; warrants                                                                                                                                                    $9.18                          $963,317.00
3/7/2012 Beach, CA11,8,14 Exercised                               not outstanding                $1,500,000.00                                               1,500       $1,000.00
                           Warrants
6/6/2012                                                                                         $1,200,000.00                                               1,200       $1,000.00
6/27/2012                                                                                          $300,000.00                                                 300       $1,000.00                                   $300,000.00
6/12/2009 Berkshire                                                                                                                              $0.00
           Bancorp, Inc./        Preferred
9/19/2011 Customers                                                  Redeemed, in                          $0.00                                             2,892       $1,000.00
                                 Stock w/
                                                    $2,892,000.00     full; warrants                                                                                                                                                                                 $407,478.00
           Bancorp, Inc.,        Exercised
                                                                    not outstanding
12/28/2011 Phoneixville,         Warrants                                                        $2,892,000.00                                               2,892       $1,000.00                                   $145,000.00
           PA11,8,14
12/19/2008                                                                                                                                       $0.00
          Berkshire Hills        Preferred                           Redeemed, in
5/27/2009 Bancorp, Inc.,         Stock w/          $40,000,000.00     full; warrants            $40,000,000.00                                              40,000       $1,000.00                                                    $25.11                         $877,777.78
          Pittsfield, MA11       Warrants                           not outstanding
6/24/2009                                                                                                                                                                                                           $1,040,000.00
2/13/2009                     Preferred                                                                                                          $0.00
             Bern Bancshares,                                        Redeemed, in
                              Stock w/
             Inc., Bern,                              $985,000.00     full; warrants                                                                                                                                                  $8.02                          $137,062.50
9/1/2011                      Exercised                                                            $985,000.00                                                 985       $1,000.00                                    $50,000.00
             KS44,8,14                                              not outstanding
                              Warrants
4/24/2009 Birmingham                                $1,635,000.00                                                                                $0.00
                                 Preferred
           Bloomfield                                              Redeemed, in
12/18/2009 Bancshares, Inc,      Stock w/
                                                                    full; warrants                                                                                                                                                    $5.70                          $342,022.67
                                 Exercised
           Birmingham,                              $1,744,000.00 not outstanding
7/28/2011 MI8,14,18,44           Warrants                                                        $3,379,000.00                                               3,379       $1,000.00                                    $82,000.00

6/19/2009                                                                                                                                        $0.00
             Biscayne            Subordinated
2/7/2013                                                                Sold, in full;           $2,532,140.00                                            2,600,000          $0.97         ($67,860.00)               $64,158.97
             Bancshares, Inc.,   Debentures
                                                    $6,400,000.00      warrants not                                                                                                                                                                                 $1,896,838.00
2/8/2013     Coconut Grove,      w/ Exercised                                                    $3,700,820.00                                            3,800,000          $0.97         ($99,180.00)              $140,347.75
                                                                        outstanding
             FL15,17             Warrants
3/26/2013                                                                                                              ($62,329.60)
3/13/2009                                                                                                                                        $0.00
                                 Preferred
10/29/2012 Blackhawk                                                    Sold, in full;             $186,550.00                                                 205         $910.00         ($18,450.00)
                                 Stock w/
           Bancorp, Inc.,                          $10,000,000.00      warrants not                                                                                                                                                   $9.00                         $1,980,211.25
10/31/2012 Beloit, WI8,14        Exercised                                                       $8,913,450.00                                               9,795         $910.00       ($881,550.00)               $470,250.00
                                                                        outstanding
                                 Warrants
1/11/2013                                                                                                              ($91,000.00)
                                                                                                                                                                                                                                                            Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                     (CONTINUED)
                                                                                                                                                        Number     Average Price                                                      Stock Price       Current
Transaction                     Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                     as of      Outstanding   Dividends/Interest
Date        Institution         Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)         Gain4   Warrant Sales    9/30/135       Warrants      Paid to Treasury
5/22/2009                       Preferred                                                                                                     $0.00
          Blackridge                                                Redeemed, in
                                Stock w/
6/27/2012 Financial, Inc.,                         $5,000,000.00     full; warrants             $2,250,000.00                                             2,250       $1,000.00                                                                                        $877,326.00
                                Exercised
          Fargo, ND8,14                                            not outstanding
9/12/2012                       Warrants                                                        $2,750,000.00                                             2,750       $1,000.00                                        $250,000.00
3/6/2009                                                                                                                                      $0.00
           Blue Ridge           Preferred
10/29/2012 Bancshares, Inc.,                                           Sold, in full;               $19,630.00                                               26         $755.00          ($6,370.00)
                                Stock w/
                                                  $12,000,000.00      warrants not                                                                                                                                                                                    $2,427,244.00
10/31/2012 Independence,        Exercised                                                       $9,040,370.00                                            11,974         $755.00     ($2,933,630.00)                    $541,793.34
                                                                       outstanding
           MO8,14               Warrants
1/11/2013                                                                                                           ($90,600.00)
3/6/2009  Blue River            Preferred                                                                                                     $0.00
          Bancshares,           Stock w/                             Currently not
                                                   $5,000,000.00                                                                                                                                                                        $0.02                          $529,105.00
2/10/2012 Inc., Shelbyville,    Exercised                              collectible                                                                                                  ($5,000,000.00)
          IN8,64,97             Warrants
                                                                   Full investment
          Blue Valley Ban       Preferred
                                                                     outstanding;
12/5/2008 Corp, Overland        Stock w/          $21,750,000.00                                                                     $21,750,000.00                                                                                     $7.40          111,083         $211,458.33
                                                                          warrants
          Park, KS              Warrants
                                                                       outstanding
4/17/2009 BNB Financial         Preferred                                                                                                     $0.00
                                                                    Redeemed, in
          Services              Stock w/
                                                   $7,500,000.00     full; warrants                                                                                                                                                                                   $1,901,052.00
8/30/2013 Corporation, New      Exercised                                                       $7,500,000.00                                             7,500       $1,000.00                                        $375,000.00
                                                                   not outstanding
          York, NY8             Warrants
12/5/2008                                                                                                                                     $0.00
                                Preferred                              Sold, in full;
             BNC Bancorp,
8/29/2012                       Stock w/          $31,260,000.00      warrants not             $28,797,649.80      ($431,964.75)                         31,260         $921.20     ($2,462,350.20)                                     $13.34                        $5,835,061.00
             Thomasville, NC
                                Warrants                               outstanding
9/19/2012                                                                                                                                                                                                              $939,920.00
2/27/2009                        Preferred                                                                                                    $0.00
             BNC Financial                                          Redeemed, in
                                 Stock w/
             Group, Inc., New                      $4,797,000.00     full; warrants                                                                                                                                                                                    $636,920.75
8/4/2011                 44,8,14 Exercised                                                      $4,797,000.00                                             4,797       $1,000.00                                        $240,000.00
             Canaan, CT                                            not outstanding
                                 Warrants
                                Preferred                          Full investment
             BNCCORP, Inc.,     Stock w/                             outstanding;
1/16/2009                                         $20,093,000.00                                                                     $20,093,000.00                                                                                     $14.00                        $5,315,784.00
             Bismarck, ND8      Exercised                                 warrants
                                Warrants                               outstanding
3/6/2009                        Preferred                                                                                                     $0.00
          BOH Holdings,                                             Redeemed, in
                                Stock w/
          Inc., Houston,                          $10,000,000.00     full; warrants                                                                                                                                                                                   $1,283,777.44
7/14/2011 TX44,8,14             Exercised                                                      $10,000,000.00                                            10,000       $1,000.00                                        $500,000.00
                                                                   not outstanding
                                Warrants
5/15/2009                                                                                                                                     $0.00
                            Subordinated
3/8/2013  Boscobel                                                     Sold, in full;                                                                                                                                  $232,180.54
                            Debentures
          Bancorp, Inc,                            $5,586,000.00      warrants not                                                                                                                                                                                     $468,624.00
3/11/2013 Boscobel, WI15,14 w/ Exercised                               outstanding              $5,586,000.00                                          5,586,000          $1.11                         $592,730.46    $129,709.80
                            Warrants
4/9/2013                                                                                                            ($61,787.30)
11/21/2008                                                                                                                                    $0.00
           Boston Private
1/13/2010 Financial             Preferred                           Redeemed, in               $50,000,000.00                                            50,000       $1,000.00
                                Stock w/         $154,000,000.00     full; warrants                                                                                                                                                     $11.09                      $11,022,222.23
6/16/2010 Holdings, Inc.,       Warrants                           not outstanding            $104,000,000.00                                           104,000       $1,000.00
           Boston, MA11
2/7/2011                                                                                                                                                                                                              $6,202,523.25
12/23/2008                                                                                                                                    $0.00
2/23/2011 Bridge Capital        Preferred                           Redeemed, in               $15,000,000.00                                            15,000       $1,000.00
          Holdings, San         Stock w/          $23,864,000.00     full; warrants                                                                                                                                                     $16.98                        $2,613,582.22
3/16/2011 Jose, CA11            Warrants                           not outstanding              $8,864,000.00                                             8,864       $1,000.00
4/20/2011                                                                                                                                                                                                             $1,395,000.00
                                Preferred                        Full investment
           Bridgeview
                                Stock w/                           outstanding;
12/19/2008 Bancorp, Inc.,                         $38,000,000.00                                                                     $38,000,000.00                                                                                                                   $2,393,155.56
                                Exercised                               warrants
           Bridgeview, IL8
                                Warrants                             outstanding
           Broadway
           Financial
11/14/2008 Corporation,                            $9,000,000.00                                                                     $15,000,000.00
           Los Angeles,                                            Full investment
                                Preferred
           CA9,10,18,65,96                                           outstanding;
                                Stock w/                                                                                                                                                                                                $1.21                          $810,416.67
                                                                     warrants not
                                                                                                                                                                                                                                                                                       TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




          Broadway              Warrants
                                                                       outstanding
          Financial
12/4/2009                                          $6,000,000.00
          Corporation, Los
          Angeles, CA15,14
                                                                                                                                                                                                                                                              Continued on next page
                                                                                                                                                                                                                                                                                       351
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                    (CONTINUED)                                                                                                                                                                                352
                                                                                                                                                      Number     Average Price                                                        Stock Price       Current
Transaction                    Investment                            Investment          Capital Repayment /                     Remaining Capital   of Shares       of Shares   (Realized Loss) /                                       as of      Outstanding   Dividends/Interest
Date        Institution        Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3            Amount     Disposed        Disposed           (Write-off)         Gain4     Warrant Sales    9/30/135       Warrants      Paid to Treasury
5/15/2009                                                                                                                                   $0.00
                            Subordinated
4/26/2013 Brogan                                                      Sold, in full;               $60,000.00                                          60,000           $1.05                           $3,000.60
                            Debentures
          Bankshares, Inc.,                       $2,400,000.00      warrants not                                                                                                                                                                                      $402,720.00
4/29/2013 Kaukauna, WI      w/ Exercised                                                       $2,340,000.00                                         2,340,000          $1.05                         $117,023.40      $125,135.60
                                                                      outstanding
                            Warrants
5/31/2013                                                                                                         ($25,000.00)
7/17/2009 Brotherhood          Preferred                                                                                                    $0.00
                                                                   Redeemed, in
          Bancshares,          Stock w/
                                                 $11,000,000.00     full; warrants                                                                                                                                                                                    $1,295,586.01
9/15/2011 Inc., Kansas City,   Exercised                                                      $11,000,000.00                                           11,000       $1,000.00                                          $550,000.00
                                                                  not outstanding
          KS8,44,14            Warrants
4/24/2009                                                                                                                                   $0.00
                            Preferred
5/23/2012 Business                                               Redeemed, in                  $6,000,000.00                                            6,000       $1,000.00
                            Stock w/
          Bancshares, Inc.,                      $15,000,000.00   full; warrants                                                                                                                                                                                      $2,957,709.00
1/9/2013 Clayton, MO11,8,14 Exercised                           not outstanding                $2,500,000.00                                            2,500       $1,000.00
                            Warrants
4/24/2013                                                                                      $6,500,000.00                                            6,500       $1,000.00                                          $750,000.00
3/13/2009                     Preferred                                                                                                     $0.00
                                                                   Redeemed, in
          Butler Point, Inc., Stock w/
                    11,8,14                         $607,000.00     full; warrants                                                                                                                                                                                       $87,123.53
11/2/2011 Catlin, IL          Exercised                                                          $607,000.00                                              607       $1,000.00                                            $30,000.00
                                                                  not outstanding
                              Warrants
1/9/2009                                                                                                                                    $0.00
          C&F Financial     Preferred                              Redeemed, in
7/27/2011 Corporation, West Stock w/             $20,000,000.00     full; warrants            $10,000,000.00                                           10,000       $1,000.00                                                           $48.40         167,504        $2,902,778.00
          Point, VA11       Warrants                                 outstanding
4/11/2012                                                                                     $10,000,000.00                                           10,000       $1,000.00
                                                                                                                                                                                                                                                                                       APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




12/23/2008 Cache Valley        Preferred          $4,767,000.00                                                                             $0.00
                                                                 Redeemed, in
           Banking             Stock w/
12/18/2009                                                        full; warrants                                                                                                                                                                                      $1,029,333.80
           Company, Logan,     Exercised          $4,640,000.00 not outstanding
             8,14,18,44
7/14/2011 UT                   Warrants                                                        $9,407,000.00                                            9,407       $1,000.00                                          $238,000.00
1/9/2009     Cadence Financial Preferred                              Sold, in full;                                                        $0.00
             Corporation,      Stock w/          $44,000,000.00      warrants not                                                                                                                                                                                     $3,984,062.50
3/4/2011     Starkville, MS    Warrants                               outstanding             $38,000,000.00                                           44,000         $863.60     ($6,000,000.00)

2/27/2009 California Bank      Preferred                                                                                                    $0.00
                                                                   Redeemed, in
          of Commerce,         Stock w/
                                                  $4,000,000.00     full; warrants                                                                                                                                                                                     $555,899.67
9/15/2011 Lafayette,           Exercised                                                       $4,000,000.00                                            4,000       $1,000.00                                          $200,000.00
                                                                  not outstanding
          CA44,8,14            Warrants
1/23/2009 California Oaks      Preferred                                                                                                    $0.00
                                                                   Redeemed, in
          State Bank,          Stock w/
                                                  $3,300,000.00     full; warrants                                                                                                                                                                                     $337,219.25
12/8/2010 Thousand   Oaks,     Exercised                                                       $3,300,000.00                                            3,300       $1,000.00                                          $165,000.00
                                                                  not outstanding
          CA11,8,14            Warrants
                            Preferred                             Full investment
          Calvert Financial
                            Stock w/                                outstanding;
1/23/2009 Corporation,                            $1,037,000.00                                                                     $1,037,000.00                                                                                                                      $215,443.00
                       8    Exercised                                    warrants
          Ashland, MO
                            Warrants                                  outstanding
                           Preferred                              Full investment
          CalWest Bancorp,
                           Stock w/                                 outstanding;
1/23/2009 Rancho Santa                            $4,656,000.00                                                                     $4,656,000.00                                                                                       $0.48                          $396,163.67
                       8   Exercised                                     warrants
          Margarita, CA
                           Warrants                                   outstanding
12/23/2008                  Preferred                                                                                                       $0.00
           Capital Bancorp,                                        Redeemed, in
                            Stock w/
           Inc., Rockville,                       $4,700,000.00     full; warrants                                                                                                                                                                                     $517,281.19
12/30/2010 MD11,8,14        Exercised                                                          $4,700,000.00                                            4,700       $1,000.00                                          $235,000.00
                                                                  not outstanding
                            Warrants
12/12/2008 Capital Bank        Preferred                           Redeemed, in                                                             $0.00
           Corporation,        Stock w/          $41,279,000.00     full; warrants                                                                                                                                                                     749,619        $3,973,104.25
1/28/2011 Raleigh, NC39        Warrants                           not outstanding             $41,279,000.00                                           41,279       $1,000.00

             Capital           Preferred                          Full investment
             Commerce          Stock w/                             outstanding;
4/10/2009                                         $5,100,000.00                                                                     $5,100,000.00                                                                                                                      $304,973.00
             Bancorp, Inc.,    Exercised                                 warrants
             Milwaukee, WI8    Warrants                               outstanding
11/14/2008 Capital One                                                                                                                      $0.00
                               Preferred                           Redeemed, in
           Financial
6/17/2009                      Stock w/       $3,555,199,000.00     full; warrants         $3,555,199,000.00                                         3,555,199      $1,000.00                                                           $68.74                     $105,174,637.58
           Corporation,
                       11      Warrants                           not outstanding
12/9/2009 McLean, VA                                                                                                                                                                                                $146,500,064.55
12/23/2008                                                                                                                                  $0.00
                               Preferred
11/8/2012 Capital Pacific                                             Sold, in full;             $247,727.04                                              264         $938.40         ($16,272.96)
                               Stock w/
          Bancorp,                                $4,000,000.00      warrants not                                                                                                                                                                                      $845,369.00
11/9/2012 Portland, OR8,14     Exercised                                                       $3,505,712.96                                            3,736         $938.40       ($230,287.04)                      $169,042.00
                                                                      outstanding
                               Warrants
1/11/2013                                                                                                         ($25,000.00)
                                                                                                                                                                                                                                                              Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                     (CONTINUED)
                                                                                                                                                        Number     Average Price                                                Stock Price       Current
Transaction                     Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividends/Interest
Date        Institution         Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4   Warrant Sales    9/30/135       Warrants      Paid to Treasury
10/23/2009 Cardinal             Subordinated                                                                                                  $0.00
                                                                    Redeemed, in
           Bancorp II, Inc.,    Debentures
                                                   $6,251,000.00     full; warrants                                                                                                                                                                              $983,479.56
9/8/2011 Washington,            w/ Exercised                                                    $6,251,000.00                                          6,251,000          $1.00                                  $313,000.00
                                                                   not outstanding
           MO15,45,14           Warrants
1/9/2009                                                                                                                                      $0.00
2/20/2013                                                                                      $14,525,843.40                                            15,534         $935.10     ($1,008,156.60)
          Carolina Bank         Preferred                              Sold, in full;
2/21/2013 Holdings, Inc.,       Stock w/          $16,000,000.00      warrants not                $435,756.60                                               466         $935.10         ($30,243.40)                              $10.62                        $3,329,805.00
          Greensboro, NC        Warrants                               outstanding
3/26/2013                                                                                                          ($149,616.00)
4/19/2013                                                                                                                                                                                                       $1,800,000.00
2/6/2009                                                                                                                                      $0.00
11/30/2012                                                                                      $3,412,000.00                                             4,000         $853.00       ($588,000.00)
           Carolina Trust   Preferred                                  Sold, in full;
1/11/2013 Bank, Lincolnton, Stock w/               $4,000,000.00      warrants not                                  ($34,120.00)                                                                                                  $2.93                          $613,320.00
           NC               Warrants                                   outstanding
3/26/2013                                                                                                           ($15,880.00)
6/11/2013                                                                                                                                                                                                         $19,132.00
2/13/2009 Carrollton            Preferred                         Redeemed, in                                                                $0.00
          Bancorp,              Stock w/           $9,201,000.00   full; warrants                                                                                                                                                 $5.30                         $1,974,364.00
4/19/2013 Baltimore, M11        Warrants                         not outstanding                $9,201,000.00                                             9,201       $1,000.00                                  $213,594.16

1/16/2009 Carver Bancorp,                                           Redeemed, in                                                              $0.00
                          Preferred
          Inc, New York,                          $18,980,000.00     full; warrants                                                                                                                                               $7.80                         $1,531,580.55
8/27/2010 NY11,9,36       Stock                                                                $18,980,000.00                                            18,980       $1,000.00
                                                                   not outstanding
11/21/2008 Cascade Financial Preferred                                 Sold, in full;                                                         $0.00
           Corporation,      Stock w/             $38,970,000.00      warrants not                                                                                                                                                                              $1,428,900.00
6/30/2011 Everett, WA        Warrants                                  outstanding             $16,250,000.00                                            38,970         $417.00    ($22,720,000.00)

12/5/2008                                                                                                                                     $0.00
          Cathay General        Preferred                           Redeemed, in
3/20/2013 Bancorp, Los          Stock w/         $258,000,000.00     full; warrants           $129,000,000.00                                           129,000       $1,000.00                                                   $23.37       1,846,374      $58,766,667.00
          Angeles, CA11         Warrants                              outstanding
9/30/2013                                                                                     $129,000,000.00                                           129,000       $1,000.00
2/27/2009 Catskill Hudson       Preferred          $3,000,000.00                                                                              $0.00
                                                                  Redeemed, in
           Bancorp, Inc,        Stock w/
12/22/2009                                                         full; warrants                                                                                                                                                 $17.50                         $685,071.47
           Rock Hill,           Exercised          $3,500,000.00 not outstanding
             8,18,14,44
7/21/2011 NY                    Warrants                                                        $6,500,000.00                                             6,500       $1,000.00                                  $263,000.00
5/29/2009                    Preferred                                                                                                        $0.00
           CB Holding Corp., Stock w/                                Currently not
                    8,57,97                        $4,114,000.00                                                                                                                                                                                                 $271,579.53
10/14/2011 Aledo, IL         Exercised                                 collectible                                                                                                  ($4,114,000.00)
                             Warrants
2/20/2009                                          $2,644,000.00                                                                              $0.00
12/29/2009
                                Preferred
11/28/2012 CBB Bancorp,                                                Sold, in full;           $1,268,825.60                                             1,360         $932.05         ($91,174.40)
                                Stock w/
           Cartersville,                                              warrants not                                                                                                                                                                               $799,528.00
11/29/2012 GA8,18,18            Exercised          $1,753,000.00                                $2,831,259.86                                             3,037         $932.05       ($205,740.14)              $115,861.34
                                                                       outstanding
                                Warrants
1/11/2013                                                                                                           ($32,969.92)
3/26/2013                                                                                                              ($363.42)
3/27/2009                                                                                                                                     $0.00
8/7/2012                       Preferred                                                                                                                                                                         $287,213.85
                                                                       Sold, in full;
          CBS Banc-Corp., Stock w/
8/9/2012                                          $24,300,000.00      warrants not                $923,304.00                                             1,020         $905.20         ($96,696.00)             $689,313.24                     523,076        $4,548,137.00
          Russellville, AL8,14 Exercised
                                                                       outstanding
8/10/2012                      Warrants                                                        $21,073,056.00                                            23,280         $905.20     ($2,206,944.00)              $131,297.76
9/11/2012                                                                                                          ($219,963.60)
                                                                 Full investment
                                Preferred
             Cecil Bancorp,                                        outstanding;
12/23/2008                      Stock w/          $11,560,000.00                                                                     $11,560,000.00                                                                               $0.40          261,538         $516,988.89
             Inc., Elkton, MD                                           warrants
                                Warrants
                                                                     outstanding
                              Preferred                            Full investment
             CedarStone Bank, Stock w/                               outstanding;
2/6/2009                                           $3,564,000.00                                                                      $3,564,000.00                                                                                                              $878,846.00
             Lebanon, TN8     Exercised                                   warrants
                              Warrants                                 outstanding
                                                                                                                                                                                                                                                                                 TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




1/9/2009                                                                                                                                      $0.00
                               Preferred                            Redeemed, in
             Center Bancorp,
9/15/2011                      Stock w/           $10,000,000.00     full; warrants            $10,000,000.00                                            10,000       $1,000.00                                                   $14.24                        $1,341,667.00
             Inc., Union, NJ44
                               Warrants                            not outstanding
12/7/2011                                                                                                                                                                                                        $245,000.00
                                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                                 353
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                    (CONTINUED)                                                                                                                                                                         354
                                                                                                                                                       Number     Average Price                                                Stock Price       Current
Transaction                    Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividends/Interest
Date        Institution        Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4   Warrant Sales    9/30/135       Warrants      Paid to Treasury
12/12/2008 Center Financial                                                                                                                  $0.00
                               Preferred                           Redeemed, in
           Corporation/
                               Stock w/          $55,000,000.00     full; warrants                                                                                                                                               $13.75         340,433      $23,237,328.00
6/27/2012 BBCN     Bancorp,                                                                   $55,000,000.00                                            55,000       $1,000.00
                               Warrants                              outstanding
           Inc.11,59
5/1/2009                                                                                                                                     $0.00
10/29/2012                     Preferred                                                           $24,750.00                                               30         $825.00          ($5,250.00)
                                                                      Sold, in full;
             CenterBank,       Stock w/
11/1/2012                                         $2,250,000.00      warrants not              $1,831,500.00                                             2,220         $825.00       ($388,500.00)               $84,057.43                                     $429,355.00
             Milford, OH8,14   Exercised
                                                                      outstanding
1/11/2013                      Warrants                                                                            ($18,562.50)
3/26/2013                                                                                                           ($6,437.50)
11/21/2008 Centerstate                                                                                                                       $0.00
                               Preferred                         Redeemed, in
           Banks of Florida
9/30/2009                      Stock w/          $27,875,000.00   full; warrants              $27,875,000.00                                            27,875       $1,000.00                                                                                 $1,196,302.58
           Inc., Davenport,
              12,16            Warrants                         not outstanding
10/28/2009 FL                                                                                                                                                                                                   $212,000.00
1/16/2009 Centra Financial     Preferred                                                                                                     $0.00
                                                                   Redeemed, in
          Holdings, Inc.,      Stock w/
3/31/2009                                        $15,000,000.00     full; warrants            $15,000,000.00                                            15,000       $1,000.00                                                   $9.68                          $172,937.50
          Morgantown,          Exercised
             11,8,14                                              not outstanding
4/15/2009 WV                   Warrants                                                                                                                                                                         $750,000.00
12/5/2008                                                                                                                                    $0.00
           Central Bancorp, Preferred                              Redeemed, in
8/25/2011 Inc., Somerville, Stock w/             $10,000,000.00     full; warrants            $10,000,000.00                                            10,000       $1,000.00                                                                                 $1,361,111.11
           MA45             Warrants                              not outstanding
10/19/2011                                                                                                                                                                                                     $2,525,000.00
                                                                                                                                                                                                                                                                                APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                                Preferred                         Full investment
             Central Bancorp, Stock w/                              outstanding;
2/27/2009                                        $22,500,000.00                                                                     $22,500,000.00                                                                                                             $2,411,625.00
             Inc., Garland, TX8 Exercised                                warrants
                                Warrants                              outstanding
1/30/2009                       Preferred                                                                                                    $0.00
             Central                                               Redeemed, in
                                Stock w/
             Bancshares, Inc.,                    $5,800,000.00     full; warrants                                                                                                                                                                              $769,176.83
7/6/2011                        Exercised                                                      $5,800,000.00                                             5,800       $1,000.00                                  $290,000.00
             Houston, TX11,8,14                                   not outstanding
                                Warrants
2/20/2009                                                                                                                                    $0.00
           Central             Preferred
12/10/2012 Community                                                  Sold, in full;           $5,333,059.60                                             5,758         $926.20       ($424,940.40)
                               Stock w/
                                                 $22,000,000.00      warrants not                                                                                                                                                                              $4,566,167.00
12/11/2012 Corporation,        Exercised                                                      $15,043,340.40                                            16,242         $926.20     ($1,198,659.60)             $1,058,725.80
                                                                      outstanding
           Temple, TX8,14      Warrants
1/11/2013                                                                                                         ($203,764.00)
12/5/2008 Central Federal      Preferred                              Sold, in full;                                                         $0.00
          Corporation,         Stock w/           $7,225,000.00      warrants not                                                                                                                                                $1.41                          $612,118.06
9/26/2012 Fairlawn, OH         Warrants                               outstanding              $3,000,000.00                                             7,225         $415.20     ($4,225,000.00)

12/23/2008                                                                                                                                   $0.00
           Central Jersey      Preferred                           Redeemed, in
11/24/2010 Bancorp,            Stock w/          $11,300,000.00     full; warrants            $11,300,000.00                                            11,300       $1,000.00                                                                                 $1,084,486.11
           Oakhurst, NJ11      Warrants                           not outstanding
12/1/2010                                                                                                                                                                                                       $319,658.99
1/9/2009                                                                                                                                     $0.00
6/22/2011 Central Pacific      Preferred                              Sold, in full;          $36,337,500.00      ($454,218.75)                       2,850,000         $12.75    ($32,121,928.87)
          Financial Corp.,     Stock w/         $135,000,000.00      warrants not                                                                                                                                                $17.70                        $2,362,500.00
4/4/2012 Honolulu, HI40        Warrants                               outstanding             $36,427,038.55      ($387,816.38)                       2,770,117         $13.15    ($30,113,532.58)
6/11/2013                                                                                                                                                                                                       $751,888.00
1/30/2009 Central Valley                                                                                                                     $0.00
                           Preferred                             Redeemed, in
          Community
8/18/2011                  Stock w/               $7,000,000.00   full; warrants               $7,000,000.00                                             7,000       $1,000.00                                                   $10.15                         $892,499.67
          Bancorp, Fresno,
             45            Warrants                             not outstanding
9/28/2011 CA                                                                                                                                                                                                    $185,016.80
                                                                  Full investment
          Central Virginia  Preferred
                                                                    outstanding;
1/30/2009 Bankshares, Inc., Stock w/             $11,385,000.00                                                                     $11,385,000.00                                                                               $0.31          263,542         $450,656.00
                                                                         warrants
          Powhatan, VA93 Warrants
                                                                      outstanding
12/18/2009 Centric Financial   Preferred                                                                                                     $0.00
                                                                   Redeemed, in
           Corporation,        Stock w/
                                                  $6,056,000.00     full; warrants                                                                                                                                                                              $501,821.89
7/14/2011 Harrisburg,          Exercised                                                       $6,056,000.00                                             6,056       $1,000.00                                  $182,000.00
                                                                  not outstanding
           PA8,17,44           Warrants
2/6/2009                       Preferred                                                                                                     $0.00
          Centrix Bank &                                           Redeemed, in
                               Stock w/
          Trust, Bedford,                         $7,500,000.00     full; warrants                                                                                                                                               $25.50                        $1,012,791.42
7/28/2011 NH44,8,14            Exercised                                                       $7,500,000.00                                             7,500       $1,000.00                                  $375,000.00
                                                                  not outstanding
                               Warrants
                                                                                                                                                                                                                                                       Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                       (CONTINUED)
                                                                                                                                                              Number     Average Price                                                               Stock Price       Current
Transaction                      Investment                             Investment          Capital Repayment /                      Remaining Capital       of Shares       of Shares     (Realized Loss) /                                            as of      Outstanding   Dividends/Interest
Date        Institution          Description1   Investment Amount          Status*        Disposition / Auction2,4   Auction Fee3             Amount         Disposed        Disposed             (Write-off)               Gain4    Warrant Sales    9/30/135       Warrants      Paid to Treasury
1/9/2009 Centrue Financial Preferred                                   Sold, in part;                                                   $7,402,000.00
          Corporation, St. Stock w/                $32,668,000.00          warrants                                                                                                                                                                                   508,320         $571,690.00
9/25/2013 Louis, MO        Warrants                                     outstanding               $8,211,450.00                                                25,266         $325.00      ($17,054,550.00)

6/19/2009                                                                                                                                       $0.00
           Century Financial     Subordinated
12/19/2012 Services                                                      Sold, in full;               $39,400.00                                               40,000           $0.99              ($600.00)                          $198,635.58
                                 Debentures
                                                   $10,000,000.00       warrants not                                                                                                                                                                                                 $2,938,871.00
                                 w/ Exercised                                                     $9,810,600.00                                             9,960,000           $0.99         ($149,400.00)                           $297,953.37
12/20/2012 Corporation, 15,14                                            outstanding
           Santa Fe, NM          Warrants
1/11/2013                                                                                                             ($98,500.00)
                            Subordinated                          Full investment
          Chambers
                            Debentures                              outstanding;
5/29/2009 Bancshares, Inc.,                        $19,817,000.00                                                                      $19,817,000.00                                                                                                                                $5,754,675.00
                            w/ Exercised                                 warrants
          Danville, AR15
                            Warrants                                  outstanding
                                 Preferred                           Full investment
          Chicago Shore
                                 Stock w/                              outstanding;
7/31/2009 Corporation ,                              $7,000,000.00                                                                      $7,000,000.00                                                                                                                                $1,541,896.00
                                 Exercised                                  warrants
          Chicago, IL8
                                 Warrants                                outstanding
12/31/2008                       Preferred                                    Exited                                                            $0.00
           CIT Group Inc.,
                        23       Stock w/        $2,330,000,000.00      bankruptcy/                                                                                                                                                                    $48.77                      $43,687,500.25
12/10/2009 New York, NY          Warrants                               receivership                                                                                                     ($2,330,000,000.00)

10/28/2008                                                                                                                                      $0.00
                               Preferred                              Redeemed, in
             Citigroup Inc.,
12/10/2010                     Stock w/         $25,000,000,000.00     full; warrants        $25,000,000,000.00                                          7,692,307,692          $4.14                           $6,852,354,470.93                      $48.51                     $932,291,667.00
             New York, NY19,30
                               Warrants                              not outstanding
1/31/2011                                                                                                                                                                                                                           $54,621,848.84
1/16/2009 Citizens &                                                                                                                            $0.00
                                 Preferred                            Redeemed, in
          Northern
8/4/2010                         Stock w/          $26,440,000.00      full; warrants            $26,440,000.00                                                26,440       $1,000.00                                                                  $19.94                        $2,049,100.00
          Corporation,
                       11        Warrants                            not outstanding
9/1/2010 Wellsboro, PA                                                                                                                                                                                                                $400,000.00
12/23/2008                  Preferred                                                                                                           $0.00
          Citizens Bancorp,
                            Stock w/                                   Currently not
          Nevada City,                             $10,400,000.00                                                                                                                                                                                      $0.01                          $223,571.00
9/23/2011 CA8,55,97         Exercised                                    collectible                                                                                                       ($10,400,000.00)
                            Warrants
5/29/2009                                                                                                                                       $0.00
             Citizens            Preferred
2/7/2013                                                                 Sold, in full;           $6,657,375.00                                                12,990         $512.50        ($6,332,625.00)                          $258,018.75
             Bancshares          Stock w/
                                                   $24,990,000.00       warrants not                                                                                                                                                                                                  $628,033.33
2/8/2013     Co., Chillicothe,   Exercised                                                        $6,150,000.00                                                12,000         $512.50        ($5,850,000.00)                          $387,028.12
                                                                         outstanding
             MO8,14              Warrants
3/26/2013                                                                                                            ($128,073.75)
3/6/2009  Citizens                                                                                                                              $0.00
                                                                      Redeemed, in
          Bancshares             Preferred
                                                     $7,462,000.00     full; warrants                                                                                                                                                                  $5.40                          $535,813.00
8/13/2010 Corporation,           Stock                                                            $7,462,000.00                                                 7,462       $1,000.00
                                                                     not outstanding
          Atlanta, GA11,9,36
                                 Preferred                           Full investment
          Citizens Bank &
                                 Stock w/                              outstanding;
3/20/2009 Trust Company,                             $2,400,000.00                                                                      $2,400,000.00                                                                                                                                 $412,383.00
                                 Exercised                                  warrants
          Covington, LA8
                                 Warrants                                outstanding
             Citizens            Preferred                           Full investment
             Commerce            Stock w/                              outstanding;
2/6/2009                                             $6,300,000.00                                                                      $6,300,000.00                                                                                                                                 $180,258.50
             Bancshares, Inc.,   Exercised                                  warrants
             Versailles, KY8     Warrants                                outstanding
12/23/2008 Citizens              Preferred                                                                                                      $0.00
                                                                      Redeemed, in
           Community             Stock w/
                                                     $3,000,000.00     full; warrants                                                                                                                                                                                                 $424,645.84
7/28/2011 Bank,    South Hill,   Exercised                                                        $3,000,000.00                                                 3,000       $1,000.00                                                 $150,000.00
                                                                     not outstanding
           VA44,8,14             Warrants
12/19/2008 Citizens First                                                                                                               $3,265,788.00
                                 Preferred                            Redeemed, in
           Corporation,
2/16/2011                        Stock w/            $8,779,000.00    part; warrants              $2,212,308.00                                                    63      $35,116.00                                                                  $8.83          254,218        $1,683,886.00
           Bowling Green,
              11                 Warrants                               outstanding
2/13/2013 KY                                                                                      $3,300,904.00                                                    94      $35,116.00
12/12/2008 Citizens Republic Preferred                                Redeemed, in                                                              $0.00
           Bancorp, Inc.     Stock w/             $300,000,000.00      full; warrants
4/12/2013 Flint, Michigan86 Warrants                                    outstanding             $300,000,000.00                                               300,000       $1,000.00

12/12/2008 Citizens South                                                                                                                       $0.00
                                 Preferred                         Redeemed, in
           Banking
9/22/2011                        Stock w/          $20,500,000.00   full; warrants               $20,500,000.00                                                20,500       $1,000.00                                                                                                $2,847,222.22
           Corporation,
                                                                                                                                                                                                                                                                                                      TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




                        45       Warrants                         not outstanding
11/9/2011 Gastonia, NC                                                                                                                                                                                                                $225,157.00
             City National                                           Full investment
             Bancshares          Preferred                             outstanding;
4/10/2009                                            $9,439,000.00                                                                      $9,439,000.00                                                                                                                                 $281,859.00
             Corporation,        Stock                                 warrants not
             Newark, NJ8,9                                               outstanding
                                                                                                                                                                                                                                                                             Continued on next page
                                                                                                                                                                                                                                                                                                      355
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                    (CONTINUED)                                                                                                                                                                           356
                                                                                                                                                       Number     Average Price                                                  Stock Price       Current
Transaction                    Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                 as of      Outstanding   Dividends/Interest
Date        Institution        Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4     Warrant Sales    9/30/135       Warrants      Paid to Treasury
11/21/2008                                                                                                                                   $0.00
           City National
12/30/2009 Corporation,        Preferred                         Redeemed, in                $200,000,000.00                                           200,000       $1,000.00
                               Stock w/         $400,000,000.00   full; warrants                                                                                                                                                   $66.66                      $23,916,666.67
3/3/2010 Beverly   Hills,                                                                    $200,000,000.00                                           200,000       $1,000.00
                               Warrants                         not outstanding
           CA11
4/7/2010                                                                                                                                                                                                        $18,500,000.00
3/27/2009                                                                                                                                    $0.00
                             Preferred
11/28/2012 Clover Community Stock w/                                  Sold, in full;             $955,825.50                                             1,095         $872.90       ($139,174.50)
           Bankshares, Inc.,                      $3,000,000.00      warrants not                                                                                                                                                                                 $610,864.00
11/29/2012 Clover, SC8,14    Exercised                                                         $1,662,874.50                                             1,905         $872.90       ($242,125.50)                $114,021.50
                                                                      outstanding
                             Warrants
1/11/2013                                                                                                          ($25,000.00)
12/5/2008                                                                                                                                    $0.00
3/8/2013                                                                                       $3,772,645.00                                             3,950         $955.10       ($177,355.00)
          Coastal Banking
3/11/2013 Company, Inc.,       Preferred                              Sold, in full;           $5,730,600.00                                             6,000         $955.10       ($269,400.00)
                               Stock w/           $9,950,000.00      warrants not                                                                                                                                                  $8.00                         $1,434,038.00
4/9/2013 Fernandina82          Warrants                               outstanding                                  ($95,032.45)
          Beach, FL
4/10/2013                                                                                                                                                                                                          $99,000.00
6/12/2013                                                                                                                                                                                                         $225,647.45
8/28/2009                                                                                                                                    $0.00
          CoastalSouth         Preferred
3/8/2013                                                              Sold, in full;             $397,550.00                                               500         $795.10       ($102,450.00)                $389,857.05
          Bancshares,          Stock w/
                                                 $16,015,000.00      warrants not                                                                                                                                                                                $1,235,448.96
                        Head   Exercised                                                      $12,335,976.50                                            15,515         $795.10     ($3,179,023.50)                  $25,990.47
3/11/2013 Inc., Hilton8,17                                            outstanding
                                                                                                                                                                                                                                                                                  APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




          Island, SC           Warrants
4/9/2013                                                                                                          ($127,335.27)
12/19/2008                                                                                                                                   $0.00
             CoBiz Financial   Preferred                         Redeemed, in
9/8/2011     Inc., Denver,     Stock w/          $64,450,000.00   full; warrants              $64,450,000.00                                            64,450       $1,000.00                                                     $9.66                         $8,763,409.72
             CO45              Warrants                         not outstanding
11/23/2011                                                                                                                                                                                                        $143,677.00
1/9/2009                                                                                                                                     $0.00
          Codorus Valley       Preferred                           Redeemed, in
8/18/2011 Bancorp, Inc.,       Stock w/          $16,500,000.00     full; warrants            $16,500,000.00                                            16,500       $1,000.00                                                     $18.00                        $2,151,875.00
          York, PA44           Warrants                           not outstanding
9/28/2011                                                                                                                                                                                                         $526,604.00
2/13/2009                                                                                                                                    $0.00
                            Preferred
7/19/2013 ColoEast                                                    Sold, in full;               $46,995.00                                               52         $903.80          ($5,005.00)
                            Stock w/
          Bankshares, Inc.,                      $10,000,000.00      warrants not                                                                                                                                                                                $1,229,277.78
7/22/2013 Lamar, CO8,14     Exercised                                                          $8,990,505.00                                             9,948         $903.80       ($957,495.00)                $494,381.25
                                                                      outstanding
                            Warrants
9/12/2013                                                                                                          ($90,375.00)
3/27/2009 Colonial American    Preferred                                                                                                     $0.00
                                                                 Redeemed, in
           Bank, West          Stock w/
                                                    $574,000.00   full; warrants                                                                                                                                                                                    $65,142.53
10/26/2011 Conshohocken,       Exercised                                                         $574,000.00                                               574       $1,000.00                                      $29,000.00
                                                                not outstanding
           PA11,8,14           Warrants
1/9/2009                                                                                                                                     $0.00
2/7/2013                                                                                      $21,633,944.71                                            27,661         $782.10     ($6,027,055.29)
             Colony Bankcorp, Preferred                               Sold, in full;
2/8/2013     Inc., Fitzgerald, Stock w/          $28,000,000.00      warrants not                $265,135.29                                               339         $782.10         ($73,864.71)                                $5.85                         $3,990,000.00
             GA                Warrants                               outstanding
3/26/2013                                                                                                         ($218,990.80)
6/12/2013                                                                                                                                                                                                         $810,000.00
11/21/2008                                                                                                                                   $0.00
          Columbia Banking Preferred                               Redeemed, in
8/11/2010 System, Inc.,    Stock w/              $76,898,000.00     full; warrants            $76,898,000.00                                            76,898       $1,000.00                                                     $24.70                        $6,621,772.22
          Tacoma, WA11,16 Warrants                                not outstanding
9/1/2010                                                                                                                                                                                                         $3,301,647.00
2/27/2009                   Preferred                                                                                                        $0.00
          Columbine Capital                                        Redeemed, in
                            Stock w/
          Corp., Buena                            $2,260,000.00     full; warrants                                                                                                                                                                                $316,478.64
9/22/2011 Vista, CO44,8,14  Exercised                                                          $2,260,000.00                                             2,260       $1,000.00                                    $113,000.00
                                                                  not outstanding
                            Warrants
11/14/2008                                                                                                                                   $0.00
                               Preferred                           Redeemed, in
             Comerica Inc.,
3/17/2010                      Stock w/       $2,250,000,000.00     full; warrants         $2,250,000,000.00                                          2,250,000      $1,000.00                                                     $39.31                     $150,937,500.00
             Dallas, TX11
                               Warrants                           not outstanding
5/12/2010                                                                                                                                                                                                      $181,102,043.40
1/9/2009  Commerce                                                                                                                           $0.00
                               Preferred                           Redeemed, in
          National Bank,
                               Stock w/           $5,000,000.00     full; warrants                                                                                                                                                                 87,209           $36,111.11
10/7/2009 Newport  Beach,                                                                      $5,000,000.00                                             5,000       $1,000.00
                               Warrants                              outstanding
          CA11
                                                                                                                                                                                                                                                         Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                      (CONTINUED)
                                                                                                                                                          Number     Average Price                                                Stock Price       Current
Transaction                     Investment                             Investment          Capital Repayment /                      Remaining Capital    of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividends/Interest
Date        Institution         Description1    Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4   Warrant Sales    9/30/135       Warrants      Paid to Treasury
5/22/2009                                                                                                                                      $0.00
8/7/2012                                                                                           $130,500.00                                            174,000           $0.75         ($43,500.00)
                                 Subordinated
8/8/2012     Commonwealth                                               Sold, in full;           $1,469,250.00                                           1,959,000          $0.75       ($489,750.00)
                                 Debentures
             Bancshares, Inc.,                     $20,400,000.00      warrants not                                                                                                                                                                               $5,529,295.00
8/9/2012                         w/ Exercised                                                   $13,100,250.00                                          17,467,000          $0.75     ($4,366,750.00)              $792,990.00
             Louisville, KY15,14                                        outstanding
                                 Warrants
8/10/2012                                                                                          $600,000.00                                            800,000           $0.75       ($200,000.00)              $105,732.00
9/11/2012                                                                                                           ($153,000.00)
1/23/2009 Commonwealth          Preferred                                                                                                      $0.00
                                                                        Sold, in full;
          Business Bank,        Stock w/
7/17/2013                                           $7,701,000.00      warrants not              $7,323,651.00                                              7,701         $951.00       ($377,349.00)              $362,427.91      $20.10                         $838,268.00
          Los Angeles,          Exercised
             8,14                                                       outstanding
9/12/2013 CA                    Warrants                                                                             ($73,236.51)
1/16/2009                       Preferred                                                                                                      $0.00
           Community 1st                                             Redeemed, in
                                Stock w/
           Bank, Roseville,                         $2,550,000.00     full; warrants                                                                                                                                                                               $221,660.00
12/19/2012 CA11,8,14            Exercised                                                        $2,550,000.00                                              2,550       $1,000.00                                  $128,000.00
                                                                    not outstanding
                                Warrants
3/6/2009  Community             Preferred                                                                                                      $0.00
                                                                     Redeemed, in
          Bancshares of         Stock w/
                                                      $500,000.00     full; warrants                                                                                                                                                                                 $91,742.00
                   Inc.,        Exercised                                                          $500,000.00                                                500       $1,000.00                                   $25,000.00
7/18/2012 Kansas, 11,8,14                                           not outstanding
          Goff, KS              Warrants
9/11/2009 Community             Preferred                                                                                                      $0.00
                                                                     Redeemed, in
          Bancshares of         Stock w/
                                                   $52,000,000.00     full; warrants                                                                                                                                                                              $3,193,250.00
9/29/2010 Mississippi, Inc.,    Exercised                                                       $52,000,000.00                                             52,000       $1,000.00                                 $2,600,000.00
                                                                    not outstanding
          Brandon, MS11,8,14    Warrants
                            Preferred                               Full investment
          Community
                            Stock w/                                  outstanding;
7/24/2009 Bancshares, Inc.,                         $3,872,000.00                                                                      $3,872,000.00                                                                                                               $828,129.00
                            Exercised                                      warrants
          Kingman, AZ8,17
                            Warrants                                    outstanding
1/16/2009 Community                                                  Redeemed, in                                                              $0.00
                             Preferred
          Bank of the Bay,                          $1,747,000.00     full; warrants                                                                                                                                                                                 $76,188.61
9/29/2010 Oakland, CA11,9,36 Stock                                  not outstanding              $1,747,000.00                                               1,747      $1,000.00

5/29/2009 Community Bank                                                                                                                       $0.00
                              Preferred                              Redeemed, in
           Shares of Indiana,
9/15/2011                     Stock w/             $19,468,000.00     full; warrants            $19,468,000.00                                             19,468       $1,000.00                                                   $18.45                        $2,233,412.12
           Inc., New Albany,
             44               Warrants                              not outstanding
10/19/2011 IN                                                                                                                                                                                                     $1,100,869.50
12/19/2008 Community                                                                                                                  $13,180,000.00
                            Preferred                                Redeemed, in
           Bankers Trust
                            Stock w/               $17,680,000.00    part; warrants                                                                                                                                                 $3.68          780,000        $4,194,333.00
7/24/2013 Corporation, Glen                                                                      $4,500,000.00                                               4,500      $1,000.00
                    11      Warrants                                   outstanding
           Allen, VA
2/27/2009 Community         Preferred                                                                                                          $0.00
                                                                        Sold, in full;
11/30/2012 Business Bank,   Stock w/                                                             $3,717,560.00                                               3,976        $935.00       ($258,440.00)              $167,035.00
                                                    $3,976,000.00      warrants not                                                                                                                                                 $8.75                          $814,455.00
           West Sacramento, Exercised
             8,14                                                       outstanding
1/11/2013 CA                Warrants                                                                                 ($25,000.00)

12/19/2008 Community                                                                                                                           $0.00
                                Preferred                            Redeemed, in
           Financial
                                Stock w/           $12,643,000.00     full; warrants                                                                                                                                                               351,194        $2,563,720.00
1/9/2013 Corporation, 81        Warrants                               outstanding              $12,643,000.00                                             12,643       $1,000.00
           Staunton, VA
5/15/2009 Community             Preferred                                                                                                      $0.00
                                                                        Sold, in full;
           Financial Shares,    Stock w/
                                                    $6,970,000.00      warrants not                                                                                                                                                 $1.10                          $947,194.00
12/21/2012 Inc.,  Glen Ellyn,   Exercised                                                        $3,136,500.00                                               6,970        $450.00     ($3,833,500.00)              $157,050.00
                                                                        outstanding
           IL74,8,14            Warrants
                               Preferred                            Full investment
             Community First
                               Stock w/                               outstanding;
4/3/2009     Bancshares, Inc.,                     $12,725,000.00                                                                     $12,725,000.00                                                                                                              $3,028,240.00
                         8     Exercised                                   warrants
             Harrison, AR
                               Warrants                                 outstanding
3/20/2009 Community First       Preferred                                                                                                      $0.00
                                                                     Redeemed, in
          Bancshares            Stock w/
                                                   $20,000,000.00     full; warrants                                                                                                                                                                              $2,628,111.33
8/18/2011 Inc., Union City,     Exercised                                                       $20,000,000.00                                             20,000       $1,000.00                                 $1,000,000.00
                                                                    not outstanding
          TN44,8,14             Warrants
                                Preferred                           Full investment
          Community First
                                Stock w/                              outstanding;
2/27/2009 Inc., Columbia,                          $17,806,000.00                                                                     $17,806,000.00                                                                                                              $1,908,453.00
                                Exercised                                  warrants
          TN8
                                Warrants                                outstanding
                                                                                                                                                                                                                                                                                   TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




2/6/2009   Community                                                                                                                           $0.00
           Holding Company
11/30/2012 of Florida, Inc./    Preferred                                                        $1,002,750.00                                                105       $9,550.00         ($47,250.00)              $25,000.00
                                                                        Sold, in full;
                                Stock w/
1/11/2013 Community                                 $1,050,000.00      warrants not                                  ($10,027.50)
                                Exercised
           Bancshares of                                                outstanding
                                Warrants
           Mississippi, Inc.,
3/26/2013                                                                                                            ($14,972.50)
           Brandon, MS8,67
                                                                                                                                                                                                                                                                                   357




                                                                                                                                                                                                                                                          Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                      (CONTINUED)                                                                                                                                                                               358
                                                                                                                                                         Number     Average Price                                                      Stock Price       Current
Transaction                      Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                     as of      Outstanding   Dividends/Interest
Date        Institution          Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)         Gain4   Warrant Sales    9/30/135       Warrants      Paid to Treasury
12/23/2008                                                                                                                                     $0.00
12/19/2012 Community             Preferred                                                         $952,850.00                                             1,003         $950.00         ($50,150.00)
                                                                        Sold, in full;
           Investors             Stock w/
12/20/2012                                          $2,600,000.00      warrants not              $1,517,150.00                                             1,597         $950.00         ($79,850.00)                   $105,000.00                                     $565,616.00
           Bancorp, Inc.,        Exercised
                       8,14                                             outstanding
1/11/2013 Bucyrus, OH            Warrants                                                                            ($24,700.00)
3/26/2013                                                                                                               ($300.00)
1/30/2009                                                                                                                                      $0.00
           Community        Preferred                              Redeemed, in
8/11/2011 Partners Bancorp, Stock w/                $9,000,000.00   full; warrants               $9,000,000.00                                             9,000       $1,000.00                                                                                       $1,138,750.00
           Middletown, NJ44 Warrants                              not outstanding
10/26/2011                                                                                                                                                                                                              $460,000.00
11/13/2009 Community Pride Subordinated                                                                                                        $0.00
                                                                        Sold, in full;
           Bank Corporation, Debentures
8/12/2013                                           $4,400,000.00      warrants not              $4,400,000.00                                          4,400,000          $1.11                         $484,924.00    $177,716.96                                     $448,253.42
           Ham Lake,         w/ Exercised
              15,17                                                     outstanding
9/12/2013 MN                 Warrants                                                                                ($48,849.24)
1/9/2009     Community           Preferred                                                                                                     $0.00
                                                                     Redeemed, in
             Trust Financial     Stock w/
                                                   $24,000,000.00     full; warrants                                                                                                                                                                                   $3,259,100.00
7/6/2011     Corporation,        Exercised                                                      $24,000,000.00                                            24,000       $1,000.00                                       $1,200,000.00
                                                                    not outstanding
             Ruston, LA44,8,14   Warrants
12/19/2008                                                                                                                                     $0.00
12/10/2012                                                                                       $2,172,000.00                                             3,000         $724.00       ($828,000.00)
           Community West Preferred                                     Sold, in full;
12/11/2012 Bancshares,    Stock w/                 $15,600,000.00      warrants not              $9,122,400.00                                            12,600         $724.00     ($3,477,600.00)                                     $5.53                         $2,461,333.33
                                                                                                                                                                                                                                                                                        APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




           Goleta, CA     Warrants                                      outstanding
1/11/2013                                                                                                           ($112,944.00)
6/12/2013                                                                                                                                                                                                               $698,351.00
          CommunityOne                                            Full investment
                                 Preferred
          Bancorp/FNB                                               outstanding;
2/13/2009                        Stock w/          $51,500,000.00                                                                     $51,500,000.00                                                                                                     22,071        $2,589,305.00
          United Corp.,                                                  warrants
                                 Warrants
          Asheboro, NC53                                              outstanding
1/9/2009                                                                                                                                       $0.00
                             Preferred
10/29/2012 Congaree                                                     Sold, in full;               $23,932.54                                               29         $825.30          ($5,067.46)
                             Stock w/
           Bancshares, Inc.,                        $3,285,000.00      warrants not                                                                                                                                                      $4.35                          $691,286.00
10/31/2012 Cayce, SC8,14     Exercised                                                           $2,687,046.56                                             3,256         $825.30       ($568,953.44)                    $106,364.00
                                                                        outstanding
                             Warrants
1/11/2013                                                                                                            ($25,000.00)
2/13/2009                                                                                                                                      $0.00
           Corning Savings       Preferred
11/30/2012 and Loan                                                     Sold, in full;             $548,680.00                                               638         $860.00         ($89,320.00)                     $3,960.00
                                 Stock w/
                                                      $638,000.00      warrants not                                                                                                                                                                                     $132,065.00
                                 Exercised                                                                            ($5,486.80)
1/11/2013 Association,8,14                                              outstanding
           Corning, AR           Warrants
3/26/2013                                                                                                            ($19,513.20)
1/30/2009                                                                                                                                      $0.00
                                 Preferred
11/28/2012 Country Bank                                                 Sold, in full;             $713,208.30                                               777         $917.90         ($63,791.70)
                                 Stock w/
           Shares, Inc.,                            $7,525,000.00      warrants not                                                                                                                                                                                    $1,570,840.00
11/29/2012 Milford, NE8,14       Exercised                                                       $6,193,989.20                                             6,748         $917.90       ($554,010.80)                    $372,240.00
                                                                        outstanding
                                 Warrants
1/11/2013                                                                                                            ($69,071.98)
             Covenant            Preferred                        Full investment
             Financial           Stock w/                           outstanding;
6/5/2009                                            $5,000,000.00                                                                      $5,000,000.00                                                                                                                   $1,151,614.00
             Corporation,        Exercised                               warrants
             Clarksdale, MS8     Warrants                             outstanding
                              Preferred                             Full investment
          Crazy Woman
                              Stock w/                                outstanding;
2/20/2009 Creek Bancorp,                            $3,100,000.00                                                                      $3,100,000.00                                                                                     $11.00                         $757,928.00
                            8 Exercised                                    warrants
          Inc., Buffalo, WY
                              Warrants                                  outstanding
             Crescent Financial
             Bancshares, Inc.                                       Full investment
                                Preferred
             (Crescent                                                outstanding;
1/9/2009                        Stock w/           $24,900,000.00                                                                     $24,900,000.00                                                                                                    514,693        $9,897,161.00
             Financial                                                     warrants
                                Warrants
             Corporation),                                              outstanding
                        58
             Raleigh, NC
1/23/2009                                                                                                                                      $0.00
                           Preferred
7/19/2013 Crosstown                                                     Sold, in full;             $343,794.50                                               350         $982.30          ($6,205.50)
                           Stock w/
          Holding Company,                         $10,650,000.00      warrants not                                                                                                                                                                                    $2,610,550.00
7/22/2013 Blaine, MN8,14   Exercised                                                            $10,117,381.00                                            10,300         $982.30       ($182,619.00)                    $531,210.67
                                                                        outstanding
                           Warrants
9/12/2013                                                                                                           ($104,611.76)
                                                                                                                                                                                                                                                               Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                    (CONTINUED)
                                                                                                                                                        Number     Average Price                                                  Stock Price       Current
Transaction                    Investment                            Investment          Capital Repayment /                      Remaining Capital    of Shares       of Shares   (Realized Loss) /                                 as of      Outstanding   Dividends/Interest
Date        Institution        Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4     Warrant Sales    9/30/135       Warrants      Paid to Treasury
                              Preferred                           Full investment
             CSRA Bank Corp., Stock w/                              outstanding;
3/27/2009                                         $2,400,000.00                                                                      $2,400,000.00                                                                                                                 $180,940.00
             Wrens, GA8       Exercised                                  warrants
                              Warrants                                outstanding
12/5/2008                                                                                                                                    $0.00
8/26/2009 CVB Financial        Preferred                         Redeemed, in                 $97,500,000.00                                             97,500       $1,000.00
          Corp, Ontario,       Stock w/         $130,000,000.00   full; warrants                                                                                                                                                    $13.52                        $4,739,583.33
9/2/2009 CA11,16               Warrants                         not outstanding               $32,500,000.00                                             32,500       $1,000.00
10/28/2009                                                                                                                                                                                                        $1,307,000.00
2/27/2009                  Preferred                                                                                                         $0.00
          D.L. Evans                                             Redeemed, in
                           Stock w/
          Bancorp, Burley,                       $19,891,000.00   full; warrants                                                                                                                                                                                  $2,800,592.33
9/27/2011 ID 44,8,14       Exercised                                                          $19,891,000.00                                             19,891       $1,000.00                                    $995,000.00
                                                                not outstanding
                           Warrants
5/15/2009 Deerfield Financial Subordinated                                                                                                   $0.00
                                                                   Redeemed, in
          Corporation,        Debentures
                                                  $2,639,000.00     full; warrants                                                                                                                                                                                 $512,338.96
9/8/2011 Deerfield,           w/ Exercised                                                     $2,639,000.00                                           2,639,000          $1.00                                    $132,000.00
                                                                  not outstanding
          WI15,44,14          Warrants
12/4/2009                                                                                                                                    $0.00
                             Preferred
2/7/2013                                                              Sold, in full;           $5,293,527.28                                              8,648         $612.10     ($3,354,472.72)                $311,943.55
             Delmar Bancorp, Stock w/
                                                  $9,000,000.00      warrants not                                                                                                                                                                                  $832,487.50
2/8/2013     Delmar, MD8,14  Exercised                                                           $215,462.72                                                352         $612.10       ($136,537.28)
                                                                      outstanding
                             Warrants
3/26/2013                                                                                                          ($55,089.90)
2/13/2009                                         $1,173,000.00                                                                              $0.00
                            Preferred
12/29/2009 DeSoto County                                              Sold, in full;
                            Stock w/
           Bank, Horn Lake,                                          warrants not                                                                                                                                                                                  $577,206.00
9/24/2013 MS8,18            Exercised             $1,508,000.00                                  $301,428.58                                                366         $823.03         ($64,571.42)                $57,230.00
                                                                      outstanding
                            Warrants
9/25/2013                                                                                      $1,895,467.59                                              2,315         $816.45       ($419,532.41)
5/22/2009                                                                                                                                    $0.00
8/8/2012  Diamond              Subordinated                                                    $4,381,500.00                                           6,000,000          $0.73     ($1,618,500.00)
                                                                      Sold, in full;
          Bancorp, Inc.,       Debentures
8/9/2012                                         $20,445,000.00      warrants not             $10,197,941.25                                          13,965,000          $0.73     ($3,767,058.75)                $688,041.09                                    $5,541,380.00
          Washington,          w/ Exercised
             15,14                                                    outstanding
8/10/2012 MO                   Warrants                                                          $350,520.00                                            480,000           $0.73       ($129,480.00)                  $91,535.40
9/11/2012                                                                                                         ($149,299.61)
1/16/2009                                                                                                                                    $0.00
             Dickinson
                               Preferred
2/7/2013     Financial                                                Sold, in full;           $8,025,555.03                                             14,523         $552.60     ($6,497,444.97)                   $3,372.19
                               Stock w/
             Corporation II,                    $146,053,000.00      warrants not                                                                                                                                                                                 $2,631,196.78
2/8/2013                       Exercised                                                      $72,684,793.30                                            131,530         $552.60    ($58,845,206.70)               $4,922,044.87
             Kansas City,                                             outstanding
                               Warrants
             MO8,14
3/26/2013                                                                                                         ($807,103.48)
3/13/2009                                                                                                                                    $0.00
          Discover Financial Preferred                           Redeemed, in
4/21/2010 Services ,         Stock w/         $1,224,558,000.00   full; warrants           $1,224,558,000.00                                           1,224,558      $1,000.00                                                     $50.54                      $67,690,844.00
          Riverwoods, IL11 Warrants                             not outstanding
7/7/2010                                                                                                                                                                                                        $172,000,000.00
1/30/2009 DNB Financial                                                                                                                      $0.00
                               Preferred                           Redeemed, in
          Corporation,
8/4/2011                       Stock w/          $11,750,000.00     full; warrants            $11,750,000.00                                             11,750       $1,000.00                                                     $20.96                        $1,475,277.61
          Downingtown,
             44                Warrants                           not outstanding
9/21/2011 PA                                                                                                                                                                                                       $458,000.00
             Duke Financial    Subordinated                       Full investment
             Group, Inc.,      Debentures                           outstanding;
6/19/2009                                        $12,000,000.00                                                                     $12,000,000.00                                                                                                                $4,334,673.00
             Minneapolis,      w/ Exercised                              warrants
             MN15              Warrants                               outstanding
12/5/2008                                                                                                                                    $0.00
12/23/2009 Eagle Bancorp,      Preferred                           Redeemed, in               $15,000,000.00                                             15,000       $1,000.00
           Inc., Bethesda,     Stock w/          $38,235,000.00     full; warrants                                                                                                                                                  $28.29                        $3,817,731.76
7/14/2011 MD12,44              Warrants                              outstanding              $23,235,000.00                                             23,235       $1,000.00
11/23/2011                                                                                                                                                                                                        $2,794,422.00
12/5/2008                                                                                                                                    $0.00
           East West         Preferred                             Redeemed, in
12/29/2010 Bancorp,          Stock w/           $306,546,000.00     full; warrants           $306,546,000.00                                            306,546       $1,000.00                                                     $31.95                      $31,676,420.00
           Pasadena, CA11,16 Warrants                             not outstanding
1/26/2011                                                                                                                                                                                                        $14,500,000.00
                                                                                                                                                                                                                                                                                   TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




                                                                  Full investment
             Eastern Virginia Preferred
                                                                    outstanding;
1/9/2009     Bankshares, Inc., Stock w/          $24,000,000.00                                                                     $24,000,000.00                                                                                  $6.10          373,832        $2,220,000.00
                                                                         warrants
             Tappahannock, VA Warrants
                                                                      outstanding
                                                                                                                                                                                                                                                          Continued on next page
                                                                                                                                                                                                                                                                                   359
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                     (CONTINUED)                                                                                                                                                                         360
                                                                                                                                                        Number     Average Price                                                Stock Price       Current
Transaction                     Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividends/Interest
Date        Institution         Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4   Warrant Sales    9/30/135       Warrants      Paid to Treasury
             ECB Bancorp, Inc.                                     Full investment
                                Preferred
             Crescent Financial                                      outstanding;
1/16/2009                       Stock w/          $17,949,000.00                                                                     $17,949,000.00
             Bancshares, Inc.,                                            warrants
                           89   Warrants
             Engelhard, NC                                             outstanding
12/23/2008                                                                                                                                    $0.00
          Emclaire Financial Preferred                              Redeemed, in
8/18/2011 Corp., Emlenton, Stock w/                $7,500,000.00     full; warrants             $7,500,000.00                                             7,500       $1,000.00                                                   $25.95                         $994,791.67
          PA44               Warrants                              not outstanding
12/7/2011                                                                                                                                                                                                         $51,113.00
12/5/2008                                                                                                                                     $0.00
           Encore          Preferred                                Redeemed, in
9/27/2011 Bancshares Inc., Stock w/               $34,000,000.00     full; warrants            $34,000,000.00                                            34,000       $1,000.00                                                                                 $4,778,888.89
           Houston, TX45   Warrants                                   outstanding
11/23/2011                                                                                                                                                                                                       $637,071.00
12/19/2008 Enterprise                                                                                                                         $0.00
                              Preferred                             Redeemed, in
           Financial Services
11/7/2012                     Stock w/            $35,000,000.00     full; warrants            $35,000,000.00                                            35,000       $1,000.00                                                   $16.90         324,074        $6,795,833.00
           Corp., St. Louis,
              11              Warrants                             not outstanding
1/9/2013 MO                                                                                                                                                                                                     $1,006,100.00
6/12/2009 Enterprise                                                                                                                          $0.00
                                Preferred
          Financial Services                                        Redeemed, in
                                Stock w/
          Group, Inc.,                             $4,000,000.00     full; warrants                                                                                                                                                                              $480,205.56
8/25/2011 Allison Park,         Exercised                                                       $4,000,000.00                                             4,000       $1,000.00                                  $200,000.00
                                                                   not outstanding
                                Warrants
          PA8,44,14

1/30/2009                    Preferred                                                                                                        $0.00
          Equity                                                    Redeemed, in
                             Stock w/
          Bancshares, Inc.,                        $8,750,000.00     full; warrants                                                                                                                                               $16.35
                                                                                                                                                                                                                                                                                 APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




8/11/2011 Wichita, KS8,44,72 Exercised                                                          $8,750,000.00                                             8,750       $1,000.00                                  $438,000.00
                                                                   not outstanding
                             Warrants
12/19/2008                                                                                                                                    $0.00
8/3/2012                                                                                          $481,387.50                                               550         $875.20         ($68,612.50)
8/8/2012                        Preferred                                                      $17,505,000.00                                            20,000         $875.20     ($2,495,000.00)             $1,910,898.00
             Exchange Bank,                                            Sold, in full;
                                Stock w/
8/9/2012     Santa Rosa,                          $43,000,000.00      warrants not              $8,725,367.25                                             9,969         $875.20     ($1,243,632.75)              $120,386.57                                    $7,980,919.00
                                Exercised
             CA8,14                                                    outstanding
8/10/2012                       Warrants                                                          $420,995.25                                               481         $875.20         ($60,004.75)              $22,930.78
8/13/2012                                                                                      $10,503,000.00                                            12,000         $875.20     ($1,497,000.00)
9/11/2012                                                                                                          ($376,357.50)
1/30/2009                                          $4,609,000.00                                                                              $0.00
11/6/2009
             F&M                Preferred
2/6/2013                                                               Sold, in full;           $4,797,325.00                                             5,090         $942.50       ($292,675.00)
             Bancshares,        Stock w/
                                                                      warrants not                                                                                                                                                                              $1,584,421.00
2/7/2013     Inc., Trezevant,   Exercised          $3,535,000.00                                $2,734,192.50                                             2,901         $942.50       ($166,807.50)              $222,007.50
                                                                       outstanding
             TN8,14,18          Warrants
2/8/2013                                                                                          $144,202.50                                               153         $942.50          ($8,797.50)
3/26/2013                                                                                                           ($76,757.21)
2/6/2009                                                                                                                                      $0.00
9/18/2012                       Preferred                                                                                                                                                                        $136,813.05
          F & M Financial                                              Sold, in full;
                                Stock w/
9/19/2012 Corporation,                            $17,000,000.00      warrants not              $2,664,750.00                                             2,805         $950.00       ($140,250.00)                                                             $3,355,971.00
                                Exercised
          Salisbury, NC8,14                                            outstanding
9/20/2012                       Warrants                                                       $13,485,250.00                                            14,195         $950.00       ($709,750.00)              $638,460.90
11/16/2012                                                                                                         ($161,500.00)
5/22/2009                                                                                                                                     $0.00
                            Subordinated
11/8/2012 F&C Bancorp Inc., Debentures                                 Sold, in full;           $1,590,599.43                                          1,659,000          $0.96         ($68,400.57)
                     15,14                         $2,993,000.00      warrants not                                                                                                                                                                               $872,778.00
11/13/2012 Holden, MO       w/ Exercised                                                        $1,278,999.18                                          1,334,000          $0.96         ($55,000.82)             $125,000.00
                                                                       outstanding
                            Warrants
1/11/2013                                                                                                           ($25,000.00)
2/13/2009                                                                                                                                     $0.00
9/19/2012                     Preferred                                                                                                                                                                           $96,465.60
          F&M Financial                                                Sold, in full;
                              Stock w/
9/20/2012 Corporation,                            $17,243,000.00      warrants not                $157,500.00                                               200         $787.50         ($42,500.00)                                                            $3,388,249.00
                              Exercised
          Clarksville, TN8,14                                          outstanding
9/21/2012                     Warrants                                                         $13,421,362.50                                            17,043         $787.50     ($3,621,637.50)              $645,975.00
11/16/2012                                                                                                         ($135,788.63)
1/9/2009                                                                                                                                      $0.00
             F.N.B.             Preferred                           Redeemed, in
9/9/2009     Corporation,       Stock w/         $100,000,000.00     full; warrants           $100,000,000.00                                           100,000       $1,000.00                                                   $12.13         819,640        $9,632,884.00
             Hermitage, PA11    Warrants                           not outstanding
11/23/2011                                                                                                                                                                                                       $690,100.00
                                                                                                                                                                                                                                                        Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                       (CONTINUED)
                                                                                                                                                           Number     Average Price                                                      Stock Price       Current
Transaction                       Investment                            Investment          Capital Repayment /                      Remaining Capital    of Shares       of Shares   (Realized Loss) /                                     as of      Outstanding   Dividends/Interest
Date        Institution           Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)         Gain4   Warrant Sales    9/30/135       Warrants      Paid to Treasury
             Farmers &            Preferred                          Full investment
             Merchants            Stock w/                             outstanding;
3/6/2009                                            $11,000,000.00                                                                     $11,000,000.00                                                                                                                    $1,913,405.00
             Bancshares, Inc.,    Exercised                                 warrants
             Houston, TX8         Warrants                               outstanding
3/20/2009 Farmers &                                                                                                                             $0.00
                                  Preferred
          Merchants                                                      Sold, in full;
6/24/2013 Financial               Stock w/                                                          $425,425.00                                                442         $962.50         ($16,575.00)                     -$2,835.00
                                                       $442,000.00      warrants not                                                                                                                                                                                      $102,609.00
                                  Exercised
          Corporation,                                                   outstanding
7/26/2013 Argonia, KS8,14         Warrants                                                                            ($25,000.00)

1/23/2009                         Preferred                                                                                             $5,689,000.00
                                                                      Redeemed, in
             Farmers Bank ,       Stock w/
                                                     $8,752,000.00    part; warrants                                                                                                                                                                                     $2,083,851.00
1/9/2013     Windsor, VA11,8      Exercised                                                       $3,063,000.00                                               3,063      $1,000.00
                                                                        outstanding
                                  Warrants
1/9/2009                                                                                                                                        $0.00
          Farmers Capital Preferred                                      Sold, in full;
6/19/2012 Bank Corporation, Stock w/                $30,000,000.00      warrants not             $22,196,700.00      ($332,950.50)                          30,000         $739.90     ($7,803,300.00)                                     $21.86                        $5,166,600.00
          Frankfort, KY     Warrants                                     outstanding
7/18/2012                                                                                                                                                                                                                  $75,000.00
6/19/2009                                                                                                                                       $0.00
11/8/2012 Farmers                 Subordinated                                                        $96,290.00                                           100,000           $0.96          ($3,710.00)
                                                                         Sold, in full;
           Enterprises,           Debentures
11/9/2012                                           $12,000,000.00      warrants not                                                                                                                                       $37,387.14                                    $3,423,094.00
           Inc., Great Bend,      w/ Exercised
              15,14                                                      outstanding
11/13/2012 KS                     Warrants                                                       $11,458,510.00                                          11,900,000          $0.96       ($441,490.00)                    $552,936.00
1/11/2013                                                                                                            ($115,548.00)
3/20/2009                   Preferred                                                                                                           $0.00
          Farmers State                                             Redeemed, in
                            Stock w/
          Bankshares, Inc.,                            $700,000.00   full; warrants                                                                                                                                                                                         $90,173.67
7/21/2011 Holton, KS45,8,14 Exercised                              not outstanding                  $700,000.00                                                700       $1,000.00                                         $40,000.00
                            Warrants
12/29/2009                        Subordinated                                                                                                  $0.00
             FBHC Holding                                                Sold, in full;
                                  Debentures
             Company,                                $3,035,000.00      warrants not                                                                                                                                                                                      $154,592.16
3/9/2011                          w/ Exercised                                                      $650,000.00                                           3,035,000          $0.21     ($2,385,000.00)
             Boulder, CO15,17                                            outstanding
                                  Warrants
6/26/2009                    Preferred                                                                                                          $0.00
                                                                         Sold, in full;
          FC Holdings, Inc., Stock w/
2/20/2013                                           $21,042,000.00      warrants not             $18,874,674.00                                             21,042         $897.00     ($2,167,326.00)                    $994,613.40                                     $156,090.00
          Houston, TX8,14    Exercised
                                                                         outstanding
3/26/2013                    Warrants                                                                                ($188,746.74)
12/19/2008                        Preferred                                                                                                     $0.00
          FCB Bancorp,                                                Redeemed, in
                                  Stock w/
          Inc., Louisville,                          $9,294,000.00     full; warrants                                                                                                                                                                                    $1,397,234.25
9/22/2011 KY45,8,14               Exercised                                                       $9,294,000.00                                               9,294      $1,000.00                                        $465,000.00
                                                                     not outstanding
                                  Warrants
12/19/2008                                                                                                                                      $0.00
                            Preferred
11/28/2012 FFW Corporation, Stock w/                                     Sold, in full;             $879,424.60                                                974         $902.90         ($94,575.40)
                     8,14                            $7,289,000.00      warrants not                                                                                                                                                                                     $1,567,852.00
11/30/2012 Wabash, IN       Exercised                                                             $5,701,813.50                                               6,315        $902.90       ($613,186.50)                    $358,558.20
                                                                         outstanding
                            Warrants
1/11/2013                                                                                                             ($65,812.38)
5/29/2009                   Subordinated                                                                                                        $0.00
          Fidelity Bancorp,                                         Redeemed, in
                            Debentures
          Inc, Baton Rouge,                          $3,942,000.00   full; warrants                                                                                                                                                                                      $1,265,924.00
3/27/2013 LA15,11,14        w/ Exercised                                                          $3,942,000.00                                           3,942,000          $1.00                                        $197,000.00
                                                                   not outstanding
                            Warrants
12/12/2008 Fidelity Bancorp, Preferred                                Redeemed, in                                                              $0.00
           Inc., Pittsburgh, Stock w/                $7,000,000.00     full; warrants
11/30/2012 PA77              Warrants                                   outstanding               $7,000,000.00                                               7,000      $1,000.00

11/13/2009                                                                                                                                      $0.00
                                  Preferred
7/19/2013 Fidelity Federal                                               Sold, in full;             $439,000.00                                                439       $1,058.90                          $25,857.10
                                  Stock w/
          Bancorp,                                   $6,657,000.00      warrants not
7/22/2013 Evansville, IN8,17      Exercised                                                       $6,218,000.00                                               6,218      $1,058.90                         $366,240.20    $242,302.50
                                                                         outstanding
                                  Warrants
9/12/2013                                                                                                             ($70,490.97)
12/19/2008                                                                                                                                      $0.00
8/1/2012                                                                                            $120,320.10                                                135         $891.30         ($14,679.90)
8/2/2012                                                                                              $26,737.80                                                30         $891.30          ($3,262.20)
8/3/2012                          Preferred                                                         $298,572.10                                                335         $891.30         ($36,427.90)
                                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




             Fidelity Financial                                          Sold, in full;
                                  Stock w/
8/7/2012     Corporation,                           $36,282,000.00      warrants not              $3,200,514.66                                               3,591        $891.30       ($390,485.34)                    $170,227.93                                    $7,228,349.00
                                  Exercised
             Wichita, KS8,14                                             outstanding
8/8/2012                          Warrants                                                        $2,348,470.10                                               2,635        $891.30       ($286,529.90)                    $167,374.94
8/9/2012                                                                                         $26,056,877.36                                             29,236         $891.30     ($3,179,122.64)                   $1,210,615.36
8/10/2012                                                                                           $285,203.20                                                320         $891.30         ($34,796.80)                   $176,884.89
9/11/2012                                                                                                            ($323,366.95)
                                                                                                                                                                                                                                                                                          361




                                                                                                                                                                                                                                                                 Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                       (CONTINUED)                                                                                                                                                                            362
                                                                                                                                                           Number     Average Price                                                  Stock Price       Current
Transaction                     Investment                              Investment          Capital Repayment /                      Remaining Capital    of Shares       of Shares   (Realized Loss) /                                 as of      Outstanding   Dividends/Interest
Date        Institution         Description1     Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4     Warrant Sales    9/30/135       Warrants      Paid to Treasury
12/19/2008 Fidelity Southern Preferred                                   Sold, in full;                                                         $0.00
           Corporation,      Stock w/               $48,200,000.00          warrants                                                                                                                                                   $15.34       2,590,229        $8,528,883.00
7/3/2012   Atlanta, GA       Warrants                                    outstanding             $43,408,920.00      ($651,133.80)                          48,200         $900.60     ($4,791,080.00)

12/31/2008                                                                                                                                      $0.00
             Fifth Third        Preferred                             Redeemed, in
2/2/2011     Bancorp,           Stock w/         $3,408,000,000.00     full; warrants         $3,408,000,000.00                                            136,320      $25,000.00                                                     $18.05                     $355,946,667.00
             Cincinnati, OH11   Warrants                             not outstanding
3/16/2011                                                                                                                                                                                                          $280,025,936.00
12/23/2008                                                                                                                                      $0.00
2/23/2011 Financial           Preferred                             Redeemed, in                 $12,505,000.00                                               2,501      $5,000.00
          Institutions, Inc., Stock w/              $37,515,000.00   full; warrants                                                                                                                                                    $20.46                        $4,192,649.11
3/30/2011 Warsaw, NY11        Warrants                             not outstanding               $25,010,000.00                                               5,002      $5,000.00
5/11/2011                                                                                                                                                                                                            $2,079,962.50
2/13/2009                    Preferred                                                                                                          $0.00
          Financial Security                                          Redeemed, in
                             Stock w/
          Corporation,                               $5,000,000.00     full; warrants                                                                                                                                                                                 $664,597.33
7/21/2011 Basin, WY45,8,14   Exercised                                                            $5,000,000.00                                               5,000      $1,000.00                                    $250,000.00
                                                                     not outstanding
                             Warrants
7/31/2009                         Subordinated                                                                                                  $0.00
             Financial Services                                       Redeemed, in
                                  Debentures
             of Winger, Inc.,                        $3,742,000.00     full; warrants                                                                                                                                                                                 $633,322.46
9/1/2011                 15,17,44 w/ Exercised                                                    $3,742,000.00                                           3,742,000          $1.00                                    $112,000.00
             Winger, MN                                              not outstanding
                                  Warrants
5/22/2009                                                                                                                                       $0.00
12/10/2012 First Advantage      Preferred                                                           $690,723.49                                                769         $898.20         ($78,276.51)                  $2,979.49
                                                                         Sold, in full;
                                                                                                                                                                                                                                                                                      APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




           Bancshares Inc.,     Stock w/
12/11/2012                                           $1,177,000.00      warrants not                $366,469.68                                                408         $898.20         ($41,530.32)                $26,318.80                                     $227,945.00
           Coon Rapids,         Exercised
               8,14                                                      outstanding
1/11/2013 MN                    Warrants                                                                              ($10,571.93)
3/26/2013                                                                                                             ($14,428.07)
6/26/2009                                                                                                                                       $0.00
                             Preferred
12/20/2012 First Alliance                                                Sold, in full;           $2,395,742.20                                               3,422        $700.10     ($1,026,257.80)                 $94,701.71
                             Stock w/
           Bancshares, Inc.,                         $3,422,000.00      warrants not                                                                                                                                                                                  $538,231.00
1/11/2013 Cordova, TN8,14 Exercised                                      outstanding                                  ($23,957.42)
                             Warrants
3/26/2013                                                                                                              ($1,042.58)
7/24/2009 First American      Subordinated                                                                                                      $0.00
                                                                    Redeemed, in
           Bank Corporation, Debentures
12/21/2011                                          $50,000,000.00   full; warrants              $15,000,000.00                                          15,000,000          $1.00                                                                                 $13,058,531.00
           Elk Grove Village, w/ Exercised
              15,11,14                                             not outstanding
12/11/2012 IL                 Warrants                                                           $35,000,000.00                                          35,000,000          $1.00                                   $2,500,000.00
3/13/2009 First American                                                                                                                        $0.00
                                                                      Redeemed, in
          International         Preferred
                                                    $17,000,000.00     full; warrants                                                                                                                                                                                $1,204,166.78
8/13/2010 Corp.,  Brooklyn,     Stock                                                            $17,000,000.00                                             17,000       $1,000.00
                                                                     not outstanding
          NY11,9,36
1/9/2009                                                                                                                                        $0.00
                                Preferred                             Redeemed, in
             First Bancorp,
9/1/2011                        Stock w/            $65,000,000.00     full; warrants            $65,000,000.00                                             65,000       $1,000.00                                                     $14.45         616,308        $8,594,444.44
             Troy, NC45
                                Warrants                             not outstanding
11/23/2011                                                                                                                                                                                                            $924,462.00
1/16/2009                                                                                                                             $238,972,281.88
                                Preferred                              Sold, in part;
             First BanCorp,
8/16/2013                       Stock w/           $400,000,000.00         warrants              $81,000,000.00                                          12,000,000          $6.75    ($64,711,540.92)                                 $16.65         389,484      $32,999,386.32
             San Juan, PR34
                                Warrants                                outstanding
9/13/2013                                                                                         $8,514,153.00                                           1,261,356          $6.75     ($6,802,024.20)
2/20/2009                       Preferred                                                                                                       $0.00
           First BancTrust                                            Redeemed, in
                                Stock w/
1/18/2012 Corporation,                               $7,350,000.00     full; warrants             $3,675,000.00                                               3,675      $1,000.00                                                     $13.25                        $1,332,517.00
                                Exercised
           Paris, IL8,11,14                                          not outstanding
10/24/2012                      Warrants                                                          $3,675,000.00                                               3,675      $1,000.00                                    $368,000.00
2/6/2009  First Bank of         Preferred                                                                                                       $0.00
                                                                      Redeemed, in
          Charleston, Inc.,     Stock w/
                                                     $3,345,000.00     full; warrants                                                                                                                                                                                 $448,105.00
7/21/2011 Charleston,           Exercised                                                         $3,345,000.00                                               3,345      $1,000.00                                    $167,000.00
                                                                     not outstanding
          WV45,8,14             Warrants
1/16/2009                       Preferred                                                                                                       $0.00
             First Bankers                                            Redeemed, in
                                Stock w/
             Trustshares, Inc.,                     $10,000,000.00     full; warrants                                                                                                                                                  $19.50                        $1,441,222.22
9/8/2011                        Exercised                                                        $10,000,000.00                                             10,000       $1,000.00                                    $500,000.00
             Quincy, IL45,8,14                                       not outstanding
                                Warrants
                                                                                                                                                                                                                                                             Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                   (CONTINUED)
                                                                                                                                                      Number     Average Price                                                Stock Price       Current
Transaction                   Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividends/Interest
Date        Institution       Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4   Warrant Sales    9/30/135       Warrants      Paid to Treasury
12/31/2008                                                                                                                                  $0.00
8/8/2013                                                                                        $105,000.00                                               300         $350.00        ($195,000.00)
8/9/2013                     Preferred                                                       $12,171,950.00                                            34,777         $350.00     ($22,605,050.00)            $2,430,181.71
                                                                     Sold, in full;
          First Banks, Inc., Stock w/
8/12/2013                                      $295,400,000.00      warrants not             $87,028,900.00                                           248,654         $350.00    ($161,625,100.00)            $5,919,151.59                                   $6,037,237.50
          Clayton, MO8       Exercised
                                                                     outstanding
9/12/2013                    Warrants                                                                            ($993,058.50)
9/24/2013                                                                                     $3,209,702.21                                             5,819         $551.60      ($2,609,297.79)
9/25/2013                                                                                     $3,226,801.50                                             5,850         $551.60      ($2,623,198.50)
3/6/2009                                                                                                                                    $0.00
           First Busey        Preferred                           Redeemed, in
8/25/2011 Corporation,        Stock w/         $100,000,000.00     full; warrants           $100,000,000.00                                           100,000       $1,000.00                                                   $5.21                       $12,347,221.89
           Urbana, IL45       Warrants                           not outstanding
11/23/2011                                                                                                                                                                                                      $63,677.00
4/10/2009 First Business                         $2,211,000.00                                                                              $0.00
12/11/2009 Bank, National
           Association/     Preferred                                Sold, in full;
12/19/2012 Bank of Southern Stock w/                                warrants not              $1,373,084.00                                             1,500         $916.70        ($126,916.00)              $90,461.65                                     $752,663.00
           California, N.A. Warrants             $2,032,000.00       outstanding
12/20/2012 San Diego,                                                                         $2,510,399.84                                             2,743         $915.60        ($232,600.16)
              8,14,18
1/11/2013  CA                                                                                                     ($33,333.33)
12/19/2008 First California                                                                                                                 $0.00
                              Preferred                         Redeemed, in
           Financial Group,
7/14/2011                     Stock w/          $25,000,000.00   full; warrants              $25,000,000.00                                            25,000       $1,000.00                                                                                 $3,211,806.00
           Inc, Westlake
                       45     Warrants                         not outstanding
8/24/2011 Village, CA                                                                                                                                                                                          $599,042.00
4/3/2009                                                                                                                                    $0.00
          First Capital       Preferred                              Sold, in full;
6/19/2012 Bancorp, Inc.,      Stock w/          $10,958,000.00      warrants not             $10,082,565.38      ($151,238.48)                         10,958         $920.10        ($875,434.62)                              $3.99          250,947        $1,759,344.00
          Glen Allen, VA      Warrants                               outstanding
2/6/2013                                                                                                                                                                                                       $266,041.78
2/13/2009                     Preferred          $2,200,000.00                                                                              $0.00
           First Choice                                         Redeemed, in
                              Stock w/
12/22/2009 Bank, Cerritos,                                       full; warrants                                                                                                                                                                                $300,642.94
                              Exercised
           CA8,11,14,18,36                       $2,836,000.00 not outstanding
9/24/2010                     Warrants                                                        $5,036,000.00                                             5,036       $1,000.00                                  $110,000.00
1/23/2009                                                                                                                                   $0.00
             First Citizens   Preferred                              Sold, in full;
7/3/2012     Banc Corp,       Stock w/          $23,184,000.00      warrants not             $21,004,704.00      ($315,070.56)                         23,184         $906.00      ($2,179,296.00)                              $8.83          469,312        $3,992,877.00
             Sandusky, OH     Warrants                               outstanding
9/5/2012                                                                                                                                                                                                       $563,174.00
3/20/2009 First Colebrook     Preferred                                                                                                     $0.00
                                                                  Redeemed, in
          Bancorp, Inc.,      Stock w/
                                                 $4,500,000.00     full; warrants                                                                                                                                                                              $614,487.75
9/22/2011 Colebrook,          Exercised                                                       $4,500,000.00                                             4,500       $1,000.00                                  $225,000.00
                                                                 not outstanding
          NH44,8,14           Warrants
11/21/2008                                                                                                                                  $0.00
             First Community Preferred                            Redeemed, in
7/8/2009     Bancshares Inc., Stock w/          $41,500,000.00     full; warrants            $41,500,000.00                                            41,500       $1,000.00                                                   $16.35                        $1,308,402.78
             Bluefield, VA12  Warrants                           not outstanding
11/22/2011                                                                                                                                                                                                      $30,600.00
          First Commuity
                              Preferred                          Full investment
          Bancshares,
                              Stock w/                             outstanding;
5/15/2009 Inc./Equity                           $14,800,000.00                                                                     $14,800,000.00                                                                                                             $4,782,701.00
                              Exercised                                 warrants
          Bancshares, Inc.,
                              Warrants                               outstanding
          Wichita, KS8,72
12/23/2008 First Community                                                                                                                  $0.00
                             Preferred                               Sold, in full;
           Bank Corporation
                             Stock w/           $10,685,000.00      warrants not                                                                                                                                                                               $744,982.44
5/31/2011 of America,        Warrants                                outstanding              $7,754,267.48                                            10,685         $725.70      ($2,930,732.52)
           Pinellas Park, FL
11/21/2008                                                                                                                                  $0.00
          First Community     Preferred                              Sold, in full;
8/29/2012 Corporation,        Stock w/          $11,350,000.00      warrants not             $11,155,120.50      ($167,326.81)                         11,350         $982.80        ($194,879.50)                              $10.43                        $2,140,686.00
          Lexington, SC       Warrants                               outstanding
11/1/2012                                                                                                                                                                                                      $297,500.00
12/11/2009                                                                                                                                  $0.00
8/8/2012                                                                                                                                                                                                        $70,727.58
8/9/2012                                                                                                                                                                                                       $440,082.72
          First Community     Preferred
                                                                                                                                                                                                                                                                               TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




8/10/2012 Financial                                                  Sold, in full;                                                                                                                            $209,563.20
                              Stock w/
                                                $22,000,000.00      warrants not                                                                                                                                                                              $3,320,656.00
                              Exercised                                                         $326,250.00                                               500         $652.50        ($173,750.00)
9/19/2012 Partners,8 Inc.,                                           outstanding
          Joliet, IL          Warrants
9/20/2012                                                                                     $3,051,090.00                                             4,676         $652.50      ($1,624,910.00)
9/21/2012                                                                                    $10,977,660.00                                            16,824         $652.50      ($5,846,340.00)
11/16/2012                                                                                                       ($143,550.00)
                                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                                               363
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                    (CONTINUED)                                                                                                                                                                          364
                                                                                                                                                       Number     Average Price                                                 Stock Price       Current
Transaction                    Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                as of      Outstanding   Dividends/Interest
Date        Institution        Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4    Warrant Sales    9/30/135       Warrants      Paid to Treasury
12/5/2008 First Defiance       Preferred                              Sold, in full;                                                         $0.00
          Financial Corp.,     Stock w/          $37,000,000.00          warrants                                                                                                                                                 $23.39         550,595        $6,546,862.00
6/19/2012 Defiance, OH         Warrants                               outstanding             $35,618,420.00      ($534,276.30)                         37,000         $962.70     ($1,381,580.00)

9/11/2009 First Eagle          Subordinated                                                                                                  $0.00
                                                                   Redeemed, in
          Bancshares, Inc.,    Debentures
                                                  $7,500,000.00     full; warrants                                                                                                                                                                               $639,738.21
9/17/2010 Hanover    Park,     w/ Exercised                                                    $7,500,000.00                                          7,500,000          $1.00                                   $375,000.00
                                                                  not outstanding
          IL15,36,11           Warrants
2/6/2009                       Preferred                                                                                                     $0.00
          First Express of                                         Redeemed, in
                               Stock w/
          Nebraska, Inc.,                         $5,000,000.00     full; warrants                                                                                                                                                                               $824,313.00
2/15/2012 Gering, NE11,8,14    Exercised                                                       $5,000,000.00                                             5,000       $1,000.00                                   $250,000.00
                                                                  not outstanding
                               Warrants
3/6/2009     First Federal                                                                                                                   $0.00
                               Preferred                              Sold, in full;
             Bancshares of
                               Stock w/          $16,500,000.00      warrants not                                                                                                                                                 $9.35                          $570,625.00
5/3/2011     Arkansas, Inc.,                                                                   $6,000,000.00                                            16,500         $363.60    ($10,500,000.00)
                               Warrants                               outstanding
             Harrison, AR
12/23/2008                                                                                                                                   $0.00
          First Financial     Preferred                            Redeemed, in
2/24/2010 Bancorp,            Stock w/           $80,000,000.00     full; warrants            $80,000,000.00                                            80,000       $1,000.00                                                    $15.17                        $4,677,777.78
          Cincinnati, OH12,16 Warrants                            not outstanding
6/8/2010                                                                                                                                                                                                        $2,966,288.32
6/12/2009 First Financial      Subordinated                                                                                                  $0.00
                                                                   Redeemed, in
          Bancshares,          Debentures
                                                  $3,756,000.00     full; warrants                                                                                                                                                                               $694,280.34
9/22/2011 Inc., Lawrence,      w/ Exercised                                                    $3,756,000.00                                          3,756,000          $1.00                                   $113,000.00
                                                                  not outstanding
          KS15,17,44           Warrants
                                                                                                                                                                                                                                                                                 APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




12/5/2008                                                                                                                                    $0.00
             First Financial   Preferred                              Sold, in full;
4/3/2012     Holdings Inc.,    Stock w/          $65,000,000.00      warrants not             $56,778,150.00      ($851,672.25)                         65,000         $873.50     ($8,221,850.00)                                                            $10,815,494.00
             Charleston, SC    Warrants                               outstanding
5/22/2013                                                                                                                                                                                                       $1,400,000.00
1/9/2009  First Financial                                                                                                                    $0.00
                            Preferred                                 Sold, in full;
          Service
4/29/2013                   Stock w/             $20,000,000.00          warrants             $10,842,200.00                                            20,000         $542.10     ($9,157,800.00)                                $3.87          215,983        $1,600,000.00
          Corporation,
                            Warrants                                  outstanding
5/31/2013 Elizabethtown, KY                                                                                       ($108,422.00)
12/22/2009                  Preferred                                                                                                        $0.00
          First Freedom                                               Sold, in full;
                            Stock w/
11/9/2012 Bancshares, Inc.,                       $8,700,000.00      warrants not              $8,025,750.00                                             8,700         $922.50       ($674,250.00)               $256,118.75                                    $1,320,735.00
                      9,17  Exercised
          Lebanon, TN                                                 outstanding
1/11/2013                   Warrants                                                                               ($80,257.50)
2/27/2009                                                                                                                                    $0.00
           First Gothenburg    Preferred
10/29/2012 Bancshares,                                                Sold, in full;               $26,398.99                                               29         $910.30          ($2,601.01)
                               Stock w/
                                                  $7,570,000.00      warrants not                                                                                                                                                                               $1,517,766.00
10/31/2012 Inc., Gothenburg,   Exercised                                                       $6,864,647.71                                             7,541         $910.30       ($676,352.29)               $362,118.92
                                                                      outstanding
           NE8,14              Warrants
1/11/2013                                                                                                          ($68,910.46)
8/28/2009 First Guaranty       Preferred                                                                                                     $0.00
                                                                   Redeemed, in
          Bancshares,          Stock w/
                                                 $20,699,000.00     full; warrants                                                                                                                                                                              $2,330,477.00
9/22/2011 Inc., Hammond,       Exercised                                                      $20,699,000.00                                           2,069.90     $10,000.00                                  $1,030,000.00
                                                                  not outstanding
          LA8,14,44            Warrants
11/14/2008 First Horizon                                                                                                                     $0.00
                               Preferred                           Redeemed, in
           National
12/22/2010                     Stock w/         $866,540,000.00     full; warrants           $866,540,000.00                                           866,540       $1,000.00                                                    $10.99                      $91,227,405.56
           Corporation,
                         11    Warrants                           not outstanding
3/9/2011 Memphis, TN                                                                                                                                                                                           $79,700,000.00
8/28/2009                                                                                                                                    $0.00
           First
12/20/2012 Independence                                               Sold, in full;           $2,336,675.00                                             3,223         $725.00       ($886,325.00)
                               Preferred
                                                  $3,223,000.00      warrants not                                                                                                                                                                                $533,582.00
1/11/2013 Corporation,         Stock                                                                               ($23,366.75)
                                                                      outstanding
           Detroit, MI8,9
3/26/2013                                                                                                          ($26,633.25)
3/13/2009 First                Preferred                                                                                                     $0.00
                                                                      Sold, in full;
          Intercontinental     Stock w/
8/12/2013                                         $6,398,000.00      warrants not              $3,247,112.96                                             6,398         $507.50     ($3,150,887.04)               $139,320.00                                     $757,453.89
          Bank, Doraville,     Exercised
             8                                                        outstanding
9/12/2013 GA                   Warrants                                                                            ($25,000.00)
12/12/2008 First Litchfield                                                                                                                  $0.00
                               Preferred                           Redeemed, in
           Financial
                               Stock w/          $10,000,000.00     full; warrants                                                                                                                                                                               $659,722.22
4/7/2010 Corporation, 11       Warrants                           not outstanding             $10,000,000.00                                            10,000       $1,000.00                                  $1,488,046.41
           Litchfield, CT
2/27/2009 First M&F                                                                                                                          $0.00
                               Preferred                           Redeemed, in
          Corporation,
9/29/2010                      Stock w/          $30,000,000.00     full; warrants            $30,000,000.00                                            30,000       $1,000.00                                                                                  $2,383,333.33
          Kosciusko,
              11,36            Warrants                           not outstanding
8/30/2013 MS                                                                                                                                                                                                    $4,089,510.61
                                                                                                                                                                                                                                                        Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                     (CONTINUED)
                                                                                                                                                        Number     Average Price                                                        Stock Price       Current
Transaction                     Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                       as of      Outstanding   Dividends/Interest
Date        Institution         Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)           Gain4   Warrant Sales    9/30/135       Warrants      Paid to Treasury
1/16/2009 First Manitowoc       Preferred                                                                                                     $0.00
                                                                    Redeemed, in
          Bancorp, Inc.,        Stock w/
                                                  $12,000,000.00     full; warrants                                                                                                                                                                                      $237,983.33
5/27/2009 Manitowoc,            Exercised                                                      $12,000,000.00                                            12,000       $1,000.00                                          $600,000.00
                                                                   not outstanding
          WI11,8,14             Warrants
2/6/2009  First Market                                                                                                                        $0.00
          Bank, FSB/Union
                             Preferred                            Redeemed, in
          First Market
                             Stock w/             $33,900,000.00   full; warrants                                                                                                                                                                                       $2,695,972.22
12/7/2011 Banksahres         Warrants                            not outstanding               $33,900,000.00                                            35,595       $1,000.00                         $1,695,000.00
          Corporation,
                       11,25
          Richmond, VA
2/13/2009                   Preferred                                                                                                         $0.00
          First Menasha                                             Redeemed, in
                            Stock w/
          Bancshares, Inc.,                        $4,797,000.00     full; warrants                                                                                                                                                                                      $676,865.00
9/15/2011 Neenah, WI44,8,14 Exercised                              not outstanding              $4,797,000.00                                             4,797       $1,000.00                                          $240,000.00
                            Warrants
2/20/2009                                                                                                                                     $0.00
           First Merchants      Preferred                           Redeemed, in
9/22/2011 Corporation,          Stock w/         $116,000,000.00     full; warrants           $116,000,000.00                                           116,000       $1,000.00                                                           $17.33                      $15,015,555.00
           Muncie, IN33,44,45   Warrants                           not outstanding
11/23/2011                                                                                                                                                                                                               $367,500.00
12/5/2008                                                                                                                                     $0.00
           First Midwest        Preferred                           Redeemed, in
11/23/2011 Bancorp, Inc.,       Stock w/         $193,000,000.00     full; warrants           $193,000,000.00                                           193,000       $1,000.00                                                           $15.08                      $28,628,333.33
           Itasca, IL11         Warrants                           not outstanding
12/21/2011                                                                                                                                                                                                               $900,000.00
3/13/2009                     Preferred                                                                                                       $0.00
          First National                                               Sold, in full;
                              Stock w/
          Corporation,                            $13,900,000.00      warrants not                                                                                                                                                        $5.95                         $2,621,903.00
8/29/2012 Strasburg, VA  8,14 Exercised                                                        $12,266,750.00      ($184,001.25)                         13,900         $882.50     ($1,633,250.00)                      $624,674.69
                                                                       outstanding
                              Warrants
3/20/2009 First NBC Bank Preferred                                                                                                            $0.00
                                                                    Redeemed, in
          Holding Company, Stock w/
                                                  $17,836,000.00     full; warrants                                                                                                                                                                                     $2,305,989.56
8/4/2011 New    Orleans,   Exercised                                                           $17,836,000.00                                            17,836       $1,000.00                                          $892,000.00
                                                                   not outstanding
          LA44,8,14        Warrants
11/21/2008                                                                                                                                    $0.00
           First Niagara     Preferred                              Redeemed, in
5/27/2009 Financial Group, Stock w/              $184,011,000.00     full; warrants           $184,011,000.00                                           184,011       $1,000.00                                                           $10.37                        $4,753,618.00
           Lockport, NY12,16 Warrants                              not outstanding
6/24/2009                                                                                                                                                                                                               $2,700,000.00
3/13/2009 First Northern                                                                                                                      $0.00
                                Preferred                           Redeemed, in
           Community
9/15/2011                       Stock w/          $17,390,000.00     full; warrants            $17,390,000.00                                            17,390       $1,000.00                                                           $6.89                         $2,178,580.33
           Bancorp, Dixon,
              44                Warrants                           not outstanding
11/16/2011 CA                                                                                                                                                                                                            $375,000.00
11/21/2008                                                                                                                                    $0.00
           First PacTrust    Preferred                              Redeemed, in
12/15/2010 Bancorp, Inc.,    Stock w/             $19,300,000.00     full; warrants            $19,300,000.00                                            19,300       $1,000.00                                                           $13.83       3,670,822        $1,994,333.34
           Chula Vista, CA11 Warrants                              not outstanding
1/5/2011                                                                                                                                                                                                                $1,003,227.00
3/13/2009 First Place           Preferred                                                                                                     $0.00
                                                                     Currently not
           Financial Corp.,     Stock w/          $72,927,000.00                                                                                                                                                                                                        $7,009,094.50
10/29/2012 Warren, OH73,97                                             collectible                                                                                                 ($72,927,000.00)
                                Warrants
2/20/2009                                          $4,579,000.00                                                                              $0.00
12/18/2009                      Preferred
             First Priority                                            Sold, in full;
                                Stock w/
2/7/2013     Financial Corp.,                                         warrants not              $6,682,192.50                                             7,575         $882.23       ($892,807.50)                       $48,083.60                                    $1,711,259.00
                                Exercised          $4,596,000.00
             Malvern, PA8,14,18                                        outstanding
2/8/2013                        Warrants                                                        $1,410,831.60                                             1,600         $882.05       ($189,168.40)                      $176,633.62
3/26/2013                                                                                                           ($80,930.24)
3/6/2009                    Preferred                                                                                                         $0.00
          First Reliance                                               Sold, in full;
                            Stock w/
3/11/2013 Bancshares, Inc.,                       $15,349,000.00      warrants not             $10,431,333.89                                            15,349         $679.60     ($4,917,666.11)                      $624,632.45      $1.65                         $2,042,406.00
                            Exercised
          Florence, SC8,14                                             outstanding
4/9/2013                    Warrants                                                                               ($104,313.34)
1/30/2009                       Preferred          $2,600,000.00                                                                              $0.00
           First Resource                                         Redeemed, in
                                Stock w/
12/11/2009 Bank, Exton,                                            full; warrants                                                                                                                                                                                        $584,793.60
                                Exercised
           PA8,14,18,44,45                         $2,417,000.00 not outstanding
9/15/2011                       Warrants                                                        $5,017,000.00                                             5,017       $1,000.00                                          $130,000.00
1/9/2009  First Security                                                                                                                      $0.00
                                Preferred                              Sold, in full;
          Group, Inc.,
                                Stock w/          $33,000,000.00      warrants not                                                                                                                                                        $2.08                         $1,402,500.00
                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




4/11/2013 Chattanooga,          Warrants                               outstanding             $14,912,862.00                                          9,941,908          $1.50    ($18,087,138.00)
          TN87
12/23/2008                  Preferred                                  Sold, in full;                                                         $0.00
          First Sound Bank,
                     79     Stock w/               $7,400,000.00      warrants not                                                                                                                                                        $0.15          114,080         $330,944.44
2/20/2013 Seattle, WA       Warrants                                   outstanding              $3,700,000.00                                             7,400         $500.00     ($3,700,000.00)

                                                                                                                                                                                                                                                                Continued on next page
                                                                                                                                                                                                                                                                                         365
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                    (CONTINUED)                                                                                                                                                                            366
                                                                                                                                                          Number     Average Price                                                Stock Price       Current
Transaction                    Investment                            Investment          Capital Repayment /                        Remaining Capital    of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividends/Interest
Date        Institution        Description1   Investment Amount         Status*        Disposition / Auction2,4     Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4   Warrant Sales    9/30/135       Warrants      Paid to Treasury
7/17/2009 First South          Subordinated                                                                                                    $0.00
                                                                   Redeemed, in
           Bancorp, Inc.,      Debentures
9/28/2011                                        $50,000,000.00     full; warrants            $13,125,000.00                                            13,125,000          $1.00                                                                               $12,932,451.00
           Lexington,          w/ Exercised
             15,11,14                                             not outstanding
11/28/2012 TN                  Warrants                                                       $36,875,000.00                                            36,875,000          $1.00                                 $2,500,000.00
1/30/2009 First Southern       Preferred                                                                                                       $0.00
                                                                   Redeemed, in
          Bancorp, Inc.,       Stock w/
                                                 $10,900,000.00     full; warrants                                                                                                                                                                                 $818,468.31
6/16/2010 Boca   Raton,        Exercised                                                      $10,900,000.00                                               10,900       $1,000.00                                  $545,000.00
                                                                  not outstanding
          FL11,8,14            Warrants
3/6/2009                                                                                                                                       $0.00
3/26/2013 First Southwest      Preferred                                                         $315,007.00                                                  350         $900.00         ($34,993.00)
                                                                      Sold, in full;
          Bancorporation,      Stock w/
3/27/2013                                         $5,500,000.00      warrants not              $2,835,063.00                                                3,150         $900.00       ($314,937.00)              $206,048.21                                     $207,327.00
          Inc., Alamosa,       Exercised
             8,14                                                     outstanding
3/28/2013 CO                   Warrants                                                        $1,800,040.00                                                2,000         $900.00       ($199,960.00)               $45,788.48
4/9/2013                                                                                                             ($49,501.10)
3/6/2009                    Preferred                                                                                                          $0.00
          First Texas BHC,                                         Redeemed, in
                            Stock w/
          Inc., Fort Worth,                      $13,533,000.00     full; warrants                                                                                                                                                                                $1,862,389.00
9/15/2011 TX44,8,14         Exercised                                                         $13,533,000.00                                               13,533       $1,000.00                                  $677,000.00
                                                                  not outstanding
                            Warrants
6/5/2009                    Subordinated                                                                                                       $0.00
          First Trust                                                 Sold, in full;
                            Debentures
2/20/2013 Corporation, New                       $17,969,000.00      warrants not             $13,750,058.49                                            17,969,000          $0.77     ($4,218,941.51)              $644,726.19                                    $1,046,896.40
                      15,14 w/ Exercised
          Orleans, LA                                                 outstanding
3/26/2013                   Warrants                                                                               ($137,500.58)
                                                                                                                                                                                                                                                                                   APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




1/23/2009                     Preferred                                                                                                        $0.00
                                                                   Redeemed, in
          First ULB Corp., Stock w/
                      11,8,14                     $4,900,000.00     full; warrants                                                                                                                                                                                   $66,020.69
4/22/2009 Oakland, CA         Exercised                                                        $4,900,000.00                                                 4,900      $1,000.00                                  $245,000.00
                                                                  not outstanding
                              Warrants
                                                                  Full investment
          First United         Preferred
                                                                    outstanding;
1/30/2009 Corporation,         Stock w/          $30,000,000.00                                                                       $30,000,000.00                                                                                $8.21          326,323        $2,312,500.00
                                                                         warrants
          Oakland, MD          Warrants
                                                                      outstanding
6/12/2009                       Preferred                                                                                                      $0.00
          First Vernon                                             Redeemed, in
                                Stock w/
          Bancshares, Inc.,                       $6,000,000.00     full; warrants                                                                                                                                                                                 $417,770.42
9/29/2010 Vernon, AL 11,8,14,36 Exercised                                                      $6,000,000.00                                                 6,000      $1,000.00                                  $245,000.00
                                                                  not outstanding
                                Warrants
2/6/2009                                          $8,559,000.00                                                                                $0.00
12/11/2009
8/9/2012                                                                                       $6,138,000.00                                                 7,920        $775.00     ($1,782,000.00)              $311,681.70
          First Western        Preferred                              Sold, in full;
8/10/2012 Financial, Inc.,     Stock w/                              warrants not                  $62,000.00                                                  80         $775.00         ($18,000.00)              $39,370.32                                    $3,768,965.00
          Denver, CO8,14,18    Warrants          $11,881,000.00       outstanding
9/11/2012                                                                                                            ($62,000.00)
6/24/2013                                                                                     $10,994,240.00                                               12,440         $874.81     ($1,445,760.00)
7/26/2013                                                                                                          ($109,942.41)
1/30/2009                                                                                                                                      $0.00
             Firstbank         Preferred                              Sold, in full;
7/3/2012     Corporation,      Stock w/          $33,000,000.00      warrants not             $31,053,330.00       ($465,799.95)                           33,000         $941.00     ($1,946,670.00)                               $19.47                        $5,651,360.00
             Alma, MI          Warrants                               outstanding
7/18/2012                                                                                                                                                                                                         $1,946,670.00
1/9/2009                                                                                                                                       $0.00
          FirstMerit           Preferred                           Redeemed, in
4/22/2009 Corporation,         Stock w/         $125,000,000.00     full; warrants           $125,000,000.00                                              125,000       $1,000.00                                                   $21.72       2,408,203      $71,033,631.08
          Akron, OH11          Warrants                           not outstanding
5/27/2009                                                                                                                                                                                                         $5,025,000.00
1/30/2009                                                                                                                                      $0.00
3/26/2013                                                                                      $1,439,258.50                                                1,579         $911.50       ($139,741.50)
3/27/2013 Flagstar Bancorp, Preferred                                 Sold, in full;         $228,401,847.00                                              250,578         $911.50    ($22,176,153.00)
                            Stock w/            $266,657,000.00      warrants not                                                                                                                                                   $14.76                      $37,220,872.00
3/28/2013 Inc., Troy, MI    Warrants                                  outstanding             $13,216,750.00                                               14,500         $911.50     ($1,283,250.00)
4/9/2013                                                                                                          ($2,430,578.56)
6/12/2013                                                                                                                                                                                                           $12,905.00
7/24/2009                      Preferred                                                                                                       $0.00
          Florida Bank                                                Sold, in full;
                               Stock w/
          Group, Inc.,                           $20,471,000.00      warrants not                                                                                                                                                                                 $1,180,793.08
8/14/2013 Tampa, FL8,84        Exercised                                                       $8,000,000.00                                               20,471         $390.80    ($12,471,000.00)
                                                                      outstanding
                               Warrants
                                                                                                                                                                                                                                                          Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                     (CONTINUED)
                                                                                                                                                        Number     Average Price                                                 Stock Price       Current
Transaction                     Investment                            Investment          Capital Repayment /                     Remaining Capital    of Shares       of Shares   (Realized Loss) /                                as of      Outstanding   Dividends/Interest
Date        Institution         Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3            Amount      Disposed        Disposed           (Write-off)   Gain4    Warrant Sales    9/30/135       Warrants      Paid to Treasury
2/20/2009                  Preferred                                                                                                         $0.00
          Florida Business                                          Redeemed, in
                           Stock w/
          BancGroup, Inc.,                         $9,495,000.00     full; warrants                                                                                                                                                                              $1,339,750.50
9/22/2011 Tampa, FL8,44,14 Exercised                               not outstanding              $9,495,000.00                                              9,495      $1,000.00                                   $475,000.00
                           Warrants
12/19/2008                                                                                                                                   $0.00
           Flushing Financial Preferred                             Redeemed, in
10/28/2009 Corporation, Lake Stock w/             $70,000,000.00     full; warrants            $70,000,000.00                                            70,000       $1,000.00                                                    $18.45                        $3,004,166.66
           Success, NY12,16 Warrants                               not outstanding
12/30/2009                                                                                                                                                                                                        $900,000.00
2/27/2009 FNB Bancorp,          Preferred                                                                                                    $0.00
                                                                    Redeemed, in
          South San             Stock w/
                                                  $12,000,000.00     full; warrants                                                                                                                                                $23.00                        $1,667,700.00
9/15/2011 Francisco,            Exercised                                                      $12,000,000.00                                            12,000       $1,000.00                                   $600,000.00
                                                                   not outstanding
          CA45,8,14             Warrants
5/15/2009 Foresight             Preferred                                                                                                    $0.00
                                                                    Redeemed, in
           Financial Group,     Stock w/
                                                  $15,000,000.00     full; warrants                                                                                                                                                $18.81                        $2,920,292.00
12/11/2012 Inc.,  Rockford,     Exercised                                                      $15,000,000.00                                            15,000       $1,000.00                                   $750,000.00
                                                                   not outstanding
           IL11,8,14            Warrants
5/22/2009                     Preferred                                                                                                      $0.00
          Fort Lee Federal
                              Stock w/                               Currently not
          Savings Bank,                            $1,300,000.00                                                                                                                                                                                                    $87,184.85
4/20/2012 Fort Lee, NJ8,66,97 Exercised                                collectible                                                                                                  ($1,300,000.00)
                              Warrants
4/3/2009                    Preferred                                                                                                        $0.00
          Fortune Financial                                         Redeemed, in
                            Stock w/
          Corporation ,                            $3,100,000.00     full; warrants                                                                                                                                                                               $413,927.67
9/15/2011 Arnold, MO45,8,14 Exercised                              not outstanding              $3,100,000.00                                             3,100       $1,000.00                                   $155,000.00
                            Warrants
12/5/2008 FPB Bancorp,          Preferred                                                                                                    $0.00
                                                                     Currently not
          Inc., Port St.        Stock w/           $5,800,000.00                                                                                                                                                                   $0.00          183,158         $273,889.00
7/15/2011 Lucie, FL50,97                                               collectible                                                                                                  ($5,800,000.00)
                                Warrants
1/23/2009                       Preferred                                                                                                    $0.00
           FPB Financial                                            Redeemed, in
                                Stock w/
12/16/2009 Corp., Hammond,                         $3,240,000.00     full; warrants             $1,000,000.00                                             1,000       $1,000.00                                                                                   $221,721.50
                                Exercised
           LA11,8,14                                               not outstanding
6/16/2010                       Warrants                                                        $2,240,000.00                                             2,240       $1,000.00                                   $162,000.00
5/22/2009                                                                                                                                    $0.00
                             Preferred
11/9/2012 Franklin Bancorp, Stock w/                                   Sold, in full;             $594,550.00                                               940         $632.50       ($345,450.00)               $126,798.62
           Inc., Washington,                       $5,097,000.00      warrants not                                                                                                                                                                                $965,344.00
11/13/2012 MO8,14            Exercised                                                          $2,629,302.50                                             4,157         $632.50     ($1,527,697.50)                $45,188.88
                                                                       outstanding
                             Warrants
1/11/2013                                                                                                          ($25,000.00)
                              Subordinated                       Full investment
            Freeport
                              Debentures                           outstanding;
5/8/2009    Bancshares, Inc.,                      $3,000,000.00                                                                     $3,000,000.00                                                                                                               $1,074,618.00
                              w/ Exercised                              warrants
            Freeport, IL15
                              Warrants                               outstanding
6/26/2009                     Subordinated                                                                                                   $0.00
          Fremont                                                   Redeemed, in
                              Debentures
          Bancorporation,                         $35,000,000.00     full; warrants                                                                                                                                                                              $9,046,066.00
7/25/2012 Fremont, CA15,11,14 w/ Exercised                         not outstanding             $35,000,000.00                                         35,000,000          $1.00                                  $1,750,000.00
                              Warrants
1/23/2009                    Preferred                                                                                                       $0.00
                                                                    Redeemed, in
          Fresno First Bank, Stock w/
                     44,8,14                       $1,968,000.00     full; warrants                                                                                                                                                                               $371,100.00
11/1/2012 Fresno, CA         Exercised                                                          $1,968,000.00                                             1,968       $1,000.00                                    $98,000.00
                                                                   not outstanding
                             Warrants
4/24/2009                     Subordinated                                                                                                   $0.00
           Frontier                                                 Redeemed, in
                              Debentures
11/24/2009 Bancshares, Inc.,                       $3,000,000.00     full; warrants             $1,600,000.00                                          1,600,000          $1.00                                                                                   $258,192.00
                              w/ Exercised
           Austin, TX15,11,14                                      not outstanding
10/6/2010                     Warrants                                                          $1,400,000.00                                          1,400,000          $1.00                                   $150,000.00
12/23/2008                                                                                                                                   $0.00
           Fulton Financial     Preferred                           Redeemed, in
7/14/2010 Corporation,          Stock w/         $376,500,000.00     full; warrants           $376,500,000.00                                           376,500       $1,000.00                                                    $11.68                      $29,335,625.00
           Lancaster, PA11      Warrants                           not outstanding
9/8/2010                                                                                                                                                                                                        $10,800,000.00
5/8/2009                    Preferred                                                                                                        $0.00
          Gateway                                                   Redeemed, in
                            Stock w/
          Bancshares, Inc.,                        $6,000,000.00     full; warrants                                                                                                                                                                               $960,794.87
4/13/2012 Ringgold, GA8,14  Exercised                                                           $6,000,000.00                                             6,000       $1,000.00                                   $300,000.00
                                                                   not outstanding
                            Warrants
2/6/2009  Georgia               Preferred                                                                                                    $0.00
                                                                    Redeemed, in
          Commerce              Stock w/
                                                   $8,700,000.00     full; warrants                                                                                                                                                                               $961,470.83
                        Inc.,   Exercised
                                                                                                                                                                                                                                                                                  TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




2/16/2011 Bancshares,                                              not outstanding              $8,700,000.00                                             8,700       $1,000.00                                   $435,000.00
          Atlanta, GA11,8,14    Warrants
                               Preferred                           Full investment
            Georgia Primary Stock w/                                 outstanding;
5/1/2009                                           $4,500,000.00                                                                     $4,500,000.00                                                                                                                       $0.00
            Bank, Atlanta, GA8 Exercised                                  warrants
                               Warrants                                outstanding
                                                                                                                                                                                                                                                         Continued on next page
                                                                                                                                                                                                                                                                                  367
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                       (CONTINUED)                                                                                                                                                                             368
                                                                                                                                                          Number     Average Price                                                    Stock Price       Current
Transaction                      Investment                             Investment          Capital Repayment /                     Remaining Capital    of Shares       of Shares   (Realized Loss) /                                   as of      Outstanding   Dividends/Interest
Date        Institution          Description1   Investment Amount          Status*        Disposition / Auction2,4   Auction Fee3            Amount      Disposed        Disposed           (Write-off)   Gain4       Warrant Sales    9/30/135       Warrants      Paid to Treasury
3/6/2009                                                                                                                                       $0.00
           Germantown
                                 Preferred
10/29/2012 Capital                                                       Sold, in full;               $26,393.77                                               29         $910.10          ($2,606.23)
                                 Stock w/
           Corporation, Inc.,                        $4,967,000.00      warrants not                                                                                                                                                                                   $988,890.00
10/31/2012 Germantown,           Exercised                                                        $4,494,221.94                                             4,938         $910.10       ($443,778.06)                  $214,595.28
                                                                         outstanding
                                 Warrants
           TN8,14
1/11/2013                                                                                                            ($25,000.00)
6/26/2009                          Preferred                                                                                                   $0.00
             Gold Canyon
                                   Stock w/                            Currently not
             Bank, Gold                              $1,607,000.00                                                                                                                                                                                                       $53,859.52
4/5/2013                8,17,91,97 Exercised                             collectible                                                                                                  ($1,607,000.00)
             Canyon, AZ
                                   Warrants
10/28/2008                                                                                                                                     $0.00
          Goldmans Sachs Preferred                                    Redeemed, in
6/17/2009 Group, Inc. New Stock w/              $10,000,000,000.00     full; warrants        $10,000,000,000.00                                         10,000,000      $1,000.00                                                                                  $318,055,555.44
          York, NY11      Warrants                                   not outstanding
7/22/2009                                                                                                                                                                                                         $1,100,000,000.00
                            Preferred                                Full investment
          Goldwater Bank,
                            Stock w/                                   outstanding;
1/30/2009 N.A., Scottsdale,                          $2,568,000.00                                                                     $2,568,000.00                                                                                                                   $145,750.00
                            Exercised                                       warrants
          AZ8
                            Warrants                                     outstanding
4/24/2009                        Preferred                                                                                                     $0.00
             Grand Capital                                            Redeemed, in
                                 Stock w/
             Corporation,                            $4,000,000.00     full; warrants                                                                                                                                                                                  $517,145.00
9/8/2011                         Exercised                                                        $4,000,000.00                                             4,000       $1,000.00                                      $200,000.00
             Tulsa, OK44,8,14                                        not outstanding
                                 Warrants
                            Subordinated                             Full investment
          Grand Financial
                            Debentures                                 outstanding;
9/25/2009 Corporation,                               $2,443,320.00                                                                     $2,443,320.00                                                                                                                   $797,111.00
                                                                                                                                                                                                                                                                                       APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                            w/ Exercised                                    warrants
          Hattiesburg, MS15
                            Warrants                                     outstanding
                            Preferred                                Full investment
          Grand Mountain
                            Stock w/                                   outstanding;
5/29/2009 Bancshares, Inc.,                          $3,076,000.00                                                                     $3,076,000.00                                                                                                                          $0.00
                            Exercised                                       warrants
          Granby, CO8
                            Warrants                                     outstanding
1/9/2009     GrandSouth                              $9,000,000.00                                                                             $0.00
                                 Preferred                          Redeemed, in
             Bancorporation,
12/11/2009                       Stock w/                            full; warrants                                                                                                                                                     $5.30                         $1,856,917.08
             Greenville,
                                 Warrants            $6,319,000.00 not outstanding
9/8/2011     SC8,14,18,44                                                                        $15,319,000.00                                            15,319       $1,000.00                                      $450,000.00
                           Subordinated                              Full investment
          Great River
                           Debentures                                  outstanding;
7/17/2009 Holding Company,                           $8,400,000.00                                                                     $8,400,000.00                                                                                                                   $759,575.46
                           w/ Exercised                                     warrants
          Baxter, MN15
                           Warrants                                      outstanding
12/5/2008                                                                                                                                      $0.00
          Great Southern Preferred                                    Redeemed, in
8/18/2011 Bancorp,          Stock w/               $58,000,000.00      full; warrants            $58,000,000.00                                            58,000       $1,000.00                                                       $28.23                        $7,838,055.56
          Springfield, MO45 Warrants                                 not outstanding
9/21/2011                                                                                                                                                                                                            $6,436,364.00
12/23/2008 Green             Preferred                                   Sold, in full;                                                        $0.00
           Bankshares, Inc., Stock w/              $72,278,000.00       warrants not                                                                                                                                                                                  $5,942,857.78
9/7/2011   Greeneville, TN Warrants                                      outstanding             $68,700,000.00                                            72,278         $950.50     ($3,578,000.00)

2/27/2009                                                                                                                                      $0.00
                              Preferred
11/14/2012 Green Circle                                             Redeemed, in                    $800,000.00                                               800       $1,000.00
                              Stock w/
           Investments, Inc.,                        $2,400,000.00   full; warrants                                                                                                                                                                                    $516,021.00
1/23/2013 Clive, IA11,8,14    Exercised                                                             $800,000.00                                               800       $1,000.00
                                                                   not outstanding
                              Warrants
4/24/2013                                                                                           $800,000.00                                               800       $1,000.00                                      $120,000.00
2/27/2009 Green City             Preferred                                                                                                     $0.00
                                                                   Redeemed, in
          Bancshares,            Stock w/
                                                      $651,000.00   full; warrants                                                                                                                                                                                       $49,037.33
                 Green City,     Exercised                                                          $651,000.00                                               651       $1,000.00                                       $33,000.00
7/14/2010 Inc.,11,8,14                                            not outstanding
          MO                     Warrants
                           Preferred                                 Full investment
          Greer Bancshares
                           Stock w/                                    outstanding;
1/30/2009 Incorporated,                              $9,993,000.00                                                                     $9,993,000.00                                                                                    $6.51                          $975,831.00
                           Exercised                                        warrants
          Greer, SC8
                           Warrants                                      outstanding
2/13/2009                   Preferred                                                                                                          $0.00
          Gregg
                            Stock w/                                   Currently not
          Bancshares, Inc.,                           $825,000.00                                                                                                                                                                                                        $45,190.00
7/13/2012 Ozark, MO8,68,97 Exercised                                     collectible                                                                                                    ($825,000.00)
                            Warrants
2/20/2009 Guaranty               Preferred                                                                                                     $0.00
                                                                      Redeemed, in
          Bancorp, Inc.,         Stock w/
                                                     $6,920,000.00     full; warrants                                                                                                                                                                                  $969,040.00
9/15/2011 Woodsville,            Exercised                                                        $6,920,000.00                                             6,920       $1,000.00                                      $346,000.00
                                                                     not outstanding
          NH45,8,14              Warrants
                                                                                                                                                                                                                                                              Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                     (CONTINUED)
                                                                                                                                                         Number     Average Price                                                Stock Price       Current
Transaction                     Investment                            Investment          Capital Repayment /                      Remaining Capital    of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividends/Interest
Date        Institution         Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4   Warrant Sales    9/30/135       Warrants      Paid to Treasury
9/25/2009 Guaranty Capital                                          Redeemed, in                                                              $0.00
                             Subordinated
          Corporation,                            $14,000,000.00     full; warrants                                                                                                                                                                               $913,299.33
7/30/2010 Belzoni, MS9,15,36 Debentures                            not outstanding             $14,000,000.00                                          14,000,000          $1.00

1/30/2009                                                                                                                                     $0.00
6/13/2012                                                                                       $5,000,000.00                                               5,000      $1,000.00
4/26/2013 Guaranty Federal Preferred                                   Sold, in full;               $96,750.00                                               100         $967.50          ($3,250.00)
          Bancshares, Inc., Stock w/              $17,000,000.00      warrants not                                                                                                                                                 $11.98                        $3,390,721.00
4/29/2013 Springfield, MO11 Warrants                                   outstanding             $11,513,250.00                                             11,900         $967.50       ($386,750.00)
5/15/2013                                                                                                                                                                                                        $2,003,250.00
5/31/2013                                                                                                          ($116,100.00)
9/25/2009                    Preferred                                                                                                        $0.00
           GulfSouth Private
                             Stock w/                                Currently not
           Bank, Destin,                           $7,500,000.00                                                                                                                                                                                                  $757,380.00
10/19/2012 FL17,28,70,97     Exercised                                 collectible                                                                                                   ($7,500,000.00)
                             Warrants
6/26/2009                   Preferred                                                                                                         $0.00
          Gulfstream                                                Redeemed, in
                            Stock w/
          Bancshares, Inc.,                        $7,500,000.00     full; warrants                                                                                                                                                                               $876,541.63
8/18/2011 Stuart, FL45,8,14 Exercised                                                           $7,500,000.00                                               7,500      $1,000.00                                  $375,000.00
                                                                   not outstanding
                            Warrants
2/20/2009 Hamilton State        Preferred                                                                                                     $0.00
                                                                    Redeemed, in
          Bancshares,           Stock w/
                                                   $7,000,000.00     full; warrants                                                                                                                                                                               $819,165.89
4/13/2011 Hoschton,             Exercised                                                       $7,000,000.00                                                280      $25,000.00                                  $350,000.00
                                                                   not outstanding
          GA11,8,14             Warrants
                                                                   Full investment
           Hampton Roads Preferred
                                                                     outstanding;
12/31/2008 Bankshares, Inc., Stock w/             $80,347,000.00                                                                     $80,347,000.00                                                                                $1.41           53,034        $2,510,844.00
                                                                          warrants
           Norfolk, VA38     Warrants
                                                                       outstanding
             Harbor                                                Full investment
             Bankshares         Preferred                            outstanding;
7/17/2009                                          $6,800,000.00                                                                      $6,800,000.00                                                                                                               $282,744.47
             Corporation,       Stock                                warrants not
             Baltimore, MD8,9                                          outstanding
3/13/2009                      Preferred                                                                                                      $0.00
           Haviland                                                 Redeemed, in
                               Stock w/
           Bancshares, Inc.,                         $425,000.00     full; warrants                                                                                                                                                                                 $41,524.22
12/29/2010 Haviland, KS11,8,14 Exercised                           not outstanding                $425,000.00                                                425       $1,000.00                                   $21,000.00
                               Warrants
12/19/2008                                                                                                                                    $0.00
          Hawthorne
5/9/2012                    Preferred                             Redeemed, in                 $12,000,000.00                                             12,000       $1,000.00
          Bancshares, Inc.,
                            Stock w/              $30,255,000.00   full; warrants                                                                                                                                                  $13.61                        $6,054,505.00
5/15/2013 Lee’s Summit,                                                                        $18,255,000.00                                             18,255       $1,000.00
                            Warrants                             not outstanding
          MO11
6/12/2013                                                                                                                                                                                                         $540,000.00
                                                                 Full investment
             HCSB Financial     Preferred
                                                                   outstanding;
3/6/2009     Corporation,       Stock w/          $12,895,000.00                                                                     $12,895,000.00                                                                                $0.11           91,714        $1,090,702.00
                                                                        warrants
             Loris, SC          Warrants
                                                                     outstanding
9/11/2009                   Preferred                                                                                                         $0.00
          Heartland                                                 Redeemed, in
                            Stock w/
          Bancshares, Inc.,                        $7,000,000.00     full; warrants                                                                                                                                                                              $1,073,471.00
7/17/2012 Franklin, IN8,17  Exercised                                                           $7,000,000.00                                               7,000      $1,000.00                                  $248,000.00
                                                                   not outstanding
                            Warrants
12/19/2008 Heartland                                                                                                                          $0.00
                                Preferred                           Redeemed, in
           Financial USA,
9/15/2011                       Stock w/          $81,698,000.00     full; warrants            $81,698,000.00                                             81,698       $1,000.00                                                   $27.86                      $11,188,087.22
           Inc., Dubuque,
             45                 Warrants                           not outstanding
9/28/2011 IA                                                                                                                                                                                                     $1,800,000.00
9/25/2009                       Preferred                                                                                                     $0.00
          Heritage                                                  Redeemed, in
                                Stock w/
3/16/2011 Bankshares, Inc.,                       $10,103,000.00     full; warrants             $2,606,000.00                                               2,606      $1,000.00                                                   $13.50                         $947,284.46
                                Exercised
          Norfolk, VA8,17,45                                       not outstanding
8/11/2011                       Warrants                                                        $7,497,000.00                                               7,497      $1,000.00                                  $303,000.00
11/21/2008                                                                                                                                    $0.00
             Heritage        Preferred                              Redeemed, in
3/7/2012     Commerce Corp., Stock w/             $40,000,000.00     full; warrants            $40,000,000.00                                             40,000       $1,000.00                                                   $7.65                         $6,761,267.00
             San Jose, CA11  Warrants                              not outstanding
6/10/2013                                                                                                                                                                                                         $140,000.00
11/21/2008                                                                                                                                    $0.00
           Heritage Financial Preferred                             Redeemed, in
12/22/2010 Corporation,       Stock w/            $24,000,000.00     full; warrants            $24,000,000.00                                             24,000       $1,000.00                                                   $15.52                        $2,503,333.33
                                                                                                                                                                                                                                                                                  TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




           Olympia, WA11,16 Warrants                               not outstanding
8/17/2011                                                                                                                                                                                                         $450,000.00
                                                                                                                                                                                                                                                         Continued on next page
                                                                                                                                                                                                                                                                                  369
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                      (CONTINUED)                                                                                                                                                                          370
                                                                                                                                                         Number     Average Price                                                 Stock Price       Current
Transaction                      Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                as of      Outstanding   Dividends/Interest
Date        Institution          Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4    Warrant Sales    9/30/135       Warrants      Paid to Treasury
3/20/2009                                                                                                                                      $0.00
          Heritage Oaks          Preferred                           Redeemed, in
7/17/2013 Bancorp, Paso          Stock w/          $21,000,000.00     full; warrants            $21,000,000.00                                            21,000       $1,000.00                                                    $6.40                         $4,666,335.00
          Robles, CA11           Warrants                           not outstanding
8/7/2013                                                                                                                                                                                                          $1,575,000.00
11/21/2008                                                                                                                                     $0.00
             HF Financial        Preferred                           Redeemed, in
6/3/2009     Corp., Sioux        Stock w/          $25,000,000.00     full; warrants            $25,000,000.00                                            25,000       $1,000.00                                                                                   $666,666.67
             Falls, SD11         Warrants                           not outstanding
6/30/2009                                                                                                                                                                                                          $650,000.00
5/8/2009   Highlands                                $3,091,000.00                                                                              $0.00
                                 Preferred
           Bancorp, Inc.                                           Redeemed, in
12/22/2009 (Highlands State      Stock w/
                                                                    full; warrants                                                                                                                                                  $5.44                          $606,927.00
                                 Exercised
           Bank), Vernon,                           $2,359,000.00 not outstanding
9/22/2011 NJ8,18,21,44           Warrants                                                        $5,450,000.00                                             5,450       $1,000.00                                   $155,000.00

             Highlands           Preferred                          Full investment
             Independent         Stock w/                             outstanding;
3/6/2009                                            $6,700,000.00                                                                      $6,700,000.00                                                                                                               $617,712.00
             Bancshares, Inc.,   Exercised                                 warrants
             Sebring, FL8        Warrants                               outstanding
1/30/2009                   Preferred                                                                                                          $0.00
          Hilltop Community                                          Redeemed, in
                            Stock w/
          Bancorp, Inc.,                            $4,000,000.00     full; warrants                                                                                                                                                $9.28                          $267,049.67
4/21/2010 Summit, NJ11,8,14 Exercised                               not outstanding              $4,000,000.00                                             4,000       $1,000.00                                   $200,000.00
                            Warrants
12/23/2008                                                                                                                                     $0.00
2/7/2013     HMN Financial,      Preferred                              Sold, in full;           $2,561,325.00                                             3,550         $721.50       ($988,675.00)
                                                                                                                                                                                                                                                                                   APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




             Inc., Rochester,    Stock w/          $26,000,000.00          warrants                                                                                                                                                 $7.90          833,333        $2,462,777.78
2/8/2013     MN                  Warrants                               outstanding             $16,197,675.00                                            22,450         $721.50     ($6,252,325.00)
3/26/2013                                                                                                           ($187,590.00)
1/16/2009                                                                                                                                      $0.00
             Home              Preferred                           Redeemed, in
7/6/2011     Bancshares, Inc., Stock w/            $50,000,000.00   full; warrants              $50,000,000.00                                            50,000       $1,000.00                                                    $30.38                        $6,180,555.56
             Conway, AR11      Warrants                           not outstanding
7/27/2011                                                                                                                                                                                                         $1,300,000.00
2/20/2009 Hometown               Preferred                                                                                                     $0.00
                                                                     Redeemed, in
          Bancorp of             Stock w/
                                                    $3,250,000.00     full; warrants                                                                                                                                                                               $801,202.00
8/28/2013 Alabama, Inc.,         Exercised                                                       $3,250,000.00                                             3,250       $1,000.00                                   $163,000.00
                                                                    not outstanding
          Oneonta, AL8           Warrants
2/13/2009                                                                                                                                      $0.00
11/28/2012                   Preferred                                                             $608,170.50                                               645         $942.90         ($36,829.50)
           Hometown                                                     Sold, in full;
                             Stock w/
11/30/2012 Bancshares, Inc.,                        $1,900,000.00      warrants not              $1,183,339.50                                             1,255         $942.90         ($71,660.50)               $70,095.00                                     $393,196.00
                             Exercised
           Corbin, KY8,14                                               outstanding
1/11/2013                    Warrants                                                                                ($17,915.11)
3/26/2013                                                                                                             ($7,084.89)
9/18/2009 HomeTown               Preferred                                                                                                     $0.00
                                                                        Sold, in full;
           Bankshares            Stock w/
10/31/2012                                         $10,000,000.00      warrants not              $9,185,000.00                                            10,000         $918.50       ($815,000.00)               $315,461.52      $6.40                         $1,702,400.00
           Corporation,          Exercised
                        8,17                                            outstanding
1/11/2013 Roanoke, VA            Warrants                                                                            ($91,850.00)
12/12/2008                                                                                                                                     $0.00
                                Preferred                            Redeemed, in
             HopFed Bancorp,
12/19/2012                      Stock w/           $18,400,000.00     full; warrants            $18,400,000.00                                            18,400       $1,000.00                                                    $11.19         253,666        $3,697,889.00
             Hopkinsville, KY11
                                Warrants                            not outstanding
1/16/2013                                                                                                                                                                                                          $256,257.00
12/19/2008                                                                                                                                     $0.00
11/10/2010 Horizon Bancorp, Preferred                                Redeemed, in                $6,250,000.00                                             6,250       $1,000.00
           Michigan City,   Stock w/               $25,000,000.00     full; warrants                                                                                                                                                $23.35       3,106,771        $3,106,770.83
8/25/2011 IN11,45           Warrants                                not outstanding             $18,750,000.00                                            18,750       $1,000.00
11/23/2011                                                                                                                                                                                                        $1,750,551.00
2/27/2009                      Preferred                                                                                                       $0.00
          Howard Bancorp,                                          Redeemed, in
                               Stock w/
          Inc., Ellicott City,                      $5,983,000.00   full; warrants                                                                                                                                                  $8.66                          $837,793.05
9/22/2011 MD44,8,14            Exercised                                                         $5,983,000.00                                             5,983       $1,000.00                                   $299,000.00
                                                                  not outstanding
                               Warrants
5/1/2009                         Preferred          $4,000,000.00                                                                              $0.00
           HPK Financial                                           Redeemed, in
                                 Stock w/
11/13/2009 Corporation,                                             full; warrants                                                                                                                                                                                $1,596,554.65
                      8,11,14,18 Exercised
           Chicago, IL                              $5,000,000.00 not outstanding
12/11/2012                       Warrants                                                        $9,000,000.00                                             9,000       $1,000.00                                   $344,000.00
11/14/2008                                                                                                                                     $0.00
           Huntington            Preferred                           Redeemed, in
12/22/2010 Bancshares,           Stock w/       $1,398,071,000.00     full; warrants         $1,398,071,000.00                                          1,398,071      $1,000.00                                                    $8.26                      $147,185,808.56
           Columbus, OH11        Warrants                           not outstanding
1/19/2011                                                                                                                                                                                                        $49,100,000.00
                                                                                                                                                                                                                                                          Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                      (CONTINUED)
                                                                                                                                                        Number     Average Price                                                        Stock Price       Current
Transaction                      Investment                            Investment          Capital Repayment /                     Remaining Capital   of Shares       of Shares   (Realized Loss) /                                       as of      Outstanding   Dividends/Interest
Date        Institution          Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3            Amount     Disposed        Disposed           (Write-off)           Gain4   Warrant Sales    9/30/135       Warrants      Paid to Treasury
2/6/2009                                                                                                                                      $0.00
                                 Preferred
12/20/2012 Hyperion Bank,                                               Sold, in full;           $1,008,800.00                                            1,552         $650.00       ($543,200.00)                       $25,700.00
                                 Stock w/
           Philadelphia,                            $1,552,000.00      warrants not                                                                                                                                                                                      $327,666.00
1/11/2013 PA8,14                 Exercised                                                                          ($10,088.00)
                                                                        outstanding
                                 Warrants
3/26/2013                                                                                                           ($14,912.00)
                            Preferred                             Full investment
          IA Bancorp, Inc., Stock w/                                outstanding;
9/18/2009                                           $5,976,000.00                                                                     $5,976,000.00                                                                                                                      $916,227.00
          Iselin, NJ8,17    Exercised                                    warrants
                            Warrants                                  outstanding
5/15/2009                                                                                                                                     $0.00
                                                                     Redeemed, in
          IBC Bancorp, Inc., Subordinated
                     9,15,36                        $4,205,000.00     full; warrants                                                                                                                                                                                     $427,216.32
9/10/2010 Chicago, IL        Debentures                                                          $4,205,000.00                                         4,205,000          $1.00
                                                                    not outstanding

12/5/2008                                                                                                                                     $0.00
          Iberiabank         Preferred                               Redeemed, in
3/31/2009 Corporation,       Stock w/              $90,000,000.00     full; warrants            $90,000,000.00                                           90,000       $1,000.00                                                           $51.91                        $1,450,000.00
          Lafayette, LA12,16 Warrants                               not outstanding
5/20/2009                                                                                                                                                                                                               $1,200,000.00
3/27/2009                    Preferred                                                                                                        $0.00
                                                                     Redeemed, in
          IBT Bancorp, Inc., Stock w/
                    8,14                            $2,295,000.00     full; warrants                                                                                                                                                                                     $526,463.00
6/12/2013 Irving, TX         Exercised                                                           $2,295,000.00                                            2,295       $1,000.00                                          $115,000.00
                                                                    not outstanding
                             Warrants
3/13/2009 IBW Financial                                                                                                                       $0.00
                                 Preferred                           Redeemed, in
          Corporation ,
                                 Stock w/           $6,000,000.00     full; warrants                                                                                                                                                      $9.45                          $453,067.00
9/3/2010 Washington,             Warrants                           not outstanding              $6,000,000.00                                            6,000       $1,000.00
          DC11,8,10
3/6/2009                     Preferred                                                                                                        $0.00
                                                                     Redeemed, in
          ICB Financial,     Stock w/
                     44,8,14                        $6,000,000.00     full; warrants                                                                                                                                                      $4.60                         $1,194,458.00
11/1/2012 Ontario, CA        Exercised                                                           $6,000,000.00                                            6,000       $1,000.00                                          $300,000.00
                                                                    not outstanding
                             Warrants
                                 Preferred                          Full investment
              Idaho Bancorp,     Stock w/                             outstanding;
1/16/2009                                           $6,900,000.00                                                                     $6,900,000.00                                                                                       $0.18                          $124,305.92
              Boise, ID8         Exercised                                 warrants
                                 Warrants                               outstanding
5/22/2009                          Preferred        $6,272,000.00                                                                             $0.00
           Illinois State                                          Redeemed, in
                                   Stock w/
12/29/2009 Bancorp, Inc.,                                           full; warrants                                                                                                                                                                                      $1,158,113.00
                        8,14,18,44 Exercised
           Chicago, IL                              $4,000,000.00 not outstanding
9/22/2011                          Warrants                                                     $10,272,000.00                                           10,272       $1,000.00                                          $406,000.00
                                 Preferred                          Full investment
              Independence
                                 Stock w/                             outstanding;
1/9/2009      Bank, East                            $1,065,000.00                                                                     $1,065,000.00                                                                                                                      $266,892.00
                                 Exercised                                 warrants
              Greenwich, RI8
                                 Warrants                               outstanding
1/9/2009                                                                                                                                      $0.00
          Independent Bank Preferred                                 Redeemed, in
4/22/2009 Corp., Rockland, Stock w/                $78,158,000.00     full; warrants            $78,158,000.00                                           78,158       $1,000.00                                                           $35.70                        $1,118,093.61
          MA11             Warrants                                 not outstanding
5/27/2009                                                                                                                                                                                                               $2,200,000.00
12/12/2008                                                                                                                                    $0.00
           Independent Bank Preferred                                Redeemed, in
           Corporation,     Stock w/               $72,000,000.00     full; warrants                                                                                                                                                      $10.00                        $9,004,000.00
8/30/2013 Ionia, MI29       Warrants                                not outstanding             $72,000,000.00                                           72,000       $1,000.00                         $2,426,000.00

4/24/2009                        Preferred                                                                                                    $0.00
              Indiana Bank
                                 Stock w/                             Currently not
              Corp., Dana,                          $1,312,000.00                                                                                                                                                                                                        $165,139.00
4/9/2013                         Exercised                              collectible                                                                                                 ($1,312,000.00)
              IN8,22,92,97
                                 Warrants
12/12/2008 Indiana                                                                                                                            $0.00
                                 Preferred                           Redeemed, in
           Community
                                 Stock w/          $21,500,000.00     full; warrants                                                                                                                                                                                    $4,031,250.00
9/12/2012 Bancorp,               Warrants                           not outstanding             $21,500,000.00                                           21,500       $1,000.00                                         $1,800,000.00
           Columbus, IN11
2/27/2009 Integra Bank                                                                                                                        $0.00
                                 Preferred
          Corporation,                                                Currently not
                                 Stock w/          $83,586,000.00                                                                                                                                                                                      7,418,876        $1,950,340.00
7/29/2011 Evansville,                                                   collectible                                                                                                ($83,586,000.00)
                                 Warrants
          IN22,52,97
              Intermountain                                         Full investment
                                 Preferred
              Community                                               outstanding;
                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




12/19/2008                       Stock w/          $27,000,000.00                                                                    $27,000,000.00                                                                                       $15.25          65,323        $6,588,634.00
              Bancorp,                                                     warrants
                                 Warrants
              Sandpoint, ID                                             outstanding
                                                                                                                                                                                                                                                                Continued on next page
                                                                                                                                                                                                                                                                                         371
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                     (CONTINUED)                                                                                                                                                                           372
                                                                                                                                                        Number     Average Price                                                  Stock Price       Current
Transaction                    Investment                             Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                 as of      Outstanding   Dividends/Interest
Date        Institution        Description1   Investment Amount          Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4     Warrant Sales    9/30/135       Warrants      Paid to Treasury
12/23/2008                                                                                                                                    $0.00
7/11/2012 International                                                                        $40,000,000.00                                            40,000       $1,000.00
                               Preferred                         Redeemed, in
           Bancshares
11/1/2012                      Stock w/         $216,000,000.00   full; warrants               $45,000,000.00                                            45,000       $1,000.00                                                     $21.62                      $41,520,139.00
           Corporation,
                     11        Warrants                         not outstanding
11/28/2012 Laredo, TX                                                                         $131,000,000.00                                           131,000       $1,000.00
6/11/2013                                                                                                                                                                                                         $4,018,511.00
12/23/2008 Intervest                                                                                                                          $0.00
                            Preferred                                  Sold, in full;
           Bancshares
6/24/2013                   Stock w/             $25,000,000.00           warrants             $24,250,000.00                                            25,000         $970.00       ($750,000.00)                                 $7.93          691,882        $6,028,056.00
           Corporation, New
                            Warrants                                   outstanding
7/26/2013 York, NY                                                                                                 ($242,500.00)
5/8/2009   Investors                                                                                                                          $0.00
           Financial           Subordinated
           Corporation of      Debentures                            Currently not
                                                   $4,000,000.00                                                                                                                                                                                                   $174,324.60
10/19/2012 Pettis County,      w/ Exercised                            collectible                                                                                                  ($4,000,000.00)
           Inc., Sedalia,      Warrants
           MO15,71,97
10/28/2008                                                                                                                                    $0.00
           JPMorgan Chase Preferred                                 Redeemed, in
6/17/2009 & Co., New York, Stock w/           $25,000,000,000.00     full; warrants        $25,000,000,000.00                                          2,500,000     $10,000.00                                                     $51.69                     $795,138,888.89
           NY11            Warrants                                not outstanding
12/16/2009                                                                                                                                                                                                      $936,063,469.11
1/30/2009 Katahdin             Preferred                                                                                                      $0.00
                                                                    Redeemed, in
          Bankshares           Stock w/
                                                 $10,449,000.00      full; warrants                                                                                                                                                 $11.81                        $1,452,046.75
                  Houlton,     Exercised
                                                                                                                                                                                                                                                                                   APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




8/18/2011 Corp.,                                                   not outstanding             $10,449,000.00                                            10,449       $1,000.00                                    $522,000.00
          ME44,8,14            Warrants
11/14/2008                                                                                                                                    $0.00
                               Preferred                            Redeemed, in
             KeyCorp,
3/30/2011                      Stock w/        $2,500,000,000.00     full; warrants         $2,500,000,000.00                                            25,000     $100,000.00                                                     $11.40                     $297,222,222.22
             Cleveland, OH11
                               Warrants                            not outstanding
4/20/2011                                                                                                                                                                                                        $70,000,000.00
                               Preferred                           Full investment
          Kirksville
                               Stock w/                              outstanding;
3/20/2009 Bancorp, Inc.,                            $470,000.00                                                                         $470,000.00                                                                                                                $112,975.00
                               Exercised                                  warrants
          Kirksville, MO8
                               Warrants                                outstanding
8/21/2009                    Preferred                                                                                                        $0.00
                                                                       Sold, in full;
          KS Bancorp, Inc., Stock w/
11/30/2012                                         $4,000,000.00      warrants not              $3,308,000.00                                             4,000         $827.00       ($692,000.00)                $140,400.00      $8.50                          $713,937.00
          Smithfield, NC8,14 Exercised
                                                                       outstanding
1/11/2013                    Warrants                                                                               ($25,000.00)
2/20/2009 Lafayette            Preferred           $1,998,000.00                                                                              $0.00
                                                                  Redeemed, in
          Bancorp,             Stock w/
12/29/2009                                                         full; warrants                                                                                                                                                                                  $267,134.50
          Inc., Oxford,        Exercised           $2,453,000.00 not outstanding
             8,11,14,18,36
9/29/2010 MS                   Warrants                                                         $4,451,000.00                                             4,451       $1,000.00                                    $100,000.00
2/6/2009                                                                                                                                      $0.00
8/4/2010                                                                                       $20,000,000.00                                            20,000       $1,000.00
          Lakeland             Preferred                            Redeemed, in
3/16/2011 Bancorp, Inc.,       Stock w/          $59,000,000.00      full; warrants            $20,000,000.00                                            20,000       $1,000.00                                                     $11.25                        $6,460,833.00
          Oak Ridge, NJ11      Warrants                            not outstanding
2/8/2012                                                                                       $19,000,000.00                                            19,000       $1,000.00
2/29/2012                                                                                                                                                                                                         $2,800,000.00
2/27/2009                                                                                                                                     $0.00
             Lakeland Financial Preferred                           Redeemed, in
6/9/2010     Corporation,       Stock w/         $56,044,000.00      full; warrants            $56,044,000.00                                            56,044       $1,000.00                                                     $32.65                        $3,596,156.33
             Warsaw, IN12       Warrants                           not outstanding
11/22/2011                                                                                                                                                                                                         $877,557.00
12/18/2009                                                                                                                                    $0.00
                            Preferred
11/29/2012 Layton Park                                                 Sold, in full;           $2,370,930.00                                             3,000         $790.30       ($629,070.00)                $104,375.00
                            Stock w/
           Financial Group,                        $3,000,000.00      warrants not                                                                                                                                                                                 $481,858.00
1/11/2013 Milwaukee, WI8,14 Exercised                                  outstanding                                  ($23,709.29)
                            Warrants
3/26/2013                                                                                                            ($1,290.71)
1/9/2009                                                                                                                                      $0.00
                               Preferred                         Redeemed, in
             LCNB Corp.,
10/21/2009                     Stock w/          $13,400,000.00   full; warrants               $13,400,000.00                                            13,400       $1,000.00                                                     $19.17                         $524,833.33
             Lebanon, OH11
                               Warrants                         not outstanding
11/22/2011                                                                                                                                                                                                         $602,557.00
12/23/2008                  Preferred                                                                                                         $0.00
           Leader Bancorp,                                          Redeemed, in
                            Stock w/
           Inc., Arlington,                        $5,830,000.00     full; warrants                                                                                                                                                                                $609,961.06
11/24/2010 MA11,8,14        Exercised                                                           $5,830,000.00                                             5,830       $1,000.00                                    $292,000.00
                                                                   not outstanding
                            Warrants
1/30/2009 Legacy Bancorp,                                                                                                                     $0.00                                                                                                                $355,079.00
                           Preferred                                 Currently not
          Inc., Milwaukee,                         $5,498,000.00
3/11/2011 WI9,48,97        Stock                                       collectible                                                                                                  ($5,498,000.00)

                                                                                                                                                                                                                                                          Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                     (CONTINUED)
                                                                                                                                                        Number     Average Price                                                  Stock Price       Current
Transaction                     Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                 as of      Outstanding   Dividends/Interest
Date        Institution         Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4     Warrant Sales    9/30/135       Warrants      Paid to Treasury
1/23/2009 Liberty               Preferred                                                                                                     $0.00
                                                                    Redeemed, in
          Bancshares,           Stock w/
                                                  $57,500,000.00     full; warrants                                                                                                                                                                               $7,816,966.00
7/21/2011 Inc., Jonesboro,      Exercised                                                      $57,500,000.00                                            57,500       $1,000.00                                   $2,875,000.00
                                                                   not outstanding
          AR45,8,14             Warrants
2/13/2009 Liberty               Preferred                                                                                                     $0.00
                                                                    Redeemed, in
          Bancshares,           Stock w/
                                                  $21,900,000.00     full; warrants                                                                                                                                                                               $3,000,452.00
                 Springfield,   Exercised                                                      $21,900,000.00                                            21,900       $1,000.00                                   $1,095,000.00
8/18/2011 Inc.,45,8,14                                             not outstanding
          MO                    Warrants
                             Preferred                             Full investment
          Liberty
                             Stock w/                                outstanding;
12/4/2009 Bancshares, Inc.,                        $6,500,000.00                                                                      $6,500,000.00                                                                                                               $1,266,816.00
                             Exercised                                    warrants
          Fort Worth, TX8,17
                             Warrants                                  outstanding
2/6/2009  Liberty Financial                                                                                                                   $0.00
                                                                    Redeemed, in
          Services, Inc.,       Preferred
                                                   $5,645,000.00     full; warrants                                                                                                                                                                                $461,008.58
9/24/2010 New   Orleans,        Stock                                                           $5,645,000.00                                             5,645       $1,000.00
                                                                   not outstanding
          LA11,9,36
                                Preferred                          Full investment
          Liberty Shares,
                                Stock w/                             outstanding;
2/20/2009 Inc., Hinesville,                       $17,280,000.00                                                                     $17,280,000.00                                                                                                               $1,399,560.00
                                Exercised                                 warrants
          GA8
                                Warrants                               outstanding
7/10/2009                                                                                                                                     $0.00
          Lincoln National      Preferred                           Redeemed, in
6/30/2010 Corporation,          Stock w/         $950,000,000.00     full; warrants           $950,000,000.00                                           950,000       $1,000.00                                                     $41.99                      $46,180,554.50
          Radnor, PA11          Warrants                           not outstanding
9/22/2010                                                                                                                                                                                                       $213,671,319.20
12/12/2008                                                                                                                                    $0.00
                               Preferred                               Sold, in full;
             LNB Bancorp Inc.,
6/19/2012                      Stock w/           $25,223,000.00      warrants not             $21,923,074.91      ($328,846.12)                         25,223         $869.20     ($3,299,925.09)                                 $9.40                         $4,438,492.00
             Lorain, OH
                               Warrants                                outstanding
7/18/2012                                                                                                                                                                                                          $860,326.00
                                Preferred                          Full investment
             Lone Star Bank,    Stock w/                             outstanding;
2/6/2009                                           $3,072,000.00                                                                      $3,072,000.00                                                                                                                       $0.00
             Houston, TX8       Exercised                                 warrants
                                Warrants                               outstanding
12/12/2008                                                                                                                                    $0.00
           LSB Corporation, Preferred                               Redeemed, in
11/18/2009 North Andover,   Stock w/              $15,000,000.00     full; warrants            $15,000,000.00                                            15,000       $1,000.00                                                                    407,542         $700,000.00
           MA11             Warrants                               not outstanding
12/16/2009                                                                                                                                                                                                         $560,000.00
6/26/2009                                                                                                                                     $0.00
          M&F Bancorp,                                              Redeemed, in
                                Preferred
          Inc., Durham,                           $11,735,000.00     full; warrants                                                                                                                                                                                $674,762.50
8/20/2010 NC8,9,17              Stock                                                          $11,735,000.00                                            11,735       $1,000.00
                                                                   not outstanding

12/23/2008                                                                                                                                    $0.00
5/18/2011 M&T Bank              Preferred                         Redeemed, in                $370,000,000.00                                           370,000       $1,000.00
          Corporation,          Stock w/         $600,000,000.00   full; warrants                                                                                                                                                  $111.92                     $155,027,270.00
8/21/2012 Buffalo, NY11         Warrants                         not outstanding              $230,000,000.00                                           230,000       $1,000.00
12/17/2012                                                                                                                                                                                                       $31,838,761.34
4/24/2009 Mackinac                                                                                                                            $0.00
                                Preferred                              Sold, in full;
           Financial
8/29/2012                       Stock w/          $11,000,000.00      warrants not             $10,538,990.00      ($158,084.85)                         11,000         $958.10       ($461,010.00)                                 $9.10                         $1,840,923.00
           Corporation,
                                Warrants                               outstanding
12/19/2012 Manistique, MI                                                                                                                                                                                         $1,300,000.00
                            Preferred                              Full investment
          Madison Financial
                            Stock w/                                 outstanding;
3/13/2009 Corporation,                             $3,370,000.00                                                                      $3,370,000.00                                                                                                                $169,421.50
                       8    Exercised                                     warrants
          Richmond, KY
                            Warrants                                   outstanding
12/23/2008                                                                                                                                    $0.00
                               Preferred
11/24/2009 Magna Bank,                                            Redeemed, in                  $3,455,000.00                                             3,455       $1,000.00
                               Stock w/
                       44,11,8                    $13,795,000.00   full; warrants                                                                                                                                                                                 $1,661,468.00
6/8/2011 Memphis, TN           Exercised                                                        $3,455,000.00                                             3,455       $1,000.00
                                                                 not outstanding
                               Warrants
8/18/2011                                                                                       $6,885,000.00                                             6,885       $1,000.00                                    $690,000.00
12/29/2009                     Preferred                                                                                                      $0.00
             Mainline Bancorp,                                    Redeemed, in
                               Stock w/
             Inc., Ebensburg,                      $4,500,000.00   full; warrants                                                                                                                                                   $69.50                         $538,188.00
3/9/2012        8,14           Exercised                                                        $4,500,000.00                                             4,500       $1,000.00                                    $225,000.00
             PA                                                  not outstanding
                               Warrants
                                                                                                                                                                                                                                                                                   TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




1/16/2009 MainSource                                                                                                                          $0.00
                            Preferred                                  Sold, in full;
          Financial Group,
4/3/2012                    Stock w/              $57,000,000.00      warrants not             $53,073,270.00      ($796,099.05)                         57,000         $931.10     ($3,926,730.00)                                 $15.19                        $9,159,773.00
          Inc., Greensburg,
                            Warrants                                   outstanding
6/11/2013 IN                                                                                                                                                                                                      $1,512,177.00
                                                                                                                                                                                                                                                          Continued on next page
                                                                                                                                                                                                                                                                                   373
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                      (CONTINUED)                                                                                                                                                                          374
                                                                                                                                                          Number     Average Price                                                Stock Price       Current
Transaction                      Investment                            Investment          Capital Repayment /                      Remaining Capital    of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividends/Interest
Date        Institution          Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4   Warrant Sales    9/30/135       Warrants      Paid to Treasury
12/5/2008                                                                                                                                      $0.00
           Manhattan             Preferred                           Redeemed, in
9/16/2009 Bancorp, El            Stock w/           $1,700,000.00     full; warrants             $1,700,000.00                                               1,700      $1,000.00                                                   $4.90                            $66,347.22
           Segundo, CA11         Warrants                           not outstanding
10/14/2009                                                                                                                                                                                                          $63,363.90
6/19/2009                                                                                                                                      $0.00
                              Subordinated
12/10/2012 Manhattan                                                    Sold, in full;                                                                                                                              $11,385.02
                              Debentures
           Bancshares, Inc.,                        $2,639,000.00      warrants not                                                                                                                                                                                $770,044.00
12/11/2012 Manhattan, IL15,14 w/ Exercised                              outstanding              $2,586,404.73                                           2,639,000          $0.98         ($52,595.27)              $95,959.50
                              Warrants
1/11/2013                                                                                                            ($25,000.00)
                                 Preferred                        Full investment
             Marine Bank &
                                 Stock w/                           outstanding;
3/6/2009     Trust Company,                         $3,000,000.00                                                                      $3,000,000.00                                                                                                               $235,713.00
                                 Exercised                               warrants
             Vero Beach, FL8
                                 Warrants                             outstanding
             Market              Preferred                          Full investment
             Bancorporation,     Stock w/                             outstanding;
2/20/2009                                           $2,060,000.00                                                                      $2,060,000.00                                                                                                               $138,778.00
             Inc., New Market,   Exercised                                 warrants
             MN8                 Warrants                               outstanding
5/15/2009                                                                                                                                      $0.00
                              Subordinated
8/9/2012  Market Street                                                 Sold, in full;          $17,919,962.10                                          19,931,000          $0.90     ($2,011,037.90)              $727,225.54
                              Debentures
          Bancshares, Inc.,                        $20,300,000.00      warrants not                                                                                                                                                                               $5,535,303.00
8/10/2012 Mt. Vernon, IL15,14 w/ Exercised                              outstanding                $331,767.90                                            369,000           $0.90         ($37,232.10)              $97,505.10
                              Warrants
9/11/2012                                                                                                           ($182,517.30)
                                                                                                                                                                                                                                                                                   APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




12/19/2008                                                                                                                                     $0.00
8/7/2012  Marquette              Preferred                                                       $2,530,958.50                                               3,514        $720.20       ($983,041.50)              $142,974.56
                                                                        Sold, in full;
          National               Stock w/
8/9/2012                                           $35,500,000.00      warrants not              $5,904,609.50                                               8,198        $720.20     ($2,293,390.50)             $1,054,743.77    $231.00                        $7,072,587.00
          Corporation,           Exercised
                     8,14                                               outstanding
8/10/2012 Chicago, IL            Warrants                                                       $17,133,307.00                                             23,788         $720.20     ($6,654,693.00)              $252,452.23
9/11/2012                                                                                                           ($255,688.75)
11/14/2008                                                                                                                                     $0.00
             Marshall & Ilsley   Preferred                           Redeemed, in
             Corporation,        Stock w/       $1,715,000,000.00     full; warrants                                                                                                                                                                           $226,522,916.66
7/5/2011     Milwaukee, WI43     Warrants                           not outstanding          $1,715,000,000.00                                           1,715,000      $1,000.00                                 $3,250,000.00


                                 Preferred                          Full investment
          Maryland
                                 Stock w/                             outstanding;
3/27/2009 Financial Bank,                           $1,700,000.00                                                                      $1,700,000.00                                                                                                               $313,466.00
                                 Exercised                                 warrants
          Towson, MD8
                                 Warrants                               outstanding
12/5/2008                                                                                                                                      $0.00
                                Preferred                            Redeemed, in
             MB Financial Inc.,
3/14/2012                       Stock w/          $196,000,000.00     full; warrants           $196,000,000.00                                            196,000       $1,000.00                                                   $28.21                      $32,095,000.00
             Chicago, IL11
                                Warrants                            not outstanding
5/2/2012                                                                                                                                                                                                          $1,518,072.00
11/20/2009 McLeod                Preferred                                                                                                     $0.00
                                                                     Redeemed, in
           Bancshares,           Stock w/
                                                    $6,000,000.00     full; warrants                                                                                                                                                                               $570,433.33
                  Shorewood,     Exercised                                                       $6,000,000.00                                                600      $10,000.00                                  $300,000.00
8/18/2011 Inc.,8,45,14                                              not outstanding
           MN                    Warrants
2/27/2009                        Preferred         $11,800,000.00                                                                              $0.00
           Medallion Bank,                                         Redeemed, in
                                 Stock w/
12/22/2009 Salt Lake City,                                          full; warrants                                                                                                                                                                                $2,317,674.81
                                 Exercised
           UT8,14,18,44                             $9,698,000.00 not outstanding
7/21/2011                        Warrants                                                       $21,498,000.00                                             21,498       $1,000.00                                  $645,000.00
5/15/2009                                                                                                                                      $0.00
             Mercantile Bank
4/4/2012                         Preferred                         Redeemed, in                 $10,500,000.00                                             10,500       $1,000.00
             Corporation,
                                 Stock w/          $21,000,000.00   full; warrants                                                                                                                                                  $21.78       3,166,021        $3,166,020.56
6/6/2012     Grand Rapids,                                                                      $10,500,000.00                                             10,500       $1,000.00
                                 Warrants                         not outstanding
             MI11
7/3/2012                                                                                                                                                                                                          $7,465,100.00
2/6/2009                        Preferred                                                                                                      $0.00
             Mercantile Capital                                      Redeemed, in
                                Stock w/
             Corp., Boston,                         $3,500,000.00     full; warrants                                                                                                                                                                               $475,815.03
8/4/2011                        Exercised                                                        $3,500,000.00                                              3,500       $1,000.00                                  $175,000.00
             MA44,8,14                                              not outstanding
                                Warrants
3/6/2009     Merchants           Preferred                                                                                                     $0.00
                                                                     Redeemed, in
             and Planters        Stock w/
                                                    $1,881,000.00     full; warrants                                                                                                                                                                               $256,560.00
9/7/2011     Bancshares, Inc.,   Exercised                                                       $1,881,000.00                                              1,881       $1,000.00                                   $94,000.00
                                                                    not outstanding
             Toone, TN56,8,14    Warrants
6/19/2009 Merchants and     Preferred                                                                                                          $0.00
                                                                     Redeemed, in
          Manufacturers     Stock w/
                                                    $3,510,000.00     full; warrants                                                                                                                                                                               $424,668.47
9/8/2011 Bank Corporation,  Exercised                                                            $3,510,000.00                                              3,510       $1,000.00                                  $176,000.00
                                                                    not outstanding
          Joliet, IL8,44,14 Warrants
                                                                                                                                                                                                                                                          Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                    (CONTINUED)
                                                                                                                                                       Number     Average Price                                                Stock Price       Current
Transaction                    Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividends/Interest
Date        Institution        Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4   Warrant Sales    9/30/135       Warrants      Paid to Treasury
2/13/2009                      Preferred          $6,200,000.00 Full investment                                                     $12,535,000.00
           Meridian Bank,      Stock w/                           outstanding;
                     8,18                                                                                                                                                                                                                                      $2,687,363.00
12/11/2009 Devon, PA           Exercised          $6,335,000.00        warrants
                               Warrants                             outstanding
1/30/2009                                                                                                                                    $0.00
                            Preferred
10/29/2012 Metro City Bank, Stock w/                                  Sold, in full;               $26,102.90                                               29         $900.10          ($2,897.10)
                       8,14                       $7,700,000.00      warrants not                                                                                                                                                                              $1,574,888.00
11/1/2012 Doraville, GA     Exercised                                                          $6,904,667.10                                             7,671         $900.10       ($766,332.90)              $369,948.00
                                                                      outstanding
                            Warrants
1/11/2013                                                                                                          ($69,307.70)
1/16/2009                                                                                                                                    $0.00
             MetroCorp         Preferred                              Sold, in full;
7/3/2012     Bancshares, Inc., Stock w/          $45,000,000.00      warrants not             $44,152,650.00      ($662,289.75)                         45,000         $981.20       ($847,350.00)                               $13.74                        $7,828,900.00
             Houston, TX       Warrants                               outstanding
6/11/2013                                                                                                                                                                                                      $2,087,368.00
6/26/2009                   Preferred                                                                                                        $0.00
          Metropolitan                                                Sold, in full;
                            Stock w/
          Bank Group, Inc.,                      $71,526,000.00      warrants not                                                                                                                                                                              $3,786,440.95
6/28/2013 Chicago, IL8,42   Exercised                                                         $23,718,541.95                                            71,526         $331.60    ($47,807,458.06)
                                                                      outstanding
                            Warrants
4/10/2009 Metropolitan                            $2,040,000.00 Full investment                                                      $4,388,000.00
                            Preferred
           Capital Bancorp,                                       outstanding;
                            Stock w/                                                                                                                                                                                                                            $921,944.00
11/20/2009 Inc.,  Chicago,                        $2,348,000.00        warrants
                            Warrants
           IL8,18                                                   outstanding
12/19/2008                                                                                                                                   $0.00
           Mid Penn          Preferred                             Redeemed, in
12/28/2012 Bancorp, Inc.,    Stock w/            $10,000,000.00     full; warrants            $10,000,000.00                                            10,000       $1,000.00                                                   $11.45          73,099        $2,012,500.00
           Millersburg, PA11 Warrants                             not outstanding
1/23/2013                                                                                                                                                                                                        $58,479.20
1/30/2009 Middleburg                                                                                                                         $0.00
                             Preferred                             Redeemed, in
           Financial
12/23/2009                   Stock w/            $22,000,000.00     full; warrants            $22,000,000.00                                            22,000       $1,000.00                                                                                  $986,944.11
           Corporation,
                          12 Warrants                             not outstanding
11/18/2011 Middleburg, VA                                                                                                                                                                                       $301,001.00
1/23/2009 Midland States       Preferred                                                                                                     $0.00
                                                                   Redeemed, in
           Bancorp, Inc.,      Stock w/
                                                 $10,189,000.00     full; warrants                                                                                                                                                                              $508,989.34
12/23/2009 Effingham,          Exercised                                                      $10,189,000.00                                            10,189       $1,000.00                                  $509,000.00
                                                                  not outstanding
           IL11,8,14           Warrants
1/9/2009                                                                                                                                     $0.00
           MidSouth            Preferred                           Redeemed, in
8/25/2011 Bancorp, Inc.,       Stock w/          $20,000,000.00     full; warrants            $20,000,000.00                                            20,000       $1,000.00                                                                                 $2,627,777.78
           Lafayette, LA44     Warrants                           not outstanding
11/22/2011                                                                                                                                                                                                      $206,557.00
                               Preferred                          Full investment
          Midtown Bank &
                               Stock w/                             outstanding;
2/27/2009 Trust Company,                          $5,222,000.00                                                                      $5,222,000.00                                                                                                              $275,104.50
                               Exercised                                 warrants
          Atlanta, GA8
                               Warrants                               outstanding
12/5/2008 Midwest Banc                                                                                                                       $0.00
                               Preferred
          Holdings, Inc.,                                           Currently not
                               Stock w/          $84,784,000.00                                                                                                                                                                               4,282,020         $824,289.00
5/14/2010 Melrose    Park,                                            collectible                                                                                                 ($84,784,000.00)
                               Warrants
          IL22,27,97
2/13/2009                    Preferred                                                                                                       $0.00
           Midwest Regional                                        Redeemed, in
                             Stock w/
           Bancorp, Inc.,                           $700,000.00     full; warrants                                                                                                                                                                                $28,294.14
11/10/2009 Festus, MO11,8,14 Exercised                            not outstanding                $700,000.00                                               700       $1,000.00                                   $35,000.00
                             Warrants
2/6/2009  MidWestOne                                                                                                                         $0.00
                               Preferred                           Redeemed, in
          Financial Group,
7/6/2011                       Stock w/          $16,000,000.00     full; warrants            $16,000,000.00                                            16,000       $1,000.00                                                   $25.71                        $1,933,333.33
          Inc., Iowa City,
             11                Warrants                           not outstanding
7/27/2011 IA                                                                                                                                                                                                   $1,000,000.00
2/20/2009 Mid-Wisconsin        Preferred                                                                                                     $0.00
                                                                   Redeemed, in
          Financial            Stock w/
                                                 $10,000,000.00     full; warrants                                                                                                                                               $5.60                         $2,344,226.00
4/26/2013 Services, Inc.,      Exercised                                                      $10,000,000.00                                            10,000       $1,000.00                                  $500,000.00
                                                                  not outstanding
          Medford, WI11,8,14   Warrants
4/3/2009                       Preferred                                                                                                     $0.00
          Millennium                                                  Sold, in full;
                               Stock w/
          Bancorp, Inc.,                          $7,260,000.00      warrants not                                                                                                                                                                              $1,392,562.00
8/14/2012 Edwards, CO8         Exercised                                                       $2,904,000.00                                             7,260         $400.00     ($4,356,000.00)
                                                                      outstanding
                               Warrants
1/9/2009   Mission                                                                                                                           $0.00
                                                                   Redeemed, in
                                                                                                                                                                                                                                                                                TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




           Community           Preferred
                                                  $5,116,000.00     full; warrants                                                                                                                                               $4.20                          $759,583.89
12/28/2011 Bancorp, San   Luis Stock                                                           $5,116,000.00                                             5,116       $1,000.00
                                                                  not outstanding
           Obispo, CA11,9
12/23/2008                                                                                                                                   $0.00
          Mission Valley                                           Redeemed, in
                               Preferred
          Bancorp, Sun                            $5,500,000.00     full; warrants                                                                                                                                                                              $456,041.66
8/20/2010 Valley, CA11,9,36    Stock                                                           $5,500,000.00                                             5,500       $1,000.00
                                                                  not outstanding
                                                                                                                                                                                                                                                                                375




                                                                                                                                                                                                                                                       Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                     (CONTINUED)                                                                                                                                                                            376
                                                                                                                                                         Number     Average Price                                                  Stock Price       Current
Transaction                    Investment                             Investment          Capital Repayment /                      Remaining Capital    of Shares       of Shares   (Realized Loss) /                                 as of      Outstanding   Dividends/Interest
Date        Institution        Description1   Investment Amount          Status*        Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4     Warrant Sales    9/30/135       Warrants      Paid to Treasury
12/19/2008 Monadnock           Preferred                                                                                                      $0.00
                                                                    Redeemed, in
           Bancorp, Inc.,      Stock w/
                                                   $1,834,000.00     full; warrants                                                                                                                                                  $5.25                          $413,349.00
12/28/2012 Peterborough,       Exercised                                                        $1,834,000.00                                               1,834      $1,000.00                                     $92,000.00
                                                                   not outstanding
           NH11,8,14           Warrants
             Monarch                                               Full investment
                               Preferred
             Community                                               outstanding;
2/6/2009                       Stock w/            $6,785,000.00                                                                      $6,785,000.00                                                                                  $2.95           52,192         $262,919.00
             Bancorp, Inc.,                                               warrants
                               Warrants
             Coldwater, MI                                             outstanding
12/19/2008 Monarch Financial                                                                                                                  $0.00
                             Preferred                              Redeemed, in
           Holdings, Inc.,
12/23/2009                   Stock w/            $14,700,000.00      full; warrants            $14,700,000.00                                             14,700       $1,000.00                                                     $11.72                         $743,166.66
           Chesapeake,
             12,16           Warrants                              not outstanding
2/10/2010 VA                                                                                                                                                                                                        $260,000.00
3/13/2009 Moneytree            Preferred                                                                                                      $0.00
                                                                    Redeemed, in
          Corporation,         Stock w/
                                                   $9,516,000.00     full; warrants                                                                                                                                                                                $1,299,481.00
9/15/2011 Lenoir  City,        Exercised                                                        $9,516,000.00                                               9,516      $1,000.00                                    $476,000.00
                                                                   not outstanding
          TN45,8,14            Warrants
1/30/2009                 Preferred                                                                                                           $0.00
          Monument                                                  Redeemed, in
                          Stock w/
          Bank, Bethesda,                          $4,734,000.00     full; warrants                                                                                                                                                                                 $652,958.50
8/11/2011 MD44,8,14       Exercised                                                             $4,734,000.00                                              4,734       $1,000.00                                    $237,000.00
                                                                   not outstanding
                          Warrants
10/28/2008                                                                                                                                    $0.00
                               Preferred                            Redeemed, in
             Morgan Stanley,
6/17/2009                      Stock w/       $10,000,000,000.00     full; warrants        $10,000,000,000.00                                          10,000,000      $1,000.00                                                     $26.95                     $318,055,555.11
             New York, NY11
                               Warrants                            not outstanding
8/12/2009                                                                                                                                                                                                        $950,000,000.00
                                                                                                                                                                                                                                                                                    APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




1/16/2009                    Preferred                                                                                                        $0.00
          Morrill                                                   Redeemed, in
                             Stock w/
          Bancshares, Inc.,                      $13,000,000.00      full; warrants                                                                                                                                                                                $1,779,122.22
7/20/2011 Merriam, KS11,8,14 Exercised                             not outstanding             $13,000,000.00                                             13,000       $1,000.00                                    $650,000.00
                             Warrants
1/23/2009                    Preferred                                                                                                        $0.00
          Moscow                                                    Redeemed, in
                             Stock w/
4/25/2012 Bancshares, Inc.,                        $6,216,000.00     full; warrants             $1,100,000.00                                               1,100      $1,000.00                                                                                   $1,276,377.00
                     11,8,14 Exercised
          Moscow, TN                                               not outstanding
12/5/2012                    Warrants                                                           $5,116,000.00                                               5,116      $1,000.00                                    $311,000.00
9/25/2009                      Preferred                                                                                                      $0.00
          Mountain Valley                                              Sold, in full;
                               Stock w/
7/22/2013 Bancshares, Inc.,                        $3,300,000.00      warrants not              $3,267,000.00                                              3,300         $990.00         ($33,000.00)               $140,034.65                                     $687,941.00
                               Exercised
          Cleveland, GA8,14                                            outstanding
9/12/2013                      Warrants                                                                             ($25,000.00)
3/27/2009                      Preferred                                                                                                      $0.00
           MS Financial,                                            Redeemed, in
                               Stock w/
           Inc., Kingwood,                         $7,723,000.00     full; warrants                                                                                                                                                                                $1,097,289.90
10/19/2011 TX11,8,14           Exercised                                                        $7,723,000.00                                               7,723      $1,000.00                                    $386,000.00
                                                                   not outstanding
                               Warrants
12/23/2008                                                                                                                                    $0.00
           MutualFirst         Preferred                            Redeemed, in
8/25/2011 Financial, Inc.,     Stock w/          $32,382,000.00      full; warrants            $32,382,000.00                                             32,382       $1,000.00                                                     $15.33                        $4,326,595.00
           Muncie, IN45        Warrants                            not outstanding
9/28/2011                                                                                                                                                                                                           $900,194.00
3/27/2009                   Preferred                                                                                                         $0.00
                                                                       Sold, in full;
          Naples Bancorp, Stock w/
                          8                        $4,000,000.00      warrants not                                                                                                                                                                                  $356,066.67
7/12/2012 Inc., Naples, FL Exercised                                   outstanding                $600,000.00                                              4,000         $150.00     ($3,400,000.00)
                            Warrants
11/21/2008                                                                                                                                    $0.00
          Nara Bancorp,     Preferred                               Redeemed, in
6/27/2012 Inc. Los Angeles, Stock w/             $67,000,000.00      full; warrants            $67,000,000.00                                             67,000       $1,000.00
          CA59,11           Warrants                               not outstanding
8/8/2012                                                                                                                                                                                                           $2,189,317.20
2/27/2009                                                                                                                                     $0.00
                             Preferred
2/19/2013 National                                                     Sold, in full;           $2,438,182.50                                               3,250        $750.20       ($811,817.50)                $342,841.95
                             Stock w/
          Bancshares, Inc.,                      $24,664,000.00       warrants not                                                                                                                                                                                 $2,307,492.00
2/20/2013 Bettendorf, IA8,14 Exercised                                 outstanding             $16,064,996.94                                             21,414         $750.20     ($5,349,003.06)                $502,606.30
                             Warrants
3/26/2013                                                                                                          ($185,031.79)
12/12/2008                                                                                                                                    $0.00
          National Penn      Preferred                           Redeemed, in
3/16/2011 Bancshares, Inc., Stock w/            $150,000,000.00   full; warrants              $150,000,000.00                                            150,000       $1,000.00                                                     $10.05                      $16,958,333.33
          Boyertown, PA11,16 Warrants                           not outstanding
4/13/2011                                                                                                                                                                                                          $1,000,000.00
12/11/2009 Nationwide          Subordinated                                                                                                   $0.00
                                                                    Redeemed, in
           Bankshares,         Debentures
                                                   $2,000,000.00     full; warrants                                                                                                                                                                                 $176,190.00
12/29/2010 Inc., West Point,   w/ Exercised                                                     $2,000,000.00                                           2,000,000          $1.00                                    $100,000.00
                                                                   not outstanding
           NE15,11,14          Warrants
                                                                                                                                                                                                                                                           Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                     (CONTINUED)
                                                                                                                                                        Number     Average Price                                                       Stock Price       Current
Transaction                     Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                      as of      Outstanding   Dividends/Interest
Date        Institution         Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)         Gain4    Warrant Sales    9/30/135       Warrants      Paid to Treasury
6/26/2009 NC Bancorp,                                                                                                                         $0.00
                               Preferred                               Sold, in full;
          Inc/Metropolitan
                               Stock w/            $6,880,000.00      warrants not
6/28/2013 Bank Group,8,42Inc., Warrants                                outstanding              $2,281,458.05                                             6,880         $331.60     ($4,598,541.95)
          Chicago, IL
                            Preferred                            Full investment
           NCAL Bancorp, Stock w/                                  outstanding;
12/19/2008                                        $10,000,000.00                                                                     $10,000,000.00                                                                                      $0.85                         $1,311,027.78
           Los Angeles, CA8 Exercised                                   warrants
                            Warrants                                 outstanding
6/19/2009 NEMO                  Subordinated                                                                                                  $0.00
                                                                    Redeemed, in
          Bancshares            Debentures
                                                   $2,330,000.00     full; warrants                                                                                                                                                                                     $752,347.00
                 Madison,       w/ Exercised                                                    $2,330,000.00                                          2,330,000          $1.00                                         $117,000.00
4/24/2013 Inc.,15,11,14                                            not outstanding
          MO                    Warrants
1/16/2009 New Hampshire                                                                                                                       $0.00
                             Preferred                              Redeemed, in
          Thrift Bancshares,
8/25/2011                    Stock w/             $10,000,000.00     full; warrants            $10,000,000.00                                            10,000       $1,000.00                                                          $13.53                        $1,304,166.67
          Inc., Newport,
             44              Warrants                              not outstanding
2/15/2012 NH                                                                                                                                                                                                            $737,100.00
1/9/2009 New York Private       Preferred                                                                                                     $0.00
                                                                    Redeemed, in
          Bank & Trust          Stock w/
                                                 $267,274,000.00     full; warrants                                                                                                                                                                                  $66,156,005.83
7/24/2013 Corporation,   New    Exercised                                                     $267,274,000.00                                           267,274       $1,000.00                                       $13,364,000.00
                                                                   not outstanding
          York, NY11,8,14       Warrants
12/12/2008                                                                                                                                    $0.00
4/26/2013                                                                                       $2,709,121.50                                             2,763         $980.50         ($53,878.50)
          NewBridge             Preferred                              Sold, in full;
4/29/2013 Bancorp,              Stock w/          $52,372,000.00      warrants not             $48,641,624.50                                            49,609         $980.50       ($967,375.50)                                      $7.29                       $11,471,039.00
          Greensboro, NC        Warrants                               outstanding
5/15/2013                                                                                                                                                                                                              $7,778,782.65
5/31/2013                                                                                                          ($513,507.46)
12/23/2008 Nicolet              Preferred                                                                                                     $0.00
                                                                    Redeemed, in
           Bankshares,          Stock w/
                                                  $14,964,000.00     full; warrants                                                                                                                                                                                    $2,192,842.66
9/1/2011 Inc.,   Green Bay,     Exercised                                                      $14,964,000.00                                            14,964       $1,000.00                                         $748,000.00
                                                                   not outstanding
           WI44,8,14            Warrants
1/9/2009                                                                                                                                      $0.00
           North Central     Preferred                              Redeemed, in
12/14/2011 Bancshares, Inc., Stock w/             $10,200,000.00     full; warrants            $10,200,000.00                                            10,200       $1,000.00                                                                                        $1,494,583.33
           Fort Dodge, IA11 Warrants                               not outstanding
1/11/2012                                                                                                                                                                                                               $600,000.00
12/12/2008                                                                                                                                    $0.00
           Northeast            Preferred                           Redeemed, in
11/28/2012 Bancorp,             Stock w/           $4,227,000.00     full; warrants             $4,227,000.00                                             4,227       $1,000.00                                                          $10.00                         $837,181.00
           Lewiston, ME11       Warrants                           not outstanding
12/28/2012                                                                                                                                                                                                               $95,000.00
5/15/2009                                          $1,341,000.00                                                                              $0.00
           Northern State       Preferred                         Redeemed, in
12/18/2009 Bank, Closter,       Stock w/                           full; warrants                                                                                                                                                                                       $349,782.00
           NJ8,11,14,18         Warrants           $1,230,000.00 not outstanding
3/28/2012                                                                                       $2,571,000.00                                             2,571       $1,000.00                                          $67,000.00
             Northern                                              Full investment
                                Preferred
             States Financial                                        outstanding;
2/20/2009                       Stock w/          $17,211,000.00                                                                     $17,211,000.00                                                                                      $0.90          584,084         $418,322.50
             Corporation,                                                 warrants
                                Warrants
             Waukegan, IL                                              outstanding
11/14/2008                                                                                                                                    $0.00
          Northern Trust        Preferred                           Redeemed, in
6/17/2009 Corporation,          Stock w/       $1,576,000,000.00     full; warrants         $1,576,000,000.00                                          1,576,000      $1,000.00                                                          $54.38                      $46,623,333.35
          Chicago, IL11         Warrants                           not outstanding
8/26/2009                                                                                                                                                                                                             $87,000,000.00
1/30/2009                       Preferred                                                                                                     $0.00
          Northway                                                  Redeemed, in
                                Stock w/
          Financial, Inc.,                        $10,000,000.00     full; warrants                                                                                                                                                      $16.80                        $1,430,624.67
9/15/2011 Berlin, NH44,8,14     Exercised                                                      $10,000,000.00                                            10,000       $1,000.00                                         $500,000.00
                                                                   not outstanding
                                Warrants
2/13/2009                                                                                                                                     $0.00
          Northwest             Preferred
3/8/2013                                                               Sold, in full;           $2,000,000.00                                             2,000       $1,032.10                          $64,220.00
          Bancorporation,       Stock w/
                                                  $10,500,000.00      warrants not                                                                                                                                                                                      $575,429.50
                                Exercised                                                       $8,500,000.00                                             8,500       $1,032.10                         $272,935.00     $587,634.55
3/11/2013 Inc.,8,14Spokane,                                            outstanding
          WA                    Warrants
4/9/2013                                                                                                           ($108,371.55)
2/13/2009 Northwest             Preferred                                                                                                     $0.00
                                                                  Redeemed, in
          Commercial            Stock w/
                                                   $1,992,000.00   full; warrants                                                                                                                                                                                       $288,393.00
                                                                                                                                                                                                                                                                                        TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




1/9/2013 Bank,   Lakewood,      Exercised                                                       $1,992,000.00                                             1,992       $1,000.00                                         $100,000.00
                                                                 not outstanding
          WA11,8,14             Warrants
                                                                                                                                                                                                                                                               Continued on next page
                                                                                                                                                                                                                                                                                        377
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                      (CONTINUED)                                                                                                                                                                               378
                                                                                                                                                         Number     Average Price                                                      Stock Price       Current
Transaction                     Investment                             Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                     as of      Outstanding   Dividends/Interest
Date        Institution         Description1    Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)         Gain4   Warrant Sales    9/30/135       Warrants      Paid to Treasury
1/30/2009                                                                                                                                      $0.00
           Oak Ridge
10/31/2012 Financial            Preferred                               Sold, in full;           $7,095,550.00                                             7,700         $921.50       ($604,450.00)
                                Stock w/            $7,700,000.00      warrants not                                                                                                                                                      $4.25          163,830        $1,444,854.00
1/11/2013 Services, Inc.,       Warrants                                outstanding                                  ($70,955.50)
           Oak Ridge, NC
2/6/2013                                                                                                                                                                                                                $122,887.50
12/5/2008                                                                                                                                      $0.00
          Oak Valley            Preferred                            Redeemed, in
8/11/2011 Bancorp,              Stock w/           $13,500,000.00     full; warrants            $13,500,000.00                                            13,500       $1,000.00                                                         $7.96                         $1,811,250.00
          Oakdale, CA45         Warrants                            not outstanding
9/28/2011                                                                                                                                                                                                               $560,000.00
1/16/2009 OceanFirst                                                                                                                           $0.00
                                Preferred                            Redeemed, in
          Financial Corp.,
12/30/2009                      Stock w/           $38,263,000.00     full; warrants            $38,263,000.00                                            38,263       $1,000.00                                                         $16.91                        $1,828,121.61
          Toms River,
             12,16              Warrants                            not outstanding
2/3/2010 NJ                                                                                                                                                                                                             $430,797.00
1/30/2009                       Preferred                                                                                                      $0.00
                                                                     Redeemed, in
          Ojai Community        Stock w/
                        8                           $2,080,000.00     full; warrants                                                                                                                                                     $5.71                          $470,759.00
9/25/2013 Bank, Ojai, CA        Exercised                                                        $2,080,000.00                                             2,080       $1,000.00                                        $104,000.00
                                                                    not outstanding
                                Warrants
12/5/2008                                                                                                                                      $0.00
          Old Line          Preferred                                Redeemed, in
7/15/2009 Bancshares, Inc., Stock w/                $7,000,000.00     full; warrants             $7,000,000.00                                             7,000       $1,000.00                                                         $13.42                         $213,888.89
          Bowie, MD11       Warrants                                not outstanding
9/2/2009                                                                                                                                                                                                                $225,000.00
12/12/2008                                                                                                                                     $0.00
           Old National         Preferred                            Redeemed, in
                                                                                                                                                                                                                                                                                        APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




3/31/2009 Bancorp,              Stock w/          $100,000,000.00     full; warrants           $100,000,000.00                                           100,000       $1,000.00                                                         $14.20                        $1,513,888.89
           Evansville, IN11     Warrants                            not outstanding
5/8/2009                                                                                                                                                                                                               $1,200,000.00
1/16/2009                                                                                                                                      $0.00
3/11/2013                                                                                       $24,684,870.00                                            70,028         $352.50    ($45,343,130.00)
3/26/2013 Old Second            Preferred                               Sold, in full;             $452,424.00                                             1,200         $377.00       ($747,576.00)
          Bancorp, Inc.,        Stock w/           $73,000,000.00      warrants not                                                                                                                                                      $5.69                         $5,769,027.78
3/27/2013 Aurora, IL            Warrants                                outstanding                $668,079.44                                             1,772         $377.00     ($1,103,920.56)
4/9/2013                                                                                                            ($258,053.73)
6/11/2013                                                                                                                                                                                                               $106,891.00
4/17/2009                                                                                                                                      $0.00
                           Preferred
7/19/2013 Omega Capital                                                 Sold, in full;           $1,239,000.00                                             1,239       $1,142.90                         $177,053.10
                           Stock w/
          Corp., Lakewood,                          $2,816,000.00      warrants not                                                                                                                                                                                       $50,310.50
7/22/2013 CO8,14           Exercised                                                             $1,577,000.00                                             1,577       $1,142.90                         $225,353.30    $159,886.25
                                                                        outstanding
                           Warrants
9/12/2013                                                                                                            ($25,000.00)
5/8/2009                        Preferred                                                                                                      $0.00
          One Georgia
                                Stock w/                              Currently not
          Bank, Atlanta,                            $5,500,000.00
7/15/2011 GA8,51,97             Exercised                               collectible                                                                                                  ($5,500,000.00)
                                Warrants
                                                                  Full investment
             OneUnited Bank, Preferred                              outstanding;
12/19/2008                                         $12,063,000.00                                                                     $12,063,000.00                                                                                                                      $93,823.33
             Boston, MA8,9   Stock                                  warrants not
                                                                      outstanding
                                 Subordinated                       Full investment
             OneFinancial
                                 Debentures                           outstanding;
6/5/2009     Corporation, Little                   $17,300,000.00                                                                     $17,300,000.00                                                                                                                   $3,782,991.00
                                 w/ Exercised                              warrants
             Rock, AR15,17
                                 Warrants                               outstanding
                              Preferred                             Full investment
             Oregon Bancorp, Stock w/                                 outstanding;
4/24/2009                                           $3,216,000.00                                                                      $3,216,000.00                                                                                     $11.25                         $755,208.00
             Inc., Salem, OR8 Exercised                                    warrants
                              Warrants                                  outstanding
5/1/2009                       Subordinated                                                                                                    $0.00
          OSB Financial                                              Redeemed, in
                               Debentures
          Services, Inc.,                           $6,100,000.00     full; warrants                                                                                                                                                                                   $1,257,314.53
10/5/2011 Orange, TX  15,11,14 w/ Exercised                                                      $6,100,000.00                                          6,100,000          $1.00                                        $305,000.00
                                                                    not outstanding
                               Warrants
11/21/2008                                                                                                                                     $0.00
           Pacific Capital      Preferred                               Sold, in full;
2/23/2011 Bancorp, Santa        Stock w/          $180,634,000.00      warrants not                      $14.75                                                1          $29.50             ($10.28)                                                                  $2,107,397.00
           Barbara, CA35,11     Warrants                                outstanding
11/30/2012                                                                                     $165,983,272.00                                          3,608,332         $46.00    ($14,650,702.97)                    $393,120.78
             Pacific City       Preferred                           Full investment
             Financial          Stock w/                              outstanding;
12/19/2008                                         $16,200,000.00                                                                     $16,200,000.00                                                                                                                    $358,065.00
             Corporation, Los   Exercised                                  warrants
             Angeles, CA8       Warrants                                outstanding
                                                                                                                                                                                                                                                               Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                     (CONTINUED)
                                                                                                                                                        Number     Average Price                                                      Stock Price       Current
Transaction                     Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                     as of      Outstanding   Dividends/Interest
Date        Institution         Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)         Gain4   Warrant Sales    9/30/135       Warrants      Paid to Treasury
12/23/2008 Pacific Coast                                                                                                                      $0.00
                                Preferred
           Bankers’                                                 Redeemed, in
                                Stock w/
           Bancshares,                            $11,600,000.00     full; warrants                                                                                                                                                                                   $1,641,963.89
7/28/2011 San Francisco,        Exercised                                                      $11,600,000.00                                            11,600       $1,000.00                                        $580,000.00
                                                                   not outstanding
                                Warrants
           CA45,8,14
1/16/2009 Pacific Coast         Preferred                                                                                                     $0.00
                                                                            Exited
          National Bancorp,     Stock w/
                                                   $4,120,000.00      bankruptcy/                                                                                                                                                       $0.01                            $18,087.94
                                Exercised                                                                                                                                           ($4,120,000.00)
2/11/2010 San8,26Clemente,                                            receivership
          CA                    Warrants
                            Preferred                              Full investment
           Pacific Commerce
                            Stock w/                                 outstanding;
12/23/2008 Bank, Los                               $4,060,000.00                                                                      $4,060,000.00                                                                                     $5.00                          $387,222.50
                            Exercised                                     warrants
           Angeles, CA8
                            Warrants                                   outstanding
12/12/2008 Pacific                                                                                                                            $0.00
                              Preferred                             Redeemed, in
           International
                              Stock w/             $6,500,000.00     full; warrants
2/15/2013 Bancorp,   Seattle,                                                                   $6,500,000.00                                             6,500       $1,000.00
                              Warrants                                outstanding
           WA85
3/6/2009                                                                                                                                      $0.00
8/7/2012  Park                  Preferred                                                       $1,676,654.00                                             2,296         $730.20       ($619,346.00)                     $88,059.01
                                                                       Sold, in full;
          Bancorporation,       Stock w/
8/9/2012                                          $23,200,000.00      warrants not              $4,048,506.00                                             5,544         $730.20     ($1,495,494.00)                    $482,779.69                                    $4,351,643.00
          Inc., Madison,        Exercised
             8,14                                                      outstanding
8/10/2012 WI                    Warrants                                                       $11,216,640.00                                            15,360         $730.20     ($4,143,360.00)                    $325,200.40
9/11/2012                                                                                                          ($169,418.00)
12/23/2008                                                                                                                                    $0.00
          Park National         Preferred                           Redeemed, in
4/25/2012 Corporation,          Stock w/         $100,000,000.00     full; warrants           $100,000,000.00                                           100,000       $1,000.00                                                         $79.08                      $16,694,444.00
          Newark, OH11          Warrants                           not outstanding
5/2/2012                                                                                                                                                                                                              $2,842,400.00
1/30/2009                                                                                                                                     $0.00
11/28/2012                                                                                        $394,072.28                                               548         $719.10       ($153,927.72)
                                Preferred                              Sold, in full;
             Parke Bancorp,
11/29/2012                      Stock w/          $16,288,000.00      warrants not             $11,318,791.40                                            15,740         $719.10     ($4,421,208.60)                                     $8.79          438,906        $3,119,532.00
             Inc., Sewell, NJ
                                Warrants                               outstanding
1/11/2013                                                                                                          ($117,128.64)
6/12/2013                                                                                                                                                                                                             $1,650,288.00
12/23/2008 Parkvale Financial                                                                                                                 $0.00
                              Preferred                             Redeemed, in
           Corpoation/F.N.B.
                              Stock w/            $31,762,000.00     full; warrants                                                                                                                                                                    342,564
1/3/2012 Corporation, 60 Warrants                                     outstanding              $31,762,000.00                                            31,762       $1,000.00
           Monroeville, PA
2/6/2009   Pascack Bancorp,                                                                                                                   $0.00
                            Preferred
           Inc. (Pascack                                            Redeemed, in
                            Stock w/
           Community                               $3,756,000.00     full; warrants                                                                                                                                                                                    $553,313.00
10/19/2011 Bank), Westwood, Exercised                              not outstanding              $3,756,000.00                                             3,756       $1,000.00                                        $188,000.00
              8,21,11       Warrants
           NJ
                                Preferred                          Full investment
           Patapsco
                                Stock w/                             outstanding;
12/19/2008 Bancorp, Inc.,                          $6,000,000.00                                                                      $6,000,000.00                                                                                     $2.70                          $377,866.67
                                Exercised                                 warrants
           Dundalk, MD8
                                Warrants                               outstanding
9/11/2009                                                                                                                                     $0.00
             Pathfinder         Preferred                           Redeemed, in
9/1/2011     Bancorp, Inc.,     Stock w/           $6,771,000.00     full; warrants             $6,771,000.00                                             6,771       $1,000.00                                                         $12.95                         $667,695.84
             Oswego, NY44       Warrants                           not outstanding
2/1/2012                                                                                                                                                                                                               $537,633.00
3/27/2009                  Preferred                                                                                                          $0.00
                                                                       Sold, in full;
          Pathway Bancorp, Stock w/
6/24/2013                                          $3,727,000.00      warrants not              $3,727,000.00                                             3,727       $1,167.00                         $622,446.27    $226,565.00                                       $77,851.50
          Cairo, NE8,14    Exercised
                                                                       outstanding
7/26/2013                  Warrants                                                                                 ($25,000.00)
                             Preferred                             Full investment
           Patriot
                             Stock w/                                outstanding;
12/19/2008 Bancshares, Inc.,                      $26,038,000.00                                                                     $26,038,000.00                                                                                                                   $2,704,135.78
                      8      Exercised                                    warrants
           Houston, TX
                             Warrants                                  outstanding
4/17/2009                                                                                                                                     $0.00
3/7/2012                                                                                          $250,000.00                                               250       $1,000.00
          Patterson             Preferred
                                                                  Redeemed, in                    $250,000.00                                               250       $1,000.00
                                                                                                                                                                                                                                                                                       TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




8/22/2012 Bancshares,           Stock w/
                                                   $3,690,000.00   full; warrants                                                                                                                                                                                      $817,023.00
                 Patterson,     Exercised                                                         $250,000.00                                               250       $1,000.00
12/5/2012 Inc,8,11,14                                            not outstanding
          LA                    Warrants
5/8/2013                                                                                          $500,000.00                                               500       $1,000.00
6/5/2013                                                                                        $2,440,000.00                                             2,440       $1,000.00                                        $185,000.00
                                                                                                                                                                                                                                                              Continued on next page
                                                                                                                                                                                                                                                                                       379
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                     (CONTINUED)                                                                                                                                                                         380
                                                                                                                                                        Number     Average Price                                                Stock Price       Current
Transaction                     Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividends/Interest
Date        Institution         Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4   Warrant Sales    9/30/135       Warrants      Paid to Treasury
1/9/2009                                                                                                                                      $0.00
1/6/2010  Peapack-                                                                              $7,172,000.00                                             7,172       $1,000.00
          Gladstone             Preferred                           Redeemed, in
3/2/2011 Financial              Stock w/          $28,685,000.00     full; warrants             $7,172,000.00                                             7,172       $1,000.00                                                   $18.55                        $3,280,740.00
          Corporation,          Warrants                           not outstanding
1/11/2012 Gladstone, NJ11                                                                      $14,341,000.00                                            14,341       $1,000.00
4/4/2012                                                                                                                                                                                                         $110,000.00
4/17/2009                       Preferred                                                                                                     $0.00
             Penn Liberty                                         Redeemed, in
                                Stock w/
             Financial Corp.,                      $9,960,000.00   full; warrants                                                                                                                                                                               $1,287,689.33
9/1/2011                        Exercised                                                       $9,960,000.00                                             9,960       $1,000.00                                  $498,000.00
             Wayne, PA44,8,14                                    not outstanding
                                Warrants
1/30/2009                                                                                                                                     $0.00
2/2/2011   Peoples Bancorp Preferred                              Redeemed, in                 $21,000,000.00                                            21,000       $1,000.00
           Inc., Marietta, Stock w/               $39,000,000.00   full; warrants                                                                                                                                                 $20.88                        $4,725,833.33
12/28/2011 OH11            Warrants                              not outstanding               $18,000,000.00                                            18,000       $1,000.00
2/15/2012                                                                                                                                                                                                       $1,200,724.15
2/13/2009                    Preferred                                                                                                        $0.00
             Peoples Bancorp                                      Redeemed, in
                             Stock w/
             (WA), Lynden,                        $18,000,000.00   full; warrants                                                                                                                                                                               $2,425,250.00
8/3/2011                     Exercised                                                         $18,000,000.00                                            18,000       $1,000.00                                  $900,000.00
             WA56,8,14                                           not outstanding
                             Warrants
12/23/2008                                                                                                                                    $0.00
             Peoples Bancorp Preferred                                 Sold, in full;
7/3/2012     of North Carolina, Stock w/          $25,054,000.00      warrants not             $23,384,401.44      ($350,766.02)                         25,054         $933.40     ($1,669,598.56)                               $12.35                        $4,419,331.00
             Inc., Newton, NC Warrants                                 outstanding
                                                                                                                                                                                                                                                                                 APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




8/8/2012                                                                                                                                                                                                         $425,000.00
4/24/2009 Peoples               Preferred                                                                                                     $0.00
                                                                    Redeemed, in
          Bancorporation,       Stock w/
                                                  $12,660,000.00     full; warrants                                                                                                                                                                             $2,069,910.00
4/24/2012 Inc., Easley,         Exercised                                                      $12,660,000.00                                            12,660       $1,000.00                                  $633,000.00
                                                                   not outstanding
          SC8,14                Warrants
3/20/2009 Peoples                                                                                                                             $0.00
                                Preferred
           Bancshares                                                  Sold, in full;
10/31/2012 of TN, Inc,          Stock w/                                                        $2,944,500.00                                             3,900         $755.00       ($955,500.00)              $122,225.00
                                                   $3,900,000.00      warrants not                                                                                                                                                                               $768,149.00
                                Exercised
           Madisonville,                                               outstanding
                                Warrants
1/11/2013 TN8,14                                                                                                    ($25,000.00)

3/6/2009                    Preferred                                                                                                         $0.00
          PeoplesSouth                                              Redeemed, in
                            Stock w/
          Bancshares, Inc.,                       $12,325,000.00     full; warrants                                                                                                                                                                             $3,044,994.66
9/18/2013 Colquitt, GA8     Exercised                                                          $12,325,000.00                                            12,325       $1,000.00                                  $616,000.00
                                                                   not outstanding
                            Warrants
9/11/2009 PFSB                  Preferred                                                                                                     $0.00
                                                                    Redeemed, in
          Bancorporation,       Stock w/
                                                   $1,500,000.00     full; warrants                                                                                                                                                                              $159,162.66
8/25/2011 Inc., Pigeon Falls,   Exercised                                                       $1,500,000.00                                             1,500       $1,000.00                                   $71,000.00
                                                                   not outstanding
          WI8,17,45             Warrants
2/6/2009                                                                                                                                      $0.00
          PGB Holdings,                                             Redeemed, in
                                Preferred
          Inc., Chicago,                           $3,000,000.00     full; warrants                                                                                                                                                                              $227,916.67
8/13/2010 IL11,9,36             Stock                                                           $3,000,000.00                                             3,000       $1,000.00
                                                                   not outstanding

1/23/2009                  Preferred                                                                                                          $0.00
          Pierce County
                           Stock w/                                  Currently not
          Bancorp, Tacoma,                         $6,800,000.00                                                                                                                                                                                                 $207,947.78
11/5/2010 WA8,46,97        Exercised                                   collectible                                                                                                  ($6,800,000.00)
                           Warrants

             Pinnacle Bank      Preferred                          Full investment
             Holding Company, Stock w/                               outstanding;
3/6/2009                                           $4,389,000.00                                                                      $4,389,000.00                                                                                              267,455         $284,999.00
             Inc., Orange City, Exercised                                 warrants
             FL8,69             Warrants                               outstanding

12/12/2008                                                                                                                                    $0.00
12/28/2011 Pinnacle Financial Preferred                           Redeemed, in                 $23,750,000.00                                            23,750       $1,000.00
           Partners, Inc.,    Stock w/            $95,000,000.00   full; warrants                                                                                                                                                 $29.81                      $16,163,194.00
6/20/2012 Nashville, TN11     Warrants                           not outstanding               $71,250,000.00                                            71,250       $1,000.00
7/18/2012                                                                                                                                                                                                        $755,000.00
12/19/2008                      Preferred                                                                                                     $0.00
          Plains Capital                                          Redeemed, in
                                Stock w/
          Corporation,                            $87,631,000.00   full; warrants                                                                                                                                                                             $13,239,939.77
9/27/2011 Dallas, TX44,8,14     Exercised                                                      $87,631,000.00                                            87,631       $1,000.00                                 $4,382,000.00
                                                                 not outstanding
                                Warrants
                                                                                                                                                                                                                                                        Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                        (CONTINUED)
                                                                                                                                                           Number     Average Price                                                        Stock Price       Current
Transaction                        Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                       as of      Outstanding    Dividends/Interest
Date        Institution            Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)           Gain4   Warrant Sales    9/30/135       Warrants       Paid to Treasury
7/17/2009                                                                                                                                        $0.00
                                   Subordinated
4/26/2013 Plato Holdings                                                  Sold, in full;             $120,000.00                                           120,000           $1.00                              $180.00
                                   Debentures
          Inc., Saint Paul,                           $2,500,000.00      warrants not                                                                                                                                                                                        $534,286.00
4/29/2013 MN15,17                  w/ Exercised                                                    $2,380,000.00                                          2,380,000          $1.00                            $3,570.00      $90,582.47
                                                                          outstanding
                                   Warrants
5/31/2013                                                                                                              ($25,000.00)
1/30/2009                                                                                                                                        $0.00
4/29/2013 Plumas Bancorp, Preferred                                       Sold, in full;          $11,949,000.00                                            11,949       $1,091.10                         $1,088,673.39
                          Stock w/                   $11,949,000.00      warrants not                                                                                                                                                        $6.20                           $622,343.75
5/22/2013 Quincy, CA      Warrants                                        outstanding                                                                                                                                       $234,500.00
5/31/2013                                                                                                             ($130,376.73)
                                                                    Full investment
                             Preferred
          Popular, Inc., San                                          outstanding;
12/5/2008                    Stock w/               $935,000,000.00                                                                    $935,000,000.00                                                                                       $26.25      2,093,283.60    $206,609,028.00
          Juan, PR20                                                       warrants
                             Warrants
                                                                        outstanding
                                                                      Full investment
                                   Preferred
              Porter Bancorp                                            outstanding;
11/21/2008                         Stock w/          $35,000,000.00                                                                     $35,000,000.00                                                                                       $1.20           330,561        $4,783,333.33
              Inc., Louisville, KY                                           warrants
                                   Warrants
                                                                          outstanding
                                Preferred                             Full investment
              Prairie Star
                                Stock w/                                outstanding;
4/3/2009      Bancshares, Inc.,                       $2,800,000.00                                                                      $2,800,000.00                                                                                                                       $132,253.00
                         8      Exercised                                    warrants
              Olathe, KS
                                Warrants                                  outstanding
5/8/2009                                                                                                                                         $0.00
          Premier Bancorp,                                             Redeemed, in
                           Subordinated
          Inc., Wilmette,                             $6,784,000.00     full; warrants                                                                                                                                                                                       $660,215.12
8/13/2010 IL9,15,36        Debentures                                                              $6,784,000.00                                          6,784,000          $1.00
                                                                      not outstanding

3/20/2009 Premier Bank     Preferred                                                                                                             $0.00
          Holding Company, Stock w/                                     Currently not
                                                      $9,500,000.00                                                                                                                                                                                                          $467,412.50
8/14/2012 Tallahassee,     Exercised                                      collectible                                                                                                  ($9,500,000.00)
          FL8,22,97        Warrants
10/2/2009                                                                                                                                        $0.00
8/8/2012                                                                                           $1,678,618.89                                             1,863         $901.00       ($184,381.11)
              Premier Financial Preferred                                 Sold, in full;
8/9/2012      Bancorp, Inc.,    Stock w/             $22,252,000.00          warrants              $8,575,102.51                                             9,517         $901.00       ($941,897.49)                                       $11.54          628,588        $3,203,018.00
              Huntington, WV Warrants                                     outstanding
8/10/2012                                                                                          $9,795,998.16                                            10,872         $901.00     ($1,076,001.84)
9/11/2012                                                                                                             ($200,497.20)
5/22/2009                   Subordinated                                                                                                         $0.00
          Premier Financial                                               Sold, in full;
                            Debentures
7/22/2013 Corp, Dubuque,                              $6,349,000.00      warrants not              $6,349,000.00                                          6,349,000          $1.24                         $1,507,379.58    $478,590.75                                      $522,262.58
             15,14          w/ Exercised
          IA                                                              outstanding
9/12/2013                   Warrants                                                                                   ($78,563.80)
                                   Preferred                          Full investment
          Premier Service
                                   Stock w/                             outstanding;
2/20/2009 Bank, Riverside,                            $4,000,000.00                                                                      $4,000,000.00                                                                                       $3.61                             $54,500.00
                                   Exercised                                 warrants
          CA8
                                   Warrants                               outstanding
2/13/2009                                                                                                                                        $0.00
              PremierWest          Preferred                           Redeemed, in
              Bancorp,             Stock w/          $41,400,000.00     full; warrants                                                                                                                                                                                      $1,046,500.00
4/9/2013      Medford, OR80        Warrants                           not outstanding             $41,400,000.00                                            41,400       $1,000.00

11/20/2009                                                                                                                                       $0.00
                                   Preferred
12/10/2012 Presidio Bank,                                                 Sold, in full;             $262,635.10                                               310         $847.20         ($47,364.90)                      $83,086.12
                                   Stock w/
           San Francisco,                            $10,800,000.00      warrants not                                                                                                                                                        $8.83                          $1,740,944.00
12/11/2012 CA8,17                  Exercised                                                       $8,887,232.90                                            10,490         $847.20     ($1,602,767.10)                      $195,295.20
                                                                          outstanding
                                   Warrants
1/11/2013                                                                                                              ($91,498.68)
1/23/2009                                                                                                                                        $0.00
          Princeton National Preferred
                                                                        Currently not
          Bancorp, Inc.,     Stock w/                $25,083,000.00                                                                                                                                                                          $0.01           155,025        $2,271,405.00
11/2/2012 Princeton, IL75,97 Warrants                                     collectible                                                                                                 ($25,083,000.00)


2/27/2009 Private                  Preferred          $4,960,000.00 Full investment                                                      $8,222,000.00
           Bancorporation,         Stock w/                           outstanding;
                                                                                                                                                                                                                                                                             $498,859.56
12/29/2009 Inc.,8,18Minneapolis,   Exercised          $3,262,000.00        warrants
                                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




           MN                      Warrants                             outstanding
1/30/2009                                                                                                                                        $0.00
                                  Preferred                            Redeemed, in
              PrivateBancorp,
10/24/2012                        Stock w/          $243,815,000.00     full; warrants           $243,815,000.00                                           243,815       $1,000.00                                                           $21.40                       $45,512,133.00
              Inc., Chicago, IL12
                                  Warrants                            not outstanding
11/14/2012                                                                                                                                                                                                                 $1,225,000.00
                                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                                             381
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                       (CONTINUED)                                                                                                                                                                                   382
                                                                                                                                                          Number     Average Price                                                          Stock Price       Current
Transaction                       Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                         as of      Outstanding   Dividends/Interest
Date        Institution           Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)            Gain4    Warrant Sales    9/30/135       Warrants      Paid to Treasury
10/2/2009                  Preferred                                                                                                            $0.00
          Providence Bank,                                            Redeemed, in
                           Stock w/
          Rocky Mount,                               $4,000,000.00     full; warrants                                                                                                                                                                                        $421,311.80
9/15/2011 NC 8,17,44       Exercised                                                              $4,000,000.00                                             4,000       $1,000.00                                            $175,000.00
                                                                     not outstanding
                           Warrants
11/14/2008                                                                                                                                      $0.00
          Provident
8/21/2012 Banshares       Preferred                                      Sold, in full;         $151,500,000.00                                           151,500       $1,000.00
          Corp./M&T Bank Stock w/                  $151,500,000.00      warrants not
3/20/2013 Corporation,    Warrants                                       outstanding                                                                                                                             $71.62
          Baltimore, MD88
3/25/2013                                                                                                                                                                                                 $19,047,005.12
             Provident                                               Full investment
                               Preferred
             Community                                                 outstanding;
3/13/2009                      Stock w/              $9,266,000.00                                                                      $9,266,000.00                                                                                         $0.60          178,880         $543,091.00
             Bancshares, Inc.,                                              warrants
                               Warrants
             Rock Hill, SC                                               outstanding
2/27/2009                         Preferred                                                                                                     $0.00
          PSB Financial                                               Redeemed, in
                                  Stock w/
          Corporation,                               $9,270,000.00     full; warrants                                                                                                                                                                                        $802,802.00
9/29/2010 Many, LA11,8,14         Exercised                                                       $9,270,000.00                                             9,270       $1,000.00                                            $464,000.00
                                                                     not outstanding
                                  Warrants
1/16/2009                         Preferred                                                                                                     $0.00
          Puget Sound                                                 Redeemed, in
                                  Stock w/
          Bank, Bellevue,                            $4,500,000.00     full; warrants                                                                                                                                                         $14.05                         $630,156.75
8/11/2011 WA44,8,14               Exercised                                                       $4,500,000.00                                             4,500       $1,000.00                                            $225,000.00
                                                                     not outstanding
                                  Warrants
1/16/2009                                                                                                                                       $0.00
             Pulaski Financial    Preferred                              Sold, in full;
7/3/2012     Corp, Creve          Stock w/          $32,538,000.00      warrants not             $28,893,744.00      ($433,406.16)                         32,538         $888.00     ($3,644,256.00)                                         $10.31                        $5,635,509.00
                                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




             Coeur, MO            Warrants                               outstanding
8/8/2012                                                                                                                                                                                                                    $1,100,000.00
2/13/2009                                                                                                                                       $0.00
                                  Preferred                           Redeemed, in
             QCR Holdings,
9/15/2011                         Stock w/          $38,237,000.00     full; warrants            $38,237,000.00                                            38,237       $1,000.00                                                             $15.89                        $4,949,567.33
             Inc., Moline, IL44
                                  Warrants                           not outstanding
11/16/2011                                                                                                                                                                                                                  $1,100,000.00
10/30/2009                 Preferred                                                                                                            $0.00
           Randolph Bank &                                            Redeemed, in
                           Stock w/
           Trust Company,                            $6,229,000.00     full; warrants                                                                                                                                                                                        $650,593.00
9/30/2013 Asheboro, NC8    Exercised                                                              $6,229,000.00                                             6,229       $1,000.00                                            $311,000.00
                                                                     not outstanding
                           Warrants
6/19/2009                         Preferred                                                                                                     $0.00
          RCB Financial                                                  Sold, in full;
                                  Stock w/
          Corporation,                               $8,900,000.00      warrants not                                                                                                                                                                                         $893,934.15
9/25/2013 Rome, GA8,17            Exercised                                                       $8,073,279.00                                             8,900         $907.10       ($826,721.00)                        $255,942.68
                                                                         outstanding
                                  Warrants
1/16/2009                  Preferred                                                                                                            $0.00
          Redwood Capital                                             Redeemed, in
                           Stock w/
          Bancorp, Eureka,                           $3,800,000.00     full; warrants                                                                                                                                                         $8.40                          $520,626.39
7/21/2011 CA44,8,14        Exercised                                                              $3,800,000.00                                             3,800       $1,000.00                                            $190,000.00
                                                                     not outstanding
                           Warrants
1/9/2009  Redwood                 Preferred                                                                                                     $0.00
                                                                      Redeemed, in
          Financial Inc.,         Stock w/
                                                     $2,995,000.00     full; warrants                                                                                                                                                         $25.00                         $425,811.00
8/18/2011 Redwood    Falls,       Exercised                                                       $2,995,000.00                                             2,995       $1,000.00                                            $150,000.00
                                                                     not outstanding
          MN44,8,14               Warrants
                              Preferred                              Full investment
             Regent Bancorp, Stock w/                                  outstanding;
3/6/2009                                             $9,982,000.00                                                                      $9,982,000.00                                                                                                                        $784,281.50
             Inc., Davie, FL8 Exercised                                     warrants
                              Warrants                                   outstanding
2/27/2009                   Preferred                                                                                                           $0.00
          Regent Capital                                              Redeemed, in
                            Stock w/
          Corporation,                               $2,655,000.00     full; warrants                                                                                                                                                                                        $347,328.00
7/21/2011 Nowata, OK44,8,14 Exercised                                not outstanding              $2,655,000.00                                             2,655       $1,000.00                                            $133,000.00
                            Warrants
10/23/2009 Regents                Preferred                                                                                                     $0.00
                                                                      Redeemed, in
           Bancshares,            Stock w/
                                                    $12,700,000.00     full; warrants                                                                                                                                                                                       $1,513,338.99
                  Vancouver,      Exercised                                                      $12,700,000.00                                            12,700       $1,000.00                                            $381,000.00
1/26/2012 Inc.,8,17,62                                               not outstanding
           WA                     Warrants
2/13/2009                                                                                                                                       $0.00
11/8/2012                    Preferred                                                              $246,975.00                                               267         $925.00         ($20,025.00)
          Regional                                                       Sold, in full;
                             Stock w/
11/9/2012 Bankshares, Inc.,                          $1,500,000.00      warrants not              $1,140,525.00                                             1,233         $925.00         ($92,475.00)                        $50,000.00                                     $305,660.00
                             Exercised
          Hartsville, SC8,14                                             outstanding
1/11/2013                    Warrants                                                                                 ($13,875.00)
3/26/2013                                                                                                             ($11,125.00)
11/14/2008                                                                                                                                      $0.00
             Regions Financial Preferred                              Redeemed, in
4/4/2012     Corporation,      Stock w/          $3,500,000,000.00     full; warrants         $3,500,000,000.00                                          3,500,000      $1,000.00                                                             $9.26                      $593,055,555.55
             Birmingham, AL11 Warrants                               not outstanding
5/2/2012                                                                                                                                                                                                                   $45,000,000.00
                                                                                                                                                                                                                                                                    Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                    (CONTINUED)
                                                                                                                                                        Number     Average Price                                                      Stock Price       Current
Transaction                    Investment                            Investment          Capital Repayment /                      Remaining Capital    of Shares       of Shares   (Realized Loss) /                                     as of      Outstanding   Dividends/Interest
Date        Institution        Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)         Gain4   Warrant Sales    9/30/135       Warrants      Paid to Treasury
2/13/2009                   Preferred                                                                                                        $0.00
          Reliance                                                    Sold, in full;
                            Stock w/
          Bancshares, Inc.,                      $40,000,000.00      warrants not                                                                                                                                                       $2.97                         $3,827,111.00
9/25/2013 Frontenac, MO8 Exercised                                    outstanding             $40,000,000.00                                             40,000       $1,004.90                         $196,000.00   $2,222,020.00
                            Warrants
2/27/2009 Ridgestone           Preferred                                                                                                     $0.00
                                                                      Sold, in full;
          Financial            Stock w/
2/20/2013                                        $10,900,000.00      warrants not              $8,966,340.00                                             10,900         $822.60     ($1,933,660.00)                    $476,206.83                                     $277,223.50
          Services, Inc.,      Exercised
                        8,14                                          outstanding
3/26/2013 Brookfield, WI       Warrants                                                                            ($89,663.40)
                               Preferred                          Full investment
             Rising Sun
                               Stock w/                             outstanding;
1/9/2009     Bancorp, Rising                      $5,983,000.00                                                                      $5,983,000.00                                                                                                                     $195,637.00
                               Exercised                                 warrants
             Sun, MD8
                               Warrants                               outstanding
6/12/2009 River Valley         Subordinated                                                                                                  $0.00
                                                                   Redeemed, in
          Bancorporation,      Debentures
6/6/2012                                         $15,000,000.00     full; warrants            $10,500,000.00                                          10,500,000          $1.00                                                         $24.47                        $4,178,275.00
          Inc., Wausau,        w/ Exercised
              5,11,14                                             not outstanding
5/15/2013 W1                   Warrants                                                        $4,500,000.00                                           4,500,000          $1.00                                        $750,000.00
                            Subordinated                          Full investment
          Riverside
                            Debentures                              outstanding;
5/15/2009 Bancshares, Inc.,                       $1,100,000.00                                                                      $1,100,000.00                                                                                                                     $346,088.00
                         15 w/ Exercised                                 warrants
          Little Rock, AR
                            Warrants                                  outstanding
1/30/2009 Rogers               Preferred                                                                                                     $0.00
          Bancshares,          Stock w/                             Currently not
                                                 $25,000,000.00                                                                                                                                                                                                        $738,021.00
7/5/2013 Inc., Little Rock,    Exercised                              collectible                                                                                                  ($25,000,000.00)
          AR8,95,97            Warrants
                                                                  Full investment
          Royal Bancshares Preferred
                                                                    outstanding;
2/20/2009 of Pennsylvania, Stock w/              $30,407,000.00                                                                     $30,407,000.00                                                                                      $1.36        1,104,370         $358,971.00
                                                                         warrants
          Inc., Narberth, PA Warrants
                                                                      outstanding
1/16/2009                                                                                                                                    $0.00
                               Preferred                           Redeemed, in
             S&T Bancorp,
12/7/2011                      Stock w/         $108,676,000.00     full; warrants           $108,676,000.00                                            108,676       $1,000.00                                                         $24.22                      $15,712,738.00
             Indiana, PA11
                               Warrants                           not outstanding
6/11/2013                                                                                                                                                                                                              $527,361.00
                            Preferred                             Full investment
           Saigon
                            Stock w/                                outstanding;
12/23/2008 National Bank,                         $1,549,000.00                                                                      $1,549,000.00                                                                                      $0.14                                 $0.00
                            Exercised                                    warrants
           Westminster, CA8
                            Warrants                                  outstanding
3/13/2009                                                                                                                                    $0.00
          Salisbury            Preferred                           Redeemed, in
8/25/2011 Bancorp, Inc.,       Stock w/           $8,816,000.00     full; warrants             $8,816,000.00                                               8,816      $1,000.00                                                         $26.11                        $1,079,960.44
          Lakeville, CT44      Warrants                           not outstanding
11/2/2011                                                                                                                                                                                                              $205,000.00
12/5/2008                                                                                                                                    $0.00
7/21/2010 Sandy Spring         Preferred                         Redeemed, in                 $41,547,000.00                                             41,547       $1,000.00
           Bancorp, Inc.,      Stock w/          $83,094,000.00   full; warrants                                                                                                                                                        $23.24                        $7,593,868.00
12/15/2010 Olney, MD11,44      Warrants                         not outstanding               $41,547,000.00                                             41,547       $1,000.00
2/23/2011                                                                                                                                                                                                             $4,450,000.00
2/13/2009                       Preferred                                                                                                    $0.00
             Santa Clara Valley                                       Sold, in full;
                                Stock w/
3/8/2013     Bank, N.A., Santa                    $2,900,000.00      warrants not              $2,465,029.00                                               2,900        $850.00       ($434,971.00)                     $98,251.45      $5.65                          $158,928.06
                      8,14      Exercised
             Paula, CA                                                outstanding
4/9/2013                        Warrants                                                                           ($25,000.00)
12/19/2008 Santa Lucia         Preferred                              Sold, in full;                                                         $0.00
           Bancorp,            Stock w/           $4,000,000.00      warrants not                                                                                                                                                                                      $331,111.11
10/21/2011 Atascadero, CA      Warrants                               outstanding              $2,800,000.00                                               4,000        $700.00     ($1,200,000.00)

3/27/2009                      Preferred                                                                                                     $0.00
          SBT Bancorp,                                             Redeemed, in
                               Stock w/
          Inc., Simsbury,                         $4,000,000.00     full; warrants                                                                                                                                                                                     $517,144.78
8/11/2011 CT44,8,14            Exercised                                                       $4,000,000.00                                               4,000      $1,000.00                                        $200,000.00
                                                                  not outstanding
                               Warrants
1/16/2009                                                                                                                                    $0.00
          SCBT Financial       Preferred                           Redeemed, in
5/20/2009 Corporation,         Stock w/          $64,779,000.00     full; warrants            $64,779,000.00                                             64,779       $1,000.00                                                         $55.16                        $1,115,638.84
          Columbia, SC11       Warrants                           not outstanding
6/24/2009                                                                                                                                                                                                             $1,400,000.00
12/19/2008                                                                                                                                   $0.00
             Seacoast Banking Preferred                               Sold, in full;
                                                                                                                                                                                                                                                                                       TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




4/3/2012     Corporation of      Stock w/        $50,000,000.00      warrants not             $41,020,000.00      ($615,300.00)                            2,000     $20,510.00     ($8,980,000.00)                                     $2.17                         $8,585,770.00
             Florida, Stuart, FL Warrants                             outstanding
5/30/2012                                                                                                                                                                                                               $55,000.00
12/23/2008 Seacoast            Preferred                                                                                                     $0.00
                                                                   Redeemed, in
           Commerce Bank,      Stock w/
                                                  $1,800,000.00     full; warrants                                                                                                                                                      $6.45                          $263,780.00
9/1/2011 Chula    Vista,       Exercised                                                       $1,800,000.00                                               1,800      $1,000.00                                         $90,000.00
                                                                  not outstanding
           CA44,8,14           Warrants
                                                                                                                                                                                                                                                              Continued on next page
                                                                                                                                                                                                                                                                                       383
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                     (CONTINUED)                                                                                                                                                                                   384
                                                                                                                                                         Number     Average Price                                                         Stock Price       Current
Transaction                     Investment                            Investment          Capital Repayment /                      Remaining Capital    of Shares       of Shares   (Realized Loss) /                                        as of      Outstanding   Dividends/Interest
Date        Institution         Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)           Gain4    Warrant Sales    9/30/135       Warrants      Paid to Treasury
2/13/2009                                                                                                                                     $0.00
12/10/2012 Security             Preferred                                                         $174,537.72                                                252         $692.60         ($77,462.28)
           Bancshares of                                               Sold, in full;
                                Stock w/
12/11/2012 Pulaski County,                         $2,152,000.00      warrants not              $1,315,959.00                                               1,900        $692.60        ($584,041.00)                       $69,186.80                                     $449,073.00
                                Exercised
           Inc., Waynesville,                                          outstanding
1/11/2013 MO8,14                Warrants                                                                            ($14,904.97)
3/26/2013                                                                                                           ($10,095.03)
1/9/2009                    Preferred                                                                                                         $0.00
          Security Business                                       Redeemed, in
                            Stock w/
          Bancorp, San                             $5,803,000.00   full; warrants                                                                                                                                                                                          $795,017.86
7/14/2011 Diego, CA44,8,14  Exercised                                                           $5,803,000.00                                               5,803      $1,000.00                                           $290,000.00
                                                                 not outstanding
                            Warrants
1/9/2009                       Preferred                                                                                                      $0.00
          Security California                                       Redeemed, in
                               Stock w/
          Bancorp,                                 $6,815,000.00     full; warrants                                                                                                                                                         $9.85                          $996,698.33
9/15/2011 Riverside, CA44,8,14 Exercised                           not outstanding              $6,815,000.00                                               6,815      $1,000.00                                           $341,000.00
                               Warrants
6/26/2009 Security Capital      Preferred                                                                                                     $0.00
                                                                    Redeemed, in
          Corporation,          Stock w/
                                                  $17,388,000.00     full; warrants                                                                                                                                                                                       $1,153,111.00
9/29/2010 Batesville,           Exercised                                                      $17,388,000.00                                             17,388       $1,000.00                                           $522,000.00
                                                                   not outstanding
          MS11,8,14,36          Warrants
12/19/2008                                                                                                                                    $0.00
           Security Federal     Preferred                           Redeemed, in
9/29/2010 Corporation,          Stock w/          $18,000,000.00     full; warrants            $18,000,000.00                                             18,000       $1,000.00                                                            $13.30                        $1,600,000.00
           Aiken, SC11,36       Warrants                           not outstanding
7/31/2013                                                                                                                                                                                                                   $50,000.00
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




2/20/2009 Security State        Preferred                                                                                                     $0.00
                                                                    Redeemed, in
          Bancshares,           Stock w/
                                                  $12,500,000.00     full; warrants                                                                                                                                                                                       $1,763,679.86
                 Charleston,    Exercised                                                      $12,500,000.00                                             12,500       $1,000.00                                           $625,000.00
9/22/2011 Inc.,44,8,14                                             not outstanding
          MO                    Warrants
5/1/2009  Security State                                                                                                                      $0.00
                                Subordinated
          Bank Holding-                                                Sold, in full;
6/24/2013 Company,              Debentures                                                     $10,750,000.00                                          10,750,000          $1.17                         $1,784,607.50     $720,368.55
                                                  $10,750,000.00      warrants not                                                                                                                                                                                        $1,414,005.16
                                w/ Exercised
          Jamestown,                                                   outstanding
7/26/2013 ND15,14               Warrants                                                                           ($125,346.08)

11/21/2008 Severn Bancorp, Preferred                                   Sold, in full;                                                         $0.00
           Inc., Annapolis, Stock w/              $23,393,000.00          warrants                                                                                                                                                          $5.24          556,976        $3,781,869.00
9/25/2013 MD                Warrants                                   outstanding             $23,367,267.70                                             23,393         $998.90         ($25,732.30)

1/9/2009                                                                                                                                      $0.00
           Shore            Preferred                               Redeemed, in
4/15/2009 Bancshares, Inc., Stock w/              $25,000,000.00     full; warrants            $25,000,000.00                                             25,000       $1,000.00                                                            $8.80          172,970         $333,333.33
           Easton, MD11     Warrants                               not outstanding
11/16/2011                                                                                                                                                                                                                  $25,000.00
6/26/2009                     Subordinated                                                                                                    $0.00
           Signature                                                Redeemed, in
                              Debentures
           Bancshares, Inc.,                       $1,700,000.00     full; warrants                                                                                                                                                                                        $209,587.59
12/15/2010 Dallas, TX15,11,14 w/ Exercised                         not outstanding              $1,700,000.00                                           1,700,000          $1.00                                            $85,000.00
                              Warrants
12/12/2008                                                                                                                                    $0.00
                                Preferred                           Redeemed, in
             Signature Bank,
3/31/2009                       Stock w/         $120,000,000.00     full; warrants           $120,000,000.00                                            120,000       $1,000.00                                                            $91.52                        $1,816,667.00
             New York, NY11
                                Warrants                           not outstanding
3/16/2010                                                                                                                                                                                                                $11,150,939.74
1/16/2009 Somerset                                                                                                                            $0.00
                                Preferred                           Redeemed, in
          Hills Bancorp,
5/20/2009                       Stock w/           $7,414,000.00     full; warrants             $7,414,000.00                                               7,414      $1,000.00                                                                                           $127,685.55
          Bernardsville,
             11                 Warrants                           not outstanding
6/24/2009 NJ                                                                                                                                                                                                               $275,000.00
2/20/2009                   Preferred                                                                                                         $0.00
          Sonoma Valley
                            Stock w/                                 Currently not
          Bancorp,                                 $8,653,000.00                                                                                                                                                                                                           $347,164.00
8/20/2010 Sonoma, CA8,32,97 Exercised                                  collectible                                                                                                    ($8,653,000.00)
                            Warrants
1/9/2009  Sound Banking         Preferred                                                                                                     $0.00
                                                                       Sold, in full;
          Company,              Stock w/
11/13/2012                                         $3,070,000.00      warrants not              $2,832,412.70                                               3,070        $922.60        ($237,587.30)                      $124,412.34      $6.20                          $643,399.00
          Morehead City,        Exercised
             8,14                                                      outstanding
1/11/2013 NC                    Warrants                                                                            ($25,000.00)
12/5/2008 South Financial       Preferred                              Sold, in full;                                                         $0.00
          Group, Inc.,          Stock w/         $347,000,000.00      warrants not                                                                                                                                                                                      $16,386,111.00
9/30/2010 Greenville, SC        Warrants                               outstanding            $130,179,218.75                                          130,179.22      $1,000.00    ($216,820,781.25)                      $400,000.00

7/17/2009                                                                                                                                     $0.00
          SouthCrest            Preferred
3/8/2013                                                               Sold, in full;           $1,814,620.00                                               2,000        $907.30        ($185,380.00)
          Financial Group,      Stock w/
                                                  $12,900,000.00      warrants not                                                                                                                                                          $5.45                          $933,494.05
3/11/2013 Inc., Fayetteville,   Exercised                                                       $9,889,679.00                                             10,900         $907.30      ($1,010,321.00)                      $588,264.19
                                                                       outstanding
          GA8,14                Warrants
4/9/2013                                                                                                           ($117,042.99)
                                                                                                                                                                                                                                                                  Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                    (CONTINUED)
                                                                                                                                                        Number     Average Price                                                         Stock Price       Current
Transaction                    Investment                            Investment          Capital Repayment /                      Remaining Capital    of Shares       of Shares   (Realized Loss) /                                        as of      Outstanding   Dividends/Interest
Date        Institution        Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)           Gain4    Warrant Sales    9/30/135       Warrants      Paid to Treasury
1/16/2009 Southern                                                                                                                           $0.00
                                                                   Redeemed, in
          Bancorp, Inc.,       Preferred
                                                 $11,000,000.00     full; warrants                                                                                                                                                                                        $855,555.56
8/6/2010 Arkadelphia,          Stock                                                          $11,000,000.00                                             11,000       $1,000.00
                                                                  not outstanding
          AR11,9,36

12/5/2008 Southern                                                                                                                           $0.00
          Community            Preferred                           Redeemed, in
          Financial Corp.,     Stock w/          $42,750,000.00     full; warrants                                                                                                                                                                                       $8,338,046.00
10/1/2012 Winston-Salem,       Warrants                           not outstanding             $42,750,000.00                                             42,750       $1,000.00
          NC
2/27/2009                                                                                                                                    $0.00
            Southern First    Preferred                               Sold, in full;
7/3/2012    Bancshares, Inc., Stock w/           $17,299,000.00      warrants not             $15,638,296.00      ($234,574.44)                          17,299         $904.00     ($1,660,704.00)                                        $13.20                        $2,897,640.00
            Greenville, SC    Warrants                                outstanding
7/25/2012                                                                                                                                                                                                                $1,100,000.00
5/15/2009 Southern Heritage Preferred                                                                                                        $0.00
                                                                   Redeemed, in
          Bancshares,       Stock w/
                                                  $4,862,000.00     full; warrants                                                                                                                                                                                        $613,111.14
9/8/2011 Inc., Cleveland, Exercised                                                            $4,862,000.00                                               4,862      $1,000.00                                           $243,000.00
                                                                  not outstanding
          TN8,45,14         Warrants
1/23/2009                      Preferred                                                                                                     $0.00
          Southern Illinois                                        Redeemed, in
                               Stock w/
          Bancorp, Inc.,                          $5,000,000.00     full; warrants                                                                                                                                                                                        $705,472.22
8/25/2011 Carmi, IL44,8,14     Exercised                                                       $5,000,000.00                                               5,000      $1,000.00                                           $250,000.00
                                                                  not outstanding
                               Warrants
12/5/2008 Southern Missouri                                                                                                                  $0.00
                            Preferred                              Redeemed, in
          Bancorp, Inc.,
                            Stock w/              $9,550,000.00     full; warrants                                                                                                                                                         $26.60         114,326        $1,254,763.89
7/21/2011 Poplar Bluff,                                                                        $9,550,000.00                                               9,550      $1,000.00
             44             Warrants                                 outstanding
          MO
                            Preferred                             Full investment
          SouthFirst
                            Stock w/                                outstanding;
6/12/2009 Bancshares, Inc.,                       $2,760,000.00                                                                      $2,760,000.00                                                                                         $2.50                          $364,796.34
                        8   Exercised                                    warrants
          Sylacauga, AL
                            Warrants                                  outstanding
12/5/2008                                                                                                                                    $0.00
            Southwest          Preferred                           Redeemed, in
8/8/2012    Bancorp, Inc.,     Stock w/          $70,000,000.00     full; warrants            $70,000,000.00                                             70,000       $1,000.00                                                            $14.81                      $12,960,373.00
            Stillwater, OK11   Warrants                           not outstanding
5/29/2013                                                                                                                                                                                                                $2,287,197.00
3/13/2009                   Preferred                                                                                                        $0.00
          Sovereign                                                Redeemed, in
                            Stock w/
          Bancshares, Inc.,                      $18,215,000.00     full; warrants                                                                                                                                                                                       $2,506,668.61
9/22/2011 Dallas, TX44,8,14 Exercised                                                         $18,215,000.00                                             18,215       $1,000.00                                           $911,000.00
                                                                  not outstanding
                            Warrants
                               Preferred                          Full investment
            Spirit BankCorp, Stock w/                               outstanding;
3/27/2009                                        $30,000,000.00                                                                     $30,000,000.00                                                                                                                       $2,261,750.00
            Inc., Bristow, OK8 Exercised                                 warrants
                               Warrants                               outstanding
                            Preferred                             Full investment
          St. Johns
                            Stock w/                                outstanding;
3/13/2009 Bancshares, Inc.,                       $3,000,000.00                                                                      $3,000,000.00                                                                                                                        $723,033.00
                            Exercised                                    warrants
          St. Louis, MO8
                            Warrants                                  outstanding
4/24/2009 Standard             Preferred                                                                                                     $0.00
                                                                   Redeemed, in
          Bancshares, Inc.,    Stock w/
                                                 $60,000,000.00     full; warrants                                                                                                                                                                                     $12,757,163.00
2/22/2013 Hickory   Hills,     Exercised                                                      $60,000,000.00                                          12,903,226      $1,432.56                         $3,000,000.00
                                                                  not outstanding
          IL74,8,14            Warrants
12/5/2008 State Bancorp,                                                                                                                     $0.00
                             Preferred                             Redeemed, in
           Inc./Valley
                             Stock w/            $36,842,000.00     full; warrants
12/14/2011 National Bancorp,
                       11,61 Warrants                                outstanding              $36,842,000.00                                             36,842       $1,000.00
           Jericho, NY
9/4/2009                       Subordinated                                                                                                  $0.00
          State Bank of                                            Redeemed, in
                               Debentures
          Bartley,Bartley,                        $1,697,000.00     full; warrants                                                                                                                                                                                        $282,299.18
9/22/2011 NE15,17,44           w/ Exercised                                                    $1,697,000.00                                           1,697,000          $1.00                                            $51,000.00
                                                                  not outstanding
                               Warrants
1/16/2009                   Preferred                                                                                                        $0.00
          State Bankshares,                                        Redeemed, in
                            Stock w/
8/12/2009 Inc., Fargo,                           $50,000,000.00     full; warrants            $12,500,000.00                                             12,500       $1,000.00                                                                                          $5,508,472.00
                            Exercised
          ND8,11                                                  not outstanding
6/29/2011                   Warrants                                                          $37,500,000.00                                             37,500       $1,000.00                                          $2,500,000.00
2/13/2009 State Capital        Preferred                                                                                                     $0.00
                                                                   Redeemed, in
          Corporation,         Stock w/
                                                 $15,000,000.00     full; warrants                                                                                                                                                                                       $1,330,708.67
                                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




9/29/2010 Greenwood,           Exercised                                                      $15,000,000.00                                             15,000       $1,000.00                                           $750,000.00
                                                                  not outstanding
          MS8,36,11            Warrants
10/28/2008                                                                                                                                   $0.00
           State Street        Preferred                           Redeemed, in
6/17/2009 Corporation,         Stock w/       $2,000,000,000.00     full; warrants         $2,000,000,000.00                                             20,000     $100,000.00                                                            $65.75                      $63,611,111.00
           Boston, MA12,16     Warrants                           not outstanding
7/8/2009                                                                                                                                                                                                                $60,000,000.00
                                                                                                                                                                                                                                                                 Continued on next page
                                                                                                                                                                                                                                                                                          385
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                      (CONTINUED)                                                                                                                                                                             386
                                                                                                                                                            Number     Average Price                                                 Stock Price       Current
Transaction                    Investment                              Investment          Capital Repayment /                        Remaining Capital    of Shares       of Shares   (Realized Loss) /                                as of      Outstanding   Dividends/Interest
Date        Institution        Description1     Investment Amount         Status*        Disposition / Auction2,4     Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4    Warrant Sales    9/30/135       Warrants      Paid to Treasury
6/26/2009                     Subordinated                                                                                                       $0.00
          Stearns Financial                                          Redeemed, in
                              Debentures
          Services, Inc., St.                      $24,900,000.00     full; warrants                                                                                                                                                                                 $5,350,442.29
1/18/2012 Cloud, MN15,11,14 w/ Exercised                            not outstanding             $24,900,000.00                                            24,900,000          $1.00                                  $1,245,000.00
                              Warrants
9/25/2009                        Subordinated                                                                                                    $0.00
             Steele Street                                           Redeemed, in
                                 Debentures
             Bank Corporation,                     $11,019,000.00     full; warrants                                                                                                                                                                                 $1,728,672.60
9/1/2011                15,17,45 w/ Exercised                                                   $11,019,000.00                                            11,019,000          $1.00                                   $331,000.00
             Denver, CO                                             not outstanding
                                 Warrants
12/19/2008 StellarOne                                                                                                                            $0.00
                               Preferred                             Redeemed, in
           Corporation,
4/13/2011                      Stock w/            $30,000,000.00     full; warrants             $7,500,000.00                                                7,500       $1,000.00                                                    $22.50         302,623        $4,271,875.00
           Charlottesville,
              11               Warrants                                outstanding
12/28/2011 VA                                                                                   $22,500,000.00                                               22,500       $1,000.00
12/23/2008                                                                                                                                       $0.00
                               Preferred                             Redeemed, in
             Sterling Bancorp,
4/27/2011                      Stock w/            $42,000,000.00     full; warrants            $42,000,000.00                                               42,000       $1,000.00                                                    $13.73                        $4,923,333.00
             New York, NY11
                               Warrants                             not outstanding
5/18/2011                                                                                                                                                                                                             $945,775.00
12/12/2008                                                                                                                                       $0.00
             Sterling          Preferred                             Redeemed, in
5/5/2009     Bancshares, Inc., Stock w/           $125,198,000.00     full; warrants           $125,198,000.00                                              125,198       $1,000.00                                                                                  $2,486,571.39
             Houston, TX11     Warrants                             not outstanding
6/15/2010                                                                                                                                                                                                            $2,857,914.52
12/5/2008                                                                                                                                        $0.00
          Sterling Financial Preferred                                  Sold, in full;
8/20/2012 Corporation,       Stock w/             $303,000,000.00      warrants not            $114,772,740.00      ($1,434,659.25)                        5,738,637         $20.00    ($188,227,260.00)                               $28.65                        $7,594,129.00
          Spokane, WA31      Warrants                                   outstanding
                                                                                                                                                                                                                                                                                      APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




9/19/2012                                                                                                                                                                                                             $825,000.00
1/30/2009 Stewardship                                                                                                                            $0.00
           Financial           Preferred                             Redeemed, in
9/1/2011 Corporation,          Stock w/            $10,000,000.00     full; warrants            $10,000,000.00                                               10,000       $1,000.00                                                    $5.35                         $1,293,055.22
           Midland Park,       Warrants                             not outstanding
10/26/2011 NJ44                                                                                                                                                                                                       $107,398.00

2/6/2009 Stockmens                                                                                                                               $0.00
                               Preferred
          Financial                                                  Redeemed, in
1/12/2011 Corporation,         Stock w/                                                          $4,000,000.00                                                 4,000      $1,000.00
                                                   $15,568,000.00     full; warrants                                                                                                                                                                                 $1,755,554.00
                               Exercised
          Rapid City,                                               not outstanding
3/16/2011 SD11,8,14            Warrants                                                         $11,568,000.00                                               11,568       $1,000.00                                   $778,000.00

1/23/2009                                                                                                                                        $0.00
          Stonebridge          Preferred
3/26/2013 Financial Corp.,                                              Sold, in full;           $1,796,209.03                                               10,351         $173.50      ($8,554,790.97)              $130,704.17
                               Stock w/
                                                   $10,973,000.00      warrants not                                                                                                                                                                                   $634,609.11
3/27/2013 West   Chester,      Exercised                                                           $107,935.66                                                  622         $173.50        ($514,064.34)                 $8,358.99
                                                                        outstanding
          PA8,14               Warrants
4/9/2013                                                                                                               ($25,000.00)
                               Subordinated                       Full investment
          Suburban Illinois
                               Debentures                           outstanding;
6/19/2009 Bancorp, Inc.,                           $15,000,000.00                                                                       $15,000,000.00                                                                                                               $2,083,520.25
                               w/ Exercised                              warrants
          Elmhurst, IL15
                               Warrants                               outstanding
12/19/2008                                                                                                                                       $0.00
             Summit State      Preferred                             Redeemed, in
8/4/2011     Bank, Santa       Stock w/             $8,500,000.00     full; warrants             $8,500,000.00                                                 8,500      $1,000.00                                                    $9.36                         $1,115,625.00
             Rosa, CA44        Warrants                             not outstanding
9/14/2011                                                                                                                                                                                                             $315,000.00
1/9/2009                                                                                                                                         $0.00
             Sun Bancorp,      Preferred                             Redeemed, in
4/8/2009     Inc., Vineland,   Stock w/            $89,310,000.00     full; warrants            $89,310,000.00                                               89,310       $1,000.00                                                    $3.83                         $1,103,970.83
             NJ11              Warrants                             not outstanding
5/27/2009                                                                                                                                                                                                            $2,100,000.00
11/14/2008                                      $3,500,000,000.00                                                                                $0.00
12/31/2008 SunTrust Banks, Preferred                               Redeemed, in
                           11 Stock w/                              full; warrants                                                                                                                                                     $32.42                     $567,986,111.00
3/30/2011 Inc., Atlanta, GA Warrants            $1,350,000,000.00 not outstanding            $4,850,000,000.00                                               48,500     $100,000.00
9/28/2011                                                                                                                                                                                                           $30,066,661.40
12/5/2008 Superior Bancorp Preferred                                                                                                             $0.00
                                                                      Currently not
          Inc., Birmingham, Stock w/               $69,000,000.00                                                                                                                                                                                   1,923,792        $4,983,333.00
4/15/2011 AL24,49,97                                                    collectible                                                                                                     ($69,000,000.00)
                            Warrants
1/9/2009                       Preferred                                                                                                         $0.00
           Surrey Bancorp,                                           Redeemed, in
                               Stock w/
           Mount Airy,                              $2,000,000.00     full; warrants                                                                                                                                                   $11.00                         $214,972.22
12/29/2010 NC11,8,14           Exercised                                                         $2,000,000.00                                                 2,000      $1,000.00                                   $100,000.00
                                                                    not outstanding
                               Warrants
                                                                                                                                                                                                                                                             Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                      (CONTINUED)
                                                                                                                                                            Number     Average Price                                                     Stock Price       Current
Transaction                      Investment                            Investment          Capital Repayment /                        Remaining Capital    of Shares       of Shares   (Realized Loss) /                                    as of      Outstanding   Dividends/Interest
Date        Institution          Description1   Investment Amount         Status*        Disposition / Auction2,4     Auction Fee3             Amount      Disposed        Disposed           (Write-off)        Gain4   Warrant Sales    9/30/135       Warrants      Paid to Treasury
12/12/2008                                                                                                                                       $0.00
4/21/2010 Susquehanna       Preferred                              Redeemed, in                $200,000,000.00                                              200,000       $1,000.00
           Bancshares, Inc, Stock w/              $300,000,000.00   full; warrants                                                                                                                                                         $12.53                      $23,722,222.00
12/22/2010 Lititz, PA11     Warrants                              not outstanding              $100,000,000.00                                              100,000       $1,000.00
1/19/2011                                                                                                                                                                                                                $5,269,179.36
4/10/2009                     Preferred                                                                                                          $0.00
                                                                   Redeemed, in
          SV Financial, Inc., Stock w/
                      11,8,14                       $4,000,000.00   full; warrants                                                                                                                                                                                        $521,382.89
8/31/2011 Sterling, IL        Exercised                                                          $4,000,000.00                                                4,000       $1,000.00                                       $200,000.00
                                                                  not outstanding
                              Warrants
12/12/2008                                                                                                                                       $0.00
           SVB Financial         Preferred                           Redeemed, in
12/23/2009 Group, Santa          Stock w/         $235,000,000.00     full; warrants           $235,000,000.00                                              235,000       $1,000.00                                                        $86.37                      $12,109,027.78
           Clara, CA12,16        Warrants                           not outstanding
6/16/2010                                                                                                                                                                                                                $6,820,000.00
5/8/2009                      Subordinated                                                                                                       $0.00
          Sword Financial                                            Redeemed, in
                              Debentures
          Corporation,                             $13,644,000.00     full; warrants                                                                                                                                                                                     $2,693,234.00
9/15/2011 Horicon, WI15,44,14 w/ Exercised                          not outstanding             $13,644,000.00                                            13,644,000          $1.00                                       $682,000.00
                              Warrants
12/19/2008 Synovus Financial Preferred                               Redeemed, in                                                                $0.00
           Corp., Columbus, Stock w/              $967,870,000.00     full; warrants                                                                                                                                                       $3.30       15,510,737     $222,744,526.00
7/26/2013 GA11               Warrants                                  outstanding             $967,870,000.00                                              967,870       $1,000.00

                              Preferred                             Full investment
             Syringa Bancorp, Stock w/                                outstanding;
1/16/2009                                           $8,000,000.00                                                                        $8,000,000.00                                                                                     $0.18                          $253,122.22
             Boise, ID8       Exercised                                    warrants
                              Warrants                                  outstanding
11/21/2008                                                                                                                                       $0.00
           Taylor Capital  Preferred                                    Sold, in full;
6/19/2012 Group, Rosemont, Stock w/               $104,823,000.00      warrants not             $93,659,350.50      ($1,404,890.26)                         104,823         $893.50    ($11,163,649.50)                                    $22.15                      $18,751,437.56
           IL              Warrants                                     outstanding
7/18/2012                                                                                                                                                                                                                $9,839,273.00
8/28/2009                     Subordinated                                                                                                       $0.00
             TCB Corporation,                                        Redeemed, in
                              Debentures
             Greenwood,                             $9,720,000.00     full; warrants                                                                                                                                                                                     $1,599,381.34
9/8/2011                      w/ Exercised                                                       $9,720,000.00                                             9,720,000          $1.00                                       $292,000.00
             SC15,17,45                                             not outstanding
                              Warrants
          TCB Holding
                                 Preferred                          Full investment
          Company, Texas
                                 Stock w/                             outstanding;
1/16/2009 Community Bank,                          $11,730,000.00                                                                       $11,730,000.00                                                                                                                    $690,832.08
                                 Exercised                                 warrants
          The Woodlands,
                                 Warrants                               outstanding
          TX8
11/14/2008                                                                                                                                       $0.00
           TCF Financial         Preferred                           Redeemed, in
4/22/2009 Corporation,           Stock w/         $361,172,000.00     full; warrants           $361,172,000.00                                              361,172       $1,000.00                                                        $14.28                        $7,925,719.00
           Wayzata, MN11         Warrants                           not outstanding
12/21/2009                                                                                                                                                                                                               $9,449,980.56
12/23/2008                       Preferred                                                                                                       $0.00
             TCNB Financial                                          Redeemed, in
                                 Stock w/
             Corp., Dayton,                         $2,000,000.00     full; warrants                                                                                                                                                                                      $284,611.11
8/3/2011                         Exercised                                                       $2,000,000.00                                                2,000       $1,000.00                                       $100,000.00
             OH11,8,14                                              not outstanding
                                 Warrants
12/19/2008 Tennessee                                                                                                                             $0.00
                                 Preferred
           Commerce                                                   Currently not
                                 Stock w/          $30,000,000.00                                                                                                                                                                                         461,538        $3,233,333.33
1/27/2012 Bancorp, Inc.,                                                collectible                                                                                                    ($30,000,000.00)
                                 Warrants
           Franklin, TN63,97
12/23/2008                                                                                                                                       $0.00
           Tennessee             Preferred
4/26/2013 Valley Financial                                              Sold, in full;             $298,000.00                                                  298       $1,022.10                          $6,588.78     $19,218.87
                                 Stock w/
                                                    $3,000,000.00      warrants not                                                                                                                                                                                       $146,241.67
                                 Exercised                                                       $2,702,000.00                                                 2,702      $1,022.10                         $59,741.22    $124,922.63
4/29/2013 Holdings, Inc., 8,14                                          outstanding
           Oak Ridge, TN         Warrants
5/31/2013                                                                                                              ($25,000.00)
1/16/2009                                                                                                                                        $0.00
          Texas Capital     Preferred                              Redeemed, in
5/13/2009 Bancshares, Inc., Stock w/               $75,000,000.00   full; warrants              $75,000,000.00                                               75,000       $1,000.00                                                        $45.89                        $1,218,750.00
          Dallas, TX11      Warrants                              not outstanding
3/17/2010                                                                                                                                                                                                                $6,559,066.21
1/9/2009  Texas National         Preferred                                                                                                       $0.00
                                                                     Redeemed, in
          Bancorporation,        Stock w/
                                                    $3,981,000.00     full; warrants                                                                                                                                                                                      $295,308.00
5/19/2010 Jacksonville,          Exercised                                                       $3,981,000.00                                                3,981       $1,000.00                                       $199,000.00
                                                                    not outstanding
          TX11,8,14              Warrants
                                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




8/7/2009                         Preferred                                                                                                       $0.00
          The ANB                                                    Redeemed, in
                                 Stock w/
          Corporation,                             $20,000,000.00     full; warrants                                                                                                                                                                                     $2,234,499.98
8/25/2011 Terrell, TX44,8,14     Exercised                                                      $20,000,000.00                                               20,000       $1,000.00                                      $1,000,000.00
                                                                    not outstanding
                                 Warrants
                                                                                                                                                                                                                                                                 Continued on next page
                                                                                                                                                                                                                                                                                          387
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                    (CONTINUED)                                                                                                                                                                           388
                                                                                                                                                       Number     Average Price                                                  Stock Price       Current
Transaction                    Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                 as of      Outstanding   Dividends/Interest
Date        Institution        Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4     Warrant Sales    9/30/135       Warrants      Paid to Treasury
12/12/2008                                                                                                                                   $0.00
           The Bancorp,     Preferred                              Redeemed, in
3/10/2010 Inc., Wilmington, Stock w/             $45,220,000.00     full; warrants            $45,220,000.00                                            45,220       $1,000.00                                                     $17.69                        $2,813,688.89
           DE12,16          Warrants                              not outstanding
9/8/2010                                                                                                                                                                                                         $4,753,984.55
2/6/2009                       Preferred                                                                                                     $0.00
          The Bank of                                                 Sold, in full;
                               Stock w/
          Currituck,                              $4,021,000.00      warrants not                                                                                                                                                                                 $169,834.00
12/3/2010 Moyock, NC8          Exercised                                                       $1,742,850.00                                             4,021         $433.40     ($2,278,150.00)
                                                                      outstanding
                               Warrants
2/13/2009 The Bank                                                                                                                           $0.00
12/22/2010 of Kentucky         Preferred                         Redeemed, in                 $17,000,000.00                                            17,000       $1,000.00
           Financial
                               Stock w/          $34,000,000.00   full; warrants                                                                                                                                                   $27.31         276,078        $3,940,694.00
11/23/2011 Corporation,                                                                       $17,000,000.00                                            17,000       $1,000.00
                               Warrants                         not outstanding
           Crestview Hills,
5/29/2013 KY11                                                                                                                                                                                                   $2,150,648.55

1/16/2009                                                                                                                                    $0.00
                               Preferred
12/10/2012 The Baraboo                                                Sold, in full;           $1,956,900.00                                             3,000         $652.30     ($1,043,100.00)                $403,161.92
                               Stock w/
           Bancorporation,                       $20,749,000.00      warrants not                                                                                                                                                  $2.04                         $3,766,127.00
12/11/2012 Baraboo, WI8,14     Exercised                                                      $11,577,672.70                                            17,749         $652.30     ($6,171,327.30)                $455,316.35
                                                                      outstanding
                               Warrants
1/11/2013                                                                                                         ($135,345.73)
12/19/2008 The Connecticut                                                                                                                   $0.00
                               Preferred                         Redeemed, in
           Bank and Trust
                               Stock w/           $5,448,000.00   full; warrants                                                                                                                                                                                  $662,083.00
4/19/2012 Company,             Warrants                         not outstanding                $5,448,000.00                                             5,448       $1,000.00                                    $792,783.00
           Hartford, CT
                                                                                                                                                                                                                                                                                  APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




12/19/2008 The Elmira       Preferred                              Redeemed, in                                                              $0.00
           Savings Bank,    Stock w/              $9,090,000.00     full; warrants                                                                                                                                                 $24.28         116,538        $1,219,575.00
8/25/2011 FSB, Elmira, NY44 Warrants                                 outstanding               $9,090,000.00                                             9,090       $1,000.00

1/9/2009                                                                                                                                     $0.00
          The First
8/24/2011 Bancorp, Inc.,       Preferred                           Redeemed, in               $12,500,000.00                                            12,500       $1,000.00
                               Stock w/          $25,000,000.00     full; warrants                                                                                                                                                 $16.65         225,904        $4,332,986.00
3/27/2013 Damariscotta,        Warrants                              outstanding               $2,500,000.00                                             2,500       $1,000.00
          ME11
5/8/2013                                                                                      $10,000,000.00                                            10,000       $1,000.00
2/6/2009  The First                                                                                                                          $0.00
                              Preferred                            Redeemed, in
          Bancshares,
                              Stock w/            $5,000,000.00     full; warrants                                                                                                                                                                 54,705         $411,805.56
                 Hattiesburg,                                                                  $5,000,000.00                                             5,000       $1,000.00
9/29/2010 Inc.,11,36          Warrants                               outstanding
          MS
2/27/2009                     Preferred                                                                                                      $0.00
          The First State                                          Redeemed, in
                              Stock w/
          Bank of Mobeetie,                         $731,000.00     full; warrants                                                                                                                                                                                  $45,086.56
4/14/2010 Mobeetie, TX11,8,14 Exercised                           not outstanding                $731,000.00                                               731       $1,000.00                                      $37,000.00
                              Warrants
2/6/2009                       Preferred                                                                                                     $0.00
           The Freeport                                            Redeemed, in
                               Stock w/
           State Bank,                              $301,000.00     full; warrants                                                                                                                                                                                  $63,459.00
12/19/2012 Harper, KS11,8,14   Exercised                                                         $301,000.00                                               301       $1,000.00                                      $15,000.00
                                                                  not outstanding
                               Warrants
6/26/2009 The Hartford                                                                                                                       $0.00
                             Preferred                             Redeemed, in
          Financial Services
3/31/2010                    Stock w/         $3,400,000,000.00     full; warrants         $3,400,000,000.00                                          3,400,000      $1,000.00                                                                                $129,861,111.11
          Group, Inc.
                      11     Warrants                             not outstanding
9/27/2010 Hartford CT                                                                                                                                                                                          $706,264,559.89
5/22/2009 The Landrum          Preferred                                                                                                     $0.00
                                                                   Redeemed, in
          Company,             Stock w/
                                                 $15,000,000.00     full; warrants                                                                                                                                                                               $1,830,291.55
8/18/2011 Columbia,            Exercised                                                      $15,000,000.00                                            15,000       $1,000.00                                    $750,000.00
                                                                  not outstanding
          MO8,44,14            Warrants
12/23/2008                     Preferred                                                                                                     $0.00
           The Little Bank,                                           Sold, in full;
                               Stock w/
10/31/2012 Incorporated,                          $7,500,000.00      warrants not              $7,359,000.00                                             7,500         $981.20       ($141,000.00)                $371,250.00                                    $1,575,992.00
                               Exercised
           Kinston, NC8,14                                            outstanding
1/11/2013                      Warrants                                                                            ($73,590.00)
12/31/2008 The PNC Financial                                                                                                                 $0.00
                             Preferred                             Redeemed, in
           Services Group
2/10/2010                    Stock w/         $7,579,200,000.00     full; warrants         $7,579,200,000.00                                            75,792     $100,000.00                                                     $72.45                     $421,066,667.00
           Inc., Pittsburgh,
              11             Warrants                             not outstanding
5/5/2010 PA                                                                                                                                                                                                    $320,372,284.16
2/20/2009                       Preferred                                                                                                    $0.00
             The Private Bank                                      Redeemed, in
                                Stock w/
             of California, Los                   $5,450,000.00     full; warrants                                                                                                                                                                                $751,752.14
9/1/2011                        Exercised                                                      $5,450,000.00                                             5,450       $1,000.00                                    $273,000.00
             Angeles, CA44,8,14                                   not outstanding
                                Warrants
                                                                                                                                                                                                                                                         Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                     (CONTINUED)
                                                                                                                                                        Number     Average Price                                                Stock Price       Current
Transaction                     Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividends/Interest
Date        Institution         Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4   Warrant Sales    9/30/135       Warrants      Paid to Treasury
1/9/2009                                                                                                                                      $0.00
          The                   Preferred
3/8/2013                                                               Sold, in full;             $244,225.00                                               250         $976.90          ($5,775.00)               $4,806.45
          Queensborough         Stock w/
                                                  $12,000,000.00      warrants not                                                                                                                                                                               $882,900.00
                                Exercised                                                      $11,478,575.00                                            11,750         $976.90       ($271,425.00)              $571,967.55
3/11/2013 Company, 8,14                                                outstanding
          Louisville, GA        Warrants
4/9/2013                                                                                                           ($117,228.00)
2/27/2009 The Victory           Preferred            $541,000.00                                                                              $0.00
                                                                  Redeemed, in
           Bancorp, Inc.,       Stock w/
12/11/2009                                                         full; warrants                                                                                                                                                                                $215,183.00
           Limerick,            Exercised          $1,505,000.00 not outstanding
             8,18,21,44
9/22/2011 PA                    Warrants                                                        $2,046,000.00                                             2,046       $1,000.00                                   $61,000.00
1/23/2009 Three Shores                                                                                                                        $0.00
          Bancorporation,       Preferred
11/8/2012 Inc. (Seaside                                                Sold, in full;           $1,165,528.32                                             1,312         $888.40       ($146,471.68)
                                Stock w/
                                                   $5,677,000.00      warrants not                                                                                                                                                                              $1,174,058.00
11/9/2012 National Bank &       Exercised                                                       $3,877,691.40                                             4,365         $888.40       ($487,308.60)              $282,284.64
                                                                       outstanding
          Trust), Orlando,      Warrants
1/11/2013 FL8,21                                                                                                    ($50,432.20)

12/5/2008                  Preferred                                   Sold, in full;                                                         $0.00
          TIB Financial
                           Stock w/               $37,000,000.00      warrants not                                                                                                                                                                              $1,284,722.22
9/30/2010 Corp, Naples, FL Warrants                                    outstanding             $12,119,637.37                                            12,120       $1,000.00    ($24,880,362.63)               $40,000.00

             Tidelands                                             Full investment
                              Preferred
             Bancshares, Inc,                                        outstanding;
12/19/2008                    Stock w/            $14,448,000.00                                                                     $14,448,000.00                                                                                              571,821        $1,195,973.00
             Mount Pleasant,                                              warrants
                              Warrants
             SC                                                        outstanding
4/17/2009                   Preferred                                                                                                         $0.00
           Tifton Banking
                            Stock w/                                 Currently not
           Company, Tifton,                        $3,800,000.00                                                                                                                                                                                                 $223,208.00
11/12/2010 GA8,47,97        Exercised                                  collectible                                                                                                  ($3,800,000.00)
                            Warrants
12/23/2008                                                                                                                                    $0.00
11/8/2012                                                                                       $3,290,437.50                                             3,815         $862.50       ($524,562.50)
11/9/2012 Timberland            Preferred                              Sold, in full;           $1,580,962.50                                             1,833         $862.50       ($252,037.50)
           Bancorp, Inc.,       Stock w/          $16,641,000.00      warrants not                                                                                                                                                $9.00                         $3,346,629.00
11/13/2012 Hoquiam, WA          Warrants                               outstanding              $9,481,462.50                                            10,993         $862.50     ($1,511,537.50)
1/11/2013                                                                                                          ($143,528.63)
6/11/2013                                                                                                                                                                                                       $1,301,856.00
4/3/2009                        Preferred                                                                                                     $0.00
             Titonka                                                Redeemed, in
                                Stock w/
             Bancshares, Inc,                      $2,117,000.00     full; warrants                                                                                                                                                                              $346,491.00
4/4/2012                11,8,14 Exercised                                                       $2,117,000.00                                             2,117       $1,000.00                                  $106,000.00
             Titonka, IA                                           not outstanding
                                Warrants
2/6/2009                      Preferred                                                                                                       $0.00
          Todd Bancshares,                                          Redeemed, in
                              Stock w/
          Inc., Hopkinsville,                      $4,000,000.00     full; warrants                                                                                                                                                                             $1,010,672.00
9/25/2013 KY8                 Exercised                                                         $4,000,000.00                                             4,000       $1,000.00                                  $200,000.00
                                                                   not outstanding
                              Warrants
12/12/2008                                                                                                                                    $0.00
                              Preferred                             Redeemed, in
             TowneBank,
9/22/2011                     Stock w/            $76,458,000.00     full; warrants            $76,458,000.00                                            76,458       $1,000.00                                                   $14.42                      $10,619,166.67
             Portsmouth, VA45
                              Warrants                             not outstanding
5/15/2013                                                                                                                                                                                                       $1,500,000.00
1/16/2009                                                                                                                                     $0.00
           Treaty Oak           Preferred                              Sold, in full;
2/15/2011 Bancorp, Inc.,        Stock w/           $3,268,000.00          warrants                $500,000.00                                             3,118         $155.47     ($2,618,000.00)                               $0.21        3,098,341         $192,415.03
           Austin, TX8          Warrants                               outstanding
12/21/2012                                                                                        $150,000.00                                           150,000           $1.00
3/27/2009                       Preferred                                                                                                     $0.00
          Triad Bancorp,                                            Redeemed, in
                                Stock w/
          Inc., Frontenac,                         $3,700,000.00     full; warrants                                                                                                                                                                              $501,324.64
9/22/2011 MO44,8,14             Exercised                                                       $3,700,000.00                                             3,700       $1,000.00                                  $185,000.00
                                                                   not outstanding
                                Warrants
12/19/2008 Tri-County           Preferred                                                                                                     $0.00
                                                                    Redeemed, in
           Financial            Stock w/
                                                  $15,540,000.00     full; warrants                                                                                                                                                                             $2,336,115.75
                                Exercised                                                      $15,540,000.00                                            15,540       $1,000.00                                  $777,000.00
9/22/2011 Corporation,44,8,14                                      not outstanding
           Waldorf, MD          Warrants
3/27/2009                                                                                                                                     $0.00
8/7/2012                   Preferred                                                            $2,639,379.50                                             3,518         $750.20       ($878,620.50)              $163,062.90
          Trinity Capital                                              Sold, in full;
                           Stock w/
8/9/2012 Corporation , Los                        $35,539,000.00      warrants not              $7,038,845.50                                             9,382         $750.20     ($2,343,154.50)             $1,300,776.05                                   $6,592,186.00
                           Exercised
          Alamos, NM8,14                                               outstanding
                                                                                                                                                                                                                                                                                 TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




8/10/2012                  Warrants                                                            $16,984,909.75                                            22,639         $750.20     ($5,654,090.25)              $191,948.33
9/11/2012                                                                                                          ($266,631.35)
4/3/2009  Tri-State Bank                                          Redeemed, in                                                                $0.00
                            Preferred
          of Memphis,                              $2,795,000.00   full; warrants                                                                                                                                                                                $190,215.11
8/13/2010 Memphis, TN11,8,9 Stock                                not outstanding                $2,795,000.00                                             2,795       $1,000.00

                                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                                 389
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                   (CONTINUED)                                                                                                                                                                            390
                                                                                                                                                       Number     Average Price                                                  Stock Price       Current
Transaction                   Investment                            Investment          Capital Repayment /                      Remaining Capital    of Shares       of Shares   (Realized Loss) /                                 as of      Outstanding   Dividends/Interest
Date        Institution       Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4     Warrant Sales    9/30/135       Warrants      Paid to Treasury
2/27/2009                    Preferred                                                                                                      $0.00
          TriState Capital                                        Redeemed, in
                             Stock w/
          Holdings, Inc.,                       $23,000,000.00     full; warrants                                                                                                                                                                                $4,492,402.00
9/26/2012 Pittsburgh, PA11,8 Exercised                           not outstanding             $23,000,000.00                                             23,000       $1,000.00                                   $1,150,000.00
                             Warrants
4/3/2009                                         $2,765,000.00                                                                              $0.00
12/22/2009 TriSummit Bank, Preferred                                 Sold, in full;
           Kingsport,      Stock w/                                 warrants not                                                                                                                                                                                 $1,172,766.00
11/29/2012 TN8,14,18       Warrants              $4,237,000.00       outstanding              $5,251,500.00                                               7,002        $750.00      ($1,750,500.00)               $124,665.75
1/11/2013                                                                                                         ($52,515.00)
11/21/2008                                                                                                                                  $0.00
           Trustmark          Preferred                           Redeemed, in
12/9/2009 Corporation,        Stock w/         $215,000,000.00     full; warrants           $215,000,000.00                                            215,000       $1,000.00                                                     $25.60                      $11,287,500.00
           Jackson, MS11      Warrants                           not outstanding
12/30/2009                                                                                                                                                                                                      $10,000,000.00
5/29/2009 Two Rivers          Preferred                                                                                                     $0.00
                                                                  Redeemed, in
          Financial Group,    Stock w/
                                                $12,000,000.00     full; warrants                                                                                                                                                  $19.50                        $1,475,133.27
9/1/2011 Burlington,          Exercised                                                      $12,000,000.00                                             12,000       $1,000.00                                    $600,000.00
                                                                 not outstanding
          IA44,8,14           Warrants
11/14/2008                                                                                                                                  $0.00
          U.S. Bancorp,       Preferred                           Redeemed, in
6/17/2009 Minneapolis,        Stock w/       $6,599,000,000.00     full; warrants         $6,599,000,000.00                                           6,599,000      $1,000.00                                                     $36.58                     $195,220,416.67
          MN11                Warrants                           not outstanding
7/15/2009                                                                                                                                                                                                      $139,000,000.00
                              Preferred                          Full investment
             U.S. Century     Stock w/                             outstanding;
                                                                                                                                                                                                                                                                                  APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




8/7/2009                                        $50,236,000.00                                                                     $50,236,000.00                                                                                                                 $745,311.72
             Bank, Miami, FL8 Exercised                                 warrants
                              Warrants                               outstanding
1/30/2009                   Preferred                                                                                                       $0.00
          UBT Bancshares,                                         Redeemed, in
                            Stock w/
          Inc., Marysville,                      $8,950,000.00     full; warrants                                                                                                                                                                                $1,234,911.78
8/11/2011 KS44,8,14         Exercised                                                         $8,950,000.00                                               8,950      $1,000.00                                    $450,000.00
                                                                 not outstanding
                            Warrants
11/14/2008 UCBH Holdings, Preferred                                                                                                         $0.00
                                                                   Currently not
           Inc., San         Stock w/          $298,737,000.00                                                                                                                                                                                  7,847,732        $7,509,920.07
11/6/2009 Francisco, CA22,97 Warrants                                collectible                                                                                                  ($298,737,000.00)

11/14/2008                                                                                                                                  $0.00
          Umpqua Holdings Preferred                               Redeemed, in
2/17/2010 Corp., Portland, Stock w/            $214,181,000.00     full; warrants           $214,181,000.00                                            214,181       $1,000.00                                                     $16.22                      $13,475,554.58
          OR12,16          Warrants                              not outstanding
3/31/2010                                                                                                                                                                                                        $4,500,000.00
5/1/2009  Union Bank &                           $3,194,000.00                                                                              $0.00
                              Preferred                         Redeemed, in
          Trust Company,
12/18/2009                    Stock w/                           full; warrants                                                                                                                                                                                   $680,291.65
          Oxford,
             8,14,18,44,45    Warrants           $2,997,000.00 not outstanding
9/22/2011 NC                                                                                  $6,191,000.00                                              6,191       $1,000.00                                    $160,000.00
12/29/2009 Union Financial    Preferred                                                                                             $1,579,000.00
                                                                  Redeemed, in
           Corporation,       Stock w/
                                                 $2,179,000.00    part; warrants                                                                                                                                                                                  $384,802.00
7/25/2012 Albuquerque,        Exercised                                                         $600,000.00                                                600       $1,000.00
                                                                    outstanding
           NM8,17,11          Warrants
12/19/2008 Union First Market                                                                                                               $0.00
           Bankshares         Preferred                           Redeemed, in
11/18/2009 Corporation,       Stock w/          $59,000,000.00     full; warrants            $59,000,000.00                                             59,000       $1,000.00                                                     $23.37                        $5,239,859.00
           Bowling Green,     Warrants                           not outstanding
12/23/2009 VA12,16,25                                                                                                                                                                                             $450,000.00

                           Preferred                             Full investment
          United American
                           Stock w/                                outstanding;
2/20/2009 Bank, San Mateo,                       $8,700,000.00                                                                      $8,700,000.00                                                                                                                        $0.00
                           Exercised                                    warrants
          CA8
                           Warrants                                  outstanding
1/16/2009                                                                                                                                   $0.00
          United Bancorp,     Preferred                              Sold, in full;
6/19/2012 Inc., Tecumseh,     Stock w/          $20,600,000.00      warrants not             $17,005,300.00      ($255,079.50)                          20,600         $825.50      ($3,594,700.00)                                $6.67                         $3,527,704.00
          MI                  Warrants                               outstanding
7/18/2012                                                                                                                                                                                                          $38,000.00
12/23/2008 United                                                                                                                           $0.00
                            Preferred                             Redeemed, in
           Bancorporation
                            Stock w/            $10,300,000.00     full; warrants                                                                                                                                                                 108,264         $872,638.89
                      Inc.,                                                                  $10,300,000.00                                             10,300       $1,000.00
9/3/2010 of Alabama,11,36   Warrants                                outstanding
           Atmore, AL
5/22/2009 United Bank         Subordinated                                                                                                  $0.00
                                                                  Redeemed, in
          Corporation,        Debentures
                                                $14,400,000.00     full; warrants                                                                                                                                                                                $3,762,079.00
7/3/2012  Barnesville,        w/ Exercised                                                   $14,400,000.00                                          14,400,000          $1.00                                    $720,000.00
                                                                 not outstanding
          GA15,11,14          Warrants
                                                                                                                                                                                                                                                         Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                     (CONTINUED)
                                                                                                                                                           Number     Average Price                                                Stock Price       Current
Transaction                     Investment                            Investment          Capital Repayment /                        Remaining Capital    of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividends/Interest
Date        Institution         Description1   Investment Amount         Status*        Disposition / Auction2,4     Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4   Warrant Sales    9/30/135       Warrants      Paid to Treasury
12/5/2008                                                                                                                                       $0.00
3/26/2013                                                                                       $1,516,900.00                                                 1,576        $962.50         ($59,100.00)
3/27/2013 United Community Preferred                                   Sold, in full;          $12,587,575.00                                               13,078         $962.50       ($490,425.00)
          Banks, Inc.,     Stock w/              $180,000,000.00      warrants not                                                                                                                                                   $14.99                      $38,843,350.00
3/28/2013 Blairsville, GA  Warrants                                    outstanding            $159,145,525.00                                              165,346         $962.50     ($6,200,475.00)
4/9/2013                                                                                                           ($1,732,500.00)
6/10/2013                                                                                                                                                                                                             $6,677.00
1/16/2009 United Financial      Preferred                                                                                                       $0.00
                                                                    Redeemed, in
           Banking              Stock w/
12/15/2010                                         $5,658,000.00     full; warrants             $3,000,000.00                                                 3,000      $1,000.00                                                   $38.00                         $708,963.92
           Companies, Inc.,     Exercised
                     44,11,8                                       not outstanding
9/15/2011 Vienna, VA            Warrants                                                        $2,658,000.00                                                 2,658      $1,000.00                                  $283,000.00
12/5/2008                                                                                                                                       $0.00
5/15/2013 Unity Bancorp,     Preferred                            Redeemed, in                 $10,324,000.00                                               10,324       $1,000.00
                          11 Stock w/             $20,649,000.00   full; warrants                                                                                                                                                    $7.46                         $4,657,501.00
7/3/2013 Inc., Clinton, NJ Warrants                              not outstanding               $10,325,000.00                                               10,325       $1,000.00
8/28/2013                                                                                                                                                                                                          $2,707,314.00
5/22/2009                                                                                                                                       $0.00
                                Preferred
8/8/2013  Universal                                                    Sold, in full;             $237,527.50                                                  250         $950.10         ($12,472.50)
                                Stock w/
          Bancorp,                                 $9,900,000.00      warrants not                                                                                                                                                                                 $2,278,067.00
8/12/2013 Bloomfield, IN8       Exercised                                                       $9,168,561.50                                                 9,650        $950.10       ($481,438.50)              $476,573.62
                                                                       outstanding
                                Warrants
9/12/2013                                                                                                             ($94,060.89)
6/19/2009 University                                                                                                                            $0.00
                                                                    Redeemed, in
          Financial Corp,       Subordinated
                                                  $11,926,000.00     full; warrants                                                                                                                                                                                $1,022,886.40
                 St. Paul,      Debentures                                                     $11,926,000.00                                            11,926,000          $1.00
7/30/2010 Inc.,11,9,15                                             not outstanding
          MN
                                Preferred                          Full investment
             US Metro Bank,
                                Stock w/                             outstanding;
2/6/2009     Garden Grove,                         $2,861,000.00                                                                        $2,861,000.00                                                                                $1.13                          $432,678.00
                                Exercised                                 warrants
             CA8
                                Warrants                               outstanding
12/23/2008                    Preferred                                                                                                 $2,258,000.00
             Uwharrie Capital                                       Redeemed, in
                              Stock w/
             Corp, Albemarle,                     $10,000,000.00    part; warrants                                                                                                                                                   $2.95                         $2,389,286.00
4/3/2013        11,8          Exercised                                                         $7,742,000.00                                                 7,742      $1,000.00
             NC                                                       outstanding
                              Warrants
1/30/2009                   Preferred                                                                                                           $0.00
          Valley Commerce                                           Redeemed, in
                            Stock w/
          Bancorp, Visalia,                        $7,700,000.00     full; warrants                                                                                                                                                  $13.85                        $1,318,401.00
3/21/2012 CA11,8,14         Exercised                                                           $7,700,000.00                                                 7,700      $1,000.00                                  $385,000.00
                                                                   not outstanding
                            Warrants
                               Preferred                           Full investment
             Valley Community
                               Stock w/                              outstanding;
1/9/2009     Bank, Pleasanton,                     $5,500,000.00                                                                        $5,500,000.00                                                                                $1.55                          $629,475.50
                8              Exercised                                  warrants
             CA
                               Warrants                                outstanding
12/12/2008                                                                                                                              $9,619,000.00
11/14/2012                                                                                      $1,600,000.00                                                 1,600      $1,000.00
          Valley Financial      Preferred                           Redeemed, in
2/20/2013 Corporation,          Stock w/          $16,019,000.00    part; warrants              $1,600,000.00                                                 1,600      $1,000.00                                                                  344,742        $3,663,285.00
          Roanoke, VA11         Warrants                              outstanding
5/15/2013                                                                                       $1,600,000.00                                                 1,600      $1,000.00
8/14/2013                                                                                       $1,600,000.00                                                 1,600      $1,000.00
12/18/2009 Valley Financial     Preferred                                                                                                       $0.00
                                                                  Redeemed, in
           Group, Ltd.,         Stock w/
                                                   $1,300,000.00   full; warrants                                                                                                                                                                   488,847         $124,774.73
9/22/2011 1st State Bank,       Exercised                                                       $1,300,000.00                                                 1,300      $1,000.00                                   $65,000.00
                                                                 not outstanding
           Saginaw, MI8,44,14   Warrants
11/14/2008                                                                                                                                      $0.00
6/3/2009                                                                                       $75,000,000.00                                               75,000       $1,000.00
           Valley National Preferred                                Redeemed, in
9/23/2009 Bancorp, Wayne, Stock w/               $300,000,000.00     full; warrants           $125,000,000.00                                              125,000       $1,000.00                                                   $9.95                       $18,551,519.00
           NJ11            Warrants                                not outstanding
12/23/2009                                                                                    $100,000,000.00                                              100,000       $1,000.00
5/24/2010                                                                                                                                                                                                          $5,421,615.27
6/26/2009 Veritex Holdings,                                                                                                                     $0.00
                            Preferred
          Inc. (Fidelity                                            Redeemed, in
                            Stock w/
                                                                                                                                                                                                                                                                                    TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




          Resources                                $3,000,000.00     full; warrants                                                                                                                                                                                 $353,796.00
8/25/2011 Company), Dallas, Exercised                              not outstanding              $3,000,000.00                                                3,000       $1,000.00                                  $150,000.00
             8,41,44        Warrants
          TX
             Village Bank and                                      Full investment
                               Preferred
             Trust Financial                                         outstanding;
5/1/2009                       Stock w/           $14,738,000.00                                                                       $14,738,000.00                                                                                $1.70          499,029        $1,318,232.22
             Corp, Midlothian,                                            warrants
                               Warrants
             VA                                                        outstanding
                                                                                                                                                                                                                                                           Continued on next page
                                                                                                                                                                                                                                                                                    391
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                       (CONTINUED)                                                                                                                                                                          392
                                                                                                                                                         Number     Average Price                                                  Stock Price       Current
Transaction                      Investment                             Investment          Capital Repayment /                     Remaining Capital   of Shares       of Shares   (Realized Loss) /                                 as of      Outstanding   Dividends/Interest
Date        Institution          Description1   Investment Amount          Status*        Disposition / Auction2,4   Auction Fee3            Amount     Disposed        Disposed           (Write-off)   Gain4     Warrant Sales    9/30/135       Warrants      Paid to Treasury
12/12/2008 Virginia                                                                                                                            $0.00
                                 Preferred                            Redeemed, in
           Commerce
                                 Stock w/           $71,000,000.00     full; warrants                                                                                                                                                $15.57       2,696,203      $14,190,139.00
12/11/2012 Bancorp,              Warrants                               outstanding              $71,000,000.00                                           71,000       $1,000.00
           Arlington, VA11
6/12/2009                                                                                                                                      $0.00
                           Preferred
8/8/2013  Virginia Company                                               Sold, in full;             $325,353.86                                              533         $610.40       ($207,646.14)
                           Stock w/
          Bank, Newport                              $4,700,000.00      warrants not                                                                                                                                                                                $786,987.00
8/12/2013 News, VA8,17     Exercised                                                              $2,543,620.14                                            4,167         $610.40     ($1,623,379.86)                 $63,481.25
                                                                         outstanding
                           Warrants
9/12/2013                                                                                                            ($25,000.00)
4/24/2009 Vision Bank            Preferred                                                                                                     $0.00
                                                                      Redeemed, in
           - Texas,              Stock w/
12/28/2012                                           $1,500,000.00     full; warrants               $787,500.00                                           787.50       $1,000.00                                                                                    $323,259.00
           Richardson,           Exercised
              11,8,14                                                not outstanding
7/10/2013 TX                     Warrants                                                           $712,500.00                                           712.50       $1,000.00                                     $75,000.00
12/19/2008                                                                                                                                     $0.00
             VIST Financial      Preferred                            Redeemed, in
             Corp.,              Stock w/           $25,000,000.00     full; warrants                                                                                                                                                                              $4,520,833.00
8/1/2012     Wyomissing, PA      Warrants                            not outstanding             $25,000,000.00                                           25,000       $1,000.00                                   $1,189,813.00

1/30/2009                    Preferred                                                                                                         $0.00
          W.T.B. Financial                                            Redeemed, in
                             Stock w/
          Corporation,                             $110,000,000.00     full; warrants                                                                                                                                                                            $15,736,874.33
9/15/2011 Spokane, WA45,8,14 Exercised                               not outstanding            $110,000,000.00                                          110,000       $1,000.00                                   $5,500,000.00
                             Warrants
12/11/2009 Wachusett             Preferred                                                                                             $5,000,000.00
                                                                      Redeemed, in
           Financial             Stock w/
                                                                                                                                                                                                                                                                                    APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




4/4/2012                                            $12,000,000.00    part; warrants              $3,000,000.00                                            3,000       $1,000.00                                                                                   $2,051,968.00
           Services, Inc.,       Exercised
                       8,17,11                                          outstanding
1/30/2013 Clinton, MA            Warrants                                                         $4,000,000.00                                            4,000       $1,000.00
12/19/2008                                                                                                                                     $0.00
           Wainwright Bank Preferred                                  Redeemed, in
11/24/2009 & Trust Company, Stock w/                $22,000,000.00     full; warrants            $22,000,000.00                                           22,000       $1,000.00                                                                                   $1,023,611.11
           Boston, MA11     Warrants                                 not outstanding
12/16/2009                                                                                                                                                                                                          $568,700.00
1/16/2009 Washington                                                                                                                           $0.00
                                 Preferred                            Redeemed, in
          Banking
1/12/2011                        Stock w/           $26,380,000.00     full; warrants            $26,380,000.00                                           26,380       $1,000.00                                                     $14.06                        $2,623,344.45
          Company, Oak
                    11,16        Warrants                            not outstanding
3/2/2011 Harbor, WA                                                                                                                                                                                                $1,625,000.00
11/14/2008                                                                                                                                     $0.00
           Washington            Preferred                            Redeemed, in
5/27/2009 Federal, Inc.,         Stock w/          $200,000,000.00     full; warrants           $200,000,000.00                                          200,000       $1,000.00                                                     $20.68                        $5,361,111.11
           Seattle, WA11         Warrants                            not outstanding
3/15/2010                                                                                                                                                                                                         $15,388,874.07
1/30/2009                                            $6,633,000.00                                                                             $0.00
           WashingtonFirst Preferred                                Redeemed, in
10/30/2009 Bankshares, Inc., Stock w/                                full; warrants                                                                                                                                                                                $1,510,318.00
           Reston, VA8,18,21,44 Warrants             $6,842,000.00 not outstanding
8/4/2011                                                                                         $13,475,000.00                                           13,475       $1,000.00                                    $332,000.00
6/26/2009                                                                                                                                      $0.00
2/6/2013                       Preferred                                                          $4,831,002.80                                            5,212         $926.90       ($380,997.20)                  $18,644.66
             Waukesha                                                    Sold, in full;
                               Stock w/
2/7/2013     Bankshares, Inc.,                       $5,625,000.00      warrants not                  $92,690.00                                             100         $926.90          ($7,310.00)               $147,194.69                                    $1,071,380.00
                          8,17 Exercised
             Waukesha, WI                                                outstanding
2/8/2013                       Warrants                                                             $290,119.70                                              313         $926.90         ($22,880.30)
3/26/2013                                                                                                            ($52,138.13)
11/21/2008                                                                                                                                     $0.00
3/3/2010                                                                                        $100,000,000.00                                          100,000       $1,000.00
           Webster Financial Preferred                              Redeemed, in
10/13/2010 Corporation,      Stock w/              $400,000,000.00   full; warrants             $100,000,000.00                                          100,000       $1,000.00                                                     $25.53                      $36,944,444.45
           Waterbury, CT11 Warrants                                not outstanding
12/29/2010                                                                                      $200,000,000.00                                          200,000       $1,000.00
6/8/2011                                                                                                                                                                                                          $20,388,842.06
10/28/2008                                                                                                                                     $0.00
           Wells Fargo &    Preferred                               Redeemed, in
12/23/2009 Co. Minneapolis, Stock w/            $25,000,000,000.00   full; warrants          $25,000,000,000.00                                           25,000    $1,000,000.00                                                    $41.32                    $1,440,972,222.22
           MN11             Warrants                               not outstanding
5/26/2010                                                                                                                                                                                                        $840,374,891.73
12/5/2008                                                                                                                                      $0.00
                                 Preferred                            Redeemed, in
             WesBanco, Inc.,
9/9/2009                         Stock w/           $75,000,000.00     full; warrants            $75,000,000.00                                           75,000       $1,000.00                                                     $29.73         100,448        $4,242,500.00
             Wheeling, WV11
                                 Warrants                            not outstanding
12/23/2009                                                                                                                                                                                                          $950,000.00
12/31/2008 West                                                                                                                                $0.00
                                 Preferred                            Redeemed, in
           Bancorporation,
6/29/2011                        Stock w/           $36,000,000.00     full; warrants            $36,000,000.00                                           36,000       $1,000.00                                                     $13.80                        $4,495,000.00
           Inc., West Des
                      11         Warrants                            not outstanding
8/31/2011 Moines, IA                                                                                                                                                                                                $700,000.00
                                                                                                                                                                                                                                                           Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                      (CONTINUED)
                                                                                                                                                         Number     Average Price                                                 Stock Price       Current
Transaction                      Investment                            Investment          Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                as of      Outstanding   Dividends/Interest
Date        Institution          Description1   Investment Amount         Status*        Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4    Warrant Sales    9/30/135       Warrants      Paid to Treasury
2/13/2009                                                                                                                                      $0.00
9/2/2009   Westamerica      Preferred                              Redeemed, in                 $41,863,000.00                                            41,863       $1,000.00
           Bancorporation, Stock w/                $83,726,000.00   full; warrants                                                                                                                                                  $49.74         246,698        $2,755,980.61
11/18/2009 San Rafael, CA11 Warrants                              not outstanding               $41,863,000.00                                            41,863       $1,000.00
11/21/2011                                                                                                                                                                                                         $878,256.00
11/21/2008                                                                                                                                     $0.00
           Western Alliance Preferred                              Redeemed, in
9/27/2011 Bancorporation, Stock w/                $140,000,000.00   full; warrants             $140,000,000.00                                           140,000       $1,000.00                                                    $18.93                      $19,950,000.00
           Las Vegas, NV44 Warrants                               not outstanding
11/23/2011                                                                                                                                                                                                         $415,000.00
             Western             Preferred                          Full investment
             Community           Stock w/                             outstanding;
12/23/2008                                          $7,290,000.00                                                                      $7,290,000.00                                                                                                               $554,083.00
             Bancshares, Inc.,   Exercised                                 warrants
             Palm Desert, CA8    Warrants                               outstanding
12/23/2008                                          $6,855,000.00                                                                              $0.00
12/29/2009 Western Illinois      Preferred
                                                                        Sold, in full;
           Bancshares            Stock w/
11/8/2012                                                              warrants not              $1,050,524.72                                             1,117         $940.38         ($66,475.28)                                                             $2,102,189.00
           Inc., Monmouth,       Exercised          $4,567,000.00
             8,14,18                                                    outstanding
11/9/2012 IL                     Warrants                                                        $9,673,015.37                                            10,305         $939.53       ($631,984.63)               $335,417.06
1/11/2013                                                                                                           ($107,235.41)
5/15/2009                    Preferred                                                                                                         $0.00
           Western Reserve                                           Redeemed, in
                             Stock w/
           Bancorp, Inc,                            $4,700,000.00     full; warrants                                                                                                                                                                               $907,198.00
11/30/2012 Medina, OH8,78,11 Exercised                              not outstanding              $4,700,000.00                                             4,700       $1,000.00                                   $235,000.00
                             Warrants
             White River         Preferred                          Full investment
             Bancshares          Stock w/                             outstanding;
2/20/2009                                          $16,800,000.00                                                                     $16,800,000.00                                                                                                              $1,589,583.00
             Company,            Exercised                                 warrants
             Fayetteville, AR8   Warrants                               outstanding
12/19/2008                                                                                                                                     $0.00
             Whitney Holding Preferred                               Redeemed, in
             Corporation, New Stock w/            $300,000,000.00     full; warrants                                                                                                                                                                            $36,833,333.33
6/3/2011     Orleans, LA      Warrants                              not outstanding            $300,000,000.00                                           300,000       $1,000.00                                  $6,900,000.00


12/12/2008 Wilmington Trust Preferred                                Redeemed, in                                                              $0.00
           Corporation,     Stock w/              $330,000,000.00     full; warrants                                                                                                                                                                95,383
5/13/2011 Wilmington, DE11 Warrants                                    outstanding             $330,000,000.00                                           330,000       $1,000.00

12/12/2008                                                                                                                                     $0.00
             Wilshire Bancorp, Preferred                                Sold, in full;
4/3/2012     Inc., Los Angeles, Stock w/           $62,158,000.00      warrants not             $58,646,694.58      ($879,700.42)                         62,158         $943.50     ($3,511,305.42)                                $8.17                       $10,282,176.00
             CA                 Warrants                                outstanding
6/20/2012                                                                                                                                                                                                          $760,000.00
12/19/2008                                                                                                                                     $0.00
           Wintrust Financial Preferred                              Redeemed, in
12/22/2010 Corporation, Lake Stock w/             $250,000,000.00     full; warrants           $250,000,000.00                                           250,000       $1,000.00                                                    $41.07                      $25,104,166.66
           Forest, IL11       Warrants                              not outstanding
2/14/2011                                                                                                                                                                                                        $25,600,564.15
5/15/2009 Worthington            Preferred                                                                                                     $0.00
                                                                        Sold, in full;
          Financial              Stock w/
6/24/2013                                           $2,720,000.00      warrants not              $2,343,851.20                                             2,720         $861.70       ($376,148.80)                $90,940.00                                     $370,600.00
          Holdings, Inc.,        Exercised
                        8,14                                            outstanding
7/26/2013 Huntsville, AL         Warrants                                                                            ($24,999.99)
1/23/2009                                                                                                                                      $0.00
                                 Preferred                              Sold, in full;
             WSFS Financial
4/3/2012                         Stock w/          $52,625,000.00      warrants not             $48,157,663.75      ($722,364.96)                         52,625         $915.10     ($4,467,336.25)                                $60.25                        $8,405,558.00
             Corporation
                                 Warrants                               outstanding
9/12/2012                                                                                                                                                                                                         $1,800,000.00
                                                                                                                                                                                                                                                          Continued on next page
                                                                                                                                                                                                                                                                                   TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013
                                                                                                                                                                                                                                                                                   393
CPP TRANSACTIONS DETAIL, AS OF 9/30/2013                                                          (CONTINUED)                                                                                                                                                                                                                        394
                                                                                                                                                                       Number       Average Price                                                                           Stock Price           Current
Transaction                    Investment                                   Investment         Capital Repayment /                         Remaining Capital          of Shares         of Shares       (Realized Loss) /                                                      as of          Outstanding    Dividends/Interest
Date        Institution        Description1       Investment Amount            Status*       Disposition / Auction2,4     Auction Fee3              Amount            Disposed          Disposed               (Write-off)                   Gain4         Warrant Sales     9/30/135           Warrants       Paid to Treasury
1/16/2009                                             $36,000,000.00                                                                                     $0.00                                                                                                                                    128,663
7/24/2009 Yadkin Valley
                               Preferred                                    Sold, in full;
          Financial
9/18/2012                      Stock w/                                    warrants not             $44,149,056.00       ($662,235.84)                                   49,312            $893.00        ($5,162,944.00)                                                                                         $8,820,923.00
          Corporation,                                $13,312,000.00                                                                                                                                                                                                                                91,178
                               Warrants                                     outstanding
6/10/2013 Elkin, NC                                                                                                                                                                                                                                           $55,677.00
6/11/2013                                                                                                                                                                                                                                                     $20,000.00
4/24/2009                      Preferred                                                                                                                 $0.00
          York Traditions                                             Redeemed, in
                               Stock w/
          Bank, York,                                  $4,871,000.00   full; warrants                                                                                                                                                                                                                               $590,022.14
7/14/2011 PA45,8,14            Exercised                                                             $4,871,000.00                                                         4,871         $1,000.00                                                          $244,000.00
                                                                     not outstanding
                               Warrants
11/14/2008                                                                                                                                               $0.00
          Zions
3/28/2012 Bancorporation,      Preferred                             Redeemed, in                  $700,000,000.00                                                      700,000          $1,000.00
                               Stock w/           $1,400,000,000.00   full; warrants                                                                                                                                                                                          $27.42          253,361,111      $253,361,111.00
9/26/2012 Salt11 Lake City,    Warrants                             not outstanding                $700,000,000.00                                                      700,000          $1,000.00
          UT
12/5/2012                                                                                                                                                                                                                                                 $7,666,418.51
      Totals                                  $204,894,726,320.00                            $197,909,608,999.34 ($33,580,752.15) $2,372,229,389.88                                  Total Losses ($4,612,887,930.79) $6,886,121,071.56 $7,890,273,549.00
Notes: Numbers may not total due to rounding. Data as of 9/30/2013. All amounts and totals reflect cumulative receipts from inception through 9/30/2013.

Sources: Treasury, Transactions Report, 9/30/2013; Treasury, Dividends and Interest Report, 10/10/2013.
*Investment Status Definition Key
Full investment outstanding: Treasury’s full investment is still outstanding
Redeemed – institution has repaid Treasury’s investment
                                                                                                                                                                                                                                                                                                                                     APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




Sold – by auction, an offering, or through a restructuring
Exited bankruptcy/receivership - Treasury has no outstanding investment
Currently not collectible - investment is currently not collectible; therefore there is no outstanding investment and a corresponding (Realized Loss) / (Write-off)
In full – all of Treasury’s investment amount
In part – part of the investment is no longer held by Treasury, but some remains
Warrants outstanding – Treasury’s warrant to purchase additional stock is still outstanding, including any exercised warrants
Warrants not outstanding – Treasury has disposed of its warrant to purchase additional stock through various means as described in the Warrant Report (such as sale back to company and auctions) or Treasury did not receive a warrant to purchase additional stock

1
 	 All pricing is at par.
2
 	 Capital Repayments includes gross capital repayments, gross auction proceeds, exchanges into CDCI, and SBLF fundings.
3
 	Includes: (i) placement fees in private auctions of a CPP issuer’s securities where Treasury pays placement fees to the placement agents in an amount equal to a minimum of $50,000 (per issuer) or 1.00% of gross aggregate proceeds for each security and (ii) unreimbursed underwriting fees in public offerings. Placement
    fees in private auctions are paid approximately one month after settlement.
4
 	 Net proceeds from sales and auctions can be calculated by adding the “Capital Repayment” and “Auction Fee” columns under the “Capital Repayment / Disposition / Auction” plus any amount in the “Gain” column. Note that “(Fee)” is a negative number.
5
 	Bloomberg L.P. stock prices as of 9/30/2013.
6
 	This transaction was included in previous Transaction Reports with Merrill Lynch & Co., Inc. listed as the qualifying institution and a 10/28/2008 transaction date, footnoted to indicate that settlement was deferred pending merger. The purchase of Merrill Lynch by Bank of America was completed on 1/1/2009, and this
    transaction under the CPP was funded on 1/9/2009.
7
 	The warrant disposition proceeds amount are stated pro rata in respect of the CPP investments in Bank of America Corporation that occurred on 10/28/2008 and 1/9/2009. The total net disposition proceeds from CPP warrants on 3/3/2010 was $305,913,040, consisting of $183,547,824 and $122,365,216. Proceeds
    from the disposition of TIP warrants on 3/3/2010 appear on a following page of this report.
8
 	 Privately-held qualified financial institution; Treasury received a warrant to purchase additional shares of preferred stock (unless the institution is a CDFI), which it exercised immediately.
9
 	 To promote community development financial institutions (CDFIs), Treasury does not require warrants as part of its investment in certified CDFIs when the size of the investment is $50 million or less.
10
  	Treasury cancelled the warrants received from this institution due to its designation as a CDFI.
11
  	Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009.
12
  	Redemption pursuant to a qualified equity offering.
13
  	This amount does not include accrued and unpaid dividends, which must be paid at the time of capital repayment.
14
  	The proceeds associated with the disposition of this investment do not include accrued and unpaid dividends.
15
  	Subchapter S corporation; Treasury received a warrant to purchase additional subordinated debentures (unless the institution is a CDFI), which it exercised immediately.
16
  	In its qualified equity offering, this institution raised more capital than Treasury’s original investment, therefore, the number of Treasury’s shares underlying the warrant was reduced by half.
17
  	This institution participated in the expansion of CPP for small banks.
18
  	This institution received an additional investment through the expansion of CPP for small banks.
19
  	Treasury made three separate investments in Citigroup Inc. (Citigroup) under the CPP, Targeted Investment Program (TIP), and Asset Guarantee Program (AGP) for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange up to $25 billion of Treasury’s investment in Fixed Rate
    Cumulative Perpetual Preferred Stock, Series H (CPP Shares) “dollar for dollar” in Citigroup’s Private and Public Exchange Offerings. On 7/23/2009 and 7/30/2009, Treasury exchanged a total of $25 billion of the CPP shares for Series M Common Stock Equivalent (“Series M”) and a warrant to purchase shares of Series M.
    On 9/11/2009, Series M automatically converted to 7,692,307,692 shares of common stock and the associated warrant terminated on receipt of certain shareholder approvals.
20
  	On 8/24/2009, Treasury exchanged its series C preferred stock issued by Popular, Inc. for a like amount of non tax-deductible trust preferred securities issued by Popular Capital Trust III, administrative trustee for Popular, Inc. Popular, Inc. paid a $13 million exchange fee in connection with this transaction.
21
  	This institution converted to a bank holding company structure and Treasury exchanged its securities for a like amount of securities that comply with the CPP terms applicable to bank holding companies. The institution in which Treasury’s original investment was made is shown in parentheses.
22
  	As of the date of this report, this institution is in bankruptcy proceedings.
23
  	On 12/10/2009, the bankruptcy reorganization plan of CIT Group Inc. became effective and Treasury’s preferred stock and warrant investment were extinguished and replaced by contingent value rights (CVRs). On 2/8/2010, the CVRs expired without value as the terms and conditions for distribution of common shares to
    holders of CVRs were not met.
24
  	On 12/11/2009, Treasury exchanged its series A preferred stock issued by Superior Bancorp, Inc. for a like amount of non tax-deductible Trust Preferred Securities issued by Superior Capital Trust II, administrative trustee for Superior Bancorp.
25
  	On 2/1/2010, following the acquisition of First Market Bank (First Market) by Union Bankshares Corporation (the acquiror), the preferred stock and exercised warrants issued by First Market on 2/6/2009 were exchanged for a like amount of securities of the acquiror in a single series but with a blended dividend rate
    equivalent to those of Treasury’s original investment.
26
  	On 2/11/2010, Pacific Coast National Bancorp dismissed its bankruptcy proceedings with no recovery to any creditors or investors, including Treasury, and the investment was extinguished.
27
  	On 3/8/2010, Treasury exchanged its $84,784,000 of preferred stock in Midwest Banc Holdings, Inc. (MBHI) for $89,388,000 of mandatory convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $84,784,000, plus $4,604,000 of capitalized previously accrued and unpaid dividends.
    Subject to the fulfillment by MBHI of the conditions related to its capital plan, the MCP may be converted to common stock.
28
  	On 3/30/2010, Treasury exchanged its $7,500,000 of subordinated debentures in GulfSouth Private Bank for an equivalent amount of preferred stock, in connection with its conversion from a Subchapter S-Corporation, that comply with the CPP terms applicable to privately held qualified financial institutions.
29
  	On 4/16/2010, Treasury exchanged its $72,000,000 of preferred stock in Independent Bank Corporation (Independent) for $74,426,000 of mandatory convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $72,000,000, plus $2,426,000 of capitalized previously accrued and unpaid
    dividends. On 7/26/2013, Treasury entered into a securities purchase agreement with Independent pursuant to which Treasury agreed to sell to Independent the MCP and the warrant issued by Independent, subject to the conditions specified in such agreement. On 8/30/2013, Treasury completed the sale of the MCP and
    warrant to Independent pursuant to the terms of such agreement.
30
  	Treasury received Citigroup common stock pursuant to the June 2009 Exchange Agreement between Treasury and Citigroup which provided for the exchange into common shares of the preferred stock that Treasury purchased in connection with Citigroup’s participation in the Capital Purchase Program (see note 11). On April
    26, 2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending on June 30, 2010 (or on completion of the sale). Completion of the sale
    under this authority occurred on May 26, 2010. On May 26, 2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending on June 30, 2010 (or on completion of the sale).
    Completion of the sale under this authority occurred on June 30, 2010. On July 23, 2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending on September 30, 2010
    (or on completion of the sale). Completion of the sale under this authority occurred on September 30, 2010. On October 19, 2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain parameters up to 1,500,000,000 shares of common
    stock from time to time during the period ending on December 31, 2010 (or upon completion of the sale), which plan was terminated on December 6, 2010. All such sales were generally made at the market price. On December 6, 2010, Treasury commenced an underwritten public offering of its remaining 2,417,407,607
    shares. See “Capital Purchase Program - Citigroup, Inc., Common Stock Disposition” on following page for the actual number of shares sold by Morgan Stanley, the weighted average price per share and the total proceeds to Treasury from all such sales during those periods.
31
  	On 8/26/2010, Treasury completed the exchange of its $303,000,000 of preferred stock in Sterling Financial Corporation (Sterling) for a like amount of mandatorily convertible preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Sterling entered into on 4/29/2010. Since Sterling
    also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, including those related to its capital plan, Treasury’s $303,000,000 of MCP was subsequently, as of 8/26/2010, converted into 378,750,000 shares of common stock.
32
  	On 8/20/2010, Sonoma Valley Bank, Sonoma, CA, the banking subsidiary of Sonoma Valley Bancorp, was closed by the California Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
33
  	On 6/30/2010, Treasury exchanged $46,400,000 of its series A preferred stock in First Merchants Corporation for a like amount of non tax-deductible Trust Preferred Securities issued by First Merchants Capital Trust III.
34
  	On 7/20/2010, Treasury completed the exchange of its $400,000,000 of preferred stock in First BanCorp for $424,174,000 of mandatorily convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $400,000,000, plus $24,174,000 of capitalized previously accrued and unpaid dividends. On
    10/7/2011, following the completion of the conversion conditions set forth in the Certificate of Designations for the MCP, all of Treasury’s MCP was converted into 32,941,797 shares of common stock of First BanCorp. Treasury received all accrued and previously unpaid dividends on the MCP at the time of the conversion.
    First BanCorp has agreed to have a Treasury observer attend board of directors meetings.
35
  	On 8/31/2010, following the completion of the conditions related to Pacific Capital Bancorp’s (Pacific Capital) capital plan, Treasury exchanged its $180,634,000 of preferred stock in Pacific Capital for $195,045,000 of mandatorily convertible preferred Stock (MCP), which is equivalent to the initial investment amount of
    $180,634,000, plus $14,411,000 of capitalized previously accrued and unpaid dividends. On 9/27/2010, following the completion of the conversion conditions set forth in the Certificate of Designations for the MCP, all of Treasury’s MCP was converted into 360,833,250 shares of common stock of Pacific Capital. Following
    a reverse stock split effective 12/28/10, Treasury held 3,608,332 shares of Pacific Capital common stock. Effective 11/30/12, Pacific Capital merged with and into UnionBanCal Corporation and each outstanding share of common stock of the Company was converted into the right to receive $46.00 per share in cash, and
    Treasury received $165,983,272 in respect of its common stock and $393,121 in respect of its warrant.
36
  	This institution qualified to participate in the Community Development Capital Initiative (CDCI), and has completed an exchange of its Capital Purchase Program investment for an investment under the terms of the CDCI program. See “Community Development Capital Initiative” below.
37
  	At the time of this institution’s exchange into the CDCI program, the warrant preferreds were included in the total amount of preferred stock exchanged for Treasury’s CDCI investment. Therefore this disposition amount does not represent cash proceeds to Treasury.
38
  	On 9/30/2010, Treasury completed the exchange of its $80,347,000 of preferred stock in Hampton Roads Bankshares, Inc. (Hampton) for a like amount of mandatorily convertible preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Hampton entered into on 8/12/2010. Since
    Hampton also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, Treasury’s $80,347,000 of MCP was subsequently converted into 52,225,550 shares of common stock.
39
  	Treasury entered into an agreement on 1/28/2011 with North American Financial Holdings, Inc. for the sale of all preferred stock and warrants issued by Capital Bank Corporation to Treasury for an aggregate purchase price of $41,279,000. Since the conditions to closing of the sale were satisfied, the closing of the sale
    also occurred on 1/28/2011.
40
  	On 2/18/2011, Treasury completed the exchange of its $135,000,000 of preferred stock (including accrued and unpaid dividends thereon) in Central Pacific Financial Corp. for not less than 5,620,117 shares of common stock, pursuant to an exchange agreement dated 2/17/2011.
41
  	As a result of the acquisition of Fidelity Resources Company (the acquired company) by Veritex Holdings, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 6/26/2009 were exchanged for a like amount of securities of the acquiror, pursuant to the terms of an agreement among
    Treasury, the acquired company and the acquiror entered into on 3/23/2011.
42
  	As a result of the acquisition of NC Bancorp, Inc. (the acquired company) by Metropolitan Bank Group, Inc. (the acquiror), Treasury exchanged $6,880,000 of its preferred stock in NC Bancorp, Inc. and $71,526,000 of its preferred stock in Metropolitan Bank Group, Inc. for $81,892,000 of a new series of preferred stock
    in Metropolitan Bank Group, Inc., which is equivalent to the combined initial investment amount of $78,406,000 plus $3,486,000 of capitalized previously accrued and unpaid dividends, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered into on 3/30/2011. Exercised
    warrants were also exchanged at the time of the agreement.
43
  	On 7/5/2011, Treasury completed a transaction with Harris Financial Corp., a wholly-owned subsidiary of Bank of Montreal (“BMO”), for the sale of (i) all Marshall & Ilsley Corporation (“M&I”) Preferred Stock held by Treasury for a purchase price of $1,715,000,000 plus accrued dividends and (ii) the Treasury-held M&I Warrant
    for an amount equal to $3,250,000, pursuant to the terms of the agreement between Treasury and BMO entered into on 05/16/2011.
44
  	Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 using proceeds received in connection with the institution’s participation in the Small Business Lending Fund.
45
  	Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 - part of the repayment amount obtained from proceeds received in connection with the institution’s participation in the Small Business Lending Fund.
46
  	On 11/5/2010, Pierce Commercial Bank, Tacoma, WA, the banking subsidiary of Pierce County Bancorp, was closed by the Washington Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
47
  	On 11/12/2010, Tifton Banking Company, Tifton, GA, was closed by the Georgia Department of Banking & Finance, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
48
  	On 3/11/2011, Legacy Bank, Milwaukee, WI, the banking subsidiary of Legacy Bancorp, Inc., was closed by the State of Wisconsin Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
49
  	On 4/15/2011, Superior Bank, Birmingham, AL, the banking subsidiary of Superior Bancorp Inc., was closed by the Office of Thrift Supervision, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
50
  	On 7/15/2011, First Peoples Bank, Port Saint Lucie, Florida, the banking subsidiary of FPB Bancorp, Inc., was closed by the Florida Office of Financial Regulation, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
51
  	On 7/15/2011, One Georgia Bank, Atlanta, GA was closed by the State of Georgia Department of Banking & Finance, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
52
  	On 7/29/2011, Integra Bank, National Association, Evansville, Indiana, the banking subsidiary of Integra Bank Corporation, was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
53
  	On 10/21/2011, Treasury completed the exchange of all FNB United Corp. (“FNB United”) preferred stock and warrants held by Treasury for 108,555,303 shares of FNB United common stock and an amended and restated warrant, pursuant to the terms of the agreement between Treasury and FNB United entered into on
    08/12/2011.
54
  	As a result of the acquisition of Berkshire Bancorp, Inc. (the acquired company) by Customers Bancorp, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 6/12/2009 were exchanged for a like amount of securities of the acquiror plus accrued and previously unpaid dividends,
    pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered into on 9/16/2011.
55
  	On 9/23/2011, Citizens Bank of Northern California, Nevada City, California, the banking subsidiary of Citizens Bancorp, was closed by the California Department of Financial Institutions, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
56
  	Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 in connection with the institution’s participation in the Small Business Lending Fund, which occurred at a later date.
57
  	On 10/14/2011, Country Bank, Aledo, Illinois, the banking subsidiary of CB Holding Corp., was closed by the Illinois Department of Financial and Professional Regulation - Division of Banking, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
58
  	As a result of a reincorporation transaction whereby Crescent Financial Corporation (CFC) was merged into Crescent Financial Bancshares, Inc. (CFB), the preferred stock and warrant issued by CFC on 1/9/2009 were exchanged for a like amount of securities of CFB, pursuant to the terms of an agreement among Treasury,
    CFC and CFB entered into on 11/15/2011.
59
  	As a result of the acquisition of Center Financial Corporation by BBCN Bancorp, Inc. (formerly Nara Bancorp, Inc.), the preferred stock and warrant issued by Center Financial Corporation were exchanged for a like amount of securities of BBCN Bancorp, Inc., pursuant to the terms of an agreement among Treasury, Center
    Financial Corporation, and BBCN Bancorp, Inc. entered into on 11/30/2011.
60
  	On 1/3/2012, Treasury completed (i) the sale to F.N.B. Corporation (“F.N.B.”) of all of the preferred stock that had been issued to Treasury by Parkvale Financial Corporation (“Parkvale”) for a purchase price of $31,762,000 plus accrued dividends and (ii) the exchange of the Parkvale warrant held by Treasury for a like F.N.B.
    warrant, pursuant to the terms of the agreement between Treasury and F.N.B. entered into on 12/29/2011 in connection with the merger of Parkvale and F.N.B. effective 1/1/2012.
61
  	As a result of the acquisition of State Bancorp, Inc. (the acquired company) by Valley National Bancorp (the acquiror), the warrant issued by the acquired company on 12/5/2008 was exchanged for a like security of the acquiror, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror
    entered into on 1/1/2012.
62
  	On 1/27/2012, pursuant to the terms of the merger of Regents Bancshares, Inc. (“Regents”) with Grandpoint Capital, Inc., Treasury received $13,214,858.00 (representing the par amount together with accrued and unpaid dividends thereon) in respect of the preferred stock (including that received from the exercise of
    warrants) that had been issued to Treasury by Regents.
63
  	On 1/27/2012, Tennessee Commerce Bank, Franklin, TN, the banking subsidiary of Tennessee Commerce Bancorp, Inc., was closed by the Tennessee Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
64
  	On 2/10/2012, SCB Bank, Shelbyville, Indiana, the banking subsidiary of Blue River Bancshares, Inc., was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
65
  	On 2/10/2012, Treasury entered into an agreement with Broadway Financial Corporation to exchange Treasury’s $15,000,000 of preferred stock for common stock. The exchange is subject to the fulfillment by Broadway Financial Corporation of certain conditions, including the satisfactory completion of a capital plan.
66
  	On 4/20/2012, Fort Lee Federal Savings Bank, FSB, Fort Lee, New Jersey, was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
67
  	As a result of the acquisition of Community Holding Company of Florida, Inc. (the acquired company) by Community Bancshares of Mississippi, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 2/6/2009 were exchanged for a like amount of securities of the acquiror, pursuant
    to the terms of an agreement among Treasury, the acquired company and the acquiror entered into on 7/19/2012.
68
  	On 7/13/2012, Glasgow Savings Bank, Glasgow, MO, the banking subsidiary of Gregg Bancshares, Inc., was closed by the Missouri Division of Finance, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
69
  	On 7/27/2012, Treasury entered into an agreement with Pinnacle Bank Holding Company, Inc. (“Pinnacle”) pursuant to which Treasury agreed to sell its CPP preferred stock back to Pinnacle at a discount subject to the satisfaction of the conditions specified in the agreement.
70
  	On 10/19/2012, GulfSouth Private Bank, Destin, Florida, was closed by the Florida Office of Financial Regulation, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
71
  	On 10/19/2012, Excel Bank, Sedalia, Missouri, the banking subsidiary of Investors Financial Corporation of Pettis County, Inc., was closed by the Missouri Division of Finance, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
72
  	On 10/25/2012, pursuant to the terms of the merger of First Community Bancshares, Inc. (“First Community”) and Equity Bancshares, Inc. (“Equity”), Treasury received a like amount of preferred stock and exercised warrants from Equity in exchange for Treasury’s original investment in First Community, plus accrued and
    unpaid dividends, pursuant to a placement agency agreement executed on 10/23/2012.
73
  	On 10/29/2012, First Place Financial Corp. filed for Chapter 11 protection in the U.S. Bankruptcy Court for the District of Delaware.
74
  	On 2/22/2013, Treasury completed the exchange of its Standard Bancshares, Inc. preferred stock for common stock, pursuant to an exchange agreement, dated as of 11/5/2012, with Standard Bancshares, Inc., and immediately sold the resulting Standard Bancshares, Inc. common stock, pursuant to securities purchase
    agreements, each dated as of 11/5/2012, with W Capital Partners II, L.P., Trident SBI Holdings, LLC, PEPI Capital, LP, LCB Investment, LLC, Cohesive Capital Partners, L.P., and Athena Select Private Investment Fund LLC.
75
  	On 11/2/2012, Citizens First National Bank, Princeton, IL, the banking subsidiary of Princeton National Bancorp, was closed by the Office of the Comptroller of the Currency, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
76
  	On 11/13/2012, Treasury entered into an agreement with Community Financial Shares, Inc. (“CFS”) pursuant to which Treasury agreed to sell its CPP preferred stock back to CFS at a discount subject to the satisfaction of the conditions specified in the agreement.
77
  	In connection with the merger of Fidelity Bancorp, Inc. (“Fidelity”) and WesBanco, Inc. (“WesBanco”) effective 1/1/2012, Treasury (i) sold to WesBanco all of the preferred stock that had been issued by Fidelity to Treasury for a purchase price of $7,000,000 plus accrued dividends and (ii) exchanged the Fidelity warrant held by
    Treasury for a like WesBanco warrant, pursuant to the terms of an agreement among Treasury and WesBanco entered into on 11/28/2012.
78
  	On 11/30/2012, Western Reserve Bancorp, Inc. was acquired by an affiliate of Westfield Bancorp, Inc. Pursuant to the terms of the merger, each outstanding share of Series A and Series B preferred stock issued to Treasury was redeemed for the respective principal amount together with accrued and unpaid dividends
    thereon.
79
  	On 2/20/2013, Treasury sold its CPP preferred stock and warrant issued by First Sound Bank (“First Sound”) back to First Sound for an aggregate purchase price of $3,700,000, pursuant to the terms of the agreement between Treasury and First Sound entered into on 11/30/2012.
80
  	On 4/9/2013, Treasury sold its CPP preferred stock and warrant issued by PremierWest Bancorp (“PremierWest”) pursuant to an agreement with PremierWest and Starbuck Bancshares, Inc. (“Starbuck”) entered into on 12/11/2012.
81
  	In connection with the merger of Community Financial Corporation (“Community Financial”) and City Holding Company (“City Holding”) effective 1/9/2013, Treasury (i) sold to City Holding all of the preferred stock that had been issued by Community Financial to Treasury for a purchase price of $12,643,000 plus accrued
    dividends and (ii) exchanged the Community Financial warrant held by Treasury for a like City Holding warrant, pursuant to the terms of an agreement among Treasury and City Holding entered into on 1/9/2013.
82
  	On 1/29/2013, Treasury executed a placement agency agreement pursuant to which Treasury agreed to sell 9,950 shares of Coastal Banking Company, Inc. Preferred stock at $815.00 per share (less a placement agent fee) for net proceeds of $8,028,157.50. On 2/6/2013, the placement agent notified Coastal Banking
                                                                                                                                                                                                                                                                                                                                               TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




    Company, Inc. that, pursuant to the placement agency agreement, it was terminating the transaction and, therefore, Treasury did not receive any proceeds or pay any fees in connection with the transaction.
83
  	On 2/15/2013, Treasury sold its CPP preferred stock and warrant issued by BancTrust Financial Group, Inc. (“BancTrust”) pursuant to an agreement with BancTrust and Trustmark Corporation (“Trustmark”) entered into on 02/11/2013.
84
  	On 8/14/2013, Treasury sold its CPP preferred stock issued by Florida Bank Group, Inc. (“FBG”) back to FBG for an aggregate purchase price of $8,000,000, pursuant to the terms of the agreement between Treasury and FBG entered into on 2/12/2013.
85
  	On 2/15/2013, pursuant to the terms of the merger of Pacific International Bancorp, Inc. (“Pacific International”) with BBCN Bancorp, Inc. (“BBCN”), Treasury received $7,474,619.97 (representing the par amount together with accrued and unpaid dividends thereon) in respect of the preferred stock that had been issued to
    Treasury by Pacific International. Treasury exchanged its Pacific International warrant for an equivalent warrant issued by BBCN.
86
  	On 4/12/2013, Treasury completed (i) the sale of its CPP preferred in Citizens Republic Bancorp, Inc. (Citizens Republic) to FirstMerit Corporation (FirstMerit) and (ii) the exchange of its warrant in Citizens Republic for a warrant issued by FirstMerit, pursuant to a securities purchase agreement, dated as of 2/19/2013, among
    Treasury, FirstMerit and Citizens Republic.
                                                                                                                                                                                                                                                                                                                                               395
                                                                                                                                                                                                                                                                                                                                            396
87
  	On 4/11/2013, Treasury completed the exchange of its First Security Group, Inc. (FSGI) preferred stock for common stock, pursuant to an exchange agreement, dated as of 2/25/2013, between Treasury and FSGI, and sold the resulting FSGI common stock, pursuant to securities purchase agreements, each dated as of
    4/9/2013, between Treasury and the purchasers party thereto.
88
  	On 3/19/2013, Treasury exercised its warrant on a cashless basis and received (i) 186,589 shares of common stock and (ii) $71.62 in cash in lieu of fractional shares. Treasury sold such shares of common stock on 3/19/2013.
89
  	As a result of the acquisition of ECB Bancorp, Inc. by Crescent Financial Bancshares, Inc., the preferred stock and warrant issued by ECB Bancorp, Inc. were exchanged for a like amount of securities of Crescent Financial Bancshares, Inc., pursuant to the terms of an agreement among Treasury, ECB Bancorp, Inc., and
    Crescent Financial Bancshares, Inc. entered into on 4/1/2013.
90
  	As a result of the merger of Annapolis Bancorp, Inc. into F.N.B. Corporation, the warrant issued by Annapolis Bancorp, Inc. was exchanged for a like warrant issued by F.N.B. Corporation, pursuant to the terms of an agreement among Treasury, Annapolis Bancorp, Inc., and F.N.B. Corporation entered into on 4/6/2013.
91
  	On 4/5/2013, Gold Canyon Bank, Gold Canyon, Arizona was closed by the Arizona Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
92
  	On 4/9/2013, Indiana Bank Corp. filed for Chapter 11 protection in the U.S. Bankruptcy Court for the Southern District of Indiana.
93
  	On 7/17/2013, Treasury entered into a securities purchase agreement with Central Virginia Bankshares, Inc. (CVB) and C&F Financial Corporation (C&F) pursuant to which Treasury agreed to sell to C&F the CPP preferred stock and warrant issued by CVB, subject to the conditions specified in such agreement.
94
  	On 8/12/2013, Anchor BanCorp Wisconsin Inc. (“Anchor”) filed a voluntary petition for Chapter 11 protection in the U.S. Bankruptcy Court for the Western District of Wisconsin to implement a “pre-packaged” Plan of Reorganization in order to facilitate the restructuring of Anchor. On 9/27/ 2013, the Plan of Reorganization
    became effective in accordance with its terms, pursuant to which (i) Treasury’s preferred stock was exchanged for 60,000,000 shares of common stock (the “Common Stock”) and (ii) Treasury’s warrant was cancelled. On 9/27/2013, Treasury sold the Common Stock to purchasers pursuant to securities purchase
    agreements entered into on 9/19/2013.
95
  	On 7/5/2013, Rogers Bancshares, Inc. filed for Chapter 11 protection in the U.S. Bankruptcy Court for the Eastern District of Arkansas.
96
  	On 8/22/2013, Treasury exchanged its preferred stock in Broadway Financial Corporation for 10,146 shares of common stock equivalent representing (i) 50% of the liquidation preference of the preferred stock, plus (ii) 100% of previously accrued and unpaid dividends on the preferred stock ($2,646,000). The common
    stock equivalent will be converted to common stock upon the receipt of certain shareholder approvals.
97
  	This institution has entered into bankruptcy or receivership. For a full list of institutions that have entered bankruptcy or receivership and Treasury’s remaining investments, reference appendices B and C in the section titled “Capital Purchase Program Institutions” in the most recent report to congress found on Treasury’s
    website: www.treasury.gov/initiatives/financial-stability/reports/Pages/Monthly-Report-to-Congress.aspx.

Sources: Treasury, Transactions Report, 9/30/2013; Dividends and Interest Report,10/10/2013; Treasury, response SIGTARP data call, 10/10/2013; Bloomberg, LP, accessed 10/10/2013.




                TABLE D.2
                                                                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                CPP - CITIGROUP, INC. COMMON STOCK DISPOSITION, AS OF 9/30/2013

                    Note    Date                                             Pricing Mechanism6                       Number of Shares                                    Proceeds7
                     1      4/26/2010 - 5/26/2010                                            $4.12                         1,500,000,000                            $6,182,493,158
                     2      5/26/2010 - 6/30/2010                                            $3.90                         1,108,971,857                            $4,322,726,825
                     3      7/23/2010 - 9/30/2010                                            $3.91                         1,500,000,000                            $5,863,489,587
                     4      10/19/2010 - 12/6/2010                                           $4.26                         1,165,928,228                            $4,967,921,811
                     5      12/6/2010                                                        $4.35                         2,417,407,607                           $10,515,723,090
                                                                                                                          Total Proceeds:                        $31,852,354,471
                Notes: Numbers may not total due to rounding. Data as of 9/30/2013. Numbered notes taken verbatim from 9/30/2013 Transactions Report.

                1
                 	 On
                     4/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
                    parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of the sale).
                    Completion of the sale under this authority occurred on 5/26/2010.
                2
                 	 On 5/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
                    parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of the sale).
                    Completion of the sale under this authority occurred on 6/30/2010.
                3
                 	 On 7/23/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
                    parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 9/30/2010 (or upon completion of the sale).
                    Completion of the sale under this authority occured on 9/30/2010.
                4
                 	 On 10/19/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
                    parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 12/31/2010 (or upon completion of the sale), which
                    plan was terminated on 12/6/2010.
                5
                 	 On 12/6/2010, Treasury commenced an underwritten public offering of its remaining 2,417,407,607 shares. Closing of the offering is subject to the fulfillment
                    of certain closing conditions.
                6
                 	 The price set forth is the weighted average price for all sales of Citigroup, Inc. common stock made by Treasury over the course of the corresponding period.
                7
                 	 Amount represents the gross proceeds to Treasury.

                Source: Treasury, Transactions Report, 9/30/2013.
TABLE D.3
CDCI PROGRAM TRANSACTION DETAIL, AS OF 9/30/2013
                                                     Seller                                                                           Purchase Details                                                                 Disposition Details
       Purchase                                                                                                             Amount                                                    Pricing                                        Remaining     Dividend/Interest Paid
Note   Date        Name of Institution                                                State   Investment Description      from CPP    Additional Investment    Investment Amount   Mechanism           Date       Amount     Investment Amount                to Treasury
       9/24/2010   Alternatives Federal Credit Union, Ithaca, NY                       NY     Subordinated Debentures          $­—                       $­—          $2,234,000          Par                                                                   $129,200
       9/17/2010   American Bancorp of Illinois, Inc., Oak Brook, IL                   IL     Subordinated Debentures          $­—                       $­—          $5,457,000          Par                                                                   $492,464
 6     9/24/2010   Atlantic City Federal Credit Union, Lander, WY                      WY     Subordinated Debentures          $­—                       $­—          $2,500,000          Par    9/26/20126    $2,500,000                    $­—                $100,278
       9/24/2010   Bainbridge Bancshares, Inc., Bainbridge, GA                         GA     Preferred Stock                  $­—                       $­—          $3,372,000          Par                                                                   $195,014
 8     9/29/2010   Bancorp of Okolona, Inc., Okolona, MS                               MS     Subordinated Debentures          $­—                       $­—          $3,297,000          Par    3/13/20136    $3,297,000                    $­—                $250,975
1, 2   9/29/2010   BancPlus Corporation, Ridgeland, MS                                 MS     Preferred Stock           $50,400,000           $30,514,000            $80,914,000          Par                                                                 $4,657,050
       9/29/2010   BankAsiana, Palisades Park, NJ                                      NJ     Preferred Stock                  $­—                       $­—          $5,250,000          Par                                                                   $302,167
       9/29/2010   Bethex Federal Credit Union, Bronx, NY                              NY     Subordinated Debentures          $­—                       $­—           $502,000           Par                                                                    $28,893
       9/29/2010   Border Federal Credit Union, Del Rio, TX                            TX     Subordinated Debentures          $­—                       $­—          $3,260,000          Par                                                                   $187,631
 6     9/24/2010   Brewery Credit Union, Milwaukee, WI                                 WI     Subordinated Debentures          $­—                       $­—          $1,096,000          Par    10/3/20126    $1,096,000                    $­—                 $44,388
       9/30/2010   Brooklyn Cooperative Federal Credit Union, Brooklyn, NY             NY     Subordinated Debentures          $­—                       $­—           $300,000           Par                                                                    $17,250
       9/24/2010   Buffalo Cooperative Federal Credit Union, Buffalo, NY               NY     Subordinated Debentures          $­—                       $­—           $145,000           Par                                                                     $8,386
       9/24/2010   Butte Federal Credit Union, Biggs, CA                               CA     Subordinated Debentures          $­—                       $­—          $1,000,000          Par                                                                    $57,833
 6     9/29/2010   Carter Federal Credit Union, Springhill, LA                         LA     Subordinated Debentures          $­—                       $­—          $6,300,000          Par     2/6/20136    $2,500,000            $3,800,000                 $336,350
1, 3   8/27/2010   Carver Bancorp, Inc, New York, NY                                   NY     Common Stock              $18,980,000                      $­—         $18,980,000          Par                                                                   $446,507
       9/17/2010   CFBanc Corporation, Washington, DC                                  DC     Preferred Stock                  $­—                       $­—          $5,781,000          Par                                                                   $336,583
 1     8/13/2010                                                                              Preferred Stock            $7,462,000                      $­—                 $­—          Par
                   Citizens Bancshares Corporation, Atlanta, GA                        GA                                                                                                                                                                       $703,504
 2a    9/17/2010                                                                              Preferred Stock                  $­—              $4,379,000           $11,841,000          Par
 1     9/29/2010   Community Bancshares of Mississippi, Inc., Brandon, MS              MS     Preferred Stock           $54,600,000                      $­—         $54,600,000          Par                                                                 $3,142,533
1, 2   9/29/2010   Community Bank of the Bay, Oakland, CA                              CA     Preferred Stock            $1,747,000             $2,313,000            $4,060,000          Par                                                                   $213,376
       9/24/2010   Community First Guam Federal Credit Union, Hagatna, GU              GU     Subordinated Debentures          $­—                       $­—          $2,650,000          Par                                                                   $153,258
       9/29/2010   Community Plus Federal Credit Union, Rantoul, IL                    IL     Subordinated Debentures          $­—                       $­—           $450,000           Par                                                                    $25,900
       9/24/2010   Cooperative Center Federal Credit Union, Berkeley, CA               CA     Subordinated Debentures          $­—                       $­—          $2,799,000          Par                                                                   $161,876
       9/29/2010   D.C. Federal Credit Union, Washington, DC                           DC     Subordinated Debentures          $­—                       $­—          $1,522,000          Par                                                                    $87,600
       9/29/2010   East End Baptist Tabernacle Federal Credit Union, Bridgeport, CT    CT     Subordinated Debentures          $­—                       $­—             $7,000           Par                                                                       $403
       9/29/2010   Episcopal Community Federal Credit Union, Los Angeles, CA           CA     Subordinated Debentures          $­—                       $­—           $100,000           Par                                                                     $5,756
       9/24/2010   Fairfax County Federal Credit Union, Fairfax, VA                    VA     Subordinated Debentures          $­—                       $­—          $8,044,000          Par                                                                   $465,211
       9/29/2010   Faith Based Federal Credit Union, Oceanside, CA                     CA     Subordinated Debentures          $­—                       $­—            $30,000           Par                                                                     $1,727
       9/29/2010   Fidelis Federal Credit Union, New York, NY                          NY     Subordinated Debentures          $­—                       $­—            $14,000           Par                                                                       $806
 1     8/13/2010   First American International Corp., Brooklyn, NY                    NY     Preferred Stock           $17,000,000                      $­—         $17,000,000          Par                                                                 $1,037,976
1, 7   9/24/2010   First Choice Bank, Cerritos, CA                                     CA     Preferred Stock            $5,146,000                      $­—          $5,146,000          Par     5/1/20137    $5,146,000                    $­—                $267,878
 1     9/17/2010   First Eagle Bancshares, Inc., Hanover Park, IL                      IL     Subordinated Debentures    $7,875,000                      $­—          $7,875,000          Par                                                                   $710,675
       9/29/2010   First Legacy Community Credit Union, Charlotte, NC                  NC     Subordinated Debentures          $­—                       $­—          $1,000,000          Par                                                                    $57,556
 1     9/29/2010   First M&F Corporation, Kosciusko, MS                                MS     Preferred Stock           $30,000,000                      $­—         $30,000,000          Par    8/30/20137   $30,000,000                    $­—              $1,751,667
 1     9/29/2010   First Vernon Bancshares, Inc., Vernon, AL                           AL     Preferred Stock            $6,245,000                      $­—          $6,245,000          Par                                                                    $15,959
 6     9/29/2010   Freedom First Federal Credit Union, Roanoke, VA                     VA     Subordinated Debentures          $­—                       $­—          $9,278,000          Par    6/12/20136    $9,278,000                    $­—                $501,527
 6     9/24/2010   Gateway Community Federal Credit Union, Missoula, MT                MT     Subordinated Debentures          $­—                       $­—          $1,657,000          Par   10/17/20126    $1,657,000                    $­—                 $68,397
       9/17/2010   Genesee Co-op Federal Credit Union, Rochester, NY                   NY     Subordinated Debentures          $­—                       $­—           $300,000           Par                                                                    $17,467
 6     9/29/2010   Greater Kinston Credit Union, Kinston, NC                           NC     Subordinated Debentures          $­—                       $­—           $350,000           Par    4/10/20126     $350,000                     $­—                 $10,714
 1     7/30/2010   Guaranty Capital Corporation, Belzoni, MS                           MS     Subordinated Debentures   $14,000,000                      $­—         $14,000,000          Par                                                                 $1,320,083
       9/29/2010   Hill District Federal Credit Union, Pittsburgh, PA                  PA     Subordinated Debentures          $­—                       $­—           $100,000           Par                                                                     $5,756
       9/17/2010   Hope Federal Credit Union, Jackson, MS                              MS     Subordinated Debentures          $­—                       $­—          $4,520,000          Par                                                                   $263,164
1, 2   9/10/2010   IBC Bancorp, Inc., Chicago, IL                                      IL     Subordinated Debentures    $4,205,000             $3,881,000            $8,086,000          Par                                                                   $734,591
 1     9/3/2010    IBW Financial Corporation, Washington, DC                           DC     Preferred Stock            $6,000,000                      $­—          $6,000,000          Par                                                                   $354,000
                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




       9/29/2010   Independent Employers Group Federal Credit Union, Hilo, HI          HI     Subordinated Debentures          $­—                       $­—           $698,000           Par                                                                    $40,174
       9/3/2010    Kilmichael Bancorp, Inc., Kilmichael, MS                            MS     Subordinated Debentures          $­—                       $­—          $3,154,000          Par                                                                   $288,433
 1     9/29/2010   Lafayette Bancorp, Inc., Oxford, MS                                 MS     Preferred Stock            $4,551,000                      $­—          $4,551,000          Par                                                                   $261,935
       9/24/2010   Liberty County Teachers Federal Credit Union, Liberty, TX           TX     Subordinated Debentures          $­—                       $­—           $435,000           Par                                                                    $25,158
1, 2   9/24/2010   Liberty Financial Services, Inc., New Orleans, LA                   LA     Preferred Stock            $5,645,000             $5,689,000           $11,334,000          Par                                                                   $655,483
                                                                                                                                                                                                                                                                             397




                                                                                                                                                                                                                                                    Continued on next page
CDCI PROGRAM TRANSACTION DETAIL, AS OF 9/30/2013                                                                     (CONTINUED)                                                                                                                                                                                    398
                                                        Seller                                                                                      Purchase Details                                                                                     Disposition Details
         Purchase                                                                                                                      Amount                                                             Pricing                                                       Remaining        Dividend/Interest Paid
Note     Date         Name of Institution                                                        State   Investment Description      from CPP      Additional Investment       Investment Amount       Mechanism               Date                Amount       Investment Amount                   to Treasury
         9/24/2010    Lower East Side People’s Federal Credit Union, New York, NY                 NY     Subordinated Debentures            $­—                        $­—               $898,000               Par                                                                                     $51,934
     1   8/20/2010    M&F Bancorp, Inc., Durham, NC                                               NC     Preferred Stock           $11,735,000                         $­—            $11,735,000               Par                                                                                    $700,840
     1   8/20/2010                                                                                       Preferred Stock            $5,500,000                         $­—                      $­—             Par
                      Mission Valley Bancorp, Sun Valley, CA                                      CA                                                                                                                                                                                                   $608,154
    2a   9/24/2010                                                                                       Preferred Stock                    $­—               $4,836,000              $10,336,000               Par
         9/24/2010    Neighborhood Trust Federal Credit Union, New York, NY                       NY     Subordinated Debentures            $­—                        $­—               $283,000               Par                                                                                     $16,368
         9/29/2010    North Side Community Federal Credit Union, Chicago, IL                      IL     Subordinated Debentures            $­—                        $­—               $325,000               Par                                                                                     $18,706
         9/24/2010    Northeast Community Federal Credit Union, San Francisco, CA                 CA     Subordinated Debentures            $­—                        $­—               $350,000               Par                                                                                     $20,242
         9/29/2010    Opportunities Credit Union, Burlington, VT                                  VT     Subordinated Debentures            $­—                        $­—             $1,091,000               Par                                                                                     $62,793
     1   8/13/2010    PGB Holdings, Inc., Chicago, IL                                             IL     Preferred Stock            $3,000,000                         $­—             $3,000,000               Par                                                                                     $30,333
         9/24/2010    Phenix Pride Federal Credit Union, AL                                       AL     Subordinated Debentures            $­—                        $­—               $153,000               Par                                                                                      $8,849
1, 4     8/13/2010    Premier Bancorp, Inc., Wilmette, IL                                         IL     Subordinated Debentures    $6,784,000                         $­—             $6,784,000               Par    1/29/20134                 $79,900                        $­—                         $­—
         9/24/2010    Prince Kuhio Federal Credit Union, Honolulu, HI                             HI     Subordinated Debentures            $­—                        $­—               $273,000               Par                                                                                     $15,789
1, 7     9/29/2010    PSB Financial Corporation, Many, LA                                         LA     Preferred Stock            $9,734,000                         $­—             $9,734,000               Par   12/28/20127              $9,734,000                        $­—                   $437,489
         9/24/2010    Pyramid Federal Credit Union, Tucson, AZ                                    AZ     Subordinated Debentures            $­—                        $­—             $2,500,000               Par                                                                                    $144,583
         9/29/2010    Renaissance Community Development Credit Union, Somerset, NJ                NJ     Subordinated Debentures            $­—                        $­—                 $31,000              Par                                                                                      $1,784
         9/24/2010    Santa Cruz Community Credit Union, Santa Cruz, CA                           CA     Subordinated Debentures            $­—                        $­—             $2,828,000               Par                                                                                    $163,553
     1   9/29/2010    Security Capital Corporation, Batesville, MS                                MS     Preferred Stock           $17,910,000                         $­—            $17,910,000               Par                                                                                  $1,030,820
                                                                                                                                                                                                                                                                                                                    APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




1, 2     9/29/2010    Security Federal Corporation, Aiken, SC                                     SC     Preferred Stock           $18,000,000                $4,000,000              $22,000,000               Par                                                                                  $1,266,222
         9/29/2010    Shreveport Federal Credit Union, Shreveport, LA                             LA     Subordinated Debentures            $­—                        $­—             $2,646,000               Par                                                                                    $152,292
1, 2     8/6/2010     Southern Bancorp, Inc., Arkadelphia, AR                                     AR     Preferred Stock           $11,000,000               $22,800,000              $33,800,000               Par                                                                                  $2,044,900
         9/29/2010    Southern Chautauqua Federal Credit Union, Lakewood, NY                      NY     Subordinated Debentures            $­—                        $­—             $1,709,000               Par                                                                                     $98,362
         9/29/2010    Southside Credit Union, San Antonio, TX                                     TX     Subordinated Debentures            $­—                        $­—             $1,100,000               Par                                                                                     $63,311
     1   9/29/2010    State Capital Corporation, Greenwood, MS                                    MS     Preferred Stock           $15,750,000                         $­—            $15,750,000               Par                                                                                    $906,500
1, 2     9/29/2010    The First Bancshares, Inc., Hattiesburg, MS                                 MS     Preferred Stock            $5,000,000               $12,123,000              $17,123,000               Par                                                                                    $985,524
         9/29/2010    The Magnolia State Corporation, Bay Springs, MS                             MS     Subordinated Debentures            $­—                        $­—             $7,922,000               Par                                                                                    $706,730
         9/24/2010    Thurston Union of Low-Income People (TULIP) Cooperative Credit Union, WA    WA     Subordinated Debentures            $­—                        $­—                 $75,000              Par                                                                                      $4,338
         9/24/2010    Tongass Federal Credit Union, Ketchikan, AK                                 AK     Subordinated Debentures            $­—                        $­—             $1,600,000               Par                                                                                     $92,533
     1   8/13/2010    Tri-State Bank of Memphis, Memphis, TN                                      TN     Preferred Stock            $2,795,000                         $­—             $2,795,000               Par                                                                                    $168,011
         9/24/2010    Tulane-Loyola Federal Credit Union, New Orleans, LA                         LA     Subordinated Debentures            $­—                        $­—               $424,000               Par                                                                                     $24,521
         9/24/2010    Union Baptist Church Federal Credit Union, Fort Wayne, IN                   IN     Subordinated Debentures            $­—                        $­—                 $10,000              Par                                                                                        $578
         9/29/2010    Union Settlement Federal Credit Union, New York, NY                         NY     Subordinated Debentures            $­—                        $­—               $295,000               Par                                                                                     $16,979
     1   9/3/2010     United Bancorporation of Alabama, Inc., Atmore, AL                          AL     Preferred Stock           $10,300,000                         $­—            $10,300,000               Par                                                                                    $607,700
                      UNITEHERE Federal Credit Union, (Workers United Federal Credit
     6   9/29/2010                                                                                NY     Subordinated Debentures            $­—                        $­—                 $57,000              Par    3/20/20136                 $57,000                        $­—                     $2,822
                      Union), New York, NY
1, 2     7/30/2010    University Financial Corp, Inc., St. Paul, MN                               MN     Subordinated Debentures   $11,926,000               $10,189,000              $22,115,000               Par   11/28/20126            $22,115,000                         $­—                 $1,595,843
     6   9/24/2010    UNO Federal Credit Union, New Orleans, LA                                   LA     Subordinated Debentures            $­—                        $­—               $743,000               Par     9/4/20136                $743,000                        $­—                    $43,754
         9/29/2010    Vigo County Federal Credit Union, Terre Haute, IN                           IN     Subordinated Debentures            $­—                        $­—             $1,229,000               Par                                                                                     $70,736
         9/24/2010    Virginia Community Capital, Inc., Christiansburg, VA                        VA     Subordinated Debentures            $­—                        $­—             $1,915,000               Par                                                                                    $110,751
                                                                                                                                                  Total Purchase Amount            $570,073,000                         Total Capital Repayment Amount                $88,552,900
                                                                                                                                                           TOTAL TREASURY COMMUNITY DEVELOPMENT INITIATIVE (CDCI) INVESTMENT AMOUNT                                 $481,520,100
Notes: Numbers may not total due to rounding. Data as of 9/30/2013. Numbered notes are taken verbatim from Treasury’s 9/30/2013 Transactions Report.

1
 	 This institution qualified to participate in the Community Development Capital Initiative (CDCI), and has exchanged its Capital Purchase Program investment for an equivalent amount of investment with Treasury under the CDCI program terms.
2
 	Treasury made an additional investment in this institution at the time it entered the CDCI program.
2a
  	Treasury made an additional investment in this institution after the time it entered the CDCI program.
3
 	On 10/28/2011, Treasury completed the exchange of all Carver Bancorp, Inc. (“Carver”) preferred stock held by Treasury for 2,321,286 shares of Carver common stock, pursuant to the terms of the agreement between Treasury and Carver entered into on 6/29/2011. Accrued and previously unpaid dividends \
    were paid on the date of the exchange.
4
 	 On 3/23/2012, Premier Bank, Wilmette, IL, the banking subsidiary of Premier Bancorp, Inc., was closed by the Illinois Department of Financial and Professional Regulation - Division of Banking, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver. On 1/29/2013, UST received $79,900
     representing the total amount of distributions paid to creditors as a result of the liquidation of Premier Bancorp, Inc.
5
 	Repayment pursuant to Section 5 of the CDCI Certificate of Designation.
6
 	 Repayment pursuant to Section 6.10 of the CDCI Securities Purchase Agreement.
7
 	 Repayment pursuant to Section 5 of the CDCI Exchange Agreement.
8
 	Repayment pursuant to Section 6.11 of the CDCI Securities Purchase Agreement.
9
 	Repayment pursuant to Section 5.11 of the CDCI Exchange Agreement.

Sources: Treasury, Transactions Report, 9/30/2013; Treasury, Dividends and Interest Report, 10/10/2013.
TABLE D.4
AIFP TRANSACTION DETAIL, AS OF 9/30/2013
                                                                                                                                         Treasury Investment After Exchange/
                                           Initial Investment                                   Exchange/Transfer/Other Details          Transfer/Other                                                                Payment or Disposition1
                                                                                                                                                                                                                                                  Remaining
                                                                                                                                                                                                                                Remaining        Investment      Dividend/
                          Transaction                                                                                                                                        Amount/                                   Amount/ Investment          Amount/ Interest Paid to
              Date        Type          Seller      Description           Amount Note Date          Type                  Amount Note Obligor          Note Description      Equity %        Date         Type         Proceeds Description        Equity %      Treasurya
                                                    Preferred                                      Exchange for
                                                    Stock w/                                       convertible                                               Convertible
              12/29/2008 Purchase       GMAC                       $5,000,000,000       12/30/2009                 $5,000,000,000                      21,
                                                    Exercised                                      preferred                             GMAC (Ally)          Preferred $5,937,500,000
                                                    Warrants                                       stock                                               22
                                                                                                                                                                 Stock
                                                                                                  Partial
                                                    Convertible
                                                                                                  conversion
                                                    Preferred
                                                                                                  of preferred
              5/21/2009   Purchase      GMAC        Stock w/       $7,500,000,000   22 12/30/2009                  $3,000,000,000
                                                                                                  stock for
                                                    Exercised
                                                                                                  common
                                                    Warrants
                                                                                                  stock
GMAC                                                                                                                                                 3,
                                                                                                                                                               Common
(Ally),                                                                                            Partial                               GMAC (Ally) 26,                        73.8%                                                                         $3,538,878,132
                                                    Convertible                                                                                                  Stock
Detroit, MI                                                                                        conversion                                        32
                                                    Preferred
                                                                                    22,            of preferred
              12/30/2009 Purchase       GMAC        Stock w/       $1,250,000,000       12/30/2010                 $5,500,000,000   26
                                                                                    26             stock for
                                                    Exercised
                                                                                                   common
                                                    Warrants
                                                                                                   stock
                                                                                                    Exchange
                                                    Trust
                                                                                                    for amended
                                                    Preferred                                                                                                     Trust
                                                                                                    and restated
              12/30/2009 Purchase       GMAC        Securities     $2,540,000,000       3/1/2011                   $2,670,000,000   27   GMAC (Ally) 27       Preferred $2,670,000,000   3/2/2011 Disposition28   $2,667,000,000        N/A             $­—
                                                                                                    Trust
                                                    w/ Exercised                                                                                              Securities
                                                                                                    Preferred
                                                    Warrants
                                                                                                    Securities
                                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                                               TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013
                                                                                                                                                                                                                                                                               399
AIFP TRANSACTION DETAIL, AS OF 9/30/2013                                              (CONTINUED)                                                                                                                                                                                          400
                                                                                                                                            Treasury Investment After Exchange/
                                           Initial Investment                                    Exchange/Transfer/Other Details            Transfer/Other                                                                     Payment or Disposition1
                                                                                                                                                                                                                                                              Remaining
                                                                                                                                                                                                                                        Remaining            Investment      Dividend/
                          Transaction                                                                                                                                             Amount/                                      Amount/ Investment              Amount/ Interest Paid to
              Date        Type          Seller      Description             Amount Note Date          Type                    Amount Note Obligor         Note Description        Equity %          Date         Type          Proceeds Description            Equity %      Treasurya
                                                                                                      Exchange
                                        General
                                                    Debt                                              for equity
              12/29/2008 Purchase       Motors                        $884,024,131    2   5/29/2009                     $884,024,131    3
                                                    Obligation                                        interest in
                                        Corporation
                                                                                                      GMAC
                                                                                                      Exchange
                                                    Debt
                                        General                                                       for preferred
                                                    Obligation
              12/31/2008 Purchase       Motors                      $13,400,000,000       7/10/2009   and common      $13,400,000,000   7
                                                    w/ Additional
                                        Corporation                                                   stock in New
                                                    Note
                                                                                                      GM
                                                                                                      Exchange
                                                    Debt
                                        General                                                       for preferred                         General       10,
                                                    Obligation                                                                                                    Preferred
              4/22/2009   Purchase      Motors                       $2,000,000,000   4   7/10/2009   and common       $2,000,000,000   7   Motors        11,               $2,100,000,000 12/15/2010       Repayment     $2,139,406,778         N/A                $­—
                                                    w/ Additional                                                                                                    Stock
                                        Corporation                                                   stock in New                          Company       24
                                                    Note
                                                                                                      GM
                                                                                                                                                                                                                 Partial                    Common
                                                                                                                                                                                             11/18/2010                  $11,743,303,903                         36.9%
                                                                                                                                                                                                           Disposition25                      Stock
                                                                                                                                                                                                              Partial                       Common
                                                                                                                                                                                             11/26/2010                   $1,761,495,577                        32.04%
                                                                                                                                                                                                        Disposition25                         Stock
                                                                                                      Exchange                                                                                                Partial                       Common
                                                    Debt                                                                                                                                     12/21/2012                   $5,500,000,000                        21.97%
                                        General                                                       for preferred                         General       10,                                           Disposition33                         Stock
                                                    Obligation                                                                                                    Common
              5/20/2009   Purchase      Motors                       $4,000,000,000   5   7/10/2009   and common       $4,000,000,000   7   Motors        11,                       60.8%
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                                                    w/ Additional                                                                                                   Stock                                     Partial                       Common
                                        Corporation                                                   stock in New                          Company       25                                  4/11/2013                   $1,637,839,844                        17.69%
                                                    Note                                                                                                                                                Disposition34                         Stock
                                                                                                      GM
                                                                                                                                                                                                              Partial                       Common
                                                                                                                                                                                              6/12/2013                   $1,031,700,000                        13.80%
                                                                                                                                                                                                        Disposition35                         Stock
                                                                                                                                                                                                              Partial                       Common
                                                                                                                                                                                              9/13/2013                   $3,822,724,832                         7.32%
                                                                                                                                                                                                        Disposition36                         Stock
                                                                                                                                                                                                                Partial                         Debt
                                                                                                                                                                                              7/10/2009                    $360,624,198                  $6,711,864,407
                                                                                                                                                                                                            Repayment                      Obligation
                                                                                                                                                                                                                Partial                         Debt
                                                                                                      Exchange                                                                               12/18/2009                   $1,000,000,000                 $5,711,864,407
                                                    Debt                                                                                    General                                                         Repayment                      Obligation
                                        General                                                       for preferred
                                                    Obligation                                                                              Motors        11,         Debt
General       5/27/2009   Purchase      Motors                        $360,624,198    6   7/10/2009   and common        $360,624,198    7                                   $7,072,488,605                      Partial                         Debt
                                                    w/ Additional                                                                           Holdings      12     Obligation                   1/21/2010                     $35,084,421                  $5,676,779,986
Motorsb,c                               Corporation                                                   stock in New                                                                                          Repayment                      Obligation                     $756,714,508
                                                    Note                                                                                    LLC
Detroit, MI                                                                                           GM
                                                                                                                                                                                                                Partial                         Debt
                                                                                                                                                                                              3/31/2010                   $1,000,000,000                 $4,676,779,986
                                                                                                                                                                                                            Repayment                      Obligation
                                                                                                                                                                                              4/20/2010     Repayment     $4,676,779,986         N/A                $­—
                                                                                                      Exchange
                                                    Debt
                                        General                                                       for preferred
                                                    Obligation
              6/3/2009    Purchase      Motors                      $30,100,000,000   8   7/10/2009   and common      $22,041,706,310   9
                                                    w/ Additional
                                        Corporation                                                   stock in New
                                                    Note
                                                                                                      GM
                                                                                                      Transfer of
                                                                                          7/10/2009   debt to New      $7,072,488,605   9
                                                                                                      GM
                                                                                                                                            Motors
                                                                                                      Debt left at                                                    Debt                                      Partial                         Debt
                                                                                          7/10/2009                     $985,805,085    9   Liquidation   29                  $985,805,085    3/31/2011                     $50,000,000                   $935,805,085
                                                                                                      Old GM                                                     Obligation                                 Repayment                      Obligation
                                                                                                                                            Company
                                                                                                                                                                                                                Partial                         Debt
                                                                                                                                                                                               4/5/2011                     $45,000,000                   $890,805,085
                                                                                                                                                                                                            Repayment                      Obligation
                                                                                                                                                                                                                Partial                         Debt
                                                                                                                                                                                               5/3/2011                     $15,887,795                   $874,917,290
                                                                                                                                                                                                            Repayment                      Obligation
                                                                                                                                                                                                                Partial                         Debt
                                                                                                                                                                                             12/16/2011                        $144,444                   $874,772,846
                                                                                                                                                                                                            Repayment                      Obligation
                                                                                                                                                                                                                Partial                         Debt
                                                                                                                                                                                             12/23/2011                     $18,890,294                   $855,882,552
                                                                                                                                                                                                            Repayment                      Obligation
                                                                                                                                                                                                                Partial                         Debt
                                                                                                                                                                                              1/11/2012                      $6,713,489                   $849,169,063
                                                                                                                                                                                                            Repayment                      Obligation
                                                                                                                                                                                                                Partial                         Debt
                                                                                                                                                                                             10/23/2012                        $435,097                   $848,733,966
                                                                                                                                                                                                            Repayment                      Obligation
                                                                                                                                                                                                                Partial                         Debt
                                                                                                                                                                                              5/22/2013                     $10,048,968                   $838,684,999
                                                                                                                                                                                                            Repayment                      Obligation
                                                                                                                                                                                                                Partial                         Debt
                                                                                                                                                                                              9/20/2013                     $11,832,877                   $826,852,122
                                                                                                                                                                                                            Repayment                      Obligation
                                                                                                                                                                                                                                                                  Continued on next page
AIFP TRANSACTION DETAIL, AS OF 9/30/2013                                               (CONTINUED)
                                                                                                                                              Treasury Investment After Exchange/
                                          Initial Investment                                       Exchange/Transfer/Other Details            Transfer/Other                                                                        Payment or Disposition1
                                                                                                                                                                                                                                                                     Remaining
                                                                                                                                                                                                                                             Remaining              Investment      Dividend/
                         Transaction                                                                                                                                                Amount/                                         Amount/ Investment                Amount/ Interest Paid to
             Date        Type          Seller         Description            Amount Note Date           Type                  Amount Note Obligor           Note Description        Equity %           Date           Type          Proceeds Description              Equity %      Treasurya
                                                      Debt                                                                                                                                                                                              Debt
                                       Chrysler       Obligation                                                                                                                                                   Partial                         Obligation
             1/16/2009   Purchase                                     $1,500,000,000   13                                                                                                        3/17/2009                        $3,499,055                    $1,496,500,945
                                       FinCo          w/ Additional                                                                                                                                            Repayment                        w/ Additional
                                                      Note                                                                                                                                                                                              Note
                                                                                                                                                                                                                                                        Debt
                                                                                                                                                                                                                   Partial                         Obligation
                                                                                                                                                                                                 4/17/2009                       $31,810,122                    $1,464,690,823
                                                                                                                                                                                                               Repayment                        w/ Additional
                                                                                                                                                                                                                                                        Note
Chrysler                                                                                                                                                                                                                                                Debt
FinCo,                                                                                                                                                                                                             Partial                         Obligation
                                                                                                                                                                                                 5/18/2009                       $51,136,084                    $1,413,554,739      $7,405,894
Farmington                                                                                                                                                                                                     Repayment                        w/ Additional
Hills, MI                                                                                                                                                                                                                                               Note
                                                                                                                                                                                                                                                        Debt
                                                                                                                                                                                                                   Partial                         Obligation
                                                                                                                                                                                                 6/17/2009                       $44,357,710                    $1,369,197,029
                                                                                                                                                                                                               Repayment                        w/ Additional
                                                                                                                                                                                                                                                        Note
                                                                                                                                                                                                                                                   Additional
                                                                                                                                                                                                 7/14/2009     Repayment       $1,369,197,029                              $­—
                                                                                                                                                                                                                                                        Note
                                                                                                                                                                                                 7/14/2009 Repayment*            $15,000,000             N/A               $­—
                                                                                                                                                                        Debt
                                                      Debt
                                                                                                        Transfer of                                                obligation
                                       Chrysler       Obligation                                                                              Chrysler
             1/2/2009    Purchase                                     $4,000,000,000        6/10/2009   debt to New     $500,000,000     19                 20             w/ $3,500,000,000     5/14/2010                     $1,900,000,000            N/A               $­—
                                       Holding        w/ Additional                                                                           Holding                                                          Termination
                                                                                                        Chrysler                                                   additional
                                                      Note                                                                                                                                                             and
                                                                                                                                                                        note
                                                                                                                                                                                                                settlement
                                                      Debt                                                                                                                                                      payment20
                                       Chrysler       Obligation
             4/29/2009   Purchase                                               $­—    14
                                       Holding        w/ Additional
                                                      Note
                                                      Debt
                                       Chrysler       Obligation
             4/29/2009   Purchase                                      $280,130,642    15                                                                                                        7/10/2009     Repayment        $280,130,642             N/A               $­—
                                       Holding        w/ Additional
                                                      Note
                                                      Debt                                              Completion
                                                                                                                                              Old Carco              Right to                                 Proceeds                              Right to
                                                      Obligation                                        of
             5/1/2009    Purchase      Old Chrysler                   $1,888,153,580   16 4/30/2010                   ($1,888,153,580)   23   Liquidation   23        recover            N/A     5/10/2010 from sale of          $30,544,528         recover              N/A
                                                      w/ Additional                                     bankruptcy
                                                                                                                                              Trust                 proceeds                                  collateral                           proceeds
                                                      Note                                              proceeding;
                                                                                                        transfer of
                                                      Debt                                              collateral                                                                                            Proceeds                              Right to
                                                      Obligation                                        security to
             5/20/2009   Purchase      Old Chrysler                             $­—    17                                                                                                         9/9/2010 from sale of           $9,666,784         recover              N/A
                                                      w/ Additional                                     liquidation                                                                                           collateral                           proceeds
                                                      Note                                              trust
                                                                                                                                                                                                              Proceeds                              Right to
Chrysler,                                                                                                                                                                                       12/29/2010 from sale of           $7,844,409         recover              N/A
Auburn                                                                                                                                                                                                        collateral                           proceeds                      $1,171,263,942
Hills, MI
                                                                                                                                                                                                              Proceeds                              Right to
                                                                                                                                                                                                 4/30/2012 from sale of           $9,302,185         recover              N/A
                                                                                                                                                                                                              collateral                           proceeds
                                                                                                                                                                         Debt
                                                      Debt
                                                                                                                                                                    obligation
                                                      Obligation                                        Issuance
                                                                                                                                              Chrysler                      w/
                                       New            w/ Additional                                     of equity                                           19,                                               Repayment -
             5/27/2009   Purchase                                     $6,642,000,000   18 6/10/2009                               $­—         Group                 additional $7,142,000,000    5/24/2011                     $5,076,460,000
                                       Chrysler       Note, Zero                                        in New                                              31                                                   Principal
                                                                                                                                              LLC                 note & zero
                                                      Coupon                                            Chrysler
                                                                                                                                                                      coupon
                                                      Note, Equity
                                                                                                                                                                         note
                                                                                                                                                                                                               Termination
                                                                                                                                                                                                 5/24/2011     of undrawn      $2,065,540,000            N/A               $­—
                                                                                                                                                                                                                  facility31
                                                                                                                                                                                                              Repayment*
                                                                                                                                                                                                 5/24/2011     - Additional     $288,000,000
                                                                                                                                                                                                                      Note
                                                                                                                                                                                                              Repayment*
                                                                                                                                                                                                                                                                                                  TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




                                                                                                                                                                                                                   - Zero
                                                                                                                                                                                                 5/24/2011                      $100,000,000
                                                                                                                                                                                                                  Coupon
                                                                                                                                                                                                                     Note
                                                                                                                                              Chrysler
                                                                                                                                                                    Common
                                                                                                                                              Group         30                          6.6%     7/21/2011     Disposition      $560,000,000             N/A               $­—
                                                                                                                                                                      equity
                                                                                                                                              LLC
                                                                                                                                                                                                                                                                         Continued on next page
                                                                                                                                                                                                                                                                                                  401
AIFP TRANSACTION DETAIL, AS OF 9/30/2013                                                       (CONTINUED)                                                                                                                                                                                                              402
                                                                                                                                                             Treasury Investment After Exchange/
                                              Initial Investment                                             Exchange/Transfer/Other Details                 Transfer/Other                                                                            Payment or Disposition1
                                                                                                                                                                                                                                                                                        Remaining
                                                                                                                                                                                                                                                                Remaining              Investment      Dividend/
                           Transaction                                                                                                                                                                 Amount/                                         Amount/ Investment                Amount/ Interest Paid to
             Date          Type           Seller        Description                Amount Note Date               Type                      Amount Note Obligor           Note Description             Equity %           Date         Type            Proceeds Description              Equity %      Treasurya
                                                                                                                                                                                                                                                      Additional Proceeds*         $403,000,000
                                    Total Initial Investment Amount $81,344,932,551                                                                                                                                                                          Total Payments $46,908,861,049
                                                                                                                                                                                                                                        Total Treasury Investment Amount $28,882,377,922
Notes: Numbers may not total due to rounding. Data as of 9/30/2013. Numbered notes were taken verbatim from Treasury’s 9/30/2013, Transaction Report.

GMAC refers to GMAC Inc., formerly known as GMAC LLC., and now known as Ally Financial, Inc. (“Ally”).
“Old GM” refers to General Motors Corporation, which is now known as Motors Liquidation Company.
“New GM” refers to General Motors Company, the company that purchased Old GM’s assets on 7/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code. See also footnote 11.
“Chrysler FinCo” refers to Chrysler Financial Services Americas LLC.
“Chrysler Holding” refers to CGI Holding LLC, the company formerly known as “Chrysler Holding LLC”.
“Old Chrysler” refers to Old Carco LLC (fka Chrysler LLC).
“New Chrysler” refers to Chrysler Group LLC, the company that purchased Old Chrysler’s assets on 6/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code.

1	
   
   Payment      amount does not include accrued and unpaid interest on a debt obligation, which must be paid at the time of principal repayment.
2	
   Treasury committed to lend General Motors Corporation up to $1,000,000,000. The ultimate funding was dependent upon the level of investor participation in GMAC LLC’s rights offering. The amount has been updated to reflect the final level of funding.
3	
   Pursuant to its rights under the loan agreement with Old GM reported on 12/29/2008, Treasury exchanged its $884 million loan to Old GM for a portion of Old GM’s common equity interest in GMAC. Treasury held a 35.4% common equity interest in GMAC until the transactions reported on 12/30/2009.
   (See transactions marked by orange line in the table above and footnote 22.)
4	
   This transaction is an amendment to Treasury’s 12/31/2008 agreement with Old GM (the “Old GM Loan”), which brought the total loan amount to $15,400,000,000.
5	
   This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,400,000,000.
6	
   This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,760,624,198. The $360,624,198 loan was used to capitalize GM Warranty LLC, a special purpose vehicle created by Old GM. On 7/10/2009, the principal amount was included in the $7.07 billion
   of debt assumed by the new GM, as explained in footnote 10.
7	
   On 7/10/2009, the principal amount outstanding under the Old GM Loan and interest accrued there under were extinguished and exchanged for privately placed preferred and common equity in New GM. (See green lines in the table above.)
                                                                                                                                                                                                                                                                                                                        APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




8	
   Under the terms of the $33.3 billion debtor-in-possession credit agreement dated 6/3/2009 with Old GM (the “GM DIP Loan”), Treasury’s commitment amount was $30.1 billion. The remaining $2.2 billion of the financing was provided by Canadian government entities. As of 7/9/2009, $30.1 billion of funds
   had been disbursed by Treasury.
9	
   On 7/10/2009, Treasury and Old GM amended the GM DIP Loan, and the principal amount and interest accrued there under were extinguished and exchanged for privately placed preferred and common equity in New GM, except for (i) $7.07 billion, which was assumed by New GM as a new obligation under
   the terms of a separate credit agreement between Treasury and New GM (see transactions marked by green lines in table above) and (ii) $986 million, which remained a debt obligation of Old GM.
10	
   In total, for the exchange of the Old GM Loan and the GM DIP Loan (other than as explained in footnote 9), Treasury received $2.1 billion in preferred shares and 60.8% of the common shares of New GM. (See transactions marked by green lines in the table above.)
11	
   Pursuant to a corporate reorganization completed on or about 10/19/2009, the shareholders of New GM, including with respect to Treasury’s preferred and common stock, became shareholders of General Motors Holding Company (the ultimate parent company of New GM), which was renamed “General
   Motors Company” on an equal basis to their shareholdings in New GM, and New GM was converted to “General Motors LLC”. General Motors LLC is a wholly owned subsidiary of General Motors Holdings LLC, and General Motors Holdings LLC is a wholly owned subsidiary of General Motors Company.
12	
   Pursuant to a corporate reorganization completed on 10/19/2009, Treasury’s loan with New GM was assigned and assumed by General Motors Holdings LLC.
13	
   The loan was funded through Chrysler LB Receivables Trust, a special purpose vehicle created by Chrysler FinCo. The amount of $1,500,000,000 represents the maximum loan amount. The loan was incrementally funded until it reached the maximum amount of $1.5 billion on 4/9/2009.
14	
   This transaction was an amendment to Treasury’s 1/2/2009 agreement with Chrysler Holding. As of 4/30/2009, Treasury’s obligation to lend any funds committed under this amendment had terminated. No funds were disbursed.
15	
   The loan was used to capitalize Chrysler Warranty SPV LLC, a special purpose vehicle created by Old Chrysler.
16	
   This transaction was set forth in a credit agreement with Old Chrysler fully executed on 5/5/2009 following a term sheet executed on 5/1/2009 and made effective on 4/30/2009. Treasury’s commitment was $3.04 billion of the total $4.1 billion debtor-in-possession credit facility (the “Chrysler DIP Loan”).
   As of 6/30/2009, Treasury’s commitment to lend under the Chrysler DIP Loan had terminated. The remaining principal amount reflects the final amount of funds disbursed under the Chrysler DIP Loan.
17	
   This transaction was an amendment to Treasury’s commitment under the Chrysler DIP Loan, which increased Treasury’s commitment by an amount $756,857,000 to a total of $3.8 billion under the Chrysler DIP Loan. As of 6/30/2009, Treasury’s obligation to lend funds committed under the Chrysler DIP
   Loan had terminated.
18	
   This transaction, first reported based on a term sheet fully executed on 5/27/2009 for an amount up to $6.943 billion, was set forth in a credit agreement with New Chrysler fully executed on 6/10/2009. Under the terms of the credit agreement, Treasury made a new commitment to New Chrysler of up
   to $6.642 billion. The total loan amount is up to $7.142 billion including $500 million of debt assumed on 6/10/2009 from Chrysler Holding originally incurred under Treasury’s 1/2/2009 credit agreement with Chrysler Holding. The debt obligations are secured by a first priority lien on the assets of New
   Chrysler. When the sale to new Chrysler was completed, Treasury acquired the rights to 9.85% of the common equity in new Chrysler.
19	
   Pursuant to the agreement explained in footnote 18, $500 million of this debt obligation was assumed by New Chrysler.
20	
   Under loan agreement, as amended on 7/23/2009, Treasury was entitled to proceeds Chrysler Holdco received from Chrysler FinCo equal to the greater of $1.375 billion or 40% of the equity value of Chrysler FinCo. Pursuant to a termination agreement dated 5/14/2010, Treasury agreed to accept a
   settlement payment of $1.9 billion as satisfaction in full of all existing debt obligations (including additional notes and accrued and unpaid interest) of Chrysler Holdco, and upon receipt of such payment to terminate all such obligations.
21	
   Amount of the Treasury investment exchange includes the exercised warrants from Treasury’s initial investments.
22	
   Under the terms of an agreement dated 12/30/2009, the convertible preferred shares will mandatorily convert to common stock under the conditions and the conversion price as set forth in the terms of the agreement.
23	
   On 4/30/2010, the Plan of Liquidation for the debtors of Old Chrysler approved by the respective bankruptcy court became effective (the “Liquidation Plan”). Under the Liquidation Plan, the loan Treasury had provided to Old Chrysler was extinguished without repayment, and all assets of Old Chrysler were
   transferred to a liquidation trust. Treasury retained the right to recover the proceeds from the liquidation from time to time of the specified collateral security attached to such loan.
24	
   On 10/27/2010, Treasury accepted an offer by General Motors Company (GM) to repurchase all of the approximately $2.1 billion preferred stock at a price per share of $25.50, which is equal to 102% of the liquidation preference, subject to the closing of the proposed initial public offering of GM’s
   common stock. The repurchase was completed on 12/15/2010.
25	
   On 11/17/2010, Treasury agreed to sell 358,546,795 shares of common stock at $32.7525 per share (which represents the $33 public sale price less underwriting discounts and fees) pursuant to an underwriting agreement. Following settlement, the net proceeds to Treasury were $11,743,303,903.
   On 11/26/2010, the underwriters exercised their option to purchase an additional 53,782,019 shares of common stock from Treasury at the same purchase price resulting in additional proceeds of $1,761,495,577. Treasury’s aggregate net proceeds from the sale of common stock pursuant to the
   underwriting agreement total $13,504,799,480.
26	
   On 12/30/2010, Treasury converted $5,500,000,000 of the total convertible preferred stock then outstanding and held by Treasury (including exercised warrants) into 531,850 shares of common stock of Ally. Following this conversion, Treasury holds $5,937,500,000 of convertible preferred stock.
27	
   On 3/1/2011, Treasury entered into an agreement with Ally Financial, Inc. (Ally) and certain other parties to amend and restate the $2,667,000,000 in aggregate liquidation preference of its Ally trust preferred securities so to facilitate a public underwritten offering. At the time of amendment and
   restatement, Treasury received all outstanding accrued and unpaid dividends and a distribution fee of $28,170,000.
28	
   On 3/2/2011, Treasury entered into an underwritten offering for all of its Ally trust preferred securities, the proceeds of which were $2,638,830,000, which together with the distribution fee referred to in footnote 27, provided total disposition proceeds to Treasury of $2,667,000,000. This amount does
   not include the accumulated and unpaid dividends on the trust preferred securities from the date of the amendment and restatement through but excluding the closing date that Treasury will receive separately at settlement.
29	
   On 3/31/2011, the Plan of Liquidation for Motors Liquidation Company (Old GM) became effective, Treasury’s $986 million loan to Old GM was converted to an administrative claim and the assets remaining with Old GM, including Treasury’s liens on certain collateral and other rights attached to the loan,
   were transferred to liquidation trusts. On 12/15/2011, Old GM was dissolved, as required by the Plan of Liquidation. Treasury retained the right to recover additional proceeds; however, any additional recovery is dependent on actual liquidation proceeds and pending litigation.
30	
   In June 2009, Treasury provided a $6.6 billion loan commitment to Chrysler Group LLC and received a 9.9 percent equity ownership in Chrysler Group LLC (Chrysler). In January and April 2011, Chrysler met the first and second of three performance related milestones. As a result, Fiat’s ownership
   automatically increased from 20% to 30%, and Treasury’s ownership was reduced to 8.6%. On 5/24/2011, Fiat, through the exercise of an equity call option, purchased an incremental 16% fully diluted ownership interest in Chrysler for $1.268 billion, reducing Treasury’s ownership to 6.6% (or 6.0% on a
   fully diluted basis). On 7/21/2011, Fiat, through the exercise of an equity call option, purchased Treasury’s ownership interest for $500 million. In addition, Fiat paid $60 million to Treasury for its rights under an agreement with the UAW retirement trust pertaining to the trust’s shares in Chrysler.
31	
   On 5/24/2011, Chrysler Group LLC terminated its ability to draw on the remaining $2.066 billion outstanding under this loan facility.
32	
   On 11/1/2011, Treasury received a $201,345.42 pro-rata tax distribution on its common stock from Ally Financial, Inc. pursuant to the terms of the Sixth Amended and Restated Limited Liability Company Operating Agreement of GMAC LLC dated 5/22/2009.
33	
   On 12/21/2012, Treasury sold 200,000,000 shares of common stock at $27.50 per share pursuant to a letter agreement. Following settlement, the net proceeds to Treasury were $5,500,000,000.
34	
   On January 18, 2013, Treasury gave Citigroup Global Markets, Inc. and J.P. Morgan Securities, LLC discretionary authority, as its sales agent, to sell subject to certain parameters up to 58,392,078 shares of common stock from time to time during the period ending on April 17, 2013 (or upon completion
   of the sale).Completion of the sale under this authority occurred on April 11, 2013.
35	
   On 6/12/2013, Treasury sold 30,000,000 shares of GM common stock in a registered public offering at $34.41 per share for net proceeds to Treasury of $ 1,031,700,000.
36	
   Pursuant to pre-arranged written trading plans dated May 6, 2013, as amended, Treasury gave Citigroup Global Markets, Inc. and J.P. Morgan Securities, LLC discretionary authority, as its sales agent, to sell subject to certain parameters up to 142,814,136 shares of common stock from time to time
   during the period ending on September 13, 2013 (or upon completion of the sale). Completion of the sale under this authority occurred on September 13, 2013.

a	
    the purpose of this table, income (dividends and interest) are presented in aggregate for each AIFP participant.
   For
b	
   According to Treasury, the GM warrant was “Exchanged out of bankruptcy exit.”
c	
   This table includes AWCP transactions.

Sources: Treasury, Transactions Report, 9/30/2013; Treasury, Dividends and Interest Report, 10/10/2013.
TABLE D.5
ASSP TRANSACTION DETAIL, AS OF 9/30/2013
                         Seller                                                                                                                                Adjustment Details                                                          Repayment4
                                                                                                                                                                                             Adjusted                                          Remaining
                                                            Transaction      Investment                     Investment         Pricing        Adjustment             Adjustment            Investment                                         Investment                                        Dividend/Interest
Note       Date          Institution Name                   Type             Description                       Amount       Mechanism               Date                Amount                Amount     Date                   Type          Description                       Amount           Paid to Treasury
                                                                                                                                                                                                                                            Debt Obligation
                                                                                                                                                                                                                               Partial
                                                                                                                                                                                                         11/20/2009                           w/ Additional              $140,000,000
                                                                                                                                                                                                                           repayment
                                                                                                                                                                                                                                                      Note

                         GM Supplier Receivables LLC                         Debt Obligation w/                                                 7/8/20093      ($1,000,000,000)       $2,500,000,000                                        Debt Obligation
1          4/9/2009                                         Purchase                                   $3,500,000,000               N/A                                                                                        Partial                                                                 $9,087,808
                         Wilmington, DE                                      Additional Note                                                                                                             2/11/2010                            w/ Additional              $100,000,000
                                                                                                                                                                                                                           repayment
                                                                                                                                                                                                                                                      Note
                                                                                                                                                                                                         3/4/2010         Repayment5        Additional Note                $50,000,000
                                                                                                                                                                                        $290,000,000     4/5/2010           Payment6                 None                  $56,541,893

                         Chrysler Receivables SPV LLC                        Debt Obligation w/                                                 7/8/20093        ($500,000,000)       $1,000,000,000     3/9/2010         Repayment5        Additional Note              $123,076,735
2          4/9/2009                                         Purchase                                   $1,500,000,000               N/A                                                                                                                                                                $5,787,176
                         Wilmington, DE                                      Additional Note                                                                                            $123,076,735     4/7/2010           Payment7                 None                  $44,533,054
         Initial Total                 $5,000,000,000                                                                                      Adjusted Total        $413,076,735                                                            Total Repayments               $413,076,735
                                                                                                                  Total Proceeds from Additional Notes           $101,074,947
Notes: Numbers may not total due to rounding. Data as of 9/30/2013. Numbered notes were taken verbatim from Treasury’s 9/30/2013, Transactions Report.
1	
  
  The    loan was funded through GM Supplier Receivables, LLC, a special purpose vehicle created by General Motors Corporation. The amount of $3,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed on 4/9/2009, but was
  made effective as of 4/3/2009. General Motors Company assumed GM Supplier Receivables LLC on 7/10/2009.
2	
  The loan was funded through Chrysler Receivables SPV LLC, a special purpose vehicle created by Chrysler LLC. The amount of $1,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed on 4/9/2009, but was made effective as
  of 4/7/2009. Chrysler Group LLC assumed Chrysler Receivables SPV LLC on 6/10/2009.
3	
  Treasury issued notice to the institution of the permanent reduced commitment on 7/8/2009; the reduction was effective on 7/1/2009.
4	
  Does not include accrued and unpaid interest due on the amount of principal repayment, which interest must be paid at the time of principal repayment.
5	
  All outstanding principal drawn under the credit agreement was repaid.
6	
  Treasury’s commitment was $2.5 billion (see note 3). As of 4/5/2010, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds disbursed under the loan, all
  of which have been repaid.
7	
  Treasury’s commitment was $1 billion (see note 3). As of 4/7/2010, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds disbursed under the loan, all of
  which have been repaid.
Sources: Treasury, Transactions Report, 9/30/2013; Treasury, Dividends and Interest Report, 10/10/2013.




TABLE D.6
AIFP GENERAL MOTORS COMPANY COMMON STOCK DISPOSITION DETAIL, AS OF 9/30/2013
Date                                        Pricing Mechanism1                                           Number of Shares                                                         Proceeds2
1/18/2013 – 4/17/20133                      $28.049                                                              58,392,078                                                 $1,637,839,844
5/6/2013 – 9/13/20134                       $34.646                                                            110,336,510                                                  $3,822,724,832
                                                                                                            Total Proceeds:                                                $5,460,564,675
Notes: Numbers may not total due to rounding. Data as of 9/30/2013. Numbered notes were taken verbatim from Treasury’s 9/30/2013, Transactions Report.
1	
  
  The   price set forth is the weighted average price for all sales of General Motors Company common stock made by Treasury over the course of the corresponding period.
2	
  Amount represents the gross proceeds to Treasury.
3	
  On January 18, 2013, Treasury gave Citigroup Global Markets, Inc. and J.P. Morgan Securities, LLC discretionary authority, as its sales agent, to sell subject to certain parameters up to
  58,392,078 shares of common stock from time to time during the period ending on April 17, 2013 (or upon completion of the sale). Completion of the sale under this authority occurred
  on April 11, 2013.
4	
  Pursuant to pre-arranged written trading plans dated May 6, 2013, as amended, Treasury gave Citigroup Global Markets, Inc. and J.P. Morgan Securities, LLC discretionary authority, as its
  sales agent, to sell subject to certain parameters up to 142,814,136 shares of common stock from time to time during the period ending on September 13, 2013 (or upon completion of
  the sale). Completion of the sale under this authority occurred on September 13, 2013.
Source: Treasury, Transactions Report, 9/30/2013.
                                                                                                                                                                                                                                                                                                                      TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013
                                                                                                                                                                                                                                                                                                                      403
TABLE D.7                                                                                                                                                                                                                                                                                                                    404
TIP TRANSACTION DETAIL, AS OF 9/30/2013
                                                                                                                                                                                 Treasury Investment
                        Seller                                                                                                         Capital Repayment Details                 Remaining After Capital                          Final Disposition                       Market and Warrant Data
                                                                                                                                                                                 Repayment
                                                                                                                                              Capital                 Capital     Remaining Remaining                Final         Final                                                                 Dividends/
                        Institution           Transaction                                              Investment         Pricing          Repayment               Repayment        Capital   Capital          Disposition         Disposition        Final Disposition    Stock        Outstanding Interest Paid to
Note     Date           Name                  Type            Investment Description                      Amount       Mechanism                Date2                 Amount        Amount Description              Date3          Description               Proceeds      Price     Warrant Shares        Treasury
                        Citigroup Inc.,                       Trust Preferred Securities
     1   12/31/2008                           Purchase                                           $20,000,000,000                 Par       12/23/2009         $20,000,000,000            $—        Warrants     1/25/2011 A        Warrants             $190,386,428 $48.51                           $1,568,888,889
                        New York, NY                          w/ Warrants
                        Bank of America
         1/16/2009      Corporation,          Purchase        Preferred Stock w/ Warrants        $20,000,000,000                 Par        12/9/2009         $20,000,000,000            $—        Warrants      3/3/2010 A        Warrants            $1,236,804,513 $13.80                          $1,435,555,556
                        Charlotte, NC
                                                                                                                                    TOTAL CAPITAL
                                                                           Total Investment    $40,000,000,000                                               $40,000,000,000                                   Total Warrant Proceeds                 $1,427,190,941
                                                                                                                                      REPAYMENT
Notes: Numbers may not total due to rounding. Data as of 9/30/2013. Numbered notes were taken verbatim from Treasury’s 9/30/2013 Transactions Report.
1	
  
  Treasury    made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative
  Perpetual Preferred Stock, Series I (TIP Shares) “dollar for dollar” for Trust Preferred Securities.
2	
  Repayment pursuant to Title VII, Section 7001 of the American Recovery and Reinvestment Act of 2009.
3	
  For final disposition of warrants, “R” represents proceeds from a repurchase of warrants by the financial institution, and “A” represents the proceeds to Treasury, after underwriting fees, from a sale by Treasury in a registered public offering of the warrants issued by the financial institution.
Sources: Treasury, Transactions Report, 9/30/2013; Treasury, Dividends and Interest Report, 10/10/2013; Bloomberg LP, accessed 10/11/2013.
                                                                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




TABLE D.8
AGP TRANSACTION DETAIL, AS OF 9/30/2013
                        Initial Investment                                                          Premium                                       Exchange/Transfer/Other Details                                                   Payment or Disposition                                Market and Warrant Data
                                                                                                                                                                                                                                           Remaining                      Remaining Outstanding                 Dividends/
                         Institution      Transaction                                                                                                                                                              Payment                  Premium                        Premium Warrant      Stock        Interest Paid
Note     Date            Name             Type        Description Guarantee Limit Description                   Amount             Date              Type Description                Amount             Date          Type Payment Amount Description                       Amount Shares       Price          to Treasury
                                                                                                                                           Exchange                                                                    Partial
                                                                                                                                                                Trust                                                                                        Trust
                                                                                                                                            preferred                                                            cancellation
                                                                                                                                                          Preferred                                                                                    Preferred
                                                                                                                             6/9/20092 stock for trust                        $4,034,000,000 12/23/20093             for early   ($1,800,000,000)                  $2,234,000,000
                                                                                                                                                       Securities w/                                                                                Securities w/
                                                                                                                                            preferred                                                             termination
                         Citigroup                                                    Preferred                                                           Warrants                                                                                     Warrants
                                                         Master                                                                            securities                                                           of guarantee
1        1/16/2009       Inc., New        Guarantee                    $5,000,000,000 Stock w/         $4,034,000,000                                                                                                                                                                              $48.51 $642,832,268
                                                         Agreement                                                                               Exchange                                       9/30/20105       Disposition      $2,246,000,000         Warrants                  $—
                         York, NY                                                     Warrants                                                                        Trust
                                                                                                                                            trust preferred
                                                                                                                                       4                        Preferred
                                                                                                                           9/29/2010          securities for                  $2,246,000,000                         Warrant
                                                                                                                                                             Securities w/                       1/25/2011                           $67,197,045            None                   $—
                                                                                                                                            trust preferred                                                          Auction
                                                                                                                                                                Warrants
                                                                                                                                                 securities
                         Citigroup
                                                         Termination
3        12/23/2009      Inc., New        Termination                  ($5,000,000,000)
                                                         Agreement
                         York, NY
                                                                                                                                           Trust preferred
                                                                                                                                                                    Trust
                                                                                                                                                securities
                                                                                                                          12/28/20126                           Preferred       $800,000,000
                                                                                                                                            received from
                                                                                                                                                                Securities
                                                                                                                                                  the FDIC
                                                                                                                                                 Exchange
                                                                                                                                            trust preferred
                                                                                                                                                             Subordinated
                                                                                                                             2/4/20137        securities for                    $894,000,000      2/8/20138      Disposition     $894,000,000.00            None                   $­—
                                                                                                                                                                     Note
                                                                                                                                              subordinated
                                                                                                                                                       note
                                                                                                                                                                                                              Total Proceeds $3,207,197,045
Notes: Numbers may not total due to rounding. Data as of 9/30/2013. Numbered notes were taken verbatim from Treasury’s 9/30/2013 Transactions Report.
1	
   In consideration for the guarantee, Treasury received $4.03 billion of preferred stock, which pays 8% interest.
2	  
    Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative
     Perpetual Preferred Stock Series G (AGP Shares), received as premium with the AGP agreement, “dollar for dollar” for Trust Preferred Securities.
3	
     On 12/23/2009, Treasury entered into a Termination Agreement with the other parties to the Master Agreement which served to terminate Treasury’s guarantee and obligations under the Master Agreement. In connection with the early termination of the guarantee, Treasury agreed to cancel $1.8 billion
      of the AGP Trust Preferred Securities, and the Federal Deposit Insurance Corporation (FDIC) and Treasury agreed that, subject to the conditions set out in the Termination Agreement, the FDIC may transfer $800 million of Trust Preferred Securities to Treasury at the close of Citigroup’s participation in the
      FDIC’s Temporary Liquidity Guarantee Program.
4	
      On 9/29/2010, Treasury entered into an agreement with Citigroup Inc. to exchange $2,234,000,000 in aggregate liquidation preference of its trust preferred securities for $2,246,000,000 in aggregate liquidation preference of trust preferred securities with certain modified terms. At the time of
       exchange, Citigroup Inc. paid the outstanding accrued and unpaid dividends.
5	
       On 9/30/2010, Treasury entered into underwritten offering of the trust preferred securities, the gross proceeds of which do not include accumulated and unpaid distributions from the date of the exchange through the closing date.
6	
        12/28/2012, as contemplated by the Termination Agreement and the Letter Agreement dated 12/23/2009, between Treasury and the Federal Deposit Insurance Corporation (FDIC), Treasury received from the FDIC, Citigroup Inc. trust preferred securities in aggregate liquidation preference equal to
         $800 million and approximately $183 million in dividend and interest payments from those securities.
7	
         On 2/4/2013, Treasury exchanged $800 million in Citigroup Capital XXXII Trust Preferred Securities (TRuPS) for $894 million in Citigroup subordinated notes pursuant to an agreement between Citigroup and the Treasury executed on 2/4/2013. Accrued interest on the TRuPS was received at the time of
         the exchange.
8	
         On 2/8/2013, Treasury completed the sale of its Citigroup subordinated notes for $894 million plus accrued interest, pursuant to an underwriting agreement executed on 2/8/2012.
Sources: Treasury, Transactions Report, 9/30/2013; Treasury, Dividends and Interest Report, 10/10/2013; Bloomberg LP, accessed 10/11/2013.
TABLE D.9
TALF TRANSACTION DETAIL, AS OF 9/30/2013
                           Seller                                                                                                             Adjusted Investment                                                                       Repayment5
                                                         Transaction      Investment                 Investment     Pricing                                                          Final Investment                                                                                        Dividends/Interest
Note       Date            Institution                   Type             Description                   Amount      Mechanism        Date                            Amount                   Amount    Date              Description                                        Amount           Paid to Treasury6
                                                                                                                                                2
                                                                                                                                     7/19/2010              $4,300,000,000                              2/6/2013          Principal Repayment                          $100,000,000
                                                                                                                                     6/28/20123             $1,400,000,000                              2/6/2013          Contingent Interest Proceeds                 $212,829,610
                                                                                                                                                                                                        3/6/2013          Contingent Interest Proceeds                  $97,594,053
                                                                                                                                                                                                        4/4/2013          Contingent Interest Proceeds                   $6,069,968
                                                                          Debt Obligation
1          3/3/2009        TALF LLC, Wilmington, DE      Purchase         w/ Additional        $20,000,000,000      N/A                                                                $100,000,000     5/6/2013          Contingent Interest Proceeds                   $4,419,259                 $13,407,761
                                                                          Note
                                                                                                                                     1/15/20134               $100,000,000                              6/6/2013          Contingent Interest Proceeds                  $96,496,772
                                                                                                                                                                                                        7/5/2013          Contingent Interest Proceeds                  $11,799,670
                                                                                                                                                                                                        8/6/2013          Contingent Interest Proceeds                  $66,072,965
                                                                                                                                                                                                        9/6/2013          Contingent Interest Proceeds                  $74,797,684
                                                                                                                                                    Total Investment Amount           $100,000,000      Total Repayment Amount5                                      $670,079,981
Notes: Numbers may not total due to rounding. Data as of 9/30/2013. Numbered notes were taken verbatim from Treasury’s 9/30/2013, Transactions Report, and Treasury’s 10/10/2013, Dividends and Interest Report.
1	   
     The loan was funded through TALF LLC, a special purpose vehicle created by The Federal Reserve Bank of New York (“FRBNY”). The amount of $20,000,000,000 represents the maximum loan amount. The loan will be incrementally funded.
2	    
      On 7/19/2010, Treasury, the FRBNY and TALF LLC entered into an amendment of the credit agreement previously entered into on 3/3/2009, which amendment reduced Treasury’s maximum loan amount to $4,300,000,000.
3	     
        6/28/2012, Treasury, the FRBNY and TALF LLC entered into an amendment of the credit agreement previously amended 7/19/2010, which reduced Treasury’s maximum loan amount to $1,400,000,000.
       On
4	     
       On 1/15/2013, Treasury, the FRBNY and TALF LLC entered into an amendment that stated that, due to the fact that the accumulated fees collected through TALF exceed the total principal amount of TALF loans outstanding, Treasury’s commitment of TARP funds to provide credit protection is no longer
        necessary.
5	      
        Repayment amounts do not include accrued interest proceeds received on 2/6/2013, which are reflected on the Dividends & Interest Report.
6	       
         
         Although interest accrues monthly, payment is not due until the maturity date of the note.
Sources: Treasury, Transactions Report, 9/30/2013; Treasury, Dividends and Interest Report, 10/10/2013.




TABLE D.10
SSFI (AIG) PROGRAM TRANSACTION DETAIL, AS OF 9/30/2013
                        Seller               Purchase Details                                                        Exchange/Transfer Details
                                                                                                                                                                                                                                                                                                                    Dividends/
                        Name of              Transaction    Investment                  Investment   Pricing                                                                                                                                        Pricing                     Outstanding Warrant              Interest Paid
Note     Date           Institution          Type           Description                    Amount    Mechanism        Date                                       Transaction Type         Investment Description                     Amount      Mechanism       Stock Price                 Shares                to Treasury
                                                            Preferred Stock
                                                                                                                                                                                          Preferred Stock w/ Warrants
1        11/25/2008 AIG, New York, NY        Purchase       w/ Warrants          $40,000,000,000     Par             4/17/2009                                   Exchange                                                  $40,000,000,000                Par         $48.63                        —                     $­—
                                                                                                                                                                                          (Series E)1
                                                            (Series D)
                                                            Preferred Stock                                          See table below for exchange/
2, 3     4/17/2009      AIG, New York, NY    Purchase       w/ Warrants          $29,835,000,000     Par2            transfer details in connection with the                                                                                                          $48.63                        —        $641,275,676
                                                            (Series F)                                               recapitalization conducted on 1/14/2011.
                                                                Initial Total   $69,835,000,000
                                                                                                                                                                 Final Disposition
                                                                                                                                                                                                          Transaction
                                                                                                                                                                 Date                     Investment      Type                     Proceeds
                                                                                                                                                                                          Warrants
                                                                                                                                                                 3/1/2013                                 Repurchase           $25,150,923
                                                                                                                                                                                          (Series D)
                                                                                                                                                                                          Warrants
                                                                                                                                                                 3/1/2013                                 Repurchase                  $5,768
                                                                                                                                                                                          (Series F)
                                                                                                                                                                                          Total Warrant Proceeds              $25,156,691
                                                                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                                                                                 TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013
                                                                                                                                                                                                                                                                                                                                 405
                                                                                                                                                                                                                                                                                                                                 406
SSFI (AIG) PROGRAM TRANSACTION DETAIL, AS OF 9/30/2013                                                                           (CONTINUED)
                                        Recapitalization                                            Treasury Holdings Post-Recapitalization                                                                                                        Final Disposition
                                                                                                                                                                                                                                                                                     Remaining Recap
                      Investment           Transaction                   Pricing                                                                                                                           Transaction                                               Pricing       Investment Amount,
Note   Date           Description          Type                          Mechanism                  Investment Description                                          Amount / Shares       Date             Type                                     Proceeds8     Mechanism        Shares, or Equity %
                                           Exchange                      Par                        Preferred Stock (Series G)                                        $2,000,000,000      5/27/2011        Cancellation                                    $­—             N/A                     $—10
                                                                                                                                                                                          2/14/2011        Payment                              $185,726,192                Par
                                                                                                                                                                                          3/8/2011         Payment                            $5,511,067,614                Par
                                                                                                                                                                                          3/15/2011        Payment                               $55,833,333                Par
                                                                                                                                                                                          8/17/2011        Payment                               $97,008,351                Par
                                                                                                                                                                                          8/18/2011        Payment                            $2,153,520,000                Par
                                                                                                    AIA Preferred Units                                            $16,916,603,5687                                                                                                                 $—8
                                                                                                                                                                                          9/2/2011         Payment                               $55,885,302                Par

                      Preferred Stock      Exchange                      N/A                                                                                                              11/1/2011        Payment                              $971,506,765                Par
4      1/14/2011
                      (Series F)                                                                                                                                                          3/8/2012         Payment                            $5,576,121,382                Par
                                                                                                                                                                                          3/15/2012        Payment                            $1,521,632,096                Par
                                                                                                                                                                                          3/22/2012        Payment                            $1,493,250,339                Par
                                                                                                                                                                                          2/14/2011        Payment                            $2,009,932,072                Par
                                                                                                    ALICO Junior Preferred Interests                                $3,375,328,4327       3/8/2011         Payment                            $1,383,888,037                Par                     $—8
                                                                                                                                                                                          3/15/2012        Payment                               $44,941,843                Par

                                                                                                                                                                                                           Partial                                                                      1,455,037,9629
                                           Exchange                                                                                                                     $167,623,733      5/24/2011                                           $5,800,000,000               N/A
                                                                                                                                                                                                           Disposition
                                                                                                                                                                                                                                                                                                                                 APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                                                                                                                                                                                                                                                                                                    77%

                                                                                                                                                                                                           Partial                                                                     1,248,141,41011
                                                                                                                                                                                          3/8/2012                                            $6,000,000,008               N/A
                                                                                                                                                                                                           Disposition                                                                              70%

                                                                                                                                                                                                           Partial                                                                     1,084,206,98412
                      Preferred Stock                                                                                                                                                     5/6/2012                                            $4,999,999,993               N/A
5      1/14/2011                           Exchange                                                                                                                     $924,546,133                       Disposition                                                                              63%
                      (Series E)
                                                                                                                                                                                                           Partial                                                                     1,059,616,82112
                                                                                                                                                                                          5/7/2012                                              $749,999,972               N/A
                                                                                                                                                                                                           Disposition                                                                              61%

                                                                                                                                                                                                           Partial                                                                       895,682,39513
                                                                         N/A                        Common Stock                                                                          8/3/2012                                            $4,999,999,993               N/A
                                                                                                                                                                                                           Disposition                                                                              55%

                                                                                                                                                                                                           Partial                                                                       871,092,23113
                                                                                                                                                                                          8/6/2012                                              $750,000,002               N/A
                                                                                                                                                                                                           Disposition                                                                              53%

                                                                                                                                                                                                           Partial                                                                       317,246,07814
                      Common Stock                                                                                                                                                        9/10/2012                                         $17,999,999,973                N/A
6      1/14/2011                           Transfer                                                                                                                     $562,868,096                       Disposition                                                                              22%
                      (non-TARP)
                                                                                                                                                                                                           Partial                                                                       234,169,15614
                                                                                                                                                                                          9/11/2012                                           $2,699,999,965               N/A
                                                                                                                                                                                                           Disposition                                                                              16%

                                                                                                                                                                                                           Final                                                                         234,169,15615
                                                                                                                                                                                          12/14/2012                                          $7,610,497,570               N/A
                                                                                                                                                                                                           Disposition                                                                                0%
                                                                                                                                                                                          Total                                            $72,670,810,802
Notes: Numbers may not total due to rounding. Data as of 9/30/2013. Numbered notes were taken verbatim from the Treasury’s 9/30/2013, Transactions Report, and Treasury’s 10/10/2013, Dividends and Interest Report.
1	
    On 4/17/2009, Treasury exchanged its Series D Fixed Rate Cumulative Preferred Shares for Series E Fixed Rate Non-Cumulative Preferred Shares with no change to Treasury’s initial investment amount. In addition, in order for AIG to fully redeem the Series E Preferred Shares, it had an additional obligation to
    Treasury of $1,604,576,000 to reflect the cumulative unpaid dividends for the Series D Preferred Shares due to Treasury through and including the exchange date.
2	
    The investment amount reflected Treasury’s commitment to invest up to $30 billion less a reduction of $165 million representing retention payments AIG Financial Products made to its employees in March 2009.
3	
    This transaction does not include AIG’s commitment fee of an additional $165 million paid from its operating income over the life of the facility. A $55 million payment was received by Treasury on 12/17/2010. The remaining $110 million payment was received by Treasury on 5/27/2011.
4	
    On 1/14/2011, (A) Treasury exchanged $27,835,000,000 of Treasury’s investment in AIG’s Fixed Rate Non-Cumulative Perpetual Preferred Stock (Series F) which is equal to the amount funded (including amounts drawn at closing) under the Series F equity capital facility, for (i) the transferred SPV preferred interests
    and (ii) 167,623,733 shares of AIG Common Stock, and (B) Treasury exchanged $2,000,000,000 of undrawn Series F for 20,000 shares of preferred stock under the new Series G Cumulative Mandatory Convertible Preferred Stock equity capital facility under which AIG has the right to draw up to $2,000,000,000.
5	
    On 1/14/2011, Treasury exchanged an amount equivalent to the $40 billion initial investment plus capitalized interest from the April 2009 exchange (see note 1 above) of Fixed Rate Non-Cumulative Perpetual Preferred Stock (Series E) for 924,546,133 shares of AIG Common Stock.
6	
    On 1/14/2011, Treasury received 562,868,096 shares of AIG Common Stock from the AIG Credit Facility Trust, which trust was established in connection with the credit facility between AIG and the Federal Reserve Bank of New York. This credit facility was repaid and terminated pursuant to this recapitalization
    transaction. The trust had received 562,868,096 shares of AIG common stock in exchange for AIG’s Series C Perpetual, Convertible Participating Preferred Stock, which was previously held by the trust for the benefit of the U.S. Treasury.
7	
    The amount of Treasury’s AIA Preferred Units and ALICO Junior Preferred Interests holdings do not reflect preferred returns on the securities that accrue quarterly.
8	
    Proceeds include amounts applied to pay (i) accrued preferred returns and (ii) redeem the outstanding liquidation amount.
9	
    On 5/27/2011, Treasury completed the sale of 200,000,000 shares of common stock at $29.00 per share for total proceeds of $5,800,000,000, pursuant to an underwriting agreement executed on 5/24/2011.
10	
    On 5/27/2011, pursuant to the terms of the agreements governing the Preferred Stock (Series G), the available amount of the Preferred Stock (Series G) was reduced to $0 as a result of AIG’s primary offering of its common stock and the Preferred Stock (Series G) was cancelled.
11	
    On 3/13/2012, Treasury completed the sale of 206,896,552 shares of common stock at $29.00 per share for total proceeds of $6,000,000,008, pursuant to an underwriting agreement executed on 3/8/2012.
12	
    On 5/10/2012, Treasury completed the sale of 188,524,589 shares of common stock at $30.50 per share for total proceeds of $5,749,999,965, pursuant to an underwriting agreement executed on 5/6/2012.
13	
    On 8/8/2012, Treasury completed the sale of 188,524,590 shares of common stock at $30.50 per share for total proceeds of $5,749,999,995, pursuant to an underwriting agreement executed on 8/3/2012.
14	
    On 9/14/2012, Treasury completed the sale of 636,923,075 shares of common stock at $32.50 per share for total proceeds of $20,699,999,938, pursuant to an underwriting agreement executed on 9/10/2012.
15	
    On 12/14/2012, Treasury completed the sale of 234,169,156 shares of common stock at $32.50 per share for total proceeds of $7,610,497,570, pursuant to an underwriting agreement executed on 12/10/2012.
Sources: Treasury, Transactions Report, 9/30/2013; Treasury, Dividends and Interest Report, 10/10/2013; Bloomberg LP, accessed 10/10/2013.
TABLE D.11
UCSB TRANSACTION DETAIL, AS OF 9/30/2013
Purchase Details1                                                                                                                                 Settlement Details                                                                  Final Disposition
                                                                                                                                                                                                                                                             Life-to-date
Purchase                                                                                           Purchase Face           Pricing     TBA or     Settlement            Investment                                Senior Security                               Principal      Current Face            Disposition          Interest Paid to
Date          Investment Description                          Institution Name     CUSIP                Amount3         Mechanism       PMF3      Date                    Amount2,3              TBA or PMF3           Proceeds4       Trade Date            Received1,8          Amount6,8             Amount5,6                  Treasury
3/19/2010     Floating Rate SBA 7a security due 2025          Coastal Securities   83164KYN7           $4,070,000            107.75       —       3/24/2010             $4,377,249                          —               $2,184      6/21/2011               $902,633         $3,151,186           $3,457,746                  $169,441
3/19/2010     Floating Rate SBA 7a security due 2022          Coastal Securities   83165ADC5           $7,617,617               109       —-      3/24/2010             $8,279,156                          —-              $4,130     10/19/2011             $1,685,710         $5,891,602           $6,462,972                  $449,518
3/19/2010     Floating Rate SBA 7a security due 2022          Coastal Securities   83165ADE1           $8,030,000          108.875        —       3/24/2010             $8,716,265                          —               $4,348      6/21/2011             $2,022,652         $5,964,013           $6,555,383                  $371,355
4/8/2010      Floating Rate SBA 7a security due 2034          Coastal Securities   83165AD84          $23,500,000          110.502        —       5/28/2010           $26,041,643                           —             $12,983        6/7/2011             $1,149,633       $22,350,367           $25,039,989                $1,089,741
4/8/2010      Floating Rate SBA 7a security due 2016          Coastal Securities   83164KZH9           $8,900,014             107.5       —       4/30/2010             $9,598,523                          —               $4,783       6/7/2011             $2,357,796         $6,542,218           $7,045,774                  $414,561
5/11/2010     Floating Rate SBA 7a security due 2020          Coastal Securities   83165AEE0          $10,751,382          106.806        —       6/30/2010           $11,511,052                           —               $5,741       6/7/2011               $932,112         $9,819,270          $10,550,917                  $348,599
5/11/2010     Floating Rate SBA 7a security due 2035          Coastal Securities   83164K2Q5          $12,898,996            109.42       —       6/30/2010           $14,151,229                           —               $7,057       6/7/2011               $328,604       $12,570,392           $13,886,504                  $479,508
5/11/2010     Floating Rate SBA 7a security due 2033          Coastal Securities   83165AED2           $8,744,333          110.798        —       6/30/2010             $9,717,173                          —               $4,844       6/7/2011               $261,145         $8,483,188           $9,482,247                  $368,608
5/25/2010     Floating Rate SBA 7a security due 2029          Coastal Securities   83164K3B7           $8,417,817          110.125        —       7/30/2010             $9,294,363                          —               $4,635       6/7/2011               $246,658         $8,171,159           $8,985,818                  $287,624
5/25/2010     Floating Rate SBA 7a security due 2033          Coastal Securities   83165AEK6          $17,119,972          109.553        —       7/30/2010           $18,801,712                           —               $9,377      9/20/2011             $2,089,260       $15,030,712           $16,658,561                  $657,863
6/17/2010     Floating Rate SBA 7a security due 2020          Coastal Securities   83165AEQ3          $34,441,059          110.785        —       8/30/2010           $38,273,995                           —             $19,077       6/21/2011             $1,784,934       $32,656,125           $36,072,056                $1,286,450
6/17/2010     Floating Rate SBA 7a security due 2034          Coastal Securities   83165AEP5          $28,209,085          112.028        —       8/30/2010           $31,693,810                           —             $15,801       9/20/2011             $2,278,652       $25,930,433           $29,142,474                $1,254,222
7/14/2010     Floating Rate SBA 7a security due 2020          Coastal Securities   83164K3Y7           $6,004,156          106.625        —       9/30/2010             $6,416,804                          —               $3,200      6/21/2011               $348,107         $5,656,049           $6,051,772                  $146,030
7/14/2010     Floating Rate SBA 7a security due 2025          Shay Financial       83164K4J9           $6,860,835          108.505        —       9/30/2010             $7,462,726                          —               $3,722     10/19/2011               $339,960         $6,520,875           $7,105,304                  $255,370
7/14/2010     Floating Rate SBA 7a security due 2034          Shay Financial       83165AE42          $13,183,361            111.86       —       9/30/2010           $14,789,302                           —               $7,373      6/21/2011               $478,520       $12,704,841           $14,182,379                  $423,725
7/29/2010     Floating Rate SBA 7a security due 2017          Coastal Securities   83164K4E0           $2,598,386          108.438        —       9/30/2010             $2,826,678                          —               $1,408      1/24/2012               $694,979         $1,903,407           $2,052,702                  $140,130
7/29/2010     Floating Rate SBA 7a security due 2034          Shay Financial       83164K4M2           $9,719,455            106.75       —       10/29/2010          $10,394,984                           —               $5,187      6/21/2011               $188,009         $9,531,446          $10,223,264                  $181,124
8/17/2010     Floating Rate SBA 7a security due 2020          Shay Financial       83165AEZ3           $8,279,048          110.198        —       9/30/2010             $9,150,989                          —               $4,561      9/20/2011             $1,853,831         $6,425,217           $7,078,089                  $335,082
8/17/2010     Floating Rate SBA 7a security due 2019          Coastal Securities   83165AFB5           $5,000,000          110.088        —       10/29/2010            $5,520,652                          —               $2,752     10/19/2011               $419,457         $4,580,543           $5,029,356                  $213,319
8/17/2010     Floating Rate SBA 7a security due 2020          Coastal Securities   83165AE91          $10,000,000          110.821        —       10/29/2010          $11,115,031                           —               $5,541     10/19/2011               $969,461         $9,030,539           $9,994,806                  $433,852
8/31/2010     Floating Rate SBA 7a security due 2020          Shay Financial       83165AEW0           $9,272,482          110.515        —       9/29/2010           $10,277,319                           —               $5,123      9/20/2011               $868,636         $8,403,846           $9,230,008                  $386,326
8/31/2010     Floating Rate SBA 7a security due 2024          Shay Financial       83165AFA7          $10,350,000          112.476        —       10/29/2010          $11,672,766                           —               $5,820     10/19/2011               $250,445       $10,099,555           $11,314,651                  $425,545
8/31/2010     Floating Rate SBA 7a security due 2020          Coastal Securities   83164K5H2           $6,900,000          105.875        —       11/30/2010            $7,319,688                          —               $3,652      1/24/2012               $663,200         $6,236,800           $6,556,341                  $209,956
9/14/2010     Floating Rate SBA 7a security due 2020          Shay Financial       83165AFC3           $8,902,230          111.584        —       10/29/2010            $9,962,039                          —               $4,966      1/24/2012             $1,398,549         $7,503,681           $8,269,277                  $447,356
9/14/2010     Floating Rate SBA 7a security due 2021          Shay Financial       83165AFK5           $8,050,000          110.759        —       11/30/2010            $8,940,780                          —               $4,458      1/24/2012               $996,133         $7,053,867           $7,703,610                  $354,302
9/14/2010     Floating Rate SBA 7a security due 2029          Coastal Securities   83164K5F6           $5,750,000             106.5       —       11/30/2010            $6,134,172                          —               $3,061      1/24/2012               $276,276         $5,473,724           $5,764,858                  $156,481
9/14/2010     Floating Rate SBA 7a security due 2026          Coastal Securities   83164K5L3           $5,741,753             110.5       —       11/30/2010            $6,361,173                          —               $3,172      1/24/2012             $1,433,872         $4,307,881           $4,693,918                  $239,527
9/28/2010     Floating Rate SBA 7a security due 2035          Coastal Securities   83164K5M1           $3,450,000          110.875        —       11/30/2010            $3,834,428                          —               $1,912     10/19/2011                $82,832         $3,367,168           $3,698,411                  $111,165
9/28/2010     Floating Rate SBA 7a security due 2034          Coastal Securities   83165AFT6          $11,482,421          113.838        —       12/30/2010          $13,109,070                           —               $6,535      1/24/2012               $889,646       $10,592,775           $11,818,944                  $512,131
9/28/2010     Floating Rate SBA 7a security due 2034          Shay Financial       83165AFM1          $13,402,491             113.9       —       11/30/2010          $15,308,612                           —               $7,632     10/19/2011               $438,754       $12,963,737           $14,433,039                  $516,624
9/28/2010     Floating Rate SBA 7a security due 2035          Shay Financial       83165AFQ2          $14,950,000          114.006        —       12/30/2010          $17,092,069                           —               $8,521      1/24/2012               $387,839       $14,562,161           $16,383,544                  $681,819
                                                                                                                                                                                                Total Senior
                                                                Total Purchase Face Amount         $332,596,893                    Total Investment Amount*         $368,145,452                                        $183,555                                Total Disposition Proceeds        $334,924,711                $13,347,352
                                                                                                                                                                                          Security Proceeds



Notes: Numbers affected by rounding. Data as of 9/30/2013. Numbered notes were taken verbatim from Treasury’s 9/30/2013 Transactions Report.

*Subject to adjustment
1	
   The amortizing principal and interest payments are reported on the monthly Dividends and Interest Report available at www.FinancialStability.gov.
2	
   Investment Amount is stated after applying the appropriate month’s factor and includes accrued interest paid at settlement, if applicable.
3	
   If a purchase is listed as TBA, or To-Be-Announced, the underlying loans in the SBA Pool have yet to come to market, and the TBA pricing mechanism, purchase face amount, investment amount and senior security proceeds will be adjusted within the variance permitted under the program terms. If a purchase is listed as PMF,
   or Prior-Month-Factor, the trade was made prior to the applicable month’s factor being published and the SBA 7a security and senior security are priced according to the prior-month’s factor. The PMF investment amount and senior security proceeds will be adjusted after publication of the applicable month’s factor (on or about
   the 11th business day of each month).
4	
   In order to satisfy the requirements under Section 113 of the Emergency Economic Stabilization Act of 2008, Treasury will acquire a senior indebtedness instrument (a Senior Security) from the seller of each respective SBA 7a Security. Each Senior Security will (i) have an aggregate principal amount equal to the product of (A)
   0.05% and (B) the Investment Amount (excluding accrued interest) paid by Treasury for the respective SBA 7a Security, and (ii) at the option of the respective seller, may be redeemed at par value immediately upon issuance, or remain outstanding with the terms and conditions as set forth in the Master Purchase Agreement.
5	
   Disposition Amount is stated after applying the appropriate month’s factor and includes accrued interest received at settlement, if applicable. If the disposition is listed as PMF, the disposition amount will be adjusted after publication of the applicable month’s factor.
6	
   If a disposition is listed as PMF, or Prior-Month-Factor, the trade was made prior to the applicable month’s factor being published and the SBA 7a security is priced according to the prior-month’s factor. The PMF disposition amount will be adjusted after publication of the applicable month’s factor (on or about the 11th business
                                                                                                                                                                                                                                                                                                                                                TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




   day of each month).
7	
   Total Program Proceeds To Date includes life-to-date disposition proceeds, life-to-date principal received, life-to-date interest received, and senior security proceeds (excluding accruals).
8	
   The sum of Current Face Amount and Life-to-date Principal Received will equal Purchase Face Amount for CUSIPs that were originally purchased as TBAs only after the applicable month’s factor has been published and trailing principal and interest payments have been received.

Source: Treasury, Transactions Report, 9/30/2013, Treasury, Dividends and Interest Report, 10/10/2013.
                                                                                                                                                                                                                                                                                                                                                407
TABLE D.12                                                                                                                                                                                                                                                                                                   408
PPIP TRANSACTION DETAIL, AS OF 9/30/2013
                                                                                                                                                                         Final
                                                                                                             Preliminary Adjusted                                  Investment                                  Investment After Capital
                                                     Seller                                                     Commitment3          Final Commitment Amount7         Amount9     Capital Repayment Details          Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                                 Interest/
                                                                                                                                                                                                                                                                                             Distributions
                                                       Transaction Investment        Commitment   Pricing                                                                    Repayment           Repayment                                                                                         Paid to
Note Date         Institution      City          State Type        Description          Amount Mechanism        Date         Amount Date               Amount         Amount      Date              Amount         Amount Description        Date        Description          Proceeds           Treasury
                  UST/TCW                                          Debt
                                                                                                                                                                                                                           Debt Obligation
2,4,              Senior Mortgage                                  Obligation w/
     9/30/2009                     Wilmington     DE Purchase                      $2,222,222,222     Par   1/4/2010    $200,000,000 1/4/2010     $200,000,000   $200,000,000 1/11/2010         $34,000,000   $166,000,000 w/ Contingent
5                 Securities Fund,                                 Contingent
                                                                                                                                                                                                                           Proceeds
                  L.P.                                             Proceeds
                                                                                                                                                                                                                                             1/29/2010 Distribution           $502,302
                                                                                                                                                                                                                             Contingent
                                                                                                                                                                                  1/12/2010    $166,000,000             $—                               Final
                                                                                                                                                                                                                             Proceeds        2/24/2010                              $1,223
                                                                                                                                                                                                                                                         Distribution                           $342,176
                  UST/TCW
1,4,              Senior Mortgage                                  Membership
     9/30/2009                     Wilmington     DE Purchase                      $1,111,111,111     Par   1/4/2010    $156,250,000 1/4/2010     $156,250,000   $156,250,000                                                                1/29/2010 Distribution        $20,091,872
5                 Securities Fund,                                 Interest                                                                                                                                                  Membership
                  L.P.                                                                                                                                                            1/15/2010    $156,250,000             $—
                                                                                                                                                                                                                             Interest
                                                                                                                                                                                                                                                         Final
                                                                                                                                                                                                                                             2/24/2010                             $48,922
                                                                                                                                                                                                                                                         Distribution
                  Invesco Legacy
                                                                   Membership                                                                                                                                                Membership
1,6   9/30/2009   Securities Master Wilmington    DE Purchase                      $1,111,111,111     Par 3/22/2010    $1,244,437,500 7/16/2010   $856,000,000   $580,960,000 2/18/2010          $2,444,347   $578,515,653
                                                                   Interest                                                                                                                                                  Interest10
                  Fund, L.P.
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                  4/15/2010      $3,533,199   $574,982,454
                                                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                  9/15/2010     $30,011,187   $544,971,267
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 11/15/2010     $66,463,982   $478,507,285
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 12/14/2010     $15,844,536   $462,662,749
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                  1/14/2011     $13,677,726   $448,985,023
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                  2/14/2011     $48,523,845   $400,461,178
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                  3/14/2011     $68,765,544   $331,695,634
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                  4/14/2011     $77,704,254   $253,991,380
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                  5/20/2011     $28,883,733   $225,107,647
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                  6/14/2011      $9,129,709   $215,977,938
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                  7/15/2011     $31,061,747   $184,916,192
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                  8/12/2011     $10,381,214   $174,534,977
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 10/17/2011      $6,230,731   $168,304,246
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                                                                                    Continued on next page
PPIP TRANSACTION DETAIL, AS OF 9/30/2013                                                (CONTINUED)
                                                                                                                                                                       Final
                                                                                                            Preliminary Adjusted                                 Investment                                  Investment After Capital
Seller                                                                                                         Commitment3          Final Commitment Amount7        Amount9     Capital Repayment Details          Repayment               Distribution or Disposition
                                                                                                                                                                                                                                                                                             Interest/
                                                                                                                                                                                                                                                                                         Distributions
                                                      Transaction Investment        Commitment   Pricing                                                                   Repayment           Repayment                                                                                       Paid to
Note Date        Institution      City          State Type        Description          Amount Mechanism       Date          Amount Date              Amount         Amount      Date              Amount          Amount Description       Date         Description          Proceeds        Treasury
                                                                                                                                                                                                                           Membership
                                                                                                                                                                               12/14/2011      $1,183,959   $167,120,288
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                                1/17/2012      $1,096,185   $166,024,103
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                                2/14/2012      $1,601,688   $164,422,415
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                                3/14/2012      $3,035,546   $161,386,870
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                                           3/29/2012 Distribution5         $56,390,209
                                                                                                                                                                                                                                           8/9/2012     Distribution5       $1,056,751
                                                                                                                                                                                                                                                        Final
                                                                                                                                                                                                                          Membership       9/28/2012                          $18,772
                                                                                                                                                                                3/29/2012    $161,386,870             $­—                               Distribution5
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                                                        Adjusted
                                                                                                                                                                                                                                           6/4/2013                           $69,399
                                                                                                                                                                                                                                                        Distribution5,13
                                                                                                                                                                                                                                           7/8/2013     Distribution5,14      $64,444
                                                                  Debt
                 Invesco Legacy                                                                                                                                                                                          Debt Obligation
2,6,                                                              Obligation w/
     9/30/2009   Securities Master Wilmington    DE Purchase                      $2,222,222,222      Par 3/22/2010   $2,488,875,000 9/26/2011 $1,161,920,000 $1,161,920,000 2/18/2010         $4,888,718 $1,157,031,282 w/ Contingent
8                                                                 Contingent
                 Fund, L.P.                                                                                                                                                                                              Proceeds
                                                                  Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                4/15/2010      $7,066,434 $1,149,964,848 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                9/15/2010     $60,022,674 $1,089,942,174 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                               11/15/2010    $132,928,628   $957,013,546 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                                                                                         $99,764,742
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                               12/14/2010     $31,689,230   $925,324,316 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                1/14/2010     $27,355,590   $897,968,726 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                2/14/2011     $92,300,138   $805,668,588 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                3/14/2011    $128,027,536   $677,641,052 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                4/14/2011    $155,409,286   $522,231,766 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                5/20/2011     $75,085,485   $447,146,281 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                6/14/2011     $18,259,513   $428,886,768 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                7/15/2011     $62,979,809   $365,906,960 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                8/12/2011     $20,762,532   $345,144,428 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




                                                                                                                                                                               10/17/2011     $37,384,574   $307,759,854 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                                                                                Continued on next page
                                                                                                                                                                                                                                                                                                         409
PPIP TRANSACTION DETAIL, AS OF 9/30/2013                                                  (CONTINUED)                                                                                                                                                                                                          410
                                                                                                                                                                         Final
                                                                                                              Preliminary Adjusted                                 Investment                                  Investment After Capital
Seller                                                                                                           Commitment3          Final Commitment Amount7        Amount9     Capital Repayment Details          Repayment               Distribution or Disposition
                                                                                                                                                                                                                                                                                                   Interest/
                                                                                                                                                                                                                                                                                               Distributions
                                                        Transaction Investment        Commitment   Pricing                                                                   Repayment           Repayment                                                                                           Paid to
Note Date            Institution     City         State Type        Description          Amount Mechanism       Date          Amount Date              Amount         Amount      Date              Amount          Amount Description       Date         Description             Proceeds         Treasury
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                 12/14/2011      $7,103,787   $300,656,067 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                  1/17/2012      $6,577,144   $294,078,924 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                  2/14/2012      $9,610,173   $284,468,750 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                                             3/29/2012 Distribution5             $3,434,460
                                                                                                                                                                                                                                             8/9/2012     Distribution5            $40,556
                                                                                                                                                                                                                                                          Final
                                                                                                                                                                                                                            Contingent       9/28/2012                                $469
                                                                                                                                                                                  3/14/2012    $284,468,750             $­—                               Distribution5
                                                                                                                                                                                                                            Proceeds
                                                                                                                                                                                                                                                          Adjusted
                                                                                                                                                                                                                                             6/4/2013                               $1,735
                                                                                                                                                                                                                                                          Distribution5,13
                                                                                                                                                                                                                                             7/8/2013     Distribution5, 14         $1,611
                     Wellington
                                                                    Debt
                     Management                                                                                                                                                                                            Debt Obligation
                                                                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                                                                    Obligation w/
2,6      10/1/2009   Legacy          Wilmington    DE Purchase                      $2,222,222,222      Par 3/22/2010   $2,524,075,000 7/16/2010 $2,298,974,000 $2,298,974,000 6/26/2012       $125,000,000 $2,173,974,000 w/ Contingent
                                                                    Contingent
                     Securities PPIF                                                                                                                                                                                       Proceeds
                                                                    Proceeds
                     Master Fund, LP
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                  9/17/2012    $305,000,000 $1,868,974,000 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                  12/6/2012    $800,000,000 $1,068,974,000 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                 12/21/2012    $630,000,000   $438,974,000 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                  1/15/2013     $97,494,310   $341,479,690 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                                                                                              $229,105,784
                                                                                                                                                                                                                              Contingent     4/17/2013 Distribution5, 11        $16,195,771
                                                                                                                                                                                  1/24/2013    $341,479,690             $­—
                                                                                                                                                                                                                              Proceeds                                 5, 11
                                                                                                                                                                                                                                             7/11/2013 Distribution                $69,932
                     Wellington
                     Management
                                                                    Membership                                                                                                                                                Membership
1,6      10/1/2009   Legacy          Wilmington    DE Purchase                      $1,111,111,111      Par 3/22/2010   $1,262,037,500 7/16/2010 $1,149,487,000 $1,149,487,000 7/16/2012        $62,499,688 $1,086,987,313
                                                                    Interest                                                                                                                                                  Interest10
                     Securities PPIF
                     Master Fund, LP
                                                                                                                                                                                                                              Membership
                                                                                                                                                                                  9/17/2012    $152,499,238   $934,488,075
                                                                                                                                                                                                                              Interest10
                                                                                                                                                                                                                              Membership
                                                                                                                                                                                  1/15/2013    $254,581,112   $679,906,963
                                                                                                                                                                                                                              Interest10
                                                                                                                                                                                                                              Membership
                                                                                                                                                                                  2/13/2013    $436,447,818   $243,459,145
                                                                                                                                                                                                                              Interest10

                                                                                                                                                                                                                              Membership     3/13/2013 Distribution5, 11       $479,509,240
                                                                                                                                                                                  3/13/2013    $243,459,145             $­—
                                                                                                                                                                                                                              Interest10     7/11/2013 Distribution5, 11         $2,802,754
                                                                                                                                                                                                                                                                                     Continued on next page
PPIP TRANSACTION DETAIL, AS OF 9/30/2013                                                    (CONTINUED)
                                                                                                                                                                           Final
                                                                                                                Preliminary Adjusted                                 Investment                                 Investment After Capital
Seller                                                                                                             Commitment3          Final Commitment Amount7        Amount9    Capital Repayment Details          Repayment               Distribution or Disposition
                                                                                                                                                                                                                                                                                                Interest/
                                                                                                                                                                                                                                                                                            Distributions
                                                          Transaction Investment        Commitment   Pricing                                                                   Repayment          Repayment                                                                                       Paid to
Note Date            Institution      City          State Type        Description          Amount Mechanism       Date          Amount Date              Amount         Amount      Date             Amount          Amount Description       Date         Description         Proceeds         Treasury
                     AllianceBernstein                                Debt
                                                                                                                                                                                                                            Debt Obligation
2,6,                 Legacy                                           Obligation w/
     10/2/2009                         Wilmington    DE Purchase                      $2,222,222,222      Par 3/22/2010   $2,488,875,000 7/16/2010 $2,300,847,000 $2,128,000,000 5/16/2011       $30,244,575 $2,097,755,425 w/ Contingent
12                   Securities Master                                Contingent
                                                                                                                                                                                                                            Proceeds
                     Fund, L.P.                                       Proceeds
                                                                                                                                                                                                                            Debt Obligation
                                                                                                                                                                                   6/14/2011         $88,087 $2,097,667,339 w/ Contingent
                                                                                                                                                                                                                            Proceeds
                                                                                                                                                                                                                            Debt Obligation
                                                                                                                                                                                    5/3/2012     $80,000,000 $2,017,667,339 w/ Contingent
                                                                                                                                                                                                                            Proceeds
                                                                                                                                                                                                                            Debt Obligation
                                                                                                                                                                                   5/14/2012     $30,000,000 $1,987,667,339 w/ Contingent
                                                                                                                                                                                                                            Proceeds
                                                                                                                                                                                                                            Debt Obligation
                                                                                                                                                                                   5/23/2012    $500,000,000 $1,487,667,339 w/ Contingent
                                                                                                                                                                                                                            Proceeds
                                                                                                                                                                                                                            Debt Obligation
                                                                                                                                                                                   6/14/2012     $44,200,000 $1,443,467,339 w/ Contingent
                                                                                                                                                                                                                            Proceeds
                                                                                                                                                                                                                            Debt Obligation
                                                                                                                                                                                   6/25/2012    $120,000,000 $1,323,467,339 w/ Contingent
                                                                                                                                                                                                                            Proceeds
                                                                                                                                                                                                                            Debt Obligation
                                                                                                                                                                                   7/16/2012     $17,500,000 $1,305,967,339 w/ Contingent
                                                                                                                                                                                                                            Proceeds
                                                                                                                                                                                                                            Debt Obligation
                                                                                                                                                                                   7/27/2012    $450,000,000   $855,967,339 w/ Contingent
                                                                                                                                                                                                                            Proceeds
                                                                                                                                                                                                                            Debt Obligation
                                                                                                                                                                                   8/14/2012    $272,500,000   $583,467,339 w/ Contingent
                                                                                                                                                                                                                            Proceeds
                                                                                                                                                                                                                                              10/3/2012 Distribution5,11     $12,012,957
                                                                                                                                                                                                                                                                                           $252,376,156
                                                                                                                                                                                                                             Contingent       12/21/2012 Distribution5,11       $16,967
                                                                                                                                                                                   8/22/2012    $583,467,339             $­—
                                                                                                                                                                                                                             Proceeds
                                                                                                                                                                                                                                                           Distribution
                                                                                                                                                                                                                                              8/13/2013                           ($460)
                                                                                                                                                                                                                                                           Refund
                     AllianceBernstein
                     Legacy                                           Membership                                                                                                                                              Membership
1,6      10/2/2009                     Wilmington    DE Purchase                      $1,111,111,111      Par 3/22/2010   $1,244,437,500 7/16/2010 $1,150,423,500 $1,064,141,738 1/15/2010           $44,043 $1,064,097,694
                     Securities Master                                Interest                                                                                                                                                Interest10
                     Fund, L.P.
                                                                                                                                                                                                                              Membership
                                                                                                                                                                                   2/14/2011        $712,284 $1,063,385,410
                                                                                                                                                                                                                              Interest10
                                                                                                                                                                                                                              Membership
                                                                                                                                                                                   3/14/2011      $6,716,327 $1,056,669,083
                                                                                                                                                                                                                              Interest10
                                                                                                                                                                                                                              Membership
                                                                                                                                                                                   4/14/2011      $7,118,388 $1,049,550,694
                                                                                                                                                                                                                              Interest10
                                                                                                                                                                                                                              Membership
                                                                                                                                                                                   5/14/2012     $39,999,800 $1,009,550,894
                                                                                                                                                                                                                              Interest10
                                                                                                                                                                                                                              Membership
                                                                                                                                                                                   6/14/2012    $287,098,565   $722,452,330
                                                                                                                                                                                                                              Interest10
                                                                                                                                                                                                                              Membership
                                                                                                                                                                                   7/16/2012     $68,749,656   $653,702,674
                                                                                                                                                                                                                              Interest10
                                                                                                                                                                                                                              Membership
                                                                                                                                                                                   8/14/2012    $361,248,194   $292,454,480
                                                                                                                                                                                                                              Interest10
                                                                                                                                                                                                                                              8/30/2012 Distribution5,11     $75,278,664
                                                                                                                                                                                                                                              9/12/2012 Distribution5,11     $79,071,633
                                                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




                                                                                                                                                                                                                                              9/19/2012 Distribution5,11    $106,300,357
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                   8/30/2012    $292,454,480             $­—                  10/1/2012 Distribution5,11     $25,909,972
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                                              12/21/2012 Distribution5,11      $678,683
                                                                                                                                                                                                                                                           Distribution
                                                                                                                                                                                                                                              8/13/2013                        ($18,405)
                                                                                                                                                                                                                                                           Refund
                                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                                            411
PPIP TRANSACTION DETAIL, AS OF 9/30/2013                                                     (CONTINUED)                                                                                                                                                                                                       412
                                                                                                                                                                             Final
                                                                                                                 Preliminary Adjusted                                  Investment                                  Investment After Capital
Seller                                                                                                              Commitment3          Final Commitment Amount7         Amount9     Capital Repayment Details          Repayment               Distribution or Disposition
                                                                                                                                                                                                                                                                                                   Interest/
                                                                                                                                                                                                                                                                                               Distributions
                                                           Transaction Investment        Commitment   Pricing                                                                    Repayment           Repayment                                                                                       Paid to
Note Date             Institution       City         State Type        Description          Amount Mechanism       Date          Amount Date               Amount         Amount      Date              Amount          Amount Description       Date         Description         Proceeds         Treasury
                                                                       Debt
                                                                                                                                                                                                                               Debt Obligation
                      Blackrock PPIF,                                  Obligation w/
2,6      10/2/2009                      Wilmington    DE Purchase                      $2,222,222,222      Par 3/22/2010   $2,488,875,000 7/16/2010 $1,389,960,000 $1,053,000,000 7/31/2012        $175,000,000   $878,000,000 w/ Contingent
                      L.P.                                             Contingent
                                                                                                                                                                                                                               Proceeds
                                                                       Proceeds
                                                                                                                                                                                                                               Debt Obligation
                                                                                                                                                                                      8/14/2012      $5,539,055   $872,460,945 w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                               Debt Obligation
                                                                                                                                                                                      8/31/2012     $16,000,000   $856,460,945 w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                               Debt Obligation
                                                                                                                                                                                      9/17/2012      $1,667,352   $854,793,592 w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                               Debt Obligation
                                                                                                                                                                                      9/28/2012     $35,000,000   $819,793,592 w/ Contingent
                                                                                                                                                                                                                               Proceeds                                                        $72,435,724
                                                                                                                                                                                                                               Debt Obligation
                                                                                                                                                                                     10/15/2012     $25,334,218   $794,459,374 w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                                                                                                                                                                                                                                  Contingent     11/5/2012 Distribution5,11      $8,289,431
                                                                                                                                                                                     10/18/2012    $794,459,374             $­—
                                                                                                                                                                                                                                  Proceeds       12/5/2012 Distribution5,11      $1,433,088
                      Blackrock PPIF,                                  Membership                                                                                                                                                 Membership
1,6      10/2/2009                      Wilmington    DE Purchase                      $1,111,111,111      Par 3/22/2010   $1,244,437,500 7/16/2010   $694,980,000   $528,184,800 8/14/2012         $90,269,076   $437,915,724
                      L.P.                                             Interest                                                                                                                                                   Interest10
                                                                                                                                                                                                                                  Membership
                                                                                                                                                                                      9/17/2012      $8,833,632   $429,082,092
                                                                                                                                                                                                                                  Interest10
                                                                                                                                                                                                                                  Membership
                                                                                                                                                                                     10/15/2012     $10,055,653   $419,026,439
                                                                                                                                                                                                                                  Interest10

                                                                                                                                                                                                                                  Membership     11/5/2012 Distribution5,11    $297,511,708
                                                                                                                                                                                      11/5/2012    $419,026,439             $­—
                                                                                                                                                                                                                                  Interest10     12/5/2012 Distribution5,11     $57,378,964
                                                                       Debt
                                                                                                                                                                                                                               Debt Obligation
                      AG GECC PPIF                                     Obligation w/
2,6      10/30/2009                     Wilmington    DE Purchase                      $2,222,222,222      Par 3/22/2010   $2,542,675,000 7/16/2010 $2,486,550,000 $2,234,798,340 2/14/2012        $174,200,000 $2,060,598,340 w/ Contingent
                      Master Fund, L.P.                                Contingent
                                                                                                                                                                                                                               Proceeds
                                                                       Proceeds
                                                                                                                                                                                                                               Debt Obligation
                                                                                                                                                                                      3/14/2012    $198,925,000 $1,861,673,340 w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                               Debt Obligation
                                                                                                                                                                                      5/14/2012    $150,000,000 $1,711,673,340 w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                               Debt Obligation
                                                                                                                                                                                      7/16/2012     $37,500,000 $1,674,173,340 w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                               Debt Obligation
                                                                                                                                                                                      8/14/2012    $136,800,000 $1,537,373,340 w/ Contingent
                                                                                                                                                                                                                               Proceeds                                                       $283,096,130
                                                                                                                                                                                                                               Debt Obligation
                                                                                                                                                                                      9/17/2012    $250,000,000 $1,287,373,340 w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                               Debt Obligation
                                                                                                                                                                                     10/15/2012    $481,350,000   $806,023,340 w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                               Debt Obligation
                                                                                                                                                                                     11/15/2012    $274,590,324   $531,433,016 w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                               Debt Obligation
                                                                                                                                                                                     12/14/2012    $147,534,295   $383,898,721 w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                               Debt Obligation
                                                                                                                                                                                      1/15/2013    $182,823,491   $201,075,230 w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                                                                                     Continued on next page
PPIP TRANSACTION DETAIL, AS OF 9/30/2013                                                                 (CONTINUED)
                                                                                                                                                                                        Final
                                                                                                                             Preliminary Adjusted                                 Investment                                  Investment After Capital
Seller                                                                                                                          Commitment3          Final Commitment Amount7        Amount9     Capital Repayment Details          Repayment            Distribution or Disposition
                                                                                                                                                                                                                                                                                                          Interest/
                                                                                                                                                                                                                                                                                                      Distributions
                                                               Transaction Investment                Commitment   Pricing                                                                   Repayment           Repayment                                                                                   Paid to
Note Date             Institution          City          State Type        Description                  Amount Mechanism       Date          Amount Date              Amount         Amount      Date              Amount         Amount Description     Date         Description         Proceeds        Treasury
                                                                                                                                                                                                                                                         4/19/2013 Distribution5,11     $17,118,005
                                                                                                                                                                                                                                            Contingent
                                                                                                                                                                                                 2/14/2013    $201,075,230            $­—                4/25/2013 Distribution5,11      $1,052,497
                                                                                                                                                                                                                                            Proceeds
                                                                                                                                                                                                                                                         5/29/2013 Distribution5,11      $1,230,643
                      AG GECC PPIF                                                    Membership                                                                                                                                            Membership
1,6      10/30/2009                      Wilmington DE Purchase                                    $1,111,111,111      Par 3/22/2010   $1,271,337,500 7/16/2010 $1,243,275,000 $1,117,399,170 2/14/2012        $87,099,565 $1,030,299,606
                      Master Fund, L.P.                                               Interest                                                                                                                                              Interest10
                                                                                                                                                                                                                                            Membership
                                                                                                                                                                                                 3/14/2012     $99,462,003   $930,837,603
                                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                                            Membership
                                                                                                                                                                                                 5/14/2012     $74,999,625   $855,837,978
                                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                                            Membership
                                                                                                                                                                                                 7/16/2012     $18,749,906   $837,088,072
                                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                                            Membership
                                                                                                                                                                                                 8/14/2012     $68,399,658   $768,688,414
                                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                                            Membership
                                                                                                                                                                                                 9/17/2012    $124,999,375   $643,689,039
                                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                                            Membership
                                                                                                                                                                                                10/15/2012    $240,673,797   $403,015,242
                                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                                            Membership
                                                                                                                                                                                                11/15/2012     $45,764,825   $357,250,417
                                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                                            Membership
                                                                                                                                                                                                12/14/2012     $24,588,926   $332,661,491
                                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                                            Membership
                                                                                                                                                                                                 1/15/2013     $30,470,429   $302,191,061
                                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                                            Membership
                                                                                                                                                                                                 2/14/2013    $295,328,636     $6,862,425
                                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                                                         2/21/2013 Distribution5,11    $184,431,858
                                                                                                                                                                                                                                                         2/27/2013 Distribution5,11     $20,999,895

                                                                                                                                                                                                                                          Membership     3/14/2013 Distribution5,11    $156,174,219
                                                                                                                                                                                                 2/21/2013      $6,862,425            $­—
                                                                                                                                                                                                                                          Interest10     4/19/2013 Distribution5,11    $105,620,441
                                                                                                                                                                                                                                                         4/25/2013 Distribution5,11     $42,099,442
                                                                                                                                                                                                                                                         5/29/2013 Distribution5,11     $49,225,244
                                                                                                                                                                                                                                                                                             Continued on next page
                                                                                                                                                                                                                                                                                                                      TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013
                                                                                                                                                                                                                                                                                                                      413
PPIP TRANSACTION DETAIL, AS OF 9/30/2013                                                   (CONTINUED)                                                                                                                                                                                                      414
                                                                                                                                                                           Final
                                                                                                               Preliminary Adjusted                                  Investment                                  Investment After Capital
Seller                                                                                                            Commitment3          Final Commitment Amount7         Amount9     Capital Repayment Details          Repayment               Distribution or Disposition
                                                                                                                                                                                                                                                                                                Interest/
                                                                                                                                                                                                                                                                                            Distributions
                                                         Transaction Investment        Commitment   Pricing                                                                    Repayment           Repayment                                                                                      Paid to
Note Date            Institution      City         State Type        Description          Amount Mechanism       Date          Amount Date               Amount         Amount      Date              Amount          Amount Description       Date         Description         Proceeds        Treasury
                     RLJ Western                                     Debt
                                                                                                                                                                                                                             Debt Obligation
                     Asset Public/                                   Obligation w/
2,6      11/4/2009                    Wilmington    DE Purchase                      $2,222,222,222      Par 3/22/2010   $2,488,875,000 7/16/2010 $1,241,156,516 $1,241,000,000 5/13/2011         $13,531,530 $1,227,468,470 w/ Contingent
                     Private Master                                  Contingent
                                                                                                                                                                                                                             Proceeds
                     Fund, L.P.                                      Proceeds
                                                                                                                                                                                                                             Debt Obligation
                                                                                                                                                                                    7/31/2012    $618,750,000   $608,718,470 w/ Contingent
                                                                                                                                                                                                                             Proceeds
                                                                                                                                                                                                                             Debt Obligation
                                                                                                                                                                                     8/9/2012    $151,006,173   $457,712,297 w/ Contingent
                                                                                                                                                                                                                             Proceeds
                                                                                                                                                                                                                             Debt Obligation
                                                                                                                                                                                    8/14/2012     $11,008,652   $446,703,645 w/ Contingent
                                                                                                                                                                                                                             Proceeds
                                                                                                                                                                                                                             Debt Obligation
                                                                                                                                                                                    8/23/2012    $160,493,230   $286,210,415 w/ Contingent
                                                                                                                                                                                                                             Proceeds
                                                                                                                                                                                                                             Debt Obligation
                                                                                                                                                                                    8/29/2012    $103,706,836   $182,503,579 w/ Contingent
                                                                                                                                                                                                                             Proceeds
                                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                                                                                                                                                                                                                             Debt Obligation
                                                                                                                                                                                    9/17/2012     $20,637,410   $161,866,170 w/ Contingent
                                                                                                                                                                                                                             Proceeds
                                                                                                                                                                                                                                               10/19/2012 Distribution5,11     $6,789,287 $161,505,775
                                                                                                                                                                                                                                Contingent
                                                                                                                                                                                    9/21/2012    $161,866,170             $­—                  11/2/2012 Distribution5,11      $3,718,769
                                                                                                                                                                                                                                Proceeds
                                                                                                                                                                                                                                               12/21/2012 Distribution5,11       $13,750
                     RLJ Western
                     Asset Public/                                   Membership                                                                                                                                                 Membership
1,6      11/4/2009                    Wilmington    DE Purchase                      $1,111,111,111      Par 3/22/2010   $1,244,437,500 7/16/2010   $620,578,258   $620,578,258 3/14/2011          $1,202,957   $619,375,301
                     Private Master                                  Interest                                                                                                                                                   Interest10
                     Fund, L.P.
                                                                                                                                                                                                                                Membership
                                                                                                                                                                                    4/14/2011      $3,521,835   $615,853,465
                                                                                                                                                                                                                                Interest10
                                                                                                                                                                                                                                Membership
                                                                                                                                                                                    8/14/2012    $104,959,251   $510,894,215
                                                                                                                                                                                                                                Interest10
                                                                                                                                                                                                                                Membership
                                                                                                                                                                                    9/17/2012     $72,640,245   $438,253,970
                                                                                                                                                                                                                                Interest10
                                                                                                                                                                                                                                Membership
                                                                                                                                                                                    9/28/2012    $180,999,095   $257,254,875
                                                                                                                                                                                                                                Interest10
                                                                                                                                                                                                                                Membership
                                                                                                                                                                                   10/15/2012    $134,999,325   $122,255,550
                                                                                                                                                                                                                                Interest10
                                                                                                                                                                                                                                               10/19/2012 Distribution5,11   $147,464,888
                                                                                                                                                                                                                                Membership
                                                                                                                                                                                   10/19/2012    $122,255,550             $­—                  11/2/2012 Distribution5,11    $148,749,256
                                                                                                                                                                                                                                Interest10
                                                                                                                                                                                                                                               12/21/2012 Distribution5,11      $549,997
                                                                                                                                                                                                                                                                                   Continued on next page
PPIP TRANSACTION DETAIL, AS OF 9/30/2013                                                   (CONTINUED)
                                                                                                                                                                           Final
                                                                                                               Preliminary Adjusted                                  Investment                                  Investment After Capital
Seller                                                                                                            Commitment3          Final Commitment Amount7         Amount9     Capital Repayment Details          Repayment               Distribution or Disposition
                                                                                                                                                                                                                                                                                                  Interest/
                                                                                                                                                                                                                                                                                              Distributions
                                                         Transaction Investment        Commitment   Pricing                                                                    Repayment           Repayment                                                                                        Paid to
Note Date            Institution      City         State Type        Description          Amount Mechanism       Date          Amount Date               Amount         Amount      Date              Amount         Amount Description        Date         Description           Proceeds        Treasury
                    Marathon Legacy
                                                                     Debt
                    Securities                                                                                                                                                                                               Debt Obligation
                                                                     Obligation w/
2,6      11/25/2009 Public-Private    Wilmington    DE Purchase                      $2,222,222,222      Par 3/22/2010   $2,488,875,000 7/16/2010   $949,100,000   $949,000,000 9/17/2012        $149,000,000   $800,000,000 w/ Contingent
                                                                     Contingent
                    Investment                                                                                                                                                                                               Proceeds
                                                                     Proceeds
                    Partnership, L.P.
                                                                                                                                                                                                                             Debt Obligation
                                                                                                                                                                                   11/15/2012    $119,575,516   $680,424,484 w/ Contingent
                                                                                                                                                                                                                             Proceeds
                                                                                                                                                                                                                             Debt Obligation
                                                                                                                                                                                   11/20/2012    $195,000,000   $485,424,484 w/ Contingent
                                                                                                                                                                                                                             Proceeds
                                                                                                                                                                                                                             Debt Obligation
                                                                                                                                                                                   12/14/2012     $47,755,767   $437,668,717 w/ Contingent
                                                                                                                                                                                                                             Proceeds
                                                                                                                                                                                                                             Debt Obligation
                                                                                                                                                                                    1/15/2013     $62,456,214   $375,212,503 w/ Contingent
                                                                                                                                                                                                                             Proceeds
                                                                                                                                                                                                                                               4/16/2013 Distribution5,11        $7,143,340

                                                                                                                                                                                                                                Contingent     5/16/2013 Distribution5,11         $963,411
                                                                                                                                                                                    1/24/2013    $375,212,503             $­—
                                                                                                                                                                                                                                Proceeds       7/11/2013 Distribution5,11         $750,004
                                                                                                                                                                                                                                               9/5/2013     Distribution5,11     $1,000,001
                                                                                                                                                                                                                                                                                              $77,496,170
                    Marathon Legacy
                    Securities
                                                                     Membership                                                                                                                                                 Membership
1,6      11/25/2009 Public-Private    Wilmington    DE Purchase                      $1,111,111,111      Par 3/22/2010   $1,244,437,500 7/16/2010   $474,550,000   $474,550,000 9/17/2012         $74,499,628   $400,050,373
                                                                     Interest                                                                                                                                                   Interest10
                    Investment
                    Partnership, L.P.
                                                                                                                                                                                                                                Membership
                                                                                                                                                                                   11/15/2012     $59,787,459   $340,262,914
                                                                                                                                                                                                                                Interest10
                                                                                                                                                                                                                                Membership
                                                                                                                                                                                   12/14/2012     $40,459,092   $299,803,821
                                                                                                                                                                                                                                Interest10
                                                                                                                                                                                                                                Membership
                                                                                                                                                                                    1/15/2013     $10,409,317   $289,394,504
                                                                                                                                                                                                                                Interest10
                                                                                                                                                                                                                                Membership
                                                                                                                                                                                    1/30/2013    $219,998,900    $69,395,604
                                                                                                                                                                                                                                Interest10
                                                                                                                                                                                                                                Membership
                                                                                                                                                                                    2/25/2013     $39,026,406    $30,369,198
                                                                                                                                                                                                                                Interest10
                                                                                                                                                                                                                                               3/25/2013 Distribution5,11      $164,629,827
                                                                                                                                                                                                                                               4/16/2013 Distribution5,11       $71,462,104
                                                                                                                                                                                                                                Membership
                                                                                                                                                                                    3/25/2013     $30,369,198             $­—                  5/16/2013 Distribution5,11       $38,536,072
                                                                                                                                                                                                                                Interest10
                                                                                                                                                                                                                                               7/11/2013 Distribution5,11       $29,999,850
                                                                                                                                                                                                                                               9/5/2013     Distribution5,11     $3,999,980
                                                                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013
                                                                                                                                                                                                                                                                                                              415
PPIP TRANSACTION DETAIL, AS OF 9/30/2013                                                  (CONTINUED)                                                                                                                                                                                                      416
                                                                                                                                                                          Final
                                                                                                              Preliminary Adjusted                                  Investment                                  Investment After Capital
Seller                                                                                                           Commitment3          Final Commitment Amount7         Amount9     Capital Repayment Details          Repayment               Distribution or Disposition
                                                                                                                                                                                                                                                                                               Interest/
                                                                                                                                                                                                                                                                                           Distributions
                                                        Transaction Investment        Commitment   Pricing                                                                    Repayment           Repayment                                                                                      Paid to
Note Date             Institution    City         State Type        Description          Amount Mechanism       Date          Amount Date               Amount         Amount      Date              Amount          Amount Description       Date         Description         Proceeds        Treasury
                                                                    Debt
                                                                                                                                                                                                                            Debt Obligation
                    Oaktree PPIP                                    Obligation w/
2,6      12/18/2009                  Wilmington    DE Purchase                      $2,222,222,222      Par 3/22/2010   $2,488,875,000 7/16/2010 $2,321,568,200 $1,111,000,000 7/15/2011         $79,000,000 $1,032,000,000 w/ Contingent
                    Fund, L.P.                                      Contingent
                                                                                                                                                                                                                            Proceeds
                                                                    Proceeds
                                                                                                                                                                                                                            Debt Obligation
                                                                                                                                                                                   3/14/2012     $78,775,901   $953,224,099 w/ Contingent
                                                                                                                                                                                                                            Proceeds
                                                                                                                                                                                                                            Debt Obligation
                                                                                                                                                                                   9/17/2012     $44,224,144   $908,999,956 w/ Contingent
                                                                                                                                                                                                                            Proceeds
                                                                                                                                                                                                                            Debt Obligation
                                                                                                                                                                                  10/15/2012     $64,994,269   $844,005,687 w/ Contingent
                                                                                                                                                                                                                            Proceeds
                                                                                                                                                                                                                            Debt Obligation
                                                                                                                                                                                  11/15/2012    $223,080,187   $620,925,500 w/ Contingent
                                                                                                                                                                                                                            Proceeds
                                                                                                                                                                                                                            Debt Obligation
                                                                                                                                                                                  12/14/2012    $111,080,608   $509,844,892 w/ Contingent
                                                                                                                                                                                                                            Proceeds
                                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                                                                                                                                                                                                                            Debt Obligation
                                                                                                                                                                                   1/15/2013     $89,099,906   $420,744,985 w/ Contingent
                                                                                                                                                                                                                            Proceeds
                                                                                                                                                                                                                            Debt Obligation
                                                                                                                                                                                   4/12/2013    $109,610,516   $311,134,469 w/ Contingent
                                                                                                                                                                                                                            Proceeds
                                                                                                                                                                                                                                              5/28/2013 Distribution5,11       $444,393
                                                                                                                                                                                                                                                                                           $66,648,417
                                                                                                                                                                                                                                              6/3/2013     Distribution5,11   $1,960,289

                                                                                                                                                                                                                               Contingent     6/14/2013 Distribution5,11      $1,375,007
                                                                                                                                                                                   5/14/2013    $311,134,469             $­—
                                                                                                                                                                                                                               Proceeds       6/24/2013 Distribution5,11       $700,004
                                                                                                                                                                                                                                              6/26/2013 Distribution5,11       $293,751
                                                                                                                                                                                                                                              7/9/2013     Distribution5,11   $1,024,380
                      Oaktree PPIP                                  Membership                                                                                                                                                 Membership
1,6      12/18/2009                  Wilmington    DE Purchase                      $1,111,111,111      Par 3/22/2010   $1,244,437,500 7/16/2010 $1,160,784,100   $555,904,633 7/15/2011         $39,499,803   $516,404,830
                      Fund, L.P.                                    Interest                                                                                                                                                   Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                   3/14/2012     $39,387,753   $477,017,077
                                                                                                                                                                                                                               Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                   9/17/2012     $22,111,961   $454,905,116
                                                                                                                                                                                                                               Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                  10/15/2012     $32,496,972   $422,408,144
                                                                                                                                                                                                                               Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                  11/15/2012    $111,539,536   $310,868,608
                                                                                                                                                                                                                               Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                  12/14/2012     $55,540,026   $255,328,581
                                                                                                                                                                                                                               Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                   1/15/2013     $14,849,910   $240,478,671
                                                                                                                                                                                                                               Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                   4/12/2013     $18,268,328   $222,210,343
                                                                                                                                                                                                                               Interest10
                                                                                                                                                                                                                               Membership
                                                                                                                                                                                   5/14/2013     $70,605,973   $151,604,370
                                                                                                                                                                                                                               Interest10
                                                                                                                                                                                                                                                                                 Continued on next page
PPIP TRANSACTION DETAIL, AS OF 9/30/2013                                                         (CONTINUED)
                                                                                                                                                                                                        Final
                                                                                                                               Preliminary Adjusted                                               Investment                                         Investment After Capital
Seller                                                                                                                            Commitment3               Final Commitment Amount7                 Amount9     Capital Repayment Details                 Repayment                 Distribution or Disposition
                                                                                                                                                                                                                                                                                                                                            Interest/
                                                                                                                                                                                                                                                                                                                                        Distributions
                                                          Transaction Investment             Commitment   Pricing                                                                                            Repayment              Repayment                                                                                                 Paid to
Note Date            Institution        City        State Type        Description               Amount Mechanism                  Date             Amount Date                     Amount             Amount      Date                 Amount              Amount Description        Date          Description            Proceeds          Treasury
                                                                                                                                                                                                                                                                      Membership
                                                                                                                                                                                                                 5/28/2013       $119,769,362        $31,835,008
                                                                                                                                                                                                                                                                      Interest10
                                                                                                                                                                                                                                                                                     6/3/2013      Distribution5,11    $46,575,750
                                                                                                                                                                                                                                                                                     6/14/2013 Distribution5,11        $54,999,725
                                                                                                                                                                                                                                                                      Membership
                                                                                                                                                                                                                  6/3/2013         $31,835,008                  $­—                  6/24/2013 Distribution5,11        $27,999,860
                                                                                                                                                                                                                                                                      Interest10
                                                                                                                                                                                                                                                                                     6/26/2013 Distribution5,11        $11,749,941
                                                                                                                                                                                                                                                                                     7/9/2013      Distribution5,11    $40,974,795

                                                          Initial Investment Amount $30,000,000,000                             Final Investment Amount                $21,856,403,574          Total Capital Repayment $18,625,147,938                                                        Total Proceeds5 $2,635,984,657

Notes: Numbers may not total due to rounding. Data as of 9/30/2013. Numbered notes were taken verbatim from Treasury’s 9/30/2013, Transactions Report.

1	
   The equity amount may be incrementally funded. Commitment amount represents Treasury’s maximum obligation if the limited partners other than Treasury fund their maximum equity capital obligations.
2	
   The loan may be incrementally funded. Commitment amount represents Treasury’s maximum obligation if Treasury and the limited partners other than Treasury fund 100% of their maximum equity obligations.
3	
   Adjusted to show Treasury’s maximum obligations to a fund.
4	
   On 1/4/2010, Treasury and the fund manager entered into a Winding-Up and Liquidation Agreement.
5	
   Distributions after capital repayments will be considered profit and are paid pro rata (subject to prior distribution of Contingent Proceeds to Treasury) to the fund’s partners, including Treasury, in proportion to their membership interests. These figures exclude pro-rata distributions to Treasury of gross investment proceeds (reported
   on the Dividends & Interest report), which may be made from time to time in accordance with the terms of the fund’s Limited Partnership Agreement.
6	
   Following termination of the TCW fund, the $3.33 billion of obligations have been reallocated to the remaining eight funds pursuant to consent letters from Treasury dated as of 3/22/2010. $133 million of maximum equity capital obligation and $267 million of maximum debt obligation were reallocated per fund, after adjustment
   for the $17.6 million and $26.9 million equity capital reallocations from private investors in the TCW fund to the Wellington fund and the AG GECC fund, respectively. The $356 million of final investment in the TCW fund will remain a part of Treasury’s total maximum S-PPIP investment amount.
7	
   Amount adjusted to show Treasury’s final capital commitment (membership interest) and the maximum amount of Treasury’s debt obligation that may be drawn down in accordance with the Loan Agreement.
8	
   On 9/26/2011, the General Partner notified Treasury that the Investment Period was terminated in accordance with the Limited Partnership Agreement. As a result, the Final Investment Amount, representing Treasury’s debt obligation, has been reduced to the cumulative amount of debt funded.
9	
   Cumulative capital drawn at end of the Investment Period.
10	
   The Amount is adjusted to reflect pro-rata equity distributions that have been deemed to be capital repayments to Treasury.
11	
   Distribution represents a gain on funded capital and is subject to revision pending any additional fundings of the outstanding commitment.
12	
   On 8/23/2012, AllianceBernstein agreed to de-obligate its unused debt commitment. The Final Investment Amount represents the cumulative capital drawn as of the de-obligation.
13	
   On, 6/5/2013, Invesco Mortgage Recovery Master Fund L.P. made a distribution to Treasury that is the result of adjustments made to positions previously held by the Invesco Legacy Securities Master Fund, L.P. “Partnership”, of which The U.S. Department of the Treasury is a Limited Partner. The adjusted distribution was made
   18 months after the Final Distribution on 9/28/2012.
14	
   On 7/8/2013, Invesco Mortgage Recovery Master Fund L.P. made a distribution to Treasury arising from the Settlement Agreement between Jefferies LLC and Invesco Advisers, Inc. dated as of 3/20/2013.

Sources: Treasury, Transactions Report, 9/30/2013; Treasury, Dividends and Interest Report, 10/10/2013.
                                                                                                                                                                                                                                                                                                                                                        TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013
                                                                                                                                                                                                                                                                                                                                                        417
                                                                                                                                                                                                                                                                                                       418
TABLE D.13
HAMP TRANSACTION DETAIL, AS OF 9/30/2013
            Servicer Modifying Borrowers’ Loans                                                                     Adjustment Details                                                                                                            TARP Incentive Payments
                                                                              Cap of Incentive
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                                      Lenders/                              Total TARP
                                          Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                                Borrower’s       Investors          Servicers            Incentive
Date        Name of Institution           Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount         Adjusted Cap    Reason for Adjustment                                   Incentives      Incentives         Incentives           Payments
                                                                                                                     6/12/2009           $284,590,000     $660,590,000    Updated portfolio data from servicer
                                                                                                                                                                          Updated portfolio data from servicer & HPDP initial
                                                                                                                     9/30/2009           $121,910,000     $782,500,000
                                                                                                                                                                          cap
                                                                                                                                                                          Updated portfolio data from servicer & HAFA initial
                                                                                                                    12/30/2009           $131,340,000     $913,840,000
                                                                                                                                                                          cap
                                                                                                                     3/26/2010       ($355,530,000)       $558,310,000    Updated portfolio data from servicer
                                                                                                                     7/14/2010           $128,690,000     $687,000,000    Updated portfolio data from servicer
                                                                                                                     9/30/2010             $4,000,000     $691,000,000    Initial FHA-HAMP cap and initial FHA-2LP cap
                                                                                                                     9/30/2010            $59,807,784     $750,807,784    Updated portfolio data from servicer
                                                                                                                    11/16/2010             ($700,000)     $750,107,784    Transfer of cap due to servicing transfer
                                                                                                                    12/15/2010            $64,400,000     $814,507,784    Updated portfolio data from servicer
                                                                                                                      1/6/2011                  ($639)    $814,507,145    Updated portfolio data from servicer
                                                                                                                     1/13/2011            ($2,300,000)    $812,207,145    Transfer of cap due to servicing transfer
                                                                                                                     2/16/2011              $100,000      $812,307,145    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                       APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                                                                                                                     3/16/2011             $3,600,000     $815,907,145    Transfer of cap due to servicing transfer
                                                                                                                     3/30/2011                  ($735)    $815,906,410    Updated due to quarterly assessment and reallocation
                                                                                                                     4/13/2011             ($100,000)     $815,806,410    Transfer of cap due to servicing transfer
                                                                                                                     5/13/2011              $400,000      $816,206,410    Transfer of cap due to servicing transfer
                                                                                                                     6/16/2011             ($100,000)     $816,106,410    Transfer of cap due to servicing transfer
                                                                                                                     6/29/2011                ($6,805)    $816,099,605    Updated due to quarterly assessment and reallocation
                                                                                                                     8/16/2011             ($100,000)     $815,999,605    Transfer of cap due to servicing transfer
                                                                                                                     9/15/2011             ($200,000)     $815,799,605    Transfer of cap due to servicing transfer
                                                                                                                    10/14/2011             ($100,000)     $815,699,605    Transfer of cap due to servicing transfer
                                                                                                                    11/16/2011             ($100,000)     $815,599,605    Transfer of cap due to servicing transfer
                                                        Financial
            Select Portfolio Servicing,                 Instrument for                                               1/13/2012              $200,000      $815,799,605    Transfer of cap due to servicing transfer
4/13/2009                                 Purchase                              $376,000,000     N/A                                                                                                                             $66,958,390   $131,806,834       $95,027,270        $293,792,494
            Salt Lake City, UT                          Home Loan
                                                                                                                     3/15/2012            $24,800,000     $840,599,605    Transfer of cap due to servicing transfer
                                                        Modifications
                                                                                                                     4/16/2012             $1,900,000     $842,499,605    Transfer of cap due to servicing transfer
                                                                                                                     5/16/2012                $80,000     $842,579,605    Transfer of cap due to servicing transfer
                                                                                                                     6/14/2012             $8,710,000     $851,289,605    Transfer of cap due to servicing transfer
                                                                                                                     6/28/2012                ($5,176)    $851,284,429    Updated due to quarterly assessment and reallocation
                                                                                                                     7/16/2012             $2,430,000     $853,714,429    Transfer of cap due to servicing transfer
                                                                                                                     8/16/2012             $2,310,000     $856,024,429    Transfer of cap due to servicing transfer
                                                                                                                     9/27/2012               ($13,961)    $856,010,468    Updated due to quarterly assessment and reallocation
                                                                                                                    10/16/2012           $126,940,000     $982,950,468    Transfer of cap due to servicing transfer
                                                                                                                    11/15/2012             $9,990,000     $992,940,468    Transfer of cap due to servicing transfer
                                                                                                                    12/14/2012            $10,650,000    $1,003,590,468   Transfer of cap due to servicing transfer
                                                                                                                    12/27/2012                ($2,663)   $1,003,587,805   Updated due to quarterly assessment and reallocation
                                                                                                                     1/16/2013            $18,650,000    $1,022,237,805   Transfer of cap due to servicing transfer
                                                                                                                     2/14/2013            $10,290,000    $1,032,527,805   Transfer of cap due to servicing transfer
                                                                                                                     3/14/2013             $4,320,000    $1,036,847,805   Transfer of cap due to servicing transfer
                                                                                                                     3/25/2013               ($10,116)   $1,036,837,689   Updated due to quarterly assessment and reallocation
                                                                                                                     4/16/2013              $840,000     $1,037,677,689   Transfer of cap due to servicing transfer
                                                                                                                     5/16/2013             $1,330,000    $1,039,007,689   Transfer of cap due to servicing transfer
                                                                                                                     6/14/2013             $3,620,000    $1,042,627,689   Transfer of cap due to servicing transfer
                                                                                                                     6/27/2013                ($3,564)   $1,042,624,125   Updated due to quarterly assessment and reallocation
                                                                                                                     7/16/2013           $105,080,000    $1,147,704,125   Transfer of cap due to servicing transfer
                                                                                                                     8/15/2013                $10,000    $1,147,714,125   Transfer of cap due to servicing transfer
                                                                                                                     9/16/2013            $98,610,000    $1,246,324,125   Transfer of cap due to servicing transfer
                                                                                                                     9/27/2013                ($1,541)   $1,246,322,584   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                              Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                            (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                              TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                        Lenders/                              Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                                  Borrower’s       Investors          Servicers            Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount         Adjusted Cap    Reason for Adjustment                                     Incentives      Incentives         Incentives           Payments
                                                                                                                6/12/2009       ($991,580,000)      $1,079,420,000   Updated portfolio data from servicer
                                                                                                                                                                     Updated portfolio data from servicer & HPDP initial
                                                                                                                9/30/2009      $1,010,180,000       $2,089,600,000
                                                                                                                                                                     cap
                                                                                                                                                                     Updated portfolio data from servicer & HAFA initial
                                                                                                               12/30/2009       ($105,410,000)      $1,984,190,000
                                                                                                                                                                     cap
                                                                                                                3/26/2010       ($199,300,000)      $1,784,890,000   Updated portfolio data from servicer & 2MP initial cap
                                                                                                                                                                     Transfer of cap to Service One, Inc. due to servicing
                                                                                                                4/19/2010             ($230,000)    $1,784,660,000
                                                                                                                                                                     transfer
                                                                                                                                                                     Transfer of cap to Specialized Loan Servicing, LLC
                                                                                                                5/14/2010            ($3,000,000)   $1,781,660,000
                                                                                                                                                                     due to servicing transfer
                                                                                                                                                                     Transfer of cap to multiple servicers due to servicing
                                                                                                                6/16/2010           ($12,280,000)   $1,769,380,000
                                                                                                                                                                     transfer
                                                                                                                7/14/2010       ($757,680,000)      $1,011,700,000   Updated portfolio data from servicer
                                                                                                                                                                     Transfer of cap to multiple servicers due to servicing
                                                                                                                7/16/2010            ($7,110,000)   $1,004,590,000
                                                                                                                                                                     transfer
                                                                                                                                                                     Transfer of cap to multiple servicers due to servicing
                                                                                                                8/13/2010            ($6,300,000)    $998,290,000
                                                                                                                                                                     transfer
                                                                                                                                                                     Transfer of cap to multiple servicers due to servicing
                                                                                                                9/15/2010            ($8,300,000)    $989,990,000
                                                                                                                                                                     transfer
                                                                                                                9/30/2010            $32,400,000    $1,022,390,000   Initial FHA-HAMP cap and initial FHA-2LP cap
                                                                                                                9/30/2010           $101,287,484    $1,123,677,484   Updated portfolio data from servicer
                                                                                                               10/15/2010            ($1,400,000)   $1,122,277,484   Transfer of cap due to servicing transfer
                                                                                                               11/16/2010            ($3,200,000)   $1,119,077,484   Transfer of cap due to servicing transfer
                                                                                                                 1/6/2011                  ($981)   $1,119,076,503   Updated portfolio data from servicer
                                                                                                                1/13/2011           ($10,500,000)   $1,108,576,503   Transfer of cap due to servicing transfer
                                                   Financial
                                                                                                                2/16/2011            ($4,600,000)   $1,103,976,503   Transfer of cap due to servicing transfer
            CitiMortgage, Inc.,                    Instrument for
4/13/2009                            Purchase                            $2,071,000,000     N/A                                                                                                                               $63,897,793   $206,298,351      $103,663,748        $373,859,892
            O’Fallon, MO                           Home Loan                                                    3/16/2011           ($30,500,000)   $1,073,476,503   Transfer of cap due to servicing transfer
                                                   Modifications
                                                                                                                3/30/2011                ($1,031)   $1,073,475,472   Updated due to quarterly assessment and reallocation
                                                                                                                4/13/2011               $100,000    $1,073,575,472   Transfer of cap due to servicing transfer
                                                                                                                5/13/2011            ($7,200,000)   $1,066,375,472   Transfer of cap due to servicing transfer
                                                                                                                6/16/2011             ($400,000)    $1,065,975,472   Transfer of cap due to servicing transfer
                                                                                                                6/29/2011                ($9,131)   $1,065,966,341   Updated due to quarterly assessment and reallocation
                                                                                                                7/14/2011           ($14,500,000)   $1,051,466,341   Transfer of cap due to servicing transfer
                                                                                                                8/16/2011            ($1,600,000)   $1,049,866,341   Transfer of cap due to servicing transfer
                                                                                                                9/15/2011               $700,000    $1,050,566,341   Transfer of cap due to servicing transfer
                                                                                                               10/14/2011            $15,200,000    $1,065,766,341   Transfer of cap due to servicing transfer
                                                                                                               11/16/2011            ($2,900,000)   $1,062,866,341   Transfer of cap due to servicing transfer
                                                                                                               12/15/2011            ($5,000,000)   $1,057,866,341   Transfer of cap due to servicing transfer
                                                                                                                1/13/2012             ($900,000)    $1,056,966,341   Transfer of cap due to servicing transfer
                                                                                                                2/16/2012            ($1,100,000)   $1,055,866,341   Transfer of cap due to servicing transfer
                                                                                                                3/15/2012            ($1,700,000)   $1,054,166,341   Transfer of cap due to servicing transfer
                                                                                                                4/16/2012             ($600,000)    $1,053,566,341   Transfer of cap due to servicing transfer
                                                                                                                5/16/2012             ($340,000)    $1,053,226,341   Transfer of cap due to servicing transfer
                                                                                                                6/14/2012            ($2,880,000)   $1,050,346,341   Transfer of cap due to servicing transfer
                                                                                                                6/28/2012                ($5,498)   $1,050,340,843   Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2012       ($298,960,000)       $751,380,843    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                    TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




                                                                                                                7/27/2012           $263,550,000    $1,014,930,843   Transfer of cap due to servicing transfer
                                                                                                                8/16/2012                $30,000    $1,014,960,843   Transfer of cap due to servicing transfer
                                                                                                                9/27/2012               ($12,722)   $1,014,948,121   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                           Continued on next page
                                                                                                                                                                                                                                                                                                    419
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                    (CONTINUED)                                                                                                                                                                                               420
       Servicer Modifying Borrowers’ Loans                                                             Adjustment Details                                                                                                        TARP Incentive Payments
                                                                 Cap of Incentive
                                                             Payments on Behalf
                                                             of Borrowers and to                                                                                                                                                  Lenders/                              Total TARP
                                Transaction   Investment    Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                               Borrower’s    Investors          Servicers            Incentive
Date   Name of Institution      Type          Description        Investors (Cap)1   Mechanism   Note         Date             Amount         Adjusted Cap    Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                       10/16/2012            ($4,020,000)   $1,010,928,121   Transfer of cap due to servicing transfer
                                                                                                       11/15/2012            ($1,460,000)   $1,009,468,121   Transfer of cap due to servicing transfer
                                                                                                       12/14/2012            ($6,000,000)   $1,003,468,121   Transfer of cap due to servicing transfer
                                                                                                       12/27/2012                ($1,916)   $1,003,466,205   Updated due to quarterly assessment and reallocation
                                                                                                        2/14/2013            ($8,450,000)    $995,016,205    Transfer of cap due to servicing transfer
                                                                                                        3/14/2013            ($1,890,000)    $993,126,205    Transfer of cap due to servicing transfer
                                                                                                        3/25/2013                ($6,606)    $993,119,599    Updated due to quarterly assessment and reallocation
                                                                                                        4/16/2013            ($3,490,000)    $989,629,599    Transfer of cap due to servicing transfer
                                                                                                        6/14/2013            ($3,630,000)    $985,999,599    Transfer of cap due to servicing transfer
                                                                                                        6/27/2013                ($2,161)    $985,997,438    Updated due to quarterly assessment and reallocation
                                                                                                        7/16/2013           ($26,880,000)    $959,117,438    Transfer of cap due to servicing transfer
                                                                                                        9/16/2013           ($12,160,000)    $946,957,438    Transfer of cap due to servicing transfer
                                                                                                        9/27/2013                  ($610)    $946,956,828    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                             Continued on next page
                                                                                                                                                                                                                                                                                      APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                            (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                               TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                         Lenders/                              Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                                   Borrower’s       Investors          Servicers            Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount         Adjusted Cap    Reason for Adjustment                                      Incentives      Incentives         Incentives           Payments
                                                                                                                6/17/2009       ($462,990,000)      $2,410,010,000   Updated portfolio data from servicer
                                                                                                                                                                     Updated portfolio data from servicer & HPDP initial
                                                                                                                9/30/2009            $65,070,000    $2,475,080,000
                                                                                                                                                                     cap
                                                                                                                                                                     Updated portfolio data from servicer & HAFA initial
                                                                                                               12/30/2009      $1,213,310,000       $3,688,390,000
                                                                                                                                                                     cap
                                                                                                                2/17/2010      $2,050,236,344       $5,738,626,344   Transfer of cap (from Wachovia) due to merger
                                                                                                                3/12/2010                $54,767    $5,738,681,110   Transfer of cap (from Wachovia) due to merger
                                                                                                                3/19/2010           $668,108,890    $6,406,790,000   Initial 2MP cap
                                                                                                                3/26/2010           $683,130,000    $7,089,920,000   Updated portfolio data from servicer
                                                                                                                7/14/2010     ($2,038,220,000)      $5,051,700,000   Updated portfolio data from servicer
                                                                                                                9/30/2010       ($287,348,828)      $4,764,351,172   Updated portfolio data from servicer
                                                                                                                                                                     Initial FHA-HAMP cap, initial FHA-2LP cap, and initial
                                                                                                                9/30/2010           $344,000,000    $5,108,351,172
                                                                                                                                                                     RD-HAMP
                                                                                                                12/3/2010             $8,413,225    $5,116,764,397   Transfer of cap (from Wachovia) due to merger
                                                                                                               12/15/2010            $22,200,000    $5,138,964,397   Updated portfolio data from servicer
                                                                                                                 1/6/2011                ($6,312)   $5,138,958,085   Updated portfolio data from servicer
                                                                                                                1/13/2011             ($100,000)    $5,138,858,085   Transfer of cap due to servicing transfer
                                                                                                                3/16/2011             ($100,000)    $5,138,758,085   Transfer of cap due to servicing transfer
                                                                                                                3/30/2011                ($7,171)   $5,138,750,914   Updated due to quarterly assessment and reallocation
                                                                                                                4/13/2011            ($9,800,000)   $5,128,950,914   Transfer of cap due to servicing transfer
                                                                                                                5/13/2011              $100,000     $5,129,050,914   Transfer of cap due to servicing transfer
                                                                                                                6/16/2011             ($600,000)    $5,128,450,914   Transfer of cap due to servicing transfer
                                                                                                                6/29/2011               ($63,856)   $5,128,387,058   Updated due to quarterly assessment and reallocation

                                                   Financial                                                    7/14/2011            ($2,300,000)   $5,126,087,058   Transfer of cap due to servicing transfer
            Wells Fargo Bank, NA,                  Instrument for                                               8/16/2011            ($1,100,000)   $5,124,987,058   Transfer of cap due to servicing transfer
4/13/2009                            Purchase                            $2,873,000,000     N/A                                                                                                                               $204,892,075   $501,152,918      $307,442,066       $1,013,487,059
            Des Moines, IA                         Home Loan
                                                   Modifications                                                9/15/2011             $1,400,000    $5,126,387,058   Transfer of cap due to servicing transfer
                                                                                                               10/14/2011              $200,000     $5,126,587,058   Transfer of cap due to servicing transfer
                                                                                                               11/16/2011             ($200,000)    $5,126,387,058   Transfer of cap due to servicing transfer
                                                                                                               12/15/2011             ($200,000)    $5,126,187,058   Transfer of cap due to servicing transfer
                                                                                                                1/13/2012             ($300,000)    $5,125,887,058   Transfer of cap due to servicing transfer
                                                                                                                2/16/2012             ($200,000)    $5,125,687,058   Transfer of cap due to servicing transfer
                                                                                                                3/15/2012            ($1,000,000)   $5,124,687,058   Transfer of cap due to servicing transfer
                                                                                                                4/16/2012             ($800,000)    $5,123,887,058   Transfer of cap due to servicing transfer
                                                                                                                5/16/2012             ($610,000)    $5,123,277,058   Transfer of cap due to servicing transfer
                                                                                                                6/14/2012            ($2,040,000)   $5,121,237,058   Transfer of cap due to servicing transfer
                                                                                                                6/28/2012               ($39,923)   $5,121,197,135   Updated due to quarterly assessment and reallocation
                                                                                                                8/16/2012             ($120,000)    $5,121,077,135   Transfer of cap due to servicing transfer
                                                                                                                9/27/2012             ($104,111)    $5,120,973,024   Updated due to quarterly assessment and reallocation
                                                                                                               10/16/2012            ($1,590,000)   $5,119,383,024   Transfer of cap due to servicing transfer
                                                                                                               11/15/2012            ($2,910,000)   $5,116,473,024   Transfer of cap due to servicing transfer
                                                                                                               12/14/2012            ($1,150,000)   $5,115,323,024   Transfer of cap due to servicing transfer
                                                                                                               12/27/2012               ($16,392)   $5,115,306,632   Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2013            ($3,350,000)   $5,111,956,632   Transfer of cap due to servicing transfer
                                                                                                                2/14/2013             ($820,000)    $5,111,136,632   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                     TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




                                                                                                                3/14/2013             ($270,000)    $5,110,866,632   Transfer of cap due to servicing transfer
                                                                                                                3/25/2013               ($58,709)   $5,110,807,923   Updated due to quarterly assessment and reallocation
                                                                                                                4/16/2013               ($40,000)   $5,110,767,923   Transfer of cap due to servicing transfer
                                                                                                                5/16/2013            ($5,320,000)   $5,105,447,923   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                            Continued on next page
                                                                                                                                                                                                                                                                                                     421
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                    (CONTINUED)                                                                                                                                                                                               422
       Servicer Modifying Borrowers’ Loans                                                             Adjustment Details                                                                                                        TARP Incentive Payments
                                                                 Cap of Incentive
                                                             Payments on Behalf
                                                             of Borrowers and to                                                                                                                                                  Lenders/                              Total TARP
                                Transaction   Investment    Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                               Borrower’s    Investors          Servicers            Incentive
Date   Name of Institution      Type          Description        Investors (Cap)1   Mechanism   Note         Date             Amount         Adjusted Cap    Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                        6/14/2013            ($1,260,000)   $5,104,187,923   Transfer of cap due to servicing transfer
                                                                                                        6/27/2013               ($20,596)   $5,104,167,327   Updated due to quarterly assessment and reallocation
                                                                                                        7/16/2013            ($1,200,000)   $5,102,967,327   Transfer of cap due to servicing transfer
                                                                                                        8/15/2013               ($30,000)   $5,102,937,327   Transfer of cap due to servicing transfer
                                                                                                        9/16/2013           ($10,760,000)   $5,092,177,327   Transfer of cap due to servicing transfer
                                                                                                        9/27/2013                ($6,701)   $5,092,170,626   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                             Continued on next page
                                                                                                                                                                                                                                                                                      APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                            (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                              TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                        Lenders/                              Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                                  Borrower’s       Investors          Servicers            Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount         Adjusted Cap    Reason for Adjustment                                     Incentives      Incentives         Incentives           Payments
                                                                                                                6/12/2009           $384,650,000    $1,017,650,000   Updated portfolio data from servicer
                                                                                                                                                                     Updated portfolio data from servicer & HPDP initial
                                                                                                                9/30/2009      $2,537,240,000       $3,554,890,000
                                                                                                                                                                     cap
                                                                                                                                                                     Updated portfolio data from servicer & HAFA initial
                                                                                                               12/30/2009     ($1,679,520,000)      $1,875,370,000
                                                                                                                                                                     cap
                                                                                                                3/26/2010           $190,180,000    $2,065,550,000   Updated portfolio data from servicer
                                                                                                                                                                     Transfer of cap from Wilshire Credit Corporation due
                                                                                                                5/14/2010             $1,880,000    $2,067,430,000
                                                                                                                                                                     to servicing transfer
                                                                                                                7/14/2010       ($881,530,000)      $1,185,900,000   Updated portfolio data from servicer
                                                                                                                8/13/2010            ($3,700,000)   $1,182,200,000   Transfer of cap due to servicing transfer
                                                                                                                                                                     Initial FHA-HAMP cap, initial FHA-2LP cap, and initial
                                                                                                                9/30/2010           $119,200,000    $1,301,400,000
                                                                                                                                                                     2MP cap
                                                                                                                9/30/2010           $216,998,139    $1,518,398,139   Updated portfolio data from servicer
                                                                                                               12/15/2010             ($500,000)    $1,517,898,139   Updated portfolio data from servicer
                                                                                                                 1/6/2011                ($1,734)   $1,517,896,405   Updated portfolio data from servicer
                                                                                                                3/16/2011             ($100,000)    $1,517,796,405   Transfer of cap due to servicing transfer
                                                                                                                3/30/2011                ($2,024)   $1,517,794,381   Updated due to quarterly assessment and reallocation
                                                                                                                4/13/2011             ($800,000)    $1,516,994,381   Transfer of cap due to servicing transfer
                                                                                                                5/13/2011           ($17,900,000)   $1,499,094,381   Transfer of cap due to servicing transfer
                                                                                                                6/29/2011               ($18,457)   $1,499,075,924   Updated due to quarterly assessment and reallocation
                                                                                                                7/14/2011             ($200,000)    $1,498,875,924   Transfer of cap due to servicing transfer
                                                                                                                8/16/2011             $3,400,000    $1,502,275,924   Transfer of cap due to servicing transfer
                                                   Financial                                                    9/15/2011               $200,000    $1,502,475,924   Transfer of cap due to servicing transfer
            GMAC Mortgage, Inc.,                   Instrument for
4/13/2009                            Purchase                              $633,000,000     N/A                10/14/2011             ($800,000)    $1,501,675,924   Transfer of cap due to servicing transfer                $56,522,364   $140,711,285       $90,378,530        $287,612,179
            Ft. Washington, PA                     Home Loan
                                                   Modifications
                                                                                                               11/16/2011             ($200,000)    $1,501,475,924   Transfer of cap due to servicing transfer
                                                                                                               12/15/2011             $2,600,000    $1,504,075,924   Transfer of cap due to servicing transfer
                                                                                                                1/13/2012            ($1,600,000)   $1,502,475,924   Transfer of cap due to servicing transfer
                                                                                                                3/15/2012             ($400,000)    $1,502,075,924   Transfer of cap due to servicing transfer
                                                                                                                4/16/2012             ($100,000)    $1,501,975,924   Transfer of cap due to servicing transfer
                                                                                                                5/16/2012             ($800,000)    $1,501,175,924   Transfer of cap due to servicing transfer
                                                                                                                6/14/2012             ($990,000)    $1,500,185,924   Transfer of cap due to servicing transfer
                                                                                                                6/28/2012               ($12,463)   $1,500,173,461   Updated due to quarterly assessment and reallocation
                                                                                                                8/16/2012                $10,000    $1,500,183,461   Transfer of cap due to servicing transfer
                                                                                                                9/27/2012               ($33,210)   $1,500,150,251   Updated due to quarterly assessment and reallocation
                                                                                                               11/15/2012            ($1,200,000)   $1,498,950,251   Transfer of cap due to servicing transfer
                                                                                                               12/14/2012                $40,000    $1,498,990,251   Transfer of cap due to servicing transfer
                                                                                                               12/27/2012                ($5,432)   $1,498,984,819   Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2013                $60,000    $1,499,044,819   Transfer of cap due to servicing transfer
                                                                                                                2/14/2013               ($30,000)   $1,499,014,819   Transfer of cap due to servicing transfer
                                                                                                                3/14/2013               ($80,000)   $1,498,934,819   Transfer of cap due to servicing transfer
                                                                                                                3/25/2013               ($19,838)   $1,498,914,981   Updated due to quarterly assessment and reallocation
                                                                                                                6/14/2013                $30,000    $1,498,944,981   Transfer of cap due to servicing transfer
                                                                                                                6/27/2013                ($7,105)   $1,498,937,876   Updated due to quarterly assessment and reallocation
                                                                                                                9/16/2013           ($66,500,000)   $1,432,437,876   Transfer of cap due to servicing transfer
                                                                                                                9/27/2013                ($2,430)   $1,432,435,446   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                    TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




                                                                                                                                                                                                                                                                           Continued on next page
                                                                                                                                                                                                                                                                                                    423
                                                                                                                                                                                                                                                                                                  424
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                              (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                  Adjustment Details                                                                                                          TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                                     Lenders/                             Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                                Borrower’s      Investors         Servicers            Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount         Adjusted Cap    Reason for Adjustment                                   Incentives     Incentives        Incentives           Payments
                                                                                                                  6/17/2009           $225,040,000     $632,040,000    Updated portfolio data from servicer
                                                                                                                                                                       Updated portfolio data from servicer & HPDP initial
                                                                                                                  9/30/2009           $254,380,000     $886,420,000
                                                                                                                                                                       cap
                                                                                                                                                                       Updated portfolio data from servicer & HAFA initial
                                                                                                                 12/30/2009           $355,710,000    $1,242,130,000
                                                                                                                                                                       cap
                                                                                                                  3/26/2010           ($57,720,000)   $1,184,410,000   Updated portfolio data from servicer
                                                                                                                                                                       Transfer of cap to Ocwen Financial Corporation, Inc.
                                                                                                                  6/16/2010       ($156,050,000)      $1,028,360,000
                                                                                                                                                                       due to servicing transfer
                                                                                                                  7/14/2010       ($513,660,000)       $514,700,000    Updated portfolio data from servicer
                                                                                                                  7/16/2010           ($22,980,000)    $491,720,000    Transfer of cap due to multiple servicing transfers
                                                                                                                  9/15/2010             $1,800,000     $493,520,000    Transfer of cap due to servicing transfer
                                                                                                                  9/30/2010             $9,800,000     $503,320,000    Initial FHA-HAMP cap and initial FHA-2LP cap
                                                                                                                  9/30/2010           $116,222,668     $619,542,668    Updated portfolio data from servicer
                                                                                                                 10/15/2010               $100,000     $619,642,668    Transfer of cap due to servicing transfer
                                                                                                                 12/15/2010             $8,900,000     $628,542,668    Updated portfolio data from servicer
                                                                                                                   1/6/2011                  ($556)    $628,542,112    Updated portfolio data from servicer
                                                                                                                  1/13/2011             $2,300,000     $630,842,112    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                  APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                                                                                                                  3/16/2011               $700,000     $631,542,112    Transfer of cap due to servicing transfer
                                                                                                                  3/30/2011                  ($654)    $631,541,458    Updated due to quarterly assessment and reallocation
                                                                                                                  4/13/2011             $2,100,000     $633,641,458    Transfer of cap due to servicing transfer
                                                     Financial
            Saxon Mortgage Services,                                                                              6/29/2011                ($6,144)    $633,635,314    Updated due to quarterly assessment and reallocation
                                                     Instrument for
4/13/2009   Inc.,                      Purchase                              $407,000,000     N/A         16                                                                                                                  $19,655,075   $41,738,413      $39,413,598        $100,807,086
                                                     Home Loan                                                    7/14/2011               $200,000     $633,835,314    Transfer of cap due to servicing transfer
            Irving, TX
                                                     Modifications
                                                                                                                  8/16/2011             ($100,000)     $633,735,314    Transfer of cap due to servicing transfer
                                                                                                                  9/15/2011             ($700,000)     $633,035,314    Transfer of cap due to servicing transfer
                                                                                                                 12/15/2011            $17,500,000     $650,535,314    Transfer of cap due to servicing transfer
                                                                                                                  2/16/2012             ($100,000)     $650,435,314    Transfer of cap due to servicing transfer
                                                                                                                  3/15/2012               $100,000     $650,535,314    Transfer of cap due to servicing transfer
                                                                                                                  4/16/2012           ($17,500,000)    $633,035,314    Transfer of cap due to servicing transfer
                                                                                                                  5/16/2012             ($760,000)     $632,275,314    Transfer of cap due to servicing transfer
                                                                                                                  6/14/2012       ($354,290,000)       $277,985,314    Transfer of cap due to servicing transfer
                                                                                                                  6/28/2012                ($1,831)    $277,983,483    Updated due to quarterly assessment and reallocation
                                                                                                                  7/16/2012           ($10,120,000)    $267,863,483    Transfer of cap due to servicing transfer
                                                                                                                  8/16/2012               ($10,000)    $267,853,483    Transfer of cap due to servicing transfer
                                                                                                                  9/27/2012                ($4,701)    $267,848,782    Updated due to quarterly assessment and reallocation
                                                                                                                 10/16/2012            ($9,220,000)    $258,628,782    Transfer of cap due to servicing transfer
                                                                                                                 11/15/2012               ($30,000)    $258,598,782    Transfer of cap due to servicing transfer
                                                                                                                 12/14/2012                $60,000     $258,658,782    Transfer of cap due to servicing transfer
                                                                                                                 12/27/2012                  ($788)    $258,657,994    Updated due to quarterly assessment and reallocation
                                                                                                                  1/16/2013             ($610,000)     $258,047,994    Transfer of cap due to servicing transfer
                                                                                                                  3/25/2013                ($2,979)    $258,045,015    Updated due to quarterly assessment and reallocation
                                                                                                                   4/9/2013       ($157,237,929)       $100,807,086    Termination of SPA
                                                     Financial
            Chase Home Finance,                      Instrument for
4/13/2009                              Purchase                            $3,552,000,000     N/A          2      7/31/2009     ($3,552,000,000)                $—     Termination of SPA                                            $—             $—                 $—                  $—
            LLC, Iselin, NJ                          Home Loan
                                                     Modifications
                                                                                                                                                                                                                                                                         Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                            (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                             TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                       Lenders/                              Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                                 Borrower’s       Investors          Servicers            Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount         Adjusted Cap    Reason for Adjustment                                    Incentives      Incentives         Incentives           Payments
                                                                                                                6/12/2009       ($105,620,000)       $553,380,000    Updated portfolio data from servicer
                                                                                                                                                                     Updated portfolio data from servicer & HPDP initial
                                                                                                                9/30/2009           $102,580,000     $655,960,000
                                                                                                                                                                     cap
                                                                                                                                                                     Updated portfolio data from servicer & HAFA initial
                                                                                                               12/30/2009           $277,640,000     $933,600,000
                                                                                                                                                                     cap
                                                                                                                3/26/2010            $46,860,000     $980,460,000    Updated portfolio data from servicer
                                                                                                                                                                     Transfer of cap from Saxon Mortgage Services, Inc.
                                                                                                                6/16/2010           $156,050,000    $1,136,510,000
                                                                                                                                                                     due to servicing transfer
                                                                                                                7/14/2010       ($191,610,000)       $944,900,000    Updated portfolio data from servicer
                                                                                                                                                                     Transfer of cap from Saxon Mortgage Services, Inc.
                                                                                                                7/16/2010            $23,710,000     $968,610,000
                                                                                                                                                                     due to servicing transfer
                                                                                                                9/15/2010              $100,000      $968,710,000    Initial FHA-HAMP cap
                                                                                                                9/30/2010             $3,742,740     $972,452,740    Updated portfolio data from servicer
                                                                                                               10/15/2010           $170,800,000    $1,143,252,740   Transfer of cap due to servicing transfer
                                                                                                                 1/6/2011                ($1,020)   $1,143,251,720   Updated portfolio data from servicer
                                                                                                                2/16/2011              $900,000     $1,144,151,720   Transfer of cap due to servicing transfer
                                                                                                                3/30/2011                ($1,114)   $1,144,150,606   Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011              ($10,044)    $1,144,140,562   Updated due to quarterly assessment and reallocation
                                                                                                               10/14/2011             ($100,000)    $1,144,040,562   Transfer of cap due to servicing transfer
                                                                                                                1/13/2012           $194,800,000    $1,338,840,562   Transfer of cap due to servicing transfer
                                                                                                                2/16/2012              $400,000     $1,339,240,562   Transfer of cap due to servicing transfer
                                                                                                                3/15/2012              $100,000     $1,339,340,562   Transfer of cap due to servicing transfer
                                                   Financial
            Ocwen Loan Servicing                                                                                5/16/2012           $123,530,000    $1,462,870,562   Transfer of cap due to servicing transfer
                                                   Instrument for
4/16/2009   LLC,                     Purchase                              $659,000,000     N/A                                                                                                                             $117,628,618   $354,251,909      $185,375,322        $657,255,849
                                                   Home Loan                                                    6/14/2012           $354,290,000    $1,817,160,562   Transfer of cap due to servicing transfer
            West Palm Beach, FL
                                                   Modifications
                                                                                                                6/28/2012                ($6,308)   $1,817,154,254   Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2012            $10,080,000    $1,827,234,254   Transfer of cap due to servicing transfer
                                                                                                                8/16/2012             $8,390,000    $1,835,624,254   Transfer of cap due to servicing transfer
                                                                                                                9/27/2012              ($10,733)    $1,835,613,521   Updated due to quarterly assessment and reallocation
                                                                                                               10/16/2012            $14,560,000    $1,850,173,521   Transfer of cap due to servicing transfer
                                                                                                               11/15/2012            $13,240,000    $1,863,413,521   Transfer of cap due to servicing transfer
                                                                                                               12/14/2012             $2,080,000    $1,865,493,521   Transfer of cap due to servicing transfer
                                                                                                               12/27/2012                ($1,015)   $1,865,492,506   Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2013              $410,000     $1,865,902,506   Transfer of cap due to servicing transfer
                                                                                                                2/14/2013              $960,000     $1,866,862,506   Transfer of cap due to servicing transfer
                                                                                                                3/14/2013            $83,880,000    $1,950,742,506   Transfer of cap due to servicing transfer
                                                                                                                3/25/2013                ($1,877)   $1,950,740,629   Updated due to quarterly assessment and reallocation
                                                                                                                                                                     Transfer of cap (from Saxon Mortgage Services, Inc )
                                                                                                                 4/9/2013           $157,237,929    $2,107,978,558
                                                                                                                                                                     due to servicing transfer
                                                                                                                4/16/2013           $620,860,000    $2,728,838,558   Transfer of cap due to servicing transfer
                                                                                                                5/16/2013            $18,970,000    $2,747,808,558   Transfer of cap due to servicing transfer
                                                                                                                6/14/2013             ($190,000)    $2,747,618,558   Transfer of cap due to servicing transfer
                                                                                                                6/27/2013                ($2,817)   $2,747,615,741   Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2013            $14,710,000    $2,762,325,741   Transfer of cap due to servicing transfer
                                                                                                                9/16/2013            $66,170,000    $2,828,495,741   Transfer of cap due to servicing transfer
                                                                                                                9/27/2013                 ($276)    $2,828,495,465   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                   TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




                                                                                                                                                                                                                                                                          Continued on next page
                                                                                                                                                                                                                                                                                                   425
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                             (CONTINUED)                                                                                                                                                                                                  426
             Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                           TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                      Lenders/                             Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                                 Borrower’s      Investors         Servicers            Incentive
Date         Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount         Adjusted Cap    Reason for Adjustment                                    Incentives     Incentives        Incentives           Payments
                                                                                                                 6/12/2009             $5,540,000     $804,440,000    Updated portfolio data from servicer
                                                                                                                                                                      Updated portfolio data from servicer & HPDP initial
                                                                                                                 9/30/2009           $162,680,000     $967,120,000
                                                                                                                                                                      cap
                                                                                                                                                                      Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009           $665,510,000    $1,632,630,000
                                                                                                                                                                      cap
                                                                                                                 1/26/2010           $800,390,000    $2,433,020,000   Initial 2MP cap
                                                                                                                 3/26/2010       ($829,370,000)      $1,603,650,000   Updated portfolio data from servicer
                                                                                                                 7/14/2010       ($366,750,000)      $1,236,900,000   Updated portfolio data from servicer
                                                                                                                                                                      Initial FHA-HAMP cap, initial FHA-2LP cap, and initial
                                                                                                                 9/30/2010            $95,300,000    $1,332,200,000
                                                                                                                                                                      RD-HAMP
4/17/2009                                           Financial
as amended   Bank of America, N.A.,                 Instrument for                                               9/30/2010           $222,941,084    $1,555,141,084   Updated portfolio data from servicer
                                      Purchase                              $798,900,000     N/A         13                                                                                                                    $4,267,062   $17,852,012        $9,159,439         $31,278,513
on           Simi Valley, CA                        Home Loan
                                                                                                                  1/6/2011                ($2,199)   $1,555,138,885   Updated portfolio data from servicer
1/26/2010                                           Modifications
                                                                                                                 3/30/2011                ($2,548)   $1,555,136,337   Updated due to quarterly assessment and reallocation
                                                                                                                 6/29/2011              ($23,337)    $1,555,113,000   Updated due to quarterly assessment and reallocation
                                                                                                                 8/16/2011             ($300,000)    $1,554,813,000   Transfer of cap due to servicing transfer
                                                                                                                10/14/2011       ($120,700,000)      $1,434,113,000   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                  APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                                                                                                                11/16/2011             ($900,000)    $1,433,213,000   Transfer of cap due to servicing transfer
                                                                                                                 5/16/2012             ($200,000)    $1,433,013,000   Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012              ($17,893)    $1,432,995,107   Updated due to quarterly assessment and reallocation
                                                                                                                                                                      Update of cap due to termination of SPA and merger
                                                                                                                 8/10/2012     ($1,401,716,594)        $31,278,513
                                                                                                                                                                      with BAC Home Loans, LP
                                                                                                                                                                                                                                                                         Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                             (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                               TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                         Lenders/                              Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                                   Borrower’s       Investors          Servicers            Incentive
Date         Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount         Adjusted Cap    Reason for Adjustment                                      Incentives      Incentives         Incentives           Payments
                                                                                                                 6/12/2009      $3,318,840,000       $5,182,840,000   Updated portfolio data from servicer
                                                                                                                                                                      Updated portfolio data from servicer & HPDP initial
                                                                                                                 9/30/2009       ($717,420,000)      $4,465,420,000
                                                                                                                                                                      cap
                                                                                                                                                                      Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009      $2,290,780,000       $6,756,200,000
                                                                                                                                                                      cap
                                                                                                                 1/26/2010           $450,100,000    $7,206,300,000   Initial 2MP cap
                                                                                                                 3/26/2010           $905,010,000    $8,111,310,000   Updated portfolio data from servicer
                                                                                                                                                                      Transfer of cap from Wilshire Credit Corporation due
                                                                                                                 4/19/2010            $10,280,000    $8,121,590,000
                                                                                                                                                                      to servicing transfer
                                                                                                                                                                      Transfer of cap from Wilshire Credit Corporation due
                                                                                                                 6/16/2010           $286,510,000    $8,408,100,000
                                                                                                                                                                      to servicing transfer
                                                                                                                 7/14/2010     ($1,787,300,000)      $6,620,800,000   Updated portfolio data from servicer
                                                                                                                                                                      Initial FHA-HAMP cap, initial FHA-2LP cap, and initial
                                                                                                                 9/30/2010           $105,500,000    $6,726,300,000
                                                                                                                                                                      RD-HAMP
                                                                                                                 9/30/2010       ($614,527,362)      $6,111,772,638   Updated portfolio data from servicer
                                                                                                                12/15/2010           $236,000,000    $6,347,772,638   Updated portfolio data from servicer
                                                                                                                  1/6/2011                ($8,012)   $6,347,764,626   Updated portfolio data from servicer
                                                                                                                 2/16/2011             $1,800,000    $6,349,564,626   Transfer of cap due to servicing transfer
                                                                                                                 3/16/2011               $100,000    $6,349,664,626   Transfer of cap due to servicing transfer
                                                                                                                 3/30/2011                ($9,190)   $6,349,655,436   Updated due to quarterly assessment and reallocation
                                                                                                                 4/13/2011               $200,000    $6,349,855,436   Transfer of cap due to servicing transfer
                                                                                                                 5/13/2011               $300,000    $6,350,155,436   Transfer of cap due to servicing transfer
                                                                                                                 6/16/2011            ($1,000,000)   $6,349,155,436   Transfer of cap due to servicing transfer
                                                                                                                 6/29/2011               ($82,347)   $6,349,073,089   Updated due to quarterly assessment and reallocation
4/17/2009    Bank of America, N.A.                  Financial
as amended   (BAC Home Loans                        Instrument for                                               7/14/2011             ($200,000)    $6,348,873,089   Transfer of cap due to servicing transfer
                                      Purchase                            $1,864,000,000     N/A                                                                                                                               $276,443,029   $563,129,124      $345,571,228       $1,185,143,381
on           Servicing, LP),                        Home Loan
                                                                                                                 8/16/2011            ($3,400,000)   $6,345,473,089   Transfer of cap due to servicing transfer
1/26/2010    Simi Valley, CA                        Modifications
                                                                                                                 9/15/2011            ($1,400,000)   $6,344,073,089   Transfer of cap due to servicing transfer
                                                                                                                10/14/2011           $120,600,000    $6,464,673,089   Transfer of cap due to servicing transfer
                                                                                                                                                                      Transfer of cap from Home Loan Services, Inc. and
                                                                                                                10/19/2011           $317,956,289    $6,782,629,378   Wilshire Credit Corporation due to merger.


                                                                                                                11/16/2011               $800,000    $6,783,429,378   Transfer of cap due to servicing transfer
                                                                                                                12/15/2011           ($17,600,000)   $6,765,829,378   Transfer of cap due to servicing transfer
                                                                                                                 2/16/2012            ($2,100,000)   $6,763,729,378   Transfer of cap due to servicing transfer
                                                                                                                 3/15/2012           ($23,900,000)   $6,739,829,378   Transfer of cap due to servicing transfer
                                                                                                                 4/16/2012           ($63,800,000)   $6,676,029,378   Transfer of cap due to servicing transfer
                                                                                                                 5/16/2012                $20,000    $6,676,049,378   Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012            ($8,860,000)   $6,667,189,378   Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012               ($58,550)   $6,667,130,828   Updated due to quarterly assessment and reallocation
                                                                                                                 7/16/2012            ($6,840,000)   $6,660,290,828   Transfer of cap due to servicing transfer
                                                                                                                                                                      Transfer of cap (from Bank of America, N.A.) due
                                                                                                                 8/10/2012      $1,401,716,594       $8,062,007,423
                                                                                                                                                                      to merger
                                                                                                                 8/16/2012            ($4,780,000)   $8,057,227,423   Transfer of cap due to servicing transfer
                                                                                                                 9/27/2012             ($205,946)    $8,057,021,476   Updated due to quarterly assessment and reallocation
                                                                                                                10/16/2012       ($153,220,000)      $7,903,801,476   Transfer of cap due to servicing transfer
                                                                                                                11/15/2012           ($27,300,000)   $7,876,501,476   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                      TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




                                                                                                                12/14/2012           ($50,350,000)   $7,826,151,476   Transfer of cap due to servicing transfer
                                                                                                                12/27/2012               ($33,515)   $7,826,117,961   Updated due to quarterly assessment and reallocation
                                                                                                                 1/16/2013           ($27,000,000)   $7,799,117,961   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                             Continued on next page
                                                                                                                                                                                                                                                                                                      427
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                               (CONTINUED)                                                                                                                                                                                               428
            Servicer Modifying Borrowers’ Loans                                                                   Adjustment Details                                                                                                        TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                                  Lenders/                              Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                               Borrower’s    Investors          Servicers            Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount         Adjusted Cap    Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                                   2/14/2013           ($41,830,000)   $7,757,287,961   Transfer of cap due to servicing transfer
                                                                                                                   3/14/2013            ($5,900,000)   $7,751,387,961   Transfer of cap due to servicing transfer
                                                                                                                   3/25/2013             ($122,604)    $7,751,265,357   Updated due to quarterly assessment and reallocation
                                                                                                                   4/16/2013            ($1,410,000)   $7,749,855,357   Transfer of cap due to servicing transfer
                                                                                                                   5/16/2013             ($940,000)    $7,748,915,357   Transfer of cap due to servicing transfer
                                                                                                                   6/14/2013           ($16,950,000)   $7,731,965,357   Transfer of cap due to servicing transfer
                                                                                                                   6/27/2013               ($45,103)   $7,731,920,254   Updated due to quarterly assessment and reallocation
                                                                                                                   7/16/2013           ($25,580,000)   $7,706,340,254   Transfer of cap due to servicing transfer
                                                                                                                   8/15/2013            ($6,730,000)   $7,699,610,254   Transfer of cap due to servicing transfer
                                                                                                                   9/16/2013       ($290,640,000)      $7,408,970,254   Transfer of cap due to servicing transfer
                                                                                                                   9/27/2013               ($15,411)   $7,408,954,843   Updated due to quarterly assessment and reallocation
                                                                                                                   6/12/2009           $128,300,000     $447,300,000    Updated portfolio data from servicer
                                                                                                                                                                        Updated portfolio data from servicer & HPDP initial
                                                                                                                   9/30/2009            $46,730,000     $494,030,000
                                                                                                                                                                        cap
                                                                                                                                                                        Updated portfolio data from servicer & HAFA initial
                                                                                                                  12/30/2009           $145,820,000     $639,850,000
                                                                                                                                                                                                                                                                                                 APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                                                                                                                                                                        cap
                                                                                                                   3/26/2010           ($17,440,000)    $622,410,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010           ($73,010,000)    $549,400,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010             $6,700,000     $556,100,000    Initial FHA-2LP cap
                                                      Financial
            Home Loan Services, Inc.,                 Instrument for                                               9/30/2010           ($77,126,410)    $478,973,590    Updated portfolio data from servicer
4/20/2009                               Purchase                              $319,000,000     N/A         13                                                                                                                   $169,858    $2,440,768        $3,698,607          $6,309,233
            Pittsburgh, PA                            Home Loan
                                                                                                                  12/15/2010       ($314,900,000)       $164,073,590    Updated portfolio data from servicer
                                                      Modifications
                                                                                                                    1/6/2011                  ($233)    $164,073,357    Updated portfolio data from servicer
                                                                                                                   2/16/2011            ($1,900,000)    $162,173,357    Transfer of cap due to servicing transfer
                                                                                                                   3/16/2011             ($400,000)     $161,773,357    Transfer of cap due to servicing transfer
                                                                                                                   3/30/2011                  ($278)    $161,773,079    Updated due to quarterly assessment and reallocation
                                                                                                                   5/13/2011             ($400,000)     $161,373,079    Transfer of cap due to servicing transfer
                                                                                                                   6/29/2011                ($2,625)    $161,370,454    Updated due to quarterly assessment and reallocation
                                                                                                                  10/19/2011       ($155,061,221)         $6,309,233    Termination of SPA
                                                                                                                   6/12/2009            $87,130,000     $453,130,000    Updated portfolio data from servicer
                                                                                                                                                                        Updated portfolio data from servicer & HPDP initial
                                                                                                                   9/30/2009       ($249,670,000)       $203,460,000
                                                                                                                                                                        cap
                                                                                                                                                                        Updated portfolio data from servicer & HAFA initial
                                                                                                                  12/30/2009           $119,700,000     $323,160,000
                                                                                                                                                                        cap
                                                                                                                   3/26/2010            $52,270,000     $375,430,000    Updated portfolio data from servicer
                                                                                                                                                                        Transfer of cap to Countrywide Home Loans due to
                                                                                                                   4/19/2010           ($10,280,000)    $365,150,000
                                                                                                                                                                        servicing transfer
                                                                                                                                                                        Transfer of cap to GMAC Mortgage, Inc. due to
                                                                                                                   5/14/2010            ($1,880,000)    $363,270,000
                                                                                                                                                                        servicing transfer
                                                      Financial
            Wilshire Credit                                                                                                                                             Transfer of cap to Countrywide Home Loans due to
                                                      Instrument for                                               6/16/2010       ($286,510,000)        $76,760,000
4/20/2009   Corporation, Beaverton,     Purchase                              $366,000,000     N/A         13                                                           servicing transfer                                           $—      $490,394         $1,167,000          $1,657,394
                                                      Home Loan
            OR
                                                      Modifications
                                                                                                                   7/14/2010            $19,540,000      $96,300,000    Updated portfolio data from servicer
                                                                                                                                                                        Transfer of cap to Green Tree Servicing LLC due to
                                                                                                                   7/16/2010             ($210,000)      $96,090,000
                                                                                                                                                                        servicing transfer
                                                                                                                   8/13/2010             ($100,000)      $95,990,000    Transfer of cap due to servicing transfer
                                                                                                                   9/30/2010            $68,565,782     $164,555,782    Updated portfolio data from servicer
                                                                                                                    1/6/2011                  ($247)    $164,555,535    Updated portfolio data from servicer
                                                                                                                   3/30/2011                  ($294)    $164,555,241    Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011                ($2,779)    $164,552,462    Updated due to quarterly assessment and reallocation
                                                                                                                  10/19/2011       ($162,895,068)         $1,657,394    Termination of SPA
                                                                                                                                                                                                                                                                        Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                               (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                   Adjustment Details                                                                                                       TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                                  Lenders/                             Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                             Borrower’s      Investors         Servicers            Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount        Adjusted Cap   Reason for Adjustment                                  Incentives     Incentives        Incentives           Payments
                                                                                                                   6/17/2009           ($64,990,000)    $91,010,000   Updated portfolio data from servicer
                                                                                                                                                                      Updated portfolio data from servicer & HPDP initial
                                                                                                                   9/30/2009           $130,780,000    $221,790,000
                                                                                                                                                                      cap
                                                                                                                                                                      Updated portfolio data from servicer & HAFA initial
                                                                                                                  12/30/2009       ($116,750,000)      $105,040,000
                                                                                                                                                                      cap
                                                                                                                   3/26/2010            $13,080,000    $118,120,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010           ($24,220,000)    $93,900,000   Updated portfolio data from servicer
                                                                                                                                                                      Transfer of cap from Wilshire Credit Corporation due
                                                                                                                   7/16/2010               $210,000     $94,110,000
                                                                                                                                                                      to servicing transfer
                                                                                                                   8/13/2010             $2,200,000     $96,310,000   Transfer of cap due to servicing transfer
                                                                                                                   9/10/2010            $34,600,000    $130,910,000   Initial 2MP cap
                                                                                                                   9/30/2010             $5,600,000    $136,510,000   Initial FHA-2LP cap and FHA-HAMP
                                                                                                                   9/30/2010            $10,185,090    $146,695,090   Updated portfolio data from servicer
                                                                                                                  10/15/2010               $400,000    $147,095,090   Transfer of cap due to servicing transfer
                                                                                                                    1/6/2011                  ($213)   $147,094,877   Updated portfolio data from servicer
                                                                                                                   3/30/2011                  ($250)   $147,094,627   Updated due to quarterly assessment and reallocation
                                                                                                                   5/13/2011             $1,200,000    $148,294,627   Transfer of cap due to servicing transfer
                                                                                                                   6/16/2011               $100,000    $148,394,627   Transfer of cap due to servicing transfer
                                                                                                                   6/29/2011                ($2,302)   $148,392,325   Updated due to quarterly assessment and reallocation
                                                                                                                   7/14/2011             $1,900,000    $150,292,325   Transfer of cap due to servicing transfer
                                                      Financial
                                                                                                                   9/15/2011               $200,000    $150,492,325   Transfer of cap due to servicing transfer
            Green Tree Servicing LLC,                 Instrument for
4/24/2009                               Purchase                              $156,000,000     N/A                                                                                                                           $2,637,669   $10,915,404        $5,806,967         $19,360,040
            Saint Paul, MN                            Home Loan                                                   10/14/2011               $200,000    $150,692,325   Transfer of cap due to servicing transfer
                                                      Modifications
                                                                                                                  11/16/2011               $400,000    $151,092,325   Transfer of cap due to servicing transfer
                                                                                                                   2/16/2012               $900,000    $151,992,325   Transfer of cap due to servicing transfer
                                                                                                                   3/15/2012               $100,000    $152,092,325   Transfer of cap due to servicing transfer
                                                                                                                   5/16/2012             $3,260,000    $155,352,325   Transfer of cap due to servicing transfer
                                                                                                                   6/14/2012               $920,000    $156,272,325   Transfer of cap due to servicing transfer
                                                                                                                   6/28/2012                ($1,622)   $156,270,703   Updated due to quarterly assessment and reallocation
                                                                                                                   7/16/2012               $110,000    $156,380,703   Transfer of cap due to servicing transfer
                                                                                                                   8/16/2012             $5,120,000    $161,500,703   Transfer of cap due to servicing transfer
                                                                                                                   9/27/2012                ($4,509)   $161,496,194   Updated due to quarterly assessment and reallocation
                                                                                                                  10/16/2012             $8,810,000    $170,306,194   Transfer of cap due to servicing transfer
                                                                                                                  11/15/2012             $2,910,000    $173,216,194   Transfer of cap due to servicing transfer
                                                                                                                  12/27/2012                  ($802)   $173,215,392   Updated due to quarterly assessment and reallocation
                                                                                                                   2/14/2013            $10,210,000    $183,425,392   Transfer of cap due to servicing transfer
                                                                                                                   3/25/2013                ($3,023)   $183,422,369   Updated due to quarterly assessment and reallocation
                                                                                                                   5/16/2013               $140,000    $183,562,369   Transfer of cap due to servicing transfer
                                                                                                                   6/27/2013                ($1,077)   $183,561,292   Updated due to quarterly assessment and reallocation
                                                                                                                   7/16/2013             $7,210,000    $190,771,292   Transfer of cap due to servicing transfer
                                                                                                                   8/15/2013             $6,730,000    $197,501,292   Transfer of cap due to servicing transfer
                                                                                                                   9/27/2013                  ($388)   $197,500,904   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                                                TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013
                                                                                                                                                                                                                                                                                                429
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                            (CONTINUED)                                                                                                                                                                                              430
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                       TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                  Lenders/                             Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                             Borrower’s      Investors         Servicers            Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount        Adjusted Cap   Reason for Adjustment                                  Incentives     Incentives        Incentives           Payments
                                                                                                                6/17/2009           ($63,980,000)   $131,020,000   Updated portfolio data from servicer
                                                                                                                                                                   Updated portfolio data from servicer & HPDP initial
                                                                                                                9/30/2009            $90,990,000    $222,010,000
                                                                                                                                                                   cap
                                                                                                                                                                   Updated portfolio data from servicer & HAFA initial
                                                                                                               12/30/2009            $57,980,000    $279,990,000
                                                                                                                                                                   cap
                                                                                                                3/26/2010            $74,520,000    $354,510,000   Updated portfolio data from servicer
                                                                                                                7/14/2010           ($75,610,000)   $278,900,000   Updated portfolio data from servicer
                                                                                                                8/13/2010             $1,100,000    $280,000,000   Transfer of cap due to servicing transfer
                                                                                                                9/30/2010             $3,763,685    $283,763,685   Updated portfolio data from servicer
                                                                                                               12/15/2010               $300,000    $284,063,685   Updated portfolio data from servicer
                                                                                                                 1/6/2011                  ($325)   $284,063,360   Updated portfolio data from servicer
                                                                                                                1/13/2011             $2,400,000    $286,463,360   Transfer of cap due to servicing transfer
                                                                                                                3/30/2011                  ($384)   $286,462,976   Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011                ($3,592)   $286,459,384   Updated due to quarterly assessment and reallocation
                                                                                                                8/16/2011             $1,800,000    $288,259,384   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                                                                                                                9/15/2011               $100,000    $288,359,384   Transfer of cap due to servicing transfer
                                                                                                               11/16/2011             $1,000,000    $289,359,384   Transfer of cap due to servicing transfer
                                                                                                                2/16/2012             $1,100,000    $290,459,384   Transfer of cap due to servicing transfer
                                                                                                                4/16/2012               $100,000    $290,559,384   Transfer of cap due to servicing transfer
                                                   Financial                                                    5/16/2012               $850,000    $291,409,384   Transfer of cap due to servicing transfer
            Carrington Mortgage
                                                   Instrument for
4/27/2009   Services, LLC,           Purchase                              $195,000,000     N/A                 6/14/2012             $2,240,000    $293,649,384   Transfer of cap due to servicing transfer              $9,013,401   $24,068,650      $16,815,568          $49,897,619
                                                   Home Loan
            Santa Ana, CA
                                                   Modifications                                                6/28/2012                ($2,520)   $293,646,864   Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2012             $1,690,000    $295,336,864   Transfer of cap due to servicing transfer
                                                                                                                8/16/2012               ($30,000)   $295,306,864   Transfer of cap due to servicing transfer
                                                                                                                9/27/2012                ($6,632)   $295,300,232   Updated due to quarterly assessment and reallocation
                                                                                                               10/16/2012             $2,880,000    $298,180,232   Transfer of cap due to servicing transfer
                                                                                                               11/15/2012             $1,500,000    $299,680,232   Transfer of cap due to servicing transfer
                                                                                                               12/14/2012             $2,040,000    $301,720,232   Transfer of cap due to servicing transfer
                                                                                                               12/27/2012                ($1,103)   $301,719,129   Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2013               ($10,000)   $301,709,129   Transfer of cap due to servicing transfer
                                                                                                                2/14/2013             $4,960,000    $306,669,129   Transfer of cap due to servicing transfer
                                                                                                                3/14/2013               ($30,000)   $306,639,129   Transfer of cap due to servicing transfer
                                                                                                                3/25/2013                ($4,179)   $306,634,950   Updated due to quarterly assessment and reallocation
                                                                                                                4/16/2013               ($70,000)   $306,564,950   Transfer of cap due to servicing transfer
                                                                                                                5/16/2013             $1,570,000    $308,134,950   Transfer of cap due to servicing transfer
                                                                                                                6/14/2013            ($1,880,000)   $306,254,950   Transfer of cap due to servicing transfer
                                                                                                                6/27/2013                ($1,522)   $306,253,428   Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2013               $270,000    $306,523,428   Transfer of cap due to servicing transfer
                                                                                                                9/16/2013             $5,370,000    $311,893,428   Transfer of cap due to servicing transfer
                                                                                                                9/27/2013                  ($525)   $311,892,903   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                    Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                           (CONTINUED)
           Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                        TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                   Lenders/                             Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                              Borrower’s      Investors         Servicers            Incentive
Date       Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount        Adjusted Cap   Reason for Adjustment                                   Incentives     Incentives        Incentives           Payments
                                                                                                               6/17/2009       ($338,450,000)      $459,550,000   Updated portfolio data from servicer
                                                                                                                                                                  Updated portfolio data from servicer & HPDP initial
                                                                                                               9/30/2009           ($11,860,000)   $447,690,000
                                                                                                                                                                  cap
                                                                                                                                                                  Updated portfolio data from servicer & HAFA initial
                                                                                                              12/30/2009            $21,330,000    $469,020,000
                                                                                                                                                                  cap
                                                                                                               3/26/2010             $9,150,000    $478,170,000   Updated portfolio data from servicer
                                                                                                               7/14/2010           ($76,870,000)   $401,300,000   Updated portfolio data from servicer
                                                                                                                9/1/2010               $400,000    $401,700,000   Initial FHA-HAMP cap
                                                                                                               9/30/2010            ($8,454,269)   $393,245,731   Updated portfolio data from servicer
                                                                                                                1/6/2011                  ($342)   $393,245,389   Updated portfolio data from servicer
                                                                                                               3/30/2011                  ($374)   $393,245,015   Updated due to quarterly assessment and reallocation
                                                                                                               5/13/2011            $18,000,000    $411,245,015   Transfer of cap due to servicing transfer
                                                                                                               6/29/2011                ($3,273)   $411,241,742   Updated due to quarterly assessment and reallocation
                                                  Financial
           Aurora Loan Services,                  Instrument for                                              10/14/2011             ($200,000)    $411,041,742   Transfer of cap due to servicing transfer
5/1/2009                            Purchase                              $798,000,000     N/A         17                                                                                                                $15,997,418   $41,236,850      $28,629,251          $85,863,519
           LLC, Littleton, CO                     Home Loan
                                                                                                               3/15/2012               $100,000    $411,141,742   Transfer of cap due to servicing transfer
                                                  Modifications
                                                                                                               4/16/2012             ($500,000)    $410,641,742   Transfer of cap due to servicing transfer
                                                                                                               6/28/2012                ($1,768)   $410,639,974   Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2012               ($90,000)   $410,549,974   Transfer of cap due to servicing transfer
                                                                                                               8/16/2012       ($134,230,000)      $276,319,974   Transfer of cap due to servicing transfer
                                                                                                               8/23/2012       ($166,976,849)      $109,343,125   Transfer of cap due to servicing transfer
                                                                                                               9/27/2012                     $1    $109,343,126   Updated due to quarterly assessment and reallocation
                                                                                                              11/15/2012             ($230,000)    $109,113,126   Transfer of cap due to servicing transfer
                                                                                                               3/25/2013                    ($1)   $109,113,125   Updated due to quarterly assessment and reallocation
                                                                                                               5/16/2013               ($20,000)   $109,093,125   Transfer of cap due to servicing transfer
                                                                                                               6/14/2013               ($50,000)   $109,043,125   Transfer of cap due to servicing transfer
                                                                                                               6/27/2013                   ($15)   $109,043,110   Updated due to quarterly assessment and reallocation
                                                                                                                7/9/2013           ($23,179,591)    $85,863,519   Termination of SPA
                                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013
                                                                                                                                                                                                                                                                                             431
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                              (CONTINUED)                                                                                                                                                                                                   432
            Servicer Modifying Borrowers’ Loans                                                                  Adjustment Details                                                                                                            TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                                       Lenders/                             Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                                  Borrower’s      Investors         Servicers            Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount         Adjusted Cap    Reason for Adjustment                                     Incentives     Incentives        Incentives           Payments
                                                                                                                  6/12/2009            $16,140,000     $117,140,000    Updated portfolio data from servicer
                                                                                                                                                                       Updated portfolio data from servicer & HPDP initial
                                                                                                                  9/30/2009           $134,560,000     $251,700,000
                                                                                                                                                                       cap
                                                                                                                                                                       Updated portfolio data from servicer & HAFA initial
                                                                                                                 12/30/2009            $80,250,000     $331,950,000
                                                                                                                                                                       cap
                                                                                                                  3/26/2010            $67,250,000     $399,200,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010           ($85,900,000)    $313,300,000    Updated portfolio data from servicer
                                                                                                                  8/13/2010               $100,000     $313,400,000    Transfer of cap due to servicing transfer
                                                                                                                                                                       Initial FHA-HAMP cap, initial FHA-2LP cap, initial RD-
                                                                                                                  9/30/2010             $2,900,000     $316,300,000
                                                                                                                                                                       HAMP, and initial 2MP cap
                                                                                                                  9/30/2010            $33,801,486     $350,101,486    Updated portfolio data from servicer
                                                                                                                 11/16/2010               $700,000     $350,801,486    Transfer of cap due to servicing transfer
                                                                                                                 12/15/2010             $1,700,000     $352,501,486    Updated portfolio data from servicer
                                                                                                                   1/6/2011                  ($363)    $352,501,123    Updated portfolio data from servicer
                                                                                                                  2/16/2011               $900,000     $353,401,123    Transfer of cap due to servicing transfer
                                                                                                                  3/16/2011            $29,800,000     $383,201,123    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                    APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                                                                                                                  3/30/2011                  ($428)    $383,200,695    Updated due to quarterly assessment and reallocation
                                                                                                                  5/26/2011            $20,077,503     $403,278,198    Transfer of cap due to servicing transfer
                                                                                                                  6/29/2011                ($4,248)    $403,273,950    Updated due to quarterly assessment and reallocation
                                                                                                                 11/16/2011               $100,000     $403,373,950    Transfer of cap due to servicing transfer
                                                                                                                  3/15/2012             ($100,000)     $403,273,950    Transfer of cap due to servicing transfer
                                                     Financial
            Nationstar Mortgage LLC,                 Instrument for                                               5/16/2012                $90,000     $403,363,950    Transfer of cap due to servicing transfer
5/28/2009                              Purchase                              $101,000,000     N/A                                                                                                                               $34,829,080   $72,970,908      $48,893,904        $156,693,892
            Lewisville, TX                           Home Loan
                                                                                                                  6/14/2012            ($2,380,000)    $400,983,950    Transfer of cap due to servicing transfer
                                                     Modifications
                                                                                                                  6/28/2012                ($2,957)    $400,980,993    Updated due to quarterly assessment and reallocation
                                                                                                                  7/16/2012            ($2,580,000)    $398,400,993    Transfer of cap due to servicing transfer
                                                                                                                  8/16/2012           $131,450,000     $529,850,993    Transfer of cap due to servicing transfer
                                                                                                                  8/23/2012           $166,976,849     $696,827,842    Transfer of cap due to servicing transfer
                                                                                                                  9/27/2012               ($12,806)    $696,815,036    Updated due to quarterly assessment and reallocation
                                                                                                                 11/15/2012               $160,000     $696,975,036    Transfer of cap due to servicing transfer
                                                                                                                 12/14/2012                $50,000     $697,025,036    Transfer of cap due to servicing transfer
                                                                                                                 12/27/2012                ($1,882)    $697,023,154    Updated due to quarterly assessment and reallocation
                                                                                                                  2/14/2013               ($10,000)    $697,013,154    Transfer of cap due to servicing transfer
                                                                                                                  3/14/2013             ($280,000)     $696,733,154    Transfer of cap due to servicing transfer
                                                                                                                  3/25/2013                ($6,437)    $696,726,717    Updated due to quarterly assessment and reallocation
                                                                                                                  4/16/2013                $30,000     $696,756,717    Transfer of cap due to servicing transfer
                                                                                                                  5/16/2013            ($1,510,000)    $695,246,717    Transfer of cap due to servicing transfer
                                                                                                                  6/14/2013            ($1,070,000)    $694,176,717    Transfer of cap due to servicing transfer
                                                                                                                  6/27/2013                ($2,099)    $694,174,618    Updated due to quarterly assessment and reallocation
                                                                                                                                                                       Transfer of cap (from Aurora Loan Services LLC ) due
                                                                                                                   7/9/2013            $23,179,591     $717,354,209
                                                                                                                                                                       to servicing transfer
                                                                                                                  7/16/2013               $490,000     $717,844,209    Transfer of cap due to servicing transfer
                                                                                                                  9/16/2013           $289,070,000    $1,006,914,209   Transfer of cap due to servicing transfer
                                                                                                                  9/27/2013                ($1,118)   $1,006,913,091   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                           Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                            (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                        TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                  Lenders/                              Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                               Borrower’s    Investors          Servicers            Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount        Adjusted Cap   Reason for Adjustment                                    Incentives   Incentives         Incentives           Payments
                                                                                                                                                                   Updated portfolio data from servicer & HPDP initial
                                                                                                                9/30/2009            ($1,860,000)   $17,540,000
                                                                                                                                                                   cap
                                                                                                                                                                   Updated portfolio data from servicer & HAFA initial
                                                                                                               12/30/2009            $27,920,000    $45,460,000
                                                                                                                                                                   cap
                                                                                                                3/26/2010            ($1,390,000)   $44,070,000    Updated portfolio data from servicer
                                                                                                                7/14/2010           ($13,870,000)   $30,200,000    Updated portfolio data from servicer
                                                                                                                                                                   Initial FHA-HAMP cap, initial FHA-2LP cap, and initial
                                                                                                                9/30/2010               $400,000    $30,600,000
                                                                                                                                                                   2MP cap
                                                                                                                9/30/2010               $586,954    $31,186,954    Updated portfolio data from servicer
                                                                                                                 1/6/2011                   ($34)   $31,186,920    Updated portfolio data from servicer
                                                                                                                3/30/2011                   ($37)   $31,186,883    Updated due to quarterly assessment and reallocation
                                                                                                                4/13/2011               $100,000    $31,286,883    Transfer of cap due to servicing transfer
                                                                                                                6/29/2011                  ($329)   $31,286,554    Updated due to quarterly assessment and reallocation
                                                                                                                9/15/2011            ($1,900,000)   $29,386,554    Transfer of cap due to servicing transfer
                                                                                                               11/16/2011             $2,800,000    $32,186,554    Transfer of cap due to servicing transfer
                                                                                                                5/16/2012               $420,000    $32,606,554    Transfer of cap due to servicing transfer
                                                   Financial
            Residential Credit                                                                                  6/14/2012             $8,060,000    $40,666,554    Transfer of cap due to servicing transfer
                                                   Instrument for
6/12/2009   Solutions,               Purchase                               $19,400,000     N/A                                                                                                                             $1,468,622   $4,063,011        $2,405,492          $7,937,125
                                                   Home Loan                                                    6/28/2012                  ($313)   $40,666,241    Updated due to quarterly assessment and reallocation
            Fort Worth, TX
                                                   Modifications
                                                                                                                7/16/2012             $2,160,000    $42,826,241    Transfer of cap due to servicing transfer
                                                                                                                9/27/2012                  ($911)   $42,825,330    Updated due to quarterly assessment and reallocation
                                                                                                               10/16/2012             $5,690,000    $48,515,330    Transfer of cap due to servicing transfer
                                                                                                               11/15/2012                $20,000    $48,535,330    Transfer of cap due to servicing transfer
                                                                                                               12/27/2012                  ($178)   $48,535,152    Updated due to quarterly assessment and reallocation
                                                                                                                2/14/2013             $3,190,000    $51,725,152    Transfer of cap due to servicing transfer
                                                                                                                3/14/2013             ($260,000)    $51,465,152    Transfer of cap due to servicing transfer
                                                                                                                3/25/2013                  ($713)   $51,464,439    Updated due to quarterly assessment and reallocation
                                                                                                                4/16/2013             $1,330,000    $52,794,439    Transfer of cap due to servicing transfer
                                                                                                                5/16/2013               $100,000    $52,894,439    Transfer of cap due to servicing transfer
                                                                                                                6/14/2013                $20,000    $52,914,439    Transfer of cap due to servicing transfer
                                                                                                                6/27/2013                  ($264)   $52,914,175    Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2013             $6,080,000    $58,994,175    Transfer of cap due to servicing transfer
                                                                                                                9/16/2013            ($2,130,000)   $56,864,175    Transfer of cap due to servicing transfer
                                                                                                                9/27/2013                  ($101)   $56,864,074    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013
                                                                                                                                                                                                                                                                                              433
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                              (CONTINUED)                                                                                                                                                                                             434
            Servicer Modifying Borrowers’ Loans                                                                  Adjustment Details                                                                                                      TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                                Lenders/                              Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                             Borrower’s    Investors          Servicers            Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount        Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                                                                                     Updated portfolio data from servicer & HPDP initial
                                                                                                                  9/30/2009            $13,070,000     $29,590,000
                                                                                                                                                                     cap
                                                                                                                                                                     Updated portfolio data from servicer & HAFA initial
                                                                                                                 12/30/2009           $145,510,000    $175,100,000
                                                                                                                                                                     cap
                                                                                                                  3/26/2010       ($116,950,000)       $58,150,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010           ($23,350,000)    $34,800,000   Updated portfolio data from servicer
                                                                                                                  9/30/2010             $7,846,346     $42,646,346   Updated portfolio data from servicer
                                                     Financial                                                     1/6/2011                   ($46)    $42,646,300   Updated portfolio data from servicer
            CCO Mortgage, a division
                                                     Instrument for
6/17/2009   of RBS Citizens NA,        Purchase                               $16,520,000     N/A                 3/30/2011                   ($55)    $42,646,245   Updated due to quarterly assessment and reallocation   $1,888,377   $4,611,001        $3,339,113          $9,838,491
                                                     Home Loan
            Glen Allen, VA
                                                     Modifications                                                6/29/2011                  ($452)    $42,645,793   Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012                  ($309)    $42,645,484   Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012                  ($807)    $42,644,677   Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012                  ($131)    $42,644,546   Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013                  ($475)    $42,644,071   Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013                  ($175)    $42,643,896   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                              APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                                                                                                                  9/27/2013                   ($62)    $42,643,834   Updated due to quarterly assessment and reallocation
                                                                                                                                                                     Updated portfolio data from servicer & HPDP initial
                                                                                                                  9/30/2009           ($11,300,000)    $45,700,000
                                                                                                                                                                     cap
                                                                                                                                                                     Updated portfolio data from servicer & HAFA initial
                                                                                                                 12/30/2009           ($42,210,000)     $3,490,000
                                                                                                                                                                     cap
                                                                                                                  3/26/2010            $65,640,000     $69,130,000   Updated portfolio data from servicer
                                                                                                                   4/9/2010           ($14,470,000)    $54,660,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010            ($8,860,000)    $45,800,000   Updated portfolio data from servicer
                                                                                                                  9/30/2010            ($4,459,154)    $41,340,846   Updated portfolio data from servicer
                                                     Financial                                                   12/15/2010            ($4,300,000)    $37,040,846   Updated portfolio data from servicer
            RG Mortgage Corporation,                 Instrument for
6/17/2009                              Purchase                               $57,000,000     N/A                  1/6/2011                   ($51)    $37,040,795   Updated portfolio data from servicer                    $164,853     $227,582          $401,334             $793,769
            San Juan, PR                             Home Loan
                                                     Modifications                                                3/30/2011                   ($65)    $37,040,730   Updated due to quarterly assessment and reallocation
                                                                                                                  6/29/2011                  ($616)    $37,040,114   Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012                  ($462)    $37,039,652   Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012                ($1,270)    $37,038,382   Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012                  ($214)    $37,038,168   Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013                  ($812)    $37,037,356   Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013                  ($306)    $37,037,050   Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2013                  ($110)    $37,036,940   Updated due to quarterly assessment and reallocation
                                                                                                                                                                     Updated portfolio data from servicer & HAFA initial
                                                     Financial                                                   12/30/2009             $2,020,000      $2,790,000
            First Federal Savings                                                                                                                                    cap
                                                     Instrument for
6/19/2009   and Loan,                  Purchase                                  $770,000     N/A                                                                                                                                 $—           $—                  $—                  $—
                                                     Home Loan                                                    3/26/2010            $11,370,000     $14,160,000   Updated portfolio data from servicer
            Port Angeles, WA
                                                     Modifications
                                                                                                                  5/26/2010           ($14,160,000)            $—    Termination of SPA
                                                                                                                                                                                                                                                                     Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                              (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                  Adjustment Details                                                                                                      TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                                Lenders/                              Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                             Borrower’s    Investors          Servicers            Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount        Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                                                                                     Updated portfolio data from servicer & HPDP initial
                                                                                                                  9/30/2009               $330,000       $870,000
                                                                                                                                                                     cap
                                                                                                                                                                     Updated portfolio data from servicer & HAFA initial
                                                                                                                 12/30/2009            $16,490,000    $17,360,000
                                                                                                                                                                     cap
                                                                                                                  3/26/2010           ($14,260,000)    $3,100,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010            ($1,800,000)    $1,300,000    Updated portfolio data from servicer
                                                     Financial                                                    7/30/2010             $1,500,000     $2,800,000    Updated portfolio data from servicer
            Wescom Central Credit                    Instrument for
6/19/2009                              Purchase                                  $540,000     N/A         9,12    9/30/2010             $1,551,668     $4,351,668    Updated portfolio data from servicer                    $207,460    $652,832           $312,225           $1,172,517
            Union, Anaheim, CA                       Home Loan
                                                     Modifications                                                 1/6/2011                    ($2)    $4,351,666    Updated portfolio data from servicer
                                                                                                                  3/30/2011                    ($2)    $4,351,664    Updated due to quarterly assessment and reallocation
                                                                                                                  5/13/2011            ($1,800,000)    $2,551,664    Transfer of cap due to servicing transfer
                                                                                                                   6/3/2011            ($1,872,787)      $678,877    Termination of SPA
                                                                                                                  6/14/2012               $990,000     $1,668,877    Transfer of cap due to servicing transfer
                                                                                                                  9/27/2012               $372,177     $2,041,054    Updated due to quarterly assessment and reallocation
                                                                                                                                                                     Updated portfolio data from servicer & HPDP initial
                                                                                                                  9/30/2009               ($10,000)       $20,000
                                                                                                                                                                     cap
                                                                                                                                                                     Updated portfolio data from servicer & HAFA initial
                                                                                                                 12/30/2009               $590,000       $610,000
                                                     Financial                                                                                                       cap
            Citizens First Wholesale
                                                     Instrument for
6/26/2009   Mortgage Company,          Purchase                                    $30,000    N/A                 3/26/2010             ($580,000)        $30,000    Updated portfolio data from servicer                         $—           $—                  $—                  $—
                                                     Home Loan
            The Villages, FL
                                                     Modifications                                                7/14/2010                $70,000       $100,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010                $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                  2/17/2011             ($145,056)            $—     Termination of SPA
                                                                                                                                                                     Updated portfolio data from servicer & HAFA initial
                                                                                                                 12/30/2009             $2,180,000     $2,250,000
                                                                                                                                                                     cap
                                                                                                                  3/26/2010             ($720,000)     $1,530,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010             ($430,000)     $1,100,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010                $60,445     $1,160,445    Updated portfolio data from servicer
                                                                                                                   1/6/2011                    ($1)    $1,160,444    Updated portfolio data from servicer
                                                     Financial                                                    3/30/2011                    ($1)    $1,160,443    Updated due to quarterly assessment and reallocation
            Technology Credit Union,                 Instrument for
6/26/2009                              Purchase                                    $70,000    N/A                                                                                                                             $43,000    $167,902            $68,217             $279,119
            San Jose, CA                             Home Loan                                                    6/29/2011                   ($12)    $1,160,431    Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                  6/28/2012                    ($9)    $1,160,422    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012                   ($23)    $1,160,399    Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012                    ($4)    $1,160,395    Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013                   ($13)    $1,160,382    Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013                    ($5)    $1,160,377    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2013                    ($2)    $1,160,375    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013
                                                                                                                                                                                                                                                                                              435
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                             (CONTINUED)                                                                                                                                                                                                 436
            Servicer Modifying Borrowers’ Loans                                                                 Adjustment Details                                                                                                          TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                    Lenders/                              Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                                 Borrower’s    Investors          Servicers            Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount         Adjusted Cap    Reason for Adjustment                                    Incentives   Incentives         Incentives           Payments
                                                                                                                                                                      Updated portfolio data from servicer & HPDP initial
                                                                                                                 9/30/2009           $315,170,000     $610,150,000
                                                                                                                                                                      cap
                                                                                                                                                                      Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009            $90,280,000     $700,430,000
                                                                                                                                                                      cap
                                                                                                                 3/26/2010           ($18,690,000)    $681,740,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010       ($272,640,000)       $409,100,000    Updated portfolio data from servicer
                                                                                                                                                                      Initial FHA-HAMP cap, Initial FHA-2LP cap, and initial
                                                                                                                 9/30/2010            $80,600,000     $489,700,000
                                                                                                                                                                      2MP cap
                                                                                                                 9/30/2010            $71,230,004     $560,930,004    Updated portfolio data from servicer
                                                                                                                  1/6/2011                  ($828)    $560,929,176    Updated portfolio data from servicer
                                                                                                                 2/16/2011               $200,000     $561,129,176    Transfer of cap due to servicing transfer
                                                                                                                 3/16/2011             ($100,000)     $561,029,176    Transfer of cap due to servicing transfer
                                                                                                                 3/30/2011                  ($981)    $561,028,195    Updated due to quarterly assessment and reallocation
                                                                                                                 4/13/2011            ($2,300,000)    $558,728,195    Transfer of cap due to servicing transfer
                                                    Financial
                                                                                                                 5/13/2011             ($200,000)     $558,528,195    Transfer of cap due to servicing transfer
            National City Bank,                     Instrument for
6/26/2009                             Purchase                              $294,980,000     N/A                                                                                                                               $2,832,001   $8,599,783        $5,119,647         $16,551,432
            Miamisburg, OH                          Home Loan                                                    6/16/2011             ($200,000)     $558,328,195    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                 APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                                                    Modifications
                                                                                                                 6/29/2011                ($9,197)    $558,318,998    Updated due to quarterly assessment and reallocation
                                                                                                                10/14/2011               $300,000     $558,618,998    Transfer of cap due to servicing transfer
                                                                                                                11/16/2011             ($300,000)     $558,318,998    Transfer of cap due to servicing transfer
                                                                                                                 1/13/2012               $200,000     $558,518,998    Transfer of cap due to servicing transfer
                                                                                                                 2/16/2012             ($100,000)     $558,418,998    Transfer of cap due to servicing transfer
                                                                                                                 3/15/2012               $200,000     $558,618,998    Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012               ($10,000)    $558,608,998    Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012                ($6,771)    $558,602,227    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012               ($18,467)    $558,583,760    Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012                ($3,105)    $558,580,655    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013               ($11,713)    $558,568,942    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013                ($4,393)    $558,564,549    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2013                ($1,565)    $558,562,984    Updated due to quarterly assessment and reallocation
                                                                                                                                                                      Updated portfolio data from servicer & HPDP initial
                                                                                                                 9/30/2009           $723,880,000    $1,357,890,000
                                                                                                                                                                      cap
                                                    Financial
            Wachovia Mortgage, FSB,                 Instrument for                                                                                                    Updated portfolio data from servicer & HAFA initial
7/1/2009                              Purchase                              $634,010,000     N/A          3     12/30/2009           $692,640,000    $2,050,530,000                                                                  $—       $76,890          $162,000             $238,890
            Des Moines, IA                          Home Loan                                                                                                         cap
                                                    Modifications                                                2/17/2010     ($2,050,236,344)           $293,656    Transfer of cap (to Wells Fargo Bank) due to merger
                                                                                                                 3/12/2010               ($54,767)        $238,890    Transfer of cap (to Wells Fargo Bank) due to merger
                                                                                                                                                                                                                                                                        Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                            (CONTINUED)
           Servicer Modifying Borrowers’ Loans                                                                 Adjustment Details                                                                                                       TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                  Lenders/                             Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                             Borrower’s      Investors         Servicers            Incentive
Date       Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount        Adjusted Cap   Reason for Adjustment                                  Incentives     Incentives        Incentives           Payments
                                                                                                                                                                   Updated portfolio data from servicer & HPDP initial
                                                                                                                9/30/2009            $23,850,000     $68,110,000
                                                                                                                                                                   cap
                                                                                                                                                                   Updated portfolio data from servicer & HAFA initial
                                                                                                               12/30/2009            $43,590,000    $111,700,000
                                                                                                                                                                   cap
                                                                                                                3/26/2010            $34,540,000    $146,240,000   Updated portfolio data from servicer
                                                                                                                 5/7/2010             $1,010,000    $147,250,000   Initial 2MP cap
                                                                                                                7/14/2010           ($34,250,000)   $113,000,000   Updated portfolio data from servicer
                                                                                                                9/30/2010               $600,000    $113,600,000   Initial FHA-2LP cap
                                                                                                                9/30/2010           ($15,252,303)    $98,347,697   Updated portfolio data from servicer
                                                                                                                 1/6/2011                   ($70)    $98,347,627   Updated portfolio data from servicer
                                                                                                                3/30/2011                   ($86)    $98,347,541   Updated due to quarterly assessment and reallocation
                                                                                                                4/13/2011               $400,000     $98,747,541   Transfer of cap due to servicing transfer
                                                                                                                5/13/2011               $100,000     $98,847,541   Transfer of cap due to servicing transfer
                                                                                                                6/29/2011                  ($771)    $98,846,770   Updated due to quarterly assessment and reallocation
                                                                                                                9/15/2011               $600,000     $99,446,770   Transfer of cap due to servicing transfer
                                                                                                               10/14/2011           ($18,900,000)    $80,546,770   Transfer of cap due to servicing transfer
                                                                                                                1/13/2012               $900,000     $81,446,770   Transfer of cap due to servicing transfer
                                                                                                                2/16/2012             $2,400,000     $83,846,770   Transfer of cap due to servicing transfer
                                                                                                                3/15/2012             ($100,000)     $83,746,770   Transfer of cap due to servicing transfer
                                                   Financial                                                    4/16/2012               $200,000     $83,946,770   Transfer of cap due to servicing transfer
           Bayview Loan Servicing,                 Instrument for
7/1/2009                             Purchase                               $44,260,000     N/A                 5/16/2012                $30,000     $83,976,770   Transfer of cap due to servicing transfer              $8,116,924   $15,334,273      $11,452,470          $34,903,668
           LLC, Coral Gables, FL                   Home Loan
                                                   Modifications                                                6/14/2012             $1,810,000     $85,786,770   Transfer of cap due to servicing transfer
                                                                                                                6/28/2012                  ($508)    $85,786,262   Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2012             $2,660,000     $88,446,262   Transfer of cap due to servicing transfer
                                                                                                                9/27/2012                ($1,249)    $88,445,013   Updated due to quarterly assessment and reallocation
                                                                                                               10/16/2012               $160,000     $88,605,013   Transfer of cap due to servicing transfer
                                                                                                               11/15/2012             $6,970,000     $95,575,013   Transfer of cap due to servicing transfer
                                                                                                               12/14/2012            $13,590,000    $109,165,013   Transfer of cap due to servicing transfer
                                                                                                               12/27/2012                  ($298)   $109,164,715   Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2013                $90,000    $109,254,715   Transfer of cap due to servicing transfer
                                                                                                                2/14/2013             $3,250,000    $112,504,715   Transfer of cap due to servicing transfer
                                                                                                                3/14/2013               $830,000    $113,334,715   Transfer of cap due to servicing transfer
                                                                                                                3/25/2013                ($1,023)   $113,333,692   Updated due to quarterly assessment and reallocation
                                                                                                                4/16/2013             $1,490,000    $114,823,692   Transfer of cap due to servicing transfer
                                                                                                                5/16/2013               $660,000    $115,483,692   Transfer of cap due to servicing transfer
                                                                                                                6/14/2013             $7,470,000    $122,953,692   Transfer of cap due to servicing transfer
                                                                                                                6/27/2013                  ($308)   $122,953,384   Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2013            $21,430,000    $144,383,384   Transfer of cap due to servicing transfer
                                                                                                                9/16/2013            $11,730,000    $156,113,384   Transfer of cap due to servicing transfer
                                                                                                                9/27/2013                   ($91)   $156,113,293   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013
                                                                                                                                                                                                                                                                                             437
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                              (CONTINUED)                                                                                                                                                                                             438
            Servicer Modifying Borrowers’ Loans                                                                  Adjustment Details                                                                                                      TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                                Lenders/                              Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                             Borrower’s    Investors          Servicers            Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount        Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                                                                                     Updated portfolio data from servicer & HPDP initial
                                                                                                                  9/30/2009               $150,000       $250,000
                                                                                                                                                                     cap
                                                                                                                                                                     Updated portfolio data from servicer & HAFA initial
                                                                                                                 12/30/2009               $130,000       $380,000
                                                                                                                                                                     cap
                                                                                                                  3/26/2010                $50,000       $430,000    Updated portfolio data from servicer
                                                     Financial                                                    7/14/2010               ($30,000)      $400,000    Updated portfolio data from servicer
            Lake National Bank,                      Instrument for
7/10/2009                              Purchase                                  $100,000     N/A         12      9/30/2010                $35,167       $435,167    Updated portfolio data from servicer                      $3,000       $3,651             $4,000             $10,651
            Mentor, OH                               Home Loan
                                                     Modifications                                                 1/6/2011                    ($1)      $435,166    Updated portfolio data from servicer
                                                                                                                  3/30/2011                    ($1)      $435,165    Updated due to quarterly assessment and reallocation
                                                                                                                  6/29/2011                    ($6)      $435,159    Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012                    ($4)      $435,155    Updated due to quarterly assessment and reallocation
                                                                                                                  8/23/2012             ($424,504)        $10,651    Termination of SPA
                                                                                                                                                                     Updated portfolio data from servicer & HPDP initial
                                                                                                                  9/30/2009               ($10,000)      $860,000
                                                                                                                                                                     cap
                                                                                                                                                                     Updated portfolio data from servicer & HAFA initial
                                                                                                                 12/30/2009               $250,000     $1,110,000
                                                                                                                                                                     cap
                                                                                                                                                                                                                                                                                              APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                                                                                                                  3/26/2010               ($10,000)    $1,100,000    Updated portfolio data from servicer
                                                     Financial                                                    7/14/2010             ($400,000)       $700,000    Updated portfolio data from servicer
            IBM Southeast Employees’
                                                     Instrument for
7/10/2009   Federal Credit Union,      Purchase                                  $870,000     N/A         12      9/30/2010               $170,334       $870,334    Updated portfolio data from servicer                      $9,000      $23,589           $16,000              $48,589
                                                     Home Loan
            Delray Beach, FL
                                                     Modifications                                                 1/6/2011                    ($1)      $870,333    Updated portfolio data from servicer
                                                                                                                  3/30/2011                    ($1)      $870,332    Updated due to quarterly assessment and reallocation
                                                                                                                  6/29/2011                   ($12)      $870,320    Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012                    ($9)      $870,311    Updated due to quarterly assessment and reallocation
                                                                                                                  9/14/2012             ($821,722)        $48,589    Termination of SPA
                                                                                                                                                                     Updated portfolio data from servicer & HPDP initial
                                                                                                                  9/30/2009            $18,530,000    $42,010,000
                                                                                                                                                                     cap
                                                                                                                                                                     Updated portfolio data from servicer & HAFA initial
                                                                                                                 12/30/2009            $24,510,000    $66,520,000
                                                                                                                                                                     cap
                                                                                                                  3/26/2010            $18,360,000    $84,880,000    Updated portfolio data from servicer
                                                     Financial                                                    7/14/2010           ($22,580,000)   $62,300,000    Updated portfolio data from servicer
            MorEquity, Inc.,                         Instrument for
7/17/2009                              Purchase                               $23,480,000     N/A         11                                                                                                                 $345,841    $2,305,003        $1,977,321          $4,628,165
            Evansville, IN                           Home Loan                                                    9/30/2010            ($8,194,261)   $54,105,739    Updated portfolio data from servicer
                                                     Modifications
                                                                                                                   1/6/2011                   ($37)   $54,105,702    Updated portfolio data from servicer
                                                                                                                  3/16/2011           ($29,400,000)   $24,705,702    Transfer of cap due to servicing transfer
                                                                                                                  3/30/2011                   ($34)   $24,705,668    Updated due to quarterly assessment and reallocation
                                                                                                                                                                     Termination of SPA
                                                                                                                  5/26/2011           ($20,077,503)    $4,628,165
                                                                                                                                                                     (remaining cap equals distribution amount)
                                                                                                                                                                                                                                                                     Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                            (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                      TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                Lenders/                              Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                             Borrower’s    Investors          Servicers            Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount        Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                                                                                   Updated portfolio data from servicer & HPDP initial
                                                                                                                9/30/2009           ($36,240,000)   $18,230,000
                                                                                                                                                                   cap
                                                                                                                                                                   Updated portfolio data from servicer & HAFA initial
                                                                                                               12/30/2009            $19,280,000    $37,510,000
                                                                                                                                                                   cap
                                                                                                                3/26/2010             $2,470,000    $39,980,000    Updated portfolio data from servicer
                                                                                                                7/14/2010           ($17,180,000)   $22,800,000    Updated portfolio data from servicer
                                                                                                                9/30/2010            $35,500,000    $58,300,000    Initial FHA-2LP cap and initial 2MP cap
                                                                                                                9/30/2010            $23,076,191    $81,376,191    Updated portfolio data from servicer
                                                                                                                 1/6/2011                  ($123)   $81,376,068    Updated portfolio data from servicer
                                                   Financial                                                    3/30/2011                  ($147)   $81,375,921    Updated due to quarterly assessment and reallocation
            PNC Bank, National
                                                   Instrument for
7/17/2009   Association,             Purchase                               $54,470,000     N/A                 5/13/2011             ($100,000)    $81,275,921    Transfer of cap due to servicing transfer               $126,229    $756,103           $430,750           $1,313,083
                                                   Home Loan
            Pittsburgh, PA
                                                   Modifications                                                6/29/2011                ($1,382)   $81,274,539    Updated due to quarterly assessment and reallocation
                                                                                                               10/14/2011             ($300,000)    $80,974,539    Transfer of cap due to servicing transfer
                                                                                                                6/28/2012                ($1,003)   $80,973,536    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012                ($2,745)   $80,970,791    Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012                  ($460)   $80,970,331    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013                ($1,740)   $80,968,591    Updated due to quarterly assessment and reallocation
                                                                                                                 4/9/2013                $60,000    $81,028,591    Transfer of cap (from RBC bank (USA) ) due to merger
                                                                                                                6/27/2013                  ($656)   $81,027,935    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013                  ($234)   $81,027,701    Updated due to quarterly assessment and reallocation
                                                                                                                                                                   Updated portfolio data from servicer & HPDP initial
                                                                                                                9/30/2009               ($90,000)       $80,000
                                                                                                                                                                   cap
                                                                                                                                                                   Updated portfolio data from servicer & HAFA initial
                                                                                                               12/30/2009                $50,000       $130,000
                                                   Financial                                                                                                       cap
            Farmers State Bank,                    Instrument for
7/17/2009                            Purchase                                  $170,000     N/A                 3/26/2010               $100,000       $230,000    Updated portfolio data from servicer                         $—           $—                  $—                  $—
            West Salem, OH                         Home Loan
                                                   Modifications                                                7/14/2010             ($130,000)       $100,000    Updated portfolio data from servicer
                                                                                                                9/30/2010                $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                5/20/2011             ($145,056)            $—     Termination of SPA
                                                                                                                                                                   Updated portfolio data from servicer & HPDP initial
                                                                                                                9/30/2009               $890,000     $2,300,000
                                                                                                                                                                   cap
                                                                                                                                                                   Updated portfolio data from servicer & HAFA initial
                                                                                                               12/30/2009             $1,260,000     $3,560,000
                                                                                                                                                                   cap
                                                                                                                3/26/2010               ($20,000)    $3,540,000    Updated portfolio data from servicer
                                                                                                                7/14/2010             ($240,000)     $3,300,000    Updated portfolio data from servicer
                                                                                                                9/30/2010               $471,446     $3,771,446    Updated portfolio data from servicer
                                                   Financial                                                     1/6/2011                    ($3)    $3,771,443    Updated portfolio data from servicer
            ShoreBank,                             Instrument for
7/17/2009                            Purchase                                 $1,410,000    N/A         12      3/30/2011                    ($4)    $3,771,439    Updated due to quarterly assessment and reallocation     $49,915    $153,906           $143,165             $346,986
            Chicago, IL                            Home Loan
                                                   Modifications                                                4/13/2011            ($1,100,000)    $2,671,439    Transfer of cap due to servicing transfer
                                                                                                                6/29/2011                   ($38)    $2,671,401    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012                   ($29)    $2,671,372    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012                   ($79)    $2,671,293    Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012                   ($13)    $2,671,280    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013                   ($50)    $2,671,230    Updated due to quarterly assessment and reallocation
                                                                                                                 4/9/2013            ($2,324,244)      $346,986    Termination of SPA
                                                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013
                                                                                                                                                                                                                                                                                            439
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                               (CONTINUED)                                                                                                                                                                                                   440
            Servicer Modifying Borrowers’ Loans                                                                   Adjustment Details                                                                                                            TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                                      Lenders/                              Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                                Borrower’s       Investors          Servicers            Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount         Adjusted Cap    Reason for Adjustment                                   Incentives      Incentives         Incentives           Payments
                                                                                                                                                                        Updated portfolio data from servicer & HPDP initial
                                                                                                                   9/30/2009           ($53,670,000)   $1,218,820,000
                                                                                                                                                                        cap
                                                                                                                                                                        Updated portfolio data from servicer & HAFA initial
                                                                                                                  12/30/2009           $250,450,000    $1,469,270,000
                                                                                                                                                                        cap
                                                                                                                   3/26/2010           $124,820,000    $1,594,090,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($289,990,000)      $1,304,100,000   Updated portfolio data from servicer
                                                                                                                   9/30/2010             $1,690,508    $1,305,790,508   Updated portfolio data from servicer
                                                                                                                  10/15/2010               $300,000    $1,306,090,508   Transfer of cap due to servicing transfer
                                                                                                                  11/16/2010             ($100,000)    $1,305,990,508   Transfer of cap due to servicing transfer
                                                                                                                    1/6/2011                ($1,173)   $1,305,989,335   Updated portfolio data from servicer
                                                                                                                   2/16/2011             ($500,000)    $1,305,489,335   Transfer of cap due to servicing transfer
                                                                                                                   3/30/2011                ($1,400)   $1,305,487,935   Updated due to quarterly assessment and reallocation
                                                                                                                   4/13/2011             $3,100,000    $1,308,587,935   Transfer of cap due to servicing transfer
                                                                                                                   6/29/2011               ($12,883)   $1,308,575,052   Updated due to quarterly assessment and reallocation
                                                                                                                   9/15/2011            ($1,000,000)   $1,307,575,052   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                     APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                                                                                                                  10/14/2011             ($100,000)    $1,307,475,052   Transfer of cap due to servicing transfer
                                                                                                                  11/16/2011            ($1,100,000)   $1,306,375,052   Transfer of cap due to servicing transfer
            Homeward Residential,                     Financial
            Inc. (American Home                       Instrument for                                               5/16/2012               ($10,000)   $1,306,365,052   Transfer of cap due to servicing transfer
7/22/2009                               Purchase                            $1,272,490,000     N/A                                                                                                                             $51,757,482   $133,880,474       $94,835,607        $280,473,563
            Mortgage Servicing, Inc),                 Home Loan
                                                                                                                   6/28/2012                ($8,378)   $1,306,356,674   Updated due to quarterly assessment and reallocation
            Coppell, TX                               Modifications
                                                                                                                   7/16/2012             ($470,000)    $1,305,886,674   Transfer of cap due to servicing transfer
                                                                                                                   8/16/2012               ($80,000)   $1,305,806,674   Transfer of cap due to servicing transfer
                                                                                                                   9/27/2012               ($22,494)   $1,305,784,180   Updated due to quarterly assessment and reallocation
                                                                                                                  10/16/2012             ($260,000)    $1,305,524,180   Transfer of cap due to servicing transfer
                                                                                                                  11/15/2012               ($30,000)   $1,305,494,180   Transfer of cap due to servicing transfer
                                                                                                                  12/14/2012               ($50,000)   $1,305,444,180   Transfer of cap due to servicing transfer
                                                                                                                  12/27/2012                ($3,676)   $1,305,440,504   Updated due to quarterly assessment and reallocation
                                                                                                                   1/16/2013               ($80,000)   $1,305,360,504   Transfer of cap due to servicing transfer
                                                                                                                   2/14/2013                $20,000    $1,305,380,504   Transfer of cap due to servicing transfer
                                                                                                                   3/14/2013           ($84,160,000)   $1,221,220,504   Transfer of cap due to servicing transfer
                                                                                                                   3/25/2013               ($12,821)   $1,221,207,683   Updated due to quarterly assessment and reallocation
                                                                                                                   4/16/2013       ($621,110,000)       $600,097,683    Transfer of cap due to servicing transfer
                                                                                                                   5/16/2013           ($19,120,000)    $580,977,683    Transfer of cap due to servicing transfer
                                                                                                                   6/27/2013                ($1,947)    $580,975,736    Updated due to quarterly assessment and reallocation
                                                                                                                   7/16/2013           ($14,870,000)    $566,105,736    Transfer of cap due to servicing transfer
                                                                                                                   9/27/2013                  ($655)    $566,105,081    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                            Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                            (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                     TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                               Lenders/                              Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                            Borrower’s    Investors          Servicers            Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                                                                                  Updated portfolio data from servicer & HPDP initial
                                                                                                                9/30/2009            $1,780,000     $5,990,000
                                                                                                                                                                  cap
                                                                                                                                                                  Updated portfolio data from servicer & HAFA initial
                                                                                                               12/30/2009            $2,840,000     $8,830,000
                                                                                                                                                                  cap
                                                                                                                3/26/2010            $2,800,000    $11,630,000    Updated portfolio data from servicer
                                                                                                                7/14/2010           ($5,730,000)    $5,900,000    Updated portfolio data from servicer
                                                                                                                9/30/2010            $2,658,280     $8,558,280    Updated portfolio data from servicer
                                                   Financial                                                     1/6/2011                  ($12)    $8,558,268    Updated portfolio data from servicer
            Mortgage Center, LLC,                  Instrument for
7/22/2009                            Purchase                                 $4,210,000    N/A                 3/30/2011                  ($14)    $8,558,254    Updated due to quarterly assessment and reallocation    $137,603     $238,486          $272,469             $648,557
            Southfield, MI                         Home Loan
                                                   Modifications                                                6/29/2011                 ($129)    $8,558,125    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012                  ($94)    $8,558,031    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012                 ($256)    $8,557,775    Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012                  ($43)    $8,557,732    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013                 ($162)    $8,557,570    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013                  ($60)    $8,557,510    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013                  ($21)    $8,557,489    Updated due to quarterly assessment and reallocation
                                                                                                                                                                  Updated portfolio data from servicer & HPDP initial
                                                                                                                9/30/2009            ($490,000)       $370,000
                                                                                                                                                                  cap
                                                                                                                                                                  Updated portfolio data from servicer & HAFA initial
                                                                                                               12/30/2009            $6,750,000     $7,120,000
                                                                                                                                                                  cap
                                                                                                                3/26/2010           ($6,340,000)      $780,000    Updated portfolio data from servicer
                                                   Financial                                                    7/14/2010            ($180,000)       $600,000    Updated portfolio data from servicer
            Mission Federal Credit                 Instrument for
7/22/2009                            Purchase                                  $860,000     N/A                 9/30/2010             $125,278        $725,278    Updated portfolio data from servicer                     $60,093     $162,255          $104,026             $326,374
            Union, San Diego, CA                   Home Loan
                                                   Modifications                                                3/30/2011                   ($1)      $725,277    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011                   ($4)      $725,273    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012                   ($1)      $725,272    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012                   ($1)      $725,271    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013               $47,663       $772,934    Updated due to quarterly assessment and reallocation
                                                                                                                                                                  Updated portfolio data from servicer & HPDP initial
                                                                                                                9/30/2009           ($1,530,000)    $4,930,000
                                                                                                                                                                  cap
                                                                                                                                                                  Updated portfolio data from servicer & HAFA initial
                                                                                                               12/30/2009             $680,000      $5,610,000
                                                                                                                                                                  cap
                                                                                                                3/26/2010            $2,460,000     $8,070,000    Updated portfolio data from servicer
                                                                                                                7/14/2010           ($2,470,000)    $5,600,000    Updated portfolio data from servicer
                                                                                                                9/30/2010            $2,523,114     $8,123,114    Updated portfolio data from servicer
                                                   Financial
            FIRST BANK,                            Instrument for                                                1/6/2011                   ($2)    $8,123,112    Updated portfolio data from servicer
7/29/2009                            Purchase                                 $6,460,000    N/A                                                                                                                           $868,546    $1,822,938        $1,415,820          $4,107,304
            St. Louis, MO                          Home Loan
                                                                                                                3/30/2011                   ($2)    $8,123,110    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                6/29/2011                  ($15)    $8,123,095    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012                   ($3)    $8,123,092    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012                   ($5)    $8,123,087    Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012                   ($1)    $8,123,086    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013                   ($5)    $8,123,081    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013                   ($1)    $8,123,080    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013
                                                                                                                                                                                                                                                                                           441
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                            (CONTINUED)                                                                                                                                                                                             442
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                      TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                Lenders/                              Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                             Borrower’s    Investors          Servicers            Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount        Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                                                                                   Updated portfolio data from servicer & HPDP initial
                                                                                                                9/30/2009               ($60,000)    $1,030,000
                                                                                                                                                                   cap
                                                                                                                                                                   Updated portfolio data from servicer & HAFA initial
                                                                                                               12/30/2009             $1,260,000     $2,290,000
                                                                                                                                                                   cap
                                                                                                                3/26/2010             $2,070,000     $4,360,000    Updated portfolio data from servicer
                                                                                                                7/14/2010            ($3,960,000)      $400,000    Updated portfolio data from servicer
                                                                                                                9/30/2010               $180,222       $580,222    Updated portfolio data from servicer
                                                   Financial                                                     1/6/2011                    ($1)      $580,221    Updated portfolio data from servicer
            Purdue Employees
                                                   Instrument for
7/29/2009   Federal Credit Union,    Purchase                                 $1,090,000    N/A                 3/30/2011                    ($1)      $580,220    Updated due to quarterly assessment and reallocation      $2,000       $1,789             $3,000              $6,789
                                                   Home Loan
            West Lafayette, IN
                                                   Modifications                                                6/29/2011                    ($8)      $580,212    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012                    ($6)      $580,206    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012                   ($17)      $580,189    Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012                    ($3)      $580,186    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013                   ($11)      $580,175    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013                    ($4)      $580,171    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                                                                                                                9/27/2013                    ($1)      $580,170    Updated due to quarterly assessment and reallocation
                                                                                                                                                                   Updated portfolio data from servicer & HPDP initial
                                                                                                                9/30/2009           ($37,700,000)   $47,320,000
                                                                                                                                                                   cap
                                                                                                                                                                   Updated portfolio data from servicer & HAFA initial
                                                                                                               12/30/2009            $26,160,000    $73,480,000
                                                   Financial                                                                                                       cap
            Wachovia Bank, N.A.,                   Instrument for
7/29/2009                            Purchase                               $85,020,000     N/A                 3/26/2010             $9,820,000    $83,300,000    Updated portfolio data from servicer                         $—           $—                  $—                  $—
            Charlotte, NC                          Home Loan
                                                   Modifications                                                7/14/2010           ($46,200,000)   $37,100,000    Updated portfolio data from servicer
                                                                                                                9/30/2010           ($28,686,775)    $8,413,225    Updated portfolio data from servicer
                                                                                                                12/3/2010            ($8,413,225)           $—     Termination of SPA
                                                                                                                                                                                                                                                                   Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                             (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                 Adjustment Details                                                                                                               TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                         Lenders/                              Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                                   Borrower’s       Investors          Servicers            Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount         Adjusted Cap    Reason for Adjustment                                      Incentives      Incentives         Incentives           Payments
                                                                                                                                                                      Updated portfolio data from servicer & HPDP initial
                                                                                                                 9/30/2009           ($14,850,000)   $2,684,870,000
                                                                                                                                                                      cap
                                                                                                                                                                      Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009      $1,178,180,000       $3,863,050,000
                                                                                                                                                                      cap
                                                                                                                 3/26/2010      $1,006,580,000       $4,869,630,000   Updated portfolio data from servicer & 2MP initial cap
                                                                                                                 7/14/2010     ($1,934,230,000)      $2,935,400,000   Updated portfolio data from servicer
                                                                                                                                                                      Initial FHA-HAMP cap, Initial FHA-2LP cap, and initial
                                                                                                                 9/30/2010            $72,400,000    $3,007,800,000
                                                                                                                                                                      RD-HAMP
                                                                                                                 9/30/2010           $215,625,536    $3,223,425,536   Updated portfolio data from servicer
                                                                                                                  1/6/2011                ($3,636)   $3,223,421,900   Updated portfolio data from servicer
                                                                                                                 3/16/2011             ($100,000)    $3,223,321,900   Transfer of cap due to servicing transfer
                                                                                                                 3/30/2011                ($3,999)   $3,223,317,901   Updated due to quarterly assessment and reallocation
                                                                                                                 4/13/2011             ($200,000)    $3,223,117,901   Transfer of cap due to servicing transfer
                                                                                                                 5/13/2011           $122,700,000    $3,345,817,901   Transfer of cap due to servicing transfer
                                                                                                                 6/29/2011               ($34,606)   $3,345,783,295   Updated due to quarterly assessment and reallocation
                                                                                                                 7/14/2011               $600,000    $3,346,383,295   Transfer of cap due to servicing transfer
                                                                                                                 8/16/2011             ($400,000)    $3,345,983,295   Transfer of cap due to servicing transfer
                                                                                                                 9/15/2011             ($100,000)    $3,345,883,295   Transfer of cap due to servicing transfer
                                                                                                                10/14/2011               $200,000    $3,346,083,295   Transfer of cap due to servicing transfer
                                                                                                                10/19/2011           $519,211,309    $3,865,294,604   Transfer of cap due to servicing transfer
                                                                                                                11/16/2011            ($2,800,000)   $3,862,494,604   Transfer of cap due to servicing transfer
                                                                                                                 1/13/2012             ($100,000)    $3,862,394,604   Transfer of cap due to servicing transfer
                                                    Financial
                                                                                                                 2/16/2012             ($100,000)    $3,862,294,604   Transfer of cap due to servicing transfer
            J.P. Morgan Chase Bank,                 Instrument for
7/31/2009                             Purchase                            $2,699,720,000     N/A                                                                                                                               $262,053,865   $635,257,909      $358,678,932       $1,255,990,706
            NA, Lewisville, TX                      Home Loan                                                    5/16/2012       ($126,080,000)      $3,736,214,604   Transfer of cap due to servicing transfer
                                                    Modifications
                                                                                                                 6/14/2012            ($1,620,000)   $3,734,594,604   Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012               ($16,192)   $3,734,578,412   Updated due to quarterly assessment and reallocation
                                                                                                                 7/16/2012            ($2,300,000)   $3,732,278,412   Transfer of cap due to servicing transfer
                                                                                                                 8/16/2012               ($20,000)   $3,732,258,412   Transfer of cap due to servicing transfer
                                                                                                                 9/27/2012               ($37,341)   $3,732,221,071   Updated due to quarterly assessment and reallocation
                                                                                                                10/16/2012            ($1,130,000)   $3,731,091,071   Transfer of cap due to servicing transfer
                                                                                                                11/15/2012            ($3,770,000)   $3,727,321,071   Transfer of cap due to servicing transfer
                                                                                                                12/14/2012             ($180,000)    $3,727,141,071   Transfer of cap due to servicing transfer
                                                                                                                12/27/2012                ($4,535)   $3,727,136,536   Updated due to quarterly assessment and reallocation
                                                                                                                 1/16/2013               ($60,000)   $3,727,076,536   Transfer of cap due to servicing transfer
                                                                                                                 2/14/2013             ($520,000)    $3,726,556,536   Transfer of cap due to servicing transfer
                                                                                                                 3/14/2013               ($90,000)   $3,726,466,536   Transfer of cap due to servicing transfer
                                                                                                                 3/25/2013               ($14,310)   $3,726,452,226   Updated due to quarterly assessment and reallocation
                                                                                                                 4/16/2013             ($110,000)    $3,726,342,226   Transfer of cap due to servicing transfer
                                                                                                                 5/16/2013             ($120,000)    $3,726,222,226   Transfer of cap due to servicing transfer
                                                                                                                 6/14/2013               ($50,000)   $3,726,172,226   Transfer of cap due to servicing transfer
                                                                                                                 6/27/2013                ($3,778)   $3,726,168,448   Updated due to quarterly assessment and reallocation
                                                                                                                 7/16/2013       ($103,240,000)      $3,622,928,448   Transfer of cap due to servicing transfer
                                                                                                                 8/15/2013               ($20,000)   $3,622,908,448   Transfer of cap due to servicing transfer
                                                                                                                 9/16/2013           ($99,960,000)   $3,522,948,448   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                      TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




                                                                                                                 9/27/2013                  ($724)   $3,522,947,724   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                             Continued on next page
                                                                                                                                                                                                                                                                                                      443
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                              (CONTINUED)                                                                                                                                                                                                  444
            Servicer Modifying Borrowers’ Loans                                                                  Adjustment Details                                                                                                           TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                                      Lenders/                             Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                                 Borrower’s      Investors         Servicers            Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount         Adjusted Cap    Reason for Adjustment                                    Incentives     Incentives        Incentives           Payments
                                                                                                                                                                       Updated portfolio data from servicer & HPDP initial
                                                                                                                  9/30/2009               ($10,000)    $707,370,000
                                                                                                                                                                       cap
                                                                                                                                                                       Updated portfolio data from servicer & HAFA initial
                                                                                                                 12/30/2009           $502,430,000    $1,209,800,000
                                                                                                                                                                       cap
                                                                                                                  3/26/2010       ($134,560,000)      $1,075,240,000   Updated portfolio data from servicer & 2MP initial cap
                                                                                                                  7/14/2010       ($392,140,000)       $683,100,000    Updated portfolio data from servicer
                                                                                                                  7/16/2010             ($630,000)     $682,470,000    Transfer of cap to Saxon Mortgage Services, Inc.
                                                                                                                  9/30/2010            $13,100,000     $695,570,000    Initial FHA-HAMP cap and initial FHA-2LP cap
                                                                                                                  9/30/2010            ($8,006,457)    $687,563,543    Updated portfolio data from servicer
                                                     Financial
            EMC Mortgage                                                                                         10/15/2010             ($100,000)     $687,463,543    Transfer of cap due to servicing transfer
                                                     Instrument for
7/31/2009   Corporation,               Purchase                              $707,380,000     N/A         14                                                                                                                    $7,569,459   $11,592,937      $16,279,383          $35,441,779
                                                     Home Loan
            Lewisville, TX                                                                                       12/15/2010            ($4,400,000)    $683,063,543    Updated portfolio data from servicer
                                                     Modifications
                                                                                                                   1/6/2011                  ($802)    $683,062,741    Updated portfolio data from servicer
                                                                                                                  2/16/2011             ($900,000)     $682,162,741    Transfer of cap due to servicing transfer
                                                                                                                  3/16/2011            ($4,000,000)    $678,162,741    Transfer of cap due to servicing transfer
                                                                                                                  3/30/2011                  ($925)    $678,161,816    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                   APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                                                                                                                  5/13/2011       ($122,900,000)       $555,261,816    Transfer of cap due to servicing transfer
                                                                                                                  6/29/2011                ($8,728)    $555,253,088    Updated due to quarterly assessment and reallocation
                                                                                                                  7/14/2011             ($600,000)     $554,653,088    Transfer of cap due to servicing transfer
                                                                                                                 10/19/2011       ($519,211,309)        $35,441,779    Termination of SPA
                                                                                                                                                                       Updated portfolio data from servicer & HPDP initial
                                                                                                                  9/30/2009              $180,000          $600,000
                                                                                                                                                                       cap
                                                                                                                                                                       Updated portfolio data from servicer & HAFA initial
                                                                                                                 12/30/2009             ($350,000)         $250,000
                                                                                                                                                                       cap
                                                                                                                  3/26/2010                $20,000         $270,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010               ($70,000)        $200,000    Updated portfolio data from servicer
                                                     Financial                                                    9/30/2010                $90,111         $290,111    Updated portfolio data from servicer
            Lake City Bank,                          Instrument for
8/5/2009                               Purchase                                  $420,000     N/A                 6/29/2011                    ($3)        $290,108    Updated due to quarterly assessment and reallocation        $6,244         $6,903          $18,435              $31,581
            Warsaw, IN                               Home Loan
                                                     Modifications                                                6/28/2012                    ($2)        $290,106    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012                    ($7)        $290,099    Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012                    ($1)        $290,098    Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013                    ($4)        $290,094    Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013                    ($2)        $290,092    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2013                    ($1)        $290,091    Updated due to quarterly assessment and reallocation
                                                                                                                                                                       Updated portfolio data from servicer & HPDP initial
                                                                                                                  9/30/2009              $290,000          $430,000
                                                                                                                                                                       cap
                                                                                                                                                                       Updated portfolio data from servicer & HAFA initial
                                                                                                                 12/30/2009              $210,000          $640,000
                                                                                                                                                                       cap
                                                                                                                  3/26/2010              $170,000          $810,000    Updated portfolio data from servicer
                                                     Financial                                                    7/14/2010               ($10,000)        $800,000    Updated portfolio data from servicer
            Oakland Municipal Credit
                                                     Instrument for
8/5/2009    Union,                     Purchase                                  $140,000     N/A         12      9/30/2010               ($74,722)        $725,278    Updated portfolio data from servicer                           $—          $3,568            $6,500             $10,068
                                                     Home Loan
            Oakland, CA
                                                     Modifications                                                 1/6/2011                    ($1)        $725,277    Updated portfolio data from servicer
                                                                                                                  3/30/2011                    ($1)        $725,276    Updated due to quarterly assessment and reallocation
                                                                                                                  4/13/2011             ($200,000)         $525,276    Transfer of cap due to servicing transfer
                                                                                                                  6/29/2011                    ($7)        $525,269    Updated due to quarterly assessment and reallocation
                                                                                                                  7/22/2011             ($515,201)          $10,068    Termination of SPA
                                                                                                                                                                                                                                                                          Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                           (CONTINUED)
           Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                      TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                Lenders/                              Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                             Borrower’s    Investors          Servicers            Incentive
Date       Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount        Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                                                                                  Updated portfolio data from servicer & HPDP initial
                                                                                                               9/30/2009       ($121,190,000)      $552,810,000
                                                                                                                                                                  cap
                                                                                                                                                                  Updated portfolio data from servicer & HAFA initial
                                                                                                              12/30/2009           ($36,290,000)   $516,520,000
                                                                                                                                                                  cap
                                                                                                               3/26/2010           $199,320,000    $715,840,000   Updated portfolio data from servicer
                                                                                                               7/14/2010       ($189,040,000)      $526,800,000   Updated portfolio data from servicer
                                                                                                               9/30/2010            $38,626,728    $565,426,728   Updated portfolio data from servicer
                                                                                                              10/15/2010       ($170,800,000)      $394,626,728   Transfer of cap due to servicing transfer
                                                                                                              12/15/2010           ($22,200,000)   $372,426,728   Updated portfolio data from servicer
                                                                                                                1/6/2011                  ($549)   $372,426,179   Updated portfolio data from servicer
                                                  Financial
           HomEq Servicing,                       Instrument for                                               2/16/2011             ($900,000)    $371,526,179   Transfer of cap due to servicing transfer
8/5/2009                            Purchase                              $674,000,000     N/A                                                                                                                                 $—     $3,036,319        $5,272,500          $8,308,819
           North Highlands, CA                    Home Loan
                                                                                                               3/30/2011                  ($653)   $371,525,526   Updated due to quarterly assessment and reallocation
                                                  Modifications
                                                                                                               6/29/2011                ($6,168)   $371,519,358   Updated due to quarterly assessment and reallocation
                                                                                                               6/28/2012                ($4,634)   $371,514,724   Updated due to quarterly assessment and reallocation
                                                                                                               8/16/2012             ($430,000)    $371,084,724   Transfer of cap due to servicing transfer
                                                                                                               9/27/2012               ($12,728)   $371,071,996   Updated due to quarterly assessment and reallocation
                                                                                                              12/14/2012               ($20,000)   $371,051,996   Transfer of cap due to servicing transfer
                                                                                                              12/27/2012                ($2,148)   $371,049,848   Updated due to quarterly assessment and reallocation
                                                                                                               3/25/2013                ($8,137)   $371,041,711   Updated due to quarterly assessment and reallocation
                                                                                                               6/27/2013                ($3,071)   $371,038,640   Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2013                ($1,101)   $371,037,539   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013
                                                                                                                                                                                                                                                                                           445
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                               (CONTINUED)                                                                                                                                                                                                 446
            Servicer Modifying Borrowers’ Loans                                                                   Adjustment Details                                                                                                          TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                                     Lenders/                             Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                                Borrower’s      Investors         Servicers            Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount         Adjusted Cap    Reason for Adjustment                                   Incentives     Incentives        Incentives           Payments
                                                                                                                                                                        Updated portfolio data from servicer & HPDP initial
                                                                                                                   9/30/2009           $313,050,000    $1,087,950,000
                                                                                                                                                                        cap
                                                                                                                                                                        Updated portfolio data from servicer & HAFA initial
                                                                                                                  12/30/2009           $275,370,000    $1,363,320,000
                                                                                                                                                                        cap
                                                                                                                   3/26/2010           $278,910,000    $1,642,230,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($474,730,000)      $1,167,500,000   Updated portfolio data from servicer
                                                                                                                   8/13/2010             ($700,000)    $1,166,800,000   Transfer of cap to due to servicing transfer
                                                                                                                   9/15/2010            ($1,000,000)   $1,165,800,000   Transfer of cap to due to servicing transfer
                                                                                                                   9/30/2010       ($115,017,236)      $1,050,782,764   Updated portfolio data from servicer
                                                                                                                  10/15/2010             ($800,000)    $1,049,982,764   Transfer of cap due to servicing transfer
                                                                                                                  12/15/2010              $800,000     $1,050,782,764   Updated portfolio data from servicer
                                                                                                                    1/6/2011                ($1,286)   $1,050,781,478   Updated portfolio data from servicer
                                                                                                                   3/16/2011             $8,800,000    $1,059,581,478   Transfer of cap due to servicing transfer
                                                                                                                   3/30/2011                ($1,470)   $1,059,580,008   Updated due to quarterly assessment and reallocation
                                                                                                                   4/13/2011            ($3,300,000)   $1,056,280,008   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                   APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                                                      Financial                                                    5/13/2011             ($300,000)    $1,055,980,008   Transfer of cap due to servicing transfer
            Litton Loan Servicing LP,                 Instrument for
8/12/2009                               Purchase                              $774,900,000     N/A                 6/16/2011             ($700,000)    $1,055,280,008   Transfer of cap due to servicing transfer              $13,441,220   $35,353,126      $27,530,414          $76,324,760
            Houston, TX                               Home Loan
                                                      Modifications                                                6/29/2011               ($13,097)   $1,055,266,911   Updated due to quarterly assessment and reallocation
                                                                                                                   7/14/2011             ($200,000)    $1,055,066,911   Transfer of cap due to servicing transfer
                                                                                                                   9/15/2011            ($2,900,000)   $1,052,166,911   Transfer of cap due to servicing transfer
                                                                                                                  10/14/2011             ($300,000)    $1,051,866,911   Transfer of cap due to servicing transfer
                                                                                                                  11/16/2011             ($500,000)    $1,051,366,911   Transfer of cap due to servicing transfer
                                                                                                                  12/15/2011            ($2,600,000)   $1,048,766,911   Transfer of cap due to servicing transfer
                                                                                                                   1/13/2012       ($194,800,000)       $853,966,911    Transfer of cap due to servicing transfer
                                                                                                                   2/16/2012             ($400,000)     $853,566,911    Transfer of cap due to servicing transfer
                                                                                                                   6/28/2012                ($9,728)    $853,557,183    Updated due to quarterly assessment and reallocation
                                                                                                                   8/16/2012            ($7,990,000)    $845,567,183    Transfer of cap due to servicing transfer
                                                                                                                   9/27/2012               ($26,467)    $845,540,716    Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012                ($4,466)    $845,536,250    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013               ($16,922)    $845,519,328    Updated due to quarterly assessment and reallocation
                                                                                                                   6/27/2013                ($6,386)    $845,512,942    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2013                ($2,289)    $845,510,653    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                          Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                             (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                 Adjustment Details                                                                                                       TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                  Lenders/                             Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                             Borrower’s      Investors         Servicers            Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount        Adjusted Cap   Reason for Adjustment                                  Incentives     Incentives        Incentives           Payments
                                                                                                                                                                    Updated portfolio data from servicer & HPDP initial
                                                                                                                 9/30/2009            ($1,200,000)    $5,010,000
                                                                                                                                                                    cap
                                                                                                                                                                    Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009            $30,800,000    $35,810,000
                                                                                                                                                                    cap
                                                                                                                 3/26/2010            $23,200,000    $59,010,000    Updated portfolio data from servicer
                                                                                                                                                                    Transfer of cap from CitiMortgage, Inc. due to
                                                                                                                 6/16/2010             $2,710,000    $61,720,000
                                                                                                                                                                    servicing transfer
                                                                                                                 7/14/2010           ($18,020,000)   $43,700,000    Updated portfolio data from servicer
                                                                                                                                                                    Transfer of cap from CitiMortgage, Inc. due to
                                                                                                                 7/16/2010             $6,680,000    $50,380,000
                                                                                                                                                                    servicing transfer
                                                                                                                 8/13/2010             $2,600,000    $52,980,000    Transfer of cap to due to servicing transfer
                                                                                                                 9/15/2010             ($100,000)    $52,880,000    Transfer of cap to due to servicing transfer
                                                                                                                 9/30/2010               $200,000    $53,080,000    Initial FHA-HAMP cap and 2MP initial cap
                                                                                                                 9/30/2010            ($1,423,197)   $51,656,803    Updated portfolio data from servicer
                                                                                                                11/16/2010             $1,400,000    $53,056,803    Transfer of cap due to servicing transfer
                                                                                                                12/15/2010             ($100,000)    $52,956,803    Updated portfolio data from servicer
                                                                                                                  1/6/2011                   ($72)   $52,956,731    Updated portfolio data from servicer
                                                                                                                 1/13/2011             $4,100,000    $57,056,731    Transfer of cap due to servicing transfer
                                                                                                                 2/16/2011             ($100,000)    $56,956,731    Transfer of cap due to servicing transfer
                                                                                                                 3/16/2011             $4,000,000    $60,956,731    Transfer of cap due to servicing transfer
                                                                                                                 3/30/2011                   ($94)   $60,956,637    Updated due to quarterly assessment and reallocation
                                                                                                                 4/13/2011             ($100,000)    $60,856,637    Transfer of cap due to servicing transfer
                                                                                                                 5/13/2011             $5,800,000    $66,656,637    Transfer of cap due to servicing transfer
                                                    Financial                                                    6/16/2011               $600,000    $67,256,637    Transfer of cap due to servicing transfer
            PennyMac Loan Services,
                                                    Instrument for
8/12/2009   LLC,                      Purchase                                 $6,210,000    N/A                 6/29/2011                  ($812)   $67,255,825    Updated due to quarterly assessment and reallocation   $5,681,857   $12,841,688        $6,872,233         $25,395,778
                                                    Home Loan
            Calasbasa, CA
                                                    Modifications
                                                                                                                 7/14/2011             $2,500,000    $69,755,825    Transfer of cap due to servicing transfer
                                                                                                                 9/15/2011             $2,800,000    $72,555,825    Transfer of cap due to servicing transfer
                                                                                                                10/14/2011               $300,000    $72,855,825    Transfer of cap due to servicing transfer
                                                                                                                11/16/2011               $900,000    $73,755,825    Transfer of cap due to servicing transfer
                                                                                                                12/15/2011               $800,000    $74,555,825    Transfer of cap due to servicing transfer
                                                                                                                 1/13/2012               $200,000    $74,755,825    Transfer of cap due to servicing transfer
                                                                                                                 3/15/2012             $1,900,000    $76,655,825    Transfer of cap due to servicing transfer
                                                                                                                 4/16/2012               $200,000    $76,855,825    Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012             $1,340,000    $78,195,825    Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012                  ($340)   $78,195,485    Updated due to quarterly assessment and reallocation
                                                                                                                 7/16/2012             $2,930,000    $81,125,485    Transfer of cap due to servicing transfer
                                                                                                                 8/16/2012               $890,000    $82,015,485    Transfer of cap due to servicing transfer
                                                                                                                 9/27/2012                  ($974)   $82,014,511    Updated due to quarterly assessment and reallocation
                                                                                                                10/16/2012             $1,800,000    $83,814,511    Transfer of cap due to servicing transfer
                                                                                                                12/14/2012             $3,860,000    $87,674,511    Transfer of cap due to servicing transfer
                                                                                                                12/27/2012                  ($154)   $87,674,357    Updated due to quarterly assessment and reallocation
                                                                                                                 2/14/2013             $2,980,000    $90,654,357    Transfer of cap due to servicing transfer
                                                                                                                 3/25/2013                  ($506)   $90,653,851    Updated due to quarterly assessment and reallocation
                                                                                                                 4/16/2013             $2,160,000    $92,813,851    Transfer of cap due to servicing transfer
                                                                                                                 6/14/2013             $2,440,000    $95,253,851    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




                                                                                                                 6/27/2013                  ($128)   $95,253,723    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2013                    ($7)   $95,253,716    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                                                              447
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                               (CONTINUED)                                                                                                                                                                                             448
            Servicer Modifying Borrowers’ Loans                                                                   Adjustment Details                                                                                                      TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                                Lenders/                              Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                             Borrower’s    Investors          Servicers            Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount        Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                                                                                      Updated portfolio data from servicer & HPDP initial
                                                                                                                   9/30/2009           ($25,510,000)    $4,220,000
                                                                                                                                                                      cap
                                                                                                                                                                      Updated portfolio data from servicer & HAFA initial
                                                                                                                  12/30/2009               $520,000     $4,740,000
                                                                                                                                                                      cap
                                                                                                                   3/26/2010             $4,330,000     $9,070,000    Updated portfolio data from servicer
                                                                                                                                                                      Transfer of cap from CitiMortgage, Inc. due to
                                                                                                                   4/19/2010               $230,000     $9,300,000
                                                                                                                                                                      servicing transfer
                                                                                                                   5/19/2010               $850,000    $10,150,000    Initial 2MP cap
                                                                                                                   7/14/2010             ($850,000)     $9,300,000    Updated portfolio data from servicer
                                                                                                                   9/15/2010               $100,000     $9,400,000    Transfer of cap to due to servicing transfer
                                                                                                                   9/30/2010               $100,000     $9,500,000    Initial FHA-HAMP cap
                                                                                                                   9/30/2010            $16,755,064    $26,255,064    Updated portfolio data from servicer
                                                                                                                  10/15/2010               $100,000    $26,355,064    Transfer of cap due to servicing transfer
                                                                                                                  12/15/2010               $100,000    $26,455,064    Updated portfolio data from servicer
                                                                                                                    1/6/2011                   ($40)   $26,455,024    Updated portfolio data from servicer
                                                                                                                   1/13/2011               $300,000    $26,755,024    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                                                                                                                   2/16/2011               $100,000    $26,855,024    Transfer of cap due to servicing transfer
                                                                                                                   3/16/2011             $2,200,000    $29,055,024    Transfer of cap due to servicing transfer
                                                                                                                   3/30/2011                   ($52)   $29,054,972    Updated due to quarterly assessment and reallocation
                                                                                                                   4/13/2011             $1,500,000    $30,554,972    Transfer of cap due to servicing transfer
                                                                                                                   5/13/2011             $1,000,000    $31,554,972    Transfer of cap due to servicing transfer
                                                                                                                   6/16/2011               $100,000    $31,654,972    Transfer of cap due to servicing transfer
                                                                                                                   6/29/2011                  ($534)   $31,654,438    Updated due to quarterly assessment and reallocation
                                                      Financial
            Servis One, Inc., dba BSI                                                                              8/16/2011               $700,000    $32,354,438    Transfer of cap due to servicing transfer
                                                      Instrument for
8/12/2009   Financial Services, Inc.,   Purchase                               $29,730,000     N/A                                                                                                                            $797,812    $1,182,899         $870,115           $2,850,826
                                                      Home Loan                                                    9/15/2011             ($600,000)    $31,754,438    Transfer of cap due to servicing transfer
            Titusville, PA
                                                      Modifications
                                                                                                                  10/14/2011             $4,000,000    $35,754,438    Transfer of cap due to servicing transfer
                                                                                                                  11/16/2011               $600,000    $36,354,438    Transfer of cap due to servicing transfer
                                                                                                                  12/15/2011               $200,000    $36,554,438    Transfer of cap due to servicing transfer
                                                                                                                   1/13/2012               $100,000    $36,654,438    Transfer of cap due to servicing transfer
                                                                                                                   2/16/2012             $1,300,000    $37,954,438    Transfer of cap due to servicing transfer
                                                                                                                   3/15/2012             $1,100,000    $39,054,438    Transfer of cap due to servicing transfer
                                                                                                                   4/16/2012               $800,000    $39,854,438    Transfer of cap due to servicing transfer
                                                                                                                   5/16/2012            ($1,080,000)   $38,774,438    Transfer of cap due to servicing transfer
                                                                                                                   6/14/2012             $1,560,000    $40,334,438    Transfer of cap due to servicing transfer
                                                                                                                   6/28/2012                  ($465)   $40,333,973    Updated due to quarterly assessment and reallocation
                                                                                                                   8/16/2012                $70,000    $40,403,973    Transfer of cap due to servicing transfer
                                                                                                                   9/27/2012                ($1,272)   $40,402,701    Updated due to quarterly assessment and reallocation
                                                                                                                  10/16/2012             $2,100,000    $42,502,701    Transfer of cap due to servicing transfer
                                                                                                                  11/15/2012             $1,340,000    $43,842,701    Transfer of cap due to servicing transfer
                                                                                                                  12/14/2012             $1,160,000    $45,002,701    Transfer of cap due to servicing transfer
                                                                                                                  12/27/2012                  ($239)   $45,002,462    Updated due to quarterly assessment and reallocation
                                                                                                                   1/16/2013               $210,000    $45,212,462    Transfer of cap due to servicing transfer
                                                                                                                   2/14/2013             $1,790,000    $47,002,462    Transfer of cap due to servicing transfer
                                                                                                                   3/14/2013             $1,920,000    $48,922,462    Transfer of cap due to servicing transfer
                                                                                                                   3/25/2013                  ($960)   $48,921,502    Updated due to quarterly assessment and reallocation
                                                                                                                   4/16/2013               $410,000    $49,331,502    Transfer of cap due to servicing transfer
                                                                                                                   5/16/2013               ($60,000)   $49,271,502    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                      Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                             (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                 Adjustment Details                                                                                                            TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                      Lenders/                              Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                                Borrower’s       Investors          Servicers            Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount         Adjusted Cap    Reason for Adjustment                                   Incentives      Incentives         Incentives           Payments
                                                                                                                 6/14/2013             $1,620,000      $50,891,502    Transfer of cap due to servicing transfer
                                                                                                                 6/27/2013                  ($359)     $50,891,143    Updated due to quarterly assessment and reallocation
                                                                                                                 7/16/2013             $2,030,000      $52,921,143    Transfer of cap due to servicing transfer
                                                                                                                 8/15/2013                $10,000      $52,931,143    Transfer of cap due to servicing transfer
                                                                                                                 9/16/2013             $2,600,000      $55,531,143    Transfer of cap due to servicing transfer
                                                                                                                 9/27/2013                  ($135)     $55,531,008    Updated due to quarterly assessment and reallocation
                                                                                                                 10/2/2009           $145,800,000     $814,240,000    HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009      $1,355,930,000       $2,170,170,000
                                                                                                                                                                      cap
                                                                                                                 3/26/2010           $121,180,000    $2,291,350,000   Updated portfolio data from servicer
                                                                                                                 7/14/2010       ($408,850,000)      $1,882,500,000   Updated portfolio data from servicer
                                                                                                                 9/30/2010             $5,500,000    $1,888,000,000   2MP initial cap
                                                                                                                 9/30/2010           ($51,741,163)   $1,836,258,837   Updated portfolio data from servicer
                                                    Financial                                                     1/6/2011                ($2,282)   $1,836,256,555   Updated portfolio data from servicer
            OneWest Bank,                           Instrument for
8/28/2009                             Purchase                              $668,440,000     N/A                                                                                                                             $56,326,072   $188,473,660       $81,586,508        $326,386,240
            Pasadena, CA                            Home Loan                                                    3/30/2011                ($2,674)   $1,836,253,881   Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                 6/29/2011               ($24,616)   $1,836,229,265   Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012               ($15,481)   $1,836,213,784   Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012               ($40,606)   $1,836,173,178   Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012                ($6,688)   $1,836,166,490   Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013               ($24,811)   $1,836,141,679   Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013                ($9,058)   $1,836,132,621   Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2013                ($3,154)   $1,836,129,467   Updated due to quarterly assessment and reallocation
                                                                                                                 10/2/2009                $70,000         $370,000    HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009             $2,680,000       $3,050,000
                                                                                                                                                                      cap
                                                    Financial
            Stanford Federal Credit                 Instrument for                                               3/26/2010               $350,000       $3,400,000    Updated portfolio data from servicer
8/28/2009                             Purchase                                  $300,000     N/A                                                                                                                                    $—              $—                  $—                  $—
            Union, Palo Alto, CA                    Home Loan
                                                    Modifications                                                7/14/2010            ($1,900,000)      $1,500,000    Updated portfolio data from servicer
                                                                                                                 9/30/2010            ($1,209,889)        $290,111    Updated portfolio data from servicer
                                                                                                                 3/23/2010             ($290,111)              $—     Termination of SPA
                                                                                                                                                                                                                                                                          Continued on next page
                                                                                                                                                                                                                                                                                                   TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013
                                                                                                                                                                                                                                                                                                   449
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                            (CONTINUED)                                                                                                                                                                                            450
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                     TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                               Lenders/                              Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                            Borrower’s    Investors          Servicers            Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                                10/2/2009             $130,000        $700,000    HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer & HAFA initial
                                                                                                               12/30/2009            ($310,000)       $390,000
                                                                                                                                                                  cap
                                                                                                                3/26/2010            $2,110,000     $2,500,000    Updated portfolio data from servicer
                                                                                                                7/14/2010            $8,300,000    $10,800,000    Updated portfolio data from servicer
                                                                                                                9/30/2010            $5,301,172    $16,101,172    Updated portfolio data from servicer
                                                                                                                 1/6/2011                  ($22)   $16,101,150    Updated portfolio data from servicer
                                                                                                                3/16/2011            ($400,000)    $15,701,150    Transfer of cap due to servicing transfer
                                                                                                                3/30/2011                  ($25)   $15,701,125    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011                 ($232)   $15,700,893    Updated due to quarterly assessment and reallocation
                                                   Financial
            RoundPoint Mortgage
                                                   Instrument for                                               6/28/2012                 ($174)   $15,700,719    Updated due to quarterly assessment and reallocation
8/28/2009   Servicing Corporation,   Purchase                                  $570,000     N/A                                                                                                                           $200,354    $488,437           $389,912           $1,078,703
                                                   Home Loan
            Charlotte, NC                                                                                       9/27/2012                 ($479)   $15,700,240    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                               11/15/2012            ($350,000)    $15,350,240    Transfer of cap due to servicing transfer
                                                                                                               12/27/2012                  ($82)   $15,350,158    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013                 ($308)   $15,349,850    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                                                                                                                4/16/2013               $80,000    $15,429,850    Transfer of cap due to servicing transfer
                                                                                                                6/14/2013               $20,000    $15,449,850    Transfer of cap due to servicing transfer
                                                                                                                6/27/2013                 ($108)   $15,449,742    Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2013               $30,000    $15,479,742    Transfer of cap due to servicing transfer
                                                                                                                9/16/2013             $640,000     $16,119,742    Transfer of cap due to servicing transfer
                                                                                                                9/27/2013                  ($40)   $16,119,702    Updated due to quarterly assessment and reallocation
                                                                                                                10/2/2009             $130,000        $690,000    HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer & HAFA initial
                                                                                                               12/30/2009            $1,040,000     $1,730,000
                                                                                                                                                                  cap
                                                                                                                3/26/2010           ($1,680,000)       $50,000    Updated portfolio data from servicer
                                                                                                                5/12/2010            $1,260,000     $1,310,000    Updated portfolio data from servicer
                                                                                                                7/14/2010           ($1,110,000)      $200,000    Updated portfolio data from servicer
                                                                                                                9/30/2010             $100,000        $300,000    Initial RD-HAMP
                                                   Financial
            Horicon Bank,                          Instrument for                                               9/30/2010               ($9,889)      $290,111    Updated portfolio data from servicer
9/2/2009                             Purchase                                  $560,000     N/A                                                                                                                             $7,265     $16,804            $12,170              $36,238
            Horicon, WI                            Home Loan
                                                   Modifications                                                6/29/2011                   ($3)      $290,108    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012                   ($2)      $290,106    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012                   ($7)      $290,099    Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012                   ($1)      $290,098    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013                   ($4)      $290,094    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013                   ($2)      $290,092    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013                   ($1)      $290,091    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                  Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                                 (CONTINUED)
              Servicer Modifying Borrowers’ Loans                                                                   Adjustment Details                                                                                                     TARP Incentive Payments
                                                                              Cap of Incentive
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                               Lenders/                              Total TARP
                                          Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                            Borrower’s    Investors          Servicers            Incentive
Date          Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                                     10/2/2009            $1,310,000     $7,310,000    HPDP initial cap
                                                                                                                                                                       Updated portfolio data from servicer & HAFA initial
                                                                                                                    12/30/2009           ($3,390,000)    $3,920,000
                                                                                                                                                                       cap
                                                                                                                     3/26/2010             $410,000      $4,330,000    Updated portfolio data from servicer
                                                                                                                     7/14/2010            ($730,000)     $3,600,000    Updated portfolio data from servicer
                                                                                                                     9/15/2010            $4,700,000     $8,300,000    Transfer of cap due to servicing transfer
                                                                                                                     9/30/2010             $117,764      $8,417,764    Updated portfolio data from servicer
                                                                                                                    11/16/2010             $800,000      $9,217,764    Transfer of cap due to servicing transfer
                                                                                                                    12/15/2010            $2,700,000    $11,917,764    Updated portfolio data from servicer
                                                                                                                      1/6/2011                  ($17)   $11,917,747    Updated portfolio data from servicer
                                                                                                                     1/13/2011             $700,000     $12,617,747    Transfer of cap due to servicing transfer
                                                                                                                     2/16/2011            $1,800,000    $14,417,747    Transfer of cap due to servicing transfer
                                                                                                                     3/30/2011                  ($19)   $14,417,728    Updated due to quarterly assessment and reallocation
                                                                                                                     4/13/2011             $300,000     $14,717,728    Transfer of cap due to servicing transfer
                                                                                                                     6/29/2011                 ($189)   $14,717,539    Updated due to quarterly assessment and reallocation
                                                        Financial                                                    8/16/2011             $300,000     $15,017,539    Transfer of cap due to servicing transfer
9/2/2009 as   Vantium Capital, Inc.dba
                                                        Instrument for
amended on    Acqura Loan Services,       Purchase                                 $6,000,000    N/A         10                                                                                                                $240,972    $489,046           $392,136           $1,122,153
                                                        Home Loan                                                    9/15/2011             $100,000     $15,117,539    Transfer of cap due to servicing transfer
8/27/2010     Plano, TX
                                                        Modifications
                                                                                                                    10/14/2011             $100,000     $15,217,539    Transfer of cap due to servicing transfer
                                                                                                                     6/28/2012                 ($147)   $15,217,392    Updated due to quarterly assessment and reallocation
                                                                                                                     7/16/2012              ($10,000)   $15,207,392    Transfer of cap due to servicing transfer
                                                                                                                     9/27/2012                 ($413)   $15,206,979    Updated due to quarterly assessment and reallocation
                                                                                                                    11/15/2012              ($40,000)   $15,166,979    Transfer of cap due to servicing transfer
                                                                                                                    12/27/2012                  ($71)   $15,166,908    Updated due to quarterly assessment and reallocation
                                                                                                                     2/14/2013            ($770,000)    $14,396,908    Transfer of cap due to servicing transfer
                                                                                                                     3/14/2013              ($20,000)   $14,376,908    Transfer of cap due to servicing transfer
                                                                                                                     3/25/2013                 ($256)   $14,376,652    Updated due to quarterly assessment and reallocation
                                                                                                                     4/16/2013            ($620,000)    $13,756,652    Transfer of cap due to servicing transfer
                                                                                                                     5/16/2013               $40,000    $13,796,652    Transfer of cap due to servicing transfer
                                                                                                                     6/14/2013               $10,000    $13,806,652    Transfer of cap due to servicing transfer
                                                                                                                     6/27/2013                  ($95)   $13,806,557    Updated due to quarterly assessment and reallocation
                                                                                                                     7/16/2013            ($290,000)    $13,516,557    Transfer of cap due to servicing transfer
                                                                                                                     9/27/2013                  ($34)   $13,516,523    Updated due to quarterly assessment and reallocation
                                                                                                                     10/2/2009             $280,000      $1,530,000    HPDP initial cap
                                                                                                                                                                       Updated portfolio data from servicer & HAFA initial
                                                                                                                    12/30/2009            ($750,000)       $780,000
                                                                                                                                                                       cap
                                                                                                                     3/26/2010             $120,000        $900,000    Updated portfolio data from servicer
                                                                                                                     7/14/2010            ($300,000)       $600,000    Updated portfolio data from servicer
                                                                                                                     9/30/2010             $270,334        $870,334    Updated portfolio data from servicer
                                                                                                                      1/6/2011                   ($1)      $870,333    Updated portfolio data from servicer
                                                        Financial
              Central Florida Educators
                                                        Instrument for                                               3/30/2011                   ($1)      $870,332    Updated due to quarterly assessment and reallocation
9/9/2009      Federal Credit Union,       Purchase                                 $1,250,000    N/A                                                                                                                           $100,097    $169,425           $208,299             $477,820
                                                        Home Loan
              Lake May, FL                                                                                           6/29/2011                   ($5)      $870,327    Updated due to quarterly assessment and reallocation
                                                        Modifications
                                                                                                                     6/28/2012               $21,717       $892,044    Updated due to quarterly assessment and reallocation
                                                                                                                     9/27/2012             $190,077      $1,082,121    Updated due to quarterly assessment and reallocation
                                                                                                                    12/27/2012               $35,966     $1,118,087    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




                                                                                                                     3/25/2013               $59,464     $1,177,551    Updated due to quarterly assessment and reallocation
                                                                                                                     6/27/2013               $35,438     $1,212,989    Updated due to quarterly assessment and reallocation
                                                                                                                     9/27/2013               $26,926     $1,239,915    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                                                451
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                            (CONTINUED)                                                                                                                                                                                               452
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                        TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                   Lenders/                             Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                              Borrower’s      Investors         Servicers            Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount        Adjusted Cap   Reason for Adjustment                                   Incentives     Incentives        Incentives           Payments
                                                                                                                10/2/2009            $24,920,000    $139,140,000   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer & HAFA initial
                                                                                                               12/30/2009            $49,410,000    $188,550,000
                                                                                                                                                                   cap
                                                                                                                3/26/2010            $41,830,000    $230,380,000   Updated portfolio data from servicer
                                                                                                                7/14/2010           ($85,780,000)   $144,600,000   Updated portfolio data from servicer
                                                                                                                9/30/2010            $36,574,444    $181,174,444   Updated portfolio data from servicer
                                                                                                                 1/6/2011                  ($160)   $181,174,284   Updated portfolio data from servicer
                                                   Financial
            U.S. Bank National
                                                   Instrument for                                               3/30/2011                  ($172)   $181,174,112   Updated due to quarterly assessment and reallocation
9/9/2009    Association,             Purchase                              $114,220,000     N/A                                                                                                                           $11,293,758   $27,770,081      $20,423,591          $59,487,430
                                                   Home Loan
            Owensboro, KY                                                                                       6/29/2011                ($1,431)   $181,172,681   Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                6/28/2012                  ($746)   $181,171,935   Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012                ($1,926)   $181,170,009   Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012                  ($308)   $181,169,701   Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013                ($1,135)   $181,168,566   Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013                  ($418)   $181,168,148   Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013                  ($139)   $181,168,009   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                              APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                                                                                                                10/2/2009               $950,000      $5,300,000   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer & HAFA initial
                                                                                                               12/30/2009             $5,700,000     $11,000,000
                                                                                                                                                                   cap
                                                                                                                3/26/2010               $740,000     $11,740,000   Updated portfolio data from servicer
                                                                                                                7/14/2010            ($1,440,000)    $10,300,000   Updated portfolio data from servicer
                                                                                                                9/30/2010            ($6,673,610)     $3,626,390   Updated portfolio data from servicer
                                                                                                                 1/6/2011                    ($5)     $3,626,385   Updated portfolio data from servicer
                                                   Financial
            CUC Mortgage
                                                   Instrument for                                               3/30/2011                    ($6)     $3,626,379   Updated due to quarterly assessment and reallocation
9/9/2009    Corporation,             Purchase                                 $4,350,000    N/A                                                                                                                              $51,055      $135,247           $93,770             $280,071
                                                   Home Loan
            Albany, NY                                                                                          6/29/2011                   ($52)     $3,626,327   Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                6/28/2012                   ($38)     $3,626,289   Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012                  ($107)     $3,626,182   Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012                   ($18)     $3,626,164   Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013                   ($69)     $3,626,095   Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013                   ($26)     $3,626,069   Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013                    ($9)     $3,626,060   Updated due to quarterly assessment and reallocation
                                                                                                                10/2/2009               $460,000      $2,530,000   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer & HAFA initial
                                                                                                               12/30/2009             $2,730,000      $5,260,000
                                                                                                                                                                   cap
                                                                                                                3/26/2010            $13,280,000     $18,540,000   Updated portfolio data from servicer
                                                                                                                7/14/2010           ($13,540,000)     $5,000,000   Updated portfolio data from servicer
                                                                                                                9/30/2010             $1,817,613      $6,817,613   Updated portfolio data from servicer
                                                                                                                 1/6/2011                   ($10)     $6,817,603   Updated portfolio data from servicer
                                                   Financial
            ORNL Federal Credit                    Instrument for                                               3/30/2011                   ($12)     $6,817,591   Updated due to quarterly assessment and reallocation
9/11/2009                            Purchase                                 $2,070,000    N/A                                                                                                                              $12,230       $26,490           $35,996              $74,717
            Union, Oak Ridge, TN                   Home Loan
                                                   Modifications                                                6/29/2011                  ($115)     $6,817,476   Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012                   ($86)     $6,817,390   Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012                  ($236)     $6,817,154   Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012                   ($40)     $6,817,114   Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013                  ($149)     $6,816,965   Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013                   ($56)     $6,816,909   Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013                   ($20)     $6,816,889   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                     Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                               (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                   Adjustment Details                                                                                                      TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                                Lenders/                              Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                             Borrower’s    Investors          Servicers            Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount        Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                                   10/2/2009                $60,000       $310,000    HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer & HAFA initial
                                                                                                                  12/30/2009               ($80,000)      $230,000
                                                                                                                                                                      cap
                                                                                                                   3/26/2010               $280,000       $510,000    Updated portfolio data from servicer
                                                      Financial                                                    7/14/2010             ($410,000)       $100,000    Updated portfolio data from servicer
            Allstate Mortgage Loans
                                                      Instrument for
9/11/2009   & Investments, Inc.,        Purchase                                  $250,000     N/A                                                                                                                              $5,036       $9,743             $8,036             $22,815
                                                      Home Loan                                                    9/30/2010                $45,056       $145,056    Updated portfolio data from servicer
            Ocala, FL
                                                      Modifications
                                                                                                                   6/29/2011                    ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                                                                                   6/28/2012                    ($1)      $145,054    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012                    ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013                    ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                                                                                   10/2/2009                $70,000       $350,000    HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer & HAFA initial
                                                                                                                  12/30/2009               $620,000       $970,000
                                                                                                                                                                      cap
                                                      Financial                                                    3/26/2010               $100,000     $1,070,000    Updated portfolio data from servicer
            Metropolitan National                     Instrument for
9/11/2009                               Purchase                                  $280,000     N/A                                                                                                                                 $—           $—                  $—                  $—
            Bank, Little Rock, AR                     Home Loan                                                    7/14/2010             ($670,000)       $400,000    Updated portfolio data from servicer
                                                      Modifications
                                                                                                                   9/30/2010                $35,167       $435,167    Updated portfolio data from servicer
                                                                                                                    1/6/2011                    ($1)      $435,166    Updated portfolio data from servicer
                                                                                                                   1/26/2011             ($435,166)            $—     Termination of SPA
                                                                                                                   10/2/2009             $6,010,000    $33,520,000    HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer & HAFA initial
                                                                                                                  12/30/2009           ($19,750,000)   $13,770,000
                                                                                                                                                                      cap
                                                                                                                   3/26/2010            ($4,780,000)    $8,990,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010            ($2,390,000)    $6,600,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010             $2,973,670     $9,573,670    Updated portfolio data from servicer
                                                                                                                    1/6/2011                    ($3)    $9,573,667    Updated portfolio data from servicer
                                                                                                                   2/16/2011            ($1,800,000)    $7,773,667    Transfer of cap due to servicing transfer
                                                      Financial
            Franklin Credit
                                                      Instrument for                                               3/30/2011                    ($6)    $7,773,661    Updated due to quarterly assessment and reallocation
9/11/2009   Management Corporation,     Purchase                               $27,510,000     N/A                                                                                                                            $333,554    $637,486           $737,024           $1,708,064
                                                      Home Loan
            Jersey City, NJ                                                                                        6/29/2011                   ($61)    $7,773,600    Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                  10/14/2011             ($100,000)     $7,673,600    Transfer of cap due to servicing transfer
                                                                                                                   6/28/2012                   ($58)    $7,673,542    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012                  ($164)    $7,673,378    Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012                   ($29)    $7,673,349    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013                  ($110)    $7,673,239    Updated due to quarterly assessment and reallocation
                                                                                                                   6/27/2013                   ($42)    $7,673,197    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2013                   ($15)    $7,673,182    Updated due to quarterly assessment and reallocation
                                                                                                                   10/2/2009                $90,000       $500,000    HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer & HAFA initial
                                                                                                                  12/30/2009             $1,460,000     $1,960,000
                                                                                                                                                                      cap
                                                                                                                   3/26/2010               $160,000     $2,120,000    Updated portfolio data from servicer
                                                      Financial                                                    7/14/2010             ($120,000)     $2,000,000    Updated portfolio data from servicer
            Bay Federal Credit Union,                 Instrument for
9/16/2009                               Purchase                                  $410,000     N/A                                                                                                                                 $—           $—                  $—                  $—
            Capitola, CA                              Home Loan                                                    9/30/2010            ($1,419,778)      $580,222    Updated portfolio data from servicer
                                                      Modifications
                                                                                                                    1/6/2011                    ($1)      $580,221    Updated portfolio data from servicer
                                                                                                                   3/30/2011                    ($1)      $580,220    Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011                    ($8)      $580,212    Updated due to quarterly assessment and reallocation
                                                                                                                   1/25/2012             ($580,212)            $—     Termination of SPA
                                                                                                                                                                                                                                                                                               TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




                                                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                                                               453
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                            (CONTINUED)                                                                                                                                                                                            454
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                     TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                               Lenders/                              Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                            Borrower’s    Investors          Servicers            Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                                10/2/2009             $960,000      $5,350,000    HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer & HAFA initial
                                                                                                               12/30/2009           ($3,090,000)    $2,260,000
                                                                                                                                                                  cap
                                                                                                                3/26/2010             $230,000      $2,490,000    Updated portfolio data from servicer
                                                                                                                7/14/2010            $5,310,000     $7,800,000    Updated portfolio data from servicer
                                                                                                                9/30/2010             $323,114      $8,123,114    Updated portfolio data from servicer
                                                                                                                 1/6/2011                  ($12)    $8,123,102    Updated portfolio data from servicer
                                                                                                                3/16/2011             $600,000      $8,723,102    Transfer of cap due to servicing transfer
                                                                                                                3/30/2011                  ($16)    $8,723,086    Updated due to quarterly assessment and reallocation
                                                                                                                4/13/2011             $200,000      $8,923,086    Transfer of cap due to servicing transfer
                                                                                                                5/13/2011             $100,000      $9,023,086    Transfer of cap due to servicing transfer
                                                                                                                6/29/2011                 ($153)    $9,022,933    Updated due to quarterly assessment and reallocation
                                                                                                                9/15/2011             $100,000      $9,122,933    Transfer of cap due to servicing transfer
                                                                                                               11/16/2011             $100,000      $9,222,933    Transfer of cap due to servicing transfer
                                                                                                                4/16/2012            $1,100,000    $10,322,933    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                                                                                                                6/14/2012             $650,000     $10,972,933    Transfer of cap due to servicing transfer
                                                   Financial
            AMS Servicing, LLC,                    Instrument for                                               6/28/2012                 ($136)   $10,972,797    Updated due to quarterly assessment and reallocation
9/23/2009                            Purchase                                 $4,390,000    N/A                                                                                                                            $26,366    $123,505            $79,575             $229,446
            Buffalo, NY                            Home Loan
                                                   Modifications                                                9/27/2012                 ($347)   $10,972,450    Updated due to quarterly assessment and reallocation
                                                                                                               10/16/2012             $250,000     $11,222,450    Transfer of cap due to servicing transfer
                                                                                                               11/15/2012               $30,000    $11,252,450    Transfer of cap due to servicing transfer
                                                                                                               12/14/2012              ($10,000)   $11,242,450    Transfer of cap due to servicing transfer
                                                                                                               12/27/2012                  ($59)   $11,242,391    Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2013               $20,000    $11,262,391    Transfer of cap due to servicing transfer
                                                                                                                2/14/2013             $290,000     $11,552,391    Transfer of cap due to servicing transfer
                                                                                                                3/14/2013               $10,000    $11,562,391    Transfer of cap due to servicing transfer
                                                                                                                3/25/2013                 ($220)   $11,562,171    Updated due to quarterly assessment and reallocation
                                                                                                                4/16/2013              ($60,000)   $11,502,171    Transfer of cap due to servicing transfer
                                                                                                                5/16/2013               $50,000    $11,552,171    Transfer of cap due to servicing transfer
                                                                                                                6/14/2013               $10,000    $11,562,171    Transfer of cap due to servicing transfer
                                                                                                                6/27/2013                  ($79)   $11,562,092    Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2013              ($90,000)   $11,472,092    Transfer of cap due to servicing transfer
                                                                                                                9/16/2013             $310,000     $11,782,092    Transfer of cap due to servicing transfer
                                                                                                                9/27/2013                  ($28)   $11,782,064    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                  Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                               (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                   Adjustment Details                                                                                                   TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                             Lenders/                              Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                          Borrower’s    Investors          Servicers            Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                                   10/2/2009             $90,000       $480,000    HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer & HAFA initial
                                                                                                                  12/30/2009            $940,000     $1,420,000
                                                                                                                                                                   cap
                                                                                                                   3/26/2010           ($980,000)      $440,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010           ($140,000)      $300,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010           $1,150,556    $1,450,556    Updated portfolio data from servicer
                                                                                                                    1/6/2011                 ($2)    $1,450,554    Updated portfolio data from servicer
                                                      Financial
            Schools Financial Credit                  Instrument for                                               3/30/2011                 ($2)    $1,450,552    Updated due to quarterly assessment and reallocation
9/23/2009                               Purchase                                  $390,000     N/A                                                                                                                          $20,667     $53,919            $35,500             $110,085
            Union, Sacramento, CA                     Home Loan
                                                      Modifications                                                6/29/2011                ($22)    $1,450,530    Updated due to quarterly assessment and reallocation
                                                                                                                   6/28/2012                ($16)    $1,450,514    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012                ($44)    $1,450,470    Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012                 ($7)    $1,450,463    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013                ($28)    $1,450,435    Updated due to quarterly assessment and reallocation
                                                                                                                   6/27/2013                ($11)    $1,450,424    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2013                 ($4)    $1,450,420    Updated due to quarterly assessment and reallocation
                                                                                                                   10/2/2009             $60,000       $290,000    HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer & HAFA initial
                                                                                                                  12/30/2009            ($10,000)      $280,000
                                                                                                                                                                   cap
                                                                                                                   3/26/2010            $130,000       $410,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010           ($110,000)      $300,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010             ($9,889)      $290,111    Updated portfolio data from servicer
                                                      Financial
            Glass City Federal Credit
                                                      Instrument for                                               6/29/2011                 ($3)      $290,108    Updated due to quarterly assessment and reallocation
9/23/2009   Union,                      Purchase                                  $230,000     N/A                                                                                                                           $4,000       $2,474             $6,000             $12,474
                                                      Home Loan
            Maumee, OH                                                                                             6/28/2012                 ($2)      $290,106    Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                   9/27/2012                 ($7)      $290,099    Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012                 ($1)      $290,098    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013                 ($4)      $290,094    Updated due to quarterly assessment and reallocation
                                                                                                                   6/27/2013                 ($2)      $290,092    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2013                 ($1)      $290,091    Updated due to quarterly assessment and reallocation
                                                                                                                   10/2/2009             $10,000        $40,000    HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer & HAFA initial
                                                                                                                  12/30/2009            $120,000       $160,000
                                                                                                                                                                   cap
                                                      Financial
            Central Jersey Federal
                                                      Instrument for                                               3/26/2010             $10,000       $170,000    Updated portfolio data from servicer
9/23/2009   Credit Union,               Purchase                                     30,000    N/A                                                                                                                              $—           $—                  $—                  $—
                                                      Home Loan
            Woodbridge, NJ                                                                                         7/14/2010            ($70,000)      $100,000    Updated portfolio data from servicer
                                                      Modifications
                                                                                                                   9/30/2010             $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                  10/29/2010           ($145,056)           $—     Termination of SPA
                                                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013
                                                                                                                                                                                                                                                                                            455
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                                (CONTINUED)                                                                                                                                                                                            456
             Servicer Modifying Borrowers’ Loans                                                                   Adjustment Details                                                                                                     TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                               Lenders/                              Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                            Borrower’s    Investors          Servicers            Incentive
Date         Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                                    10/2/2009               $60,000       $300,000    HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer & HAFA initial
                                                                                                                   12/30/2009             $350,000        $650,000
                                                                                                                                                                      cap
                                                                                                                    3/26/2010            $1,360,000     $2,010,000    Updated portfolio data from servicer
                                                                                                                    7/14/2010           ($1,810,000)      $200,000    Updated portfolio data from servicer
                                                                                                                    9/30/2010             $235,167        $435,167    Updated portfolio data from servicer
                                                       Financial                                                     1/6/2011                   ($1)      $435,166    Updated portfolio data from servicer
             Yadkin Valley Bank,                       Instrument for
9/23/2009                                Purchase                                  $240,000     N/A                                                                                                                            $22,829     $27,427            $42,429              $92,684
             Elkin, NC                                 Home Loan                                                    6/29/2011                   ($4)      $435,162    Updated due to quarterly assessment and reallocation
                                                       Modifications
                                                                                                                    6/28/2012                   ($3)      $435,159    Updated due to quarterly assessment and reallocation
                                                                                                                    9/27/2012                   ($7)      $435,152    Updated due to quarterly assessment and reallocation
                                                                                                                   12/27/2012                   ($1)      $435,151    Updated due to quarterly assessment and reallocation
                                                                                                                    3/25/2013                   ($5)      $435,146    Updated due to quarterly assessment and reallocation
                                                                                                                    6/27/2013                   ($2)      $435,144    Updated due to quarterly assessment and reallocation
                                                                                                                    9/27/2013                   ($1)      $435,143    Updated due to quarterly assessment and reallocation
                                                                                                                    10/2/2009             $100,000        $540,000    HPDP initial cap
                                                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                                                                                                                                                                      Updated portfolio data from servicer & HAFA initial
                                                                                                                   12/30/2009               $20,000       $560,000
                                                                                                                                                                      cap
                                                       Financial                                                    3/26/2010            ($290,000)       $270,000    Updated portfolio data from servicer
                                                       Instrument for
9/25/2009    SEFCU, Albany, NY           Purchase                                  $440,000     N/A                                                                                                                                $—           $—                  $—                  $—
                                                       Home Loan                                                    7/14/2010              ($70,000)      $200,000    Updated portfolio data from servicer
                                                       Modifications
                                                                                                                    9/30/2010              ($54,944)      $145,056    Updated portfolio data from servicer
                                                                                                                    6/29/2011                   ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                                                                                    4/11/2012            ($145,055)            $—     Termination of SPA
                                                                                                                                                                      Updated portfolio data from servicer & HAFA initial
                                                                                                                   12/30/2009            $1,030,000     $1,600,000
                                                                                                                                                                      cap
                                                                                                                    3/26/2010            ($880,000)       $720,000    Updated portfolio data from servicer
                                                                                                                    7/14/2010            ($320,000)       $400,000    Updated portfolio data from servicer
                                                                                                                    9/30/2010             $180,222        $580,222    Updated portfolio data from servicer
                                                                                                                     1/6/2011                   ($1)      $580,221    Updated portfolio data from servicer
                                                       Financial                                                    3/30/2011                   ($1)      $580,220    Updated due to quarterly assessment and reallocation
             Great Lakes Credit Union,                 Instrument for
10/14/2009                               Purchase                                  $570,000     N/A                                                                                                                             $8,833     $16,231            $12,100              $37,164
             North Chicago, IL                         Home Loan                                                    6/29/2011                   ($8)      $580,212    Updated due to quarterly assessment and reallocation
                                                       Modifications
                                                                                                                    6/28/2012                   ($6)      $580,206    Updated due to quarterly assessment and reallocation
                                                                                                                    9/27/2012                  ($17)      $580,189    Updated due to quarterly assessment and reallocation
                                                                                                                   12/27/2012                   ($3)      $580,186    Updated due to quarterly assessment and reallocation
                                                                                                                    3/25/2013                  ($11)      $580,175    Updated due to quarterly assessment and reallocation
                                                                                                                    6/27/2013                   ($4)      $580,171    Updated due to quarterly assessment and reallocation
                                                                                                                    9/27/2013                   ($1)      $580,170    Updated due to quarterly assessment and reallocation
                                                                                                                                                                      Updated portfolio data from servicer & HAFA initial
                                                                                                                   12/30/2009           ($2,900,000)    $1,960,000
                                                                                                                                                                      cap
                                                       Financial                                                    3/26/2010           ($1,600,000)      $360,000    Updated portfolio data from servicer
             Mortgage Clearing                         Instrument for
10/14/2009                               Purchase                                 $4,860,000    N/A                                                                                                                                $—           $—                  $—                  $—
             Corporation, Tulsa, OK                    Home Loan                                                    7/14/2010            ($260,000)       $100,000    Updated portfolio data from servicer
                                                       Modifications
                                                                                                                    9/30/2010               $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                     3/9/2011            ($145,056)            $—     Termination of SPA
                                                                                                                                                                                                                                                                      Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                               (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                  Adjustment Details                                                                                                       TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                                  Lenders/                             Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                             Borrower’s      Investors         Servicers            Incentive
Date         Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount        Adjusted Cap   Reason for Adjustment                                  Incentives     Incentives        Incentives           Payments
                                                                                                                   1/22/2010                $20,000       $430,000    Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010               $400,000       $830,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010             ($430,000)       $400,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010               $180,222       $580,222    Updated portfolio data from servicer
                                                                                                                    1/6/2011                    ($1)      $580,221    Updated portfolio data from servicer

                                                      Financial                                                    3/30/2011                    ($1)      $580,220    Updated due to quarterly assessment and reallocation
             United Bank Mortgage
                                                      Instrument for
10/21/2009   Corporation,               Purchase                                  $410,000     N/A                 6/29/2011                    ($5)      $580,215    Updated due to quarterly assessment and reallocation     $34,449       $69,676           $57,835             $161,960
                                                      Home Loan
             Grand Rapids, MI
                                                      Modifications                                                6/28/2012                    ($4)      $580,211    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012                   ($11)      $580,200    Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012                    ($2)      $580,198    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013                    ($7)      $580,191    Updated due to quarterly assessment and reallocation
                                                                                                                   6/27/2013                    ($2)      $580,189    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2013                    ($1)      $580,188    Updated due to quarterly assessment and reallocation
                                                                                                                   1/22/2010             $4,370,000     $98,030,000   Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010            $23,880,000    $121,910,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010           ($16,610,000)   $105,300,000   Updated portfolio data from servicer
                                                                                                                   9/30/2010             $1,751,033    $107,051,033   Updated portfolio data from servicer
                                                                                                                    1/6/2011                   ($77)   $107,050,956   Updated portfolio data from servicer
                                                                                                                   3/16/2011            ($9,900,000)    $97,150,956   Transfer of cap due to servicing transfer
                                                                                                                   3/30/2011                   ($88)    $97,150,868   Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011                  ($773)    $97,150,095   Updated due to quarterly assessment and reallocation
                                                      Financial
             Bank United,                             Instrument for                                               3/15/2012            ($1,400,000)    $95,750,095   Transfer of cap due to servicing transfer
10/23/2009                              Purchase                               $93,660,000     N/A                                                                                                                           $7,250,507   $20,527,402      $11,197,925          $38,975,834
             Miami Lakes, FL                          Home Loan                                                    6/28/2012                  ($277)    $95,749,818   Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                   9/27/2012                  ($549)    $95,749,269   Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012                   ($65)    $95,749,204   Updated due to quarterly assessment and reallocation
                                                                                                                   2/14/2013            ($2,670,000)    $93,079,204   Transfer of cap due to servicing transfer
                                                                                                                   3/25/2013                  ($142)    $93,079,062   Updated due to quarterly assessment and reallocation
                                                                                                                   5/16/2013             ($610,000)     $92,469,062   Transfer of cap due to servicing transfer
                                                                                                                   6/27/2013                   ($48)    $92,469,014   Updated due to quarterly assessment and reallocation
                                                                                                                   9/16/2013               ($40,000)    $92,429,014   Transfer of cap due to servicing transfer
                                                                                                                   9/27/2013                   ($14)    $92,429,000   Updated due to quarterly assessment and reallocation
                                                                                                                   1/22/2010                $40,000       $800,000    Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010             ($760,000)        $40,000    Updated portfolio data from servicer
                                                                                                                   5/12/2010             $2,630,000      $2,670,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010             ($770,000)      $1,900,000   Updated portfolio data from servicer
                                                                                                                   9/30/2010               $565,945      $2,465,945   Updated portfolio data from servicer
                                                                                                                    1/6/2011                    ($4)     $2,465,941   Updated portfolio data from servicer
                                                      Financial
             IC Federal Credit Union,                 Instrument for                                               3/30/2011                    ($4)     $2,465,937   Updated due to quarterly assessment and reallocation
10/23/2009                              Purchase                                  $760,000     N/A                                                                                                                             $19,333       $39,216           $32,600              $91,150
             Fitchburg, MA                            Home Loan                                                    6/29/2011                   ($40)     $2,465,897   Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                   6/28/2012                   ($29)     $2,465,868   Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012                   ($80)     $2,465,788   Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012                   ($14)     $2,465,774   Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013                   ($52)     $2,465,722   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




                                                                                                                   6/27/2013                   ($19)     $2,465,703   Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2013                    ($7)     $2,465,696   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                                                457
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                                 (CONTINUED)                                                                                                                                                                                            458
             Servicer Modifying Borrowers’ Loans                                                                    Adjustment Details                                                                                                     TARP Incentive Payments
                                                                              Cap of Incentive
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                               Lenders/                              Total TARP
                                          Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                            Borrower’s    Investors          Servicers            Incentive
Date         Name of Institution          Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                        Financial
             Harleysville National Bank
                                                        Instrument for
10/28/2009   & Trust Company,             Purchase                                 $1,070,000    N/A                 4/21/2010           ($1,070,000)           $—     Termination of SPA                                           $—           $—                  $—                  $—
                                                        Home Loan
             Harleysville, PA
                                                        Modifications
                                                        Financial
             Members Mortgage
                                                        Instrument for
10/28/2009   Company, Inc,                Purchase                                  $510,000     N/A                 4/21/2010            ($510,000)            $—     Termination of SPA                                           $—           $—                  $—                  $—
                                                        Home Loan
             Woburn, MA
                                                        Modifications
                                                                                                                     1/22/2010               $10,000        $80,000    Updated HPDP cap & HAFA initial cap
                                                                                                                     3/26/2010               $10,000        $90,000    Updated portfolio data from servicer

                                                        Financial                                                    7/14/2010               $10,000       $100,000    Updated portfolio data from servicer
             DuPage Credit Union,                       Instrument for
10/30/2009                                Purchase                                    $70,000    N/A                 9/30/2010               $45,056       $145,056    Updated portfolio data from servicer                      $6,028     $27,914            $11,328              $45,271
             Naperville, IL                             Home Loan
                                                        Modifications                                                6/29/2011                   ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                                                                                     9/27/2012                   ($1)      $145,054    Updated due to quarterly assessment and reallocation
                                                                                                                     3/25/2013                   ($1)      $145,053    Updated due to quarterly assessment and reallocation
                                                                                                                     1/22/2010               $40,000       $740,000    Updated HPDP cap & HAFA initial cap
                                                                                                                     3/26/2010               $50,000       $790,000    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                                APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                                                                                                                     7/14/2010            $1,310,000     $2,100,000    Updated portfolio data from servicer
                                                                                                                     9/30/2010               $75,834     $2,175,834    Updated portfolio data from servicer
                                                                                                                      1/6/2011                   ($3)    $2,175,831    Updated portfolio data from servicer

                                                        Financial                                                    3/30/2011                   ($4)    $2,175,827    Updated due to quarterly assessment and reallocation
             Los Alamos National                        Instrument for
11/6/2009                                 Purchase                                  $700,000     N/A                 6/29/2011                  ($35)    $2,175,792    Updated due to quarterly assessment and reallocation     $25,054     $33,207            $43,268             $101,529
             Bank, Los Alamos, NM                       Home Loan
                                                        Modifications                                                6/28/2012                  ($26)    $2,175,766    Updated due to quarterly assessment and reallocation
                                                                                                                     9/27/2012                  ($70)    $2,175,696    Updated due to quarterly assessment and reallocation
                                                                                                                    12/27/2012                  ($12)    $2,175,684    Updated due to quarterly assessment and reallocation
                                                                                                                     3/25/2013                  ($45)    $2,175,639    Updated due to quarterly assessment and reallocation
                                                                                                                     6/27/2013                  ($17)    $2,175,622    Updated due to quarterly assessment and reallocation
                                                                                                                     9/27/2013                   ($6)    $2,175,616    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                       Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                                (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                   Adjustment Details                                                                                                     TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                               Lenders/                              Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                            Borrower’s    Investors          Servicers            Incentive
Date         Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                                    1/22/2010             $890,000     $19,850,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010            $3,840,000    $23,690,000    Updated portfolio data from servicer
                                                                                                                    7/14/2010           ($2,890,000)   $20,800,000    Updated portfolio data from servicer
                                                                                                                    9/30/2010            $9,661,676    $30,461,676    Updated portfolio data from servicer
                                                                                                                     1/6/2011                  ($46)   $30,461,630    Updated portfolio data from servicer
                                                                                                                    1/13/2011            $1,600,000    $32,061,630    Transfer of cap due to servicing transfer
                                                                                                                    2/16/2011            $1,400,000    $33,461,630    Transfer of cap due to servicing transfer
                                                                                                                    3/30/2011                  ($58)   $33,461,572    Updated due to quarterly assessment and reallocation
                                                                                                                    4/13/2011             $100,000     $33,561,572    Transfer of cap due to servicing transfer
                                                                                                                    5/13/2011             $100,000     $33,661,572    Transfer of cap due to servicing transfer
                                                                                                                    6/16/2011             $800,000     $34,461,572    Transfer of cap due to servicing transfer
                                                                                                                    6/29/2011                 ($559)   $34,461,013    Updated due to quarterly assessment and reallocation

                                                       Financial                                                    7/14/2011             $300,000     $34,761,013    Transfer of cap due to servicing transfer
             Quantum Servicing                         Instrument for
11/18/2009                               Purchase                               $18,960,000     N/A                 8/16/2011             $200,000     $34,961,013    Transfer of cap due to servicing transfer               $133,393    $331,714           $179,984             $645,091
             Corporation, Tampa, FL                    Home Loan
                                                       Modifications                                                9/15/2011             $100,000     $35,061,013    Transfer of cap due to servicing transfer
                                                                                                                    1/13/2012             $100,000     $35,161,013    Transfer of cap due to servicing transfer
                                                                                                                    6/14/2012             $330,000     $35,491,013    Transfer of cap due to servicing transfer
                                                                                                                    6/28/2012                 ($428)   $35,490,585    Updated due to quarterly assessment and reallocation
                                                                                                                    9/27/2012               ($1,184)   $35,489,401    Updated due to quarterly assessment and reallocation
                                                                                                                   10/16/2012           ($1,910,000)   $33,579,401    Transfer of cap due to servicing transfer
                                                                                                                   11/15/2012            ($980,000)    $32,599,401    Transfer of cap due to servicing transfer
                                                                                                                   12/27/2012                 ($187)   $32,599,214    Updated due to quarterly assessment and reallocation
                                                                                                                    3/25/2013                 ($707)   $32,598,507    Updated due to quarterly assessment and reallocation
                                                                                                                    4/16/2013            ($240,000)    $32,358,507    Transfer of cap due to servicing transfer
                                                                                                                    6/27/2013                 ($268)   $32,358,239    Updated due to quarterly assessment and reallocation
                                                                                                                    7/16/2013               $10,000    $32,368,239    Transfer of cap due to servicing transfer
                                                                                                                    9/27/2013                  ($96)   $32,368,143    Updated due to quarterly assessment and reallocation
                                                                                                                    1/22/2010               $80,000     $1,750,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010             $330,000      $2,080,000    Updated portfolio data from servicer
                                                                                                                    7/14/2010           ($1,080,000)    $1,000,000    Updated portfolio data from servicer
                                                                                                                    9/30/2010             $160,445      $1,160,445    Updated portfolio data from servicer
                                                                                                                     1/6/2011                   ($1)    $1,160,444    Updated portfolio data from servicer

                                                       Financial                                                    3/30/2011                   ($2)    $1,160,442    Updated due to quarterly assessment and reallocation
             Hillsdale County National
                                                       Instrument for
11/18/2009   Bank,                       Purchase                                 $1,670,000    N/A                 6/29/2011                  ($16)    $1,160,426    Updated due to quarterly assessment and reallocation     $29,420     $37,174            $54,400             $120,994
                                                       Home Loan
             Hillsdale, MI
                                                       Modifications                                                6/28/2012                  ($12)    $1,160,414    Updated due to quarterly assessment and reallocation
                                                                                                                    9/27/2012                  ($33)    $1,160,381    Updated due to quarterly assessment and reallocation
                                                                                                                   12/27/2012                   ($6)    $1,160,375    Updated due to quarterly assessment and reallocation
                                                                                                                    3/25/2013                  ($21)    $1,160,354    Updated due to quarterly assessment and reallocation
                                                                                                                    6/27/2013                   ($8)    $1,160,346    Updated due to quarterly assessment and reallocation
                                                                                                                    9/27/2013                   ($3)    $1,160,343    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                                                               TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013
                                                                                                                                                                                                                                                                                               459
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                             (CONTINUED)                                                                                                                                                                                             460
             Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                      TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                Lenders/                              Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                             Borrower’s    Investors          Servicers            Incentive
Date         Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount        Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                                 3/26/2010               ($10,000)       $10,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010                $90,000       $100,000    Updated portfolio data from servicer

                                                    Financial                                                    9/30/2010                $45,056       $145,056    Updated portfolio data from servicer
             QLending, Inc.,                        Instrument for
11/18/2009                            Purchase                                    $20,000    N/A                 6/29/2011                    ($1)      $145,055    Updated due to quarterly assessment and reallocation         $—           $—                  $—                  $—
             Coral Gables, FL                       Home Loan
                                                    Modifications                                                6/28/2012                    ($1)      $145,054    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012                    ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013                    ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                                                                                 1/22/2010               $950,000    $21,310,000    Updated HPDP cap & HAFA initial cap
                                                                                                                 3/26/2010           ($17,880,000)    $3,430,000    Updated portfolio data from servicer
                                                                                                                                                                    Transfer of cap from CitiMortgage, Inc. due to
                                                                                                                 6/16/2010             $1,030,000     $4,460,000
                                                                                                                                                                    servicing transfer
                                                                                                                 7/14/2010            ($1,160,000)    $3,300,000    Updated portfolio data from servicer
                                                                                                                 8/13/2010               $800,000     $4,100,000    Transfer of cap due to servicing transfer
                                                                                                                 9/30/2010               $200,000     $4,300,000    Initial FHA-HAMP cap and initial RD-HAMP
                                                                                                                 9/30/2010             $1,357,168     $5,657,168    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                                                                                                                  1/6/2011                    ($1)    $5,657,167    Updated portfolio data from servicer
                                                                                                                 3/16/2011             $5,700,000    $11,357,167    Transfer of cap due to servicing transfer
                                                                                                                 3/30/2011                    ($6)   $11,357,161    Updated due to quarterly assessment and reallocation
                                                                                                                 4/13/2011             $7,300,000    $18,657,161    Transfer of cap due to servicing transfer
                                                                                                                 5/13/2011               $300,000    $18,957,161    Transfer of cap due to servicing transfer
                                                                                                                 6/16/2011               $900,000    $19,857,161    Transfer of cap due to servicing transfer
                                                                                                                 6/29/2011                  ($154)   $19,857,007    Updated due to quarterly assessment and reallocation
                                                                                                                 7/14/2011               $100,000    $19,957,007    Transfer of cap due to servicing transfer
                                                                                                                 8/16/2011               $300,000    $20,257,007    Transfer of cap due to servicing transfer
                                                    Financial                                                    1/13/2012            ($1,500,000)   $18,757,007    Transfer of cap due to servicing transfer
             Marix Servicing, LLC,                  Instrument for
11/25/2009                            Purchase                               $20,360,000     N/A                                                                                                                            $352,196    $970,197           $839,633           $2,162,025
             Phoenix, AZ                            Home Loan                                                    2/16/2012            ($2,100,000)   $16,657,007    Transfer of cap due to servicing transfer
                                                    Modifications
                                                                                                                 4/16/2012            ($1,300,000)   $15,357,007    Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012            ($8,350,000)    $7,007,007    Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012                   ($38)    $7,006,969    Updated due to quarterly assessment and reallocation
                                                                                                                 8/16/2012               ($90,000)    $6,916,969    Transfer of cap due to servicing transfer
                                                                                                                 9/27/2012                  ($103)    $6,916,866    Updated due to quarterly assessment and reallocation
                                                                                                                10/16/2012            ($1,020,000)    $5,896,866    Transfer of cap due to servicing transfer
                                                                                                                11/15/2012               $170,000     $6,066,866    Transfer of cap due to servicing transfer
                                                                                                                12/27/2012                   ($15)    $6,066,851    Updated due to quarterly assessment and reallocation
                                                                                                                 2/14/2013             ($100,000)     $5,966,851    Transfer of cap due to servicing transfer
                                                                                                                 3/14/2013             ($490,000)     $5,476,851    Transfer of cap due to servicing transfer
                                                                                                                 3/25/2013                   ($61)    $5,476,790    Updated due to quarterly assessment and reallocation
                                                                                                                 4/16/2013               ($10,000)    $5,466,790    Transfer of cap due to servicing transfer
                                                                                                                 5/16/2013               ($30,000)    $5,436,790    Transfer of cap due to servicing transfer
                                                                                                                 6/14/2013               ($10,000)    $5,426,790    Transfer of cap due to servicing transfer
                                                                                                                 6/27/2013                   ($23)    $5,426,767    Updated due to quarterly assessment and reallocation
                                                                                                                 7/16/2013               ($20,000)    $5,406,767    Transfer of cap due to servicing transfer
                                                                                                                 9/27/2013                    ($8)    $5,406,759    Updated due to quarterly assessment and reallocation
                                                    Financial
             Home Financing Center,                 Instrument for
11/25/2009                            Purchase                                  $230,000     N/A                 4/21/2010             ($230,000)            $—     Termination of SPA                                           $—           $—                  $—                  $—
             Inc, Coral Gables, FL                  Home Loan
                                                    Modifications
                                                                                                                                                                                                                                                                    Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                               (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                  Adjustment Details                                                                                                      TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                                Lenders/                              Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                             Borrower’s    Investors          Servicers            Incentive
Date         Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount        Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                                   1/22/2010                $50,000     $1,330,000    Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010             $1,020,000     $2,350,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010             ($950,000)     $1,400,000    Updated portfolio data from servicer

                                                      Financial                                                    9/30/2010                $50,556     $1,450,556    Updated portfolio data from servicer
             First Keystone Bank,                     Instrument for
11/25/2009                              Purchase                                 $1,280,000    N/A         12       1/6/2011                    ($2)    $1,450,554    Updated portfolio data from servicer                      $2,776       $3,423             $8,718             $14,917
             Media, PA                                Home Loan
                                                      Modifications                                                3/30/2011                    ($2)    $1,450,552    Updated due to quarterly assessment and reallocation
                                                                                                                   6/16/2011             ($100,000)     $1,350,552    Transfer of cap due to servicing transfer
                                                                                                                   6/29/2011                   ($21)    $1,350,531    Updated due to quarterly assessment and reallocation
                                                                                                                   7/22/2011            ($1,335,614)       $14,917    Termination of SPA
                                                                                                                   1/22/2010                $10,000       $390,000    Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010               $520,000       $910,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010             ($810,000)       $100,000    Updated portfolio data from servicer
                                                      Financial
             Community Bank & Trust                                                                                9/30/2010                $45,056       $145,056    Updated portfolio data from servicer
                                                      Instrument for
12/4/2009    Company,                   Purchase                                  $380,000     N/A                                                                                                                                 $—           $—                  $—                  $—
                                                      Home Loan                                                    6/29/2011                    ($1)      $145,055    Updated due to quarterly assessment and reallocation
             Clarks Summit, PA
                                                      Modifications
                                                                                                                   6/28/2012                    ($1)      $145,054    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012                    ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013                    ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                                                                                   1/22/2010               $440,000     $9,870,000    Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010            $14,480,000    $24,350,000    Updated portfolio data from servicer
                                                                                                                   5/26/2010           ($24,200,000)      $150,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010               $150,000       $300,000    Updated portfolio data from servicer

                                                      Financial                                                    9/30/2010                ($9,889)      $290,111    Updated portfolio data from servicer
             Idaho Housing and
                                                      Instrument for
12/4/2009    Finance Association,       Purchase                                 $9,430,000    N/A                 6/29/2011                    ($3)      $290,108    Updated due to quarterly assessment and reallocation     $21,092     $22,743            $28,220              $72,055
                                                      Home Loan
             Boise, ID
                                                      Modifications                                                6/28/2012                    ($2)      $290,106    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012                    ($6)      $290,100    Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012                    ($1)      $290,099    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013                    ($3)      $290,096    Updated due to quarterly assessment and reallocation
                                                                                                                   6/27/2013                    ($1)      $290,095    Updated due to quarterly assessment and reallocation
                                                                                                                   1/22/2010                $10,000       $370,000    Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010               $850,000     $1,220,000    Updated portfolio data from servicer

                                                      Financial                                                    7/14/2010             ($120,000)     $1,100,000    Updated portfolio data from servicer
             Spirit of Alaska Federal
                                                      Instrument for
12/9/2009    Credit Union,              Purchase                                  $360,000     N/A                 9/30/2010               $100,000     $1,200,000    Initial FHA-HAMP cap                                         $—           $—                  $—                  $—
                                                      Home Loan
             Fairbanks, AK
                                                      Modifications                                                9/30/2010               $105,500     $1,305,500    Updated portfolio data from servicer
                                                                                                                    1/6/2011                    ($2)    $1,305,498    Updated portfolio data from servicer
                                                                                                                   2/17/2011            ($1,305,498)           $—     Termination of SPA
                                                                                                                   1/22/2010                $70,000     $1,660,000    Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010             ($290,000)     $1,370,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010             ($570,000)       $800,000    Updated portfolio data from servicer
                                                      Financial
             American Eagle Federal                                                                                9/30/2010                $70,334       $870,334    Updated portfolio data from servicer
                                                      Instrument for
12/9/2009    Credit Union,              Purchase                                 $1,590,000    N/A                                                                                                                                 $—           $—                  $—                  $—
                                                      Home Loan                                                     1/6/2011                    ($1)      $870,333    Updated portfolio data from servicer
             East Hartford, CT
                                                      Modifications
                                                                                                                   3/30/2011                    ($1)      $870,332    Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011                   ($13)      $870,319    Updated due to quarterly assessment and reallocation
                                                                                                                   1/25/2012             ($870,319)            $—     Termination of SPA
                                                                                                                                                                                                                                                                                               TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




                                                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                                                               461
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                            (CONTINUED)                                                                                                                                                                                            462
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                     TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                               Lenders/                              Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                            Borrower’s    Investors          Servicers            Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                                1/22/2010               $90,000     $1,970,000    Updated HPDP cap & HAFA initial cap
                                                                                                                3/26/2010            $1,110,000     $3,080,000    Updated portfolio data from servicer
                                                                                                                7/14/2010           ($1,180,000)    $1,900,000    Updated portfolio data from servicer
                                                                                                                9/30/2010             $275,834      $2,175,834    Updated portfolio data from servicer
                                                                                                                 1/6/2011                   ($2)    $2,175,832    Updated portfolio data from servicer

                                                   Financial                                                    3/30/2011                   ($3)    $2,175,829    Updated due to quarterly assessment and reallocation
            Silver State Schools
                                                   Instrument for
12/9/2009   Credit Union,            Purchase                                 $1,880,000    N/A         12      6/29/2011                  ($26)    $2,175,803    Updated due to quarterly assessment and reallocation     $40,356    $176,299            $69,189             $285,844
                                                   Home Loan
            Las Vegas, NV
                                                   Modifications                                                6/28/2012                  ($21)    $2,175,782    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012                  ($57)    $2,175,725    Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012                  ($10)    $2,175,715    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013                  ($37)    $2,175,678    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013                  ($15)    $2,175,663    Updated due to quarterly assessment and reallocation
                                                                                                                 7/9/2013           ($1,889,819)      $285,844    Termination of SPA
                                                                                                                1/22/2010             $140,000      $3,080,000    Updated HPDP cap & HAFA initial cap
                                                                                                                3/26/2010            $6,300,000     $9,380,000    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                                                                                                                7/14/2010           ($1,980,000)    $7,400,000    Updated portfolio data from servicer
                                                                                                                9/30/2010           ($6,384,611)    $1,015,389    Updated portfolio data from servicer
                                                                                                                 1/6/2011                   ($1)    $1,015,388    Updated portfolio data from servicer

                                                   Financial                                                    3/30/2011                   ($2)    $1,015,386    Updated due to quarterly assessment and reallocation
            Fidelity Homestead
                                                   Instrument for
12/9/2009   Savings Bank,            Purchase                                 $2,940,000    N/A                 6/29/2011                  ($16)    $1,015,370    Updated due to quarterly assessment and reallocation         $—           $—              $4,000              $4,000
                                                   Home Loan
            New Orleans, LA
                                                   Modifications                                                6/28/2012                  ($12)    $1,015,358    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012                  ($32)    $1,015,326    Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012                   ($5)    $1,015,321    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013                  ($21)    $1,015,300    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013                   ($8)    $1,015,292    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013                   ($3)    $1,015,289    Updated due to quarterly assessment and reallocation
                                                                                                                1/22/2010               $10,000       $240,000    Updated HPDP cap & HAFA initial cap

                                                   Financial                                                    3/26/2010             $440,000        $680,000    Updated portfolio data from servicer
            Bay Gulf Credit Union,                 Instrument for
12/9/2009                            Purchase                                  $230,000     N/A                 7/14/2010              ($80,000)      $600,000    Updated portfolio data from servicer                         $—           $—                  $—                  $—
            Tampa, FL                              Home Loan
                                                   Modifications                                                9/30/2010              ($19,778)      $580,222    Updated portfolio data from servicer
                                                                                                               10/15/2010            ($580,222)            $—     Termination of SPA
                                                                                                                1/22/2010             $290,000      $6,450,000    Updated HPDP cap & HAFA initial cap
                                                                                                                3/26/2010               $40,000     $6,490,000    Updated portfolio data from servicer
                                                                                                                7/14/2010           ($2,890,000)    $3,600,000    Updated portfolio data from servicer
                                                                                                                9/30/2010             $606,612      $4,206,612    Updated portfolio data from servicer
                                                                                                                 1/6/2011                   ($4)    $4,206,608    Updated portfolio data from servicer

                                                   Financial                                                    3/30/2011                   ($4)    $4,206,604    Updated due to quarterly assessment and reallocation
            The Golden 1 Credit                    Instrument for
12/9/2009                            Purchase                                 $6,160,000    N/A                 6/29/2011                  ($35)    $4,206,569    Updated due to quarterly assessment and reallocation    $279,782    $873,370           $519,259           $1,672,412
            Union, Sacramento, CA                  Home Loan
                                                   Modifications                                                6/28/2012                   ($9)    $4,206,560    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012                  ($14)    $4,206,546    Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012                   ($2)    $4,206,544    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013                   ($8)    $4,206,536    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013                   ($4)    $4,206,532    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013                   ($1)    $4,206,531    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                  Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                               (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                  Adjustment Details                                                                                                     TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                               Lenders/                              Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                            Borrower’s    Investors          Servicers            Incentive
Date         Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                                   1/22/2010             $100,000      $2,350,000    Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010            ($740,000)     $1,610,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010            ($710,000)       $900,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010             $550,556      $1,450,556    Updated portfolio data from servicer
                                                                                                                    1/6/2011                   ($1)    $1,450,555    Updated portfolio data from servicer
                                                      Financial
             Sterling Savings Bank,                   Instrument for                                               3/30/2011                   ($1)    $1,450,554    Updated due to quarterly assessment and reallocation
12/9/2009                               Purchase                                 $2,250,000    N/A                                                                                                                           $160,089    $343,664           $280,079             $783,832
             Spokane, WA                              Home Loan                                                    6/29/2011                  ($11)    $1,450,543    Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                   9/27/2012               $30,907     $1,481,450    Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012               $58,688     $1,540,138    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013             $235,175      $1,775,313    Updated due to quarterly assessment and reallocation
                                                                                                                   6/27/2013               $84,191     $1,859,504    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2013               $13,786     $1,873,290    Updated due to quarterly assessment and reallocation
                                                                                                                   1/22/2010               $20,000       $330,000    Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010             $820,000      $1,150,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010            ($350,000)       $800,000    Updated portfolio data from servicer

                                                      Financial                                                    9/30/2010               $70,334       $870,334    Updated portfolio data from servicer
             HomeStar Bank &
                                                      Instrument for
12/11/2009   Financial Services,        Purchase                                  $310,000     N/A         12       1/6/2011                   ($1)      $870,333    Updated portfolio data from servicer                      $1,917       $5,573             $5,833             $13,323
                                                      Home Loan
             Manteno, IL
                                                      Modifications                                                3/30/2011                   ($1)      $870,332    Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011                  ($13)      $870,319    Updated due to quarterly assessment and reallocation
                                                                                                                   6/28/2012                  ($10)      $870,309    Updated due to quarterly assessment and reallocation
                                                                                                                    7/6/2012            ($856,986)        $13,323    Termination of SPA

                                                      Financial                                                    1/22/2010               $20,000       $390,000    Updated HPDP cap & HAFA initial cap
             Glenview State Bank,                     Instrument for
12/11/2009                              Purchase                                  $370,000     N/A                 3/26/2010            $1,250,000     $1,640,000    Updated portfolio data from servicer                         $—           $—                  $—                  $—
             Glenview, IL                             Home Loan
                                                      Modifications                                                5/26/2010           ($1,640,000)           $—     Termination of SPA
                                                                                                                   1/22/2010               $30,000       $630,000    Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010             $400,000      $1,030,000    Updated portfolio data from servicer
                                                      Financial
             Verity Credit Union,                     Instrument for                                               7/14/2010            ($330,000)       $700,000    Updated portfolio data from servicer
12/11/2009                              Purchase                                  $600,000     N/A                                                                                                                                $—           $—                  $—                  $—
             Seattle, WA                              Home Loan                                                    9/30/2010               $25,278       $725,278    Updated portfolio data from servicer
                                                      Modifications
                                                                                                                    1/6/2011                   ($1)      $725,277    Updated portfolio data from servicer
                                                                                                                   2/17/2011            ($725,277)            $—     Termination of SPA
                                                                                                                   1/22/2010               $30,000       $660,000    Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010             $800,000      $1,460,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010            ($360,000)     $1,100,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010               $60,445     $1,160,445    Updated portfolio data from servicer
                                                                                                                    1/6/2011                   ($2)    $1,160,443    Updated portfolio data from servicer

                                                      Financial                                                    3/30/2011                   ($2)    $1,160,441    Updated due to quarterly assessment and reallocation
             Hartford Savings Bank,                   Instrument for
12/11/2009                              Purchase                                  $630,000     N/A                 6/29/2011                  ($18)    $1,160,423    Updated due to quarterly assessment and reallocation         $—           $—                  $—                  $—
             Hartford, WI                             Home Loan
                                                      Modifications                                                6/28/2012                  ($14)    $1,160,409    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012                  ($37)    $1,160,372    Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012                   ($6)    $1,160,366    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013                  ($24)    $1,160,342    Updated due to quarterly assessment and reallocation
                                                                                                                   6/27/2013                   ($9)    $1,160,333    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2013                   ($3)    $1,160,330    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




                                                      Financial                                                    4/21/2010            ($150,000)            $—     Termination of SPA
             The Bryn Mawr Trust Co.,                 Instrument for
12/11/2009                              Purchase                                  $150,000     N/A          9                                                                                                                 $10,197     $12,668              $8,436             $31,300
             Bryn Mawr, PA                            Home Loan                                                    6/16/2011             $100,000        $100,000    Transfer of cap due to servicing transfer
                                                      Modifications
                                                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                                                              463
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                                (CONTINUED)                                                                                                                                                                                            464
             Servicer Modifying Borrowers’ Loans                                                                   Adjustment Details                                                                                                     TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                               Lenders/                              Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                            Borrower’s    Investors          Servicers            Incentive
Date         Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                                    1/22/2010               $30,000       $650,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010            ($580,000)        $70,000    Updated portfolio data from servicer
                                                                                                                    7/14/2010            $1,430,000     $1,500,000    Updated portfolio data from servicer
                                                                                                                    9/30/2010               $95,612     $1,595,612    Updated portfolio data from servicer
                                                                                                                     1/6/2011                   ($2)    $1,595,610    Updated portfolio data from servicer

                                                       Financial                                                    3/30/2011                   ($3)    $1,595,607    Updated due to quarterly assessment and reallocation
             Citizens First National                   Instrument for
12/16/2009                               Purchase                                  $620,000     N/A                 6/29/2011                  ($24)    $1,595,583    Updated due to quarterly assessment and reallocation     $21,063     $55,940            $40,730             $117,733
             Bank, Spring Valley, IL                   Home Loan
                                                       Modifications                                                6/28/2012                  ($16)    $1,595,567    Updated due to quarterly assessment and reallocation
                                                                                                                    9/27/2012                  ($45)    $1,595,522    Updated due to quarterly assessment and reallocation
                                                                                                                   12/27/2012                   ($8)    $1,595,514    Updated due to quarterly assessment and reallocation
                                                                                                                    3/25/2013                  ($30)    $1,595,484    Updated due to quarterly assessment and reallocation
                                                                                                                    6/27/2013                  ($11)    $1,595,473    Updated due to quarterly assessment and reallocation
                                                                                                                    9/27/2013                   ($4)    $1,595,469    Updated due to quarterly assessment and reallocation
                                                                                                                    1/22/2010               $10,000       $180,000    Updated HPDP cap & HAFA initial cap

                                                       Financial                                                    3/26/2010               $30,000       $210,000    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




             Golden Plains Credit                      Instrument for
12/16/2009                               Purchase                                  $170,000     N/A                 7/14/2010              ($10,000)      $200,000    Updated portfolio data from servicer                         $—           $—                  $—                  $—
             Union, Garden City, KS                    Home Loan
                                                       Modifications                                                9/30/2010               $90,111       $290,111    Updated portfolio data from servicer
                                                                                                                    2/17/2011            ($290,111)            $—     Termination of SPA
             First Federal Savings                     Financial                                                    1/22/2010             $160,000      $3,620,000    Updated HPDP cap & HAFA initial cap
             and Loan Association of                   Instrument for
12/16/2009                               Purchase                                 $3,460,000    N/A                                                                                                                                $—           $—                  $—                  $—
             Lakewood,                                 Home Loan                                                    4/21/2010           ($3,620,000)           $—     Termination of SPA
             Lakewood, OH                              Modifications
                                                                                                                    1/22/2010               $20,000       $460,000    Updated HPDP cap & HAFA initial cap
                                                       Financial
             Sound Community Bank,                     Instrument for                                               3/26/2010            $1,430,000     $1,890,000    Updated portfolio data from servicer
12/16/2009                               Purchase                                  $440,000     N/A                                                                                                                                $—           $—                  $—                  $—
             Seattle, WA                               Home Loan                                                    7/14/2010            ($390,000)     $1,500,000    Updated portfolio data from servicer
                                                       Modifications
                                                                                                                     9/8/2010           ($1,500,000)           $—     Termination of SPA
                                                                                                                    1/22/2010               $30,000       $730,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010            $1,740,000     $2,470,000    Updated portfolio data from servicer
                                                                                                                    7/14/2010           ($1,870,000)      $600,000    Updated portfolio data from servicer

                                                       Financial                                                    9/30/2010             $850,556      $1,450,556    Updated portfolio data from servicer
             Horizon Bank, NA,                         Instrument for
12/16/2009                               Purchase                                  $700,000     N/A                  1/6/2011                   ($2)    $1,450,554    Updated portfolio data from servicer                         $—           $—                  $—                  $—
             Michigan City, IN                         Home Loan
                                                       Modifications                                                3/30/2011                   ($2)    $1,450,552    Updated due to quarterly assessment and reallocation
                                                                                                                    6/29/2011                  ($23)    $1,450,529    Updated due to quarterly assessment and reallocation
                                                                                                                    6/28/2012                  ($17)    $1,450,512    Updated due to quarterly assessment and reallocation
                                                                                                                    9/21/2012           ($1,450,512)           $—     Termination of SPA
                                                                                                                    1/22/2010               $40,000       $800,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010             $140,000        $940,000    Updated portfolio data from servicer
                                                                                                                    7/14/2010            ($140,000)       $800,000    Updated portfolio data from servicer

                                                       Financial                                                    9/30/2010               $70,334       $870,334    Updated portfolio data from servicer
             Park View Federal Savings
                                                       Instrument for
12/16/2009   Bank,                       Purchase                                  $760,000     N/A         12       1/6/2011                   ($1)      $870,333    Updated portfolio data from servicer                     $11,000     $23,937            $19,000              $53,937
                                                       Home Loan
             Solon, OH
                                                       Modifications                                                3/30/2011                   ($1)      $870,332    Updated due to quarterly assessment and reallocation
                                                                                                                    6/29/2011                  ($12)      $870,320    Updated due to quarterly assessment and reallocation
                                                                                                                    6/28/2012                  ($10)      $870,310    Updated due to quarterly assessment and reallocation
                                                                                                                    9/14/2012            ($816,373)        $53,937    Termination of SPA
                                                                                                                                                                                                                                                                      Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                              (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                 Adjustment Details                                                                                                     TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                               Lenders/                              Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                            Borrower’s    Investors          Servicers            Incentive
Date         Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                                  1/22/2010             $200,000      $4,430,000    Updated HPDP cap & HAFA initial cap
                                                                                                                  3/26/2010           ($1,470,000)    $2,960,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010           ($1,560,000)    $1,400,000    Updated portfolio data from servicer
                                                     Financial
             Iberiabank,                             Instrument for                                               9/30/2010            $5,852,780     $7,252,780    Updated portfolio data from servicer
12/23/2009                             Purchase                                 $4,230,000    N/A         12                                                                                                                     $—      $10,502            $15,000              $25,502
             Sarasota, FL                            Home Loan                                                     1/6/2011                  ($11)    $7,252,769    Updated portfolio data from servicer
                                                     Modifications
                                                                                                                  3/30/2011                  ($13)    $7,252,756    Updated due to quarterly assessment and reallocation
                                                                                                                  4/13/2011            ($300,000)     $6,952,756    Transfer of cap due to servicing transfer
                                                                                                                   6/3/2011           ($6,927,254)       $25,502    Termination of SPA
                                                                                                                  1/22/2010               $20,000       $360,000    Updated HPDP cap & HAFA initial cap
                                                                                                                  3/26/2010            ($320,000)        $40,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010             $760,000        $800,000    Updated portfolio data from servicer
                                                     Financial
             Grafton Suburban Credit                                                                              9/30/2010              ($74,722)      $725,278    Updated portfolio data from servicer
                                                     Instrument for
12/23/2009   Union,                    Purchase                                  $340,000     N/A                                                                                                                                $—           $—                  $—                  $—
                                                     Home Loan                                                     1/6/2011                   ($1)      $725,277    Updated portfolio data from servicer
             North Grafton, MA
                                                     Modifications
                                                                                                                  3/30/2011                   ($1)      $725,276    Updated due to quarterly assessment and reallocation
                                                                                                                  6/29/2011                  ($11)      $725,265    Updated due to quarterly assessment and reallocation
                                                                                                                  1/25/2012            ($725,265)            $—     Termination of SPA
                                                                                                                  3/26/2010               $90,000       $150,000    Updated portfolio data from servicer
                                                     Financial
             Eaton National Bank &                                                                                7/14/2010               $50,000       $200,000    Updated portfolio data from servicer
                                                     Instrument for
12/23/2009   Trust Company,            Purchase                                    $60,000    N/A                                                                                                                                $—           $—                  $—                  $—
                                                     Home Loan                                                    9/30/2010              ($54,944)      $145,056    Updated portfolio data from servicer
             Eaton, OH
                                                     Modifications
                                                                                                                  5/20/2011            ($145,056)            $—     Termination of SPA
                                                                                                                  3/26/2010              ($20,000)       $90,000    Updated portfolio data from servicer
                                                     Financial
             Tempe Schools Credit                    Instrument for                                               7/14/2010               $10,000       $100,000    Updated portfolio data from servicer
12/23/2009                             Purchase                                  $110,000     N/A                                                                                                                                $—           $—                  $—                  $—
             Union, Tempe, AZ                        Home Loan                                                    9/30/2010               $45,056       $145,056    Updated portfolio data from servicer
                                                     Modifications
                                                                                                                  12/8/2010            ($145,056)            $—     Termination of SPA
                                                                                                                  3/26/2010             $480,000        $740,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010            ($140,000)       $600,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010              ($19,778)      $580,222    Updated portfolio data from servicer
                                                     Financial
             Fresno County Federal                                                                                 1/6/2011                   ($1)      $580,221    Updated portfolio data from servicer
                                                     Instrument for
1/13/2010    Credit Union,             Purchase                                  $260,000     N/A         12                                                                                                                  $3,833     $13,204              $7,917             $24,954
                                                     Home Loan                                                    3/30/2011                   ($1)      $580,220    Updated due to quarterly assessment and reallocation
             Fresno, CA
                                                     Modifications
                                                                                                                  6/29/2011                   ($8)      $580,212    Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012                   ($6)      $580,206    Updated due to quarterly assessment and reallocation
                                                                                                                   7/6/2012            ($555,252)        $24,954    Termination of SPA
                                                                                                                  3/26/2010             $610,000        $850,000    Updated portfolio data from servicer

                                                     Financial                                                    7/14/2010               $50,000       $900,000    Updated portfolio data from servicer
             Roebling Bank,                          Instrument for
1/13/2010                              Purchase                                  $240,000     N/A                 9/30/2010              ($29,666)      $870,334    Updated portfolio data from servicer                         $—           $—                  $—                  $—
             Roebling, NJ                            Home Loan
                                                     Modifications                                                 1/6/2011                   ($1)      $870,333    Updated portfolio data from servicer
                                                                                                                  3/23/2011            ($870,333)            $—     Termination of SPA
                                                                                                                  3/26/2010             $150,000        $290,000    Updated portfolio data from servicer
                                                     Financial
             First National Bank of                                                                               7/14/2010               $10,000       $300,000    Updated portfolio data from servicer
                                                     Instrument for
1/13/2010    Grant Park,               Purchase                                  $140,000     N/A                                                                                                                                $—           $—                  $—                  $—
                                                     Home Loan                                                    9/30/2010               ($9,889)      $290,111    Updated portfolio data from servicer
             Grant Park, IL
                                                     Modifications
                                                                                                                  1/26/2011            ($290,111)            $—     Termination of SPA
                                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013
                                                                                                                                                                                                                                                                                             465
                                                                                                                                                                                                                                                                                            466
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                            (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                      TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                Lenders/                              Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                             Borrower’s    Investors          Servicers            Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount        Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                                3/26/2010           ($51,240,000)    $12,910,000   Updated portfolio data from servicer
                                                                                                                                                                   Transfer of cap from CitiMortgage, Inc. due to
                                                                                                                5/14/2010             $3,000,000     $15,910,000
                                                                                                                                                                   servicing transfer
                                                                                                                                                                   Transfer of cap from CitiMortgage, Inc. due to
                                                                                                                6/16/2010             $4,860,000     $20,770,000
                                                                                                                                                                   servicing transfer
                                                                                                                7/14/2010             $3,630,000     $24,400,000   Updated portfolio data from servicer
                                                                                                                                                                   Transfer of cap from CitiMortgage, Inc. due to
                                                                                                                7/16/2010               $330,000     $24,730,000
                                                                                                                                                                   servicing transfer
                                                                                                                8/13/2010               $700,000     $25,430,000   Transfer of cap due to servicing transfer
                                                                                                                9/15/2010               $200,000     $25,630,000   Transfer of cap due to servicing transfer
                                                                                                                9/30/2010            ($1,695,826)    $23,934,174   Updated portfolio data from servicer
                                                                                                               11/16/2010               $200,000     $24,134,174   Transfer of cap due to servicing transfer
                                                                                                                 1/6/2011                   ($32)    $24,134,142   Updated portfolio data from servicer
                                                                                                                1/13/2011             $1,500,000     $25,634,142   Transfer of cap due to servicing transfer
                                                                                                                3/16/2011             $7,100,000     $32,734,142   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                                                                                                                3/30/2011                   ($36)    $32,734,106   Updated due to quarterly assessment and reallocation
                                                                                                                4/13/2011             $1,000,000     $33,734,106   Transfer of cap due to servicing transfer
                                                                                                                5/13/2011               $100,000     $33,834,106   Transfer of cap due to servicing transfer
                                                                                                                6/16/2011               $300,000     $34,134,106   Transfer of cap due to servicing transfer
                                                                                                                6/29/2011                  ($332)    $34,133,774   Updated due to quarterly assessment and reallocation
                                                                                                                8/16/2011               $100,000     $34,233,774   Transfer of cap due to servicing transfer
                                                                                                                9/15/2011               $300,000     $34,533,774   Transfer of cap due to servicing transfer
                                                                                                               10/14/2011               $300,000     $34,833,774   Transfer of cap due to servicing transfer
                                                                                                               12/15/2011            ($1,700,000)    $33,133,774   Transfer of cap due to servicing transfer
                                                   Financial
            Specialized Loan                                                                                    1/13/2012             $1,600,000     $34,733,774   Transfer of cap due to servicing transfer
                                                   Instrument for
1/13/2010   Servicing, LLC,          Purchase                               $64,150,000     N/A                                                                                                                           $3,848,421   $7,182,037        $6,015,303         $17,045,761
                                                   Home Loan                                                    2/16/2012               $100,000     $34,833,774   Transfer of cap due to servicing transfer
            Highlands Ranch, CO
                                                   Modifications
                                                                                                                3/15/2012               $100,000     $34,933,774   Transfer of cap due to servicing transfer
                                                                                                                4/16/2012            $77,600,000    $112,533,774   Transfer of cap due to servicing transfer
                                                                                                                5/16/2012                $40,000    $112,573,774   Transfer of cap due to servicing transfer
                                                                                                                6/14/2012             ($350,000)    $112,223,774   Transfer of cap due to servicing transfer
                                                                                                                6/28/2012                ($1,058)   $112,222,716   Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2012             $4,430,000    $116,652,716   Transfer of cap due to servicing transfer
                                                                                                                8/16/2012            ($1,280,000)   $115,372,716   Transfer of cap due to servicing transfer
                                                                                                                9/27/2012                ($3,061)   $115,369,655   Updated due to quarterly assessment and reallocation
                                                                                                               10/16/2012             $5,600,000    $120,969,655   Transfer of cap due to servicing transfer
                                                                                                               11/15/2012               $880,000    $121,849,655   Transfer of cap due to servicing transfer
                                                                                                               12/14/2012            $24,180,000    $146,029,655   Transfer of cap due to servicing transfer
                                                                                                               12/27/2012                  ($663)   $146,028,992   Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2013             $2,410,000    $148,438,992   Transfer of cap due to servicing transfer
                                                                                                                2/14/2013             $6,650,000    $155,088,992   Transfer of cap due to servicing transfer
                                                                                                                3/14/2013            ($1,450,000)   $153,638,992   Transfer of cap due to servicing transfer
                                                                                                                3/25/2013                ($2,584)   $153,636,408   Updated due to quarterly assessment and reallocation
                                                                                                                4/16/2013             ($750,000)    $152,886,408   Transfer of cap due to servicing transfer
                                                                                                                5/16/2013            ($1,250,000)   $151,636,408   Transfer of cap due to servicing transfer
                                                                                                                6/14/2013             $3,670,000    $155,306,408   Transfer of cap due to servicing transfer
                                                                                                                6/27/2013                  ($985)   $155,305,423   Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2013            ($3,720,000)   $151,585,423   Transfer of cap due to servicing transfer
                                                                                                                9/16/2013             ($180,000)    $151,405,423   Transfer of cap due to servicing transfer
                                                                                                                9/27/2013                  ($346)   $151,405,077   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                   Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                              (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                  Adjustment Details                                                                                                      TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                                Lenders/                              Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                             Borrower’s    Investors          Servicers            Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount        Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                                  3/26/2010             $8,680,000     $9,450,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010            ($8,750,000)      $700,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010               $170,334       $870,334    Updated portfolio data from servicer
                                                                                                                   1/6/2011                    ($1)      $870,333    Updated portfolio data from servicer
                                                                                                                  3/30/2011                    ($1)      $870,332    Updated due to quarterly assessment and reallocation
                                                     Financial
            Greater Nevada Mortgage                                                                               6/29/2011                    ($8)      $870,324    Updated due to quarterly assessment and reallocation
                                                     Instrument for
1/13/2010   Services,                  Purchase                                  $770,000     N/A                                                                                                                             $58,684    $137,158            $93,824             $289,666
                                                     Home Loan                                                    6/28/2012                    ($4)      $870,320    Updated due to quarterly assessment and reallocation
            Carson City, NV
                                                     Modifications
                                                                                                                  9/27/2012                   ($10)      $870,310    Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012                    ($2)      $870,308    Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013                    ($7)      $870,301    Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013                    ($2)      $870,299    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2013                    ($1)      $870,298    Updated due to quarterly assessment and reallocation
                                                     Financial                                                    3/26/2010            $12,190,000    $15,240,000    Updated portfolio data from servicer
            Digital Federal Credit                   Instrument for
1/15/2010                              Purchase                                 $3,050,000    N/A                                                                                                                                 $—           $—                  $—                  $—
            Union, Marlborough, MA                   Home Loan                                                    5/14/2010           ($15,240,000)           $—     Termination of SPA
                                                     Modifications
                                                                                                                  3/26/2010             ($730,000)       $230,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010               $370,000       $600,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010               $200,000       $800,000    Initial FHA-HAMP cap and initial 2MP cap
                                                                                                                  9/30/2010             ($364,833)       $435,167    Updated portfolio data from servicer
                                                                                                                 11/16/2010               $100,000       $535,167    Transfer of cap due to servicing transfer
                                                                                                                   1/6/2011                    ($1)      $535,166    Updated portfolio data from servicer
                                                     Financial
            iServe Residential                                                                                    3/30/2011                    ($1)      $535,165    Updated due to quarterly assessment and reallocation
                                                     Instrument for
1/29/2010   Lending, LLC,              Purchase                                  $960,000     N/A                                                                                                                                 $—           $—                  $—                  $—
                                                     Home Loan                                                    6/29/2011                    ($7)      $535,158    Updated due to quarterly assessment and reallocation
            San Diego, CA
                                                     Modifications
                                                                                                                  6/28/2012                    ($6)      $535,152    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012                   ($15)      $535,137    Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012                    ($3)      $535,134    Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013                   ($10)      $535,124    Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013                    ($4)      $535,120    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2013                    ($1)      $535,119    Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2010               $160,000       $700,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010                $25,278       $725,278    Updated portfolio data from servicer
                                                                                                                   1/6/2011                    ($1)      $725,277    Updated portfolio data from servicer
                                                                                                                  3/30/2011                    ($1)      $725,276    Updated due to quarterly assessment and reallocation

                                                     Financial                                                    6/29/2011                   ($11)      $725,265    Updated due to quarterly assessment and reallocation
                                                     Instrument for
1/29/2010   United Bank, Griffin, GA   Purchase                                  $540,000     N/A                 6/28/2012                    ($8)      $725,257    Updated due to quarterly assessment and reallocation      $2,000       $2,003             $5,600              $9,603
                                                     Home Loan
                                                     Modifications                                                9/27/2012                   ($22)      $725,235    Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012                    ($4)      $725,231    Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013                   ($14)      $725,217    Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013                    ($5)      $725,212    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2013                    ($2)      $725,210    Updated due to quarterly assessment and reallocation
                                                     Financial                                                    7/14/2010             $4,440,000     $5,500,000    Updated portfolio data from servicer
            Urban Trust Bank,                        Instrument for
3/3/2010                               Purchase                                 $1,060,000    N/A                                                                                                                                 $—           $—                  $—                  $—
            Lake Mary, FL                            Home Loan                                                    9/24/2010            ($5,500,000)           $—     Termination of SPA
                                                     Modifications
                                                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013
                                                                                                                                                                                                                                                                                              467
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                                (CONTINUED)                                                                                                                                                                                             468
            Servicer Modifying Borrowers’ Loans                                                                    Adjustment Details                                                                                                      TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                                Lenders/                              Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                             Borrower’s    Investors          Servicers            Incentive
Date        Name of Institution          Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount        Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                                    5/26/2010               $120,000    $28,160,000    Initial 2MP cap
                                                                                                                    7/14/2010           ($12,660,000)   $15,500,000    Updated portfolio data from servicer
                                                                                                                    9/30/2010               $100,000    $15,600,000    Initial FHA-HAMP cap
                                                                                                                    9/30/2010            ($3,125,218)   $12,474,782    Updated portfolio data from servicer
                                                                                                                   11/16/2010               $800,000    $13,274,782    Transfer of cap due to servicing transfer
                                                                                                                     1/6/2011                   ($20)   $13,274,762    Updated portfolio data from servicer

                                                       Financial                                                    3/30/2011                   ($24)   $13,274,738    Updated due to quarterly assessment and reallocation
            iServe Servicing, Inc.,                    Instrument for
3/5/2010                                 Purchase                               $28,040,000     N/A                 6/29/2011                  ($221)   $13,274,517    Updated due to quarterly assessment and reallocation         $—           $—                  $—                  $—
            Irving, TX                                 Home Loan
                                                       Modifications                                                6/28/2012                  ($169)   $13,274,348    Updated due to quarterly assessment and reallocation
                                                                                                                    9/27/2012                  ($465)   $13,273,883    Updated due to quarterly assessment and reallocation
                                                                                                                   12/27/2012                   ($78)   $13,273,805    Updated due to quarterly assessment and reallocation
                                                                                                                    3/25/2013                  ($297)   $13,273,508    Updated due to quarterly assessment and reallocation
                                                                                                                    6/27/2013                  ($112)   $13,273,396    Updated due to quarterly assessment and reallocation
                                                                                                                    7/16/2013               ($10,000)   $13,263,396    Transfer of cap due to servicing transfer
                                                                                                                    9/27/2013                   ($40)   $13,263,356    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                                                                                                                    7/14/2010           ($44,880,000)   $15,900,000    Updated portfolio data from servicer
                                                                                                                    9/30/2010             $1,071,505    $16,971,505    Updated portfolio data from servicer
                                                                                                                     1/6/2011                   ($23)   $16,971,482    Updated portfolio data from servicer
                                                                                                                    3/30/2011                   ($26)   $16,971,456    Updated due to quarterly assessment and reallocation

                                                       Financial                                                    6/29/2011                  ($238)   $16,971,218    Updated due to quarterly assessment and reallocation
            Navy Federal Credit Union,                 Instrument for
3/10/2010                                Purchase                               $60,780,000     N/A                 6/28/2012                  ($145)   $16,971,073    Updated due to quarterly assessment and reallocation    $516,134    $1,253,945        $1,013,975          $2,784,053
            Vienna, VA                                 Home Loan
                                                       Modifications                                                9/27/2012                  ($374)   $16,970,699    Updated due to quarterly assessment and reallocation
                                                                                                                   12/27/2012                   ($58)   $16,970,641    Updated due to quarterly assessment and reallocation
                                                                                                                    3/25/2013                  ($199)   $16,970,442    Updated due to quarterly assessment and reallocation
                                                                                                                    6/27/2013                   ($68)   $16,970,374    Updated due to quarterly assessment and reallocation
                                                                                                                    9/27/2013                   ($22)   $16,970,352    Updated due to quarterly assessment and reallocation
                                                                                                                    7/14/2010               $400,000       $700,000    Updated portfolio data from servicer
                                                                                                                    9/30/2010                $25,278       $725,278    Updated portfolio data from servicer
                                                                                                                     1/6/2011                    ($1)      $725,277    Updated portfolio data from servicer
                                                                                                                    3/30/2011                    ($1)      $725,276    Updated due to quarterly assessment and reallocation

                                                       Financial                                                    6/29/2011                   ($11)      $725,265    Updated due to quarterly assessment and reallocation
            VIST Financial Corp,                       Instrument for
3/10/2010                                Purchase                                  $300,000     N/A                 6/28/2012                    ($8)      $725,257    Updated due to quarterly assessment and reallocation         $—           $—                  $—                  $—
            Wyomissing, PA                             Home Loan
                                                       Modifications                                                9/27/2012                   ($22)      $725,235    Updated due to quarterly assessment and reallocation
                                                                                                                   12/27/2012                    ($4)      $725,231    Updated due to quarterly assessment and reallocation
                                                                                                                    3/25/2013                   ($14)      $725,217    Updated due to quarterly assessment and reallocation
                                                                                                                    6/27/2013                    ($5)      $725,212    Updated due to quarterly assessment and reallocation
                                                                                                                    9/27/2013                    ($2)      $725,210    Updated due to quarterly assessment and reallocation
                                                                                                                    7/14/2010               $300,000       $600,000    Updated portfolio data from servicer
                                                                                                                    9/30/2010               ($19,778)      $580,222    Updated portfolio data from servicer
                                                       Financial
            Midwest Bank and Trust                     Instrument for                                                1/6/2011                    ($1)      $580,221    Updated portfolio data from servicer
4/14/2010                                Purchase                                  $300,000     N/A                                                                                                                                 $—           $—                  $—                  $—
            Co., Elmwood Park, IL                      Home Loan                                                    3/30/2011                    ($1)      $580,220    Updated due to quarterly assessment and reallocation
                                                       Modifications
                                                                                                                    6/29/2011                    ($8)      $580,212    Updated due to quarterly assessment and reallocation
                                                                                                                    7/14/2011             ($580,212)            $—     Termination of SPA
                                                                                                                                                                                                                                                                       Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                             (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                 Adjustment Details                                                                                                     TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                               Lenders/                              Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                            Borrower’s    Investors          Servicers            Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                                 7/14/2010            ($150,000)     $6,400,000    Updated portfolio data from servicer
                                                                                                                 9/15/2010            $1,600,000     $8,000,000    Transfer of cap due to servicing transfer
                                                                                                                 9/30/2010           ($4,352,173)    $3,647,827    Updated portfolio data from servicer
                                                                                                                  1/6/2011                   ($5)    $3,647,822    Updated portfolio data from servicer
                                                                                                                 3/30/2011                   ($6)    $3,647,816    Updated due to quarterly assessment and reallocation

                                                    Financial                                                    4/13/2011           ($3,000,000)      $647,816    Transfer of cap due to servicing transfer
            Wealthbridge Mortgage                   Instrument for
4/14/2010                             Purchase                                 $6,550,000    N/A                 6/29/2011                   ($9)      $647,807    Updated due to quarterly assessment and reallocation         $—           $—                  $—                  $—
            Corp, Beaverton, OR                     Home Loan
                                                    Modifications                                                6/28/2012                   ($7)      $647,800    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012                  ($19)      $647,781    Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012                   ($3)      $647,778    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013                  ($12)      $647,766    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013                   ($5)      $647,761    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2013                   ($2)      $647,759    Updated due to quarterly assessment and reallocation
                                                                                                                 5/26/2010               $30,000        $40,000    Updated FHA-HAMP cap
                                                                                                                 9/30/2010             $250,111        $290,111    Updated portfolio data from servicer
                                                                                                                 6/29/2011               $59,889       $350,000    Updated due to quarterly assessment and reallocation
                                                    Financial
            Aurora Financial Group,                 Instrument for                                               6/28/2012                   ($2)      $349,998    Updated due to quarterly assessment and reallocation
5/21/2010                             Purchase                                    $10,000    N/A         4, 8                                                                                                               $24,689          $—            $27,844              $52,533
            Inc., Marlton, NJ                       Home Loan                                                    9/27/2012                   ($5)      $349,993    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                12/27/2012                   ($1)      $349,992    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013                   ($3)      $349,989    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013                   ($1)      $349,988    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013
                                                                                                                                                                                                                                                                                            469
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                            (CONTINUED)                                                                                                                                                                                            470
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                     TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                               Lenders/                              Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                            Borrower’s    Investors          Servicers            Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                                                                                  Transfer of cap from CitiMortgage, Inc. due to
                                                                                                                6/16/2010            $3,680,000     $3,680,000
                                                                                                                                                                  servicing transfer
                                                                                                                8/13/2010            $3,300,000     $6,980,000    Transfer of cap due to servicing transfer
                                                                                                                9/30/2010            $3,043,831    $10,023,831    Updated portfolio data from servicer
                                                                                                               10/15/2010            $1,400,000    $11,423,831    Transfer of cap due to servicing transfer
                                                                                                                 1/6/2011                  ($17)   $11,423,814    Updated portfolio data from servicer
                                                                                                                3/16/2011            $2,100,000    $13,523,814    Transfer of cap due to servicing transfer
                                                                                                                3/30/2011                  ($24)   $13,523,790    Updated due to quarterly assessment and reallocation
                                                                                                                4/13/2011            $2,900,000    $16,423,790    Transfer of cap due to servicing transfer
                                                                                                                6/16/2011            ($200,000)    $16,223,790    Transfer of cap due to servicing transfer
                                                                                                                6/29/2011                 ($273)   $16,223,517    Updated due to quarterly assessment and reallocation
                                                                                                               10/14/2011             $100,000     $16,323,517    Transfer of cap due to servicing transfer
                                                                                                               11/16/2011            $1,100,000    $17,423,517    Transfer of cap due to servicing transfer
                                                   Financial                                                    4/16/2012             $200,000     $17,623,517    Transfer of cap due to servicing transfer
            Selene Finance LP,                     Instrument for
6/16/2010                            Purchase                                        $—     N/A          9                                                                                                                 $66,522    $179,024            $85,884             $331,430
            Houston, TX                            Home Loan                                                    5/16/2012               $10,000    $17,633,517    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                                                   Modifications
                                                                                                                6/14/2012            ($300,000)    $17,333,517    Transfer of cap due to servicing transfer
                                                                                                                6/28/2012                 ($218)   $17,333,299    Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2012               $40,000    $17,373,299    Transfer of cap due to servicing transfer
                                                                                                                8/16/2012             $480,000     $17,853,299    Transfer of cap due to servicing transfer
                                                                                                                9/27/2012                 ($600)   $17,852,699    Updated due to quarterly assessment and reallocation
                                                                                                               11/15/2012               $70,000    $17,922,699    Transfer of cap due to servicing transfer
                                                                                                               12/27/2012                 ($102)   $17,922,597    Updated due to quarterly assessment and reallocation
                                                                                                                3/14/2013               $90,000    $18,012,597    Transfer of cap due to servicing transfer
                                                                                                                3/25/2013                 ($384)   $18,012,213    Updated due to quarterly assessment and reallocation
                                                                                                                5/16/2013              ($30,000)   $17,982,213    Transfer of cap due to servicing transfer
                                                                                                                6/27/2013                 ($146)   $17,982,067    Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2013             $170,000     $18,152,067    Transfer of cap due to servicing transfer
                                                                                                                9/27/2013                  ($52)   $18,152,015    Updated due to quarterly assessment and reallocation
                                                                                                                9/30/2010            $1,585,945     $2,465,945    Updated portfolio data from servicer
                                                                                                                 1/6/2011                   ($4)    $2,465,941    Updated portfolio data from servicer
                                                   Financial
            Suburban Mortgage                                                                                   3/30/2011                   ($4)    $2,465,937    Updated due to quarterly assessment and reallocation
                                                   Instrument for
8/4/2010    Company of New Mexico,   Purchase                                  $880,000     N/A                                                                                                                                $—           $—                  $—                  $—
                                                   Home Loan                                                    6/29/2011                  ($40)    $2,465,897    Updated due to quarterly assessment and reallocation
            Albuquerque, NM
                                                   Modifications
                                                                                                                6/28/2012                  ($30)    $2,465,867    Updated due to quarterly assessment and reallocation
                                                                                                                8/10/2012           ($2,465,867)           $—     Termination of SPA
                                                                                                                9/30/2010            $1,040,667     $1,740,667    Updated portfolio data from servicer

                                                   Financial                                                     1/6/2011                   ($2)    $1,740,665    Updated portfolio data from servicer
            Bramble Savings Bank,                  Instrument for
8/20/2010                            Purchase                                  $700,000     N/A                 3/30/2011                   ($3)    $1,740,662    Updated due to quarterly assessment and reallocation         $—           $—                  $—                  $—
            Cincinnati, OH                         Home Loan
                                                   Modifications                                                6/29/2011                  ($28)    $1,740,634    Updated due to quarterly assessment and reallocation
                                                                                                                8/10/2011           ($1,740,634)           $—     Termination of SPA
                                                                                                                                                                                                                                                                  Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                                 (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                      Adjustment Details                                                                                                   TARP Incentive Payments
                                                                              Cap of Incentive
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                              Lenders/                              Total TARP
                                          Transaction   Investment       Servicers & Lenders/    Pricing             Adjustment      Cap Adjustment                                                                          Borrower’s    Investors          Servicers            Incentive
Date        Name of Institution           Type          Description           Investors (Cap)1   Mechanism   Note          Date             Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                                      9/30/2010           $2,181,334    $3,481,334    Updated portfolio data from servicer
                                                                                                                       1/6/2011                 ($5)    $3,481,329    Updated portfolio data from servicer
                                                                                                                      3/30/2011                 ($6)    $3,481,323    Updated due to quarterly assessment and reallocation
                                                                                                                      6/29/2011                ($58)    $3,481,265    Updated due to quarterly assessment and reallocation
                                                        Financial
            Pathfinder Bank,                            Instrument for                                                6/28/2012                ($43)    $3,481,222    Updated due to quarterly assessment and reallocation
8/25/2010                                 Purchase                                 $1,300,000    N/A                                                                                                                            $4,884       $7,153             $9,606             $21,643
            Oswego, NY                                  Home Loan                                                     9/27/2012               ($119)    $3,481,103    Updated due to quarterly assessment and reallocation
                                                        Modifications
                                                                                                                     12/27/2012                ($20)    $3,481,083    Updated due to quarterly assessment and reallocation
                                                                                                                      3/25/2013                ($76)    $3,481,007    Updated due to quarterly assessment and reallocation
                                                                                                                      6/27/2013                ($29)    $3,480,978    Updated due to quarterly assessment and reallocation
                                                                                                                      9/27/2013                ($10)    $3,480,968    Updated due to quarterly assessment and reallocation
                                                                                                                      9/30/2010           $7,014,337   $11,314,337    Updated portfolio data from servicer
                                                                                                                       1/6/2011                ($17)   $11,314,320    Updated portfolio data from servicer
                                                                                                                      3/30/2011                ($20)   $11,314,300    Updated due to quarterly assessment and reallocation
                                                                                                                      6/29/2011               ($192)   $11,314,108    Updated due to quarterly assessment and reallocation
                                                        Financial
            First Financial Bank, N.A.,                 Instrument for                                                6/28/2012               ($144)   $11,313,964    Updated due to quarterly assessment and reallocation
8/27/2010                                 Purchase                                 $4,300,000    N/A                                                                                                                               $—           $—                  $—                  $—
            Terre Haute, ID                             Home Loan                                                     9/27/2012               ($396)   $11,313,568    Updated due to quarterly assessment and reallocation
                                                        Modifications
                                                                                                                     12/27/2012                ($67)   $11,313,501    Updated due to quarterly assessment and reallocation
                                                                                                                      3/25/2013               ($253)   $11,313,248    Updated due to quarterly assessment and reallocation
                                                                                                                      6/27/2013                ($95)   $11,313,153    Updated due to quarterly assessment and reallocation
                                                                                                                      9/27/2013                ($34)   $11,313,119    Updated due to quarterly assessment and reallocation
                                                                                                                      9/30/2010             $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                       1/6/2011             $34,944       $180,000    Updated portfolio data from servicer

                                                        Financial                                                     3/30/2011             $40,000       $220,000    Updated due to quarterly assessment and reallocation
            RBC Bank (USA),                             Instrument for                                       4, 8,
9/1/2010                                  Purchase                                  $100,000     N/A                  6/29/2011             $50,000       $270,000    Updated due to quarterly assessment and reallocation         $—           $—                  $—                  $—
            Raleigh, NC                                 Home Loan                                             15
                                                        Modifications                                                 3/15/2012           ($200,000)       $70,000    Transfer of cap due to servicing transfer
                                                                                                                      6/14/2012            ($10,000)       $60,000    Transfer of cap due to servicing transfer
                                                                                                                       4/9/2013            ($60,000)           $-—    Termination of SPA
                                                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                                                               TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013
                                                                                                                                                                                                                                                                                               471
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                           (CONTINUED)                                                                                                                                                                                          472
           Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                   TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                             Lenders/                              Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                          Borrower’s    Investors          Servicers            Incentive
Date       Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                               9/30/2010           $5,168,169    $8,268,169    Updated portfolio data from servicer
                                                                                                                1/6/2011                ($12)    $8,268,157    Updated portfolio data from servicer
                                                                                                               3/30/2011                ($15)    $8,268,142    Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011            $400,000     $8,668,142    Transfer of cap due to servicing transfer
                                                                                                               6/29/2011               ($143)    $8,667,999    Updated due to quarterly assessment and reallocation
                                                                                                               9/15/2011            $700,000     $9,367,999    Transfer of cap due to servicing transfer
                                                                                                              10/14/2011            $100,000     $9,467,999    Transfer of cap due to servicing transfer
                                                                                                              11/16/2011            $200,000     $9,667,999    Transfer of cap due to servicing transfer
                                                                                                              12/15/2011           $1,700,000   $11,367,999    Transfer of cap due to servicing transfer
                                                                                                               4/16/2012           $1,600,000   $12,967,999    Transfer of cap due to servicing transfer
                                                                                                               5/16/2012             $40,000    $13,007,999    Transfer of cap due to servicing transfer
                                                                                                               6/14/2012           ($210,000)   $12,797,999    Transfer of cap due to servicing transfer
                                                                                                               6/28/2012               ($105)   $12,797,894    Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2012             $50,000    $12,847,894    Transfer of cap due to servicing transfer
                                                  Financial
                                                                                                               8/16/2012             $90,000    $12,937,894    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                        APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




           Fay Servicing, LLC,                    Instrument for
9/3/2010                            Purchase                                 $3,100,000    N/A                                                                                                                         $812,953    $1,642,743         $771,694           $3,227,390
           Chicago, IL                            Home Loan                                                    9/27/2012               ($294)   $12,937,600    Updated due to quarterly assessment and reallocation
                                                  Modifications
                                                                                                              10/16/2012           $1,810,000   $14,747,600    Transfer of cap due to servicing transfer
                                                                                                              12/27/2012                ($61)   $14,747,539    Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2013             $30,000    $14,777,539    Transfer of cap due to servicing transfer
                                                                                                               2/14/2013           ($590,000)   $14,187,539    Transfer of cap due to servicing transfer
                                                                                                               3/14/2013            ($80,000)   $14,107,539    Transfer of cap due to servicing transfer
                                                                                                               3/25/2013               ($214)   $14,107,325    Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2013            $200,000    $14,307,325    Transfer of cap due to servicing transfer
                                                                                                               5/16/2013           $3,710,000   $18,017,325    Transfer of cap due to servicing transfer
                                                                                                               6/14/2013           $1,760,000   $19,777,325    Transfer of cap due to servicing transfer
                                                                                                               6/27/2013                ($86)   $19,777,239    Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2013           $6,650,000   $26,427,239    Transfer of cap due to servicing transfer
                                                                                                               8/15/2013             $20,000    $26,447,239    Transfer of cap due to servicing transfer
                                                                                                               9/16/2013           $4,840,000   $31,287,239    Transfer of cap due to servicing transfer
                                                                                                               9/27/2013                ($54)   $31,287,185    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                               Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                                  (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                      Adjustment Details                                                                                                     TARP Incentive Payments
                                                                               Cap of Incentive
                                                                           Payments on Behalf
                                                                           of Borrowers and to                                                                                                                                               Lenders/                              Total TARP
                                           Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                            Borrower’s    Investors          Servicers            Incentive
Date        Name of Institution            Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                                      9/15/2010            $1,000,000     $1,000,000    Transfer of cap due to servicing transfer
                                                                                                                      9/30/2010             $450,556      $1,450,556    Updated portfolio data from servicer
                                                                                                                       1/6/2011                   ($2)    $1,450,554    Updated portfolio data from servicer
                                                                                                                      2/16/2011            $3,000,000     $4,450,554    Transfer of cap due to servicing transfer
                                                                                                                      3/16/2011           $10,200,000    $14,650,554    Transfer of cap due to servicing transfer
                                                                                                                      3/30/2011                  ($24)   $14,650,530    Updated due to quarterly assessment and reallocation
                                                                                                                      6/29/2011                 ($227)   $14,650,303    Updated due to quarterly assessment and reallocation
                                                                                                                      7/14/2011           $12,000,000    $26,650,303    Transfer of cap due to servicing transfer
                                                                                                                     12/15/2011            $4,100,000    $30,750,303    Transfer of cap due to servicing transfer
                                                         Financial
            Caliber Home Loans, Inc                                                                                   1/13/2012             $900,000     $31,650,303    Transfer of cap due to servicing transfer
                                                         Instrument for
9/15/2010   (Vericrest Financial, Inc.),   Purchase                                        $—     N/A          9                                                                                                                $743,347    $2,082,831        $1,701,349          $4,527,528
                                                         Home Loan                                                    4/16/2012             $300,000     $31,950,303    Transfer of cap due to servicing transfer
            Oklahoma City, OK
                                                         Modifications
                                                                                                                      6/28/2012                 ($266)   $31,950,037    Updated due to quarterly assessment and reallocation
                                                                                                                      9/27/2012                 ($689)   $31,949,348    Updated due to quarterly assessment and reallocation
                                                                                                                     11/15/2012             $720,000     $32,669,348    Transfer of cap due to servicing transfer
                                                                                                                     12/27/2012                 ($114)   $32,669,234    Updated due to quarterly assessment and reallocation
                                                                                                                      1/16/2013            $8,020,000    $40,689,234    Transfer of cap due to servicing transfer
                                                                                                                      3/25/2013                 ($591)   $40,688,643    Updated due to quarterly assessment and reallocation
                                                                                                                      5/16/2013              ($40,000)   $40,648,643    Transfer of cap due to servicing transfer
                                                                                                                      6/27/2013                 ($223)   $40,648,420    Updated due to quarterly assessment and reallocation
                                                                                                                      9/27/2013                  ($80)   $40,648,340    Updated due to quarterly assessment and reallocation
                                                                                                                      9/30/2010             $180,222        $580,222    Updated portfolio data from servicer
                                                                                                                       1/6/2011                   ($1)      $580,221    Updated portfolio data from servicer
                                                                                                                      3/30/2011                   ($1)      $580,220    Updated due to quarterly assessment and reallocation
                                                                                                                      6/29/2011                   ($8)      $580,212    Updated due to quarterly assessment and reallocation
                                                         Financial
            Midwest Community Bank,                      Instrument for                                               6/28/2012                   ($6)      $580,206    Updated due to quarterly assessment and reallocation
9/15/2010                                  Purchase                                  $400,000     N/A                                                                                                                             $1,000       $1,818             $2,000              $4,818
            Freeport, IL                                 Home Loan                                                    9/27/2012                  ($17)      $580,189    Updated due to quarterly assessment and reallocation
                                                         Modifications
                                                                                                                     12/27/2012                   ($3)      $580,186    Updated due to quarterly assessment and reallocation
                                                                                                                      3/25/2013                  ($11)      $580,175    Updated due to quarterly assessment and reallocation
                                                                                                                      6/27/2013                   ($4)      $580,171    Updated due to quarterly assessment and reallocation
                                                                                                                      9/27/2013                   ($1)      $580,170    Updated due to quarterly assessment and reallocation
                                                         Financial                                                    9/30/2010               $45,056       $145,056    Updated portfolio data from servicer
            American Finance House
                                                         Instrument for
9/24/2010   LARIBA,                        Purchase                                  $100,000     N/A                                                                                                                                $—           $—                  $—                  $—
                                                         Home Loan                                                     2/2/2011            ($145,056)            $—     Termination of SPA
            Pasadena, CA
                                                         Modifications

                                                         Financial                                                    9/30/2010             $856,056      $2,756,056    Updated portfolio data from servicer
            Centrue Bank,                                Instrument for
9/24/2010                                  Purchase                                 $1,900,000    N/A                  1/6/2011                   ($4)    $2,756,052    Updated portfolio data from servicer                         $—           $—                  $—                  $—
            Ottawa, IL                                   Home Loan
                                                         Modifications                                                 3/9/2011           ($2,756,052)           $—     Termination of SPA
                                                         Financial                                                    9/30/2010               $45,056       $145,056    Updated portfolio data from servicer
            AgFirst Farm Credit Bank,                    Instrument for
9/30/2010                                  Purchase                                  $100,000     N/A                                                                                                                                $—           $—                  $—                  $—
            Columbia, SC                                 Home Loan                                                    3/23/2011            ($145,056)            $—     Termination of SPA
                                                         Modifications
                                                                                                                      9/30/2010               $45,056       $145,056    Updated portfolio data from servicer

                                                         Financial                                                    6/29/2011                   ($1)      $145,055    Updated due to quarterly assessment and reallocation
            Amarillo National Bank,                      Instrument for
9/30/2010                                  Purchase                                  $100,000     N/A         4, 8    6/28/2012                   ($1)      $145,054    Updated due to quarterly assessment and reallocation         $—           $—                  $—                  $—
            Amarillo, TX                                 Home Loan
                                                         Modifications                                                9/27/2012                   ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                      3/25/2013                   ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                 TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




                                                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                                                 473
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                              (CONTINUED)                                                                                                                                                                                             474
            Servicer Modifying Borrowers’ Loans                                                                   Adjustment Details                                                                                                     TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                                Lenders/                              Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing             Adjustment      Cap Adjustment                                                                            Borrower’s    Investors          Servicers            Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note          Date             Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                                   9/30/2010               $45,056       $145,056    Updated portfolio data from servicer

                                                     Financial                                                     6/29/2011                   ($1)      $145,055    Updated due to quarterly assessment and reallocation
            American Financial
                                                     Instrument for
9/30/2010   Resources Inc.,            Purchase                                  $100,000     N/A         4, 8     6/28/2012                   ($1)      $145,054    Updated due to quarterly assessment and reallocation         $—           $—                  $—                  $—
                                                     Home Loan
            Parsippany, NJ
                                                     Modifications                                                 9/27/2012                   ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013                   ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                                                                                   9/30/2010             $765,945      $2,465,945    Updated portfolio data from servicer
                                                                                                                    1/6/2011                   ($3)    $2,465,942    Updated portfolio data from servicer
                                                                                                                   3/30/2011                   ($4)    $2,465,938    Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011                  ($36)    $2,465,902    Updated due to quarterly assessment and reallocation

                                                     Financial                                                     6/28/2012                  ($30)    $2,465,872    Updated due to quarterly assessment and reallocation
            Banco Popular de Puerto
                                                     Instrument for                                        4,
9/30/2010   Rico,                      Purchase                                 $1,700,000    N/A                  9/27/2012                  ($83)    $2,465,789    Updated due to quarterly assessment and reallocation         $—           $—                  $—                  $—
                                                     Home Loan                                            5, 8
            San Juan, PR
                                                     Modifications                                                12/27/2012                  ($14)    $2,465,775    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013                  ($53)    $2,465,722    Updated due to quarterly assessment and reallocation
                                                                                                                   6/27/2013                  ($20)    $2,465,702    Updated due to quarterly assessment and reallocation
                                                                                                                   9/16/2013             $460,000      $2,925,702    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                              APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                                                                                                                   9/27/2013                   ($7)    $2,925,695    Updated due to quarterly assessment and reallocation
                                                                                                                   9/30/2010               $45,056       $145,056    Updated portfolio data from servicer

                                                     Financial                                                     6/29/2011                   ($1)      $145,055    Updated due to quarterly assessment and reallocation
            Capital International
                                                     Instrument for
9/30/2010   Financial, Inc.,           Purchase                                  $100,000     N/A         4, 8     6/28/2012                   ($1)      $145,054    Updated due to quarterly assessment and reallocation         $—           $—                  $—                  $—
                                                     Home Loan
            Coral Gables, FL
                                                     Modifications                                                 9/27/2012                   ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013                   ($1)      $145,051    Updated due to quarterly assessment and reallocation

                                                     Financial                                                     9/30/2010             $360,445      $1,160,445    Updated portfolio data from servicer
            Citizens Community Bank,                 Instrument for
9/24/2010                              Purchase                                  $800,000     N/A                   1/6/2011                   ($2)    $1,160,443    Updated portfolio data from servicer                         $—           $—                  $—                  $—
            Freeburg, IL                             Home Loan
                                                     Modifications                                                 3/23/2011           ($1,160,443)           $—     Termination of SPA
                                                                                                                   9/30/2010             $901,112      $2,901,112    Updated portfolio data from servicer
                                                                                                                    1/6/2011                   ($4)    $2,901,108    Updated portfolio data from servicer
                                                     Financial
            Community Credit Union                                                                                 3/30/2011                   ($5)    $2,901,103    Updated due to quarterly assessment and reallocation
                                                     Instrument for
9/30/2010   of Florida,                Purchase                                 $2,000,000    N/A         6, 12                                                                                                                $3,000       $4,632             $5,000             $12,632
                                                     Home Loan                                                     6/29/2011                  ($48)    $2,901,055    Updated due to quarterly assessment and reallocation
            Rockledge, FL
                                                     Modifications
                                                                                                                   6/28/2012                  ($36)    $2,901,019    Updated due to quarterly assessment and reallocation
                                                                                                                   9/14/2012           ($2,888,387)       $12,632    Termination of SPA
                                                                                                                   9/30/2010               $45,056       $145,056    Updated portfolio data from servicer

                                                     Financial                                                     6/29/2011                   ($1)      $145,055    Updated due to quarterly assessment and reallocation
            CU Mortgage Services,                    Instrument for
9/30/2010                              Purchase                                  $100,000     N/A         4, 8     6/28/2012                   ($1)      $145,054    Updated due to quarterly assessment and reallocation         $—           $—                  $—                  $—
            Inc., New Brighton, MN                   Home Loan
                                                     Modifications                                                 9/27/2012                   ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013                   ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                                                                                   9/30/2010               $45,056       $145,056    Updated portfolio data from servicer

                                                     Financial                                                     6/29/2011                   ($1)      $145,055    Updated due to quarterly assessment and reallocation
            First Federal Bank of                    Instrument for
9/30/2010                              Purchase                                  $100,000     N/A         4, 8     6/28/2012                   ($1)      $145,054    Updated due to quarterly assessment and reallocation         $—           $—                  $—                  $—
            Florida, Lake City, FL                   Home Loan
                                                     Modifications                                                 9/27/2012                   ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013                   ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                                                                                   9/30/2010               $45,056       $145,056    Updated portfolio data from servicer

                                                     Financial                                                     6/29/2011                   ($1)      $145,055    Updated due to quarterly assessment and reallocation
            First Mortgage
                                                     Instrument for
9/30/2010   Corporation,               Purchase                                  $100,000     N/A         4, 8     6/28/2012                   ($1)      $145,054    Updated due to quarterly assessment and reallocation      $2,000          $—              $2,000              $4,000
                                                     Home Loan
            Diamond Bar, CA
                                                     Modifications                                                 9/27/2012                   ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013                   ($1)      $145,051    Updated due to quarterly assessment and reallocation

                                                     Financial                                                     9/30/2010             $180,222        $580,222    Updated portfolio data from servicer
            First Safety Bank,                       Instrument for
9/30/2010                              Purchase                                  $400,000     N/A                   1/6/2011                   ($1)      $580,221    Updated portfolio data from servicer                         $—           $—                  $—                  $—
            Cincinnati, OH                           Home Loan
                                                     Modifications                                                 3/23/2011            ($580,221)            $—     Termination of SPA
                                                                                                                                                                                                                                                                     Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                               (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                   Adjustment Details                                                                                                   TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                             Lenders/                              Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                          Borrower’s    Investors          Servicers            Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                                   9/30/2010            $360,445     $1,160,445    Updated portfolio data from servicer
                                                                                                                    1/6/2011                 ($2)    $1,160,443    Updated portfolio data from servicer
                                                                                                                   3/30/2011                 ($2)    $1,160,441    Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011                ($18)    $1,160,423    Updated due to quarterly assessment and reallocation
                                                      Financial
            Flagstar Capital Markets                                                                               6/28/2012                ($14)    $1,160,409    Updated due to quarterly assessment and reallocation
                                                      Instrument for
9/30/2010   Corporation,                Purchase                                  $800,000     N/A         7, 8                                                                                                                 $—           $—                  $—                  $—
                                                      Home Loan                                                    9/27/2012                ($37)    $1,160,372    Updated due to quarterly assessment and reallocation
            Troy, MI
                                                      Modifications
                                                                                                                  12/27/2012                 ($6)    $1,160,366    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013                ($24)    $1,160,342    Updated due to quarterly assessment and reallocation
                                                                                                                   6/27/2013                 ($9)    $1,160,333    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2013                 ($3)    $1,160,330    Updated due to quarterly assessment and reallocation
                                                                                                                   9/30/2010            $765,945     $2,465,945    Updated portfolio data from servicer
                                                                                                                    1/6/2011                 ($4)    $2,465,941    Updated portfolio data from servicer
                                                                                                                   3/30/2011                 ($4)    $2,465,937    Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011                ($40)    $2,465,897    Updated due to quarterly assessment and reallocation

                                                      Financial                                                    6/28/2012                ($30)    $2,465,867    Updated due to quarterly assessment and reallocation
            Franklin Savings,                         Instrument for
9/30/2010                               Purchase                                 $1,700,000    N/A          4      9/27/2012                ($83)    $2,465,784    Updated due to quarterly assessment and reallocation      $1,750       $3,865             $4,000              $9,615
            Cincinnati, OH                            Home Loan
                                                      Modifications                                               12/27/2012                ($14)    $2,465,770    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013                ($53)    $2,465,717    Updated due to quarterly assessment and reallocation
                                                                                                                   6/14/2013            ($10,000)    $2,455,717    Transfer of cap due to servicing transfer
                                                                                                                   6/27/2013                ($20)    $2,455,697    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2013                 ($7)    $2,455,690    Updated due to quarterly assessment and reallocation
                                                                                                                   9/30/2010             $45,056       $145,056    Updated portfolio data from servicer

                                                      Financial                                                    6/29/2011                 ($1)      $145,055    Updated due to quarterly assessment and reallocation
            Gateway Mortgage Group,                   Instrument for
9/30/2010                               Purchase                                  $100,000     N/A         4, 8    6/28/2012                 ($1)      $145,054    Updated due to quarterly assessment and reallocation         $—           $—                  $—                  $—
            LLC, Tulsa, OK                            Home Loan
                                                      Modifications                                                9/27/2012                 ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013                 ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                      Financial                                                    9/30/2010             $45,056       $145,056    Updated portfolio data from servicer
            GFA Federal Credit Union,                 Instrument for
9/30/2010                               Purchase                                  $100,000     N/A                                                                                                                              $—           $—                  $—                  $—
            Gardner, MA                               Home Loan                                                    3/23/2011           ($145,056)           $—     Termination of SPA
                                                      Modifications
                                                                                                                   9/30/2010             $45,056       $145,056    Updated portfolio data from servicer

                                                      Financial                                                    6/29/2011                 ($1)      $145,055    Updated due to quarterly assessment and reallocation
            Guaranty Bank,                            Instrument for
9/30/2010                               Purchase                                  $100,000     N/A         4, 8    6/28/2012                 ($1)      $145,054    Updated due to quarterly assessment and reallocation        $917          $—              $1,000              $1,917
            Saint Paul, MN                            Home Loan
                                                      Modifications                                                9/27/2012                 ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013                 ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                                                                                   9/30/2010            $135,167       $435,167    Updated portfolio data from servicer
                                                                                                                    1/6/2011                 ($1)      $435,166    Updated portfolio data from servicer
                                                                                                                   3/30/2011                 ($1)      $435,165    Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011                 ($6)      $435,159    Updated due to quarterly assessment and reallocation
                                                      Financial
            James B. Nutter &                                                                                      6/28/2012                 ($4)      $435,155    Updated due to quarterly assessment and reallocation
                                                      Instrument for
9/24/2010   Company,                    Purchase                                  $300,000     N/A         4, 8                                                                                                              $8,171          $—              $8,615             $16,786
                                                      Home Loan                                                    9/27/2012                ($12)      $435,143    Updated due to quarterly assessment and reallocation
            Kansas City, MO
                                                      Modifications
                                                                                                                  12/27/2012                 ($2)      $435,141    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013                 ($8)      $435,133    Updated due to quarterly assessment and reallocation
                                                                                                                   6/27/2013                 ($3)      $435,130    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




                                                                                                                   9/27/2013                 ($1)      $435,129    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                                                            475
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                              (CONTINUED)                                                                                                                                                                                          476
            Servicer Modifying Borrowers’ Loans                                                                  Adjustment Details                                                                                                   TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                             Lenders/                              Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                          Borrower’s    Investors          Servicers            Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                                  9/30/2010            $450,556     $1,450,556    Updated portfolio data from servicer
                                                                                                                   1/6/2011                 ($2)    $1,450,554    Updated portfolio data from servicer
                                                                                                                  3/30/2011                 ($2)    $1,450,552    Updated due to quarterly assessment and reallocation
                                                                                                                  6/29/2011                ($23)    $1,450,529    Updated due to quarterly assessment and reallocation
                                                     Financial
            Liberty Bank and Trust                   Instrument for                                               6/28/2012                ($17)    $1,450,512    Updated due to quarterly assessment and reallocation
9/30/2010                              Purchase                                 $1,000,000    N/A                                                                                                                              $—           $—                  $—                  $—
            Co, New Orleans, LA                      Home Loan                                                    9/27/2012                ($48)    $1,450,464    Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                 12/27/2012                 ($8)    $1,450,456    Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013                ($30)    $1,450,426    Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013                ($11)    $1,450,415    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2013                 ($4)    $1,450,411    Updated due to quarterly assessment and reallocation
                                                                                                                  9/30/2010            $315,389     $1,015,389    Updated portfolio data from servicer
                                                                                                                   1/6/2011                 ($1)    $1,015,388    Updated portfolio data from servicer
                                                                                                                  3/30/2011                 ($1)    $1,015,387    Updated due to quarterly assessment and reallocation
                                                                                                                  6/29/2011                ($11)    $1,015,376    Updated due to quarterly assessment and reallocation
                                                     Financial
                                                                                                                  6/28/2012                ($11)    $1,015,365    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




            M&T Bank,                                Instrument for
9/30/2010                              Purchase                                  $700,000     N/A         4, 8                                                                                                             $40,230          $—            $44,461              $84,691
            Buffalo, NY                              Home Loan                                                    9/27/2012                ($30)    $1,015,335    Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                 12/27/2012                 ($5)    $1,015,330    Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013                ($20)    $1,015,310    Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013                 ($7)    $1,015,303    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2013                 ($3)    $1,015,300    Updated due to quarterly assessment and reallocation
                                                                                                                  9/30/2010            $630,778     $2,030,778    Updated portfolio data from servicer
                                                                                                                   1/6/2011                 ($3)    $2,030,775    Updated portfolio data from servicer
                                                                                                                  3/30/2011                 ($3)    $2,030,772    Updated due to quarterly assessment and reallocation
                                                                                                                  6/29/2011                ($33)    $2,030,739    Updated due to quarterly assessment and reallocation
                                                     Financial
            Magna Bank,                              Instrument for                                               6/28/2012                ($25)    $2,030,714    Updated due to quarterly assessment and reallocation
9/30/2010                              Purchase                                 $1,400,000    N/A          5                                                                                                                   $—           $—                  $—                  $—
            Germantown, TN                           Home Loan                                                    9/27/2012                ($68)    $2,030,646    Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                 12/27/2012                ($11)    $2,030,635    Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013                ($44)    $2,030,591    Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013                ($16)    $2,030,575    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2013                 ($6)    $2,030,569    Updated due to quarterly assessment and reallocation

                                                     Financial                                                    9/30/2010            $225,278       $725,278    Updated portfolio data from servicer
            Mainstreet Credit Union,                 Instrument for
9/30/2010                              Purchase                                  $500,000     N/A                  1/6/2011                 ($1)      $725,277    Updated portfolio data from servicer                         $—           $—                  $—                  $—
            Lexena, KS                               Home Loan
                                                     Modifications                                                 3/9/2011           ($725,277)           $—     Termination of SPA
                                                                                                                  9/30/2010             $45,056       $145,056    Updated portfolio data from servicer

                                                     Financial                                                    6/29/2011                 ($1)      $145,055    Updated due to quarterly assessment and reallocation
            Marsh Associates, Inc.,                  Instrument for
9/30/2010                              Purchase                                  $100,000     N/A         4, 8    6/28/2012                 ($1)      $145,054    Updated due to quarterly assessment and reallocation      $9,688          $—            $10,649              $20,337
            Charlotte, NC                            Home Loan
                                                     Modifications                                                9/27/2012                 ($1)      $145,053    Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013                 ($1)      $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                  Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                              (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                  Adjustment Details                                                                                                      TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                                Lenders/                              Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                             Borrower’s    Investors          Servicers            Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount        Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                                  9/30/2010            $49,915,806     $93,415,806   Updated portfolio data from servicer
                                                                                                                   1/6/2011                 ($125)     $93,415,681   Updated portfolio data from servicer
                                                                                                                  3/30/2011                 ($139)     $93,415,542   Updated due to quarterly assessment and reallocation
                                                                                                                  6/29/2011                ($1,223)    $93,414,319   Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012                 ($797)     $93,413,522   Updated due to quarterly assessment and reallocation
                                                     Financial
            Midland Mortgage                                                                                      7/16/2012           $294,540,000    $387,953,522   Transfer of cap due to servicing transfer
                                                     Instrument for
9/30/2010   Company,                   Purchase                               $43,500,000     N/A         4, 5                                                                                                              $4,373,171   $1,066,140        $5,325,727         $10,765,037
                                                     Home Loan                                                    7/27/2012       ($263,550,000)      $124,403,522   Transfer of cap due to servicing transfer
            Oklahoma City, OK
                                                     Modifications
                                                                                                                  9/27/2012                ($3,170)   $124,400,352   Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012                 ($507)    $124,399,845   Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013                ($1,729)   $124,398,116   Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013                 ($593)    $124,397,523   Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2013                 ($199)    $124,397,324   Updated due to quarterly assessment and reallocation
                                                                                                                  9/30/2010               $45,056        $145,056    Updated portfolio data from servicer

            Mid America Mortgage,                    Financial                                                    6/29/2011                    ($1)      $145,055    Updated due to quarterly assessment and reallocation
            Inc. (Schmidt Mortgage                   Instrument for
9/30/2010                              Purchase                                  $100,000     N/A         4, 8    6/28/2012                    ($1)      $145,054    Updated due to quarterly assessment and reallocation         $—           $—                  $—                  $—
            Company),                                Home Loan
            Rocky River, OH                          Modifications                                                9/27/2012                    ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013                    ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                                                                                  9/30/2010               $45,056        $145,056    Updated portfolio data from servicer

                                                     Financial                                                    6/29/2011                    ($1)      $145,055    Updated due to quarterly assessment and reallocation
            Stockman Bank of                         Instrument for
9/30/2010                              Purchase                                  $100,000     N/A         4, 8    6/28/2012                    ($1)      $145,054    Updated due to quarterly assessment and reallocation         $—           $—                  $—                  $—
            Montana, Miles City, MT                  Home Loan
                                                     Modifications                                                9/27/2012                    ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013                    ($1)      $145,051    Updated due to quarterly assessment and reallocation

                                                     Financial                                                    9/30/2010              $270,334        $870,334    Updated portfolio data from servicer
            University First Federal
                                                     Instrument for
9/30/2010   Credit Union,              Purchase                                  $600,000     N/A                  1/6/2011                    ($1)      $870,333    Updated portfolio data from servicer                         $—           $—                  $—                  $—
                                                     Home Loan
            Salt Lake City, UT
                                                     Modifications                                                2/17/2011             ($870,333)             $—    Termination of SPA
                                                                                                                  9/30/2010               $45,056        $145,056    Updated portfolio data from servicer

                                                     Financial                                                    6/29/2011                    ($1)      $145,055    Updated due to quarterly assessment and reallocation
            Weststar Mortgage, Inc.,                 Instrument for
9/30/2010                              Purchase                                  $100,000     N/A         4, 8    6/28/2012                    ($1)      $145,054    Updated due to quarterly assessment and reallocation         $—           $—                  $—                  $—
            Woodbridge, VA                           Home Loan
                                                     Modifications                                                9/27/2012                    ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013                    ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013
                                                                                                                                                                                                                                                                                              477
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                               (CONTINUED)                                                                                                                                                                                            478
             Servicer Modifying Borrowers’ Loans                                                                  Adjustment Details                                                                                                     TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                               Lenders/                              Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                            Borrower’s    Investors          Servicers            Incentive
Date         Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                                  12/15/2010            $5,000,000     $5,000,000    Updated portfolio data from servicer
                                                                                                                    1/6/2011                   ($7)    $4,999,993    Updated portfolio data from servicer
                                                                                                                   2/16/2011             $500,000      $5,499,993    Transfer of cap due to servicing transfer
                                                                                                                   3/16/2011             $100,000      $5,599,993    Transfer of cap due to servicing transfer
                                                                                                                   3/30/2011                   ($9)    $5,599,984    Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011                  ($85)    $5,599,899    Updated due to quarterly assessment and reallocation
                                                                                                                  11/16/2011           ($2,500,000)    $3,099,899    Transfer of cap due to servicing transfer
                                                                                                                   3/15/2012             $200,000      $3,299,899    Transfer of cap due to servicing transfer
                                                                                                                   6/28/2012                  ($40)    $3,299,859    Updated due to quarterly assessment and reallocation

                                                      Financial                                                    9/27/2012                 ($100)    $3,299,759    Updated due to quarterly assessment and reallocation
             Statebridge Company,                     Instrument for
12/15/2010                              Purchase                                        $—     N/A          9     10/16/2012             $170,000      $3,469,759    Transfer of cap due to servicing transfer                $17,251     $52,822            $17,901              $87,975
             LLC, Denver, CO                          Home Loan
                                                      Modifications                                               11/15/2012              ($30,000)    $3,439,759    Transfer of cap due to servicing transfer
                                                                                                                  12/14/2012              ($80,000)    $3,359,759    Transfer of cap due to servicing transfer
                                                                                                                  12/27/2012                  ($17)    $3,359,742    Updated due to quarterly assessment and reallocation
                                                                                                                   1/16/2013               $50,000     $3,409,742    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                              APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                                                                                                                   2/14/2013            $1,240,000     $4,649,742    Transfer of cap due to servicing transfer
                                                                                                                   3/14/2013               $90,000     $4,739,742    Transfer of cap due to servicing transfer
                                                                                                                   3/25/2013                  ($90)    $4,739,652    Updated due to quarterly assessment and reallocation
                                                                                                                   4/16/2013              ($10,000)    $4,729,652    Transfer of cap due to servicing transfer
                                                                                                                   6/27/2013                  ($34)    $4,729,618    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2013                  ($13)    $4,729,605    Updated due to quarterly assessment and reallocation
                                                                                                                  12/15/2010            $4,300,000     $4,300,000    Updated portfolio data from servicer
                                                                                                                    1/6/2011                   ($4)    $4,299,996    Updated portfolio data from servicer
                                                                                                                   6/29/2011                   ($5)    $4,299,991    Updated due to quarterly assessment and reallocation

                                                      Financial                                                    6/28/2012                  ($23)    $4,299,968    Updated due to quarterly assessment and reallocation
             Scotiabank de Puerto                     Instrument for
12/15/2010                              Purchase                                        $—     N/A          9      9/27/2012                  ($63)    $4,299,905    Updated due to quarterly assessment and reallocation    $404,921    $593,425           $418,009           $1,416,355
             Rico, San Juan, PR                       Home Loan
                                                      Modifications                                               12/27/2012                  ($11)    $4,299,894    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013                  ($41)    $4,299,853    Updated due to quarterly assessment and reallocation
                                                                                                                   6/27/2013                  ($16)    $4,299,837    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2013                   ($6)    $4,299,831    Updated due to quarterly assessment and reallocation
                                                                                                                   4/13/2011             $200,000        $200,000    Transfer of cap due to servicing transfer
                                                                                                                   5/13/2011             $100,000        $300,000    Transfer of cap due to servicing transfer
                                                                                                                   6/16/2011             $300,000        $600,000    Transfer of cap due to servicing transfer
                                                                                                                   6/29/2011                   ($9)      $599,991    Updated due to quarterly assessment and reallocation
                                                                                                                   8/16/2011             $200,000        $799,991    Transfer of cap due to servicing transfer
                                                      Financial
             New York Community                                                                                    6/28/2012                   ($7)      $799,984    Updated due to quarterly assessment and reallocation
                                                      Instrument for
4/13/2011    Bank (AmTrust Bank),       Purchase                                        $—     N/A          9                                                                                                                 $12,344     $31,779            $21,004              $65,127
                                                      Home Loan                                                    9/27/2012                  ($19)      $799,965    Updated due to quarterly assessment and reallocation
             Cleveland, OH
                                                      Modifications
                                                                                                                  12/27/2012                   ($3)      $799,962    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013                  ($12)      $799,950    Updated due to quarterly assessment and reallocation
                                                                                                                   6/27/2013                   ($5)      $799,945    Updated due to quarterly assessment and reallocation
                                                                                                                   7/16/2013             $150,000        $949,945    Transfer of cap due to servicing transfer
                                                                                                                   9/27/2013                   ($2)      $949,943    Updated due to quarterly assessment and reallocation
                                                                                                                   4/13/2011             $100,000        $100,000    Transfer of cap due to servicing transfer
                                                      Financial
             SunTrust Mortgage, Inc.,                 Instrument for                                               6/14/2013             $120,000        $220,000    Transfer of cap due to servicing transfer
4/13/2011                               Purchase                                        $—     N/A          9                                                                                                                     $—           $—                  $—                  $—
             Richmond, VA                             Home Loan                                                    6/27/2013                   ($1)      $219,999    Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                   7/16/2013               $10,000       $229,999    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                     Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                                (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                    Adjustment Details                                                                                                   TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                             Lenders/                              Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                          Borrower’s    Investors          Servicers            Incentive
Date        Name of Institution          Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                                    4/13/2011           $1,000,000    $1,000,000    Transfer of cap due to servicing transfer
                                                                                                                    6/29/2011            $233,268     $1,233,268    Updated due to quarterly assessment and reallocation
                                                                                                                   11/16/2011            $100,000     $1,333,268    Transfer of cap due to servicing transfer

                                                       Financial                                                    6/28/2012                 ($3)    $1,333,265    Updated due to quarterly assessment and reallocation
            Urban Partnership Bank,                    Instrument for
4/13/2011                                Purchase                                        $—     N/A          9      9/27/2012                ($10)    $1,333,255    Updated due to quarterly assessment and reallocation    $134,840    $276,295           $135,919             $547,054
            Chicago, IL                                Home Loan
                                                       Modifications                                               12/27/2012                 ($2)    $1,333,253    Updated due to quarterly assessment and reallocation
                                                                                                                    3/25/2013                 ($7)    $1,333,246    Updated due to quarterly assessment and reallocation
                                                                                                                    6/27/2013                 ($3)    $1,333,243    Updated due to quarterly assessment and reallocation
                                                                                                                    9/27/2013                 ($1)    $1,333,242    Updated due to quarterly assessment and reallocation
                                                                                                                    4/13/2011            $200,000       $200,000    Transfer of cap due to servicing transfer
                                                       Financial
            Western Federal Credit                     Instrument for                                               6/29/2011             $17,687       $217,687    Updated due to quarterly assessment and reallocation
4/13/2011                                Purchase                                        $—     N/A          9                                                                                                               $15,417     $42,857            $18,917              $77,191
            Union, Hawthorne, CA                       Home Loan                                                    9/27/2012                 ($1)      $217,686    Updated due to quarterly assessment and reallocation
                                                       Modifications
                                                                                                                    3/25/2013                 ($1)      $217,685    Updated due to quarterly assessment and reallocation
                                                                                                                    5/13/2011            $500,000       $500,000    Transfer of cap due to servicing transfer
                                                                                                                    6/16/2011            $100,000       $600,000    Transfer of cap due to servicing transfer
                                                                                                                    6/29/2011                 ($9)      $599,991    Updated due to quarterly assessment and reallocation
                                                                                                                    7/14/2011            $200,000       $799,991    Transfer of cap due to servicing transfer
                                                                                                                    9/15/2011            $100,000       $899,991    Transfer of cap due to servicing transfer
                                                                                                                   11/16/2011           $2,500,000    $3,399,991    Transfer of cap due to servicing transfer
                                                                                                                    5/16/2012           $1,510,000    $4,909,991    Transfer of cap due to servicing transfer
                                                                                                                    6/14/2012            $450,000     $5,359,991    Transfer of cap due to servicing transfer
                                                                                                                    6/28/2012                ($66)    $5,359,925    Updated due to quarterly assessment and reallocation
                                                                                                                    7/16/2012            $250,000     $5,609,925    Transfer of cap due to servicing transfer
                                                                                                                    8/16/2012             $90,000     $5,699,925    Transfer of cap due to servicing transfer
                                                                                                                    9/27/2012               ($191)    $5,699,734    Updated due to quarterly assessment and reallocation
                                                       Financial
            FCI Lender Services, Inc.,                 Instrument for                                              10/16/2012            $140,000     $5,839,734    Transfer of cap due to servicing transfer
5/13/2011                                Purchase                                        $—     N/A          9                                                                                                               $24,908     $43,250            $28,612              $96,771
            Anaheim Hills, CA                          Home Loan                                                   11/15/2012             $70,000     $5,909,734    Transfer of cap due to servicing transfer
                                                       Modifications
                                                                                                                   12/14/2012             $40,000     $5,949,734    Transfer of cap due to servicing transfer
                                                                                                                   12/27/2012                ($34)    $5,949,700    Updated due to quarterly assessment and reallocation
                                                                                                                    1/16/2013             $40,000     $5,989,700    Transfer of cap due to servicing transfer
                                                                                                                    2/14/2013             $50,000     $6,039,700    Transfer of cap due to servicing transfer
                                                                                                                    3/14/2013            $360,000     $6,399,700    Transfer of cap due to servicing transfer
                                                                                                                    3/25/2013               ($135)    $6,399,565    Updated due to quarterly assessment and reallocation
                                                                                                                    4/16/2013            ($10,000)    $6,389,565    Transfer of cap due to servicing transfer
                                                                                                                    5/16/2013             $40,000     $6,429,565    Transfer of cap due to servicing transfer
                                                                                                                    6/14/2013            $200,000     $6,629,565    Transfer of cap due to servicing transfer
                                                                                                                    6/27/2013                ($53)    $6,629,512    Updated due to quarterly assessment and reallocation
                                                                                                                    7/16/2013             $20,000     $6,649,512    Transfer of cap due to servicing transfer
                                                                                                                    9/27/2013                ($19)    $6,649,493    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013
                                                                                                                                                                                                                                                                                             479
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                            (CONTINUED)                                                                                                                                                                                          480
            Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                   TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                             Lenders/                              Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                          Borrower’s    Investors          Servicers            Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives           Payments
                                                                                                                7/14/2011            $200,000       $200,000    Transfer of cap due to servicing transfer
                                                                                                               11/16/2011            $900,000     $1,100,000    Transfer of cap due to servicing transfer
                                                                                                                1/13/2012            $100,000     $1,200,000    Transfer of cap due to servicing transfer
                                                                                                                6/28/2012                 ($9)    $1,199,991    Updated due to quarterly assessment and reallocation
                                                                                                                8/16/2012             $20,000     $1,219,991    Transfer of cap due to servicing transfer
                                                                                                                9/27/2012                ($26)    $1,219,965    Updated due to quarterly assessment and reallocation
                                                                                                               10/16/2012             $50,000     $1,269,965    Transfer of cap due to servicing transfer
                                                   Financial
            Gregory Funding, LLC,                  Instrument for                                              12/14/2012             $10,000     $1,279,965    Transfer of cap due to servicing transfer
7/14/2011                            Purchase                                        $—     N/A          9                                                                                                               $66,243    $151,333            $72,791             $290,367
            Beaverton, OR                          Home Loan                                                   12/27/2012                 ($5)    $1,279,960    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                1/16/2013            $130,000     $1,409,960    Transfer of cap due to servicing transfer
                                                                                                                2/14/2013            $120,000     $1,529,960    Transfer of cap due to servicing transfer
                                                                                                                3/25/2013                ($20)    $1,529,940    Updated due to quarterly assessment and reallocation
                                                                                                                5/16/2013             $80,000     $1,609,940    Transfer of cap due to servicing transfer
                                                                                                                6/14/2013            $420,000     $2,029,940    Transfer of cap due to servicing transfer
                                                                                                                6/27/2013                ($10)    $2,029,930    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                         APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                                                                                                                9/27/2013                 ($4)    $2,029,926    Updated due to quarterly assessment and reallocation
                                                   Financial
            Bangor Savings Bank,                   Instrument for
9/15/2011                            Purchase                                        $—     N/A          9      9/15/2011            $100,000       $100,000    Transfer of cap due to servicing transfer                    $—           $—                  $—                  $—
            Bangor, ME                             Home Loan
                                                   Modifications
                                                                                                                9/15/2011           $1,300,000    $1,300,000    Transfer of cap due to servicing transfer
                                                                                                                6/28/2012                ($15)    $1,299,985    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012                ($42)    $1,299,943    Updated due to quarterly assessment and reallocation

                                                   Financial                                                   10/16/2012            $140,000     $1,439,943    Transfer of cap due to servicing transfer
            PHH Mortgage
                                                   Instrument for
9/15/2011   Corporation,             Purchase                                        $—     N/A          9     12/27/2012                 ($8)    $1,439,935    Updated due to quarterly assessment and reallocation     $11,920     $22,585            $12,595              $47,099
                                                   Home Loan
            Mt. Laurel, NJ
                                                   Modifications                                                3/25/2013                ($30)    $1,439,905    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013                ($11)    $1,439,894    Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2013           $5,850,000    $7,289,894    Transfer of cap due to servicing transfer
                                                                                                                9/27/2013                ($20)    $7,289,874    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                             (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                Adjustment Details                                                                                                   TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                             Lenders/                               Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment      Cap Adjustment                                                                          Borrower’s    Investors          Servicers             Incentive
Date         Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date             Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives            Payments
                                                                                                                12/15/2011            $200,000       $200,000    Transfer of cap due to servicing transfer
                                                                                                                 4/16/2012            $600,000       $800,000    Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012                 ($3)      $799,997    Updated due to quarterly assessment and reallocation
                                                                                                                 8/16/2012            $110,000       $909,997    Transfer of cap due to servicing transfer
                                                                                                                 9/27/2012                ($13)      $909,984    Updated due to quarterly assessment and reallocation
                                                                                                                10/16/2012           $1,270,000    $2,179,984    Transfer of cap due to servicing transfer
                                                                                                                11/15/2012            $230,000     $2,409,984    Transfer of cap due to servicing transfer
                                                                                                                12/27/2012                 ($5)    $2,409,979    Updated due to quarterly assessment and reallocation
                                                    Financial
             Rushmore Loan                                                                                       1/16/2013            $990,000     $3,399,979    Transfer of cap due to servicing transfer
                                                    Instrument for
12/15/2011   Management Services      Purchase                                        $—     N/A          9                                                                                                              $154,261    $566,912           $182,717              $903,890
                                                    Home Loan                                                    2/14/2013            $600,000     $3,999,979    Transfer of cap due to servicing transfer
             LLC, Irvine, CA
                                                    Modifications
                                                                                                                 3/14/2013           $1,980,000    $5,979,979    Transfer of cap due to servicing transfer
                                                                                                                 3/25/2013                ($77)    $5,979,902    Updated due to quarterly assessment and reallocation
                                                                                                                 4/16/2013            $340,000     $6,319,902    Transfer of cap due to servicing transfer
                                                                                                                 5/16/2013           $1,520,000    $7,839,902    Transfer of cap due to servicing transfer
                                                                                                                 6/14/2013           $2,740,000   $10,579,902    Transfer of cap due to servicing transfer
                                                                                                                 6/27/2013                ($53)   $10,579,849    Updated due to quarterly assessment and reallocation
                                                                                                                 9/16/2013           $2,570,000   $13,149,849    Transfer of cap due to servicing transfer
                                                                                                                 9/27/2013                ($26)   $13,149,823    Updated due to quarterly assessment and reallocation
                                                    Financial
             Sun West Mortgage
                                                    Instrument for
1/13/2012    Company, Inc,            Purchase                                        $—     N/A          9      1/13/2012            $100,000       $100,000    Transfer of cap due to servicing transfer                    $—           $—                   $—                  $—
                                                    Home Loan
             Cerritos, CA
                                                    Modifications
                                                    Financial
             PrimeWest Mortgage
                                                    Instrument for
3/15/2012    Corporation,             Purchase                                        $—     N/A          9      3/15/2012            $100,000       $100,000    Transfer of cap due to servicing transfer                    $—           $—                   $—                  $—
                                                    Home Loan
             Lubbock, TX
                                                    Modifications
                                                                                                                 6/14/2012            $940,000       $940,000    Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012            $205,242     $1,145,242    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012                 ($3)    $1,145,239    Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012                 ($1)    $1,145,238    Updated due to quarterly assessment and reallocation
                                                                                                                 1/16/2013             $10,000     $1,155,238    Transfer of cap due to servicing transfer

                                                    Financial                                                    2/14/2013           $8,690,000    $9,845,238    Transfer of cap due to servicing transfer
             Resurgent Capital
                                                    Instrument for
6/14/2012    Solutions, LP,           Purchase                                        $—     N/A          9      3/14/2013           $1,390,000   $11,235,238    Transfer of cap due to servicing transfer                $89,554    $248,799           $146,811              $485,164
                                                    Home Loan
             Greenville, SC
                                                    Modifications                                                3/25/2013               ($219)   $11,235,019    Updated due to quarterly assessment and reallocation
                                                                                                                 5/16/2013            $620,000    $11,855,019    Transfer of cap due to servicing transfer
                                                                                                                 6/14/2013            $990,000    $12,845,019    Transfer of cap due to servicing transfer
                                                                                                                 6/27/2013                ($96)   $12,844,923    Updated due to quarterly assessment and reallocation
                                                                                                                 7/16/2013           $5,780,000   $18,624,923    Transfer of cap due to servicing transfer
                                                                                                                 9/27/2013                ($50)   $18,624,873    Updated due to quarterly assessment and reallocation
                                                                                                                11/15/2012             $30,000        $30,000    Transfer of cap due to servicing transfer
                                                                                                                12/14/2012             $70,000       $100,000    Transfer of cap due to servicing transfer
                                                                                                                 1/16/2013            ($10,000)       $90,000    Transfer of cap due to servicing transfer
                                                    Financial
             Kondaur Capital                                                                                     2/14/2013            ($10,000)       $80,000    Transfer of cap due to servicing transfer
                                                    Instrument for
11/15/2012   Corporation,             Purchase                                        $—     N/A          9                                                                                                                   $—           $—                  $400               $400
                                                    Home Loan                                                    4/16/2013            ($10,000)       $70,000    Transfer of cap due to servicing transfer
             Orange, CA
                                                    Modifications
                                                                                                                 5/16/2013            $130,000       $200,000    Transfer of cap due to servicing transfer
                                                                                                                 6/14/2013            ($50,000)      $150,000    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013




                                                                                                                 7/16/2013            ($20,000)      $130,000    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                           481
HAMP TRANSACTION DETAIL, AS OF 9/30/2013                                                          (CONTINUED)                                                                                                                                                                                                                                       482
                Servicer Modifying Borrowers’ Loans                                                                                Adjustment Details                                                                                                                                TARP Incentive Payments
                                                                                    Cap of Incentive
                                                                                Payments on Behalf
                                                                                of Borrowers and to                                                                                                                                                                                    Lenders/                                     Total TARP
                                             Transaction     Investment        Servicers & Lenders/       Pricing                   Adjustment        Cap Adjustment                                                                                           Borrower’s              Investors              Servicers               Incentive
Date            Name of Institution          Type            Description            Investors (Cap)1      Mechanism       Note            Date               Amount          Adjusted Cap     Reason for Adjustment                                            Incentives             Incentives             Incentives              Payments
                                                             Financial                                                             12/14/2012                 $10,000              $10,000    Transfer of cap due to servicing transfer
                Quicken Loans Inc,                           Instrument for
12/14/2012                                   Purchase                                               $—    N/A               9
                Detroit, MI                                  Home Loan                                                              8/15/2013                 $10,000              $20,000    Transfer of cap due to servicing transfer                                $—                    $—                     $—                         $—
                                                             Modifications
                                                                                                                                    2/14/2013                $510,000            $510,000     Transfer of cap due to servicing transfer
                                                                                                                                    3/25/2013                      ($9)          $509,991     Updated due to quarterly assessment and reallocation

                                                             Financial                                                              4/16/2013                $200,000            $709,991     Transfer of cap due to servicing transfer
                Home Servicing, LLC,                         Instrument for
2/14/2013                                    Purchase                                               $—    N/A               9       5/16/2013                 $40,000            $749,991     Transfer of cap due to servicing transfer                            $7,867               $13,545                 $8,784                $30,196
                Baton Rouge, LA                              Home Loan
                                                             Modifications                                                          6/27/2013                      ($4)          $749,987     Updated due to quarterly assessment and reallocation
                                                                                                                                    7/16/2013               ($120,000)           $629,987     Transfer of cap due to servicing transfer
                                                                                                                                    9/27/2013                      ($2)          $629,985     Updated due to quarterly assessment and reallocation
                                                             Financial                                                              3/14/2013                $130,000            $130,000     Transfer of cap due to servicing transfer
                21st Mortgage
                                                             Instrument for
3/14/2013       Corporation,                 Purchase                                               $—    N/A               9                                                                                                                                        $479               $11,009                $11,500                $22,988
                                                             Home Loan                                                              3/25/2013                      ($1)          $129,999     Updated due to quarterly assessment and reallocation
                Knoxville, TN
                                                             Modifications
                                                             Financial
                ViewPoint Bank,                              Instrument for
5/16/2013                                    Purchase                                               $—    N/A               9       5/16/2013                 $50,000              $50,000    Transfer of cap due to servicing transfer                                                    $445                                           $445
                Plano, TX                                    Home Loan
                                                                                                                                                                                                                                                                                                                                                    APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




                                                             Modifications
                                                             Financial                                                              6/14/2013                 $10,000              $10,000    Transfer of cap due to servicing transfer
                Cheviot Savings Bank,                        Instrument for
6/14/2013                                    Purchase                                               $—    N/A               9                                                                                                                                          $—                    $62                    $—                     $62
                Cheviot, OH                                  Home Loan                                                              6/27/2013                   $1,344             $11,344    Updated due to quarterly assessment and reallocation
                                                             Modifications
                                                             Financial
                                                             Instrument for
7/16/2013       Everbank, Jacksonville, FL   Purchase                                               $—    N/A               9       7/16/2013                 $60,000              $60,000    Transfer of cap due to servicing transfer                                $—                    $—                     $—                         $—
                                                             Home Loan
                                                             Modifications
                                                             Financial
                Bridgelock Capital dba
                                                             Instrument for
7/16/2013       Peak Loan Servicing,         Purchase                                               $—    N/A               9       7/16/2013                 $10,000              $10,000    Transfer of cap due to servicing transfer                                $—                    $—                     $—                         $—
                                                             Home Loan
                Woodland Hills, CA
                                                             Modifications
                                                           Total Initial Cap       $23,831,570,000                     Total Cap Adjustments         $6,035,239,941                                                                           Totals    $1,319,056,373        $3,239,056,901         $1,952,724,552          $6,510,837,825
                                                                                                                                      Total Cap    $29,866,809,941
Notes: Numbers may be affected by rounding. Data as of 9/30/2013. Numbered notes are taken verbatim from Treasury’s 9/27/2013 Transactions Report-Housing Programs.

1
   he Cap of Incentive Payments represents the potential total amount allocated to each servicer and includes the maximum amount allotted for all payments on behalf of borrowers and payments to servicers and lenders/investors. The Cap is subject to adjustment based on the total amount allocated to the program and individual
  T
  servicer usage for borrower modifications. Each adjustment to the Cap is reflected under Adjustment Details.
2
  On July 31, 2009, the SPA with Chase Home Finance, LLC was terminated and superseded by new SPAs with J.P. Morgan Chase Bank, NA and EMC Mortgage Corporation.
3
   Wachovia Mortgage, FSB was merged with Wells Fargo Bank, NA, and the remaining Adjusted Cap stated above represents the amount previously paid to Wachovia Mortgage, FSB prior to such merger.
4
   Initial cap amount includes FHA-HAMP.
5
   Initial cap amount includes RD-HAMP.
6
   Initial cap amount includes 2MP.
7
   Initial cap amount includes FHA-2LP.
8
   Initial cap does not include HAMP.
9
   This institution executed an Assignment and Assumption Agreement (a copy of which is available on www.FinancialStability.gov) with respect to all rights and obligations for the transferred loan modifications. The amount transferred is realized as a cap adjustment and not as initial cap.
10
    The amendment reflects a change in the legal name of the institution.
11
    MorEquity, Inc executed a subservicing agreement with Nationstar Mortgage, LLC, that took effect 02/01/2011. All mortgage loans including all HAMP loans were transferred to Nationstar. The remaining Adjusted Cap stated above represents the amount previously paid to MorEquity, Inc. prior to such agreement.
12
    The remaining Adjusted Cap stated above represents the amount paid to servicer prior to SPA termination.
13
    Bank of America, N.A., Home Loan Services, Inc. and Wilshire Credit Corporation were merged into BAC Home Loans Servicing, LP. and the remaining Adjusted Cap stated above represents the amount previously paid to each servicer prior to such merger.
14
    In April 2011, EMC Mortgage, an indirect subsidiary of JP Morgan Chase & Co, transferred the servicing of all loans to JP Morgan Chase Bank, NA. The remaining Adjusted Cap stated above represents the amount previously paid to EMC Mortgage prior to such transfer.
15
    RBC Bank (USA) was merged with PNC Bank, NA, and the remaining Adjusted Cap stated above represents the amount previously paid to RBC Bank (USA) prior to such merger.  
16
    On July 1, 2012, Saxon Mortgage Services, Inc. ceased servicing operations by selling its mortgage servicing rights and transferring the subservicing relationships to third-party servicers. The remaining Adjusted Cap stated above represents the amount previously paid to Saxon Mortgage Services, Inc. prior to ceasing servicing
     operations.
17
     As of July,3 2012, Aurora Loan Services LLC has discontinued its servicing function and sold all remaining servicing rights to Nationstar Mortgage. The remaining Adjusted Cap stated above represents the amount previously paid to Aurora Loan Services LLC, prior to ceasing servicing operations.

As used in this table:
“HAFA” means the Home Affordable Foreclosure Alternatives program.
“HPDP” means the Home Price Decline Protection program.
“2MP” means the Second Lien Modification Program.
“RD-HAMP” means the Rural Housing Service Home Affordable Modification Program.
“FHA-2LP” means the FHA Second Lien Program

Source: Treasury, Transactions Report-Housing Programs, 9/27/2013.
TABLE D.14
HARDEST HIT FUND (HHF) PROGRAM TRANSACTION DETAIL, AS OF 9/30/2013
                   Seller
                                                                                              Transaction                                                                                                                            Pricing
Note   Date        Name of Institution                                                        Type          Investment Description                 Initial Investment Amount   Additional Investment Amount   Investment Amount1     Mechanism
       6/23/2010                                                                                            Financial Instrument for HHF Program              $102,800,000                              —                            N/A
2      9/23/2010   Nevada Affordable Housing Assistance Corporation, Reno, NV                 Purchase      Financial Instrument for HHF Program                         —                     $34,056,581          $194,026,240     N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                     $57,169,659                           N/A
       6/23/2010                                                                                            Financial Instrument for HHF Program              $699,600,000                              —                            N/A
2      9/23/2010   CalHFA Mortgage Assistance Corporation, Sacramento, CA                     Purchase      Financial Instrument for HHF Program                         —                    $476,257,070        $1,975,334,096     N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $799,477,026                           N/A
       6/23/2010                                                                                            Financial Instrument for HHF Program              $418,000,000                              —                            N/A
2      9/23/2010   Florida Housing Finance Corporation, Tallahassee, FL                       Purchase      Financial Instrument for HHF Program                         —                    $238,864,755        $1,057,839,136     N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $400,974,381                           N/A
       6/23/2010                                                                                            Financial Instrument for HHF Program              $125,100,000                              —                            N/A
                   Arizona (Home) Foreclosure Prevention Funding Corporation, Phoenix, AZ     Purchase                                                                                                              $267,766,006
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $142,666,006                           N/A
       6/23/2010                                                                                            Financial Instrument for HHF Program              $154,500,000                              —                            N/A
2      9/23/2010   Michigan Homeowner Assistance Nonprofit Housing Corporation, Lansing, MI   Purchase      Financial Instrument for HHF Program                         —                    $128,461,559          $498,605,738     N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $215,644,179                           N/A
       8/3/2010                                                                                             Financial Instrument for HHF Program              $159,000,000                              —                            N/A
2      9/23/2010   North Carolina Housing Finance Agency, Raleigh, NC                         Purchase      Financial Instrument for HHF Program                         —                    $120,874,221          $482,781,786     N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $202,907,565                           N/A
       8/3/2010                                                                                             Financial Instrument for HHF Program              $172,000,000                              —                            N/A
2      9/23/2010   Ohio Homeowner Assistance LLC, Columbus, OH                                Purchase      Financial Instrument for HHF Program                         —                    $148,728,864          $570,395,099     N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $249,666,235                           N/A
       8/3/2010                                                                                             Financial Instrument for HHF Program               $88,000,000                              —                            N/A
2      9/23/2010   Oregon Affordable Housing Assistance Corporation, Salem, OR                Purchase      Financial Instrument for HHF Program                         —                     $49,294,215          $220,042,786     N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                     $82,748,571                           N/A
       8/3/2010                                                                                             Financial Instrument for HHF Program               $43,000,000                              —                            N/A
2      9/23/2010   Rhode Island Housing and Mortgage Finance Corporation, Providence, RI      Purchase      Financial Instrument for HHF Program                         —                     $13,570,770           $79,351,573     N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                     $22,780,803                           N/A
       8/3/2010                                                                                             Financial Instrument for HHF Program              $138,000,000                              —                            N/A
2      9/23/2010   SC Housing Corp, Columbia, SC                                              Purchase      Financial Instrument for HHF Program                         —                     $58,772,347          $295,431,547     N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                     $98,659,200                           N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program               $60,672,471                              —                            N/A
                   Alabama Housing Finance Authority, Montgomery, AL                          Purchase                                                                                                              $162,521,345
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $101,848,874                           N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program               $55,588,050                              —                            N/A
                   Kentucky Housing Corporation, Frankfort, KY                                Purchase                                                                                                              $148,901,875
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                     $93,313,825                           N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program               $38,036,950                              —                            N/A
                   Mississippi Home Corporation, Jackson, MS                                  Purchase                                                                                                              $101,888,323
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                     $63,851,373                           N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program              $126,650,987                              —                            N/A
                   GHFA Affordable Housing, Inc., Atlanta, GA                                 Purchase                                                                                                              $339,255,819
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $212,604,832                           N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program               $82,762,859                              —                            N/A
                   Indiana Housing and Community Development Authority, Indianapolis, IN      Purchase                                                                                                              $221,694,139
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $138,931,280                           N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program              $166,352,726                              —                            N/A
                   Illinois Housing Development Authority, Chicago, IL                        Purchase                                                                                                              $445,603,557
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $279,250,831                           N/A
                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2013
                                                                                                                                                                                                                                                            483
HARDEST HIT FUND (HHF) PROGRAM TRANSACTION DETAIL, AS OF 9/30/2013                                                                                                   (CONTINUED)                                                                                                                484
                         Seller
                                                                                                             Transaction                                                                                                                                                            Pricing
Note     Date            Name of Institution                                                                 Type              Investment Description                         Initial Investment Amount        Additional Investment Amount                 Investment Amount1      Mechanism
         9/23/2010                                                                                                             Financial Instrument for HHF Program                        $112,200,637                                        —                                    N/A
                         New Jersey Housing and Mortgage Finance Agency, Trenton, NJ                         Purchase                                                                                                                                                $300,548,144
3        9/29/2010                                                                                                             Financial Instrument for HHF Program                                      —                       $188,347,507                                       N/A
         9/23/2010                                                                                                             Financial Instrument for HHF Program                           $7,726,678                                       —                                    N/A
                         District of Columbia Housing Finance Agency, Washington, DC                         Purchase                                                                                                                                                 $20,697,198
3        9/29/2010                                                                                                             Financial Instrument for HHF Program                                      —                         $12,970,520                                      N/A
         9/23/2010                                                                                                             Financial Instrument for HHF Program                          $81,128,260                                       —                                    N/A
                         Tennessee Housing Development Agency, Nashville, TN                                 Purchase                                                                                                                                                $217,315,593
3        9/29/2010                                                                                                             Financial Instrument for HHF Program                                      —                       $136,187,333                                       N/A
                                                                                                                                                                                                                     Total Investment Amount                       $7,600,000,000
Notes: Numbers may be affected by rounding. Data as of 9/30/2013. Numbered notes are taken verbatim from Treasury’s 9/27/2013 Transactions Report—Housing Programs.

1
 	The purchase will be incrementally funded up to the investment amount.
2
 	On 9/23/2010, Treasury provided additonal investment to this HFA and substituted its investment for an amended and restated Financial Instrument.
3
 	On 9/29/2010, Treasury provided additonal investment to this HFA and substituted its investment for an amended and restated Financial Instrument.

Source: Treasury, Transactions Report–Housing Programs, 9/27/2013.




TABLE D.15
                                                                                                                                                                                                                                                                                                APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2013




FHA SHORT REFINANCE PROGRAM, AS OF 9/30/2013
                                                                                                                                                              Initial Investment            Investment
Note      Date           Seller Name                         Transaction Type      Investment Description                                                                Amount            Adjustments          Investment Amount        Pricing Mechanism
1         9/3/2010                                                                                                                                             $8,117,000,000                          —            $1,025,000,000       N/A
                         Citigroup, Inc., New York, NY       Purchase              Facility Purchase Agreement
2         3/4/2013                                                                                                                                                             —      ($7,092,000,000)                                   N/A
                                                                                                                                                                             Total Investment Amount               $1,025,000,000
Notes: Numbers may be affected by rounding. Data as of 9/30/2013. Numbered notes are taken verbatim from Treasury’s 9/27/2013 Transactions Report–Housing Programs.

1
 	On September 3, 2010, the U.S. Department of the Treasury and Citibank, N.A. entered into a facility purchase agreement (the ‘L/C Facility Agreement”), which allowed Treasury to demand from Citigroup the issuance of an up to $8 billion, 10-
   year letter of credit (the “L/C”). Treasury will increase availability under the L/C incrementally in proportion to the mortgages refinanced under the FHA Short Refinance program during the eligibility period. After that time, the amount of the L/C will
   be capped at the then-current level. Under the terms of the L/C Facility Agreement, Treasury could incur fees for the availability and usage of the L/C up to a maximum amount of $117 million.
2
 	On March 4, 2013, the U.S. Department of the Treasury and Citibank, N.A. entered into Amendment No. 1 to the L/C Facility Agreement, which reduced the maximum amount of the L/C from $8 billion to $1 billion; extends by two years the
   period of time Treasury has to increase the L/C to cover new loans that are entered into the program; and modified the fee structure paid to Citibank, N.A. Based on this new fee structure and the lower L/C, Treasury expects that the fees
   incurred for the availability and usage of the L/C will not exceed $25 million.

Source: Treasury, Transactions Report–Housing Programs, 9/27/2013.
                                                        DEBT AGREEMENTS, EQUITY AGREEMENTS, AND DIVIDEND/INTEREST PAYMENTS I APPENDIX E I OCTOBER 29, 2013                                             485




DEBT AGREEMENTS, EQUITY AGREEMENTS, AND
DIVIDEND/INTEREST PAYMENTS
TABLE E.1
 DEBT AGREEMENTS, AS OF 9/30/2013
 TARP                              Date of               Cost                Description of                                                           Interest/                     Term of
 Program        Company            Agreement             Assigned            Investment                 Investment Information                        Dividends                     Agreement
                                                                                                        Each QFI may issue senior
                                                                             Senior                     securities with an aggregate                  7.7% for first 5
                                                                             Subordinated               principal amount of 1%–3% of its              years; 13.8%                  30 years
                                                                             Securities                 risk-weighted assets, but not to              thereafter
 CPP –          Originally                                                                              exceed $25 billion.
                                   1/14/2009a            $0.5 billion
 S-Corps        52 QFIs                                                      Senior                     Treasury will receive warrants
                                                                             Subordinated               to purchase an amount equal
                                                                             Security Warrants          to 5% of the senior securities                13.8%                         30 years
                                                                             that are exercised         purchased on the date of
                                                                             immediately                investment.
                                                                                                        Each QCU may issue CDCI
                                                                                                        Senior Securities with an
 CDCI –                                                                      Subordinated               aggregate principal amount equal
                                                                                                                                           2% for first 8 years,                    CDCI – Credit
 Credit         All                                                          Debt for Credit            to not more than 3.5% of its total
                                                                                                                                           9% thereafter                            Unions
 Unions                                                                      Unions                     assets and not more than 50%
                                                                                                        of the capital and surplus of the
                                                                                                        QCU.
                                                                                                        Each QFI may issue CDCI Senior
                                                                                                        Securities with an aggregate
                                                                                                        principal amount equal to not
                                                                                                        more than 5% of (i), if the QFI is a
                                                                                                        Certified Entity the risk-weighted
                                                                                                        assets of the QFI, or (ii), if the            3.1% for first 8
 CDCI –                                                                      Subordinated                                                                                           CDCI –
                                                                                                        QFI is not a Certified Entity, the            years, 13.8%
 S-Corps                                                                     Debt for S-Corps                                                                                       S-Corps
                                                                                                        sum of the RWAs of each of the                thereafter
                                                                                                        Certified Entities, in each case
                                                                                                        less the aggregate capital or,
                                                                                                        as the case may be, principal
                                                                                                        amount of any outstanding TARP
                                                                                                        assistance of the QFI.
                                                                                                                                                                                    The debt
                                                                                                                                                                                    obligation for
                                                                                                                                                                                    each fund
                                                                             Debt Obligation
                                                                                                        Each of the loans will be funded                                            matures at
                                   9/30/2009                                 with Contingent
 PPIP           All                                      $20 billion                                    incrementally, upon demand by                 LIBOR + 1%                    the earlier
                                   and later                                 Interest
                                                                                                        the fund manager.                                                           of the
                                                                             Promissory Note
                                                                                                                                                                                    dissolution of
                                                                                                                                                                                    the fund or
                                                                                                                                                                                    10 years.
 Notes: Numbers may be affected due to rounding.
 a
   Announcement date of CPP S-Corporation Term Sheet.

 Sources: Treasury, “Loan and Security Agreement By and Between General Motors Corporation as Borrower and The United States Department of Treasury as Lender Dated as of December 31, 2008,”
 12/31/2008; OFS, response to SIGTARP draft report, 1/30/2009; Treasury, Transactions Report, 9/30/2010; Treasury, response to SIGTARP data call, 10/7/2010; Treasury’s “TARP Community
 Development Capital Initiative Program Agreement, CDFI Bank/Thrift Senior Preferred Stock, Summary of CDCI Senior Preferred Terms,” 4/26/2010; Treasury’s “TARP Community Development Capital
 Initiative CDFI Credit Unions Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury’s “TARP’s Community Development Capital Initiative CDFI Subchapter S Corporation
 Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury, “Legacy Securities Public-Private Investment Partnership Summary of Indicative Terms and Conditions,” 7/8/2009.
486              APPENDIX E I DEBT AGREEMENTS, EQUITY AGREEMENTS, AND DIVIDEND/INTEREST PAYMENTS I OCTOBER 29, 2013




      TABLE E.2
       EQUITY AGREEMENTS, AS OF 9/30/2013
       TARP                           Date of          Cost           Description                                                              Term of
       Program       Company          Agreement        Assigned       of Investment      Investment Information            Dividends           Agreement
                                                                      Senior             1–3% of risk-weighted assets,     5% for first
                                                                      Preferred          not to exceed $25 billion for     5 years, 9%         Perpetual
                                                                      Equity             each QFI                          thereafter
       CPP –         Originally       10/14/2008a      $200.1
       Public        286 QFIs         and later        billion        Common
                                                                      Stock              15% of senior preferred
                                                                                                                           —                   Up to 10 years
                                                                      Purchase           amount
                                                                      Warrants
                                                                                         1–3% of risk-weighted assets,     5% for first
                                                                      Preferred
                                                                                         not to exceed $25 billion for     5 years, 9%         Perpetual
                                                                      Equity
                                                                                         each QFI                          thereafter

       CPP –         Originally       11/17/2008b                     Preferred
                                                       $4 billion     Stock
       Private       369 QFIs         and later
                                                                      Purchase
                                                                                         5% of preferred amount            9%                  Perpetual
                                                                      Warrants that
                                                                      are exercised
                                                                      immediately
                                                                      Preferred
                                                                                         5% of risk-weighted assets        2% for first
                                                       $780.2         Equity for
       CDCI          All                                                                 for banks and bank holding        eight years, 9%     Perpetual
                                                       million        banks & thrift
                                                                                         companies.                        thereafter
                                                                      institutions
                                                                                                                                               8 years with the
                                                                      Membership         Each membership interest will
                                      9/30/2009                                                                                                possibility of
       PPIP          All                               $10 billion    interest in a      be funded upon demand from        —
                                      and later                                                                                                extension for 2
                                                                      partnership        the fund manager.
                                                                                                                                               additional years
                                                                      Mandatorily                                                              Converts to
                                                                      Convertible                                                              common equity
                                                                                         $5 billion                        9%
                                                                      Preferred                                                                interest after 7
                                                                      Stock                                                                    years
                     Ally Financial
       AIFP          Inc. (formerly   12/29/2008       $5 billion     Preferred
                     GMAC)                                            Stock                                                                    Converts to
                                                                      Purchase                                                                 common equity
                                                                                         5% of original preferred amount   9%
                                                                      Warrants that                                                            interest after 7
                                                                      are exercised                                                            years
                                                                      immediately
                                                                      Mandatorily                                                              Converts to
                                                                      Convertible                                                              common equity
                                                                                         $4.5 billion                      9%
                                                                      Preferred                                                                interest after 7
                                                                      Stockc                                                                   years
                                                                      Preferred
                     Ally Financial
                                                                      Stock                                                                    Converts to
       AIFP          Inc. (formerly   5/21/2009        $7.5 billion
                                                                      Purchase                                                                 common equity
                     GMAC)                                                               5% of original preferred amount   9%
                                                                      Warrants that                                                            interest after 7
                                                                      are exercised                                                            years
                                                                      immediately
                                                                      Common
                                                                                         $3 billion                        —                   Perpetual
                                                                      Equity Interestd
                                                                                                                                          Continued on next page
                                                       DEBT AGREEMENTS, EQUITY AGREEMENTS, AND DIVIDEND/INTEREST PAYMENTS I APPENDIX E I OCTOBER 29, 2013                                                 487




EQUITY AGREEMENTS, AS OF 9/30/2013                                    (CONTINUED)

TARP                                    Date of                  Cost                Description                                                                                   Term of
Program           Company               Agreement                Assigned            of Investment          Investment Information                       Dividends                 Agreement
                                                                                                            This equity interest was
                                                                                                            obtained by exchanging a
                  Ally Financial
                                                                                     Common                 prior debt obligation with
AIFP              Inc. (formerly        5/29/2009                $0.9 billion                                                                            —                         Perpetual
                                                                                     Equity Interest        General Motors. See “Debt
                  GMAC)
                                                                                                            Agreements” table for more
                                                                                                            information.
                                                                                     Trust Preferred
                                                                                                            $2.5 billion                                 8%
                                                                                     Securities
                  Ally Financial                                                     Trust Preferred                                                                               Redeemable upon
AIFP              Inc. (formerly        12/30/2009               $2.5 billion        purchase                                                                                      the repayment of
                  GMAC)                                                              warrants that          5% of trust preferred amount                 —                         the debenture
                                                                                     are exercised
                                                                                     immediately
                                                                                     Mandatorily
                                                                                     Convertible
                                                                                                            $1.3 billion                                 9%
                                                                                     Preferred
                                                                                     Stock                                                                                         Converts to
                  Ally Financial
                                                                                     Preferred                                                                                     common equity
AIFP              Inc. (formerly        12/30/2009               $1.3 billion
                                                                                     Stock                                                                                         interest after 7
                  GMAC)
                                                                                     Purchase                                                                                      years
                                                                                                            5% of preferred amount                       —
                                                                                     Warrants that
                                                                                     are exercised
                                                                                     immediately

                  Ally Financial
                                                                                     Common
AIFP              Inc. (formerly        12/30/2009               $5.5 billion                               $5.5 billion                                 —                         Perpetual
                                                                                     Equity Interestd
                  GMAC)

Notes: Numbers may be affected due to rounding.
a
  Announcement date of CPP Public Term Sheet.
b
   Announcement date of CPP Private Term Sheet.
c
  On 12/31/2009, Treasury exchanged $5.25 billion of preferred stock, which it acquired on December 29, 2009, into mandatorily convertible preferred stock (“MCP”).
d
  On 12/31/2010, Treasury converted $5.5 billion of its existing MCP, which was invested in May 2009, into common equity. Treasury’s equity ownership of Ally Financial Inc. (formerly GMAC) increased
   from 56% to 74% due to this conversion.

Sources: Treasury, “TARP Capital Purchase Program Agreement, Senior Preferred Stock and Warrants, Summary of Senior Preferred Terms,” 10/14/2008; Treasury, “TARP Capital Purchase Program
Agreement, (Non-Public QFIs, excluding S Corps and Mutual Organizations) Preferred Securities, Summary of Warrant Terms,” 11/17/2008; Treasury, “Securities Purchase Agreement dated as of January
15, 2009 between Citigroup, Inc. and United States Department of Treasury,” 1/15/2009; Treasury, “Citigroup, Inc. Summary of Terms, Eligible Asset Guarantee,” 11/23/2008; “Securities Purchase
Agreement dated as of January 15, 2009 between Bank of America Corporation and United States Department of Treasury,” 1/15/2009; Treasury, “Bank of America Summary of Terms, Preferred
Securities,” 1/16/2009; Treasury, “GMAC LLC Automotive Industry Financing Program, Preferred Membership Interests, Summary of Preferred Terms,” 12/29/2008; Treasury, Transactions Report,
3/31/2011; Treasury, response to SIGTARP data call, 10/7/2010; Treasury, “TARP Community Development Capital Initiative Program Agreement, CDFI Bank/Thrift Senior Preferred Stock, Summary of
CDCI Senior Preferred Terms,” 4/26/2010; Treasury, “TARP Community Development Capital Initiative CDFI Credit Unions Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010;
Treasury, “TARP’s Community Development Capital Initiative CDFI Subchapter S Corporation Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury, “Treasury Converts
Nearly Half of Its Ally Preferred Shares to Common Stock,” 12/30/2010; Ally Financial Inc. (GOM), 8−K, 12/30/2010; Treasury, Transactions Report, 9/28/2012; Treasury, “Master Transaction Agreement
for American International Group. INC, ALICO Holdings LLC, AIA Aurora LLC, Federal Reserve Bank of New York, United States Treasury, and AIG Credit Facility Trust,” 12/8/2010; Treasury, “Legacy
Securities Public-Private Investment Partnership Summary of Indictive Terms and Conditions,” 7/8/2009; Treasury, Transactions Report, 9/30/2013.
488               APPENDIX E I DEBT AGREEMENTS, EQUITY AGREEMENTS, AND DIVIDEND/INTEREST PAYMENTS I OCTOBER 29, 2013




      TABLE E.3
       DIVIDENDS, INTEREST, DISTRIBUTIONS, AND OTHER INCOME PAYMENTS, AS OF 9/30/2013
                                                       Dividends                             Interest                   Distributionsa                    Other Incomeb                                    Total
      CPP   c
                                             $11,907,520,345                        $117,857,428                                      $—              $14,742,628,020                    $26,768,005,793
      CDCI                                           23,128,126                         10,088,028                                      —                                  —                     33,216,154
      SSFI   d
                                                   641,275,676                                       —                                  —                   609,367,994                      1,250,643,670
      TIP                                       3,004,444,444                                        —                                  —                 1,427,190,941                      4,431,635,385
      AGP                                          642,429,968                              402,300                                     —                 3,483,197,045                      4,126,029,313
      TALF                                                        —                     13,407,761                                      —                   570,079,981                        583,487,742
      PPIP                                                        —                   319,904,451                        922,866,622                      2,635,984,657                      3,878,755,730
      UCSB                                                        —                     13,347,352                                      —                     29,201,849                         42,549,201
      AIFP  e
                                                3,808,925,801                      1,665,336,675                                        —                   627,000,000                      6,101,262,476
      ASSP                                                        —                     14,874,984                                      —                   101,074,947                        115,949,931
      Total                                $20,027,724,360                      $2,155,218,979                        $922,866,622                  $24,225,725,434                    $47,331,535,395

      Notes: Numbers may not total due to rounding.
      a
        Distributions are gross income from PPIF trading activity and do not include return of equity capital to Treasury.
      b
         Other income includes Citigroup common stock gain for CPP, Citigroup payment for AGP, warrant sales, additional note proceeds from the auto programs and the Consumer and Business Lending
          Initiative/SBA 7(a) programs, principal repayments on the SBA 7(a) program, and repayments associated with capital gains and warrant proceeds in PPIP as PPIFs are liquidated.
      c
        Includes $13 million fee received as part of the Popular exchange.
      d
        Pursuant to the recapitalization plan on 1/14/2011, AIG had an additional obligation to Treasury of $641,275,676 to reflect the cumulative unpaid interest which further converted into AIG common stock.
         Other income from SSFI includes $165 million in fees and approximately $292.1 million representing return on securities held in the AIA and ALICO SPVs.
      e
        Includes AWCP.

      Sources: Treasury, Transactions Report, 9/30/2013; Treasury, Section 105(a) Report, 10/10/2013; Treasury, Dividends and Interest Report, 10/10/2013.
HAMP MODIFICATION STATISTICS
TABLE F.1

 ANNUAL AND CUMULATIVE HAMP TIER 1 MODIFICATION ACTIVITY, AS OF 9/30/2013
                                                                                             Trials           Trials Converted to               Permanents
                        Trials Started                        Trials Cancelled                                                                                             Permanents Paid Off               Permanents Active
                                                                                             Active               Permanent                     Redefaulted
                           Annual      Cumulative            Annual      Cumulative           Annual            Annual      Cumulative        Annual    Cumulative         Annual        Cumulative         Annual         Cumulative
 TARP      2009          392,129            392,129          23,720            23,720       344,776             23,633              23,633       129              129               2                 2       23,502       23,502
           2010          275,989            668,118        302,610            326,330         74,893          243,262              266,895    29,015          29,144             233               235      214,014        237,516
           2011          170,075            838,193          16,798           343,128         42,916          185,254              452,149    59,080          88,224             659               894      125,515        363,031
           2012          114,227            952,420           6,062           349,190         36,336          114,745              566,894    58,860        147,084            1,498             2,392        54,388       417,419
           2013            73,168        1,025,588            1,939           351,129         28,888            78,677             645,571    36,939        184,023            2,614             5,006        39,123       456,542
            Total     1,025,588                            351,129                                            645,571                        184,023                           5,006                        456,542
 GSE       2009          510,491            510,491          24,731            24,731       442,455             43,305              43,305       339              339               3                 3       42,963       42,963
           2010          287,839            798,330        383,448            408,179         77,396          269,450              312,755    27,730          28,069             569               572      241,151        284,114
           2011          138,072            936,402          10,654           418,833         36,391          168,423              481,178    51,287          79,356           1,442             2,014      115,694        399,808
           2012            81,478        1,017,880            4,814           423,647         25,775            87,280             568,458    49,229        128,585            5,271             7,285        32,780       432,588
                                                                                                                                                                                                                       a
           2013            27,644        1,045,524            4,347           427,994         15,988            33,084             601,542    25,246        153,831            8,574           15,859          (736)       431,852
            Total     1,045,524                            427,994                                            601,542                        153,831                         15,859                         431,852
 Total     2009          902,620            902,620          48,451            48,451       787,231             66,938              66,938       468              468               5                 5       66,465       66,465
           2010          563,828         1,466,448         686,058            734,509       152,289           512,712              579,650    56,745          57,213             802               807      455,165        521,630
           2011          308,147         1,774,595           27,452           761,961         79,307          353,677              933,327   110,367        167,580            2,101             2,908      241,209        762,839
           2012          195,705         1,970,300           10,876           772,837         62,111          202,025         1,135,352      108,089        275,669            6,769             9,677        87,168       850,007
           2013          100,812         2,071,112            6,286           779,123         44,876          111,761         1,247,113       62,185        337,854          11,188            20,865         38,387       888,394
           Total     2,071,112                            779,123                                         1,247,113                          337,854                        20,865                         888,394
 Notes: Data is as of December 31, 2009; December 31, 2010; December 31, 2012; and September 30, 2013.
 a
   This number is negative due to change in status from GSE to non-GSE TARP of some mortgages with HAMP permanent modifications.

 Sources: Treasury, responses to SIGTARP data calls, 10/23/2013, 10/21/2013, 7/19/2013, 2/28/2013, 1/22/2013, 1/20/2012, and 1/21/2011; Fannie Mae, response to SIGTARP data call 10/21/2013; SIGTARP Quarterly Report to Congress,
 1/30/2013; SIGTARP Quarterly Report to Congress, 1/26/2012; SIGTARP Quarterly Report to Congress, 1/26/2011; SIGTARP Quarterly Report to Congress, 1/30/2010.
                                                                                                                                                                                                                                        HAMP MODIFICATION STATISTICS I APPENDIX F I OCTOBER 29, 2013
                                                                                                                                                                                                                                        351
352              APPENDIX G I CROSS-REFERENCE OF REPORT TO THE INSPECTOR GENERAL ACT OF 1978 | OCTOBER 29, 2013




      CROSS-REFERENCE OF REPORT TO THE INSPECTOR GENERAL ACT OF 1978
      This appendix cross-references this report to the reporting requirements under the Inspector General Act of 1978
      (P.L. 95-452), as amended, 5 U.S.C. APP.

      Section      Statute (Inspector General Act of 1978)                 SIGTARP Action                              Report Reference

      Section      “Description of significant problems, abuses, and       List problems, abuses, and deficiencies     Section 1: “The Office of the SIGTARP”
      5(a)(1)      deficiencies...”                                        from SIGTARP audits and investigations.     Section 5: “SIGTARP Recommendations”
                   “Description of recommendations for corrective                                                      Section 1: “The Office of the SIGTARP”
      Section                                                              List recommendations from SIGTARP
                   action…with respect to significant problems,
      5(a)(2)                                                              audits and investigations.                  Section 5: “SIGTARP Recommendations”
                   abuses, or deficiencies...”
                   “Identification of each significant recommendation      List all instances of incomplete
      Section
                   described in previous semiannual reports on which       corrective action from previous             Section 5: “SIGTARP Recommendations”
      5(a)(3)
                   corrective action has not been completed...”            semiannual reports.
                   “A summary of matters referred to prosecutive
      Section                                                              List status of SIGTARP investigations
                   authorities and the prosecutions and convictions                                                    Section 1: “The Office of the SIGTARP”
      5(a)(4)                                                              referred to prosecutive authorities.
                   which have resulted...”
                   “A summary of each report made to the [Treasury
      Section      Secretary] under section 6(b)(2)...” (instances         List TARP oversight reports by Treasury,    Appendix I: “Key Oversight Reports
      5(a)(5)      where information requested was refused or              GAO, and SIGTARP.                           and Testimony”
                   not provided).
                   “A listing, subdivided according to subject matter,
      Section      of each audit report issued...” showing dollar value
                                                                           List SIGTARP audits.                        Section 1: “The Office of the SIGTARP”
      5(a)(6)      of questioned costs and recommendations that
                   funds be put to better use.
      Section      “A summary of each particularly significant             Provide a synopsis of significant
                                                                                                                       Section 1: “The Office of the SIGTARP”
      5(a)(7)      report...”                                              SIGTARP audits.
                   “Statistical tables showing the total number of         Provide statistical tables showing          Section 1: “The Office of the SIGTARP”
      Section
                   audit reports and the total dollar value of             dollar value of questioned costs from
      5(a)(8)                                                                                                          Section 5: “SIGTARP Recommendations”
                   questioned costs...”                                    SIGTARP audits.
                                                                                                                       As detailed in Section 1: “The Office of the
                   “Statistical tables showing the total number of audit   Provide statistical tables showing dollar   SIGTARP,” SIGTARP has made important
      Section
                   reports and the dollar value of recommendations         value of funds put to better use by         findings in its audit reports. However, to date
      5(a)(9)
                   that funds be put to better use by management...”       management from SIGTARP audits.             SIGTARP’s audits have not included funds put
                                                                                                                       to better use findings.
                   “A summary of each audit report issued before
                   the commencement of the reporting period for
                                                                           Provide a synopsis of significant
                   which no management decision has been made by                                                       Section 1: “The Office of the SIGTARP”
      Section                                                              SIGTARP audit reports in which
                   the end of reporting period, an explanation of the
      5(a)(10)                                                             recommendations by SIGTARP are              Section 5: “SIGTARP Recommendations”
                   reasons such management decision has not been
                                                                           still open.
                   made, and a statement concerning the desired
                   timetable for achieving a management decision...”
                                                                           Explain audit reports in which              Section 1: “The Office of the SIGTARP”
      Section      “A description and explanation of the reasons for
                                                                           significant revisions have been made to
      5(a)(11)     any significant revised management decision...”                                                     Section 5: “SIGTARP Recommendations”
                                                                           management decisions.
                   “Information concerning any significant                                                             Section 1: “The Office of the SIGTARP”
      Section                                                              Provide information where management
                   management decision with which the Inspector
      5(a)(12)                                                             disagreed with a SIGTARP audit finding.     Section 5: “SIGTARP Recommendations”
                   General is in disagreement...”
                                                                  PUBLIC ANNOUNCEMENTS OF AUDITS I APPENDIX H I OCTOBER 29, 2013          353




PUBLIC ANNOUNCEMENTS OF AUDITS
This appendix provides an announcement of new and              GAO3
ongoing public audits by the agencies listed below, as of      Ongoing Audits
September 30, 2013. See Appendix I: “Key Oversight Reports     •	 For the week of October 7, a report on exit strategy for
and Testimony” for a listing of published reports. Italic         AIFP.4
style indicates narrative taken verbatim from the agencies’    •	 The Financial Audit will be in November, as usual.
responses to SIGTARP’s data call.                              •	 The current plan is to do another HAMP report in January
•	 U.S. Department of Treasury Office of Inspector General        and another CPP report for March.
    (“Treasury OIG”)
•	 Federal Reserve Board Office of Inspector General           FDIC OIG5
    (“Federal Reserve OIG”)                                    Ongoing Audits
•	 Government Accountability Office (“GAO”)                    •	 None
•	 Federal Deposit Insurance Corporation Office of Inspector
    General (“FDIC OIG”)                                       Endnotes
                                                               1
                                                                 Treasury OIG, response to SIGTARP data call, 9/30/2013.
                                                               2
                                                                 Federal Reserve OIG, response to SIGTARP data call, 10/7/2013.
Treasury OIG1                                                  3
                                                                 GAO, response to SIGTARP data call, 9/30/2013.
Ongoing Audits
                                                               4
                                                                 This report was not released as scheduled due to the October 1, 2013,
                                                                  Government shutdown following a lapse in appropriations.
•	 None                                                        5
                                                                  FDIC OIG, response to SIGTARP data call 9/30/2013.

Federal Reserve OIG2
Ongoing Audits
•	 None
492          APPENDIX I I KEY OVERSIGHT REPORTS AND TESTIMONY I OCTOBER 29, 2013




      KEY OVERSIGHT REPORTS AND TESTIMONY
      This list reflects TARP-related reports and testimony published in the quarter ended September 30, 2013.
      See previous SIGTARP quarterly reports for lists of prior oversight reports and testimony.

      U.S. DEPARTMENT OF THE TREASURY (TREASURY)
      ROLES AND MISSION

      The mission of Treasury is to serve the American people and strengthen national security by managing the U.S. Government’s finances
      effectively; promoting economic growth and stability; and ensuring the safety, soundness, and security of the U.S. and international financial
      systems. Treasury advises the President on economic and financial issues, encourages sustainable economic growth, and fosters improved
      governance in financial institutions.

      OVERSIGHT REPORTS

      Treasury, Transactions Report, 6/28/2013 – 9/30/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-13%20
      Transactions%20Report%20as%20of%209-30-13_INVESTMENT.pdf, accessed 10/2/2013. (released weekly)

      Treasury, Daily TARP Update, 7/1/2013 – 10/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20
      Update%20-%2010.01.2013.pdf, accessed 10/2/2013.

      Treasury, TARP Monthly 105(a) Report, 7/10/2013 – 10/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Pages/Monthly-Report-to-
      Congress.aspx, accessed 10/10/2013.

      Treasury, Dividends and Interest Report, 7/10/2013 – 10/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Pages/Dividends-and-
      Interest-Reports.aspx, accessed 10/10/2013. (released monthly)

      Treasury, Making Home Affordable Program Report, 7/12/2013 – 10/11/2013, www.treasury.gov/initiatives/financial-stability/reports/Pages/
      Making-Home-Affordable-Program-Performance-Report.aspx, accessed 10/15/2013. (released monthly)

      Treasury, HAMP Activity by Metropolitan Statistical Area, 7/12/2013 – 10/11/2013, www.treasury.gov/initiatives/financial-stability/reports/Pages/
      HAMP-Report.aspx, accessed 10/15/2013. (released monthly)


      GOVERNMENT ACCOUNTABILITY OFFICE (GAO)
      ROLES AND MISSION

      GAO is tasked with performing ongoing oversight of TARP’s performance, including:

      •	   evaluating the characteristics of asset purchases and the disposition of assets acquired
      •	   assessing TARP’s efficiency in using the funds
      •	   evaluating compliance with applicable laws and regulations
      •	   assessing the efficiency of contracting procedures
      •	   auditing TARP’s annual financial statements and internal controls
      •	   submitting reports to Congress at least every 60 days.


      OVERSIGHT REPORTS

      GAO, “Troubled Asset Relief Program: GAO’s Oversight of the Troubled Asset Relief Program Activities,” GAO-13-840R, September 6, 2013,
      www.gao.gov/assets/660/657447.pdf, accessed 10/1/2013.
      GAO, “Troubled Asset Relief Program: Treasury’s Use of Auctions to Exit the Capital Purchase Program,” GAO-13-630, July 8, 2013,
      www.gao.gov/assets/660/655757.pdf, accessed 10/4/2013.
                                                                                         KEY OVERSIGHT REPORTS AND TESTIMONY I APPENDIX I I OCTOBER 29, 2013                         493




SPECIAL INSPECTOR GENERAL FOR THE TROUBLED ASSET RELIEF PROGRAM (SIGTARP)
ROLES AND MISSION

Under EESA, the Special Inspector General has the responsibility, among other things, to conduct, supervise and coordinate audits and investigations of
the purchase, management, and sale of assets under the Troubled Asset Relief Program (“TARP”).

SIGTARP’s mission is to advance economic stability by promoting the efficiency and effectiveness of TARP management, through transparency, through
coordinated oversight, and through robust enforcement against those, whether inside or outside of Government, who waste, steal or abuse TARP funds.

OVERSIGHT REPORTS

SIGTARP, “Treasury’s Role in the Decision for GM to Provide Pension and Payments to Delphi Employees,” 8/15/2013, www.sigtarp.gov/Audit%20
Reports/SIGTARP_Delphi_Report.pdf, accessed 10/1/2013.

SIGTARP, “Rising Redefaults of HAMP Mortgage Modifications Hurt Homeowners, Communities, and Taxpayers,” 7/24/2013, www.sigtarp.gov/Audit%20
Reports/Rising_Redefaults_of_HAMP_Mortgage_Modifications.pdf, accessed 10/1/2013.

SIGTARP, “Quarterly Report to Congress,” 7/24/2013, www.sigtarp.gov/Quarterly%20Reports/July_24_2013_Report_to_Congress.pdf, accessed
10/1/2013.

RECORDED TESTIMONY
SIGTARP, Written Testimony Submitted by the Honorable Christy Romero, Special Inspector General for the Troubled Asset Relief Program
(SIGTARP), Before The U.S. House Committee on Oversight and Government Reform Subcommittee on Government Operations, 9/11/2013, www.
sigtarp.gov/Testimony/SIGTARP_House_Oversight_Sub_committee_Testimony.pdf, accessed 10/3/2013.
Notes: Italic style indicates verbatim narrative taken from source documents.

Sources: Treasury, www.treasury.gov, accessed 10/1/2013; GAO, www.gao.gov, accessed 10/1/2013; OMB, www.whitehouse.gov/omb, accessed 10/1/2013; SIGTARP, www.sigtarp.gov, accessed
10/1/2013; GAO, response to SIGTARP data call, 9/30/2013
356           APPENDIX J I CORRESPONDENCE I OCTOBER 29, 2013




      CORRESPONDENCE
      This appendix provides a copy of the following correspondence:

      CORRESPONDENCE
      Date            From                To                   Regarding
                                                               Recommendations regarding not counting Small Business Lending Fund funds as TARP
      8/20/2013       SIGTARP             Treasury
                                                               "repayments"
                                                               Additional recommendations regarding homeowners redefaulting on modified
      9/3/2013        SIGTARP             Treasury
                                                               mortgages under HAMP
      9/30/2013       SIGTARP             Treasury             Recommendations regarding the appointing of directors to the boards of CPP banks

      10/10/2013      Treasury            SIGTARP              Re: Reporting of TARP Investments

      10/10/2013      Treasury            SIGTARP              Re: Treasury Response to SIGTARP HAMP Default Recommendations
CORRESPONDENCE I APPENDIX J I OCTOBER 29, 2013   357
358   APPENDIX J I CORRESPONDENCE I OCTOBER 29, 2013
CORRESPONDENCE I APPENDIX J I OCTOBER 29, 2013   359
360   APPENDIX J I CORRESPONDENCE I OCTOBER 29, 2013
CORRESPONDENCE I APPENDIX J I OCTOBER 29, 2013   361
362   APPENDIX J I CORRESPONDENCE I OCTOBER 29, 2013
CORRESPONDENCE I APPENDIX J I OCTOBER 29, 2013   363
364   APPENDIX J I CORRESPONDENCE I OCTOBER 29, 2013
CORRESPONDENCE I APPENDIX J I OCTOBER 29, 2013   365
366   APPENDIX J I CORRESPONDENCE I OCTOBER 29, 2013
CORRESPONDENCE I APPENDIX J I OCTOBER 29, 2013   367
368   APPENDIX J I CORRESPONDENCE I OCTOBER 29, 2013
CORRESPONDENCE I APPENDIX J I OCTOBER 29, 2013   369
370   APPENDIX J I CORRESPONDENCE I OCTOBER 29, 2013
CORRESPONDENCE I APPENDIX J I OCTOBER 29, 2013   371
372           APPENDIX K I PEER REVIEW RESULTS I OCTOBER 29, 2013




      PEER REVIEW RESULTS
      Peer Review of SIGTARP’s Audit Division                          Peer Review of SIGTARP’s Investigations Division
      In September 2012, SIGTARP’s Audit Division passed               In August 2012, SIGTARP’s Investigations Division passed
      its mandated external peer review with the highest rating        its mandated external peer review with the highest rating
      possible, a peer review rating of pass. Government Auditing      possible, a peer review rating of compliance with the quality
      Standards requires Federal Offices of Inspector General          standards established by CIGIE and the applicable Attorney
      that perform audits or attestations in accordance with           General guidelines.
      generally accepted government auditing standards to have an          The Department of Education Office of Inspector
      appropriate system of quality control and to undergo external    General (“DE OIG”) conducted a comprehensive peer review
      peer reviews at least once every three years. The SIGTARP        of the SIGTARP Investigations Division’s system of internal
      Audit Division began operating in early 2009, and this was its   safeguards and management procedures.
      first peer review.                                                   On August 29, 2012, the DE OIG’s report concluded that
          The Railroad Retirement Board Office of Inspector            SIGTARP’s system of internal safeguards and management
      General (“RRB OIG”) conducted a comprehensive peer               procedures for its investigative functions in effect for the
      review of the SIGTARP Audit Division’s system of quality         period ending May 2012 was in compliance with the quality
      control in accordance with Government Auditing Standards         standards established by CIGIE and the applicable Attorney
      and guidelines established by the Council of the Inspectors      General guidelines. These safeguards and procedures provide
      General on Integrity and Efficiency (“CIGIE”). On                reasonable assurance of conforming with professional
      September 4, 2012, the RRB OIG issued its System Review          standards in the planning, execution, and reporting of
      Report on the operations of SIGTARP’s Audit Division. The        SIGTARP’s investigations.
      report noted that “the system of quality control for SIGTARP         The report is available on SIGTARP’s website at
      in effect for the year ended March 31, 2012, has been            www.SIGTARP.gov, under “Audit and Other Reports.”
      suitably designed and complied with to provide SIGTARP
      with reasonable assurance of performing and reporting in
      conformity with applicable professional standards in all
      material respects.”
          The report is available on SIGTARP’s website at
      www.SIGTARP.gov, under “Audit and Other Reports.”
    ORGANIZATIONAL CHART

                                                                                                                                 Special Inspector General
                                                                                                                                     Christy Romero

                                                                                                                                                                                                  EEO Program
                                                                                                                                                                                                    Manager
                                                                                                                                                                                                 Raymond Campbell
                                                                                                                                       Deputy Special
                                                                                                                                     Inspector General
                                                                                                                                         Peggy Ellen
                                                                         Senior Policy Advisor                                                                                Chief of Staff
                                                                              Brian Sano                                                                                           Vacant


                          Deputy SIG –                 Deputy SIG –                          Deputy SIG –                              Deputy SIG –                              Deputy                     Deputy SIG –
                         Investigations                 Reporting                             Legal and                                 Audit and                             Chief of Staff                 Operations
                         Scott Rebein                    Mia Levine                         External Affairs                           Evaluations
                                                                                                                                                                              Charles Jones                   Cathy Alix
                                                                                           Roderick Fillinger                              Vacant


 Chief Investigative       Assistant                   Managing Editor                         Assistant                                  Assistant              Director of Policy     ADSIG − Support       ADSIG − HR     ADSIG − CIO      ADSIG − CFO
      Counsel              Deputy SIG                                                                                                    Deputy SIG
                                                                                              Deputy SIG                                                        and Administration         Services
                                                      Maryann Haggerty                                                                                                                                         Sally Ruble   Sangeeta Saraf   Deborah Mathis
    Kevin Gerrity       Charles Gregorski                                                                                            Bruce Gimbel (Acting)          Judith Grady         Lynn Perkoski
                                                                                              Lori Wagner


   Assistant Chief        Investigative
Investigative Counsel      Operations
     Rae Oliver                                                               Director of                 Director of
                                                                            Communications             Legislative Affairs
                                                                              Troy Gravitt             Joseph Cwiklinski
Investigative Counsel       HQ Operations



                                Hotline
                                                                                                                   Director                Director               Director
                                                                                                                Leslye Burgess           Craig Meklir            Eric Mader
                         Computer Forensics


                                                                                                            Auditors & Analysts      Auditors & Analysts     Auditors & Analysts
                                                                                                                                                                                                                                                               ORGANIZATIONAL CHART I APPENDIX L I OCTOBER 29, 2013




       Note: SIGTARP Organizational chart as of 9/30/2013.
                                                                                                                                                                                                                                                               373
SIGTARP
SIG-QR-13-04

202.622.1419
Hotline: 877.SIG.2009
SIGTARP@treasury.gov
www.SIGTARP.gov
